<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2016 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-204, Part 1]
[From the U.S. Government Publishing Office]






                                                 S. Hrg. 114-204, Pt. 1

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1376

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2016 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 1

                  DEPARTMENT OF DEFENSE BUDGET POSTURE
                              NAVY POSTURE
            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND
                      ARMY AND AIR FORCE POSTURES
  U.S. STRATEGIC COMMAND, U.S. TRANSPORTATION COMMAND, AND U.S. CYBER 
                                COMMAND
 U.S. CENTRAL COMMAND, U.S. AFRICA COMMAND AND U.S. SPECIAL OPERATIONS 
                      COMMAND PROGRAMS AND BUDGET
               U.S. PACIFIC COMMAND AND U.S. FORCES KOREA
               U.S. EUROPEAN COMMAND PROGRAMS AND BUDGET

                               ----------                              

            MARCH 3, 10, 12, 18, 19, 26; APRIL 16, 30, 2015




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
 
  
  
  
  
  
  
  
  
  Printed for the use of the Committee on Armed Services



















                                                 S. Hrg. 114-204, Pt. 1

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1376

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2016 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 1

                  DEPARTMENT OF DEFENSE BUDGET POSTURE
                              NAVY POSTURE
            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND
                      ARMY AND AIR FORCE POSTURES
  U.S. STRATEGIC COMMAND, U.S. TRANSPORTATION COMMAND, AND U.S. CYBER 
                                COMMAND
 U.S. CENTRAL COMMAND, U.S. AFRICA COMMAND AND U.S. SPECIAL OPERATIONS 
                      COMMAND PROGRAMS AND BUDGET
               U.S. PACIFIC COMMAND AND U.S. FORCES KOREA
               U.S. EUROPEAN COMMAND PROGRAMS AND BUDGET

                               __________

            MARCH 3, 10, 12, 18, 19, 26; APRIL 16, 30, 2015

                               __________

         Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available via the World Wide Web: http://www.fdsys.gov/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-397 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)




















  
                            C O N T E N T S

                              ----------                              

                             march 3, 2015

                                                                   Page

Department of Defense Budget Posture.............................     1

Carter, Hon. Ashton B., Secretary of Defense; Accompanied by Hon. 
  Mike McCord, Under Secretary of Defense (Comptroller) and Chief 
  Financial Officer..............................................     5
Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff.....    22

Questions for the Record.........................................    72

                             march 10, 2015

Navy Posture.....................................................   109

Mabus, Hon. Raymond E., Jr., Secretary of the Navy...............   113
Dunford, Gen. Joseph F., Jr., USMC, Commandant of the Marine 
  Corps..........................................................   132
Greenert, ADM Jonathan W., USN, Chief of Naval Operations........   145

Questions for the Record.........................................   200

                             march 12, 2015

U.S. Northern Command and U.S. Southern Command..................   239

Gortney, ADM William E., USN, Commander, U.S. Northern Command, 
  and Commander, North American Aerospace Defense Command........   242
Kelly, Gen. John F., USMC, Commander, U.S. Southern Command......   244

                             march 18, 2014

Postures of the Department of The Army and the Department of The 
  Air Force......................................................   279

McHugh, Hon. John M., Secretary of the Army......................   283
James, Hon. Deborah Lee, Secretary of the Air Force..............   300
Odierno, Gen. Raymond T., USA, Chief of Staff of the Army........   308
Welsh, Gen. Mark A., III, USAF, Chief of Staff of the Air Force..   310

Questions for the Record.........................................   349

                             march 19, 2015

U.S. Strategic Command, U.S. Transportation Command, and U.S. 
  Cyber Command..................................................   387

Haney, ADM Cecil D., USN, Commander, U.S. Strategic Command......   390
Selva, Gen. Paul J., USAF, Commander, U.S. Transportation Command   401
Rogers, ADM Michael S., USN, Commander, U.S. Cyber Command/
  Director, National Security Agency/Chief, Central Security 
  Services.......................................................   412

Questions for the Record.........................................   437

                             march 26, 2015

U.S. Central Command, U.S. Africa Command and U.S. Special 
  Operations Command Programs and Budget.........................   543

Votel, GEN Joseph L., USA, Commander, U.S. Special Operations 
  Command........................................................   547
Rodriguez, GEN David M., USA, Commander, U.S. Africa Command.....   556
Austin, GEN Lloyd J., III, USA, Commander, U.S. Central Command..   566

Questions for the Record.........................................   614

                             april 16, 2015

U.S. Pacific Command and U.S. Forces Korea.......................   621

Locklear, ADM Samuel J., III, USN, Commander, U.S. Pacific 
  Command........................................................   624
Scaparrotti, GEN Curtis M., USA, Commander, United Nations 
  Command/Combined Forces Command/U.S. Forces Korea..............   639

Questions for the Record.........................................   679

                             april 30, 2015

U.S. European Command Programs and Budget........................   687

Breedlove, Gen. Philip M., USAF, Commander, U.S. European 
  Command/Supreme Allied Commander, Europe.......................   691

Questions for the Record.........................................   737

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MARCH 3, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                  DEPARTMENT OF DEFENSE BUDGET POSTURE

    The committee met, pursuant to notice, at 2:43 p.m. in room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Lee, 
Graham, Reed, Nelson, Manchin, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good afternoon. I want to apologize for 
keeping you waiting, Secretary Carter and General Dempsey and 
Secretary McCord. We had a vote, and members will be arriving.
    The committee meets today to receive testimony on the 
Department of Defense's fiscal year 2016 budget request, the 
associated Future Years Defense Programs (FYDP), and the 
posture of U.S. Armed Forces.
    Let me start by thanking each of you for your service to 
our Nation and to the soldiers, sailors, airmen, and marines 
here at home and in harm's way around the globe, and to their 
families.
    Over just the past 6 weeks, this committee has undertaken a 
serious and rigorous review of the present global challenges we 
face, as well a review of the U.S. National Security Strategy.
    We have received testimony from some of America's most 
experienced statesmen and leading strategic thinkers. A unified 
and alarming assessment has emerged from these national 
leaders.
    As former Secretary of State Dr. Henry Kissinger testified 
on January 29, ``The United States has not faced a more diverse 
and complex array of crises since the end of the Second World 
War.''
    Given the accumulating dangers we face, it is notable that 
the President supported the Department of Defense in requesting 
a level of defense spending that is roughly $38 billion above 
the caps imposed by the Budget Control Act [BCA] and 
sequestration, which mandates nearly $1 trillion in defense 
cuts over 10 years. In light of recent events, I think this 
approach was more than justified.
    With each passing year since the BCA was enacted in 2011, 
and with the United States slashing its defense spending as a 
result, the world has become more dangerous and threats to our 
Nation have grown. I don't think that is purely a coincidence.
    The President's budget request responds to many critical 
priorities, particularly addressing cyber and space 
vulnerabilities, military readiness shortfalls, and essential 
long-term modernization initiatives.
    At the same time, the President's request reflects budget-
driven policy decisions that would reduce some critical 
military capabilities, either through the early retirement or 
cancellation of existing systems, deferred development or 
procurement of new systems, or withheld funding for proven 
requirements.
    This committee will closely scrutinize these decisions and 
seek to meet urgent and legitimate military needs, where 
possible.
    As for meeting our growing national security requirements, 
General Martin Dempsey's prepared testimony this afternoon 
states that the President's request is ``at the lower ragged 
edge of manageable risk'' and leaves ``no slack, no margin left 
for error or strategic surprise.''
    I would go further. I question whether the Defense 
Department's current strategy, which was released in January 
2012, has not been overtaken by world events, which would 
suggest the need for new strategic guidance and even more 
defense spending than the President's request.
    Just consider the events of the past year alone. Russia has 
challenged core principles of the postwar order in Europe by 
invading and annexing the territory of another sovereign 
Nation. A terrorist army that has proclaimed its desire to 
attack America and its allies now controls a vast swath of 
territory in the heart of the Middle East. Iran continues its 
pursuit of nuclear weapons while expanding its malign influence 
across the region. North Korea mounted the most brazen 
cyberattack ever on our territory. China has stepped up its 
coercive behavior in Asia, backed by its rapid military 
modernization.
    The findings of last year's National Defense Panel cast 
serious doubt on whether our military can fulfill even the 
current strategy at acceptable risk. This bipartisan group of 
military commanders and policymakers stated that the defense 
spending cuts imposed by the BCA and sequestration ``constitute 
a serious strategic misstep.'' More ominously, the Panel 
concluded that, ``In the extreme, the United States could find 
itself in a position where it must either abandon an important 
national interest or enter a conflict for which it is not fully 
prepared.''
    Based on its findings, the National Defense Panel 
recommended unanimously that Congress and the President 
immediately repeal the BCA and return, at a minimum, to the 
last strategy-driven budget proposed by former Secretary of 
Defense Robert Gates in 2011. That would mean $611 billion for 
the discretionary base budget for the Defense Department in 
fiscal year 2016.
    But here, too, I would note that the world has changed 
significantly since 2011, and this recommendation is more 
likely a floor, not a ceiling, of what we as a Nation should be 
considering for our own defense.
    While Senator Reed and I support the National Defense 
Panel's recommendations, we recognize that $611 billion for 
defense is neither realistic in the current political 
environment, nor is it likely that the department could 
responsibly execute this funding in fiscal year 2016. That is 
why Senator Reed and I came together in the Views and Estimates 
letter that we sent last week to the Budget Committee to 
propose an objective that, I hope, could be a new basis for 
bipartisan unity: ending sequestration for defense by 
allocating $577 billion in discretionary base budget authority 
for fiscal year 2016.
    I recognize there are differences of opinion over broader 
fiscal questions, especially how to approach nondefense 
discretionary spending, but continuing to live with the 
unacceptable effects of sequestration is a choice.
    Sequestration is the law, but Congress makes the laws. We 
can choose to end the debilitating effects of sequestration, 
and we must, because at sequestration levels, it is impossible 
to meet our constitutional responsibility to provide for our 
National defense.
    We look forward to the witnesses' testimony today and hope 
that they will cover a broad spectrum of the policy and 
resource issues the department confronts. I would also ask our 
witnesses to share their views on the current situations in 
Ukraine, Syria, and Iraq.
    I want to thank Senator Reed for his continued bipartisan 
cooperation that has characterized our relationship for many 
years, especially on this joint letter to the Budget Committee. 
I thank you.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman. Let me join you in 
welcoming Secretary Carter, Chairman Dempsey, and Mr. McCord.
    Gentlemen, I appreciate your willingness to be here today 
to talk about the President's fiscal year 2016 budget request, 
which the Chairman has noted is $38 billion above the Budget 
Control Act discretionary funding caps. But also as the 
Chairman noted, these BCA caps, coupled with the imminent 
threat of sequestration level cuts and the lack of budget 
stability necessary for military planning, create an urgent and 
growing strategic problem that we simply must address.
    Indeed, in my view, it creates a problem for every Federal 
agency and department. I think sequestration, across-the-board, 
must be ended.
    On January 28, this committee heard stark testimony from 
each of the service chiefs about the impact of reduced funding 
levels. All of the Services are working hard to maintain near-
term readiness to meet the ``fight tonight'' requirement, but 
only by assuming increased risk in the form of cuts and delays 
to training, maintenance, modernization, and infrastructure 
sustainment, and by curtailing quality-of-life programs.
    As Air Force Chief of Staff General Welsh eloquently 
stated, ``When the bugle calls, we will win. But the 
vulnerabilities sequestration introduces into our forces will 
encourage our adversaries, worry our allies, limit the number 
of concurrent operations we can conduct, and increase risk to 
the men and women who fight America's next war.''
    The Services, the men and women in uniform, are the 
backbone of our Nation's defense, and they are under great 
strain. I am, certainly, interested in the witnesses' testimony 
on how the Department of Defense will continue to manage this 
problem while a solution is not yet on the horizon.
    If you do not get the $38 billion over the BCA, that is the 
President's request--again, Senator McCain and I are urging 
even more--what must be cut? If sequestration is not avoided, 
what else must be cut? What is your timetable for beginning to 
implement these cuts?
    As I stated earlier, the services are focused on near-term 
readiness, and they need to be, because they are actively 
engaged around the world, fighting significant challenges to 
U.S. national security interests.
    In Afghanistan, the commanding general of United States 
Forces, General Campbell, believes he has the resources and 
authorities he needs for the 2015 fighting season, but the 
Taliban remain resilient despite coming under pressure on both 
sides of the Afghanistan-Pakistan border.
    Operations against ISIS in Iraq and Syria continue at a 
pace that appears to be rolling back their territorial gains of 
last year and providing the time and space needed for advise-
and-assist programs. But this critical campaign must continue 
unabated if it is going to be successful against such a 
dangerous enemy. The fight will be harder, each and every day, 
especially as Iraqi forces try to enter urban centers like 
Mosul.
    In Europe, the post-Cold War international order is under 
threat from a Russia that seeks to dominate Ukraine and 
intimidate its other neighbors, including by conducting 
increasingly aggressive military activities both within and 
outside its borders. Turmoil in Yemen and Libya provide safe 
havens for terrorists and must be closely watched. China's 
actions continue to make its neighbors uneasy.
    Meeting all of these threats requires ready troops and 
adequate funding, and I am interested in the witnesses' views 
on how you are prioritizing this funding.
    In addition to ongoing operations, there are emerging 
threats, which will require immediate and significant 
investments.
    The recent cyberattack on Sony by North Korea illustrates 
that even a relatively small and weak rogue nation can cause 
extensive damage to United States-based economic targets 
through cyberspace. The United States must work to counter this 
threat.
    In addition, I also understand that efforts are now 
underway to protect our space assets from hostile acts, an 
equally serious asymmetric threat and one that will require 
substantial funding.
    In focusing on emerging threats, we cannot disregard the 
significant funding necessary for the maintenance and 
modernization of our nuclear enterprise, including the Ohio-
class replacement submarine.
    I am interested in hearing how the Department will balance 
new threats with legacy programs. Clearly, the department has 
many bills to pay, and they cannot do it without the help of 
Congress.
    Military personnel costs consume approximately a third of 
the Department's budget. The department has once again 
submitted several proposals aimed at slowing the growth of 
military personnel costs. This committee must carefully 
consider these proposals, as well as the recommendations of the 
Military Compensation and Retirement Modernization Commission, 
in order to provide the Defense Department with flexibility in 
these areas.
    With regard to BRAC, I understand the department is again 
requesting an additional base realignment and closure, or BRAC, 
round in 2017. While BRAC has been controversial in the past, I 
do believe that we need to consider efforts to allow the 
Defense Department to shed what may be as much as 25 percent in 
excess infrastructure it does not necessarily need, and use 
these resources to invest in higher priorities.
    Again, I would appreciate your views on this matter.
    While the focus today is on the defense budget, the 
Pentagon simply cannot meet all these national security 
challenges without the help of other government departments and 
agencies, including State, Justice, Homeland Security, and the 
Intelligence Community.
    So, again, I would ask, as you speak, to comment on the 
interagency necessities that are facing the department.
    Let me commend all our witnesses for working hard. Let me 
commend the Chairman for his efforts, particularly in leading 
our mutual letter to the Budget Committee.
    I look forward to your testimony.
    Chairman McCain. Secretary Carter?

   STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE; 
  ACCOMPANIED BY HON. MIKE McCORD, UNDER SECRETARY OF DEFENSE 
           (COMPTROLLER) AND CHIEF FINANCIAL OFFICER

    Secretary Carter. Thank you, Mr. Chairman, Ranking Member 
Reed, all the members of the committee. Thank you for inviting 
me to be here today with you, and thank you for confirming me 
as Secretary of Defense. I am honored by the trust and 
confidence of President Obama in appointing me, and the Senate 
in confirming me.
    My care and respect for the men and women of the finest 
fighting force the world has ever known is as boundless as 
their skill and devotion. I know this committee shares the same 
devotion to them and shares responsibility for them and for the 
defense of our great country. I hope that my tenure as 
Secretary of Defense will be marked by partnership with you on 
their behalf.
    I am here to present the President's budget for the 
Department of Defense for fiscal year 2016. Since I have been 
on the job for exactly two weeks, it is plain that I did not 
have a role in shaping this budget. But I have studied it 
carefully, and I am fully prepared to answer your questions 
about it and to work with you to find common ground where you 
have concerns.
    Most importantly, I strongly support the President in 
requesting a defense budget above the artificial caps of the 
Budget Control Act, above the so-called sequester levels, next 
year and in the years thereafter. I share the President's 
desire to find a way forward that upholds the fundamental 
principles behind the Bipartisan Budget Act of 2013, and I 
support the President's commitment to vetoing any bill that 
locks in sequestration, because to do otherwise would be both 
unsafe and wasteful.
    Before I turn to the budget to explain what I mean by that, 
allow me to share some observations from my short time on the 
job, observations that help reinforce my testimony here. 
Shortly after I was sworn in, I spoke to the people of the 
Department of Defense--military, civilian, and contractor--and 
told them I had three commitments as Secretary of Defense.
    The first is to them and their families, to their safety, 
their welfare, and their effectiveness, and equally to those 
who came before them and to those who will come after them.
    The second commitment is to assist the President as he 
makes difficult decisions about how to defend the country in a 
turbulent world, and then to carry out those decisions where 
they involve the use of military force.
    The third commitment is to the future, to make sure our 
military remains the very best in an ever-changing world amidst 
fast-moving technological and commercial change, and as we seek 
to attract new generations to the mission of national security.
    Because of those commitments, I traveled at the end of my 
first week on the job to Afghanistan to visit our troops and 
commanders, and also the leaders of Afghanistan and some of 
their military leaders. I wanted to assess the conditions on 
the ground there as we enter a new phase of our long campaign 
and as we carry out the transition to an enduring presence that 
will ensure, as the President says, our progress in Afghanistan 
sticks.
    Next, I traveled to Kuwait, where I met with the emir 
before convening senior American diplomats and military leaders 
from throughout the region; Ambassadors from several countries; 
our commanders from CENTCOM [United States Central Command], 
EUCOM [United States European Command], AFRICOM [United States 
Africa Command], and SOCOM [United States Special Operations 
Command]; and the commanders of the campaign in Iraq and Syria 
against ISIL [the Islamic State of Syria and the Levant]. I 
wanted to hear directly from them about the complex political 
and military situation in the region and about the best 
approaches to leveraging U.S. leadership of the broad coalition 
combating this ugly scourge. This afternoon, I would be pleased 
to discuss these challenges or any others--the Chairman 
mentioned Ukraine--in addition to the budget.
    The point is that in these regions of the world, just as in 
the Asia-Pacific, in Europe and elsewhere, it is America's 
leadership and America's men and women in uniform who 
frequently stand between order and disorder, who stand up to 
malicious and destabilizing actors while standing with those 
who believe with us in a more secure, just, and prosperous 
future for all of our children.
    But this Congress will determine whether our troops can 
continue to do so. The administration is proposing to increase 
the defense budget in line with the projection submitted to 
Congress last year. By halting the decline in defense spending 
imposed by the Budget Control Act, the President's budget would 
give us the resources we need to execute our Nation's defense 
strategy.
    But, and I want to be clear about this, under 
sequestration, which is set to return in 212 days, our Nation 
would be less secure.
    Mr. Chairman, as you yourself have reminded Congress, 
sequestration threatens our military readiness, the size of our 
warfighting forces, the capabilities of our air and naval 
fleets, and, ultimately, the lives of our men and women in 
uniform.
    The Joint Chiefs have said the same before this committee, 
and they could not have been more clear in their assessment of 
the damage sequestration would do to our National security.
    I want to commend you and thank you, Mr. Chairman, Ranking 
Member Reed, for your very thoughtful letter to the leadership 
of the Senate Budget Committee about the dangers the 
sequestration, and I completely agree with you that the threat 
of sequestration is, as you said, ``a national security crisis 
of the first order.''
    The great tragedy is that this corrosive damage to our 
National security is not the result of objective factors, 
logic, or reason. It is not that we have some new breakthrough 
in military technology or some novel strategic insight that 
somehow provides the same security for a smaller budget. It is 
not that sequester is forced upon us by economic emergency or 
dire recession that makes taking grave security risks 
absolutely necessary. It is surely not the case that the world 
has suddenly become more stable or that America has less to do 
to keep it safe, allowing us to take a peace dividend. It is 
not even that these cuts solve the Nation's overall fiscal 
challenges, because the sad math is that they are large and 
sudden enough to damage defense but fail to resolve our long-
term fiscal issues and the real drivers of the deficit and 
debt.
    Sequester was not the result of objective factors. 
Sequester is purely the fallout of political gridlock. Its 
purpose was to compel prudent compromise on our long-term 
fiscal challenges, compromise that never came. This has been 
compounded in recent years because the Defense Department has 
suffered a double whammy, the worst of both worlds, that has 
coupled mindless sequestration with constraints on our ability 
to reform.
    We need your help with both. I know that Chairman McCain, 
Senator Reed, and others on this committee are as committed to 
reform as I am, and I look forward to working with you on new 
reforms.
    We at the Pentagon can and must do better at getting value 
for the defense dollar. Taxpayers have trouble comprehending, 
let alone supporting, the defense budget when they hear about 
cost overruns, insufficient accounting and accountability, 
needless overhead, excess infrastructure, and the like.
    There are significant savings to be found through new 
reforms across DOD [the Department of Defense], reforms that we 
are committed to pursuing. But sequester cuts don't help us 
achieve any of them. In fact, the nature of sequester 
frequently leads to waste as, for example, when it forces a 
reduction in contract production rates driving up unit costs.
    But at the same time that I am committed to new and further 
reforms, I must note that, in the past several years, painful 
but necessary reforms proposed by DOD, reforms involving 
elimination of overhead and unneeded infrastructure, retirement 
of older force structure, and reasonable adjustments and 
compensation, have been denied by Congress.
    I need your help with these reforms, which have been 
frustrated at the same time sequester looms and at the same 
time as we make new reforms. I will work with Congress to 
resolve concerns and find common ground, but we must have your 
help.
    If confronted with sequester-level budgets and continued 
obstacles to reform, I do not believe that we can simply keep 
making incremental cuts while maintaining the same general set 
of objectives that have anchored our defense strategy. We would 
have to change the shape and not just the size of our military, 
significantly impacting parts of our defense strategy. We 
cannot meet sequester with further half measures.
    As Secretary of Defense, I will not send our troops into a 
fight with outdated equipment, inadequate readiness, or 
ineffective doctrine. But everything else is on the table, 
including parts of our budget that have long been considered 
inviolate.
    This may lead to decisions that no Americans, including 
Members of Congress, want us to make.
    I'm not afraid to ask the difficult questions, but if we 
are stuck with sequestration's budget cuts over the long term, 
our entire Nation will have to live with the answers.
    So instead of sequestration, I urge you to urge your 
colleagues to embrace the alternative: building the force of 
the future powerful enough to underwrite our strategy, equipped 
with boldly new technology; leading in domains like cyber and 
space, as the Chairman and Senator Reed said; attracting and 
retaining the best Americans to our mission; being lean and 
efficient throughout our enterprise; and showing resolve to 
friends and potential foes alike.
    I think we can all agree that the world in 2014 was more 
complicated than anyone could've predicted. Given today's 
security environment, the President's proposed increase in 
defense spending over last year's budget is responsible, and 
it's prudent.
    I earnestly hope we can come together behind a long-term 
budget approach that dispels sequester and provides stability, 
rather than doing this one year at a time.
    I hope we can again unite behind what our great Nation 
should and must do to protect our people and make a better 
world. I hope we can provide our magnificent men and women of 
the Department of Defense, who make up the greatest fighting 
force the world has ever known, what they need and what they 
fully deserve.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Secretary Carter follows:]

                 Prepared Statement by Hon. Ash Carter
    Chairman McCain, Ranking Member Reed, members of the committee: 
thank you for confirming me as Secretary of Defense, and for inviting 
me here today to discuss the President's fiscal year 2016 budget 
request for the Department of Defense (DOD). Oversight is key to our 
system of government. I not only welcome your wisdom and experience; I 
also want your partnership, and need your help.
    I also want to thank Chairman Dempsey for his leadership, as well 
as Deputy Secretary Work and Vice Chairman Winnefeld, in particular for 
all their hard work over the past year in helping develop the budget 
request we will be discussing today.
                      i. introduction and strategy
    Since I last appeared before this committee, I had the opportunity 
to see our troops in Afghanistan and Kuwait. Hearing from them was one 
of my highest priorities upon taking office.
    In Afghanistan, our soldiers, sailors, airmen, and marines are 
helping cement progress made toward a more secure, stable, and 
prosperous future, by training, advising, and assisting Afghan forces 
and continuing their counterterrorism mission. They are working to 
ensure that Afghanistan never again becomes a safe haven for attacks on 
our homeland, or on our partners and allies.
    In Kuwait, our men and women in uniform are contributing to our 
counter-ISIL coalition in Iraq and Syria. They are working closely with 
Iraq and our global coalition partners to ensure that local forces can 
deliver lasting defeat to a vile enemy that has barbarically murdered 
American citizens, Iraqis, Syrians, and so many others, and that seeks 
to export its hateful and twisted ideology across the Middle East and 
North Africa, and beyond.
    No doubt the challenges and opportunities we face extend well 
beyond the Middle East.
    In Europe, our troops are helping reinforce and reassure our allies 
in Eastern Europe as we confront a reversion to archaic security 
thinking.
    In the Asia-Pacific--home to half the world's population and 
economy--they are working to modernize our alliances, build new 
partnerships, and helping the United States continue to underwrite 
stability, peace, and prosperity in the region--as we have for decades.
    As we still meet longtime challenges, such as the continuing 
imperative to counter the spread of weapons of mass destruction, our 
Armed Forces are also addressing new dangers, such as in cyberspace.
    Across the world, it is America's leadership, and America's men and 
women in uniform, who often stand between disorder and order--who stand 
up to malicious and destabilizing actors, while standing behind those 
who believe in a more secure, just, and prosperous future.
    Mr. Chairman, this committee and this Congress will determine 
whether our troops can continue to do so--whether they can continue to 
defend our Nation's interests around the world with the readiness, 
capability, and excellence our Nation has grown accustomed to, and 
sometimes taken for granted.
    Halting and reversing the decline in defense spending imposed by 
the Budget Control Act, the President's budget would give us the 
resources we need to execute our Nation's defense strategy.
    It would ensure we field a modern, ready force in a balanced way, 
while also embracing change and reform, because asking for more 
taxpayer dollars requires we hold up our end of the bargain--by 
ensuring that every dollar is well-spent.
    The President is proposing to increase the defense budget in fiscal 
year 2016, but in line with the projection he submitted to Congress 
last year in the fiscal year 2015 budget's Future Years Defense Program 
(FYDP). The department is executing the plan it presented last year. 
Accordingly, for fiscal year 2016, the President is proposing $534 
billion for DOD's base budget and $51 billion in Overseas Contingency 
Operations (OCO), totaling $585 billion to sustain America's national 
security and defense strategies.
    The Defense Department needs your support for this budget, which is 
driven by strategy, not the other way around. More specifically, it is 
driven by the defense strategy identified in the 2014 Quadrennial 
Defense Review, which reflects the longtime, bipartisan consensus that 
our military must protect the Homeland, build security globally, and 
project power and win decisively. We do so in line with our 
longstanding tradition of maintaining a superior force with an 
unmatched technological edge, working in close partnership with friends 
and allies, upholding the rules-based international order, and keeping 
our commitments to the people who make up the All-Volunteer Force.
    Our defense budget's priorities line up with our strategic 
priorities: sustaining America's global leadership by:

        <bullet>  rebalancing to the Asia-Pacific region;
        <bullet>  maintaining a strong commitment to security and 
        stability in Europe and the Middle East;
        <bullet>  sustaining a global counterterrorism campaign;
        <bullet>  strengthening key alliances and partnerships; and,
        <bullet>  prioritizing key modernization efforts. This budget 
        ensures we can execute our defense strategy with manageable 
        risk, even as it does require us to accept elevated risk in 
        some areas.

    But--and I want to be clear about this--parts of our Nation's 
defense strategy cannot be executed under sequestration, which remains 
the law of the land and is set to return 212 days from today.
    As I have said before, the prospect of sequestration's serious 
damage to our national security and economy is tragically not a result 
of an economic emergency or recession.
    It is not because these budget cuts are a mathematical solution to 
the Nation's overall fiscal challenge--they are not.
    It is not because paths of curbing nondiscretionary spending and 
reforming our tax system have been explored and exhausted--they have 
not.
    It is not due to a breakthrough in military technology or a new 
strategic insight that somehow makes continued defense spending 
unnecessary--there has been no such silver bullet.
    It is not because the world has suddenly become more peaceful--for 
it is abundantly clear that it has not.
    Instead, sequestration is purely the collateral damage of political 
gridlock. Friends and potential enemies around the world are watching.
    We in DOD are prepared to make difficult strategic and budgetary 
choices. We are also committed--more than ever before--to finding new 
ways to improve the way we do business and be more efficient and 
accountable in our defense spending.
    But in order to ensure our military remains the world's finest 
fighting force, we need to banish the clouds of fiscal uncertainty that 
have obscured our plans and forced inefficient choices. We need a long-
term restoration of normal budgeting and a deal that the President can 
sign, and that lives up to our responsibility of defending this country 
and the global order. That means, among other things, avoiding 
sequestration.
    To be sure, even under sequestration, America will remain the 
world's strongest military power. But under sequestration, our 
military--and our national security--would have to take on 
irresponsible and unnecessary risk--risk that previous administrations 
and congressional leaders have wisely chosen to avoid.
    Sequestration would lead over time to a military that looks 
fundamentally different and performs much differently than what we are 
used to. Not only as Secretary of Defense, but simply as an American, I 
deeply, earnestly hope we can avert that future. I am committed to 
working with the members of this committee, and your colleagues 
throughout the Congress to prevent it.
    I know how proud you and all Americans are that we field the finest 
fighting force in the world. But our military superiority was not 
built, and will not be sustained, by resting on our laurels. So instead 
of resigning ourselves to having the diminished military that 
sequestration would give us, I propose that we build the force of the 
future, together.
                  ii. building the force of the future
    Assuming the Congress funds the President's fiscal year 2016 budget 
and averts sequestration, we have the opportunity to build the force of 
the future. We have inherited a long tradition of military excellence 
from those who came before us, and we must preserve it for those who 
will come after.
    But to do so, DOD must embrace the future--and embrace change--
throughout our institution. We must be open to new ideas and new ways 
of doing business that can help us operate more efficiently and perform 
more effectively in an increasingly dynamic and competitive 
environment.
What DOD Needs To Do
    As DOD counters the very real dangers we face in the world, we will 
also grab hold of the bright opportunities before us--opportunities to 
be more competitive and reforge our Nation's military and defense 
establishment into a future force that harnesses and develops the 
latest, cutting-edge technology, and that remains superior to any 
potential adversary; one that is efficient and accountable to the 
taxpayers who support it; and one that competes and succeeds in 
attracting the next generation of talented Americans to fill its ranks.
    These are the three main pillars on which DOD will build the force 
of the future.
    Competitiveness through Technological and Operational Superiority
    As other nations pursue comprehensive military modernization 
programs and develop technologies designed to blunt our military's 
traditional advantages, the first pillar of our future force must be 
ensuring that we maintain--and extend--our technological edge over any 
potential adversary.
    The President's fiscal year 2016 budget includes targeted 
investments in modernized space, cyber, and missile defense 
capabilities geared toward countering emerging threats that could upend 
our technological superiority and our ability to project power. DOD 
would look forward to providing a full account of our proposed 
modernization investments, and the threats that compel them, in a 
classified setting.
    The budget also supports the Defense Innovation Initiative, which 
will help ensure the military continues to ride the leading edge of 
innovation, and makes deferred modernization investments that will 
ensure America's nuclear deterrent remains safe, secure, and effective. 
Across all these efforts, we must be open to global, commercial 
technology as well, and learn from advances in the private sector.
    Because we know that technology alone--however advanced--cannot 
sustain our military's superiority, just as important is a ruthless 
focus on operational excellence. This means using our existing forces 
and capabilities in new, creative, and fiscally prudent ways to achieve 
our objectives. This also means working to develop more innovative and 
effective strategic and military options for the President, introducing 
a new and more rapidly responsive global force management model, 
developing new operational concepts, and reforming and updating all our 
operational plans.
    Competitiveness through Accountability and Efficiency
    The second pillar of building the force of the future requires 
redoubling our efforts to make DOD more accountable and efficient. We 
live in a competitive world and need to be a competitive organization. 
If we don't lean ourselves out and maintain our fighting weight, we 
have no business asking our fellow citizens for more resources.
    As I made clear in my confirmation hearing, I cannot suggest 
greater support and stability for the defense budget without at the 
same time frankly noting that not every defense dollar is always spent 
as well as it should be.
    American taxpayers rightly have trouble comprehending--let alone 
supporting--the defense budget when they read of cost overruns, lack of 
accounting and accountability, needless overhead, and the like.
    If we're asking taxpayers to not only give us half a trillion of 
their hard-earned dollars, but also give us more than we got last year, 
we have to demonstrate that we can be responsible with it.
    We must do all we can to spend their money more wisely and more 
responsibly. We must reduce overhead, and we must curb wasteful 
spending practices wherever they are.
    DOD has sought to continuously improve our acquisition processes 
over the past 5 years, and I am proud myself to have been a part of 
that effort. Today, I am recommitting the Defense Department to working 
both with Congress, and on our own, to find new and more creative ways 
of stretching our defense dollars to give our troops the weapons and 
equipment they need.
    The department's Better Buying Power initiative is now on its third 
iteration since I established it in 2010, with Better Buying Power 3.0 
focused on achieving dominant capabilities through technical 
excellence. I know well and very much appreciate the strong support for 
acquisition reform demonstrated by the Senate and House Armed Services 
Committees, and their chairmen, and I share their deep desire to 
achieve real, lasting results that benefit both America's security and 
taxpayers.
    DOD is working closely with committee members and staff on ways to 
eliminate some of the burdensome and duplicative administrative 
requirements levied on our program managers. To that end, the 
President's fiscal year 2016 budget submission includes a number of 
legislative proposals designed to help streamline the program oversight 
process. We look forward to continuing our close partnership with 
Congress to see these measures implemented.
    As we sustain our focus on acquisition reform, I believe that DOD 
must concurrently undertake a wholesale review of our business 
practices and management systems.
    Our goal is to identify where we can further reduce the cost of 
doing business to free up funding for readiness and modernization--
ensuring that our energy, focus, and resources are devoted to 
supporting our frontline operations as much as possible.
    We intend to work closely with industry partners--who execute or 
enable many of our programs, logistics, training, administrative, and 
other functions--throughout this process, both to explore how they 
could help us accomplish our missions at reduced cost, and because they 
may have new and innovative ideas worth considering.
    Additionally, the Defense Department is pursuing creative force 
structure changes to be more agile and efficient--such as how we're 
modernizing our cruisers and restructuring Army aviation. We've 
established a new Defense POW/MIA Accounting Agency. Four previous 
rounds of efficiency and budget reduction initiatives have yielded 
approximately $78 billion in projected and actual savings in fiscal 
year 2016, helping to cushion our defense programs from successive 
years of budget cuts.
    We're also working hard to cut unnecessary overhead: from reducing 
management headquarters budgets by 20 percent across the department, to 
divesting excess bases and infrastructure.
    When DOD recently requested a round of domestic Base Realignment 
and Closure, Congress asked that we first pursue efficiencies in 
Europe. We did. DOD has approved and is pursuing a broad European 
Infrastructure Consolidation--which will result in some $500 million in 
annual recurring savings. We now need a round of domestic BRAC 
beginning in fiscal year 2017 to address excess infrastructure here at 
home.
    Simply put, we have more bases in more places than we need. We 
estimate DOD has about 25 percent more infrastructure capacity than 
necessary. We must be permitted to divest surplus infrastructure as we 
reduce and renew force structure. With projected recurring savings from 
a new BRAC round totaling some $2 billion a year, it would be 
irresponsible to cut tooth without also cutting tail.
    For base communities in question, it's important to remember that 
BRAC is often an opportunity to be seized. Communities have shown that 
BRAC is ultimately what you make of it, and there are plenty of places 
that have emerged from it stronger than they were before.
    Consider Lawrence, Indiana, which took advantage of Fort Harrison's 
closure in 1996 to create an enterprise zone, community college, 
recreational facilities, and commercial sites that in just 7 years not 
only replaced 100 percent of the jobs lost when the base closed, but 
created even more.
    Charleston, SC, stepped up when the Charleston Naval Complex closed 
in 1993, and now is home to more than 80 new industrial and Federal 
agency tenants. The former naval base is now producing millions of 
dollars' worth of goods that are exported to Europe, Africa, and the 
Middle East.
    At former Mather Air Force Base in Sacramento County, CA, the local 
redevelopment effort has invested $400 million and created more than 
6,500 jobs--over six times the number of jobs lost when the base closed 
in 1993. It's now home to scores of businesses, a mixture of private 
companies, government agencies, and non-profit organizations.
    These are just a few examples of what can happen when local 
leaders, communities, and businesses work together and take advantage 
of the opportunities for new jobs and new growth after BRAC.
    One more point on accountability: Whether we're improving 
acquisition or closing bases, it is not enough to simply tell taxpayers 
that we're spending their dollars responsibly. We have to also show 
them, which is why good cost accounting and financial auditability is 
so important to me.
    DOD has made significant progress over the past 5 years in adding 
more discipline to our business environment, but there is much work 
left to be done, and we remain fully committed to our current audit 
goals.
    Today, over 90 percent of DOD's current year, general fund 
budgetary resources are under some form of financial audit, with the 
Military Services all involved and following the model employed by the 
Marine Corps.
    We plan to submit every corner of DOD to this kind of audit regimen 
beginning in fiscal year 2016. With this foundation, the department 
will progressively expand the scope of these audits until all our 
organizations, funds, and financial statements will be under audit in 
fiscal year 2018, complying with Congress's statutory direction to be 
audit ready by the end of fiscal year 2017.
    There's a reason why auditing is a basic practice as ancient as the 
Domesday Book, and it is time that DOD finally lives up to its moral 
and legal obligation to be accountable to those who pay its bills. I 
intend to do everything we can--including holding people to account--to 
get this done.
    Competitiveness through Attracting Future Talent
    Third, but no less important, DOD must be competitive when it comes 
to attracting new generations of talented and dedicated Americans to 
our calling of defending the Nation.
    We know how the attacks of September 11th, 2001 motivated so many 
Americans to want to be part of this noble endeavor. Going forward, we 
must ensure our future force can continue to recruit the finest young 
men and women our country has to offer--military and civilian--like 
those who serve today.
    As we do this, we must be mindful that the next generation expects 
jobs that give them purpose, meaning, and dignity. They want to be able 
to make real contributions, have their voices heard, and gain valuable 
and transferable experience. We must shape the kind of force they want 
to be in. The battle for talent will demand enlightened and agile 
leaders, new training schemes, new educational opportunities, and new 
compensation approaches.
    DOD is already pursuing several initiatives that will help ensure 
the military is a compelling career option. In recent years, we've been 
expanding pilot programs that facilitate breaks in service that let our 
people gain diverse work experience. We've tailored our transition 
assistance program, Transition GPS, to better prepare servicemembers to 
enter the civilian workforce--providing different tracks for those who 
want to go to college, those who want skills training, and those who 
want to be entrepreneurs. We've put a renewed focus on military ethics 
and professionalism, as well as making sure our military health system 
is held to the same high-quality standards we expect from the 
servicemembers and military family members under its care.
    Because we know how important it is--both for today's 
servicemembers and the generation that will follow them--we're also 
deeply committed to creating an environment and culture where we live 
the values we defend and every servicemember is treated with the 
dignity and respect they deserve.
    That's why we're continuing to expand combat positions available to 
women--because everyone who's able and willing to serve their country 
should have full and equal opportunity to do so.
    It's why we're striving to eliminate sexual assault from the 
military.
    It's why we've been making sure gay and lesbian servicemembers can 
serve openly, and that their families receive the benefits their loved 
ones have earned.
    But for everything we're doing, DOD cannot build the force of the 
future by ourselves. We need Congress' help.
What We Need Congress To Do
    Since our current defense budget drawdown began several years ago, 
I've observed something of a phenomenon here in Washington.
    Along with our troops, their families, and our defense civilians, I 
thank our supporters on Capitol Hill, including most members of this 
committee, who have joined with us in trying to do everything possible 
to get Congress to prevent more mindless cuts to our defense budget.
    Unfortunately, these combined efforts have been unsuccessful in 
actually restoring adequate and predictable resources for DOD. We have 
had to endure deep cuts to readiness, weather pay freezes and civilian 
furloughs, and cut badly needed investments in modernization and 
critical technologies. At the same time, Congress has sometimes sought 
to protect programs that DOD has argued are no longer needed, or 
require significant reform.
    We have had the worst of both worlds--a double whammy of mindless 
sequestration coupled with inability to reform.
    As many of you know, it wasn't always this way.
    During the defense drawdown after the Cold War, DOD had much more 
flexibility thanks to the help of Congress. For example, we were able 
to resize the Army, retire the A-6 Intruder and many other weapons 
systems, and implement multiple BRAC rounds, which freed up dollars we 
re-allocated to keep our force structure ready, capable, and deployable 
around the world.
    I know some of the changes and reforms we're proposing may feel 
like a significant change from how we currently do business. But if 
anyone can understand how the dots connect and how we need Congress' 
help to be able to defend our country, our allies, and our interests in 
an increasingly dangerous world, it's you--the members of this 
committee.
    The fact is, if we're not able to implement the changes and reforms 
we need, we will be forced to make painful tradeoffs, even at the 
higher topline the President is requesting. We will lose further ground 
on modernization and readiness--leaving tomorrow's force less capable 
and leaving our Nation less secure. We will face significant hurdles to 
executing our Nation's defense strategy. That's why we need your help.
              iii. the president's fiscal year 2016 budget
    As we do every year when formulating our budget, this budget seeks 
to balance readiness, capability, and size--because we must ensure 
that, whatever the size of our force, we have the resources to provide 
every servicemember with the right training, the right equipment, the 
right compensation, and the right quality of fellow troops. That is the 
only way we can ensure our military is fully prepared to accomplish its 
missions.
    Almost two-thirds of DOD's fiscal year 2016 base budget--$348.4 
billion--funds our day-to-day expenses, similar to what a business 
would call its operating budget. This covers, among other expenses, the 
cost of fuel, spare parts, logistics support, maintenance, service 
contracts, and administration. It also includes pay and benefits for 
military and civilian personnel, which by themselves comprise nearly 
half of our total budget.
    The remaining third of our base budget--$185.9 billion--comprises 
investments in future defense needs, much like a business' capital 
improvement budget. It pays for the research, development, testing, 
evaluation, and ultimately acquisition of the weapons, equipment, and 
facilities that our servicemembers need.
    Broken down differently, our base budget includes the following 
categories:

        <bullet>  Military pay and benefits (including health care and 
        retirement benefits)--$169 billion, or about 32 percent of the 
        base budget.
        <bullet>  Civilian pay and benefits--$79 billion, or about 15 
        percent of the base budget.
        <bullet>  Other operating costs--$105 billion, or about 20 
        percent of the base
        budget.
        <bullet>  Acquisition and other investments (Procurement; 
        research, development, testing, and evaluation; and new 
        facilities construction)--$181 billion, or about 34 percent of 
        the base budget.

Modernization
    What makes this budget different is the focus it puts, more so than 
any other over the last decade, on new funding for modernization. After 
years of war, which required the deferral of longer-term modernization 
investments, this budget puts renewed emphasis on preparing for future 
threats--especially threats that challenge our military's power 
projection capabilities.
    Threats to Power Projection and our Technological Edge
    Being able to project power anywhere across the globe by rapidly 
surging aircraft, ships, troops, and supplies lies at the core of our 
defense strategy and what the American people have come to expect of 
their military. It guarantees that when an acute crisis erupts anywhere 
in the world, America can provide aid when disaster strikes, reinforce 
our allies when they are threatened, and protect our citizens and 
interests globally. It also assures freedom of navigation and 
overflight, and allows global commerce to flow freely.
    For decades, U.S. global power projection has relied on the ships, 
planes, submarines, bases, aircraft carriers, satellites, networks, and 
other advanced capabilities that comprise our military's unrivaled 
technological edge. But today that superiority is being challenged in 
unprecedented ways.
    Advanced military technologies, from rockets and drones to chemical 
and biological capabilities, have found their way into the arsenals of 
both non-state actors as well as previously less capable militaries. 
Other nations--among them Russia, China, Iran, and North Korea--have 
been pursuing long-term, comprehensive military modernization programs 
to close the technology gap that has long existed between them and the 
United States.
    These modernization programs are developing and fielding advanced 
aircraft, submarines, and both longer-range and more accurate ballistic 
and cruise missiles. They're developing new and advanced anti-ship and 
anti-air missiles, as well as new counter-space, cyber, electronic 
warfare, undersea, and air attack capabilities. In some areas, we see 
levels of new weapons development that we haven't seen since the mid-
1980s, near the peak of the Soviet Union's surge in Cold War defense 
spending.
    Targeted Investments in the President's Budget
    One of the reasons we are asking for more money this year than last 
year is to reverse recent under-investment in new weapons systems by 
making targeted investments to help us stay ahead of emerging threats--
adding substantial funding for space control and launch capabilities, 
missile defense, cyber, and advanced sensors, communications, and 
munitions--all of which are critical for power projection in contested 
environments.
    The budget also makes significant investments in the resilience and 
survivability of our infrastructure and forces, particularly in the 
western Pacific, with improved active defenses such as our Patriot and 
AEGIS systems, as well as selective hardening of key installations and 
facilities.
    DOD is also addressing the erosion of U.S. technological 
superiority with the Defense Innovation Initiative (DII). The DII is an 
ambitious department-wide effort to identify and invest in innovative 
ways to sustain and advance America's military dominance for the 21st 
century.
    The DII will identify, develop, and field breakthrough technologies 
and systems through a new Long-Range Research & Development Planning 
Program, and the President's budget supports this effort through 
specific investments in promising new technologies and capabilities 
such as high-speed strike weapons, advanced aeronautics, rail guns, and 
high energy lasers. The DII also involves the development of innovative 
operational concepts that would help us use our current capabilities in 
new and creative ways. The ultimate aim is to help craft `offset 
strategies' that maximize our strengths and exploit the weaknesses of 
potential adversaries.
    Our budget is also making focused and sustained investments in 
modernization and manning across the nuclear enterprise, even as we 
reduce the roles and numbers of nuclear weapons in the U.S. nuclear 
posture. These investments are critical for ensuring the continued 
safety, security, and effectiveness of our nuclear deterrent, as well 
as the long-term health of the force that supports our nuclear triad, 
particularly after recent troubling lapses in parts of DOD's nuclear 
enterprise. To help fund improvements across the nuclear enterprise, we 
are requesting an increase of approximately $1 billion in fiscal year 
2016, and about $8 billion over the FYDP.
Readiness
    DOD must rebuild and recover after more than 13 years of 
uninterrupted war. But our effort to do so has been frustrated by two 
variables, both of which are out of our hands--one, the continued high 
operational tempo and high demand for our forces, and two, the 
uncertainty surrounding annual appropriations.
    Only over the last couple of years has readiness begun to recover 
from the strains of over a decade of war, exacerbated by sequestration 
in 2013. Nevertheless, readiness remains at troubling levels across the 
force.
    While our forward-deployed forces remain ready, our surge forces at 
home are not as ready as they need to be. The President's budget 
therefore invests in near-term unit readiness by adjusting service end-
strength ramps to reduce personnel turbulence and stress on the force, 
while increasing funding to improve home station training and training-
related infrastructure.
    This past year has demonstrated that our military must be ready to 
fight more than just the last war. We have to be prepared across all 
domains--air, land, sea, space, and in cyberspace--to engage in both 
low- and high-end missions and conflicts, as well as in the shadowy, 
so-called `hybrid warfare' space in between.
    While this budget submission's requested and projected funding 
levels will enable the military to continue making steady progress 
toward full-spectrum combat readiness, the gains we've recently made 
are fragile. Sustaining them to provide for ready and capable forces 
will require both time and a stable flow of resources, which is why, 
even under the budget we're requesting, the Army, Navy, and Marine 
Corps won't all reach their readiness goals until 2020, and the Air 
Force won't do so until 2023.
    Army:
    For fiscal year 2016, the Army's base budget of $126.5 billion 
supports an end strength of 1,015,000 soldiers--475,000 soldiers on 
active duty, 342,000 soldiers in the Army National Guard, and 198,000 
soldiers in the Army Reserve--comprising 57 total force brigade combat 
teams and associated enablers. The budget also supports 19 brigade-
level training rotations at the Army's Combat Training Centers, which 
are critical to the Army's efforts to reach full-spectrum combat 
readiness.
    While the Army's postwar end-strength target remains a force of 
approximately 450,000 Active-Duty soldiers, 335,000 Army National Guard 
soldiers, and 195,000 Army Reserve soldiers, this year's budget slows 
the drawdown rate. Rather than planning to reduce the Active-Duty Force 
by 20,000 soldiers and the National Guard by 14,000 soldiers in fiscal 
year 2016, the Army will instead plan to reduce by 15,000 active-duty 
soldiers and 8,000 guardsmen, while still maintaining its schedule for 
reducing unit structure. This will help mitigate personnel turbulence 
and stress, while also improving unit manning as the Army approaches 
its target size.
    The Army's budget for fiscal year 2016 also includes $4.5 billion 
for Army helicopter modernization. Specifically:

        <bullet>  UH-60M Black Hawk: We are requesting $1.6 billion to 
        support buying 94 multi-mission helicopters in fiscal year 
        2016, and $6.1 billion for 301 helicopters over the FYDP.
        <bullet>  AH-64E Apache: We are requesting $1.4 billion to 
        support development and purchase of 64 attack helicopters in 
        fiscal year 2016, and $6.2 billion for 303 helicopters over the 
        FYDP.
        <bullet>  CH-47F Chinook: We are requesting $1.1 billion to 
        support development and purchase of 39 cargo helicopters in 
        fiscal year 2016, and $3.2 billion for 95 helicopters over the 
        FYDP.
        <bullet>  UH-72 Lakota: We are requesting $187 million in 
        fiscal year 2016 to support the final buy of 28 light utility 
        helicopters.

    These investments require difficult trade-offs given today's 
constrained fiscal environment. That is why the Army is resubmitting 
the Army's Aviation Restructure Initiative, which makes the most 
efficient use of taxpayer dollars by retiring outdated airframes and 
streamlining the Army's helicopter fleet so that platforms can be 
modernized and allocated where they are needed most.
    As you know, I am committed to reviewing the Army's Aviation 
Restructure Initiative. However, the Army believes that fully 
implementing the Aviation Restructure Initiative (ARI), which includes 
shifting National Guard Apaches to Active-Duty units while providing 
Guard units with Black Hawks, is prudent for several reasons.
    For one, Apaches are in high demand at high levels of readiness 
that would require Guard units manning them to mobilize at 
unprecedentedly high rates; or alternatively, for the Army to spend a 
total of approximately $4.4 billion to fully equip the Guard's Apache 
battalions, and then $350 million per year to maintain them at those 
high levels of readiness. Meanwhile, Black Hawks are more suitable for 
Guard missions here at home. Whether homeland defense, disaster relief, 
support to civil authorities, or complementing our active-duty 
military, these missions tend to demand transport and medical 
capabilities more than the attack capabilities of Apaches. In sum, the 
initiative avoids approximately $12 billion in costs through fiscal 
year 2035 and saves over $1 billion annually starting in fiscal year 
2020. Considering these figures, implementing the Aviation Restructure 
Initiative is not only in the best warfighting interest of the Army, 
but also in the interest of the taxpayers who fund it.
    I know this is a contentious issue. However, we believe the ARI is 
the least cost, best solution for the Army's aviation enterprise. DOD 
looks forward to making its case to the National Commission on the 
Future of the Army established by the 2015 National Defense 
Authorization Act.
    Navy and Marine Corps:
    The Navy and Marine Corps are allocated $161 billion for fiscal 
year 2016, supporting a 282-ship fleet in 2016 and a 304-ship fleet by 
fiscal year 2020 with a return to 11 aircraft carriers, 386,600 Active-
Duty and Reserve sailors, and 222,900 Active-Duty and Reserve marines.
    The President's budget invests $16.6 billion in shipbuilding for 
fiscal year 2016, and $95.9 billion over the FYDP. The budget protects 
critical Navy and Marine Corps investments in undersea, surface, 
amphibious, and airborne capabilities--all of which are critical for 
addressing emerging threats. Specifically:

        <bullet>  Submarines: We are requesting $5.7 billion for fiscal 
        year 2016, and $30.9 billion over the FYDP, to support buying 
        two Virginia-class attack submarines a year through fiscal year 
        2020. We are also requesting $1.4 billion in fiscal year 2016, 
        and $10.5 billion over the FYDP, to support the replacement for 
        the Ohio-class ballistic missile submarine.
        <bullet>  DDG-51 Guided Missile Destroyers: We are requesting 
        $3.4 billion for fiscal year 2016, and $18.5 billion over the 
        FYDP, to support the continued development and procurement of 
        two DDG-51 destroyers a year through fiscal year 2020.
        <bullet>  Aircraft Carriers: The President's budget plan 
        enables us to support 11 carrier strike groups. We are 
        requesting $678 million in fiscal year 2016, and $3.9 billion 
        over the FYDP, to support the refueling and overhaul of the USS 
        George Washington. We are also requesting $2.8 billion in 
        fiscal year 2016, and $12.5 billion over the FYDP, to support 
        completion of the Gerald Ford, 4-year construction of the John 
        F. Kennedy, and long-lead items for CVN-80, Enterprise.
        <bullet>  Littoral Combat Ships (LCS) and Small Surface 
        Combatants: We are requesting $1.8 billion in fiscal year 2016, 
        and $9.4 billion over the FYDP, to support development and 
        procurement of 14 littoral combat ships over the FYDP--
        including 3 LCS in fiscal year 2016. We are also requesting $55 
        million in fiscal year 2016, and $762.8 million over the FYDP, 
        to support capability improvements to the survivability and 
        lethality of the LCS required for the Navy to modify it into a 
        small surface combatant.
        <bullet>  Fleet Replenishment Oiler: We are requesting $674 
        million to support buying one new fleet replenishment oiler, 
        the TAO(X), in fiscal year 2016--part of a $2.4 billion request 
        to buy four of them over the FYDP.
        <bullet>  Amphibious Transport Docks: We are requesting $668 
        million in fiscal year 2016 to finish buying one San Antonio-
        class amphibious transport dock.
        <bullet>  F-35 Lightning II Joint Strike Fighter: The 
        Department of the Navy is procuring two F-35 variants, the Navy 
        carrier-based F-35C and the Marine Corps short take-off and 
        vertical landing F-35B. The Navy and Marine Corps are 
        requesting $3.1 billion in fiscal year 2016 to support 
        procurement of 13 aircraft--9 F-35Bs and 4 F-35Cs--and aircraft 
        modifications and initial spares, and $20.9 billion over the 
        FYDP to support procurement of 121 aircraft and aircraft 
        modifications and initial spares.
        <bullet>  Patrol and Airborne Early Warning Aircraft: We are 
        requesting $3.4 billion in fiscal year 2016, and $10.1 billion 
        over the FYDP, to support continued development and procurement 
        of 47 P-8A Poseidon maritime patrol aircraft through fiscal 
        year 2020. We are also requesting $1.3 billion in fiscal year 
        2016, and $6.1 billion over the FYDP, to support buying 24 E-2D 
        Hawkeye airborne early warning aircraft through fiscal year 
        2020.

    Making these investments while also abiding by fiscal prudence, we 
had to make more difficult trade-offs. For that reason, we are 
resubmitting our request to place some of the Navy's cruisers and an 
amphibious landing ship--12 ships in total, including 11 cruisers--into 
a phased modernization program that will provide them with enhanced 
capability and a longer lifespan. Given that our cruisers are the most 
capable ships for controlling the air defenses of a carrier strike 
group, and in light of anti-ship missile capabilities being pursued by 
other nations, this modernization program will, over the next decade 
and a half, be a baseline requirement for sustaining both our cruiser 
fleet and 11 carrier strike groups through 2045.
    I acknowledge and appreciate the plan put forward in the 2015 
National Defense Authorization Act, which helps us get to our goal, and 
which we have begun to implement. However, this plan is more expensive, 
and results in shorter ship life. Considering that our plan is critical 
for our power projection capabilities, we believe it should be 
implemented in full, and look forward to working with the Congress as 
we move forward.
    Air Force:
    The Air Force is allocated a base budget of $152.9 billion for 
fiscal year 2016, supporting a force of 491,700 Active Duty, Guard, and 
Reserve airmen, 49 tactical fighter squadrons, 96 operational bombers 
out of a total 154-aircraft bomber fleet, and a safe, secure, and 
effective nuclear deterrent that includes 450 intercontinental 
ballistic missiles.
    The Air Force's budget reflects DOD's decision to protect 
modernization funding for advanced capabilities and platforms most 
relevant to both present and emerging threats--in this case, fifth-
generation fighters, long-range bombers, and mid-air refueling aircraft 
to assure our air superiority and global reach; both manned and 
remotely-piloted aircraft to help meet combatant commanders' needs for 
intelligence, surveillance, and reconnaissance (ISR); and research and 
development to ensure continued and competitive space launch 
capabilities. Specifically:

        <bullet>  F-35A Lightning II Joint Strike Fighter: We are 
        requesting $6 billion to support buying 44 aircraft, aircraft 
        modifications, and initial spares in fiscal year 2016, and 
        $33.5 billion to support buying 275 aircraft, modifications, 
        and spares over the FYDP.
        <bullet>  KC-46A Pegasus Refueling Tanker: We are requesting 
        $2.4 billion to buy 12 aircraft in fiscal year 2016, and $14.6 
        billion to buy 72 aircraft over the FYDP.
        <bullet>  Long-Range Strike Bomber: We are requesting $1.2 
        billion for research and development in fiscal year 2016, and 
        $13.9 billion over the FYDP.
        <bullet>  Remotely-Piloted Aircraft: We are requesting $904 
        million to support buying 29 MQ-9A Reapers in fiscal year 2016, 
        and $4.8 billion to support buying 77 of them over the FYDP. 
        This investment is critical to ensuring the Air Force has 
        enough around-the-clock permissive ISR combat air patrols--in 
        this case, allowing us to increase from 55 to 60--to meet 
        increased battlefield demands.
        <bullet>  Competitive Space Launch: This budget supports year-
        over-year increases in competitive space launches--going up 
        from two in fiscal year 2015 to three in fiscal year 2016, and 
        further increasing to four competitive launches in fiscal year 
        2017. The budget also supports investments to mitigate DOD 
        reliance on the RD-180 space engine that powers the Atlas V 
        Evolved Expendable Launch Vehicle rockets.
        <bullet>  Combat Rescue Helicopter: We are requesting $156 
        million in fiscal year 2016 for the Air Force's next-generation 
        combat rescue helicopter--part of a total $1.6 billion request 
        over the FYDP for research, development, testing, and 
        evaluation--and requesting $717 million over the FYDP for 
        procurement.

    In light of high demand coupled with congressional consultations, 
the Air Force budget reflects DOD's decision to slow the retirement 
timelines for three key ISR and battle management platforms.
    We chose to defer the retirement of the U-2 Dragon Lady 
reconnaissance aircraft until fiscal year 2019, when planned sensor 
upgrades to the RQ-4 Global Hawk will combine with other capabilities 
to mitigate the loss of the U-2. We chose to delay the previously 
planned retirement of seven E-3 Sentry AWACS until fiscal year 2019, so 
they can support air operations over Iraq and Syria. We chose to delay 
retirement of any E-8 JSTARS through fiscal year 2020, pending final 
approval of the Air Force's acquisition strategy for its replacement.
    The Air Force budget also supports a timeline that would phase out 
and retire the A-10 in fiscal year 2019. With the gradual retirement of 
the A-10 that we're proposing, the Air Force will better support legacy 
fleet readiness and the planned schedule for standing up the F-35A by 
filling in some of the overall fighter maintenance personnel shortfalls 
with trained and qualified personnel from the retiring A-10 squadrons.
    As you know, F-35 maintainer demand has already required the Air 
Force to use the authority Congress provided last year to move some A-
10s into back-up aircraft inventory status. I should note that the Air 
Force is doing so only to the extent that it absolutely must, and so 
far intends to move far fewer A-10s into this status than what Congress 
has authorized. I know this is an important issue, and DOD looks 
forward to working with you on it.
    Defense-Wide:
    The remaining share of our base budget--about $94 billion--is 
allocated across DOD. This includes funding for cyber, United States 
Special Operations Command, the Defense Advanced Research Projects 
Agency, the Defense Health Agency, the Joint Staff, the Office of the 
Secretary of Defense, and missile defense.
    For fiscal year 2016, a $9.6 billion total investment in missile 
defense helps protect the U.S. Homeland, deployed forces, and our 
allies and partners. This includes $8.1 billion for the Missile Defense 
Agency, $1.6 billion of which will help ensure the reliability of U.S. 
ground-based interceptors, which are currently sited at Fort Greely, 
AK, and Vandenberg Air Force Base, CA. The budget also continues to 
support the President's timeline for implementing the European Phased 
Adaptive Approach.
    Overseas Contingency Operations:
    Separate from DOD's base budget, we are also requesting $50.9 
billion in Overseas Contingency Operations (OCO) funding for fiscal 
year 2016. This represents a 21 percent decrease from last year's $64.2 
billion in OCO funding, continuing OCO's decline since 2010, while also 
reflecting continued operational demands on U.S. forces around the 
world. OCO comprises funding for:

        <bullet> Afghanistan and Other Operations: We are requesting 
        $42.5 billion to support Operation Freedom's Sentinel and other 
        missions. This includes $7.8 billion for reset and retrograde 
        of U.S. equipment from Afghanistan, as well as $3.8 billion for 
        training and equipping the Afghan National Security Forces 
        through our ongoing train, advise, and assist mission.
        <bullet> Counter-ISIL Operations: We are requesting $5.3 
        billion to support Operation Inherent Resolve. This includes 
        $1.3 billion for training and equipping Iraqi forces, including 
        Kurdish forces, and the vetted moderate Syrian opposition.
        <bullet> Counterterrorism Partnerships Fund: Reflecting the 
        vital role that our allies and partners play in countering 
        terrorism that could threaten U.S. citizens, we are requesting 
        $2.1 billion for the Counterterrorism Partnerships Fund that 
        President Obama established last year.
        <bullet> NATO Reassurance: We are requesting $789 million for 
        the European Reassurance Initiative, which the President 
        created last year to help reassure our NATO allies and 
        reinforce our Article V commitment in light of Russia's 
        violations of Ukrainian sovereignty.

    The conclusion of major combat operations in Afghanistan and Iraq 
has resulted in a 73 percent drop in DOD's OCO costs from their $187 
billion peak in fiscal year 2008.
    We are continuing to use OCO as appropriate to finance our 
military's response to unforeseen crises, but we must also account for 
those enduring priorities that we do not envision going away--such as 
supporting our Afghan partners, countering terrorism, maintaining a 
strong forward presence in the Middle East, and ensuring our military 
is ready to respond to a wide range of potential crises.
    The administration intends to transition OCO's enduring costs to 
the base budget between fiscal years 2017 and 2020. We will do this 
over time, and in a way that protects our defense strategy--including 
DOD's abilities to deter aggression, maintain crisis-ready forces, and 
project power across the globe. This transition, however, will not be 
possible unless the threat of sequestration has been removed.
    Having financed the costs of key military activities--such as 
counterterrorism operations and our Middle East posture--outside the 
base budget for 14 years, and knowing that the security situation in 
the Middle East remains volatile, it will take time to determine which 
OCO costs are most likely to be enduring, and which are not. But we 
will release a plan later this year, which will also address how we 
will budget for uncertainty surrounding unforeseen future crises, and 
implications for DOD's budget.
                            iv. compensation
    The choices we face about military compensation are vexing, 
critically important, and closely followed, so I want to be direct and 
upfront with you.
    When our troops go into battle--risking their lives--we owe to 
them, and their families, not only adequate pay and compensation, but 
also the right investments--in the right people, the right training, 
and the right weapons and equipment--so that they can accomplish their 
missions and come home safely.
    To meet all of these obligations at once, we have to balance how we 
allocate our dollars. It would be irresponsible to prioritize 
compensation, force size, equipment, or training in isolation, only to 
put our servicemembers' lives at unacceptable risk in battle.
    For the President's fiscal year 2016 budget, the Defense Department 
considered its compensation proposals very carefully, as well as those 
approved by Congress in the 2015 National Defense Authorization Act. 
Accordingly, this budget again proposes modest adjustments to shift 
funds from compensation into readiness, capability, and force 
structure, so that our people can continue executing their missions 
with continued excellence.
    As you know, the congressionally-commissioned Military Compensation 
and Retirement Modernization Commission has recently released its own 
compensation proposals. Their work, which DOD is continuing to analyze, 
shows thoughtfulness and good intent, which we deeply appreciate.
    Given that this hearing is being held before the department has 
submitted its recommendations on the commission's report to President 
Obama, it would not be appropriate for me to discuss them at this time. 
Many of these proposals would significantly affect our servicemembers 
and their families, and DOD owes them, the President, and the country 
our utmost diligence and most rigorous analysis.
    However, I can say that the department agrees with the overarching 
goals of the commission, especially providing servicemembers and 
beneficiaries more options--whether in preparing for retirement or in 
making health care choices.
    I can also say that the commission's proposals are complicated, and 
do not lend themselves to binary answers. Therefore, when we provide 
the President with our recommendations on each proposal, DOD will 
clarify not simply whether we support each proposal, but also where we 
recommend specific modifications to improve or enable us to fully 
support a given proposal.
    We believe there is something positive in almost every one of the 
commission's recommendations, and that they present a great opportunity 
to ensure we honor our servicemembers past, present, and future. I look 
forward to Congress' support and partnership as we work hard to take 
advantage of it.
                       v. impact of sequestration
    At the end of 2013, policymakers came together on a bipartisan 
basis to partially reverse sequestration and pay for higher 
discretionary funding levels with long-term reforms. We've seen how 
that bipartisan agreement has allowed us to invest in areas ranging 
from research and manufacturing to strengthening our military. We've 
also seen the positive impact on our economy, with a more responsible 
and orderly budget process helping contribute to the fastest job growth 
since the late 1990s.
    The President's budget builds on this progress by reversing 
sequestration, paid for with a balanced mix of commonsense spending 
cuts and tax loophole closures, while also proposing additional deficit 
reduction that would put debt on a downward path as a share of the 
economy. The President has also made clear that he will not accept a 
budget that locks in sequestration going forward.
    As the Joint Chiefs and others have outlined, and as I will detail 
in this testimony, sequestration would damage our national security, 
ultimately resulting in a military that is too small and insufficiently 
equipped to fully implement our defense strategy. This would reflect 
poorly on America's global leadership, which has been the one critical 
but defining constant in a turbulent and dangerous world. In fact, even 
the threat of sequestration has had real effects.
    You don't need me to tell you that the President has said he will 
not accept a budget that severs the vital link between our national and 
economic security. Why? Because the strength of our Nation depends on 
the strength of our economy, and a strong military depends on a strong 
educational system, thriving private-sector businesses, and innovative 
research. Because that principle--matching defense increases with non-
defense increases dollar-for-dollar--was a basic condition of the 
bipartisan agreement we got in 2013. The President sees no reason why 
we shouldn't uphold those same principles in any agreement now.
    The only way we're going to get out of the wilderness of 
sequestration is if we work together. I therefore appeal to members of 
Congress, from both parties, to start looking for ways to find a truly 
bipartisan compromise. I hope they can make clear to their colleagues 
that sequestration would also damage America's long-term strength, 
preventing our country from making pro-growth investments in areas 
ranging from basic research to early childhood education--investments 
that, in the past, have helped make our military the finest fighting 
force the world has ever known.
    Sequestration is set to return in just over 200 days. Letting that 
happen would be unwise and unsafe for our national defense, over both 
the short and long term.
Short-Term Impact
    DOD has had to live with uncertain budgets for the last three 
years, continuous and sudden downward revisions of our budget plans, 
and even a government closure. To continue meeting all of our mission 
requirements, we've done our best to manage through these 
circumstances, underfunding significant parts of our force and its 
support systems. Put bluntly, we have survived, but not thrived. Our 
military has made painful choices and tradeoffs among the size, 
capabilities, and readiness of our joint force, and we've amassed a 
number of bills that are now coming due.
    That's why the department has been counting on and planning for a 
budget increase of roughly $35 billion above sequestration-level caps 
in fiscal year 2016. If it looks like DOD will be operating at 
sequestration levels in 2016, on October 1 we will have to swiftly 
begin making cuts so that we don't end up $35 billion short as we 
approach year's end.
    A return to sequestration in fiscal year 2016 would affect all 
aspects of the department, but not all equally.
    More than one-third of the fiscal year 2016 cuts would come have to 
come from Operations and Maintenance accounts, with unavoidable 
reductions in readiness and our ability to shape world events in 
America's interest. Let me put this more plainly: allowing 
sequestration to return would deprive our troops of what they need to 
accomplish their missions.
    Approximately half of the cuts would have to come from the 
department's modernization accounts, undermining our efforts to secure 
technological superiority for U.S. forces in future conflicts. Because 
there are bills that DOD absolutely must pay--such as the salaries of 
our troops--many capabilities being developed to counter known threats 
from highly capable adversaries would be delayed or cancelled, 
deepening our Nation's vulnerabilities at a time when the world is 
growing more dangerous, not less. Sequestration would put a hold on 
critical programs like our Aerospace Innovation Initiative, the Next 
Generation Adaptive Engine, the Ground-Based Interceptor missile 
defense kill vehicle redesign, and several space control efforts.
    Deferring these investments is bad policy and makes the Defense 
Department less competitive for the future. What's more, it breaks 
faith with the troops of today and the troops of tomorrow. It 
undermines the defense industrial base that is a critical foundation 
for our national security.
Long-Term Impact
    If sequestration were to persist over time, the long-term 
consequences would be harder hitting. We would ultimately have a 
military that looks fundamentally different, and that performs much 
differently, from what our Nation is accustomed to.
    If we are forced to sequestration-level budgets, I do not believe 
that we can continue to make incremental cuts and maintain the same 
general set of objectives as we've had in our defense strategy. I will 
insist that new cuts be accompanied by a frank reassessment of our 
strategic approach to addressing the threats we face around the world--
what we are asking the Armed Forces to do and to be prepared to do.
    I cannot tell you right now exactly what that means--DOD is not 
resigned to the return of sequestration--but I can tell you that I will 
direct the department to look at all aspects of the defense budget to 
determine how best to absorb these cuts. No portion of our budget can 
remain inviolate.
    What I will not do is let DOD continue mortgaging our future 
readiness and capability. I will not send our troops into a fight with 
outdated equipment, inadequate readiness, and ineffective doctrine.
    Everything else is on the table.
    What does that mean? We could be forced to consider pay cuts, not 
just cuts in the growth of compensation. We could be forced to consider 
all means of shedding excess infrastructure, not just working within 
the congressional BRAC process. We could be forced to look at 
significant force structure cuts, not just trimming around the edges. 
We could be forced to ask our military to do--and be prepared to do--
significantly less than what we have traditionally expected, and 
required of it.
    I am not afraid to ask these difficult questions, but if we are 
stuck with sequestration's budget cuts over the long term, our entire 
nation will have to live with the answers.
    A prolonged period of depressed defense budgets will almost 
certainly mean a smaller, less capable, and less ready military. No one 
can fully predict the impact on the future. But it could translate into 
future conflicts that last longer, and are more costly in both lives 
and dollars.
    That may sound severe to some, but it is a fact, and history should 
be our guide when we think about the true cost of sequestration.
The Case for Repealing Sequestration
    I know I'm preaching to the choir here. If sequestration could have 
been reversed by just this committee and its counterpart in the House, 
it probably would have happened years ago. So I offer the following to 
members of the committee about what you can remind your colleagues when 
you ask for their vote to repeal sequestration:
    Remind them that even after the increase we're asking for, DOD's 
budget as a share of total Federal spending will still be at a near-
historic low--a quarter of what it was during the Korean War, a third 
of what it was during the Vietnam war, and half of what it was during 
the Reagan buildup.
    Remind them that the increased funding is for modernization that's 
critical to keeping our military's technological edge and staying ahead 
of potential adversaries.
    Remind them that DOD has hands-on leadership from the very top--
me--devoted to using taxpayer dollars better than they've been used in 
the past. You have my personal commitment to greater accountability, 
greater efficiency, and running this department better and leaner than 
before.
    Remind them that sequestration's cuts to long-term investments will 
likely make those investments more costly down the line. All who bemoan 
unnecessary Pentagon program delays and the associated cost overruns 
should know that sequestration will only make these problems worse. I 
can easily sympathize with my non-defense counterparts in this regard; 
knowing how wasteful and inefficient sequestration would be at DOD, I 
have no doubt the same is true at other departments and agencies as 
well.
    Remind them that sequestration's impact on our domestic budget will 
cause further longterm damage to our defense--because the strength of 
our Nation depends on the strength of our economy, and a strong 
military needs strong schools to provide the best people, strong 
businesses to provide the best weapons and equipment, and strong 
science and research sectors to provide the best new innovations and 
technologies.
    Remind them that we can't keep kicking this can down the road. The 
more we prolong tough decisions, the more difficult and more costly 
they will be later on.
                             vi. conclusion
    The men and women of DOD are counting on Congress to help assure 
the strength of our military and American global leadership at a time 
of great change in the world.
    We must reverse the decline in defense budgets to execute our 
strategy and fund a modern, ready, leaner force in a balanced way. We 
must seize the opportunity to enact necessary reforms in how we do 
business. We must bring an end to the threat sequestration poses to the 
future of our force and American credibility around the world.
    As you evaluate the President's budget submission, I encourage you 
and your colleagues to keep it in perspective.
    In the years since the President's fiscal year 2012 budget 
request--the benchmark for cuts prescribed under the 2011 Budget 
Control Act--DOD's 10-year budget projections have absorbed more than 
$750 billion in cuts, or more than three-quarters of the trillion-
dollar cuts that would be required should sequestration be allowed to 
run its course. While some claim this is our biggest budget ever, the 
fact is, as a share of total Federal spending, DOD's fiscal year 2016 
budget is at a near-historic low--representing about 14 percent of 
total Federal discretionary and non-discretionary outlays. DOD's total 
budget remains more than $100 billion below what it was at the height 
of the wars in Iraq and Afghanistan.
    I think we can all agree that the world in 2014 was even more 
complicated than we could have foreseen. Given today's security 
environment--which has over 200,000 American servicemembers stationed 
in over 130 countries conducting nearly 60 named operations--our 
proposed increase in defense spending over last year's budget is a 
responsible, prudent approach.
    Some of you may recall how, in 1991, after America's Cold War 
victory and amid doubts about America's engagement with the world and 
calls for a bigger domestic peace dividend, a bipartisan group in 
Congress stepped forward to help shape America' global leadership and 
make long-term decisions from which we continue to benefit.
    Senators Sam Nunn and Dick Lugar helped craft, pass, and pay for 
the small Cooperative Threat Reduction Program that allowed the United 
States and DOD to provide the funding and expertise to help former 
Soviet states decommission their nuclear, biological, and chemical 
weapon stockpiles.
    The Nunn-Lugar program was initially opposed abroad, and there were 
also doubts at the Pentagon about whether we could implement it without 
losing track of funding. I know. I helped lead the program in its early 
years. But with slow and diligent effort by American defense officials, 
the Congress, and our foreign partners, it worked.
    It helped prevent weapons of mass destruction from falling into the 
wrong hands. It helped establish a pattern of international cooperation 
and global norms in the post-Cold War international order. In the light 
of the current instability in Ukraine, it might have staved off several 
variants of nuclear disaster.
    But it also set an important precedent for our work on this budget 
and in the years ahead. It shows what congressional conviction--
especially when it is bipartisan--can accomplish in foreign policy. It 
shows the value of foresight and planning for an uncertain future. It 
shows how spending a relatively few dollars today can generate huge 
value down the line.
    As the new Secretary of Defense, I hope it will be possible to 
again unite behind what our great nation should do to protect our 
people and make a better world, and provide our magnificent men and 
women of DOD--who make up the greatest fighting force the world has 
ever known--what they deserve.
    Thank you.

    Chairman McCain. Thank you, Mr. Secretary. I hope that 
every Member of Congress is able to hear that message that you 
have just conveyed. Thank you.
    General Dempsey?

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you, Chairman, Ranking Member Reed, 
other distinguished members of this committee. I appreciate the 
opportunity to provide you an update on our Armed Forces and to 
discuss our defense budget for 2016.
    I would ask that my written statement be submitted for the 
record. I will touch on just a few points of emphasis.
    Our military remains strong today. However, with threats 
proliferating, resources declining, and sequestration just 
months away, our ability to assure our allies is in question 
and our advantages over our adversaries are shrinking.
    This is a major strategic challenge, affecting not only our 
military, but ultimately America's leadership in the global 
world order. We face the reemergence of nation states with the 
capability, and potentially the intent, to constrain us. In 
space and cyberspace, our adversaries are rapidly leveling the 
playing field. We face an increasingly capable network of non 
state actors, including the Islamic State in Iraq and the 
Levant [ISIL], who threaten our national security interests 
both overseas and at home.
    Our strategy against ISIL integrates and balances nine 
lines of effort, only two of which are military. ISIL's threat 
is transregional and will require a sustainable level of effort 
over an extended period of time to create an environment in 
which they will be expelled and ultimately defeated.
    In Europe, Russia seeks to reduce NATO [the North Atlantic 
Treaty Organization] and European Union influence in Eastern 
Europe and generate disagreement among our NATO allies on the 
very future of Europe. Russian leaders have chosen a very 
dangerous path to achieve their strategic objectives, lighting 
a fire of ethnicity and nationalism not seen in Europe in 65 
years, and it may burn out of control. Our strategy is to 
reassure and reinforce our NATO allies while considering other 
instruments of national power to counter Russian aggression.
    Altogether, the global security environment is as uncertain 
as I have seen it in my 40 years of service. We are at a point 
where our national aspirations are at risk of exceeding our 
available resources.
    That brings me to the budget. We have heard Congress loud 
and clear as over the years it has challenged us to become more 
efficient and to determine the minimum essential requirements 
we need to do what the Nation asks us to do. PB16 [The 
President's Budget for fiscal year 2016] is that answer.
    In my judgment, this budget represents a responsible 
combination of capability, capacity, and readiness investment. 
It is what we need to remain, however, at the bottom edge of 
manageable risk to our national defense. As the Chairman said, 
there is no slack, there is no margin left for error, nor for 
response to strategic surprise.
    Funding lower than PB16, and a lack of flexibility in 
making the internal reforms necessary, could and will, in fact, 
put us in a situation where our National Defense Strategy will 
simply no longer be viable.
    For the past 25 years, the United States military has 
secured the global commons. We have deterred adversaries, 
reassured allies, and responded to crises and to conflict by 
maintaining our presence abroad. It has been our strategy to 
shape the international security environment by our forward 
presence and by building relationships among regional partners.
    In general terms, one-third of the force is forward-
deployed, one-third has just returned, and one-third is 
preparing to deploy. Of necessity, certain capabilities 
actually operate with half of our forces deployed and the other 
half recovering. This puts a significant strain on our men and 
women in uniform and on their families.
    Sequestration will fundamentally and significantly change 
the way we deploy the force and shape the security environment. 
We will be almost 20 percent smaller but our forward presence 
will be reduced by more than a third. We will have less 
influence, and we will be less responsive. Conflict will take 
longer to resolve and will be more costly, both in terms of 
dollars and in casualties.
    In an age when we are less certain about what will happen 
next, but quite certain that it will happen more quickly, we 
will be further away and less ready than we need to be.
    Simply stated, sequestration will result in a dramatic 
change in how we protect our Nation and how we promote our 
National interests.
    Mr. Chairman, members of this committee, our men and women 
in uniform are performing around the globe with extraordinary 
courage, character, and professionalism. We owe them and their 
families clarity and, importantly, predictability on everything 
from policy to compensation, health care, equipment, training, 
and readiness.
    Settling down this uncertainty in our decision-making 
processes will help keep the right people, our decisive edge, 
in our all-volunteer force and maintain the military that the 
American people deserve and expect.
    I am grateful for the continued support to our men and 
women in uniform from this committee and this Congress, and I 
look forward to your questions.
    [The prepared statement of General Dempsey follows:]

          Prepared Statement by General Martin E. Dempsey, USA
    Chairman McCain, Senator Reed, members of this Committee, it is my 
privilege to report to you on the state of America's Armed Forces, the 
changes in the global security environment, and the opportunities and 
challenges ahead.
    I am exceptionally honored to represent the men and women of our 
Armed Forces. Those who defend this Nation and the families who support 
them remain our most valuable national treasure and our competitive 
advantage. Deeply experienced from fourteen years of continuous 
deployments in harm's way, our All-Volunteer Force has been adaptable 
and resilient beyond expectation. Our men and women in uniform have 
performed around the globe with extraordinary courage, character, and 
professionalism. I am grateful for the continued support they receive 
from this distinguished body and from the American people.
    What makes America's Armed Forces who we are is our ability to 
provide options to the national command authority and our elected 
leaders to keep our Nation safe from coercion. The American people and 
our Allies expect that of us.
    Our military remains strong today. However, with threats 
proliferating, resources declining, and sequestration just months away, 
our ability to assure our allies is in question and our advantages over 
our adversaries are shrinking. This is a major strategic challenge 
affecting not only our military, but ultimately, America's leadership 
in the global world order.
    With your support, we can--and we must--sustain our military's 
decisive edge by prioritizing investments in readiness, training, 
modernization, and leader development. We must make the tough, but 
necessary choices in our strategy, our structure, and our resources for 
our Nation's future. Our men and women in uniform and the American 
people are trusting us to get it right.
                         joint force operations
    It has been an extraordinarily busy time for America's military. 
During the past twelve months, the men and women of our Joint Force 
have been on point around the world. They have maintained our enduring 
global commitments, bolstered long-term partnerships, and responded to 
new threats.
    Over the past year, the Joint Force continued to support the Afghan 
National Security Forces through the first democratic transfer of power 
in Afghanistan's history. My regular visits to Afghanistan reinforce 
just how much our coalition and Afghan partners have accomplished 
together over thirteen years of significant investment. The end of 2014 
marked the completion of the International Security Assistance Force 
(ISAF) mission. While Afghanistan is headed in the right direction 
towards a fully-functioning inclusive government, the path is neither a 
straight line, nor is it short. Moving forward with NATO's Resolute 
Support mission, our remaining force of about 10,000 troops will assist 
our Afghan partners in strengthening the Afghan institutions, systems, 
and processes that will support long-term security and stability--
ultimately giving the Afghan people the opportunity to succeed on their 
own.
    At the same time, the force has maintained pressure on Al Qaeda, 
the Islamic State of Iraq and the Levant (ISIL), and other violent 
extremist groups both directly and through our partners where United 
States and allied interests are threatened. We have reinforced our 
commitment to our NATO allies in Europe in the face of Russian 
aggression. We have helped to address urgent humanitarian crises such 
as the Yazidi refugees trapped on Mount Sinjar and the Ebola outbreak 
in West Africa. We have maintained an active presence in the South and 
East China Seas, while remaining prepared to respond to provocations on 
the Korean Peninsula. We have campaigned against sources of instability 
in Africa and in Latin America.
    We have also postured with our interagency partners to reinforce 
security to our homeland--to include providing ballistic missile 
defense, countering persistent threats of terrorism, and improving our 
defenses against cyber-attack on government networks and critical 
infrastructure.
    In the near term, we will sustain--in some cases adjust--these 
commitments around the globe to protect our national security 
interests. While our global mission requirements have decidedly gone 
up, we will manage all of these demands with constrained resources. 
Consequently, we will have to assume higher risk in some areas to 
create opportunity in others.
                   the changing security environment
    Our understanding of the security environment carries important 
consequences for our Nation and for our military. It drives our 
strategy and budget, shapes the size, structure, and capability of the 
force, and affects where and when we send America's sons and daughters 
into harm's way.
    Last year, I stated that the global security environment is as 
fluid and complex as we have ever seen. That has certainly played out 
over the past twelve months. We have seen significant shifts in an 
already complex strategic landscape--increasingly capable non-state 
actors who are taking advantage of the internal conflict within Islam 
and the reemergence of states with the capability and potentially the 
intent to constrain. This is increasing the strain on the international 
order.
    In what I often term the ``heavyweight'' category, Russia's 
coercive and destabilizing actions have threatened NATO's eastern 
flank. Russia is investing deeply in advancing their capabilities 
across the board, especially in Anti-Access Area-Denial (A2AD) and 
cyberspace. Meanwhile, China is also fielding new defense platforms at 
a startling pace. In almost everything we do globally, we must consider 
the second- and third-order effects on our relationships with Russia 
and China.
    In the ``middleweight'' category, Iran seeks to be a hegemon in the 
Middle East. Beyond Iran's nuclear aspirations, as one of the world's 
leading exporter of arms, Iran employs surrogates and proxies in many 
places across the globe. Iran is also becoming increasingly more active 
in cyberspace. We have significant interests in the region that would 
not be well-served should Iran achieve their purposes.
    North Korea is the other ``middleweight.'' Cyclical provocations by 
North Korea have increased the risk of potential miscalculation. We 
must use all instruments of national power to ensure North Korea does 
not achieve its intentions. We have a large stake in maintaining 
stability on the Korean Peninsula and supporting our Republic of Korea 
ally.
    We are also seeing power in the international system shifting below 
and beyond the nation-state, particularly across the network of radical 
movements that use terrorism as a tactic. This network extends across 
an already unstable Middle East and North Africa, vis-`-vis the complex 
situations we have seen unfold over the last year in Libya, Gaza, Iraq, 
Syria, Nigeria, and Yemen. Within the trans-regional terror network, we 
have seen ISIL gain prominence in Iraq and Syria, while inspiring 
existing radical franchises like Al Qaeda affiliates and Boko Haram to 
rebrand themselves into an even more aggressive ideology. That is what 
makes this movement so dangerous.
    With our partners, we must keep relentless pressure across the 
entire network with our full suite of capabilities to include 
intelligence, building partners, and in some cases, direct action. At 
the same time, we must be careful not to fixate on a single group, nor 
paint these violent extremist groups all with one brush. We have to 
apply the right mix of tools of national power at the right time, over 
the right length of time, in order to make a difference. Even more 
challenging is keeping pressure on a network that adapts and 
metastasizes. Overmatch in size and technology matters, but the rate in 
which we can innovate and adapt relative to these non-state actors 
matters more. This is a generational challenge.
    Running north and south in our own hemisphere, the well-financed 
transnational organized criminal network is growing extraordinarily 
capable. Beyond a drug trafficking network, it is capable of moving 
anything from arms and unaccompanied children to terrorists and weapons 
of mass destruction. This network deserves more attention not just 
because of its effect on the social fabric of our country, but because 
of the effect it could have--and is having--on the security of our 
Nation.
    In cyberspace, our adversaries have become increasingly more 
capable, attempting to level the playing field in this critical domain. 
While we have expanded authorities and capabilities to defend our 
military networks, critical civilian infrastructure and private sector 
companies are an Achilles' heel in our Nation's security. Together, we 
must reconcile these issues. To this end, cybersecurity legislation 
that facilitates information sharing and encourages public-private 
partnerships is required to ensure our continued security and 
prosperity. Staying ahead of our adversaries in the cyber domain will 
require a concerted effort of the whole nation.
    Across the board, as the international order trends towards 
instability, strategic risk trends higher. While our potential 
adversaries grow substantially stronger, most of our allies are growing 
more dependent on sustained U.S. assistance. I believe these trends 
will continue.
    We must bring to bear every tool of national power in America's 
arsenal in coordination to address these emerging trends. Likewise, 
deepening relationships of trust with our allies and building the 
capacity of our partners to be more self-sustaining will be even more 
vital in the years ahead.
                       preparing the joint force
    Within the context of the rapidly evolving security landscape, the 
Joint Force of the future will require exceptional agility in how we 
shape, prepare, and posture. Here are my five guideposts to sustain and 
improve the force:
                     the all-volunteer force (avf)
    Our competitive advantage is our people and their adaptability. I 
firmly believe that our Nation needs a professional All-Volunteer Force 
(AVF). The AVF is the right force for this Nation and the Nation should 
never take it for granted. Conversely, the force has earned the trust 
and confidence of the American people and must renew that contract 
daily.
    As part of strengthening the AVF, the Joint Chiefs and I are 
committed to offer everyone in uniform equal professional opportunities 
to contribute their talent. We are removing the legacy gender-based 
barriers to service that no longer make sense. The Services are 
progressing through validation of occupational standards and are on 
target to recommend final decisions to integrate remaining closed 
positions or any exceptions to policy by the end of the year.
    To keep the AVF on a viable path, getting our personnel costs in 
balance is a strategic imperative. Ultimately, we need to make sure 
that we can continue to recruit, retain, equip, and train the best 
fighting force on the planet and fairly compensate America's best for 
their service.
    We owe our men and women some clarity--and importantly, 
predictability--on everything from policy to compensation, health care, 
equipment, training, and readiness. Frankly, right now we are not 
delivering. Settling down uncertainty in our decision making processes 
will help keep the right people in the Service. To this end, I want to 
continue working with Congress to address the growing imbalances in our 
accounts in a sensible, holistic way that preserves the All-Volunteer 
Force well into the future.
    As such, we are looking closely at the recommendations of the 
Military Compensation and Retirement Modernization Commission. We are 
pleased that the commission supported our request to grandfather any 
changes to retirement pay for those currently serving and retirees. We 
will continue to place a premium on efforts that support wounded 
warriors and mental health.
    We will also keep working with the Department of Veterans Affairs, 
other agencies, veteran service organizations, and communities across 
the country to make sure those who are transitioning home and 
reintegrating into civilian life have access to health care, quality 
education opportunities, and meaningful employment. This especially 
includes those with enduring mental and physical challenges. I 
appreciate Congress for recently passing legislation to improve the 
access of veterans to mental health and suicide prevention services.
    This remarkable generation is not done serving. As such, the Joint 
Chiefs and I recently signed a Call to Continued Service letter that 
will go to all transitioning service members, encouraging them to keep 
serving the Nation in their communities. Our collective effort to 
enable our veterans and their families to continue contributing their 
strengths is a direct investment in the future of America.
                          preserving jointness
    Our military has become more integrated operationally and 
organizationally across the Services and across the Active, Guard, and 
Reserve components, especially over the past decade. However, the 
institution tends to work like a rubber band--if you stretch it and 
then release it, it will return to its normal form and shape. This is 
especially true in a resource-constrained environment. This tension 
comes at a time when our ability to win together through jointness is 
at its peak. The Joint Chiefs and I are committed to preserving the 
strength we have gained as a more seamless force. We are likewise 
committed to preserving the vital relationships with our interagency 
partners.
    Additionally, across the Services, we are resetting how we train 
and develop our forces for conflict across the spectrum. For the past 
decade, the Joint Force primarily focused on counterinsurgency centered 
in the Middle East. As we work to institutionalize the lessons of our 
recent wars--for example, by establishing building partnership capacity 
as a competency of the entire force, not just Special Forces--we are 
also working to restore balance and strategic depth in our 
capabilities. This includes those critical conventional areas that were 
deemphasized over the past decade by necessity.
    Concurrently, we are adapting how we engage and posture around the 
world in ways that are more dynamic, more strategic, and more 
sustainable. We are reevaluating how we employ our assets around the 
globe to better identify opportunities that generate the greatest 
advantages. We are developing new approaches across and within commands 
in how we assign, allocate, and apportion forces inside a broader 
interagency construct.
    We are also adapting our learning institutions to maximize the 
diverse talent of our men and women and to better cultivate agile 
thinkers for a global Joint Force. Within our Joint Professional 
Military Education (JPME) programs, we are mapping desired strategic 
leader attributes to the curriculum to ensure we are delivering them.
    We are undergoing an integrated, Department-wide effort to identify 
and invest in innovative ways to reverse the erosion of U.S. 
technological superiority--ensuring that our military remains dominant 
now and in the future. We are seeking innovation not only in 
technology, but also in leader development, wargaming, operational 
concepts, and business processes.
                      the defense industrial base
    Our Nation cannot sustain the world's finest military without also 
sustaining the world's strongest and most innovative defense industrial 
base (DIB).
    An enduring source of strategic advantage, we count on the defense 
industry to be able to research, develop, produce, deliver, and 
maintain the world-class weapons systems on which our military has long 
relied.
    I remain concerned that an unstable budget environment will promise 
long-term damage to critical segments of the DIB, most significantly in 
the small businesses that support our Nation's defense. Furthermore, 
sequester-level cuts will lead to a hollow DIB that no longer holds all 
of the critical design and manufacturing capabilities our military 
needs.
    A strong, efficient, and technologically vibrant defense industry 
is fundamental to securing our Nation's defense.
                               our allies
    Our alliances remain paramount to our own security. We are far more 
effective when we have a global network of capable partners with shared 
values. Our Allies and partners provide vital basing and access, offer 
complementary military capabilities, and help shape outcomes towards a 
common purpose. Improving partner capability and capacity in targeted 
ways is an important component of our military strategy.
    We are continuing the rebalance to the Asia Pacific as part of our 
government's larger priority effort to foster stability and growth in 
that region. We have old and new partners in the Asia Pacific and we 
will continue to develop our relationships, engage more at every level, 
and shift assets to the region, over time.
    Europe remains a central pillar to our national security and 
prosperity. NATO has the capability and must sustain the will to 
address the threats to its eastern and southern flanks. In the near 
term, we will continue to reassure allies and improve NATO's readiness. 
Over the long term, we will adapt our strategies and structures to meet 
new realities. NATO is and will remain the most important and most 
capable alliance in history.
    In every theater, we must guard against a slow erosion of our 
alliances and be careful not to shunt the steady work required to 
sustain these ties. Remaining the security partner of choice increases 
our Nation's collective ability to safeguard common interests and 
support greater stability in weaker areas of the world.
                             the profession
    Rekindling our understanding and our resolve as a profession 
continues to be one of my foremost priorities as Chairman. On and off 
the battlefield, we must always be good stewards of the special trust 
and confidence gifted to us by our fellow citizens. We owe it to the 
American people and to ourselves to look introspectively at whether we 
are holding true to the bedrock values and standards of our profession.
    The vast majority of our force serves honorably with moral courage 
and distinction every day. But failures of leadership and ethics, and 
lapses of judgment by a fraction of the force show that we still have 
work to do.
    We are seeing substantial progress in sexual assault prevention and 
response, however, we will remain laser-focused on reinforcing a 
climate where sexual assault is unacceptable, not just because it is a 
crime, but because it is completely counter to our core values.
    All of these issues have my ongoing and full attention. We know we 
own the profession and must reinforce the enduring norms and values 
that define us to continue to be a source of trust and pride for our 
Nation.
                    resourcing our defense strategy
    I stated last year that the balance between our security demands 
and available resources has rarely been more delicate. The National 
Security Strategy (NSS) released last month addresses some of our top 
concerns--the decline in military readiness, the strategic risk that 
will result should sequester-level cuts return, and the need to pursue 
greater integration with our Allies and partners. We need the full 
proposed President's Budget (PB) for fiscal year 2016 to support this 
strategy and to maintain the military the American people deserve and 
expect.
    PB16 reverses the decline in national defense spending of the past 
five years and helps ensure we can manage risk, meeting near-term 
defense needs while preparing for the future. It represents a 
responsible combination of capability, capacity, and readiness 
investment--leading to a Joint Force that is global, networked, and can 
provide options for the Nation. As the risks to our national security 
are increasing, this budget resources the force to remain capable, 
ready, and appropriately sized--able to meet today's global commitments 
and prepare for tomorrow's challenges.
    The Joint Chiefs and I fully support the PB16 budget. It is what we 
need to remain at the lower ragged edge of manageable risk in our 
ability to execute the defense strategy.
    However, we have no slack, no margin left for error or strategic 
surprise. We remain concerned that we still lack support for the 
reforms necessary to ensure that the Joint Force is combat ready and 
that we can preserve military options for our Nation into the future. 
We need budget certainty and we need flexibility to reset the force for 
the challenges we see ahead.
    Congress--and the American people--challenged us to become more 
efficient and to determine the minimum floor we need to be able to do 
what the Nation asks us to do. PB16 is that answer. Funding lower than 
PB16, especially if sequestration-level cuts return next year, combined 
with a lack of flexibility to make the reforms we need, will render the 
overall risk to our defense strategy unmanageable. In other words, our 
Nation's current defense strategy will no longer be viable.
    I ask Congress to support the entirety of this budget and end the 
deep, indiscriminate cuts that sequestration will impose.
    Thank you for your enduring support.

    Chairman McCain. Thank you very much.
    Chairman Dempsey, in front of the House Armed Services 
Committee on February 25, General Breedlove testified, ``I 
think, first and foremost, Mr. Putin has not accomplished his 
objectives in Ukraine, so next is probably more action in 
Ukraine.''
    In your professional military opinion, do you think General 
Breedlove is correct, that Putin will continue kinetic military 
operations in Ukraine and places like Mariupol because he has 
not yet accomplished his objectives?
    General Dempsey. Mr. Chairman, in an April 2014 speech, 
President Putin actually referred to a concept he described as 
Novorossiya, which is New Russia, that stretches across eight 
oblasts in Ukraine, essentially the eastern, southern oblasts 
of Ukraine, and up into Transnistria.
    He said that was what his intention was to do. To this 
point, their actions seem to suggest to me that they may 
actually be intent on accomplishing it.
    Chairman McCain. Does that convince you or give you the 
view that we should be providing defensive weaponry to Ukraine?
    General Dempsey. Chairman, as you know, we have provided 
about $100 million in other kinds of aid. We have a program to 
provide training.
    Chairman McCain. My question is, do you believe that we 
should provide defensive weaponry to Ukraine?
    General Dempsey. If I could, Senator, the----
    Chairman McCain. I know what you have done.
    General Dempsey. Right.
    Chairman McCain. Not enough. Go ahead.
    General Dempsey. I think we should absolutely consider 
providing lethal aid, and it ought to be in the context of our 
NATO allies, because Putin's ultimate objective is to fracture 
NATO.
    Chairman McCain. I thank you, General.
    Today in Tikrit, Secretary Carter, the Shiite militia with 
the Iranian Revolutionary Guard leader, among others, and 
Iranian air, is now attacking Tikrit, the hometown of Saddam 
Hussein, as we recall. The majority of that effort, with a 
couple thousand Iraqis, is being undertaken by the Shiite 
militia, the same militia that we fought against in the surge, 
the same militia that, according to estimates, manufactured the 
IEDs [improvised explosive devices], which directly resulted in 
the deaths of some 1,000 or 2,000 young Americans.
    Are you concerned that Iran is basically taking over the 
fight? According to the Wall Street Journal this morning, we 
are observing that operation. Does that ring an alarm bell with 
you, Mr. Secretary?
    Secretary Carter. It does. It does. Our approach to 
combating ISIL in Iraq is to work with the Iraqi security 
forces and a multisectarian government that takes a 
multisectarian approach to defeating ISIL and regaining control 
of its own territory.
    Sectarianism is what brought us to the point where we are, 
and so I do look at it with concern. We are watching it very 
closely. The Shiite militia is involved. Also, the Iraqi 
security force is involved. Some Sunni forces are involved.
    I would note that some Sunni tribal leaders in Tikrit, and 
this is important, have signaled their support for this 
offensive. If that is true, it is good news, because it 
suggests that this is not purely a Shiite on Sunni thing.
    But this is the problem that brought Iraq low, so I am 
looking at it with great concern.
    Chairman McCain. Of course, there are well-documented human 
rights violations, significant, by Shiite militia on Sunni, as 
we all know.
    Secretary Carter, you just returned from Afghanistan, an 
excellent visit, from all reports. My understanding from media 
reports is that you will be reevaluating the calendar-driven 
plan for withdrawal from Afghanistan.
    Is that true? Can you tell us what recommendations you have 
in mind?
    By the way, we have been hearing about these 
recommendations for a year or two now. Do you have any timeline 
as to when a decision may be made, because according to the 
calendar-driven plan that is now a place, we are going to have 
to be withdrawing troops very soon.
    Can you update us on that?
    Secretary Carter. I certainly can. That was the reason that 
I went to Afghanistan, second only to the primary reason, which 
is to see our fantastic people who are there and let them know 
that we are all with them and think about them every day.
    But I had an opportunity to assess conditions on the ground 
there, to discuss them with President Ghani, and I will share 
my observations.
    But just to get to the answer to your question, I think the 
phrase I used when I came before you last was, we have a plan, 
but a plan is a plan, and a plan is something you adjust over 
time. So I think we can adjust our plan over the next year or 
two.
    I did discuss that with President Ghani. I have discussed 
that here in Washington. I don't know what decisions the 
President will make in that regard or the timetable on which he 
will make them, but I, certainly, have had the opportunity to 
acquaint myself with them.
    One other thing I would like to say is that President Ghani 
gave me a very articulate depiction of conditions and how they 
changed, and what the good things have been and what the bad 
things have been. I don't want to take too much time, but I 
just wanted to tell everybody on this committee that the first 
thing he said to me when he saw me was, would you please go 
home and tell everyone there, and especially the troops, that I 
know that almost 1 million Americans have come through here in 
the last decade to help my country, and that thousands of them 
have been killed and wounded, and I want you to know, thank 
you.
    I just wanted to tell you that, because I haven't heard 
that for a long time.
    Chairman McCain. But it is your opinion that the present 
plan needs to be revised?
    Secretary Carter. I think that there are going to be 
respects in which the President is going to want to consider 
the conditions that have changed. I will give you some examples 
of that.
    Chairman McCain. I understand the examples. But do you want 
to stick with the calendar-driven plan as it is now, or do you 
want it to be revised?
    Secretary Carter. No, I think we need to do conditions. In 
any military plan, we have to be conditions-based, absolutely, 
firmly.
    Chairman McCain. I thank you. I thank both of you for your 
testimony.
    Secretary McCord, do you want to add anything?
    Mr. McCord: Not on the subject of Afghanistan. Thank you.
    Chairman McCain. Thank you.
    Senator Reed?
    Senator Reed. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your testimony, for your service.
    Just quickly following up, Mr. Secretary, you have been to 
Afghanistan, Iraq, and the region, and also been in 
communication with foreign leaders, your counterparts across 
the globe. Are they aware of the impending sort of budgetary 
train wreck in the United States? Does this create anxiety and 
the conclusion that we won't have the resources, even if we 
have the resolve?
    Secretary Carter. Well, in general, they are polite enough 
not to raise this question, but when I have had conversations 
with foreign leaders, I think it is distressing to me because 
they hear everything we say, and they see everything we do, and 
they get a very clear picture of the dangers of sequester. They 
probably get an outsized picture of our lack of will.
    But this is not good for our friends. Of course, I am only 
talking to our friends, so I can only imagine what our foes are 
thinking. But they are probably thinking the same thing, ``What 
are these guys doing to themselves?''
    This is why it's not only a substantive matter, but it is a 
matter of appearances and deterrence that we get our act 
together with respect to sequester.
    Senator Reed. So, essentially, this goes beyond just the 
numbers in the budget and what programs we are going to fund. 
This goes to the perception of the world of the United States 
being both capable and resourced to carry out a strategy to 
support their allies and oppose their adversaries. Is that 
accurate?
    Secretary Carter. That is exactly right.
    Senator Reed. The other side of this coin, too, is, we are 
not in a situation where our allies seem to be stepping up to 
the plate to fill in the gaps, either the NATO countries or 
even our Gulf allies.
    Secretary Carter. Amen to that. You mentioned the 
Europeans. Europeans, our NATO partners, made a pledge to take 
steps that would, for most of them, involve an increase in 
defense spending. They really need to take that step, because 
we can't be the only one on our team with military potential in 
that theater, which, as you and the Chairman have mentioned 
with respect to Ukraine, is a very dangerous one.
    Senator Reed. I don't want to beat a dead horse, but their 
enthusiasm to raise their defense budget is probably affected 
by our lack of will to raise ours, not just the defense budget, 
but other budgets. Is that correct?
    Secretary Carter. That well could be, and it is yet another 
reason for us to get it together here.
    Senator Reed. General Dempsey, you mentioned there are nine 
lines of operation against ISIL, and the Department of Defense 
has, I think you said, two. So there are seven lines being 
funded outside the DOD budget. Is that accurate?
    General Dempsey. Yes. Some of the lines, for example, 
counter messaging, reside partially within our budget, but 
generally, the answer to that is yes.
    Senator Reed. So that even if we were to restore some 
significant funding to the Department of Defense on the ground, 
you would still be without the resources you need to defeat 
ISIL and degrade ISIL?
    General Dempsey. Yes, sir. If what you mean is that we need 
the whole-of-government here, absolutely.
    Senator Reed. State, Homeland Security.
    General Dempsey. Right.
    Senator Reed. When you talk about the situation with Ebola 
recently.
    General Dempsey. Counter-foreign-financing, which works 
through Treasury.
    Senator Reed. The Treasury Department, et cetera, et 
cetera.
    So there is not a nice, neat separation between our 
National security and DOD and the rest of government.
    General Dempsey. Not on the ISIL campaign, no, sir.
    Senator Reed. Secretary Carter, just doubling back here for 
a moment, let's assume the worst and we don't move above the 
BCA and sequestration, how does this affect our overseas OCO 
[contingency operations] accounts? Is there an effect you see 
on our ability to fund them? Do you have to borrow from Peter 
to pay Paul?
    Secretary Carter. You mean if we are denied what we are 
asking for in the base budget? Well, we also have an OCO 
budget, as you say. There isn't slack in the OCO budget. That 
is money being spent for real things.
    It is being spent for the campaign against ISIL. It is 
being spent in Afghanistan. It is being spent in the Horn of 
Africa.
    So OCO is committed to the here-and-now ways that we are 
protecting our security, and we can't rob Peter to pay Paul.
    Senator Reed. Just in that same vein, General Dempsey, 
another way to approach the problem, how are you going to 
manage the strategic risk if we have the situation of 
sequestration in place, and the Budget Control Act?
    General Dempsey. As you know, sir, I have submitted the 
Chairman's risk assessment, which establishes the fact that we 
are at significant risk against the strategy as it was 
conceived in 2012 already. What we have been doing is we have 
been increasing risk over the past 3 or 4 years.
    What I would tell you now is that if we don't get funded at 
the PB16 level, and if we don't get the reforms inside of the 
budget, because it is $4.2 billion for this year, but it 
accrues to, I think, $40 billion over the FYDP [Future Year 
Defense Program], if we don't get that, the strategy is going 
to have to change.
    So if you are asking me how I am going to manage the 
current strategy, it is unmanageable.
    Senator Reed. Thank you, Mr. Chairman.
    Senator Inhofe. Secretary Carter, you heard the answer 
General Dempsey just gave. Do you agree with his statement?
    Secretary Carter. I do.
    Senator Inhofe. You know, I wasn't here. I am sorry I 
missed your opening statement, and I didn't have the benefit of 
reading it. But I think it is worthwhile getting on the record 
again--you have heard many times the statements of James 
Clapper and others.
    The Clapper statement: ``Looking back over my now half 
century of intelligence, I have not experienced a time when we 
have been beset by more crises.'' He repeated that in a 
different way later.
    Of course, just last week, we had General Stewart saying 
essentially the same thing.
    Now I assume that you agree with those statements?
    Secretary Carter. I do. When I started in this business, 
there was one problem, which was the Soviet Union.
    Senator Inhofe. Those were the good old days, weren't they? 
I can say that.
    Secretary Carter. I remember enough not to be too 
nostalgic. It was pretty serious. But the world is so much more 
complicated, so much more is happening, exactly as you say.
    Senator Inhofe. Hearing Prime Minister Netanyahu this 
morning, that just drove that home. I was thinking how easy 
that was. Yes, the threat was terrible. We had two superpowers. 
We knew what they had, and they knew what we had. They were 
predictable. We were predictable. Mutual assured destruction 
meant something. It doesn't mean anything anymore.
    I was just thinking about that, how different that is 
today.
    The other thing I wanted to mention is that, General 
Odierno, Admiral Greenert, General Welsh, and General Dunford 
all testified, and they talked about if sequester is coming in. 
Now you said something that I think is even more significant. 
You said even with the fiscal year 2016 budget, the Army, Navy, 
and Marine Corps won't reach their readiness goals until 2020 
and the Air Force until 2023. Is that accurate?
    So what you are saying there is even our budget, without 
the sequestration, you are saying that threat is there.
    Secretary Carter. What is going on there is digging 
ourselves out of a hole of sequester in the past, particularly 
the 2013 budget, the year in which the shutdown occurred, and 
so forth.
    The thing about readiness is that it is easy to have it 
fall off, but then it takes time to build it back. I think what 
the chiefs are saying absolutely accurately is we lost a lot of 
readiness through the turmoil of the last few years. Even if we 
are given the opportunity, as we hope with this budget, to 
start building back, it is just in the nature, it is in the 
nature of training, that it takes a while to get that readiness 
back. So I do agree with them.
    Senator Inhofe. Secretary Carter, you were over there. Of 
course, this is the first time you have appeared before this 
committee in this capacity. When you were over there and you 
apparently had some time, good quality time with President 
Ghani, when you were there, and it was observed, I think by 
General Dempsey, that we don't operate in a vacuum here. What 
we are saying the whole world knows. Is there anything you want 
to add with our relationship with President Ghani that would be 
beneficial to have the whole world know, or those who are 
participating in that theater?
    Secretary Carter. Yes. One thing, which is that he is a 
partner in a way that we have been looking for and without whom 
the sacrifice that we have made over these last 10 years can't 
be successful.
    He understands what we have tried to do for him. He knows 
that it has been a great benefit to his country and not just to 
protect our country, which, of course, it has, and was why we 
went there in the first place, to protect ourselves from the 
breeding ground of the 9/11 attacks on our own country.
    I think everybody who participated in this campaign ought 
to know that around the world and in our coalition, that we 
have now in President Ghani somebody who really gets the 
sacrifice that we have all made on behalf of Afghanistan, and 
is committed to making the progress that we made there stick. 
That is what I would say.
    Senator Inhofe. Okay. That's good. I appreciate that.
    Senator Reed talked about our limited resources now, and I 
wasn't sure I understood your answer there. Do you think people 
are out there--it doesn't matter where they are. It can be the 
Ukraine. It can be Georgia. It can be anyplace. Do they 
recognize that we don't have the resources we have historically 
had, and we are not able to do what we historically have done?
    Secretary Carter. Well, they hear us saying that, and they 
hear us debating that. You know, I hope, and this is something 
I try to say, and I am sure you all try to say, which is yes, 
we are having internal debates and so forth, and we don't like 
what is going on here, and I have, certainly, said that today. 
But don't underestimate the will and the power of the United 
States. I hope people understand that as well, because we still 
have the greatest fighting force the world has ever seen.
    Senator Inhofe. Yes, I understand that. We are aiming that 
toward others. People look at us, and yes, we do. But looking 
here at home, when even you admit that with the current budget, 
even without sequestration, our risk level is going to 
increase, right?
    Secretary Carter. That risk as measured in the readiness 
that needs to be restored, as you mentioned, yes.
    Senator Inhofe. Risk means lives, doesn't it?
    General Dempsey, should Congress pass AUMF [the 
Authorization to Use Military Force] without restrictions?
    General Dempsey. I am the military guy in the room, and I 
would always seek to preserve all of our options. I was 
consulted on the document passed in the Congress, and it will 
allow us to meet the campaign as we've designed it. You say 
without restriction. That really now becomes a decision between 
you and your colleagues.
    Senator Inhofe. All right. Secretary Carter?
    Secretary Carter. Exactly the same answer. Key to us is, 
can we do our campaign?
    Senator Inhofe. Okay, thank you, Mr. Chairman.
    Senator Reed. [presiding] Senator Hirono, please.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service and your testimony.
    Secretary Carter, as the department continues to rebalance 
our military forces in the Asia Pacific and the Middle East, 
there are, clearly, challenges, in terms of available 
resources. I know from our January meeting that you agree that 
stability in the Asia-Pacific region is critical to our 
National security, even as there is instability in so many 
other parts of the world.
    So you mentioned today once again in your testimony that 
one of the priorities is to continue our commitment to the 
rebalance to the Asia Pacific. So I did want to highlight one 
related issue that I would like to continue to discuss with 
you, and that is, there are plans in place to shift a number of 
military personnel and assets from Hawaii to include naval 
vessels, aircraft, Air Force tankers, back to the continental 
United States by 2020.
    I am concerned about how moving these kinds of significant 
capabilities away from the region, while we are supposed to be 
committed to the rebalance to the Asia Pacific, will look to 
our allies and to our adversaries. So I would like to continue 
this discussion with you, as we go forward.
    This is a question relating to energy security. In April 
2014, there was a DOD directive to all of our service entities. 
It was signed by the acting Deputy Secretary of Defense. This 
was a new energy directive to enhance capabilities while 
improving energy security and mitigating costs, because we all 
acknowledge that the DOD is the largest user of energy in our 
country.
    Can you tell us where DOD stands in regards to implementing 
this directive, which, by the way, goes to 2024? How is it 
supported in the President's budget?
    Secretary Carter. Thank you, Senator.
    On the first point, I agree with you entirely. The Asia-
Pacific rebalance is a critical part of our strategy going 
forward. We can't forget, as we are embroiled in the conflict 
against ISIL, which we must win, that it is a big world out 
there. We have interests and friends and challenges throughout 
the world, and the Asia-Pacific is where half the world's 
population and half the world's economy resides.
    So I agree with you, and I would be happy to discuss that. 
We have done that before, and that is a continuing commitment 
not only of mine and yours, but of our country. So I would be 
happy to talk to you about that.
    With respect to energy, a very important point. The energy 
landscape is changing a lot, and the Defense Department is, as 
you say, the largest user of energy in the Federal Government, 
by far, and, therefore, has a real stake in where we go with 
respect to energy and a role to play in getting us there.
    I signify, if I may, two ways in which we do that. One is 
R&D [research and development] in areas that are particularly 
important to defense, where because of our particular needs, we 
may be an early adopter of technology. That is a longstanding 
role of the Department of Defense in many things, like the 
Internet and everything else. We are doing it for defense, but 
it has spinoffs.
    The other way we play a role is in the country's overall 
energy strategy. Obviously, that is Secretary Moniz's 
responsibility, and the President's, but we try to make sure 
that what we are doing is aligned with them.
    Of course, finally--I don't want to go on too long--
overall, our energy situation has improved tremendously in the 
last couple years, and our opportunities have widened. That has 
been good for defense, because we are, for example, a huge user 
of fuel. When oil prices come down, we benefit from it. Thank 
you.
    Senator Hirono. Thank you for your continuing commitment.
    General Dempsey, there was a recent RAND workplace survey 
report that indicated that 62 percent of women who reported an 
unwanted sexual contact to military authorities indicated that 
they experienced at least one form of retaliation. A 
significant number of these retaliations came from coworkers, 
not from the command structure.
    So this is a difficult situation, and I would like to know 
what your thoughts are on this type of retaliation and how it 
can be curtailed within the service.
    General Dempsey. Well, it is absolutely unacceptable. There 
were 12 metrics that we have established to track progress 
toward ridding the professional force from this stain. Ten of 
them trended positively, two of them negatively. One was the 
retribution issue.
    Thankfully, a companion piece was that the vast majority of 
respondents--and by the way, we had an unusual number of 
respondents for a survey--expressed faith in the chain of 
command. So we actually have been able to isolate the issue to 
peer-on-peer retribution.
    Senator Hirono. Yes.
    General Dempsey. So you ask what we are doing about it. 
Well, based on that survey, actually, we have had several 
meetings. The Secretary convenes a meeting every 2 weeks, I 
think it is. We had one yesterday. That is the topic. We are 
looking to get after that, but we actually are encouraged that 
we have been able to turn the trendline on 10 out of 12. We 
have to go to work on the other 2, and keep our eye on the 
first 10.
    Senator Hirono. Yes, there will be continuing, I think, 
interest on the part of most members, many members of this 
committee----
    General Dempsey. As there should be.
    Senator Hirono.--on how you are doing on the peer-to-peer.
    General Dempsey. We don't mind that a bit. We have to work 
on this.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Senator Wicker, please.
    Senator Wicker. Thank you.
    Secretary Carter and General Dempsey, I want to ask first 
about the big picture. In the 6 minutes that we have, I would 
like to drill down a little on Afghanistan.
    Last week, Director of National Intelligence James Clapper 
spoke to us, and he said, among other things, unpredictable 
instability is the new normal. Secretary Carter, I think this 
is what you and Senator Inhofe were talking about when you said 
we used to know the exact threats, and it was one big threat, 
and now it is unstable and unpredictable.
    General Clapper also said this. He noted that, last year, 
there were more deaths from state-sponsored mass killings, more 
people displaced from their homes, and a higher rate of 
political instability than we have seen in decades. It was the 
most lethal year for global terrorism in 45 years. That is 
Director Clapper.
    Now, only a few days before, Secretary of State Kerry told 
the House Foreign Affairs Committee that we are actually living 
in a period of less daily threat to Americans and to people in 
the world than normally, less deaths, less violent deaths today 
than through the last century.
    Now, Secretary Carter, are we living in a period of less 
daily threats to Americans?
    Secretary Carter. Senator, I haven't seen that particular 
comment of Secretary Kerry----
    Senator Wicker. That is the exact quote.
    Secretary Carter.--with what the context of that was.
    But I would say two things. One is, to get back to what 
Director Clapper said about an uncertain world and one in which 
new and different threats are constantly emerging, I would 
agree with that completely. I just simply don't know what 
Secretary Kerry said in that particular instance, Senator, what 
the context for it was.
    But we, certainly, have serious threats to the United 
States around the world. I guess it is a good thing that we 
have combated terrorism as vigorously as we have since 2001, 
and we have made a lot of changes, a new Department of Homeland 
Security, a lot of changes in intelligence in the Department of 
Defense. So I think we have upped our game considerably.
    At the same time, our opponents, both state opponents and 
terrorists, continue to be pretty ingenious.
    Senator Wicker. Mr. Secretary, I would just observe, in 
terms of the level of threat, it is hard to square the two 
statements coming from two members of the same administration. 
Either we are living in a time of higher instability and more 
deaths from state-sponsored mass killings, or we are in a 
period of less daily threats to Americans, this second 
statement coming from our chief negotiator with the Iranian 
regime.
    I will have to say to you, it causes me concern that 
Secretary Kerry would feel this way while at the same time 
trying to negotiate a nuclear deal with this terrorist nation.
    General Dempsey, if the Secretary of State is correct, 
perhaps we don't have to avoid sequestration, if we are living 
a period of less daily threats to American, less threats to the 
people of the world, than normally. Perhaps we could stick with 
sequestration, if that is the case. Wouldn't you agree?
    General Dempsey. Well, you know, I would say this, Senator, 
one of the ways the military actually contributes to this 
argument is by being forward-deployed, so that we can shape and 
influence the future.
    You may have heard me say in the past the last thing we 
want to do is play a home game. If you sequester us, we will be 
playing a home game.
    Senator Wicker. Well, you know where I stand on 
sequestration.
    General Dempsey. I do, sir.
    Senator Wicker. I am doing everything I can, working with 
the bipartisan leadership of this committee.
    I appreciate your testimony on page three, General Dempsey, 
that threats are proliferating. It seems to me that that is 
what is obvious out there.
    It does concern me, though, when the Secretary of State 
completely misses the point, as demonstrated by the 
juxtaposition of Director Clapper's statement and the Secretary 
of State's statement.
    Now, Secretary Carter, on the first page of your testimony, 
thank you for commending our troops. You say, in Afghanistan, 
our soldiers, sailors, airmen, and marines are helping cement 
progress made toward a more secure, stable, and prosperous 
future.
    I want to salute you for saying that we have made progress. 
It seems to me that there are some people out there listening, 
maybe to the network news or some of the talking heads, who 
would conclude that things have gone to hell in Afghanistan.
    As a matter of fact, as you pointed out, in response to 
Senator Inhofe's question, President Ghani and his chief 
opposition leader are in a partnership. They appreciate our 
presence there, and we have made progress. Things are headed in 
the right direction. 10 years? worth of blood and sacrifice has 
gotten us to where we are.
    You say they are working to ensure that Afghanistan never 
again becomes a safe haven for attacks on our homeland or our 
partners and allies.
    I think 6 years ago, you might have been able to say that 
about Iraq. I just wonder what lessons we have learned from 
Iraq and what assurances you can give with the plan the 
administration has, with the President's plan for a drawdown of 
troops in Afghanistan, that we won't lose the progress that we 
have made that you have talked about, to cement the progress 
toward a more secure, stable, and prosperous future in 
Afghanistan, and toss that all away, as we have elsewhere.
    Secretary Carter. Thank you, Senator. We do have the 
opportunity to cement it. You said, what is the difference 
between Iraq and Afghanistan? They are very different 
situations in the following two ways.
    The first is that we, as President Ghani clearly indicated 
to me, but he has said this publicly, he wants us there. We 
have a willing partner. We have a bilateral security agreement, 
which we didn't get with Iraq, welcoming us to stay in 
Afghanistan. That is the first thing.
    The second thing is that we have a partner in President 
Ghani. You mentioned Dr. Abdullah, the Chief Executive Officer, 
and that is an important point, as you note.
    They are working together. I saw both of them. I saw both 
of them together. I kind of watched their relationship. They 
have agreed to work together in a multisectarian, if I can use 
that phrase, way, which is exactly what didn't happen in Iraq, 
the devolution to sectarianism. That is what led to the 
opportunity the cruel force of ISIL exploited and to the 
situation we are now in.
    So we have an opportunity in Afghanistan, for those two 
critical reasons that are so different from Iraq, to get an 
outcome that really is cemented.
    Senator Wicker. General, would you like to comment on that?
    General Dempsey. There is a terrorist network that 
stretches from Afghanistan to Nigeria, and we have to keep 
pressure on it along its entire length. I think Afghanistan is 
and will remain an anchor point for that pressure.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Senator Blumenthal, please.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to shift to an area where both of you have 
demonstrated a lot of attentiveness and caring, which is the 
well-being of the extraordinary men and women whom you command 
while they serve under you and afterward when they become 
veterans. I know that both of you have shown that, indeed, Mr. 
Secretary, in your prior life, when you worked as 
Undersecretary. General Dempsey, I was privileged to watch you 
perform at a recent event sponsored by the Woodruff Foundation, 
so I know how active you are in support of our troops and our 
wounded warriors.
    I want to focus on the connections between the DOD and the 
V.A., having now seen it from the perspective of the V.A., the 
Veterans Administration, in my capacity as ranking member. I am 
struck by the need for better information. The health 
electronics records have been a point of contention, but so 
have the formulary issue, the drug formulary issue. There are a 
variety of areas where there needs to be simply better 
coordination. That is a Washington word, ``coordination,'' 
``collaboration.''
    But can you see ways that we can improve the flow of 
information and the help that veterans get, particularly our 
veterans who suffer from posttraumatic stress and traumatic 
brain injury, which, as you know, both Chairman McCain and I 
have addressed in the Clay Hunt Veterans Suicide Prevention 
Bill that we cosponsored and that recently passed. But that is 
just a beginning, a down payment.
    I wonder what more we can do in that area. I know we have 
talked about it a little bit, and I wonder if you could address 
that in the context of the budget.
    Secretary Carter. I can, and thank you for that. We did 
discuss it. Accordingly, I have tried to see where things stand 
and assess it.
    I have a great partner in the Secretary of Veterans 
Affairs, and I have talked to him. To the soldier, sailor, 
airman, and marine, they shouldn't have to worry that there are 
two Cabinet departments that are responsible for taking care of 
them. They shouldn't have to worry about that. We should have 
to make it knit together.
    You mentioned IEHR, the Integrated Electronic Health Record 
program, formulary issues, which have to do with pharmacies and 
what they call drugs and so forth. So, yes, we do need to stay 
closely knitted, and we will.
    I wanted to particularly note your work on PTS [post-
traumatic stress], simply because that is one of these things 
that we have learned through sad experience in the last decade 
or so is a serious thing that can also be treated. I think you 
have been the one championing, and I thank you for that. We 
will do it, making sure that veterans who came along before 
there was this awareness and before there were these treatments 
are given the benefits of this awareness and given the benefits 
of this treatment.
    I have looked into that since you and I have talked. I can 
say more about that and we can talk about it privately, but I 
understand exactly the need that you were pointing me to, and I 
think I see a way that we can address that. That is really 
important for our older veterans.
    Senator Blumenthal. Well, I appreciate those comments. You 
are absolutely right. The diagnosis for PTS began in the 1980s, 
but troops were suffering from it way before then. Part of the 
challenge is to not only care for them, and you mentioned there 
are treatments, but in many ways, PTS is still a mystery. There 
are centers of excellence that the V.A. has established. One of 
them happens to be at the V.A. facility in West Haven, in 
Connecticut, under the aegis of Yale New Haven and the 
psychiatrists and so forth there, and they are doing some great 
work.
    But with proper support, and I hope it will come from the 
Department of Defense as well as the V.A., so much more can be 
done and more effective treatment, which we are just beginning 
to discover, as you observed.
    Let me just conclude by going through some of the 
procurement issues that I think are important.
    The Joint Strike Fighter, I am pleased to see the increase 
there from 38 to 57, which, going back again to your prior 
service in the Department of Defense, might not have been 
predicted at that time, the, in effect, vote of confidence. I 
don't want to speak too strongly, but it looks to me like that 
procurement program is proceeding well. Am I correct?
    Secretary Carter. I think we have stability in the Joint 
Strike Fighter program, compared to 5 years ago. That is the 
basis on which the ramp-up of production is a prudent thing to 
do. That is a good opportunity for us, that the program is 
running that way.
    Senator Blumenthal. I am very pleased to see that both the 
Virginia-class and the Ohio replacement are moving ahead on a 
very good pace.
    Secretary Carter. True. Both necessary.
    Senator Blumenthal. Thank you. Thank you, Mr. Secretary. 
Thank you, General.
    Secretary Carter. Thank you.
    Senator Reed. Senator Ayotte?
    Senator Ayotte. I want to thank the Chairman.
    I want to thank all of you for what you do for the country.
    Secretary Carter, I want to thank you very much for so 
quickly after your confirmation following through and meeting 
with the JTACs [joint terminal attack controllers] to hear 
their perspective on close air support on Friday, and for 
including me in that meeting.
    I appreciate your commitment to review the Air Force's 
decisions on the A-10 and appreciate your willingness to do 
that. So thank you very much.
    Secretary Carter. Thank you.
    Senator Ayotte. I wanted to follow up on the issue of 
Ukraine, on a different topic, and that is the issue of U.S. 
intelligence sharing, because there were reports recently in 
the Wall Street Journal that really troubled me about what we 
are doing to help the Ukrainians in terms of their defense, the 
information we can share with them to be able to minimize their 
casualties and defend their territory.
    In that article, basically what it said is that images are 
being significantly degraded to avoid provoking Russia and that 
what it was doing, in terms of Ukrainian officials, they said 
it has really hampered their ability of their forces to counter 
separatists because it is a 24-hour delay, in terms of 
intelligence sharing, and that they are actually approaching 
other countries like Canada because of these intelligence gaps.
    So can you help me understand, if we are not going to give 
them arms to defend themselves, because we haven't done that 
yet--and I appreciate that I hear from General Dempsey and you 
as well that this is something that you are very open to--at 
least we can share information with them because they are 
obviously dying by the thousands defending their own territory.
    So can you help me understand this issue; can we share 
intelligence with them so they can defend themselves?
    Secretary Carter. I can help you in a limited way, because 
that is not a decision that either the Chairman or I are 
involved in. This is an intelligence community thing, and it 
has to do with the sharing arrangement that we have with 
Ukraine. I think there are other considerations that they take 
into account when making that determination.
    But I think your larger point, which is that there are 
things that we can do to help the Ukrainians help themselves--
and, of course, the main effort there is the political and 
economic ones, sanctions and so forth. But on the military 
side, there are ways that we can help the Ukrainians to help 
themselves. We are, as you say, working through them now.
    But I am afraid I can't speak to the intelligence. The 
intelligence community will have to answer that.
    General Dempsey. It is sources and methods, Senator. It has 
nothing to do with the fact that we are worried about angering 
Russia.
    I can assure you that both the Secretary and I are 
committed to finding ways to help Ukraine defend its sovereign 
territory and reduce the casualties. There is a 
disproportionate number of casualties on the Ukraine side. You 
are right, both the Europeans and us should be active in trying 
to help them.
    Senator Ayotte. So think about if you, General Dempsey, 
with all of your military experience, if you are fighting an 
enemy and you weren't getting intelligence in real-time. A 24-
hour delay is like a lifetime in a wartime setting.
    So I guess the real-time intelligence, to me, there has to 
be a way to protect our sources and methods. But 24 hours later 
in an intelligence context is like a lifetime.
    So I really hope we will get them real-time intelligence, 
so that they can defend themselves. They have suffered too many 
casualties, and anything we can do to prevent those casualties, 
I think we have some responsibility here, given we were 
signatories to the Budapest Memorandum, too, and this is just 
outright aggression of one nation upon another. So I appreciate 
that.
    I wanted to ask as well about ISIL's activities beyond Iraq 
and Syria. We are hearing a lot about ISIL's activities in 
Libya.
    Can you help me understand what we see ISIL doing even 
beyond the grave challenges that we face of their establishing 
a caliphate along Iraq and Syria, in places like Libya? Where 
else are we seeing their presence? What are we going to do 
about it?
    Secretary Carter. Thank you, Senator. I will say something, 
and then the Chairman might want to add in.
    We are seeing it. We are seeing it throughout North Africa. 
We are seeing it in the Gulf area. I had a lengthy 
conversation, to get back to the previous conversation we were 
having on Afghanistan, with President Ghani, about it showing 
up in Afghanistan. Then we see people in Europe, individuals 
who are joining up, and so forth.
    I will give you the perspective I learned by talking to our 
folks over in the meeting I held in Kuwait last week, what I 
learned about it, which is, one, ISIL is attractive to younger 
members of older movements, where the leadership has gotten a 
little older. Maybe they have gotten a little staid. The 
younger guys who have more steam or are more deluded are 
attracted to this newer, more radical thing.
    The second thing I learned is that this is a social media-
fueled terrorism group in a way that we haven't seen yet. So 
people who are very distant from any battlefield, very distant 
from any experience of radicalism, suddenly becoming enticed 
through social media.
    In terms of what we do about it, I think this is why I 
wanted people to come from all over the region and, indeed, in 
the case of Special Operations Command, all over the world. We 
need to be prepared for this, in terms of protecting our own 
people.
    I think it is also true the diplomatic and nondefense 
people who were in this conference have this knowledge and 
responsibility. But it is something that we need to combat in 
the information domain as well. That is going to be 
challenging, because this is a social media--if bin Laden was 
the Internet terrorist, these guys are the social media 
terrorists. I think that we will see people running up that 
flag or saying that they are attracted to that movement all 
over the world.
    By the way, and this is the last thing I will say, that is 
why it is important to inflict defeat upon ISIL. We have to 
take the steam out of this thing. These guys aren't invincible, 
and we have to make that clear.
    General Dempsey. The only thing I would add, Senator, in 
addition to what the Secretary said about it, the radical 
nature of its ideology makes it attractive to a population 
where governance has collapsed broadly across the region. They 
are extraordinarily in the social media. So we really are 
taking and continue to refine a transregional, sustainable, 
persistent approach to this.
    As I said, it stretches from al Qaeda in Iraq and Pakistan 
all the way over to Boko Haram. At different times and in 
different places, they syndicate with each other. We have to 
see it that way, in order to deal with it.
    Senator Ayotte. Thank you.
    Chairman McCain [presiding]. Senator Manchin, and following 
Senator Manchin, at the request of Secretary Carter, he would 
like to take about a 15-minute break after Senator Manchin, and 
the committee will stand in recess for 15 minutes following 
Senator Manchin's questioning.
    Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Thank all of you for your great service to the country. I 
appreciate very much what you do every day.
    There is not a person that I know of in my state of West 
Virginia who doesn't support everything you do, doesn't support 
the military, how they fight. They will do anything you ask 
them to do.
    But they still ask questions about why we spend so much 
money on military, why we spend more than 8 of the next 
countries put together. So we have to be always gaining their 
trust, if you will.
    I know in procurement, we are not the best in procurement. 
We are not the best in developing weapons, as far as the 
costliness. Eisenhower said beware of the military-industrial 
complex. I think we all are in tune with all of this.
    So I know how detrimental sequestration is. We talked about 
flexibility at one time. Flexibility by itself won't do it. I 
understand that.
    Secretary Carter, you and I had a nice conversation. I 
think Secretary Hagel was trying to look at the budgets, 
reducing them by 20 percent and everything. But basically, it 
really comes down to the auditing, knowing where we are. I have 
talked about contracting. I have talked about the effectiveness 
of our National Guard. I have even asked the question, tell me 
the difference between the Reserve and the Guard, why do we 
have duplication? There is so much going on here.
    Are we allowing you to do everything that you need to do to 
run a very effective and efficient and cost-effective military 
for our country? The people in West Virginia are willing to 
spend their taxes and invest their taxes into the defense of 
this country. But with that, they would like to make sure they 
are getting pretty good bang for their buck, too, and not just 
throwing a lot of it away.
    So how do we do this? How do we help you? We ought to have 
an audit. We have been talking about that, and I know that the 
Chairman here has been very much concerned about that, and 
developing our arsenal, if you will, making sure we are able to 
get that to market, do what we are supposed to do, and get it 
there as quick as possible.
    So anybody on the panel, Secretary, if you wanted to start 
with that, and, General, chime in.
    Secretary Carter. Well, I think your constituents are very 
logical. They are saying, hey, look, I am willing to pay for 
defense, but I want to make sure that every dollar is spent 
well. So we need to pair our request for the funds that we need 
to defend our country with the assurances that we are using it 
well.
    We know we are not always using every dollar of the defense 
budget well. That is why I think Senator McCain, Chairman Reed, 
and this entire committee has been urging a movement toward 
reform, one I very much support and would like to partner with 
you on, because I think the taxpayer will find it easier to 
support what we are trying to do to defend ourselves if they 
also see us vigorously getting the best value for every tax 
dollar.
    You mentioned audit. Audit is, as you indicate, key. We 
have a plan for audit readiness for the Department. You and I 
have discussed that. Under Secretary of Defense (Comptroller) 
and Chief Financial Officer Michael McCord is in charge of that 
effort. But I am completely committed to its success.
    Senator Manchin. Sorry to interrupt, sir. Just one thing, 
every time we hear about reduction in force, it is always on 
our frontline. It is always the people we are depending on to 
be on the frontline, fighting and defending us.
    But when you look at, basically, the size of the staffs, it 
is just overwhelming the size of the staff keeps growing, but 
we always continue to talk about the reduction in force of the 
people we need out front.
    What can we do to help you there, to get control of that, 
reduce that staff proportionately?
    Secretary Carter. Well, you are absolutely right. I hope 
you will support and continue to support us as we get rid of 
excess infrastructure and shed excess staff.
    This is the kind of thing we have to do, if we are going to 
go forward here with resources that are still going to be under 
pressure. They are going to be under pressure, so we have to 
make sure every dollar counts.
    Senator, while I am speaking, before I ask the Chairman to 
comment on the same thing, let me just say, Mr. Chairman, I 
appreciate your consideration. This is about my healing up my 
back, and I thank you. However, I am doing fine, so since 
everybody is here, unless others want to take it, I am okay 
going on. I very much appreciate your consideration.
    Chairman McCain. Well, I was trying to prevent you from 
having to be interrogated by Senator Fischer. She's next.
    [Laughter.]
    If you are ready for that.
    Secretary Carter. I just got another pang.
    General Dempsey. Yes, thanks, Senator.
    First, it is probably worth remembering that when I became 
the Chief of Staff of the Army, we were tasked to find $487 
billion in the budget. We did. When I became the Chairman, I 
think I am actually jinx, but we were then asked to achieve 
that level, an additional $520 billion--roughly speaking, a 
little over $1 trillion. We have actually found $750 billion of 
it. What we are debating now is the last $250 billion over the 
next 6 years.
    I think we have done pretty darn well, to be honest with 
you, Senator.
    In terms of what you can tell the people in West Virginia, 
they are going to see those Mountaineers, the 20th-ranked 
Mountaineers, playing basketball, and they don't have to worry 
about getting blown up while they are watching a basketball 
game. We are doing okay at the away game.
    Last but not least, I would venture to tell you all that 
this group at JCS [the Joint Chiefs of Staff], the Chiefs, have 
proposed some of the most controversial and emotional changes 
in terms of paid compensation, health care, basing, weapons 
systems, than any group in my memory in 40 years.
    If we get some help with that, and we get some topline, as 
the Chairman mentioned, for things that were unforecasted--for 
example, space, nuclear weapons, the emerging threats--we can 
actually manage it and look the American people in the eye, as 
I do my own family, and tell them that we are spending your 
money wisely.
    Senator Manchin. Thank you, Mr. Chairman.
    Senator Reed [presiding]. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. I do appreciate 
your service.
    Secretary Carter, I appreciate your fortitude to stay, so 
you can have my questions.
    A lot of my colleagues have drilled down on some issues, 
and I have about three different areas I would like to touch 
on, if I may.
    As we look at the situation in Ukraine, and we see that the 
separatist forces are having success on the battlefield, do you 
believe that that may incentivize Putin to become more 
ambitious in Ukraine, so that he maybe would look at more 
ambitious goals with regard to that country?
    Secretary Carter. I am concerned about that. I think he has 
made his goals pretty clear. He speaks about them openly, which 
is to have all around him states that are in his orbit, rather 
than pursuing their own futures, their own independent futures. 
Ukraine is an example of that.
    I think that if we don't remain united on the political and 
economic pressure, which is having a real effect in Russia, and 
if we don't remain united in standing up for NATO in Europe, 
and if we don't remain united in sticking up for the ability of 
the Ukrainian Government and Ukraine to plot an independent 
path for itself, Putin will just keep pushing and keep pushing. 
My read of him is that that is the kind of guy he is.
    Senator Fischer. I would say, right now, that we are 
united. But I have fears for the future and how we move forward 
in this area. You mentioned NATO and our commitment there and 
the commitment that we have.
    What effect is it on the world when they see that we are 
not helping a country, Ukraine, with more lethal force to 
defend themselves when we signed an agreement that we would? 
What message does that send to our NATO allies and to the 
institution of NATO itself?
    Secretary Carter. As it happens, I was in Budapest in 1994 
when that agreement was signed, the very one that Vladimir 
Putin's Russia is violating, so I know it well.
    It was not a NATO-type agreement. But in it, Russia pledged 
to respect the territorial integrity of Ukraine, which it 
clearly has not done.
    Insofar as NATO is concerned, as you say, I think the point 
of our so-called reassurance initiative, but it basically means 
rotating more forces into Europe and taking steps to strengthen 
our presence in Europe, that is a way of saying, which I think 
we have to do, to NATO that we are with you in a very serious 
kind of obligation that we have under the NATO treaty.
    We have an obligation to Ukraine also. To get to your other 
point, I think that assisting them politically, economically, 
and we talked before about the military being something also 
under consideration, that is very important.
    Senator Fischer. As we look at Russia, they are not 
honoring the assurances that they gave to Ukraine. As you 
mentioned, that was an agreement. They have been in violation 
of the INF
[Intermediate-range Nuclear Forces] Treaty, which they don't 
admit to. But as has been discussed, they have been in 
violation of that treaty.
    How long does the United States wait before we start 
exploring options, not just with regard to Ukraine but with 
regard to Russia's blatant violations of a treaty agreement 
with our country?
    Secretary Carter. We haven't waited. We shouldn't wait. We 
haven't waited to explore alternatives. The INF Treaty is a 
two-sided treaty. They said they wouldn't do something. We said 
we wouldn't do something. They have done what they weren't 
supposed to do. So that means that we can react, in various 
ways.
    So if they don't get back into compliance, we can take 
steps that are defensive, in terms of defending ourselves, that 
are deterrent steps, and that are aimed at countering the 
effects of this weapons system that violates the INF Treaty 
that they are working on.
    I think they need to understand that the United States can 
react to this kind of thing. It was a two-way street. So it is 
not something that we asked them to do and they give us for 
free. It is something that we have. It is a two-way street, and 
we have begun to think about things we can do now.
    I mean, we signed the treaty because we thought it was, on 
the whole, best for both of us not to do that. That was the 
logic behind the treaty. I think that logic is still fine. But 
you can't be one-sided about it.
    Senator Fischer. I totally agree. I appreciate that you are 
looking for options. I hope you can be more public about that 
and also be very firm publicly in that the United States will 
react to treaty violations, especially when they are violations 
on treaties with our country. Thank you.
    Senator Reed. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you all for your service.
    General Dempsey, Secretary Carter, are you looking into how 
our plan for Mosul got out and what is going on with that?
    Secretary Carter. I have spoken to General Austin. The 
Chairman has as well. Clearly, that was an instance of 
speculation that, certainly, doesn't reflect what we need to be 
thinking, with respect to an offensive against Mosul, which is, 
we will conduct an offensive against Mosul when the Iraqi 
security forces can lead such an offensive helped by us, 
because it is important that that offensive succeed. So it will 
happen when it can succeed.
    Senator Donnelly. This would be for either you or General 
Dempsey. How do we make sure this doesn't happen again? What is 
being done to prevent it?
    General Dempsey. As the Secretary mentioned, General Austin 
and I have been in contact. He is conducting an internal 
inquiry into it. I know he will take the appropriate action.
    Senator Donnelly. Thank you.
    Let me ask you this, and these are obviously not classified 
sources or whatever. These are newspapers you read, this and 
that. They said this morning, in the effort that is going on in 
Tikrit, that we are really kind of peripheral players in this 
and that General Soleimani from Iran is on the frontlines with 
the Shiite militia.
    What is going on there?
    Secretary Carter. This gets back to the point made earlier.
    Senator Donnelly. I apologize, if it was already mentioned.
    Secretary Carter. No, it is fine. I am sorry. Your question 
is right on.
    We operate in Iraq in support of the Iraqi Government. The 
Iraqi Government, in this case, did not ask for our support, in 
this particular operation. I think that we need to be watchful, 
together with the Iraqi Government, as we take back territory 
from ISIL, that we continue to conduct this campaign in a 
multisectarian way, because we have been down the road of 
sectarianism in Iraq, and it is important that the Government 
of Iraq today not go down that road again.
    So we need to have success against ISIL. But we need to 
have it in a way that doesn't inflame sectarianism again. That 
is why we are watching this so closely.
    General Dempsey. If I could add, Senator, the Soleimani 
report, by the way, is a pull off of social media. I have seen 
pictures myself. Our intel community will now go to work to 
decide whether he was personally there or not.
    But it is worth reminding ourselves that Iran and its 
proxies have been inside Iraq since 2004. This is the most 
overt conduct of Iranian support in the form of artillery and 
other things. Frankly, it will only be a problem if it results 
in sectarianism, as the Secretary said.
    So of the size of the force going to Tikrit, about a third 
of it is Iraqi security forces, the Fifth Division normally 
based just north of Taji, and then the other two-thirds are 
Shiite militia from the Popular Mobilization Committee.
    If they perform in a credible way, rid the city of Tikrit, 
turn it back over to its inhabitants, then it will, in the 
main, have been a positive thing in terms of the counter-ISIL 
campaign.
    At this point, as the Secretary has mentioned, it is 
supported by the Sunni members of parliament and the local 
leaders. But that is dependent on the behavior of the militia 
as they conduct this campaign.
    By the way, we are watching.
    Senator Donnelly. I was going to say, I am sure, like you, 
my concern is that these Sunni tribal leaders look up and go, 
these are the same people who have been working us over for 
years. At what point do they say, where's the good option here 
of these sides?
    Secretary Carter. That is exactly the concern. They did, as 
we understand it, make a statement today, the tribal leaders in 
the area, that they supported the offensive. I hope that is 
true, because what is very important is that we all be behind 
defeating ISIL and that sectarianism not raise its ugly head 
again, because that is what brought us to this place in the 
first place.
    Senator Donnelly. Let me ask one last question, because I 
have about a minute, and I know it will take up that much time.
    It has been mentioned in Syria that we plan to reduce ISIS, 
get rid of them. How do you bring Assad to the table?
    Secretary Carter. In Syria, it is a very good question. I 
will offer the following: He needs to come to the table in 
order to discuss his own receding from the scene in Syria.
    Senator Donnelly. Right.
    Secretary Carter. For that to occur, he needs to see the 
right combination of the doom of the strategy that he has set 
his country's course on, set the course of his country on, and 
also I believe the pressure from Russia and Iran, both of whom 
are supporting him. They need to withdraw their support of him, 
because of what he has done to his country. When he sees that 
combination, it seems to me that may cause him to recede.
    But no doubt on our point of view, which is he has done 
things to his people by this time that put him outside the 
pale, and he has to go.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Reed. Senator Sullivan, please.
    Senator Sullivan. Thank you, Mr. Chairman.
    Secretary Carter, it is good to see you again. 
Congratulations.
    General Dempsey, others, thank you for your service.
    I want to go back to a theme that we discussed during your 
confirmation hearing, and that is this broader theme of 
leveling with the American people on our threats. I think that 
you are seeing--I would call it a pretty general bipartisan 
concern that there is a disconnect sometimes between what we 
are hearing from the uniformed military and what we are hearing 
from the intelligence services and agencies, and, importantly, 
what we are hearing from the leadership of the country, the 
President. Senator Wicker was talking about the Secretary of 
State.
    You know, I think there is growing agreement, certainly 
here, about the importance of defense spending, and how we, 
certainly, think, I think most Americans think, we face a lot 
of threats in the world. Defense spending is a function of 
these threats.
    But when we hear kind of the disconnect between different 
members of the administration on what the threat levels are, 
and how the President in many ways paints a very benign picture 
of what is going on in the world and how we are making progress 
in a lot of areas, it undermines credibility in what we all are 
trying to do with regard to bolstering our National defense.
    So again, I am not going to go into the specific quotes 
from Secretary Kerry, the President's State of the Union, all 
of which seemed to tell Americans, hey, don't worry, everything 
is looking great. Things aren't looking great, and I think that 
you and the members of the military recognize that.
    What would you see right now as the top three biggest 
threats that the United States is facing, both of you, 
Secretary Carter and General Dempsey?
    Secretary Carter. Before I get to the top three, to your 
first point, I think that the President is requesting in this 
budget an end to sequester and more money than would be called 
for by sequester.
    Senator Sullivan. I recognize that. But it is harder to get 
through the Congress, if the President in his next breath or 
the Secretary, in his next breath, of State, says that, don't 
worry, everything is fine in the international world. The 
threat level is decreasing. The moment of crisis has passed. We 
are making progress with ISIS. I mean, I don't think any of 
those statements are accurate.
    Secretary Carter. Well, the only thing I would say is that 
I think the reason why we need the resources that we are 
requesting, both in the base budget and in the OCO budget, is 
because we are being asked to respond to and defend the country 
against a great variety of threats.
    I will do a stab at three of them, but it is very hard to 
rank things, because they are all important, otherwise we 
wouldn't be doing them. But just to pick the things that we are 
requesting additional funds for, that is OCO funds this year, 
which are new things. I think you have to count ISIL as one. We 
are requesting funds specifically in addition to the base 
budget for combating ISIL. I think the same is true of the 
European Reassurance Initiative, which is connected with the 
behavior of Russia in Europe and our NATO and other obligations 
in Europe. We are requesting extra money for that in the OCO 
budget. We are requesting, of course, funds for Afghanistan, to 
make sure that our success there can stick.
    So I don't know that those are the most important things, 
but they are very important things. There are other reasons why 
we are requesting the amount of money that we think the country 
needs, which is above the sequester level.
    Senator Sullivan. So, General Dempsey, do you generally 
agree with those top three?
    I am going to get to a couple other questions.
    General Dempsey. I might package them a little differently. 
I am actually concerned about European security for reasons we 
talked about earlier and, in particular, because--and it is not 
just about Russia. It is what Russia has done, as I mentioned. 
It has started a fire of ethnicity and nationalism. It may, 
actually, burn out of their control.
    So European security, for the first time in 20 years, 
concerns me.
    Second, the threat network that, as I mentioned, runs from 
Afghanistan, Pakistan, all the way to Boko Haram. We can't just 
deal with one of those groups. We have to deal with them in the 
aggregate. We have all kinds of tools, direct action, building 
partners, enabling others like we are doing with the French in 
Mali. But we have to keep the pressure on that entire network.
    The last one is one I would have to discuss in a closed 
session, and that would be on narrowing technological gaps in 
certain key areas.
    Senator Sullivan. Okay, thank you.
    I want to switch, gentlemen, to the Arctic and the 
strategic posture that we have up there.
    Mr. Secretary, in your last hearing here, you did mention 
that you agreed with me that Alaska occupied the most strategic 
place in the world, according to Billy Mitchell. I just want to 
straighten the record with the Chairman and the ranking member. 
Billy Mitchell was court-martialed, but he was court-martialed 
for insubordination after accusing Army and Navy leaders of 
``almost treasonable administration of national defense'' for 
investing in battleships as opposed to aircraft carriers. He 
was later given a Congressional Medal of Honor by the Congress. 
So I think he has been vindicated, but I am going to ask a 
question that follows up on that.
    You put out a strategy on the Arctic, and yet the Russians 
are making huge moves in the Arctic with regard to new bases, 
with regard to new airfields, new Arctic command, claiming 
territory over huge swaths of the Arctic. We had big support in 
Alaska the last week, the Army task force that was up looking 
at potential force reductions, looking at two brigade combat 
teams potentially being moved out of Alaska.
    If the Army eliminated even one brigade combat team in 
Alaska, how do you think Kim Jong-Il or Vladimir Putin or our 
allies in Japan, Korea, Singapore, would react to that, given 
how important the Arctic is, given how important this new part 
of the country is? To be honest, we have a 13-page paper. The 
Russians are putting major, major troops and infrastructure in 
the Arctic.
    Does that concern you? Should we be looking at removing 
brigade combat teams, our only airborne brigade in the Pacific?
    Sorry, Mr. Chairman. I went on a little longer.
    Secretary Carter. I think both of your points are very 
important. The Arctic is going to be a place of growing 
strategic importance. The Russians are active there. We are, as 
your state is right on the point of, an Arctic power. That 
needs to be part of our strategy. It needs to be more than, and 
I think it is, more than a pamphlet, as you say.
    The other thing you raised with Kim Jong-Il's thinking, and 
so forth, this is why, whether we continue to invest in the 
defense that we need, whether it be BCTs [brigade combat 
teams], as you say, or any other part of our force, is 
something that others are watching. It is important, if we ever 
have to use it. But it is also important in ensuring that it is 
less likely that we will have to use it.
    I do worry about our foes being encouraged or heartened 
when they see us debate whether we should spend enough money on 
our defense. That is just yet another reason why I really hope 
we get the support for the defense spending we need.
    General Dempsey. I won't speak to the number of Army BCTs, 
brigade combat teams. But I will say the Russians have just 
taken a decision to activate six new brigades, and four of them 
will be in the Arctic.
    Chairman McCain. [presiding] Thank you.
    Some of us still believe in battleships, and we are not 
sure that Alaska should have ever been made a State.
    [Laughter.]
    Senator King?
    Senator King. With some trepidation, Mr. Chairman, I want 
to associate myself actually with the Senator from Alaska's 
questions, because the Arctic is emerging as an enormously 
important and strategic area. Just one of the simplest 
measurements is, we have one heavy icebreaker and one medium 
icebreaker. The estimates are that the Russians have 7 to 10 
icebreakers. That is just basic infrastructure. The resources 
up there, and the strategic implications, are enormous. So I 
appreciate the Senator raising that question.
    I think one of the things we have to do is put this 
discussion into context, in terms of your budget. This chart, 
which I am sure you are familiar with, is the last 50 years of 
defense spending as a percentage of GDP. Starting in 1962 at 
about 9 percent, today it is at 3.3 percent and headed down at 
a time of increasing threat and peril for our country.
    Often, we get confused about the absolute dollar amounts, 
but a percent of GDP is a way of comparing apples to apples 
throughout recent history. We are reducing the defense function 
dramatically--dramatically--at a time, as I said, of increasing 
threat.
    General Dempsey, I want to put a fine point on your 
testimony. You talked about numbers of deployments and 
readiness. If we aren't able to avoid the sequester, are 
American lives being put at risk?
    General Dempsey. Yes.
    Senator King. That is an eloquent answer, General. I 
appreciate it.
    Secretary Carter, I do want to talk about an area of your 
budget in a little more detail. $5.5 billion is scheduled for 
increased activities in cyber. I am extremely concerned about 
cyber. I think it is the next frontier of warfare. We have had 
plenty of warning shots across our bow in the last couple 
years. Yet Congress hasn't acted. I commend you for taking this 
initiative.
    Here's my concern, however. News reports are that the CIA 
[Central Intelligence Agency] is expanding their cyber 
capability. Of course, NSA [the National Security Agency] has a 
substantial cyber capability. You are building a substantial 
cyber capability. I don't want to return to the post-September 
11 days when we had a lot of intelligence capability, but they 
weren't talking to each other.
    Please assure me that you will be coordinating with CIA and 
NSA, so that we are not duplicating, overlapping, spending more 
of the taxpayers' money than we have to, and, worst of all, not 
sharing whatever information is being derived in this field.
    Secretary Carter. Well, thank you. You are absolutely 
right. This is a terribly important DOD mission, and that is 
why both I and, I think, the Chairman has been a great leader 
in this as well, and we are so determined to do more.
    But this is one of these things that, just like you 
analogized it to the war on terrorism before 9/11, it requires 
us to stitch together the efforts of different parts of the 
government. To the list you named, I would add also the FBI, 
which has some capabilities and some authorities in this area; 
DHS [Department of Homeland Security], which has capabilities 
and authorities in this area. We have to make the whole greater 
than the sum of the parts.
    So even as we in DOD move out and make the investments we 
need to, we need to coordinate with the others.
    Our investments are in two categories. One is to make sure 
that our networks are secure, because our forces depend for 
their effectiveness upon information networks. So the buying of 
planes, ships, and tanks doesn't get us anywhere unless we have 
the networks to go with them. They don't do any good in 
warfare, unless the networks are survivable and able to avoid 
penetration.
    Also, another thing we need to do is build cyber-weapons as 
weapons of war, because war comes out of being a dimension of 
future warfare, as many have noted.
    We also play a role----
    Senator King. Let me interrupt you there, if I might. I am 
concerned that our cyber-defense system is just that, it is 
defense, and that we don't have an offensive capability. Or if 
we do, it is not broadly known. Therefore, particularly nation 
states who act against our cyber, we are very vulnerable, 
because we are such a wired country. There is no price to be 
paid.
    I wonder if we shouldn't be developing a theory of 
deterrence similar to nuclear deterrence in the 1950s, 1960s, 
and 1970s, which served us well, actually, until today, so that 
people understand that if they come against our cyber-
infrastructure, they are going to pay a price. Is that 
something that I hope you can consider?
    Secretary Carter. I think that is very wise, so I 
appreciate that thought.
    I think that is something that we need to think through 
better than we have. What does doctrine mean, what does 
deterrence mean, in this new domain?
    So at the same time we build capabilities, we have to build 
doctrine as well. So I think that is a very, very wise point.
    Senator King. Thank you.
    Final question, and I am running out of time, so I will 
really ask you to respond to this perhaps on the record.
    That is, you have identified as a priority acquisition 
reform. I know that you once held that job, and I hope you will 
hold to that. I would like to see a little more detail about 
how you are going to tackle that.
    I know the Chairman has expressed this concern. How do we 
get at procurement not only in terms of cost, but in terms of 
timeliness, that we are not taking literally decades to develop 
a new aircraft, but that we have a more timely procurement 
process?
    So you don't have to respond now, but I would appreciate 
seeing something on that, because I think that is a very 
important part of your mission, going into this job.
    By the way, I am delighted that you are here with us today. 
Thank you.
    Secretary Carter. Thank you. Will do. I will respond.
    Senator King. Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, Secretary Carter, General Dempsey, for being 
here with us. We appreciate your service and your testimony 
today.
    Secretary Carter, in the beginning of your testimony, you 
had given quite an extensive list of the trips that you have 
taken, the people that you have met, the places you have been, 
and the impact with equipping and training our soldiers. So I 
can tell that is very important to you.
    Do I understand correctly that you also took a trip to 
Arlington?
    Secretary Carter. I did the morning I was sworn in, with my 
wife.
    Senator Ernst. I appreciate that so much, Secretary. That 
tells a lot about a person, that not only are you recognizing 
the sacrifice that the blue star families give to their loved 
ones who are serving overseas right now, but also to those gold 
star families that have left someone behind.
    Secretary Carter. Thank you.
    Senator Ernst. So thank you for doing that.
    Secretary Carter. Thank you.
    Senator Ernst. I learned of that, and I was significantly 
impressed that you would take the time to do that. So thank 
you.
    I do want to talk a little bit about, we have talked about 
this all day, with the Shiite militia. I know Senator McCain 
had spoken about this earlier. In the fiscal year 2015 budget, 
we had $1.6 billion that we used for the Iraq train and equip 
fund, and that was to train and equip the Iraqi security 
forces, the Kurdish Peshmerga, and Sunni tribes and, of course, 
other local forces. Now in this fiscal year 2016 budget, you 
are requesting $700 million for this fund.
    I do support this effort. I think we should be training and 
equipping the Kurdish Peshmerga. I think they have been 
important allies in the pushback against ISIS and others. But 
what I am concerned about, though, is the relationship between 
the Iraqi security forces, Iran, which has been the sidebar 
topic of many conversations today, and the Shiite militia 
forces.
    During the Iraq war, IEDs were a huge concern to American 
troops. I think as Senator McCain alluded to earlier, there 
were some types of IEDs, the EFPs, explosively formed 
projectiles, that were used. They were devastating to our men 
and women, left many gold star families out there.
    We know that those EFPs, a lot of those came from Iran. So 
right now, what I would like to hear from you is, are American 
taxpayer dollars going to the Shiite militia that once were 
fighting against American soldiers? How can we assure the 
American taxpayer that these dollars going to this fund to 
train and equip Iraqi forces will not be used against us, as we 
move forward?
    Secretary Carter, if you can address that?
    Secretary Carter. Thank you. Then Chairman Dempsey.
    First of all, I share your concern about the Shiite 
militias and the face of sectarianism looming again in Iraq, 
which, as you know extremely well from your own service, is the 
principal challenge that the Government of Iraq faces going 
forward.
    Our training and equipping is to Iraqi security forces 
through the Government of Iraq. Our assistance, by the way, 
also to Peshmerga is through the Government of Iraq. That 
reflects the view that a multisectarian Iraqi Government is the 
best way to keep Iraq together and to defeat ISIL in Iraq, and 
ultimately drive them out of the country.
    But I say I share your concern because what we have seen in 
the last few years has been sectarianism eroding the 
capabilities of the Iraqi security forces. That is why they 
collapsed in the face of ISIL.
    So I absolutely share your concern about EFPs. You know 
that extremely well from your own service. We have had that 
experience before.
    General Dempsey, who was there also in Iraq, does as well, 
so let me ask him to join in.
    General Dempsey. I will just express my own concern as 
well. I think if General Austin were here--I guess he will be 
here, actually--he would tell you that the reason his campaign 
plan is deliberate is that one of the lines of effort--I 
mentioned there were nine--is Iraqi governance. If the central 
government of Iraq does not achieve, let's call it 
reconciliation, because that is probably the right word, with 
the Shiite and the Kurds, then it does put our campaign at 
risk. So I am concerned about that.
    As far as the weapons that we have been issuing to the ISF 
[Iraqi Security Forces], as well as to the Peshmerga through 
the Government of Iraq, we have confidence that those are going 
into the right hands.
    Some of the weapons you have seen in the hands of the 
Shiite militia, because you can see it on YouTube and on 
Twitter and places, are things that were procured by the Iraqis 
through our foreign military sales process that they bought a 
couple years ago, two or three years ago. But we are monitoring 
it as well as we can.
    Senator Ernst. I thank you very much.
    Senator McCain, thank you.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses for this excellent testimony. I 
want to ask about two items, sequester and the ISIL AUMF.
    On sequester, I received a letter last week as a member of 
the Budget Committee from Chairman McCain and Ranking Member 
Reed that I would ask unanimous consent that it be entered into 
the record.
    Chairman McCain. Without objection.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
      
    Senator Kaine. Highly important letter for Budget Committee 
members and all of us, and I just want to read one sentence to 
you and ask if you agree with it.
    ``If we continue on our current path, i.e., sequester, we 
risk undermining the central pillars of our all-volunteer force 
and with it the foundations of international peace and 
security, of which the United States military has been the most 
reliable guarantor since the end of World War II.''
    Do you agree with that statement?
    Secretary Carter. I do.
    Senator Kaine. General Dempsey?
    General Dempsey. I do, Senator.
    Senator Kaine. It strikes me, could we send up any sort of 
clearer white flag at the beginning of a partial disarmament 
than to place a vote on the BCA from August 2011 as a higher 
priority for the Nation than our security in a world that has 
changed and put new threats on the board since then? Could we 
do anything that would send a worse message to our allies about 
our weakening resolve?
    Secretary Carter. I am very concerned about what our 
internal budget debates look like to friends and foes alike 
internationally. It is yet another reason why we really need to 
knock it off and get ourselves on a stable budget path that 
gives us enough to defend ourselves properly.
    Senator Kaine. Let me just say that we have had an 
interesting set of discussions about Afghanistan. I think the 
committee has come to the position we should be conditions-
based, not calendar-based. Let me apply that same analogy to 
our sequester issues.
    Shouldn't we be conditions-based? I mean, are we really 
going to elevate a BCA cap that we voted on in August 2011 
before North Korea's cyberattack, before Putin went into the 
Ukraine, before ISIL was grabbing acres? Are we really going to 
elevate that above a conditions-based national defense? For the 
same reasons that we shouldn't elevate a calendar over the 
conditions in Afghanistan, we shouldn't elevate an August 2011 
vote over the conditions of security that faces the country.
    I took that as the point of the letter, and I recommend it 
to all of my colleagues.
    With respect to the ISIL AUMF, an area where I sort of have 
disagreed sometimes with the Chairman, but where the back-and-
forth has made me think about my position, is the question 
about the issue of ground troops as part of the ISIL AUMF. In 
listening to the Chairman about this, what I have realized is 
that my concern is not really about language, and it is not 
really about sort of the constitutional allocation of power. It 
is really about the definition of the mission. I would like to 
ask you a question on this.
    We have heard in last three weeks, in meetings with the 
Foreign Relations Committee by, first, King Abdullah of Jordan, 
and then the emir of Qatar last week, about the battle against 
ISIL in the region. Both of them said to us, essentially, U.S. 
ground troops aren't a good idea because this has to be our 
fight against our terrorist threat. We want your help. We want 
you to be deeply involved. But if it gets pitched as the U.S. 
against ISIL, or even as the West against ISIL, then it takes 
on a fundamentally different tenor and could even become kind 
of a recruiting bonanza for ISIL.
    King Abdullah, in a very courageous way, and sadly, we met 
with him on the very day that it was revealed that the 
Jordanian pilot was so horribly murdered, burned, he said, this 
is our fight and we have to show the world that this is our 
fight. If we are willing to do it, then we need all kinds of 
help from you. But we have to be up front that this is our 
fight. The United States didn't create ISIL. It didn't create 
this extremist ideology. It was birthed in our region by people 
claiming the mantle of the religious tradition that we honor, 
and perverting it for a bad end.
    So both of them have sort of guardedly advised us against 
ground troops, but toward the big picture goal that this battle 
against ISIL has to be the region policing itself, not the U.S. 
trying to counter them.
    As we think through this military mission, what is your 
response to that sentiment? Again, it is not about 
draftsmanship or about the allocation of power, but it is about 
isn't there a compelling need for the region to show that it 
will battle its own threat? If so, we will help them, rather 
than have it be the U.S. burden?
    General Dempsey. Senator, that is exactly how the campaign 
is designed. It is designed to leverage a coalition of regional 
partners, assisted by those outside the region, but very much 
relying upon those in the region to lead the effort, requiring 
the Government of Iraq to lead the effort, especially in terms 
of reaching out to form a coalition within Iraq of Sunni tribal 
leaders and Kurdistan Peshmerga.
    So I would simply say that is exactly how the campaign is 
designed.
    Secretary Carter. I second that. That is how the campaign 
is designed, and it is how it needs to be designed for the two 
reasons you say. The first is that we don't only seek the 
defeat of ISIL. We seek the lasting defeat of ISIL. That means 
after they are defeated, they need to stay defeated. That means 
somebody who is there ensuring that defeat. The second reason, 
that you also say, which is that if it becomes our war, it 
becomes a harder war.
    So for both of those reasons, we need to have others 
involved. That is, as the Chairman says, what the campaign 
calls for now.
    Senator Kaine. Thank you so much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you.
    Secretary Carter, welcome back in your capacity as 
Secretary. I have to go back to something that we were 
discussing a few series ago about the leak of our plans to 
Mosul. I believe Secretary Carter said you are looking into it. 
General Dempsey, I know you said you are looking into it.
    I don't understand what would take so long to get to the 
bottom of it. This was not a leak. It was a planned conference 
call with members of the media, if I understand the reporting 
correctly.
    Do I misunderstand something here?
    Secretary Carter. No, that is my understanding as well. I 
just would say two things about this whole incident.
    The first is, Senator, that when an operation is mounted 
against Mosul or anywhere else, it needs to be a success, and 
it needs to be Iraqi led, supported by us, and it has to be 
successful. That is a little bit like the conditions-based 
points that Senator Kaine--
    Senator Cotton. Mr. Secretary, I agree fully. I agree 
fully. I don't understand why announcing any timeline would 
have contributed to any idea it would have been a success, nor 
do I understand why it would take so long to understand why an 
organized conference call with the media was held.
    Secretary Carter. I will say something about that, and let 
the Chairman, who has also spoken to General Austin about that.
    That clearly was neither accurate information nor, had it 
been accurate, would it have been information that should have 
been blurted out to the press. So it is wrong on both scores.
    The only thing I will say is that we try, as the Department 
of Defense of a democracy, to be as open as we can. So there 
are lots of people out there talking all the time about what we 
are doing. Every once in a while, somebody gets out in front of 
their skis.
    But I also, even as we make sure that this particular 
incident doesn't happen again, I think that it is important 
that we be open as a Department, not with military secrets and 
not with war plans, which is the mistake made in this case. But 
we do try to keep the country informed of what we are doing. It 
is about protecting them. It is a democracy.
    So openness is important, but it has to have limits when it 
comes to security matters. Those limits, obviously, weren't 
respected in this case.
    Chairman?
    General Dempsey. Senators McCain and Graham have sent a 
letter through the President to the Secretary to me to General 
Austin, actually, to ask that very question. I must suggest 
that I will wait until we respond to the letter.
    Senator Cotton. Secretary Carter, during your confirmation 
hearings, you had mentioned that U.S. options to respond to the 
breach of INF Treaty by Russia and, this is a quote, and I 
think you alluded to this earlier when you were speaking with 
Senator Fischer, active defenses to counter intermediate-range 
ground-launch cruise missiles, counterforce capabilities to 
prevent intermediate-range ground-launch cruise missile 
attacks, and countervailing strike capabilities to enhance U.S. 
or allied forces.
    Could you elaborate on the size and scope of those 
capabilities, and what you think the Russian Government's 
reaction might be if we were to fund such capabilities?
    Secretary Carter. I think in this setting, I would like to 
limit the amount of detail that I go into. But I will affirm 
what you just said, which is that we have three kinds of 
options for responding to a violation of the INF Treaty. I 
think the Russians need to know that this is a two-way street. 
They signed, we signed, and we can and will react. Those are 
the three categories in which we could react militarily: active 
defenses, which are to protect ourselves and our allies and 
their territory against this new threat; counterforce, which is 
a way of making sure that if, God forbid, there is an actual 
military confrontation, they can't be used; and the third is 
this opens up the option for us to have systems which we 
decided to forgo in the interest of this INF Treaty years ago. 
We don't have to forgo them anymore because a treaty is a two-
way street.
    With that, Chairman, do you want to add anything?
    General Dempsey. The only thing I will add, Senator, is 
that the development of capabilities to fit into the categories 
that the Secretary mentions would be INF-compliant. That is the 
difference between the two of us.
    Senator Cotton. Okay.
    This may be a question about military terms of art, so I 
will start with the Chairman, if that is okay, and let 
Secretary Carter bat cleanup.
    Mr. Chairman, what are ``enduring offensive ground combat 
operations''?
    General Dempsey. I will tell you that as the one who would 
have to assist in the implementation of that, I would consider 
``enduring'' to be mission-by-mission. So if we were, for 
example, to decide that our advice to the President would be 
that we would have to introduce ground forces to accompany 
Iraqis into combat in Mosul because of the complexity of the 
terrain, then we can do that, but it would be mission-specific, 
as opposed to a temporal issue, mission-specific rather than a 
temporal dimension, meaning two weeks or two years.
    Senator Cotton. Secretary Carter, do you have anything to 
add?
    Secretary Carter. No, I think that is accurate.
    I think the important thing about the language of the AUMF, 
and however that discussion, debate, turns out from my point of 
view is, first, that we have the flexibility to run the 
campaign we need to defend the country. The second is that our 
troops see our government as a whole supporting them.
    Those are the two things that are important to me in this 
whole debate.
    Senator Cotton. Thank you.
    Chairman McCain. General, you keep saying that if you 
decide to recommend to the President. We would like to know 
when you are going to decide to make that recommendation to the 
President.
    General Dempsey. Well, Senator, when the task at hand, when 
I get the advice from CENTCOM, of course, General Austin, and 
when the mission would require it. We have not reached that 
point.
    Chairman McCain. No, things are going fine.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Gentlemen, it is good to see you.
    Mr. Chairman, in your professional military opinion, if 
additional arms are not provided to Ukraine, you have a little 
David fighting the Russian bear. Is it reasonable to assume 
that Russia, through their subterfuge of the rebels, would 
continue to advance right across the country?
    General Dempsey. I am concerned about two things, Senator. 
One is that it would be a Russian aspiration to do so, and 
then, second, the separatists may on their own decide to do so. 
There are capability gaps we have identified.
    Look, here's the other thing, Senator. If Russia wants to 
take Ukraine, it is going to take it, because of its geographic 
proximity and the size.
    On the other hand, there are some capability gaps that put 
the Ukraine forces at a real disadvantage. I think we ought to 
look for opportunities to provide those capabilities, so that 
on the chance that the Russians are actually telling the truth, 
which, frankly, I doubt very much, that the separatists and the 
sovereign state of Ukraine can compete on a level think field.
    Senator Nelson. Why do you think that the Russian policy is 
such that--as you say, if they decide to take Ukraine, they 
could. Why are they not moving more aggressively across 
Ukraine?
    General Dempsey. This is probably now speculative because 
the intelligence doesn't yet support it. I suspect it will. I 
think that their pace is designed to create uncertainty on the 
part of our European allies, because if they can maintain that 
level of uncertainty, then they have the potential to put 
friction inside of NATO, which is actually their larger 
strategic goal.
    Senator Nelson. If successful in Ukraine, and Russia wanted 
to continue to be aggressive, they could suddenly amass on the 
borders of the three Baltic states. There would be no match 
there, but now we have NATO members.
    What do you think is the resolve of the European NATO 
membership to stand and fight for the Baltics, if the Russian 
bear comes across the line?
    General Dempsey. That is the commitment they have made as a 
member of NATO. They all agreed to live up to their Article 5 
responsibilities.
    I will say that, based on the European Reassurance 
Initiative, that NATO has taken rotational force, Baltic air 
policing, establishment of a very high readiness joint task 
force. NATO and Wales made some commitments that indicate to me 
that they, all of them, take that responsibility seriously.
    The problem we could potentially have is the asymmetric 
nature of it, where there might be a dispute about whether it 
is actually happening. So we are working with our NATO allies 
to work through that.
    Senator Nelson. Of course, the situation there is, with 
those large Russian-speaking populations in the Baltics, 
especially in Estonia, it could give him the same excuse that 
he has tried to use with regard to Crimea.
    Let me ask you about mental health. I have been enormously 
impressed with some of our Special Operations Forces, that they 
are now realizing that the stigma against mental health 
counseling, they are really trying to turn it around, because 
it is performance enhancement, not only the body but the mind 
as well. To what degree are you all trying to implement that 
same thing across-the-board of the Department of Defense?
    General Dempsey. To a great degree, because it actually, 
when it started under Bill McRaven when he was the SOCOM 
[Special Operations Command] commander, now under Joe Votel, 
what they realized is exactly what you said, that it is not 
enough just to say it is not a stigma. So they found a way to 
turn it into a positive. We would call it a combat multiplier.
    So not only is it something you do after the fact but you 
build in the kind of resiliency you need right from the start. 
All the services are learning lessons with each other.
    Senator Nelson. Final question for either of you, training 
500 a month or every two months for the Free Syrian Army, is 
that really going to be productive?
    Secretary Carter. I will take that first, if I may, 
Chairman.
    That is a small number but grows over time. It is paced by 
the throughput of the training centers. I think that the U.S. 
effort needs to be just one effort. There need to be others in 
the region who participate in this. It gets back to something 
we were discussing earlier about the need for the defeat of 
ISIL to be a lasting defeat and for regional partners to be 
involved.
    So the only thing I would say is that there need to be 
other efforts beside the U.S. effort here, in accordance with 
the discussion we were having earlier.
    Chairman McCain. Senator Graham?
    Oh, I am sorry. General, did you want to--
    General Dempsey. Just to say that we need a partner on the 
ground, and we need something we can have this coalition 
coalesce around.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you. I think Senator Lee is allowing 
me to go ahead, and I appreciate it very, very much.
    Let's continue that thought.
    Have you been told, General, by the Arab forces in the 
region, the Arab leaders, that we are not going into Syria 
unless we can get rid of Assad?
    General Dempsey. There are some of them who say that, and 
others who don't. But, yes, I have heard that.
    Senator Graham. Well, the reason they are saying that is 
they don't want to defeat ISIL and turn Syria over to Iran, 
that Assad is a puppet of Iran. Do you agree with that?
    General Dempsey. I do.
    Senator Graham. So a lot of Arabs are saying, I want to 
destroy both enemies of the region, Assad as well as ISIL. So I 
don't see any chance of a regional force until you put Assad on 
the table.
    The Authorization to Use Military Force, I have a very 
specific question. The people we are training throughout the 
region to go in and fight ISIL, the Free Syrian Army, the young 
men who are going to join this cause, what would happen if the 
Assad air force, the airpower through MiGs and helicopters with 
barrel bombs, if they began to attack the people we trained 
because Assad knows one day they will turn on him.
    Under the Authorization to Use Military Force, can we 
protect the people we train against an attack by Assad?
    Secretary Carter. Well, first of all, I think we have an 
obligation to those we have trained to protect them. The manner 
in which that would be done is something that is being 
discussed. But in my view, we have an obligation to do that. It 
goes with the training part.
    Senator Graham. Do you agree with that, General?
    General Dempsey. I do, Senator.
    Senator Graham. Well, I agree with you both, and I have 
asked the White House General Counsel this very question and he 
told me very quickly, no, the Authorization to Use Military 
Force would not allow us, the United States, to engage the air 
forces of Assad. That is not included within the authorization.
    So that, to me, is a very important point. Could you check 
with the White House and see where they come out on this, at a 
later time?
    If the sanctions were relieved tomorrow, if the Iranians 
got sanction relief, General, what do you think they would do 
with the money, given their behavior on the ground today?
    General Dempsey. I can't speak to that, Senator. But here's 
what I will say, I am under no illusions that ending their 
nuclear program ends the problems we have with Iran in the 
region, whether it is surrogates and proxies, arms trafficking, 
cyber.
    So this is an adversary who, as someone pointed out 
earlier, has actually led to the deaths of American servicemen 
on the battlefield. So I think we have to keep an eye on them 
in that regard as well.
    Senator Graham. Would you agree with me that the most 
likely outcome, given their behavior today, is that they are 
not going to build hospitals and schools. They are probably 
going to put the money into their military?
    General Dempsey. You know, Senator, I think they will 
probably distribute their money like we do. I just hope they 
don't sequester it.
    Senator Graham. Well, I will tell you what, I just hope we 
don't give them more cash, because I think they are wreaking 
havoc as it is.
    Secretary Carter, do you agree with me that the Iranians as 
I speak are wreaking havoc throughout the region without a 
nuclear weapon?
    Secretary Carter. I do agree with that, Senator. You look 
at Yemen, from Yemen to Syria and Iraq and Lebanon and 
elsewhere, and that is why I think that it is important that we 
remain vigilant and prepared, and I think we, in the Department 
of Defense, need to and will be prepared for Iran across a very 
wide front.
    Senator Graham. Would you agree with the following 
statement? The Iranians with a nuclear weapon would be the most 
significant national security threat that Israel faces and the 
United States would face.
    Secretary Carter. Certainly, I would let the Israelis speak 
for themselves.
    Senator Graham. I think they have.
    Secretary Carter. I think so, too.
    The two things I would say is that we need to be concerned 
about Iranian behavior beyond their nuclear program.
    Senator Graham. Well, let's look at it the other way. Can 
you think of anything, off the top of your head, that would 
beat out an Iran with nuclear weapons?
    Secretary Carter. Well, there may be a close tie with North 
Korea with nuclear weapons.
    Senator Graham. Well, they already have nuclear weapons.
    Secretary Carter. I understand, but in terms of the danger 
posed by a difficult state in the possession of nuclear 
weapons.
    Senator Graham. Well, let's look at that. Do you think it 
is more destabilizing for Iran to get a nuclear weapon than 
North Korea, in terms of the Mideast?
    Secretary Carter. In terms of the Mideast, surely.
    Senator Graham. Have you been told by Arab allies that 
anything you give the Iranians on the nuclear front, we are 
going to want the same thing or more? If the Iranians get a 
nuclear capability, do you think the Arabs in the region will 
want nuclear capability to match the Iranians?
    Secretary Carter. There are those who have said that, and 
that is one of the reasons why we oppose Iran getting a nuclear 
weapon, because it could be the beginning of a powder train 
that would encourage others in the region to pursue a nuclear 
program as well. So that would just unleash proliferation in 
the Middle East.
    Senator Graham. So, the Prime Minister's warning in that 
regard today is probably well-heeded?
    Secretary Carter. I did not hear the Prime Minister today, 
but I, certainly, think that the danger of a runaway Iranian 
program stimulating runaway nuclear programs elsewhere in the 
Middle East is a very serious one.
    Senator Graham. Thank you, both, for your service.
    Chairman McCain. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to each of you for being here, and thanks for all 
you do to keep our country safe.
    Secretary Carter, the Department of Defense is calling for 
a BRAC round in 2017, citing that it has nearly 20 percent more 
infrastructure than it finds necessary. Can you give a more 
detailed explanation as to what the department finds within its 
infrastructure that is unnecessary or in excess, and why? Also, 
can you describe to us what improvements you think need to be 
made to the BRAC process to avoid the kind of cost overruns 
that we experienced in the 2005 round?
    Secretary Carter. Thank you. We are requesting another 
round of BRAC. The basis for that is a measurement of our 
infrastructure against our current holdings of equipment and 
our needs.
    So, for example, it is aircraft fleets versus apron space. 
It is that kind of analysis that measures the amount of excess 
infrastructure that we are carrying.
    With respect to BRAC rounds, the 2005 BRAC round was not 
what we are seeking, that kind of BRAC round. We are looking 
for the kind of BRAC that occurred in the 1990s, where true 
savings occurred.
    You might say, why didn't savings occur in the 2005 BRAC 
round? It is because when it came time to reconfigure bases--
that was, by the way, at a time when the defense budget was 
growing very rapidly--the department decided at the same time 
to modernize a lot of installations at the same time it was 
consolidating others. That created far fewer savings than a 
pure BRAC round would.
    So we are seeking BRAC authority. I know that that is not 
an easy thing to get, but we simply have to reduce tail, or we 
have to take it out of tooth, and I don't think anybody wants 
that.
    Senator Lee. Okay.
    A lot of Americans became frustrated last summer when we 
saw the Iraqi security forces, on whom we had just spent $25 
billion training and equipping over the course of the last 
decade, quickly free from a much smaller and less well-trained, 
less well-equipped ISIS force in northern Iraq, giving up 
ground and leaving behind a lot of weapons and leaving behind a 
lot of equipment that had been provided for them, a lot of it 
by us.
    So, Mr. Secretary, you just returned from a visit to the 
Middle East to look into our strategy there and how things are 
going there. Can you discuss with us a little bit the oversight 
we exercise over the train and equip missions in Iraq and in 
Syria, and tell us a little bit about what is being done to 
make those forces accountable for the training and equipment 
that we are giving them, just to make sure that something 
similar doesn't happen, make sure that our investment is not in 
vain?
    Secretary Carter. Thank you, Senator. Let me give that a 
start and then ask Chairman Dempsey to chime in, also.
    You exactly put your finger on it. What happened last year 
was an unwillingness of the Iraqi security forces to fight 
using the equipment and training that the United States had 
given them. The reason for that was a political failure on the 
part of their government to keep the promise that had been made 
to the country to keep it a multisectarian state. That is not 
what was happening under Maliki. That is the reason why the 
forces folded.
    So the most important thing we can do going forward is to 
make sure that Iraq doesn't decline again into sectarianism. So 
that is the most important thing we can do, and it is a 
political thing rather than a technical thing involving the 
training. But it is job one.
    Insofar as their training is concerned, I will let the 
Chairman speak to that. But we are giving them training and we 
are going to give them support when they go into battle. We are 
now, and we have been now for quite some time, conducting a 
bombing campaign against ISIL in order to blunt their offense 
and prepare the way for the counteroffensive.
    Let me ask the Chairman if he wants to add anything there.
    General Dempsey. Just in terms of the oversight, Senator, 
four locations: Irbil in the north, al Asad in the west, Taji 
just north of Baghdad, and Besmaya to the east of Baghdad. So 
the training is centralized.
    The oversight, once they deploy, is actually built around 
the supply chain, so the things that we are giving them, there 
is a tether that goes out to where they are operating.
    To this point, our program is to take and pull some units 
offline who exist, regroup them, put them back out, as well as 
to help the Iraqis manage their own training base.
    Does that answer the question?
    Senator Lee. Yes, I think that is helpful.
    As my clock is ticking down, if I can just ask one other 
quick question that either one of you can answer.
    How are U.S. defense and intelligence agencies adapting to 
the collapse of the Yemeni Government, and the loss of our 
primary counterterrorism partner against one of the most 
capable al Qaeda offshoots? What are we doing in that realm?
    Secretary Carter. Well, I will start, and the Chairman can, 
please, add.
    The first thing is that al Qaeda in the Arabian Peninsula 
[AQAP], which is in Yemen, is a very serious offshoot of al 
Qaeda, very serious for us because they are determined to 
attack us. They make that absolutely clear. Therefore, our 
counterterrorism operations in Yemen are critically important. 
Therefore, the restoration of a government there that will 
cooperate with us is very important to us.
    Now, we are trying to do everything we can to continue to 
combat AQAP in the face of what is going on with the Houthis 
and the government in Sana'a. But it will be much better for us 
if we are able to reconstitute or assist in the reconstitution 
of a government there in Sana'a.
    I know our diplomatic colleagues are working on that, but 
it is important to our counterterrorism effort.
    Let me ask the Chairman.
    General Dempsey. Yes, what I would add, Senator, is our 
diplomatic effort is to try to keep the country together, but 
our counterterror effort is based mostly out of Aden in the 
south.
    We still have a partner there who has an interest in 
keeping al Qaeda in the Arabian Peninsula under pressure. Our 
fear is that if the country does devolve into civil war, we 
lose that platform.
    Senator Lee. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. I want to thank the witnesses for a long 
afternoon of testimony. I believe that it is important that all 
of our colleagues, as well as the American people, understand 
your message, and that is that sequestration cannot continue 
without, as you responded to Senator King, without putting the 
lives of the men and women who are serving in uniform today in 
danger.
    I thank you for that frank and candid testimony. I thank 
you for being here this afternoon.
    Secretary Carter. Thank you.
    General Dempsey. Thank you.
    Chairman McCain. This hearing is adjourned.
    [Whereupon, at 5:19 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                        personnel and readiness
    1. Senator McCain. Secretary Carter and Chairman Dempsey: The 
Department's legislative proposals accompanying the fiscal year 2016 
budget request assume savings in the personnel and readiness accounts 
primarily: 1) by implementing new TRICARE fees or increasing existing 
fees; 2) by slowing the growth of military compensation (annual pay 
raises and BAH); and 3) by reducing commissary subsidies. If Congress 
does not authorize additional changes in compensation and benefits, 
where will the Department find the money in the budget to offset the 
savings assumed in the budget request? How would that impact force 
readiness?
    Secretary Carter. If Congress does not authorize the additional 
changes requested in compensation and benefits, the Department will be 
forced to take additional reductions within the readiness and 
modernization accounts and possibly make further force structure 
adjustments in the longer-term to offset the higher personnel costs.
    The proposed compensation adjustments are an important part of the 
Department's efforts to balance compensation with the required levels 
of readiness, capacity, and capability needed to ensure that our people 
can continue executing the Nation's Defense Strategy with continued 
excellence. Providing a robust pay and benefits package is a vital 
component of military quality-of-life and readiness, but we also owe 
our warriors the best possible training and equipment to ensure their 
superiority on the battlefield and bring them home safely to their 
families. A prolonged period of reduced investment in readiness and 
modernization will almost certainly mean a smaller, less capable, and 
less ready military, which could translate into future conflicts that 
last longer, and are more costly in both lives and dollars.
    General Dempsey. The President's Budget represents a strategic 
combination of capability, capacity, and readiness investments. The 
level of funding associated with each investment area creates a balance 
that allows the Department, albeit with manageable risk, to execute the 
Nation's defense strategy. Without support for the Department's reform 
initiatives to include those associated with military compensation we 
may need to adopt a defense strategy that is much less ambitious. Any 
significant changes to our PB proposals will challenge our already 
limited flexibility to operate. Compensation reforms were undertaken to 
slow the rate of growth of the military compensation and benefits 
package as part of a larger approach to preparing a future force that 
is balanced and ready to meet challenges known and unforeseen. Those 
savings are programmed against critical needs. Should those resources 
not become available the Department will have to revisit the strategic 
combination of investments in a holistic way to rebalance capability, 
capacity, and readiness within a new strategy.

    2. Senator John McCain. Secretary Carter and Chairman Dempsey: If 
sequestration continues in fiscal year 2016, how will it harm personnel 
and readiness programs?
    Secretary Carter. Sequestration would make it impossible to 
maintain a force trained and equipped to meet all the requirements that 
the Combatant Commanders and other military leadership have determined 
are necessary to ensure the Nation's defense against all the varied 
threats that exist today, and that might reasonably arise in the years 
ahead. Budget Control Act (BCA)-level funding in fiscal year (FY) 2016 
and beyond would require the Department to draw-down force structure, 
to fall short on our program to reset our equipment strained by more 
than a decade of war, and to forego some modernization programs 
necessary to keep out technological superiority. These are not just 
hard choices, these are bad choices.
    Over time, BCA level funding will erode our greatest strength--our 
people. Reductions in training and professional development programs 
will lead to a loss of proficiency and experience within the ranks, 
further degrading readiness, and substantially increasing the risk to 
the men and women in uniform. Reversing the harms of BCA-level funding 
will take longer than those harms to adversely affect the Department's 
ability to meet ever-changing threats. The money required to reverse 
these harms might well surpass the money saved.
    With regard to military personnel, the President exempted these 
accounts from the severe effects of the fiscal year 2013 sequester. 
Controlling the cost of pay and benefits to avoid further reducing the 
size of the force or sacrificing readiness would have to be considered 
if BCA-level funding returns.
    Lastly, sequestration will impact funding across the board for 
family programs and services. The Department remains committed to 
providing military families with support programs and resources that 
empower them to face the unique challenges of military life; these 
programs are crucial to the readiness and quality of life of military 
members and their families. Under sequestration, however, everything in 
the Department budget is subject to reduction or elimination. We will 
strive to protect the investment in these valuable programs, but cuts 
could directly impact support for families.
    General Dempsey. Sequestration would make it impossible to maintain 
a force trained and equipped to meet all the current requirements that 
our Combatant Commanders and other military leadership have determined 
are necessary to ensure the Nation's defense against all the varied 
threats that exist today, and that might reasonably arise in the years 
ahead. Budget Control Act (BCA)-level funding in fiscal year 2016 and 
beyond would require the Department to draw-down force structure, to 
fall short on our program to reset our equipment strained by more than 
a decade of war, and to forego some modernization programs necessary to 
keep our technological superiority. These are not just hard choices, 
these are bad choices.
    Over time, BCA-level funding will erode our greatest strength--our 
people. Reductions in our training and professional development 
programs will lead to a loss of proficiency and experience within our 
ranks, further degrading readiness, and substantially increasing the 
risk to our men and women in uniform. Reversing the harms that BCA-
level funding would have, will take longer than it will take for the 
harms to adversely affect our ability to meet the ever-changing threats 
we face, and the money that will take to reverse these harms might well 
surpass the money we would save.
    With regard to military personnel, the President exempted these 
accounts from the severe effects of the fiscal year 2013 sequester. If 
we return to BCA-level funding, controlling the cost of pay and 
benefits to avoid further reducing the size of the force or sacrificing 
readiness would have to be considered.
    Lastly, sequestration will impact funding across the board for 
family programs and services. The Department remains committed to 
providing military families with support programs and resources that 
empower them to face the unique challenges of military life; these 
programs are crucial to the readiness and quality of life of military 
members and their families. Under sequestration, however, everything in 
the Department budget is subject to reduction or elimination. We will 
strive to protect the investment in these valuable programs, but cuts 
will be unavoidable, and will directly impact support for families.

    3. Senator John McCain. Secretary Carter and Chairman Dempsey: Do 
you believe that the current military compensation and benefit 
structure has a negative impact on military readiness?
    Secretary Carter. The structure of the military's compensation and 
benefits package is sound and has allowed the Department to recruit and 
retain the ready force that has successfully met the intense challenges 
of these past 14 years of conflict. Maintaining a sound compensation 
and benefits package requires periodic adjustments to ensure it remains 
competitive and relevant. The support of the Congress in adjusting the 
rates of pay and the flexibilities the Congress has provided the 
Department through broad special and incentive pay authorities have 
helped the Department respond timely to changes in labor market 
conditions. The Department also remains open to considering other 
changes to the military compensation and benefits package and is 
currently evaluating the recommendations of the Military Compensation 
and Retirement Modernization Commission.
    Maintaining a robust pay and benefits package is essential and must 
be sustained to execute the National Defense Strategy, yet it must 
remain in balance with readiness, capacity and capabilities needed. If 
there is reform, slowing the rate of growth of the military 
compensation and benefits package is one element in a larger approach 
to preparing a future force that is balanced, and ready to meet 
challenges known and unforeseen. Even with slowing the growth, the 
Department will maintain a compensation package that sustains the all-
volunteer force. The Department is facing significant readiness 
challenges, and the prospect of returning to sequestration-level 
funding means these readiness challenges will not by fully met.
    General Dempsey. The structure of the military's compensation and 
benefits package is sound and has allowed the Department to recruit and 
retain the ready force that has successfully met the intense challenges 
of these past 14 years of conflict. Maintaining a sound compensation 
and benefits package requires periodic adjustments to ensure it remains 
competitive and relevant. The support of the Congress in adjusting the 
rates of pay and the flexibilities the Congress has provided the 
Department through broad special and incentive pay authorities have 
helped the Department respond timely to changes in labor market 
conditions. The Department also remains open to considering other 
changes to the military compensation and benefits package and is 
currently evaluating the recommendations of the Military Compensation 
and Retirement Modernization Commission.
    Maintaining a robust pay and benefits package is essential and must 
be sustained to execute the National Defense Strategy, yet it must 
remain in balance with readiness, capacity and capabilities needed. If 
there is reform, slowing the rate of growth of the military 
compensation and benefits package is one element in a larger approach 
to preparing a future force that is balanced, and ready to meet 
challenges known and unforeseen. The Department is facing significant 
readiness challenges, and the prospect of returning to sequestration-
level funding means these readiness challenges will not by fully met.
                               __________
              Questions Submitted by Senator Kelly Ayotte
                                  iran
    4. Senator Ayotte. In his written statement to this committee 
several weeks ago, Dr. Henry Kissinger noted that international talks 
with Iran started as an effort ``to deny Iran the capability to develop 
a military nuclear option'' but have devolved into to a ``negotiation 
over the scope of that capability.'' Kissinger wrote that ``the impact 
of this approach will be to move from preventing proliferation to 
managing it.'' Why has Iran been able to successfully shift the U.S.-
led negotiations from seeking full denial of an Iranian nuclear program 
to now negotiating over the scope of this program?
    Secretary Carter. From the beginning, the U.S. objective has been 
to negotiate a deal that seriously curbs Iran's nuclear activities and 
effectively cuts off Iran's pathways to a nuclear weapon. The U. S. 
policy is to deny Iran the capability to develop a nuclear weapon. 
Preventing the proliferation of nuclear technology, and especially 
nuclear weapons, is a cornerstone of U.S. national security. I believe 
these objectives will be advanced by reaching an agreement that 
peacefully prevents Iran from attaining a nuclear weapon.

    5. Senator Ayotte. If Iran is permitted to retain an enrichment 
capability, how will Saudi Arabia and others in the region respond?
    Secretary Carter. [Deleted.]
    General Dempsey. Saudi Arabia and others in the region have 
publically noted concerns over the Joint Comprehensive Plan of Action, 
emphasizing that they will obtain capabilities similar to what is 
approved for Iran, but it is unknown whether they will drastically 
alter pre-existing plans to develop domestic peaceful nuclear programs. 
We continue to work with our partners in the region regarding the 
development of peaceful nuclear power and to encourage a nuclear 
weapons-free middle east.
                               guantanamo
    6. Senator Ayotte. The administration has been transferring and 
releasing detainees from Guantanamo who previously were assessed to 
pose a high or medium threat to the United States, its interests, or 
its allies. Secretary Carter, when the administration transfers a 
Guantanamo detainee, do you agree that the American people have a right 
to know what type of terrorist activities they have engaged in and 
which terrorist groups they have been associated with?
    Secretary Carter. The Department of Defense has publicly released 
information about detainees' terrorist activities and associated 
terrorist groups in response to Freedom of Information Act (FOIA) 
requests. This information is publicly available in the FOIA Reading 
Room on the Office of the Secretary of Defense and Joint Staff's FOIA 
website: http://www.dod.gov/pubs/foi/operation--and--plans/Detainee/
    Upon the committee's request, the Department, in coordination with 
the Intelligence Community, would be prepared to provide the committee 
a classified briefing with additional information about detainees' 
terrorist activities and associated terrorist groups.
                               dod audit
    7. Senator Ayotte. The Department of Defense is the last federal 
agency to fail to be auditable. Secretary Carter, in your answers to my 
earlier questions for the record you also indicated that you commit to 
achieve current DOD timelines for auditability and will be stressing 
your obligation to keep that effort on track. As this is a priority of 
yours, what actions have you taken thus far to accomplish those 
deadlines?
    Secretary Carter. I continue to firmly believe auditable financial 
statements are an imperative for the Department of Defense to be fully 
accountable to the Congress and to taxpayers. I have made this a part 
of a broader and evolving management reform agenda so that it is clear 
to all that this has my attention and full support. As mentioned in my 
earlier statements, over 90 percent of the Department's current year 
fiscal year 2015 general funds are currently under audit. I have asked 
my deputy, my chief financial officer, my deputy chief management 
officer, and the Service secretaries to keep me fully apprised on 
progress. I am convinced the Department is on the right track but I 
also know that much remains to be done. My plan is to monitor progress 
so that my team will position the Department to achieve the 2017 goal. 
To do this, I am prepared to make changes if we are not making 
sufficient progress and to hold our leaders--both civilian and 
military--accountable for progress.

    8. Senator Ayotte. The Department of Defense has repeatedly pushed 
back its timelines for producing a clean audit opinion. What actions 
are you prepared to take in order to ensure that DOD finally meets its 
timelines?
    Secretary Carter. As I have stated before, I'm convinced the 
Department is on the right track to meet statutory timelines. Over 90 
percent of the current year budget execution is now under audit and the 
feedback received from these audits will highlight areas needing 
attention. My goal is to position the Department to achieve current 
statutory goals for audit readiness and that is to have all financial 
statements ready for audit by the end of fiscal year (FY) 2017, then 
proceed to actually audit them in fiscal year 2018. This extends beyond 
my tenure, but I intend to make sure the Department and its future 
leaders will make those dates. I rely on my deputy, my chief financial 
officer, my deputy chief management officer, and the Service 
secretaries to make this happen. They know that Department auditability 
has my full support. I am prepared to make adjustments, including 
holding senior leaders at all levels and in all business lines 
accountable for successful results.
    General Dempsey. I fully support the intent of full auditability of 
the Joint Force to attain and sustain clean audit opinions of all 
financial statements on a continuing, annual basis. I am reasonably 
confident the Department will be audit ready by fiscal 2017.
    The Military Departments and Services, Combatant Commands, Combat 
Support Agencies, and other agencies are closely following DOD's 
Financial Improvement and Audit Readiness (FIAR) Guidance and the 
schedule prescribed by the Department. There is clearly an all-out team 
effort to posture the Department for success--all are communicating, 
cross talking, and diligently working with independent public 
accounting firms to help identify areas needing improvement and to 
address corrective actions applicable to assessable units. In addition, 
to ensure personnel are dedicated, we are making accountability for 
results part of individual performance plans. Lastly, a number of 
ongoing interim audit assertions, attestation engagements, 
examinations, and mock audits are underway--consistent with a planned 
phased approach in meeting the Department's established FIAR timelines 
and objectives. By closely following existing published notices of 
audit findings and recommendations, harvesting from and applying 
lessons learned to each organization's domain, and taking steps to 
sustain consistent, repeatable, accurate, and timely business 
processes, I am reasonably confident these foundational measures will 
foster a culture of stewardship that will allow the Department to be 
audit ready by fiscal 2017.
                              afghanistan
    9. Senator Ayotte. Setting aside our current force posture and the 
debates regarding that posture up to this point, what kind of military 
and intelligence posture does the United States require in Afghanistan 
to ensure it can never again be used as a training ground and launching 
pad for terrorist attacks against our country?
    Secretary Carter. The Department of Defense is working with its 
interagency partners to determine a post-2016 posture that will enable 
us to support the Afghan National Defense and Security Forces (ANDSF) 
in combating terrorists within Afghanistan and to conduct, if required, 
a national counterterrorism mission that supports U.S. interests. Under 
the terms of the Security and Defense Cooperation Agreement that the 
United States and Afghanistan signed last year, the United States and 
Afghanistan agreed to cooperate closely in the common fight against 
terrorism and acknowledged that continued U.S. military operations to 
defeat al Qaeda and its affiliates may be appropriate. The post-2016 
counterterrorism strategy will continue to require a well-synchronized 
interagency approach drawing on all the instruments of national power.
    General Dempsey. Under the terms of the Security and Defense 
Cooperation Agreement with Afghanistan, the United States maintains the 
authority to continue to target al Qaeda and other terrorists in 
Afghanistan who threaten the United States and its interests. The 
Department of Defense is working with the interagency to determine a 
post-2016 posture that will enable us to support the Afghan National 
Defense and Security Forces in combating terrorists within Afghanistan 
and to conduct, if required, a national counterterrorist mission that 
support U.S. interests.

    10. Senator Ayotte. The 2015 NDAA included language that supports 
that the U.S. government continue efforts with the Afghan Government to 
promote the rights of women and ensure their inclusion in political, 
economic, and security matters. Additionally, the language supports 
funding for recruiting and training female searchers and security 
officer to staff voting stations during elections. Can you describe the 
gains that women and girls have enjoyed in Afghanistan since the fall 
of the Taliban?
    Secretary Carter. Afghanistan has made significant progress during 
the past 13 years to promote the rights of women and ensure their 
inclusion in political, economic, and security matters. The Afghan 
Constitution states that all citizens of Afghanistan, men and women, 
have equal rights and duties before the law, including volunteering for 
public service. Women now constitute 20 percent of the civil service 
and 27 percent of Parliament. While girls were not permitted to go to 
school during the time of Taliban rule, girls currently constitute 40 
percent of students in Afghanistan.
    The high participation of women in the two rounds of presidential 
elections last year is a promising indicator of increased women's 
empowerment. A number of domestic and internationally funded campaigns 
encouraged women to vote. In addition, the Ministry of Interior's 
Female Searcher Program recruited enough female searchers to staff 
approximately 5,800 polling centers. Reports indicated that more than 
9,800 female searchers participated in the first round in April, and 
more than 10,800 were deployed for the presidential run-off in June. As 
a result of these efforts, female participation in the April election 
was estimated at 36 percent, and female participation in the June run-
off election increased to approximately 38 percent.
    In addition, women now serve in the Afghan National Defense and 
Security Forces (ANDSF). Currently, approximately 2,300 women are in 
the Afghan National Police, and approximately 870 women are in the 
Afghan National Army. This includes Captain Niloofar Rhmani, 
Afghanistan's first female fixed-wing pilot since Taliban rule, who 
will be honored by the State Department during a visit to the United 
States in March. During her visit, she will also meet with female 
Marine aviators at Marine Corps Air Station Miramar, California, and 
fly with the Navy's Blue Angels.
    General Dempsey. Afghanistan has made significant progress since 
the fall of the Taliban in 2001.This progress includes nearly 8 million 
children in school, a third of which are girls, a rising life-
expectancy, and improving economic growth. Afghan women have come out 
of the total seclusion they experienced during Taliban rule to take 
their rightful place in the society. Women now comprise 20 percent of 
the civil service, 27 percent of the parliament, and 40 percent of 
students. Female life expectancy rose from 44 years in 2001 to 64 years 
today.
    Since 2002, maternal mortality fell from 1600 to 327 deaths per 
100,000 births. Female literacy has increased to nearly 15 percent 
nationwide, 30 percent among girls aged 15-24, and almost 40 percent 
among young urban women. In the last five years, nearly 120,000 girls 
have graduated from secondary school, and an estimated 40,000 are 
enrolled in public and private universities. Of the 8.4 million 
students now in school, 37 percent (over 3 million) are girls.
    In 2014, the Afghan Ministry of Defense approved the annual 
Accession Plan for Capacity of Afghan National Army (ANA) Female 
Training Establishments, stating that 485 women can/will be trained in 
the coming year. The ANA officers' Academy graduated its first female 
class of 21 cadets in June 2014 and close to 200 police women recently 
graduated in training in Sivas, Turkey on February 27, 2015. There are 
currently 869 women in the Afghan National Army (includes Afghan Air 
Force), while the current female strength in the Afghan National Police 
is 2334.

    11. Senator Ayotte. Can you describe the pivotal role that women 
are now playing in Afghanistan and what role they will play in the 
future?
    Secretary Carter. Afghan women are exercising their rights to work, 
vote, receive an education, and serve in political office and in the 
national security forces. A powerful indicator of the dramatic 
improvement in conditions for Afghan women is in access to education. 
While girls were not permitted to go to school during the time of 
Taliban rule, currently more than three million girls in primary 
schools across the country are learning to participate openly and 
actively in the future of a democratic Afghanistan.
    President Ghani has indicated that he will promote continued 
improvements in conditions for women in Afghanistan, who continue to 
face discrimination, harassment, and abuse in many sectors of society, 
including in the security sector. The Department of Defense will assist 
the Afghan government by continuing to support efforts to integrate 
women into the Afghan National Defense and Security Forces (ANDSF). 
Changing societal norms in Afghanistan will be a slow and difficult 
process, but the future seems increasingly positive for women to play 
an increased role in the ANDSF. For example, the Afghan National Army 
Officers' Academy graduated its first class of 21 female cadets in June 
2014, and approximately 200 women graduated from Afghan National Police 
training in Sivas, Turkey, on February 27, 2015. The Department will 
continue to work with the Ministry of Interior and the Ministry of 
Defense to implement strategies seeking to improve the treatment of 
women and to increase their recruitment.
    General Dempsey. The Afghan Constitution states that all citizens 
of Afghanistan, men and women, have equal rights and duties before the 
law. Women in Afghanistan have a major role to play in Afghanistan's 
future and are currently exercising their rights to work, vote, be 
educated, serve in political office and serve in the Afghan National 
Defense and Security Forces (ANDSF).
    Notably, of the 6.8 million votes cast in the April election, 36 
percent were cast by women. Three vice presidential running mates were 
women. 21 percent of the current members of provincial councils and 
11.5 percent of the candidates for provincial councils in April were 
also women.
    There are more than 3,000 woman-owned businesses and associations 
in Afghanistan today. Democracy International polling showed that 92 
percent of Afghan respondents agree that women have the right to 
participate in elections. The vast majority of respondents (83 percent) 
in a 2013 Asia Foundation survey agreed with the statement ``Women 
should have the same opportunities as men in education.'' The U.S. 
Government has more than $200 million per year programmed directly for 
gender-related issues.
                                ukraine
    12. Senator Ayotte. On February 25, General Breedlove said, ``More 
than 1,000 pieces of Russian military equipment have been transferred 
into Ukraine, including tanks, armored personnel carriers, heavy 
artillery pieces and other military vehicles and equipment . . . These 
are not the actions of a good faith negotiating partner.'' Over the 
last few weeks, has Russia continued to send advanced weapons into 
Ukraine? What type? How many?
    General Dempsey. Russian military forces continue to operate in 
eastern Ukraine, where they provide command and control support, 
operate air defense systems, and have fought alongside pro-Russia 
separatist forces.
    Russia continues to transfer military equipment to pro-Russia 
separatists in eastern Ukraine. We can confirm that Russia has 
transferred additional tanks, armored vehicles, heavy artillery, rocket 
systems, and other military equipment to pro-Russia separatists.
    Pro-Russia separatists currently have a fighting force numbering in 
the hundreds of tanks, armored vehicles, heavy artillery pieces, and 
other military vehicles.

    13. Senator Ayotte. How many Russian troops are currently in 
Ukraine?
    General Dempsey. The intelligence community reports there are 
hundreds of troops currently in Ukraine.
                                 russia
    14. Senator Ayotte. According to news reports in January, Russia 
signed a military cooperation deal with Iran that includes joint 
exercises and military training. As you know, Russia has consistently 
served as Iran's primary foreign arms supplier, and Russia has 
reportedly deepened its economic ties with Iran in the last year. How 
would you characterize Russia's relationship with Iran? Should we be 
concerned?
    Secretary Carter. [Deleted.]
    General Dempsey. I believe it is a significant relationship from 
the perspective of the United States, Russia, and Iran. The Iran-Russia 
relationship has elements of promise but also risk. Given ongoing 
dialogue with Iran on its nuclear program, the Russia relationship can 
be pivotal to successful resolution of the issue. We need to retain an 
appropriate amount of caution given the dissonance of policy objectives 
between us, the Russians and the Iranians.
                                 china
    15. Senator Ayotte. China has stolen massive amounts of technology, 
intellectual property, and military secrets from the United States. How 
would you characterize the scale and severity of the cyber theft that 
China is committing against U.S. defense companies?
    Secretary Carter. [Deleted.]
    General Dempsey. We believe the intellectual property China 
collects from U.S. defense companies is provided to their indigenous 
companies for commercial benefit, to enhance China's international 
competitiveness and develop military capabilities without the added 
costs and time of research and development. This theft not only 
undermines the innovation of U.S. industry but more importantly our 
military superiority relative to China. Additionally, this potentially 
undermines U.S. military superiority relative to other states and non-
state actors, since China is working to expand its own international 
arms sales.

    16. Senator Ayotte. How do you assess this theft impacts U.S. 
military superiority relative to China?
    Secretary Carter. China is likely using its cyber-espionage 
capabilities, along with other efforts, to support intelligence 
collection against certain U.S. national defense programs and 
acquisition of advanced technology. China could potentially use this 
information to benefit its defense industry and other civilian high 
technology industries. Differentiating between China's civil and 
military end-use remains a challenge due to opaque corporate 
structures, hidden asset ownership, and the connections between 
commercial personnel and the central government. This theft undermines 
U.S. military superiority relative to China. Additionally, this 
potentially undermines U.S. military superiority relative to other 
States and non-State actors as China expands its own international arms 
sales.
    General Dempsey. We assess that China is using its cyber-espionage 
capabilities, along with other efforts, to support intelligence 
collection against certain U.S. national defense programs in order to 
support their acquisition of advanced technology. The information 
targeted could potentially be used to benefit China's defense industry, 
as well as other civilian high technology industries. Differentiating 
between China's civil and military end-use remains a challenge due to 
opaque corporate structures, hidden asset ownership, and the 
connections of commercial personnel with the central government. This 
theft undermines U.S. military superiority relative to China. 
Additionally, this potentially undermines U.S. military superiority 
relative to other states and non-state actors, since China is working 
to expand its own international arms sales.
                               __________
              Questions Submitted by Senator Dan Sullivan
                   russian involvement in the arctic
    17. Senator Sullivan. Dr. Carter, recent news report shows a 
rapidly increasing Russian military involvement in the Arctic. 
Recently, the Russians have begun constructing as many as thirteen new 
airfields and ten air-defense radar stations, conducting Long-Range Air 
Patrols with their Bear-Bombers, including off the coast of Alaska, and 
creating a new ``Arctic Command'' and even activating and an Arctic 
Brigade. Additionally, Russia has made several large territorial claims 
into the Arctic, including the expressed desire to expand its Arctic 
borders by more than 460,000 square miles. Meanwhile, the U.S. has a 
thirteen-page Arctic Strategy. Rear Admiral J.C. Wylie, once said, 
``The ultimate determinant in war is a man on scene with a gun . . . He 
is control, he determines who wins.'' How does our 13-page Arctic 
Strategy stack up against all the ``guns'' that Russia is putting in 
the Arctic?
    Secretary Carter. Our Arctic strategy ensures we continue to take 
tangible efforts to safeguard U.S. national security interests in the 
Arctic using all elements of national power, including military, 
diplomatic, and informational. The Department maintains a robust force 
structure in Alaska and has strong military-military ties with Arctic 
North Atlantic Treaty Organization allies. The Department also works 
closely with Canada to protect the northern approach to North America. 
These relationships play a critical role in deterring Russian behavior 
in the Arctic and will ensure coordinated response to any aggressive 
behavior.

    18. Senator Sullivan. Dr. Carter, it appears that woefully behind 
in our Arctic presence with just a 13-page strategy. How can we 
properly plan for and resource needed force structure in the Arctic 
when 13-pages seems to be all that we have?
    Secretary Carter. The Department's Arctic Strategy provides 
guidance on the ways and means to achieve the desired end-state in the 
Arctic, in support of the National Strategy for the Arctic region and 
the National Security Strategy: The Department seeks an Arctic that 
remains stable and free of conflict, where nations continue to act 
responsibly in a spirit of trust and cooperation, and where economic 
and energy resources are developed in a sustainable manner that 
respects both the fragile environment and the interests and cultures of 
indigenous peoples.
    The capabilities and activities to implement the Department's 
Arctic Strategy are subject to the same, established Departmental 
processes that prioritize and source other operational needs in the 
near- and long-term. The processes include the Global Force Management 
process and the annual Planning, Programming, Budgeting, and Execution 
cycle.
    Developing capabilities specific to the Arctic is a long-term 
process and is expensive. It is important to balance the changing 
region in the long-term with the opportunity cost of making premature 
and unnecessary investments. The Department will continue to review and 
assess appropriate communications; Intelligence, Surveillance, and 
Reconnaissance and domain awareness; infrastructure; and presence to 
outpace the potential challenges that accompany increased human 
activity in the Arctic.

    19. Senator Sullivan. Gen. Dempsey, you mentioned that Russia was 
building six new brigades--with four of being built in the Arctic. What 
type of brigades will these be and where specifically will each of 
these new brigades be located?
    General Dempsey. [Deleted.]

    20. Senator Sullivan. Gen. Dempsey, what are the operational and 
tactical implications of these locations?
    General Dempsey. [Deleted.]

    21. Senator Sullivan. Dr. Carter, what are the strategic 
implications of these four new brigades and each of their respective 
locations?
    Secretary Carter. [Deleted.]

    22. Senator Sullivan. Dr. Carter, in your opinion, how specifically 
does this force build-up affect Russia's Arctic Power projection?
    Secretary Carter. Russia's conventional force build-up in the 
Arctic will improve its power projection capability. The new Russian 
Joint Strategic Command North establishes a unified command and control 
structure that includes search and rescue operations along the Northern 
Sea Route, and the Russians have enhanced their maritime and air 
capabilities. The Department will continue to monitor the evolution and 
intent of Russia's force build-up. Additional, specific details on 
Russia's Arctic power projection capabilities can be provided in a 
classified setting.

    23. Senator Sullivan. Dr. Carter, what should be the appropriate 
U.S. response to these new land forces in an Arctic-forward posture?
    Secretary Carter. The Department is constantly reviewing military 
posture to provide the right mix of forces to assure partners and 
allies and meet national security objectives. If a threat to vital 
national interests is detected or anticipated, the Department of 
Defense will respond appropriately and ensure the safety of U.S. 
citizens and uphold any Article 5 security responsibilities.

    24. Senator Sullivan. Dr. Carter, should the U.S. respond and re-
posture against these Russian forces, how should we re-posture, and if 
we should not, why not?
    Secretary Carter. It is likely the Russian force build-up in the 
Arctic is primarily defensive. It is also likely the build-up is 
intended to protect Russia's economic interests and conduct operations 
such as search and rescue. The United States will continue to remain 
vigilant in the Arctic in order to ensure that Russia and other nations 
abide by international norms and resolve any disputes peacefully. 
Should a credible maritime or air threat to vital United States 
national interests in the Arctic region materialize, the Department of 
Defense will review its options and respond appropriately.
                         arctic force structure
    25. Senator Sullivan. Gen. Dempsey, does the U.S.--and specifically 
USARAK--have sufficient capabilities, resources, and training to 
posture against these new Russian brigades?
    General Dempsey. Yes. The U.S. Army maintains capability to respond 
against these new brigades, but the effects of current operational 
demand for Army forces requires the Joint Staff and Headquarters 
Department of the Army to balance global requirements against the 
Army's inventory of forces. At times this response capability will 
reside solely within Army elements from USARAK, while at other times 
this requirement may be fulfilled with a Joint Force composed of ground 
elements sourced from all the Services' global inventory.

    26. Senator Sullivan. Gen. Dempsey, if no (to the above question), 
what capabilities, resources, and training are needed?
    General Dempsey. Answer not required (see #25)

    27. Senator Sullivan. Dr. Carter and General Dempsey, are there any 
units tasked within our Arctic Strategy or our Arctic OPLAN?
    Secretary Carter. Specific units are not tasked through strategies 
or contingency plans; however, some units, such as those stationed in 
Alaska, conduct training and engagements with partners in the Arctic 
region. These steady-state activities support the strategy and ability 
to respond to future contingencies.
    General Dempsey. The DOD Arctic Strategy, as well as other DOD 
strategies, are not the means for apportioning or assigning units to 
specific regions or to perform specific tasks. DOD apportions and tasks 
assets through its Global Force Management process. Units in Alaska may 
be apportioned to multiple OPLANS, to include operating in the Arctic.

    28. Senator Sullivan. Dr. Carter and General Dempsey, how do 
Alaska's units fit into our Arctic Strategy and OPLAN?
    Secretary Carter. Units in Alaska, like the missile defense units 
at Fort Greely, play a critical role in the ability to defend the 
homeland, as well as in the ability to project power. Alaska-based 
units also stand ready to provide defense support of civil authorities 
when directed by the Department. Alaska-based units work with a host of 
partners to ensure situational awareness of the Arctic environment, and 
these partnerships reinforce international cooperation in support of 
the Arctic Strategy.
    General Dempsey. Units assigned to Alaska provide a wide-range of 
military capabilities and a persistent presence on the outskirts of the 
Arctic to protect national interests. These units are capable of 
supporting air and space command and control (C2), weather forecasting, 
missile defense operations, mid-air refueling operations, and 
intelligence, surveillance, and reconnaissance (ISR) operations. 
Despite the long distances and the harsh Arctic climate, military units 
in Alaska possess capabilities to respond to a wide range of 
contingencies.

    29. Senator Sullivan. Dr. Carter, do you believe that Alaska's BCTs 
are uniquely suited to help address strategic needs in our Pacific 
Pivot and new Arctic Strategy?
    Secretary Carter. There is an undeniable strategic requirement that 
defines the Department's presence in Alaska. This capacity cannot 
easily be replaced in alternate locations. Units based in Alaska afford 
the Army the ability to retain focus to the Pacific region. The 
strategic importance of having access to the seaways and routes that 
are becoming accessible in the Arctic is quickly being realized. 
European partners as well as the Russians have quickly assessed the 
same. Protecting access to the global commons and the Arctic is a key 
role of the Army. Likewise, the Russians have organized four brigades 
for Arctic operations. Furthermore, these stationing requirements 
endure not only because of location, but Alaska also offers unique and 
joint opportunities for training units in extreme weather environments. 
This is a capability that cannot be replicated elsewhere. 
Unfortunately, reductions in defense spending are forcing the Army to 
make difficult choices to reduce end-strength and unit structure. Prior 
to any inactivation decision, the Department will carefully weigh the 
strategic and local community impacts.

    30. Senator Sullivan. Gen. Dempsey, what other Army units in the 
U.S. could currently provide the Army with the force structure and 
equipment it would need for a conflict in an Arctic AOR?
    General Dempsey. Without identifying specific units, the Army's 
readiness capacity continues to improve for both active and reserve 
Brigade Combat Teams. Nevertheless, the Army still requires more time 
and consistent funding to sufficiently recover readiness across all 
formations. The Joint Staff regularly conducts assessments to determine 
our ability to meet the requirements of specified operational plans 
conducted in simultaneous execution. In this context, we will continue 
to review mitigation options and residual risk resulting from current 
operational and Combatant Commands' requirements.
                               __________
                Questions Submitted by Senator Mike Lee
                             sequestration
    31. Senator Lee. Secretary Carter, can you give us more detail 
about why the Department decided not to develop an alternative budget 
that would be applicable in the case of sequestration, and what the 
Department is doing now to prepare for that scenario?
    Secretary Carter. The President's fiscal year 2016 budget proposes 
equal dollar add-backs for both defense and non-defense discretionary 
spending. These increases were more than paid for with smart spending 
cuts, program integrity measures, and commonsense loophole closers. 
Since the defense base budget at the sequester-level would undermine 
the Department's ability to meet the current defense strategy, the 
Administration has declined to submit an alternative, sequester-level 
plan to avoid serious consequences to economic growth and national 
security at a time when our military is stretched on a whole range of 
issues. Therefore, the Department urges Congress to support the budget 
the President has put forward that will avoid the harmful budget cuts 
of sequestration and reduce the deficit in a balanced way.
                             force mixture
    32. Senator Lee. Do you believe that, especially in a difficult 
fiscal climate, missions should as much as possible be entrusted to 
Reserve Component forces in order to reduce the need for cuts to 
readiness, modernization, and recapitalization, as suggested by the 
National Commission on the Structure of the Air Force?
    Secretary Carter. After the past 14 years of combat operations, the 
Reserve Component (RC) is clearly capable of performing a wide variety 
of missions. Changes and updates to mobilization law (in regards to 
access authority) have made the RC a valid alternative for many 
operational missions. The Department needs to analyze what capabilities 
are being asked for, when that capability is needed, and how long it 
would take the RC to be ready to perform that specific mission. With 
the reduction in resources forecasted under the Budget Control Act, 
coupled with the current security environment, the Department will need 
to include the RC as part of the operational force.
    General Dempsey. Not necessarily. Our Reserve Components have and 
will continue to provide critical capability as part of our overall 
Total Force. But, there is an irreducible minimum below which the Joint 
Force cannot prudently cut Active Component end strength without 
jeopardizing war-fighting capability, institutional health, and the 
ability to generate future forces. The National Commission correctly 
identifies in their report that conducting operations with Reserve 
Component forces is not always less expensive than doing so with Active 
Component forces. While the Department is open to ideas for cost 
savings, we must carefully examine whether or not moving a particular 
mission to the Reserve Component will indeed generate savings over the 
long run, and whether or not that action will have any unintended 
consequences on our future war-fighting capability. Although the 
National Commission identified possible cost savings of roughly $2 
billion associated with moving about 36,000 additional active airmen 
into the Reserve Component, our mission analysis does not support that 
due to reduced rotational capacity and the corresponding increase in 
risk.

    33. Senator Lee. How do you intend to utilize the National Guard 
and Reserve forces in the upcoming fiscal year to take advantage of 
their cost- and combat-benefits to the military reported in the 2013 
CAPE report and 2014 Reserve Forces Policy Board report?
    Secretary Carter. Sufficient funding of readiness and modernization 
of the Reserve Component (RC) is vital to maintaining operational 
experience and capacity to meet National security requirements. The RC 
provides operational capabilities and strategic depth to meet U.S. 
defense requirements across the full spectrum of conflict. Missions 
that are planned and predictable are best suited for the RC. However, 
some RC units and capabilities can respond on short notice for 
contingency operations, e.g. Air Force fighter units, National domestic 
support units, and some intelligence and cyber capabilities. In 
domestic roles, the RC will continue to be the most appropriate 
capability to support civil authorities due to its communal relations, 
proficiency in disaster response, and experiences in nation building in 
Iraq, Afghanistan, the Balkans, and other peace keeping and stability 
operations.
                           department reform
    34. Senator Lee. Secretary Carter, On January 22, the DOD's Defense 
Business Board issued recommendations that they believe could save up 
to $125 billion over the next five years for the Department through 
better business practices and reforms to contracting services. Have you 
had an opportunity to look over these recommendations and do you 
believe that if implemented they could make the desired budgetary 
impact without compromising mission effectiveness?
    Secretary Carter. I have had the opportunity to review the Defense 
Business Board recommendations and found them insightful on 
substantiating areas in which the Department can seek efficiencies. I 
have directed further analysis of each of the six core business 
processes. Furthermore, I have directed my staff to develop and 
implement a management structure to pursue potential opportunities that 
will be included in my management reform agenda. Any reduction to these 
costs will allow the Department to continue to sustain investments in 
readiness and modernization activities. While seeking cost reductions 
in these back office functions, the Department will remain focused on 
mission effectiveness to avoid any degradation to, or optimally 
improve, support to the warfighters.

    35. Senator Lee. Deputy Secretary Work stated in September `` . . . 
there's a lot of money in the OCO that should probably be in base. It's 
not because we didn't want it to be in the base; it's just happened 
over 12 years''. Do you agree with Deputy Secretary Work's comments, 
and how has the Department of Defense attempted to address these issues 
in this year's budget request?
    Secretary Carter. I agree with Secretary Work's comments. Over the 
last several years, both the Department and the Congress have leveraged 
the Overseas Contingency Operations (OCO) budget to provide funding for 
base requirements.
    The Administration is looking at all requirements funded under the 
OCO title. This includes requirements that may end in the near future 
and enduring requirements, which should transition to the base budget. 
In looking at these requirements, the Department must consider the 
appropriate financing mechanism for all costs that are above and beyond 
the Department's organize, train, and equip mission, including costs 
associated with providing support to Afghan partners, enduring overseas 
operations, responding to counter terrorism abroad, and maintaining a 
strong forward presence in the Middle East region. This transition will 
not be possible, however, if the sequester level discretionary spending 
caps remain in place.
    General Dempsey. Yes, I agree with Secretary Work's comments. For 
several years, both the Congress and the Department have leveraged the 
Overseas Contingency Operations (OCO) budget to provide funding for 
things that may be more appropriately aligned with base requirements.
    The Department is engaged with the Administration to look at all 
requirements currently funded under the OCO title. This includes 
requirements that may end in the near future and enduring requirements, 
which we want to transition to the base budget. In looking at these 
requirements, we must consider the appropriate financing mechanism for 
all costs that are above and beyond the Department's organize, train, 
and equip mission, including costs associated with providing support to 
our Afghan partners, enduring overseas operations, conducting 
counterterrorism worldwide, reassuring our NATO allies, and maintaining 
a strong forward presence in the Middle East region. The transition of 
enduring OCO-funded requirements to the base budget will not be 
possible, however, if the sequester level discretionary spending caps 
remain in place.

    36. Senator Lee. Secretary Carter, the DOD budget overview states 
that ``the need to reduce unneeded facilities is so critical that, in 
the absence of authorization of a new round of BRAC, the Administration 
will pursue alternative options to reduce this wasteful spending''. Can 
you be more specific with what further options the Administration might 
pursue?
    Secretary Carter. As far as using other authorities, the Department 
only has authority to undertake a BRAC round if Congress authorizes it 
to do so. However, budget cuts require exploring any and all 
authorities Congress has provided to eliminate wasteful infrastructure. 
I have not yet decided which options to pursue if Congress does not 
provide BRAC authority.

    37. Senator Lee. Secretary Carter, one of the key initiatives for 
reducing costs and overhead in the Department of Defense is through 
decreasing the Department's major headquarters' operating budgets by 20 
percent. However, a GAO report from January found that ``without a 
systematic determination of personnel requirements and periodic 
reassessments of them, DOD will not be well positioned to proactively 
identify efficiencies and limit personnel growth within these 
headquarter organizations''. Has the Department been actively working 
with GAO to address this issue and what recommendations will you be 
adopting to satisfy these concerns?
    Secretary Carter. The Department remains committed to working with 
the Government Accountability Office (GAO) to implement the 
recommendations of previous reviews and to collaborate as part of 
ongoing reviews. The Department continues to undertake numerous 
initiatives to improve efficiency and reduce duplicative, low-priority, 
and non-value workload across the headquarters staffs. The Department, 
in its response to the GAO, only partially concurred with the GAO's 
recommendation in their January report.
    The Department will continue to use the Planning, Programming, 
Budgeting, and Execution process and leadership prioritization of 
missions, functions, and tasks to ensure appropriate workload 
determinations that limit personnel growth. Additionally, the 
Department is currently conducting Business Process and System Reviews 
of the Office of Secretary of Defense, Defense Agencies, and DOD Field 
Activities, to aid in aligning resources to mission responsibilities. 
Other ongoing efforts include an examination of the resources 
associated with, and the effectiveness of, the Department's performance 
of six core business processes (Human Resource Management, Health Care 
Management, Financial Flow Management, Acquisition and Procurement 
Management, Real Property Management, Logistics & Supply Chain 
Management). This work, directed by the Deputy Secretary of Defense and 
informed by a recent Defense Business Board report, will help identify 
efficiencies, cost savings, and personnel reductions, including those 
at headquarters.
                           national security
    38. Senator Lee. Secretary Carter, you stated in your testimony and 
when we met prior to your confirmation that one of the first acts you 
would undertake as Secretary would be to review the President's current 
strategy to defend the nation from an ISIS threat. What is your 
understanding of the threat that ISIS currently poses to the security 
of the United States, and how do you assess thus far the progress of 
President Obama's strategy to ``destroy and defeat'' ISIS? What 
specifically in your opinion needs to be accomplished regarding ISIS 
and other extremist groups operating in that area in order to protect 
the security of the United States, and how does this budget request 
reflect that?
    Secretary Carter. The Islamic State in Iraq and Syria (ISIS) poses 
an immediate threat to United States' interests in the Middle East as 
it seeks to control territory, destabilize and overthrow governments, 
and perpetuate acts of terror on the local population. If not 
addressed, ISIS will pose a growing threat to United States interests 
as demonstrated by its recruiting of foreign fighters and desire to 
lead the global jihad.
    The President's strategy to defeat ISIS has made progress in a 
short amount of time. ISIS' command and control, supply lines, and 
military and economic infrastructure are all degraded. ISIS also 
controls less territory in Iraq than they did before the air campaign 
and training and equipping of Iraq's security forces to re-take their 
country.
    The Department needs to continue to use air power in conjunction 
with advise and assist efforts on the ground to deny ISIS safe haven 
and to protect the security of the United States. The Department must 
work with the Iraqis to generate the forces required to go on the 
offensive against ISIS. Additionally, the training and equipping 
program for Syria will initiate this spring and is essential to the 
success of the strategy. Military efforts must be complemented by the 
contributions of other key actors in the U.S. government in order to 
disrupt ISIS's finances, support effective governance and multi-
sectarian inclusiveness in Iraq, and counter ISIS's narrative and its 
appeal.
    The fiscal year 2016 Overseas Contingency Operations ``Operation: 
Inherent Resolve'' request of $5.3 billion, including for the Iraq 
Train and Equip and the training and equipping of vetted Syrian 
opposition, provides the resources needed for the Department to deny 
ISIS safe haven and build the capacity of partners to ultimately defeat 
ISIS. The Department must avoid a return to sequestration in fiscal 
year 2016.

    39. Senator Lee. A policy goal highlighted in the fiscal year 2016 
budget request is to work closely with European partners to strengthen 
their military capabilities. I believe it is especially important for 
our NATO allies to increase their defense budgets and collective 
capabilities as a deterrent to Russian aggression. These are 
longstanding goals of NATO that have not been met, how specifically do 
you intend to address this issue?
    Secretary Carter. One of the key 2014 North Atlantic Treaty 
Organization (NATO) Wales Summit outcomes was allied leaders' agreement 
to a Defense Investment Pledge to halt the negative defense spending 
trend now, and to move towards spending 2.0 percent of Gross Domestic 
Product (GDP) on defense within a decade with a view toward filling 
NATO's capability shortfalls. Progress toward this goal will require 
defense expenditures to increase in real terms as GDP grows. Allied 
defense ministers will review each ally's progress at least annually, 
and the United States intends to raise examples of inadequate progress 
at every defense ministerial and bilateral meeting, as appropriate. The 
United States also intends to engage intensively with allies, such as 
the United Kingdom and Germany, that are about to undergo strategic 
reviews that will affect their future defense investment decisions. 
NATO allies must not only increase defense spending, but must make 
investments in the types of capabilities that NATO needs to deter 
Russian aggression.
    General Dempsey. At the September Wales Summit, the Allies pledged 
to reverse the trend of declining defense budgets, to make the most 
effective use of that spending towards infrastructure and equipment, 
and to further a more balanced sharing of costs and responsibilities. 
In order to keep Allies on course in achieving the goals of that 
pledge, I will continue to stress the shared threats NATO members face 
and the critical need to continue to invest in defense capabilities to 
strengthen the Alliance. For Allies with larger economies, this means 
investment in military capabilities that that can be used to impose 
costs on any opponent with minimal cost and risk to Alliance forces. 
For those Allies with smaller economies, investment in capabilities 
that are needed by the Alliance, in which they may have a comparative 
advantage, is most needed.

    40. Senator Lee. Secretary Carter, the budget request for fiscal 
year 2016 highlights the need to continue the defense rebalance to the 
Asia-Pacific region while maintaining a focus on the Middle East. What 
steps have we taken thus far in the pivot to the Asia-Pacific region, 
and what are the next steps to be taken? Will continuing the pivot to 
this region necessitate a reduction in force from other areas of the 
world?
    Secretary Carter. The rebalance to the Asia-Pacific region remains 
a top whole-of-government priority effort rooted in an analysis of 
long-term U.S. security and economic interests. The Department of 
Defense's implementation is focused on modernizing alliances and 
partnerships, enhancing force posture, updating capabilities and 
concepts of operation, and strengthening multilateral defense 
cooperation in the region. To date, the Department has made significant 
progress toward enhancing both the capacity and capability of United 
States forces in the region. Sixty percent of our naval and overseas 
air assets are on track to be forward-based in the Pacific region by 
2020. The Department is also enhancing the rotational access and 
training opportunities for ground forces. This includes developing a 
more operationally resilient and politically sustainable laydown for 
the U.S. Marine Corps, as well as designating the U.S. Army's I Corps 
as regionally aligned to the Pacific.
    Looking ahead, the Department is developing new military 
capabilities and operational concepts to ensure that U.S. forces will 
continue to project power effectively in an environment of increasingly 
capable anti-access/area-denial threats. This year's budget includes 
investments in capabilities best suited to this region's challenges. 
The investments include continued upgrades to integrated air and 
missile defense systems; modernized maritime domain awareness 
platforms; swapping out the forward-based aircraft carrier, USS George 
Washington, for the more capable USS Ronald Reagan; resilient 
infrastructure on Guam; and development of future capabilities like the 
long range strike bomber, the Virginia Payload Module, and the F-35 
Joint Strike Fighter. These robust investments reflect the Department's 
conscious decision to send its most advanced capabilities to the Asia-
Pacific first.
    The Department will continue to balance presence and posture 
requirements globally to protect U.S. national security interests. 
However, the continued strain of sequestration would affect the degree 
to which the Department could continue to support the modernization 
investments necessary to maintain our long-term technological edge in 
the Asia-Pacific region. Reduced funding would also lead to a reduced 
pace and scope of near-term presence activities, which would have a 
negative impact on successes to date.

    41. Senator Lee. How is this budget prioritizing our defense 
against cyber-threats to our military infrastructure? What objectives 
do you believe cyber-attackers will try to achieve against our military 
in the next decade?
    Secretary Carter. Defending against cyber threats is one of my top 
priorities. The Department must be well-postured to respond to the 
growing cyber threats confronting the U.S. Accordingly, the President's 
fiscal year 2016 budget requests $5.5B for cyberspace operations, 
invests in cyber-related Science and Technology, and supports 
organizing, training, and equipping the Cyber Mission Force.
    More than $2 billion of the Department's cyberspace operations 
budget request pertains to defensive cybersecurity measures. These 
measures include funding for public key infrastructure implementation, 
network intrusion detection systems, defense industrial base 
protections, and cryptography, as well as for the deployment of the 
Joint Regional Security Stacks (JRSS). The JRSS replace current 
individualized, localized security systems with an enterprise-wide 
capability that allows U.S. Cyber Command and local commanders to 
protect more effectively against the growing cyber threat. The JRSS 
will provide a more secure environment with improved command and 
control that operates at lower cost.
    Additionally, the Department has undertaken a rigorous process to 
identify, assess, and prioritize mitigation of cyber vulnerabilities of 
weapons systems. The Department is pursuing new approaches to ensuring 
platforms and weapons systems are hardened during the system's 
lifecycle and able to operate in a cyber-contested environment.
    Over the next decade, state and non-state actors will rapidly 
expand their malicious cyberspace capabilities and will target the 
public and private networks of the United States and its allies and 
partners. These hostile actors will continue to use cyberspace as an 
asymmetric capability to harm the U.S. homeland and U.S. interests, 
both directly and indirectly. Adversaries will continue to seek to hold 
our critical infrastructure, military missions, and defense-related 
intellectual property and trade secrets at risk. Protecting against 
these threats will require increased investment to defend military 
infrastructure.
    General Dempsey. Defending against cyber threats is one of my top 
priorities. Accordingly, the President's fiscal year 2016 budget 
requests $5.5B for cyberspace operations, both offensive and defensive, 
investing in cyber-related Science and Technology, as well as 
organizing, training, and equipping the Cyber Mission Force. We must be 
well-postured to respond to the growing cyber threats confronting our 
Nation.
    Specific to your question, more than $2 billion of the Department's 
cyberspace operations budget request pertains to defensive 
cybersecurity measures. These measures include funding for public key 
infrastructure implementation, network intrusion detection systems, 
Defense Industrial Base protections, and cryptography, as well as for 
the deployment of the Joint Regional Security Stacks (JRSS). The JRSS 
replace current localized security systems with an enterprise-wide 
capability that provides U.S. Cyber Command and local commanders with 
more effective defenses to counter the growing cyber threat. The JRSS 
will provide a more secure environment with improved command and 
control, and will operate at lower cost.
    Additionally, the Department has undertaken a rigorous process to 
identify, assess, and systematically prioritize mitigation of cyber 
vulnerabilities of DOD weapons systems. We are pursuing new approaches 
to ensuring platforms and weapons systems are hardened across the 
entire system's lifecycle and can operate in a cyber-contested 
environment.
    Over the next decade, state and non-state actors are expected to 
rapidly expand their malicious cyberspace capabilities and target the 
public and private networks of the United States and its allies and 
partners. These hostile actors continue to see cyberspace as an 
asymmetric capability to harm the U.S. homeland and U.S. interests, 
directly and indirectly. The Department assesses that adversaries will 
continue to seek to hold our critical infrastructure, military 
missions, and defense-related intellectual property and trade secrets 
at risk. This will require increased investment to defend military 
infrastructure.

    42. Senator Lee. We have seen the continued development of 
ballistic missile technology and capabilities in Iran and North Korea, 
as well as the modernization of nuclear weapons and delivery platforms 
from Russia and China. What is your assessment of the development and 
deployment of our missile defense technology, and do you believe that 
the proposed budget keeps us on the trajectory to keep up with the 
ballistic missile threats that we will face in the future?
    Secretary Carter. Yes. The Department is developing fiscally 
sustainable, off-setting technologies to address gaps in the Ballistic 
Missile Defense System (BMDS) and extend dominance in missile defense. 
The goal for these investments is to deploy a future BMDS architecture 
more capable of discriminating and destroying a reentry vehicle with a 
high degree of confidence.
    The Department's budget balances investment between homeland and 
regional missile defense capabilities while pursuing advanced 
technology to pace the emerging threat. We will do this by improving 
current system capabilities and investing in the most promising 
technology to reverse the adversary's numerical advantage.
    The President's fiscal year 2016 budget request invests in off-
setting technology, including advanced sensor and kill vehicle 
technology that will enable us to deploy multiple kill vehicles from a 
single interceptor to counter advanced threats. The Department is also 
investing in directed energy technology that will revolutionize missile 
defense, dramatically reducing the cost per kill in our future BMDS.
    General Dempsey. The current missile defense programs and fiscal 
year 2016 budget request ensure that we can sustain and modernize our 
missile defense capability to keep up with the evolving BMD threat. 
This entails continued investment in improvements to the ground-based 
midcourse defense (GMD) system, including enhanced performance of the 
Ground-Based Interceptor (GBI) kill vehicle and the deployment of new 
sensors. The U.S. remains on track to deploy 14 additional GBIs in 
Alaska by the end of 2017 to augment the 30 interceptors already 
deployed. The addition of the second forward-based missile defense 
radar in Japan strengthens our homeland and regional defenses in 
support of the GMD. In addition, the budget supports forward stationing 
and rotational deployment of BMD forces in a way that is phased to 
provide the best operational capability available in order to protect 
U.S. and allied forces while balancing dwell time and providing time 
for system modernization programs.

    43. Senator Lee. General Dempsey, last year Congress authorized the 
federal government to send defensive weapons to the government of 
Ukraine. What is DOD's assessment of the Ukrainian military's capacity 
and readiness level to receive such weapons and use them in an 
accountable and effective manner?
    General Dempsey. Any U.S. decision to provide defensive weapons to 
Ukraine would include consideration of requirements to provide 
equipment training. The defensive weapons under consideration are 
designed to require only a very basic level of training. Additionally, 
before weapons with technology are provided, DOD conducts a Technology 
Security/Foreign Disclosure process to ensure that if such weapons were 
lost on the battlefield, there would be no loss of either sensitive 
U.S. technology or military capabilities.

    44. Senator Lee. There have been several open-sourced reports today 
regarding the presence of Iranian fighters and military advisors in the 
Iraqi Security Force's current push against ISIS in Tikrit. How 
extensive is Iran's influence over the ISF and the Iraqi government, 
what specific assistance are they providing in this offensive, and are 
Iranian officials working with the ISF able to access intelligence 
information that we are sharing with the Iraqis?
    General Dempsey. [Deleted.]
                               __________
                Questions Submitted by Senator Ted Cruz
                          nuclear capabilities
    45. Senator Cruz. Secretary Carter, since 2000, the Russians have 
discussed strategy and designed training exercises around a theory of 
``escalating to de-escalate'' by using a nuclear weapon to make the 
costs of military involvement too great for the U.S. or NATO. In such a 
scenario, the Russians believe they could use a nuclear weapon to 
accomplish their objections while the U.S. would be unwilling or unable 
to retaliate. Russia's recent aggression in Ukraine and Georgia raise 
concerns that Putin might eventually use nuclear weapons to achieve his 
strategic objective: incorporating elements of the former Soviet Union 
into the Russian Federation, or even reconstituting most of the former 
Soviet Union. Does a failure to modernize our nuclear forces act as an 
enabler for Russia to pursue this course of action in the future?
    Secretary Carter. Russia's recent behavior poses a serious 
strategic challenge. The U.S. response must be equally serious and 
integrated across all instruments of national power, including 
diplomatic, economic, as well as military.
    The nuclear modernization plan was specifically designed to hedge 
against geopolitical risk, including increasing strategic competition 
with Russia. It does so by sustaining a Triad that offers a range of 
capabilities that underwrite strategic stability. The President's 
budget request fully supports this plan through focused and sustained 
investments in nuclear modernization and manning across the nuclear 
enterprise. Congressional support for the modernization program is 
imperative. A prolonged period of reduced defense budgets would almost 
certainly mean a smaller, less capable, and less ready U.S. military--
and that, in turn, could invite others to challenge us or create more 
risk.

    46. Senator Cruz. Secretary Carter, a few weeks ago at your 
confirmation hearing, we discussed the dangers posed by a nuclear Iran. 
You succinctly described it as ``exceptionally grave'' because it could 
launch a new regional nuclear arms race, greatly unbalance the Middle 
East, and also because of Iran's stated intent to annihilate Israel and 
the United States makes it unacceptably likely they might use them. 
Since that time, details of a pending agreement between the President 
and Iran have emerged in press reports that suggest such a deal would, 
at best, slow Iranian nuclear progress but would not in any meaningful 
way prevent it. President Netanyahu told a joint meeting of Congress 
that he believed we were at a ``fateful crossroads'' and that this deal 
would ultimately lead to a ``nuclear armed Iran.'' Do you agree with 
that assessment?
    Secretary Carter. Prime Minister Netanyahu certainly has the right 
to express his opinion on the nuclear negotiations. As has been 
repeatedly stated, however, the only deal that the U.S. is prepared to 
accept is one that prevents Iran from acquiring a nuclear weapon.
    I believe that a nuclear deal will have the effect of putting in 
place the conditions to prevent Iran from acquiring a nuclear weapon, 
rather than inevitably lead to Iran acquiring one. The intention is not 
to prevent Iran from having a civilian nuclear program if it lives up 
to all of its obligations under any potential deal. Transparency and 
intense monitoring and verification measures will be in place to ensure 
that Iran's nuclear activities are exclusively peaceful, and that there 
is advance notice of any Iranian treachery in contravention of a deal. 
In any deal, the Department will remain poised as the hedge against 
Iranian non-compliance.

    47. Senator Cruz. Secretary Carter, since your confirmation, has 
the President consulted you on his negotiation efforts with Iran, and 
asked for your professional opinion as Secretary of Defense on the 
consequences of Iran acquiring nuclear weapons?
    Secretary Carter. Yes. The Department works closely with the 
Administration on all matters of national security.
                            missile defense
    48. Senator Cruz. Secretary Carter, during your confirmation 
hearing you said that, ``With respect to ballistic missiles that could 
threaten the United States, I think that's one of the reasons why we 
need to keep our missile defenses and especially our ICBM defenses 
current, capable and large enough in size to deal with both the 
prospective Iranian threat and the also very real North Korean ICBM 
threat.'' I agree with your assessment, and I was also pleased to see 
the Department of Defense give priority to midcourse and homeland 
defense programs in the fiscal year 2016 budget. Even so, the missile 
defense community has long voiced that interception of a ballistic 
missile in the boost or ascent phases is preferable due to a higher 
probability of successful intercept. We haven't had any active programs 
to develop intercept capabilities in the boost and ascent phases since 
2010. Can you share your vision of boost phase missile defense with the 
Committee and pledge your commitment to support development of 
technology to intercept ballistic missiles in this phase of flight?
    Secretary Carter. Destroying missiles during the boost phase puts 
pressure on adversary payload deployment timelines, thins out attacks, 
and denies unimpeded access into midcourse with complex 
countermeasures, which is the greatest challenge from the emerging 
threat. Technology advances in highly efficient, compact electric 
lasers that could be small and light enough to fit on high altitude 
unmanned air vehicles (UAVs) offer new opportunities for effective and 
affordable boost phase intercept.
    The Missile Defense Agency's fiscal year 2016 budget request 
includes funding to advance technology supporting boost phase 
intercept. Two short wavelength electric lasers are being scaled up in 
the laboratory from kilowatts to tens of kilowatts. Measurements of 
vibrations and high altitude turbulence and optical propagation are 
planned, using existing high altitude UAVs. We are also bringing on 
industry this year to assess the feasibility and develop concepts for a 
new missile defense laser demonstrator scheduled to fly before the end 
of this decade.

    49. Senator Cruz. Secretary Carter, with an emerging Iranian ICBM 
program and active North Korean ICBM Program, are you comfortable with 
the level of funding toward General Missile Defense for protecting 
against a threat to the U.S. Homeland? Do you believe that this program 
has the appropriate priorities for procurement, research, and 
development?
    Secretary Carter. The Department remains committed to operating, 
sustaining, and expanding the Nation's homeland missile defenses and 
requests $1.76 billion for the Ground-based Midcourse Defense program. 
This amount is $613 million over our President's Budget (PB) 2015 
request. I support the priorities laid out by the Missile Defense 
Agency in this budget request.
    The PB 2016 request supports expanding the number of currently 
deployed Ground Based Interceptors (GBIs) to 44 by the end of 2017. The 
request supports continued flight and system ground testing, Redesigned 
Kill Vehicle development, and enhancement of Stockpile Reliability 
Program to improve GBI performance, reliability, and reliability 
testing. The request also supports improvements to our sensor networks 
to increase battle space and discrimination.

    50. Senator Cruz. Secretary Carter, our closest ally in the Middle 
East, Israel, recently used the Iron Dome with great success against 
small rockets. However, as radical Islamic extremists and the Iranian 
regime develop new capabilities, do you believe that they have adequate 
defenses against nuclear, biological, or chemical weapons attacks by 
the Iranian regime or other radical Islamic terrorists?
    Secretary Carter. The U.S. commitment to Israel is ironclad. Israel 
faces very real missile threats from a number of actors in the region, 
and Israel's security remains a top priority. In addition to Foreign 
Military Financing assistance, the United States has provided more than 
$3 billion in missile defense assistance to Israel since 2001. The 
Department has worked with Israel to develop a multi-layered missile 
defense architecture that includes Iron Dome, David's Sling, and Arrow. 
However, the Government of Israel is in the best position to determine 
the overall adequacy of its national defense.
                             cyber threats
    51. Senator Cruz. General Dempsey, how do you describe the 
Department of Defense's role in deterring and responding to 
cyberattacks from state actors and state sponsored actors against U.S. 
defense capabilities, research programs, and operational networks? Do 
you believe that this budget provides enough resources for us to stay 
ahead of state backed threats?
    General Dempsey. Deterrence in cyberspace, as with other domains, 
relies on two principal mechanisms: denying an adversary's objectives 
and, if necessary, imposing costs on an adversary for aggression. The 
Department of Defense plays a key role in our deterrence strategy, 
particularly regarding our defense capabilities and research programs, 
by providing military options to respond to attacks in cyberspace as 
with attacks in any other domain.
    To that end, the Department has spent several years building 
capabilities to provide a credible threat of response to deter 
malicious nation state activities against us in cyberspace. We view 
cyberspace as a global warfighting domain rather than simply an 
information technology resource, and have established U.S. Cyber 
Command and its associated forces dedicated to defending against and 
responding to adversary cyberspace attacks. We are also working with 
like-minded nations to establish an environment of expectations, or 
norms of behavior, that increase understanding of cyber doctrine, and 
guide Allied policies and international partnerships.
    This budget continues our investments in deterring and responding 
to state-sponsored aggression in cyberspace, consistent with the 
Department's other priorities. We continue to strengthen our defenses, 
resiliency, and monitoring capabilities in order to deny or minimize 
the benefit of malicious activity in cyberspace and ensure our ability 
to attribute malicious activity to its source and sponsor. We are also 
continuing to invest in U.S. Cyber Command's Cyber Mission Forces to 
provide a credible threat of response in cyberspace in addition to our 
response options in other domains. Along with the efforts of our 
nation's law enforcement, intelligence, and diplomatic communities, the 
Department of Defense will ensure the cost of a state-sponsored attack 
in cyberspace far outweighs any potential benefit an adversary may hope 
to gain.

    52. Senator Cruz. General Dempsey, do you have concerns about the 
capability of non-state actors to degrade or disrupt defense 
information systems as cyber weapons proliferate and are reengineered? 
What is our answer to this threat?
    General Dempsey. The cyberspace threat from non-state actors has 
been a consistent concern for as long as we have been leveraging 
information technology. The low cost and rapid proliferation of 
malicious cyberspace tools enables anyone with hostile intent, from 
amateur hackers to criminal and terrorist organizations, the capability 
to threaten our national interests.
    To counter this threat, we are building robust defensive 
capabilities and building better resiliency and monitoring 
capabilities. We have also built an operational force aligned to U. S. 
Cyber Command, consisting of active duty military, civilian, national 
guard, and reserve components, to actively defend against and respond 
to malicious cyberspace activity. We continue to leverage the Nation's 
ingenuity by recruiting and retaining an exceptional cyber workforce 
and enabling rapid technological innovation.
    In addition, the Department of Defense continues to work closely 
with its interagency partners, including the Departments of Justice and 
Homeland Security, to address threats to the United States from 
wherever they originate, through a whole-of-government approach. The 
Department is dedicated to the defense of the Nation, and to the 
privacy and the civil liberties of its citizens.
    We also continue to build robust relationships with private 
industry partners, U.S. Allies and international partners to enable 
information sharing and strengthen collective cybersecurity.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                       electronic health records
    53. Senator Blumenthal. Secretary Carter, one of my major 
priorities is to ensure that VA can exchange relevant health data with 
DOD and the private sector in a usable, computable, format to support 
clinical decisions. This initiative has faced changes in scope and 
project management issues in the past that have led to delays and have 
impacted cost estimates for this program. While VA and DOD are sharing 
more health data than ever, existing data-sharing mechanisms have 
limited utility in clinical encounters due to access limitations and 
usability issues. To that end, please provide a status update on the 
Defense Healthcare Management System Modernization (DHMSM) program, 
including a schedule that includes the estimated contract award date, 
and key dates for program rollout and retirement of legacy EHR systems.
    Secretary Carter. Each product under consideration for the Defense 
Healthcare Management System Modernization (DHMSM) Electronic Health 
Records (EHR) solution is being extensively tested by subject matter 
experts and users. To address access limitations, the DHMSM program is 
working closely with the Defense Military Information Exchange program 
(within the same Program Executive Office), which is providing 
technical solutions to allow the Department to increase the level of 
data shared with VA and the private sector. These enhancements will 
continue to improve existing data-sharing capabilities and address 
congressional directives.
    The DHMSM program has been open and transparent with industry and 
has consistently met acquisition goals on schedule over the last 18 
months. The program held four Industry Days, released three draft 
Requests for Proposals (RFPs), and released a final RFP in August 2014 
that resulted in extremely robust interest and corresponding industry 
competition. The program is currently in Source Selection with an 
anticipated contract award this fiscal year. The details of the source 
selection process are deemed extremely sensitive; however, competition 
remains robust. The program is on-track to begin deployment of the 
modernized EHR System prior to December 31, 2016, as required by the 
fiscal year 2014 National Defense Authorization Act requirement. 
Retirement of legacy EHR systems will depend on the selected solution 
and the proposed deployment schedule.

    54. Senator Blumenthal. Secretary Carter, a recent report from the 
Center for a New American Security on modernizing military healthcare 
highlighted potential disadvantages to DOD's current commercial 
approach to replacing its health record, including the potential that 
health data may not be as interoperable as the Department hopes, and 
the limitations that can come with having only one company that can 
upgrade or improve the system. What is DOD doing to reduce the risk of 
vendor lock, data isolation, and potential bid protest inherent in the 
multibillion dollar DHMSM procurement?
    Secretary Carter. To address vendor lock, the Request for Proposal 
(RFP) uses a multi-pronged approach by including well-defined 
requirements consistent with the tenets of open systems architecture 
(OSA), standard and custom clauses that protect the Government's 
intellectual property and data rights, and evaluation criteria that 
assess proposed approaches to achieving OSA and interoperability and 
proposed intellectual property/data rights postures. The RFP requires a 
data architecture that supports open standards based data portability. 
Vendors will be evaluated on whether their product provides well-
documented open Application Programing Interfaces and services to 
facilitate integration. System improvements will be through upgrades 
with newer modular components without redesign of entire system or 
large portions. The vendor must adopt emerging standards and maintain 
compliance and currency with the Office of the National Coordinator and 
other applicable national standards.
    To reduce the risk of data isolation, the DHMSM program is working 
closely with the Defense Medical Information Exchange program (within 
the same Program Executive Office), which is providing technical 
solutions to allow the Department to increase the level of data shared 
with the Department of Veterans Affairs and the private sector. These 
enhancements will stabilize existing data-sharing capabilities and 
address congressional directives. The second phase of work will enable 
the modernized Electronic Health Records to access legacy data, 
supporting better access to safer, higher-quality care for 
beneficiaries and providers.
    Regarding potential bid protest, the DHMSM program office includes 
acquisition, contracting, and legal professionals, whose collective 
knowledge and experience are informing the RFP and Source Selection 
process. The program informed industry of the requirements through 
multiple Industry Days and draft RFPs over a 10 month period. The 
program office remained open and transparent throughout this entire 
period, affording industry an opportunity to comment formally and 
directly throughout the requirements development and overall 
acquisition process. I cannot predict if there will be a protest, I am 
confident the source selection process is executing with a high level 
of integrity and process discipline and evaluating proposals within the 
parameters/criteria as described in the RFP.

    55. Senator Blumenthal. Secretary Carter, the most recent health 
data interoperability management plan indicates that progress is being 
made on terminology standardization in a number of health data domains. 
What progress has been made on developing standards to govern health 
data transport and security between the two Departments?
    Secretary Carter. Department of Veterans Affairs (VA) Trusted 
Internet Connection Gateways provide secure communication between VA-
based networks and Department of Defense networks via the medical 
community of interest (MED-COI) Enterprise Gateways. The MED-COI 
Gateway components provide a secure means to monitor, screen, and 
restrict traffic flows into and out of the Department's Medical Health 
System networks. The gateways provide a secure means of communication 
and access to both Personal Identifiable Information and Protected 
Health Information between the Departments.
    The Department leverages standard commercial off the shelf 
equipment on the Defense Information Systems Agency (DISA) Approved 
Product List configured to adhere to DISA Security Technical 
Implementation Guide compliance. Data in transit is secured by 
leveraging commercial standard encryption (e.g., AES-256 encryption) 
per DODI 8500.2 over MED-COI dedicated transport, improving performance 
and availability. At the MED-COI Gateways, the data is decrypted for 
inspection prior to being re-encrypted for transport to systems at 
various sites. The VA is responsible for securing the traffic in 
transport across the VA network. The Department secures data at rest by 
leveraging multiple industry best practices (e.g., FIPS 140-2), which 
the Department is currently rationalizing into a single solution. From 
a network perimeter prospective, the Departement is proactively working 
to rationalize to a single Computer Network Defense Service Provider.
    With these various data transport security layers, the Department 
is providing infrastructure and services to enable comprehensive health 
data transport security. The Departments are continuing to work 
together to ensure stable, secure methods for health data transport 
between the Departments as technology and standards evolve.

    56. Senator Blumenthal. Secretary Carter, what plans does DOD have 
to manage the conversion of legacy data for use in the proprietary 
system that will replace AHLTA?
    Secretary Carter. The Department will migrate the required 
operational AHLTA data to the new Defense Healthcare Management Systems 
Modernization (DHMSM) Electronic Health Records (EHR) system. This 
information will be accessible via interfaces based on industry/
national-standards. The vendor must provide a Data Management Plan 
(CDRL A0027), in accordance with the DHMSM Engineering Master Plan, 
DHMSM Interface Strategy, and the Program Executive Office DHMS Data 
Strategy. This plan must align data management activities to enable 
Government compliance with the Department of Defense Instruction 
``Sharing Data, Information, and Information Technology (IT) Services 
in the Department of Defense'' (DODI 8320.02), which conveys the data 
management activities that must take place to enable net-centric 
concepts. Additionally, this plan must support coordination between the 
DHMSM program, DHA, and the Defense Medical Information Exchange (DMIX) 
and Theater Medical Information Program-Joint (TMIP-J) programs 
regarding data management strategies, activities for access to clinical 
and patient health information, and data migration to support 
transition.
    In support of Initial Operational Capability Deployment, the DHMSM 
program has evaluation criteria (Section L) to support data migration. 
The vendor's proposal must include:
    (1) Approach and schedule to achieve product integration and 
installation of the proposed solution in Government test facilities.
    (2) Approach for legacy data migration.
    The remainder of the legacy AHLTA data will align with an 
enterprise data management strategy to shift most Medical Health System 
systems from receiving data directly from the DHMSM EHR system to 
receiving data from an enterprise data warehouse accessible via 
Industry/national-standards based interfaces.
    During the transition to the new DHMSM EHR system, DOD clinicians 
will be able to retrieve records through the tools created by the DMIX 
program from the AHLTA Clinical Data Repository and other legacy data 
stores through a web-based viewer called the Joint Legacy Viewer.
                       mental health of veterans
    57. Senator Blumenthal. Secretary Carter and General Dempsey, last 
month, GAO published a report on the need for better tracking and 
oversight for service member separations for non-disability mental 
conditions. Three of the four military services: Army, Navy, and Marine 
Corps, are unable to track whether a separating service member has a 
mental condition. DOD and other stakeholders, must be able to assess 
separation frequency and trends in order to identify potential 
inappropriate separations. Will you implement the recommendations from 
GAO and conduct appropriate oversight into this matter to ensure that 
DOD has sound policies and processes to track whether a separating 
service member has a mental condition and ensure that service members 
are administratively separated for non-disability mental conditions?
    Secretary Carter. Yes, I agree with the Government Accountability 
Office (GAO) that there is a need to develop a method to uniformly 
track non-disability information. This is one of the reasons the 
Department is conducting a review of separation program designator 
codes beginning June 2015 and the information portrayed on the various 
copies of the DD Form 214, ``Certificate of Release or Discharge From 
Active Duty'' with a goal to bring greater clarity and standardization 
across the Department.
    General Dempsey. Yes, we agree with GAO that there is a need to 
develop a method to uniformly track non-disability information. This is 
one of the reasons we are planning to conduct a comprehensive review of 
separation program designator codes and the information portrayed on 
the various copies of the DD Form 214, ``Certificate of Release or 
Discharge From Active Duty,'' with a goal to bring greater clarity and 
standardization across the Department.

    58. Senator Blumenthal. Secretary Carter, DOD and VA are not 
adequately coordinating continuity of access to mental health care for 
service members transitioning off of active duty. In many cases, DOD 
doctors have much more freedom to prescribe treatments for mental 
health conditions than VA doctors because of DOD's more expansive 
formulary. VA clinicians can get exceptions to provide specific 
treatments to veterans on an individual basis, but approving the 
exception takes time. Too frequently, after leaving active duty with a 
supply of effective prescription medication, veterans wait until their 
medication is about to run out before making an appointment with a VA 
clinician. If an exception to the formulary requirements is not already 
in the works, that veteran will leave VA frustrated and without access 
to a prescription medication/treatment that has proven successful while 
that veteran was on active duty. I find it unacceptable that a veteran 
loses access to a treatment that is working because of a lack of 
coordination between DOD and VA. When prescribing drugs/therapy not 
included in VA's formulary, do DOD clinicians notify service members of 
the time requirement associated with getting a waiver in the VA system?
    Secretary Carter. The Department of Defense is expanding the 
inTransition program to ensure that all Service members leaving 
military service or transferring duty stations while receiving care for 
mental health conditions are automatically enrolled in the program. The 
inTransition program provides coordination between the Department of 
Defense and the Department of Veterans Affairs (VA) (for those who plan 
to access VA services) through personal assistance with arranging their 
transition to new care providers in the Department, VA or the 
community.
    Mental health providers caring for a Service member while on active 
status will dispense medication sufficient to cover the Service 
member's needs until the VA intake. This change in Department policy is 
accompanied by a 3-tiered education plan within the Department: 
providers will educate their patients, anticipatory guidance sheets 
will reflect the change (which takes tracking of impending discharges 
out of the equation), and our website will detail the change in VA 
policy. Regarding prescribing differences between the Department and VA 
providers, a waiver is no longer necessary and drugs prescribed while 
on active status will now be continued at the VA, if not already 
available from the VA formulary. In January, the VA policy was changed 
and the Department published an announcement that Service members who 
are currently prescribed medications for mental health conditions, who 
will be transitioning their care to the VA medical system, will be able 
to continue taking psychiatric medications that were previously 
unavailable owing to differences in the Department of Defense and VA 
medication formularies. This change is effective for Service members 
who are processing their separations on or after February 2015.
               transitional assistance management program
    59. Senator Blumenthal. Secretary Carter, the Transitional 
Assistance Management Program (TAMP) provides 180 days of premium-free 
transitional health care benefits after regular TRICARE benefits end. 
The benefits provided by TAMP are available to service members 
involuntarily separated from active duty under honorable conditions, 
but not to service members administratively separated under other-than-
honorable conditions. I am concerned that a growing number of service 
members who are separated under other-than-honorable conditions also 
suffer from service-related medical or mental health concerns. Will you 
commit to work with me to provide transitional health care benefits to 
all deserving service members?
    Secretary Carter. The Department believes that separating Service 
members are sufficiently supported by current programs under existing 
law without any further expansion of Transitional Assistance Management 
Program (TAMP) eligibility. The Department of Defense has a robust 
Integrated Disability Evaluation System to evaluate Service members for 
any medical and mental health conditions that could potentially render 
them unfit for service. The Department of Veterans Affairs (VA) has a 
very mature program to evaluate any medical and mental health 
conditions that do not manifest prior to separation that are service 
connected. VA eligibility for health care services for service 
connected disabilities is not precluded by a discharge from service 
characterized as under other-than-honorable conditions.

    60. Senator Blumenthal. Do you support extending TAMP to all 
service members involuntarily separated through administrative 
procedures?
    Secretary Carter. The Department believes that separating Service 
members are sufficiently supported by current programs under existing 
law without any further expansion of Transitional Assistance Management 
Program eligibility. VA eligibility for health care services for 
service connected disabilities is not precluded by a discharge from 
service characterized as under other-than-honorable conditions.

    61. Senator Blumenthal. Please identify whether you have the 
authority to implement such a change without new legislation?
    Secretary Carter. The Department does not have authority to 
implement such a change without new legislation. 10 U.S.C. 1141, 
paragraphs (1) through (4) specify `` . . . involuntarily discharged 
under other than adverse conditions . . . .'' as the eligibility 
requirement for Transitional Assistance Management Program.
                 record of service identification cards
    62. Senator Blumenthal. Secretary Carter, I am deeply concerned by 
the growing threat of identity theft targeting military personnel and 
veterans when they share their personal information with third parties 
to provide proof of military service to obtain access to exclusive 
military discounts or other benefits. Currently, active duty, reserve, 
National Guard, or retired members possess a government-issued common 
access card (CAC) that satisfies merchants' requirements for on-site 
proof of service. Non-retired veterans have no such card. They are left 
to pursue a variety of unsecure methods to obtain promised discounts, 
including emailing or sending through the mail copies of DD-214 forms, 
photocopying identification cards, completing varied and complex 
application processes, or paying significant membership fees to for-
profit entities--all in order to simply document their service to our 
country. Requiring our nation's heroes to provide this valuable private 
personal and financial information puts them at severe risk of identity 
theft, and other kinds of fraud and abuse. Secretary Carter and General 
Dempsey, would you agree that protecting these citizens who voluntarily 
served their country--yet are increasingly targeted for identity 
theft--should be a priority?
    Secretary Carter. Protecting the personal information of all 
military personnel and veterans is a priority. To help alleviate some 
of the unsecure methods veterans use to obtain private discounts, since 
January 2014, honorably separated members of the uniformed services 
have been able to obtain an identification (ID) card, similar to a 
proof of insurance card, through the joint Department of Defense/
Department of Veterans Affairs eBenefits web portal. To date, over 
700,000 of these cards have been generated by eBenefits users. These ID 
cards provide veterans the ability to provide basic proof of service, 
while alleviating many of the risks you have mentioned.
    An alternative option for these veterans is also to utilize State-
issued ID cards that designate veteran status. Veterans in 44 States 
and the District of Columbia may apply for a driver's license or State-
issued ID card that designates veteran status. The remaining states 
either have statutes that provide for such State-issued cards but the 
statutes have not yet gone into effect, or have legislation providing 
for such cards pending in the legislatures.
    Lastly, retired veterans are issued an ID card, DD Form 2 that does 
not contain private personal and financial information.
    General Dempsey. Protecting the personal information of all 
military personnel and veterans is a priority. Since January 2014, 
honorably separated members of the uniformed services have been able to 
obtain an identification (ID) card, similar to a proof of insurance 
card, through the joint Department of Defense/Department of Veterans 
Affairs eBenefits web portal. To date, over 700,000 of these cards have 
been generated by eBenefits users. These ID cards provide veterans the 
ability to provide basic proof of service, while alleviating many of 
the risks you have mentioned, and has helped alleviate some of the 
unsecure methods veterans use to obtain private discounts.
    An alternative option for these veterans is also to utilize State-
issued ID cards that designate veteran status. Veterans in 44 States 
and the District of Columbia may apply for a driver's license or State-
issued ID card that designates veteran status. The remaining states 
either have statues that provide for such State-issued cards but the 
statues have into yet gone into effect, or have legislation providing 
for such cards pending in the legislatures.
    Lastly, retired veterans are issued an ID card, DD Form 2 that does 
not contain private personal and financial information.

    63. Senator Blumenthal. Will you agree to work with me to establish 
recognition of service cards to protect personal information while 
providing immediate and on-site verification to merchants nationwide, 
thus ensuring that more than 17 million non-retired veterans receive 
service-based discounts and other benefits?
    Secretary Carter. I understand the need for recognition of service 
identification (ID) cards for non-retired veterans. In order to address 
this need, since January 2014, honorably separated members of the 
uniformed services have been able to obtain an ID card, similar to a 
proof of insurance card, through the joint Department of Defense/
Department of Veterans Affairs eBenefits web portal. To date, over 
700,000 of these cards have been generated by eBenefits users. These ID 
cards provide veterans the ability to provide basic proof of service, 
while alleviating many of the risks you have mentioned.
    An alternative option for these veterans is also to utilize State-
issued ID cards that designate veteran status. Veterans in 44 States 
and the District of Columbia may apply for a driver's license or State-
issued ID card that designates veteran status. The remaining states 
either have statutes that provide for such State-issued cards but the 
statutes have not yet gone into effect, or have legislation providing 
for such cards pending in the legislatures.
                         high altitude isr plan
    64. Senator Blumenthal. Secretary Carter, I understand the Air 
Force is developing a High Altitude ISR plan that will transition the 
State Department and Long Range EO/IR/MSI missions from the U-2 to the 
Global Hawk and enable U-2 retirement by fiscal year 2019. Funding to 
begin this transition of mission, as required by previous NDAA 
language, was appropriated in fiscal year 2015 but is held up until the 
Department provides a High Altitude ISR plan. When will DOD submit the 
new plan to facilitate actions enabling the mission transitions from 
the U-2 to the Global Hawk by fiscal year 2019?
    Secretary Carter. The Air Force is developing the High Altitude 
Intelligence, Surveillance, Reconnaissance Plan, including the 
transition of missions from the U-2 to the Global Hawk. This transition 
plan is being coordinated with the key stakeholders within the 
Department of Defense. Staffing of the transition plan is expected to 
be complete by the end of fiscal year (FY) 2015, upon which the 
Department will provide the plan to Congress. In the President's Budget 
submission for fiscal year 2016, the transition of these missions from 
U-2 to Global Hawk is programmed to align with the retirement of U-2 in 
fiscal year 2019.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
          special victims' counsel/retaliation/sexual assault
    65. Senator Gillibrand. In both 2012 and 2014, 62 percent of 
victims who reported unwanted sexual contact indicated they had been 
retaliated against, socially and professionally. I am very concerned 
that nearly two-thirds of survivors perceive retaliation. To me that 
says that, whether it is professional or social retaliation, there is a 
problem with the command climate and that needs to be addressed. How do 
you plan to address this issue?
    Secretary Carter. The Department has an obligation to ensure that 
victims of sexual assault can report the crime without concern of 
retaliation, from their peers or anyone else. It is unacceptable that 
any military member who files a report perceives any kind of 
retaliation, to include social retaliation from co-workers or peers.
    A) Commanders set the tone in their units and they should be at the 
core of any effort to address retaliation. Recent Department survey 
data shows that most Service members highly rate their unit leadership 
efforts to advance sexual assault prevention and response. However, 
everyone in the chain of command must be just as supportive. To achieve 
this, several Secretary of Defense initiatives informed by these 
results were implemented directing the Chiefs of the Military Services 
and the National Guard Bureau to: (1) augment the training of junior 
officers, junior enlisted supervisors, and civilian employees that 
supervise military members on awareness and prevention of retaliation 
associated with reporting; (2) develop new procedures to engage command 
to prevent retaliation; and (3) conduct a comprehensive review of the 
means available to address both social and professional retaliation, to 
include appropriate conduct on social media.
    B) Since 2012, the Department has allowed members making an 
unrestricted report of sexual assault to request an expedited transfer 
from their assigned units. Members have broad latitude in deciding 
whether requesting this transfer would be right for their 
circumstances, whether they perceive retaliation or ostracism or simply 
want closer proximity to a certain support network. 216 members moved 
pursuant to expedited transfer rules in fiscal year 2012, in fiscal 
year 2013, there were 565 expedited transfers and there were 
approximately 549 in fiscal year 2014, the final figure for which will 
be reflected in the Department's Annual Report to Congress in April.
    General Dempsey. We have an obligation to ensure that victims of 
sexual assault can report the crime without concern of retaliation, 
from their peers or anyone else. It is unacceptable that any military 
member who files a report perceives any kind of retaliation, to include 
social retaliation from co-workers or peers.
    As commanders set the tone in their units, they should be at the 
core of any effort to address retaliation. Recent DOD survey data shows 
that most Service members highly rate their unit leadership efforts to 
advance sexual assault prevention and response. However, everyone in 
the chain of command must be just as supportive. To achieve this, the 
Department implemented several initiatives informed by these results 
directing the Department to: (1) augment the training of junior 
officers, junior enlisted supervisors, and civilian employees that 
supervise military members on awareness and prevention of retaliation 
associated with reporting (2) develop new procedures to engage command 
to prevent retaliation and; (3) conduct a comprehensive review of the 
means available to address both social and professional retaliation, to 
include appropriate conduct on social media.
    Additionally, since 2012 the Department has allowed members making 
an unrestricted report of sexual assault to request an expedited 
transfer from their assigned units. Members have broad latitude in 
deciding why this transfer would be right for their circumstances, 
whether they perceive retaliation or ostracism or simply want closer 
proximity to a certain support network.

    66. Senator Gillibrand. Do you have sufficient resources and 
authorities to address the problem?
    Secretary Carter. Yes. The President's Budget request has provided 
sufficient resources to continue the development and enhancement of the 
Sexual Assault Prevention and Response Program to enable the Department 
better to address issues of retaliation proactively. That said, if 
sequestration takes effect, it will be difficult to maintain the 
momentum on all fronts. I have the authorities I need to address all of 
the sexual assault related issues.
    General Dempsey. The President's Budget request has provided 
sufficient resources to proactively continue the development and 
enhancement of the Sexual Assault Prevention and Response Program.

    67. Senator Gillibrand. The Special Victims' Counsel Program--which 
details a judge advocate to assist and represent sexual assault victims 
and help them navigate the military justice system--is an important 
step to increasing everyone's confidence in the system. Despite the 
downsizing that is taking place across the Services, I understand that 
the Air Force was able to increase its number of Air Force judge 
advocate slots by 58, the majority of which will be devoted to the 
Special Victims' Counsel Program. It is my understanding that the other 
Services have not seen that authorized slots increased. Do you have 
sufficient resources to dedicate to the Special Victims' Counsel 
Program?
    Secretary Carter. Yes. The Services have all relayed that they have 
sufficient resources to dedicate to the Special Victims' Counsel 
Program. The Services are constantly reassessing the demand for SVC 
services to ensure that victims of sexual assault are afforded this 
service.
    The Air Force recently authorized 58 officer billets and 15 
enlisted paralegal billets to increase the personnel strength of key 
trial practitioners in the military justice system. This action 
addresses rising caseloads in the provision of legal services to 
victims of sexual assault and the expansion of the Special Victims' 
Counsel program (SVC) as required by law (FY 2014 NDAA, Sec. 1716). 
These new authorizations will allow the SVC program to grow. With the 
addition of these manpower authorizations, the Air Force has dedicated 
the necessary resources to provide legal services to victims of sexual 
assault under the current construct of the program.
    The Army currently has 75 Special Victims' Counsel assigned in 
legal assistance offices at locations worldwide. When the program was 
implemented in 2013, the Army used its active duty attorneys to serve 
as SVCs and backfilled some positions with reserve component judge 
advocates, as necessary, to ensure continued support. Based on current 
workload, the Army believes that the end strength of 75 SVC in the 
Active Army will allow victims of sexual assault who request SVC 
services to have an SVC assigned at or near the victim's location.
    The Navy refers to its special victims counsel program as the 
Victim Legal Counsel Organization. The Navy has sufficient resources 
dedicated to the program at this time with 29 counsel supporting the 
program.
    The Marine Corps currently has sufficient resources to dedicate to 
the Special Victims' Counsel Program. The Marine Corps refers to the 
SVC program as the Victims' Legal Counsel Organization (VLCO), and to 
the judge advocates that provide these services as Victims' Legal 
Counsel (VLC). The VLCO presently has sixteen (16) VLC supporting 
victims. The VLC are assisted by 9 paralegals.
    General Dempsey. Yes. The Services have all relayed that they have 
sufficient resources to dedicate to the Special Victims' Counsel (SVC) 
Program.
    The Air Force recently authorized 58 officer billets and 15 
enlisted paralegal billets to increase the personnel strength of key 
trial practitioners in the military justice system. With the addition 
of these manpower authorizations, the Air Force has dedicated the 
necessary resources to provide legal services to victims of sexual 
assault under the current construct of the program.
    The Army currently has 75 SVC assigned in legal assistance offices 
at locations worldwide. Based on current workload, the Army believes 
that end strength of 75 SVC in the Active Army will allow victims of 
sexual assault who request SVC services to have an SVC assigned at or 
near the victim's location.
    The Navy refers to its SVC program as the Victim Legal Counsel 
Organization. The Navy has sufficient resources dedicated to the 
program at this time with 29 counsels supporting the program.
    The Marine Corps currently has sufficient resources to dedicate to 
the SVC Program. The Marine Corps also refers to the SVC program as the 
Victims' Legal Counsel Organization (VLCO), and refers to the judge 
advocates that provide these services as Victims' Legal Counsel (VLC). 
The VLCO presently has sixteen 16 VLCs supporting victims which are 
assisted by 9 paralegals.
    The Services are constantly reassessing the demand for SVC services 
to ensure that victims of sexual assault are afforded this service.

    68. Senator Gillibrand. The Special Victims' Counsel have testified 
at the Judicial Proceedings Panel on Sexual Assault, and told ME, that 
the program needs to be improved. Common criticisms are the current 
appellate process is nonresponsive and insufficient to protect victims' 
rights; victim access to information--including discovery, pleadings 
and motions--remains inconsistent; and that there is widespread 
confusion about procedures for representing victims in judicial 
proceedings and for enforcing other victim rights. Do you think you 
have sufficient authority to review and implement reforms that may be 
needed?
    Secretary Carter. Yes. I believe the Department has sufficient 
authorities to implement reforms. In the event that there are 
appropriate reforms that could be carried out only with the enactment 
of legislation, I will pursue such legislation
    The Department is working hard to make necessary improvements to 
the Special Victims' Counsel (SVC) program and implementing those 
changes through policy initiatives. As an example, the Department has 
directed implementation of numerous recommendations from the Response 
Systems to Adult Sexual Assault Crimes and Related Offenses Panel 
(RSP), including ensuring compliance by trial counsel with victim 
rights set forth in Article 6b of the Uniformed Code of Military 
Justice (UCMJ) and Department policy. The Department has also directed 
an assessment of the effectiveness of the processes used to receive and 
investigate complaints relating to violations or failures by military 
and civilian employees of all the Services to provide the rights 
guaranteed by Article 6b, UCMJ, and to determine whether a more uniform 
process is needed. With respect to the appellate process, the 
Department referred an RSP recommendation regarding SVC representation 
throughout the military justice process (including appellate review) to 
the Military Justice Review Group (MJRG) for consideration. The MJRG 
was tasked to conduct a comprehensive review of the military justice 
system and make recommendations for changes to the Uniform Code of 
Military Justice and the Manual for Courts-Martial. This review will 
inform the Department on military justice improvements, including SVC 
programs.
    General Dempsey. Yes. We believe the Department has sufficient 
authorities to implement reforms. The Department continues to make 
necessary improvements to the Special Victims' Counsel (SVC) Program 
and implementing those changes through policy initiatives. The 
Department has directed implementation of numerous recommendations from 
the Response Systems to Adult Sexual Assault Crimes and Related 
Offenses Panel (RSP) to include ensuring compliance by trial counsel 
with victim rights set forth in Article 6b of the UCMJ and DOD policy. 
It also directed an assessment of the effectiveness of the processes 
used to receive and investigate complaints relating to violations or 
failures by military and civilian employees of all the Services to 
provide the rights guaranteed by Article 6b, UCMJ, and to determine 
whether a more uniform process is needed.
    With respect to the appellate process, the Department referred an 
RSP recommendation regarding SVC representation throughout the military 
justice process (to include appellate review) to the Military Justice 
Review Group (MJRG) for consideration. The MJRG was tasked to conduct a 
comprehensive review of the military justice system and make 
recommendations for change to the Uniform Code of Military Justice and 
the Manual for Courts-Martial. We expect this review to inform the 
Department on military justice improvements, to include SVC.
                           combat integration
    69. Senator Gillibrand. January 2016 is the deadline for the 
implementation of combat integration in the military. Not only is this 
a readiness issue, since you want to have the best qualified people in 
position, regardless of gender, it is also a way to give women a fair 
shot to reach positions of leadership in the military. Secretary 
Carter, it will be up to you to make the final determination of whether 
to allow exceptions. What criteria do you intend to use to make this 
determination?
    Secretary Carter. In accordance with the 2013 Direct Ground Combat 
Definition and Assignment Rule rescission memo, all requests for 
exceptions to policy must be narrowly tailored and based on a rigorous 
analysis of factual data regarding the skills and abilities needed for 
the position. If I receive requests for exception to policy, I will 
carefully consider them in this light.

    70. Senator Gillibrand. Secretary Carter, will you be looking 
across the services to see if one asks for an exception in a position 
whose equivalent another service does not request an exception for?
    Secretary Carter. Yes, this is a Department-wide effort and all 
final recommendations will be discussed collaboratively. Any requests 
for exception to policy must be personally approved, first by the 
Chairman of the Joint Chiefs of Staff, and then by me.

    71. Senator Gillibrand. Secretary Carter, what kind of oversight 
are you currently doing to ensure that the services are developing 
gender neutral standards?
    Secretary Carter. In recognition of the lessons learned from 
ongoing overseas contingency operations, and in order to fully 
implement rescission of the Direct Ground Combat Definition and 
Assignment Rule, the Department directed the Services to review and 
validate all occupational standards to ensure they are current, 
operationally-relevant, and gender neutral by September 2015. Since the 
rescission of the rule, the Services have provided recurring progress 
updates on their efforts. Representatives from the Office of the Under 
Secretary of Defense for Personnel and Readiness have also spent 
considerable time visiting each Service and reviewing all Services' 
work in this area, as well as facilitating cross-service working groups 
to ensure all are informed of complementary efforts.
    Beyond this, the Department recently issued implementing guidance 
to the Military Department Secretaries requiring them to certify that 
their validated standards accurately predict the performance of actual, 
regular, and recurring duties of a military occupation as set forth in 
the fiscal year 2015 National Defense Authorization Act. To 
institutionalize these changes and to ensure continued compliance, the 
Undersecretary of Defense for Personnel and Readiness further directed 
that Service Inspectors General establish procedures for conducting 
gender-neutral standards compliance inspections at least every three 
years, starting no later than fiscal year 2016.

    72. Senator Gillibrand. What else are the services doing to help 
with recruitment and retention of women?
    Secretary Carter. In addition to efforts associated with rescission 
of the Direct Ground Combat Definition and Assignment Rule, over the 
last few years, the Services have considered and implemented additional 
initiatives to help improve the recruitment and retention of women in 
the military. Marketing and advertising campaigns across web, media and 
social platforms have been updated to integrate gender-diverse imagery. 
Gender-diverse imagery that resonates with women may increase the 
number of women seeking to enter military service. News articles about 
female service members with successful careers or unique service 
stories have been publicized. Senior military leaders have engaged in 
concerted efforts to build advocacy among women in positions of 
influence throughout our recruiting communities. Some Services have 
increased their target for the number of female recruits and 
established metrics that are frequently reported to heighten awareness 
and increase emphasis in this area. Additionally, some Services have 
increased the number of female recruiters. The Services are also 
reviewing enlistment bonuses in difficult to recruit occupations where 
females are under-represented, reviewing long-standing policies. 
Although not specifically related to the retention of women, all of the 
Services have begun to use the Career Intermission Pilot Program 
authority. This program allows an active duty Service member to 
temporarily transition to the Individual Ready Reserve while pursuing 
personal or professional growth outside the Service and then allows for 
a seamless return to active duty. While this is still a pilot program, 
there is some evidence that Service members, male and female, welcome 
the opportunity to take time away to focus on family and other personal 
needs without adversely impacting their career opportunities or their 
ability to continue to serve their country.
    General Dempsey. The Services have considered and implemented 
additional initiatives to help improve the recruitment and retention of 
women in the military. In an effort to increase female propensity for 
military service, marketing and advertising campaigns have been updated 
integrating gender-diverse imagery that resonates with women across 
web, media and social platforms, including news articles which 
highlight female service members who have successful careers or unique 
service stories. Our senior military leaders continue to build advocacy 
among women in positions of influence throughout our recruiting 
communities. Some Services have increased their target for the number 
of female recruits and established metrics that are frequently reported 
to heighten awareness and increase emphasis in that area. Additionally, 
some Services have increased the number of female recruiters. The 
Services are also reviewing long standing enlistment bonus policies in 
difficult to recruit occupations where females are under-represented, 
and where appropriate, they are revising them to be more favorable to 
potential female recruits.
                             cyber-security
    73. Senator Gillibrand. Cybersecurity continues to grow in its 
importance as we face threats from state and non-state actors. I have 
long pushed for the importance of using the reserve component to 
address cyber both because of the recruitment and retention 
opportunities that the Guard and Reserve present and because of the 
surge capacity they can offer to both our federal and state 
governments. What do you see as the role of the reserve component in 
cyber?
    Secretary Carter. Over the past 18 months USCYBERCOM and the 
Services conducted an initial analysis of the Reserve Component's (RC) 
role in the Cyber Mission Force (CMF). The analysis is ongoing and 
additional assessments will occur in fiscal year 2016 and beyond. The 
objective is to develop an integrated military and civilian total force 
to achieve USCYBERCOM's three missions (defending the Department of 
Defense Information Network; providing support to combatant commanders 
for execution of their missions around the world; and, strengthening 
our nation's ability to withstand and respond to cyber-attacks), and 
support the Department's Federal partners, in conjunction with the 
National Guard Bureau and State cyber mission needs.
    The Department assesses there can be advantages to using RC 
resources for CMF missions, such as providing load sharing with active 
duty forces, providing available surge capacity if authorized to 
activate, and maintain Department-trained forces to defend national 
critical infrastructure, if authorized. Several factors should be 
considered when determining the CMF force structure and the mix within 
the total force. These factors include whether the position is military 
essential, peacetime and wartime demands, deployment frequency and 
duration, speed of response, unit readiness for specific missions, and 
costs.
    General Dempsey. Cybersecurity is a team effort and by including 
the Reserve Component (RC) in the Cyber Mission Force build, the 
Department creates opportunities for defense in depth and flexibility. 
Furthermore, the RC has the ability to allow Cyber trained military 
personnel to continue to serve as they transition to the civilian 
sector. As part of the whole of government efforts, RC personnel are a 
critical asset available to augment our response to a Cyber incident 
against our country's critical infrastructure in support of Federal, 
State and Local governments.

    74. Senator Gillibrand. The Army and Air Force have taken different 
approaches to integrating the reserve component into their cyber 
forces. How do you see the services moving forward on this?
    Secretary Carter. The Department recognizes the need to incorporate 
the strengths, skills, and authorities afforded to the Reserve 
Components (RC) into the overall cyber force structure. When the Cyber 
Mission Force (CMF) construct was approved, the Department initially 
determined its military personnel would be Active Duty. The analysis 
conducted for the section 933 report from the Fiscal Year 2014 National 
Defense Authorization Act concluded there are advantages to using RC 
resources for CMF missions, such as providing load sharing with active 
duty forces, providing available surge capacity, and maintaining 
Department-trained forces to defend national critical infrastructure if 
authorized.
    The Services' developed individual plans that incorporate the RC 
into the total cyber force structure. The Army's proposed plan will 
create an additional 21 RC Cyber Protection Teams (CPTs), above and 
beyond their CMF requirement. The Air Force's proposed plan will 
leverage 15 RC Squadrons to fill two of their CMF-required CPTs and the 
cyberspace operations component of one CMF-required National Mission 
Team. Meanwhile, the Navy and Marine Corps will continue to contribute 
Individual Mobilization Augmentees to fill specific holes on their CMF-
required teams.
    Although the Services are employing their RC teams somewhat 
differently at present, all RC Forces will be trained and equipped to 
the same Joint standard, providing a sustainable approach to 
incorporating the RC into the CMF. This is consistent with the section 
933 report. The Services' proposed plans, in total, would integrate 
nearly 2,000 RC personnel into the cyber force structure, adequately 
addressing the opportunity for surge support and additional Service CPT 
support in the near-term.
    General Dempsey. The Air Force is integrating the Reserve Component 
(RC) into their requirement for the USCYBERCOM Cyber Mission Force. The 
Army has chosen to build RC capacity to support the ARCYBER missions. I 
believe both approaches are viable, and we will evaluate the pros and 
cons of each as we gain experience in this area. Providing trained, 
equipped and mission ready cyber warriors utilizes the strengths of the 
RC in recruiting and retention, as well as their civilian acquired 
skills and relationships. We as a department will continue to evaluate 
the opportunities for integration of the RC in the future.

    75. Senator Gillibrand. We just received a report from the services 
articulating their plans to either create separate specialties or 
designators for cyber. How do you envision the development not only of 
separate specialties for cyber but also career tracks?
    Secretary Carter. Success in cyberspace will rely on our people--
just as it does in other domains. In order to outpace the threat, we 
need to ensure the Services present their best and brightest to the 
Cyber Mission Force. While serving as Deputy Secretary of Defense I 
directed the Services to develop plans to recruit and retain the most 
highly skilled personnel, while ensuring they remained competitive, in 
both rank and position, with personnel in other career specialties. As 
a result, the Services recognized that separate management constructs 
may be required for their military cyberspace workforce. Each Service 
has made progress on developing special designators for their cyber 
personnel, as well as creating special career tracks for the most 
highly skilled cyber operators. Though each Service's approach is 
different, they all address the need to provide incentives such as 
unique training opportunities, retention bonuses, and opportunities to 
work on challenging and highly rewarding missions. The Services are now 
working toward expanding their plans to include their civilian 
cyberspace workforce as well.
    The Services have a long history of excellence in recruitment, and 
I am confident they will continue to attract the best and brightest 
enlisted, officer, and civilian personnel to this growing career field. 
As referenced in the report, the Department will continue to monitor 
Services' progress at recruiting, training, retaining, and managing top 
cyber talent, and will assist the Services in implementing new 
personnel functional communities, series, and incentives as required. I 
am committed to ensuring the workforce for the cyberspace domain is as 
world class as the personnel in other warfighting domains, and 
specifically, to ensuring the Cyber Mission Force is fully manned, 
trained, equipped, and ready to fulfill USCYBERCOM's missions by the 
end of fiscal year 2018.
    General Dempsey. The Department has embraced the importance of 
Cyber, and the Services are leaning forward in human capital management 
for Cyber. Efforts are currently underway to carefully and properly 
create Cyber constructs that can then be used as the primer for 
developing the human resources life-cycle that ranges from recruiting 
to retirement. However, it is too early to speculate how the 
development of separate specialties and career tracks will unfold. We 
are committed to working with the Secretary and Service Chiefs to 
ensure the workforce for the cyberspace domain is able to meet today's 
national security challenges and we understand the importance for 
getting this right.

    76. Senator Gillibrand. How do we integrate cyber into the training 
of all of our service members so that we can better integrate it into 
all forms of combat?
    Secretary Carter. Cyber is a top area of focus for me. In fact, I 
selected Fort Meade, home of U.S. Cyber Command, as my first domestic 
troop talk as the Secretary of Defense. I did this because I wanted to 
hear directly from the troops on the cyber front lines.
    Integration of cyber into all echelons of training is underway. At 
an enterprise level, all Service members must complete annual Cyber 
Security Awareness training. This training covers basic education and 
competency of Information Assurance practices. Individual awareness and 
sensitivity are critical as they are the first line of cyber defense.
    Additionally, cyber training is prominent at CYBER FLAG, CYBER 
GUARD, and CYBER SHIELD exercises. These U.S. Cyber Command led 
exercises focus on cyber scenarios with participation by both the 
Combatant Commands and Services. The other Combatant Commands 
incorporate cyber scenarios into their annual exercises, such as United 
States Pacific Command's TERMINAL FURY, United States Strategic 
Command's GLOBAL LIGHTNING, United States Transportation Command's 
TURBO CHALLENGE, United States European Command's AUSTERE CHALLENGE, 
and United States Africa Command's JUDICIOUS RESPONSE.
    The Office of the Under Secretary of Defense for Personnel and 
Readiness is drafting policy governing the acceleration of integrated 
cyber training, and the Combatant Commanders Exercise Engagement and 
Training Transformation program is placing a resourcing priority on 
Combatant Commands conducting exercises in degraded cyber environments. 
As a result, I expect the frequency of cyber exercises to increase 
during my service as Secretary of Defense.
    The Department's success in future combat operations depends on our 
ability to dominate in the cyber domain. As the Secretary of Defense, I 
have made integrating cyber training into the Department's training 
fabric priority number one.
    General Dempsey. The Department of Defense (DOD) uses a multi-
tiered approach for cyberspace training that addresses individual 
training requirements for all service members, specialized training 
requirements for cyberspace operations professionals, and collective 
training requirements for units and higher level staffs.
    Individual training ranges from basic awareness on a variety of 
cyberspace topics (i.e., classes on defensive cyberspace operations, 
establishing cyberspace situational awareness, and knowledge 
management) to advanced coursework that obtains industry level 
certifications. All service members must complete annual information 
assurance training to use DOD computer systems. Web-enabled joint and 
service portals such as Joint Knowledge Online (JKO), Navy Knowledge 
Online (NKO), and the U.S. Army Information Assurance Virtual Training 
Portal, provide all service members access to an array of cyberspace 
training products and courses to meet Service specific training 
requirements.
    Cyberspace operations professionals, such as Joint Cyberspace 
Center personnel assigned to the combatant commands and the Cyber 
Mission Forces, are required to obtain and maintain additional 
qualifications. The Joint Staff, United States Strategic Command 
(USSTRATCOM), United States Cyber Command (USCYBERCOM), and the 
Services are maturing this operational level capability through a 
rigorous training program that includes web-enabled training (DOD and/
or industry run schools), and practical application. These 
professionals frequently leverage the Joint Information Operations 
Range (JIOR), a persistent closed-loop cyberspace training environment, 
to refine their skills.
    The Chairman's Annual Joint Training Guidance emphasizes cyberspace 
related training which has been incorporated into joint training plans 
and programs. Many exercises incorporate cyberspace operations against 
active opposing forces. These exercises include substantial Service 
participation and incorporate a diverse training audience in a joint 
environment.

    77. Senator Gillibrand. Secretary Carter, last week, DOD acting 
Chief Information Officer Terry Halvorsen testified that DOD might need 
additional authorities to partner with the private sector on data 
storage and security. What does DOD envision in terms of data sharing?
    Secretary Carter. The Department is researching the ability of 
public-private partnerships to drive additional innovation and 
efficiency into the Department's information technology environment. In 
such an environment, the Department and our private partners would need 
to seamlessly share cybersecurity threat data in order to effectively 
detect, mitigate, and respond to emerging cyber threats. This ability 
would be critical to maintaining the Department's cyber defenses and 
ensuring dependable mission execution in the face of capable 
adversaries.

    78. Senator Gillibrand. Secretary Carter, can you tell me what kind 
of authorities you might need?
    Secretary Carter. At this time, I cannot specifically identify the 
kinds of additional authorities that may be needed. The Department is 
researching the ability of public-private partnerships to drive 
additional innovation and efficiency into the Department's information 
technology (IT) environment. Additional authorities may be required to 
enable the Department to more effectively leverage public-private 
partnerships to support the modernization of our IT environment.
                   military compensation and benefits
    79. Senator Gillibrand. Secretary Carter, last week we heard from 
representatives of military and veteran service organizations, as well 
as from the Commissioners from the Military Compensation and Retirement 
Modernization Commission, that there are significant problems with 
TRICARE but that there are mixed sentiments from service members, 
retirees and their families about whether they would rather see TRICARE 
reformed or replaced. For the past two years, you have come to us with 
the same recommendations about consolidating TRICARE plans. In 
developing these recommendations, what were your considerations?
    Secretary Carter. For the past two years the Department has 
submitted similar plans to modernize the TRICARE benefit. In doing so, 
the Department considered patient access and choice of care, along with 
a contemporary utilization management framework. Costs for our 
beneficiaries and costs to the Department were also considered.

    80. Senator Gillibrand. Secretary Carter, we have heard that 
TRICARE's problems have diminished its quality, access and value, did 
you assess whether the changes you recommend would improve these?
    Secretary Carter. I believe that TRICARE offers our beneficiaries 
tremendous value. The 2016 budget proposal provides beneficiary choice 
by consolidating the current TRICARE plans into one Preferred Provider 
Organization (PPO)-like plan that includes utilization management 
tools. Active duty will continue to receive priority access to care. 
Active duty family members can choose to have their care managed by the 
Military Treatment Facility (a no cost option) or for maximum 
flexibility they can self-manage their care with complete freedom of 
choice with low co-pays depending on the venue of care. Utilization 
management tools guide patients to the appropriate location to receive 
care (e.g., lowest cost is their primary care provider) thereby 
improving continuity which is an important component for quality care. 
Together, these changes provide greater value than the existing health 
benefit package.

    81. Senator Gillibrand. Have you surveyed service members and their 
families about their satisfaction with TRICARE? If so, what did you 
find out?
    Secretary Carter. The Department manages an extensive, longstanding 
and continuous core survey program to monitor the experience of 
Military Health System (MHS) beneficiaries using any aspect of the 
direct or purchased care system. The Defense Health Agency (DHA) relies 
on three core surveys: the Health Care Survey of DOD Beneficiaries 
(HCSDB), the TRICARE Inpatient Satisfaction Survey (TRISS) and the 
TRICARE Outpatient Satisfaction Survey (TROSS). These surveys are based 
on nationally recognized surveys used by most major health plans in the 
U.S.--the Consumer Assessment of Healthcare Providers and Systems 
(CAHPS) family of surveys, sponsored by the Agency for Healthcare 
Research and Quality (AHRQ) and Centers for Medicare and Medicaid 
Services, (CMS).
    DHA surveys in general are designed to provide a standardized means 
of evaluating beneficiary experience of care whether in a military or 
civilian facility, and to benchmark that care to national civilian 
results represented by the CAHPS surveys for health plans, outpatient 
and inpatient care. The Army, Navy, and Air Force also measure various 
aspects of the patient experience, and focus specifically on care 
received in their military facilities in an outpatient (non-
hospitalized) setting. The Services design their surveys with 
sufficient power to be able to drill down to examine each military 
treatment facility (MTF), as well as individual providers within each 
MTF. The Service surveys differ from each other in methodology, 
sampling, mode, and instrument to reflect Service preference for how 
and what types of information to collect on their MTF users. DHA 
surveys, on the other hand, use a standardized instrument, survey 
methodology, and mode to effectively examine beneficiary experience of 
care across the Services and between the direct and purchased care 
venues. As noted above, The DHA also capitalizes on national 
standardized survey instruments in order to compare to, or benchmark 
against, civilian health plan results (CAHPS surveys). As such, the DHA 
surveys are specifically designed to examine across Services and 
direct-purchased venues of care, but are not powered to examine the 
performance of clinics or providers within MTFs. DHA survey results are 
reported quarterly to support improvement efforts in the direct and 
purchased care venues.
    General findings across the DHA surveys:
    HCSDB survey findings: Adult beneficiary ratings of their ``Health 
Plan'' (based on ratings of an 8-10 on 0-10 scale) increased for all 
users from 1999 to 2014, and remained higher than the civilian CAHPS-
Plan-based 50th percentile benchmark adjusted for age and health 
status. This increase and higher ratings applied to all beneficiary 
groups: enrolled in MTFs, enrolled with the Civilian plan, and non-
enrollees (i.e. Standard/Extra). Ratings of ``health care'' also 
increased over this time period, for all users in general, and 
especially for enrollees with civilian PCM and non-enrollees. Direct 
care enrollee ratings for ``health care'' generally lagged beneficiary 
ratings of care in civilian facilities and the national benchmark 
average. Similar patterns were found in beneficiary ratings of access 
to care. Ratings by non-enrolled MHS beneficiaries are similar to or 
even higher than civilian benchmarks.
    TRISS survey findings: MHS beneficiaries rate their inpatient 
medical and surgical care in military treatment facilities and their 
care in civilian facilities equal to or higher than the national 50th 
percentile CAHPS inpatient benchmark survey results; but rate their 
obstetrical experience in military facilities, on average, lower than 
the civilian benchmarks; and, as such, the MHS is actively engaged in 
improving the obstetrical experience and process of care and support.
    TROSS survey findings: Focused on their experience with outpatient 
care. Beneficiary ratings of their access to care and provider 
communications in military facilities, while high, are slightly lower 
than the civilian benchmark top ratings (outpatient CAHPS). Conversely, 
MHS purchased care users report significantly higher scores than the 
civilian benchmark with courteous, respectful and helpful office staff 
members.
    The Service outpatient surveys generally report higher ratings of 
the care experience than the TROSS (outpatient) results, likely due to 
differences in the time frame users are asked to report on, that is, 
Service surveys focus on the specific outpatient visit with a specific 
provider on a specific data, while the DHA surveys, including the 
TROSS, focus on beneficiary experience over the previous twelve months 
similar to the CAHPS surveys. The Service survey results help identify 
positive and negative patterns at the military treatment facility and 
provider level for more immediate corrective action at the local level, 
but cannot be compared across Services or with national benchmarks.
    The Department is currently developing a Tri-Service Joint 
Outpatient Experience Survey (JOES) to be operational in fiscal year 
2015. The survey will consolidate the four separate outpatient surveys 
currently being conducted within the Military Health System (Army, 
Navy, Air Force and DHA). The combined, standardized survey will be 
used to compare and assess providers, clinics/sites and facilities 
using a uniform fielding methodology, sampling design and instrument. 
JOES will assess beneficiaries using outpatient services in a 
standardized way, while reducing survey burden on the beneficiary. 
Survey results will provide actionable feedback at the tactical level 
to improve the beneficiaries' experience, and the overall quality of 
care. Survey results will be monitored by senior leadership, and, a 
component of the survey will allow comparison to civilian health care 
practices across the U.S.
    General Dempsey. Yes. The Department's satisfaction surveys, 
including Individual Service and the TRICARE Outpatient Satisfaction 
Survey (TROSS) demonstrate that the majority of patients reported being 
satisfied with access to care. There is variance between satisfaction 
scores in the direct care and purchased care components.
                               __________
               Questions Submitted by Senator Bill Nelson
                       rd-180 engine replacement
    82. Senator Nelson. Secretary Carter, we rely heavily on the Atlas 
V rocket, and its Russian-made RD-180 engine, for getting our national 
security assets into space. Given the deteriorating situation with Mr. 
Putin, Congress authorized and appropriated $220 million to end our 
reliance on the RD-180. We gave a deadline of four years--2019--from 
now to do it. What are you doing to meet that deadline?
    Secretary Carter. The Department is committed to transitioning from 
its use of Russian rocket propulsion systems in the most efficient and 
affordable manner possible. As an initial step, the Department 
reprogrammed $40 million to initiate engine risk reduction activities. 
This funding, when combined with the $220 million included in the 
fiscal year 2015 Consolidated and Further Continuing Appropriations Act 
(P.L. 113-235), will fund critical rocket propulsion work as directed 
in Section 1604 of the Carl Levin and Howard P. ``Buck'' McKeon 
National Defense Authorization Act for fiscal year 2015 (P.L. 113-291).
    The Department currently procures launch services, rather than 
launch vehicle hardware, and is working with industry to determine how 
to procure future, cost effective launch services utilizing 
domestically-produced propulsions systems. It should be noted that 
transitioning from reliance on the Russian RD-180 engine requires more 
than just development of a domestic propulsion system. The propulsion 
system must be integrated into a launch system in order to provide 
access to space. This integration process, while initiated in parallel, 
is likely to require as much as two additional years after completion 
of propulsion system development. Transitioning off the RD-180 onto a 
U.S designed and manufactured rocket propulsion system or a new launch 
system by 2019 represents significant cost, schedule, and technical 
challenges.

    83. Senator Nelson. Mr. Secretary, do you feel that the 2019 goal 
is attainable?
    Secretary Carter. Ending reliance on the Russian RD-180 engine 
requires more than just development of a domestic rocket propulsion 
system. The propulsion system must be integrated into a launch system 
in order to provide access to space. This integration process, while 
initiated in parallel, is likely to require as much as two additional 
years after completion of propulsion system development. Further, the 
system must complete certification before being allowed to service 
National Security Space missions. This combination of required events 
represents significant cost, schedule and technical challenges to 
attaining the 2019 goal. Nonetheless, we remain committed to 
transitioning from our use of the RD-180 engine in the most efficient, 
expeditious, and affordable manner possible that is consistent with the 
direction in Section 1604 of the Carl Levin and Howard P. ``Buck'' 
McKeon National Defense Authorization Act for fiscal year 2015 (P.L. 
113-291).
                                 cyber
    84. Senator Nelson. Secretary Carter, what do you see as the 
Department's role in cyber security?
    Secretary Carter. The Department of Defense has three missions in 
cyberspace: (1) defend Department of Defense information networks to 
assure Department of Defense missions; (2) provide integrated cyber 
capabilities to support combatant commands' contingency plans and 
military operations; and (3) defend the Nation against cyberattacks of 
significant consequence. For the defend the Nation mission, the 
Department works closely with other government agencies to synchronize 
capabilities and develop options to disrupt cyberattacks of significant 
consequence before they can impact the homeland. More broadly, the 
Department partners with other U.S. Departments and Agencies to 
investigate cyberattacks, develop indications and early warning of 
threats, and protect U.S. critical infrastructure. If required, the 
Department may provide cybersecurity support to other agencies of the 
Federal Government, state and local governments, and the private 
sector.

    85. Senator Nelson. Mr. Secretary, how will you work with other 
departments and agencies to secure our nation's cyber infrastructure?
    Secretary Carter. Cybersecurity requires a whole-of-government 
approach built on the unique authorities, missions, and capabilities of 
all departments and agencies. In general, the Department of Homeland 
Security (DHS) leads the national effort to protect against, prevent, 
mitigate, and recover from cyber incidents, and investigates 
cybercrimes within DHS's jurisdiction. The Department of Justice (DOJ) 
investigates, attributes, disrupts, and prosecutes malicious cyber 
actors and leads domestic intelligence activities. Finally, the 
Department of Defense securely operates and defends the Department's 
information networks and assures the ability of the Department to 
perform its national security mission. The Department's cyber force 
supports military operations in all domains by integrating cyber 
capabilities alongside traditional land, maritime, air and space 
capabilities. The Department also defends the Nation from attack, to 
include countering cyberattacks of significant consequence. In 
addition, both DOJ and the Department support the national effort to 
protect against, prevent, mitigate, and recover from cyber incidents.
                                  isil
    86. Senator Nelson. Mr. Secretary, now that you've had a chance to 
review the situation in the Middle East, what steps do you believe we 
need to take now against ISIL?
    Secretary Carter. The steps that are needed now against the Islamic 
State in Iraq and Syria (ISIS) include keeping the military pressure on 
the ISIS network through the advise and assist presence in Iraq, and 
the continued use of airstrikes in both Iraq and Syria. Also, the 
training and equipping of a moderate Syrian opposition force to counter 
ISIS inside Syria will begin soon. While these lines of effort are 
underway, it is imperative that any military gains are complemented and 
enhanced by the contributions of other lines of effort from U.S. 
government partners. Other lines of effort include empowering Iraqi 
Prime Minister Abadi as he seeks to create a more inclusive, multi-
sectarian government; maintaining pressure on ISIS' finances; and 
augmenting efforts to counter ISIS' narrative and its appeal, 
especially as the group seeks to expand its global network outside of 
Iraq and Syria to other parts of the Middle East, Africa, and beyond. 
Each of these efforts must also enable and empower the robust coalition 
of nations opposed to ISIS.
                              nato allies
    87. Senator Nelson. In light of Russia's aggressive behavior 
towards Ukraine, what are we doing to reassure our NATO allies about 
our commitment to the region?
    Secretary Carter. The United States is undertaking several 
initiatives to reassure North Atlantic Treaty Organization (NATO) 
allies of our commitment to collective security.
    The President's European Reassurance Initiative (ERI) includes 
conducting additional military exercises and training on land, in the 
air, and at sea, while sustaining a rotational presence across Europe 
in support of Operation ATLANTIC RESOLVE. ERI increases the 
responsiveness of U.S. forces to reinforce NATO allies' capabilities by 
prepositioning equipment and enhancing reception facilities in Europe, 
and increasing the participation of the U.S. Navy in NATO naval force 
deployments, including more persistent deployments to the Black and 
Baltic Seas. ERI also builds the capacity of close partners such as 
Georgia, Moldova, and Ukraine to enhance interoperability with the 
United States and NATO forces and to provide for their own defense.
    In addition to ERI, the United States is fully committed to NATO's 
Readiness Action Plan (RAP). RAP is NATO's response to new security 
challenges along its eastern and southern borders. RAP will allow NATO 
to respond more quickly to security threats along its borders by 
creating a new Very High Readiness Joint Task Force (VJTF) and 
establishing new headquarters elements in several eastern allied 
nations.
    All of these initiatives are in place to reassure our NATO Allies 
and partners of the United States' commitment to our central and 
eastern European partners, and to the transatlantic relationship.
    General Dempsey. Since early March 2014, the United States has 
taken action, both bilaterally and through NATO, to reassure Allies of 
our solemn commitment to their security and territorial integrity as 
members of the NATO Alliance.
    The European Reassurance Initiative (ERI) provides over $1 billion 
in new monies that will enable the United States to further support the 
defense and security of NATO Allies and bolster the security and 
capacity of U.S. partners. With ERI funding, DOD seeks to continue 
providing a visible U.S. presence for NATO Allies, as well as other 
partners in the region, who feel most threatened by Russia's actions 
against Ukraine.
    The ERI funding enables the United States to undertake the 
following measures:
    <bullet>  Increase exercises, training and rotational presence 
across Europe but especially on the territory of our newer Allies. Many 
of the U.S. air and ground forces participating in these activities 
would rotate in from the United States.
    <bullet>  As we have done in Poland, deploy detachments of U.S. 
planners to augment the capability of our Allies to design and host a 
broad range of training opportunities.
    <bullet>  Increase responsiveness of U.S. forces to reinforce NATO 
by exploring initiatives such as prepositioning of equipment and 
improving reception facilities in Europe.
    <bullet>  Increase participation by the U.S. Navy in NATO naval 
force deployments, including more persistent, rotational deployments to 
the Black and Baltic seas.
    <bullet>  Build the partner capacity of close partners such as 
Georgia, Moldova and Ukraine so they can better work alongside the 
United States and NATO, as well as provide for their own defense.
    <bullet>  This initiative will build on existing tools and 
authorities, and was included in the Department of Defense's Fiscal 
Year 2015 Overseas Contingency Operations (OCO) request to Congress and 
the Department of State's Fiscal Year 2015 Foreign Military Financing 
OCO Budget.
                             climate change
    88. Senator Nelson. Mr. Secretary, our coasts and all of our people 
and assets, including our naval infrastructure, are at risk from sea 
level rise. Is the department making any plans to address this?
    Secretary Carter. Yes. In 2014, the Department of Defense issued 
the third update to the Department's Climate Change Adaptation Roadmap, 
which presents the Department's strategy for addressing immediate and 
long-term climate change challenges. Beginning in 2009, the Department 
recognized that climate change in general, and sea level rise in 
particular, could affect our ability to conduct our assigned missions. 
The Strategic Environmental Research and Development Program began a 
series of projects to develop and evaluate the information, models, and 
tools needed to examine climate change related effects on coastal 
installations. The results of these initial projects pointed out the 
need for further refinement of regional climate change scenario 
development beyond those available in the National Climate Assessment. 
The Department is leading a federal working group that includes the 
National Oceanic and Atmospheric Agency, U.S. Geological Survey, U.S. 
Army Corps of Engineers Civil Works, Oceanographer of the Navy, and the 
South Florida Water Management District to develop more specific 
regional scenarios that account for both sea level rise and extreme 
water levels associated with storm surge.
    The Department is currently conducting a screening-level 
vulnerability assessment to identify where the Department is vulnerable 
to extreme weather events today and to what degree. The survey includes 
current vulnerabilities to inundation/flooding, temperature extremes, 
drought, wildfire, and wind, as well as identifying current sea level 
effects, potential vulnerabilities if levels rise, and the reference 
datum used for the analysis worldwide. This data will enable the 
Department to identify where more comprehensive and region- or 
installation-specific assessments are needed to determine what adaptive 
responses are the most appropriate. The survey will be complete in late 
2015.
    The Department has been actively reviewing policy, guidance, and 
directives to identify and integrate consideration of potential climate 
change effects into our infrastructure and operations. Long-range 
planning documents, like installation master plans and integrated 
natural resource management plans, now require planners to consider 
climate-related impacts in their design and management decisions. The 
Department has identified areas where new policies were needed, such as 
flood plain, water resource management, and sustainable building 
design, and issued them.

    89. Senator Nelson. Mr. Secretary, are there steps you can take now 
that will protect our investments from this happening? Would this 
include moving assets, such as naval vessels, to other locations?
    Secretary Carter. Sea level rise is a gradual occurrence and will 
manifest itself differently in different locations. In some locations 
the Department is already experiencing sea level rise, especially those 
areas where the shoreline is also subsiding (sinking). The two effects 
together produce higher than expected tidal and storm surge conditions 
and can lead to damage to infrastructure and equipment. Shore 
installations are prepared for dealing with these conditions in the 
near-term with sand bag plans, evacuation of ships and aircraft, and 
protective mooring practices.
    For the long-term, consideration of the effects of climate change, 
including sea level rise, are being made during master planning and 
design processes. Moreover, some areas are experiencing increased 
shoreline erosion. Infrastructure located along these shorelines is 
being monitored for adverse effects and reinforced or moved back as 
necessary.
    At this time, there are no plans to permanently relocate any 
assets, such as naval vessels, as a result of the effects of climate 
change.
                     support to special operations
    90. Senator Nelson. Mr. Secretary, last year, Admiral McRaven 
expressed concern about the impacts that budget cuts, including 
sequestration, could have on special operations. There are reports that 
the Services are considering cuts to capabilities that provide direct 
support to special operations forces, such as rotary wing aircraft. 
What are the responsibilities of the Services for providing that 
support to special operations forces? Are you comfortable that the 
fiscal year 2016 budget request provides an appropriate level of 
investment in such capabilities?
    Secretary Carter. The Services currently provide Special Operations 
Forces (SOF) with intelligence, communications, logistics, military 
construction, and medical support.
    Yes, I am comfortable with the level of investment funding that the 
fiscal year 2016 budget requests for Service capabilities, which 
support SOF. However, additional budget cuts or sequestrations could 
limit conventional force support to SOF and affect SOF's ability to 
perform their assigned missions. Potential budget cuts would impact 
SOF's access to intelligence, surveillance, and reconnaissance assets, 
tactical fixed and rotary-wing lift, as well as disrupt modernization 
schedules, infrastructure construction projects, sustainment levels, 
and sea-based support to SOF.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                          integration of women
    91. Senator Shaheen. General Dempsey, can you provide an update on 
the progress of the integration of women in the armed forces and share 
with us any circumstances that may lead to the services submitting 
exceptions to policy?
    General Dempsey. Since the Department rescinded the Direct Ground 
Combat and Assignment Rule in 2013, we have opened more than 91,000 
positions that were previously closed to women. Going forward, the 
major decisions for the Department concern the traditional, ground 
combat arms occupations, infantry, armor, artillery, and of course our 
Special Operations occupations. The Services continue to take a 
deliberate approach to validate occupational standards to ensure they 
are operationally specific, operationally relevant, and gender-neutral. 
The Joint Chiefs are committed to expanding opportunities for women in 
our military and ensuring every member of our Armed forces has an 
opportunity to succeed.
    While it would be premature to discuss exceptions to policy as laid 
out in the January 24, 2013 rescission memo, exceptions must be 
narrowly tailored and based on a rigorous analysis of factual data 
regarding the knowledge, skills, and abilities needed for the position.
                                biofuels
    92. Senator Shaheen. Secretary Carter, can you discuss the 
military's efforts to diversify its energy resources to reduce its 
reliance on a volatile global oil market. Related to these efforts, can 
you provide an update on the current public-private joint agency 
initiative to develop a domestically produced, cost-competitive 
commercial supply of advanced biofuels? Additionally, can you discuss 
the development of biofuels and its importance to the Department's long 
term budget and operational planning?
    Secretary Carter. The Alternative Fuels Policy for Operational 
Platforms, states that the Department of Defense's ``primary 
alternative fuels goal is to ensure operational military readiness, 
improve battlespace effectiveness, and further flexibility of military 
operations through the ability to use multiple, reliable fuel 
sources.'' There is a clear long-term interest in being able to use 
globally sourced fuels, produced from a variety of feedstocks, to power 
the mission.
    Consistent with these policies, the Department has been supporting 
alternative fuel initiatives that generally fall into three categories: 
testing, fuel production support, and procurement.
    <bullet>  The majority of the Services' alternative fuels efforts 
focus on testing to see if alternative fuels can work properly with our 
equipment. This will enable us to buy and safely use alternative fuels 
that may become available in the commercial marketplace.
    <bullet>  The Defense Production Act (DPA) Title III Advanced Drop-
in Biofuels Production Project is a Department of Defense partnership 
with the private sector and the Department of Energy. In September, 
three companies were selected for $70 million DPA Phase 2 awards to 
construct commercial-scale biofuel production facilities; these 
projects will also have private sector funding totaling approximately 
$700 million. Each project will be capable of producing more than ten 
million gallons per year of fuels meeting military specifications while 
the combined maximum capacity of the three projects will exceed 110 
million gallons per year of such fuels. Each project will use a 
different feedstock: municipal solid waste, woody biomass, and fats, 
oils, or greases.
    <bullet>  The ``Farm-to-Fleet'' initiative was announced in 2013 
with the goal of enabling biofuel blends to become a regular, 
operational fuel purchased for military use. These fuels will be 
purchased by the Defense Logistics Agency Energy through its regular 
competitive bulk fuel procurement program; the Department of 
Agriculture is making Commodity Credit Corporation funds available to 
this procurement program to support use of agricultural commodities in 
producing drop-in biofuels.
    Overall, these initiatives will contribute to ensuring that the 
Department is able to buy and use the fuel we need, where we need it, 
from a variety of feedstocks, at a competitive price.
                                 europe
    93. Senator Shaheen. Secretary Carter, the OCO request includes 
$789 million for the European Reassurance Initiative to demonstrate our 
support for our NATO allies and European partners. Do you believe this 
level of funding is adequate to counter the threat posed by Russia?
    Secretary Carter. The Department is confident that the funding 
levels for fiscal year 2016 European Reassurance Initiative (ERI) are 
adequate to counter the threat posed by Russia as it stands today and 
to continue the reassurance initiatives. The fiscal year 2016 ERI seeks 
to maintain a persistent presence of U.S. air, land, and sea forces in 
Eastern Europe; build allied and partner capacity; and increase 
readiness and responsiveness through additional exercises, 
prepositioning, and infrastructure improvements.
    Along with our North Atlantic Treaty Organization (NATO) allies and 
partners, the United States is also helping to adapt the Alliance to 
the new security situation in Europe and counter the threat posed by 
Russia. The Readiness Action Plan, adopted by allied leaders at the 
2014 Wales Summit, seeks to go beyond assurance measures by enhancing 
NATO's command-and-control infrastructure and rapid response 
capability. Specific enhancements include: reforming the NATO Response 
Force, in particular by launching the Very High Readiness Joint Task 
Force; establishing small command-and-control elements on the territory 
of eastern allies, which will coordinate NATO activities in these 
nations and be prepared to receive reinforcing units, if necessary; 
reviewing and updating existing defense plans; and expanding the size 
and mission of the Multinational Corps Northeast in Poland, which will 
increase its focus on Article 5 planning and preparedness. Reassurance 
and these enhancements will make the United States and NATO better able 
to respond to threats emanating from Europe's east and south.

    94. Senator Shaheen. Secretary Carter, with continued aggression 
from Russia in Europe, unwavering support for our NATO allies is 
crucial. As you are aware, Poland is in the process of seeking to 
upgrade its air and missile defense program in light of threats 
associated with the Russian incursion in Ukraine. I understand that 
Poland seeks a transitional presence of American PATRIOT systems to 
protect itself until its modernization program is complete. Do you 
support the deployment of a transitional PATRIOT presence in Poland?
    Secretary Carter. The goal is to maintain close cooperation on 
missile defense with Poland. Given current global requirements for 
Patriot, the U.S. Army does not have the assets available to make a 
long-term deployment to Poland. However, the Army will look for 
opportunities to conduct Patriot training and exercises with Poland. 
The Department will also continue to identify additional opportunities 
to conduct joint training in Poland.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 10, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

               THE POSTURE OF THE DEPARTMENT OF THE NAVY

    The committee met, pursuant to notice, at 9:31 a.m., in 
room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Cotton, Rounds, Ernst, Tillis, 
Sullivan, Graham, Reed, Nelson, McCaskill, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. I want to welcome the 
witnesses, and I thank you all for being here this morning. The 
committee meets to receive testimony on the plans and programs 
of the Department of the Navy for fiscal year 2016. I want to 
thank each of our witnesses for their distinguished service to 
the Nation as well as to the sailors, marines, and civilians 
they lead who are serving around the world today.
    This is Admiral Jonathan W. Greenert's last posture hearing 
before the committee, and I am sure he is relieved to know 
that, his last appearance as Chief of Naval Operations [CNO]. I 
would like to thank you, Admiral Greenert, for your 40 years of 
distinguished service to our Navy, and I wish you and Darlene 
all the best in the future.
    In the last 3 months, some of America's most experienced 
statesmen and strategic thinkers have offered this committee a 
clear, unified, and alarming assessment of current worldwide 
threats in U.S. national security strategy. As Dr. Henry 
Kissinger, former Secretary of State, testified on January 
29th, ``The United States has not faced a more diverse and 
complex array of crises since the end of the second World 
War.''
    The actual global challenges we face are compounded by the 
limitations of the Budget Control Act [BCA] of 2011 and 
sequestration, which are a self-inflicted national security 
crisis. Indeed, all four of the military Service Chiefs have 
testified that defense spending at sequestration levels would 
put American lives at risk. Now more than ever, a strong Navy 
and Marine Corps are central to our Nation's ability to deter 
adversaries, assure allies, and defend our national interests.
    From our strategy of rebalancing, to the Asia-Pacific 
region, to conducting ongoing operations against ISIL [the 
Islamic State of Iraq and the Levant], to deterring rogue 
actors like Iran or North Korea, to many other requirements, 
the United States Navy and Marine Corps are key pillars of our 
national security strategy. Yet by any measure, today's fleet 
of 275 ships is too small to address these critical security 
challenges. The Navy's force structure assessment requires is 
306 ships. The bipartisan National Defense Panel calls for a 
fleet of 323 to 346 ships, and our combatant commanders say 
they require 450 ships. But under sequestration, the Navy has 
said the fleet could shrink to 260 ships. Equally troubling, 
the Marine Corps continues personnel reductions down from 
202,000 Active Duty marines in 2012 to 184,000 today, to 
182,000 in 2017.
    With the demands on our sailors and marines rising, these 
force reductions, coupled with major readiness shortfalls due 
to sequestration, are lengthening deployments, cutting training 
and time at home with families, and putting our All-Volunteer 
Force under considerable strain. The President's Budget request 
attempts to buy as much readiness as the Department can execute 
for fiscal year 2016, and this is yet another reason why we 
cannot afford a defense budget at sequestration levels.
    The President's Budget also includes significant funding 
requests for major Navy and Marine Corps acquisition programs. 
In the current fiscal environment, it is all the more important 
for this committee to conduct rigorous oversight of these 
programs to ensure that the Department of the Navy is making 
the best use of limited taxpayer dollars. That is exactly what 
we will.
    With the Littoral Combat Ship [LCS], despite initial cost 
overruns that more doubled the cost per ship, the Navy appears 
to have stabilized the cost of the LCS frames. Yet the program 
still faces challenges to deliver the promised warfighting 
capability. All three of the LCS mission packages still need 
significant further testing and must overcome major technology 
integration challenges.
    Regarding of the Secretary of Defense's decision to upgrade 
the LCS, this committee will continue seeking further 
information to justify this decision. Without a clear 
capabilities-based assessment, it is unclear what operational 
requirements the upgraded LCS is designed to meet, and, thus, 
how much more lethal and survivable the ship needs to be. In 
short, the Navy must demonstrate what problem the upgraded LCS 
is trying to solve. We cannot afford to make this mistake 
again.
    With the first three Ford-class carriers, despite cost 
overruns of more than $2 billion each, this program has not 
exceeded the cost cap in the last 3 years. However, the second 
Ford-class carrier, the USS John F. Kennedy, will deliver in 
fiscal year 2022 less capable and less complete due to the 
Navy's proposed two-phase delivery approach. This plan would 
leave us with an incomplete ship should world events demand an 
additional aircraft carrier, or if the USS Nimitz encounters 
unforeseen problems in the final years of its 50-year service 
life. I am also concerned about the Navy's plan to delay full 
ship shock trials from the first to the second Ford-class 
carriers. That delay is hard to justify for a new ship that is 
this complex.
    This committee also has a duty to shape the future of our 
Navy and Marine Corps. With three Service combatant classes set 
to retire soon, now is the time to lay the analytical 
groundwork to replace those ships. As the Navy develops 
requirements for the next class of amphibious vessel, we must 
ensure that our warships are capable of supporting the Marines 
in the manner they plan to fight in the future. We must also 
carefully examine the future aircraft fleet and the carrier air 
wing. Twelve billion dollars or more for one ship is simply too 
expensive. We must do even more to reduce costs and increase 
competition within the aircraft carrier program, and as 
challenges to American air power projection grow, we must chart 
a path to achieve the unmanned strike capability from our 
aircraft carriers.
    We look forward to the witnesses' testimony today and hope 
that they will cover the broad spectrum of policy, procurement, 
readiness, personnel, and resource issues that the Department 
confronts. Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming Secretary of the Navy Raymond E. 
Mabus, Jr., Admiral Greenert, and Commandant of Marine Corps 
General Joseph F. Dunford, Jr., to this committee this morning 
to testify on the plans and programs of the Department of the 
Navy and the review of the annual budget request. Let me also 
thank Secretary Mabus for joining us last Saturday at Quonset 
Point for the keel laying ceremony for the USS Colorado. Thank 
you, Mr. Secretary.
    I want to welcome General Dunford to his first posture 
hearing, and I also want to join the chairman in commending the 
outstanding work of Admiral Greenert as he departs at least 
this venue. Thank you very much, sir, for your extraordinary 
service to the Navy and to the Nation.
    Our witnesses this morning face huge challenges as they 
strive to balance the need to support ongoing operations and 
sustained readiness with the need to modernize and keep the 
technological edge so critical to military success. These 
challenges have been made particularly difficult by the fiscal 
constraints of the BCA and sequestration. All the military 
departments have been forced to make painful tradeoffs, and now 
the threat of sequestration continues to loom. If Congress does 
not act to end sequestration, I believe our long-term national 
security interests will be threatened.
    Last year, the Department of the Navy was facing serious 
readiness problems caused by deferred maintenance, reduced 
steaming and flying hours, and cancelled training and 
deployments. The increased emphasis on readiness in this year's 
budget will address some of the Navy's most serious readiness 
problems, but results in a serious shortfall in modernization 
funds to meet future threats. I am interested in hearing the 
witnesses' views on the increase in this risk because of the 
shortfalls.
    All areas of our naval forces are overtaxed. The Navy is 
facing shortfalls on attack submarines, air and missile defense 
cruisers, destroyers, and strike fighter inventories. They have 
already been operating for 2 years now with fewer than their 
required 11 aircraft carriers. During the next decade, as a 
first priority the Navy will buy a new class of strategic 
missile submarines to replace the Ohio-class submarines, a very 
costly venture. I am interested in hearing how the Navy is 
managing its operational tempo with these shortfalls. I am also 
interested in the witnesses' views on how they will manage 
competing demands in the budget once the costs of the Ohio 
replacements begin.
    The President's Budget request calls for Marine Corps end 
strength of 184,000 marines, down from the war time high of 
over 20,000 marines. I am interested to learn how the Marine 
Corps will manage mission risk with a force this size, 
particularly with additional missions such as increased embassy 
security. For Marine Corps modernization, the fiscal year 2016 
request supports the decisions made last year that made the 
strategy for ground systems more sound.
    The Marine Corps clearly remains committed to 
revitalization of its armored amphibious assault capabilities 
with a budget request that includes funds for mobility and 
survivability upgrades for its current family of armored 
amphibious assault vehicles, and continues the competitive 
search for a new-wheeled amphibious combat vehicle. We 
understand that the Amphibious Combat Vehicle Program would 
integrate a number of existing technologies into a new vehicle. 
The Marine Corps has described this program as ``non-
developmental,'' which raises a question about what ``non-
developmental'' means when you are developing a new system. I 
am interested in your insights, Commandant, on what this whole 
program involves.
    It also is clear the Marine Corps' real amphibious 
challenge on what General Dunford has called the amphibious gap 
has more to do with ships and connectives than air and seaborne 
assault systems. Navy witnesses have testified about the number 
of ships required to meet amphibious shipping goals. Sometimes 
lost in that discussion is the fact that changes to the Marine 
Corps ground or air components ripple through the amphibious 
ship force requirement. I know that the Navy's planned purchase 
of the LPD-28 amphibious transport is one effort to address the 
amphibious shipping shortfall. I am interested to know what 
else the Department of the Navy is doing to close or mitigate 
the gap between requirements and capabilities to ensure our 
amphibious force meets our needs and is capable and ready.
    The Department of Defense [DOD] Defense Strategic Guidance 
issued in January 2012, followed by the 2014 QDR [Quadrennial 
Defense Review], and this January our national security 
strategy, all echo a renewed United States military orientation 
on the Asia-Pacific. Consistent with that strategy, the Defense 
Department has been working to realign United States military 
forces in South Korea and Okinawa, and plan to position Navy 
and Marine Corps forces in Australia, Singapore, and possibly 
elsewhere in the region. The problem has also been implementing 
a plan to forward deploy more ships, as shown by the Navy's 
second rotational deployment of a Littoral Combat Ship (LCS), 
the USS Fort Worth, in Singapore. I am interested in hearing 
more about these and other aspects of the deployment.
    Again, there are many questions, but I want to conclude by 
once again thanking all of you for your extraordinary service 
to the Nation, to the Navy, and to the Marine Corps. Thank you.
    Chairman McCain. Mr. Secretary?

 STATEMENT OF HON. RAYMOND E. MABUS, JR., SECRETARY OF THE NAVY

    Secretary Mabus. Thank you, Mr. Chairman. Chairman McCain, 
Ranking Member Reed, members of this committee, thank you for 
this opportunity to discuss the Department of the Navy with CNO 
Jon Greenert and Commandant of the Marine Corps, Joe Dunford. I 
have the great privilege of representing the sailors and 
marines who serve our Nation around the world, the civilians 
who support them, and all of their families.
    As the chairman and Senator Reed pointed out, this is 
Admiral Greenert's last posture testimony before this 
committee. He has been a steady hand at the helm of the Navy 
through the past 4 years of international instability and 
budget turbulence, and every day his judgment, his advice, his 
good counsel have been critical. It is an honor to serve with 
him, and he will leave a lasting legacy.
    Today our security interests face an increasing array of 
threats and demands, while our budget situation, as you so 
clearly pointed out, Mr. Chairman, grows more challenging. But 
it is clear that the Navy and Marine Corps team offer the best 
value to advance both our global security and economic 
interests. Uniquely, the Navy and Marine Corps provide presence 
around the globe around the clock. We are the Nation's first 
line of defense, ready for anything that may come over the 
horizon. Presence means that we respond faster, we remain on 
station longer, we carry everything we need with us, and do 
whatever missions are assigned by our Nation's leaders without 
needing anyone else's permission.
    We have always said America's success depends on an 
exceptional Navy and Marine Corps. Article 1 of our 
Constitution authorizes Constitution to raise an Army when 
needed, but directs you to provide and maintain a Navy. From 
the first six frigates to our growing fleet of today, from 
Tripoli to Afghanistan, sailors and marines have proven the 
founders' wisdom. American leaders across the political 
spectrum have understood the vital significance of sea power.
    We are truly America's away team. We deploy in peace just 
as much as in war, and our role the last 7 years in securing 
sea lanes and freedom of commerce has boosted our own and the 
world's economy. Nearly half the world's population lives 
within 100 miles of the sea, 90 percent of all global trade 
goes by sea, and 95 percent of all voice and data goes under 
the ocean. The shelves of our stores are stocked with just-in-
time delivery, with products from all over the globe, and some 
38 million American jobs are directly linked to seaborne 
international trade. For 7 decades, the Navy and Marine Corps 
have been the primary protector of this international system, 
and that is why our national defense strategy is so clearly 
focused on the maritime domain and requires investment in 
maritime assets.
    For the past few years, the Department of the Navy has 
attempted to minimize the impact of an uncertain budgetary 
environment marked by numerous continuing resolutions, the 
imposition of sequester-level funding, and the threat of the 
return of sequestration. This environment had made it much more 
difficult, but even more critical, to set priorities and to 
make some hard choices.
    The presence of our Navy and Marine Corps uniquely delivers 
is built on four foundations: people, platforms, power, and 
partnerships. These are key to the capability, capacity, and 
success of our naval services, and they remain my top 
priorities.
    People. Our sailors and marines are well known for their 
ability to exercise independent judgment and the flexibility to 
adapt to changing circumstances. We remain committed to 
providing our sailors, marines, and our civilians with the 
training and the support they need to maintain our naval 
presence, and we include in this their dedicated families, our 
injured, and our wounded.
    We have launched a comprehensive approach to assuring we 
have the world's healthiest, fittest, most resilient, and best 
educated force, one which truly America represents America's 
diversity. We continue to aggressively combat sexual assault, 
abuse, ethical failings, similar challenges, and we are 
exploring innovative means to improve the way we manage the 
force.
    In platforms, our people, as good as they are, cannot do 
their job without ships. Providing presence, being where we are 
needed when we are needed, requires those ships. Quantity has a 
quality all its own. That means we have to have a properly-
sized and a properly-balanced fleet. On September 11, 2001, the 
Navy battle force stood at 316 ships. By 2008, our fleet had 
declined to 278 ships. Our focus on two ground wars only partly 
explains that decline.
    In the 5 years before I came to this office, the Navy 
contracted for only 27 ships, not enough to stop the slide and 
the size of the fleet. In my first 5 years, we have contracted 
for 70 ships, halting and reversing the decline. By the end of 
the decade, our fleet will once again top 300 ships. We have 
accomplished this with a direct and fundamental business 
approach based in large part on the legislation which 
originated in this committee, authored by Chairman McCain and 
then Chairman Levin, things like increasing competition, 
relying more on fixed price contracts. Thanks to this 
committee, Congress has helped multiyear and block buys.
    But budget instability, budget uncertainty seriously erode 
our ability to grow our fleet, manage our resources, and 
maintain the industrial base. Without a correctly sized and 
shaped fleet, the Navy and Marine Corps will not be able to 
meet the demands for the kinds of missions for which we are the 
best and often the only option. In the face of budgetary 
uncertainty, cutting ships is the most damaging and lease 
reversible course of action, which is why I am committed to 
preserving ship building to the maximum extent possible.
    Fueling the ships' aircrafts and vehicle of our Navy and 
Marine Corps is a vital operational concern and enables a 
global presence. That is why the Navy has a history of 
innovation, particularly in energy, moving from sail to steam 
to oil and pioneering nuclear power. We believe our national 
security interests and the ability of the Navy and Marine Corps 
to meets its missions must be enhanced by increasing our energy 
diversity and efficiency. Our ability to maintain presence and 
advance global security will also be augmented through 
partnerships. Cooperation makes us more effective and defuses 
tensions, reduces misunderstandings.
    Again and again, our naval forces have proven themselves 
the most immediate, the most capable, and the most adaptable 
option when a crisis develops. Overall, the President's fiscal 
year 2016 budget balances current readiness needed to execute 
assigned missions while sustaining a highly capable fleet, all 
within a tough fiscal climate. That climate demands, as you 
pointed out, Mr. Chairman, our most rigorous examination of 
every dollar we spent in continuing our aggressive efforts to 
cut unnecessary costs in every program and shift resources from 
tail to tooth.
    When America is called, the Navy and Marine Corps have 
always been there. In order to ensure that we continue to 
provide the naval force our Nation's leaders and the America 
expect, the Commandant, the Chief of Naval Operations, and I 
look forward to answering your questions, and to working 
together with this committee and with Congress to maintain our 
great Navy and Marine Corps. Thank you.
    [The prepared statement of Secretary Mabus follows:]
                  Prepared Statement by Hon. Ray Mabus
    Chairman McCain and Ranking Member Reed, members of the committee, 
thank you for affording this opportunity to discuss readiness and 
posture of the Department of the Navy. With Chief of Naval Operations 
(CNO) Jonathan Greenert and Commandant of the Marine Corps Joseph 
Dunford, I have the great privilege of representing the sailors and 
marines who serve our Nation around the world, the civilians who 
support them and all of their families.
    I cannot let it pass without noting that this will be Admiral 
Greenert's last posture testimony before this committee. He has been a 
steady hand on the helm for the U.S. Navy through the past 4 years of 
international instability and budget turbulence. Every day his 
judgment, his advice and his counsel have been critical. He has been a 
great CNO, and it has been an honor to serve with him. He will leave an 
enduring legacy of having advanced the interests and capabilities of 
our Navy and our Department, and I know this committee and our country 
want to share in offering our heartfelt thanks.
    This statement, together with those provided by General Dunford and 
Admiral Greenert, presents to you and to the American people, an 
overview of the Department of the Navy, and highlights our priorities 
as we move forward with the fiscal year 2016 budget process. As the 
Secretary of the Navy, I am responsible for recruiting, training, and 
equipping the almost 900,000 sailors, marines, and civilians who spend 
every day working to defend the American people and our national 
interests.
    This opportunity to review our current posture comes at a 
particularly critical juncture in our Nation's history. Our national 
security interests face an increasing array of threats and demands 
around the globe, even as our fiscal and budgetary situation grows more 
challenging. However, this is an opportune moment as well, as I firmly 
believe the threats and demands are best met with a strong and 
comprehensive maritime response. Similarly, I believe naval assets 
offer not only the best value to preserve our national security by 
advancing our global interests, but also the best value in supporting 
our own and the world's economy to help meet our fiscal challenges. The 
rationale for that belief is as simple as it is enduring.
                         the value of presence
    Uniquely, the U.S. Navy and the U.S. Marine Corps provide presence 
around the globe, around the clock. We are the Nation's first line of 
defense, ready for any challenge that might come over the horizon. 
Presence means we respond faster, we remain on station longer, we carry 
everything we need with us, and we carry out the missions assigned by 
our national leaders without needing anyone else's permission.
    America's leadership role in the world is due in large part to our 
Nation's sea services capability and capacity to ensure stability, 
build on our relationships with allies and partners, deter adversaries, 
prevent wars, and provide our Nation's leaders with options in times of 
crisis. Should those measures fail, the combat power necessary to fight 
and win in any sort of conflict. As America's away team, performing 
most often far from home, the operational tempo of the Navy and Marine 
Corps are--unlike our sister Services--little different in times of 
peace or in times of conflict. There are no permanent homecomings for 
sailors and marines because we are never a garrison force.
    Born a maritime nation, we have known throughout our 239 years that 
for America to succeed, we must have an exceptional Navy and Marine 
Corps. Thomas Paine famously declared in Common Sense in 1776 that 
``the cause of America is in a great measure the cause of all 
mankind.'' He was equally adamant that the defense of liberty required 
a capable naval force. More than just physical security and defense 
from European powers, Paine drew direct connections between the Navy 
and the economic success of the American experiment.
    Our Nation's founders, whether northern merchants and lawyers like 
John Adams or southern planters like Thomas Jefferson, also considered 
a Navy critical to our Nation's success. Article One of our 
Constitution grants Congress the power to ``raise'' an Army when 
needed, but directs Congress to ``provide and maintain a Navy.'' Over 
the past 2 centuries, American leaders from across the political 
spectrum have hewed to that Constitutional direction and have, in a 
nonpartisan fashion, promoted the vital significance of sea power. Over 
the past 2 centuries, from Tripoli to Iwo Jima to Tripoli, from the 
first six frigates to the Great White Fleet to the great fleets of 
World War II, our Navy and Marine Corps have protected and advanced 
American interests, stability and freedom around the world.
    Today, the value and importance of our naval assets to security and 
stability here at home and around the world has never been greater. 
Nearly half the world's population lives less than 60 miles from the 
sea. With 90 percent of global trade carried by sea, even those who 
live in landlocked states are dependent on the world's oceans. In these 
days of an internet-connected world, 95 percent of all the voice and 
data goes under the ocean through cables, including the data keeping 
the world's financial system running.
    We live in an age of globalization and worldwide trade. The shelves 
of stores of every variety are stocked through ``just in time'' 
delivery with products from all over the globe. Estimates show that a 
single major port facility in the United States impacts more than 1 
million American jobs and contributes about $1 billion a day to our 
Nation's economic productivity. Overall, some 38 million American jobs 
are directly linked to seaborne international trade.
    The security and stability of the international system of trade and 
finance is tied irrevocably to the free movement of goods and data 
across and under the sea, and is more than just a military concern. It 
impacts potentially every American in the prices we pay for goods and 
services and in the very availability of those goods and services. 
While it is far away and out of sight to most Americans, our naval 
presence around the world isn't a theoretical construct.
    For 7 decades, the U.S. Navy and Marine Corps have been the primary 
protector of this international system. There is a sound basis in the 
proposition that rising international prosperity is directly linked to 
the U.S. Navy. We have kept the sea-lanes open. We have kept freedom of 
navigation open for anybody engaged in peaceful and legitimate trade. 
As the President has said, we have ``been the anchor of global 
security.''
    We benefit from this enormously economically, but we also benefit 
from the way that shared economic success helps to limit conflict and 
war. Around the world, high unemployment, stagnant economies, financial 
struggles often lead to social disorder, political unrest, upheaval, 
and outright conflict. Maritime instability contributes to these 
problems, stoking the fires--as can increasing competition for scarce 
resources. By helping to secure the world's maritime commons, by 
providing a calming presence, and by responding to crises early to 
limit their escalation and enhance diplomatic opportunities, the 
ability of the U.S. Navy and Marine Corps to be where it matters when 
it matters is vital to international stability. That is why our 
national defense strategy is so clearly focused on the maritime domain 
and requires investment in maritime assets.
                   around the globe, around the clock
    The best illustration of the extent and impact of the presence 
provided by our Nation's sea services can be seen in just a single day 
of operations. I've chosen July 26th not because it was especially 
important, but because it was reasonably typical. On that day, I was on 
a trip around the world, visiting sailors and marines and meeting with 
some of our international partners. In my nearly 6 years as Secretary, 
I've traveled to 131 countries and territories and traveled nearly 1 
million air miles. I believe I can do my job better by actually seeing 
and talking with the men and women who serve our Nation where they are 
serving, and by meeting face-to-face with representatives of other 
countries, and not just sitting behind a desk in Washington.
    My trip last July began in Hawaii, observing activities and 
operations in the world's largest maritime exercise, Rim of the Pacific 
(RIMPAC), which included the navies of 22 nations, including allies 
from the region, like Japan and Australia and South Korea, but also 
valued NATO allies like Norway, which sent a warship all the way from 
the Baltic Sea to join the exercises. For the first time it also 
involved ships from the People's Republic of China's Navy. During the 
exercise, these diverse forces worked together on everything from 
search and rescue and humanitarian missions to practicing counter-
piracy tactics and maritime security missions.
    As I flew onward to Tokyo to meet with Japanese leaders, an annual 
exercise, Malabar, was just beginning in the Indian Ocean. This 
bilateral U.S.-Indian naval exercise, which has grown in scope and 
complexity since its first iteration, has fostered mutual understanding 
with our Indian counterparts and enhanced our ability to operate with 
one another in a wide range of missions. This year, the Maritime Self-
Defense Force from Japan joined the exercise in an important 
demonstration of multilateral cooperation between Pacific and Indian 
Ocean nations. The relationship between the Nations of the Pacific and 
the Indian Oceans will continue to be critical in these important 
maritime regions.
    On the same day, in Afghanistan, our marines were increasing 
training of Afghan security forces, working toward turning over 
operational responsibilities to them, as the marines reduced their 
direct combat mission. On that day, we had more than 5,000 marines and 
sailors in the country, patrolling, training, and working with our 
Afghan partners and NATO allies.
    At the same time, our Marine Corps Black Sea Rotational Force was 
involved in Platinum Lion, a series of exercises with our Romanian, 
Bulgarian, and Serbian partners, taking place in Bulgaria. Working with 
these NATO allies and friends from Eastern Europe, this exercise is an 
important annual event in the Black Sea region to build the capacity 
and capability of our partners and to promote peace and stability in an 
area that has been in turmoil for the past several years. Our Marine 
Corps Black Sea Rotational Force regularly deploys throughout Europe, 
training with other forces, monitoring security developments, and 
enhancing our ability to operate with our partners and allies in future 
contingencies.
    On July 26, the United States Embassy in Tripoli was evacuated as 
the fighting in Libya intensified and the State Department decided 
United States personnel were no longer safe at the Mission. The Marines 
of the Special Purpose Marine Air Ground Task Force-Crisis Response, in 
support of United States Africa Command, helped coordinate the 
evacuation and escorted the vehicles that carried our diplomatic and 
military personnel to safety in Tunisia. This kind of operation, 
reacting to threats and problems as they develop, is the very reason 
our Navy and Marine Corps are forward deployed, and must be forward 
deployed to effectively give our leaders options.
    On that day about half of our Navy's ships and submarines were at 
sea, with 99 of our ships forward deployed and another 41 training near 
our shores. Tens of thousands of sailors and 36,000 marines were away 
from their homes, far from friends and family, forward deployed around 
the world, serving in both combat and cooperation missions.
    That was just one day last July. Each of these exercises on the 
world's oceans, training events, security cooperation engagements with 
friends and allies, combat operations in Afghanistan and contingency 
operations in North Africa, continued to build and strengthen our 
partnerships and alliances to help protect Americans and secure the 
global system.
    For 365 days per year, the Navy and Marine Corps operate across the 
planet. When strikes against Islamic State of Iraq and the Levant 
targets in Iraq and Syria were ordered, Navy ships and aircraft were 
quickly in range and launched operations. In fact, for the first 54 
days, FA-18s off USS George H.W. Bush were the lone strike component. 
When the President decided to employ military assets to support the 
fight against Ebola in West Africa, V-22s and marines from our Special 
Purpose Marine Air Ground Task Force-Crisis Response were on the ground 
within hours to provide logistical support to the medical responders.
    Our Nation's Defense Strategic Guidance is clearly a maritime-
centric strategy focused on the Asia Pacific, on the Arabian Gulf, on 
building partnerships, all while maintaining our presence around the 
globe. To fulfill our role in this strategy the Navy and Marine Corps 
face daily demands ranging from humanitarian assistance and disaster 
relief, to protecting our embassies, to working with scores of partners 
and allies, to dealing with multiple asymmetric threats and potential 
conflicts. The Navy and Marine Corps meet these demands, and many more, 
using the same people and the same platforms and equipment 
demonstrating the versatility and flexibility that is the hallmark of 
this force.
    For the past few years, we at the Department of the Navy have 
attempted to minimize the impact of an uncertain budgetary environment, 
marked by numerous continuing resolutions, the imposition of sequester-
level funding and the threat of the return of sequestration. That 
environment has made it more difficult, but even more critical, to set 
priorities to make hard choices and to find opportunities to improve 
our stewardship of taxpayer dollars.
    Almost 6 years ago, when I was preparing for my confirmation 
hearing to be Secretary and began closely examining the challenges our 
Navy and Marine Corps faced, it became clear to me there are four areas 
that demand our attention in order to provide and maintain the presence 
our Navy and Marine Corps uniquely deliver. Those four areas are 
People, Platforms, Power, and Partnerships. Those have been, and 
continue to be, the key factors in assuring the capability, capacity, 
and success of our naval services, and that is why they have been, and 
will remain, my top priorities.
People--Our True Advantage
    It is one of the great maxims of naval history that sailors and 
marines are the sea services' greatest advantage and most important 
asset. In the U.S. Navy and Marine Corps, we have the best people in 
the world. Our sailors and marines are well known for the ability to 
exercise independent judgment, to flexibly adapt to changing 
circumstances or environments that were unanticipated at the start of a 
deployment, but for which their training has fully prepared them. 
Perhaps less well known is how far down the chain of command we devolve 
critical responsibility. Aboard USS Ronald Reagan in the weeks after 
the earthquake and tsunami that ravaged Japan, I was surrounded by flag 
officers, but the briefing on relief operations I received came from a 
third class petty officer and a lieutenant junior grade because they 
had been instrumental not just in executing, but also in designing, the 
effort.
    Providing our sailors, marines, and civilian workforce the training 
to deal with the uncertainties they will certainly face and providing 
the support that they need to do their jobs is one of our most 
important responsibilities. This also extends to helping their 
dedicated families and ensuring we support our wounded or injured 
veterans.
    Three years ago, we introduced the 21st Century Sailor and Marine 
Initiative, to provide a more coordinated and comprehensive approach to 
assuring we have the healthiest, fittest, most resilient, and best 
educated force in the world. The goal is to help our sailors and 
marines maximize their personal and professional readiness, and to 
assist them and their families with the mental, physical and emotional 
challenges of military service. It eliminated the stovepipes that 
existed between many of the programs designed to support our people and 
helps us address issues like suicide, sexual assault, and alcohol 
related incidents in a comprehensive way that protects our sailors and 
marines and makes them stronger. A fleet full of successful sailors 
will ensure a successful Navy, and a force full of successful marines 
will ensure a successful Marine Corps.
    We are looking to expand the initiative by exploring new ways to 
improve the fitness of our force. We are reassessing our physical 
fitness requirements to make them more relevant to warfighting and to 
instill a ``culture of fitness'' instead of just training for a 
physical fitness test. This means reviewing nutritional standards, 
making efforts to reduce stress, and improving health care and support 
networks to deal with issues like suicide and abuse. We are also 
working hard across these areas to curb the all-too-common factor of 
alcohol-related incidents, which can end careers and, tragically, 
sometimes lives. Available data shows that the number of these damaging 
incidents has trended downward. To ensure we maintain that trend, we 
are using media and education campaigns, directed actions against the 
irresponsible use of alcohol like continuing to place reasonable limits 
on where and when alcohol is sold on base, and the continued use of the 
alcohol detection program implemented in 2013.
    Sexual assault and harassment remains a challenge that we are 
responding to aggressively. In the past several years we have taken 
numerous steps to address it. These include widespread training like 
our bystander intervention program, increased use of interactive means, 
victim support programs like the Victim's Legal Counsel, and new 
investigative resources. Combined with much more direct leadership 
engagement, evidence suggests that these efforts are improving the 
confidence of sailors and marines in the system and their belief that 
reports will be taken seriously. Because of this increased trust in 
their chain of command, we have seen survivors coming forward in larger 
numbers and also, increasingly, reporting incidents that took place 
earlier than the year it is being reported. This large increase in 
reports, especially since 2012 when many programs began to mature, is 
what we anticipated seeing if our efforts were successful, since they 
would represent increased confidence in the system. We are turning more 
attention to the risk of retaliation, especially by peers, as this 
issue has increased in prominence in our surveys. Our interactive 
education programs are having a measurable impact, and we will continue 
to develop and deploy those. Sexual assault is an ``insider threat'' 
with devastating impacts on the Navy and Marine Corps. We've done 
myriad things to attack this insidious threat, but, no matter how much 
we've done, there is more to do until we've eliminated the scourge of 
sexual assault.
    Vice Admiral James Calvert, who earned two Silver Stars as a 
submariner in World War II, once wrote that ``as important as ships 
are, naval history is made by men.'' I would make one change to that 
statement: today naval history is made by men and women. From the 
appointment of Admiral Michelle Howard as the Vice Chief of Naval 
Operations, to our work expanding roles and missions open to women to 
the maximum extent possible, we are leading the military in our quest 
to ensure we're using our best and most talented servicemembers across 
the force. We will continue our efforts to recruit and retain a diverse 
force, including a more representative number of women. A more diverse 
force is a stronger force.
    For several years now, female officers have had the opportunity to 
serve on our ballistic and guided-missile submarines, and they have 
performed exceptionally well, as anticipated, earning their 
qualifications and opening a new path. We are expanding opportunities 
for them. USS Minnesota and USS Virginia, both fast attack submarines, 
are leading the integration of women into the rest of the submarine 
force at this moment. In January, the Navy also announced a plan and a 
set of milestones for fully including enlisted women on submarines that 
will begin next year.
    Women have also been integrated into the Coastal and Riverine 
Squadrons and have deployed. We have also opened 348 billets for Navy 
positions that support Marine Corps units. The Marine Corps continues 
on pace with their study of the positions that are currently closed to 
women and will have results later this year. In accordance with the 
Secretary of Defense's guidance, the default position will be that all 
currently closed positions will be opened to the assignment of women 
unless an exception is formally requested.
    Talent is best cultivated by promoting and advancing our sailors 
and marines on merit and competition. It also requires us to maximize 
their opportunities to broaden their experience and exposure to new 
ways of doing things. We have to look at things like moving away from 
year group management for our officers and expansion of the Career 
Intermission Program, as well as other reforms and adjustments within 
our current system. While a number of our initiatives can be undertaken 
within our current authorities, there are some that will require 
adjustments to the law, including changes to the Defense Officer 
Personnel Management Act, which is almost 4 decades old. We have made 
legislative proposals in this area, and we ask for your help in 
bringing our personnel system into the 21st century.
    Maintaining our presence around the world is hard on our force. 
That is one of the reasons why in 2014 we began the implementation of 
the Optimized Fleet Response Plan (OFRP). This is a program that Navy 
is using to schedule and plan our deployments and the maintenance of 
our platforms. Over the course of the past 13 years of war, one of the 
biggest challenges for our sailors and marines has been predictability 
in their deployments. The goal of OFRP is to return some amount of 
scheduling to their lives. Missing holidays, birthdays, and other 
significant family events is hard enough, but not knowing when it will 
happen makes things even more difficult. There is no way to completely 
eliminate the unexpected. Events around the world can, and do, take on 
a life of their own, and our men and women know this. Increasing the 
predictability of deployments will help with the stress on our sailors 
and marines and their families and also has the added benefit of 
helping us properly support our maintenance requirements and readiness 
posture.
    There will be times when a crisis erupts somewhere in the world and 
our sailors and marines remain deployed in order to deal with it. The 
world gets a vote. For the past several years we have had a number of 
ships and units remain at sea far beyond the normal deployment length. 
In order to help our sailors and marines and their families during 
these extended deployments, we've implemented the Hardship Duty Pay-
Tempo program. When operational tempo is high and a deployment extends 
beyond more than 220 consecutive days, this pro-rated additional 
payment kicks in. This is an effort to show our sailors and marines we 
understand the difficulty these extended deployments create for them 
and their families and to show them, in a tangible way, the gratitude 
of the Department of the Navy and the American people.
    Those sailors and marines on sea duty, deployed away from home 
around the world, are the backbone of the Navy and Marine Corps, and 
they enable us to provide and maintain our global presence. Despite the 
challenges involved, we need to ensure our men and women are 
incentivized to take on sea-going assignments. This past year, we 
increased Career Sea Pay for those who have spent a total of 3 years at 
sea in order to both improve critical sea-duty manning and reward those 
who take these challenging sea-going assignments. We also increased 
Career Sea Pay-Premium, which recognizes sailors and marines who spend 
more than 36 consecutive months in sea-going positions or who have 
spent a cumulative 8 years at sea during their career. These increases 
are long overdue since they were last adjusted in 2001.
    The Reserve component continues to be a vital part of the Navy and 
Marine Corps Team. In fiscal year 2014 we mobilized 2,700 individual 
Reserve sailors and marines to support operations around the world. As 
the force level shifts in Afghanistan, our Reserve component will be 
taking on the vast majority of the individual augment requirements 
requested by the joint force. This allows us to focus our Active 
component on filling critical sea billets to help ensure fleet 
wholeness and readiness. Reserve sailors and marines are deployed 
globally, and we will continue to maintain a Reserve that is ready, 
relevant, and responsive to the Nation's needs.
    Attracting and retaining our talent is critical to maintaining our 
innovative and adaptive force. An important part of that involves the 
challenge of military compensation. Cooperation between Congress and 
the Department of Defense on this issue will be vital as we look at 
slowing the growth rate of our personnel costs. We must keep the faith 
with the men and women who are in uniform. We must look for the right 
ways to build incentives and retain our most talented people. But we 
also must recognize that growth in pay and benefits must be contained 
or we will not be able to provide our sailors and marines with the 
training and equipment that they need.
    Our civilian workforce is also vital to the success of the 
Department of the Navy. They help design our ships, aircraft, and 
equipment and are critical enablers of our forces. Without them, we 
literally would not have a fleet to put to sea. We could not operate 
ashore at our bases across the globe. Over the past few years our 
civilian workforce has persevered through some very trying times. From 
pay freezes, to hiring freezes, and the huge, negative impact of 
furloughs, they have shown an immense amount of dedication to our Navy, 
Marine Corps, and our Nation. In 2013, 12 of our civilians were killed, 
and others injured in visible and invisible ways, in the attack on the 
Washington Navy Yard. There is no more tragic example of how our 
civilians share the burden with those in uniform. We continue to 
support the victims and the families who endured this tragic attack and 
have implemented numerous security measures to improve the safety of 
our workforce.
    This committed and patriotic workforce is the foundation of how the 
Department of the Navy operates. In order to ensure we have the most 
capable people, in the right positions, we run a number of leadership 
development programs. Annually we select participants for senior 
leader, executive leader, and developing leader programs to provide 
education and training that will help our people tackle the issues we 
face.
                       platforms--america's fleet
    The hard truth of providing the presence the American people and 
our Nation's leaders expect is that it requires platforms. To be where 
we are needed, when we are needed, we must have the ships, submarines, 
aircraft, vehicles, and equipment for our sailors and marines to 
operate. That means we must have a properly-sized fleet. Quantity has a 
quality all its own.
    Recently much has been said in many venues about the size of our 
fleet. The completely wrong assertion is made over and over that our 
fleet is shrinking. Let me state this very clearly: our fleet is 
growing and will number greater than 300 ships before the end of this 
decade.
    It is absolutely true that our fleet shrank dramatically between 
2001 and 2008. On September 11, 2001, the Navy's battle force stood at 
316 ships. But, by 2008, after one of the great military buildups in 
American history, our fleet had declined to 278 ships.
    Part of the reason for that was understandable: our focus was on 
two ground wars. But, frankly, it cannot all be attributed to that. In 
the 5 years before I took office as Secretary, the Navy only contracted 
for 27 ships, far too few to maintain the size of the fleet, much less 
grow it. In my first 5 years as Secretary, we contracted for 70 ships. 
We have halted and reversed the decline.
    We haven't done this at the cost of naval aviation. During my time 
in office we have bought 1,300 aircraft. That is 40 percent more than 
the Navy and Marine Corps bought in the 5 years before this 
administration took office.
    We have done this both in ships and aircraft by taking some direct 
and basic actions including: block buys and multi-year procurements; 
increased competition; stable designs and mature technologies; targeted 
reviews; pursuing cross-program common-equipment buys; and 
affordability through hard but fair bargaining. In addition, we have: 
supported shipyard facility improvements and optimal-build plans; 
conducted rigorous ``should cost'' studies; designed equipment for 
affordability and modularity; instituted strict controls to fight 
``requirements creep;'' used open-architecture systems to the maximum 
extent possible; and signed shipbuilding capability preservation 
agreements resulting in more competitive shipyards and lower costs for 
the Navy.
    The amphibious and auxiliary ships industrial base is of concern to 
us and is at risk should future funding levels be reduced. We have 
recently introduced an integrated acquisition strategy for LHA 8, T-
AO(X), and LX(R) to support stability and competition within this 
sector of the industrial base. The strategy will help ensure the ships 
are built affordably, while providing the greatest degree of stability 
for the industrial base.
    There are a number of references previously to the industrial base. 
A healthy design and production industrial base is critical to 
achieving what is needed for our fleet in ships, aircraft, weapons and 
all procurements. Stability and predictability are critical to the 
health and sustainment of this industrial base.
    This is especially true in shipbuilding. Changes in ship-build 
plans are significant because of the long lead time, specialized 
skills, and extent of integration needed to build military ships. Each 
ship is a significant fraction of not only the Navy's shipbuilding 
budget but also industry's workload and regional employment. 
Consequently, the timing of ship procurements is a critical matter to 
the health of American shipbuilding industries, and has economic 
impacts at the local, regional and national levels.
    It is important, therefore, to provide stability and predictability 
to the industrial base to maintain our ability to continue to build the 
future fleet. In the overall picture, we should not pay for one Navy 
ship by cutting another Navy ship; each ship is crucial in many, many 
ways.
    The Department's shipbuilding plan continues to build the balanced 
force we require. This year we have requested funding for nine new 
ships as well as for the refueling of the carrier USS George 
Washington. We also plan to modernize 11 cruisers, which are our most 
capable ships for controlling the air defense of a carrier strike 
group. The Navy's cruiser modernization plan, in accordance with fiscal 
year 2015 congressional direction, will allow the Navy to reduce 
overall funding requirements while most efficiently increasing the 
capability and extending the service life of these large surface 
combatants.
    Our efforts to maintain and affordably procure our fleet's ships 
and submarines have continued through this past year. The Department 
has established a steady state Ford-class procurement plan designed to 
deliver each new ship in close alignment with the Nimitz-class ship it 
replaces. CVN 78 (future USS Ford) cost performance has remained stable 
since 2011 and under the congressional cost cap. We are also committed 
to driving down and stabilizing aircraft carrier construction costs for 
the future John F. Kennedy (CVN 79) and the future Enterprise (CVN 80) 
and have made significant progress in doing so. As a result of the 
lessons learned on CVN 78, we have made significant changes to reduce 
the cost to build CVN 79, including improvements in material 
availability and pricing; major changes in build strategy and processes 
determined to execute construction activities where they can most 
efficiently be performed; incorporation of design changes only for 
safety, those mandated or lower costs; and aggressive measures for cost 
control in government-furnished equipment. The costs of CVN 79 also 
remain stable and under the congressional cost cap.
    In our attack submarine program we are continuing procurement of 
two Virginia-class submarines per year while reducing construction time 
and also developing the Virginia Payload Module (VPM). Thanks to the 
support of Congress in authorizing the use of a multi-year procurement 
(MYP), in April 2014, the Navy awarded the Block IV contract for 10 
submarines. The savings realized with this MYP contract was more than 
$2 billion, effectively giving the Navy 10 ships for the price of 9.
    SSBNs, coupled with the Trident II D-5 Strategic Weapons System, 
represent the most survivable leg of the Nation's strategic arsenal and 
provide the Nation's only assured nuclear response capability. 
Originally designed for a 30-year service life, the Ohio-class has been 
extended to 42 years of operation. They cannot be extended further. For 
this reason, we are intensively continuing development of the follow-on 
12-submarine Ohio Replacement Program (ORP). This effort is driven by 
meeting the program's performance requirements while reducing costs 
across design, production, operations and sustainment. However, in 
order to afford the ORP procurement costs beyond this Future Years 
Defense Program (FYDP) it is clear that this program must be funded by 
a significant increase in the Navy's shipbuilding budget, or from other 
sources. Otherwise, funding this necessary program will effectively 
keep the Navy from performing its other critical missions.
    The Arleigh Burke-class (DDG 51) program remains one of the Navy's 
most successful shipbuilding programs--62 of these ships are currently 
operating in the fleet. We are in the third year of an MYP. The second 
of our fiscal year 2016 ships will provide significant upgrades to 
integrated air and missile defense and additional ballistic missile 
defense capability by introducing the next flight (Flight III), which 
incorporates the Air and Missile Defense Radar (AMDR) designed to 
address a number of growing threats.
    With four Littoral Combat Ships (LCS) in service, operational 
experience continues to increase through at-sea testing and rotational 
deployments, and the value of this class continues to be demonstrated. 
USS Fort Worth began her maiden deployment to the western Pacific, and 
upon arrival in Singapore was sent to assist in the search and recovery 
efforts for the downed Air Asia airliner in the Java Sea. USS Fort 
Worth's deployment marks the beginning of continuous LCS forward 
presence in Southeast Asia and will validate the 3:2:1 (three crews, 
two ships, one ship always forward-deployed) rotational manning and 
crewing concept for the LCS class. This will also be the first 
deployment of the Navy's MH-60R Seahawk helicopter along with the MQ-8B 
Fire Scout on an LCS.
    After an exhaustive analysis by the Navy's Small Surface Combatant 
Task Force, in December 2014 the Secretary of Defense approved the 
Navy's proposal to procure a new small surface combatant based on an 
upgraded LCS. This followed his February guidance to review the program 
and consider development of a more lethal and survivable small surface 
combatant. The upgraded LCS will provide multi-mission anti-surface 
warfare and anti-submarine capabilities, as well as continuous and 
effective air, surface and underwater self-defense. They are both more 
lethal and more survivable, as well as continuing to be affordable and 
providing the fleet with the requirements it needs. As these 
capabilities are consistent with those of a frigate, I directed 
designation of these new small surface combatants as Frigates (FF).
    Our amphibious ships are incredibly versatile. Across the spectrum 
of maritime operations, from the humanitarian assistance and disaster 
relief efforts in the Philippines following super-typhoon Haiyan to the 
combat operations in Libya during Operation Odyssey Dawn, the Navy and 
Marine Corps team do a wide array of things with these ships. At this 
moment, the USS Iwo Jima Amphibious Ready Group and 24th Marine 
Expeditionary Unit are in the Fifth Fleet area of operations, ready for 
anything that might happen from Iraq and Syria to Yemen.
    Congress provided $1 billion of funding in the fiscal year 2015 
Appropriations Act toward a 12th LPD, and we have requested the balance 
of funding this year for this ship, LPD 28. Procurement of LPD 28 will 
assist in mitigating impacts to shipbuilding and combat systems 
industrial bases, and the ship's design and construction features will 
fully exploit some of the ongoing design innovations and cost reduction 
initiatives that are necessary for the LX(R) to achieve its 
affordability goals.
    Support vessels such as the Mobile Landing Platform (MLP) and the 
Joint High Speed Vessel (JHSV) provide many additional options and 
flexibility to Combatant Commanders. The future USNS Lewis B. Puller 
(MLP 3), the first Afloat Forward Staging Base (AFSB) variant of the 
MLP, which includes a flight deck, was christened in early February in 
San Diego and will deliver in summer 2015. The Navy awarded MLP 4 AFSB 
in December 2014, and plans to request MLP 5 AFSB in fiscal year 2017. 
JHSV production continues with delivery of the fifth JHSV anticipated 
in April 2015. JHSVs 6 through 10 are also under contract. In fiscal 
year 2015, Congress provided funding for an eleventh JHSV, which we 
expect to be put under contract this coming summer.
    Combat Logistics Support ships fulfill the vital role of providing 
underway replenishment of fuel, food, repair parts, ammunition and 
equipment to forward deployed ships and embarked aircraft to enable 
them to operate at sea for extended periods of time. We will begin to 
replace the Fleet Replenishment Oilers beginning in fiscal year 2016 
with the TAO (X). These will be double-hulled and meet Oil Pollution 
Act of 1990 and International Marine Pollution Regulations.
    With the strong support of Congress, we continue to strengthen 
naval aviation as well. Adding new aircraft to our growing fleet will 
increase U.S. naval strength, in terms of both force capacity and 
capability. In the vertical lift community, multi-year production 
contracts for the MV-22 and MH-60R continue, as does the Marine Corps 
procurements of the AH-1Z and UH-1Y.
    The E-2D, our new and upgraded electronic early-warning aircraft, 
reached initial operating capability in October and is continuing 
production under a multi-year contract. We continue to buy P-8As to 
replace the venerable P-3. Last year, in 2014, we saw the first 
deployment of this aircraft and continuous rotational deployments to 
Seventh Fleet are now underway. This past year also continued the 
integration of the EA-18G Growler electronic attack aircraft into the 
fleet. With Congress' addition of 15 Growlers in 2015, we will have 153 
of these aircraft in 16 squadrons. With the final Navy deployment of 
the legacy EA-6B Prowler, and the looming retirement of the Marine 
Corps' last Prowlers, these incredibly capable new aircraft take over 
the Nation's airborne electronic attack mission.
    The F-35 Joint Strike Fighter remains a central part of the future 
of both Navy and Marine Corps aviation. This past year we saw the 
Marine Corps begin F-35B operations at two additional bases. The 
Marines are on track to have initial operating capability (IOC) for the 
first squadron this year. The Navy completed the F-35C's first flight 
operations at sea aboard USS Nimitz (CVN 68). According to plan, the 
Navy is the last Service to acquire the F-35 and is continuing an 
acquisition strategy to achieve IOC in the 2018-2019 timeframe. 
Incentive agreements with the builders have been achieved that will 
improve aircraft unit costs while also improving the learning curve on 
production.
    Unmanned systems are critical to our ability to be present; they 
lessen the risk to our sailors and marines and allow us to conduct 
missions that are longer, go farther, and take us beyond the physical 
limits of pilots and crews. Launching and recovering unmanned aircraft 
as large and capable as our manned fighters from the rolling decks of 
aircraft carriers, launching unmanned rotary-wing patrols from our 
small surface combatants, and deployment of unmanned underwater 
vehicles globally are elements of both the present and future of 
maritime presence and naval warfare.
    We are moving ahead with a number of unmanned programs in the 
effort to rapidly integrate them into the fleet. The MQ-8B Fire Scout 
has already begun regular deployments. When USS Fort Worth deployed to 
Singapore recently the ship took a mixed aviation detachment of a 
manned MH-60R helicopter and MQ-8B UAV's. This kind of hybrid 
employment, pairing our manned and unmanned systems to take advantage 
of the strengths of each, will be a hallmark of our future approach to 
unmanned systems. The first operational variant of the larger and more 
capable next generation Fire Scout, the MQ-8C, was delivered in 2014. 
This aircraft will bring double the endurance and double the payload of 
the older versions.
    We continue to work toward a full start of the Unmanned Carrier 
Launched Airborne Surveillance and Strike system (UCLASS) program. This 
unmanned addition to the air wings aboard our aircraft carriers is a 
vital part of the future of naval aviation. Full start of this program 
has been delayed pending a defense-wide review. Having the proper 
balance of long-endurance surveillance capabilities and the ability to 
grow into long range, penetrating strike missions in the future is 
critical. Development also continues of the unmanned underwater systems 
that are part of our future mine warfare capabilities. These systems 
will see formal operational testing in the Littoral Combat Ship program 
in 2016.
    Maintaining the required pace of Navy shipbuilding while continuing 
the recapitalization of our aviation assets and other platforms made 
necessary by our deployment cycles and operational tempo is a very real 
issue. It will necessitate continued leadership, oversight and 
management to make sure we develop innovative solutions and maximize 
the efficiency in our acquisition system. Building our platforms is a 
unique public-private partnership and a key economic engine in nearly 
every state in the union. It provides more than 100,000 high-skill, 
high-paying jobs and helps ensure the foundation of global prosperity 
and security that our naval presence has assured since World War II.
    Because cuts to our shipbuilding programs are the least reversible 
in their impact on our fundamental mission of providing presence and in 
their consequences to the industrial base and to our economy, I am 
committed, to the maximum extent possible, to preserve ship 
construction and to seek reductions in every other area first, should 
further budget reductions such as sequestration become reality.
Power--Energy and Efficiency
    For 2 centuries the U.S. Navy has had a history of leadership in 
energy innovation, transitioning from wind to coal, coal to oil and 
finally pioneering nuclear power. Fueling the ships, aircraft, and 
vehicles of our Navy and Marine Corps is a vital operational concern 
and enables the global presence necessary to keep the Nation secure. 
But power and energy are also issues of national and international 
security.
    My responsibility as Secretary of the Navy is to ensure that the 
Navy and Marine Corps have the right people, with the right training 
and the right tools to defend our country. Power and energy are an 
important part of ensuring our people have what they need and can get 
where they are needed. It is a critical element of our presence and why 
Navy has always been an energy innovator.
    Throughout human history, access to resources has been a major 
source of conflict. Energy and fuel can and are being used as weapons. 
Threats against the shipping lanes in the Middle East, European 
dependence on Russian gas supplies and the impact of Russian energy 
dependence by the Ukraine are the subject of daily headlines. This is 
true regardless of the price of a barrel of oil, although the price 
decline of the last year has certainly impacted strategic calculations 
around the globe.
    Here in the United States, with domestic production up and new oil 
and gas reserves being discovered even as prices have fallen, energy 
still remains a security concern. Even if we were able to produce every 
single drop of oil or gas that America needs domestically, we cannot 
control the price. Oil is the ultimate global commodity, often traded 
on world markets based on speculation and rumor. Oil price instability 
is often the result of global instability, and prices fluctuate with 
little warning. The volatility of oil prices, both up and down, has 
been repeatedly demonstrated in recent years. Energy supply will remain 
an issue for many of our allies and for others around the globe, 
creating the potential for instability and even conflict.
    Operationally, energy matters now more than ever. The ships and 
aircraft that we deploy include advanced capabilities that make us the 
most effective expeditionary fighting force in the world. But our 
weapons platforms also use far more energy than their predecessors. Our 
ability to maximize our capabilities depends on having the energy 
available to power them.
    In 2009, I established formal energy goals for the Department of 
the Navy to help drive the Navy and Marine Corps to strengthen our 
combat effectiveness by using energy more efficiently and by 
diversifying our sources of power. From the deployment of hybrid 
electric drives, to the introduction of alternative fuels into the 
fleet, to the Marines' use of expeditionary power systems in 
Afghanistan, we have made real progress over the last few years.
    This past year, we christened USS Zumwalt (DDG 1000), which has an 
electric propulsion system. This system is state-of-the-art and will 
significantly reduce fuel demand, which is a critical part of ensuring 
we have the fuel to power next generation weapons, like the Laser 
Weapon System (LaWS) and the electro-magnetic rail gun. This past fall 
we commissioned USS America (LHA 6) which is driven by hybrid electric 
power plants. This is the same engineering design used in USS Makin 
Island (LHD 8) that, for her maiden deployment, cut her fuel 
consumption nearly in half when compared to other big deck amphibious 
ships. We also took delivery of two more Virginia-class submarines, 
with their advanced nuclear power systems that lead the world in 
efficiency and safety.
    Our shore installations, like our shipyards, are critical to our 
operations. We continuously strive to be smarter and improve energy 
efficiency at our installations. We are leveraging private sector 
funding to accomplish that goal. In fact, the Department of the Navy is 
on track to have awarded nearly $1 billion in energy savings 
performance contracts by December 2016. That's $1 billion to improve 
our infrastructure and lower our energy bills in the process. The 
Renewable Energy Program Office (REPO) coordinates and manages our goal 
of producing or procuring one gigawatt of cost-effective renewable 
energy for our bases. We will reach this goal by December of this year. 
The power we are buying through our REPO projects will be cheaper, over 
the life of the contract, than our current rates.
    Last September, we announced contracts with three companies that 
have committed to produce drop-in, military-compatible biofuels at 
operational quantities. Let me be clear: we are not obligated to buy 
fuel from any producer and do not intend to buy any fuels unless they 
are cost competitive. That said, it is critical we continue to use 
alternative fuels in our ships and aircraft to ensure operational 
flexibility. The private sector, including major airlines, is expanding 
the use of alternative fuels just as we are.
    Diversifying our energy supply for our ships, our aircraft, and our 
bases helps guarantee our presence and ability to respond to any 
crisis. Increasing our energy efficiency assures that we can remain on 
station longer or extend our range, without the delays and 
vulnerability of refueling. The benefits of competition, as we have 
demonstrated in shipbuilding, are always welcome. In these ways, our 
focus on power and energy is helping to ensure the U.S. Navy and Marine 
Corps remain the most powerful expeditionary fighting force in the 
world and their ability to protect and advance American interests 
around the globe.
Partnerships--Naval Diplomacy and International Cooperation
    In the 21st century, to be effective, all nations and people that 
seek freedom and security have to carry their own share of the 
responsibility of defending the global system. A collective effort will 
assure our navies can provide the necessary presence to maintain 
freedom of navigation and maritime security around the world. Whether 
blue water or brown, America's Navy and our other allies and partners 
help assure stability and security, creating and strengthening global 
relationships, providing humanitarian assistance and disaster relief, 
deterring adversaries when possible, and defeating aggression when 
necessary.
    Cooperation on the world's oceans helps us diffuse tensions, reduce 
misunderstandings, and limit conflict. The world's maritime tradition 
is nearly as old as human history. From harbors near the Arctic Circle 
and around the Mediterranean, from the littorals of Asia to the shores 
of Africa, the Americas and Australia, human civilizations have 
launched one great fleet after another toward the horizon. Again and 
again naval forces have proven themselves the most immediate, the most 
capable, and the most adaptable option when a crisis develops.
    This is even more true when like-minded navies, with similar 
national policy objectives, can find ways to work together. Whether 
exercising together in the Baltic or in Southeast Asia, operating 
against pirates in the Gulf of Aden, or cooperating to provide relief 
in the aftermath of natural disasters, the strong cooperation between 
the United States and our partners and allies makes a difference all 
over the globe. Partnerships are a key contributor to presence.
    Building partnerships and establishing trust between our Nation and 
our Navy and countries around the world is why I travel to visit with 
foreign military and governmental leaders. Those meetings are critical 
to building the relationships that can help us deter conflict or 
respond in a more coordinated and effective manner to manmade or 
natural crises. It is critical in my job as Secretary of the Navy to 
understand the global landscape and the security challenges--and 
opportunities. Briefings and PowerPoint slides can never match the 
value of firsthand observation and interactions, as anyone who has 
served aboard a ship, at a forward outpost, or in a warzone can tell 
you. As the old Navy saying goes, ``You can surge people and you can 
surge platforms, but you cannot surge trust.''
    Our rebalance to the Pacific continues to be an important part of 
our partnership efforts. We must have the right platforms in the right 
places to ensure our friends and allies understand our commitment. 
We're moving more ships to the central and western Pacific, including 
forward basing an additional fast attack submarine in Guam and as I 
mentioned earlier we are forward stationing four Littoral Combat Ships 
out of Singapore. We are ensuring that our most advanced platforms are 
in the Pacific, so we're increasing the number of DDG's with the 
Ballistic Missile Defense systems based in Japan and the P-8A maritime 
patrol aircraft are making their first rotational deployments in the 
region. In the longer term, by 2018 we will deploy an additional
    Amphibious Ready Group to the Indo-Pacific region and we will 
deploy a growing number of Joint High Speed Vessels and Mobile Landing 
Platforms there. With these changes, and others, by the end of the 
decade 60 percent of our fleet will be based in the Pacific, a fleet 
which will be larger than the one we have today.
    The Marine Corps is also building its capacity to work with our 
Indo-Pacific partners. We continue to increase the rotational 
deployment of marines to Australia, which will culminate in the regular 
rotational deployment of a Marine Air Ground Task Force (MAGTF) of 
approximately 2,500 marines. The Marines have increased the size of 
this deployment from just over 200 marines to more than 1,000 and over 
the past year these marines out of Darwin have conducted exercises and 
theater security operations throughout the region. We are also 
continuing forward on the plan to base another MAGTF (part rotational, 
part permanent) of about 5,000 marines in Guam, which will become a 
central hub for many of our Pacific operations.
    This past year saw dramatic developments in Eastern Europe and the 
Black Sea region. The Navy and Marine Corps have been central to 
demonstrating support for our allies and friends and American interests 
in the region. Alongside the Marine Corps' Black Sea Rotational Force's 
operations in Eastern Europe, a series of Navy ships have deployed into 
the Black Sea to ensure freedom of navigation and work with our 
partners there. The bonds between America and Europe and our shared 
values remain as strong today as ever.
    That is demonstrated in one of the world's strongest and most 
enduring defense partnerships: the North Atlantic Treaty Organization. 
It is true that America's defense strategy calls for an increased focus 
on the Western Pacific, Arabian Gulf, and Indian Oceans. But that same 
strategy also ensures that we aren't turning away from our longstanding 
allies in Europe and also calls for renewing our commitment to NATO. A 
very concrete example of this is the move of four ballistic missile 
defense capable DDGs to Rota, Spain. All of these efforts are a 
continuation of NATO's 65-year mission to keep all nations free, and 
not to claim territory or tribute.
    This past summer,USS America sailed from the Gulf Coast, where it 
was built in Mississippi, around South America to its new homeport in 
San Diego. As America sailed through the Americas, the sailors and 
marines aboard conducted theater security cooperation activities with 
countries in the region, training together and helping to develop the 
skills needed to counter illicit trafficking and conduct combined 
operations. Our new Joint High Speed Vessels are also deploying to the 
Americas with the ability to operate for longer periods and carry 
adaptive payloads. Our security is undeniably tied to our neighbors and 
we are working with innovative and small-footprint approaches to 
enhance this.
    This past September, I invited the leaders of our partner navies in 
West Africa to join me for a series of discussions in Newport, RI, 
called the Gulf of Guinea Maritime Security Dialogue. Naval leaders 
from 16 nations bordering the Gulf of Guinea came to discuss how we 
could increase collaboration in a region where piracy, extremism, 
trafficking and insecurity of all types are on the rise. We discussed a 
unified code of conduct for maritime law enforcement and encouraged 
more direct cooperation in the region. As the economy in the Gulf of 
Guinea continues to grow, so does the increasing relevance of guarding 
against transnational crime like maritime terrorism and the illegal 
movement of drugs and weapons. The United States Navy and Marine Corps 
will continue to work with our partners in West Africa and help them 
improve their capabilities and promote collaboration.
    Sailors and marines of every nation have much in common with other 
sailors and marines. Working together, we become more inter-operable, 
we can provide key training and develop the operational capabilities of 
like-minded countries and navies. This in itself increases stability 
for the global system. It distributes the burdens and costs of maritime 
security and makes us all safer by reducing the likelihood of conflict. 
Direct engagement with foreign leaders by our Department's senior 
leadership is a central component of building the human connections 
that are critical to successful partnership and combined operations. 
They are a large part of what builds the international relationships, 
trust, and inter-operability that is central to our globalized world.
    In this interconnected world, threats know no boundary, no 
international lines, so the burden of security has to be shared. Across 
239 years of history our Navy and Marine Corps have worked with allies 
and friends. From suppressing the slave trade on the coast of Africa in 
the mid-19th century to the combined operations of World War II, the 
examples are endless. From the exercises I mentioned earlier like 
RIMPAC, Malabar, and Platinum Lion, to our multi-lateral and bilateral 
meetings with both uniformed and government leaders, to our combined 
operations like the search for Air Asia Flight 8501 and counter-piracy 
patrols off the Horn of Africa; these examples illustrate that the 
partnerships we build and maintain today remain critical to our global 
presence.
                   fiscal year 2016 budget submission
    The Department of the Navy's proposed budget for fiscal year 2016 
is designed with a focus on the three objectives laid out 2014 
Quadrennial Defense Review: protect the homeland, build security 
globally, and project power and win decisively when called upon. In 
doing so we have looked across the FYDP to maintain our ability to 
conduct the 10 primary missions listed in the Defense Strategic 
Guidance to 2020 and beyond. Overall the fiscal year 2016 President's 
Budget balances current readiness needed to execute assigned missions 
while sustaining a highly capable fleet, all within a tough fiscal 
climate.
    Our approach to this budget has focused on six objectives. First, 
maintain a credible and modern sea-based strategic deterrent. Second, 
sustain our forward global presence to ensure our ability to impact 
world events. Third, preserve both the capability and capacity to 
defeat an aggressor in one multi-phase contingency operation while 
simultaneously denying another aggressor the ability to achieve their 
objectives. Fourth, ensure that the force is adequately ready for these 
operations through critical afloat and shore readiness and personnel 
issues. Fifth, continue and affordably enhance our asymmetric 
capabilities. Finally, sustain our industrial base to ensure our future 
capabilities, particularly in shipbuilding.
    Even as we deal with today's fiscal limitations, we cannot let slip 
away the progress we've made in shipbuilding. It takes a long time, 
measured in years, to produce a deployable ship. As I noted earlier, it 
is the least reversible thing we might do to deal with budget 
constraints. If we miss a year, if we cancel a ship, it is almost 
impossible to recover those ships because of the time involved and the 
fragile industrial base. To do the job America and our leaders expect 
and demand of us, we have to have those gray hulls on the horizon.
    This budget results in a 2020 fleet of 304 ships. We will purchase 
Virginia-class attack submarines at a rate of 2 per year for a total of 
10 across the FYDP, with the inclusion of the Virginia Payload Module 
by fiscal year 2019 for at least 1 boat per year. We also will continue 
to procure Arleigh Burke-class destroyers at a rate of 2 per year, with 
the first Flight III DDG funded in fiscal year 2016 and delivered in 
fiscal year 2021. Fourteen ships of the Littoral Combat Ship-class, of 
which at least the last five will be the frigate variant, will also be 
procured in this FYDP. We will also continue the construction of 
amphibious ships, mobile landing platforms, high speed vessels, and 
combat logistics ships.
    This budget carries on the development of the future carrier air 
wing. Procurement of both the F-35C and F-35B continues, with initial 
operating capability (IOC) of the F-35C coming sometime in late fiscal 
year 2018 or early fiscal year 2019. Our multi-year procurement of the 
E-2D will now include the introduction of inflight refueling capability 
for the new aircraft. We are continuing the integration and procurement 
of the Small Diameter Bomb II for the F/A-18 and fund advancements to 
the Advanced Anti-Radiation Guided Missile to reach IOC for Block I in 
fiscal year 2017. The budget also funds the EA-18G into its Full 
Operating Capability and full air wing integration in fiscal year 2017, 
and we continue the development of the Next Generation Jammer.
    We are accelerating the purchase of P-8A maritime patrol aircraft 
to reverse the reductions that were made due to sequester cuts. Our 
plan is to complete the buy in fiscal year 2019 and have the entire 
inventory of 109 aircraft by the end of the FYDP. We are also 
addressing the future of our logistics support and carrier onboard-
delivery aircraft. This budget funds the purchase of 24 Navy V-22 
Tiltrotor aircraft across the FYDP, with an IOC for Navy squadrons of 
fiscal year 2021.
    In order to face potential adversaries who are building 
technologically advanced platforms and weapons of their own, we must 
move forward on our development of new and innovative systems. This 
budget funds the accelerated acquisition of the Long Range Anti-Ship 
Missile (LRASM), which will reach early operating capability on the B-1 
in fiscal year 2018 and with F/A-18s in fiscal year 2019. We are also 
continuing procurement of SM-6 missiles. Funding for the next leap 
forward in weapons technologies, such as the LaWS and railgun programs, 
are included as well as the precision-guided Hyper-Velocity Projectile 
(HVP) for both our 5-inch guns (by fiscal year 2019) and for the 
railgun once development is complete.
    The fiscal year 2016 budget also places priority on emerging 
capabilities in the cyber and electronic warfare efforts. We will 
continue to recruit and train top talent to form 40 cyber mission teams 
by the end of 2016. We also include funding for Operation Rolling Tide 
and the results of Task Force Cyber Awakening, which invests in 
enhancements to our networks for cyber defense-in-depth, including 
defense solutions for ships, security improvements for our command and 
control networks, and the expansion of some of our defense initiatives 
to tactical IT systems. The Navy is developing capabilities to deliver 
cyber effects from land and sea-based platforms. We are continuing the 
build of the Mobile User Objective System (MUOS) satellites with an IOC 
expected in fiscal year 2016 and the launch of the fifth satellite in 
late 2016.
    The Marine Corps end strength will hold at 184,000 marines for 2016 
while leadership assesses the impact of the drawdown that has been 
conducted over the past 4 years. This pause is for 1 year only. The 
marines will draw down to 182,100 under this budget in 2017. After 
coming down by 18,000 marines, we need to ensure we have the right 
number of small unit leaders and their ability to prepare their marines 
for deployment. We must also make sure that units preparing for 
overseas operations have adequate time and ability to train and to 
maintain unit cohesion.
    The Marine Corps will begin procurement and testing of the next 
generation ground combat maneuver capability, starting with the Joint 
Light Tactical Vehicle. We will also award engineering manufacturing 
and development contracts to two vendors to produce Amphibious Combat 
Vehicle 1.1 prototypes for testing and evaluations. The F-35B program 
also remains a high priority for the Marine Corps, and this budget 
ramps up production of airframes with the plan to stand up a third F-
35B squadron by fiscal year 2018. These programs are important to our 
ability to maintain the Marine Corps as the Nation's expeditionary 
force-in-readiness. Our ability to remain forward engaged and ready to 
respond to crisis is dependent on the readiness of our forward deployed 
and home station units. The Marine Corps must remain the most ready 
when the Nation is least ready.
    Our support for our sailors and marines and their families is 
evident in the personnel initiatives in this budget, many of which were 
described earlier. We are continuing the Compensation Reform and 
Quality of Service initiatives that we first proposed in the budget for 
fiscal year 2015. This includes increasing our requested pay raise from 
1.0 percent to 1.3 percent in fiscal year 2016. To ensure fairness 
across the force, this budget also makes certain that every active duty 
family members has the option to receive health care with no co-pays/
cost share regardless of their assigned duty station, including remote 
locations. The re-investment in our talented and innovative workforce 
also continues from the fiscal year 2015 budget to this one, including 
the new sea duty incentive pays and bonuses, barracks improvements for 
our junior personnel, and improved fleet training and spares 
availability to ensure our men and women have the tools they need to 
get their jobs done.
    The American people have every right to expect that after coming 
out of two wars there would be savings in the defense budget. Our 
Department is continuing its reform of acquisition practices, including 
fundamental changes to how we contract for services. We are 
establishing additional discipline in the contractual services 
process--from requirements to tracking to execution to surveillance--
that ensures the integrity of the system remains high and to guard 
against fraud. Also, as a result of reformed contracting processes, we 
fully expect in this budget to achieve the reductions in contractual 
services that we began in last year, realigning those resources to 
buying more material equipment and readiness for the force.
    We continue to aggressively implement acquisition practices that 
improve the return for each taxpayer dollar we spend. Improved 
management of requirements, multiyear procurements, appropriate 
incentive contracts, additional competitions, and small business 
initiatives are but a few of the tools we are using to maximize the 
return on each dollar we invest on behalf of the taxpayer. However, the 
way some of the budget reductions have been executed in the law, 
through continuing resolutions and the sequester, have made planning 
virtually impossible and have not allowed us to approach reductions in 
a strategic way. After the initial return of a moderate amount of 
stability following last year's Bipartisan Budget Act and the recent 
Omnibus Spending Bill, the President's Budget for fiscal year 2016 
continues this stability to the Department's planning for the future. 
In order to maintain our constitutional responsibility to ``provide for 
and maintain a Navy,'' we must work together to ensure that our Navy 
and Marine Corps remain the most powerful expeditionary fighting force 
in the world.
    Over the past 3 years, the Navy and Marine Corps have had to make 
tough choices across a wide range of competing priorities in order to 
deal with funding instability. This proposed budget submission for 
fiscal year 2016 maintains the minimums necessary to accomplish the 
missions required by the DSG. We continue to accept some risk to our 
capacity to complete all ten of the missions, and we have continued 
reductions to the maintenance funds for our shore infrastructure, 
elements of our weapons capacity, and selected aviation accounts. While 
these reductions were seen as the most reversible, over a longer period 
of time the expenses have continued to add up. Because we have already 
taken these savings, a return to the funding level required by the 2011 
Budget Control Act certainly will have more dramatic impacts.
                               conclusion
    In 2015 we commemorate the bicentennial of the end of the War of 
1812. At the Battle of New Orleans a joint force of sailors, marines, 
soldiers, and volunteers repelled a veteran British Army, battle 
hardened by their war against Napoleon. From the Navy's small 
combatants and gunboats that attacked the landing force in Lake Borgne, 
to the gunnery crews who joined the Army's artillery on the field of 
battle at Chalmette Plantation, sailors and marines ensured the defense 
of our homeland against invasion. Only weeks later off the coast of 
Africa, Captain Charles Stewart and USS Constitution fought the war's 
final battle at sea, bringing an end to the conflict that established 
the U.S. Navy as a player on the world's stage.
    When America has called, the Navy and Marine Corps have always been 
there. Two hundred years ago our squadrons sailed for the shores of 
Africa and the Second Barbary War, having just concluded that decisive 
role in the War of 1812. One hundred and fifty years ago, Admiral 
Farragut sailed up through Mobile Bay during the Civil War. One hundred 
years ago, as the first World War began, we prepared for convoy 
operations and anti-submarine missions in the battle for control of the 
Atlantic. Seventy years ago, sailors and marines fought their way 
across the Pacific toward Japan. For all of those 200 plus years, and 
continuing today, the Navy and Marine Corps have been ready to fight 
and to win our Nation's wars, whether coming from the sea or on, above 
or beneath the sea.
    Today, from the coast of Africa to the wide expanse of the Pacific, 
from the Arctic to the Antarctic, our sailors and marines continue to 
deploy to protect and defend the American people and our national 
interests. They, and our Navy and Marine Corps civilians, continue to 
ensure that America's Away Team is ready and present around the world, 
prepared for action in times of crisis or working with our partners in 
in times of peace.
    The United States of America faces an international security 
environment full of uncertainty. To face that world, the funding levels 
in the Department of the Navy's proposed budget for fiscal year 2016 
reflect the resources required to rapidly respond to a diverse scope of 
contingencies spanning extremist organizations, pandemic diseases and 
natural disasters, while continuing to deter assertive actors across 
the globe through our expeditionary presence and dominant warfighting 
capability. These investments will continue to provide the best value 
in dealing with that dynamic security environment, as well as securing 
and strengthening our own and the global economy.
    In order to ensure that we continue to provide the Navy and Marine 
Corps our Nation's leaders the American people have come to expect, the 
Commandant and Chief of Naval Operations and I look forward to working 
with this committee and Congress. From maintaining our momentum on our 
plan to build to a fleet of 304 by the end of the decade, to our 
continued efforts to purchase the aircraft, vehicles and weapons 
detailed in our budget submission, to the priority of ensuring we 
maintain and retain the talented sailors, marines, and civilians who 
make it all possible, we will need to work together. We look forward to 
answering your questions, at this hearing and in the future. We will 
continue to work to provide for, and maintain, our Navy and Marine 
Corps because, as President Theodore Roosevelt once said, ``A good Navy 
is not a provocation to war. It is the surest guaranty of peace.''
      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
      
    Chairman McCain. Thank you, Mr. Secretary, and the complete 
statements that have been submitted by all three of you will be 
included in the record.
    General Dunford?

STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., COMMANDANT OF THE 
                          MARINE CORPS

    General Dunford. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, I am honored to be here 
today with Secretary Mabus and Admiral Greenert to represent 
your marines. I will begin by thanking the committee for your 
steadfast support. Due to your leadership, we have fielded the 
best trained and equipped Marine Corps our Nation has ever sent 
to war.
    I know this committee and the American people have high 
expectations for Marines as our expeditionary ready force. You 
expect your Marines to operate forward, engage with our 
partners, deter potential adversaries, and respond to crises, 
and when we fight, you expect us to win. You expect a lot from 
your marines, and you should. This morning as you hold this 
hearing, over 31,000 marines are forward deployed and engaged 
in doing exactly what you would expect of them.
    Our role as the Nation's expeditionary ready force informs 
how we man, train, and equip the force. It also prioritizes the 
allocation of resources that we receive from Congress. Over the 
last few years, we have prioritized the readiness of our 
forward deployed forces. These are the forces you can count on 
for immediate crisis response. These are the forces that 
supported the recent evacuation of United States citizens in 
South Sudan, Libya, and Yemen. These forces are currently 
conducting strikes in Syria and Iraq, training the Iraqi army, 
and protecting our embassy in Baghdad. These are 22,500 marines 
in the Pacific west of the international dateline.
    I can assure you that your forward deployed marines are 
well-trained, well-led, and well-equipped, but we have had to 
make tough choices to deal with the effects of two wars, 
sequestration in 2013, and reduced budgets in 2014 into 2015. 
In order to maintain the readiness of our forward deployed 
forces, we have not sufficiently invested in our home station 
readiness, modernization, infrastructure sustainment, and 
quality of life programs. As a result, approximately one-half 
of our non-deployed units--those are the units you depend on 
for unforeseen contingencies--are suffering personnel, 
equipment, and training shortfalls. In a major conflict, these 
shortfalls will result in a delayed response and/or the 
unnecessary loss of American lives.
    Over time, under investing in modernization will result in 
maintaining older and obsolete equipment at higher cost and 
degraded capabilities. In many areas, funding levels are 
forcing us to maintain legacy capabilities instead of 
innovating and adapting for tomorrow's threats. It will 
eventually erode our competitive advantage, and we do not ever 
want our marines and sailors in an unfair fight.
    The readiness challenges we have today provide context for 
my message this morning. We can meet the requirements of the 
defense strategic guidance with the President's Budget, but 
there is no margin. BCA funding levels will exacerbate the 
challenges that we have today. It will also result in a Marine 
Corps with fewer available active duty battalions and squadrons 
than would be required for a single major contingency. Perhaps 
more concerning, it will result in fewer marines and sailors 
being forward deployed and in a position to immediately respond 
to crises involving our diplomatic posts, American citizens, or 
U.S. interests. As we saw in the wake of Benghazi, the American 
people expect us to respond to today's crisis today, and we can 
only do that if we are properly postured forward.
    In closing, my assessment is that funding below the 
President's Budget level will require that we develop a new 
strategy. Thank you once again for the opportunity to appear 
before you this morning and for your leadership in addressing 
today's fiscal challenges. I look forward to your questions.
    [The prepared statement of General Dunford follows:]
           Prepared Statement by General Joseph Dunford, USMC
                              introduction
    The Marine Corps is the Nation's expeditionary force-in-readiness. 
Congress, specifically and uniquely, structured and prescribed the role 
of the Marine Corps as a ``. . . balanced force-in-readiness, air and 
ground . . . to suppress or contain international disturbances short of 
large scale war.'' Under this mandate, marines are forward-deployed, 
forward-engaged, and postured to shape events, manage instability, 
project influence, and immediately respond to crises. As an inherently 
joint combined arms team, marines assure access and enable heavier 
contingency forces to deploy from the United States in response to a 
major contingency.
    Also, to meet the intent of Congress, the Marine Corps must 
maintain a high state of combat readiness. We look at readiness through 
the lens of our five pillars of readiness--high quality people, unit 
readiness, capacity to meet the combatant commanders' requirements, 
infrastructure sustainment, and equipment modernization. These pillars 
represent the operational and foundational components of readiness 
across the Marine Corps. Our role as America's 9-1-1 force informs how 
we man, train, and equip our force, and how we prioritize and allocate 
resources across the pillars of readiness. While we will always ensure 
that our forward-deployed marines and sailors are properly manned, 
trained, and equipped, we seek to maintain balanced investment across 
the pillars to ensure current and future readiness. We emphasize that 
all marines and all Marine units are physically and mentally ready to 
deploy to any clime and place, at anytime.
    The Marine Corps is a force of economy. For 6.0 percent of the 
defense budget, the Marine Corps provides 21 percent of the Nation's 
infantry battalions and 15 percent of the fighter/attack aircraft. 
These capabilities, organized as Marine Air Ground Task Forces with an 
organic logistical element, unprecedented complexity.
                          strategic landscape
    The challenges of the future operating environment will demand that 
our Nation maintains a force-in-readiness that is capable of global 
response. The strategic landscape will be characterized by competition 
for natural resources, violent extremism, natural disasters, social 
unrest, cyber-attacks, regional conflict, and proliferation of advanced 
weaponry and weapons of mass destruction. The expansion of modern 
conventional and cyber weapons to a broader range of state and non-
state entities, along with the erosion of U.S. technological advantages 
in areas where we have long enjoyed relative superiority, is likely to 
continue. Further, the actions of transnational criminal organizations 
and violent extremist groups will continue to contribute to regional 
unrest and instability that directly threaten U.S. interests through 
piracy, trafficking and terrorism. The United States must expect a 
security landscape characterized by volatility, instability and 
complexity, and a growing potential among adversaries to employ weapons 
of mass destruction.
    As marines, we view global security challenges from a maritime 
perspective. The majority of these challenges reside in the congested 
and diverse areas where the sea and land merge--the littorals. Today, 
more than 80 percent of the world's population currently resides within 
100 miles of a coastline and this proportion is continuing to rise. 
Most maritime activities such as commercial shipping, fishing, and oil 
and gas extraction take place within 200 miles of the shore. It is no 
accident that the so-called ``Arc of Instability'' encompasses the 
littoral areas of South Central Asia, the Middle East, Africa. These 
geographic and demographic trends indicate a future security 
environment with a significant maritime element.
    We expect that the next 10 years will be largely characterized by 
small-scale crises and limited contingencies in and around coastal 
environments. Should major operations and campaigns occur, they are 
likely to involve a significant maritime and littoral dimension. Ready, 
responsive, flexible, and strategically mobile naval forces are 
essential to ensuring continued access and security in the global 
commons. The increased likelihood of operations in the littorals 
demands the Marine Corps focus on its Title 10 responsibilities to be 
organized, trained, and equipped to come from the sea across the range 
of military operations.
    America's responsibility as a world leader requires an approach to 
the current and future strategic landscape that leverages the forward 
presence of our military forces in support of our diplomatic and 
economic approaches. As stated in the 2012 President's Defense 
Strategic Guidance, ``The United States will continue to lead global 
efforts with capable allies and partners to assure access to and use of 
the global commons, both by strengthening international norms of 
responsible behavior and by maintaining relevant and interoperable 
military capabilities.'' The Marine Corps' unique capabilities support 
this strategic approach.
                              your marines
    In 2014, marines responded to crises around the world and remained 
forward-deployed and forward-engaged managing instability, building 
partner capacity, strengthening alliances, and projecting influence. 
Your marines demonstrated the relevance of expeditionary naval forces 
by executing more than 30 amphibious operations, 150 Theater Security 
Cooperation (TSC) events, and 130 exercises around the globe. While we 
have drawn down our forces in Afghanistan, our operational tempo 
remains extraordinarily high. Most marines in the operating forces are 
is a strong demand signal for marines and tailored Marine Air Ground 
Task Forces.
Operation Enduring Freedom--Afghanistan
    In 2014, the Marine Corps contributed to the mission in Afghanistan 
by training, advising and assisting the Afghanistan National Security 
Forces (ANSF) and supporting the fight against terrorism in Southwest 
Asia. Our operations focused on ensuring the success of the Afghanistan 
elections in the summer of 2014 and transitioning security 
responsibilities to the ANSF. With marines serving in an advisory 
capacity, the ANSF retained control of all district centers in Helmand 
Province. Regional Command (SW) also turned over operational 
responsibilities to the International Security Assistance Force Joint 
Command facilitating redeployment of Marine Expeditionary Brigade-
Afghanistan (MEB-A) to home station. Today, a residual Marine presence 
continues to support the Resolute Support Mission (NATO)/Operation 
Freedom's Sentinel (United States) in Afghanistan.
    In more than 13 years of combat operations, 377 marines were killed 
and 4,946 injured in Afghanistan. We remember their selfless service 
and many sacrifices. Our success in RC-SW is directly related to the 
high quality men and women in our ranks, the training that prepared 
them to face the rigors of combat, and the equipment that provided 
protection and a tactical edge over the enemy. Due to the enduring 
support ofCongress and the American people, the marines who fought in 
Afghanistan had the training and equipment necessary to accomplish the 
mission. The full support of Congress for a variety of initiatives such 
as Mine Resistant Armor Protected Vehicles and upgraded individual 
protective equipment saved lives and enhanced combat effectiveness.
Amphibious Ready Group/Marine Expeditionary Unit (ARG/MEU) Operations
    Our preferred method of deploying our marines is aboard Navy 
amphibious ships to form ARG/MEU Teams. These are the Nation's most-
ready, forward-postured forces. This capability provides strategic 
speed, agility, and options to our National Command Authority. They 
operate in international waters retaining flexibility for the 
geographic combatant commander (GCC) while respecting the sovereign 
territory of individual nation states. The ARG/MEU team can respond 
faster from longer ranges with greater capabilities across the ROMO 
than any other conventional forces in the Department of Defense (DOD) 
and are also capable of enabling joint, interagency, and coalition 
forces. In 2014, the 11th, 13th, 22d, 24th, and 31st Marine 
Expeditionary Units (MEU) deployed and contributed to combatant 
commander requirements by participating in numerous exercises and 
operations throughout the U.S. Central Command (CENTCOM), U.S. Pacific 
Command (PACOM), U.S. Africa Command (AFRICOM), and U.S. European 
Command (EUCOM) areas of responsibility (AOR). When required, the ARG/
MEU has the scalability and versatility to respond to simultaneous 
emergencies. Last summer, the 22d MEU/Bataan ARG was operating in the 
CENTCOM AOR conducting operations in Yemen. When needed, elements of 
the ARG/MEU rapidly transited into the Mediterranean Sea to support the 
suspension of embassy operations in Libya and relocation of its staff. 
During their return, they launched a force over 1,200 miles to 
contribute to the initial response to counter the Islamic State of Iraq 
and Syria. Concurrently, elements of the ARG/MEU continued to support 
United States operations in Yemen. Over the last year, we have also 
increased collaboration with SOF, significantly improving our 
complementary capabilities.
    Due to their forward presence, flexibility, ability to respond 
quickly and the decision space they afford our leaders, ARG/MEUs 
continue to be in high demand. Unfortunately, the Navy and Marine Corps 
can meet less than half of the GCC ARG/MEU crisis response force demand 
Corps forces stand ready aboard ships to assure allies, deter potential 
adversaries, and provide persistent U.S. presence. Our marines are 
forward deployed, with little to no footprint ashore, to respond and 
protect U.S. national security interests around the globe.
Special Purpose Marine Air Ground Task Force--Crisis Response 
        Operations
    With the high demand for Marine crisis response capabilities and 
the shortage of amphibious platforms from which to forward deploy 
forces, Special Purpose Marine Air Ground Task Force-Crisis Response 
(SPMAGTF-CR) were developed. While they don't provide the flexibility 
and responsiveness of an ARG/MEU, they mitigate a capability gap for 
the combatant commanders. Our SPMAGTF-CRs are tailored to respond to 
crisis and also conduct security cooperation activities with partner 
nations in order to develop interoperability, facilitate access, build 
partner capacity and security relationships, and gain regional 
understanding. This past year, SPMAGTF-CR units assigned to AFRICOM 
positioned forward in Moron, Spain, and Signonella, Italy safeguarded 
the lives of our diplomatic personnel and conducted military-assisted 
departures from the United States Embassy in South Sudan in January and 
our embassy in Libya in July. The Marine Corps SPMAGTF-CR unit assigned 
to CENTCOM (SPMAGTF-CR-CC) became fully operational on 1 November 2014 
and deployed to the CENTCOM AOR. Since November, SPMAGTF-CR-CC 
conducted embassy reinforcement, TSC exercises, and provided critical 
aviation and ground capabilities in the fight against ISIL. Most 
recently, marines from SPMAGTF-CR-CC supported the evacuation of our 
Embassy in Sana'a, Yemen. A third SPMAGTF deployed in support of U.S. 
Southern Command from June to September aboard USS America on her 
transit around the South American continent and The placement of these 
Marine Corps tailored task force capabilities forward, where GCCs need 
them, provides enhanced diplomatic protection and additional crisis 
response options.
Marine Corps in the Pacific
    The Marine Corps' activities in the Pacific are led by III Marine 
Expeditionary Force (III MEF) headquartered on Okinawa, Japan. This 
past year, III MEF conducted 52 operations and exercises. In 2014, III 
MEF conducted Exercise SSong Yong--the largest amphibious exercise of 
the year with our Korean allies further demonstrating the United States 
commitment to South Korea. III MEF plays an important role in 
maintaining stability in East Asia and significantly contributes to 
peace and prosperity throughout the region. A number of TSC exercises 
were conducted using Maritime Prepositioning Ships. While these 
platforms were designed to deliver heavy equipment for a major 
contingency, adapting them for day-to-day engagement enabled us to 
better support the combatant commander's theater campaign plan and 
mitigated the number of amphibious lift in the Pacific.
    The Marine Corps continues to rebalance its force lay-down in the 
Pacific to support the Defense Strategic Guidance (DSG). The 
Distributed Laydown's planned end state of four geographically 
distributed, politically sustainable and operationally resilient MAGTFs 
in the Pacific (Australia, Guam, Japan, and Hawaii) is a long-term 
effort that will span the next 15 years. In 2014, we met the Secretary 
of Defense's guidance to have 22,500 marines west of the International 
Date Line, forward based and operating within the Asia-Pacific Theater. 
Marine rotational force-Darwin (MRF-D), based at Robertson Barracks, is 
in its third year of execution, and has rotated 1,263 marines through 
Darwin conducting bilateral training and exercises. This capable of 
Humanitarian Response/Disaster Relief (HA/DR), TSC, and crisis response 
operations. MRF-D has strengthened our alliance with our Australian 
allies and provided the GCC an immediate response option in the wake of 
an unforeseen crisis.
Black Sea Rotational Force, Embassy Security Forces, and Theater 
        Security Cooperation
    Marine Corps operational commitments span across all GCCs 
contributing to stronger alliances, stable international order, and 
security for our diplomatic stations. In the Republic of Georgia, the 
Marine Corps prepared three Georgian infantry battalions for their 
deployment to Afghanistan. There, the Georgian forces provided force 
protection and executed Quick Reaction Force (QRF) missions as the ISAF 
mission transitioned to the Resolute Support Mission. Enabling the 
deployment of Georgian battalions reduced the requirement for United 
States forces in Afghanistan while providing the commander with the 
requisite capabilities.
    In support of our strong commitment to the security and stability 
in Europe, Marines of the Black Sea Rotational Force (BSRF) mission 
conducted hundreds of TSC activities in EUCOM and provided a 
significant crisis response option for the EUCOM commander. 
Additionally, Fleet Anti-Terrorism Security Teams provided forward-
deployed platoons to four geographic combatant commanders in support of 
dynamic mission tasking such as embassy reinforcement in Baghdad, Iraq 
and Sana'a, Yemen.
    The 2015 President's National Security Strategy emphasizes the 
security of American citizens. This past year the Marine Corps worked 
closely with the State Department to increase baseline security at high 
risk embassies and consulates. Today marines are routinely serving at 
173 embassies and consulates in 141 countries around the globe. In 
2014, the Marine Corps Embassy Security Group added 237 Marine Security 
Guards (MSG) to new and current posts including Iraq, Lebanon, and 
Turkey. These marines represent our initial installment towards the 
additional 1,000 MSG requirement from Congress. The Marine Security 
Augmentation Unit (MSAU) also deployed 29 times at the request of the 
State Department executing 16 Embassy/Consulate security missions and 
13 VIP (POTUS/VPOTUS/SECSTATE) security missions. MSAU marines deployed 
to Iraq, Israel, South Korea, Chad, China, Poland, Philippines, France, 
Bahrain, Romania, Australia, Brazil, United Kingdom, Kenya, Ukraine, 
South Sudan, Turkey, Mexico, and Thailand.
                   fiscal year 2016 budget priorities
    The President's Budget for fiscal year 2016 (PB16) allocates $24 
billion to the Marine Corps' baseline budget. To meet our 
responsibilities as the Nation's 9-1-1 force, we prioritized near-term 
readiness while assuming risk in our home station readiness, 
modernization, infrastructure, and quality-of-life programs. We will 
attempt to reestablish an acceptable balance across the five Pillars of 
Readiness across the Future Years Defense Plan (FYDP). The following is 
a detailed description of the Marine Corps' budget priorities supported 
by PB16 of Force Structure, ACV, Joint Light Tactical Vehicle (JLTV), 
JSF, CH-53K, C4, and naval programs of interest.
Force Structure
    In 2010, the Marine Corps' internal force structure review 
concluded that the Marine Corp's optimal size to meet the requirements 
of the President's National Security Strategy was 186,800. This optimal 
size gives the Marine Corps the capacity we need to meet current steady 
state demand with a deployment-to-dwell (D2D) ratio greater than 1:2. 
We continue to support this review and conclusion. Today, the Marine 
Corps continues to execute its end strength reductions that began 
during fiscal year 2012, reducing the Corps from a high of 202,000. The 
Marine Corps is adjusting its active duty end strength to 182,000 
marines by 2017, emphasizing the enduring requirement to provide crisis 
response forces that meet today's demand. We can meet the DSG at this 
level, but with less than optimal time between deployments to train and 
allow marines to be with their families.
    Our most significant readiness challenge is the gap in the numbers 
of unit leaders with the right grade, experience, technical and 
leadership qualifications associated with their billets. Specifically, 
our current inventory of noncommissioned officers (NCO) and staff 
noncommissioned officers (SNCOs) is not meeting our force structure 
requirements. This dynamic directly affects our training, maintenance, 
and discipline resulting in degraded readiness and combat 
effectiveness. The Marine Corps' PB16 military personnel budget funds a 
fiscal year 2016 end strength of 184,000 in our base and supports 
right-sizing our NCO corps to provide our marines the small unit 
leadership they deserve.
Amphibious Combat Vehicle (ACV)
    The Marine Corps appreciates the support of Congress in 
restructuring the ACV program in the fiscal year 2015 appropriations 
bill. That action has set us on a path to publishing a Request for 
Proposals (RFP) to industry in March of this year and enables a truly 
'streamlined acquisition process. Leveraging the stability of the 
Services' requirements and the mature technologies of nondevelopmental, 
modern, wheeled, armored combat vehicles, the combat developers and 
acquisition professionals have developed a way forward to field a 
capability for the marines in as little as 6 (vice 13 or more) years. 
Consistent with Marine Corps Ground Combat and Tactical Vehicle 
Strategy (GCTVS) and Expeditionary Force 21, the Amphibious Combat 
Vehicle (ACV) will be developed and procured in phases to incrementally 
field modern replacements for the aging Amphibious Assault Vehicle 
(AAV).
    The program is based on the most current threat projections and 
anticipated operational requirements, and is fully informed by the real 
world challenges that our marines have faced during 14 years of 
sustained combat. The ACV will provide our ground maneuver forces the 
ability to negotiate the challenging urban and cross-country terrain of 
the littorals while protecting them from ballistic and explosive 
threats and supporting them with precision heavy machine gun fire.
    The President's Budget fully funds ACV 1.1 within the FYDP. PB16 
will buy 86 vehicles over the FYDP or approximately 42 percent of the 
204 ACV 1.1 vehicles in the Approved Acquisition Objective (AAO). When 
Full Operational Capability (FOC) is achieved in fiscal year 2023, we 
will have modernized two Assault Amphibian (AA) Companies currently 
equipped with 4 decades old AAVs with 204 new vehicles. ACV 1.1 plus 
the 1.2 increment are currently planned to modernize 6 of 10 AA 
Companies. With PB16 funding, the Marine Corps will achieve Initial 
Operational Capability (IOC) which consists of an ACV platoon of 21 
armored vehicles, providing protected amphibious lift to an infantry 
company. IOC is achieved when the platoon is fully equipped, the unit 
is fully trained and judged combat ready for deployment, and the 
required maintenance and support personnel are in place to sustain the 
unit.
    The need for self-deploying, high-water speed vehicles remains our 
ultimate objective. The capability to come from the sea and operate in 
the littorals will be significantly dependent on the speed at which we 
can maneuver. ACV 1.1 provides a responsible and effective approach to 
mitigating the age of our AAV fleet while investing in needed 
capabilities for tomorrow. We will continue to prioritize our science 
and technology efforts to field an amphibious combat vehicle that will 
fully support our operating concepts in the future.
Joint Light Tactical Vehicle
    Over the past 14 years of combat, we found that the HMMWV utility 
vehicle was not adequate for the modern battlefield due to its 
vulnerability to improvised explosive devices (IED). In 2006, we began 
development of a light tactical vehicle that could combine the land 
mobility performance, transportability profile and payload of the HMMWV 
with the protection of a combat vehicle within the weight constraints 
of the expeditionary force. Today, the Joint Light Tactical Vehicle 
Program has three exceptionally strong designs in competition that will 
realize the initiating concept in production and deployment while 
increasing the protected mobility of the highest risk portion of the 
light combat and tactical vehicle fleet.
    The JLTV program is in the engineering and manufacturing 
development (EMD) phase with Milestone C and the low rate initial 
production contract award scheduled for fiscal year 2015. The PB16 
supports the Marine Corps' strategy to reach IOC for JLTV in the fourth 
quarter of fiscal year 2018 and FOC in the fourth quarter of fiscal 
year 2021. IOC consists of one infantry battalion fully fielded with 
the JLTV plus a training element.
    Maritime Prepositioning Force (MPF), MARSOC, and critical 
supporting establishment training units will also be allocated a 
portion of PB16 funded vehicles. Vehicles will be allocated by unit 
based on the JLTV Fielding Plan, currently in development in support of 
Milestone C decision in the fourth quarter of fiscal year 2015. PB16 
will buy 4,476 vehicles over the FYDP, or approximately 80 percent of 
the increment 1--5,500 vehicles--Approved Acquisition Objective (AAO).
Joint Strike Fighter
    Our tried and true F/A-18s, AV-8Bs, and EA-68 Prowlers have 
performed magnificently in combat in Iraq and Afghanistan, providing 
our Marine riflemen the fires they needed, in every clime and place 
from sea bases large and small, and expeditionary bases ashore. With 
the help of Congress, we have kept these aircraft as modern as possible 
and extracted every ounce of readiness we can from them; however, the 
high operational tempo has pushed these aircraft to more rapidly 
approach the end of their service lives. Due to the uncertainty 
prevalent in today's global security environment, the Nation requires 
we maintain a capability to respond quickly in contested regions 
regardless of weather conditions. The F-35 Joint Strike Fighter (JSF), 
as part of the MAGTF, meets the Nation's needs.
    The Marine Corps remains committed to the recapitalization of our 
aging TACAIR fleet through the procurement of the F-35. The JSF brings 
a new capability to the battalion sized forces that sail with our 
Marine Expeditionary Units. Today, there are a multitude of high risk 
regions where a crisis response operation would require large joint 
strike packages to soften or blind the threat. These packages would 
have to include cruise missiles, fighter aircraft, electronic warfare 
platforms, aircraft which specialize in suppression and destruction of 
enemy air defenses, and strike aircraft--just for U.S. forces to gain 
access. Such strike packages require coordination across Services and 
combatant commands and take weeks and months to assemble. This same 
kind of access can be attained with a single detachment of four to 
eight F-35s--the same sized detachment which will reside with a Marine 
Expeditionary Unit. For major contingencies, a surge of F-35s to our 
amphibious carrier decks and forward austere bases enables even greater 
options and striking power. The F-35 provides a transformational 
capability to the Marine Corps and the Joint Force. It gives our Nation 
a day one, full spectrum capability against the most critical and 
prohibitive threats.
    The Marine Corps prioritizes putting our TACAIR as close to our 
infantry as we can by basing them from amphibious carriers or austere 
Forward Operating Bases and Forward Arming and Refueling Points ashore. 
This places the F-35's transformational capabilities in the hands of 
the infantry marine. The Marine rifleman is now supported immediately 
with close air support, electronic warfare capabilities, and 
intelligence, surveillance, and reconnaissance support in threat and 
weather conditions which previously would have denied aviation support. 
The F-35's ability to develop, process, and display information to the 
pilot and disseminate it at tactical, operational, and strategic levels 
is what makes the platform truly unique, ``a server in the sky'' for 
the MAGTF. The sensors and communications equipment of our F-35s allow 
pilots and forward air controllers to see through the clouds to 
exchange high fidelity pictures in environments we would consider a no 
go today. Enhancing the C2, strike and intel capabilities of the MAGTF 
commander, the F-35 transforms the MAGTF into an element capable of 
penetrating any AOR in the world to set the conditions necessary to 
enable follow-on forces.
    The Marine Corps has maintained the lead in this transformational 
platform. The F-358 and C models will replace the over 23-year-old F/ 
A-18 Hornet, 18-year-old AV-88 Harrier, and the 27-year-old EA-68 
Prowler; the same aircraft that have been passed from fathers to sons 
and daughters now serving. We have stood up our first two squadrons 
ofF-35Bs and will stand up a third in 2016. PB16 supports the Marine 
Corps' timeline to achieve IOC of its first F-358 squadron later this 
year and complete full transition by 2031. With the OPTEMPO expected to 
remain high, we will transition to F-35s as rapidly as possible. 
Continued congressional support for this transition is key to 
increasing our degraded aviation readiness and minimizing our exposure 
to ever increasing operations and support costs for aged aircraft.
CH-53K
    The CH-53E, the Marine Corps' heavy lift helicopter, is the only 
vertical heavy lift helicopter in DOD. Like its predecessors, the CH-
53A/D, the CH-53E has continued a proud lineage of worldwide support of 
the Marine rifleman and Joint Force in various tactical and logistical 
capacities. Though a workhorse for the Marine Air Ground Task Force 
since its acquisition, the CH-53E does not have the capacity to support 
the Marine Expeditionary Brigade of2024 with the payloads and ranges 
required to support the ship-to-objective maneuver concepts outlined in 
Expeditionary Force 21. Our CH-53 recapitalization effort is 
instrumental in maintaining a true heavy lift capability for the Marine 
Corps and the Nation for the future. Developmental testing is currently 
underway and the first flight of the CH-53K is scheduled for 2015 with 
an Initial Operational Capability in 2019. PB16 is instrumental in 
providing critical funding for the last test articles in support of a 
Milestone C decision in 2016.
    The CH-53K will meet all of the requirements of the modern Marine 
Expeditionary Unit and Marine Expeditionary Brigade and remain the only 
heavy lift rotary wing asset in the DOD inventory. The CH-53K is a 
state-of-the-art heavy lift vertical connector providing increased 
reliability, range and lift for the Marine Air Ground Task Force and 
Joint Force. The mainstay for the CH-53K will remain heavy lift 
external operations. To this end, its key performance parameter is the 
ability to externally transport a load weighing 27,000 pounds 110 
nautical miles, nearly three times the capability of the CH-53E. 
Additionally the CH-53K will incorporate a triple hook system, 
facilitating the delivery of three independent loads, to three 
different locations, in support of three separate units dispersed 
across the battlefield. The new cabin will support the transportation 
of the DOD standard 463L pallet enabling more efficient ``tail-to-
tail'' logistical transitions with C-Ss, C-17s, and C-130s. The 
implementation of civil sector logistical advancements will facilitate 
near real time situational awareness of all cargo and passengers 
embarked and delivered by the CH-53K. The CH-53K will provide precision 
and tempo for the Marine rifleman, enabling mission success.
    PB16 provides Research, Development, Test and Evaluation (RDT&E) 
funding for the continued CH-53K System Development Demonstration 
contract which includes continued design, part qualification, 
developmental and operational test. Additionally, PB16 provides ROT&E 
funding for the incremental procurement of System Demonstration Test 
Articles 5 and 6, which will be used to ensure production readiness, 
quality system verification, and production planning and validation. We 
remain committed to our Program of Record of 200 CH-53Ks in order to 
keep Marine Corps' heavy lift assets relevant and effective for the 
marine on the ground in the future MAGTF.
Command, Control, Communications, and Computers (C4)
    Deployed warfighters require access to the right data at the right 
place at the right time. The demand for information will not tolerate a 
break in access. With the speed in which technology evolves today, we 
must continue to grow C4 capabilities down to the operational level. 
Information must be available through multiple mediums, from flag pole 
to fighting hole. Our end state is to enable command and control in an 
information enterprise that supports the way the Marine Corps operates, 
which includes a range of missions from crisis response to supporting 
our Expeditionary Force 21 concept--all characterized by mission-
tailored forces. A single Marine Corps network will support the Marine 
Corps' component of the Joint Information Environment.
    Our main focus today is unifying our networks to seamlessly connect 
the deployed and engaged forces to joint information and data. This 
provides our marines, sailors, and supporting personnel the persistent 
information needed to conduct operations. We continue to increase our 
cyber capacity with trained personnel and emergent technology to 
protect this critical data.
    The Marine Corps must retain the ability to rapidly support the 
extension of the Marine Corps' information and data services to enhance 
our rapid response to crisis, provide contiguous command and control to 
a disaggregated force, and scale to support theater security and major 
combat operations. We will continue to invest in C\4\ down to the 
corporals and sergeants. This will allow our front line Marine rifleman 
to be more agile, lethal and responsive by directly leveraging the 
capabilities of the F-35 and communicating better with Special 
Operations Forces.
Naval Integration and Programs of Interest
    As the Service with primary DOD Directive and Title 10 
responsibility for the development of amphibious doctrine, tactics, 
techniques, and equipment, our capabilities are reliant on the Nation's 
investment in our partnered Navy programs. Naval integration will 
increasingly form an important component of our exercise and 
experimentation programs. The Marine Corps fully supports the Secretary 
of the Navy and CNO's efforts to balance amphibious platforms and 
surface connectors that facilitate operational maneuver from the sea 
and ship-to-objective maneuver with the other service requirements of 
the Navy.
    The President's Budget investments in LPD-28, LX(R), and ship-to-
shore connectors demonstrate our commitment to global maritime presence 
and the Nation's mandate to sustain an amphibious capability that can 
respond to deter, deny, and defeat threats on a global scale. We 
appreciate Congress providing a substantial portion of funding to 
procure a l2th LPD. The enhanced mission profiles of these new and 
additional platforms create operational flexibility, extended 
geographical reach, and surge capabilities to the geographical 
combatant commands.
    Naval investments in alternative seabasing platforms expand access 
and reduce dependence on land bases, supporting national global 
strategic objectives and providing operational flexibility in an 
uncertain world. The naval seabasing investments in the Mobile Landing 
Platform, the Large Medium-Speed Roll-on/Roll-off Ship (LMSR) strategic 
sealift ship, and the T-AKE Dry Cargo and Ammunition Ship as part of 
the Maritime Prepositioning Ship Squadrons, coupled with the Joint High 
Speed Vessel (JHSV) and connectors, provide the additional lift, speed, 
and maneuver necessary to augment Navy and Marine Corps future security 
capabilities. Although not a substitute for amphibious warships, these 
alternative lift platforms will complement amphibious ships.
    While the President's Budget moves us in the right direction, it 
will take many years and a sustained effort to address the risk in the 
current number of amphibious ships and to address the material 
readiness of our current inventory. The Marine Corps will continue to 
work closely with the Navy to implement the 30-year ship building plan 
and to address the current readiness challenges.
                               readiness
    Proper balance across the five Pillars of Institutional Readiness 
is the most effective means of achieving a force capable of rapidly 
responding to challenges across the range of military operations while 
remaining good stewards of the Nation's resources. The five Pillars of 
Institutional Readiness involves operational readiness (i.e. Unit 
Readiness, and Capacity and Capabilities to Meet Requirements pillars) 
and foundational readiness (i.e. our investments in High Quality 
People, Infrastructure Sustainment, and Equipment Modernization 
pillars). The Marine Corps' ability to remain ready is enabled by the 
five pillars of readiness.
    Our current funding level protects near-term readiness; however, it 
does so at the expense of long-term modernization and infrastructure, 
threatening future readiness. We are funding critical readiness 
accounts to include: operating forces; depot, intermediate and 
organizational maintenance; repair and sustainment of training ranges, 
training and education, exercises, and fuel and repair parts. The 
Marine Corps is not adequately resourcing our non-deployed units; it 
will take time and sustained funding to address the deficiencies in 
personnel, equipment and training. This is a rational choice given the 
current fiscal situation, but it is not sustainable over time. 
Imbalance amongst the pillars for long periods will hollow the force 
and create unacceptable risk for our national defense. During these 
fiscally constrained times, we must remain ever vigilant in the 
allocation of resources to ensure the holistic readiness of the 
institution and ensure every dollar is going where it is needed most. 
Since 2012 our accounts are auditable. This gives confidence to the 
American people and commanders that we ask only for the amount of 
funding required to provide a lean, highly capable, mobile and ready 
force.
High Quality People
    Our marines and civilians are the foundation of all that we do. We 
succeed because of our focus on people. They are the primary means by 
which the Marine Corps meets its defense responsibilities. The 
resources we dedicate to recruiting, retaining, and developing high 
quality people directly contribute to the success of our institution. 
Our commitment to quality must never waver.
    Our success in maintaining an elite force begins with recruiting 
young men and women who possess the character, mental aptitude, 
physical and psychological fitness, and desire required to earn the 
title ``Marine.'' The Marine Corps is committed to recruiting and 
retaining high-quality people who meet prescribed physical and mental 
standards, and are ready in mind, body, and spirit to execute their 
duties in the defense of our Nation.
    Today, the Marine Corps does not have the proper level of personnel 
stability or cohesion in our nondeployed units. The practice of moving 
marines between units to meet manning goals for deployments creates 
personnel turbulence, inhibits cohesion, and is not visible in our 
current readiness assessment tools. This personnel turbulence affects 
our combat readiness and our ability to take care of marines. Moving 
forward, we will improve cohesion by increasing our preparedness across 
the force and emphasizing consistency of leadership, personnel 
stability, and sustained readiness across the force. The overhaul of 
our manpower management and readiness reporting models, systems, 
policies, and processes will allow us to minimize personnel turbulence, 
increase unit stability, and develop cohesion. We ask Congress to 
support these measures through appropriations of the funds we have 
requested in PB16.
    Our civilian workforce continues to be a significant force and 
readiness enabler to our institution. They reflect the same high 
quality standard that propels a ready force with many having previously 
worn the uniform of our Nation--68 percent are veterans. They also 
remain a lean portion of our organization at a ratio of only 1 
appropriated funded civilian to every 10 Active Duty marines. Our 
civilians are contributing where we need them most. With 95 percent 
working outside the National Capitol Region, our civilians are directly 
supporting marines and the mission at our bases, stations, depots, and 
installations. Without these civilians, we would be forced to assign 
uniformed marines to these tasks taking away leadership and capacity in 
operational units.
    Our civilian workforce grew post-September 11, in large part due to 
military-to-civilian conversions, which allowed marines to move from 
support billets to the operating force. A Department-wide focus on 
insourcing, new requirements (e.g. cyber), and necessary support for 
our military surge to 202,000 also played a role in the growth. In 
2009, the Marine Corps proactively began reducing civilian structure 
and personnel, and we are continuing to reduce our workforce by another 
10 percent, including 20 percent at headquarters.
    A key element in our overall readiness is family readiness. The 
family members of our Marines are very much a part of the Marine Corps 
family. Their sacrifices and support are not taken for granted. As we 
return from 14 years of major combat operations, the Marine Corps is 
repositioning our capabilities to deliver core programs and services 
that best meet the needs of today's marines and families. We are 
renewing our programs and services consistent with our reduced end 
strength, changing demographics, mission, and budget environment. We 
are emphasizing the importance of maintaining a high level of 
readiness. Our Marine and Family Programs exist to support unit mission 
readiness, and individual health and wellness goals. In order to 
maintain the high standard of family support, we will develop a plan 
with a bias toward decentralizing decisionmaking and resource 
allocation. These programs and their impact on our marines will 
continue to be an area we focus on to judge our readiness. We thank 
Congress for your continued support of Marine and Family Readiness 
programs at the PB16 level.
Unit Readiness
    Our operational tempo since September 11, 2001, has been high and 
remains high today. We expect this trend to continue. Your marines 
serving today in the operating forces are either deployed, getting 
ready to deploy, or have recently returned from deployment. Congress 
directed the Marine Corps to be the Nation's force-in-readiness. The 
current fiscal environment challenges the Marine Corps' ability to meet 
this mandate. In these circumstances, the Marine Corps has assumed some 
risks to fund unit readiness in the near term. The Corps provides units 
ready to meet core and assigned missions in support of steady state and 
crisis/contingency requirements. Our ability to sustain assigned 
mission requirements with units ready to deploy must be carefully 
managed while we continue end strength reductions.
    Over half of home-station/nondeployed units report unacceptable 
levels of readiness; nevertheless, the Marine Corps excels at 
generating ready units to meet operational requirements. Deployed units 
report high levels of readiness for core and assigned missions. 
Alternately, the ability of nondeployed units to conduct full spectrum 
operations continues to degrade as home-station personnel and equipment 
are sourced to protect the readiness of deployed and next-to-deploy 
units. We must remain cognizant that our home-stationed units 
constitute the ``ready forces'' that would surge to conduct full 
spectrum operations required in major contingencies. As the Nation's 
first responders, the Marine Corps' home stationed units are expected 
to be in the same high state of readiness as its deployed units.
    Our home station units' ability to train is challenged. Time is an 
essential component required to fix worn equipment and train units to 
standard. Lower end strength and unit deployment to dwell (D2D) ratios, 
shortages in personnel and equipment at the unit level, and the paucity 
of amphibious and maritime prepositioning ships contribute to degraded 
full spectrum capability across the Service. For example, a D2D ratio 
of 1:2 means your marines are deploying for 7 months and home for 14 
months before deploying again. During that 14 month ``dwell,'' units 
are affected by personnel changes and gaps, ship availability 
shortfalls, equipment reset requirements, degraded supply storages, 
training scheduling challenges and more. These challenges factor into 
every unit's mission to remain consistently ready.
    Marine Aviation contains some of our most stressed units. The 
Marine Corps has 55 Active component squadrons, 3 of which (2 VMM and 1 
VMFA) are in transition. Of the remaining 52 squadrons, 33 percent are 
deployed and 17 percent are in workups to deploy. Our minimum readiness 
goal to deploy is T-2.0. Deployed squadrons/detachments remain well-
trained and properly resourced, averaging T-2.17. Next-to-deploy units 
are often achieving the minimum goal of T-2.0 just prior to deployment. 
Nondeployed squadrons experience significant resource challenges which 
manifest in training and readiness degradation, averaging T-2.96.
    The Marine Corps is applying resources to maintain the readiness of 
deployed and next-to-deploy units. Our focus is to continue to meet 
current requirements, while addressing the personnel, equipment, and 
training challenges across the remainder of the force. We are in the 
midst of a comprehensive review of our manning and readiness reporting 
systems. We will develop a detailed plan to enhance our overall 
readiness during 2015.
Capacity to Meet Combatant Commanders' Requirements
    We are committed to meet the expeditionary requirements of our 
combatant commanders. The Marine Corps' PB16 military personnel budget 
funds a fiscal year 2016 end strength of 184,000 on the way to 182,000 
in fiscal year 2017. The Marine Corps of 182,000 includes the 1,000 
additional MSG marines directed by Congress to protect more of our 
embassies abroad, the Marine contribution to the special operations 
component, Marine Cyber forces, and SPMAGTF's assigned to support 
multiple COCOMs. Marines assigned to Marine Special Operations Command 
and Marine Forces Cyber Command continue to significantly contribute to 
the needs of the COCOMs through specialized capability sets and as 
enablers for the joint force.
    In order to meet COCOM requirements, the Marine Corps will sustain 
a D2D ratio in the Active component force of 1:2 vice a more 
sustainable D2D ratio of 1:3. That is the fundamental difference 
between an optimal force structure of 186,800 marines and 182,000. The 
Marine Corps has some high demand/low density units that maintain a 
current D2D ratio of less than 1:2. The Marine Corps will continue to 
provide ready forces to meet COCOM demands, but we are carefully 
assessing the impact of reduced D2D ratios on our training and quality 
of life.
Facility Investments
    The President's Budget for fiscal year 2016 funds 81 percent of the 
Office of the Secretary of Defense (OSD) facilities sustainment model 
requirement for the Marine Corps (an increase over the fiscal year 2015 
level). The OSD guideline is to fund 90 percent of the requirement. We 
remain aware that underfunding facilities sustainment increases the 
rate of degradation of Marine Corps infrastructure, which leads to more 
costly repairs, restoration, and new construction in the future.
    Our installations are critical to our ability to train forces and 
be ready. They provide our training ranges and care for marines and 
their families. However, we are forced to take risk in sustaining 
current infrastructure in support of operational readiness. With the 
help of Congress, the Corps has made significant progress over the last 
8 years in replacing old, unsatisfactory buildings. Our MILCON is now 
focused primarily on new platforms and PACOM force relocation efforts.
    The most important mission of our installations is to enable 
operating force readiness. We do this by being responsible stewards of 
land, air, and water resources, and by being good neighbors in our 
local communities. These conservation efforts maintain our valuable 
training ranges and much needed air and sea maneuver corridors. A 
consistent emphasis on community partnering and engagement creates 
good-will, enhances family quality of life, and reduces encroachment 
risks to our bases and stations. Congressional support and community 
partnering have resulted in the addition of training areas at the 
Townsend Bombing Range in Georgia, the Chocolate Mountains Aerial 
Gunnery Range in both Arizona and California, and the Marine Corps Air 
Ground Combat Center in California. We are also making great strides in 
reducing energy consumption on our bases and stations. By lowering 
utility use we are reducing costs, protecting the environment, 
improving the resiliency of energy-dependent infrastructure and 
ultimately enabling operational readiness.
Equipment Modernization and Innovation
    For the last 14 years, the Marine Corps has focused our resources 
on providing the marines what they need for the current fight. 
Readiness remains our #1 priority to meet our national security 
responsibilities; however, our focus on the current fight coupled with 
our declining budget, has forced the Marine Corps to make difficult 
choices and reduce investment in modernization to maintain current and 
near-term readiness. In today's fiscal environment, the Marine Corps is 
investing only in essential modernization, focusing on those areas that 
underpin our core competencies.
    Though emphasis is placed on new or replacement programs such as 
the ACV, JLTV, CH-53K, and JSF, much of our modernization resources are 
focused on improving the capabilities and extending the life of current 
systems in order to fill the capabilities gaps that can be exploited by 
today's threats. These modernization efforts span from our AAVs to our 
current legacy aviation platforms.
    In order to balance modernization across the capabilities of the 
MAGTF, our top priorities for recapitalization and upgrades are the ACV 
and the F-358. Programs like ACV 1.1 with science and technology 
efforts for high-water speed, AAV survivability upgrades, Network On-
The-Move (NOTM), Ground/Air Task Oriented Radar (G/ATOR), JLTV, and 
aviation platforms such as the MV-22, CH-53K, and F-358 are required to 
modernize capabilities and provide the technology required to dominate 
our adversaries.
    Modernization consists of three elements: development of new 
technologies, the procurement of new capabilities, and investment in 
legacy systems. An over commitment in one element creates missed 
opportunities in another. The Marine Corps is investing heavily in 
legacy systems partially due to the time required to recapitalize 
needed capabilities. This necessary allocation with limited resources 
in turn results in less investment in areas needed for a rapidly 
changing world (i.e. live virtual training, digital interoperability, 
and connectivity across Service components). For example, the 
subcomponent shortfalls and age of the AAV fleet has led to lower 
reliability and increased risk in operational mission profiles. The 
need for recapitalization of the 42-year-old AAV is critical and the 
Nation cannot afford to gap this capability. The application of fiscal 
resources that would otherwise be focused on recapitalization and 
modernization is necessarily directed toward sustainment. Current 
maintenance for AAVs averages approximately $575,000 per AAV, per year 
with future depot maintenance costs growing to $700,000 per AAV in 
fiscal year 2016. This required allocation of precious resources works 
against our other modernization and recapitalization efforts.
    For our legacy aircraft platforms, the focus is on modernization to 
keep them relevant in today's fight while providing a bridge to our 
aviation recapitalization efforts. Rapid procurement of these new 
systems is critical to solving both our serious current and future 
readiness problems. Reduced modernization investment has also stretched 
our program timelines to the limit of their acquisition baseline. Any 
further extension of our program baselines could result in a Nunn-
McCurdy breach and reduce industry interest in producing limited 
production items. We have also delayed the procurement of other major 
programs like CAC2S so that we now will not reach full operational 
capability until fiscal year 2022 vice fiscal year 2018.
    Limited to essential modernization efforts, the Marine Corps 
forecasts critical issues due to underfunding in several areas 
including:

        <bullet> Recapitalization of our 30-year-old TRC-170 system 
        needed to provide alternate communications networks in degraded 
        spectrum contested environments.
        <bullet> The Marine Corps' Composite Tracking Network resulting 
        in the MAGTF's eventual inability to communicate with the 
        Navy's network and participate in their Cooperative Engagement 
        Capability.
        <bullet> Our ability to maintain Joint Interoperability with 
        other Services through the Tactical Communications 
        Modernization (TCM) program.
        <bullet> Continued underfunding of the NOTM program leaving two 
        thirds of our operating forces without the ability to conduct 
        mobile networking in distributed environments. Failure to 
        procure military satellite communications kits for, all fielded 
        NOTM systems, will result in continued reliance on expensive 
        (leased) commercial satellite communications (SATCOM) services.

    Modernization and innovation are more than just procurement 
programs. We must invest in MAGTF experimentation and test new tactics, 
techniques, procedures, gear and concepts that will allow us to meet 
future challenges. Inadequate resources toward modernization will 
further close the technological gap between our capabilities and our 
adversaries. Our adversaries continue to develop new capabilities 
seeking any technology overmatch in specific domains and functions. 
Increasingly capable threats, the proliferation of A2/AD weapons, and 
the aging of key material capabilities create challenges where we will 
pursue science and technology (S&T) to maintain our decisive 
technological advantage. We are maintaining our commitment to S&T, and 
we continue to look for opportunities to expand our efforts in this 
critical area.
                        special interest topics
Marine Corps Force Integration Program
    Since January 2013, the Marine Corps has opened 5,998 previously 
closed positions to women. We now have 94 percent of our Military 
Occupational Specialties (MOS) available to women. Some positions 
remain closed--mostly within infantry, artillery, tanks, and assault 
amphibian vehicle specialties. These specialties are the focus of 
ongoing Marine Corps research to establish occupationally specific, 
operationally relevant, gender-neutral physical standards.
    The Marine Corps continues its deliberate, measured, and 
responsible approach toward integrating female marines into previously 
closed occupational fields to the maximum extent possible. As the 
Marine Corps has studied gender integration, we have remained committed 
to high standards and combat effectiveness--from recruiting and entry-
level training (ELT) to performance in the operating forces.
    During this effort, the Marine Corps has evaluated gender 
integration from ELT to full mission profiles as a complete ground 
combat arms integrated unit. Since this time last year, the Marine 
Corps has established the Ground Combat Element Integrated Task Force 
(GCEITF). The GCEITF is a gender-integrated, ground combat arms unit 
designed specifically to support the most in-depth, detailed study of 
the physical demands associated with ground combat and the associated 
physical performance standards as well as the physiological predictors 
of success. The results from the GCEITF research will inform the 
establishment of occupationally specific, operationally relevant, 
gender-neutral standards based on the required individual physical 
contributions to mission-oriented collective tasks.
    The GCEITF along with our other research and assessment efforts 
will inform a recommendation on further integration to the Secretary of 
the Navy and the Secretary of Defense. That recommendation will be 
provided in late 2015.
Sexual Assault Prevention and Response
    The Marine Corps' Sexual Assault Prevention and Response (SAPR) 
mission is to develop and manage an evidence-based program that 
eliminates sexual assault within our ranks and provides world-class 
care to victims. Since fiscal year 2012, the Marine Corps has expended 
more than $16 million toward SAPR and special victim legal training 
initiatives.
    The Marine Corps continues to see an overall positive trend in 
closing the gap between the actual number of sexual assaults and those 
that are reported. While the prevalence of marines experiencing 
Unwanted Sexual Contact (USC) dropped from approximately 3,300 in 
fiscal year 2012 to approximately 2,300 in fiscal year 2014, the Marine 
Corps has seen an 89 percent increase in reports during that same time 
period. Closing the reporting gap is essential to both tackling the 
problem and providing supportive services to victims.
    The addendum to the SAPR Campaign Plan launched in 2012 was 
approved in April 2014 to build upon the positive momentum of the 
campaign thus far by extending the sustainment phase and incorporating 
additional tasks that strengthen SAPR capabilities. In July 2014, the 
Marine Corps released new training called ``Step Up'' that is designed 
specifically for junior marines, our highest at-risk population for 
sexual assault.
    The Marine Corps continues to improve victim services such as the 
credentialing and up staffing of SAPR victim advocates and the 
development of the Victims' Legal Counsel Organization, which has 
provided dedicated victim legal services to more than 680 clients 
including 388 victims of sexual assault. On the heels of positive 
indicators of SAPR progress, Headquarters Marine Corps' SAPR division 
is expanding its reach with an increased focus on prevention. Our goal 
is to eliminate sexual assault from our ranks. We believe that 
preserving the commanders' ability to lead in this area is a vital 
element of our continued improvement in this current issue.
Suicide Prevention
    Each tragic loss to suicide has far-reaching impact on families, 
friends, and our entire Marine Corps community. The Marine Corps 
embraces prevention efforts through a series of actions to foster hope 
and connection to those at risk for suicide. Community Counseling 
Services located on Marine installations worldwide increase access to 
care and assist marines, attached sailors, and their families with 
navigating available support resources. The Marine Corps' Marine 
Intercept Program uses licensed clinical providers in care coordination 
and outreach services for marines who are identified as having suicidal 
ideations or have attempted suicide. The DSTRESS resource also provides 
phone, chat, and Skype support 24 hours a day, 7 days a week, 365 days 
a year. The Marine Corps continues to support DSTRESS as a critical 
resource in suicide prevention.
    Suicide prevention remains a priority for the Marine Corps, and we 
will continue to apply the resources necessary to combat this difficult 
issue.
Wounded Warriors
    The Marine Corps' commitment to our wounded marines and their 
families is unwavering. Since 2007, the Wounded Warrior Regiment has 
provided meaningful recovery and transition assistance to wounded, ill, 
and injured marines, sailors in direct support of Marine units, and 
their families. Additionally, the WWR administers the Marine Corps' 
federally mandated Recovery Coordination Program, which seeks to 
integrate marines' medical and non-medical care.
    While the Marine Corps' reduced presence in Afghanistan will result 
in fewer combat casualties, non-combat injuries and illnesses will 
likely remain stable. In addition, instances of PTS and TBI will 
continue to increase due to delayed onset and as marines often delay 
seeking help.
    Our comprehensive capabilities create the optimal care to meet 
individual marine's needs. These capabilities include: Recovery Care 
Coordinators, District Injured Support Coordinators, WWR Transition 
Specialists, WWR Liaison Officers, and Wounded Warrior Hope and Care 
Centers. Our costs in personnel are more than just numbers. Ultimately, 
the cost of 14 years of war is calculated in lives. From March 2003 
through 7 January 2015, l,483 marines have given their lives and 13,992 
have been wounded in the service of our Nation. We remember their 
service and sacrifice and thank Congress for their continued support of 
our wounded warriors and their families. The Marine Corps will not 
forget the sacrifices our marines and sailors have made for the Nation.
Transition Readiness
    The Marine Corps makes marines, wins battles, and returns 
responsible citizens following active service. Every year, the Marine 
Corps returns approximately 35,000 marines to the civilian sector. The 
transition from uniformed service to contributing members of America's 
prosperity as civilians is significant to the economic health of the 
Nation. The technical expertise that marines have learned during their 
service has significant application value to the country in the 
civilian sector.
    Our transition readiness program is designed to prepare marines for 
transition to civilian life by preparing and connecting them with 
resources to successfully meet educational, employment, or 
entrepreneurship goals. Implementation of transition readiness seminars 
(TRS) and separate ``track options'' classes that align marines future 
personal and professional goals with hands-on application have created 
an enhanced transition experience for marines. In fiscal year 2014 and 
the first quarter of fiscal year 2015, TRS attendance exceeded 42,500.
    In fiscal year 2015, Marine Corps Credentialing Opportunities On-
Line (COOL) was launched. COOL is a credentialing awareness, 
information and resources capability for all marines, translating their 
Military Occupational Specialties into career development credentialing 
opportunities during and beyond their service. A leading example of the 
21st Sailor and Marine initiative, the establishment of Marine Corps 
COOL with the Navy also established the Department of the Navy (DON) 
COOL as a platform for the Navy/Marine Corps Team. DON COOL has, in 
turn, inspired an OSD initiative for a similar department-wide landing 
page for all the Services.
    The Marine Corps also launched the Spouse Transition and Readiness 
Seminar (STARS) at all Marine Corps installations in September 2014. 
This seminar addresses the transitional challenges and opportunities 
specifically for spouses as they prepare to transition with their 
marines into the civilian world. STARS has been embraced by OSD as a 
model for other Services to consider emulating.
    We have fully funded transition assistance in PB16. Effective 1 
October 2014, a new Personal Readiness Seminar (PRS) is being delivered 
to all incoming Active Duty marines upon check-in at their first 
permanent duty station. PRS provides an overview of the Marine For Life 
cycle, including personal and professional development programs and 
services, and introductory personal finance topics.
                               conclusion
    The unpredictability of the future security environment facing our 
Nation today reaffirms the wisdom of the 82nd Congress--the United 
States must maintain a force-in-readiness. The Marine Corps remains 
that expeditionary force-in-readiness. We maintain a high state of 
readiness and remain postured for immediate crisis response across the 
globe. With the continued support of Congress, we will maintain balance 
across our pillars of readiness and deliver ready, relevant, and 
capable marines and Marine Air Ground Task Forces to our Nation today 
and tomorrow. During this period of budget austerity, we will set the 
standard for stewardship--every dollar will count. In the end, we will 
do what marines have always done--innovate for the future, adapt to 
overcome, and always win.

    Chairman McCain. Admiral Greenert?

   STATEMENT OF ADMIRAL JONATHAN W. GREENERT, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Greenert. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, thank you for the 
opportunity to testify today. It is my honor to serve and 
represent more than 600,000 Active and Reserve sailors, our 
civilians, and their families, especially the 41,000 sailors 
who are underway and deployed around the world today. It is my 
pleasure to testify to this morning beside Secretary Mabus and 
General Dunford.
    Mr. Chairman, Navy-Marine Corps team is united in 
fulfilling their longstanding mandate: to be where it matters 
when it matters, ready to respond to crises. Now, to that 
point, recent events exemplify the value of forward presence. 
Last August, the Bush Carrier Strike Group relocated from the 
Arabian Sea to the Arabian Gulf--it is about 750 miles--in less 
than 30 hours, and immediately began flying 20 to 30 combat 
sorties per day. for 54 days, that was the coalition strike 
option to project power against [the Islamic State of Iraq and 
Syria] ISIS.
    The destroyer Truxtun arrived in the Black Sea within a 
week after Russia invaded Crimea, and the LCS Fort Worth and 
the destroyer Sampson were among the first vessels to support 
the search effort for the Air Asia Flight 8501 in the Java Sea. 
So we have been where it matters when it matters.
    But, Mr. Chairman, as I have testified before, the 
continuing resolution and the sequestration of 2013 degraded 
our readiness and our capabilities, and we have not yet 
recovered. Budget reductions have forced reduction of afloat 
and ashore operations, generated maintenance backlogs, and have 
compelled us to extend unit deployments. Since 2013, many of 
our ships have been on deployment for 8 to 10 months or longer, 
and that exacts a cost on the resiliency of our people and the 
service lives of our ships.
    Now, this degraded readiness has reduced our ability to 
respond to contingencies. For example, our combatant commanders 
require that three carrier strike groups and three amphibious 
ready groups be ready to respond within 30 days to a crisis. 
That is our covenant to them. However, today on average we have 
been able to keep one carrier strike group and one amphibious 
ready group in this readiness posture, so we are at one-third 
of the requirement.
    Now, assuming the best case of an on-time adequate and 
stable budget and no major contingencies, we might be able to 
recover from the accumulated backlogs by 2018 for our carrier 
strike groups, and by 2020 for our amphibious ready groups. So 
that is at least 5 years after this first round of 
sequestration, and that is just a glimpse of the damage 
sequestration would cause if we go back there.
    We have been forced to slow Navy modernization. The overall 
impact of the budget shortfalls in the past 3 years has 
declined our relative warfighting advantages in several areas, 
notably anti-surface warfare, anti-submarine warfare, air-to-
air warfare, and what we call integrated air and missile 
defense. So we have been compelled to accept significant risk 
in the execution of two key missions that are specified in the 
defense strategy. I provided each of you a handout that 
summarizes where the Navy stands with our missions and where we 
stand in relation to those missions under the two budgets, the 
President's Budget and sequestration.
    The first mission at risk is to deter and defeat 
aggression, which really means to win a war at sea while 
deterring another at sea in a different theater. The second 
mission at risk is to project power despite anti-access and 
area denial [A2/AD] challenges. Mr. Chairman, when I say 
``risk,'' I mean that some of our platforms, our people, and 
our systems will arrive late to the fight. They will arrive 
with insufficient ordnance, and they will be without modern 
combat system sensors and networks that are required, and they 
will be inadequately prepared to fight. Now, ultimately this 
means more ships and aircraft out of action in battle, more 
sailors, marines, and merchant mariners killed, and less 
credibility, frankly, to deter adversaries and to ensure allies 
in the future.
    Given the circumstances, the President's Budget 2016 
submission represents the absolute minimum funding levels 
needed to execute our strategic guidance. To bring the Navy 
program into balance within that fiscal guidance, we focus to 
build the appropriate capability, and then deliver that 
capability at whatever capacity we could afford. We were once 
again compelled to defer upgrades in aircraft, upgrades in 
ships and submarines, and to take significant reductions in 
aircraft procurement, munitions, and shore infrastructure.
    So, Mr. Chairman, today's world is more complex, more 
uncertain, and more turbulent. Our adversaries are modernizing 
and expanding their capabilities. It is vital that we have and 
adequate, predictable, and a timely budget to remain an 
effective Navy. I thank you, and I thank this committee for 
what they have done for us, and I look forward to working with 
the Congress to find solutions that will ensure our Navy 
retains the ability to organize, train, and equip our great 
sailors and their families in the defense of this Nation. Thank 
you.
    [The prepared statement of Admiral Greenert follows:]
          Prepared Statement by Admiral Jonathan Greenert, USN
                              introduction
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the committee, I am honored to represent more than 600,000 Active and 
Reserve sailors, Navy civilians, and their families, especially the 
41,000 sailors who are underway on ships and submarines and deployed in 
expeditionary roles, around the globe today.
    As the chartlet below shows, about 95 ships (one-third of the Navy) 
are deployed around the globe protecting the Nation's interests. This 
is our mandate: to be where it matters, when it matters.
      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
      
                  Figure 1: The Navy's forward presence today

    I would like to begin this statement describing for you the 
guidance that shaped our decisions within the President's Budget for 
fiscal year 2016 (PB-16) submission. I will address the Navy's 
situation following sequestration in fiscal year 2013, the Bipartisan 
Budget Act of 2013 (BBA), and the National Defense Authorization Act 
(NDAA) and Appropriations Act for Fiscal Year 2015. Then, I will 
provide details of our PB-16 submission.

                           strategic guidance
    The governing document for PB-16 is the Secretary of Defense's 2014 
Quadrennial Defense Review (QDR). The QDR uses the President's 2012 
Defense Strategic Guidance (DSG) as a foundation and builds on it to 
describe the Department of Defense's role in protecting and advancing 
U.S. interests and sustaining global American leadership. The DSG and 
its 10 Primary Missions of the U.S. Armed Forces have guided Navy's 
planning for the past 3 years. Validated by the QDR, those missions 
remain the baseline against which I measure our posture in various 
fiscal scenarios. Also, 2020 is the ``benchmark'' year identified by 
the DSG, and that remains the timeframe on which my assessments are 
focused.
    The QDR's updated strategy is built on three pillars: Protect the 
Homeland, Build Security Globally, and Project Power and Win 
Decisively. In support of these, it requires the Navy to ``continue to 
build a future Fleet that is able to deliver the required presence and 
capabilities and address the most important warfighting scenarios.''
    In order to improve its ability to meet the Nation's security needs 
in a time of increased fiscal constraint, the QDR also calls for the 
Joint Force to ``rebalance'' in four key areas: (1) rebalancing for a 
broad spectrum of conflict; (2) rebalancing and sustaining our presence 
and posture abroad; (3) rebalancing capability, capacity, and readiness 
within the Joint Force; and, (4) rebalancing tooth and tail. To satisfy 
these mandates of the QDR strategy, the Navy has been compelled to make 
tough choices between capability, capacity, and readiness across a wide 
range of competing priorities. Our fundamental approach to these 
choices has not changed since I assumed this position. We continue to 
view each decision through the lens of the tenets I established when I 
took office: Warfighting First, Operate Forward, Be Ready.

                                overview
    Sequestration deeply affected the Navy budget in fiscal year 2013 
and we have not yet recovered. Stabilized funding in fiscal year 2014 
and 2015 provided by the BBA, along with an additional $2.2 billion 
above Navy's requested budget in fiscal year 2015, provided limited 
relief from sequestered Budget Control Act of 2011 (BCA) funding levels 
and helped Navy's overall posture. However, the cumulative effect of 
budget shortfalls over these years has forced the Navy to accept 
significant risk in key mission areas, notably if the military is 
confronted with a technologically advanced adversary or forced to deny 
the objective of an opportunistic aggressor in a second region while 
engaged in a major contingency. By ``risk,'' we mean that some of our 
platforms will arrive late to the combat zone, and engage in conflict 
without the benefit of markedly superior combat systems, sensors and 
networks, or desired levels of munitions inventories. In real terms, 
this means longer timelines to achieve victory, more military and 
civilian lives lost, and potentially less credibility to deter 
adversaries and assure allies in the future.
    The PB-14 Future Years Defense Program (FYDP) submission was the 
baseline required by Navy to carry out all 10 DSG missions. Over the 
last 3 years, however, the Navy funding under sequestration and the BBA 
was $25 billion less than the PB-13/14 submissions, shortfalls that 
manifest in the continued erosion of our warfighting advantages in many 
areas relative to potential adversaries. PB-16 represents the bare 
minimum to execute the DSG in the world we face, but still results in 
high risk in two of the most challenging DSG missions that depend on 
adequate numbers of modern, responsive forces. Should resources be 
further reduced below PB-16 levels, and certainly if sequestered, the 
DSG will need to be revised.
    If budgeted at PB-16 levels, we assess that the Navy of 2020 will: 
\1\
        <bullet> Include 304 ships in the Battle Force, of which about 
        115 will be deployed. This global deployed presence will 
        include more than two Carrier Strike Groups (CSG) and two 
        Amphibious Ready Groups (ARG) deployed, on average.
        <bullet> In the best case, provide ``surge'' capacity of about 
        three CSGs (by approximately 2018) and three ARGs (by 
        approximately 2020), not deployed, but ready to respond to a 
        contingency.
        <bullet> Deliver forces to conduct the DSG primary mission 
        Deter and Defeat Aggression, but with higher risk compared to 
        PB-14 due to capacity and readiness challenges.
        <bullet> Conduct, but with greater risk, the DSG primary 
        mission Project Power Despite Anti-Access/Area Denial (A2/AD) 
        Challenges against a technologically advanced adversary 
        compared to PB-14. This is principally due to the slower 
        delivery of new critical capabilities, particularly in air and 
        missile defense, and overall ordnance capacity.

    To ensure the Navy remains a balanced and ready force while 
complying with the reduction in funding below our PB-14 plan, we were 
compelled to make difficult choices in PB-16, including: slowing cost 
growth in compensation and benefits; deferring some ship modernization; 
deferring procurement of 18 of Navy's most advanced aircraft; delaying 
over 1,000 planned weapons procurements; and continuing to reduce 
funding for base facilities sustainment, restoration, and 
modernization. Deferments in PB-16 compound modernization delays we 
were compelled to accept in PB-15 due to budget constraints.
    Additional challenges are on the horizon. In the long term beyond 
2020, I am increasingly concerned about our ability to fund the Ohio 
replacement ballistic missile submarine (SSBN) program--our highest 
priority program--within our current and projected resources. The Navy 
cannot procure the Ohio replacement in the 2020s within historical 
shipbuilding funding levels without severely impacting other Navy 
programs.
         continuing impact of sequestration in fiscal year 2013
    Sequestration in fiscal year 2013 resulted in a $9 billion 
shortfall in Navy's budget, as compared to the PB-13 submission. This 
instance of sequestration was not just a disruption, it created 
readiness consequences from which we are still recovering, particularly 
in ship and aircraft maintenance, Fleet response capacity, and 
excessive CSG and ARG deployment lengths. As I testified in November 
2013, March 2014, and January 2015, the continuing resolution and 
sequestration reductions in fiscal year 2013 compelled us to reduce 
both afloat and ashore operations, which created ship and aircraft 
maintenance and training backlogs. To budget for the procurement of 
ships and aircraft appropriated in fiscal year 2013, Navy was compelled 
to defer some purchases to future years and use prior-year investment 
balances to mitigate impacts to programs in fiscal year 2013 execution. 
The most visible impacts occurred in Operations and Maintenance funded 
activities. Specific impacts to Navy programs include:

        <bullet>  Cancelled five ship deployments
        <bullet>  Delayed deployment of USS Harry S. Truman strike 
        group by 6 months
        <bullet>  Inactivated, instead of repaired, USS Miami
        <bullet>  Reduced facilities restoration and modernization by 
        about 30 percent (to about 57 percent of the requirement)
        <bullet>  Reduced base operations, including port and airfield 
        operations, by about 8 percent (to about 90 percent of the 
        requirement)

--------
    \1\ Navy revised the accounting guidelines for its Battle Force 
according to requirements set forth in the National Defense 
Authorization Act for Fiscal Year 2015. Numbers in this statement are 
not directly comparable to those used in prior testimony, see chart 
below. The NDAA prohibits inclusion of `` . . . patrol coastal ships, 
noncommissioned combatant craft specifically designed for combat roles, 
or ships that are designated for potential mobilization.'' Ships that 
were counted last year, but are no longer counted, are Patrol Craft 
(PC) and Hospital Ships (T-AH).

 
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Current as of 1 Jan 2015               FY 2016                        FY 2020
--------------------------------------------------------------------------------------------------------------------------------------------------------
PB-16: New guidelines......................................                           279                            282                            304
                                                            --------------------------------------------------------------------------------------------
PB-16: Old guidelines......................................                           288                            291                            308
--------------------------------------------------------------------------------------------------------------------------------------------------------

        <bullet>  Furloughed civilian employees for 6 days, which, 
        combined with a hiring freeze and no overtime for 6 months, 
        reduced our maintenance and sustainment output through lost 
        production and support from logisticians, comptrollers, 
        engineers, contracting officers, and planners
        <bullet>  Cancelled Fleet engagements and most port visits, 
        except for deployed ships

    While the Navy was able to reprioritize within available resources 
to continue to operate in fiscal year 2013, this is not a sustainable 
course for future budgets. The actions we took in 2013 to mitigate 
sequestration only served to transfer bills amounting to over $4 
billion to future years for many procurement programs--those carryover 
bills were addressed in Navy's fiscal year 2014 and fiscal year 2015 
budgets. If we were sequestered again, we would be forced to degrade 
current and future Fleet readiness.
    Shortfalls caused by the fiscal year 2013 sequestration remain in a 
number of areas and the Navy is still working to recover from them. For 
example, we have not yet caught up from shipyard maintenance backlogs. 
We are working through shipyard personnel capacity issues to determine 
when ships can be fit back into the maintenance cycle and are balancing 
that against operational demands on the ships to ensure we meet the 
global force management requirement for combatant commands. The result 
of maintenance and training backlogs has meant delayed preparation for 
deployments, forcing us, in turn, to extend the deployments of those 
units already on deployment. Since 2013, many CSGs, ARGs, and 
destroyers have been on deployment for 8-10 months or longer. This 
comes at a cost to the resiliency of our people, sustainability of our 
equipment, and service lives of our ships.
    Maintenance and training backlogs have also reduced Navy's ability 
to maintain required forces for contingency response to meet combatant 
command operational plan requirements. Although the requirement calls, 
on average, for three additional CSGs and three additional ARGs to 
deploy within 30 days for a major crisis, Navy has only been able to 
maintain an average of one group each in this readiness posture. Root 
causes can be traced to the high operational tempo of the Fleet, longer 
than expected shipyard availabilities, and retirements of experienced 
shipyard workers, but the fiscal year 2013 sequestration exacerbated 
the depth of this problem and interfered with our efforts to recover.
    Assuming a stable budget and no major contingencies for the 
foreseeable future, I estimate it is possible to recover from the 
maintenance backlogs that have accumulated from the high operational 
tempo over the last decade of war and the additional effects of 
sequestration by approximately 2018 for CSGs and approximately 2020 for 
ARGs, 5 plus years after the first round of sequestration. This is a 
small glimpse of the readiness ``price'' of sequestration.
                           where we are today
    Before describing our fiscal year 2016 submission, I will discuss 
the Navy's current posture, which established the baseline for our PB-
16 budget.
    Congress' passage of the BBA averted about $9 billion of an 
estimated $14 billion reduction we would have faced under sequestration 
in fiscal year 2014. It enabled us to fund all planned ship and 
aircraft procurement in fiscal year 2014, but cumulatively the 
shortfalls increased risk in Navy's ability to execute DSG missions. 
The BBA still left a $5 billion shortfall below PB-14 in our 
investment, operations, and maintenance accounts.\2\ The shortage in 
funding compelled us to reduce procurement of weapons (many missile 
types) and aircraft spare parts, defer asymmetric research and 
development projects, cancel repair and maintenance projects for 
facilities ashore, and defer procurement of maintenance/material 
support equipment for the Fleet.
---------------------------------------------------------------------------
    \2\ Congress subsequently added $3.4 billion in fiscal year 2014, 
which added an SSN and increased Navy's Ship Modernization, Operations, 
and Sustainment Fund (SMOSF).
---------------------------------------------------------------------------
    The recent passage of the NDAA for fiscal year 2015 and 
Consolidated and Further Continuing Appropriations Act averted about $2 
billion of the estimated $13 billion reduction that Navy would have 
faced under sequestration; an $11 billion shortfall remains (as 
compared to PB-14). Although the funding enabled us to continue the 
refueling and complex overhaul of the USS George Washington (CVN 73), 
Navy was forced to balance its portfolio to mitigate the shortfall by 
making choices between capability, capacity, and readiness. We were 
compelled to further reduce the capacity of weapons and aircraft, slow 
modernization, and delay upgrades to all but the most critical shore 
infrastructure. As I described in testimony in March 2014, PB-15 
represented another iterative reduction from the resources we indicated 
were necessary to fully resource the DSG missions, making Navy less 
ready to successfully Deter and Defeat Aggression and Project Power 
Despite Anti-Access/Area Denial (A2/AD) Challenges. Continuing along 
this budget trajectory means that by 2020, Navy will not have recovered 
sufficient contingency response capacity to execute large-scale 
operations in one region, while simultaneously deterring another 
adversary's aggression elsewhere. Also, we will lose our advantage over 
adversaries in key warfighting areas such as Anti-Surface Warfare, 
Anti-Submarine Warfare, Air-to-Air Warfare, and Integrated Air and 
Missile Defense.
                    our strategic approach to pb-16
    In developing our PB-16 submission, we evaluated the warfighting 
requirements to execute the primary missions of the DSG. These were 
informed by: (1) current and projected threat, (2) global presence 
requirements defined by the Global Force Management Allocation Plan 
(GFMAP), and (3) warfighting scenarios as described in combatant 
commanders' Operation Plans (OPLANs) and Secretary of Defense-approved 
Defense Planning Scenarios (DPS). We used these warfighting scenarios 
to assess our ability to execute more than 50 end-to-end capabilities, 
also known as ``kill chains'' or ``effects chains.'' These chains 
identify all the elements needed to provide a whole capability, 
including sensors, communications (networks), operators, platforms, and 
weapons. To arrive at a balanced program within fiscal guidance, we 
focused first on building appropriate capability, then delivering it at 
a capacity we could afford. Six budget priorities guided us:
    First, maintain a credible, modern, and survivable sea-based 
strategic deterrent. Under the New START treaty, the Navy SSBN force 
will carry about 70 percent of the U.S. strategic nuclear warheads by 
2020. Our PB-16 request sustains today's 14-ship SSBN force, the 
Trident D5 ballistic missile and support systems, and the Nuclear 
Command, Control, and Communications (NC3) suite. The Ohio-class SSBN 
will begin retiring, one per year, beginning in 2027. To continue to 
meet U.S. Strategic Command presence and surge requirements, PB-16 
continues to support construction of the first Ohio replacement SSBN in 
2021 for delivery in 2028 and first deterrent patrol in 2031. As part 
of the Navy's Nuclear Enterprise Review, our PB-16 submission also adds 
approximately $2.2 billion across the FYDP to: (1) increase shipyard 
and Nuclear Strategic Weapons Facilities (SWF) capacity by funding 
required civilian end-strength; (2) accelerate investments in shipyard 
infrastructure; (3) fund additional manpower associated with nuclear 
weapons surety; and (4) fund key nuclear weapons training systems.
    Second, sustain forward presence of ready forces distributed 
globally to be where it matters, when it matters. We continue to 
utilize cost-effective approaches such as forward basing, forward 
operating, and forward stationing ships in the Asia-Pacific, Europe, 
and the Middle East. Rotational deployments will be stabilized and more 
predictable through continued implementation of an improved deployment 
framework called the Optimized Fleet Response Plan (O-FRP). We will 
distribute our ships to align mission and capabilities to global 
regions, ensuring high-end combatants are allocated where their unique 
capabilities are needed most. We will meet the adjudicated fiscal year 
2016 GFMAP; this represents about 45 percent of the global geographic 
combatant commander (GCC) requests. Sourcing all GCC requests would 
require about 450 combatant ships with requisite supporting structure 
and readiness.
    Third, strengthen the means (capability and capacity) to win in one 
multi-phase contingency operation and deny the objectives of--or impose 
unacceptable costs on--another aggressor in another region. PB-16 
prioritizes investments to close gaps in critical kill chains, but 
accepts risk in capacity or in the rate at which some capabilities are 
integrated into the Fleet.
    Fourth, focus on critical afloat and ashore readiness. PB-16 helps 
improve the overall readiness of our non-deployed forces, but not to 
our satisfaction. With a stable budget and no major contingencies for 
the foreseeable future, I estimate it is possible to recover from the 
maintenance backlogs by approximately 2018 for CSGs and approximately 
2020 for ARGs. Facilities Sustainment, Restoration, and Modernization 
(FSRM) funds are increased for fiscal year 2016 to arrest the decline 
of facilities conditions, but then FSRM funds are inadequate for the 
remainder of the FYDP, in order to fund afloat readiness. Our budget 
constraints prevent us from funding all but the most critical shore 
facility upgrades in fiscal year 2017 and beyond.
    Fifth, sustain or enhance Navy's asymmetric capabilities in the 
physical domains, as well as in cyberspace and the electromagnetic 
spectrum. PB-16 prioritizes capabilities to deal with adversary 
threats, including electromagnetic spectrum and cyber capabilities and 
those capabilities that provide joint access developed in concert with 
other Services under the Joint Concept for Access and Maneuver in the 
Global Commons (formerly known as Air-Sea Battle). In line with 
CYBERCOM priorities, we are investing in cyber defense-in-depth and 
expansion of cyber defense initiatives to tactical platform Information 
Technology systems, boundary defense solutions for ships, and security 
improvements for our C\4\I systems.
    Sixth, sustain a relevant industrial base, particularly in 
shipbuilding. We will continue to evaluate the impact of our investment 
plans on our industrial base, including ship and aircraft builders, 
depot maintenance facilities, equipment and weapons manufacturers, and 
science and technology researchers. The government is the only customer 
for some of our suppliers, especially in specialized areas such as 
nuclear power. PB-16 addresses the health of the industrial base by 
sustaining adequate capacity, including competition, where needed and 
viable. While prioritizing required capabilities, we also sought to 
sustain a viable industrial base.
                             what we can do
    As described earlier, due to the impact of prior year shortfalls 
and modernization deferrals in the PB-16 FYDP, we still face 
significant risk in executing at least 2 of 10 primary missions of the 
DSG in 2020. The 2014 update to the ``2012 Force Structure Assessment'' 
(FSA) and other Navy analysis describe the baseline of ships needed to 
support meeting each mission. Against that baseline and using a 
rigorous assessment of over 50 capabilities (with appropriate capacity) 
necessary to be tactically successful (called ``end-to-end kill chain'' 
analysis), we conclude that with PB-16, the Navy of 2020 will support 
each of the 10 DSG missions as follows:
Provide a Stabilizing Presence
    PB-16 will meet the adjudicated presence requirements of this 
mission. By increasing the number of ships forward stationed and 
forward based, and by improving our deployment preparation process 
called the O-FRP, presence improves in some global regions as compared 
to previous budget submissions. The Navy of 2020:

        <bullet>  Provides a global presence of about 115 ships (same 
        as PB-15); an increase over an average of 95 ships deployed 
        today.
        <bullet>  Increases presence in the Asia-Pacific region. This 
        includes forward deploying an additional SSN to Guam, the most 
        capable DDG to Japan, Mobile Landing Platform (MLP), Joint High 
        Speed Vessel (JHSV), both Littoral Combat Ship (LCS) variants, 
        MQ-8C, P-8A, EA-18G, upgraded F/A-18E/F, and E-2D. MQ-4C Triton 
        high endurance unmanned aerial vehicles will operate from Guam 
        in 2017. This presence will assure allies, shape, and deter. 
        However, a major maritime operation will require substantial 
        naval forces to swing from other theaters or surge forward from 
        CONUS bases.
        <bullet>  ``Places a premium on U.S. military presence in--and 
        in support of--partner nations'' in the Middle East, by 
        increasing presence by 40 percent to about 36 ships in 2020. 
        Though not counted in Navy's Battle Force, 10 of our Patrol 
        Craft (PC) serve as Forward Deployed Naval Forces (FDNF) 
        operating out of Bahrain, and 7 LCS will join them by the end 
        of 2020. In 2016, Navy's first Mobile Landing Platform/Afloat 
        Forward Staging Base (MLP/AFSB) will augment the on-station 
        AFSB-Interim (a modified dock landing ship) to support Special 
        Operations Forces and augment mine countermeasure capability.
        <bullet>  Continues to ``evolve our posture'' in Europe by 
        meeting ballistic missile defense (BMD) European Phased 
        Adaptive Approach (EPAA) requirements with four BMD-capable 
        guided missiles destroyers (DDG) in Rota, Spain, and two land-
        based sites in Poland and Romania. The first two DDGs arrived 
        in 2014 and all four will be in place by the end of 2015. 
        Additional presence in Europe will be provided by forward 
        operating JHSVs and rotationally deployed combatants.
        <bullet>  Will provide ``innovative, low-cost and small-
        footprint approaches'' to security in Africa and South America 
        by deploying one JHSV, on average, to each region. Beginning in 
        fiscal year 2015, we will deploy one hospital ship (T-AH), on 
        average, and, beginning in fiscal year 2016, add one PC ship, 
        on average, to South America. AFSBs forward operating in the 
        Middle East could also provide additional presence in Africa as 
        required. As available, we are deploying ships for shorter 
        periods (= 2 months) in theaters other than those which they 
        would be primarily assigned (e.g., AFRICOM and SOUTHCOM).
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
            Figure 2: The Navy's forward presence in fiscal year 2020

Counter Terrorism and Irregular Warfare (CT/IW)
    We will have the capacity to conduct widely distributed CT/IW 
missions. This mission requires Special Operations Forces, Navy 
Expeditionary Combat capabilities such as Explosive Ordnance Disposal 
(EOD), Combined Explosive Exploitation Cells (CEXC), Intelligence 
Exploitation Teams (IET), and a variety of platforms that can 
accommodate adaptive force packages. PB-16 procures a third MLP/AFSB in 
fiscal year 2017 for delivery in fiscal year 2020, and funds an 
enhanced SOF capability on all three AFSBs, which provides more robust 
medical facilities, improved C\4\I, and increased accommodation for 
aircraft, and other SOF-specific equipment. PB-16 also procures 10 MQ-
8C Fire Scout systems for deployments aboard LCS, which are 
fundamentally multi-mission.
Deter and Defeat Aggression
    Navy inherits and continues to experience high risk in this 
warfighting mission. Our FSA described the ship force structure 
necessary to meet this mission's requirement: to be able to conduct one 
large-scale operation and ``simultaneously be capable of denying the 
objectives of--or imposing unacceptable costs on--an opportunistic 
aggressor in a second region.'' According to the FSA, the Navy has a 
requirement for a force of 11 CVN, 88 large surface combatants (DDG and 
CG), 48 attack submarines (SSN), 12 SSBN, 11 large amphibious assault 
ships (LHA/D), 12 amphibious transport docks (LPD), 11 dock landing 
ships (LSD), 52 small surface combatants, 10 JHSV, 29 combat logistics 
force (CLF) ships, and 24 command and support ships. Provided 
sufficient readiness is restored and maintained across the Fleet, this 
globally distributed force will yield a steady state deployed presence 
of more than two CSG and two ARG, with three CSG and three ARG ready to 
deploy within 30 days in response to a contingency (``surge''). PB-16 
puts Navy on a path to procure the right mix of ships as defined by the 
FSA; however, the 2020 Battle Force will have a shortfall of small 
surface combatants due to a gap in FFG and MCM retirements and LCS 
deliveries. Other sources of risk in this primary mission are less 
aircraft, modern sensors, networks, and weapon procurements across the 
FYDP. Slowed modernization across the Fleet is a serious concern.
Conduct Stability and Counterinsurgency Operations
    The Navy of 2020 will be able to meet the requirements of this DSG 
mission.
Project Power Despite Anti-Access/Area Denial (A2/AD) Challenges
    Our power projection capability, reconstitution of weapons systems, 
and modernization programs to enable Joint Assured Access have been 
deferred due to budget constraints over the last 3 years. This reduces 
options and decreases our ability to assure access in all domains 
(space, air, surface, subsurface, and cyber). Over the last 3 years, 
funding shortfalls required us to reduce procurement in weapons by over 
4,000 planned quantities. We continue to take risk in capacity in order 
to preserve investments in developing future capabilities. This reduced 
procurement of weapons and deferring of air and missile defense 
capabilities, coupled with joint force deficiencies in wartime 
information transport, C2 resiliency, and airborne ISR, will result in 
high risk in conducting this DSG mission if we are faced with a 
technologically advanced adversary.
Counter Weapons of Mass Destruction
    This mission has two parts: (1) interdicting weapons of mass 
destruction as they proliferate from suppliers, and (2) defeating the 
means of delivery during an attack. PB-16 will continue to meet the 
requirements for this mission by providing sufficient deployed CSG, 
ARG, and surface combatants, as well as Navy special warfare personnel 
(SEAL) and EOD platoons, to address the first part. For the second 
part, BMD-capable DDG exist in sufficient numbers to meet the majority 
of GCC presence requirements under the GFMAP, and can be postured to 
counter weapons delivered by ballistic missiles in regions where 
threats are more likely to originate. That said, missile defense 
capacity in some scenarios remains a challenge.
Operate Effectively in Space and Cyberspace
    Our PB-16 submission continues to place priority on cyber efforts 
to build the Navy's portion of the DOD's Cyber Mission Forces and 
strengthen our cyber defense capabilities afloat and ashore. We have 
accessed about 80 percent of the 1,750 cyber operators that will form 
40 cyber mission teams by the end of 2016; we will continue to recruit, 
hire, and train this force. Additionally, we will align Navy networks 
with a more defensible DOD Joint Information Environment (JIE) through 
the implementation of the Next Generation Enterprise Network (NGEN) 
ashore and Consolidated Afloat Networks and Enterprise Services (CANES) 
at sea. We will continue funding for the launch and sustainment of the 
Mobile User Objective System (MUOS), DOD's newest and most robust 
solution for extending narrowband Ultra High Frequency Satellite 
Communications (SATCOM) connectivity ashore, in flight, and at sea. 
Also critical to assured command and control, PB-16 continues funding 
the installation and sustainment of the Navy Multiband Terminal (NMT), 
our newest and most robust solution for giving surface and submarine 
forces access to wideband Super High Frequency and Extremely High 
Frequency SATCOM connectivity.
Maintain a Safe, Secure, and Effective Nuclear Deterrent
    This mission is the Navy's top priority in any fiscal scenario, and 
our PB-16 submission meets its requirements. Our sea-based strategic 
deterrent remains safe, secure, credible, and effective today, but Navy 
is also implementing 27 specific actions based on the DOD Nuclear 
Enterprise Review recommendations, including oversight, training, 
policy, and process improvements, funded with an additional PB-16 
investment of over $400 million in fiscal year 2016 and over $2 billion 
across the FYDP. Our PB-16 submission satisfies STRATCOM demand for at-
sea SSBN availability through the end of the current Ohio-class' 
service life. Navy's PB-16 submission also funds Nuclear Command, 
Control, and Communications (NC3) modernization, Trident D5 ballistic 
missile Life Extension Program (LEP) to maintain a 2017 Initial 
Operational Capability (IOC), and Common Missile Compartment 
development on a 2019 delivery timeline. Continued congressional 
support for Naval Reactors' Department of Energy (DOE) funding is 
essential to maintain life-of-the-ship core reactor design and 
development synchronization with our Ohio replacement shipbuilding 
schedule, which ensures lead ship procurement in 2021, and refueling of 
the land-based prototype. Naval Reactors' DOE budget also includes the 
second year of funding for the Spent Fuel Handling Project, 
recapitalization of which is critical to the Navy's refueling and 
defueling schedule of nuclear-powered aircraft carriers and submarines.
Defend the Homeland and Provide Support to Civil Authorities
    PB-16 will maintain an appropriate capacity of aircraft carriers, 
surface combatants, amphibious ships, and aircraft that are not 
deployed and are ready for all homeland defense missions.
Conduct Humanitarian, Disaster Relief, and Other Operations
    Navy's global presence and training is sufficient to conduct these 
operations.
                             modernization
    The following paragraphs describe specific PB-16 programs that 
influence our ability to conduct the missions required by the DSG, and 
the impact of programmatic action:
Shipbuilding
    Navy shipbuilding priorities remain largely consistent with PB-15. 
Navy will procure 48 ships across the fiscal year 2016-2020 period. 
Fourteen Battle Force ships will be delivered in fiscal year 2016 
alone. PB-16:

        <bullet> Maintains funding to support RDT&E and advanced 
        procurement of the first Ohio replacement SSBN, our highest 
        priority program. Without increased shipbuilding funding in 
        fiscal year 2021 and beyond, Ohio replacement SSBN funding will 
        consume the majority of Navy's annual shipbuilding budget, and 
        degrade other shipbuilding programs. Appropriations for SSBN 
        recapitalization are historically consistent with the last 
        period of SSBN procurement between 1974 and 1990.
        <bullet> Fully funds USS George Washington (CVN 73) refueling 
        and complex overhaul.
        <bullet> Procures 10 Arleigh Burke-class DDG (1 Flight IIA and 
        9 Flight III) in the FYDP, 2 per year, resulting in an 
        inventory of 72 by 2020. The first Flight III DDG, which will 
        incorporate the advanced AN/SPY-6 radar (formerly called the 
        Air and Missile Defense Radar (AMDR)), will be procured in 
        fiscal year 2016 and delivered in fiscal year 2021.
        <bullet> Procures 10 Virginia-class SSNs in the FYDP, 2 per 
        year, resulting in an inventory of 22 Virginia-class submarines 
        (51 total SSNs of all types) by 2020.
        <bullet> Funds the final nine LCS (Flt 0+) across the FYDP 
        (three per year fiscal year 2016-2018). Then beginning in 
        fiscal year 2019, Navy will procure new Small Surface 
        Combatants (two in fiscal year 2019, three in fiscal year 2020) 
        based on upgraded variants of the LCS that Navy will designate 
        as ``Frigates'' (FF). There will be no construction gap between 
        procurement of the last LCS (Flt 0+) and the first ``frigate.'' 
        The new ``frigate'' will offer improvements in capability, 
        lethality, and survivability.
        <bullet> Funds replacement of LSD amphibious ships with the 
        LX(R) starting with advanced procurement in fiscal year 2019 
        and procurement of the first LX(R) in fiscal year 2020. LX(R) 
        serial production will begin in fiscal year 2022.
        <bullet> Procures a 12th LPD, which will be developed in 
        parallel with the LX(R) program and incorporate targeted design 
        and construction initiatives to increase affordability. Adding 
        LPD 28 to the inventory will help mitigate expeditionary 
        capability and amphibious lift shortfalls.
        <bullet> Funds four Fleet oilers (T-AO(X)) across the FYDP 
        beginning in fiscal year 2016. T-AO(X) replaces the aging 
        single hull fleet oiler. This new procurement ensures continued 
        combat logistics support to our ships.
        <bullet> Funds five Fleet salvage ships (T-ATS(X)) across the 
        FYDP beginning in fiscal year 2017. These new ships replace the 
        two aging salvage class ships with a single class while 
        improving capability and performance.
Combatant Ship Modernization
    In parallel with shipbuilding, PB-16 continues modernization of in-
service platforms to allow our combatants to remain relevant and reach 
their expected service lives. The ship modernization program does not 
keep pace to deal with high-end adversary weapons systems by 2020. 
Flight I and II of the Arleigh Burke-class DDG began mid-life 
modernization in fiscal year 2010; 13 will have completed Hull 
Mechanical and Electrical (HM&E) modernization by the end of 2016, and 
6 of these ships will have also completed combat systems modernization. 
In fiscal year 2017, we will begin to modernize the Flight IIA DDGs. 
However, due to fiscal constraints we were compelled to reduce the 
combat systems procurements of one DDG Flight IIA per year, starting in 
fiscal year 2016. This will result in some destroyers not receiving 
combat systems upgrades when originally planned to allow them to pace 
the threat, particularly in Anti-Air Warfare (AAW) and Ballistic 
Missile Defense (BMD).
    In order to maintain force structure that provides Air Defense 
Commander support to the CSGs, Navy will induct two Guided Missile 
Cruisers (CGs) into phased modernization in fiscal year 2015 and an 
additional two in fiscal year 2016. This will place a total of four 
ships in modernization with the intent that each ship period will be 
limited to 4 years. We are committed to modernizing a total of 11 CGs 
in the current modernization program. Without any phased modernization 
program, the CG class will retire, without replacement, at the end of 
their service lives between 2020 and 2030. Using the congressionally-
directed 2/4/6 plan, the final retirements will occur between 2036 and 
2039. Under the Navy's original PB-15 plan, the final CG retirement 
would have occurred in 2045, at a significantly reduced cost to the 
Navy, and would have relieved pressure on a shipbuilding account 
largely consumed in the 2030s with building Ohio replacement SSBNs and 
aircraft carriers. We request congressional support for Navy's original 
plan.
    Nine of 12 Whidbey Island-class LSDs have undergone a mid-life 
update and preservation program, 2 are currently being modernized, and 
1 more will be inducted into phased modernization in fiscal year 2016. 
Modernization of seven Wasp-class large deck amphibious assault ships 
(LHD) was delayed by 2 years, and they will now complete mid-life 
modernization by fiscal year 2024. Modernization of the eighth LHD, USS 
Makin Island, will be addressed in subsequent budget submissions.
                         warfighting capability
Aviation
    PB-16 continues our transition, albeit more slowly than desired, to 
the ``Future Air Wing.'' This transition will dramatically improve our 
capabilities and warfighting capacity across critical ``kill chains.'' 
But, funding shortfalls have stretched (deferred) modernization plans 
in this area. This delay will call into question our ability to deal 
with near peer competitors, especially if directed to carry out our DOD 
campaign plan in the 2020 timeframe. Specifically, we will continue to 
field more advanced land-based maritime patrol aircraft (manned and 
unmanned) to evolve our ISR, ASW, and sea control capabilities and 
capacity. To further these objectives, PB-16 provides the following 
capabilities:

        <bullet> Navy Integrated Fire Control-Counter Air (NIFC-CA) 
        Increment I capability will field with the E-2D Advanced 
        Hawkeye aircraft in 2015, with four air wings transitioned to 
        the E-2D by 2020. This integrates aircraft sensor and ship 
        weapons capabilities, improving lethality against advanced air 
        and missile threats. However, we deferred 2 E-2D outside the 
        FYDP (procure 24 vice 26).
        <bullet> The F-35C Lightning II, the carrier-based variant of 
        the Joint Strike Fighter, is scheduled to achieve IOC in 2018. 
        However, F-35C procurement will be reduced by 16 airframes 
        (from 54 to 38) across the PB-16 FYDP when compared to PB-15. 
        The F-35C, with its advanced sensors, data sharing capability, 
        and ability to operate closer to threats, is designed to 
        enhance the air wing's ability to find targets and coordinate 
        attacks.
        <bullet> Continued support for a Service Life Extension Program 
        (SLEP) for the legacy F/A-18A-D Hornet to meet our strike 
        fighter inventory needs while integrating the F-35C. With SLEP 
        modifications, some of these aircraft will achieve as much as 
        10,000 lifetime flight hours, or 4,000 hours and (16 years) 
        beyond their originally-designed life.
        <bullet> To address Navy electronic attack requirements, EA-18G 
        will reach full operational capability in fiscal year 2017. 
        Replacement of the aging ALQ-99 jamming pods begins in fiscal 
        year 2021, when the Next Generation Jammer (NGJ) Increment I, 
        featuring upgraded capabilities against mid-band frequencies, 
        reaches IOC. NGJ Increment II research and development on low 
        band frequencies remains funded for fiscal year 2016.
        <bullet> All components of an improved air-to-air ``kill 
        chain'' that employs infrared (IR) sensors to circumvent 
        adversary radar jamming will be delayed another year. PB-16 
        increased funding to procure an additional 28 Infrared Search 
        and Track (IRST) Block I sensor pods for F/A-18E/F Super 
        Hornet, for a total of 60, across the FYDP; however, the IRST 
        Block I sensor system will field in 2018 (versus 2017 under PB-
        15) and the improved longer-range IRST Block II will not 
        deliver until 2022 (versus 2019 under PB-15).
        <bullet> Improvements continue to the air-to-air radio 
        frequency ``kill chain'' that defeats enemy jamming at longer 
        ranges. By 2020, 380 jamming protection upgrade kits for F/A-
        18E/F Super Hornets and EA-18G Growler will be delivered. But, 
        we were compelled to defer 180 kits beyond the FYDP.
        <bullet> Integrates the Small Diameter Bomb II (SDB II) on the 
        F/A-18 by fiscal year 2020, and procures 1,590 units across the 
        FYDP to enhance carrier air wing precision strike capabilities.
        <bullet> V-22 (Navy variant) aircraft have been selected as the 
        solution to the aging C-2 Carrier Onboard Delivery (COD) 
        aircraft. PB-16 procures 24 aircraft over the FYDP with an IOC 
        of fiscal year 2021. The V-22 (Navy variant) extends the range 
        and in increases the flexibility of Strike Group resupply.
        <bullet> Navy's commitment to the Unmanned Carrier-Launched 
        Airborne Surveillance and Strike System (UCLASS) program 
        continues. However, a DOD-wide Strategic Portfolio Review will 
        delay UCLASS Air Vehicle segment contract award by at least 1 
        year. The remaining UCLASS Carrier Integration and Connectivity 
        and Control System segments will continue and are funded 
        through the FYDP.
Long Range Strike
    Our precision strike capabilities and capacity will be critical to 
success in any foreseeable future conflict. Potential adversaries have 
already fielded and continue to develop advanced, long range weapons 
that will require effective counters. We remain challenged in this 
area. Accordingly, PB-16:

        <bullet> Funds Virginia Payload Module (VPM) RDT&E and SCN to 
        accelerate inclusion of VPM on at least one Virginia Class 
        Block V SSN per year in fiscal year 2019 and 2020. VPM will 
        enable Virginia-class SSNs to mitigate the loss of SSGN strike 
        capacity as they begin to retire in 2026. VPM will more than 
        triple the Tomahawk Land Attack Missile (TLAM) Block IV strike 
        capacity of a Virginia-class SSN from 12 to 40 missiles.
        <bullet> Supports the existing Tactical Tomahawk cruise missile 
        inventory by extending service life through investments in 
        critical capability enhancements and vital parts to achieve 
        maximum longevity. PB-16 adds 100 Tomahawks in fiscal year 
        2016. Production deliveries will now continue through fiscal 
        year 2018, which minimizes factory impact until the start of 
        Tomahawk Block IV inventory recertification and modernization 
        beginning in fiscal year 2019.
        <bullet> Invests in future capability by commencing an analysis 
        of alternatives for the Next Generation Land Attack Weapon 
        (NGLAW), with a planned Fleet introduction in the 2024-2028 
        timeframe, at least a decade prior to the sundown of TLAM Block 
        IV in the 2040s.
Anti-Surface Warfare
    Navy remains challenged in this mission area due to both capability 
and capacity shortfalls. To deal with potential adversaries' long-range 
anti-ship cruise missiles and maritime air defenses, PB-16 implements a 
plan to deliver a family of anti-surface warfare (ASuW) capabilities. 
The program maintains current ASuW capability inherent in the Harpoon 
missile, Standoff Land Attack Missile-Expanded Response (SLAM-ER), 
Joint Standoff Weapon (JSOW) C-1, and Mk48 Advanced Capability (ADCAP) 
torpedoes. In the near term, we are pursuing options to develop an 
improved, longer-range ASuW capability by leveraging existing weapons 
to minimize technical risk, costs, and development time. Five of 10 
Patrol Craft in the Arabian Gulf have been upgraded with short-range 
Griffin missiles, and the other 5 will receive them by the end of 2015. 
Additionally, PB-16 funds enhanced ASuW lethality for LCS by 
integrating surface-to-surface missiles (Hellfire Longbow) onto those 
platforms starting in 2017. Navy is evaluating which missile to select 
to provide upgraded LCS (``frigates'') an additional and even longer 
range over-the-horizon missile capability. Also, PB-16 continues to 
accelerate acquisition of the Long Range Anti-Ship Missile (LRASM) air-
launched variant, which will achieve early operational capability on F/
A-18E/F aircraft in fiscal year 2019.
Anti-Submarine Warfare
    PB-16 sustains our advantage in the undersea domain by delivering 
the following capabilities, although capacity challenges persist:

        <bullet> Procures 47 P-8A Poseidon maritime patrol aircraft, 
        replacing the legacy P-3C Orion's capability, and completing 
        the transition by fiscal year 2019. We continue investments in 
        the development of a high-altitude anti-submarine warfare 
        capability (HAAWC), which is composed of a MK 54 torpedo kit 
        and software support system.
        <bullet> Continues installation of ASW combat systems upgrades 
        for DDGs and improved Multi-Function Towed Arrays (MFTA) for 
        DDGs and CGs. Both installations will be complete on all DDGs 
        forward based in the Western Pacific by 2018.
        <bullet> Continues upgrades to all our P-8A and ASW helicopters 
        in the Western Pacific with sonobuoys and advanced torpedoes by 
        2018; however, in PB-16 we were compelled to reduce weapons 
        capacity, which equated to cancelling 240 MK 54 lightweight 
        torpedoes.
        <bullet> Procures 145 MK 48 ADCAP torpedoes over the FYDP to 
        reduce a wartime requirement shortfall from 30 percent to 20 
        percent, and invests in modularity and endurance improvements 
        to enable more efficient production, better performance, and 
        future upgradability.
        <bullet> Improves surface ASW capability in the LCS ASW Mission 
        Package by employing an MFTA in concert with variable depth 
        sonar (VDS) in 2016.
        <bullet> Defers recapitalization of our ocean surveillance 
        ship, T-AGOS(X), from fiscal year 2020 to outside the FYDP, a 
        reflection of our intent to extend the service life of our 
        current T-AGOS vessels.
        <bullet> Develops and builds the Large Displacement Unmanned 
        Undersea Vehicle (LDUUV) in the FYDP to augment submarine 
        capabilities. We will use Office of Naval Research Innovative 
        Naval Prototype large UUVs to train our Fleet operators, 
        preparing them for LDUUV Fleet introduction in the early 2020s.
Electromagnetic Maneuver Warfare
    PB-16 puts Navy on a path to maneuver more freely in the 
electromagnetic spectrum, while strengthening our capability to degrade 
adversaries' ability to do so. It maintains our investment in the 
Ships' Signals Exploitation Equipment (SSEE) Increment F, which equips 
ships with a capability to interdict the communications and address and 
offset elements of adversary kill chains by 2020. PB-16 adds an 
advanced geo-location capability to SSEE Increment F, which contributes 
to defeating the ``left side'' of the adversary's ballistic missile 
kill chain and C4ISR systems. It also increases our investment in 
upgraded electromagnetic sensing capabilities for surface ships via the 
Surface Electronic Warfare Improvement Program (SEWIP) Block 2 that 
will deliver in 2016, procuring an additional 14 systems. PB-16 begins 
low rate initial production of SEWIP Block 3 in 2017 to add jamming and 
deception capabilities to counter advanced anti-ship cruise missiles. 
PB-16 also stands up Real-Time Spectrum Operations (RTSO) as a Program 
of Record. RTSO will provide ships and strike groups the ability to 
sense, control, and plan the use of spectrum, detect interference, 
notify the operators of spectrum issues, and provide recommended 
actions allowing for command and control of the electromagnetic 
spectrum.
    Our cyber capability continues to afford the Navy a competitive 
advantage, but we are growing increasingly concerned about potential 
vulnerabilities that could affect combat readiness. Recognizing these 
risks, in fiscal year 2015 the Navy stood up a dedicated task force to 
evaluate our cyber security posture and manage our investment portfolio 
to ensure we are spending money where it matters most. In addition to 
evaluating our cyber risk and informing our budget process, the task 
force will also recommend changes to the Navy's acquisition and 
management of our networks and cyber-connected systems.
Mine Warfare
    To enhance our ability to counter mines in the Middle East and 
other theaters, our PB-16 program sustains investments in the LCS mine 
countermeasures mission package (MCM MP), completing initial testing of 
its first increment in 2015 and achieving full operational capability 
in 2019. The MCM MP provides significantly faster rates of waterspace 
mine clearance over legacy counterparts. PB-16 also sustains our 
interim AFSB, USS Ponce, in service through at least fiscal year 2017. 
USS Ponce provides forward logistics support and command and control to 
MCM ships and helicopters, allowing them to remain on station longer 
and sustain a more rapid mine clearance rate. In the near-term, PB-16 
continues funding for Mk 18 Kingfish unmanned underwater vehicles (UUV) 
and Sea Fox mine neutralization systems deployed to the Arabian Gulf 
today, as well as increased maintenance and manning support for 
forward-deployed MH-53 airborne mine countermeasures platforms and 
Avenger-class MCM ships forward based in Bahrain.
                               readiness
Afloat Readiness
    PB-16 funds ship operations to 45/20 (deployed/nondeployed) 
steaming days per quarter. Overseas Contingency Operations (OCO) funds 
an additional 13/4 days (deployed/non-deployed), providing the training 
and operations required to meet our fiscal year 2016 GFMAP commitment. 
PB-16 baseline funds ship maintenance to 80 percent of the requirement, 
with OCO funding the remaining 20 percent, to continue life cycle 
maintenance reset of CVNs and surface force ships. To address the 
workload to be completed in our public shipyards, Navy funds additional 
workforce (up to 33,500 full-time equivalent workers by fiscal year 
2017) and will send selective submarines to private shipyards in fiscal 
year 2016 and fiscal year 2017.
    With respect to the Flying Hour Program, PB-16 achieves deployed 
readiness levels of T2.5/T2.0 (USN/USMC) in accordance with guidance 
for all carrier air wing (CVW) aircraft.\3\ Navy funds Aviation Depot 
Maintenance to 83 percent of the requirement, which puts the depots at 
capacity. As Aviation Depot Maintenance throughput improves, the 
associated F/A-18 flying hours and depot maintenance budgets will 
increase to the more notional level of 77 percent. PB-16 increases Navy 
Expeditionary Combat Command fiscal year 2016 base funding from 42 
percent to 80 percent. OCO funds the remaining 20 percent.
---------------------------------------------------------------------------
    \3\ Due to extended depot repair time, F/A-18A-D availability is 
reduced and shortfalls in aircraft will be borne by non-deployed 
forces. As more legacy F/A-18s approach their 6,000 hour design life 
and are inducted for assessment and life extension to 8,000 or 10,000 
hours, aviation depots are experiencing production challenges resulting 
in longer-than-expected repair cycle times for these aircraft. Navy has 
taken steps to better maintain and repair these legacy aircraft and 
expects to improve depot productivity by 2017, with the backlog fully 
recovered by 2019. In PB-16, Flying Hours for these aircraft will 
reflect the maximum executable profile and achieve T2.0 for deployment, 
with tailored T-ratings through the training cycle.
---------------------------------------------------------------------------
    Year after year, the Navy has consistently provided more global 
presence than authorized and adjudicated by the GFMAP. In 2013 and 
2014, for example, Naval forces provided 6 percent and 5 percent more 
forward presence, respectively, than planned due to emergent operations 
and unanticipated contingencies. This unbudgeted usage amounted to 
greater than 2,200 days in theater over that planned in 2013 and 
greater than 1,800 days in theater over that planned in 2014. We should 
operate the Fleet at sustainable presence levels, in order for the Navy 
to meet requirements while still maintaining material readiness, giving 
ships time to modernize, and allowing them to reach their expected 
service lives.
Ashore Readiness
    To comply with fiscal constraints, we are compelled to continue 
accepting risk in shore infrastructure investment and operations. PB-16 
prioritizes nuclear weapons support, base security, and airport/seaport 
operations while maintaining our commitment to quality of life programs 
for our sailors and families. We are funding the sustainment, 
restoration, and modernization of our facilities at a level to arrest 
the immediate decline in the overall condition of our most critical 
infrastructure. Although fiscal year 2016 marks an improvement in the 
facilities funding when compared to PB-15, Navy is still below the DOD 
goal for facilities sustainment. Facilities sustainment also declines 
in the PB-16 FYDP in order to preserve the operational readiness of our 
Fleet. When restoring and modernizing our infrastructure, we intend to 
prioritize life/safety issues and efficiency improvements to existing 
infrastructure and focus on repairing only the most critical components 
of our mission critical facilities. By deferring less critical repairs, 
especially for non-mission-critical facilities, we are allowing certain 
facilities to degrade and causing our overall facilities maintenance 
backlog to increase. We acknowledge this backlog must eventually be 
addressed.
    Navy will exceed the minimum 6 percent in capital investment in 
Naval Shipyards and Depots described in 10 U.S.C. 2476, with a 
projected 7.4 percent in fiscal year 2016. Additionally, we are on 
track to exceed the target in fiscal year 2015 with a projected 6.3 
percent investment. Our Naval Shipyards and depots are critical to 
maintaining the warfighting readiness of our force, and Navy will 
continue to prioritize investments to address the most critical safety 
and productivity deficiencies.
Audit Readiness
    Navy is on course to achieve full auditability on all four 
financial statements by the end of fiscal year 2017, a legislative 
mandate. An audit of the Schedule of Budgetary Activity (SBA), began in 
December 2014. This initial audit is a critical step to identify any 
weaknesses in business systems and business processes. The Navy's Audit 
Plan has been greatly improved by lessons learned from our sister 
Service, the U.S. Marine Corps, which achieved a clean audit on their 
SBA in 2013. The remaining challenge to meeting the fiscal year 2017 
mandate is to achieve auditability on the other major financial 
statement, Navy's Balance Sheet. Audit readiness on the Balance Sheet 
depends primarily on the accuracy of the multi-billion-dollar Asset 
line; the Navy has been executing a plan to bring Service-wide 
accountability for major assets (by amounts and value) into compliance 
with financial audit standards. The Navy is confident that it will be 
able to undergo an audit of all of its financial statements by fiscal 
year 2017 to meet the congressional requirement.
Family Readiness
    Family readiness is fully integrated into our Navy's call to be 
ready. PB-16 continues to provide support for critical programs that 
support our sailors and their families so that they can adapt to, and 
cope with, the challenges of balancing military commitment with family 
life. Navy Fleet and Family Support Centers ensure military families 
are informed, healthy, and resilient through robust programs that 
include: relocation assistance; non-medical and family counseling; 
personal and family life education; personal financial management 
services, information and referral services; deployment assistance, 
domestic violence prevention and response services, exceptional family 
member liaison; emergency family assistance and transition assistance. 
Increased stress and longer family separations have amplified program 
demand and underlined the importance of these support programs and 
services to ensure the psychological, emotional, and financial well-
being of our sailors and their families.
    Navy Child and Youth Programs continue to provide accessible, 
affordable, and high-quality child and youth development programs 
through child development centers, youth centers, child development 
homes, and contract child care spaces. All Navy child development 
centers are DOD certified and nationally accredited, and provide 
consistent, high-quality care at affordable rates based on total family 
income.
                         military construction
    The PB-16 Military Construction program includes 38 projects valued 
at almost $1 billion to invest in our construction worldwide. We have 
prioritized funding to enable IOC of new platforms such as LCS, P-8A, 
F-35C, MH-60, and MQ-4C through the construction of hangars, mission 
control centers, and various support and training facilities. We are 
also supporting combatant commander requirements by constructing a 
land-based Aegis site in Poland and upgrading port facilities in 
Bahrain. A portion of MILCON funds will recapitalize infrastructure in 
three naval shipyards and improve the resiliency of utilities systems 
at seven bases. Three projects will improve the quality of life for our 
sailors and their families by addressing unaccompanied housing issues 
in Florida and Maryland and constructing a new child development center 
in Japan.
                          health of the force
    We measure and track the health of our force using Navy-wide 
metrics on recruiting, retention, manning levels; unit operational 
tempo; individual tempo (how often individual sailors are away from 
home); morale; stress; sexual assault rates; suicide rates; alcohol-
related incidents, and other factors. Based on a comprehensive study of 
these metrics and trends, today we rate the overall health of our Navy 
force as good. Our sailors are our most important asset, they are our 
``asymmetric advantage,'' and we have invested appropriately to keep a 
high caliber all-volunteer force. At work, the Navy is committed to 
providing our sailors a challenging, rewarding professional experience, 
underpinned by the tools and resources to do their jobs right. Our 
obligations don't stop at the bottom of the brow. I remain focused on 
dealing with enduring challenges that relate to the safety, health, and 
well-being of our people, no matter where they are located. We also 
support our Navy Families with the proper quality of life in terms of 
compensation, professional and personal development, and stability 
(i.e., deployment predictability). Navy's 21st Century Sailor Office 
(OPNAV N17), led by a flag officer, continues to integrate and 
synchronize our efforts to improve the readiness and resilience of 
sailors and their families. Specific initiatives that we continue to 
support in PB-16:
21st Century Sailor Programs
    Suicide Prevention
    Preventing suicide is a command-led effort that leverages a 
comprehensive array of outreach and education. We continue to raise 
awareness regarding the combination of indicators most common to 
suicide-prone individuals such as post-traumatic stress, relationship 
problems, legal and financial problems, periods of transition and 
mental health issues. We have launched several key initiatives 
including: (1) mandatory Operational Stress Control (OSC) skills 
training for units within 6 months of deployment; (2) new guidance for 
Navy unit commanders and health professionals to reduce access to 
lethal instruments under certain conditions; (3) an interactive, 
scenario-based suicide prevention training tool; (4) an OSC curriculum 
specific to our Reserve sailors; and (5) specialized Chaplain Corps 
professional development training on suicide prevention. Our sailors 
continue to learn about the bystander intervention tool known as 
``A.C.T.'' (Ask-Care-Treat). We also invest in the resilience of our 
people to help them deal with any challenge.
    Resilience
    Our research shows that a sailor's ability to steadily build 
resilience is a key factor in navigating stressful situations. 
Education and prevention initiatives train sailors to recognize 
operational stress early and to use tools to manage and reduce its 
effects. Our Operational Stress Control (OSC) program is the foundation 
of our efforts to teach sailors to recognize stressors in their lives 
and mitigate them before they become crises. We expanded our OSC mobile 
training teams, developed Bystander Intervention to the Fleet training, 
and deployed resiliency counselors on our aircraft carriers and large 
deck amphibious ships. The 21st Century Sailor Office is also 
conducting a Total Sailor Fitness curriculum review and developing a 
Resilience Management System to automate the collection and reporting 
of all destructive behaviors and better coordinate and integrate our 
resilience efforts. We also launched a new campaign across the Fleet in 
2015 called ``Every Sailor, Every Day,'' which emphasizes personal 
responsibility and peer support, so that sailors are even more 
empowered to look out for and help other sailors.
    Sexual Assault
    The Navy continues to pursue a deliberate strategy in combatting 
sexual assault. We continue to focus on preventing sexual assaults, 
ensuring victims are fully supported, improving investigation programs 
and processes, and ensuring appropriate accountability. These efforts 
include making sexual assault forensic exams available on all ships and 
24/7 ashore, having a cadre of professional and credentialed sexual 
assault response coordinators and victim advocates, special victim 
trained investigators and JAGs, and ensuring commands take all reports 
of sexual assault seriously and support the victim. We will enhance our 
response efforts by full implementation of deployed resiliency 
counselors on large deck ships, enhanced NCIS investigative capability 
using specially training Master-at-Arms, and continued legal assistance 
to victims through our Victims Legal Counsel program.
    Sustaining a professionalized response and victim advocacy system 
remains the top priority, but preventing sexual assaults in the first 
place is an imperative. Our strategy focuses on improving command 
climate, strengthening deterrence measures, and encouraging bystander 
intervention. To facilitate the latter, we trained facilitators to lead 
small, peer-group interactive discussions using various scenarios. 
Likewise, we have focused on raising awareness and accountability 
regarding retaliation to reduce the potential for re-victimization. A 
RAND survey of DOD found that 53 percent of retaliation is ``social'' 
or ``peer,'' so we are focusing in on that area. Navy efforts are 
aligned with SECDEF direction to enhance first line supervisor skills 
and knowledge in recognizing signs of possible acts of retaliation. 
Recent Navy survey results show that prevalence of sexual assaults is 
decreasing, but we remain fully committed to creating and sustaining a 
culture where sailors understand the importance of treating shipmates 
with dignity and respect at all times, in all places.
Manpower
    End Strength
    PB-16 supports an fiscal year 2016 Navy Active end strength of 
329,200 and Reserve end strength of 57,400. It appropriately balances 
risk, preserves capabilities to meet current Navy and Joint 
requirements, fosters growth in required mission areas, and provides 
support to sailors, Navy civilians, and families. Programmatic changes 
tied to force structure and fact-of-life additions resulted in modest 
PB-16 active component end strength growth. Examples of force 
structure-related changes include retaining personnel for CVN 73 and 
its air wing, restoring manpower to nine cruisers that will remain in 
operation, and building crews for new construction destroyers (DDG 51, 
DDG 1000) and submarines (Virginia-class). PB-16 end strength remains 
fairly stable across the FYDP, reaching approximately 330, 000 Active 
and 58,900 Reserves in fiscal year 2020.
    Sea Duty
    Navy continues to emphasize and reward sea duty. Aggregate Fleet 
manning (what we call ``fill'') increased from 93 percent in fiscal 
year 2013 to 96 percent in fiscal year 2014, the equivalent of roughly 
3,500 more sailors aboard surface ships. Also, we are very close to 
achieving our goal of ensuring that more than 90 percent of our sailors 
are serving in jobs at the required grade with requisite experience and 
training (what we call ``fit''). Navy is committed to reducing 
deployment lengths to 7 months, but in recognition of those who have 
been experiencing longer deployments (over 220 days), in 2014 we began 
providing additional pay called Hardship Duty Pay-Tempo (HDPT). We have 
also incentivized and rewarded sea duty, in general, by increasing Sea 
Pay.
Personnel Management
    Recruiting and Retention
    Navy recruiting and retention remain strong, although retaining 
personnel in certain critical skills continues to present a challenge, 
particularly as the demands we place on sailors and their families 
remain high. The threat of looming sequestration, along with a 
recovering economy, is a troubling combination. We are beginning to see 
downward trends in retention, particularly among pilots, nuclear-
trained officers, SEALs, and highly-skilled sailors in information 
technology, Aegis radar and nuclear specialties. We are using all tools 
at our disposal, including special and incentive pays, to motivate 
continued service in these critical fields.
    Gender Integration
    Integrating women across the force remain top priorities, because 
they allow the Navy to tap into the Nation's rich talent pool. Over 96 
percent of all Navy jobs are currently available to women and we expect 
to open all occupations by early next year. We are also focused on 
retaining women warfighters by increasing career flexibility through 
initiatives like the Career Intermission Program, which allows 
servicemembers to take a hiatus from their careers for up to 3 years to 
pursue personal priorities before re-entering the force. One of our 
major thrusts in fiscal year 2016 is to increase female accessions of 
both officer and enlisted in order to provide greater female 
representation in all operational units by 2025. We are setting a goal 
of increasing female enlisted accessions to 25 percent and changing the 
mix of ratings available to provide greater operational opportunity for 
women to serve. Integration of women into the submarine force is 
tracking well.
    Diversity
    Demonstrating our continued commitment to diversity, Navy recently 
established a Diversity Policy Review Board, chaired by the Vice Chief 
of Naval Operations. Individual community self-assessments focused on 
diversity trend analysis are also vetted at my level to ensure each 
warfighting enterprise remains free of barriers to advancement and 
committed to equal opportunity to our entire talent pool without regard 
to race, gender, country of origin, or religion. Additionally, Navy 
offers a range of Science, Technology, Engineering, and Mathematics 
(STEM) education and outreach programs to generate interest by the 
Nation's youth in these fields and open up opportunities for them to 
consider potential Navy careers where STEM expertise could be applied.
    Quality of Service
    Navy continues to invest in projects designed to improve sailor's 
quality of service, which has two components: (1) quality of work, and 
(2) quality of life. Further, all funds saved through ``compensation 
reform'' are directly invested in quality of work and quality of life 
programs. PB-16 invests in quality of service initiatives such as 
barracks and training building improvements, greater travel and 
schools, expanded use of tactical trainers and simulators, and 
increased funding for spare parts and tools. It also leverages smart 
technology devices and applications through an ``eSailor'' initiative 
to enhance training, communication and sailor career management ashore 
and afloat.
    Talent Management
    As our economy improves and the labor marketplace becomes even more 
competitive, the battle for America's talented youth in service 
continues to heighten. Today's generation, while remarkably similar in 
their desire to serve as the rest of us, have different expectations 
for a career of service. Meanwhile, our personnel policies and 
information systems are rooted in the assumptions of a previous era. 
Much like any legacy weapons system, that personnel and learning 
structure is in need of modernization. Thus, we are examining 
initiatives to modernize how we manage our future force, for example: 
(1) phase out strict Year-Group management practices in favor of a 
milestone-based promotion system; (2) improve lateral flows between 
Reserve and Active components to offer more agile pathways of service; 
and (3) upgrade our information technology, software, and tools to 
enable a more mobile, flexible, and accurate personnel delivery system. 
Further, we plan to build upon our cultural strengths through a number 
of family-centered initiatives, such as expanded child development and 
fitness resources, along with greater career flexibility for dual-
military and dual-professional families to grow together while serving 
our Nation.
    Transition Assistance
    A new Transition Goals, Plans, Success (GPS) curriculum replaced 
the 20-year old Transition Assistance Program (TAP) to improve career 
readiness standards and assist separating sailors. The mandatory 5-day 
core curriculum provides Veterans Affairs benefits briefings, the 
Department of Labor employment workshop, financial management and 
budgeting, and military to civilian skills crosswalk. Moreover, the DOD 
Military Life Cycle (MLC) Transition Model, implemented in 2014 in the 
Navy, is working to begin a sailor's transition preparation early in 
their career, by providing opportunities to align with civilian 
standards long before their intended separation, to achieve their post-
military goals for employment, education, technical training, or 
starting a business.
Character Development
    At all levels in the Navy, we emphasize a culture of integrity, 
accountability, and ethical behavior. All of these make up the 
character of our leaders. Good character enables unconditional trust 
throughout our ranks. This is essential to succeed as a unified, 
confident, and interdependent team. It must be inherent in all our 
operations.
    Navy continues to emphasize character development as a priority in 
our overall leader development efforts, which are outlined in Navy's 
2013 Navy Leader Development Strategy. In 2014, we established the 
Naval Leadership and Ethics Center (formerly known as the Command 
Leadership School), which serves as the means by which we guide our 
efforts. This new command, alongside our Senior Enlisted Academy, and 
Leadership and Ethics programs at the Naval War College, expands and 
improves character development initiatives at every level. We are 
developing an ethics curriculum (courses and modules) that will be 
embedded in schoolhouses across the Fleet. We are also strengthening 
our Navy Leader Development Continuum, which is the way in which we 
facilitate development of both officers and enlisted throughout all 
phases of their careers. We are not learning alone; we draw insights 
and share best practices with our sister Services. The Navy is 
committed to inculcating into every member of our profession the key 
attribute of good character. It reflects our Navy heritage and the 
citizens of our Nation expect that we uphold the highest standards of 
behavior and performance in the execution of duties.
                           navy reserve force
    Our Navy responded to extraordinary challenges over 13 years of war 
with the help of Reserve sailors. The men and women of our Navy Reserve 
have increasingly put their civilian careers on hold in order to 
operate forward, provide critical support to Fleet and Combatant 
Commanders, and enhance the performance of the Joint Force. The Navy 
Reserve is a valuable hedge against an uncertain and challenging 
security environment; they augment the Fleet with unique skills to see 
us through any challenge. Since September 11, Reserve contributions to 
the Active Duty Navy component have been significant--over 73,000 Navy 
Reserve sailors were mobilized in support of global contingency 
operations, providing tens of thousands of ``boots on the ground'' in 
Iraq, Kuwait, Bahrain, Afghanistan, and the Horn of Africa, as well as 
supporting key missions like those at Joint Task Force-Guantanamo Bay. 
On any given day, nearly 25 percent of the Navy Reserve Force directly 
supports the Navy worldwide--about 15,000 dailors.
    Based on our annual assessment of the Active/Reserve mix, PB-16 
continues investments in expanding critical capabilities within the 
Reserve component including: (1) surge maintenance, by selectively 
targeting reservists who bring specific, valuable civilian skill sets 
to the Navy Total Force; (2) intelligence support, by realigning end 
strength to support this vital mission; (3) cyber warfare, by ensuring 
the appropriate mix of Reserve manning to augment the Active Navy 
capability; and, (4) high value unit escort, by leveraging the Navy 
Reserve's ability to fill short notice requirements using Reserve 
Coastal Riverine Force units to assume CONUS high value unit escort 
missions from the Coast Guard. PB-16 maintains several vital Reserve 
capabilities, including all of the Navy-unique Fleet essential airlift 
assets (C-40A and C-130). These enable the Navy to meet short-notice, 
mission-critical airlift requirements more responsively than any other 
logistics option. It also supports Airborne Electronic Attack by fully 
funding a Reserve airborne electronic attack squadron, which is an 
integral component of Navy's cyclic operational expeditionary airborne 
electronic attack deployment capability.
                               conclusion
    For the last 3 years, the Navy has been operating under reduced 
top-lines generating capability shortfalls amounting to $25 billion 
less than the President's Budget requests. With each year that the Navy 
receives less than requested, the loss of force structure, readiness, 
and future investments cause our options to become increasingly 
constrained. Navy has already divested 23 ships and 67,000 personnel 
between 2002 and 2012. We have been assuming significant risk by 
delaying critical modernizations of our force to keep pace and maintain 
technological advantage.
    Unless naval forces are properly sized, modernized at the right 
pace, ready to deploy with adequate training and equipment, and able to 
respond with the capacity and speed required by combatant commanders, 
they will not be able to carry out the defense strategy, as written. 
Most importantly, when facing major contingencies, our ability to fight 
and win will not be quick nor as decisive as required. To preclude a 
significantly diminished global security role for the Nation's 
military, we must address the growing mismatch in ends, ways, and 
means.
    The world is more complex, uncertain, and turbulent; this trend 
will likely continue. Our adversaries' capabilities are modernizing and 
expanding. It is, therefore, vital to have an adequate, predictable, 
and timely budget to remain an effective Navy. PB-16 proposes the best 
balance of Navy capabilities for the authorized amount of funding, and 
enables the Navy to conduct the 10 primary missions outlined in the 
President's DSG and the QDR. But, there is considerable risk. PB-16 is 
the absolute minimum funding needed to execute our DSG. Should 
resources be further reduced below PB-16 levels, the DSG will need to 
be revised. If sequestration is implemented in fiscal year 2016, it 
will damage our national security.
    I thank this committee for their abiding support and look forward 
to working together to develop viable options for our Nation's future.

    Chairman McCain. I want to thank the witnesses, and those 
are very compelling remarks, Admiral Greenert. General Dunford, 
do you share Admiral Greenert's level of concern concerning the 
effects of sequestration, and the, as Admiral Greenert pointed 
out, a significant period of time before we can even recover 
from the present effects of sequestration?
    General Dunford. Mr. Chairman, I absolutely do. The 
sequestration of 2013 has certainly impacted our current level 
of readiness. Frankly, if we go to sequestration, we will be 
unable to meet the current strategy, and we will certainly have 
to reduce the capacity of marines that have forward deployed.
    Chairman McCain. I believe you were asked by another--I 
believe it was Senator King, does this sequestration put the 
lives of the men and women who are serving in uniform at 
greater risk.
    General Dunford. Mr. Chairman, I will take that. It 
absolutely does, Chairman, and in this way. We have readiness 
challenges at home station. My expectation is that when Marines 
are called, we will go, and they will either go late or they 
will go with shortfalls in equipment and training that would 
absolutely put young Americans' lives at risk.
    Chairman McCain. Admiral Greenert?
    Admiral Greenert. Absolutely, Mr. Chairman. A lot of people 
write recently about today in Today's Navy, a nice article 
recently. This is about the future Navy. Our benchmark is 2020. 
If we do not modernize, we will be late. We will not be ready. 
We will not have what we need to defeat and deny.
    Chairman McCain. Is it affecting morale and retention of 
outstanding men and women?
    Admiral Greenert. It is. The families are angry with 
sequestration in general and the threat of it again. We have 
pilots, a very key part of our ability to project, who are--our 
retention is low on pilots. It is low on nuclear-trained 
operators, Aegis technicians, and cyber.
    Chairman McCain. General Dunford, the deployments are 
longer. Is that correct?
    General Dunford. Mr. Chairman, the biggest significance is 
the time between deployments. Most of our units, our infantry 
battalions, our fighting squadrons, are deploying for less than 
a one-to-two deployment to dwell ratio. What that means is they 
are deploying for 7 months, and they are actually home for less 
than 14 months before they deploy. That continues almost at 
infinitum.
    Chairman McCain. So that is another factor on reenlistment.
    General Dunford. Mr. Chairman, it will be over time. We 
have not seen the impact on the ability to recruit and retain 
high quality forces right now, but it does have an impact on 
two things. It has an impact on training across the range of 
military operations, and it also has an impact on the amount of 
time our marines are able to spend with their families between 
deployments.
    Chairman McCain. Mr. Secretary, you and I have had 
conversations about the situation of the cost overruns of the 
aircraft carriers, of the Gerald R. Ford. I understand that the 
follow-on 78 and 79, I guess, they are or will be around $12 
billion each. Is that correct?
    Secretary Mabus. The 79 has a congressional cost cap of 
$11,500, and we are under that.
    Chairman McCain. I hope, Mr. Secretary, given new 
technologies, and drones, and a lot of other aspects of 
warfare, including the F-35 capabilities, that we will be 
looking at alternatives as well to the Nimitz-class or the 
latest class of aircraft carriers. Is that correct?
    Secretary Mabus. It is, Senator. I think that as you and I 
discussed, everything is getting smaller and faster with the 
possible exception of the military.
    Chairman McCain. I guess I am not quite clear on why--is it 
not true that the major cost overruns were due to advances or 
new technology in launching and electromagnetic aircraft 
launching system, advanced arresting gear, dual band radar, and 
advanced weapons elevators. Are those still the greater risks 
on the cost problem with the Gerald R. Ford and the Kennedy?
    Secretary Mabus. Mr. Chairman, you are absolutely correct 
that those were some of the reasons for the cost overruns. You 
and I are in pretty violent agreement that the way the Ford was 
built is not the way to build a ship. It was being designed 
while it was being built. Too much new technology was trying to 
be forced in, and that technology was not mature.
    Today, though, the Ford is 87 percent complete. The testing 
on the electromagnetic launch and the advanced arresting gear 
is where it should be, and it is moving along. The risk of 
anymore cost overruns, as you pointed out in your opening 
statement, we have stable costs for the last 3 years or more 
now, and it goes down every day. There is still some risk in 
the testing of those brand new systems that we have never used 
before.
    Chairman McCain. General Dunford and Admiral Greenert, 
could you give a brief update on the progress of the F-35?
    General Dunford. Mr. Chairman, in our case, the 1st 
Squadron will be at initial operating capability [IOC] this 
summer. That is the VMFA 121 out in Yuma, Arizona. I visited 
the squadron a couple of weeks ago. I am confident that we are 
on path to bring that squadron up to IOC, and we also have a 
good number of aircraft laid in across the next--across the 5-
year defense plan to bring the F-35B into service.
    Chairman McCain. Admiral?
    Admiral Greenert. We had our carrier test this past summer. 
It went great. Tailhook was certified. We had no bolters, so 
the avionics of the aircraft itself for the C model--that is 
ours--is good. We still have a way to go for the software. That 
is the 3F software. Right now we are on track for an IOC of 
late fiscal year 2018 or early 2019.
    My concern is that this software is able to integrate all 
of the weapons systems that we have on the current aircraft on 
our air wing, so this aircraft has to fit into our air wing. We 
cannot fit the air wing around the aircraft. But so far so 
good. We have to keep really close watch on it.
    Chairman McCain. Thank you. Senator Reed?
    Senator Reed. Well, thank you, Mr. Chairman, and let me 
first say that the chairman's questions regarding sequestration 
and your responses about the real and dramatic effects on the 
lives of the men and women that we serve are, I think, another 
strong indication of the need for collective and bipartisan 
action to end sequestration. So thank you, gentlemen, and thank 
you, Mr. Chairman.
    Mr. Secretary and Admiral Greenert, last year in the 
defense authorization bill, we in section 1022 created the 
National Sea-Based Deterrence Fund, which was designed to help 
you from a DOD [Department of Defense] level to build or 
replacement the Ohio-class submarine. Can I just ask both of 
you how you intend to use this fund, and in general your plans 
for the replacement of the Ohio. Mr. Secretary, if you want to 
begin?
    Secretary Mabus. Well, we very much appreciate the 
establishment of this fund. CNO and I have been talking for 
some time now about when we begin to build the Ohio-class 
replacement in 2021, if it is a pure Navy build, it will 
devastate some part of the Navy, either our shipbuilding, or 
readiness, or something, because of the high cost of these, and 
because we do not recapitalize them very often.
    If you look back in history, there is precedent for either 
making this a national program because it is the most 
survivable leg of our deterrence triad, or adding funds to Navy 
shipbuilding to accommodate it. The 41 for Freedom in late 
1950s, early 1960s, and the Ohio-class in the late 1970s 
through 1992, both times Navy shipbuilding was increased pretty 
dramatically to accommodate these submarines. But to show you 
the effects from 1976 to 1980, the Navy shipbuilding budget 
doubled to accommodate the Ohio-class. Our fleet still declined 
by 40 percent because it simply was not enough to do both.
    Senator Reed. Admiral Greenert?
    Admiral Greenert. Senator, first of all, I think it is a 
great start. I think we need to pursue clarity of the intent of 
the Congress, and what I mean by that is the legal 
ramifications for sources of the fundings we could put in 
there. Is it just other Navy shipbuilding accounts? Is it just 
other Navy appropriations, or do we mean the whole DOD could 
contribute to this fund, which, in my view, would be great.
    Senator Reed. Thank you very much. In my view it would be 
great, too, and that was the intent, I believe. The 
clarification we will try to produce for you, sir.
    General Dunford, again, in my opening remarks I talked 
about the Fighting Vehicle Program, and this has been an 
interesting and tortured path. The expeditionary fighting 
vehicle was cancelled. We have several different concepts, and 
this has spanned the careers of several commandants. Now, we 
are into this new amphibious combat vehicle, which is described 
as non-developmental. Seriously, your comments upon what you 
see is the challenge. What are you trying to accomplish by 
this, and how do you avoid the fate of the preceding vehicles, 
which we spent money on, but could never deliver?
    General Dunford. Senator, thanks. We have been working for 
some time, as you alluded to, to replace the 40-year-old 
amphibious assault vehicle. Until 2 years ago, we were trying 
to reconcile the protection required against today's threat, 
the costs that we could afford, and then the ship-to-shore 
capability, that high speed self-deploying capability.
    It turned out that we could not reconcile those three, and 
so a decision was made to break the program into thirds. So the 
third is to address the need for ground tactical vehicles with 
adequate protection from range-to-shore right now, and so that 
vehicle would be moved from ship-to-shore in a connector. The 
second phase would be to get our vehicles to at least have the 
same capabilities as today's assault amphibious vehicle. That 
is, it could self-deploy from an amphibious ship.
    From that point down the road, we have a decision point to 
then pursue again a self-deploying high speed vehicle. If at 
that time we can reconcile those three variables I talked 
about, or to continue to make improvements to the second phase, 
which is a vehicle with at or greater than capability to our 
current assault amphibious vehicle. But, Senator, the reason 
why we are where we are is we simply could not reconcile those 
three things--the cost, the capability, and the protection 
required against a current threat.
    Senator Reed. So you are focusing first on a vehicle that 
will be basically have some limited forwarding capability to 
get a short distance in a low surf, and then fight on land with 
all the protections we have seen against IEDs [improvised 
explosive devices] and those things, and all the lessons we 
have learned. That is the first phase.
    General Dunford. That is exactly right, Senator. We expect 
our vehicles will operate 90 percent of the time ashore, and so 
this first phase vehicle is optimized for ground protection and 
mobility ashore.
    Senator Reed. The second phase, is it going to be a 
completely different vehicle, or you are trying----
    General Dunford. No, Senator. I was out to the Nevada Auto 
Test Center about 3 weeks ago to look at the current state of 
the vehicles. Quite frankly, I think in most cases, we have 
asked for a vehicle that just provides adequate ground mobility 
and not necessarily a self-deploying vehicle. All of the 
individuals right now that are competitive in the process have 
a vehicle that actually I think may get pretty close to the 
second phase that we require.
    Senator Reed. Thank you very much, and just finally, Mr. 
Secretary, the director of operations, who will test the 
evaluation, has raised some concerns about the survivability of 
the LCS--and if Admiral Greenert wants to take the question 
also--and also the ones that have been modified to operate as 
frigates. Have you specifically established survivability 
requirements for the modified LCS, and have you--are those 
requirements much different than the initial requirements of 
LCS?
    Secretary Mabus. The small surface combatant task force 
looked at that and did upgrade the survivability by things like 
hardening the area around the magazine, around various combat 
systems. CNO has pointed out very accurately in the past, the 
best way to survive is not to get hit. So we have upped the 
defensive capabilities of that ship, and it is also a very 
ship, too.
    It is important to keep in mind that this is a small 
surface combatant, that the new upgraded ones have been 
designated a frigate. But they are not destroyers, they are not 
cruisers, and they have a very different role to play. But the 
survivability for a small surface combatant, particularly with 
the upgrades, meets our fleet requirements and meets the 
requirements that we have set.
    Senator Reed. Thank you. Thank you, gentlemen.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman. I would say to our 
panel we have good attendance up here, so we are going to be 
talking about a lot of systems, and I will kind of start off on 
one, Admiral Greenert, that I think has changed quite a bit, 
and that is the JSOW program [Joint Standoff Weapon]. I think a 
year ago they were talking about adding 4,400 or so of the 
JSOWs, and that was in the 2015 budget. I do not remember. What 
is the current inventory? If we were going to get--how many 
more would that represent when you said 4,400?
    Admiral Greenert. I will have to get you those numbers. I 
do not have them handy here.
    Senator Inhofe. I mean, is it like 2,000 now?
    Admiral Greenert. We benchmark against the combat 
requirement, and, again, I have to get you the number.
    Senator Inhofe. Okay, that is fine. But I guess my point 
is, if we were talking about projecting in last year's budget 
4,432 more of the JSOWs over the life of the program, which 
would have included at that time, because we have in this 
budget, or we had in this budget, 200 to be bought, then all of 
a sudden, at least it was to me, the program was terminated. I 
am just wondering what has happened that caused that not to be 
a necessary component as it was considered to be before now?
    Admiral Greenert. Well, we had to take some chances, and I 
am not happy at all. We do not have enough munitions. I am very 
concerned about it, and I think I expressed it. But the point 
was we felt we had the combat expenditure. We watched very 
closely how many we used during the year. When I say 
``combat,'' I mean we have enough for what we believe would be 
the model number, and can we reconstitute the line, and we felt 
we could. So we are taking risks. It is not good.
    Senator Inhofe. Okay. That is a good point. You are adding 
risk by having to do this. You would prefer not to.
    Admiral Greenert. I would prefer not to. I have risk in 
other munitions that are just bad. It is not a good picture, 
Senator.
    Senator Inhofe. Yes. Yes. No, that is right. Senator Reed 
talked about, General Dunford, about the F-35. Just to 
elaborate a little bit more, that would actually be there in 
replacing the F-18s, is that correct, and the EA6Bs?
    General Dunford. The AV-8s, Senator. It will replace three 
aircraft----
    Senator Inhofe. All three.
    General Dunford.--all of which are over 20 years old.
    Senator Inhofe. All right. Yes, that is right, 23 years 
old, the F-18s and the E6B-27. So and you have looked at the 
missions of all these, and you are satisfied that these 
missions are going to be met with this change and getting rid 
of the older, and the F-35s are going to be capable of doing 
it?
    General Dunford. Well, Senator, it will do that, but it is 
probably also important to point out that this actually does 
not just replace the F-18, the AV-8, or the VA-6. It is a 
fundamentally different capability. It is a transformational 
capability. It will do everything that those three aircraft 
will do, but also in terms of the information environment, it 
will do a significant amount more for the Marine Air-Ground 
Task Force.
    Senator Inhofe. You talked about the--no, Admiral Greenert, 
you talked about the pilots, and we have a pilot shortage. You 
have talked to your--the Air Force and the problems that they 
are having right now. Are your problems similar to that?
    Admiral Greenert. They are. What happens is people get 
deployed. They are flying all the time. In fact, they are 
flying so much, working up quickly to go on deployment, some of 
them say I cannot even get a wheel done. Then when we come 
back, we shut down, and they sit around here, and they look out 
on the tarmac, and there is a Super Hornet they would love to 
be flying, but we do not have the funding to provide that. They 
say what is with this? This is not what I signed up for.
    Senator Inhofe. That is the same thing that General Walsh 
talked about.
    Admiral Greenert. It is, yes, sir.
    Senator Inhofe. It is the same situation. Now, tell me if 
this is true because I remember bringing this up kind of 
comparing the cost of replacing some training versus retention. 
As I understand, the 10 years of the retention bonus was around 
$250,000. That is in the Air Force. Is that comparable to the 
Navy?
    Admiral Greenert. It is comparable. We have the same thing.
    Senator Inhofe. Yes. Yes. Then also, that training, if you 
take to them F-22 capability, is going to be something like $17 
million. I mean, up here we look at the economics of this 
thing, and obviously it is far better if we can retain these 
people rather than go through training. Have you thought of 
anything specifically that would help you in that respect?
    Admiral Greenert. We have, yes, sir. So, we use the term--
we want to optimize what we call our training plan, our fleet 
response training plan, and you hit the nail on the head. It is 
getting the flying done more consistently throughout, keep 
them, if you will, busy, proficient, that they feel a part, 
they have a predictable future out there instead of a cycling 
process as they get ready to deploy.
    Senator Inhofe. That is the message I get when I talk to 
those--we know there is a lot of competition with the airlines. 
We know that in the training, it is a supply and demand thing.
    Admiral Greenert. Senator, excuse me. A consistent budget 
will really help us be able to do that. Consistency is key.
    Senator Inhofe. Absolutely. I understand that. You said, 
General Dunford, when Senator McCain asked you some specific 
questions about it, you said, and I wrote it down, ``Funding 
below the President's Budget would require a new strategy.'' 
You answered a couple of questions about some of the specifics, 
but what would an overall new strategy look like? What are we 
talking about?
    General Dunford. Well, Senator, what I really meant was 
that on a day-to-day basis, we would not have the marines that 
are forward deployed to meet the sure allies, part of the 
strategy, and to respond to crisis, part of the strategy. Then 
we would have fewer forces than were required to meet a single 
major contingency, and so, in my mind that does, from a 
marine's perspective, drive the need for a new strategy.
    Senator Inhofe. Yes, I understand.
    General Dunford. So it is a capacity issue as well as a 
readiness issue.
    Senator Inhofe. Okay. My time has expired, but if you want 
to expand on that for the record, please do because that would 
be something that we need to be equipped with her.
    General Dunford. We will do that, Senator. Thank you.
    [The information referred to follows:]

    Inherently, the Marine Corps organizes, trains, equips, and 
provides forces to support the Nation's strategy which is where I will 
focus my remarks. Given the numerous and complex security challenges we 
face today, I believe DOD funding at the Budget Control Act level, with 
sequestration, will result in a need to review our strategy. Marine 
Corps Forces would not be able to execute the strategy given the 
implications of the potential resource constraints.
    As a forward deployed force in readiness, the Marine Corps is 
currently meeting the needs of the Nation, though at a cost to 
modernization and infrastructure. Over the coming years, maintaining a 
deployment to dwell ratio of 1 to 2 has the potential to consume 
readiness at a rate that exceeds the Corps' institutional ability to 
properly balance and sustain it. We are currently unable to maintain 
ready forces at acceptable levels of readiness for a major OPLAN though 
we are putting measures in place to improve future readiness. The 
potential for simultaneous OPLAN execution in multiple theaters exposes 
even greater risk. The aforementioned are exacerbated by sequestration 
and our initiatives to improve will never gain the irreversible 
momentum that I am seeking.
    The challenges we have under the current budget may result in a 
Marine Corps with fewer active duty battalions and squadrons than would 
be required for a single major contingency. Further budget reductions 
will result in fewer Marines and sailors being forward deployed in a 
position to immediately respond to crises involving our diplomatic 
posts, American citizens or our interests overseas. The Marine Corps 
will still be able to support OPLAN requirements and forward presence 
is okay in the short term; however, over time we will have to fix 
capacity and/or adapt strategy.
    The Marine Corps can currently meet the requirements of a major 
OPLAN in a single theater with challenges in lift and TACAIR capacity 
in the near term. A majority of the ground units are capable of meeting 
availability to load dates--some exceptions exist in key enablers, 
combat support such as tanks and AAVs, ground fire support, 
maintenance, logistics, and medical. Maintaining readiness levels for 
deployed and next-to-deploy forces impacts the ability for non-deployed 
forces to be ready to respond to other demands. An example of adjusting 
our service strategy would be to fulfill a requirement for a battalion 
with a two company battalion rather than a full three company 
battalion. Make no mistake, this battalion would be as ready and 
capable as the full battalion; it would just be more streamlined and 
tailored for the specific mission. Inherent in our Marine Corps ethos 
is the ability to be scalable and tailored for specific missions. We 
can use this strategy to mitigate capacity shortfalls while at the same 
time continue to fulfill the demand for Marine Corps capabilities and 
maintain readiness.
    Another strategy would be to provide in lieu of capabilities. For 
example, a potential increase in rotary wing attack aviation could 
partially mitigate shortfalls in artillery fires, though limitations 
such as weather and maintenance provide other considerations for risk. 
Shortfalls in capacity could be partially mitigated by the Joint Force, 
though capacity and readiness are also challenged for the Navy, Army, 
and Air Force. In total, mitigation strategies only increase our risk 
to supporting the defense strategy and serve to provide a false sense 
that the Marine Corps and Joint Force are appropriately sized and 
balanced.

    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman, and thank all of 
you for your service, and appreciate it very much. I will take 
a little different twist than this. There is not a person I 
know of in West Virginia that is not extremely proud of the 
military that we have and have served with distinction, and 
truly is proud to have the greatest military that history has 
ever recorded.
    With that being said, I sat in my first meetings in this 
Armed Services, and at that time we had the Joint Chiefs of 
Staff and Admiral Mullen was here. The question was asked to 
Admiral Mullen, what is the greatest threat that the United 
States of America faces? I thought I was going to hear his 
depiction of an evaluation of the around the world terror that 
we were facing. He did not even hesitate, and he said that the 
finances of our country is the greatest threat we face.
    We are at $18 trillion and growing. We will grow another 
half a trillion this year. With that being said, people back 
home in West Virginia want us to be responsible. They ask the 
question, and they said, ``you know, we hear that our military, 
our DOD, will spend more than the next seven or eight countries 
combined. How come we cannot do it more efficiently or more 
effectively? If money is the problem, we have to make sure that 
we have the money to do it. But are we using the money 
wisely?''
    So through procurement we are trying to get OTTIS 
[Operational Test/Training Instrumentation System]. We are 
trying to find out why procurements--why we have--everyone has 
a different platform. Everything seems to be siloed, if you 
will, rather than integrated. I do not know if you all have a 
comment or an answer to that, but it is hard to go back home 
and explain, you know, we are going to be--I think the request 
is a little under $600 billion this year for fiscal year 2016. 
Is the request $585 [billion]? I think just from the Navy, 
yours has gone from $149 [billion] to $161 [billion], your 
request.
    So they are not going this way, and I know you are saying 
if sequestering kicks in. Sequestering has a real onerous, I 
think, connotation to it because of the way it is administered. 
If we allowed you all to do maybe things differently than us 
intervening in it and trying to tell you how to do your job, it 
might be a little bit better.
    I appreciate that, too, and I know it is hard for you all 
to make those comments, Secretary. But are there ways that we 
can do it more effective and efficiently, and what can we do to 
untie your hands to let you do more with maybe a little more 
challenging financial, but be able to have the ability to do 
more with what you have?
    Secretary Mabus. Senator, first, you are absolutely correct 
that we as a military have to be efficient, have to be 
effective, have to use the taxpayers' money very efficiently. 
My father was the cheapest human that God ever saw fit to put 
on this Earth I think, and I am his son. So, we have been using 
the tools that this committee and this Congress has given, 
things that I talked about--firm fixed price contracts, driving 
them down, things like that.
    But I will show you a chart. Here is what we have to do to 
buy anything. You cannot read it. I cannot either from here. It 
is spaghetti. It is a labyrinth that you have to go through. 
You could help us by taking out some of those things. Make us 
focus on what is important, and that is the outcome.
    [The chart referred to follows:]
      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Secretary Mabus. We are also looking at things like 
contracts. The Navy spends about $40 billion a year on 
contracts, and until a couple of years ago we could not track 
that money from the time you appropriated--authorized and 
appropriated it until it got to the contract. We can today. We 
are saving today 10 percent a year, so $4 billion a year on 
contracts. We are going to do better than that. Those are hard 
things. Those are not easy things.
    The last thing is that there are really four parts to DOD 
or five parts. There are the four Services, the three 
departments--the Army, Navy, Air Force. But there is also DOD, 
the defense agencies, that are all overhead, and they have 
grown far, far faster than the Services.
    Senator Manchin. Let me just say one thing, and one final 
thing because my time will be running out real quick, and I am 
so sorry. But every time we talk about a lack of resources or 
money, General and Admiral both, it is always reduction-in-
force, how it is going to affect the people on the front line. 
But when we look at you all's staff, your staff keeps growing 
and growing and growing, even though you talk about reduction-
in-force. It does not make sense why we go to the front line 
immediately and have a reduction-in-force when the staff has 
made no sacrifices.
    Secretary Mabus. Can I take a shot at that, sir?
    Senator Manchin. Whoever. Whoever.
    Secretary Mabus. I am going to defend my two Service Chiefs 
here. Their staffs have not grown. The uniforms and the 
civilians in the Department of the Navy have not grown. In 
fact, from 2014 to 2016, we have a difference of 10 civilians. 
We are not growing. In fact, the Marines are shrinking, the 
Navy is staying steady, and the staffs are staying steady or 
going down. We are doing a 20 percent reduction in headquarters 
staff.
    But, again, it is what we call the fourth estate, DOD 
agencies, things like the Defense Finance and Accounting 
Service, things like the Defense Logistics Agency. Their 
contractors have just grown exponentially, and so that is where 
the growth is coming. It is not--I will speak just for the 
Department of the Navy, it is in not in the Department.
    Senator Manchin. Thank you.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you, Secretary Mabus, and maybe we 
will have time to get to that point, but let me go ahead with 
my planned questions. Admiral Greenert, we sort of decided on 
this rebalance to Asia before the latest provocations from 
Russia, before ISIS [the Islamic State of Iraq and Syria] took 
over so much territory. If sequestration returns in October, 
what sort of gap will these cuts create between Asia's 
rebalance strategy and the already important tasks of deterring 
Russia and defeating ISIS? Can you highlight to this committee 
the role amphibious ships will have in executing these 
missions? Admiral Greenert?
    Admiral Greenert. Thanks, Senator. Yes, Senator, one of the 
top priorities we have is presence. So other than funding the 
sea-based strategic deterrent, I need to make sure that we are 
present around the world. So my point would be we will pursue 
forward presence. You will not see much reduction under a BCA 
scenario in our forward presence. Most of the rebalance to the 
Asia-Pacific is what we call forward stationed or forward-
deployed naval force in Japan, in Singapore, and in Guam. Those 
will continue to, in fact, increase.
    Our distribution around the world is--we are increasing the 
forces in the [U.S.] European Command [EUCOM] as we look at how 
we are going to deploy in the future, strictly for the reason 
you stated with the instability in the AFRICOM [U.S. Africa 
Command] and in the EUCOM region. It is not dramatic, but it is 
there. Amphibious forces play a very important role, which we 
call the ``new normal,'' the ability to respond quickly to 
counter terrorism, to piracy, and to support our forces and 
defend Americans abroad, especially in our embassies.
    Senator Wicker. So the Asia-Pacific rebalance will not take 
a hit from sequestration, and our European presence will not 
take a hit from sequestration. Those hits will take place 
elsewhere. Is that----
    Admiral Greenert. Those hits, if you will, will take place 
in our ability to respond to supplement those forces forward, 
and those forces forward will not be as modern as they need to 
be. We will have dramatic decreases in modernization.
    Senator Wicker. Okay. General Dunford, I have been worrying 
aloud about Afghanistan. General Dempsey told our committee 
last week there is a terrorist network that stretches from 
Afghanistan to Nigeria, and we have to keep pressure on it 
throughout its entire length. He went on to say ``I think 
Afghanistan is and will remain an anchor point for that 
pressure.'' Do you agree with that, General Dunford?
    General Dunford. Senator, I do agree with that. I think of 
Afghanistan as a counterterrorism partner and as a platform 
from which the United States can protect its interest in 
Southwest Asia is absolutely critical.
    Senator Wicker. Am I right then to worry about the current 
plans for drawing down our forces in Afghanistan, to worry that 
those are based on more of a political calculation rather than 
the facts on the ground?
    General Dunford. Senator, my understanding from listening 
to Secretary Carter's testimony, and General Dempsey's 
testimony, and General Campbell's testimony is that they are 
all reviewing the current plan in light of the points you just 
made.
    Senator Wicker. I hope we do. Last week before the 
committee, I pointed out to Secretary Carter and General 
Dempsey that things are headed in the right direction in 
Afghanistan. I do not know if the American people appreciate 
that, but we have made great gains there. President Ghani and 
his chief opposition leader, Dr. Abdullah, and a partnership, 
they want us there as a stabilizing force, and I just hope that 
we are not about to throw away what progress we have made.
    Secretary Mabus, you and I have been friends a long time. 
Remarkable testimony actually. Very profound statement that you 
had, which you, of course, had to abridge during your oral 
remarks. You mentioned what Thomas Paine said about the cause 
of America is in a great measure the cause of all mankind. I 
almost want to substitute the word ``cost'' there, and it seems 
that it falls on the United States of America. You also 
correctly say for 7 decades the United States and Marine Corps 
have been the primary protector of this international system. 
We are doing it for everybody else.
    There is a sound basis in this proposition that rising 
international prosperity is directly linked to the U.S. Navy. 
Thank you to our military and to our Navy. We have kept the sea 
lanes open you say. We have kept freedom of navigation open for 
anybody engaged in peaceful and legitimate trade. As the 
President said, we've been the anchor of global security.
    This is for you, but also for our friends internationally 
listening to this. We are going to have to insist on more of a 
contribution from our international partners. We keep the lanes 
open for them. Our friends in Europe, our [North Atlantic 
Treaty Organization] NATO friends, our other friends in Europe 
are depending on what exactly you are talking about. I would 
just say we are going to have to collectively come up with a 
plan to convince our partners in international security that it 
is in their interests, too, to make the financial sacrifice to 
help us afford all of this protection that we are giving to the 
world. Would you like to comment on that, Mr. Secretary?
    Secretary Mabus. Well, first to say we have been friends 
for a long time, and second to say that it is one of the 
reasons that we are pursuing these partnerships, and that is a 
message that you just gave that I take to countries around the 
world that we cannot do it by ourselves, and that they have to 
bear their fair share of any burden.
    As part of that, to be interoperable with us, to exercise 
with us, to make sure that we go to--we go into things 
together. One of the things that--one of the tangible things 
that is happening right now is the French aircraft carrier 
Charles de Gaulle is in the Arabian Gulf conducting strikes 
against ISIS. That is a sort of partnership that not only we 
need, but that the world needs.
    Senator Wicker. Thank you, and I have gone way over. I hope 
that I speak for Senator Hirono, my ranking member on the 
Subcommittee on Seapower, that you will perhaps give us some 
language to address the problems you pointed out in that very 
confusing chart. If there are suggestions you have for ways 
that we can cut through that red tape and make procurement of 
important weapon systems a little easier and a little more 
favorable to our fighting men and women, I hope you will get 
that to Senator Hirono and me. Thank you.
    Secretary Mabus. I would be very happy to. Thank you, 
Senator.
    Chairman McCain. The Senator is correct. He has gone way 
over. [Laughter.]
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman. I have taken 
warning of that comment that you just made. Mr. Secretary, 
thank you for your service, and I want to tell you, and you 
already know, you have a great team sitting there with you, 
General Dunford, Admiral Greenert. Admiral, thank you for 
everything you have done for our country. We were 
extraordinarily blessed to have you on command, and we 
appreciate it.
    I also want to mention, Mr. Secretary and to Admiral 
Greenert, I want to take a moment to recognize the superior 
performance of the Navy's nuclear forces. It has been 
exceptional. You have created a culture of outstanding 
performance, and it has not gone unnoticed. So, as a Nation, we 
really feel in your debt for having done all of that.
    Now I want to ask you about suicide prevention. It has been 
such a challenge for our Services. It has been something we 
have worked on together. What I want to talk about is physician 
assistance. They have a great reputation in the mission, a 
great reputation for medical care. The first is to Admiral 
Greenert and to Secretary Mabus, and then I will get to General 
Dunford second. But to Admiral and Mr. Secretary, what are your 
thoughts about expanding the Services' use of physician 
assistants specializing in psychiatric care to fill some of the 
provider gaps that we see?
    Admiral Greenert. It is an excellent idea. We have looked 
at things like this. I have to go back and take another round 
through that, but clearly we can use more folks to help us with 
the resiliency in the psychological arena.
    Secretary Mabus. Senator, I am a big fan of physician 
assistance, of nurse practitioners, of people that we can get 
out in bigger numbers to help with some of this resiliency, 
because as you pointed out, suicide is one of the big 
challenges we face, and not just in the military. It is the 
second leading cause of death of Americans 18 to 32 years old.
    Senator Donnelly. It is a staggering and scary statistic. 
General, you have done a great job in embedding mental health 
providers with the expeditionary units. What are your thoughts 
on the utility of physician assistance also helping in the 
Marine Corps with psychiatric care?
    General Dunford. No, Senator, thanks, and I think my answer 
would be similar to Admiral Greenert. It is in the sense that I 
would be supportive of anything that would increase the 
capacity of us to deal with the resilience of our marines and 
sailors, and also their mental health.
    Senator Donnelly. Okay, thank you. Mr. Secretary, at Crane 
in Indiana, we work on counterfeit part detection. How big a 
threat do you see that being in the years ahead?
    Secretary Mabus. Well, it is something that we have seen in 
the past, and it could be critical in the future. It is 
important for us to stay on top of that because some of the 
counterfeit parts that we have detected that Crane found 
earlier were critical parts in our submarines, for example, and 
you cannot take chances on things like that. It is one of those 
capabilities that we have absolutely got to keep up, and it is 
part of the acquisition strategy that we have to have adequate 
oversight.
    I will go a little bit further here in that our acquisition 
workforce, people at Crane, people around the country, that 
oversaw things like this, went down pretty considerably. Since 
2010, we have been rebuilding that workforce to do exactly some 
of those very specialized skills like that.
    Senator Donnelly. General Dunford, the Marines have played 
such a strong role in Anbar Province in Iraq over the years. A 
lot of extraordinary relations were created between the Marines 
and the Sunni tribes. As we take the battle to ISIL, can you 
give me an update as to what role the Marines are playing in 
terms of trying to cultivate those long-term relationships 
because they are so critical to our success?
    General Dunford. Thank you, Senator, and we do, in fact, 
have forces in Anbar Province today. We have two 25-man 
training teams that are with the Iraqi 7th Division. We also 
have a Marine Corps colonel who is the commander of our Special 
Purpose Marine Air-Ground Task Force, and that force now is 
focused on supporting General Austin's counter-ISIL efforts.
    In addition to developing those relationships in Anbar 
Province, we have marines protecting the embassy in Baghdad, 
and then also we provide the tactical recovery of aircraft and 
personnel missions. So we support the strikes that can win both 
with carriers and with joint force aircraft. We support the 
strikes that go into Iraq and Syria with the V-22 so that if 
something did happen, we would be in a position to recover 
aircraft and personnel.
    Senator Donnelly. Thank you. Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman. Gentlemen, thank 
you for your service. I would like to follow up a little bit on 
what Senator Inhofe was discussing, and, in particular, Admiral 
Greenert, you were responding to the munitions questions, but 
this would be for both you and General Dunford. In your 
judgment, are your munitions inventories sufficient to support 
current operations and the defense strategic guidance plan? Are 
there individual munitions whose inventories are either present 
or projected, which are insufficient to meet the requirements? 
If so, what are they, and what is being done to address the 
shortfalls?
    Admiral Greenert. For operations today, we have sufficient 
munitions. For operations in the future, my benchmark year, our 
benchmark year, is 2020. There is a series of missions we have 
to do. They are outlined on the card that I gave you. They are 
effectively based upon the war plans. We have insufficient 
munitions in 2020, even some munitions in the President's 
Budget. They are air-to-air. They are surface-to-surface, if 
you will, cruise missiles. Some of our air-to-ground, and as 
Senator Inhofe mentioned, the joint standoff weapon, the JSOW.
    Now, the air-to-air has two elements. There is a longer 
range and a medium range. Both of those have shortfalls. In our 
lightweight torpedo we have a shortfall, and our heavyweight 
torpedo we have a shortfall. A ``shortfall'' is defined as the 
combatant commander believes they need all of this to win in 
the model, you know, campaign, and you have to have enough to 
reload so that you are not just standing around here saying, 
well, we won, but we are empty, if you see what I mean. So that 
is kind of the baseline, sir.
    Senator Rounds. General Dunford?
    General Dunford. Senator, thank you. We have adequate 
ammunition for today. We have taken risk and ammunition that 
would be needed for a major contingency as we have dealt with 
the budget challenges. The three major areas that we have 
shortfalls are in our javelin systems and tow systems. Those 
are anti-tank weapon systems. The other areas in HIMARS [High 
Mobility Artillery Rocket System] rockets, that is an artillery 
system, a rocket for artillery. There are a large number of 
other smaller areas of ammunition that we are short. Those are 
the main areas. Again, it has been a decision that we have made 
as we try to balance risk.
    For the Marine Corps, as I mentioned in my opening 
statement, we always ensure that our units that are forward 
deployed or next to deployed have the wherewithal to accomplish 
the mission. So, what we end up doing is taking risks at home 
station and against a major contingency, and that is exactly 
what we have done in the case of ammunition.
    Senator Rounds. Thank you. Secretary Mabus, you pointed out 
in the procurement process the complications and the added 
costs that come with that. Are there programs that would 
benefit from cost reduction initiatives, such as multiyear 
procurement or block buys that do not currently have those 
authorities? If there are, would you care to elaborate on them?
    Secretary Mabus. Well, Senator, thanks to this committee, 
in particular, thanks to Congress, we have multiyear authority 
on things like the Virginia-class submarines we bought 10 
submarines for the price of 9 because of that multiyear. Now we 
have a multiyear on the Marine Osprey V-22s, and it has 
dramatically driven down the costs. We have a multiyear on our 
VDG-51s, our destroyers, which has also pretty dramatically 
driven down the costs, block buys on the Littoral Combat Ship.
    Any time we can do that, we very much want to and 
appreciate this committee. Expanding those authorities to do 
that for weapon systems for things like that would certainly be 
helpful. But it is some of the things, as I said in my opening 
statement, it is just basic business concepts, getting more 
competition in, doing some of these longer-term things, so that 
industry knows what we are going to buy so that they can make 
the investments up front in infrastructure and job training so 
that they can buy things in economic order quantities so that 
we can drive the costs down. The chart I held up shows just 
some of the steps that we have to go through. Even if we get a 
multiyear, even if we get a block buy, we have to go through 
this very convoluted process that really adds no value at the 
end, and it does not give us a better weapons system.
    Senator Rounds. Thank you. Mr. Chairman, I yield back my 9 
seconds.
    Voice. You are a hero.
    Chairman McCain. Very thoughtful. Senator Blumenthal, you 
have an extra 9 seconds.
    Senator Blumenthal. Thank you, Mr. Chairman. I want to 
begin by thanking all three of you for your extraordinary 
service to our Nation. Admiral Greenert, particularly, my 
personal thanks to you for your numerous visits to Connecticut 
and your strong advocacy of our Navy's strength, particularly 
when it comes to submarines. I know that all of us on this 
committee and the American people join me in gratitude to you.
    I want to ask a question about submarines, the Virginia 
Payload Module [VPM], which I think is critically important to 
the Virginia-class submarines that we are going to be 
procuring. The VPM adds significantly to the number of 
Tomahawks that can be prepared--I think it is 76 percent--which 
will be especially important at a time when the number of boats 
in our fleet diminishes to minimum or below minimum strength. I 
am wondering whether there is the possibility that that 
acquisition program--I know that the VPM, Virginia-class 
submarines are going to be procured beginning in 2019 with one, 
and then in subsequent year one. Whether that program can be 
accelerated so that more of the Virginia-class boats have the 
VPM and are able to increase their capacity to deliver that 
kind of attack.
    Admiral Greenert. We are going to look at that, Senator, 
and by I think in April/May we will be done studying that. We 
would like to do that. We have to look at the technical risks 
associated with that, so if it is feasible, we will give it a 
good try to get that one. If we go to that year, 2018, we are 
into--the Secretary just mentioned a block buy, that we have a 
block buy in there. So we are going to have to transition that 
bridge, if you will, into trying to manipulate such a major 
part into a block buy. So I do not know what it will do, but we 
will have to study that.
    Senator Blumenthal. What do you think is the timetable for 
making that determination?
    Admiral Greenert. By May we should have an answer. We will 
be working very closely with your committee and make sure they 
know--I am sorry, with your staff and make sure they know how 
it is coming along.
    Senator Blumenthal. If you could keep us informed, I would 
appreciate it.
    Admiral Greenert. Will do, yes, sir.
    Senator Blumenthal. Let me move to an issue that I know 
concerns all of you, the impact of post-traumatic stress, the 
care for our men and women in uniform. General Dunford, I know 
you have been very, very cognizant and attentive to this issue. 
Are you satisfied that this budget has enough in the way of 
resources to deal with post-traumatic stress and traumatic 
brain injury, which, as you also know, is the cause of not only 
a threat to readiness, but also suicide and other facts?
    General Dunford. Senator, we consciously protected those 
programs as we built the President's Budget in 2016. But I 
would tell you, again, it goes back to what happens with BCA 
levels or sequestration. It will become increasingly difficult 
to protect those kinds of programs as well as a number of other 
programs as we draw down the budget even further.
    Senator Blumenthal. On that topic, Secretary Mabus, the 
connectivity to the Department of Veterans Affairs (VA) on 
health issues, on a number of personnel-related issues has been 
questioned and challenged in this very room by the VA's 
officials and by other members of DOD. I wonder whether there 
is more that you can see being done to better relate and 
transfer information that is important to disability claims, to 
healthcare in the VA, and so forth.
    Secretary Mabus. Absolutely, Senator. That is one of the 
critical things we do, particularly for our wounded or injured 
as we move them from active duty to the VA. We have a goal in 
days of how long it takes to move someone. Both Navy and Marine 
Corps are under that goal. We are doing it faster.
    But the goal is not a quick goal. It is too long, and we 
need to get better at that. We need to get better at having 
systems that talk to each other between DOD and the VA. But it 
is something that we are very, very conscious of, and trying to 
eliminate some of disability determination that both DOD and 
the VA run, and sometimes they do the same things, just at 
different times.
    Senator Blumenthal. Thank you. Thanks, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman. Gentlemen, thank 
you so much for being here today. I appreciate your service and 
your willingness to testify in front of this committee.
    General Dunford, I would like to start with you, sir. The 
budget that we have right now in front of us reflects a switch 
from land-based to operations, large-scale battles, back to 
being a quick reactionary force for the Marines, and I know 
that the Marines are going to adapt accordingly. They always do 
that very well. But I do worry that our forces are going 
through a lot of uncertainty with financial constraints, and we 
seem to be caught off guard by our adversaries.
    Our enemies are capturing stockpiles of weapons, some of 
which are the M-16s and the M-4s. We have been using this 
individual weapon system for 50 years now. It was developed in 
1964. This still remains our soldier and our airmen's basic 
rifle, and that puts us at an equal playing level with our 
adversaries on the ground. Is it possible that while we are 
taking a look at advancing our ships, modernizing our ships, 
modernizing our aviation platforms, within the budget, is there 
room to move on advancing individual weapon systems that put us 
at a technological advantage over our adversaries?
    General Dunford. Senator, thanks for that question, and 
that actually is one of my greatest concerns. We know 
historically the Marine Corps needs to invest a minimum of 
about 11 or 12 percent, and that is fairly small, of our 
overall obligation authority into modernization and capability 
development.
    This year we are at about 9 percent, so it is lower than it 
has been historically, and I am concerned. But today I think we 
are doing a pretty good job of resetting our capabilities to 
the fight that we had yesterday. I am not satisfied we are 
investing enough in the capabilities that we need to fight 
tomorrow. What you are suggesting is modernization of things 
like weapon systems.
    I would say this. I agree with your point that we need to 
be able to do that, but I also would just make a point that it 
is not just a weapon, it is who is behind that weapon. So, it 
is still not a fair fight even if the enemy has the same weapon 
as we do. It is the marine behind the weapon that makes the M-
16 most effective.
    But your point about increased investment in these areas, 
that is one of the sacrifices we have made as we have continue 
to fight today's fight and make sure our marines that are 
forward deployed have what they need. We have taken risk in our 
capability development.
    Senator Ernst. Exceptional. Thank you, General, for 
pointing out it is that marine that is behind that weapon 
system, and making sure that we are training them appropriately 
and have the means to do that is extremely important. One thing 
that I would love to address to both Admiral and to you as 
well, General, and Secretary, in the statements we have talked 
a little bit about the total force that we have out there, 
which would include not only our active duty personnel, but 
those Reserve members that are being used as operational 
forces. I would love to hear you elaborate a little bit about 
the role that our Reserve members have played in backfilling 
for your components.
    Admiral Greenert. Well, I would be remiss if I did not 
acknowledge this is the 100th anniversary of the Navy Reserve 
this year, in fact, just a few days ago. So happy anniversary 
to the Navy Reserve.
    Senator Ernst. Yes, happy anniversary.
    Admiral Greenert. We are absolutely unable to function 
without our Navy Reserve today. They have gone from sort of 
folks that were there for a strategic force in case of the big 
war to now they are part of our total force. They do our 
logistics, all of our logistics, a lot of our medical. They are 
in cyber in a huge way. As we go to the unmanned in the remote 
areas, they are our operators in waiting, and a lot of them are 
integrating fully in that regard. They do our Riverine Squadron 
[RIVRON] force. That means our high value units, our 
submarines, our ships out and around the world, and they are 
building partnership capacity. So there are other areas that 
they are working their way into, so a very effective force 
woven into the fiber of who we are today.
    Senator Ernst. Thank you.
    General Dunford. Senator, thanks. Our ability to meet the 
combatant commanders' requirements on a day-to-day basis and in 
response to a major contingency is inextricably linked to the 
readiness of our Marine Corps Reserve. They are integrated into 
everything that we do to the point where when we look at our 
requirements over the next couple of years, we actually have a 
force generation plan that fully integrates our Reserves into 
our ability to meet those forward presence requirements every 
day.
    So that to us is what we mean by when you use the term 
``operational reserve.'' What it means is that we are using 
them on a day-to-day basis to meet not only the routine 
requirements of the combatant commanders, but, again, the 
historic need for a strategic reserve that could respond to an 
unexpected major contingency.
    Senator Ernst. Thank you very much, gentlemen. Thank you, 
Mr. Chairman.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman. Gentlemen, thank 
you for your service, and a particular aloha mahalo to Admiral 
Greenert, this being your last force posture testimony.
    Secretary Mabus, I am very committed to the rebalance of 
the Asia-Pacific, and we had a discussion about that yesterday 
between you and me. So, it is really important that our efforts 
to maintain stability in the Asia-Pacific area is important to 
our national security even as there are conflicts arising in 
other parts of the world. As you stated in your testimony, ``We 
must have the right platforms in the right places to ensure our 
friends and allied understand our commitment.'' So the 
rebalance has to be more than rhetoric, and as we discussed 
yesterday, I trust that the Navy, as it updates its strategic 
lay down and dispersal plans will, ensure that future plans 
will reflect the rebalance in terms of equipment, personnel, 
and partnership opportunities. I certainly look forward to 
further discussions with you.
    Secretary Mabus, do you think that this budget reflects our 
continued commitment to the rebalance with sufficient 
specificity?
    Secretary Mabus. Senator, I do. The commitment to the 
rebalance is real. It is absolute. You can begin to see the 
things that are already happening. You are seeing the second 
deployment of an LCS to Singapore, and by 2017 we will have 
four LCSs in Singapore. The crews will fall in on the ships 
instead of the ships coming back home.
    Today you are seeing more than 1,000 marines rotationally 
deployed to Darwin, Australia, and within the next year or 2 
that will go up to a full--nearly 2,500 marines, Special 
Purpose Marine Air Ground Task Force. You are seeing the plans 
that we have to put our newest equipment, both ships and 
aircraft, in the region. We are going from about 55 percent of 
our fleet in the Pacific to 60 percent.
    But I think the important number is that the fleet is 
getting bigger so that 60 percent of this fleet is going to be 
bigger than the fleet of the past. We in this budget 
specifically have the resources to carry out that, but I will 
echo Admiral Greenert and General Dunford. This is the minimum 
that we have to have in order to do not only the rebalance, but 
all the other missions that we are called upon to do.
    Senator Hirono. Thank you. I think I heard your response to 
Senator Donnelly's question about your concern about 
counterfeit parts, and I believe you said that you do have a 
concern about that. I just wanted to ask you one question, 
though. You do have a concern about counterfeit parts.
    Secretary Mabus. Yes.
    Senator Hirono. So I was just wondering whether you were 
aware of any technological product that can be embedded in 
parts to ensure that it is not a counterfeit part.
    Secretary Mabus. Senator, I am not aware of any specific 
chip or whatever that you can imbed in it. What I am aware of 
is that our quality control folks, places like Crane, Indiana, 
that the Senator was talking about, are exceptionally good at 
spotting those counterfeits.
    Senator Hirono. I am aware of a particular product that I 
would love to talk with you further in a different context.
    Regarding your energy efforts, we do need a sustained long-
term commitment to research and development in this area, and 
meeting our energy security needs and preserving the 
superiority of our forces in the face of energy supply 
challenges in the 21st century are important goals. In your 
testimony, you highlighted the 2009 formal energy goals for the 
Department of the Navy, which includes using energy more 
efficiently and diversifying our sources of power, and 
certainly, I will agree with your efforts. Could you give us an 
update briefly on the 2009 formal energy goals, and how does 
the President's Budget proposal support these energy goals?
    Secretary Mabus. I would be happy to. The biggest goal was 
by no later than 2020, at least half of all energy, both afloat 
and ashore, will come from non-fossil fuel sources. The goal is 
to make us better warfighters. In terms of our basis, we will 
be there at the end of 2015, and we are saving money by doing 
it. We will have a gigawatt of power into our bases from non-
fossil fuel sources by the end of 2015.
    In terms of afloat, we will buy no alternative fuels unless 
it is absolutely cost competitive with traditional fuels, but 
that seems to be the case even with today's low oil prices, and 
we are moving pretty aggressively to do that. We have 
demonstrated--we have certified all of our ships. We have 
certified all our ships. We have certified all our aircraft on 
this. In terms of efficiencies, we are making great strides in 
efficiencies, and the President's Budget supports both the 
diversifying--the kinds of energy and also the efficiencies.
    Senator Hirono. Thank you, and I appreciate the indulgence 
of the chair. I have gone over. Mahalo.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. I want to thank the chairman, and I want to 
thank all of you for your leadership to the country and our 
military at such an important time. I just wanted to associate 
myself with some of the comments that Senator Blumenthal made 
about the Virginia Payload Module. I am very interested if that 
is feasible as well, Admiral, in going forward, and I look 
forward to seeing what you come forward with in May. I think it 
is important if we can expedite that and it is possible to do 
that.
    I also wanted to follow up, Admiral. In your prepared 
statement, you noted that our naval shipyards and depots are 
critical to maintaining warfighter readiness for the force, and 
I certainly agree with that. In order to have a strong attack 
submarine fleet, we need to ensure that those submarines are 
maintained properly and quickly, and that they are combat 
ready.
    One thing that I wanted to ask about is making sure that 
the facilities we have are prepared to do that, and doing that 
in the most efficient way so that we can save dollars and get 
things done sooner. I know that Senator King shares my pride 
with the work done at the Portsmouth Naval Shipyard, and, in 
fact, they have--the workers at the shipyard have actually been 
producing ahead of schedule the maintenance--just recently in 
April of last year they undocked the USS Topeka days ahead of 
schedule--20 days ahead of schedule. In June following a 
maintenance availability, the workers at the Portsmouth Naval 
Shipyard returned the USS California to the fleet 14 days ahead 
of schedule. In September they delivered the USS Springfield 
back to the fleet ahead of schedule and under budget.
    One of the things that they have brought to attention of my 
office is that they are doing this with facilities that are 
frankly outdated in some instances. They are working in 
structural shops that are on average over 100 years old, and 
have deteriorated to the point of partial failure. For example, 
the heat treat forge area was recently condemned, and the 
buildings have exceeded their useful life. The fact that they 
are delivering faster and under budget even with these 
facilities, can you imagine what they could do with more modern 
facilities?
    There is a military construction project that has been 
submitted for reprogramming. It is called P-266 Structural 
Shops Consolidation. It will address many of the problems that 
I just talked about, and it will achieve efficiencies, improve 
working conditions, most importantly, save money and time, 
which I know we are all looking to do, and result in submarines 
being sent back to the fleet even more quickly. I am confident 
if we are able to do this, it will allow them to do an even 
better job, and they are doing an incredible job now.
    So, Admiral, I am not expecting you to be familiar with all 
of these projects offhand, but this is a very important one to 
our shipyard, and I think that will, most importantly, drive 
cost efficiencies and results for the Navy. So I would like an 
update on where this reprogramming request sits. Obviously I do 
not need you--if you have it now, great. If you do not, if that 
is something you could submit to your office as quickly as 
possible, I would appreciate it.
    Admiral Greenert. I will take it for the record and get you 
a complete answer, Senator.
    Senator Ayotte. Thank you very much.
    [The information referred to follows:]

    Naval Shipyards are critical to our warfighting readiness. Despite 
current fiscal constraints, we are working hard to address the most 
critical deficiencies at the shipyards. For example, between 2012 and 
2015, the Navy invested more than $240 million to repair and modernize 
the infrastructure at Portsmouth Naval Shipyard.
    One of Navy's investments at Portsmouth Naval Shipyard is a fiscal 
year 2014 military construction project, also known as P-266, which 
will considerably update and consolidate the structural shops at the 
shipyard. Unfortunately, the project requires an additional $20 million 
to execute, so we are preparing a reprogramming package for Department 
of Defense and Congressional approval. Pending Congressional approval, 
we expect to award the project before the end of this fiscal year.

    Senator Ayotte. I also wanted to follow up just to ask in 
general about the importance of the Navy civilian workforce, 
and what we see, Secretary Mabus, in terms of the importance of 
the civilian workforce. Many of them--I think as the economy 
improves, the competition for the types of skills that they 
have, that they are able to work obviously on such important 
equipment like our attack submarines or other equipment, then 
we are going to see more competition for their skills. We want 
to make sure that they stay in the Navy and able to serve the 
Navy.
    So can you talk to me about what is the strength of the 
civilian workforce? How do we see recruitment going forward? 
What are the challenges we face there, and any concerns you may 
have?
    Secretary Mabus. Thank you, Senator. In terms of the public 
shipyards like Portsmouth, if you want to see the effects of 
sequestration, you do not have to look any further than that. 
There was a hiring freeze put in place because of 
sequestration, so as people left they could not be replaced. 
There was a furlough that some of them were exempt from, but 
not all. There was the government shutdown when they could not 
work.
    Because of all those things, we have a backlog in those 
public shipyards. They do great work, but they have to have 
enough of those artisans, enough of those people with the 
specific skills to do it. Again, that is a great tangible 
example of not only effects immediately of sequestration, but 
how it stretches out because it will take until about 2018, as 
the CNO said, to recover from that.
    The civilian workforce writ large, we would not have a 
fleet to put to sea without those civilians, and we lost 12 
civilians killed in the line of duty at the Washington Navy 
Yard. So they are in every way an integral, vital part of our 
Navy and Marine Corps.
    Senator Ayotte. Thank you, Mr. Secretary. Admiral?
    Admiral Greenert. Ma'am, this morning there is a great 
article on what the director for Office of Personnel Management 
is trying to do for quick hiring. We are trying desperately to 
hire people into our shipyards because we need to build it up. 
It is hard. The sequestration has hurt us, and the Gordian Knot 
is getting through the paperwork to hire someone. It is 
difficult to compete for this young talent.
    Senator Ayotte. These are incredibly talented people. I 
mean, I have had the chance to meet many of them, exactly.
    Admiral Greenert. Yes, ma'am.
    Senator Ayotte. Thank you.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman. Admiral Greenert, I 
want to associate my comments. It must be--I am sure you are 
very sad that this is your last hearing before this committee, 
but you have had a long and very distinguished career, and I 
want to thank you. Secretary Mabus, your dad should have met my 
dad. I can remember my dad standing in front of me on the long 
distance telephone looking at his watch watching the time go 
by. I think they would have had some spiritual kinship.
    Admiral Greenert, the Arctic is an important area of 
policy, and I know you have been looking at it. The Navy has 
developed a strategy. Just briefly, do you see the Arctic as an 
emerging area of important--of strategic importance, national 
security importance to this country?
    Admiral Greenert. Senator, I do. I think we need to look at 
it deliberately and understand it. Therefore, things like ICEX 
[Ice Exercise], where we were together almost a year ago, we 
need to do it more frequently, get industry up there and study 
the place, find out when is it going to melt, what are the sea 
lines of communication that will open, are there territorial 
disputes? Who has them? Are there threats? Russia is increasing 
their military presence. It sorts of makes sense, and if that 
is where a sea line of communication is. But also, how do we 
survive up there, our ships, our aircraft, and our people?
    Senator King. I think just a simple example about 
infrastructure, icebreakers, we have one heavy duty, one medium 
duty Coast Guard. The Russians have 17 icebreakers in the 
Arctic. If we are taking about innocent passage, trade, 
icebreakers are the highway builders, if you will, and that is 
an area. I know it is not a naval question, but, I mean, that 
is an example of how we are really not adequately, I believe, 
focusing on our strategic interests in that region.
    Again, for Secretary Mabus and Admiral Greenert, it strikes 
me that one of the issues that really is not talked about--we 
talked a lot about sequestration, and I do not have to pile on 
on that subject. We all agree that it is a serious risk to the 
national security of this country. But the industrial base, you 
cannot turn off and on a shipyard. One of the things that 
worries me as I look at charts from Bath Iron Works, for 
example, in Maine that if we do not have the workload, the 
employment drops down. If a skilled shipbuilder leaves to go to 
some other area of the country or some other profession, they 
are gone and you cannot just turn that back on. Secretary 
Mabus, is that something that concerns you?
    Secretary Mabus. It concerns me every day, Senator, and it 
is one of the reasons that I said in my opening statement--the 
larger statement of the committee, that I will protect 
shipbuilding to the maximum extent possible because it not 
reversible. If you do not build a navy ship one year, you never 
build it. It is not something that money the next year can make 
up, and it is primarily because of that industrial base. If you 
lose those highly skilled workers and their unique skills, they 
are not easily learned. In fact, I was--as Senator Reed said, I 
was at Quonset Point with keel laying for the USS Colorado. 
They recognized more than 10 people who were celebrating their 
40th anniversary at that shipyard that had worked there for 
more than 40 years.
    So the industrial base if you lose it, if you lose these 
high quality, high-skilled shipbuilders, you do not get them 
back. You see the effects today in terms of Bath or some of our 
shipyards. What you see is the effects on our fleet 10 years 
from now, 15 years from now, 20 years from now. It is something 
that I have said--evidently I used a term that nobody else had 
used much, but I am going to protect shipbuilding until the 
last dog dies. We are going to try to stay there partly for the 
industrial base, but also for our Navy.
    Senator King. One of the problems is the long lead time 
means that the shortchanging we are doing now is going to have 
the effect 5, 10 years from now--I remember learning in 
driver's ed that if you are going above a certain speed, your 
headlights will not illuminate the wall in time for you to 
stop. In effect, there is a wall out there we are very close to 
hitting. We just will not know it for about 10 years because of 
the decisions we are making now in terms of the 
shortsightedness of this sequester policy.
    Secretary Mabus. We are living today with decisions that 
were made 10, 15 years ago in terms of the size of our fleet. 
The people sitting in all these chairs 15, 20 years from now 
will be living with the decisions we make today. As I said, in 
shipbuilding, they are not reversible.
    Senator King. Well, you ended your prepared testimony with 
a quote from Theodore Roosevelt about the Navy as an instrument 
of peace. From that same speech, Roosevelt said something that 
is extraordinarily applicable to the discussion we have been 
having today about readiness. He said, ``The veteran seamen of 
our warships are as of high a type as can be found in any Navy 
which rides the waters of the world. They are unsurpassed in 
daring and resolution, in readiness and thorough knowledge of 
their profession.'' This is Teddy Roosevelt 100 years ago. ``To 
build the finest ship with the deadliest battery and to send it 
afloat with a raw crew, no matter how brave they are 
individually would be ensure disaster if a foe of average 
capacity were encountered.'' This is the payoff line. ``Neither 
ships nor men can be improvised when the war has begun.''
    General Dunford, I would assume you--this is all about 
readiness and training and the irresponsibility of our not 
solving this funding problems so that you can have your men and 
women ready.
    General Dunford. Absolutely, Senator. I mean, that is what 
you expect from the Nation's ready force is that when you call 
us we are there. As I mentioned earlier, when you call us for 
today's crisis, we respond actually today, and that is what it 
is all about.
    Senator King. Thank you, gentlemen, for your service. Thank 
you, Mr. Chairman.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman, and thanks to all 
the witnesses. Admiral Greenert, I add my comments to those of 
my colleagues about your service, and we will miss you at these 
hearings. I am sure Angus was joking a bit when he said you are 
so sad to be here for the last time, but you have been very, 
very helpful, and we all appreciate that.
    On sequester, I cannot resist, Secretary Mabus, since you 
started talking about how cheap your dad was. I have done a lot 
of budgets. I have done them as the managing director of a law 
firm with lawyers in three countries. I have done them as a 
mayor. I have done them as a governor. I am the only governor 
in the history of my State--this is a sad accolade, not a good 
one. I am the only one in the history of my State that left 
office with a smaller budget than the one I started with 
because of being governor in the worst recession in 75 years.
    Sequester violates every principle of good budgeting that 
any competent manager in the public or private sector would 
follow. Period, full stop. Sequester violates every principle 
of budgeting that any competent private or public sector 
manager would follow. I am proud that one of my first votes as 
a Senator in February 2013 was to eliminate the sequester. I 
know how to find budgetary savings. I have done it my whole 
life. But non-strategic across-the-board cuts can be done with 
the slide rule. It is not about the application of human 
judgment, and any budgetary philosophy that says we do not care 
about human judgment, we are just going to do this kind of 
across-the-board cutting is foolish.
    I have watched us have very significant discussions on this 
committee where I think we have all come to bipartisan 
consensus about Afghanistan, and let me make an analogy, that a 
calendar-based strategy is a bad idea, a conditions-based 
strategy is a good idea. I just want to analogize that to our 
budgetary reality. We are either going to be sequester-based 
and say, ``well, we are obligated to follow caps that Congress 
put in place in August 2011 before we saw the degree of cyber 
attacks from Northern Korea, before we saw the President of 
Russia, Vladimir Putin, go into the Ukraine, before ISIL was 
gobbling up territory in Iraq and Syria, before Boko Haram was 
slaughtering thousands upon thousands of people in Africa.''
    We are either going to be sequester-based and ignore every 
bit of reality that has occurred since August 2011, or we are 
going to be conditions based in our budgeting. I would just 
like to ask all my colleagues, we have decided on Afghanistan I 
think as a body, that we ought to be conditions-based, not 
calendar-based. I would say for purposes of funding our 
military and other priorities, let us be just as conditions-
based, and let us not grab onto some bizarre, incompetent 
budgetary theory and elevate that over the security of the 
Nation. So that is just my editorial comment, and what I intend 
to do as a member of the Budget Committee, as a member of the 
Armed Services Committee, and certainly in any floor activity 
about budget or appropriations.
    I want to offer some praise to General Dunford and Admiral 
Greenert. In your written testimony, and you had to truncate it 
here today, you both talked about something that I think is 
really important, which is helping your marines and sailors 
transition from active life to civilian life. The transition of 
people into a civilian workforce where only 1 percent of adults 
have served in the military, so there is not a natural 
understanding for what a gunnery sergeant does or what an E-5 
is. They care about that transition, which is something that I 
think the DOD generally has kind of woken up to more recently 
as we have Iraq and Afghanistan war vets, especially enlisteds, 
with unemployment rates that are unacceptably high.
    I think you have all come a long way in the last couple of 
years in being really intentional about this. In both of your 
written testimonies, you talk about efforts that have been 
underway to help folks get credentials that match civilian work 
skills, and to help people think in a more significant way 
about that transition. General Dunford knows I have a son who 
is an officer in the Marine Corps, and about 2 weeks into 
taking his first platoon, he called me up and he said, ``hey, 
Dad, my NCO [noncommissioned officer], who is, you know, the 
guy I am really relying on, has just told me he is leaving in 2 
weeks, and he does not know how to find a job.''
    If you wait until somebody is at the end of their time and 
then try to cram it all into their head, and help them figure 
out how to transition in the last couple of weeks, it is not 
going to work very well. But if you start on day one and make 
that a priority, it will work a lot better, and our marines 
will be marines for life, and our sailors will be sailors for 
life. I give you all a lot of credit for making that a 
priority, and your written testimony today attributes to it.
    One question that I want to ask may be a question for the 
record because it may involve classified information. I am 
concerned about the civility of the Government of Bahrain. The 
5th Fleet is headquartered in Bahrain, and that 5th Fleet is 
not only important for our defense, but it keeps open sea lanes 
in an important part of the world that allow shipments of oil 
and other shipments that affect the global economy.
    The instability of Bahrain, in my view, causes me 
significant concern about the long-term viability of the 5th 
Fleet there as its headquarters. Certainly the security of the 
lives of those Americans who are serving, but also whether that 
is--can we have a 5th Fleet strategically positioned there 
given that instability? Maybe for the record, I would like to 
ask if you could just offer some thoughts, appropriately 
classified if need be, about what the instability issues, what 
threats that poses and what the Navy is doing to consider how 
to mitigate those threats, if you could, Admiral Greenert.
    Admiral Greenert. I will take that for the record and give 
you a complete answer, Senator.
    Senator Kaine. Thank you.
    [The information referred to follows:]

    [Deleted.]

    Senator Kaine. Thank you, Mr. Chairman.
    Chairman McCain. Thank you, Senator Kaine. I thank you also 
for your eloquent dissertation on sequestration, and I totally 
agree with it. I thank you for that. Senator Cotton?
    Senator Cotton. Mr. Secretary, Admiral, General, thank you 
very much for your years of distinguished service to our 
country and for all of the men and women you represent, the 
sailors, the marines, and the civilians. I was an Army guy 
myself. General Dunford, I have had many of your marines tell 
me that the Army stands for ``ain't ready for Marines yet.'' 
That is not true, is it?
    General Dunford. It just may be, Senator.
    [Laughter.]
    Senator Cotton. That is a shocking revelation. Well, there 
is no substitute for an Army, but there is also certainly no 
substitute for a Navy and Marine Corps that is constantly on 
watch all around the globe, that is never in peacetime phase 
because it always deployed somewhere. We are very grateful for 
what you all do.
    Admiral Greenert, you have written and spoken at greater 
length in other forums about the concepts of payloads, not 
platforms. Could you give us maybe a truncated simple version 
here of what you mean by that and how it informs the 
procurement plan for the Navy in the future?
    Admiral Greenert. Yes, Senator. We are a capital intensive 
service, and so when we build a ship it is there for 30 years 
at least, and been longer. To put an integrated complicated 
system there in there inside--a weapon system in such a vessel, 
when you want to change it out, you have to take the ship out 
of service 18 months to 2 years. We cannot do that anymore. We 
cannot afford to take it out of service. That is one. Two, the 
industry and technology is moving so fast, they can put 
together a weapon system that can come in a modular fashion.
    So the deal today is to put together a platform, what I 
call a platform that has enough cooling volume, persistence and 
time at sea, and the ability to support the upgrades--quick and 
fast upgrades. The Enterprise was our first aircraft carrier 
built in 1961. Its first mission was the Cuban Missile Crisis. 
Its last mission was off Afghanistan in 2012, and it had the 
most modern systems we had, a platform with several changes of 
payloads. So, that is what I am getting at. It applies to 
aircraft, and it applies to ships for sure.
    Senator Cotton. General Dunford, would you care to comment 
on how that concept may or may not apply to a ground force like 
the Marine Corps or, for that matter, the Army?
    General Dunford. Senator, I would like to take that for the 
record. I am not sure I can answer that.
    [The information referred to follows:]

    This concept of payloads, not platforms, is an important one for 
us, as a scalable and rapidly deployable force. One of the hallmarks of 
Marine Corps organization is that the Marine Air Ground Task Force 
(MAGTF) can be of variable size and possess a myriad of capabilities to 
meet the needs of Combatant Commanders. So this idea is deeply 
ingrained in our institutional culture. As far as how this impacts our 
development and procurement of equipment, I must first echo the Chief 
of Naval Operations comments related to shipbuilding. This is 
particularly applicable to the Navy's amphibious fleet which provides 
the ability to provide a number of various payloads to meet a number of 
different missions. Amphibious ships are inherently adaptive to the 
force package embarked and perform the widest range of missions of any 
ship in our battle force inventory. The ships, along with a MAGTF are 
the Swiss army knife in a commander's tool kit. The demand for this 
capability is rising as it proves to offer legitimate crisis response 
for our friends and deterrence to our foes.
    Additionally, when developing future systems, the USMC always 
anticipates both missions and technologies which do not currently 
exist. We seek to provide room for development in our equipment 
portfolios by procuring materiel with growth capacity that will allow 
for the expansion of capabilities to meet requirements that have not 
yet been levied.

    Senator Cotton. Admiral Greenert, would you like to 
comment, because obviously the Navy and the Air Force are much 
bigger platforms, more capital intensive investments than 
General Dunford tends to use in the Marine Corps than the Army 
uses in its ground operations.
    Admiral Greenert. Well, again, payloads and platforms. My 
support for General--I am a supporting entity for the Marine 
Corps, so when I build an amphibious ship, it has to be able to 
expand to bring in the Marines' systems as they evolve and 
expand. So it is very much a part of what I support for General 
Dunford, and, in fact, we fell behind in that regard. As the 
marines went ashore, if you will, in Afghanistan and Iraq, we 
did not evolve in our ships, and now we are making that 
adjustment working together.
    Senator Cotton. Thank you. I also would like to associate 
myself with the comments of Senator Kaine and Senator McCain 
about the impact of sequestration, in particular the impacts on 
readiness. I would be curious to hear from both Admiral 
Greenert and General Dunford about the timeline that you think 
may be required to get back to full readiness in your two 
Services.
    Admiral Greenert. If we have a predictable, stable budget 
at the right level, which we believe the President's Budget is 
minimally there, we will be back where we need to be in 2018 
for our carrier strike groups and 2020 for my amphibious 
readiness groups that are supporting General Dunford.
    General Dunford. Senator, our timeline is roughly the same, 
sometime between 2018 and 2020. But, of course, that very much 
is dependent on future budgets as well.
    Senator Cotton. Could you care to comment on the status of 
morale for your sailors and your marines, especially over the 
last 2 years, in a sequestration environment?
    Admiral Greenert. Well, when sequestration hit morale, it 
was hard on them. It was a hit to morale. They were angry. They 
did not understand. What is this? What did I do? So now the 
families are angry. They have gotten over that. Today they are 
anxious, but morale is good overall. It is not very good, and 
it is not poor. It is good. They understand that we are looking 
out for their basic needs, and we are providing them ready 
forces when they deploy. But there is a great anxiety out 
there, and if we go back to that, I am not sure exactly what is 
going to happen. I lived through this in the late 1970s and the 
early 1980s.
    General Dunford. On balance, Senator, we have a very young 
force. I would probably describe the reaction as angst at this 
point. They are concerned about it. Where I am mostly 
concerned, though, are the mid-grade staff NCOs and the mid-
grade officers who are looking to the future of uncertainty, 
and would make decisions to leave the Marine Corps when we want 
them to stay.
    Senator Cotton. Thank you. Thank you all again for your 
service, and thank you again for all the hard work that marines 
and sailors you represent do as well as their families since 
there is no peacetime Navy or Marine Corps, and you are always 
on watch.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman. Thank you all 
very much for being here, Secretary Mabus, Admiral Greenert, 
and General Dunford, and thank you for your service to the 
country. Admiral Greenert, we are going to miss you, but we 
hope you will be back in another capacity at some point.
    As we were discussing, Admiral, before the hearing started, 
I had, as you all know, the great opportunity yesterday to 
embark with the USS New Hampshire submarine to go out for the 
day, to dive with the submarine. It was really an experience of 
a lifetime, and I very much appreciated that. I was especially 
impressed by the dedication and the professionalism of our men 
serving on that submarine as on all of our submarines, 
impressed by the teamwork that they experienced that, as they 
pointed out to me, that a submarine only runs if everybody 
works together. The cook knew as much about the ship and how it 
was laid out and the operations as the people in the operations 
room. So it was very impressive.
    One of the things that became clear as we were discussing 
with folks about their experience on the New Hampshire was that 
while--General Dunford can appreciate this. A lot of the 
discussion during the wars in Afghanistan and Iraq has been 
about the toll that that has taken on our fighting men and 
women. One of the things that was clear yesterday, and not 
because anyone on the New Hampshire complained about it, but 
the toll that the reduction in our ships and their capacity has 
on the men and women who serve on those ships, because the 
deployments increase just as our deployments during Iraq and 
Afghanistan in a way that I think is less clear to the American 
public, and the toll that that takes.
    I wonder, Admiral or Secretary Mabus, if either of you 
would like to speak to what that shortfall in our ship 
capacity, the impact that that has on the men and women who are 
serving on those ships.
    Admiral Greenert. You explained it very well, Senator. 
There is a commitment, a covenant that we have for providing 
ready forces forward around the world to be able, as we like to 
say, where it matters when it matters. If you have less ships 
distribute, those which are there will stay on the watch 
longer. We have a phenomenon that we are trying to get out of, 
as we were just describing how long it would take to get our 
readiness right, and that is when we have sequestration, all of 
our maintenance slowed down in Portsmouth Naval Shipyard, 
Puget. All of our shipyards slowed down to kind of parade rest, 
as we like to say. So now, we are trying to get that back up, 
get the workforce back because many left as a result of 
sequestration.
    Somebody is out there standing the watch, and that is that 
longer deployment waiting for the other folks to get their 
maintenance and training done to come out to relieve them. That 
hurts and takes a while.
    Secretary Mabus. Senator, in the early 90s we had about a 
400-ship Navy, and we had on average 100 ships forward 
deployed. Today we have a little bit less than a 300-ship Navy, 
and we still have 100 ships forward deployed. So you explained 
it very well. Sailors are going out for longer. They are 
staying for longer.
    One of the things that we have been working on is trying to 
make those deployments more predictable, and not just the 
deployments, but the things the CNO was talking about--the 
training, the maintenance, and the surge capability when they 
come back--and it is called the optimized fleet response plan. 
We are doing it for our carriers first then our strike groups. 
We are going to do it for our amphibious ready groups next. But 
it is trying to do that.
    The last thing I would like to say is that it is one of the 
reasons that I remain so committed to shipbuilding, to getting 
the right number of those gray hulls so that it will ease some 
of the stress on the sailors who--the men and women who sail in 
them.
    Senator Shaheen. Thank you. Well, one of the things I 
neglected to say that you all know is that the USS New 
Hampshire is a Virginia-class submarine, and one of the things 
that was very exciting to hear from folks on the ship was that 
they always feel very good when it is the Portsmouth Naval 
Shipyard who has done the work because they do such a great job 
at the shipyard. So I had to put that plug in for the 
Portsmouth Shipyard because they do such great work.
    I am really out of time, but, Mr. Chairman, if I could ask 
one more question?
    Chairman McCain. Other than a commercial? Yes.
    Senator Shaheen. Thank you. Secretary Mabus, last September 
the Departments of Energy, Navy, and Agriculture awarded 
contracts to three companies to construct and commission bio 
refineries to produce drop-in fuels to help meet our 
transportation needs, drop-in bio fuels. Can you speak to why 
you think this is so important for the Navy?
    Secretary Mabus. It is important because it makes us better 
warfighters. It is important because it takes fuel away as a 
weapon to be used against us. All you have to do is look at the 
headlines about Crimea, the Ukraine, Europe today, and Russia 
using fuel as a weapon, and we are trying to avoid that. It 
will also help us smooth out some of these price swings in the 
oil and gas market.
    Finally, I am a big believer in the free market. I think 
you need competition in things like fuels. Now, we are--we will 
not buy any alternative fuel unless it is absolutely priced 
competitive with traditional fuels. The other two requirements 
that we have, one is that it be drop-in as you said. We are not 
changing engines or settings. Third, that it take no land out 
of food production. So we are looking at second generation, 
third generation biofuel production.
    Senator Shaheen. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you all for your service. What is the 
morale in the Marine Corps like, General?
    General Dunford. Senator, it is high.
    Senator Graham. Yes, well, it should be high because you 
are the finest fighting force on Earth. I want to tell the 
Marine Corps and the Navy better days are coming to the 
families. We are going to get our act together in Congress. I 
do not know exactly how yet, but we will. We are not going to 
leave you hanging. We are not going to take modernization off 
the table so you cannot fight the next war effectively, and we 
are going to somehow solve the problem we have created, so just 
hang in there. Keep your chin up and focused on the mission.
    General, do you agree it would be smart to leave a residual 
force behind in Afghanistan if conditions require it?
    General Dunford. I do, Senator.
    Senator Graham. From a Navy perspective, Admiral, do you 
believe that the threats we face are growing as I speak?
    Admiral Greenert. I do, absolutely.
    Senator Graham. Do both of you agree that there are more 
terrorist organizations with more capability, with more safe 
havens, with more weapons, with more desire to attack the 
homeland than any time since 9/11?
    Admiral Greenert. I do.
    General Dunford. I do, Senator.
    Senator Graham. When it comes to Iraq and Syria, do you 
agree with me that if we take ISIL on, and when I say ``we, the 
United States and the region, that we must win?
    General Dunford. Yes, Senator.
    Senator Graham. How many marines were involved in the first 
battle and second battle of Fallujah?
    General Dunford. The first battle, Senator, was about two 
regimental combat teams of--in the order of 6,000. The second 
battle, and, of course, there were soldiers as well. The second 
battle was about 14,000 U.S. forces. That is marines and 
soldiers.
    Senator Graham. So do you agree with me without that 
capacity, it would have been very difficult for the Sunni 
tribes to prevail over al-Qaeda in Iraq at the time?
    General Dunford. Without, absolutely, Senator.
    Senator Graham. Okay. So we are about to fight a bigger 
force, and how many members of our military do we have in Iraq 
today?
    General Dunford. Senator, I do not know the exact numbers, 
but I think on the order of 3,000.
    Senator Graham. How many of those are marines?
    General Dunford. We have about 500 marines, Senator. They 
are actually on the ground in Iraq.
    Senator Graham. Do you agree with me, both of you, that 
ISIL represents a threat to us, not just the region?
    General Dunford. I do, Senator.
    Senator Graham. Do you agree with that, Admiral?
    Admiral Greenert. Yes, I do, Senator.
    Senator Graham. So anybody who thinks that defeating or 
destroying ISIL is their problem, not ours, is making a huge 
mistake?
    General Dunford. I agree with that, Senator.
    Admiral Greenert. We have to prevail, yes, Senator.
    Senator Graham. Do you agree that it is in our national 
security interests to make sure that not only are they degraded 
and destroyed, but they do not come back?
    General Dunford. I agree with that, Senator.
    Senator Graham. Do you agree with me that the best way to 
ensure that you degrade and destroy ISIL is having some 
American ground forces to help the regional forces?
    General Dunford. Senator, right now I think it is critical 
that we provide U.S. support, and I think we are waiting for 
General Austin to make a recommendation as to exactly what that 
support would be.
    Senator Graham. Does that not guarantee the highest chance 
of success is to have some American capability on the ground 
enhancing our regional partners?
    General Dunford. Certainly my perspective would be as a 
link to our supporting capability.
    Senator Graham. Do you agree with me that any marine, or 
soldier, or sailor, or airman who participate in these 
operations would be protecting the Homeland?
    General Dunford. I believe that, Senator.
    Senator Graham. If somebody died trying to deal with ISIL 
in Iraq or Syria, they would have died on behalf of protecting 
their Nation?
    General Dunford. They would have died in protecting our 
national interests is clear, Senator.
    Senator Graham. Do you agree with me that if we do not stop 
ISIL sooner rather than later, the likelihood of another attack 
against this country grows?
    General Dunford. I think it grows, but also I think if we 
do not stop them, there will be destabilization in the region 
as well. It is inimical to our national interests.
    Senator Graham. Do you worry about the king of Jordan if 
they do not at least get slowed down or degraded pretty 
quickly?
    General Dunford. I do, Senator.
    Senator Graham. Do you, Admiral?
    Admiral Greenert. I do, Senator, yes, I do.
    Senator Graham. So to both of you and to those who serve 
under you, I am sorry that some of you may have to go back. I 
regret it more than you will ever know. But I think you know 
better than anyone else why you may have to go back. The only 
commitment I will make as a Senator from South Carolina is that 
if you go back, you go back to win, and that we get this right 
this time. Thank you all for your service.
    Senator Reed [presiding]. Senator McCaskill?
    Senator McCaskill. Thank you. Thank you all for being here. 
I sometimes neglect to say how much respect I have for all of 
you. I am so busy getting after something that I forget to tell 
you, so let me do that before I get after something.
    Admiral Greenert, I am dismayed about the Fat Leonard 
scandal. I am dismayed because it rips at the fabric of honor 
and integrity that defines our military. One of the things that 
I have tried to do since I was allowed to join this important 
committee is make sure when we have those moments that 
consequences go to the very top instead of hanging out at the 
middle or the bottom, which has sometimes occurred when there 
is a scandal like this. So I would like you or Secretary Mabus 
to speak to the accountability of those at the top of the chain 
of command for this conduct that occurred on their watch.
    Secretary Mabus. The Leonard Francis scandal----
    Senator McCaskill. Correct.
    Secretary Mabus. Well, Senator, we are going to hold people 
accountable that violated either the law or Navy ethics, and I 
have already issued letters of censure to three admirals, one 
three-star, two two-star admirals. The two two-stars elected to 
retire. The three-star had already decided to retire.
    One thing, though, that I think is important about this 
situation is that the reason this was uncovered is that we set 
up financial trip wires that Glenn Defense Marine Asia [GDMA] 
went across, and so, red flags were raised. The [Naval Criminal 
Investigative Service] NCIS investigated this for 3 years with 
no leaks. We during that investigation found that an NCIS agent 
was furnishing Mr. Francis with information, that set up some 
false information to him, and it led to Mr. Francis believing 
that the investigation had been shut up down, and allowed us to 
arrest him on American soil. He has implicated a number of 
naval personnel.
    We are at the--on the timetable of the U.S. Attorney's 
Office in San Diego in terms of how quickly we get to these 
things, and that has been a frustration because we have--it has 
taken a long, long time. But I have set up a consolidated 
disposition authority, so if somebody was found not to be 
criminally liable, we are taking a look at them to see if they 
violated Navy ethics. We are stepping up ethics training for 
COs [commanding officers], XOs [executive officers], people in 
areas of responsibility. We have completely overhauled our 
procurement requirements and regulations in terms of husbanding 
these services that GDMA provided. We are auditing that on a 
routine basis.
    One thing I do want to say, though, is that you could have 
all the ethics training in the world. If somebody does not know 
it is wrong to steal, if somebody does not know it is wrong to 
take a bribe, they miss something at home.
    Senator McCaskill. Right.
    Secretary Mabus. What we have to do is set up a system that 
will catch them and will hold them accountable. You are right, 
it is up and down the chain. I think that by the first 
actions--I not only took the actions to censure three admirals. 
I have taken two more from access to classified information 
based on allegations. I do not know if those allegations are 
correct yet, but in order to protect the integrity of the 
Service.
    Finally, Senator, unique among the Services, when we make a 
change in command, when we do something to a senior officer, a 
CO or a flag officer, we announce it. We try to be completely 
transparent about this. Partly it is because of what we can--
the learning effect that it will have on other people, but 
partly because people need to know what is happening in the 
Service. We have not seen the numbers go up, but because we 
announce it we tend to get more scrutiny.
    Senator McCaskill. Well, I appreciate that, and I 
appreciate that you all have done this. I wanted you to know I 
am very interested in how all of this shakes out, and if there 
is anything I can do to prod the U.S. attorney into doing 
justice in the most efficient, and effective, and time 
sensitive way let me know.
    I do not have much time left. I do want to ask a couple of 
questions that you all can respond on the record for me at a 
later date because I do not want to hold up the Senator from 
Alaska. But one is obviously the electronic capability platform 
as it relates to the growlers. I know you testified last week, 
Admiral, about a shortage of two to three squadrons. I am very 
concerned about that. I would be concerned about that if these 
amazing aircraft were not built in St. Louis because the 
capability of the electronic battlefield that we face now, and 
I would like you to respond to what--I am worried that this 
joint study that is going on now will not be completed in time 
for us to really evaluate whether the needs jointly even exceed 
what you have said, which is two to three squadrons in terms of 
a shortfall. So that I need on the record.
    [The information referred to follows:]

    In previous testimony, the 2-3 squadron shortfall that I mentioned 
was in reference to strike fighter aircraft. The Navy has the inventory 
of Growlers we need to support current Navy requirements. There is a 
study in progress to identify Joint warfighting requirements, Concept 
of Employment (CONEMPS) and future mission sets. The results of this 
study are expected to be released this summer and will provide insight 
that will allow the Department to determine the necessary force 
structure to meet Joint Airborne Electronic Attack (AEA) requirements 
rather than just those requirements unique to the Navy.

    Senator McCaskill. For you, General Dunford, I would like 
an updating on the how the realigning of Guam is going. This is 
something that we have worked on in this committee, and when I 
used to chair the Readiness and Management Support 
Subcommittee, this was something we talked about a lot. If you 
would get to the committee, and specifically to my office, 
where we are with the realignment with Guam and what the 
situation is on that, I would be very appreciative.
    General Dunford. We will get that information to you, 
Senator, thank you.
    [The information referred to follows:]

    General Dunford. The nature of the program for the USMC is 
characterized by its duration and scope. The scope of the program is 
significant, and entails myriad actions prior to Marines moving off of 
Okinawa, and the duration is on the order of decades.
    The program has experienced some start and stops, but has continued 
to move forward. The most noticeable progress has been at MCAS Iwakuni. 
Last year we completed the move of VMGR-152 from Okinawa to MCAS 
Iwakuni and the base has been and continues to enlarge. CVW-5 is on 
track to commence their relocation from Atsugi to Iwakuni in fiscal 
year 2017. By the time Iwakuni is finished the base will have nearly 
doubled in size and capacity.
    Guam and the CJMT have both moved forward. The Supplemental 
Environmental Impact Study for Guam, and in the Environmental Impact 
Study for the Commonwealth of Northern Mariana Islands (CNMI) Joint 
Military Training Complex have progressed. These NEPA actions are 
necessary to commence construction. Our first project, a range complex 
in Guam, is in the fiscal year 2016 budget request. We have also 
published a Guam master plan, as required by the NDAA, and are 
preparing to deliver a Hawaii master plan that will outline the early 
stages of preparation for moving Marines to Hawaii as a part of the 
realignment. While compliance with the Endangered Species Act and the 
associated consultation with the UFWS remains challenging for the Guam 
relocation, the DON anticipates issuing a Record of Decision (ROD) this 
summer. We anticipate that the consultations for CJMT will be similarly 
challenging, but still anticipate issuing the ROD for the CJMT in the 
summer of 2016.
    We continue to conduct rotational deployments to Darwin, Australia 
and the fourth rotation of approximately 1,170 Marines and an aviation 
detachment has just commenced. The size of the rotation increases apace 
of adequate facilities available with the force eventually being 2500 
Marines strong.
    While there is significant activity off of Okinawa to prepare for 
the realignment there is also significant activity on Okinawa. The 
Futenma replacement facility and Camp Schwab realignment are underway. 
This is a long term project with FOC for the airfield anticipated to be 
fiscal year 2025. Political challenges remain but we are pleased to see 
construction progressing and resolute commitment for the government of 
Japan. The sun will not set on this realignment program until planned 
land returns in Okinawa are complete. This is scheduled for fiscal year 
2032. Of note, the Marine Corps has already returned land in Okinawa 
and the most recent return took effect on 31 March of this year, when 
we transferred West Futenma housing back to the Japanese.

    Senator McCaskill. I know everybody has covered 
sequestration before I got here, but for whatever every other 
Senator said about sequestration, me, too. Thank you.
    Senator Reed. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman. Senator 
McCaskill, I might get a highlight of your final question is 
actually one of my first questions. So, gentlemen, I appreciate 
your service and your frank testimony. General Dunford, I also 
appreciate your highlighting the bang for the buck component of 
the Marine Corps' spending and warfighting capability, 6 
percent of the budget, 21 percent of the infantry battalions. I 
think that is important for the American people to understand 
and recognize.
    I do want to follow on a number of the general questions 
from Senators Wicker, Hirono, McCaskill on the redeployment, 
the pivot to Asia in particular with regard to some of our 
ground forces. As part of this committee's oversight 
responsibility, I will be heading to the region relatively soon 
to look at some of the issues in terms of what cost, training, 
readiness, deployment capabilities, as it relates to the Guam 
redeployment, but also some other issues.
    I would just like, General Dunford, from your perspective, 
what are the issues we should be thinking of when we are 
looking at that, and are you satisfied with how that 
redeployment is going? As you probably know, there are some 
concerns about that, and I think they have been consistent 
concerns over the years.
    General Dunford. Senator, thanks, and that clearly is one 
of the more important issues we are grappling with now is the 
Pacific. I think maybe break it down into three pieces. The 
first would be capacity, and for the U.S. Marine Corps what the 
rebalance means is 22,500 marines west of the Date Line, and we 
are there now. So as we have drawn down the force in Iraq and 
Afghanistan, we have reconstituted our unit deployment program 
and got those numbers back for our 3rd Marine Expeditionary 
Force, back to what they ought to be.
    The second piece is the reposture of forces, relieving some 
of the pressure in Okinawa, building up forces in Guam, and 
then as the Secretary talked about, forces in Australia as 
well. So there are several pieces. It is the Guam piece, it is 
the Australia piece, and then forces will go to Japan, and then 
some forces will eventually go to Hawaii as well. We are just 
getting started with that this year. In the President's Budget 
2016, there is a training range in Guam. That is one of the 
pre-conditions for us to bring forces down to Guam. We will 
bring a total of 5,000 forces to Guam eventually. We are 
rotating this spring another force of 1,000 marines into 
Australia with an eventual plan to bring that number up to 
2,500.
    But I think in terms of the issues that you should be 
concerned about, one clearly is the progress for the Futenma 
Replacement Facility and how that progress in Japan because 
that is going to be critical. We have to have the Futenma 
Replacement Facility in order for us to leave our current 
Futenma Air Station, and then make the deployment--make the re-
deployment to Guam as well and properly support the marines 
that are in the area.
    The other piece is lift in the area. We are going to better 
support the combatant commanders' day-to-day requirements by 
disaggregating out there. So in other words, by moving to Guam 
and moving to Australia, we get better coverage in the Pacific 
on a day-to-day basis. But then in a contingency, we have to 
aggregate those forces, for example, in a conflict on the 
Korean peninsula. So, one of the real critical things we are 
working on within the Department of the Navy with the Secretary 
and the CNO's help is the additional lift that would be 
required to move marines around.
    So there is enabling capability, and the first is lift, 
amphibious lift and other forms of lift, to move marines around 
both for training and for contingency purposes. Then as well 
the training facilities and the quality of life support that 
will be on Guam over time. But all this is--we are a lot 
further--I have touched on this probably off and on for the 
last 10 years, Senator, and we are finally now starting to pour 
concrete. We are starting to actually move forward with the 
plan. So I feel much better about it than I have in recent 
years.
    Senator Sullivan. Great, thank you. I want to switch and 
follow on to the question that Senator King had talked about in 
terms of the Arctic, and I will be a little more blunt. We have 
a DOD 13-page Arctic strategy, and yet when you look at what 
the Russians are doing in the Arctic, it is actually quite 
impressive. Impressive, but disturbing. So I am sure you 
gentlemen are somewhat familiar, but General Dempsey mentioned 
in testimony with the Secretary of Defense last week that the 
Russians are looking at four new Arctic combat brigades as our 
U.S. Army is thinking about pulling them out of the Arctic. I 
think that would give Vladimir Putin a lot of joy.
    They are building new airfields, 13 new airfields. They are 
conducting long-range air patrols with their barrel bombers off 
the coast of Alaska again. They have incredibly 6 new 
icebreakers coming, 5 more planned to add to their fleet of 40. 
Meanwhile, the United States is thinking about an additional 
one to our fleet of five.
    Does it concern you, particularly when we talk about 
keeping sea lanes open, there is going to be a very, very 
important sea lane that is developing in the Northwest Arctic 
Passage there? Has the Navy given any thought to this in terms 
of particularly adding icebreakers to the Navy's shipping fleet 
if we are going to be remotely competitive with the Russians in 
the Arctic that they have stood up a new Arctic command? They 
are all in in the Arctic, and it is not 13 pages of paper. It 
is concrete. It is ships. It is airfields. We are thinking 
about removing forces from Alaska, and we do not have--I think 
we are number five or six in the world in terms of icebreakers. 
It seems to me a ludicrous situation that the Navy should be 
concerned about.
    Admiral Greenert. Well, the purview of the icebreakers is 
the Department of Homeland Security, the Coast Guard. So if we 
split that, then we will be clobbering our strategy. Although 
it sounds like a petty answer, somebody has to be in charge 
right here, and right now it resides with the Department of 
Homeland Security.
    Am I concerned? Yes, Senator, I am concerned because for us 
to take our combat ships up there, we have to work in 
conjunction with that and make sure that we can get up there as 
well. So we have to look at the hardening of our hulls, and we 
look toward that, and also it is not just surface ships which 
we tend to focus on. It is the aircraft in the undersea domain.
    So as I mentioned earlier, we have increased--I have 
directed the increase in our exercise capacity up there and our 
activity up there. We are spending a little bit more--it is 
modest right now, exercising with the Norwegians, with the 
Scandinavian countries, and with Canada in that arena to get 
used to operating up there.
    Senator Sullivan. Mr. Secretary, any thoughts?
    Secretary Mabus. As the ice melts in the Arctic, our 
responsibilities clearly are going up. We just--the CNO and I 
just issued the new Navy road map for the Arctic. We updated 
it. I stopped through the university at Fairbanks, the 
University of Alaska at Fairbanks. In terms of it is not just 
platforms, and it is not just capability. It is what we are 
facing up there. We not only have less ice, but it is freezing 
in different ways. So, as we send our submarines up there, they 
do not have a whole lot of clearance both above or below, and 
the ice is forming in different ways that are beginning to be a 
hazard to navigation.
    But as CNO said, we are upping our exercises. We are upping 
our research into the area. We are moving in terms of hardening 
hulls, in terms of warfighting capabilities. We have a SEAL 
[Sea, Air, Land] training unit on Kodiak specifically focused 
on cold weather combat. In fact, every SEAL goes through it 
right after they come out of BUD/S [Basic Underwater 
Demolition/SEAL] training. So we are concerned about it. We are 
trying to move on it. But it, again, is one of these things 
that in this budget situation you have to make some very, very 
hard choices, and we do not have the capability that we would 
like to have in the Arctic.
    Senator Sullivan. Thank you. Thank you, Mr. Chairman.
    Senator Reed. On behalf of Chairman McCain, let me thank 
the witnesses for their excellent testimony and for their 
service to the Nation, and the Navy, and the Marine Corps, and 
adjourn the hearing. The hearing is adjourned.
    [Whereupon, at 11:54 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
       littoral combat ship mine countermeasures mission package
    1. Senator McCain. Secretary Mabus and Admiral Greenert, the mine 
countermeasures (MCM) mission package, which is more than 4 years 
behind schedule, will not achieve full capability until 2019. The 
fiscal year 2014 Director of Operational Testing and Evaluation annual 
report again stated, ``The MCM package has not yet demonstrated 
sufficient performance to achieve the Navy's minimal Increment 1 
requirements.'' Navy plans indicate two of the four Avenger-class mine 
countermeasures ships in Bahrain will be replaced with Littoral Combat 
Ships (LCS) in 2019 and the other two will be replaced in 2020. Please 
comment on the:

        <bullet> Testing progress of the LCS mission packages
        <bullet> Risk in delivering the full mine countermeasures 
        capability, increment four, in fiscal year 2019
        <bullet> Contingency plans to extend the Avenger-class in 
        Bahrain, should the mine countermeasures mission package 
        experience further delays
    Mr. Mabus and Admiral Greenert. LCS Mine Countermeasures (MCM) 
Mission Package testing continues to make progress. While not all of 
the performance measures for the LCS MCM Mission Package (Phase 1) were 
fully demonstrated by the end of fiscal year 2014, systems testing and 
tactical proficiency events are currently ongoing in the Gulf of 
Mexico. Continued system refinements and improved operator performance 
are keeping the MCM Mission Package on track to demonstrate Phase 1 
effectiveness during Initial Operational Test and Evaluation later this 
year. The MCM Mission Package remains on schedule to support 
deployments beginning in fiscal year 2018, and will enable the 
scheduled decommissioning of the Avenger-class ships as they reach 
their end of service life.
    The Navy continues to assess the risks associated with meeting the 
full Phase 4 capability in 2019, and will be able to more clearly 
identify and mitigate any risk following the experience gained from 
this year's testing events. However, a significant overlap currently 
exists between the scheduled LCS MCM Mission Package deployments to 
Bahrain and the departure of the Avenger-class that would accommodate 
any unexpected delay in the arrival of MCM Mission Packages. 
Furthermore, Minehunting Units and Expeditionary MCM companies already 
deployed to Bahrain will provide additional MCM capacity during the 
transition to the LCS MCM Mission Package.
                       ford-class testing issues
    2. Senator McCain. Secretary Mabus, the Director of Operational 
Test and Evaluation's fiscal year 2014 Annual Report states the 
reliability of four systems--the electromagnetic aircraft launching 
system, advanced arresting gear, dual band radar, and advanced weapons 
elevators--are the most significant risks to the USS Gerald R. Ford 
(CVN-78) initial operational test and evaluation.
    Can you update us on the testing and reliability of these key 
systems on CVN-78, which is scheduled to deliver in March 2016?
    Mr. Mabus. The Electromagnetic Aircraft Launching System (EMALS) 
testing, to date, has shown an increased reliability growth trend as 
reported to the Director of Operational Testing and Evaluation (DOT&E) 
in December 2014. EMALS is currently preparing the land-based test site 
for the Repeated Deadload Phase of testing later this fiscal year. The 
purpose of this test is to perform additional deadload events to 
continue to grow the proven system reliability. EMALS motor/generator 
shipboard testing started on schedule in August 2014, as did catapult 
testing in December 2014. Testing will continue through the 1st 
quarter, fiscal year 2016, with data from the shipboard test program to 
be incorporated into the Reliability Growth Program.
    Performance testing for the Advanced Arresting Gear (AAG) is 
scheduled to start later this fiscal year. Reliability growth tracking 
will re-commence with this phase. An update to AAG Reliability Growth 
metrics is expected to be available for the annual December Reliability 
brief to DOT&E. AAG shipboard testing will begin in August 2015.
    Dual Band Radar (DBR) began testing in March 2014, and will 
continue at Wallops Island through the 3rd quarter, fiscal year 2015. A 
Reliability Working Group, responsible for gathering and reporting 
reliability data, recently began tracking reliability data during Land-
Based Engineering Testing at Wallops Island; no reliability reports 
have been generated to date. DBR shipboard testing begins in May 2015.
    Advanced Weapons Elevators shipboard testing began in March 2015, 
with testing of the first of 11 elevators now 70 percent complete. 
Reliability growth tracking begins following the completion of 
shipbuilder installation and testing, and data collection will begin in 
early fiscal year 2016.

    3. Senator McCain. Secretary Mabus, what is being done to ensure 
these key systems are ready for the next carrier, USS John F. Kennedy 
(CVN-79), which is scheduled to go under contract this spring of 2015?
    Mr. Mabus. All design changes made to key systems as the result of 
lessons learned from CVN 78 have been captured in the configurations to 
be installed on CVN 79. There is one exception; the Dual Band Radar 
will be replaced on CVN 79 by the Enterprise Surveillance Suite. The 
risk of further modifications discovered during shipboard testing that 
would impact ship integration is considered low, and the opportunity to 
incorporate system changes is maintained until installation on CVN 79.
                   movement of forces in the pacific
    4. Senator McCain. Secretary Mabus and General Dunford, the 
movement of forces from Okinawa to Guam and other parts of the Pacific 
carries with it a significant cost and impact on our ability to respond 
in theater. I am very concerned that these costs are not yet fully 
accounted for, and that if we see over-runs which hinder our ability to 
build the replacement infrastructure, we will not be able to meet our 
operational plans in the Pacific theater. I am also concerned with the 
continued proposal to fund civilian infrastructure ``outside the 
fence'' on Guam, and the cost of family housing driven by those forces 
that will be on ``accompanied'' tours.
    Who is responsible for the analysis to determine the number of 
accompanied personnel?
    Secretary Mabus. The Marine Corps relocation provides for a 
holistic and operationally-responsive Marine Corps Air Ground Task 
Force capability on Guam based on a mix of assigned and rotational 
forces organized to meet regional needs. This force structure, as 
agreed by the United States and Japan in 2012, provides for 
approximately 5000 Marines on Guam. It will consist of 2,979 
rotationally assigned unaccompanied Marines through the Unit Deployment 
Program (UDP) and 1,796 permanently assigned personnel. To estimate the 
number of accompanied family members, the Marine Corps relies on 
standard planning factors for permanently assigned Marines to inform 
housing and other support requirements. This estimate is incorporated 
in the July 2014 Guam Master Plan, and we will continue to evaluate 
these requirements as the relocation moves forward to ensure housing 
and support facilities are appropriately sized and resourced.
    General Dunford. The Marine Corps relocation provides for a 
holistic and operationally-responsive Marine Corps Air Ground Task 
Force capability on Guam based on a mix of assigned and rotational 
forces organized to meet regional needs. This force structure, as 
agreed by the United States and Japan in 2012, provides for 
approximately 5000 Marines on Guam. It will consist of 2,979 
rotationally assigned unaccompanied Marines through the Unit Deployment 
Program (UDP) and 1,796 permanently assigned personnel. To estimate the 
number of accompanied family members, the Marine Corps relies on 
standard planning factors for permanently assigned Marines to inform 
housing and other support requirements. This estimate is incorporated 
in the July 2014 Guam Master Plan, and we will continue to evaluate 
these requirements as the relocation moves forward to ensure housing 
and support facilities are appropriately sized and resourced.

    5. Senator McCain. Secretary Mabus and General Dunford, how certain 
are you that the costs and schedule now proposed will be met?
    Mr. Mabus. The Marine Corps is currently executing the Guam Master 
Plan that was submitted to Congress last summer (July 2014) and is on 
track to meet the scheduled milestones and is continuing to refine 
costs within the profile defined by the master plan. The Marine Corps 
is confident in the reliability of the cost estimate for the relocation 
of Marines off Okinawa as a planning figure and has employed the 
appropriate approach and methodology for determining the estimate. 
Since the 2012 initial estimates for Guam, a steadfast approach has 
further refined the estimates to better account for Area Cost Factor 
changes, environmental mitigation, and more fidelity on one-time costs. 
We are committed to the most cost effective laydown for the Marines on 
Guam. We will pursue all avenues for making the relocation as 
affordable as possible while controlling costs.
    General Dunford. The Marine Corps is currently executing the Guam 
Master Plan that was submitted to Congress last summer (July 2014) and 
is on track to meet the scheduled milestones and is continuing to 
refine costs within the profile defined by the master plan.

    6. Senator McCain. Secretary Mabus and General Dunford, why is the 
Department requesting an additional $20 million for the civilian water 
and wastewater infrastructure on Guam?
    Mr. Mabus. The cost of public infrastructure improvements necessary 
to support the relocation--specifically for water and wastewater--
exceed the current level of appropriated funding. If the $20 million 
request for fiscal year 2016 is not funded it will need to be requested 
again to support the Navy's requirement to support Initial Operating 
Capability of the future Marine Corps Base Guam.
    While appropriated, no funding was executed in fiscal year 2014 due 
to the Congressional restrictions on obligations and/or expenditures 
until an implementation plan is provided to Defense Committees. The 
plan is being prepared by the President's Economic Adjustment Committee 
(EAC) pursuant to the fiscal year 2014 NDAA and will capture the 
complete requirements for water/wastewater and other areas of 
investment. The plan will be released not later than the issuance of 
the Record of Decision pursuant to the requirements in the NDAA. fiscal 
year 2014 - $119.4; fiscal year 2015 - $0; fiscal year 2016 - $20.
    General Dunford. The cost of public infrastructure improvements 
necessary to support the relocation--specifically for water and 
wastewater--exceed the current level of appropriated funding. If the 
$20 million request for fiscal year 2016 is not funded it will need to 
be requested again to support the Navy's requirement to support Initial 
Operating Capability of the future Marine Corps Base Guam.
    While appropriated, no funding was executed in fiscal year 2014 due 
to the Congressional restrictions on obligations and/or expenditures 
until an implementation plan is provided to Defense Committees. The 
plan is being prepared by the President's Economic Adjustment Committee 
(EAC) pursuant to the fiscal year 2014 NDAA and will capture the 
complete requirements for water/wastewater and other areas of 
investment. The plan will be released not later than the issuance of 
the Record of Decision pursuant to the requirements in the NDAA. fiscal 
year 2014 - $119.4; fiscal year 2015 - $0; fiscal year 2016 - $20.
           cruiser and dock landing ship phased modernization
    7. Senator McCain. Admiral Greenert, in your written statement you 
``request congressional support for Navy's original plan'' for cruiser 
phased modernization, which would induct 9 additional cruisers into 
phased modernization in fiscal year 2016 for a total of 11 cruisers in 
this status. Could you explain your position, including the benefits 
and cost savings of supporting Navy's original plan?
    Admiral Greenert. The Navy continues to face challenging funding 
reductions instituted by the Budget Control Act of 2011, as amended by 
the Bipartisan Budget Agreement of 2013. The Navy's original Cruiser 
modernization plan provided a viable strategy to mitigate the cost of 
modernization while delaying recapitalization of the class. Navy's 
original plan would save $4.4 billion more than the ``2-4-6'' plan 
mandated by law in fiscal year 2015. Just based on the duration of the 
modernization period, the cost savings of our original plan would be 
roughly $75 million per year per ship compared to the traditional class 
average operations and sustainment (O&S) costs, primarily due to 
reduced crew and steaming days.
    Additionally, Navy's original plan maintained a minimum of 11 
active CG 47 class Air Defense Commander (ADC) platforms in the Fleet 
into the mid-2030s and final CG retirement would have occurred in 2045. 
The current ``2-4-6'' plan will see the last CG retire in 2038 due to 
the reduction in time the ships are in the modernization period. This 
seven year delay in fully recapitalizing the ship class would have 
relieved pressure on our shipbuilding account largely consumed in the 
2030s with building Ohio Replacement SSBNs and aircraft carriers.
    The reduced cost is a result of the pace and rate of modernization 
in our original PB 2015 plan. That plan would have inducted all 11 CGs 
into the program by early fiscal year 2016 and would have modernized 
the Cruisers starting at a rate of one per year in fiscal year 2017. 
Additional savings would have been achieved based on the duration each 
ship was in the modernization period (anywhere from 4 to 10 years). The 
cost savings during the modernization period, as compared to 
traditional class average O&S costs, are roughly $75M per year per 
ship, primarily based on reduced crew and steaming days. We estimate 
the PB 2015 plan would have cost the Navy about $4.4B less through the 
fiscal year 2015 FYDP than the Congressionally directed ``2-4-6'' plan. 
We anticipate similar cost avoidance though the fiscal year 2016 FYDP 
if allowed to return to the original plan.
                 upgraded littoral combat ship decision
    8. Senator McCain. Secretary Mabus and Admiral Greenert, regarding 
the decision to upgrade the last 20 LCS, in his February 2014 memo, 
Secretary of Defense Charles T. Hagel asked the Navy to provide 
``alternative proposals to procure a capable and lethal small surface 
combatant, generally consistent with the capabilities of a frigate.'' 
Then, Navy conducted extensive analysis and produced their 
recommendation to upgrade the last 20 LCS, which will cost an 
additional $60 to $75 million per LCS.
    As the Congressional Research Service has noted, the missing piece 
of analysis is explaining why 20 upgraded LCS are operationally 
necessary--what specific gaps they will fill for our combatant 
commanders. This work should have been done to validate there is an 
actual problem that needs to be solved, before Secretary Hagel signed 
the memo, and the search for a solution began.
    Additionally, the continuous sensor and weapon upgrades of our 
destroyers and fast attack submarines are based on staying ahead of 
specific threats in order to achieve specific warfighting objectives. 
In other words, these ships are ``benchmarked'' in terms of capability 
and quantity against specific threat missiles, sensors, and so on. If 
LCS is to be upgraded to take on the role of a Frigate, we must 
understand its new warfighting role and benchmarks.
    Just as with our destroyers and submarines, benchmarking to a 
specific threat helps everyone understand when and if future upgrades 
are necessary. I presume these upgrades to LCS are just the beginning 
of what will be necessary to keep these ships relevant against future 
threats as they continue to operate out to 2050.
    Can you explain the extent to which analysis has been or will be 
done to explain the specific combatant commander gaps the upgraded LCS 
will fill and threat benchmarks the LCS upgrades should be measured 
against?
    Mr. Mabus and Admiral Greenert. Navy's 2012 Force Structure 
Assessment (FSA) determined the need for 52 small surface combatants to 
meet Combatant Commander requirements. This requirement remains valid 
and Littoral Combat Ships (LCS) and Frigates (FF) will fill it. LCS is 
meeting its Joint Requirements Oversight Council (JROC) validated 
requirements but in response to SECDEF direction, Navy will procure 20 
FFs with increased lethality and survivability to complete the 52 ship 
requirement.
    LCS and FFs are part of the same Program of Record and will address 
three primary anti-access threats documented as joint capability gaps: 
swarming fast attack craft/fast inshore attack craft (FAC/FIAC); diesel 
submarines; and maritime mines. LCS, with its ability to embark the 
mine countermeasure (MCM) mission package will execute the MCM mission 
exclusively, whereas the surface warfare (SUW) and anti-submarine 
warfare (ASW) missions can be executed by either LCS (with the 
appropriate mission package embarked) or the multi-mission Frigates. 
The FF, with additional lethality and survivability features, will 
address the same SUW and ASW missions as LCS while accepting less risk.
    The Office of Naval Intelligence provided the estimated threat 
environment that framed the Small Surface Combatant Task Force's 
(SSCTF) requirements analysis. Additionally, analytical input from Navy 
Component Commanders and Fleet Commanders prioritized SUW and ASW 
missions. This input ensured the proposed design was relevant and 
adaptable to meet warfighting needs.
    In addition, through extensive war gaming and campaign analysis, 
LCS was tested against various threats in typical areas of fleet 
operation around the world. The threat weapons employed in these areas 
were used to build the benchmarks against which the Frigate will be 
measured. The FF Increment to the LCS Flight 0+ Capability Development 
Document (CDD) is in Navy staffing but the draft includes specific 
threat weapon benchmarks that the ships will be measured against.
    The Frigate's increased organic capability will enable these ships 
to operate in multiple threat environments and their design will 
counter current and emerging threats.

    9. Senator McCain. Secretary Mabus and Admiral Greenert, how did 
you arrive at 32 LCS and 20 upgraded LCS Frigates as the right mix of 
52 Small Surface Combatants?
    Mr. Mabus and Admiral Greenert. In February 2014, Secretary of 
Defense Hagel directed Navy to provide alternative proposals to 
increase LCS lethality and survivability, prior to placing additional 
ships beyond 32 under contract. In December 2014, Secretary Hagel 
approved Navy's proposal to procure a small surface combatant based on 
the LCS Flight 0+ designs, designated as a Frigate (FF) by Secretary 
Mabus in January 2015.
    The FFs and LCS will address three documented joint capability 
gaps: swarming fast attack craft/fast inshore attack craft (FAC/FIAC); 
diesel submarines; and maritime mines. LCS will exclusively address the 
mine countermeasure mission due to its ability to embark the mine 
countermeasure mission package, whereas the surface warfare (SUW) and 
anti-submarine warfare (ASW) missions can be executed by either LCS 
(with the appropriate mission package embarked) or the multi-mission 
FFs. The FFs will have greater lethality, system redundancy, and 
survivability.
    Both the modular capability of LCS and multi-mission capabilities 
of the FF are vital to the future surface fleet in addressing SUW, ASW, 
and mine-countermeasure (MCM) missions. The break at 32 LCS/ 20 
Frigates represents a natural point in which the lethality and 
survivability improvements could be implemented, while best supporting 
cost and schedule concerns. In addition, 32 modular LCS supports 
maintaining the MCM mission aboard a sufficient number of ships to meet 
warfighting needs. As Frigate designs mature, Navy will evaluate the 
technical feasibility and cost to back-fit and forward-fit lethality, 
survivability, and capability improvements to LCS Flight 0+.
                            industrial base
    10. Senator McCain. Secretary Mabus, Admiral Greenert, and General 
Dunford, how would you describe the state of the industrial base that 
supports your programs?
    Mr. Mabus and Admiral Greenert. Eleven different ship classes (DDG 
1000, CVN 78, SSN 774, DDG 51, LPD, LCS, LHA(R), JHSV, MLP, T-AGS, and 
AGOR) are currently under construction. In fiscal year 2014, six ships 
were delivered (USS Somerset (LPD 25), USNS John Glenn (MLP 2), USNS 
Millinocket (JHSV 3), USS America (LHA 6), USS North Dakota (SSN 784), 
and USNS Fall River (JHSV 4)). As of April 1, 2015, 66 ships are under 
contract.
    The U.S. naval shipbuilding industrial base is a complex, multi-
tiered network of shipbuilders, equipment, system and component 
suppliers. The state of the shipbuilding industrial base today is 
stable, however, some shipyards will face challenges as their current 
workload completes. Our submarine shipbuilding yards are healthy; 
building two VA Class submarines per year, as opposed to the previous 
decades when they built one or fewer submarines per year. Given the 
priority and necessity for replacing the Ohio Class Ballistic Missile 
submarines, the two nuclear shipbuilders and their suppliers have a 
firm basis for production and non-production workload through the early 
2030s. In contrast, the non-nuclear (surface combatants, amphibious and 
auxiliary) shipbuilders and suppliers' risk may be greater during this 
same timeframe, depending upon the funding levels enacted. Since the 
non-nuclear ships do not have the same priority as the Ohio Replacement 
Program (ORP), if the DON is required to fund the entire ORP, these 
non-nuclear ships are more likely to be impacted by decreases in their 
funding levels. Less funding would lead to lower capacity and under-
utilization, further impacting shipbuilding affordability for the 
Department, as well as the industrial base's ability to compete for 
additional work and make necessary investments in facilities, people, 
and processes. Discussions with shipyards are being pursued to evaluate 
possible investments to improve prime equipment supplier production, in 
order to further reduce costs and improve efficiencies. DON has and 
will continue to emphasize stability; competition; maximizing our 
buying power through economic order quantity procurements, block buys 
and multiyear procurement (MYP); and driving affordability earlier and 
throughout the life cycle of each ship. DON will continue to work with 
Congress and industry to evaluate opportunities for continued 
acquisition efficiency and cost-savings opportunities. This includes 
flexibility with the use of advanced procurement funding for long-lead 
time and materials as well as continued use of block buys and MYP in 
order to enable more efficient and effective shipbuilding and 
construction schedules.
    General Dunford. The defense industrial base is doing the maximum 
they can to cope with the turbulent budget of the last few years. 
However, with an unpredictable budget, they have had to make difficult 
decisions regarding investment in emerging technologies and their 
ability to engage in long term, low cost, contracts.
    The Marine Corps continues to work closely with the industrial base 
that supports our programs to create innovative solutions to identified 
requirements while keeping cost-effectiveness and sustainability in 
mind during this prolonged period of fiscal constraint. The primary 
concern, with regard to the industrial base, remains keeping 
procurement schedules predictable and on timeline which enables us to 
maximize productivity and cost savings. Stable and predictable budgets 
will enable this to the maximum extent possible by allowing both the 
Marine Corps and our industrial partners to plan procurement and 
construction in a rational manner which provides the taxpayers with the 
highest quality product at the best price. This can only be ensured 
when the industrial base is able to make capital investment and hiring 
decisions with a measure of certainty due to the high skill workers 
they require the complicated techniques which must be performed.
    Uncertain budgets make it very difficult for industry to have a 
stable or expanding business base, allowing them to invest in internal 
research and development and capital equipment to make them viable, 
innovative, and competitive, and making the industrial base reliable 
for the long term. Budget uncertainty also makes it difficult for 
industry and the Department to sustain legacy systems while investing 
in developing next generation systems necessary for U.S. technical 
superiority. The past few decades have seen a trend where most `new' 
weapons systems have really just ben upgrades of existing systems, and 
therefore do not exercise the industrial base and government skill sets 
necessary to design, develop and integrate a truly new weapon system. 
We have seen these skills atrophy severely, and are getting close to 
the point where they may be lost, just when the U.S. needs them to face 
ever increasing threats.

    11. Senator McCain. Secretary Mabus, Admiral Greenert, and General 
Dunford, in the event of further budget reductions, what must this 
committee be particularly mindful of related to the industrial base?
    Mr. Mabus and Admiral Greenert. The Navy has a direct relationship 
and a vested interest in the shipyards, their subcontractors, and the 
supply chain's performance and continued viability. Shipbuilding and 
industrial base stability is required in order to balance capability, 
affordability, and a robust industrial base. A shortage of funding 
would reverse the Navy's progress towards recapitalizing a 300 ship 
battleforce and would increase the pressure on the shipbuilding 
industry. Each shipyard faces challenges as their current workload 
completes. Lower capacity and under-utilization further impacts 
shipbuilding affordability for the Department, as well as impacts the 
industrial base's ability to compete for additional work and make 
necessary investments in facilities, people, and processes. Further 
budget reductions will have a negative impact on the U.S. economy as 
workers directly employed in the U.S. shipbuilding and repair industry 
in 2014 totaled 147,000. This total includes 31,000 workers at Naval 
Shipyards, 61,000 at yards with Navy new construction work, and 55,000 
at the remaining shipbuilding and repair yards.
    Funding stability is key to stability in shipbuilding programs. 
Because cuts to DON shipbuilding programs are the least reversible in 
their impact on the DON's fundamental mission of providing presence and 
in their consequences to the industrial base and to our economy, the 
Department is committed to the maximum extent possible, to preserve 
ship construction and to seek reductions in every other area first, 
should budget reductions such as sequestration become reality
    General Dunford. The Marine Corps continues to work closely with 
the industrial base that supports our programs to create innovative 
solutions to identified requirements while keeping cost-effectiveness 
and sustainability in mind during this prolonged period of fiscal 
constraint. The primary concern, with regard to the industrial base, 
remains keeping procurement schedules predictable and on timeline which 
enables us to maximize productivity and cost savings. Stable and 
predictable budgets will enable this to the maximum extent possible by 
allowing both the Marine Corps and our industrial partners to plan 
procurement and construction in a rational manner which provides the 
taxpayers with the highest quality product at the best price. This can 
only be ensured when the industrial base is able to make capital 
investment and hiring decisions with a measure of certainty due to the 
high skill workers they require the complicated techniques which must 
be performed.
                  two-phase aircraft carrier delivery
    12. Senator McCain. Secretary Mabus, the Navy is proposing to 
deliver CVN-79 in two phases, which extends the delivery of the full 
ship by what appears to be at least 16 months into 2025. While I 
understand there is a business case that suggests this will increase 
competition and lower costs, can you discuss the risk this plan assumes 
if the USS Nimitz (CVN-68) has operational availability issues as she 
approaches her 50-year service life? What would be the pros and cons of 
having 12 operational carriers for a period of time in the mid-2020s?
    Mr. Mabus. The Department has implemented a number of processes to 
improve performance on CVN 79 construction that minimizes risk to the 
two-phased delivery approach. The second phase of construction has been 
designed to include those items that are cheaper to complete outside of 
the shipyard, taking advantage of competition in installation and 
integration to reduce the overall cost of construction. CVN 79 will be 
introduced to the Optimized Fleet Response Plan (OFRP) as the 
operational replacement for CVN 68 in fiscal year (FY) 2025, which is 
when CVN 68 is scheduled to begin inactivation. The opportunity to 
utilize a two-phased approach for CVN 79 delivery enables the Navy to 
maintain an 11 aircraft carrier force structure required by law and the 
Navy's latest Force Structure Assessment while reducing construction 
costs. This force structure supports a forward deployed naval posture 
which meets warfighting and peacetime requirements across the entire 
spectrum of current and potential future conflicts. Increasing the 
carrier force structure from 11 to 12 CVNs is in excess of what is 
foreseen to meet Carrier Strike Group presence and surge requirements 
projected at the time of NIMITZ inactivation. By completing CVN 79 in 
two phases, the timeframe with 12 operational CVNs is minimized, thus 
reducing operational costs associated with maintaining the CVN force.
                       future surface combatants
    13. Senator McCain. Admiral Greenert, retirements of three surface 
combatant classes are on the horizon. The first cruiser will retire in 
2020, the first Flight I destroyer will retire in 2026, and the first 
LCS will retire in 2033. Can you describe your vision and current 
planning for the future surface combatant force? Is there a 
Capabilities Based Assessment in progress? If so, please describe the 
key elements and estimated completion date.
    Admiral Greenert. The Navy's vision and current planning for the 
future surface combatant force includes procuring up to 27 Flight III 
DDG 51s, 52 small surface combatants (the last 20 of which will be a 
modified LCS designated as a Frigate), and executing Cruiser phased 
modernization which extends their service lives into the late 2030s.
    A future surface combatant Capabilities Based Assessment (CBA) will 
begin this year and is estimated to complete by early 2016. Key 
elements will include the identification of capability gaps as a result 
of retiring ship classes and projected future threats, prioritization 
of operational risks, and recommendations to address identified gaps.
                    ohio replacement program funding
    14. Senator McCain. Secretary Mabus and Admiral Greenert, several 
Defense and Navy leaders have identified the challenge associated with 
procuring Ohio Replacement Program (ORP) submarines in the 2020s within 
historical shipbuilding funding levels and the severe impact doing so 
would have on other Navy programs. This committee recognizes the 
importance of the ORP and wants to work with you on the funding 
challenge. Given the first procurement in fiscal year 2021 will show up 
in the Future Years Defense Program (FYDP) beginning with the next 
budget, is there a proposal or discussion that this committee can help 
with?
    Mr. Mabus and Admiral Greenert. Given the need to recapitalize this 
strategic asset, coupled with the ongoing need to support Navy force 
structure, the Navy continues to pursue the means to resource 
construction of the OHIO Replacement (OR) SSBN in accordance with the 
schedule to fulfill U.S. Strategic Command requirements in fiscal year 
2031.
    The Navy continues to need significant increases in our topline 
beyond the FYDP, not unlike that during the periods of 41 for Freedom 
(1958-1964) and Ohio (1974-1991) construction, in order to afford the 
OR SSBN procurement costs. Absent a significant increase to the SCN 
appropriation, OR SSBN construction will seriously impair construction 
of virtually all other ships in the battle force: attack submarines, 
destroyers, and amphibious warfare ships. The shipbuilding industrial 
base will be commensurately impacted and shipbuilding costs would 
spiral unfavorably. The resulting battle force would fall markedly 
short of the Force Structure Assessment, unable to meet fleet inventory 
requirements.
    The National Sea-Based Deterrence Fund (NSBDF) is a good first step 
in that it acknowledges the significant challenge of resourcing the OR 
SSBN, but the fund is unresourced and the Navy does not have other 
funds for the NSBDF to support OR.
    The Navy will work with the Congressional Defense Committees to 
determine reasonable options and funding alternatives to help solve the 
impact of OR on the shipbuilding budget.

    15. Senator McCain. Secretary Mabus, can you discuss the steps that 
are being taken to reduce the cost of ORP nuclear ballistic missile 
submarines?
    Mr. Mabus. The Ohio Replacement Program is the Department of the 
Navy's highest priority, and as such, numerous efforts are being 
conducted to reduce the program cost throughout design, production, and 
operations and sustainment. Some of these efforts include pursuing 
innovative acquisition strategies; new ideas and implementation through 
design for affordability; independent deep dive analysis; common 
material procurements and portfolio savings with Virginia-class 
submarines; use of prototyping, component development and reuse; and 
potential savings from continuous production of key materials.
    In December 2012, the Navy awarded a Research and Development 
contract for Ohio Replacement SSBN which focuses on meeting the 
program's performance requirements while reducing costs across design, 
production, and operations and sustainment. The average follow-on ship 
recurring cost estimate was reduced to $5.2 billion CY 2010 ($9.8B TY) 
dollars from $5.4 billion CY 2010 ($10.5B TY) dollars. Cost reduction 
efforts continue and bring the Navy closer to its cost goal of $4.9 
billion CY 2010 average follow-on ship recurring cost. The cost 
reduction efforts will continue throughout the design and construction 
phases.

    16. Senator McCain. Secretary Mabus, are you on track to meet the 
$4.9 billion target for hulls 2 through 12?
    Mr. Mabus. The Ohio Replacement Program is the Department of the 
Navy's highest priority, and as such, numerous efforts are being 
conducted to reduce the program cost throughout design, production, and 
operations and sustainment. Some of these efforts include pursuing 
innovative acquisition strategies; new ideas and implementation through 
design for affordability; independent deep dive analysis; common 
material procurements and portfolio savings with Virginia-class 
submarines; use of prototyping, component development and reuse; and 
potential savings from continuous production of key materials.
    In December 2012, the Navy awarded a research and development (R&D) 
contract for OR SSBN which focuses on meeting the program's performance 
requirements while reducing costs across design, production, and 
operations and sustainment. The average follow-on ship recurring cost 
estimate was reduced to $5.2 billion CY 2010 ($9.8B TY) dollars from 
$5.4 billion CY 2010 ($10.5B TY) dollars. Cost reduction efforts 
continue and bring the Navy closer to its cost goal of $4.9 billion CY 
2010 average follow-on ship recurring cost. The cost reduction efforts 
will continue throughout the design and construction phases.

                  carrier onboard delivery replacement
    17. Senator McCain. Admiral Greenert, this budget proposes 
replacing the C-2 Greyhound with the V-22 Osprey. The transition from a 
fixed wing to tilt-rotor aircraft will mark a significant departure for 
this mission and carrier aviation. In your statement, you say, ``The V-
22 (Navy variant) extends the range and in increases the flexibility of 
Strike Group resupply.'' Can you elaborate on this statement?
    Admiral Greenert. The Navy V-22 variant extends the range of the 
MV-22 by utilizing an extended range fuel system. This expands the 
range of the Carrier Onboard Delivery (COD) capability to 1,150 
nautical miles while carrying up to 6,000 pounds of cargo/passengers. 
The Navy V-22 will increase flexibility of Strike Group resupply 
operations by evolving the Aerial Logistics Concept of Operations from 
a CVN centric ``hub and spoke'' model to a flexible Sea Base support 
concept. Under this model, any V-22 capable ship or seabase, can serve 
as a logistics hub alleviating current COD mission limitations 
associated with solely traditional aircraft carrier cyclic launch and 
recovery operations.

    18. Senator McCain. Secretary Mabus and Admiral Greenert, can you 
discuss the analysis and selection process behind this decision and why 
you're convinced this is the right platform for this mission in the 
future?
    Mr. Mabus and Admiral Greenert. The 35 remaining C-2A aircraft are 
nearing the end of their service life and becoming increasingly more 
expensive to operate. Accordingly, the Navy identified the need for a 
solution for the Carrier Onboard Delivery (COD) mission capability.
    Between 2004 and 2013 the Navy performed a series of analyses, 
which identified the COD capability as a critical force enabler that 
must have a material solution, and that a manned carrier based 
logistics aircraft was the preferred material concept. Other key 
analytic findings were that a force structure of 44 C-2 or V-22 class 
aircraft are required to conduct the COD mission into the future and 
that ``off-the-shelf'' solutions were available. Additionally, the 
latest analysis proved that a COD mission solution is required no later 
than 2026.
    In 2012, an update to the 2005 Analysis of Alternatives (AoA) 
focused on updating the cost estimates for the six most likely 
alternatives. The analysis concluded, in part, that transferring the 
COD mission to the V-22, already a part of the existing V-22 Program of 
Record, was a viable and cost-effective option; in fact, an option that 
provided the Navy ``the best value'' solution. This update was 
validated by the Office of the Secretary of Defense, Cost Assessment 
and Program Evaluation (OSD CAPE) in December 2012. Following 
validation, an underway Military Utility Assessment (MUA) was performed 
in June 2013 onboard the USS Harry S. Truman (CVN 75). This assessment 
demonstrated that the V-22 is an effective, flexible and safe platform 
to conduct the COD mission from an aircraft carrier.
    Based on in-depth analysis and demonstrated capability the 
Department of the Navy selected a Navy variant of V-22 as the solution 
to recapitalize the COD mission aircraft. This decision pursues an 
acquisition strategy which funds the existing Program of Record to 
procure 44 V-22 COD mission aircraft. This approach takes advantage of 
an existing full-rate production line, captures potential multiyear 
procurement savings and capitalizes on the benefits of operating a 
common Joint service aircraft. Overall, this decision is the most 
affordable, long-term solution with the least risk in meeting Navy 
requirements.
               ballistic missile defense ship requirement
    19. Senator McCain. Admiral Greenert, can you tell us what the 
ballistic missile defense requirement is for our surface ships (i.e., 
how many ships must have this capability)?
    Admiral Greenert. The 2014 update to the 2012 Force Structure 
Assessment sets the requirement at 40 advanced capable BMD (AEGIS 
Baseline 9+) ships, as part of the 88 large surface combatant 
requirement, to meet Navy unique requirements to support defense of the 
sea base and limited expeditionary land base sites.
    The basic and intermediate capable BMD ships remaining in inventory 
will continue to contribute to the sourcing of Combatant Commander 
(CCDR) requests independent of the Navy unique requirement. This CCDR 
demand has increased from 44 in fiscal year 2012-2014 to 77 in fiscal 
year 2016. Navy continues to be challenged to meet all CCDR demand for 
BMD ships, but will meet 100 percent of Secretary of Defense 
adjudicated requirements in fiscal year 2016. To better meet CCDR 
demand and the Navy unique requirement, Navy is building advanced BMD 
capability in new construction ships and modernizing existing 
destroyers with advanced BMD capability.
    Basic BMD capability includes early baseline ships capable of 
tracking and engaging short and medium range ballistic missiles. 
Intermediate capable BMD ships provide improved capability against more 
complex ballistic missiles. Advanced capable BMD ships are those with 
the ability to conduct Integrated Air and Missile Defense (IAMD) (BMD 
and Air Defense simultaneously). Each improvement also provides a 
greater area of coverage (footprint) by the ship.
    The minimum requirement for 40 advanced capable BMD ships is based 
on the Navy unique requirement as follows. It accepts risk in the 
sourcing of CCDR requests for defense of land.
        - 27 to meet CVN escort demand for rotational deployment of the 
        carrier strike groups
        - 9 in FDNF Japan to meet operational timelines in PACOM
        - 4 in FDNF Europe for rotational deployment in EUCOM

    20. Senator McCain. Admiral Greenert, what time period is this 
requirement valid for?
    Admiral Greenert. The updated ballistic missile defense (BMD) 
requirement is set out in the 2014 Force Structure Assessment (FSA). 
The focus of the 2014 FSA update is 2030 in order to provide the 
subsequent shipbuilding plan time to appreciably impact/change the 2030 
force.
                     lx(r) amphibious ship program
    21. Senator McCain. Admiral Greenert and General Dunford, the Navy 
is developing the requirements now for the next class of amphibious 
ship, the LX(R). Those requirements should reflect an assessment of how 
the naval force, sailors and marines, will be expected to operate and 
fight in the future. I know the Marine Corps is experimenting with 
operations off a wider range of noncombatant ships, but we must ensure 
that our warships are capable of supporting them in the manner they 
plan to fight in the future. Can you update us on the progress of the 
LX(R) development effort?
    Admiral Greenert. LX(R) is the replacement program for the landing 
ship dock, LSD 41 and LSD 49 classes, which will begin reaching their 
estimated service life in the mid-2020s. The Analysis of Alternatives 
Report was completed in April 2014. After thorough analysis, the 
Department has determined that using a derivative of the LPD 17 hull 
form is the preferred alternative to meet LX(R) operational 
requirements. This determination sustains the program's focus on 
requirements, affordability and total ownership cost. Program focus 
during fiscal year 2016 will be to finalize the requirements in the 
Capability Development Document and execute contract design efforts to 
meet acquisition milestones for procurement of the lead ship in fiscal 
year 2020. Competition will play a key role in the LX(R) acquisition 
strategy.
    LX(R) is envisioned to be a flexible, multi-mission warship with 
capabilities that support execution of the full range of military 
operations. The need to support disaggregated or split operations away 
from the Amphibious Readiness Group or to deploy independently is a key 
driver for the design of the ship class. The inherent flexibility of 
amphibious ships is demonstrated by their support to 7 of the 10 
missions in the Defense Strategic Guidance. LX(R) will be a versatile, 
cost-effective amphibious ship--a success story in leveraging mature 
design while balancing cost and requirements to deliver key 
capabilities. The lead LX(R) will deliver in time for LSD 43's 
retirement in fiscal year 2027.
    General Dunford. First it must be noted both that you are correct 
that the wider range of noncombatant ships will help the force expand 
our operational capability and that those vessels are not a replacement 
for amphibious warships. Those noncombatant vessels can only operate 
effectively in permissive environments whereas amphibious warships are 
capable of operating across the range of military operations, 
particularly in ``most dangerous case scenarios.''
    LX(R) the next generation of amphibious warship is currently being 
developed and is templated to have 11 ships in its class to replace the 
LSD 41/49 class. In the most recent 30 year shipbuilding plan, advanced 
procurement is programmed for FY19 to procure the lead LX(R) class ship 
in FY20. It should be noted that development of the LX(R) on the LPD-17 
hull form has allowed us to achieve cost savings. Additionally, LPD-28, 
which the Congress had the wisdom to provide to the Navy and Marine 
Corps last session, allows us to bridge the gap from an industrial base 
perspective, also achieving cost savings. That decision also allows the 
shipyards to begin using naval architecture on LPD-28 that will be 
required on LX(R), again achieving cost savings and lowering the time 
required for construction on LX(R).
    LX(R) will possess the capacity to operate independently and will 
bridge existing LSD 41/49 operational capability shortfalls including 
embarkation capacity, command and control, medical, and aviation.

                  future carrier and carrier air wing
    22. Senator McCain. Admiral Greenert, can you provide your vision 
for the future of aircraft carriers and the carrier air wing?
    Admiral Greenert. The fiscal year 2016 President's Budget request 
sustains the transitions for aircraft carriers and carrier air wings to 
ensure the Navy improves the proven capabilities required of these 
platforms to win in projected threat environments. The 2014 Quadrennial 
Defense Review (QDR) validated the requirements for these platforms as 
set forth in the approved Defense Planning Scenarios, Combatant 
Commanders' Operation Plans (OPLANs), and Fleet priorities outlined in 
the Naval Aviation Master Aviation Plan (MAP).
    The aircraft carrier is central to Navy core capabilities of 
forward presence, deterrence, sea control, power projection, maritime 
security, and humanitarian assistance/disaster response (HA/DR). The 
Department remains committed to maintaining a carrier force, and 
associated carrier air wings, that provide unparalleled responsiveness 
and flexibility to operational commanders across the full range of 
military options. Maintaining the aircraft carrier force structure at 
the level required by law requires a combination of a steady-state 
Ford-class procurement plan, recapitalization of the Nimitz-class via 
the Refueling and Complex Overhaul (RCOH) program, maintaining an in-
service aircraft carrier life cycle support program, and inactivating 
current CVNs at their notional 50-year service life as Ford-class CVNs 
are delivered.
    The carrier air wing is currently evolving to improve its lethality 
as an integrated maritime power projection force. The future force 
structure features enhanced capabilities to achieve superiority in 
electromagnetic maneuver warfare, advanced strike, sea control, 
surveillance, command and control, and logistics. The Airborne 
Electronic Attack mission formerly fulfilled by the EA-6B is being 
recapitalized with the EA-18G. The carrier based squadron transition 
will be complete in 2015. The strike fighter contribution to the future 
carrier air wing requires the complementary capabilities of both the F/
A-18E/F and F-35C, which will improve access in contested environments 
and kill chain effectiveness in all assigned mission areas. The F-35C 
will replace aging F/A-18C aircraft as they reach the end of their 
service life and will provide a 5th generation strike fighter aircraft 
that combines low observable technology, greatly improved sensors and 
data fusion to outpace future threats. The F/A-18E/F continues to 
receive advanced capability upgrades required to sustain its relevance 
until eventual replacement with the Next Generation Air Dominance 
family of systems, which is currently in the requirements definition 
phase. Improvements in surveillance and detection are integrated with 
the E-2D as it replaces the E-2C. An expanded helicopter footprint 
employs the MH-60R for Strike Group submarine defense and surface 
surveillance reconnaissance and strike, a role previously filled by the 
S-3B and SH-60F; while the MH-60S replaces the aging HH-60H for combat 
support and small boat defense within the Strike Group. Finally, a Navy 
variant of the V-22 will recapitalize the Carrier Onboard Delivery 
(COD) logistics mission and enable a flexible Sea Based logistics 
support concept.
    The Navy is also exploring unmanned options for carrier air wing 
integration. UCLASS is currently in the requirements definition phase 
of development and will capitalize on the proven capabilities of the 
UCAS-D.

    23. Senator McCain. Admiral Greenert, how important is the 
attribute of strike in a contested environment to our first unmanned 
carrier launched aircraft system?
    Admiral Greenert. The Navy has a validated requirement for strike 
in a contested environment for the Unmanned Carrier Launched Airborne 
Surveillance and Strike (UCLASS) system.

    24. Senator McCain. Admiral Greenert, you have mentioned a RAND 
study of less expensive aircraft carrier options. What are the major 
elements of this study and what is the estimated completion date?
    Admiral Greenert. This study will examine potential requirements, 
capabilities, and alternatives for future development of aircraft 
carrier alternatives that would replace or supplement the highly 
capable Ford-class CVN. The study will examine a range of mixes and 
alternatives for platforms with lower costs and potentially smaller air 
wings.
    The study will compare the current CVN 78 platform, a two-reactor 
nuclear propulsion system, and a conventionally-powered variant, in 
both existing and smaller, new design variants, with consideration of 
incorporating unmanned aircraft into the future carrier air wing. This 
study is expected to complete in early Summer of 2016.
                  flight iii guided missile destroyer
    25. Senator McCain. Secretary Mabus, what is your assessment of the 
readiness of the air and missile defense radar to begin procurement as 
part of the Flight III Guided Missile Destroyer (DDG) in fiscal year 
2016?
    Mr. Mabus. The Air and Missile Defense Radar (AMDR), officially 
designated SPY-6, is on track to begin procurement in fiscal year 2016 
as part of the Flight III DDG 51. Introducing SPY-6 through the proven 
Aegis combat system in the well-established DDG 51 hull remains the 
lowest risk and fastest way to get this capability to the Fleet.
    The AMDR program has met all major program milestones per plan, 
including successful completion of Hardware Critical Design Review 
(CDR) in December 2014 and is on track to complete System CDR in April 
2015. The tactical software that runs the radar is well into 
development, and is already integrated with, and running, radar 
hardware. The DDG 51 shipbuilders are designing the ship changes 
required to host the radar, based on detailed radar design information 
already delivered. Build-up of a full scale Engineering Development 
Model (EDM) array is in progress to support near field range testing 
later this summer.
    Test planning efforts are currently underway to support a six month 
campaign of increasingly complex tests using satellites, manned and 
unmanned aircraft, and dedicated targets.
    In summary, the radar hardware design is complete, and is already 
integrated with initial tactical software. The program is on track, 
with schedule margin, to support a production decision for procurement 
of the fiscal year 2016 Flight III DDG 51. Introducing the AMDR/SPY-6 
on the Flight III DDG 51 remains the lowest risk, fastest, and least 
expensive way to deliver this vitally needed capability to the Fleet.
                           amphibious assault
    26. Senator McCain. Admiral Greenert and General Dunford, what is 
the closest range from shore the Navy and Marine Corps can conduct an 
amphibious assault in a contested Anti-Access/Area Denial (A2/AD) 
environment today and projected into the future?
    Admiral Greenert. The extent and effectiveness of shaping actions 
to neutralize threats to naval forces in advance of amphibious 
operations are highly dependent on the mission. Acceptable operational 
risk is determined by considering the mission, the nature of the 
threats that can potentially oppose that mission, and the capabilities 
of friendly forces to counter those threats. The final decision to 
conduct amphibious operations is based on mission requirements and risk 
regardless of range.
    The Joint Force Commander and Joint Force Maritime Component 
Commander will conduct shaping operations to mitigate the threat and 
establish the requisite conditions for an amphibious operation (e.g., 
establishment of air and maritime superiority). The overall objective 
of setting these conditions is to permit the amphibious force to close 
the distance which will allow a faster buildup of combat power ashore 
of the landing force.
    General Dunford. There is no optimal or minimum distance for 
launching an amphibious assault--the answer is that it depends on the 
circumstances, the mission, and the risk we must accept. In our recent 
wargaming efforts, based on a scenario in the 2020's, we planned 
operations beyond 50 nautical miles (NMi), and amphibious assaults at 
30 NMi, 12 NMi, and 4 NMi against an A2AD enabled adversary.
    There is no fixed distance that will define how or when Marine 
forces come ashore during and amphibious assault in a contested area. 
Where Navy vessels are positioned and when amphibious forces are 
ordered ashore will be a decision made by the Joint Force Commander, 
Combatant Commander, or higher.
    The distance from the shore depends on the geography, the enemy's 
capabilities, the extent that we have been able to shape the 
environment in the landing areas, and the level of risk we are willing 
to accept. Tides, sand bars, reefs, currents, mangroves, and geography 
in the landing area will all impact the distance from which we can 
approach a landing area. These characteristics will vary depending on 
the objective area.
    Every adversary is going to have a different set of capabilities; 
the following are primary ones that need to be considered: off shore 
anti-access capabilities presented by submarines, ships, and long range 
aircraft; near shore capabilities like coastal defense missiles, mines, 
patrol boats and small boats that could be used for swarm attacks; 
maneuver forces ashore that are available to react to landing forces. 
Depending on the scope of A2AD capabilities and the adversary's ability 
to shift their defenses to different areas--our 'assault distance' will 
vary.
    The final factor is risk to the mission and the force. As the 
nation's expeditionary force in readiness, the Marine Corps will 
sometimes be asked to conduct crisis response and contingency missions 
in an uncertain or contested environment which are critical to our 
national security. If the strategic situation allows for a long build-
up of forces we may be able to get closer. In every operation we will 
work to create an advantage for our forces--or shape the environment. 
Preparing for an amphibious assault requires us to address the enemy's 
capabilities and local geography but we will always be constrained by 
what forces we have available, how much time we have, and the risk we 
are willing to accept.
                        tomahawk cruise missiles
    27. Senator McCain. Secretary Mabus and Admiral Greenert, the 
President's Budget for fiscal year 2016 includes procuring 100 Tomahawk 
missiles in fiscal year 2016 and proposes ending production thereafter, 
citing sufficient inventory to meet requirements. The Tomahawk's 
replacement, the Next Generation Land Attack Weapon (NGLAW) is not due 
to enter service until the mid-2020s at the earliest. Please comment on 
the:

        <bullet> Effect of ending production on the size of the 
        shortfall in Tomahawks in 2020
        <bullet> Projected level and timing of low point of Tomahawk/
        NGLAW inventory
        <bullet> Risk in ending production of the Tomahawk prior to 
        introduction of its replacement
        <bullet> Effect of a delay in the NGLAW program on the Navy's 
        ability to meet its long-range precision strike requirements
        <bullet> Effect of ending production on the ability of the 
        supplier base to recertify the existing Block IV missiles

    Mr. Mabus and Admiral Greenert. The Navy has a sufficient inventory 
of Tomahawk cruise missiles through 2020. Beginning in 2019, the Navy 
plans a recertification and modernization of Tomahawk missiles which 
will extend service life from 15 to 30 years and is crucial to 
maintaining Tomahawk inventory beyond 2020. Based on operational 
planning scenarios and projected annual expenditures, the Tomahawk 
inventory in 2020 will be at 134 percent of the combat requirement.
    The Navy's Next Generation Strike Capability (NGSC) strategy will 
develop a family of more lethal, survivable and affordable multi-
mission weapons. The NGSC strategy plans for NGLAW production to begin 
in 2026. The projected low point of combined Tomahawk/NGLAW inventory 
occurs in 2024 when the inventory decreases slightly to 132 percent of 
the combat requirement.
    The Navy takes an acceptable level of inventory risk in order to 
make capability investments to keep Tomahawk Block IV weapons relevant 
in all theaters through their 30 year service life while concurrently 
pursuing an overarching Next Generation Strike Capability strategy 
which supports introduction of the NGLAW capability in the mid to late 
2020 timeframe. Additionally, a recent Defense Contract Management 
Agency study concluded that the risk to restart TACTOM production was 
low to moderate.
    The Navy plans to mitigate the risk of any delay in the NGLAW 
program through its Tomahawk recertification and modernization plan. 
Beginning in 2019, the recertification and modernization will extend 
Tomahawk missile service life from 15 to 30 years. The first 
recertified and modernized Tomahawk missiles will be retired in 2035, 
with the last Tomahawks being removed from the active inventory in the 
mid to late 2040's time frame. Under this plan and even without any 
NGLAW contribution, Tomahawk inventory in 2035 is projected to be 130 
percent of the combat requirement.
    The Navy plans to procure up to 165 Tomahawk missiles in fiscal 
year 2016 (includes 18 procured through Replacement in Kind sale of 
Torpedo Tube Launched Missiles to the United Kingdom), with final 
delivery planned for the end of fiscal year 2018. The Tomahawk missile 
recertification and modernization program begins in the 1st Quarter of 
fiscal year 2019, and the majority of the supplier base will continue 
to be engaged during the transition from production to recertification 
and modernization. This significant continuation of effort across the 
supplier base, coupled with the fact that many of the Tomahawk missile 
vendors also support other weapons programs with similar parts, ensures 
the ability of the supplier base to support Tomahawk recertification 
and modernization.
                         joint standoff weapon
    28. Senator McCain. Secretary Mabus and Admiral Greenert, the 
President's Budget for fiscal year 2015 included procuring an 
additional 4,432 Joint Standoff Weapons (JSOW) beyond fiscal year 2015, 
including 200 in fiscal year 2016. The Justification Book stated 
``Production in fiscal year 2015 is focused on the AGM-154-C1 because 
of the low inventory''. The fiscal year 2016 President's Budget 
terminated JSOW production because, as the Justification Book states, 
``the Department has determined that there are sufficient JSOW C (fixed 
target) and JSOW C-1 (maritime moving target) weapons in inventory, and 
that other weapons will provide a much more formidable capability in 
future near-peer surface warfare engagements''. Please comment on:

        <bullet> What has changed since the submission of the 
        President's Budget for fiscal year 2015 that has made those 
        4,432 JSOWs no longer necessary to meet Navy requirements
        <bullet> What constitutes ``sufficient weapons in inventory''
        <bullet> What other weapons are being referred to in the fiscal 
        year 2016 Justification Book
        <bullet> What constitutes a ``much more formidable capability''
        <bullet> The impact of termination on potential JSOW foreign 
        military sales
        <bullet> The impact of termination on the JSOW industrial base

    Mr. Mabus. [Deleted.]
    Admiral Greenert. [Deleted.]

                            other munitions
    29. Senator McCain. Admiral Greenert, in your testimony before the 
Committee, you stated ``we have insufficient munitions in 2020, and 
even in some munitions in the [2016] budget''. What munitions 
specifically you are referring to, and their specific shortfalls?
    Admiral Greenert. [Deleted.]

    30. Senator McCain. Admiral Greenert, what risks are being assumed 
with the insufficiencies?
    Admiral Greenert. [Deleted.]

    31. Senator McCain. Admiral Greenert, what steps you would 
recommend to alleviate these insufficient inventories?
    Admiral Greenert. [Deleted.]

                         multiyear procurement
    32. Senator McCain. Secretary Mabus and Admiral Greenert, a 
contract was recently signed for multiyear procurement (MYP) of the 
Evolved Sea Sparrow Missile (ESSM) which saved approximately 18.38 
percent over annual contracts. Are there other munitions programs that 
you believe would benefit from MYP, and if so, what are they and what 
steps are being taken to implement MYP?
    Mr. Mabus and Admiral Greenert. The Department of the Navy is 
always looking for opportunities to increase savings in the munitions 
portfolio.
    In the ship defense portfolio, both Rolling Airframe Missile (RAM) 
Block 2 and Standard Missile-6 (SM-6) have good potential for future 
multi-year procurements. fiscal year (FY) 2018 is the earliest RAM 
Block 2 would be considered for a MYP after it achieves Full Rate 
Production. fiscal year 2018 is the earliest for SM-6 after the Block 
1A Engineering Change Proposal completes testing and is approved for 
Full Production cut-in.
    While MYPs are a good method to generate savings they also come at 
the cost of decreased financial flexibility for future years. Given the 
unstable funding environment the department has faced with 
Sequestration and annual continuing resolution bills, the department 
must be judicious in pursuit of MYPs. Increased stability in current 
and future budgets would increase the department's ability to pursue 
more MYPs.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                         readiness of the force
    33. Senator Inhofe. Admiral Greenert and General Dunford, General 
Dempsey testified that the fiscal year 2016 President's Budget is 
``what we need to remain at the lower ragged edge of manageable risk in 
our ability to execute the defense strategy'' and that ``we have no 
slack, no margin left for error or strategic surprise.'' Do you agree 
with General Dempsey's statement?
    Admiral Greenert. Yes, PB-16 is the absolute minimum funding needed 
to execute our DSG. Should resources be further reduced below PB-16 
levels, the DSG will need to be revised.
    General Dunford. Anything less than the President's Budget 
restricts the ability to put ready Marines forward to protect our 
interests and provide decision-space for our nation's leaders. It also 
forces the Marine Corps to accept risk in responding to a major 
contingency operation.
    If your military, and specifically the Marine Corps, is tasked to 
do more but with decreased funding, it renders the current defense 
strategy unexecutable. The Marine Corps, as the nation's-force-in-
readiness, defends the homeland by being forward postured, as we are in 
Europe/Africa with the Special Purpose Marine Air Ground Task Force for 
Crisis Response (SPMAGTF-CR-AF), in the Middle East with the Amphibious 
Ready Group/Marine Expeditionary Unit (ARG/MEU--or Marines on 
amphibious ships) and the SPMAGTF-CR-CC, and with forward-based and 
forward deployed III MEF units in the Pacific. We forward position our 
Fleet Anti-Terrorism Security Teams (FAST), which are under the 
operational control (OPCON) of the Navy, supporting each Geographic 
Combatant Commander. We have Marines stationed at State Department 
Posts throughout the world, safeguarding American lives and interests. 
However, this comes at a cost.

    34. Senator Inhofe. Admiral Greenert and General Dunford, can you 
give us some context in terms of readiness of personnel, equipment, 
training, and etcetera?
    Admiral Greenert. Sequestration in fiscal year 2013 resulted in a 
$9 billion shortfall in Navy's budget, as compared to the PB-13 
submission. This instance of sequestration was not just a disruption, 
it created readiness consequences from which we are still recovering, 
particularly in ship and aircraft maintenance, Fleet response capacity, 
and excessive CSG and ARG deployment lengths. The continuing resolution 
and sequestration reductions in fiscal year 2013 compelled us to reduce 
both afloat and ashore operations, which created ship and aircraft 
maintenance and training backlogs. To budget for the procurement of 
ships and aircraft appropriated in fiscal year 2013, Navy was compelled 
to defer some purchases to future years and use prior-year investment 
balances to mitigate impacts to programs in fiscal year 2013 execution. 
The most visible impacts occurred in Operations and Maintenance funded 
activities.
    While the Navy was able to reprioritize within available resources 
to continue to operate in fiscal year 2013, this is not a sustainable 
course for future budgets. The actions we took in 2013 to mitigate 
sequestration only served to transfer bills amounting to over $4 
billion to future years for many procurement programs--those carryover 
bills were addressed in Navy's fiscal year 2014 and fiscal year 2015 
budgets.
    Shortfalls caused by the fiscal year 2013 sequestration remain in a 
number of areas and the Navy is still working to recover from them. For 
example, we have not yet caught up from shipyard maintenance backlogs. 
We are working through shipyard personnel capacity issues to determine 
when ships can be fit back into the maintenance cycle and are balancing 
that against operational demands on the ships to ensure we meet the 
global force management requirement for Combatant Commands. The result 
of maintenance and training backlogs has meant delayed preparation for 
deployments, forcing us, in turn, to extend the deployments of those 
units already on deployment. Since 2013, many CSGs, ARGs, and 
destroyers have been on deployment for 8-10 months or longer. This 
comes at a cost to the resiliency of our people, sustainability of our 
equipment, and service lives of our ships.
    Maintenance and training backlogs have also reduced Navy's ability 
to maintain required forces for contingency response to meet Combatant 
Command operational plan requirements. Although the requirement calls, 
on average, for three additional CSGs and three additional ARGs to 
deploy within 30 days for a major crisis, Navy has only been able to 
maintain an average of one group each in this readiness posture. Root 
causes can be traced to the high operational tempo of the Fleet, longer 
than expected shipyard availabilities, and retirements of experienced 
shipyard workers, but the fiscal year 2013 sequestration exacerbated 
the depth of this problem and interfered with our efforts to recover.
    Assuming a stable budget and no major contingencies for the 
foreseeable future, it is possible to recover from the maintenance 
backlogs that have accumulated from the high operational tempo over the 
last decade of war and the additional effects of sequestration by 
approximately 2018 for CSGs and approximately 2020 for ARGs.
    General Dunford. The Marine Corps, as the Nation's ready force, 
deploys ready Marines and Marine units to meet operational 
requirements. The Marine Corps is meeting its current operational 
requirements but at the cost of surge capacity, modernization, and 
infrastructure sustainment.
    Deployed and non-deployed units alike require personnel, equipment, 
and training resources to generate ready forces capable of responding 
to any crisis around the globe at a moment's notice. Non-deployed units 
are the bill payer for protecting deployed unit readiness. Operational 
necessity compels the re-allocation of non-deployed essential personnel 
and equipment to deployed and next-to-deploy units. But even when not 
deployed, Marine units are on a short tether and are required to 
maintain high levels of readiness to respond to emergent major 
contingencies and unforeseen crises.
    The paucity of operationally available amphibious shipping 
negatively impacts home station unit training. Aircraft maintenance 
backlogs in the depots contribute to higher over-utilization rates of 
available aircraft for needed training and certifications, which in 
turn hasten the induction of these aircraft into maintenance cycles. 
Training and certification opportunities are diminished as aircraft 
maintenance induction rates exceed depot outputs.
    Although all major equipment has returned from Afghanistan, the 
Marine Corps continues its reconstitution of the whole-of-force after 
over a decade of sustained conflict. The Marine Corps will not take an 
operational pause to reconstitute; rather, as war-torn equipment is 
repaired, returned back to units, and subsequently employed 
operationally, the Marine Corps will continue to develop and field 
equipment. The evolution of operational maneuver from the sea and ship-
to-objective maneuver requires developing a complimentary portfolio of 
ground combat and tactical vehicle capabilities, such as sustaining a 
portion of the decades old amphibious assault vehicle and fielding its 
intended replacement--the Amphibious Combat Vehicle.

    35. Senator Inhofe. Admiral Greenert and General Dunford, what is 
your assessment of the global security environment, and how much risk 
is this nation accepting based on cuts to our military and reduced 
readiness levels?
    Admiral Greenert. Today's world is more complex, uncertain and 
turbulent, and this trend will likely continue. We face an environment 
in which our adversaries' capabilities are modernizing and expanding, 
and the ongoing development and fielding of anti-access/area denial 
(A2/AD) capabilities challenge our global maritime access. The 
environment is also marked by continued threats from expanding and 
evolving terrorist and criminal networks, the increasing frequency and 
intensity of maritime territorial disputes, and threats to maritime 
commerce, particularly the flow of energy.
    The cumulative effect of budget shortfalls over these past three 
years has forced the Navy to accept significant risk in key mission 
areas, notably if the military is confronted with a technologically 
advanced adversary or forced to deny the objective of an opportunistic 
aggressor in a second region while engaged in a major contingency. By 
``risk,'' we mean that some of our platforms will arrive late to the 
combat zone, and engage in conflict without the benefit of markedly 
superior combat systems, sensors and networks, or desired levels of 
munitions inventories. In real terms, this means longer timelines to 
achieve victory, more military and civilian lives lost, and potentially 
less credibility to deter adversaries and assure allies in the future.
    The fiscal year 2016 Navy budget submission, including OCO, sets us 
on a course to restore our readiness over time, particularly to rebuild 
our capacity to surge forces for contingency operations. However, we 
continue to accept risk in two mission areas specified by the Defense 
Strategic Guidance: (1) Deter and Defeat Aggression and (2) Project 
Power despite Anti-Access/Area (A2/AD) Challenges, primarily as the 
result of reduced procurement of aircraft, slowed ship and aircraft 
modernization and decreased ordnance deliveries.
    General Dunford. The Global Security Environment. The current 
operating environment is volatile and complex. It is marked by a 
growing demand for Marine capabilities ranging from Amphibious Ready 
Groups/Marine Expeditionary Units (ARG/MEUs) and Special Purpose MAGTFs 
to Marines at embassies. There are no indications that the future will 
be any less challenging or that the demand for Marines will decrease. 
Threats will continue to include the proliferation of modern 
conventional, asymmetric, and cyber weapons, violent extremism, 
transnational crime, and piracy. Sources of conflict will include 
water, energy and food scarcity, weak governments resulting in 
ungoverned spaces, territorial and tribal disputes, and regional 
competition. Due to geography and demographics, the most likely 
locations for conflict will be in and around the littorals where our 
naval forces are uniquely capable of responding. The realities of 
reduced defense spending and an increasingly volatile and unpredictable 
global security environment presents tough choices for the services and 
what the nation wants its military to do.
    Risk. The Marine Corps is operating at an elevated risk level in 
meeting the tenants of the defense strategy. At funding below the 
President's Budget request, we would not have adequate forward presence 
to assure allies or respond to crisis in the manner needed. The defense 
strategy requires a sustained ability to deter aggression, operate 
effectively across all domains, and respond decisively to emerging 
crises and contingencies. The Marine Corps, as the nation's 
expeditionary-force-in-readiness, does this by defending the homeland 
with forward presence. Under sequestration, there will be less forward 
deployed forces resulting in increased risk to our national security 
interests.

    36. Senator Inhofe. Admiral Greenert and General Dunford, how has 
sequestration impacted your ability to sustain readiness and at the 
same time invest in modernization?
    Admiral Greenert. Sequestration in fiscal year 2013 resulted in a 
$9B shortfall in Navy's budget as compared to the PB 2013 submission. 
This instance of sequestration was not just a disruption; it created 
readiness consequences from which we are still recovering, particularly 
in ship and aircraft maintenance, fleet response capacity, and 
excessive deployment lengths. In combination with the impacts of the 
fiscal year 2013 Continuing Resolution, this compelled us to reduce 
both afloat and ashore operations, and create ship and aircraft 
maintenance backlogs.
    Shortfalls caused by the fiscal year 2013 sequestration remain in a 
number of areas and the Navy is still working to recover from them. 
Assuming a stable budget and no major contingencies for the foreseeable 
future, it is possible to recover from the maintenance backlogs that 
have accumulated from the high operational tempo over the last decade 
of war and the additional effects of sequestration by approximately 
2018 for CSGs and approximately 2020 for ARGs.
    Deferments in PB-16 compound modernization delays we were compelled 
to accept in PB-15 due to budget constraints. To budget for procurement 
and modernization for ships and aircraft, Navy was compelled to defer 
some purchases to future years, further reducing the capacity of 
weapons and aircraft, slow, shorten and delay modernization plans; and 
reduce quantities of ordnance procurement; and delay upgrades to all 
but the most critical shore infrastructure.
    PB-15 represented another iterative reduction from the resources 
necessary to fully resource the Defense Strategic Guidance missions, 
making Navy less ready to successfully Deter and Defeat Aggression and 
Project Power Despite Anti-Access/Area Denial (A2/AD) Challenges. 
Continuing along this budget trajectory means that by 2020, Navy will 
not have recovered sufficient contingency response capacity to execute 
large-scale operations in one region, while simultaneously deterring 
another adversary's aggression elsewhere. Also, we will lose our 
advantage over adversaries in key warfighting areas such as Anti-
Surface Warfare, Anti-Submarine Warfare, Air-to-Air Warfare, and 
Integrated Air and Missile Defense.
    General Dunford. Today, approximately half of the Marine Corps' 
home station units are at an unacceptable level of readiness. 
Investment in the future is less than what is required, and 
infrastructure sustainment is budgeted below the Department of Defense 
standard. Additionally, the deployment-to-dwell time ratio is being 
maintained at a very challenging level. The operating forces are 
deploying for up to 7 months and returning home for 14 or less months 
before redeploying. Additionally, the Marine Corps has significantly 
reduced many of the programs that have helped to maintain morale and 
family readiness through over a decade of war. These are some of the 
damages to date caused by sequestration and lower funding levels.
    The fiscal year 2016 President's Budget is the bare bones budget 
for the Marine Corps that can meet the current Defense Strategic 
Guidance. The budget prioritizes near-term readiness at the expense of 
modernization and facilities, and only achieves a 1 to 2 deployment to 
dwell ratio, which is unsustainable over the long term. Another round 
of sequestration would force the Marine Corps to significantly degrade 
the readiness of our home station units, which is the Marine Corps' 
Ready Force to respond to crises or major combat operations. The fiscal 
challenges we face today will be further exacerbated by assuming even 
more risk in long-term modernization and infrastructure in order to 
maintain ready forces forward. This is not sustainable and degrades our 
capacity as the Nation's force-in-readiness.

    37. Senator Inhofe. Admiral Greenert and General Dunford, how do 
lower readiness levels and a smaller force impact our ability to deter 
aggression?
    Admiral Greenert. The cumulative effect of budget shortfalls has 
forced Navy to accept significant risk in key mission areas, notably if 
the military is confronted with a technologically advanced adversary or 
forced to deny the objective of an opportunistic aggressor in a second 
region while engaged in a major contingency. This means that some of 
our platforms will arrive late to the combat zone and engage in 
conflict without the benefit of markedly superior combat systems, 
sensors and networks, or munitions inventories that are below desired 
levels. This means longer timelines to arrive and prevail, more ships 
and aircraft out of action in battle, more sailors, marines, and 
merchant mariners killed, and less credibility to deter adversaries and 
assure allies in the future.
    Lower readiness levels and a smaller force would degrade both our 
capability and capacity to deter aggression. Limiting our ability to 
provide sustained global presence with combat ready forces, where it 
matters, when it matters, will challenge our ability to deliver 
overpowering warfighting capabilities that can deter aggression. Navy 
presence is critical, not only for the immediate response that ready, 
maritime forces can deliver, but also through their ongoing 
contributions to the Combatant Commanders' theater campaign plans. 
Additional warfighting capacity, particularly to meet contingency 
response requirements, requires sustaining the readiness of non-
deployed forces.
    General Dunford. The Marine Corps is operating with elevated risk 
in meeting the tenants of the defense strategy. At funding below the 
President's Budget request, we would have less readiness and inadequate 
forward presence to assure allies or respond to crisis in the manner 
needed. The defense strategy requires a sustained ability to deter 
aggression, operate effectively across all domains, and respond 
decisively to emerging crises and contingencies. The Marine Corps, as 
the nation's expeditionary-force-in-readiness, does this by defending 
the homeland with forward presence. Smaller, less ready forces will 
produce fewer forward deployed forces, resulting in increased risk to 
our national security interests.

    38. Senator Inhofe. Admiral Greenert and General Dunford, if those 
forces are not ready, what is the impact on executing combatant 
commander operational plans?
    Admiral Greenert. If sufficient numbers of our contingency response 
forces are not ready, there will be a delay in Navy's ability to fully 
support the Combatant Commanders' Operational Plans (OPLANs) in some 
cases.
    The cumulative effect of budget shortfalls has forced Navy to 
accept significant risk in key mission areas, notably if the military 
is confronted with a technologically advanced adversary or forced to 
deny the objective of an opportunistic aggressor in a second region 
while engaged in a major contingency. This means that some of our 
platforms will arrive late to the combat zone and engage in conflict 
without the benefit of markedly superior combat systems, sensors and 
networks, or munitions inventories that are below desired levels. This 
means longer timelines to arrive and prevail, more ships and aircraft 
out of action in battle, more sailors, marines, and merchant mariners 
killed, and less credibility to deter adversaries and assure allies in 
the future.
    General Dunford. Maintaining the readiness of our forward deployed 
forces during a period of high operational tempo while amidst fiscal 
uncertainty; as well as fiscal decline, comes with ever increasing 
operational and programmatic risk. Today, approximately half of the 
Marine Corps' home-station units are at an unacceptable level of 
readiness in their ability to execute wartime missions, respond to 
unexpected crises, and surge for major contingencies. Furthermore, the 
ability of non-deployed units to conduct full spectrum operations 
continues to degrade as home-station personnel and equipment are 
sourced to protect and project the readiness of deployed and next-to-
deploy units. As the Nation's first responders, the Marine Corps' home-
stationed units are expected to be at or near the same high state of 
readiness as our deployed units, since these non-deployed units will 
provide the capacity to respond with the capability required 
(leadership and training) in the event of unexpected crises and or 
major contingencies.
    Despite this challenge and imbalance, the Marine Corps continues to 
provide units ready and responsive to meet core and assigned missions 
in support of all directed current operational, crisis, and contingency 
requirements. However, we continue to assume long-term risk 
particularly in supporting major contingencies in order to fund unit 
readiness in the near term. Consequently, the Marine Corps' future 
capacity for crisis response and major contingency response is likely 
to be significantly reduced. Quite simply, if those units are not ready 
due to lack of training, equipment or manning, it could mean a delayed 
response to resolve a contingency or to execute an operational plan, 
both of which create unacceptable risk for our national defense 
strategy as well as risk to mission accomplishment and to the force as 
a whole. It means more lives lost because America's fighting men and 
women were not as ready as they should have been.

    39. Senator Inhofe. Admiral Greenert and General Dunford, if a 
major or even minor contingency operation were executed today given 
your current state of readiness and current global commitments, is it 
possible the Navy or the Marine Corps would have to send forces into 
combat that are not fully trained and ready?
    Admiral Greenert. Navy will not send forces forward into combat 
until they have completed essential training, maintenance, and other 
readiness requirements. The cumulative effect of budget shortfalls, 
however, has forced Navy to accept significant risk in key mission 
areas, notably if the military is confronted with a technologically 
advanced adversary or forced to deny the objective of an opportunistic 
aggressor in a second region while engaged in a major contingency. This 
means that some of our platforms will arrive late to the combat zone 
and engage in conflict without the benefit of markedly superior combat 
systems, sensors and networks, or munitions inventories that are below 
desired levels. In real terms, this means longer timelines to achieve 
victory, more military and civilian lives lost, and potentially less 
credibility to deter adversaries and assure allies in the future.
    For minor contingencies, the Navy will respond within required 
timelines by reallocating currently deployed units and/or employing our 
limited, but ready, contingency response capacity today.
    General Dunford. Although we are committed to generating ready 
forces, a strategic surprise or another situation of vital national 
interest may erupt where national leaders order the deployment of 
forces that are not sufficiently manned, trained, and equipped--
essentially not fully ready for the mission.
        -  The Marine Corps continues to provide ready and responsive 
        units to meet core and assigned missions in support of all 
        directed current operational, crisis, and contingency 
        requirements.
        -  Maintaining the readiness of our forward deployed forces 
        during a period of high operational tempo amidst fiscal 
        uncertainty, as well as fiscal decline, comes with ever 
        increasing operational and programmatic risk.
        -  Today, approximately half of the Marine Corps' home-station 
        units are at an unacceptable level of readiness in their 
        ability to execute wartime missions, respond to unexpected 
        crises, and surge for major contingencies
        -  As the Nation's first responders, the Marine Corps' home-
        stationed units are expected to be at or near the same high 
        state of readiness as our deployed units. These non-deployed 
        units will provide the capacity to respond with the capability 
        required (leadership and training) in the event of unexpected 
        crises and or major contingencies.

    40. Senator Inhofe. Admiral Greenert and General Dunford, would you 
please provide complete inventory of aircraft and ship munitions and 
shortages?
    Admiral Greenert. [Deleted.]
    General Dunford. [Deleted.]
                         joint standoff weapons
    41. Senator Inhofe. Admiral Greenert, what has changed to make 
JSOWs no longer necessary to the Navy's requirements?
    Admiral Greenert. [Deleted.]

    42. Senator Inhofe. Admiral Greenert, what will be the total 
inventory of JSOWs if the program is terminated in fiscal year 2016?
    Admiral Greenert. The total DON JSOW inventory, including 200 
weapons projected to be procured in fiscal year 2015, will be 4,600 
weapons. The variants are broken out as follows:
    JSOW A - 1,455
    JSOW C - 1,453
    JSOW C-1 - 1,692

    43. Senator Inhofe. Admiral Greenert, is the inventory enough to 
meet all combatant commander wartime requirements?
    Admiral Greenert. The DON JSOW inventory is sufficient to meet 
wartime requirements. The Department's assessment is informed by the 
fiscal year 2015 Naval Munitions Requirement Planning (NMRP) modeling 
process.

    44. Senator Inhofe. Admiral Greenert, is there an existing weapon 
that can replace the JSOWs' capability, and if not, what is the plan to 
replace that lost capability?
    Admiral Greenert. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                       virginia-class submarines
    45. Senator Ayotte. Admiral Greenert, what percentage of combatant 
commander requests for attack submarines is currently being met by the 
Navy?
    Admiral Greenert. Navy is currently sourcing approximately 55 
percent of Combatant Commander requests for attack submarines in fiscal 
year 2015.
    Navy projects we will source approximately 57 percent of Combatant 
Commander requests for attack submarines in fiscal year 2016.

    46. Senator Ayotte. Admiral Greenert, in light of the activities 
and advances of our potential adversaries, as well as the threats we 
will confront, do you see the need for attack submarines increasing or 
decreasing?
    Admiral Greenert. Combatant Commander (CCDR) requests for attack 
submarines will continue to increase as other countries expand their 
capacity and capabilities in the undersea domain. The Navy will only 
meet about 60 percent of CCDR demand in fiscal year 2016, and sourcing 
will become more challenging as the number of attack submarines decline 
below the 48 SSN requirement in the 2020s.
    PB-16 continues our ongoing effort to addresses this SSN shortfall 
through multiple parallel efforts:
        <bullet> Continuing procurement of two Virginia-class 
        submarines per year, resulting in an inventory of 22 Virginia-
        class submarines (51 total SSNs of all types) by 2020;
        <bullet> Reducing the construction span of Virginia-class 
        submarines;
        <bullet> Extending the service lives of select attack 
        submarines (SSN 688s) with the potential to eliminate 10-15 
        attack submarine (SSN) years from the SSN shortfall of 51 
        years; and
        <bullet> Funding Virginia Payload Module (VPM) RDT&E and SCN to 
        accelerate inclusion of VPM on at least one Virginia-Class 
        Block V SSN per year in fiscal years 2019 and 2020. VPM will 
        enable Virginia-class SSNs to mitigate the loss of SSGN strike 
        capacity as they begin to retire in 2026. VPM will more than 
        triple the Tomahawk Land Attack Missile (TLAM) Block IV strike 
        capacity of a Virginia-class SSN from 12 to 40 missiles.

    47. Senator Ayotte. Secretary Mabus and Admiral Greenert, how 
important is it that Congress provide reliable and sufficient funding 
so that the Navy can fully implement the Block Four MYP contract for 10 
Virginia-class submarines (2 per year)?
    Mr. Mabus and Admiral Greenert. The Virginia-class Submarine (VCS) 
program is successfully proceeding at the two-per-year pace that began 
in fiscal year 2011. PB16 includes funding for two VCS from fiscal year 
2016 to fiscal year 2020, which is required to mitigate the attack 
submarine shortfall below the minimum 48 SSNs in the late 2020's. The 
Navy awarded the VCS Block IV contract in April 2014 for ten ships from 
fiscal year 2014 to fiscal year 2018. The savings realized with a 
multi-year procurement (MYP) construction contract was over $2 billion, 
effectively getting ten ships for the price of nine as opposed to 
building the same ships under a more traditional annual procurement 
arrangement. Reliable and sufficient funding is critical to mitigate 
the attack submarine shortfall and achieve the savings realized with a 
MYP construction contract.

                      ship and submarine building
    48. Senator Ayotte. Secretary Mabus and Admiral Greenert, I 
understand that the Navy proposes building 19 ships and submarines in 
fiscal year 2016. How would that number decline if defense 
sequestration returns fully, and what specific ships would be cut?
    Mr. Mabus and Admiral Greenert. The proposed 19 ships and 
submarines include the following: Large Surface Combatants (2); Small 
Surface Combatants (3); Attack Submarines (2); Amphibious Warfare Ships 
(1); Combat Logistics Force (1); Aircraft Carrier Refueling (1); 
Amphibious Warfare Ship Service Live Extension Program (SLEP) (4); 
Surface Support (5). A return to sequestration in fiscal year 2016 
would necessitate a revisit and revision of the Defense Strategic 
Guidance. Required cuts will force us to further delay critical 
warfighting capabilities, reduce readiness of forces needed for 
contingency response, further downsize weapons capacity, and forego or 
stretch procurement of ships and submarines, only if necessary. We will 
be unable to mitigate the shortfalls like we did in fiscal year 2013 
because prior-year investment balances were depleted under fiscal year 
2013 sequestration.
    Because of their irreversibility, force structure cuts represent 
options of last resort for the Navy. Disruptions in naval ship design 
and construction plans are significant because of the long-lead time, 
specialized skills, and extent of integration needed to build military 
ships. Because ship construction can span up to nine years, program 
procurement cancelled in fiscal year 2016 will not be felt by the 
Combatant Commanders until several years later when the size of the 
battle force begins to shrink as those ships are not delivered to the 
fleet at the planned time. Likewise, cancelled procurement in fiscal 
year 2016 will likely cause some suppliers and vendors of our 
shipbuilding industrial base to close their businesses. Further budget 
reductions will have a negative impact on the U.S. economy as workers 
directly employed in the U.S. shipbuilding and repair industry in 2014 
totaled 147,000. This total includes 31,000 workers at Naval Shipyards, 
61,000 at yards with Navy new construction work, and 55,000 at the 
remaining shipbuilding and repair yards. This skilled, experienced, and 
innovative workforce cannot be easily replaced and it could take years 
to recover from layoffs and shutdowns; and even longer if critical 
infrastructure is lost. As a result, the Navy is committed to 
protecting the Shipbuilding and Conversion, Navy (SCN) appropriation 
that funds force structure and SCN will only be reduced as a last 
resort option for the Navy. Stability and predictability are critical 
to the health and sustainment of this vital sector of our Nation's 
industrial capacity.

    49. Senator Ayotte. Secretary Mabus and Admiral Greenert, what 
would be the long-term impact of those reductions?
    Mr. Mabus and Admiral Greenert. A return to sequestration in fiscal 
year 2016 would necessitate a revisit and revision of the Defense 
Strategic Guidance. Required cuts will force us to further delay 
critical warfighting capabilities, reduce readiness of forces needed 
for contingency response, further downsize weapons capacity, and forego 
or stretch procurement of ships and submarines only if necessary. We 
will be unable to mitigate the shortfalls like we did in fiscal year 
2013 because prior-year investment balances were depleted under fiscal 
year 2013 sequestration.
    Because of their irreversibility, force structure cuts represent 
options of last resort for the Navy. Disruptions in naval ship design 
and construction plans are significant because of the long-lead time, 
specialized skills, and extent of integration needed to build military 
ships. Because ship construction can span up to nine years, program 
procurement cancelled in fiscal year 2016 will not be felt by the 
Combatant Commanders until several years later when the size of the 
battle force begins to shrink as those ships are not delivered to the 
fleet at the planned time. Likewise, cancelled procurement in fiscal 
year 2016 will likely cause some suppliers and vendors of our 
shipbuilding industrial base to close their businesses. Further budget 
reductions will have a negative impact on the U.S. economy as workers 
directly employed in the U.S. shipbuilding and repair industry in 2014 
totaled 147,000. This total includes 31,000 workers at Naval Shipyards, 
61,000 at yards with Navy new construction work, and 55,000 at the 
remaining shipbuilding and repair yards. This skilled, experienced and 
innovative workforce cannot be easily replaced and it could take years 
to recover from layoffs and shutdowns; and even longer if critical 
infrastructure is lost. As a result, the Navy is committed to 
protecting the Shipbuilding and Conversion, Navy (SCN) appropriation 
that funds force structure and SCN will only be reduced as a last 
resort option for the Navy. Stability and predictability are critical 
to the health and sustainment of this vital sector of our Nation's 
industrial capacity.

    50. Senator Ayotte. Secretary Mabus and Admiral Greenert, it would 
be very difficult to make-up for those lost ships and submarines?
    Mr. Mabus and Admiral Greenert. A return to sequestration in fiscal 
year (FY) 2016 would necessitate a revisit and revision of the Defense 
Strategic Guidance. Required cuts will force us to further delay 
critical warfighting capabilities, reduce readiness of forces needed 
for contingency response, further downsize weapons capacity, and forego 
or stretch procurement of ships and submarines only if necessary. We 
will be unable to mitigate the shortfalls like we did in fiscal year 
2013 because prior-year investment balances were depleted under fiscal 
year 2013 sequestration.
    Because of their irreversibility, force structure cuts represent 
options of last resort for the Navy. Disruptions in naval ship design 
and construction plans are significant because of the long-lead time, 
specialized skills, and extent of integration needed to build military 
ships. Because ship construction can span up to nine years, program 
procurement cancelled in fiscal year 2016 will not be felt by the 
Combatant Commanders until several years later when the size of the 
battle force begins to shrink as those ships are not delivered to the 
fleet at the planned time. Likewise, cancelled procurement in fiscal 
year 2016 will likely cause some suppliers and vendors of our 
shipbuilding industrial base to close their businesses. Further budget 
reductions will have a negative impact on the U.S. economy as workers 
directly employed in the U.S. shipbuilding and repair industry in 2014 
totaled 147,000. This total includes 31,000 workers at Naval Shipyards, 
61,000 at yards with Navy new construction work, and 55,000 at the 
remaining shipbuilding and repair yards. This skilled, experienced and 
innovative workforce cannot be easily replaced and it could take years 
to recover from layoffs and shutdowns; and even longer if critical 
infrastructure is lost. As a result, the Navy is committed to 
protecting the Shipbuilding and Conversion, Navy (SCN) appropriation 
that funds force structure and SCN will only be reduced as a last 
resort option for the Navy. Stability and predictability are critical 
to the health and sustainment of this vital sector of our Nation's 
industrial capacity.
                         ohio-class submarines
    51. Senator Ayotte. Admiral Greenert, in your prepared statement, 
you discuss your concerns regarding the ability of the Navy to ``fund 
the Ohio replacement ballistic missile submarine (SSBN) program'' with 
current and projected resources. You say that the ``Navy cannot procure 
the Ohio replacement in the 2020s within historical shipbuilding 
funding levels without severely impacting other Navy programs.'' If 
additional funding is not provided for the procurement of the Ohio 
replacement, what specific impact will it potentially have on other 
important Navy programs?
    Admiral Greenert. The Ohio Replacement (OR) SSBN is our highest 
priority program and we are committed to executing the program to its 
current schedule. Without increased shipbuilding funding in fiscal year 
2021 and beyond, OR SSBN funding will consume the majority of Navy's 
annual shipbuilding budget, and degrade other shipbuilding programs. 
Appropriations for SSBN recapitalization are historically consistent 
with the last period of SSBN procurement between 1974 and 1990.
    Within the Navy's current and projected resources, the OR SSBN 
would consume about half of the shipbuilding funding available in a 
given year--and would do so for a period of over a decade. The 
significant drain on available shipbuilding resources would manifest in 
reduced procurement quantities in the remaining capital ship programs. 
Therefore, additional resources for shipbuilding will likely be 
required during this period.
    Since the CVN funding requirements are driven by the statutory 
requirement to maintain eleven CVNs, and accounting for one OR SSBN per 
year (starting in fiscal year 2026), there would only be about half of 
the resources normally available to procure the Navy's remaining 
capital ships. At these projected funding levels, Navy would be limited 
to on average, as few as two other capital ships (SSN, DDG, CG, LPD, 
LHA, etc.) per year throughout this decade.
    Such low shipbuilding rates for an extended period of time would 
result in a battle force inadequately sized to meet our naval 
requirements in support of the DSG. Further, there is significant risk 
to the industrial base in this case since low production rates outside 
of the SSBN and CVN production lines may not provide adequate work to 
keep shipyards operating at minimum sustaining levels and could result 
in shipyard closures. Navy's ability to recover Fast Attack Submarine, 
Large Surface Combatant, Small Surface Combatant and Amphibious Force 
inventories lost during the decade and a half in which the SSBNs were 
being procured would be challenged, particularly in those parts of the 
industrial base permitted to atrophy during this period.
                                 ______
                                 
              Questions Submitted by Senator Dan Sullivan
                    pivot to the asia-pacific region
    52. Senator Sullivan. Secretary Mabus and General Dunford, in our 
Strategic Pivot to the Pacific, Navy and Marine Corps assets play a 
vital role in providing constant presence in the region that is often 
described by the phrase ``tyranny of distance.'' However, with just 
over 300 ships in the fleet by 2012 and a smaller than desired Marine 
Corps, it strikes me that budget challenges might be driving strategy. 
In a budget constrained environment, like the one we are in, what are 
your top priories in the pivot to the Asia-Pacific region?
    Mr. Mabus. Our rebalance to the Pacific continues to be an 
important part of our partnership efforts. We must have the right 
platforms in the right places to ensure our friends and allies 
understand our commitment. The Marine Corps continues to execute the 
Guam Master Plan submitted to Congress in July 2014 which will provide 
a holisitic and operationally-responsive Marine Corps Air Ground Task 
Force capability on Guam. The Navy is moving more ships to the central 
and western Pacific, including forward basing an additional fast attack 
submarine in Guam and forward stationing four Littoral Combat Ships out 
of Singapore. We are ensuring that our most advanced platforms are in 
the Pacific, so we're increasing the number of DDG's with the Ballistic 
Missile Defense systems based in Japan and the P-8A maritime patrol 
aircraft are making their first rotational deployments in the region. 
In the longer term, by 2018, we will deploy an additional Amphibious 
Ready Group to the Asia-Pacific region and we will deploy a growing 
number of Joint High Speed Vessels and Mobile Landing Platforms there. 
With these changes, and others, our presence will assure allies, shape 
behavior, and deter conflict.
    General Dunford. The nature of the pivot itself, duration, 
complexity, and a combination of reciprocal and sequential tasks makes 
it difficult to pinpoint one, or even a couple, top priorities. The 
Marine Corps' top priority has always been, and will always be, 
maintaining a forward deployed force that is most ready when the nation 
is least ready. To meet that commitment to the American people, the 
Marine Corps must, on a day to day basis be forward deployed, forward 
engaged, and prepared for crisis response, while maintaining readiness 
to respond in the event of a major contingency. Our operational 
imperatives remain our top priorities throughout the process of 
realigning our force structure in the Asia-Pacific.

    53. Senator Sullivan. Secretary Mabus and General Dunford, can you 
fully execute this Asia-Pacific region under sequestration?
    Mr. Mabus. A return to sequestration in fiscal year 2016 would 
necessitate a revisit and revision of the Defense Strategic Guide 
(DSG). We would be unable to sufficiently meet two of the ten missions 
in the DSG: Project Power Despite Anti-Access/Area Denial Challenges 
and Deter and Defeat Aggression. In addition, we would be forced to 
accept higher risk in five other DSG missions: Counter Terrorism and 
Irregular Warfare; Defend the Homeland and Provide Support to Civil 
Authorities; Provide a Stabilizing Presence; Conduct Stability and 
Counterinsurgency Operations; and Conduct Humanitarian, Disaster 
Relief, and Other Operations. Additionally, at sequestration levels the 
risk to our readiness will be exacerbated and the condition of our 
infrastructure, including piers, runways, and mission-critical 
facilities, will further erode. This situation may lead to greater risk 
of mishaps, serious injury, or health hazards to personnel.
    General Dunford. A return to sequestration in fiscal year 2016 
would impact the Marine Corps' ability to execute the pivot through its 
effect on MILCON, as the pivot relies on rebasing Marines in Guam and 
Hawaii, and MILCON is an important part of those moves. Impacts to 
MILCON due to sequestration, including MILCON in the Pacific, would 
need to be part of a larger conversation about the priorities of the 
Department and the defense strategy under a sequestered budget. 
Specifically in fiscal year 2016 the construction of the Live Fire 
Training Range Complex (LFTRC), $126M, would not commence.
                   arctic challenges and icebreaking
    54. Senator Sullivan. Secretary Mabus, last week, Secretary of 
Defense Ashton B. Carter and Chairman of the Joint Chiefs of Staff 
General Martin E. Dempsey, USA, testified before this committee. I 
asked them about Russian activities in the Arctic and I referenced a 
recent news report which shows a rapidly increasing Russian military 
involvement in the Arctic. In fact, the Russians have begun 
constructing as many as 13 new airfields and conducting Long-Range Air 
Patrols with their Bear-Bombers, some off the coast of Alaska, creating 
a new ``Arctic Command'' and even activating an Arctic Brigade, and 
building 6 new icebreakers, with 5 more planned, to add to their 40 at 
this point. Importantly, Newsweek also recently reported that ``Nuclear 
units in the Russian Navy have engaged in exercises in the 
international waters underneath the North Pole.'' Meanwhile, we have a 
13-page Arctic Strategy, a handful of icebreakers and not a lot of 
action in the Arctic. From the Navy's perspective, how are we not 
falling behind in the Arctic and failing to live up to our 13-page 
Arctic Strategy?
    Mr. Mabus. As part of the near-term strategy, the DON is partnering 
closely with OSD and the Combatant Commanders to identify warfighting 
requirements to determine the appropriate timing for future capability 
investments.
    The Navy recognizes that the opening of the Arctic Ocean has 
important national security implications and fully supports the U.S. 
Coast Guard's (USCG) efforts to modernize its icebreaking fleet and 
increase Arctic capabilities.
    We have sufficient capability to meet near-term operational needs. 
The U.S. Navy Arctic Roadmap 2014-2030 outlines the Navy's strategic 
approach for the Arctic Region and the ways and means to achieve the 
desired national end state. In support of Department of Defense Arctic 
Strategy, the U.S. Navy Arctic Roadmap 2014-2030 outlines deliberate 
and measured steps to achieve four strategic objectives over the near-
term (2014-2020), mid-term (2020-2030), and far-term (beyond 2030) 
timeframes:
    1) Ensure United States Arctic sovereignty and provide homeland 
defense
    2) Provide ready naval forces
    3) Preserve freedom of the seas
    4) Promote partnerships
    Through annual and biennial exercises like ARCTIC ZEPHYR, COLD 
RESPONSE, and BALTOPS, we engage with our Artic partners, including 
Canada, Denmark, Finland, Iceland, Norway and Sweden.

    55. Senator Sullivan. Secretary Mabus, what are the obstacles to 
adding icebreakers to the Navy's fleet, especially given the Navy's 
Arctic responsibility to keep Arctic sea lanes open?
    Mr. Mabus. Congress assigned responsibility for icebreaking to the 
USCG per 14 U.S. Code Sec.  2-Primary duties, which states, ``the Coast 
Guard shall develop, establish, maintain, and operate with due regard 
to the requirements of national defense, aids to maritime navigation, 
icebreaking facilities, and rescue facilities for the promotion of 
safety on, under, and over the high seas and waters subject to the 
jurisdiction of the United States.''
    The Navy recognizes that the opening of the Arctic Ocean has 
important national security implications and fully supports the U.S. 
Coast Guard's (USCG) efforts to modernize its icebreaking fleet and 
increase Arctic capabilities.

    56. Senator Sullivan. Secretary Mabus, with a non-bureaucratic 
answer that shifts the responsibility to the Department of Homeland 
Security, how is the Navy going to acquire additional icebreaking 
capacity in the future and what will they do if they do not get it?
    Mr. Mabus. Current Navy capabilities are sufficient to meet near-
term operational needs. The Navy recognizes, however, that the opening 
of the Arctic Ocean has important national security implications and 
fully supports the U.S. Coast Guard's (USCG) efforts to modernize its 
icebreaking fleet and increase Arctic capabilities. The USCG Cutter 
POLAR STAR's recent reactivation will provide the U.S. with heavy 
icebreaker capability for about another seven to ten years. POLAR STAR, 
along with the medium icebreaker USCG Cutter HEALY, provide the minimum 
capability necessary to address the Nation's near term icebreaking 
needs and will provide the USCG time to assess longer term national 
needs and requirements.
    In accordance with the U.S. Navy Arctic Roadmap, in the near-term 
the Navy will refine or develop the necessary strategy, policy, plans 
and requirements for the Arctic Region. Additionally, the Navy will 
continue to study and make informed decisions on pursuing investments 
to better facilitate Arctic operations.

         marine training the joint pacific alaska range complex
    57. Senator Sullivan. General Dunford, in your testimony, you talk 
about the Marine Corps' effort to be good stewards and maintain 
training ranges and air and sea maneuver corridors. I've trained in the 
Joint Pacific Alaska Range Complex (JPARC) and we have plenty of space. 
Our ground space is the size of Delaware, our air space is the size of 
Florida, and our sea space is the size of Virginia. What are the 
obstacles, if any, for the Marine Corps to do more training in the 
JPARC, especially cold weather and mountainous training?
    General Dunford. The Marine Corps already has a robust cold weather 
and mountain training area with installation and logistic 
infrastructure supporting operations and training requirements. The 
Marine Corps Mountain Warfare Training Center (MCMWTC), Pickel Meadows, 
CA, is easily accessible, cost effective, and fully capable of meeting 
Marine Corps mountain and cold weather training requirements. We 
currently execute 6 service level training exercises, Mountain Exercise 
(MTX), annually onboard MCMWTC.
    Comparatively, training at MCMWTC is significantly more cost 
effective than it would be at JPARC. For example, any element of the 
1stMarine Division, one third of the USMC's Ground Combat Element 
(GCE), can travel, via ground, to MWTC in one day. Travel to JPARC is 
nearly cost prohibitive, so much so that Army Rangers have been sending 
companies to MTX at MCMWTC for the last year and intend to continue 
doing so for the coming years. MTX has a mature intelligence driven 
scenario run by Exercise Control (EXCON) staff. MWTC also incorporates 
Special Operation Forces (SOF), company sized opposing force, 
Intelligence, Surveillance, and Reconnaissance (ISR), and Simulated 
Close Air Support (SIMCAS) into every MTX at no additional cost to the 
battalion.

    58. Senator Sullivan. General Dunford, what should I or Alaskan 
Command do to make JPARC more attractive and accessible to Marine Corps 
training?
    General Dunford. The primary obstacles to conducting training at 
JPARC are the costs, in both time and dollars, associated with 
transiting to the training areas. The Marine Corps Mountain Warfare 
Training Center (MCMWTC), Pickel Meadows, CA, is easily accessible, 
cost effective, and fully capable of meeting Marine Corps mountain and 
cold weather training requirements. We currently execute 6 service 
level training exercises, Mountain Exercise (MTX), annually onboard 
MCMWTC. It is designed and staffed to facilitate Marine Corps training.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
           decommissioning of helicopter sea combat squadrons
    59. Senator Nelson. Secretary Mabus and Admiral Greenert, in 
regards to the Navy's plan to decommission Helicopter Sea Combat (HSC) 
squadrons, if the mitigation strategy is to use existing Active Duty 
squadrons not already dedicated to special operations support, how will 
the Navy fully support the rotary wing needs of expeditionary and 
carrier strike groups to which these squadrons are already assigned?
    Mr. Mabus and Admiral Greenert. We conducted a comprehensive 
program review of expeditionary and carrier strike group rotary wing 
requirements and determined that it was necessary to divest from all 
activities that did not directly support those missions. This includes 
dedicated rotary wing support to Special Operations Forces (SOF). As a 
result, requests for helicopter support to special operations will be 
addressed through the Global Force Management Allocation Plan (GFMAP) 
process to match available Joint and Navy resources with the highest 
priority requirements. If dedicated Navy helicopter support to SOF is 
required and prioritized through the GFMAP, then we may have to assume 
risk in other missions.

    60. Senator Nelson. Secretary Mabus and Admiral Greenert, what is 
the Navy's assessment of the increase in risk associated with using 
less experienced aviators than those aviators in the units scheduled 
for decommissioning in supporting special operations--some of the most 
dangerous flight regimes flown by rotary wing aviators today?
    Mr. Mabus and Admiral Greenert. Special Operations Forces (SOF) 
support capability currently resides as a mission subset of the 
Helicopter Sea Combat (HSC) community. As a risk mitigation strategy, 
the Navy will leverage the experience and expertise of HSC 84 and 85 
personnel by transitioning a cadre of the most seasoned aircrew to 
Tactical Support Units (TSU) resident with the HSC type wings. These 
seasoned aviators will in turn instruct aircrews on SOF support mission 
specifics thereby reducing risk to future SOF support missions. The 
Navy will maintain the ability to provide limited support with active 
duty HSC squadrons in accordance with existing Navy general purpose 
force requirements.

    61. Senator Nelson. Secretary Mabus and Admiral Greenert, what is 
the Navy's plan to recruit and maintain a Reserve of rotary wing 
aviators and maintainers now that the Navy Reserve will have just one 
rotary wing squadron if HSC-84 and HSC-85 are decommissioned on 
schedule?
    Mr. Mabus and Admiral Greenert. A personnel transition plan will 
coincide with the disestablishment of these squadrons. Navy Reserve 
Full Time Support and Selective Reserve personnel may continue to serve 
in one of two newly established Helicopter Sea Combat (HSC) Tactical 
Support Units (TSU). They may also serve in one of two Fleet 
Replacement Squadron (FRS) Squadron Augment Units (SAU) or select 
reassignment to other Navy Reserve billets. These TSUs and SAUs will 
provide both a mission and viable career path for the current and next 
generation of HSC reservists.
                   littoral combat ship surface fires
    62. Senator Nelson. Secretary Mabus and Admiral Greenert, given the 
debate over the lethality of the LCS, what is the feasibility of using 
Mark 75 OTO Malara 76mm guns from the decommissioning Oliver Hazard 
Perry-class frigates on LCS instead of the currently used Mark 110 57mm 
guns?
    Mr. Mabus and Admiral Greenert. As part of the Foreign Military 
Sales (FMS) programs, some of the retiring Oliver Hazard Perry-class 
Frigates (FFG 7) are being bought by other countries and the 76mm guns 
will remain with the ships. The other FFG 7 class ships not part of the 
FMS program were either disposed of, or scheduled to be disposed of due 
to the poor material condition of the ship.
    The Navy analyzed the feasibility of both the 57mm and the 76mm 
guns by comparing lethality, procurement cost, training infrastructure, 
manning, shipboard maintenance, operations/sustainment costs, 
commonality and design change impacts to the ships and their combat 
systems.
    The Navy's conclusion is reuse of the existing guns on new 
construction LCS ships is not advisable based the analysis and the 
service life left in these guns.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                     navy strike-fighter inventory
    63. Senator McCaskill. Admiral Greenert, what impact has the Navy's 
strike-fighter shortfall had on training and operations?
    Admiral Greenert. The Navy prioritizes and continues to meet 
deployed readiness requirements set forth in the Fleet Response 
Training Plan (FRTP). Accordingly, the Department carefully monitors 
strike-fighter inventory requirements and projected aircraft 
availability to meet the requirements for operational deployment. 
However, achieving these standards has come at the expense of force 
training for operational squadrons in the early stages of the FRTP and 
the Fleet Replacement Squadrons responsible for aircrew initial and 
refresher training.
    The FRTP is based on a structure of tiered readiness that prepares 
units for operational deployment. To support more intensive aircraft 
maintenance efforts and reduced aircrew training requirements during 
the initial FRTP phases, operational squadrons are assigned and operate 
fewer aircraft than required for deployment. With an increased number 
of strike-fighter aircraft in an out-of-reporting status for planned or 
unplanned depot level maintenance, aircraft available for these 
squadrons are below their prescribed entitlements. Consequently, their 
readiness levels are degraded for lack of training opportunities due to 
insufficient aircraft. However, as each strike-fighter squadron 
approaches the intermediate and advanced phases of the FRTP, they 
receive the full complement of entitled aircraft and complete current 
and missed training events required to achieve deployed readiness 
standards.
    The compound effect of achieving deployed readiness standards in 
this manner is an overall reduced readiness posture of the non-deployed 
strike fighter-force. This results in a steeper training curve to 
maintain deployment readiness and also results in less surge (backup 
airwing/squadron) capacity to meet Combatant Command warfighting 
requirements. Additionally, this process strains the operational fleet 
of aircraft through overutilization in the advanced phases of the FRTP, 
which leads to greater service life consumption across the strike-
fighter inventory. Improved depot throughput and careful management of 
aircraft utilization will return strike-fighter squadrons to the 
optimum readiness profiles across the FRTP, which in turn will improve 
non-deployed force readiness.

                  airborne electronic attack analysis
    64. Senator McCaskill. Admiral Greenert, last year the Navy 
conducted an analysis of the Navy's electronic attack requirement. This 
analysis justified the inclusion of 22 E/A18-G Growlers in the Navy's 
fiscal year 2015 unfunded requirements list. A follow-on study is now 
determining the electronic attack requirement of the joint force. When 
do you expect to have the results of this analysis?
    Admiral Greenert. The Navy's on-going study will identify Joint 
warfighting requirements, Concept of Employment (CONEMPS) and future 
mission sets. The results of this study are expected to be released 
this summer and will provide insight that will allow the Department to 
determine the necessary force structure to meet Joint Airborne 
Electronic Attack (AEA) requirements rather than just those 
requirements unique to the Navy.

    65. Senator McCaskill. Admiral Greenert, while the analysis is not 
yet complete, based on the work that has been done to date, do you have 
reason to believe that the final analysis will determine that the joint 
requirement would not be greater than the Navy-only requirement?
    Admiral Greenert. We have no reason to believe the requirement will 
decrease, but until the study is complete I cannot speculate on the 
findings. While last year's study focused only on Navy demand, the 
current study identifies Joint warfighting requirements, Concept of 
Employment (CONEMPS), and future mission sets. The results will provide 
insight that will allow the Navy to optimize our EA-18G procurement 
plan and force structure to meet all DoD requirements for Airborne 
Electronic Attack.
                                  guam
    66. Senator McCaskill. General Dunford, the Senate Armed Services 
Committee has been particularly concerned about the plans for the 
relocation of marines from Okinawa to other locations in the Pacific, 
and specifically, the affordability, sustainability and operational 
viability of those plans. Can you provide the current status of the 
efforts to implement the eventual move of marines from Okinawa to Guam 
and other locations?
    General Dunford. The nature of the program for the USMC is 
characterized by its duration and scope. The scope of the program is 
significant, and entails myriad actions prior to Marines moving off of 
Okinawa, and the duration is on the order of decades.
    The program has experienced some start and stops, but has continued 
to move forward. The most noticeable progress has been at MCAS Iwakuni. 
Last year we completed the move of VMGR-152 from Okinawa to MCAS 
Iwakuni and the base has been and continues to enlarge. CVW-5 is on 
track to commence their relocation from Atsugi to Iwakuni in fiscal 
year 2017. By the time Iwakuni is finished the base will have nearly 
doubled in size and capacity.
    Guam and the CJMT have both moved forward. The Supplemental 
Environmental Impact Study for Guam, and in the Environmental Impact 
Study for the Commonwealth of Northern Mariana Islands (CNMI) Joint 
Military Training Complex have progressed. We anticipate a Record of 
Decision in the coming months for Guam and summer of 2016 for the CJMT. 
These NEPA actions are necessary to commence construction. Our first 
project, a range complex in Guam, is in the fiscal year 2016 budget 
request. We have also published a Guam master plan, as required by the 
NDAA, and are preparing to deliver a Hawaii master plan that will 
outline the early stages of preparation for moving Marines to Hawaii as 
a part of the realignment.
    We continue to conduct rotational deployments to Darwin, Australia 
and the fourth rotation of approximately 1,170 Marines and an aviation 
detachment has just commenced. The size of the rotation increases apace 
of adequate facilities available with the force eventually being 2500 
Marines strong.
    While there is significant activity off of Okinawa to prepare for 
the realignment there is also significant activity on Okinawa. The 
Futenma replacement facility and Camp Schwab realignment are underway. 
This is a long term project with FOC for the airfield anticipated to be 
fiscal year 2025. Political challenges remain but we are pleased to see 
construction progressing and resolute commitment for the government of 
Japan. The sun will not set on this realignment program until planned 
land returns in Okinawa are complete. This is scheduled for FY32. Of 
note, the Marine Corps has already returned land in Okinawa and the 
most recent return took effect on 31 March of this year, when we 
transferred West Futenma housing back to the Japanese.

    67. Senator McCaskill. Secretary Mabus, how is the Navy accounting 
for the costs of such a realignment that are not captured in the Guam 
Master plan, including the costs of additional strategic lift necessary 
to move marines around the theater?
    Mr. Mabus. The Guam Master Plan includes costs for the construction 
of facilities and infrastructure to execute the Marine Corps 
Distributed Laydown in Guam. The Guam Master Plan is central to our 
broader efforts to rebalance our forces to, and realign them within, 
the Asia-Pacific theater.
    The Marine Corps is currently executing the Guam Master Plan and is 
on track to meet the scheduled milestones and is continuing to refine 
costs within the profile defined by the master plan.
    The schedule that moves Marines and their gear from Okinawa to Guam 
will not be realized until there is a full operational capability for 
the USMC forces, which is expected to occur after 2021. The costs for 
relocation of the Force to Guam (one way movement of the units) will be 
included in the budget submission for the year of execution. The 
Department recognizes the critical importance of having sufficient lift 
to move Marines around the theater. Funding for this requirement is 
part of the DON budget submission and therefore any scheduled lifts 
would be included in future year budgets. If there is an event that 
requires movement other than scheduled, such that a Strategic Lift is 
ordered by a Combatant Commander, the costs would be identified by the 
requirements ordered.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                            audit readiness
    68. Senator Manchin. Secretary Mabus, Admiral Greenert, and General 
Dunford, how do you plan on holding leaders accountable to make sure 
your Service is ready for a full financial statement audit by the end 
of fiscal year 2017?
    General Dunford. Accountability is inherent in command throughout 
the Marine Corps. This includes the responsibility for financial 
management and is reflected in the Department of the Navy, Marine Corps 
Manual and the Marine Corps' Financial Guidebook for Commanders (NAVMC 
2664 Rev 1.0). As the first service under financial statement audit 
starting in fiscal year 2010, commanders and leaders throughout the 
Marine Corps are expected to play a leadership role in achieving a full 
financial statement audit. We will hold Marine Corps leaders 
accountable for achieving audit objectives, to include all aspects of 
financial management, similarly to how we hold leaders accountable for 
all other responsibilities inherent to command.
    Mr. Mabus and Admiral Greenert. We have given commanders of major 
commands the responsibility of making the changes necessary to the 
business processes and systems within their purview so that our 
Departmental business environment will be audit ready. Coincident with 
this increased responsibility, commanders are accountable for results 
in financial auditability.
    As part of our auditability strategy, we have designated some 
commanders as leaders of the auditability efforts in selected 
functional areas. For example, one commander was responsible for 
preparing Military Payroll for audit, and another has spearheaded audit 
readiness in Real Property business operations; another was the lead in 
travel expenses. In addition, each command has tested samples of its 
own business transactions, determining if they were properly executed 
and documented. Below-threshold results require corrective actions and 
re-testing.
    Responsibility and accountability for reaching the mandated goals 
in financial auditability have been placed at the command and 
organizational level. Engaging the Department's leaders in this way not 
only ensures that audit readiness receives the appropriate priority; 
this approach also emphasizes that changes in Departmental business 
processes need to occur at the command level, where financial 
transactions are generated.

    69. Senator Manchin. Secretary Mabus, Admiral Greenert, and General 
Dunford, what do you believe should happen if the Department of Defense 
misses that deadline?
    Mr. Mabus and Admiral Greenert. The Department of the Navy is 
executing its plan to achieve financial auditability by the end of 
fiscal year 2017, as the Congressional mandate requires. The other 
Military Departments, as well as other Defense Department 
organizations, also have roadmaps to reach this objective. Should any 
organization fail to reach financial audit readiness by the mandated 
date, causes for missing the deadline should be identified, shared, and 
corrected as soon as possible.
    General Dunford. The Marine Corps remains on track to meet the 
fiscal year 2017 timeline for full financial statement auditability for 
all areas under our control. The Marine Corps would expect that DoD 
would share the same philosophy as the Marine Corps of holding leaders 
and commanders accountable if we do not achieve our audit objectives by 
fiscal year 2017.
                                 ______
                                 
              Question Submitted by Senator Jeanne Shaheen
                          integration of women
    70. Senator Shaheen. General Dunford, last fall the Marine Corps 
established the Ground Combat Element Integrated Task Force to evaluate 
the performance of women in collective tasks in combat units. I 
understand that this task force is preparing for evaluation and the 
results will be available later this year. Can you discuss the metrics 
in which you will evaluate women in order to determine whether or not 
they may serve in infantry units?
    General Dunford. Throughout this process, the Marine Corps has 
maintained a focus on combat effectiveness and combat readiness; the 
Marine Corps must ensure that we assign Marines to occupational 
specialties and units for which they are best qualified in order to 
maintain combat effectiveness and our ability to fulfill the unique 
role as the nation's expeditionary force in readiness. Therefore, the 
research effort underway is designed to provide the fullest 
understanding of all aspects of integration of females into all ground 
combat arms units of the Marine Corps, not just infantry units. While 
there is an emphasis on the development of gender neutral physical 
performance standards for service in these occupational specialties, 
the Marine Corps is also developing metrics that encompass 
physiological, anthropometric, and non-physical parameters to evaluate 
what contributes to successful ground combat arms units and mission 
accomplishment.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
         special victims' counsel, retaliation, sexual assault
    71. Senator Gillibrand. Admiral Greenert and General Dunford, in 
both 2012 and 2014, 62 percent of victims who reported unwanted sexual 
contact indicated they had been retaliated against, socially and 
professionally. I am very concerned that nearly two-thirds of survivors 
perceive retaliation. To me that says that, whether it is professional 
or social retaliation, there is a problem with the command climate and 
that needs to be addressed. How do you plan to address this issue?
    Admiral Greenert. Sustaining a professionalized response and victim 
advocacy system remains the top priority, but preventing sexual 
assaults in the first place is an imperative. Our strategy focuses on 
improving command climate, strengthening deterrence measures, and 
encouraging bystander intervention. To facilitate the latter, we 
trained facilitators to lead small, peer-group interactive discussions 
using various scenarios. Likewise, we have focused on raising awareness 
and accountability regarding retaliation to reduce the potential for 
re-victimization. A RAND survey of DoD found that 53 percent of 
retaliation is ``social'' or ``peer,'' so we are focusing in on that 
area. Navy efforts are aligned with SECDEF direction to enhance first 
line supervisor skills and knowledge in recognizing signs of possible 
acts of retaliation. Recent Navy survey results show that prevalence of 
sexual assaults is decreasing, but we remain fully committed to 
creating and sustaining a culture where Sailors understand the 
importance of treating Shipmates with dignity and respect at all times, 
in all places.
    We are collecting and will assess data on reports and 
investigations of retaliation. We also use the Survivor Experience 
Survey to assess retaliation, and will use the forthcoming Military 
Justice Experience Survey similarly. Future survey questions will be 
better designed to understand more accurately what the victims 
perceived and experienced.
    We are providing training and awareness to the Fleet to include 
survey results and definitions of retaliation, and reporting options 
available to report retaliation. Retaliation has been the focus of 
senior leader Fleet engagements and media outreach efforts to ensure 
our Sailors understand the issue of retaliation and reprisal. Sexual 
Assault Prevention and Response annual training, and modules for First 
Line Supervisor training and Pre-Command courses will include 
retaliation in the curriculum.
    General Dunford. Our current approach to sexual assault prevention, 
which includes the prevention of victim retaliation, is built around 
the central role of the commander. The commanding officer of every unit 
is the centerpiece of an effective and professional warfighting 
organization. They are entrusted with our greatest asset--the 
individual Marine--and are charged with building and leading their team 
to withstand the rigors of combat by establishing the highest level of 
trust throughout their unit.
    Retaliation was incorporated into the Marine Corps Order (MCO) 
1752.5B in 2013, which specifically requires commanders to ``protect 
victims of sexual assault from coercion, retaliation, and reprisal.'' 
Decisive and engaged leadership continues to be our greatest weapon in 
the battle against sexual assault. As outlined in MCO 1752.5B, 
commanding officers are responsible for creating a command climate that 
is non-permissive to sexual assault and protecting victims from 
retaliation.
    To better address this problem, we recently identified six areas of 
focus: strategic communications, training, prevention and response, 
research, legal and social media retaliation. Through these six areas 
of focus, our goal is to provide a clear framework--within the context 
of evidence-based best practices and based on Department of Defense, 
Department of the Navy, and Marine Corps policy--that enables us to 
effectively raise awareness of this issue; provide the tools for 
commanders and all Marines to identify and correct any instances of 
retaliation, no matter where it occurs; and prevent retaliation from 
occurring in the first place.

    72. Senator Gillibrand. Admiral Greenert and General Dunford, do 
you have sufficient resources and authorities to address the problem?
    Admiral Greenert. Yes, Navy has sufficient resources and 
authorities to address the problem. Programmatic needs are regularly 
assessed to ensure that sufficient resources and authorities remain in 
place.
    General Dunford. Presently we have sufficient resources and 
authorities to address the problem. Our efforts are a subset of a 
broader effort across the Department of Defense (DOD) and the 
Department of the Navy (DON) to address retaliation, and we are working 
to implement related provisions of the National Defense Authorization 
Act and recommendations of the Response Systems Panel.

    73. Senator Gillibrand. Admiral Greenert and General Dunford, the 
Special Victims' Counsel (SVC)/ Victims Legal Counsel Program, which 
details a judge advocate to assist and represent sexual assault victims 
and help them navigate the military justice system, is an important 
step to increasing everyone's confidence in the system. Despite the 
downsizing that is taking place across the Services, I understand that 
the Air Force was able to increase its number of Air Force judge 
advocate slots by 58, the majority of which will be devoted to the 
Special Victims' Counsel Program. It is my understanding that the Navy 
and Marine Corps have not seen their authorized slots increased. Do you 
have enough SVCs to meet your needs?
    Admiral Greenert. Based on the current demand level for the Navy 
Victims' Legal Counsel Program (VLCP), VLC staffing is appropriate. 
There are 31 judge advocates and 10 enlisted Yeoman assigned to VLCP. 
The JAG Corps continually assesses demand and locations for VLC 
services to ensure Navy is properly manned to respond to victims' legal 
needs.
    General Dunford. Yes, the Marine Corps currently has enough 
victims' counsel to meet our needs. (The Marine Corps refers to this 
program as the Victims' Legal Counsel Organization (VLCO), and to the 
judge advocates that provide these services as Victims' Legal Counsel 
(VLC).) Every major Marine Corps installation has a VLCO office, and to 
date, no eligible victim of sexual assault has been turned away from 
VLC services. Further, we have Reserve officers to help augment active 
duty VLC in supporting victims.
    The Marine Corps regularly reviews its personnel structure to 
ensure we have the right Marines in the right locations to most 
effectively accomplish the Marine Corps mission. I have recently 
directed a review of the personnel requirements for Marine judge 
advocates. As part of that review, the Staff Judge Advocate to the 
Commandant of the Marine Corps will examine the number of personnel 
assigned to the VLCO, and make recommendations on whether additional 
resources are required.
    I am committed to ensuring that the VLCO has the personnel needed 
to provide effective assistance to every eligible victim of sexual 
assault that seeks assistance from a VLC.

    74. Senator Gillibrand. Admiral Greenert and General Dunford, the 
SVC has testified at the Judicial Proceedings Panel on Sexual Assault 
and told me that the program needs to be improved. Common criticisms 
are that the current appellate process is nonresponsive and 
insufficient to protect victims' rights; victim access to information--
including discovery, pleadings and motions--remains inconsistent; and 
that there is widespread confusion about procedures for representing 
victims in judicial proceedings and for enforcing other victims' 
rights. Are you looking at these issues?
    Admiral Greenert. Yes. Navy addressed these issues. Specifically, 
in January 2015, the Deputy Judge Advocate General of the Navy in his 
role as Commander, Naval Legal Service Command, issued a Notice on 
Disclosure of Information to Crime Victims, establishing a standardized 
policy for disclosure of information to all victims who suffer harm as 
a result of an offense under the Uniform Code of Military Justice--
including victims of a sexual assault. Also, in order to standardize 
procedures for representing victims in judicial proceedings, Uniform 
Rules of Practice for the Navy-Marine Corps Trial Judiciary, including 
specific guidance on Victims' Legal Counsel, were promulgated on March 
1, 2015. Navy will continue to monitor procedures for representing 
victims in judicial proceedings at all stages.
    General Dunford. Yes, the Marine Corps has looked at these issues. 
The Marine Corps, along with the other Services, recently reviewed how 
to improve the integration of Victims' Legal Counsel /Special Victims' 
Counsel into the military justice system in light of the experiences of 
the first year of operations and additional legislation. Please see the 
following attachments that detail current policies and procedures 
victims' counsel and the military justice process: Staff Judge Advocate 
to the Commandant of the Marine Corps Practice Advisories 4-14, 3-15 
and 5-15 and excerpts from the Navy-Marine Corps Trial Judiciary, 
Uniform Rules of Practice.
    In addition to this formal guidance, the Officer in Charge of the 
Victims' Legal Counsel Organization continually updates the Victims' 
Legal Counsel staff on best practices for enforcing victims' rights. 
Such guidance includes using Article 138 Complaint of Wrong procedures 
and other non-judicial enforcement mechanisms.

    75. Senator Gillibrand. Admiral Greenert and General Dunford, what 
recommendations do you have to address them?
    Admiral Greenert. The Navy continues to pursue a deliberate 
strategy in combatting sexual assault. We continue to focus on 
preventing sexual assaults, ensuring victims are fully supported, 
improving investigation programs and processes, and ensuring 
appropriate accountability. These efforts include making sexual assault 
forensic exams available on all ships and 24/7 ashore, having a cadre 
of professional and credentialed sexual assault response coordinators 
and victim advocates, special victim trained investigators and JAGs, 
and ensuring commands take all reports of sexual assault seriously and 
support the victim. We will enhance our response efforts by full 
implementation of deployed resiliency counselors on large deck ships, 
enhanced NCIS investigative capability using specially training Master-
at-Arms, and continued legal assistance to victims through our Victims 
Legal Counsel program.
    Sustaining a professionalized response and victim advocacy system 
remains the top priority, but preventing sexual assaults in the first 
place is an imperative. Our strategy focuses on improving command 
climate, strengthening deterrence measures, and encouraging bystander 
intervention. To facilitate the latter, we trained facilitators to lead 
small, peer-group interactive discussions using various scenarios. 
Likewise, we have focused on raising awareness and accountability 
regarding retaliation to reduce the potential for re-victimization. A 
RAND survey of DoD found that 53 percent of retaliation is ``social'' 
or ``peer,'' so we are focusing in on that area. Navy efforts are 
aligned with SECDEF direction to enhance first line supervisor skills 
and knowledge in recognizing signs of possible acts of retaliation. 
Recent Navy survey results show that prevalence of sexual assaults is 
decreasing, but we remain fully committed to creating and sustaining a 
culture where Sailors understand the importance of treating Shipmates 
with dignity and respect at all times, in all places.
    General Dunford. These recent developments have significantly 
enhanced VLC ability to zealously advocate for victims' rights. The 
Marine Corps will continue to evaluate these enhancements and the need 
for others so that VLCs have the tools they need to properly represent 
victims.

    76. Senator Gillibrand. Admiral Greenert and General Dunford, in 
both 2012 and 2014, 62 percent of victims who reported unwanted sexual 
contact indicated they had been retaliated against, socially and 
professionally. Nearly two-thirds of survivors perceiving retaliation 
and zero progress in addressing this problem indicates that there may 
be larger issues with the command climate. Since 2012, what policies or 
programs have the Navy and Marine Corps implemented to stop 
retaliation, and why do you think these programs have failed to reduce 
the amount of retaliation perceived by survivors?
    Admiral Greenert. One year ago, Secretary Mabus issued a written 
order making retaliation against an individual who reported a criminal 
offense, a violation of the Uniform Code of Military Justice (UCMJ). 
This past December, the Secretary signed a comprehensive revision of 
Military Whistleblower Protections, which: a) prohibits retaliation by 
superiors who threaten unfavorable or adverse action, or withhold, or 
threaten to withhold, a favorable action; b) defines and prohibits 
ostracism, and c) expands the definition of maltreatment.
    The Navy continues to pursue a deliberate strategy in combatting 
sexual assault. We continue to focus on preventing sexual assaults, 
ensuring victims are fully supported, improving investigation programs 
and processes, and ensuring appropriate accountability. These efforts 
include making sexual assault forensic exams available on all ships and 
24/7 ashore, having a cadre of professional and credentialed sexual 
assault response coordinators and victim advocates, special victim 
trained investigators and JAGs, and ensuring commands take all reports 
of sexual assault seriously and support the victim. We will enhance our 
response efforts by full implementation of deployed resiliency 
counselors on large deck ships, enhanced NCIS investigative capability 
using specially training Master-at-Arms, and continued legal assistance 
to victims through our Victims Legal Counsel program.
    Sustaining a professionalized response and victim advocacy system 
remains the top priority, but preventing sexual assaults in the first 
place is an imperative. Our strategy focuses on improving command 
climate, strengthening deterrence measures, and encouraging bystander 
intervention. To facilitate the latter, we trained facilitators to lead 
small, peer-group interactive discussions using various scenarios. 
Likewise, we have focused on raising awareness and accountability 
regarding retaliation to reduce the potential for re-victimization. A 
RAND survey of DoD found that 53 percent of retaliation is ``social'' 
or ``peer,'' so we are focusing in on that area. Navy efforts are 
aligned with SECDEF direction to enhance first line supervisor skills 
and knowledge in recognizing signs of possible acts of retaliation. 
Recent Navy survey results show that prevalence of sexual assaults is 
decreasing, but we remain fully committed to creating and sustaining a 
culture where Sailors understand the importance of treating Shipmates 
with dignity and respect at all times, in all places.
    General Dunford. The Marine Corps takes the issues of sexual 
assault and retaliation very seriously and has implemented large-scale 
initiatives to eliminate these and other damaging behaviors from our 
ranks. Specific to retaliation, in 2013, language was inserted into 
Marine Corps Order 1752.5B that required commanders to ``protect 
victims of sexual assault from coercion, retaliation, and reprisal.'' 
In addition, ALNAV 030/14 published in April 2014 defined retaliation 
as a prohibited criminal offense. On 4 December 2014, Secretary of the 
Navy (SECNAV) signed SECNAV Instruction 5370.7D, Military Whistleblower 
Protection, which prohibits retaliation against members of the DON who 
report a criminal offense.
    Since 2012, the Marine Corps has made significant improvements to 
our policies, processes, and the overall quality of victim services. 
This was part of a holistic approach to sexual assault designed to 
reinforce our core values and, by doing so, eliminate the underlying 
conditions that lead to sexual assault and other crimes and misconduct, 
including retaliation. Future Marine Corps efforts will address 
retaliation specifically, with initiatives centering on the following 
six areas of focus: strategic communications, training, prevention and 
response, research, legal and social media retaliation. However, we 
will continue our holistic approach to sexual assault, which has worked 
thus far to reduce sexual assault prevalence and increase reporting 
rates.

    77. Senator Gillibrand. Admiral Greenert and General Dunford, 
Congress legislated that retaliation is a crime under the Uniform Code 
of Military Justice. Are Marine Corps and Navy commanders using the 
full military justice toolkit provided by the Uniform Code of Military 
Conduct to reduce retaliation and maintain good order and discipline? 
In your response, please provide military justice statistics related to 
retaliation in fiscal year 2014 that includes: (a) the number of 
sailors and marines that were counselled or received letters of 
reprimand for retaliation, and whether any servicemember receiving 
counselling or letters of reprimand were senior noncommissioned 
officers or officers; (b) the number of servicemembers receiving non-
judicial punishment for retaliation, and whether any were officers or 
senior noncommissioned officers; (c) the number of sailors and marines 
administratively separated for retaliation and the characterization of 
their discharges; and (d) the number of sailors and marines that were 
court-martialed for retaliation, the rank of the accused, and the 
results of trial.
    Admiral Greenert. Yes, commanders are using the UCMJ, as well as 
other administrative measures, to reduce retaliation and maintain good 
order and discipline. On April, 25, 2014, the Secretary of the Navy 
issued ALNAV 030/14, a lawful general order, which made retaliation 
against an individual who reported a criminal offense a violation of 
Article 92 of the UCMJ. On December, 4, 2014, the Secretary signed 
SECNAV Instruction 5370.7D, a comprehensive revision of Military 
Whistleblower Protections, including preventing retaliation or 
ostracism by superiors. To combat peer-to-peer retaliation, SECNAVINST 
5370.7D defines and prohibits ostracism as a form of retaliation. This 
expansion beyond the UCMJ offense of maltreatment requiring a senior-
subordinate relationship directly addresses peer-to-peer retaliation or 
reprisal.
    (a) In fiscal year 2014, two Sailors were counseled or received 
letters of reprimand for retaliation. One of these alleged retaliators 
was reported to be the victim's peer or co-worker and one was within 
the victim's chains-of-command.
    (b) In fiscal year 2014, two Sailors received non-judicial 
punishment for retaliation. Both of these alleged retaliators were 
reported to be peers or co-workers of the victims.
    (c) In fiscal year 2014, no Sailors were administratively separated 
for retaliation offenses.
    (d) In fiscal year 2014, no Sailors were court-martialed for 
retaliation offenses.
    General Dunford. Marine Corps commanders have numerous methods in 
their toolkits to confront retaliation. They take appropriate action 
after review of investigations conducted by the Inspector General (IG), 
criminal investigators or command inquiries. Commanders can address 
retaliation reports through the informal resolution process by 
resolving a complaint directly with the complainant, through 
administrative counseling or separation of offenders, non-judicial 
punishment or court-martial action. Depending on the facts of the case, 
service members who retaliate against those who report crimes may be 
administratively sanctioned or court-martialed for an orders violation, 
obstruction of justice, or maltreatment.
    Victims of retaliation may report retaliation using numerous 
methods to include making a hotline complaint to the IG, making a 
complaint against a senior officer through a complaint under Article 
138, Uniform Code of Military Justice or a complaint under Article 
1150, of the U.S. Navy Regulations, a report to criminal investigators 
or through the chain of command.
    The Marine Corps has not formally tracked command investigations 
concerning retaliation, administrative actions, non-judicial punishment 
or court-martial actions against those who committed retaliation; 
however the Marine Corps is developing a formal tracking system to 
capture this information. This formal tracking mechanism will track 
cases falling under the expanded definition of retaliation found in the 
National Defense Authorization Act of Fiscal Year 2014 and as 
implemented by the Secretary of the Navy in Instruction 5370.7D, 
Military Whistle Blower Protection, for retaliating against a victim 
through an unfavorable personnel action, ostracism or maltreatment.
                           combat integration
    78. Senator Gillibrand. Secretary Mabus, January 2016 is the 
deadline for the implementation of combat integration in the military. 
Not only is this a readiness issue, since you want to have the best 
qualified people in position, regardless of gender, it is also a way to 
give women a fair shot to reach positions of leadership in the 
military. You said in your written testimony that ``In accordance with 
the Secretary of Defense's guidance, the default position will be that 
all currently closed positions will be opened to the assignment of 
women unless an exception is formally requested.'' Do you expect there 
to be requests for exceptions coming from the Navy or the Marine Corps?
    Mr. Mabus. The default position that all currently closed positions 
will be opened to the assignment of women unless an exception is 
formally requested is currently being reviewed at the JCS and OUSD(P&R) 
levels to synchronize decision impacts that will affect more than one 
Service and/or USSOCOM. Formally and informally, this synchronized 
approach is being applied to the Services and SOCOM in order to make 
recommendations for position/occupational openings and/or submission of 
an Exception to Policy, if needed. The decision timeline has shifted to 
September 2015 in order to align with all Service decisions. The bi-
annual DON report to SECDEF on the progress of WISR implementation due 
in April 2015 will include this timeline shift.
    I approved the Navy's surface ship ETP requesting to keep FFGs, 
MCMs, and PCs closed to the assignment of enlisted women given the 
pending decommissioning schedules of these ship classes, habitability 
modifications would not be a judicious use of fiscal resources. 
Additionally, there is equal professional opportunity for women at sea 
on platforms other than FFGs, MCMs, and PCs. Opening these aging ship 
classes would not improve career opportunities for women; in fact, such 
assignments would be in lieu of assigning women to Navy's newest and 
most sophisticated platforms.

    79. Senator Gillibrand. Admiral Greenert and General Dunford, are 
the Navy and Marine Corps working toward opening all positions to 
women?
    Admiral Greenert. Integrating women across the force remains a 
priority. Over 96 percent of all Navy jobs are currently available to 
women, and we expect to have all occupations open by early next year.
    General Dunford. We were directed by the Secretary of Defense to 
open all positions for women and to recommend exceptions to policy if 
required. We are on the path to accomplish that task.

    80. Senator Gillibrand. Admiral Greenert and General Dunford, what 
might make you ask for exceptions to the policy?
    Admiral Greenert. Navy is on track to comply with the Secretary of 
Defense-directed rescission of the 1994 Direct Ground Combat Definition 
and Assignment Rule (DGCAR), and expects to have no closed occupations, 
few closed positions, and equal professional opportunity for females in 
every officer designator and enlisted rating by January 1, 2016. 
However, Navy may seek exceptions to policy when the cost of berthing 
modifications would make it imprudent to expend taxpayer dollars to 
open platforms expected to decommission in the near future.
    General Dunford. The Navy and Marine Corps will not compromise 
readiness and combat effectiveness or reduce our high standards because 
that is what America demands. A recommendation for an exception to 
policy may be based on any number of factors that could include a 
detrimental impact on combat effectiveness, unit readiness, or the 
health and welfare of Marines.

    81. Senator Gillibrand. Secretary Mabus, what kind of oversight are 
you currently doing to ensure that the Navy and Marine Corps are 
developing gender neutral standards and working to meet the intent of 
the directive from former Secretary of Defense Leon E. Panetta and 
General Dempsey?
    Mr. Mabus. On January 23, 2013, then Secretary of Defense Leon 
Panetta, with the recommendation of the Joint Chiefs of Staff, and in 
collaboration with the Chairman of the Joint Chiefs of Staff (CJCS), 
rescinded the 1994 Direct Ground Combat Definition and Assignment Rule 
which excluded women from assignment to units and positions whose 
primary mission is to engage in direct combat on the ground. As a 
result of that recession, Secretary Panetta directed the Services to 
integrate women into all positions and units by January 1, 2016, unless 
he or his successor approved narrowly tailored exceptions, based upon 
rigorous analysis, to keep an occupational specialty or unit closed.
    The recommendation to the Secretary of Defense to seek and 
exception to policy is to be made by a Secretary of a Military 
Department with the concurrence of the CJCS. On September 30, 2015, I 
provided the Department of the Navy recommendation, along with research 
from the Navy and Marine Corps, to the Secretary of Defense. This 
submission included certifications from the Chief of Naval Operations 
and the Commandant of the Marine Corps that the occupational standards 
used in their respective services are gender-neutral and operationally 
relevant, in accordance with the law. It has been my clear position 
that if you meet those standards, you should be allowed the opportunity 
to serve. By definition, if the standards are strictly met, combat 
effectiveness will not be diminished.
    Under 10 U.S.C. Sec.  652(a)(1), the Secretary of Defense must 
submit to Congress a report providing notice of a change to integrate 
women into closed positions and units. The Secretary may implement the 
change 30 days after congress receives this report. Should the 
Secretary of Defense, after having considered the recommendations of 
the Secretaries of the Military Departments and the CJCS, decide to 
continue to integrate women into closed positions and units, he will 
provide the requisite report to Congress. Such report will include all 
the information that is necessary to ensure that congress is fully 
informed of the reasons and justifications for this departmental 
change.

    82. Senator Gillibrand. General Dunford, how is the Marine Corps 
developing its gender neutral standards?
    General Dunford. MOS subject matter experts have been tasked to 
review what tasks Marines within an MOS are required to perform and to 
ensure the standards are gender-neutral. Using the expertise gained by 
cumulative knowledge of generations of Marines who have served in 
combat, these experts have reviewed what tasks are actually being done, 
the order and frequency in which tasks are performed, and the standards 
of performance necessary to adequately perform each task to accomplish 
the mission. This process will validate Marine Corps tasks, conditions 
and standards and will be the basis for Training & Readiness manuals 
for each MOS. Training and Readiness manuals provide the basis for all 
individual MOS instruction, sustainment training, and proficiency 
assessments as well as unit training and unit training readiness 
assessments.
    Additionally, the Marine Corps is using a number of studies to 
validate gender neutral standards. We established the Ground Combat 
Element Integrated Task Force primarily to better understand and refine 
gender-neutral skills in the context of more complex unit tasks. The 
GCEITF is a gender integrated ground combat arms unit built to conduct 
a research study and designed to determine the individual contribution 
to physically demanding ground combat arms MOS collective tasks. The 
goal is to validate what gender-neutral standards are required of 
individual Marines for the unit to be successful. The Marine Corps is 
using the data obtained from the task force and entry level training 
research studies to validate, refine, and implement gender-neutral 
occupational standards that can be applied to all Marines.

    83. Senator Gillibrand. General Dunford, what do you expect to 
learn from the Ground Combat Element Integrated Task-Force experiment?
    General Dunford. The Ground Combat Element Integrated Task Force 
(GCEITF) is a gender integrated ground combat arms unit built to 
conduct a research study and designed to determine how an individual 
contributes to physically demanding ground combat arms MOS collective 
tasks. The purpose of the research study is two-fold. The first is to 
build a data set that supports establishing MOS specific physical 
standards and assessments. The second is to determine the effects (if 
any) of gender integration on ground combat arms small unit mission 
effectiveness.
    (Source: USMC Response to Status Report in Hegar, et al v. Carter, 
No. 12-6005)

    84. Senator Gillibrand. Admiral Greenert, the closed positions to 
women in the Navy are in large part special operations positions. What 
can you tell us about how the Navy is working with Special Operations 
Command to make the determination about how to open these positions?
    Admiral Greenert. Navy is closely coordinating with U.S. Special 
Operations Command in conducting a methodical and orderly evaluation to 
inform recommendations regarding integration of women into Naval 
Special Warfare/Special Operations occupations. This includes frequent 
exchanges of information and bi-weekly video tele-conferences to 
synchronize the decision process. This partnership and transparency 
will lead to a fully-informed recommendation that will be provided in 
parallel to Navy and U.S. Special Operations Command leadership.

    85. Senator Gillibrand. Admiral Greenert and General Dunford, what 
else are the Services doing to help with recruitment and retention of 
women?
    Admiral Greenert. Navy efforts to help with recruiting women 
include generating female-centric marketing materials for use in direct 
mail and email campaigns, creating video products for use on Navy.com 
and the Navy's YouTube channel to highlight stories of successful 
female Sailors and Officers, and leveraging female influencers through 
the use of Carrier Embarks, Education Visits, and other outreach 
initiatives. Navy is focused on retaining women warfighters by 
increasing career flexibility through initiatives like the Career 
Intermission Program, which allows service-members to take a hiatus 
from their careers for up to three years to pursue personal and/or 
professional priorities before re-entering the force. Additionally, 
Navy has increased its female accession goal to 25 percent of all 
recruits for fiscal year 2015 and fiscal year 2016, in order to 
increase female representation in all operational platforms, and in 
particular in the most under-represented ratings.
    General Dunford. The Marine Corps does not have gender-specific 
recruiting or retention requirements. We strive to access and retain 
the best and most-fully qualified Marines, regardless of gender.
    However, the Marine Corps has taken deliberate actions to increase 
female accessions and will continue to actively monitor propensity and 
other market indicators to reach the female audience. Examples of 
advertising marketing channels include collateral material, direct 
mail, Marines.com websites, online display advertising, print media, 
and social media showing female Marines alongside their male 
counterparts. Overall, since 2008, the Marine Corps has increased 
female accessions, both enlisted and officer, by nearly five percent. 
It is noteworthy that, over the last two fiscal years, the NROTC 
scholarship acceptance rate for females has been higher than the male 
acceptance rate.
    Retention rates for females in the Marine Corps are essentially the 
same as that of their male counterparts after the first term. During 
the first term, female retention is lower. Female officer retention is 
actually higher than male between 20 and 30 years of service. The 
Marine Corps is always assessing its retention mission and has met all 
goals in recent history. The quality of our force has never been 
higher. Nevertheless, per the direction of the Secretary of the Navy, 
the Marine Corps is considering several policies intended to enhance 
retention of females across the ranks. We have also implemented a 
career intermission program that allows Marines to pause service for 
family or educational reasons as a retention measure.
                             cyber security
    86. Senator Gillibrand. Admiral Greenert and General Dunford, 
Admiral Rogers testified last week that Cyber Command (CYBERCOM) was 
having trouble filling its target of 6,200 cyber troops by the close of 
2016. Are you able to fill your cyber positions as well as meet Cyber 
Command's needs?
    Admiral Greenert. Navy is contributing to the building of Cyber 
Mission Force teams for U.S. Cyber Command, with Navy teams organized 
into existing U.S. Fleet Cyber Command operational commands. Our 
contribution includes the sourcing of four National Mission Teams, 
eight Combat Mission Teams, 20 Cyber Protection Teams, three National 
Support Teams and five Combat Support Teams. We are on track to man 
these teams at the initial operational capability manning requirement 
of 50 percent in 2016, and at the full operational capability manning 
requirement of 80 percent in 2017.
    General Dunford. We project our manpower models to be sufficient to 
present forces to USCYBERCOM on track with the Cyber Mission Force 
build, and at the same time, build capacity to fill cyber positions in 
the Marine Corps. In fiscal year 2017, we will reach the ``assess'' 
phase of the build-assess-build plan laid out by the Commander of 
USCYBERCOM, and will reevaluate manpower requirements for the Cyber 
Mission Force.

    87. Senator Gillibrand. Admiral Greenert and General Dunford, do 
you have the training capacity you require?
    Admiral Greenert. The Navy training plan ensures that Cyber Mission 
Force (CMF) personnel gain the technical skills required through a 
combination of joint training pipelines, including accession level and 
advanced courses, educational opportunities, and operational Cyber 
exercises. The Navy also has sufficient joint training capacity (in 
conjunction with NSA, USCYBERCOM, and the other Services) to meet the 
training requirements of the CMF.
    However, the Navy needs a training environment--a ``cyber range''--
to conduct the unit-level training of its Cyber Mission Teams. This 
Persistent Training Environment (PTE) will ensure we build proficiency 
leading up to certification events, maintain overall Cyber Mission Team 
proficiency, and allow teams to exercise in a realistic environment 
without the risk of harming operational computer systems or networks.
    General Dunford. Currently, we have the training capacity to man 
our service's portion of the National Mission Force and are making 
strong progress for that build. Additionally, we have already adjusted 
service level training to ensure we are expanding cyber training 
capacity in the Marine Corps. For example, by extending the length of 
the Marine Corps Cyber Security Technician course. Looking to the 
future, we are planning for additional training requirements as we 
continue to build the Cyber Mission Force and integrate cyberspace 
operations in the Marine Air-Ground Task Force. To account for this, we 
are working with mission partners and industry to build a persistent 
training environment where cyber warriors can continue to build their 
skills. Additionally, the Marine Corps is forming a Cyber Task Force to 
address issues like training and readiness in cyberspace to adjust to 
the needs of this increasingly critical mission.

    88. Senator Gillibrand. Admiral Greenert and General Dunford, we 
just received a report from all of the Services articulating their 
plans to either create separate specialties or designators for cyber. 
It is my understanding training for building a cyber warrior can be up 
to 2 years. How do you envision the development not only of separate 
specialties for cyber but also career tracks and a way to retain these 
dedicated warriors?
    Admiral Greenert. The Navy denotes military personnel in the Cyber 
Mission Forces (CMF) through officer designators (1810/Information 
Warfare-IW; 1820/Information Professional - IP; 1840/Cyber Warfare 
Engineer-CWE) and enlisted ratings (Cryptologic Technician Networks - 
CTN; Cryptologic Technician Collection - CTR; Cryptologic Technician 
Linguist - CTI; Information Systems Technician - IT; and, Intelligence 
Specialist-IS).
    Today, Navy CMF officer designators and enlisted ratings are 
meeting retention goals. For officers, the Navy is making efforts to 
retain CWE technical expertise by encouraging them to cross designate 
to the IW or IP communities. Career paths include increasing 
opportunities for graduate-level Cyber education, currently offered 
through a combination of service and private sector institutions such 
as the Naval Post Graduate School, Naval War College, and Rensselaer 
Polytechnic Institute.
    For enlisted Sailors, five ratings in the CMF will increase by more 
than 900 billets by the end of fiscal year 2016, with the CTN rating 
experiencing the most growth. The Selective Reenlistment Bonus (SRB) 
contributes significantly to our retention of enlisted Sailors in 
ratings with crucial skill sets.
    General Dunford. In order to attract and retain the best people, 
the Marine Corps has followed multiple lines of effort. To improve 
continuity and reap greater return-on-investment in the lowest density 
highest demand military occupational specialties (MOS), we have 
coordinated with our Service to extend standard assignments to four 
years. Additionally, the number of feeder MOS's available to lateral 
move into critical cyber related specialties has been increased in 
order to obtain a larger talent pool of qualified and experienced 
Marines. We are currently accessing sixteen feeder occupational 
specialties from the communications, signals intelligence, electronic 
warfare, data, and aviation specialty fields to meet the personnel 
demands of cyber occupational field. The largest reenlistment or 
lateral move bonus offered in the past year of $60,750 was offered to 
Sergeants who move into the Cyber Security Technician specialty. To 
drive home the point of how seriously the Marine Corps takes its cyber 
talent management, this bonus consumed 16 percent of the retention 
bonus budget for the last fiscal year. In the future, our focus will 
broaden to include generating a sustainable force generation model that 
retains a unique, skilled expertise within the larger contexts of cyber 
ready MAGTFs. Additionally, we commissioned a personnel occupational 
specialty life cycle management study by the Center for Naval Analysis 
to further develop the way ahead for our cyber work force development.

    89. Senator Gillibrand. Admiral Greenert and General Dunford, how 
do we integrate cyber into the training of all of our servicemembers so 
that we can better integrate it into all forms of combat?
    Admiral Greenert. We are addressing Cybersecurity and Cyberspace 
Operations holistically. From Cybersecurity, as a component of the 
Navy's Mission Assurance Program to protect critical infrastructure, to 
Cyberspace Operations in the Information Environment (led by Fleet 
Cyber Command/Commander TENTH Fleet) and everything in between, the 
Navy is preparing to fight and win in cyberspace. Additionally, 
Cybersecurity and Cyber Warfare will be fully integrated across the 
Navy training continuum from accession training to advanced education 
and leadership development programs. Training and education initiatives 
are already in place to incorporate Cybersecurity and Cyberspace 
Operations into our enlisted and officer accession programs and career 
development pipelines. Further, expanded coordination between the Naval 
Academy, Naval Postgraduate School, and Naval War College is leveraging 
the capabilities of these uniquely Navy educational institutions. 
Efforts are underway today to integrate rigorous Cybersecurity 
standards, metrics, and certifications that will enhance combat 
readiness and effectiveness Afloat and Ashore. We are making strides to 
prepare the Fleet for Cyberspace operations. The Navy Cyberspace 
Operations Manual is currently under revision, and in 2013, we 
published the ``Information Operations at the Operational Level of War 
Concept.'' This launched the Navy's Warfighter doctrine development 
process for the integration of operations in the Information 
Environment, including the Cyberspace Operations Concept of Operations 
and Tactics, Techniques, and Procedures development to inform Fleet 
Readiness and Training. We are also developing an ``All Hands'' cyber 
training with Navy context that builds upon the DoD-mandated 
Information Assurance/Cyber Challenge for our total force, this 
training will use case studies based on cyber issues we have seen from 
internal and external sources.
    General Dunford. Since 2014, the Marine Corps has dramatically 
increased cyber integration into the training cycle by leading, 
supporting, or participating in over 31 combined, joint, and service 
exercises. Additionally, Headquarters, Marine Corps recently 
established a Cyber Task Force that will develop a comprehensive plan 
to integrate cyber-MOS qualified Marines to support our MAGTF 
warfighting capabilities; defend our key cyber terrain; provide an 
operational, secure, effective and efficient Marine Corps Enterprise 
Network to the MAGTF; and enhance command and control (C2) and digital 
interoperability across all elements. Our end state will be to increase 
the capacity and capability of the MAGTF to operate in and exploit the 
cyber domain. However, the Marine Corps MAGTF is designed to be part of 
a broader Joint Force. We expect our Joint, interagency and coalition 
partners to complement our cyberspace operations through information 
sharing, development of capabilities, and operational coordination. 
Likewise, as we integrate cyber capabilities into the MAGTF and the 
Marine Corps as a service, we expect to expand our role of providing 
cyber capabilities to the joint force through our commitment to 
USCYBERCOM.

    90. Senator Gillibrand. Admiral Greenert, you've spoken about the 
importance of the Reserve component for the Navy's cyber efforts. Can 
you please explain how the Navy uses its Reserve component in terms of 
staffing its own cyber needs as well as its support of CYBERCOM?
    Admiral Greenert. Through ongoing mission analysis of the Navy 
Total Force Integration Strategy, we developed a Reserve Cyber Mission 
Force (CMF) Integration Strategy that leverages our Reserve Sailors' 
skill sets and expertise to maximize the Reserve Component's support to 
the full spectrum of Cyber mission areas. Within this strategy, the 298 
Reserve billets, which are phasing into service from fiscal year 2015 
through fiscal year 2018, will be individually aligned to Active Duty 
CMF teams and the Joint Force Headquarters-Cyber (JFHQ-C). Accordingly, 
each Navy Reservist assigned to a CMF billet provides operational 
support to the team's respective operational commander, including Fleet 
Commanders, US Pacific Command, US Southern Command, US Cyber Command, 
and DoD/Defense Information Security Agency. As the Navy builds its 
Reserve CMF support structure, Fleet Cyber Command and TENTH Fleet 
conduct ongoing assessments to maximize the Reserve Force's support to 
CMF operational objectives.
                                 ______
                                 
           Questions Submitted by Senator Richard Blumenthal
                          joint strike fighter
    91. Senator Blumenthal. Secretary Mabus, the stealthy F-35 is a 
supersonic, multi-role, fifth Generation fighter designed to replace 
aging AV-8B Harriers, F/A-18 Hornets, F-16 Fighting Falcons, and A-10 
Thunderbolt IIs. Analysis indicates that F-35 will be six times more 
effective than legacy fighters in air-to-air combat, five times more 
effective in air-to-ground combat, and six times more effective in 
reconnaissance and suppression of air defenses--all while having better 
range and requiring less logistics support. Replacing multiple classes 
of aircraft with the F-35 reduces operating costs by streamlining spare 
pools, supply chain management, infrastructure, etc. The F-35 program 
will be able to keep costs down by capturing economies of scale by 
ramping up production as quickly as possible. It is my understanding 
that the Navy's fiscal year 2016 budget request includes 16 fewer F-35 
aircraft in the last 3 years of the FYDP instead of efforts to keep 
open the production line of legacy F-18 aircraft or defer their 
retirement. What is your view of bringing forward production of F-35 
aircraft to meet any gap in capabilities that has arisen due to delays 
in the program?
    Mr. Mabus. The fiscal year 2016 budget request delivers a balanced 
approach that adheres to fiscal guidance. Due to fiscal constraints, 
the Navy was compelled to defer procurement of 16 F-35C aircraft as a 
budgetary decision. While the Department remains fully committed to 
integrating the F-35C into the future carrier air wing, this decision 
has increased risk in strike fighter inventory management as new 
aircraft procurement is the solution to far-term inventory challenges. 
In an effort to advance our current capability and reduce risk in 
managing our strike fighter inventory, the Department's goal is to 
increase F-35C development and procurement funding over the next five 
years to achieve full rate production.

    92. Senator Blumenthal. General Dunford, the Marine Corps is 
scheduled to declare initial operational capability for the F-35 later 
this year. To me that demonstrates that the program is maturing and 
reaching a point where there would be benefits to increasing 
production. What can be done to bring forward the estimated 2022 date 
for close air support capability and how can we close this capability 
gap with regards to the fiscal year 2016 budget request by the Marine 
Corps?
    General Dunford. The Marine Corps will achieve initial operational 
capability (IOC) in a Block 2B software configuration of the F-35B this 
summer. At IOC, the F-35B will be capable of conducting effective close 
air support (CAS). The funds requested in this year's fiscal year 2016 
budget go towards the planned schedule of development and production. 
The F-35 program already has a continuous series of upgrades in 
capabilities scheduled in the coming years to increase its abilities. 
The best way to help in the continued improvement of the F-35 is to 
support the fiscal year 2016 budget request along with the Marine 
Corps' Unfunded Priority List, including six F-35Bs.

                  taiwan indigenous submarine program
    93. Senator Blumenthal. Secretary Mabus, I understand Taiwan is 
open to the participation of private contractors from the U.S. 
submarine industrial base to develop the contract design and provide 
program management, post-delivery testing, and evaluation for their $5 
billion effort to establish an indigenous submarine program. What is 
the Navy's position and guidance regarding enabling the U.S. submarine 
industrial base to provide the requested services and equipment and 
what should the process be for companies that want to participate with 
regards to ensuring we protect our technology and maintain our undersea 
warfare advantage?
    Mr. Mabus. Each individual request for an export license receives 
careful scrutiny and is evaluated by the Navy department that manages a 
like or similar system. Several other agencies and organizations within 
DOD will conduct additional reviews before the Department of State 
makes the final decision on release of that technology to a foreign 
customer. With this export license review, each decision is evaluated 
on a ``case by case'' basis with specific attention to issues of 
protection of key technologies and maintenance of our undersea warfare 
superiority. When such a decision is made, the specifics of that 
decision will be released in accordance with classification and policy 
guidance.

    [Whereupon, at 11:54 a.m., the committee adjourned.]



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 12, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND

    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Lee, 
Reed, Nelson, McCaskill, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee meets today to 
receive testimony on the posture of U.S. Northern Command and 
U.S. Southern Command to inform its review of the Defense 
Authorization Request for Fiscal Year 2016.
    I would like to extend our appreciation to the witnesses 
for their many years of distinguished service, and to the 
soldiers, sailors, airmen, marines, and their families, who 
serve our Nation with distinction.
    General Kelly, this is likely your final appearance before 
the committee in your current position. And I know how upset 
you are about that. But, it must be said that the Nation owes 
you the highest debt of gratitude for your more than 40 years 
of dedicated service, at which time you have given the most to 
our Nation that can ever be asked of a military officer and a 
citizen. I know that I speak for my colleagues when I say that 
your candor has been as refreshing as it has been valuable to 
the work we do on the committee. And I implore my colleagues to 
pay close attention to your testimony today and to heed your 
warnings to us. It is my sincere hope that your service to the 
Nation will continue for many years to come.
    Over the last month, the committee has heard from some of 
the Nation's most respected leaders on the current global 
security environment, and their testimony has been crystal 
clear: Our Nation faces the most complex and challenging array 
of threats it has in over a half a century. This situation in 
our own hemisphere is no exception.
    Compounding the enormous security challenges facing our 
Nation is the looming threat of sequestration, which is having 
a devastating impact on the readiness and capabilities of our 
men and women in uniform. Retired General Jim Mattis rightly 
told this committee last month, ``No foe in the field can wreak 
such havoc on our security that mindless sequestration is 
achieving today.''
    I expect our witnesses to candidly update the committee on 
what sequestration will mean for their ability to accomplish 
their missions and protect the force. More starkly, we'd like 
to know, at what point does sequestration push us beyond 
accepting risk and towards mission failure?
    Admiral Gortney, this is your first time testifying before 
the committee as the Commander of U.S. Northern Command and 
North American Aerospace Defense Command. After nearly 4 months 
in command, I look to your assessment of the challenges within 
your area of responsibility, as well as your strategy to 
confront them. I am particularly interested in your views on 
the current state of U.S.-Mexican security cooperation and ways 
in which our two nations can strengthen this vital partnership. 
Though the President of Mexico's efforts against transnational 
organized crime have resulted in some notable successes, 
including the removal of several senior cartel leaders from the 
battlefield, the security situation remains highly volatile and 
continues to directly impact the security of our southern 
border as well as more than 1,200 American cities where these 
ruthless criminal networks now operate.
    Additionally, with North Korea moving closer to an 
operational road-mobile ICBM [Intercontinental Ballistic 
Missile] and Iran publicly stating it intends to launch, as 
early as this year, a space-launched vehicle capable of ICBM 
ranges, it's all the more important that the United States 
expand and modernize its homeland ballistic missile defense 
system. I support the increase of ground-based interceptors 
from 30 to 44 by 2017, but we need to be assured that the 
planned improvements to the ground-based midcourse defense 
system will stay ahead of the ballistic missile threats to our 
homeland that are anticipated by the intelligence community.
    General Kelly, the situation within your area of 
responsibility represents as complex and challenging a set of 
problems as I have ever seen in the hemisphere. While there are 
important success stories like Colombia, the situation in many 
other parts of the region remain highly unstable. We are all 
particularly concerned about Central America, which is mired by 
feeble governance and weak security institutions, high rates of 
corruption, and is home to several of the most violent 
countries in the world. Increasingly capable transnational 
criminal organizations exploit these shortcomings and command 
multibillion-dollar global networks that traffic in weapons, 
drugs, bulk cash, human beings, and anything that will earn a 
profit. Increasingly, their activities directly threaten our 
National security. Working with our regional partners to arrest 
the troubling rise in instability must be a priority.
    I agree with you, General Kelly, that our approach to 
Central America requires a sustained multiyear commitment 
similar to what we pursued under Plan Colombia. I hope you will 
describe in greater detail what a Plan Central America should 
look like and what role Southern Command would play in such an 
effort.
    Additionally, I remain troubled by the lack of appropriate 
and persistent U.S. support and engagement in the Western 
Hemisphere, and how sequestration would further erode our 
already limited presence and programs in the region. We cannot 
afford to go on treating our own neighborhood as our lowest 
geographic priority which only receives the level of resources 
and focus that it deserves when it erupts into crisis. This is 
a recipe for failure. And I know you feel the same way.
    In closing, I want to ask you, General Kelly, to pass on 
the deepest thanks and gratitude of the members of this 
committee to the military men and women conducting detention 
operations at Guantanamo Bay. Putting aside politics and the 
broader debate about the future of this detention facility, the 
Americans serving there today deserve our utmost appreciation. 
Theirs is an extraordinarily trying and difficult mission. And, 
through it all, they continue to serve honorably and with the 
utmost professionalism. So, General, please extend our thanks 
to them.
    Thank the--you, again, for--our witnesses for appearing 
before us today.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    And let me join you in welcoming our witnesses and thank 
General Kelly for his extraordinary service and his advice and 
counsel over many years.
    And welcome, Admiral Gortney. This is your first appearance 
in your role as the NORTHCOM [U.S. Northern Command] Commander.
    And let me also ask you to thank the men and women under 
your command, and their families, because the--families 
service, not just individual servicemen and -women. And no one 
has served more, as the Senator has pointed out, than the Kelly 
family. So, thank you, General Kelly.
    Admiral Gortney, as you know, one of the three pillars of 
our defense strategy, as laid out in last year's Quadrennial 
Defense Review, is to protect the homeland, to deter and defeat 
attacks on the United States, and to support civil authorities 
in mitigating the effects of potential attacks and natural 
disasters. Similarly, President Obama's National Security 
Strategy, released last month, emphasizes the defense of our 
homeland as a primary responsibility. This, simply stated, is 
your very important mission.
    To that end, while Admiral Haney, the Commander of STRATCOM 
[U.S. Strategic Command], is responsible for synchronizing 
global missile defense planning and operational support, you 
are responsible for the operation of our homeland ballistic 
missile defense system. And we look forward to hearing about 
the improvements that are planned for the ground-based missile 
defense system, the progress being made to test, correct, and 
field additional interceptors, the enhancement of sensors and 
discrimination capabilities, and the status of the redesigned 
kill vehicle.
    In addition, NORTHCOM works closely with other Federal 
agencies, the Governors, and the National Guard to collaborate 
on responding to national and manmade disasters, and partners 
with Canada and Mexico to promote security across our borders. 
I look forward to hearing, also, about your current efforts on 
how these would be impacted by the return of sequestration.
    In Southern Command, one of the primary threats is posed by 
illegal narcotics trafficking and organized criminal networks. 
These organizations create devastating instability in nations 
throughout our hemisphere, including the corruption of civilian 
and security institutions and brutal violence inflicted upon 
the people of the region. Whether it is illegal drugs for sale 
or individuals escaping violence in their hometowns, the 
consequences of crime do not stop at the border. And what often 
starts as SOUTHCOM's [U.S. Southern Command] problem soon 
becomes NORTHCOM's problem. An obvious answer, then, is to 
address the problem at its root. But, complicating SOUTHCOM's 
ability to respond is the fact that sequestration has reduced 
the military services' support of your requirements and reduced 
the funding in a defensewide counterdrug account. In your 
submitted opening statement, General Kelly, you characterized 
the impact of these reductions as, quote, ``managing to keep 
the pilot light of U.S. military engagement on in the region, 
but just barely.'' This is a stark warning, and one that is 
certainly amplified when considering the cuts on the civilian 
side of our government, as well.
    General Kelly, given the physical constraints that are 
likely to face you, I am interested in your insights into how 
SOUTHCOM can successfully engage in the region. For example, 
SOUTHCOM is also training and equipping security forces of 
friendly nations, training and equipping peacekeepers for 
deployment to peacekeeping operations across the globe, and 
enabling, advising, and supporting Colombian military and law 
enforcement operations. These activities often provide benefits 
far beyond the investment. How can we leverage these low-cost, 
high-yield activities? Are there other innovative ideas we 
should be implementing?
    General Kelly, Admiral Gortney, you are both exceptional 
officers whom I am glad are leading these commands, and I look 
forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. Welcome.
    Who--Admiral Gortney, do you want to be first? Or General 
Kelly?
    Admiral Gortney. We are long-time shipmates.

   STATEMENT OF ADM WILLIAM E. GORTNEY, USN, COMMANDER, U.S. 
   NORTHERN COMMAND AND COMMANDER, NORTH AMERICAN AEROSPACE 
                        DEFENSE COMMAND

    Admiral Gortney. Well, Chairman McCain, Ranking Member 
Reed, members of the committee, thank you so much for having my 
shipmate and myself here to talk to you today. It means a great 
deal.
    In preparing for today, I thought I would open--I first 
thought I would open with my--a summation of my prepared 
remarks that I had forwarded for the record. But, after 
spending, over the past 2 weeks, time with you--thank you for 
giving me your valuable time--I think the time would be better 
spent if we talk about the threats that--as I see them, in the 
defense of the homeland, and how it affects us. So, I am going 
to set my prepared remarks aside, and I want to talk to those 
threats.
    And when we look at threats, we look at threats from the 
most likely to the most dangerous. And so, I want to talk about 
from the most likely to the most dangerous threats to the 
homeland. And I think the most likely threat is that 
transnational criminal network that is using the seams between 
General Kelly's and my COCOMs [Combatant Commanders] and PACOMs 
[U.S. Pacific Command], our interagency partners and us, seams 
between us and our partner nations, and the seams within those 
countries themselves. In those seams, people are moving drugs, 
money. As the Chairman said, they are just moving product for 
profit. And, through those seams--we need to close those seams, 
because in those seams, if someone wants to move something that 
is going to do great damage to our Nation, that is where they 
will come.
    The second is homegrown violent extremists. And it's not--
it's a very effective, I'm sorry to say, but sophisticated 
social media campaign to stir up distrust from American 
citizens to do harm to American citizens.
    The third is cyber. The cyber, I am responsible for 
defending my known networks and to help the lead Federal agency 
in the aftermath of a cyberattack. But, it's far more 
significant in that--is that it would effect--directly effect a 
cyberattack against a critical infrastructure that I rely on to 
defend the Nation and we rely on for our Nation to operate. I 
see that as a significant threat.
    The next is the North Korean threat, who has the intent 
and, we assess, the capability to shoot a ballistic missile at 
our homeland, and, of course, whether Iran will continue on its 
path.
    And finally, and the most dangerous, China to Russia.
    However, as significant as those threats are, as I look at 
mostly likely and most dangerous, I see the mostly likely and 
most dangerous threat to my ability to protect the homeland, 
and that is sequestration. And it's because of how 
sequestration affects the forces that John and myself and our 
shipmates that are the other geographic combatant commanders, 
how it affects the services as they implement the sequestration 
effect, how it hollows out the force. The services can only 
go--have to--to generate the revenue to meet the sequestration, 
they must go into the readiness accounts, and as--which leads 
to a hollow force. And, as Admiral Greenert said to you a 
couple of days ago, it delays capability that prevents us from 
outpacing the threats that is our technological and our 
advantage in the future battlefield.
    As NORTHCOM and General Kelly, in SOUTHCOM, we rely on the 
services in order for us to do our mission. Our forward-
deployed commanders, we--they rely on that capability. And the 
specific impacts to each one of the missions, I'd like to 
answer in the questions.
    And I look forward to your questions.
    Chairman McCain. General Kelly.

STATEMENT OF GEN. JOHN F. KELLY, USMC, COMMANDER, U.S. SOUTHERN 
                            COMMAND

    General Kelly. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, thanks for the 
opportunity to speak here today about SOUTHCOM's soldiers, 
sailors, airmen, marines, coastguardsmen, and, just as 
importantly, the civilian workforce.
    It's great to be here with my good friend Admiral Gortney. 
And I can assure you, as he just did, that there is really no 
gap, no seam, no space between our two organizations. We work 
very closely together, and we collaborate very, very closely 
together.
    I believe SOUTHCOM is the only government organization that 
is 100-percent dedicated to looking at the issues of Latin 
America and the Caribbean. My folks don't just pay attention to 
what's going on in this region of the world. They understand it 
intimately. They care about it, and they support it. They have 
helped countries in Latin America improve human rights, worked 
hand-in-hand with the region to professionalize security and 
defense forces and rebuild institutions, and they've supported 
our partners as they win back their streets and countries from 
drug trafficking and criminal networks, much of which is 
directly attributable to the drug demand in the United States. 
I'm proud to lead this outstanding group of people, and I'm 
proud of the work we're doing in Latin America.
    As the committee knows, I think, SOUTHCOM's most important 
mission is to protect the southern approaches to the United 
States. We do not and cannot do this mission alone. We work 
side by side with law enforcement professionals in the 
Department of Homeland Security, the Coast Guard, DEA [Drug 
Enforcement Agency], FBI [Federal Bureau of Investigation], and 
the Department of Treasury. Together, we all defend the U.S. 
homeland against transnational criminal networks, illicit 
trafficking, and the potential movement of terrorists or WMD 
[weapon of mass destruction] into the homeland.
    Mr. Chairman, I'd like to take a moment to commend one of 
our most valued partners in the U.S. Government, and that is 
the Central Intelligence Agency [CIA]. I've had the honor of 
serving with the CIA all over the world for my entire career, 
and this includes Iraq and Latin America. Like our men and 
women in uniform, I believe the men and women of the CIA are 
the best of their generation. When our country needs them most, 
the CIA always answers the call. They do what the President 
asks them to do, as we all do, and they do it with a 
selflessness and a bravery that is very, very seldom 
recognized. They step forward without question, without 
hesitation, with the knowledge they will receive zero 
recognition for the important work that they do. They willingly 
put their lives on the line every day. They serve in some of 
the world's darkest and most dangerous places, executing the 
most complex, high-risk missions imaginable. And, most often, 
they do it armed only with their wits.
    Along with our Armed Forces, law enforcement, intelligence 
agencies, the CIA is part of an extraordinary team doing 
essential work to keep our Nation safe. And I believe most of 
our citizens sleep safe at night because of what the entire 
team does, and that team starts overseas with what the CIA 
does.
    I'd also like to say a few words about our partners in 
Latin America, one relationship in particular. Mr. Chairman, 
members, as you know, the United States has a very special 
relationship with a handful of countries around the world. 
These relationships are with countries that we rely on as 
regional stabilizers. These countries are our strongest friends 
and most steadfast allies. They look at--in the same--they look 
at life and live their lives in the same way that we do.
    Colombia clearly plays that role in Latin America. But, 
they are more than just our--among our most trusted partners, 
they are the model for winning the fight against violent 
insurgencies in criminal networks. Colombia has shown us that 
the key to defeating terrorists in criminal groups is by 
upholding and defending the very values that these groups 
threaten: freedom, democracy, and the protection of human 
rights. Colombia has shown us that security and economic 
prosperity really do go hand in hand. And at a--and at great 
expense in Colombia blood--Colombian blood and Colombian 
national treasure, they've shown us what the term ``national 
will'' really means.
    In my 30 years in uniform--over 30 years in uniform, I have 
never seen a better success story than what I see every day in 
Colombia. It's one place I believe we got it right, where our 
support, coupled with a committed partner, brought a country 
back from the brink, where our engagement in Latin America made 
a real and lasting difference that's plain to see. Colombia is 
now stable, thriving, and taking on greater responsibilities to 
improve international security, not just in Latin America and 
the Caribbean, but they are looking overseas, as well. In an 
uncertain and turbulent world, we're lucky to have partners 
like Colombia.
    I'd like to thank the committee for its continued support 
to the Colombian people as they work to achieve a just and 
lasting peace, which is just about in sight.
    Members of the committee, I look forward to your questions.
    Thank you.
    Chairman McCain. Thank you, General.
    [The prepared statement of General Kelly follows:]
    Chairman McCain. We're now looking at a proposal for a 
budget that leaves the sequestration numbers in the numbers as 
they have been following since we passed the Budget Control 
Act. If that remains the case, General Kelly, what is your view 
of what sequestration will do to your ability to carry out your 
mission and the impact in increased risk to the lives of 
American men and women serving in uniform?
    General Kelly. Thanks for that question, Senator.
    I would tell you, in Latin American Southern Command, it 
is--it will be a--just simply put, a catastrophe. It will 
essentially put me out of business. I have very, very little 
work with now. We do most of our work partnering small--small 
groups of soldiers, sailors, airmen, and marines, even law 
enforcement that go down, spend short periods of time advising, 
assisting many of these groups, whether it's maintenance, human 
rights, these kind of things.
    I've queried my components--the Army, Navy, Air Force, 
Marines. Their cuts would range from anywhere between 75 
percent of--in the case of the Marines, maybe about 25 percent. 
But, the point is, I will no longer able to partner at--almost 
at all with the Nations that we work with every day. From a 
drug-flow point of view, I got--we got, collectively--the DOD 
[Department of Defense] and all of the agencies that do this--
we got 158 metric tons of cocaine last year, without violence, 
before it ever even made it to Central America. I do that with 
very, very few ships. I know that if sequestrations happen, I 
will be down to maybe one Coast Guard, maybe two Coast Guard 
cutters. That means, of the 158 tons I would expect to get this 
year, I probably, if I'm lucky, will get 20 tons; and all the 
rest of it just comes into the United States along this 
incredibly efficient network. So----
    Chairman McCain. And the risk----
    General Kelly.--a catastrophe, Senator.
    Chairman McCain. And the risk to the lives of the men and 
women serving?
    General Kelly. In my part of the world, it'll be, to say 
the least, a heightened risk in--again, I'm in a part of the 
world, as you know, sir, that is relatively peaceful, that 
there is no real state-on-state problems. But, in other parts 
of the world, like CENTCOM [U.S. Central Command] and EUCOM 
[U.S. European Command], potentially, these are--you know, we 
could be talking--in my opinion, as just one guy talking, we 
could be talking not high risk anymore, or severe risk, to our 
plans, but really we could be talking defeat if sequestration 
happens.
    Chairman McCain. Admiral Gortney----
    Admiral Gortney. Well, I'll----
    Chairman McCain.--same question.
    Admiral Gortney.--I'll pile onto what General Kelly was 
saying. In a similar role in countering the transnational 
criminal networks and our ability to do mil-to-mil training 
with our partners, particularly in Mexico and in the Bahamas, 
it's going to have a huge impact. We execute those missions 
through service-retained forces. As soldiers, sailors, airmen, 
and marines and coastguardsmen are training for their own 
future deployment, they come down and do that mil-to-mil 
activity for us, work for us, but it's training they receive. 
And we've received, from our components, that that training is 
going to have to be curtailed significantly. So, that will have 
a huge impact on us on that.
    The other impact would be in missile defense. Because the 
services can only generate the revenue by going into readiness 
or delaying delivery of a capability, the Missile Defense 
Agency will--does not have a readiness account that they can go 
to, so they're going to have to go to their new starts, they 
will have to put the long-range discrimination radar, the 
improvements to the advanced kill vehicle and a multi-object 
kill vehicle--they'll have to put those on hold and will delay 
the ability for them to field those capability which allows us 
to outpace the growing proliferation of ballistic missiles.
    And so, those are the two primary impacts to me, sir.
    Chairman McCain. Thank you.
    General Kelly, in your written statement, you said, quote, 
``In addition to thousands of Central Americans fleeing poverty 
and violence, foreign nationals from countries like Somalia, 
Bangladesh, Lebanon, and Pakistan are using the region's human 
smuggling networks to enter the United States. While many are 
merely seeking economic opportunity or fleeing war, a small 
subset could potentially be seeking to do us harm. Last year, 
ISIS [Islamic State of Iraq and the Levant] adherents posted 
discussions on social media, calling for the infiltration of 
the U.S. southern border.'' Can you tell us how serious you 
think that threat is?
    General Kelly. I think, Senator, that the kind of people 
that you're referring to will--of course, their intent is to do 
us the greatest amount of harm possible. This network that Bill 
and I deal with every day, not to mention the law enforcement 
folks, is so efficient that if a terrorist, or almost anyone, 
wants to get into our country, they just pay the fare. No one 
checks their passports, no one--you know, they don't go through 
metal detectors. No one cares why they're coming. They just 
ride this network. And if someone wanted to come in here with 
nuclear material--I was just down at Emory University, at the 
ebola facility there, talking about how ebola spreads and 
potentially could be used as a weapon. It's an--it's a scary 
proposition when----
    Chairman McCain. Well----
    General Kelly.--I think of this network.
    Chairman McCain. So, how serious, in your view, is it that, 
over time, there may be an effort by terrorists to cross our 
southern border?
    General Kelly. Extremely serious.
    Chairman McCain. I thank you, General Kelly. And I thank 
you for your honorable service.
    And thank you, Admiral.
    Senator Reed. Thank you, Mr. Chairman.
    And I think the chairman's questions and your answers has 
really illustrated the critical and corrosive effect of 
sequestration on everything you do--literally everything you 
do. But, I think there's a point that also has to be 
emphasized, because you don't do things alone, you do it with 
other agencies, some of them civilian agencies.
    General Kelly, you just said you were down at Emory, at 
CDC, talking about the potential of a ebola-type epidemic being 
transported into the United States. The border is the 
jurisdiction, primarily, of Department of Homeland Security. I 
could go on and on and on. So, the question is--because there's 
been some discussion of, ``Well, we need relief for Department 
of Defense.'' And both Senator McCain and I have urged that. 
But, without relief across the board, without funding for DHS 
[Department of Homeland Security], Department of Justice, FBI, 
CDC [Center for Disease Control], can you do your mission, 
Admiral Gortney?
    Admiral Gortney. Sir, thank you for asking that question.
    As we look at how we perform the range of missions that 
we've been assigned, our homeland partnerships, our interagency 
partnerships with the interagency--Homeland Security, with the 
law enforcement efforts--that's actually our center of 
gravity--the National Guard, our Governors, et cetera. But, to 
your point on--those interagency relationships are absolutely 
critical. Those interdependencies, many of which I am 
supporting to them, but I am still tasked to do that--should 
they be affected, it's going to have a significant effect 
against how I'm able to do my missions to support them and 
then, again, to defend the Homeland.
    Senator Reed. General Kelly, your response?
    General Kelly. I'd associate myself with that. If--this is 
a team effort. And if anyone--if any of us get hit with a 
sequestration-type impact, you know, again, the defense of the 
homeland is, to me, absolute, and it would be seriously 
degraded.
    Senator Reed. You know, there are other aspects that--not 
just reactive, but proactive. I'm told that, for example, the 
Millennium Challenge, which is a quasi-Federal agency, gets 
some funding from us, has been significant, in terms of road-
building and economic development in your area of operations. 
And I would assume that's just--sometimes just as important as 
the reactive, defensive measure. Is that accurate?
    General Kelly. It is. Yes, sir. I mean, we could get into a 
long discussion about what we're trying to do in the Central 
American region to stabilize the region so that we don't have 
another occurrence of, you know, 100,000 migrants coming up all 
at once. And the Millennium Challenge Corporation is--things 
like that or the Inter-American Developmental Bank--those are 
organizations that we should invest in, because they do it 
right, in terms of economic development, in working with 
countries in identifying projects that will--everything from 
stabilize their national institutions to economic development 
to social development, protects human rights, things like that. 
I really believe that investment in those kind of organizations 
is the way to go, as opposed to, you know, we try to do our own 
standalone-type investment, because they don't seem to work 
very well.
    Senator Reed. Thank you.
    Admiral Gortney, you are the operational, effectively, 
commander for missile defense. Missile Defense Agency does all 
the sophisticated development. You have pointed out how they 
would be harmed. But, from your sense as to--as you described, 
the trigger-pull or--what should be the priorities, in terms of 
invest in national missile defense?
    Admiral Gortney. Well, my priorities are completely aligned 
with Admiral Syring's from the Missile Defense Agency. And the 
priorities actually are concurrent priorities. All three have 
to be taken into account.
    The first is, we need to continue to improve our sensors. 
The sensors are the ability for us to discriminate and track as 
early as possible to be able to defeat the threat.
    The second is, we need to enhance the lethality of our kill 
vehicles. The--it's a very expensive proposition to shoot a 
rocket with a rocket. And so, we want every one of our kill 
vehicles to be as effective and as lethal as possible, and as 
well as the means to develop other ways that we can get more 
kill vehicles into space.
    And the last is, as in any weapon system, you need to 
invest in the sustainment piece of it so that all of--it's a 
system of systems, and all of the system of systems are at 
their peak physical condition, and that includes the ability 
for us to test and exercise them. And they all have to be done 
concurrently.
    Senator Reed. And so, these priorities are higher, I can 
assume, than expanding the basing of missiles around the 
country?
    Admiral Gortney. Yes. Admiral Syring and I are in agreement 
that, before we put additional money, we want to make sure we 
assure the three that we just talked about. That's the most 
important piece.
    Senator Reed. Thank you very much, Admiral.
    Thank you, Mr. Chairman.
    You're recognized, I think.
    Senator Inhofe. May I proceed?
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I think both of you were watching, a couple of weeks ago, 
when we had Secretary Carter here. And you're familiar with his 
testimony, wherein he--one of his statements was, ``Readiness 
remains at troubling levels across the force,'' that, even with 
the fiscal year budget, the Army, Navy, and Marine Corps won't 
reach their readiness goals until 2020; and the Air Force, 
2023. And then General Dempsey stated that we--what we need to 
remain at the lower ragged edge of manageable risk in our 
ability to execute the defense strategy. Now, do both of you 
agree with these statements?
    General Kelly. Yes.
    Admiral Gortney. Yes.
    Senator Inhofe. The defense planning requirements are that 
you guys are the one that--are in charge homeland security. And 
that's supposed to be our number-one requirement, number-one 
guidance. Is that correct?
    Admiral Gortney. Homeland defense, sir.
    Senator Inhofe. Homeland defense, yeah.
    Admiral Gortney. Yes, sir.
    Senator Inhofe. Well, the requirements are found in the 
homeland defense, that's correct.
    What concerns me is that, for the past 14 years, I think 
that everyone's aware, and you're certainly aware, that both of 
your areas of responsibility have been prioritized behind the 
wars in Iraq and Afghanistan. Is that correct?
    General Kelly. Yes, sir.
    Admiral Gortney. Yes, sir.
    Senator Inhofe. Well, that's a big deal. I don't think many 
people out there in the real world, or in America, understand 
that--sure, we understand that our top priority should be 
homeland defense. Everyone understands that. But, what the 
budget--forgetting about sequestration, bringing us up to where 
we are today as taking away your ability, or that priority for 
homeland defense--you know, I think it's something that we have 
to be talking about up here. Are--do you think--I'd ask both of 
you, in your opinions, are we accepting too much risk as it 
relates to our number-one priority, homeland defense?
    Admiral Gortney. I'll take that, sir.
    You know, our--the way we execute, the way and the means 
that we execute homeland defense is an away game. It's better 
to fight the fight at the further reaches through the forward-
deployed geographic commanders, such as General Kelly, here. 
And the challenge that we're having, even though we've been in 
14 years of war, as we come out of these wars, you're usually 
entering a better security situation than when you went into 
war. That's why we went to war. But, as Dr. Kissinger testified 
to you a few weeks ago, clearly that's not what we had, and 
it's--we just didn't predict it, even 3 short years ago. And 
the forward-deployed combatant commanders, each and every 
single one of them, are dealing with a crisis in their AOR 
[Area of Responsibility] on their doorsteps today. And they're 
seeking, and they need--in order for them to defend the Nation 
in the far game, they need the forward-deployed forces and the 
forward-based forces to deal with those crises, get them into 
an off-ramp, and not let them escalate any more than they 
already are. And that's where the risk is. They own that risk, 
and that's the--their ability to execute that mission is very 
tattered because of our--how thin we are, because we have to 
distribute them globally. And as the service chief said, our 
ability to surge them release--surge them greater capability 
from the homeland so the game's--the fight is still overseas, 
is reduced. And how that also impacts is those servicemembers 
that are executing that mission----
    Senator Inhofe. All right. Admiral----
    Admiral Gortney.--their risk and the acceptable losses have 
gone up significantly.
    Senator Inhofe. Admiral--and I appreciate the answer. It's 
a very good answer. It's a long way of saying ``yes.'' And so, 
we----
    Do you agree with that, General Kelly?
    General Kelly. I do, yes, sir.
    Senator Inhofe. Okay.
    General Kelly, the area that I'm really familiar with--I 
spent 20 years of my life in the--building and developing down 
in south Texas. I'm familiar, not with the rest of the border, 
but the Texas border, I am. And you talk about--you said--and I 
wrote it down, here--your people understand it intimately. 
Included in what they understand intimately, does that include 
the border--the Texas-Mexico border?
    General Kelly. No, sir, not in my case. My boundary ends 
with the south Mexican----
    Senator Inhofe. I see.
    General Kelly.--border.
    Senator Inhofe. Okay.
    Admiral Gortney. So, Bill's your guy.
    Senator Inhofe. Yeah. Oh, well--yeah, all right.
    Are they very familiar with that? The reason I say that--
there's danger on the border down there. In fact, it's 
misunderstood, because it's mostly between two cartels or two 
drug groups firing. One of the few places in that border where 
people can go over from the United States was a little 
community called Progreso. And, even the other day, that ended 
up a battleground. Is everyone on top of that and familiar with 
that and aware of the risk that that gives some of our people?
    Admiral Gortney. Yes, sir. Everybody's aware of the risk. 
Do we have 100-percent visibility into everything of that? No, 
sir, we don't. We work that very, very hard with our 
interagency partners--Homeland Security and our interagency 
partners inside----
    Senator Inhofe. Yeah.
    Admiral Gortney.--inside Mexico. And our responsibility is 
to expand the capacity through training with the army, the 
navy, and their marine corps, Sedena and Semar. And we're----
    Senator Inhofe. Okay. I've got a problem with my timing, 
here, and I did want to get into some statements that have been 
made.
    General Kelly, you talked about, in--on GTMO [Guantanamo 
Bay], ever--the history of that, when we got it, the good deal 
it is even today, and what all is there other than the 
incarceration of terrorists that are down there. So, I'm going 
to ask you this question for the record and--because I am very 
interested in some of the other things that are going on down 
there.
    [The information referred to follows:]

    Naval Station Guantanamo (GTMO) is irreplaceable as a forward 
staging base for the U.S. assets critical to the layered defense 
against threats to the U.S. homeland--both existential and potential. 
GTMO's strategic importance dates back to its establishment in 1903 as 
a coaling station for the Navy. That tradition continues today by 
providing a secure location for the Department of Defense (DOD) and 
Interagency to conduct their missions and operations. The U.S. Navy and 
Coast Guard regularly use GTMO to refuel and conduct maintenance on 
their vessels and aircraft patrolling the Caribbean. This maximizes 
operating cost efficiency and time on station by preventing or reducing 
unnecessary returns to the Continental United States. GTMO also 
provides the only option for the DOD to meet its obligations under 
National Presidential Security Directive 52 to safely house migrants 
outside of the United States in the event of a mass migration. 
Additionally, both Guantanamo's port and airfield were critical in 
ensuring rapid and sustained response by the U.S. Military in the wake 
of the devastating 2010 Haiti earthquake.
    The State Department, Navy, Coast Guard, and other DHS components 
rely on this Naval Station for mass migration events, humanitarian 
assistance and disaster-relief operations in the Caribbean. A joint 
white paper signed by the USCG Deputy Commandant for Operations and the 
USN Acting Deputy CNO for Operations Plans and Strategy (N3/5) states 
``For the near and far terms, the U.S. Navy and U.S. Coast Guard 
confirm Naval Station GTMO's role as a strategic USG enabler for 
security and stability in Latin America and the Caribbean region.'' I 
concur with this assessment.

    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    And I want to thank both of you for being here.
    General Kelly, I know this is your last time that you will 
be here as SOUTHCOM Commander. And my father-in-law was a 
Guadalcanal marine. And I think if he was still around, he 
would say, ``If you want to know what a marine is, look at 
General Kelly.'' So, we're very grateful for your service.
    And, Admiral Gortney, my dad was in the Navy. He chipped a 
lot of paint. He didn't see a lot of admirals, but we--he'd be 
very grateful for your service.
    To General Kelly, when you look--one of the things we're 
dealing with in my home State of Indiana is, there's been a 
huge influx of heroin into our State. And I was wondering if 
you could tell us a little bit about the challenges you face in 
trying to interdict that, in trying to stop it. And what is, 
maybe, the best thing we could do to help you in that effort?
    General Kelly. Senator, the first thing everyone should--
needs to understand is, really 100 percent of the heroin that's 
consumed in the United States--and we, in fact, are right in 
the middle of a heroin epidemic, a drug epidemic. A lot of 
people in this town will say no to that, but we are in the 
middle of a serious epidemic in--particularly in--when it comes 
to the heroin. So, 100 percent of it is produced here in the 
United--or, here in the--in Latin America. About half of it is 
produced in Mexico, and the rest of it is produced further 
south, in various parts of the isthmus--Central American 
isthmus in South America. It's a relatively small amount--40-50 
tons, we think--of heroin that feeds the heroin epidemic in the 
United States.
    What's the first step in stopping it? Stopping the drug 
demand in the United States. That's the first step. And I don't 
think we take that very seriously, as we do, say, tobacco use 
and seatbelt use and things like that. So, we don't do much to 
reduce the demand in the United States. If we did that, there 
would be less of a market for it, obviously. But, because of 
this network--and I say it a lot--this network has got to be 
broken. And the way the network stays in place is drug demand 
in--primarily drug demand in the United States, and then the 
unbelievable profits that come out of that drug demand. Cocaine 
alone, $85 billion a year in profits from cocaine sales alone 
in the United States. And, of course, that's an unlimited 
amount of money to either bribe officials, in our own country 
as well as in Latin America, or to kill people or have people 
killed. And until we really get around the drug demand issue, 
there's not an awful lot we're going to be able to do to that 
network.
    Senator Donnelly. Is there anything you can do on the 
ground, in terms of interdiction? Any other things that we can 
help you with? Obviously, resources, but--what is the key to 
their success in getting that into our country?
    General Kelly. It's just years and years and years of a 
very, very elaborate--development of this very elaborate, very 
efficient network.
    Some of the things we do do--and I'll go back to Colombia 
for a second. I mean, Colombia is absolutely heroic in their 
attempts to eradicate coca and poppy before it's ever 
harvested. They knocked down about 1400 jungle laboratories 
last year that make cocaine and make heroin. And they, 
themselves--cocaine, alone--150 tons before it ever left--of 
cocaine--before it ever left Colombia on its way north. So, 
Colombia is deep into the fight. In fact, they, frankly, do 
more to fight drugs in our country than I think the United 
States does, sometimes.
    Further north, in these countries that we're trying to help 
in Central America, where an awful lot of the poppies are, in 
fact, grown, we're just starting to see these countries--their 
security forces able to stand up on their own. And then, 
Mexico, about 40--about 50 percent of the heroin consumed in 
the United States is--the poppies are grown and the heroin is 
produced in Mexico. And that's really Bill's bailiwick.
    Senator Donnelly. In terms of interdiction, you had 
mentioned about the Coast Guard cutters and other resources 
that you have--I may be mistaken with the exact number, but I 
thought last year you told us you were able to--or had the 
physical capability to stop about 25 percent of the traffic 
that came through. Is that--is----
    General Kelly. We're stopping----
    Senator Donnelly.--is that----
    General Kelly.--we think, about 20 percent.
    Senator Donnelly. Okay.
    General Kelly. With very few cutters. More cutters, more 
ships mean we get more. Less means less.
    Senator Donnelly. So, it's simply a direct--your ability to 
stop is simply a direct correlation to the resources that you 
have in that area.
    General Kelly. That's correct, sir.
    Senator Donnelly. Okay.
    What--could you give us a little bit of a primer for a few 
seconds on Venezuela and what's going on there right now?
    General Kelly. It's a sad thing to watch. Two years ago, 
when I took this job, the discussion was, How long would it be 
before it collapses or implodes? I mean, I think we're kind of 
there. Inflation rates of over 80 percent, there's almost 
nothing on the shelves that common people can buy. Their--the 
government there is, to say the least, restricting the free 
press more and more every day. They're arresting opposition 
leaders. Of course, they're blaming us for everything from coup 
planning to this recent move by our President to put 
sanctions--or, not sanctions, but to put restrictions in place. 
They see that as an attempt to topple the government. They 
don't need any help toppling their government. I mean, it's 
just a really, really sad state of affairs to watch.
    Senator Donnelly. Thank you.
    Thank you both very, very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And I also want to thank both of the members of the panel 
for their distinguished service to our country.
    Admiral Gortney, I was--it was great seeing you in Alaska 
recently. I wanted to dig into a little bit more on the Arctic 
strategy that's highlighted in your testimony. And I actually 
really appreciate how much emphasis you've been giving that in 
your new position and in your testimony.
    You know, one of the things that I think has come up in a 
lot of the hearings here, whether it was General Dempsey or 
the--Secretary Carter's growing importance, but also kind of 
the fluidity of what's going on in the Arctic, particularly 
with regard to the Russian moves that I know you've been 
keeping an eye on. As a matter of fact, your testimony mentions 
the aggressiveness that we haven't seen since the cold war, in 
terms of the bomber runs. As you know, they--they're building 
new airfields in the Arctic, they're--have a new Arctic 
Command. General Dempsey testified last week, three--four new 
Arctic combat brigades being deployed by the Russians in the 
Arctic, a huge icebreaker fleet with as many as 11 more new 
icebreakers. So, they're clearly seeing it as a strategic area. 
For the world, resource development, new sea lanes that are 
developing there.
    And my concern is that we're well behind the Russians, in 
terms of this, not only as an opportunity, but also as a 
growing area of military competition that they're clearly 
making it out to be. I'll give you a few examples on that. You 
know, the Army is looking--our Army is looking at reducing, in 
the light of what the Russians are doing--reducing two combat 
brigades based in Alaska. That's a big concern.
    I just have a couple of questions. And they're all kind of 
related, so I'll just pose them to you. Do we have an Arctic O-
plan right now? And how would the Army troops in the Arctic, in 
Alaska, fit into that? And does it make sense to significantly 
reduce our military presence in the Arctic before we even put 
out an O-plan and in the face of what clearly is a Russian 
dramatic increase in the militarization of the Arctic? You 
know, General Odierno mentioned, yesterday in testimony before 
the Appropriations Committee, that he was waiting on NORTHCOM's 
Arctic strategy to kind of get a sense of what they're going to 
do with troop levels. So, you talk about seams. I--as you and I 
have discussed, Alaska is really at the seams of NORTHCOM, 
PACOM, EUCOM. And sometimes that's helpful. Other times I think 
we can have our strategy fall through the seams. Can you just 
comment on that, please?
    Admiral Gortney. Yes. I'm assigned to be the ``advocate of 
the Arctic,'' which is not a doctrinal term, it's not--I can't 
direct anybody to do anything, but we are working on answering 
that question: What are the requirements that we're going to 
need to be able to inform our own operational plans, as you 
mentioned, on the future of the Arctic, and then what we feel 
are recommendations for all of DOD, not just the services, for 
what necessary investments that get up there?
    Senator Sullivan. Great. Because, you know, another thing 
that kind of looks like it's falling through the seams, at 
least within DOD and outside of the DOD, is icebreakers. When 
the CNO [Chief of Naval Operations] was here last week, talked 
about the importance of those. Everybody agrees they're 
important, and yet the Navy's not in charge of those; it's the 
Coast Guard. So, there doesn't seem to be a coordinated focus 
on that, as well.
    Admiral Gortney. Which goes to the impact of our 
interagency relationships and the impacts of sequestration. The 
Coast Guard is responsible for the icebreakers. We don't--as 
CNO said, we don't have any ships up there, but we--but--that 
are--that float on top of the ocean, but we have submarines up 
there quite frequently. So--but, we need to figure out, What 
are the capabilities that we need? Because it's a very harsh 
place. I mean, I graded--I loved visiting your State, but it's 
a hard place to live and operate. And we have a difficulty--we 
have the inability right now to reliably navigate, communicate, 
and then sustain ourselves as we're up there. So, that's what 
we're trying to answer, what we will endeavor to answer as the 
advocate. And that report will be due out this spring, sir.
    Senator Sullivan. Great. Thank you.
    And I do think the hardness actually makes for great 
training, whether it's the Marines or the Army or the Navy, Air 
Force, out there.
    I'd like to turn to missile defense. You know, I think your 
testimony highlights the growing threat, the ICBM threat, 
whether it's from North Korea, whether it's from Iran--you 
know, even potentially with, you know, weapons of mass 
destruction in the future. Can you just comment on the role 
that Fort Greely plays in that, and how important it is to 
continue the focus, I think, which is a bipartisan focus here, 
on increased missile defense?
    Admiral Gortney. Absolutely.
    You know, the strategic location of Alaska cannot be 
overstated. Location, location, location. It's easier to deploy 
forces from, say, our F-22s that are based there around the 
world. They get wherever we need to put them quicker than, say, 
we launched them out of Langley. So, the strategic importance 
of Alaska can't be overstated. And, as a result of that, that's 
where the Missile Defense Agency decided to put the vast 
majority of our interceptors, up at Fort Greely, which we were 
just up there visiting about a month ago.
    We're on track. The first, which--the first missile field--
there's three missile fields, as you're aware--the first was a 
test and evaluation. They're refurbishing that. And by the end 
of '17, we'll have all 40 missiles up there, which brings our 
numbers to 44. There's nothing preventing us from getting there 
to maximize the investment that we've made for the 
effectiveness of our missile defense program.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to join our Chairman in thanking both of you for 
your distinguished service, but particularly, General Kelly, 
thank you for your candid and thoughtful and insightful 
remarks, but also for your and your family's service to our 
Nation, which, as the Chairman said so eloquently, should 
elicit our gratitude. And certainly members of the committee 
feel it.
    You mentioned the porousness of our borders and the 
efficiency of the network that can transport drugs and people 
into this country. As you may know, the Senate is now debating, 
with uncertain prospects, a bill that would provide greater 
assistance to the victims of human trafficking. And as a strong 
supporter and leading cosponsor of that measure, I'm very 
interested in what can be done by both of your commands in 
stopping the flow of women and children who are exploited for 
sex and slave labor. This kind of trafficking is modern 
slavery, in effect. And you've spoken very powerfully on the 
importance of human rights and the rule of law as it's been 
vindicated in Colombia. I wonder what can be done, in your 
view, in Central America, where the flow of both drugs and 
human trafficking has gone. In the wake of success in Colombia, 
perhaps you can give us your general comment on the trafficking 
issue.
    General Kelly. Thanks for the question, Senator. It's a 
really important one. And my answer is not a military one for 
sure; it's to give the people from that part of the world a 
reason to stay home. All of the polling and all the indicators 
are, they prefer to stay where their families are, where their 
culture is, where they're comfortable. But, without better 
human rights--and that is getting better in these countries--
without some access to economic well-being--and I think that is 
the key--without lowering of the violence, basically due to--to 
a large degree, to our drug consumption--and the countries are, 
in fact, getting their arms around that. It's controversial, in 
some respects, how they're doing it. But, the violence is going 
down. And the human rights--accusations of violations are not 
going up. And that's hugely important in the way they're doing 
business there. Again, we've sometimes, in our interagency, 
criticized the way people get at problems locally. The fact is, 
they're getting at the problems.
    But, really, the answer is, they won't leave if they can 
get a job and live a decent life. We know that.
    Senator Blumenthal. And, as you said, the solution isn't 
going to be exclusively military, although law enforcement is a 
part of it. And I think Senator Reed, in his remarks, made the 
point that sequestration in affecting the non-Department of 
Defense aid and functions in those areas is important in 
fighting the flow of human trafficking, as well. Is that 
correct?
    General Kelly. Yes, sir, it is.
    Senator Blumenthal. Admiral, I wonder if you, in your 
command, have any insights into stopping the flow of 
trafficking.
    Admiral Gortney. Yes, sir. We work very closely in the mil-
to-mil relationship with both Sedena and Semar, because they've 
been asked by their government to go after the--some of the 
internal challenges that they have. And so, we have been very, 
very effective. And in the last 24 to 36 months, a significant 
change and an increase in receptiveness and desire to partner 
with us and work with us and help them train to be more 
effective. And I just received and we've just started on a path 
to really assist their efforts on their southern border, 
because, as they said, ``If we fix our southern border, it'll 
help with so many challenges inside of our country.'' And 
that's why the impact of sequestration will cut back that 
ability--our ability, the amount of mil-to-mil training 
capacity that we'll be able to give them so that they can 
assist and make their country better.
    Senator Blumenthal. In effect, the result of sequestration 
is a kind of ripple effect that affects not only our military 
readiness, but also the impacts we can have on cultural and 
governance change for the better in these countries, that 
eventually effects us, because trafficking of drugs and slave 
labor across our borders affects our quality of life, as well.
    Admiral Gortney. Absolutely. It's a--as General Kelly said, 
this is a team sport. It requires unity of effort, whole of 
government, things we speak to infrequently but are just such a 
huge part of our--of how we deal with our partners to our 
southern border.
    Senator Blumenthal. My time is expired. I want to thank you 
both for your testimony here today. Thank you. And thank you 
for your service.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    And thank you very much, Admiral Gortney and General Kelly. 
We really appreciate your service to our country.
    I'm mindful of the ongoing search and rescue efforts in 
connection with the soldiers and marines who were involved in 
the helicopter crash off the coast of Florida in the last 2 
days. Our prayers go out to them and to their family members.
    General Kelly, you stated, last year, that the threats 
associated with the drug trade and with the flow of 
undocumented immigrants across our southern border presented an 
existential threat to the National security of the United 
States. I was wondering if I could just get--both of you--get 
each of you to tell the committee, in your opinion, what the 
greatest threats are to our National security in connection 
with this--that is, the greatest threats that exist as a result 
of an unsecure southern border, and how significant these 
threats are if we're not able to achieve a greater degree of 
control over who and what might be crossing our southern 
border.
    General Kelly. Well, sir, I would start with--I mean, 
there's many different threats against our country. And 
oftentimes we focus, certainly I'm--lectured repeatedly on--the 
threats that I concern myself most with are not, kind of, 
military threats, they're maybe law enforcement threats, 
they're immigration threats. But, you know, I am a problem-
solver, and I am tasked to try to protect the southern 
approaches to the United States. I don't just focus on military 
threats, because, frankly, from my part of the world, there's 
very few military threats. But, you know, on a--there's 40,000 
Americans that die every year from the drugs that move up 
through my part of the world into Bill's and then into our 
Homeland. 40,000 people a year. You know, since September 11, 
there's--half a million people have died from narcoterrorism, 
as we call it in--down where I live. Narcoterrorism. 500,000 
Americans have died. Very few have died from, you know, 
traditional terrorism, if you will, since September 11. It 
costs our country $200 billion a year to deal with the people 
that are into drugs but are not, you know, dying. So, I see 
that as a huge, huge, huge threat.
    And I'm--I won't just limit myself to worrying about 
traditional military threats, because, as Bill says, it's a 
team sport, and most of the--all of the law enforcement--the 
CIA, the DIA [Defense Intelligence Agency]--everyone's doing 
their part, but, at the end of the day, I'm not going to 
concern myself with, ``Look, General Kelly, it's not a military 
threat, so don't worry about it.'' That's why--I mean, 95 
percent of my activities in the course of the--of my time--all 
of my time--95 percent, I focus on nonmilitary things--
economics, human rights, developing relationships with 
presidents and ministers of defense to--and police chiefs in 
all of these countries, particularly the Central American 
countries, so I can move them in the direction of solving their 
problems, which will ultimately solve our problems.
    Senator Lee. Great.
    Admiral?
    Admiral Gortney. To add on exactly what John said, you 
know, these businesses that are moving product have outstripped 
the capacity of the Nations to our southern--from our southern 
border--their capacity to be able to handle these challenges. 
And that's why it requires the team effort from all of our 
elements of government to assist them to build their 
capacities, whether it's in a mil-to-mil capacity, which is 
what my responsibility is, whether it's a law enforcement, 
whether it's capacity-building in governance, in the judicial 
system. That's what has to occur. It just can't be focused 
exclusively on the military. It takes everything to deal with 
the challenges that these countries are being faced with.
    Senator Lee. Thank you.
    General Kelly, can you discuss the level in the recent 
trends and activity of Islamic terrorist organizations within 
the SOUTHCOM area of responsibility?
    General Kelly. I'm comfortable to say, Senator, that the 
Islamic extremist, you know, organizations are not very well 
entrenched in my part of the world. I don't see any direct 
terrorist threat right now. And I'm--you know, the people 
that'll look the hardest at this are CIA and FBI. So, I'm 
comfortable. But, there is a fair amount of activity by both 
Iran and recruiting, or at least attempts to recruit, by other 
Islamic extremist organizations. They're--we expect--or we 
calculate right now somewhere less than 100, but close to 100, 
young people that have left the Caribbean region, in 
particular, who now have gone to Syria to fight for the Islamic 
extremist organizations. And, of course, these small countries 
that don't have anything approaching our FBI or any of the law 
enforcement, they're extremely concerned about them coming 
back, as we are to our own country. And western Europe has the 
same concerns. The difference is, these small countries that 
I--that I'm describing have no real ability to deal with them. 
And, of course, if they come back, or when they come back, they 
can--they conduct operations in their own country or they can 
simply get on the network, ride up into our country, and do 
whatever someone tells them to do.
    Senator Lee. Because they're right at our backdoor.
    Thank you.
    Thank you both.
    Thank you, Mr. Chairman.
    Chairman McCain. Just to be clear about your answers to 
Senator Lee, is the southern border secure, or not secure?
    Admiral Gortney. The southern border can be more secure, as 
can the Mexican border be more secure.
    Chairman McCain. That's the only question I had.
    General?
    General Kelly. Sir, I think, with the amount of drugs and 
people that move across our southwest border, it doesn't seem 
all that secure to me.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Admiral Gortney, I want to thank you. In fact, I want to 
thank you both for your emphasis on the importance of the 
effect of sequestration on your commands and on your ability to 
carry out your responsibilities.
    As I talk to people at home, often I run into people to 
say, ``Well, sequestration is not such a big deal. It's only 2 
percent of the Federal budget.'' What people don't realize is, 
two-thirds of the Federal budget isn't subject to 
sequestration. So, what it really amounts to, in your case, is 
about a 10-percent cut, which is very significant. Two percent 
of one-third, you end up with about a 10-percent cut. And 
that's what you're facing.
    The other thing that I think we have to realize around 
here--everybody's worried about sequestration. In talking to my 
colleagues, the solutions are not easy, and we have to keep in 
front of us the danger of sequestration. When we're talking 
about the solutions, finding other alternatives to replace it 
are--there's no low-hanging fruit, here. It's going to be 
difficult. But, I'm very happy to have your testimony, this 
morning, which underlines for this committee and for the 
country how serious a threat this is to our National security.
    Admiral Gortney, if--with regard to your responsibilities 
in the Arctic, is--would it be in the National interest for 
this country to accede to the Law of the Sea Treaty?
    Admiral Gortney. Yes, sir. The Department of Defense, the 
Chief of Naval Operations, and myself are all in agreement that 
we should accede. It would--especially as we take on the role 
as a lead for the Arctic Council, it would give us a better 
strength, a better position of strength as we negotiate through 
there.
    Senator King. And, as I understand it, it's actually 
compromised--our failure to be a member of that treaty is 
actually compromising our ability, for example, to stake claims 
to where the Continental Shelf is and those kinds of things.
    Admiral Gortney. That's one of the reasons why we feel it's 
a--it would be a good idea to accede.
    Senator King. General Kelly, you agree with that?
    General Kelly. I don't have a lot of experience, in my part 
of the world, with the treaty and the issues related to the 
treaty, but certainly, in my broader opinion, I agree with Bill 
exactly, yes, sir.
    Senator King. Thank you.
    General Kelly, you talked--it was kind of amazing----
    Well, first, let me say, I really appreciate your comments 
about the CIA, because I've--I--as I travel, and as a member of 
the Intelligence Committee, I generally meet with CIA personnel 
around the world, and I have found them to be uniformly 
patriotic, intelligent, passionate about their work on behalf 
of this country. And, as you mentioned, they live in a 
dangerous world. There are places in the world where, if they--
they can--you know, it's a danger to go outside and have lunch 
downtown. And I think it's very important to recognize these 
people that don't get recognition generally, and I really 
appreciate the statement that you've made.
    You talked about Colombia as a model partner. And I had to 
think, you know, 15-20 years ago, we wouldn't have been saying 
that. And in--we're dealing with so many unstable regimes 
around the world. How do we replicate what happened in 
Colombia? What are the steps that they took in order to take 
their country back, if you will, from the chaos that they were 
in 20 years ago?
    General Kelly. Well, sir, they--when you're looking over 
the abyss--and it's a long way down--you have kind of a--you 
know, a come-to-God point, I think, and you make--you have to 
make some decisions. And they made those decisions. And really 
Plan Colombia, such as it was--very, very successful--really 
started on this side of the hill, I think, and--but, certainly 
it started in the Congress.
    And there's a real misconception about what--in some 
places, about what Plan Colombia was. We gave--our money was 4 
cents on the dollar, as to what the Colombians contributed. So, 
we didn't bankroll it. A lot of think--I have people tell me 
that, ``We shouldn't put boots on the ground like we did in 
Colombia.'' We didn't put boots on the ground. They did all 
their own fighting, they did their own dying. And, while they 
were committed--or, making these commitments, they made social 
changes. Their elites were taxed and had to make a commitment 
to Plan Colombia. It is a remarkable reorientation of their 
society that they had to conduct.
    And, frankly, the good-news story there is that what we're 
doing in Central America now--because they face similar 
problems; they're in the abyss, they're about to be failed 
states--so, the Colombians--I just was down in Colombia, I met 
with the President and the Minister of Defense, and we talked 
about this at length--but, I've brought the Colombians up to 
have seminars, to Miami, and invited all of the senior-most 
officials of the three countries that I'm particularly 
concerned with--Guatemala, el Salvador, and Honduras. And a 
daylong seminar is to--``This is where my country, Colombia, 
was, 20 years ago. This is how close we were to being a failed 
narco state. These are the decisions we had to make. And, oh, 
by the way, they're exactly the decisions you have to make. You 
have to redo your tax codes. You have to get your own wealthy 
people investing--instead of investing in Miami, in high-end 
South Beach real estate, to invest in your own country,'' these 
kind of things. We've done that twice now, focusing, the second 
time, on economics. And I'm going to do another one in--with 
all three presidents and their teams coming up in Miami to do a 
higher-level economic development conference. As I say, 95 
percent of my efforts are not military. It's economic 
development.
    Senator King. And, as you testified earlier, that's the key 
to stopping the flow of illegal immigrants into this country, 
is to make their countries more attractive places to live. And, 
in fact, that's happened with Mexico, hasn't it? Don't we--
isn't it a net-zero immigration from Mexico at this point?
    General Kelly. As I understand, it is net-zero, and it is 
because of the economy in Mexico.
    Senator King. Thank you, General.
    Thank you.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Admiral, General.
    It was a pleasure to meet with you the other day, General. 
I thank you for your time and attention, and thank both of you 
for your testimony today.
    Of course, I've shared with many folks that I am a very 
proud member of the Iowa Army National Guard. And our members 
have been very involved in a number of SOUTHCOM's missions, 
whether it's counterdrug, security missions--I had an MP 
detachment that served in Honduras as part of their security 
mission--but, we also have National Guard members from all over 
the United States that serve in Guantanamo Bay at the Detainee 
Center. And unfortunately, a lot of folks will want to 
politicize Guantanamo Bay, or, as we all it, ``Gitmo.'' But, 
I'm very proud of the service that is given there, and I 
believe it is a very important mission. I believe that this is 
vital to our National interests, to keep these terrorists at 
Guantanamo Bay.
    So, General Kelly, if you would, if you could describe the 
treatment that our citizen soldiers, or those that work at the 
Detainment Center, receive from the inmates. And if you could 
also describe, just in your own words or your personal thoughts 
based on your experiences, whether you think that these 
terrorists that are housed there--do you think that they would 
return to the fight if they were released?
    General Kelly. Well, maybe--thanks for the question, 
Senator. I think the--I'll take the first part--the second part 
first and just simply say there's--and again, I don't track 
these kind of things. I'm not responsible to track these kind 
of things. But, I think the--the best estimate on about how 
many of them return to the fight is about 30--30 percent. So, 
it's a fair number. We know for sure something in the 
neighborhood of about 18 percent have. With the kind of 
intelligence people, CIA and others, their estimate is about 30 
percent. So, they do return to the fight. Less so recently, 
but, of course, the more recent detainees that have been 
released, they've got plenty--you know, they've got plenty of 
time to get back in the fight if they want to. But, for right 
now, in the most recent detainee transfers or releases, we 
don't see any of them going back. But, again, they've just been 
released.
    As far as the treatment goes--first, as the Chairman said 
at the beginning, the troops down there that guard--that do the 
detention, that carry out the mission--I mean, we do exactly 
what the President of the United States tasked us to do, and it 
goes from the President to SECDEF [Secretary of Defense] to me 
to GTMO. And you'll see it when you go down there on Friday. 
The detainees are treated very, very, very well. Their medical 
care is excellent. Their--they're treated humanely, with 
dignity, all of that.
    Now, if they cross the line, they're disciplined--they're 
treated firmly, with minimum use of force. And there's a 
percentage of them down there that we have to--that are pretty 
abusive to my guys and gals down there. I won't go into what 
``splashing'' is, but it's pretty vile stuff. They'll tell you 
all about it. Physical assaults.
    But, at the end of the day, you know, we're the good guys, 
they're not. We carry out the mission that the President gives 
us. And all of the human rights groups that go down there give 
us very, very high marks on how that's done. And again, we can 
decide--talk to policy, which I'm not into; but, at the end of 
the day, it's a very, very important mission to this country, 
and it's done superbly well by the men and women that are down 
there.
    Senator Ernst. Thank you very much, General.
    We also did discuss the State Partnership Program the other 
day during our discussion. And I do feel that this is a very 
important program for many of our National Guards. Currently, 
we are involved in a State Partnership Program with Kosovo. I 
know other States are involved with a number of countries. If 
you would please, in your own words, just describe how 
important you believe this program to be.
    General Kelly. Yeah. The Partnership Program is very, very 
high impact and very, very low cost. And what I have seen over 
my years in working with other countries, whether in the part 
of the world I'm in now or in the Central Command area, you 
know, in--among the Arab countries, it's our example that 
they--that catches their attention. The fact that men and women 
are--come down from Iowa or wherever and work together.
    You know, the role--or the status of women in many of these 
countries is very low. Yet, they see American units come by, 
come down, and men and women working together; in many, many 
cases, women actually in command of the unit, the small unit 
that comes down. That's startling to them.
    And I think, over time, that is what changes these 
countries for the better, how--just working alongside American 
servicemen and -women, and really, just as importantly, 
Homeland Security men and women that are sprinkled around the 
world--FBI, DEA, at--our good example is what changes these 
countries over time. Where we touch, they notice, they take 
notice, and then they change. We have very, very positive 
effect on these societies.
    Senator Ernst. I appreciate that so much.
    And I do want to take the time to thank all of the staff 
members that join us here today for the testimony. Lots of 
great servicemembers come out of the IOS. So, thank you, 
Sergeant Major, very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thanks, to you both.
    I want to offer a thank you and then two questions. So, on 
the thank you side, you each helped prepared Senator Cornyn and 
I for our recent visit to Mexico, Honduras, and Colombia. And 
it was a very successful visit. We saw evidence of what you had 
said, Admiral Gortney, the increasing mil-to-mil cooperation 
between the United States and Mexico that's very laudable. We 
went to Honduras, General Kelly, at your request, to meet with 
President Hernandez. Our Ambassador, when we landed, first took 
us to a neighborhood that he said, ``I'm now going to take you 
to the most dangerous neighborhood in the most dangerous city 
in the most dangerous country in the world,'' the Chermelecon 
neighborhood in San Pedro Sula. But, we saw USAID [United 
States Agency for International Development] projects in that 
very dangerous neighborhood that are helping folks, visited 
your--some of your folks at JTF-Bravo at Soto Cano, and then 
had a chance to talk to the President about the proposed 
budgetary investment in the region. And then, finally, in 
Colombia, we went out to Tolemaida and saw the U.S. and 
Colombian military, together, talk about the progress that 
they've made in helping turn the failed state into a reliable 
ally of the United States. And it was remarkable.
    I saw all the challenges that you've testified to and that 
my colleagues have asked you about, and I think you've done a 
good job at responding to those. But--and I came back mindful 
of challenges, but I also came back thinking of some upside 
opportunities if we get it right. If we get it right. And I 
want to ask you about that.
    Senator McCain, in his opening comments, kind of talked 
about, ``We don't necessarily pay that much attention to the 
region, as we do other places, and more sustained effort could 
be helpful.'' What I came away from our trip thinking is, of 
the deep cultural connections that we have in this 36 nations 
in the Americas, from Canada to Patagonia, where all this 
mixture of an indigenous culture that has welcomed European, 
African, and Asian immigration--in that mix is a common 
feature, north to south. We all call ourselves Americans--
North, Central, or South. We are all Americans. There is a 
growing middle class in these nations, and growing economic 
prospects, and growing trade. The most significant number of 
free trade agreements that the United States has is with 
nations in the Americas.
    There is the prospect for no war in the Americas, maybe for 
the first time in history, and certainly in a very different 
way than any other continent. The peace negotiation between the 
Colombian government and the FARC [Revolutionary Armed Forces 
of Colombia], if it reaches a successful point in the sort of 
final chapter, could make us two continents, with millions of 
challenges, but two continents without a war, when you can't 
say the same thing about Europe, you can't say the same thing 
about Africa, you can't say the same thing about Asia.
    And so, I really see some opportunities for an Americas, a 
billion people strong, with cultural ties, with trade ties, 
with better and better military ties, even in the midst of all 
these challenges, which are real. And I just wanted to ask you, 
Do you have that same sense of--there are really upside 
opportunities in both of your areas of responsibility if we pay 
persistent attention, rather than episodic attention, sort of 
across all of government?
    General Kelly. Couldn't agree more, Senator. The one 
thing--my takeaway in the part of the world I work in, with the 
exception--with very few exceptions--you know, the people that 
didn't get the memo about, you know, human rights and things 
like that--Venezuela is an example--the vast majority of the 
continent, all the way down to Patagonia, as you say, they want 
to be best friends with the United States, they want to partner 
with us economically, socially. I mean, it's--they very, very--
and they're disappointed that we pay so little attention to 
them.
    Now, there are some competitors. You know, the Chinese are 
very heavily involved, in terms of economics and things like 
that. The Russians in--much less. But, they're, you know, 
competitors, in a way. But, the frustration that the countries 
have is, they would rather deal with us on a--on the very 
issues they deal with China and Russia on, but we sometimes 
just show a lack of interest. But, they want to partner with 
us, and they love the fact that the United States no longer 
comes down carrying a big stick, but, rather, equal partners. 
And an awful lot of that good feeling comes as a direct result, 
I think, of the men and women out of the command that I 
command, and how much time and effort they put in, in 
partnering across the region.
    Senator Kaine. Admiral Gortney?
    Admiral Gortney. I'll echo what John said. You know, our 
partners know that we are a really great nation, and we're with 
them for the long haul. We may have some ups and downs, like 
most relationships, but we'll be there, we're stable, and we'll 
be there with them for the long haul. So, a little bit of 
investment of a--a little bit more investment of our time and 
energy from all the elements of our government will go a long 
way, because they need our help. Some--they have some immense 
challenges out there.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service and for being 
here today.
    Admiral, in your prepared testimony, you discuss the 
growing threat that's posed by cruise missiles, to the United 
States; and you say that Russia is progressing towards its goal 
of deploying long-range conventionally-armed cruise missiles, 
and, if that trend continues, that, over time, NORAD [North 
American Aerospace Defense Command] is going to face increased 
risks in its ability to defend North America. Does the budget 
support your plans for the cruise-missile defense that we need 
for this country?
    Admiral Gortney. Provided we're given the account that the 
Department has asked for, I think we'll be on a good path. When 
it comes to the particular cruise-missile threat, you know, 
we're experimenting with JLENS [Joint Land Attack Cruise 
Missile Defense Elevated Netted Sensor System], up at Aberdeen. 
That shows great promise. It's not without challenges any test 
program is going to have, but--there's a lot of air traffic up 
there. And to be able to integrate that into the rest of our 
architecture, to include our Aegis ships that will be off of 
our coast, so that we can deal with the leakers--you know, I've 
been in the cruise-missile threat since I was a lieutenant JG, 
and I've shot over 1300 of them, so I know how effective they 
are, and I know how hard they are to defeat. And it really 
requires us to have a layered approach that we--it's more 
effective--it's only effective if we get the archer and not 
just deal with the arrows, and have the ability to reach deep 
to get the cruise-missile shooter so that we're only dealing 
with a few of the leakers out here.
    The long-range aviation--Russian long-range aviation, it's 
a pretty significant increase in numbers. And what concerns me 
more are two things. It's the--where they're flying, even 
through the English--down the English Channel--it's where 
they're flying that has not been what they have done in the 
past, even back with the Soviet Union. And the development of 
the cruise missiles that they have, that have a very long 
range, that--from the Russian--from eastern Russia, they can 
range critical infrastructure in Alaska and in Canada that we 
rely on for our homeland defense mission. So, we have to look 
at this in a more expansive manner. But, if we have the 
investments that we've asked for, we'll be able to outpace that 
technology.
    Senator Fischer. And so, also in this year's budget, when 
we look at those investments in the next-generation defense 
technology, which I support--I think it's needed, and I support 
it strongly--I am concerned, though, that those capabilities 
are not going to be deployed anytime soon. I believe it will be 
in the next decade, at the earliest. Do you have concerns with 
that, as well? Are you satisfied with that timeline, or are you 
just, I guess, accepting of that timeline?
    Admiral Gortney. Well, there's--as a military officer, 
we'll take capability earlier than later any day. And--but, for 
the necessary investments, as the technology is advancing, I'm 
satisfied with where we are.
    Senator Fischer. Okay, good to hear.
    With your cyberspace mission, you state that it would be 
rather simplistic to assume that a large-scale cyberattack on 
the Nation's infrastructure would somehow not impact both us 
and our partners' ability to successfully perform the DSCA 
[Defense Security Cooperation Agency] mission, the support that 
we give to our civil authorities. And it makes strategic sense 
to consider the steps that could be taken to mitigate or 
prevent those types of attacks. Can you elaborate a little bit 
on that statement that you made?
    Admiral Gortney. Yes, ma'am. My assigned responsibility is 
to defend my own networks and to help the lead Federal agency 
in the defense support for civil authorities. But, effectively, 
it can be a mission kill. We are very reliant on critical 
infrastructure--held by the private and public--but critical 
infrastructure in order for us to defend the Nation. A 
cyberattack in Ottawa would take out the northeast quadrant of 
our air-defense sector. It would be, effectively, a mission 
kill. So, not only would it affect me to be able to do my 
mission, more--quite frankly, more importantly, we, as a 
Nation, rely on this same infrastructure for us to operate, 
whether it's banking, rail, aviation, power, movement of water. 
All of these things have critical infrastructure that we must 
have, and they need to be hardened against an adversary.
    Senator Fischer. Can you give us, specifically, some of the 
steps that you would recommend we take so that we can look 
towards that prevention when it comes to our cyber?
    Admiral Gortney. Well, ma'am, this is out of my league, as 
the technical aspects, I'm going to defer to my good friend, 
Mike Rogers, at DSCA. He's--he really understands it. I don't 
know a switch from a router.
    But, the real issue comes down--is from you all. It 
requires law and policy that are very difficult for us to come 
across as a nation. Some--it's privacy--some privacy concerns, 
some things that you might even say cross the Bill of Rights, 
many of the same issues that we had before 9/11. And, as a 
result of 9/11, we passed new laws and got new policy that gave 
us the ability to better protect our Nation. And I would hope 
that it wouldn't take a cyber 9/11 or a cyber Pearl Harbor for 
us to finally realize we need to do that sort of thing. And you 
all have done--you have taken great strides, and we're grateful 
for that. And we need to continue that momentum.
    Senator Fischer. And do you think that it is imperative 
that the government be able to share some information with 
private businesses, and private businesses also share that 
information with each other, so that we can look more towards 
defense, deterrence, and, if necessary, offensive use of our 
capabilities?
    Admiral Gortney. Yes, ma'am. And I'm really focused on the 
defense. You don't transmit until you're ready to receive. And 
we need to shore up that defense.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    And thank you both for your testimony here today, and your 
service.
    I want to continue Senator Fischer's questions about 
cybersecurity. Cyberattacks against the homeland are growing as 
a threat to U.S. infrastructure, business, and defense. A 
critical mission of NORTHCOM is to coordinate the response to 
attacks on the homeland with the Department of Homeland 
Security. Admiral Rogers told our colleagues on the House side 
that the Obama administration isn't where it needs to be yet in 
planning the coordination between the military and civilian 
agencies' response to a major cyberattack. How would you assess 
the coordination between NORTHCOM and DHS?
    Admiral Gortney. We're supporting the DHS in that regard, 
predominantly in the aftermath of the event, in my defense 
support for civil authorities. The difficulty that they have 
are exactly what we were just discussing. It goes to the laws 
that we need as a Nation so that then DHS has the authorities 
they need to be able to better defend our Nation in that 
regard.
    Senator Gillibrand. From your perspective, how is the 
overall coordination between Federal, State, and local 
governments, and how, beyond what you've suggested, do you 
think we could improve?
    Admiral Gortney. Federal, local, and--we just--just a 
couple of weeks ago, we met with the Council of Governors 
within DOD. And I'm a member of that particular board in my 
capacity as Northern Command. And we have a long way to go to 
sharing information. We're doing a pretty good job sharing gov-
to-gov, from local/State to Homeland Security. The challenges, 
we're working our way through. Homeland Security is working 
their way through, sharing private-to-Homeland Security. But, 
there are even some reasons why private can't talk to State and 
local. And so, it's expanding those authorities that are 
required to better communicate, to better defend.
    Senator Gillibrand. I'd now like to turn to your Arctic 
mission. Obviously, NORTHCOM plays an integral role in the 
Arctic. How important are international cooperative agreements 
and partnerships such as Tri-Command Framework for Arctic 
Cooperation for U.S. NORTHCOM's success in the Arctic?
    Admiral Gortney. Absolutely critical. You know, it's a 
very, very difficult place to navigate, communicate, and 
sustain ourselves. And so, those partnerships that we can share 
capability and capacity, as we do with Canada through the NORAD 
role, cannot be overstated.
    Senator Gillibrand. New York's 109th Airlift Wing is home 
to the only LC-130 Skibirds in the U.S. Air Force. Their unique 
ability to provide airlift on snow and ice has made them 
valuable resource to the National Science Foundation, 
supporting science missions in Greenland and Antarctica. Last 
year, the unit showed the full range of their capabilities by 
successfully supporting exercises with the Canadian military in 
the Arctic. Based on the current types of threats you see in 
the Arctic, how important is this type of airlift capability to 
the future success of the NORTHCOM?
    Admiral Gortney. Absolutely critical. Once again, it goes 
to, How are we going to navigate, communicate, sustain 
ourselves, and the C-130s with skids, our helicopters with 
skids from our other Guard outfits to help us out there, 
absolutely critical.
    Senator Gillibrand. I've read a lot of recent articles 
about sort of--some sort of rush to use the Arctic for natural 
resources, for other leverage. Do you think we need more of 
this particular capability or other capabilities in the future 
as our Arctic presence increases?
    Admiral Gortney. I do. And that's why, as I'm working on 
our--``Arctic Way Ahead'' is the atticad for the Arctic that 
will be addressing those issues, and I'll have that out in the 
spring.
    Senator Gillibrand. Thank you.
    My last question, for General Kelly, is: Specifically, what 
is your assessment with regard to Iran's role in the SOUTHCOM 
area of operation?
    General Kelly. Senator, the Iranians have, over the last 
decade or so, been increasing the number of embassies, as an 
example, in the region. I think they've tripled the number of 
embassies. They've opened what they call ``cultural centers'' 
to--you know, trying to--try to garner support, in terms of 
their country, and certainly to try to circumvent the 
sanctions, I think. But, the point is, they've opened up these 
cultural centers. And, you know, frankly, I don't see a lot of 
similarity between the Latin culture and the Iranian culture, 
for sure. I'm a little bit suspicious of these--of this 
activity, just because there is such a vast different--
difference between the two countries--or the two regions, two 
cultures. So, we keep an--we keep a watchful eye on them.
    You know, there's a fair amount of concern about, you know, 
local Jewish communities in Latin America, of which there are 
many, actually. You know, I'm sure the Senator knows about the 
issue in the '90s, the 85 deaths that were--that took place in 
the Jewish Community Center there in Buenos Aires. So, we keep 
a close eye on that. They're generally a country that, whatever 
they're up to, it's--generally, they're up to no good, and we 
have to watch them closely.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for your service and 
for your time here today.
    I have two say, General Kelly, I agree with your statement 
that there doesn't seem to be all that many similarities 
between Latin American culture and Persian culture. I would 
also like to point out that Iran has been implicated in the 
murders of many Jews in South Africa and Argentina. The 
investigator, which mysteriously turned up dead a few weeks 
ago.
    And, Admiral Gortney, I'd just like to highlight in your 
testimony on page 6, that you say Iran recently launched 
another satellite into orbit and, quote, ``Despite 
international condemnation and sanctions, Iran has failed to 
cooperate fully with the International Atomic Energy Agency to 
resolve all outstanding concerns regarding its nuclear program, 
particularly those concerning its possible military 
dimensions,'' end quote. So, before we even reach any further 
deal with Iran, Iran is already not living up to its 
obligations under multiple U.N. Security Council Resolutions.
    But, now I'd like to turn to Russia. General Kelly, on page 
8 of your written testimony, you say, quote, ``Under President 
Putin, we have seen a clear return to cold war tactics,'' end 
quote. Could you please elaborate on what you mean, 
specifically in your AOR?
    General Kelly. Well, yes, Senator.
    For a number of years, we saw almost no real activity of 
any kind from the Russians. And just in the last couple of 
years, there's been some long-range bomber missions, they 
deployed a small task force of warships to the Caribbean, made 
various stops in, you know, countries like Cuba, Venezuela, and 
Nicaragua.
    They're, you know, from my perspective, really a nuisance, 
but they seem to be ratcheting up their kind of in-your-face 
``We can go anywhere we want, and we have friends around the 
globe.'' We know that they're in discussions, not to open 
bases, but to have, you know, agreements to where they can 
either bring ships to refuel and--or aircraft to land and 
refuel. So----
    But, as I say, they're more of a nuisance, but they're 
really up to, I think, just kind of making their point that 
they can go anywhere they want and challenge us in various 
ways.
    There's also a pretty steady stream of electronic warfare 
collection vessels that, you know, ply the waters of the 
Caribbean in the Atlantic--our Atlantic coast. And 
periodically, you know, they'll stop and get fuel, as I say, or 
pull liberty in some of the countries that they're friendliest 
with.
    Senator Cotton. Admiral Gortney, could--would you share 
your perspective on growing Russian influence and activity in 
your AOR?
    Admiral Gortney. Absolutely, sir.
    You know, qualitatively, the Russians are--have developed a 
better military than the quantitative military of the Soviet 
Union. And they're--and they've also developed a new doctrine, 
and we're seeing that military and that doctrine playing out in 
the Ukraine.
    In the homelands, we're seeing them use that better 
military with long-range aviation and the deployment of their 
submarines and of the collection vessels that John was taken 
about.
    So, what bothers me is the intent. What is their intent? 
They're clearly messaging us. That's--we do that, as well. But, 
what is the intent as they employ that doctrine through the 
spectrum of conflict? That's what concerns me.
    Senator Cotton. And now this is a question for both of you. 
If the United States proceeds with the sequestration cuts to 
our defense budget, would you expect to see Russian influence 
and activity in the western hemisphere continue to grow or 
decrease?
    Admiral Gortney. I think any opponent will seize an 
opportunity when they see it. And I think that that's exactly 
what would happen.
    General Kelly. I agree, sir. And the sequestration thing, 
again, is--the--what our partners around the world are looking 
at is this kind of almost withdrawal of our leadership role, 
depending on what part of the world and who you're talking to. 
But, to take away the ability to partner with nations, to do 
deployments, to--would really, really, I think, send a shock 
wave through many of the countries that we're--that are--that 
most--that we're most aligned with and allied with. I know, in 
my part of the world, they're already very, very concerned at 
the limited amount of engagement that already takes place.
    Senator Cotton. So, let me get this straight. Twenty-five 
years after the collapse of the Soviet Union, 50 years after 
the Cuban missile crisis, 200 years after the Monroe Doctrine, 
your opinion is that, if this Congress proceeds with the 
sequestration cuts to our defense, we will see continued and 
growing Russian adventurism in the western hemisphere. Admiral 
Gortney, yes or no?
    Admiral Gortney. I would agree with that.
    Senator Cotton. General Kelly?
    General Kelly. Yes, sir.
    Senator Cotton. Thank you.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for you being here and for your service 
to the country. I apologize for missing the--your remarks. 
Unfortunately, there are too many things going on at one time, 
which I know you appreciate.
    General Kelly, last year during the crisis on the southern 
border with unaccompanied minors, you gave a briefing to a 
number of Senators. And one of the things you talked about is 
the impact of cutbacks on your ability to address drug 
interdiction and interdiction of illegals coming across the 
border. Can you talk a little bit about that here and what the 
impact of these budget cuts have had on your ability to address 
those issues?
    General Kelly. Yes, Senator.
    As far as the interdiction of drugs go--and we've talked 
about it a little bit here in the hearing, previously--it's 
all--in my world, it's all about having an ability to see them, 
detection and monitoring. That's really my mission. And then I 
work closely with law enforcement, particularly Coast Guard, to 
do the final interdiction phase.
    The interdiction phase really takes ships or cutters that 
you can fly a--or some vessel that you can fly a helicopter 
from. Last year, we interdicted 158--collectively, we 
interdicted 158 metric tons of cocaine, with no violence. Once 
it gets ashore--and that's the key--once it gets ashore in 
Central America and moves up through Mexico, we're taking 
almost nothing off the market, and the violence is 
unbelievable. More ships, more cutters means more cocaine.
    You're never going to get to the point of going--you know, 
stopping it all. That includes heroin and methamphetamine. 
Again, all that comes up through the network that runs through 
my zone and into Bill's. You're never going to stop it all. 
But, the key--what you're trying to do is drive down 
availability and drive up price, and then people--less people 
won't start toying around with drugs and get--you know, get 
hooked on drugs and all that kind of thing.
    And you weren't here, but, you know, 40,000 Americans a 
year die from drugs. It costs our country $200 billion a year, 
and then all the human misery that goes with that. So, that's 
kind of the--more vessels that I can fly helicopters from.
    Another option, and something I'm doing more and more of, 
is--that is working with the department of militaries, 
particularly in Central America--moving their militaries away 
from the internal parts of their country to the--recommending 
that they move to the borders, and then work together with 
border--with their neighbors, north/south, to include Mexico, 
in--to try to--you know, this year, in fact, the Hondurans, for 
the first time, I think, in history, interdicted multiple tons 
of cocaine, a lot of it because of how we recommended they go 
about their business.
    So, the partners have ponied up to this in a big way, 
because they see it as--much of it is because their countries 
are in the conditions they're in because of the drug 
trafficking.
    Senator Shaheen. And how is--how important is it to those 
countries in Central America to have--to be able to see us as a 
strong partner in those efforts? And what will be the impact of 
further cuts on our ability to do that?
    General Kelly. Well, the--they see us, as I mentioned just 
a few minutes ago--they want to be partnering with us, they 
want to trade with us, they want to interact with us, they want 
our help, our investment--a better way to put it. And if we 
walk away--frankly, if we walk away--if we reduce any more of 
what I'm doing in Latin America, it'll be--it'll go to zero. I 
mean, we're doing so little now, and we could do so much more 
with just a little bit more.
    Senator Shaheen. Well, we certainly appreciate that in New 
Hampshire and northern New England, where we've seen a real 
epidemic of heroin and drug abuse and deaths from heroin 
overdoses. So, we very much appreciate that.
    Can I also ask--and again, you may have covered this--but, 
are you seeing terrorists from other parts of the world 
exploiting the smuggling routes that are used by organized 
crime?
    General Kelly. That's actually a great question, Senator. 
We are beginning to see a real convergence of the two. We know, 
as an--the biggest problem these traffickers have is not 
getting drugs and things into the United States. The biggest 
problem they have is laundering the $85 billion of illicitly-
gained funds. And we know, to one degree or another, that there 
are Lebanese Hezbollah associates that are helping launder some 
of that money. And we don't know exactly how much they're 
taking as a fee, but we know it's an awful lot--tens of 
millions of dollars, for sure.
    Senator Shaheen. And do we know what banks they're using to 
launder? Is it Lebanese banks?
    General Kelly. There are connections with the Lebanese 
banks back in Lebanon. And beyond that, I'm over my head. 
We'd--you'd have to get Treasury in here to talk about it. But, 
they're very aggressive. Our Treasury Department, very 
aggressive, and increasingly so, going after this issue. Yes, 
ma'am.
    Senator Shaheen. My time is up, but thank you both.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. I want to thank the Chairman.
    I want to thank both of you for your leadership and what 
you do for our country.
    I wanted to ask you, General Kelly--I note, in your 
prepared statement, the superb work done by our guards and 
medical force at Guantanamo. And I wanted to follow up and ask 
you about an article I had read in the New York Times about a 
court order that was not allowing female--certain female guards 
to do all the same functions as men at Guantanamo, which 
obviously--to me, strikes me as somewhat unusual, because I 
don't think we would find that in other prison-type settings. 
So, could you tell me a little bit about that and what's 
happening? And if there's a specific group of detainees that 
has generated this court order, who are they and why are they 
there?
    General Kelly. Yes, Senator. This issue on the women--and 
you're exactly right, I have court orders against using women, 
because they are women, with certain detainees--the high-value 
detainees. But, this is really just a series of--they 
manipulate us. They're experts at manipulating us, them and 
their proponents. This is just a series. You know, 2 years ago, 
it was Koran desecration, which we don't do, and they had 
motions in the courts, and we got past that. Then it was how we 
search them, that we were searching their genitals, which we 
don't search that way. And right--you know, the temperature in 
the cells, the noise in the cells. And this is just one of a 
series.
    I mean, frankly, we're dealing with women now. We have two 
orders from two different judges, in the Commission side, to 
not use women, because they were women, because the high-value 
detainees felt it was against their religion, which anyone that 
knows anything about the Muslim religion knows that it's not 
against their religion. But, the point is, they're--you know, 
we had women restricted from doing the jobs they're trained to 
do----
    Senator Ayotte. And who--you know, give us a sense of who 
some of these high-level detainees who have brought this action 
to prevent women guards, who, by the way, we're very proud of--
--
    General Kelly. Yeah.
    Senator Ayotte.--are doing great work at----
    General Kelly. Well, certainly the----
    Senator Ayotte.--Guantanamo?
    General Kelly.--the September 11 five.
    Senator Ayotte. So, the September 11 five----
    General Kelly. Right.
    Senator Ayotte.--want to tell us that our women--that women 
who serve our country can't guard them?
    General Kelly. That's exactly right. And then the Cole 
bomber.
    Senator Ayotte. And the Cole bomber.
    General Kelly. The Cole bomber. And the expectation is, 
once we get through this--we have two judges, two court orders. 
One has been lifted, the other one is still under 
consideration. And, as soon as this is over, it'll be, ``We 
don't want to be touched by Jews,'' or ``We don't want to be 
touched by, you know, black soldiers,'' or ``We don't want to 
be touched by Roman Catholics.'' It's just a series. It's 
beyond me why we even consider some of these requests, but I'm 
not a lawyer, I'm not smart enough to figure this out.
    Senator Ayotte. Well, it's beyond me, too, because I think 
they'll find that, in the United States of America, we believe 
very firmly in equality for women. And so, to me this is just 
absurd that we're even entertaining these challenges.
    But, I want to commend the women guards at Guantanamo. And 
I know that you're every bit as good. And, you know, when the 
9/11 attackers don't want women guarding them, it's absurd, and 
I don't think we should be accommodating that.
    So, please say thank you, for me, and that we support them 
fully.
    General Kelly. Sure will.
    Senator Ayotte. I also wanted to follow up on the recent 
transfers from Guantanamo to Uruguay and just ask you--I 
understand there were a number of transfers made there in 
December. And can you tell me whether you have any concerns 
about the resettlement of these detainees in Uruguay? And I did 
see public reports that one of them actually left Uruguay 
already and went to Argentina. And can you help me understand 
how we're keeping tabs on these folks?
    General Kelly. I can tell you that--first, I'm not in any 
way involved with the decision to transfer them. That's all 
done by an interagency group. And I'm not privy at all to the 
agreements that may or may not be made with countries that 
receive these guys. Sometimes--the Algerians, as an example, 
the Saudis, very specifically, when they take control of these 
guys, they put them in a setting that is very, very 
restrictive. It's my understanding, probably from reading the 
same open press reports, that the--in particular, the Uruguayan 
President, who said, once they arrived, that they are free men, 
and that there are very few restrictions on them.
    At a--there's another concern I have, that I cannot talk in 
an open setting like this, about some of their activities; the 
Uruguayans, in particular. But, you know, generally speaking, 
if you believe the newspaper reports, some of them want to come 
back to Guantanamo, because they're not living the lifestyle 
they thought they would lead in Uruguay. It was kind of an 
interesting twist.
    But, again, I'm concerned somewhat about their activities, 
but it's really not part of my responsibility to track them at 
all.
    Senator Ayotte. Well, I would like to follow up, certainly 
offline, about some of the concerns that you may have about 
Uruguay so that we can understand that.
    And I just want to thank both of you for your tremendous 
service to the country.
    Chairman McCain. Senator King has a additional comment.
    Senator King. Just--no, just a quick question for General 
Kelly.
    You've talked several times about the sophistication of 
this network that's moving, principally, drugs in and out of 
the country. Do you have any specificity on where they 
penetrate the border? Is it in a particular area? Is it by 
land, sea? What's the--how do they make it through? I guess, 
Admiral, your jurisdiction, but either of you. I'm interested 
in more specificity about where they come through.
    General Kelly. I'll push it to the Admiral, but the answer 
is ``everywhere you can imagine.''
    Chairman McCain. Isn't--could I interrupt? Isn't the answer 
also, it's like squeezing a balloon? And right now the Arizona-
Mexico border is one of the major transshipment points. One 
reason is because we have mountains that--they come right up 
and actually station guides on the mountains to lead them 
forward.
    I didn't mean to interrupt, but right now the Tucson sector 
of the Arizona-Mexico border is one of the most heavily 
trafficked, I'm sorry to say. But, it--but, please respond, 
both of you.
    Admiral Gortney. Chairman, that's exactly right. Part of 
the challenge of--John and his predecessor's success in the 
maritime pushed it up through the peninsula. And so, as we--
wherever we squeeze, we've got to squeeze equally on the 
balloon. The efforts in the maritime right now is pushing it up 
outside through the Bahamas into the east of the Bahamas. So, 
wherever we apply pressure, we will be effective for a period 
of time, and they're going to find the weakness. It's like 
water. And so, it's understanding and have the intelligence as 
to where to apply the pressure and where will they go next, 
which is the real challenge. It sounds----
    Chairman McCain. But, isn't it true that right now the 
Arizona-----
    Admiral Gortney. You have a----
    Chairman McCain:--Mexico border is----
    Admiral Gortney. Yes, sir.
    Chairman McCain:--one of the major trafficking points? Is 
that correct?
    Admiral Gortney. That is correct, sir.
    Chairman McCain. Thank you.
    Senator King. But, again, I'm just trying to understand 
this. As you seal up one place, you're going to find other--
some of the routes seem to be by water?
    Admiral Gortney. Yes, sir.
    General Kelly. The example I would give you--one of--2\1/2\ 
years ago, when I first took this job, we had the vast majority 
of cocaine moving up Central America, Mexico, into the United 
States, 2 or 3 percent moving up the islands into, say, 
Dominican Republic and over to Puerto Rico. Now we see about--
we've had a lot of success on the isthmus. We've put a kind of 
a shield in place, so we've deflected a lot of the cocaine. Now 
it's moving--maybe 14-15 percent is moving up in a way that had 
not been used since the 1980s.
    In my JIATF-South--Joint Interagency Task Force-South, down 
in Key West--we've just stood up a container cell, because we 
know they're starting to move things now increasingly by 
container. And we just got, I think--just the other day, 156 
kilos in a container. As we've done things with----
    Senator King. The container, which came over--came by sea.
    General Kelly. By sea, yes, sir.
    Heroin, we know, because it's very, very high value, 
travels primarily by air. That is, a passenger with a couple or 
3 kilos in--you know, in his bag. We see the aviation flights 
that used to come out of Venezuela--exclusively out of 
Venezuela, in--going into Honduras, because of things we've 
done with the Hondurans, in the Honduran--recommendations we 
made to the Hondurans and the Guatemalans--we're now seeing the 
jets--or the aircraft, they've transitioned from, say, 
propeller aircraft to jets. And now they're going deeper, to 
Mexico. So, it----
    Senator King. It would be----
    General Kelly. They change very quickly.
    Senator King. It would be helpful to us, in terms of 
allocating resources to protect against this, to have some 
analysis--and perhaps you could get together with the DEA, the 
FBI, CIA, other--Homeland Security--about where the--not 
necessarily where, but the types of routes--sea, air, land--
just so we know where we should be putting our resources.
    General Kelly. We certainly have that, Senator. I mean, I 
could sit here for 3 hours and tell you.
    But, the bottom line is, my organization can see, 
electronically as well as through intel, working with DEA and 
FBI and all--we can detect and monitor this stuff to a very, 
very high rate of accuracy. What I can't do--what the 
interagency can't do very effectively, because we don't have 
ships and cutters, is interdict it.
    Senator King. And that's a question of resources, getting 
back to the sequester.
    I--for the record, if you would supply a one-pager on where 
you see the paths, that would----
    General Kelly. Yes, sir.
    Senator King.--be helpful.
    General Kelly. Yes, sir.
    [The information referred to follows:]

    The United States and Europe remain the two major markets for South 
American cocaine, with the bulk of Colombian cocaine destined for the 
U.S. Most U.S. bound cocaine moved through Central America in 2014. 
Colombia and Ecuador will very likely remain the primary maritime 
departure countries, delivering cocaine to Panama, Costa Rica, and 
Guatemala for follow-on ground movement through Mexico and into the 
U.S. Jamaica, the Dominican Republic, Puerto Rico, and parts of the 
Eastern Caribbean will likely continue to pale in comparison to 
trafficking through Central America; however, trend analysis suggests 
use of the Caribbean maritime vector is likely increasing. With regard 
to air transport, Venezuela to Honduras or Belize will likely remain 
the primary vector for non-commercial air trafficking; however, Mexican 
cartels are seeking more direct air and maritime routes to Mexico and 
the northern Tier, with flights originating primarily out of Ecuador 
and Peru.

    Chairman McCain. Could I also mention, while we're in this 
conversation, that, because of the legalization of marijuana in 
Colorado and other places, that we are seeing a reduction in 
marijuana shipments and an increase in methamphetamines, 
heroin, and other so-called ``hard'' drugs. Do you want to 
comment on that phenomenon?
    Admiral Gortney. Yes, sir. It's one of the common questions 
that come up in my partnership with the Bahamas and Mexico, 
is--is the legalization of marijuana. It concerns them, it 
concerns us, it especially----
    Chairman McCain. Yeah, but hasn't it affected the kinds of 
drugs that are being sent up? Less marijuana.
    Admiral Gortney. The drug traffic has evolved. Is--I'm not 
aware if it's a direct result, yet, of a--less of a demand for 
marijuana that is legally grown and sold here in the States. I 
can't help but think that, in the future, that is exactly 
what's going to happen.
    Chairman McCain. Thank you.
    General?
    General Kelly. Yes, sir. The heroin issue is remarkable, 
and the methamphetamine, as you point out. You know, 
methamphetamine used to be produced in the United States, but, 
because of different laws that the Congress changed, it's 
harder and harder for the local labs to get the precursors to 
make the methamphetamine. So, now I think it's something in the 
neighborhood of 87--90 percent of all the methamphetamine now 
consumed in the United States is produced in Mexico and then 
smuggled in.
    As far as the heroin goes, illegal pharmaceuticals--you 
know, oxycontin, that kind of thing--have--is very, very 
expensive. I'm told that if you went out here and bought a 
single oxycontin pill on--illegally on Capitol Hill, it would 
cost you about $60 and get you a certain place. That same 
amount of heroin is about $6. So, we see--as the Federal 
Government has really gotten its arms around illegal 
pharmaceuticals and the availability of illegal pharmaceuticals 
would come down, now the heroin has just exploded. And it's not 
just in--as I've--I think I testified last year, it's not--it's 
just not in inner-city communities now, it's everywhere. I 
mean, it's in New Hampshire, it's in, you know, Capitol Hill, 
it's in Beacon Hill, it's on the Harvard campus, you know, and 
it's really very, very, very disturbing.
    Chairman McCain. Senator Ayotte had an additional question.
    Senator Ayotte. Thank you, Chairman.
    Let me just say that, you know, this issue of heroin, it's 
devastating in a State like mine. We've seen almost a 60-
percent increase in drug deaths because of, you know, the 
inexpensive nature of heroin, and the addictive nature of it. 
So, thank you for everything you're doing on that. And I think 
that's an area where we should work together in this committee 
to get more resources for you to--the more we can drive up the 
price of heroin, obviously, and interdict more of it, the more 
we can try to combat this along other ways, too. So, thank you.
    I had a followup question, though, about Guantanamo. And, 
you know, there's been a lot of talk about Guantanamo being 
used as a--by our enemies as a recruitment tool. And has anyone 
ever looked at the issue of--if we move these terrorists, we 
move some of these high-level detainees, to a facility in the 
United States, does anyone know whether--have we looked at the 
idea of whether that facility would also be used as an example 
of a recruitment tool? Seems to me that our enemies--almost 
anything that becomes symbolic of the United States of America 
and our fight against them can be used as a radicalization and 
recruitment tool. Have you looked at this issue or have any 
thoughts on that?
    General Kelly. I have a lot of thoughts on it, Senator.
    Senator Ayotte. Well, what are your thoughts?
    General Kelly. I don't believe--well, my belief is, the 
people that--these Islamic terrorists are focused on doing us 
so much harm, not because of GTMO or wherever we house these 
guys; it's really about us, as a people, as a country.
    Senator Ayotte. And what we stand for.
    General Kelly. And what we stand for, the way we live our 
lives, the way we worship any god we want to worship, the way 
we educate in--our little girls. That's why they hate us. I 
don't--they don't need GTMO to hate us. And if you--and if we 
move them to Charleston, then they'd--then it would be--
Charleston would be--they--it's because of who we are and who 
they are as to why they hate us so much.
    Senator Ayotte. Thank you, General.
    Chairman McCain. Senator Tillis.
    Senator Tillis. Thank you.
    Thank you both for your extraordinary leadership and 
service.
    I want to go back to expand on something that Senator 
Donnelly asked. And this has to do--General Kelly, you and I 
met earlier this week, and we were talking about the level of 
situational awareness you have. You know where a lot of these 
bad people are, you may even know their phone number. You know 
where they're moving and when they're moving. So, there's got 
to be a high degree of frustration that you could do so much 
more if you had the resources available. Can you kind of replay 
what we talked about, in terms of just how much you know about 
what's going on down there that you can't really stop because 
you have priorities that you have to leverage your assets?
    General Kelly. Yes, Senator.
    The fusion of intelligence, most of it coming from DEA, 
FBI--and they have agents in many of these countries, living 
full-time, and they work with the law enforcement--the local 
law enforcement. So, the human intelligence is collected by 
them, and it is just remarkable, the clarity that--and then, 
the technical intelligence that the military provides, whether 
it's NSA, satellites--we've got radars that triangulate and 
watch the entire Caribbean. So, we fuse all of that together in 
a place called JIATF-South, in Key West. And the picture we 
have is really remarkable. I mean, as I was mentioning in your 
office, oftentimes we'll know within a couple of hours when one 
of the go-fasts, the speedboats, is going to leave Cartagena 
Harbor, the fact that they have a ton and a half of cocaine 
onboard, that there's two guys, one of whom is--you know, first 
name is Jose, maybe have his phone number. The frustrating 
thing is, we have insufficient airborne ISR [Intelligence, 
Survelliance, Reconnaissance] to then really get the detail on 
him as he's moving. And then, the end game is a law enforcement 
helicopter, usually Coast Guard.
    So, we see it. It's amazing picture, a very, very clear 
picture. It's that we don't have the assets.
    Now, what we've been doing more and more, since we don't 
have the assets and we're getting less and less assets--
although I will say the Coast Guard Commandant has made a real 
commitment to double the number of Coast Guard cutters. But, 
that'll go from three to six. And he also--the Coast Guard also 
has an awful lot of other missions to accomplish--migration up 
in the Florida straits and all--you know, a lot of other 
things. But, the point is, we're working more and more with the 
partners. The Panamanians are very good partners in this, and 
they take X-number of tons. The Nicaraguans, believe it or not, 
are cooperative in this. And then, certainly the Hondurans or 
Guatemalans.
    The one thing we don't get when--if we--``we,'' the United 
States--apprehend these guys, we bring them into the Federal 
court system, and they very quickly plea bargain, and we get an 
awful lot of intelligence that then goes back into the cycle. 
When our partners get these guys, we kind of lose that ability 
to interrogate them and then offer them a deal they can't 
refuse.
    But, the point is, since I don't have the assets--I've got 
two Navy ships right now. That'll go to zero, forever, in--by 
the summer. And that's not even with sequestration. As I say, 
the Coast Guard Commandant's doubled his commitment, but 
that's, you know, five or six ships.
    So, the answer now is the partners, and try to get them to 
play. And I have to give credit, as well--we, about 6 months a 
year, will have a--at least one Canadian frigate, and they turn 
themselves over to us. And so, we use them in the same way that 
we would use a Coast Guard cutter or Navy ship. The British 
occasionally have a ship down. The Dutch are very cooperative. 
But, they don't have many ships in the region very often. The 
French, out of Martinique. When they're working together with 
us, they plug into our system, and we work them hard.
    Senator Tillis. Thank you.
    Another question for the both of you. Secretary Schultz was 
here a few weeks ago, and he was talking about the border 
security. And he said, when you're talking about the southern 
border, you need to ask the question, ``Which southern 
border?'' That would be the--relating to the Mexican southern 
border. We know it's unsafe, and we know that 80 percent of the 
people coming across our border are not from Mexico. So, there 
seems to be something to be said for looking at both borders 
and trying to figure out how to prioritize.
    And I want y'all to speak on the subject. But, in a general 
way, if we were giving you a dollar and you were setting the 
border security strategy, you had a dollar to spend, how much 
would that be spent on our southern border versus the Mexican 
southern border?
    I know it's an unfair question. You can get back with me if 
you need to. But----
    Admiral Gortney. Well, I'm----
    Senator Tillis.--I think it's important to talk about----
    Admiral Gortney. If----
    Senator Tillis.--how the two are----
    Admiral Gortney. If it's----
    Senator Tillis.--intrinsically liked.
    Admiral Gortney. If it's my dollar, I'm going to put it on 
the Mexican southern border, partnering with Sedena and Semar, 
helping strengthen their southern border, because Homeland 
Security is in charge of our border between Mexico and the 
United States. So, I think my dollar would be better spent 
partnering with Mexico so we can shore up--help assist them 
shore up their southern border so it's less of a challenge up 
on our border.
    General Kelly. And if I had--if had the same dollar, I'd 
work my northern boundary, which is Guatemala, Honduras, and El 
Salvador.
    Senator Tillis. And, Mr. Chair, just--if I may just--as a 
closing comment, I think that the comment, Admiral, in your 
opening comments on page 6 with respect to Iran and their 
trustworthiness--should be emphasized by anybody who hasn't 
read the statements.
    And the last question I have is, in your discussions with 
leaders in Latin America, how do they feel about the current 
administration's policy towards Cuba?
    General Kelly. Actually, in general, they think it's a good 
idea. They know, as they point out to me, that Cuba's problems 
are not due to American embargo or whatever. I mean, it's--
everyone else on the planet trades with Cuba except us. But, 
their advice is, you know, ``This is a good thing to do, 
because now it gets everyone--all the naysayers off your back, 
you know, all of the people that would criticize United 
States.'' But, at the end of the day, they understand that--you 
know, that the Cubans are--have the worst human rights record 
in the western hemisphere, it's a completely repressive regime, 
and their economic problems are due to their incompetence, not 
due to the embargo. And so, they--but, they think it's a good 
idea, because it gets--friend to friend, it gets people off our 
back, in terms of their--they no longer can criticize us about 
``the terrible things we've done to Cuba.''
    Senator Tillis. Thank you, Mr. Chairman.
    Chairman McCain. Well, I thank you both. And it's been very 
helpful.
    And again, General Kelly, we wish you every success in the 
future, and thank you for your service.
    Admiral Gortney, it's great to have you here, and I am sure 
you're looking forward to next year.
    This hearing is adjourned.
    [Whereupon, at 11:32 a.m., the committee adjourned.]



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

 THE POSTURES OF THE DEPARTMENT OF THE ARMY AND THE DEPARTMENT OF THE 
                               AIR FORCE

    The committee met, pursuant to notice, at 2:33 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator John McCain 
(chairman) of the committee, presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Cotton, Rounds, Ernst, Tillis, Sullivan, Lee, Cruz, Reed, 
Nelson, McCaskill, Manchin, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good afternoon.
    This committee meets today to consider the posture of the 
Army and the Air Force in the context of our review and 
oversight of the fiscal year 2016 defense budget request. Both 
of these Services, tested by years of war, are confronting 
growing threats and increasing demands with shrinking forces 
and aging equipment.
    By the end of this fiscal year, the Army will decline from 
a peak of about 570,000 to 490,000 Active Duty personnel. In 
the next few years, the Army will continue cutting its end 
strength down to 450,000 soldiers, a budget-driven force level 
reduction that predated the rise of ISIL, Russia's invasion of 
Ukraine and the Ebola crisis. If mindless sequestration cuts 
are allowed to return, the Army will shrink to 420,000 troops, 
increasing the risk that in a crisis we will have too few 
soldiers who could enter a fight without proper training and 
equipment. With global instability is only increasing and with 
just 33 percent of the Army's Brigade Combat Teams (BCTs) ready 
for deployment and decisive operations, I simply do not see any 
strategic basis for the Army Active Force structure to be 
reduced below the pre-September 11 level of 490,000.
    The Air Force posture statement makes clear that there is, 
``a fundamental disconnect between America's airpower 
expectations and its airpower capability. A quarter century of 
near continuous deployments, frequent aircraft divestments, and 
a decade's long procurement holiday left us with the oldest and 
smallest Air Force in history. The Service's current 54 fighter 
squadrons represent just one-third of the combat power mustered 
for Operation Desert Storm. Less than half of today's already 
insufficient number of fighter squadrons are completely combat 
ready, and they are not expected to return to full readiness 
until 2023 due to the damaging effects of sequestration 
suffered in 2013. Meanwhile, the Service is increasingly 
challenged by potential adversaries who are fielding fifth 
generation fighters and advanced air defense systems.''
    The Air Force posture statement also indicates that, 
``there was a time when the Air Force could trade some capacity 
in order to retain capability, but we have reached the point 
where the two are inextricable. Lose any more capacity and the 
capability will cease to exist.''
    This statement makes the proposal in the Air Force budget 
request to retire 164 A-10 aircraft in fiscal year 2016 before 
the F-35 is fully operational is all the more confusing. If the 
Air Force cannot afford to lose capacity, why is it 
volunteering to retire its most proven aircraft for close air 
support missions?
    Meanwhile, both Services have critical modernization needs 
that must be met if they are to meet future threats and 
challenges. The Army remains reliant on shrinking wartime 
Overseas Contingency Operations (OCO) funding to replace, 
repair, and recondition equipment that has been lost, damaged, 
or used extensively in more than a decade of war in Iraq and 
Afghanistan. We must ensure this reset is placed on a firm 
fiscal footing which requires the Army to learn the lessons of 
its failed acquisition programs of recent years. These lessons, 
together with the experience of more than a decade of war, must 
guide the procurement of the Joint Light Tactical Vehicle 
(JLTV) and the Armored Multipurpose Vehicle (AMPV) by enhancing 
tactical mobility, command and control, medical evacuation, and 
other critical combat functions while significantly improving 
the protection and safety of our soldiers.
    The future of American airpower rests on a number of 
current Air Force modernization programs. With program costs 
approaching $400 billion, the F-35 Joint Strike Fighter (JSF) 
is the department's most costly and ambitious acquisition 
program in history. After suffering years of unacceptable cost 
growth and schedule delays, the program appears to have started 
to stabilize. Still, cost, affordability, and technological 
challenges remain. The plan to increase production at the same 
time that development and testing continue will likely add risk 
to this program and could result in further cost growth and 
schedule delays in the future.
    This committee will continue closely scrutinize the overall 
management and performance of the F-35 program and we will hold 
individuals accountable. This committee will provide the same 
close oversight to other critical programs such as the long-
range strike bomber, the KC-46A tanker, and the presidential 
airlift replacement programs. These very expensive programs 
must be kept on cost and on schedule and deliver the 
capabilities the American taxpayer deserves at the best 
possible value.
    In particular, the committee will closely monitor the Air 
Force's ambitious $550 million unit cost target for the long-
range strike bomber. This program is essential to overcoming 
growing operational risk to our ability to project power in 
anti-access and denying environments, and it must be delivered 
on time and on budget.
    I must also note my concern with the Air Force's troubling 
lack of urgency in ending our reliance on the Russian RD-180 
rocket engine. Russia annexed Crimea over a year ago. Yet, the 
Air Force does not even have an acquisition strategy yet for a 
new rocket engine. Congress gave the Air Force $220 million in 
fiscal year 2015 and set a deadline of 2019. Instead of giving 
this effort the level of attention needed, the Air Force has 
wasted a year doing very little to end our reliance on Russian 
rocket engines. If the Air Force is unwilling to do what is 
necessary to meet the 2019 deadline, they are going to have to 
figure out how to meet our space launch needs without the RD-
180. Continued reliance on Russian rocket engines is 
unacceptable, and it is time the Air Force conduct itself 
accordingly.
    I am gravely concerned about the dangerous choice we are 
forcing upon our military, especially the Army and Air Force. 
With the present operational tempo and drastic reductions to 
defense spending, we will inevitably confront depleted 
readiness, chronic modernization plans, and deteriorating 
morale. We must chart a different course or else continue the 
downward spiral of Army and Air Force capacity and readiness 
that will compromise each Service's ability to execute the 
administration's stated defense strategy at a time of 
accumulating danger to America's national security. Such a 
course is within our power. The President's budget request is a 
start, but I believe this Congress can and must do better.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me welcome the witnesses and thank them for their service and 
also ask them, on behalf of all of us, to thank the soldiers, 
the airmen, and their families who selflessly serve every day. 
If you would do that, I would appreciate it.
    This committee has heard testimony from numerous witnesses 
expressing concern about the effect of the Budget Control Act 
of 2011 (BCA) caps, the threat of sequestration, and the lack 
of budget predictability. Chief of Staff of the Army, General 
Raymond T. Odierno, and Chief of Staff of the Air Force, 
General Mark A. Welsh III, you made a compelling case to the 
committee a month ago about the risks of continued fiscal 
constraints. Recently Chairman of the Joint Chiefs of Staff, 
General Martin E. Dempsey, testified that funding at the 
President's budget request, which is already $38 billion above 
the BCA caps, will keep the Department of Defense (DOD) at 
the--his words--``lower ragged edge of manageable risk'' and 
will leave ``no slack, no margin for error or strategic 
surprise.'' I do not believe--I share the chairman's view--that 
this is the way to remain the finest fighting force in the 
world.
    The fiscal year 2016 budget request continues 
implementation of the Army size and force structure changes 
directed in the 2012 Defense Strategic Guidance (DSG) and the 
2014 Quadrennial Defense Review. At the end of fiscal year 
2016, Active Army end strength will be down to approximately 
475,000 soldiers and combat brigades to 30. The funding request 
for personnel next year is essentially flat compared to this 
year. I would appreciate in your testimony an update about how 
the Army is managing the pace and scope of end strength 
reductions and force structure changes.
    The Army's readiness request in operation and maintenance 
continues to slowly build depth in non-deployed units, 
including 19 combat training center rotations, of which 15 are 
for active and 2 for National Guard combat brigades. I am 
interested in learning how the Army plans to sustain momentum 
in building the readiness of more units over the next several 
years. What are the most important capabilities, capacities, 
and readiness levels in the Army and how does this request fund 
them to meet the missions of today and tomorrow? How would the 
BCA caps impact the Army's management of these changes and the 
associated strategic risk in readiness to meet urgent 
contingencies?
    The challenges of declining resources and the high cost of 
new technologies have driven the Army to make tough choices in 
its major modernization programs. The fiscal year 2016 request 
includes a modest increase over last year for research, 
development, and acquisition emphasizing aviation and science 
and technology programs while deferring investment for a next 
generation combat vehicle or a replacement on the Aerial Scout. 
Again, I am interested in how the Army's budget request and the 
Future Years Defense Program (FYDP), the FYDP supports a 
stable, affordable, and achievable modernization strategy.
    For the Air Force, this budget request reverses a recent 
downward trend in end strength and increases military personnel 
by more than 6,000 airmen, mostly in active duty personnel. I 
am interested in learning how these personnel will be utilized 
because it is my understanding that they will not be allocated 
for remotely piloted aircraft, which is an area recently facing 
a manpower crisis.
    The Air Force wanted to reduce the number of Predator and 
Reaper remotely piloted aircraft combat air patrols it will 
support, but demand from combatant commanders prevented it. 
High tempo Predator and Reaper combat air patrols strain their 
supporting ground crews so much that the Commander of the Air 
Combat Command recently sounded an alarm that we are near the 
point of breaking this critical force. Unfortunately, we have 
been facing the prospect of breaking the Reaper and the 
Predator force for at least the past 6 years, while demand 
continues to exceed supply. The Air Force appears to have made 
little progress in solving this operational problem, and I 
would like to hear, General Welsh, what your thoughts are on 
this issue.
    Once again, the Air Force is proposing significant force 
structure reductions in fiscal year 2016 and the FYDP. For 
example, the Air Force will retire the entire A-10 fighter 
force, will retire roughly 26 older C-130 aircraft leaving 
roughly 275 aircraft to support tactical operations, and would 
make significant reductions in certain high-demand/low-density 
forces such as the Airborne Warning and Control System (AWACS), 
Joint Surveillance and Target Attack Radar System (JSTARS), and 
Compass Call fleets. I am interested to hear how you are 
balancing these savings with mission requirements.
    Finally, Mr. Chairman, we just received the Air Force's 
report on how it intends to implement the recommendations in 
the report of the National Commission on the Structure of the 
Air Force. One of the principle efficiency recommendations of 
the commission would move approximately, in their view, 36,000 
additional active airmen into the Reserve components and 
achieve related savings of roughly $2 billion. The Air Force 
report, however, states that their mission area analysis does 
not support this concept due to the reduction in rotational 
capacity and the resulting increase in risk. So we will need to 
understand why your views are accurate and you would reject 
these recommendations.
    Let me again thank you all for your service and I look 
forward to the testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. I think we begin with Secretary of the 
Army, John M. McHugh. Welcome.

    STATEMENT OF HON. JOHN M. McHUGH, SECRETARY OF THE ARMY

    Mr. McHugh. Thank you. Mr. Chairman, distinguished Ranking 
Member Reed, other equally distinguished members of the 
committee, I deeply appreciate the opportunity to be here with 
you today to discuss further the danger, truly, that lies ahead 
should this budget not be enacted and, most importantly, if 
sequestration is allowed to return.
    In short, it is truly amazing how much can change in just 1 
year. Over the last 12 months, we have been the geopolitical 
landscape morph at really an astonishing pace. As the chairman 
so accurately noted in his opening remarks, from renewed 
aggression by Russia and increased threats from North Korea to 
gains by radical terrorists in Iraq, Syria, and Yemen, not to 
mention the fight against Ebola, the demand for your Army to 
take contingencies around the world has grown at an alarming 
rate. Far from being foreseeable, our requirements have been 
more unexpected, our enemies more unpredictable, and our 
ability to handle multiple, simultaneous operations more 
uncertain.
    Yet, with such volatility and instability around the world, 
America's Army is faced yet again with an enemy here at home, 
the return of sequestration, unprepared units, un-maintained 
equipment, untrained soldiers. Ladies and gentlemen, our Army, 
your Army faces a dark and dangerous future unless this 
Congress acts now to end these ill-conceived and inflexible 
budget cuts.
    Moreover, I want to be very clear here. Every installation, 
every component, and nearly every program will feel the brunt 
of these cuts. Under sequestration, by 2019 we will be forced 
to reduce our end strength to unconscionable levels, likely 
losing another six Brigate Combat Teams (BCT) and potentially a 
division headquarters, not to mention the impacts to associated 
enablers, contracts, facilities, and civilian personnel.
    Let me share with you some accomplishments of America's 
Army this past year. As Russian-backed forces rolled into 
Ukraine, annexed Crimea, and threatened regional stability, our 
soldiers rapidly deployed to Eastern Europe in a demonstration 
of U.S. commitment and resolve. From Latvia and Lithuania to 
Poland and Estonia, soldiers from the 173rd Airborne and the 
1st Cavalry showed the world that America would stand with our 
North Atlantic Treaty Organization (NATO) allies and respond to 
unbridled aggression.
    In West Africa, as thousands suffered from the scourge of 
Ebola, your Army acted. Elements of several units led by the 
101st Airborne provided command and control, equipment, and 
expertise to support efforts to stop this deadly and 
destabilizing disease.
    In response to rapid gains by the Islamic State of Iraq and 
the Levant (ISIL), your soldiers quickly returned to Iraq to 
advise and assist security forces in turning the tide on this 
barbaric group of radical terrorists.
    In the Pacific, thousands of soldiers and civilians 
supported operations to strengthen our partnerships and 
increase our substantial presence.
    Today, the headquarters of nine Active Army and two Guard 
divisions are committed to combatant commanders. Some 143,000 
soldiers are deployed, forward-stationed, or committed, 
including over 19,000 Reserve component soldiers.
    Moreover, we have done all of this while continuing to 
transform to make our units leaner, more agile, and far more 
lethal. As all of you know so well, such extraordinary success 
comes at a price, for in the end, the young lieutenant meeting 
his or her platoon, the sergeants training and mentoring their 
soldiers, the invaluable civilian workforce labor in countless 
orders to support them, and the young family waiting patiently 
at home are all human. The stress of war, multiple deployments, 
and unpredictable requirements does not change in the face of 
indiscriminate funding cuts.
    Through it all, we have and we will remain committed to 
supporting the needs of our warriors and their families. From 
programs to increase resilience and improve behavioral health 
to the prevention of sexual assault and the protection of 
victims from retaliation, we will keep faith with our soldiers. 
Rest assured, the return to sequestration will directly impact 
critical installation and family programs Army-wide.
    Let me put it simply. We need the President's budget. Our 
$126.5 billion request, as the chairman noted, is some $6 
billion over the potential sequester level and is specifically 
designed to preserve our modest gains in readiness over the 
last year and take care of your soldiers.
    Moreover, this request seeks vital reforms to compensation 
and force structure that will ensure funding needed to support 
near-term readiness and help place the Army on a predictable 
path to balance. The modest changes to pay and allowances 
through our aviation restructuring initiatives, our reforms are 
both necessary and prudent to sustain the readiness of our 
forces and move the Army toward eventual balance. I cannot 
emphasize enough how critical these funds and reforms are to 
ensuring that your Army has sufficiently trained and ready 
soldiers to protect our Nation.
    I also recognize that we have the duty to prudently use the 
scarce resources that the American people provide through all 
of you. From my first day in office, I sought and supported 
numerous reforms and efficiencies from improving our 
procurement process to drastically cutting our headquarters. We 
take stewardship very seriously. Frankly, historically the 
Army's track record on acquisition programs is too often a tale 
of failure, too many under-performing or canceled programs, too 
few successful fieldings of developmental designs, and far too 
many taxpayer dollars wasted. We know this and we will do 
better.
    In this critical area, while many significant strides have 
been made over the last 5 years in reducing bureaucracy and 
improving our oversight, we have a long way to go. Mr. 
Chairman, I would note that we are especially heartened by your 
and Chairman Thornberry's commitment to making measured, 
deliberate, and comprehensive reforms to the defense 
acquisition system, and we look forward to working with you on 
these vital efforts.
    Ladies and gentlemen, this is a historic moment. We need to 
stop talking and we need together to start acting. We need 
wisdom not words. We need results not rhetoric. As I said 
before this distinguished panel last year, we need 
predictability not politics. As we face extreme instability 
around the world, we must have certainty here at home. Your 
soldiers--and I know you agree--deserve no less. We must have 
an end to sequestration this year, and we must have this 
budget.
    On behalf of the nearly 1.3 million men and women of 
America's Army--Active, Guard, Reserve, and civilian--thank you 
for your continued oversight, partnership, your leadership and 
support. Thank you, Mr. Chairman. I look forward to the 
committee's questions.
    [The joint prepared statement of Mr. McHugh and General 
Odierno follows:]
  Joint Prepared Statement by Hon. John M. McHugh and GEN Raymond T. 
                              Odierno, USA
                           executive summary
    Now more than ever, in today's uncertain and dynamic security 
environment, we must be prepared to meet multiple, wide-ranging 
requirements across the globe simultaneously while retaining the 
ability to react to the unknown. The velocity of instability around the 
world has increased, and the Army is now operating on multiple 
continents simultaneously in ways unforeseen a year ago. In short, our 
Army is busy. We are fully engaged and our operational tempo will not 
subside for the foreseeable future. In the wake of Russia's 
intervention in Ukraine, the Army deployed forces to Eastern Europe in 
a demonstration of U.S. commitment and resolve. In West Africa, the 
Army provided support for the U.S. Agency for International 
Development's humanitarian mission to stem the tide of the Ebola virus. 
In response to regional instability in the Middle East, Army forces 
have recommitted to advise and assist Iraqi Government forces and the 
Kurdish Peshmerga. Across the Pacific, thousands of Army forces are 
supporting operations to strengthen our partnerships and alliances as 
part of Pacific Pathways in places like Thailand, the Philippines, 
Malaysia, Australia, Indonesia, and the Republic of Korea. We remain 
committed to protecting the enduring Armistice on the Korean Peninsula. 
Our soldiers remain on point in Afghanistan, even as we draw down our 
forces there. Currently, 9 of 10 Regular Army and 2 Army National Guard 
division headquarters are committed in support of combatant commands, 
with more than 143,000 soldiers deployed, forward stationed, or 
committed and 19,000 Reserve soldiers mobilized.
    Last year, we testified that the minimum force necessary to execute 
the defense strategy was a force floor of 450,000 in the Regular Army, 
335,000 in the Army National Guard and 195,000 in the Army Reserve--a 
total of 980,000 soldiers. That assessment has not changed and is based 
on certain planning assumptions regarding the duration, number and size 
of future missions. When determining these assessed force levels, we 
also made clear that risks at this level would grow if our underlying 
assumptions proved inaccurate. Although we still believe we can meet 
the primary missions of the Defense Strategic Guidance (DSG) today, our 
ability to do so has become tenuous. There is a growing divide between 
the Budget Control Act's (BCA) arbitrary funding mechanism--that has 
seen the Army budget drop in nominal terms every year since enacted in 
2011--and the emerging geopolitical realities confronting us now across 
Europe, the Middle East, Africa and the Pacific, along with the growing 
threats to our Homeland. Risk thereby increases to our force, our 
national security and our Nation. As the Army approaches a Total Army 
end strength of 980,000 soldiers by fiscal year 2018, we must 
constantly assess the operational tempo and its impacts on the health 
and viability of the force. We must ensure we have both the capability 
to respond to unforeseen demands and the capacity to sustain high 
levels of readiness.
    So, as the Army looks to the future and continues to downsize, we 
have developed a new Army Operating Concept, ``Win in a Complex 
World.'' The foundation of the Army Operating Concept is our ability to 
conduct joint combined arms maneuver. The Army Operating Concept 
endeavors to build a force operating alongside multiple partners able 
to create multiple dilemmas for our adversaries, while giving 
commanders multiple options and synchronizing and integrating effects 
from multiple domains onto and from land. Recognizing the changing 
world around us, the Army Operating Concept envisions an Army that is 
expeditionary, tailorable, scalable, and prepared to meet the 
challenges of the global environment. The Army Operating Concept sets 
the foundation upon which our leaders can focus our efforts and 
resources to maintain strategic and operational flexibility to deter 
and operate in multiple regions simultaneously--in all phases of 
military operations--to prevent conflict, shape the security 
environment, and win wars now and in the future.
    Nevertheless, fiscal challenges brought on by the BCA strain our 
ability to bring into balance readiness, modernization and end 
strength. The BCA puts at significant risk the Army's ability to meet 
the Army's obligations within the DSG and fulfill its national security 
requirements. Even as demand for Army forces is growing, budget cuts 
are forcing us to reduce end strength to dangerously low levels. We 
face an ``ends'' and ``means'' mismatch between requirements and 
resources available.
    The BCA and sequestration have already had a detrimental impact on 
readiness and modernization. Budget constraints have significantly 
impacted every Army modernization program, forcing the delay of 
critical investments in next generation capabilities, to include 
training support and power projection capabilities across Army 
installations. Although the Bipartisan Budget Agreement (BBA) provided 
fiscal relief to the Army in fiscal year 2014, in fiscal year 2015 the 
Army budget decreased by $6B. We now face a fiscal year 2016 defense 
spending cap insufficient for operating in an unstable global security 
environment that presents the Army with a number of urgent, complex and 
challenging missions. The fiscal year 2016 spending cap--set almost 4 
years ago--has not kept pace with the geopolitical reality unfolding 
around the world.
    We know we must strike a balance between resources and capacity. 
The Army fully supports fiscal responsibility and has worked diligently 
and consistently to be a good steward of taxpayer dollars. In that 
regard, we have made many tough choices. There are critical cost-saving 
measures that allow the Army to further reallocate scarce resources to 
ensure Army forces remain as trained and ready as possible. These 
include compensation reform, sustainable energy and resource 
initiatives, a new round of Base Realignment and Closure (BRAC) and the 
Aviation Restructure Initiative (ARI). We ask Congress to support these 
initiatives because without the flexibility to manage our budgets to 
achieve the greatest capability possible, we will be forced to make 
reductions to manpower, modernization and training that are larger, 
less efficient and longer-standing in the damage they inflict on the 
Army.
    We also need consistent and predictable funding. The use of 
Continuing Resolutions wreaks havoc with Army readiness, modernization 
and end strength. It makes long term planning difficult, especially 
with the uncertainties that exist if we return to sequestration in 
fiscal year 2016. As a result, we are forced to train intermittently 
and the materiel and equipment we buy costs more and takes longer to 
acquire. This ongoing budgetary unpredictability is neither militarily 
nor fiscally responsible. To maintain an appropriate level of 
readiness, the Army must receive consistent funding for training each 
year. Unless Congress eases the BCA defense caps, the Army will 
experience degraded readiness coupled with increased risk, making it 
more difficult for us to provide for the common defense. Each passing 
year, the BCA increases risk for sending insufficiently trained and 
equipped soldiers into harm's way, and that is not a risk our Nation 
should accept.
    Lastly, our profession is built on trust. In holding true to that 
trust, our Nation expects our competence, commitment and character to 
reflect our Army values. To that end, we are working to reduce and, in 
the future, eliminate sexual assault and sexual harassment, which 
destroys good order and discipline and is contrary to our core values. 
We are also increasing opportunities for women and opening positions 
based on standards free on any gender bias. Finally, our programs like 
Soldier for Life and the Ready and Resilient Campaign are demonstrating 
our sacred commitment to care for our soldiers, our civilians and their 
families who selflessly sacrifice so much. These are actions we have 
taken because it is the right thing to do.
                              introduction
    Last year, we testified before Congress that the minimum end 
strength the Army requires to execute the 2012 Defense Strategic 
Guidance is 980,000 soldiers--450,000 in the Regular Army, 335,000 in 
the Army National Guard and 195,000 in the Army Reserve. We described 
how the Army moved to implement the 2014 Quadrennial Defense Review 
(QDR) guidance by shaping the force while supporting the fight in 
Afghanistan and deploying forces to address several unexpected 
challenges around the world. In contrast to the projections outlined in 
the defense strategy, the regional security and stability in Europe, 
Africa, the Middle East and the Pacific have deteriorated over the past 
12-24 months in ways we did not anticipate. These growing and emerging 
threats to the global security environment compel us to rethink our 
assessment of the drawdown. For the next 3 years, as we restructure to 
operate as a smaller force, the Army faces readiness challenges and 
extensive modernization delays. Under the President's budget, we will 
begin to regain balance between end strength, modernization, and 
readiness beyond fiscal year 2017. Although we still believe we can 
meet the fundamental requirements of the DSG at 980,000 regular, Guard, 
and Reserve soldiers, it is a tenuous balance. The risk to our national 
security and our force itself continues to increase with rising 
instability and uncertainty across Europe, the Middle East, Africa, and 
the Pacific, along with a growing threat to the Homeland. Any force 
reductions below 980,000 soldiers will render our Army unable to meet 
all elements of the DSG, and we will not be able to meet the multiple 
challenges to U.S. national interests without incurring an imprudent 
level of risk to our Nation's security.
               increasing velocity of global instability
    The accelerating insecurity and instability across Europe, the 
Middle East, Africa, and the Pacific, coupled with the continued threat 
to the homeland and our ongoing operations in Afghanistan, remain a 
significant concern to the Army. The Islamic State in Iraq and the 
Levant's (ISIL) unforeseen expansion and the rapid disintegration of 
order in Iraq and Syria have dramatically escalated conflict in the 
region. Order within Yemen is splintering; the al Qaeda insurgency and 
Houthi expansion continues there; and the country is quickly 
approaching a civil war. In North and West Africa, anarchy, extremism 
and terrorism continue to threaten the interests of the United States, 
as well as our allies and partners. In Europe, Russia's intervention in 
Ukraine challenges the resolve of the European Union. Across the Asia-
Pacific, China's lack of transparency regarding its military 
modernization efforts raise concerns with the United States and our 
allies, and the continuing development of North Korea's nuclear and 
missile programs contributes to instability. The rate of humanitarian 
and disaster relief missions, such as the recent threat of Ebola, 
heightens the level of uncertainty we face around the world, along with 
constantly evolving threats to the homeland. With the velocity of 
instability increasing around the world, continuing unrest in the 
Middle East, and the threat of terrorism growing rather than receding--
witness the recent tragedies in Paris and Nigeria--now is not the time 
to drastically reduce capability and capacity.
    The Army, as part of the Joint Force, operates globally in 
environments characterized by growing urbanization, the potential for 
the proliferation of weapons of mass destruction, malicious cyber and 
information operations, humanitarian crises and the deleterious effects 
of climate change. Sectarian violence exploited by state and non-state 
actors, irredentism and terrorist activities are driving conflict 
around the world. The corrosive effects of drug and human trafficking 
by transnational criminal organizations undermine State authority and 
trigger a destabilizing level of violence in places such as Central and 
South America. These combined factors lead to vulnerable populations 
and threats that appear across multiple domains, the sum of which will 
continue to challenge global security and cooperation in ways that are 
difficult to anticipate.
    No single strategic challenger is likely to gain overall 
superiority over U.S. military capabilities in the near future. Even 
so, competitors of the United States seek to negate our strengths, 
exploit our vulnerabilities, and gain temporary or local superiority in 
one or more capability areas. It is unlikely any of these challengers 
will choose traditional force-on-force confrontation with American 
forces. Instead, potential adversaries are likely to pursue and 
emphasize indirect and asymmetric techniques. Their strategies may 
include employing anti-access/area denial capabilities, using 
surrogates, subverting our allies, using cyber and information 
operations, staying under our threshold for combat or simply prolonging 
conflict to test our resolve.
    One of the most important global security bulwarks is the U.S. 
network of security alliances and partners. This valuable asset to U.S. 
national security and global stability is entering a period of 
transition. Traditional allies in Europe face significant economic and 
demographic burdens that exert downward pressure on defense budgets. As 
a consequence, allies and partners who have joined us in past coalition 
operations may be less apt to do so in the future. Building the 
security capacity necessary for regional stability requires sustained 
and focused engagement. Active engagement with allies, friends and 
partners is resource-intensive, but will be essential to sustaining 
global multilateral security. This combination of threats and 
conditions creates an increasingly dangerous and unpredictable 
operational environment and underscores the need for a U.S. Army that 
is agile, responsive and regionally engaged.
      demand for a globally responsive and regionally engaged army
    It is imperative we maintain strategic and operational flexibility 
to deter and operate in multiple regions simultaneously--in all phases 
of military operations--to prevent conflicts, shape the security 
environment and, when necessary, win in support of U.S. policy 
objectives. The Army is and will continue to be the backbone of the 
Joint Force, providing fundamental capabilities to each of the 
combatant commanders such as command and control, logistics, 
intelligence and communications support to set the theater, as well as 
providing ground combat forces, Special Operations Forces, and Joint 
Task Force (JTF) headquarters. Demand for Army capabilities and 
presence continues to increase across combatant commands in response to 
emerging contingencies. The Army has sent rotational forces to Europe, 
Kuwait, and the Republic of Korea, and established JTF Headquarters in 
Iraq, Afghanistan, Honduras, the Horn of Africa and Jordan. In multiple 
areas of responsibility, the Army is meeting simultaneous requirements 
based on our 10 primary DSG missions. As part of the Joint Force, we 
support combatant commanders and work with interagency partners and our 
allies to enhance security cooperation, provide foreign humanitarian 
assistance, build partner capacity and participate in multi-lateral 
exercises.
    We are making the Army more agile, adaptable and expeditionary than 
ever before. For example, there is an infantry battalion forward-
deployed in Djibouti, and units in Kuwait positioned to quickly respond 
anywhere in the Middle East. Even as we reduce our presence in 
Afghanistan, the global demand for Brigade Combat Teams (BCT), the 
Army's basic warfighting units, is projected to decrease by only one 
before 2016. Combatant commanders' demand for Patriot missile 
battalions and Terminal High Altitude Air Defense (THAAD) batteries 
exceeds our capacity, significantly limiting options in emerging 
crises, and exceeding the Army's ability to meet Department of Defense 
(DOD) deployment-to-dwell rotation goals for these units. In fiscal 
year 2016, we expect combatant command and interagency demand for Army 
forces will increase further in areas such as logistics, intelligence, 
cyber, space, air and missile defense, signal, aviation, Special 
Operations Forces and mission command.
    Demand for Army division headquarters is already high and we expect 
this trend to continue. Combatant commanders rely upon the proven 
mission-command capabilities of our division headquarters and the 
essential shaping effects of Army enabler units including Intelligence, 
Surveillance, and Reconnaissance (ISR) platforms. In the last year, we 
deployed the 1st Infantry Division headquarters to U.S. Central Command 
in support of the multinational effort to defeat ISIL, and we delivered 
the 101st Airborne Division (Air Assault) headquarters to synchronize 
national and international efforts to counter the Ebola virus in West 
Africa. Additionally, 1st Armored Division Headquarters conducts 
operations in Jordan; 2nd Infantry Division protects the Republic of 
Korea; 3rd Infantry Division advises and assists in Afghanistan; and 
4th Infantry Division assures our allies in Europe. All told, elements 
of 9 out of 10 Regular Army division headquarters and 2 Army National 
Guard division headquarters, including the Global Response Force, are 
currently deployed or prepared to deploy around the globe supporting 
commitments to the Pacific Theater and the Republic of Korea; 
Afghanistan, Jordan, Iraq and Kuwait; Africa; Eastern Europe; and the 
Homeland.
    Consequently, we must size and shape the Army for the world in 
which we live. First, through the Army, and the presence it provides, 
we will fulfill our collective security obligations, defend our 
citizens and protect our national interests when the Nation calls upon 
us. Second, a robust Army provides combatant commanders with essential 
capacity to more fully engage allies and shape the security environment 
across their areas of responsibility. Finally, appropriate Army force 
levels reduce the risk of being ``too wrong'' in our assumptions about 
the future.
    Unlike previous eras and conflicts, today's fast-paced world simply 
does not allow us the time to regenerate capabilities after a crisis 
erupts. Faced with a national crisis, we will fight with the Army we 
have, but there will be consequences. Generating the Army is a complex 
endeavor that requires policy decisions, dollars, soldiers, 
infrastructure and, most importantly, time. It takes approximately 30 
months to generate a fully manned and trained Regular Army BCT once the 
Army decides to expand the force. Senior command and control 
headquarters, such as divisions and corps, take even longer to generate 
and train to be effective given the skill sets and training required of 
soldiers manning these formations. Overall, we must acknowledge that 
today's highly-technological, All-Volunteer Force is much different 
than the industrial age armies of the past.
    Finally, with flexibility to balance structure, modernization and 
readiness within budgetary authority, we can best mitigate the risk 
imposed by budget reductions and end strength reductions to adapt to a 
rapidly-changing operating environment. Achieving this balance will 
enhance our ability to redesign the force for the future, experiment 
with new, innovative operational concepts and rebuild critical 
collective skills, all while taking care of our soldiers and their 
families in a manner consistent with their service and sacrifice.
Army Operating Concept: Win in a Complex World
    Even as the Army confronts the many challenges wrought by 
sequestration, we continue to seek efficiencies while adapting to the 
complexities of an evolving and unstable security environment. It is 
imperative that our Army adapts to the future joint operating 
environment, one that consists of diverse enemies that employ 
traditional, irregular and hybrid strategies which threaten U.S. 
security and vital interests. In October of last year, we introduced 
the new Army Operating Concept, ``Win in a Complex World.'' The 
foundation of this concept is our ability to conduct joint combined 
arms maneuver. It endeavors to build a force operating alongside 
multiple partners able to create multiple dilemmas for our adversaries, 
while giving commanders multiple options and synchronizing and 
integrating effects from multiple domains onto and from land. 
Recognizing the changing world around us, the Army Operating Concept 
envisions an Army that is expeditionary, tailorable, scalable and 
prepared to meet the challenges of the global environment. The Army 
Operating Concept reinforces our five strategic priorities:

    1.  Develop adaptive Army leaders for a complex world;
    2.  Build a globally responsive and regionally engaged Army;
    3.  Provide a ready and modern Army;
    4.  Strengthen our commitment to our Army profession; and
    5.  Sustain the premier All-Volunteer Army.

    The Army Operating Concept also describes the Army's contribution 
to globally integrated operations. Army forces provide foundational 
capabilities required by the combat commanders to synchronize and 
integrate effects across land and from land into the air, maritime, 
space, and cyberspace domains. The Army Operating Concept ensures that 
we are prepared to lead joint, interorganizational, and multinational 
teams in complex security environments.
    Through a dedicated ``Campaign of Learning'' under Force 2025 
Maneuvers, we will assess new capabilities, design and doctrine. This 
enables future innovation of our expeditionary capabilities and 
enhanced agility. We are assessing key capabilities such as manned-
unmanned teaming, operational energy and expeditionary command posts. 
We are focusing our innovation efforts in this Campaign of Learning to 
ensure we address the 20 Army Warfighting Challenges. The Army 
Warfighting Challenges are the enduring first-order problems, and 
solving them will improve combat effectiveness. These challenges range 
from shaping the Security Environment, to countering Weapons of Mass 
Destruction, to conducting Space and Cyber Operations, to Integrating 
and Delivering Fires to Exercising Mission Command. The Army Operating 
Concept represents a long-term, cost-effective way to enhance 
readiness, improve interoperability and modernize the force. It is also 
a cost-effective way to assess and demonstrate Joint and multinational 
interoperability and readiness. We must continue to learn and apply 
what we learn as we rethink how the Army operates to ``Win in a Complex 
World.''
President's Budget Request
    This year, the President's budget requests $126.5 billion for the 
Army base budget. This budget request is about $5.4 billion above what 
Congress enacted in fiscal year 2015. The President's budget requests 
$6 billion more than an expected sequester-level budget. This 
additional $6 billion will be invested in readiness and procurement:

        <bullet> $3.4 billion for training, sustainment and 
        installation programs directly supporting combat readiness; 
        and,
        <bullet> $2.6 billion for Research and Development, and 
        Acquisition accounts in order to equip soldiers across the 
        regular, Guard, and Reserve Forces, sustain critical parts of 
        the industrial base and invest in innovation supporting the 
        Army Operating Concept.

    These increases are critical to achieving sustainable readiness 
needed to meet the demands of today's complex environment, while 
preserving manpower needed to prevent hollowness in our formations.
    As Congress reviews our budget for this year, we ask that you 
compare our funding levels to what we asked for and executed in fiscal 
year 2013 and fiscal year 2014, rather than to the near-sequestration 
level funding enacted in fiscal year 2015. With the support of 
Congress, the Army executed $125 billion in fiscal year 2014 to begin 
rebuilding readiness lost in fiscal year 2013 due to sequestration. The 
fiscal year 2015--enacted level of $121 billion is challenging 
commanders across the Army to sustain readiness while reorganizing 
formations to operate as smaller forces. In fiscal year 2015, we are 
significantly reducing key installation and family services, individual 
training events and modernization to such an extent as to jeopardize 
future readiness and quality of life. The Army's budget request for 
fiscal year 2016 continues to focus on building near-term readiness 
through predictability and continuity in funding levels.
    One critical assumption in the President's budget request is that 
Congress will enact necessary compensation and force restructuring. We 
fully support modest reforms to pay raises, health care and other 
benefits that have been proposed. Without these reforms, savings 
assumptions we have included in our planning will not be realized, 
placing increasing pressure on further end strength reductions and 
reducing funding needed to sustain readiness. The President is 
proposing over $25 billion in compensation reforms including slowing 
the growth of Basic Allowance for Housing, changing TRICARE, reducing 
the commissary subsidy and slowing the growth in basic pay. Should 
Congress fail to enact these reforms, the effects of budget shortfalls 
in programs and services throughout the force will wreak havoc on our 
formations. We will have to make decisions at every Army installation 
that will impact the quality of life, morale and readiness of our 
soldiers. Without appropriate compensation reform, the Army would need 
an additional $10.4 billion across the program years to meet our basic 
requirements. To the extent Congress does not approve the extra topline 
or the reforms, we would have to find another $2-3 billion per year in 
reductions, thereby further diminishing the size and capability of our 
fighting force. None of these reforms are easy, but all are necessary.
    One of our most important reforms is the Aviation Restructuring 
Initiative (ARI), which we continued in fiscal year 2015. Our current 
aviation structure is unaffordable, so the Army's plan avoids $12 
billion in costs and saves an additional $1 billion annually if we 
fully implement ARI. We simply cannot afford to maintain our current 
aviation structure and sustain modernization while providing trained 
and ready aviation units across all three components. Our comprehensive 
approach through ARI will ultimately allow us to eliminate obsolete 
airframes, sustain a modernized fleet, and reduce sustainment costs.
    Through ARI, we will eliminate nearly 700 aircraft and 3 Combat 
Aviation Brigades from the Active component, while only reducing 111 
airframes from the Reserve component. ARI eliminates and reorganizes 
structure, while increasing capabilities in order to minimize risk to 
meeting operational requirements within the capacity of remaining 
aviation units across all components. If the Army does not execute ARI, 
we will incur additional costs associated with buying additional 
aircraft and structure at the expense of modernizing current and future 
aviation systems in the total force.
    Although we disagree with the need for a Commission on the Future 
of the Army, as directed in the National Defense Authorization Act, we 
will fully support the Commission as it examines and assesses the force 
structure and force mix decisions the Army has proposed for Active and 
Reserve components.
Impacts of Sequestration
    In support of the President's fiscal year 2015 budget request, 
which reflected the outcomes of the Secretary of Defense's 2013 
Strategic Choices and Management Review and the 2014 QDR, we emphasized 
that the updated defense strategy, combined with reduced Army force 
levels, had increased the risk level to ``significant,'' and would 
become manageable only after the Army achieved balance between end 
strength, readiness and modernization. At force levels driven by 
affordability under full sequestration, the Army cannot fully implement 
its role in the defense strategy. Sequestration would require the Army 
to further reduce our Total Army end strength to at least 920,000, or 
60,000 below the 980,000 currently reflected in the President's budget 
request.
    Global demands for the Army are increasing, but end strength, 
readiness and modernization cuts greatly reduce our ability to respond 
at a time when the instability is accelerating worldwide. As a result, 
we are faced with an ends and means disparity between what is required 
of us and what we are resourced to accomplish. This has real impacts 
for our national security. Long-term fiscal predictability will allow 
the Army to balance force structure, end strength, modernization and 
readiness, while providing the Nation a trained and ready force 
prepared to win in a complex world. Without this investment, we will 
see immediate degradations in recruiting, manning, training, equipping 
and sustaining Army readiness during a time of great uncertainty and 
growing worldwide instability.
    Although we are already expecting a decline in the overall 
readiness of our forces in fiscal year 2015, it pales in comparison to 
the decrease of readiness under expected sequester levels in fiscal 
year 2016. Sequestration measures will not only dissipate the modest 
gains we achieved, but will leave the Army in a hollow and precarious 
state. The impact of sequestration on the Army's fiscal year 2016 
funding levels would cause an abrupt and immediate degradation of 
training, readiness and modernization. Relief from full sequester-
levels in fiscal year 2014 provided some predictability and allowed for 
partial recovery from fiscal year 2013's low readiness levels. However, 
the Army demonstrated a need for funding above the enacted $121 billion 
topline in fiscal year 2015, as savings from drawing down end strength 
are manifesting as rapidly as possible. Current funding levels afforded 
just over a third of our BCTs the training necessary to conduct 
decisive action. This year, we face significant challenges to sustain 
even that level of readiness in our dynamic operating environment.
    If sequestration remains unchanged, the consequences for our Army 
will be dramatic. Another round of cuts will render our force unable to 
meet all elements of the DSG without creating additional risk to our 
soldiers. Reductions in end strength brought on by sequestration will 
limit our ability to provide strategic options to the President and 
pose unacceptable risk by placing into question our capacity to execute 
even one prolonged, multi-phased major contingency operation. We will 
experience significant degradations in readiness and modernization, 
which will extend adverse impacts well into the next decade, 
exacerbating the time the Army requires to regain full readiness. The 
Nation cannot afford the impacts of sequestration. Our national 
security is at stake.
Achieving End Strength Reductions
    By the end of fiscal year 2015, we will have reduced the Regular 
Army by over 80,000 soldiers, 8,000 in the Army National Guard, and 
7,000 in the Army Reserve. Commensurate with these reductions, the Army 
will achieve an end strength by the end of fiscal year 2015 of 490,000 
Regular Army, 350,000 Army National Guard, and 202,000 Army Reserve. 
Consistent with available budget resources, the 2014 Quadrennial 
Defense Review and the DSG, the Army will continue to reduce its end 
strength in fiscal year 2016 as follows: the Regular Army will shrink 
by 15,000 (3.1 percent) to 475,000; the Army National Guard will shrink 
by 8,000 (2.3 percent) to 342,000; and the Army Reserve will shrink by 
4,000 (2 percent) to 198,000.
    To achieve required end strength reductions, we will need to 
separate soldiers who have served their nation honorably. Cumulatively, 
we will have reduced our Regular Army end strength from a wartime high 
of 570,000 to 475,000 by the end of 2016 (17 percent reduction), while 
our Army National Guard will have reduced its end strength from a 
wartime high of 358,000 to 342,000 (4.5 percent reduction) and the Army 
Reserve will have reduced its end strength from a wartime high of 
205,000 to 198,000 (3.4 percent reduction). These reductions put the 
Army on a glide path to meet the targeted force of 980,000 in fiscal 
year 2018. For all components of the Army, this end strength is smaller 
than the pre-2001 force structure.
    Although we are making reductions in the overall end strength of 
the Army National Guard and U.S. Army Reserve, we have continued to 
invest in higher full-time support levels, including Active, Guard, and 
Reserve, military technicians and civilians. This budget supports 
82,720 full-time support positions in fiscal year 2016 as compared to 
68,000 in fiscal year 2001. This level of full-time support constitutes 
a 20 percent increase since 2001.
    In the Army civilian workforce, we have reduced Department of the 
Army civilians from the wartime high levels of 285,000 and will 
continue to reduce appropriately over the coming years. While 
necessary, these reductions in the civilian workforce have and will 
continue to adversely impact capabilities such as medical treatment, 
training, depot and range maintenance, installation emergency services, 
physical security and select intelligence functions. In all of the 
reductions across the Total Army, we are taking prudent measures to 
ensure we balance requirements and capacity.
    To achieve planned end strength reductions, the Army expects to use 
various types of separation authorities across all elements of the 
Total Force. The National Defense Authorization Acts for fiscal year 
2012 and fiscal year 2013 provided several authorities to help the Army 
shape the force over the drawdown period, along with the flexibility to 
apply them to meet specific grade and skill requirements. Under normal 
loss rates, we would not be able to reach our end strength goal during 
the fiscal year 2015--fiscal year 2017 period. There is no single 
force-shaping method among the choices of accession, retention and 
separation that allows the Army to achieve its end strength goals; 
inevitably, we will have to involuntarily separate quality soldiers. 
Closely managing accession levels, selectively promoting and following 
more stringent retention standards will help shape the force over time.
    Although the Army expects to lose combat-seasoned soldiers and 
leaders, throughout this process, our focus will be on retaining 
individuals with the greatest potential for future service in the right 
grades and skills. As soldiers depart the Regular Army, we are 
committed to assisting them and their Families as they reintegrate into 
civilian communities. Leaders across the Army are engaged in ``Soldier 
for Life,'' a continuum of service concept that facilitates transition 
to civilian employment, educational opportunities and service in the 
Reserve components.
                         ensuring a ready army
    During this period of drawdown, the Army is reorganizing, 
realigning and restructuring forces. The Brigade Combat Team 
reorganization enhances brigade combat power by adding a third maneuver 
battalion to 38 BCTs by the end of fiscal year 2015 and reducing the 
total number of BCTs to 60 (32 Regular Army and 28 Army National Guard) 
in the Total Force.
    Since May 2014, we have been developing a sustainable force 
generation and readiness model to account for the new, volatile, 
strategic operating environment; the need to remain regionally-engaged 
and budgetary and force sizing realities. The Sustainable Readiness 
Model will provide force generation policies and processes that 
optimize the readiness of the force and balance the Army's steady state 
missions, contingency response capability and available resources. We 
cannot predict the specific events that will cause the next demand for 
Army forces, but history suggests it will come sooner than we expect. 
All components of the Army must remain sized and postured as essential 
members of the Joint Force to protect the Nation and its interests.
    Even with funding relief from sequestration in fiscal year 2014, in 
fiscal year 2015 we returned to near-sequestration level funding, 
resulting in just a third of our BCTs trained in their core mission 
capabilities in decisive action. The President's budget request 
increases readiness funding above fiscal year 2015 levels, which is 
critical to sustaining and improving readiness of the force. In fiscal 
year 2014, the Army completed 19 rotations at the Combat Training 
Centers (CTCs), including 6 rotations for deploying BCTs and 13 
decisive action training rotations (12 Regular Army and one Army 
National Guard). Fiscal year 2015 funding levels challenge Army 
commanders to sustain continuity in readiness across the force; 
however, we remain committed to CTC rotations to build leader and unit 
readiness. Fiscal year 2015 plans fund 19 CTC rotations, with 15 
Regular Army and 2 Army National Guard decisive action rotations, with 
fiscal year 2016 continuing this level of CTC exercises. We are 
improving Training Support Systems to enable more realistic home 
station training, increase collective training proficiency and enhance 
operational readiness for contingencies across the globe; however, 
funding constraints in fiscal year 2015 impede our ability to maximize 
home station training goals. The President's budget request for fiscal 
year 2016 allows the Army to increase training readiness to battalion-
level across the Active component force and to platoon-level in the 
Reserves. Lower funding levels will not allow us to achieve this 
balanced readiness.
    Although the Army attempts to mitigate the impacts on training 
readiness, we must continue to implement the Contingency Force model of 
fiscal year 2015 in order to maintain readiness for the 24 of 60 BCTs 
that will receive sufficient funding to conduct training at CTCs and 
home station. Funding shortages will limit the remaining 36 BCTs to 
minimum Individual/Crew/Squad resourcing levels through sufficient 
Training Support Systems (TSS). In short, sequestration forces the Army 
to ration readiness. Regardless of funding levels, we are committed to 
keeping CTCs a priority.
    Our aim is to provide tough, realistic multi-echelon home station 
training using a mix of live, virtual and constructive methods that 
efficiently and effectively build soldier, leader, and unit competency 
over time, contributing to the effectiveness of the current and future 
forces. Training will integrate the unique capabilities of the Light, 
Medium and Heavy forces, as well as the capabilities of Conventional 
and Special Operations Forces. Furthermore, we are optimizing the use 
of existing training capacity and leveraging other opportunities such 
as CTCs, exercises and operational deployments to maximize the training 
benefits of fixed overhead and operational costs. Training centers such 
as Joint Multinational Readiness Center will increase our 
interoperability with Allies. Our goal is to increase readiness from 33 
percent to 70 percent of our Regular Army BCTs, allowing the Army to 
balance combatant command force requirements while maintaining surge 
capability--but we need consistent resources to get there. We are also 
increasing funding for our individual and institutional training. 
Funding increases focus on leader development, entry-level training and 
flight training. This allows the Army to develop its future leaders, 
prepare its soldiers to operate in today's dynamic combat environment 
and provide trained and ready soldiers to meet combatant commanders' 
requirements.
    The Army continues to make progress in integrating the unique 
capabilities of each of its components to support the needs of the 
combatant commanders. As part of the Army's Total Force Policy, the 
U.S. Army Forces Command is leading the way by partnering every Guard 
and Reserve division and brigade with a Regular Army peer unit. The 
Army is also piloting a program to assign Guard and Reserve personnel 
directly to each Regular Army corps and division headquarters. For 
example, the Reserve component rapidly provided support capabilities in 
support of Operation United Assistance in Liberia to augment and 
replace elements of the initial Active component response.
    As we transition from combat operations in Afghanistan, our Army is 
focused on our ability to rapidly deploy forces around the world in 
order to meet the needs of our combatant commanders. To do this, we 
enhanced prepositioned equipment sets and created activity sets to 
support operations in Europe, the Pacific and around the world. 
Activity sets are prepositioned sets of equipment that enable U.S. 
regionally-aligned forces and multinational partners in Europe to train 
and operate. We have also reinvigorated our Emergency Deployment 
Readiness Exercise program and enhanced the en route mission command 
capability of our Global Response Force. The President's budget request 
provides sufficient capability to respond in each geographical 
combatant command's area of responsibility.
    The Army continues to be a good steward of the resources 
appropriated for replacement, recapitalization and repair of materiel 
returning from operations conducted in Afghanistan. In 2014, the Army 
efficiently synchronized equipment retrograde out of theater. 
Redeployment and retrograde operations remain on schedule; however, the 
Army continues to forecast a need for reset funding for 3 years after 
redeployment of the last piece of equipment from theater. A steady, 
responsible drawdown of personnel and equipment demonstrates good 
stewardship of resources while facilitating transition to the post-2014 
Resolute Support Mission in Afghanistan. In addition, we identified 
almost $2 billion of potential requirement reductions in Contractor 
Logistics and Training Support, and took advantage of our wartime reset 
program to reduce Depot Maintenance by over $1.3 billion over 5 years. 
These changes allowed the Army to increase the capability of its 
prepositioned stocks program without an increase in the associated 
costs.
    The proliferation of information and communications technologies 
increases the momentum of human interaction, creating a constantly 
shifting geopolitical landscape. An Army that is globally engaged and 
regionally aligned requires access at the point of need, robust network 
capacity and capability that is tailorable and scalable. The Army's 
strategy is to effectively leverage joint networks, transition to 
cloud-based solutions and services, reduce the culture of controlling 
network resources and divest legacy systems to make way for resources 
to build network modernization. Over time, this will significantly 
boost information technology operational efficiency, improve mission 
effectiveness and posture the Army to more quickly adapt and innovate.
    The Army continually seeks incremental improvements to its 
institutional organizations, processes and business systems in order to 
provide ready forces in the most fiscally responsible way for the 
Nation. The Army is expanding its efforts to control the cost of 
business operations by reducing the size of headquarters units, which 
we view as a fiscal imperative. Progressive fielding of Enterprise 
Resource Planning systems is enhancing accountability, changing 
business processes and enabling the retirement of legacy systems that 
will ultimately reduce our overall costs. Our workforce is adapting to 
new systems and processes inherent in increased internal controls and 
enterprise connectivity across business domains. Army leaders are 
actively engaged in change management and committed to meeting audit 
readiness goals and the September 2017 audit assertion of our financial 
statements. We continue to challenge the status quo, enabling the 
institutional Army to perform its activities smarter, faster and at 
reduced cost to provide more resources for readiness.
                         ensuring a modern army
Modernization
    Decreases to the Army budget over the past several years have had 
significant impacts on Army modernization and threaten our ability to 
retain overmatch through the next decade. Since 2011, the Army has 
ended 20 programs, delayed 125 and restructured 124. Between 2011 and 
2015, Research and Development and Acquisition accounts plunged 35 
percent from $31 billion to $20 billion. Procurement alone dropped from 
$21.3 billion to $13.9 billion. We estimate sequestration will affect 
over 80 Army programs. Major impacts include delays in equipping to 
support expeditionary forces, delays in combat vehicle and aviation 
modernization, increases in sustainment costs to fix older equipment 
and increases in capability gaps.
    Our intent is to modernize and equip soldiers with effective, 
affordable and sustainable equipment that is ready and tailorable to 
support the full range of combatant command requirements. The 
President's budget request would provide over $2 billion to address the 
growing gaps in our modernization accounts. Even with this additional 
funding, modernization remains more than $3 billion short of the 
historical average as a percentage of the Army's budget.
    The Army will continue to protect Science and Technology (S&T) 
investments critical to identifying, developing and demonstrating 
technology options that inform and enable affordable capabilities for 
the soldier. S&T efforts will foster innovation, maturation and 
demonstration of technology-enabled capabilities, maximizing the 
potential of emergent game-changing landpower technologies. Key 
investments include Joint Multi-Role Helicopter, the foundation for the 
Army's Future Vertical Lift capability; combat vehicle prototyping; 
assured Position, Navigation and Timing and enhancing cyber operations 
and network protections. We continue to explore the possibilities of 
cyber, high-energy laser, materials, human performance and quantum 
science technologies for a variety of applications.
    The centerpiece of the Army's Modernization Strategy continues to 
be the soldier and the squad. The Army's objective is to rapidly 
integrate technologies and applications that empower, protect and 
unburden the soldier and our formations, thus providing the soldier 
with the right equipment, at the right time, to accomplish the assigned 
mission. The Army will support this priority by investing in 
technologies that provide the soldier and squad with advanced 
warfighting capabilities such as enhanced weapon effects, next 
generation optics and night vision devices, advanced body armor and 
individual protective equipment, unmanned aerial systems, ground-based 
robots and soldier power systems.
    Improvements to mission command will facilitate the decisionmaking 
of leaders and soldiers across all tactical echelons for Unified Land 
Operations in support of the Joint Force and allies. The Army will 
develop and field a robust, integrated tactical mission command network 
linking command posts, and extending out to the tactical edge and 
across platforms. We will build enhanced mission command capabilities 
and platform integration by fielding software applications for the 
Common Operating Environment, while working to converge operations and 
intelligence networks. Based on the current and projected demands for 
ISR, the Army adjusted the Gray Eagle unmanned aerial system program's 
fielding schedule to make more assets available to strategic and 
operational commanders this year. The Army also expanded the Aerial 
Intelligence Brigade with an additional 18 Gray Eagles for a total of 
36 aircraft, and an increase from 48 to 165 soldiers per company.
    With respect to combat platforms, and those desired to enable 
greater protected mobility, the Army's objective is to consider the 
most stressing contingency operations and make its fleets more capable. 
In addition to the Apache AH-64E and Blackhawk UH-60M investments, 
which support the Army's Aviation Restructure Initiative, the Army will 
continue development of the Armored Multi-Purpose Vehicle to replace 
the obsolete M113 family of vehicles and begin to produce the Joint 
Light Tactical family of vehicles. The Army will also continue to make 
improvements to the survivability, lethality, mobility and protection 
of the Abrams tank, Bradley Infantry Fighting Vehicle and Paladin self-
propelled howitzer fleets. While resource constraints will force the 
Army to delay new system development and investment in the next 
generation of capabilities, we will execute incremental upgrades to 
increase capabilities and modernize existing systems.
    Few choices remain if modernization accounts continue to bear the 
brunt of sequestration. Most programs are already at minimum economic 
sustaining levels, and further reductions will rapidly increase the 
number of cancellations. Those programs remaining will have higher unit 
costs and extended acquisition schedules. Sequestration will create 
severe reductions in buying power and further delays filling capability 
gaps, forcing the Army to tier modernization--creating a situation of 
``haves and have nots'' in the force. Rapid regeneration to fill 
modernization gaps and the ability to ensure interoperable, networked 
formations will come at a premium in cost and time. Most complex 
systems in production now take 24-36 months to deliver once Congress 
appropriates funding, while new starts or restarts take even longer. To 
address the steep reductions in modernization accounts, the Army 
emphasizes early affordability reviews, establishing cost caps (funding 
and procurement objectives), synchronizing multiple processes and 
divesting older equipment quickly.
Organic and Commercial Industrial Base
    The Army's Industrial Base consists of Government-owned (organic) 
and commercial industrial capability and capacity that must be readily 
available to manufacture and repair items during both peacetime and 
national emergencies. We are concerned that we will not be able to 
retain an Army Industrial Base that provides unique capabilities, 
sustains the capacity for reversibility and meets the manufacturing and 
repair materiel demands of the Joint Force. In the Commercial 
Industrial Base, prime suppliers have increased their role as 
integrators, and delegated key innovation and development roles to a 
vast and complex network of sub-tier suppliers. Sub-tier suppliers have 
responded with their own complex network of suppliers, some of which 
are small, highly skilled and defense dependent firms--these small and 
specialized firms serve as the warning indicator that gauges the health 
of the overall industrial base. In fiscal year 2014, the Army 
identified those commercial sector industrial capabilities vital to our 
national defense and sustainment of a credible and capable smaller 
force. We must continue to protect these capabilities.
Cyber
    Network dominance and defense is an integral part of our national 
security, and the Army is focused on proactively providing increased 
capability to the Joint Force. With the evolving cyber environment, the 
Army has been proactively adapting to cyber threats and vulnerabilities 
by transforming processes, organizations and operating practices. As 
the Army restructures LandWarNet to support operations worldwide, it is 
imperative we rapidly innovate and fund network and cyber 
infrastructure, services, security, and capabilities.
    A number of institutional transformations are in place or ongoing 
to build and sustain the Army's future cyberspace force requirements. 
To be more agile and responsive, while improving unity of command and 
synchronization of cyberspace operations, we have consolidated Army 
Cyber Command (ARCYBER), 2nd Army and the Joint Force Headquarters-
Cyber under one commander. The Army has established the Cyber Center of 
Excellence at Fort Gordon, GA, and will serve as our focal point to 
drive change across the Army. The proponent lead for cyberspace 
operations shifted from ARCYBER to the Cyber Center of Excellence under 
the U.S. Army's Training and Doctrine Command (TRADOC). Additionally, 
we established an Army Cyber Institute at West Point to collaborate 
with government partners, industry and other higher education 
institutions to develop cyber solutions. The creation of a cyber 
network defender enlisted specialty and the Cyber Branch within the 
officer corps was an effort to help focus and manage the Army's cyber 
talent.
    In terms of new and emerging initiatives, ARCYBER and the 
acquisition community are pursuing ways to bring capabilities, 
including big data analytics, to Army operations in order to improve 
our cyber defense capability. We play a vital role in cyber operations 
across the DOD and the Joint Force by providing Cyber Protection Teams 
and Cyber Support Teams. Recent DOD decisions have resulted in the 
pursuit of a defense-wide global implementation of network 
modernization, including the Joint Regional Security Stacks, to enhance 
the security of our networks. We continually conduct assessments to 
better understand cyber vulnerabilities in our combat platforms and 
communications systems. We must make prudent investments in our cyber 
infrastructure, including facilities, networks and equipment to ensure 
a capable force. The Army is currently reviewing cyber training range 
capabilities and capacities to better assess future requirements. All 
these efforts will generate resourcing requirements, which will have to 
compete against other equally urgent priorities within the Army.
Installations, Water and Energy
    Since 2012, as the Army implemented several rounds of budget 
reductions, our installation programs have seen dramatically reduced 
services and sustainment. Although we have survived for 2 years at 
these reduced funding levels by deferring critical facility maintenance 
and cutting back on services, should the increases proposed by the 
President not materialize, we will seriously impair our facilities and 
have to permanently reduce important programs and services. Even with 
these increased funds, facilities maintenance is funded at only 79 
percent in fiscal year 2016, which translates to higher future repair 
and renovation costs.
    As stated in previous testimony, we need another round of BRAC. We 
simply have too much surplus infrastructure and will have even more as 
we downsize. We are already in the process of separating nearly 152,000 
soldiers, and sequestration would force us to separate another 60,000--
for a total reduction of 212,000. In addition, we have reduced over 
50,000 civilians from these same installations. Without a BRAC and the 
realized cost savings, the only alternative is to make additional cuts 
in training, manpower and modernization to make up for shortages in 
installation funding. These are not cuts we can afford to make. To 
date, we have been able to mitigate the adverse impact by focusing 
reductions on Europe and eliminating facilities not associated with 
U.S. installations. Through analysis and evaluation, we continue to 
examine other ways to reduce infrastructure within our authorities 
around the world. We are now reducing personnel at U.S. installations 
and we expect excess facility capacity will be about 18 percent Army-
wide when we reach the end strength ramp of 490,000 for the Regular 
Army in fiscal year 2015.
    To improve the resilience and efficiency of our remaining 
infrastructure today and in future years, the Army will continue its 
efforts to increase energy efficiency, expand the use of onsite 
renewable energy, reduce water consumption, and reduce waste 
generation. This year, we will issue an Energy and Sustainability 
Strategy that focuses on building resiliency. Implementation of this 
strategy will facilitate continuity of operations and improve the 
Army's energy, water and sustainability posture. These actions will 
also enhance the Army's ability to mitigate and adapt to the 
deleterious effects of climate change.
      soldiers and civilians committed to our army and profession
    We must never forget our soldiers will bear the burden of our 
decisions with their lives and health. As Army professionals, we must 
do everything possible to maintain the trust of our soldiers, 
civilians, and families who selflessly sacrifice so much. Today, they 
trust that we properly prepare them with the right tools and resources 
necessary to accomplish the missions that take them into harm's way. To 
ensure the Army maintains the trust of the American people we serve, 
the Army is evaluating ways to further develop our military and 
civilian professionals, and ensure an uncompromising culture of 
accountability exists at every level of command. As the Army prepares 
for the environment that lies ahead, we must anticipate the unique 
ethical and moral challenges the future may present, and remain 
committed to developing Army Professionals of Competence, Commitment, 
and Character.
    The Army Ethic defines the moral principles that guide us in the 
conduct of our missions, performance of duty and all aspects of life. 
Our ethic is reflected in law, Army Values, creeds, oaths, ethos and 
shared beliefs embedded within Army culture. It inspires and motivates 
all of us to make right decisions and to take right actions at all 
times. The Army Ethic is the heart of our shared professional identity, 
our sense of who we are, our purpose in life and why and how we serve 
the American people. To violate the Army Ethic is to break our sacred 
bond of trust with each other and with those whom we serve. Army 
Professionals must fulfill distinctive roles as honorable servants, 
military experts and stewards of our profession.
Adaptive Army Leaders for a Complex World
    The Army Operating Concept will require evolutionary change as we 
deal with the growing complexity of the operational environment, and 
this change begins by changing mindsets. The Army's competitive 
advantage, today and into the future, will always be our soldiers and 
civilians. Our top priority is to develop agile and adaptive leaders at 
the tactical, operational and strategic levels. Today and into the 
future, the Army must provide well-led and highly trained soldiers 
organized into tailorable and scalable organizations that provide our 
Nation's leaders an array of options, both lethal and nonlethal, across 
the entire range of missions. The Army Leader Development Strategy 
calls for the development of leaders through a career-long synthesis of 
training, education and experiences acquired through opportunities in 
institutional, operational, broadening and self-development learning 
formats, supported by peer and developmental relationships. Leader 
development and optimized soldier performance are directly linked to 
the Army's ability to operate in the future. We must develop 
multidimensional, adaptive and innovative leaders who thrive in 
decentralized, dynamic and interconnected environments.
    Leader development is the deliberate, continuous and progressive 
process--built on a foundation of trust and founded in Army values--
that grows soldiers and civilians into competent, committed 
professional leaders of character. As an institution transitioning from 
extended combat rotations, we must regain our expertise as trainers and 
improve the support and delivery of realistic training. Home station 
and centralized training must leverage both current and emergent 
technologies and integrate the latest capabilities, such as cyber; 
hybrid threats and joint, interorganizational and multinational 
organizations.
    Today's combat environment requires dynamic leaders and soldiers. 
To ensure all soldiers are adequately prepared, entry-level soldier 
training focuses on fostering individual resiliency, battlefield 
skills, Army values and developing the credentials to succeed in the 
Army and excel afterward. The NCO development model is a deliberate, 
analytical and data-driven process that constantly evaluates and 
adjusts to ensure all leaders have the right tools to lead and mentor 
others in today's and tomorrow's dynamic worlds. This model is 
collectively known as NCO 2020, which looks at training from the 
operational, institutional and self-development domains to ensure a 
career of lifelong learning and of harnessing experience and 
proficiency at all levels. This includes a revamping of the NCO 
education system and a renewed emphasis on individual and collective 
task training to help mitigate the effects of a reduction in Combat 
Training Center rotations.
    Today, the Army is expanding broadening opportunities for its NCOs, 
warrant officers, and officers with programs like Training with 
Industry, Strategic Broadening Seminars and the Congressional 
Fellowship Program. Broadening and educational experiences for senior 
field grade through general officers is also an area that must not be 
overlooked. Developing well-rounded senior leaders who are capable of 
effectively communicating the needs and capabilities of the profession 
to Civilian leaders within the larger context of national concerns is 
critical to the Nation.
    It is imperative that our leaders and organizations are capable of 
thriving in joint interorganizational and multinational teams, and that 
they seamlessly integrate multi-domain effects from air, sea, space, 
cyber, or land. This places a premium on innovation--on leveraging 
current and emerging concepts and technologies both today and going 
forward. Encouraging innovation and empowering all leaders with the 
skills required to win in a complex world, manage complex institutional 
processes and influence strategic decisionmaking within a broader 
operating environment is paramount to the Army's future.
    More than 250,000 people working in nearly 500 unique job series--
about 20 percent of the Total Army Force--comprise the Army Civilian 
corps. Given the size, complexity, impact and importance of the 
civilian cohort to the Army, we established the Army Civilian Workforce 
Transformation (CWT). CWT is the Army's strategic campaign to transform 
the Army's civilian cohort for the future and develop a more adaptable, 
capable and technically proficient Army civilian who is well grounded 
as a leader.
Soldier 2020 and Increased Opportunities for Women
    In 2012, the Army initiated a deliberate Service-wide effort--
Soldier 2020--to ensure our units are filled with the best-qualified 
soldiers. This effort includes opening previously closed positions and 
occupational specialties to women, while maintaining our combat 
effectiveness. The Soldier 2020 initiative seeks to remove as many 
barriers as possible and allow talented people--regardless of gender--
to serve in any position in which they are capable of performing to 
standard.
    Over the past 27 months, we have opened 6 previously closed 
Military Occupational Specialties and over 55,000 positions across all 
Army components to women. This includes opening 1,562 positions in U.S. 
Army Special Operations Command, including the 160th Special Operations 
Aviation Regiment. The Army is validating gender-neutral physical 
standards and completing a gender integration study, work that will 
inform decisions on opening the 14 remaining Military Occupational 
Specialties currently closed to women. Once the study is completed, we 
will make a recommendation to the Secretary of Defense on opening as 
many as 166,000 positions across the Active and Reserve components to 
our women in uniform. As part of the Soldier 2020 initiative, the Army 
Ranger School assessment program will begin this spring to assess 
female soldiers and officers into Army Ranger School. The Army 
continues to proceed in an incremental and scientific-based approach to 
integrating women into previously closed units, positions and 
occupations while preserving unit readiness, cohesion, discipline and 
morale. The Army will complete all actions to meet Office of the 
Secretary of Defense requirements prior to January 1, 2016.
Sexual Harassment/Assault Response and Prevention (SHARP) Program
    From the Secretary and Chief of Staff of the Army down to our 
newest soldiers, we continue to attack the complex challenges of sexual 
assault. While we have made progress, much work remains. Sexual assault 
is a crime that violates the core values on which the Army functions, 
and sexual harassment shatters good order and discipline. Sexual 
harassment and sexual assault must be stamped out, and doing so remains 
a top priority throughout the Army. Commanders, the Chain of Command, 
and the Uniform Code of Military Justice provide the vital tools needed 
to prosecute offenders and hold all soldiers and leaders appropriately 
responsible.
    Across the Army, we are committed to maintaining momentum in Army 
SHARP and making further advances along our five lines of efforts: 
Prevention, Investigation, Accountability, Advocacy and Assessment. In 
the last year, our efforts along the Prevention Line of Effort resulted 
in actions such as consolidating SHARP training under TRADOC and 
Initial Entry Training and Professional Military Education to increase 
the quality and accessibility of our prevention tools. Our 
Investigation Line of Effort showed advances in Special Victim 
capabilities and Trial Counsel Assistance Programs. The Accountability 
Line of Effort had successes through our Special Victim Investigation 
and Prosecution capability and through tools such as Command Climate 
Surveys and Commander 360 degree assessments. Our Advocacy Line of 
Effort resulted in initial indicators of progress in establishing SHARP 
resource centers in over 12 installations. We continue to see interim 
progress along our Assessment Line of Effort as noted in the 
President's report and we continue to closely monitor the established 
metrics to measure compliance.
    In sum, we have seen some progress as evident in the recent 
statistics outlined in the 2014 ``Department of Defense Report to the 
President of the United States on Sexual Assault Prevention and 
Response'' that indicate a decrease in unwanted sexual contact in 
fiscal year 2014 compared to fiscal year 2012. Within the Army, survey-
estimated rates of unwanted sexual contact for the past year decreased 
significantly for active duty women (4.6 percent), compared to fiscal 
year 2012 (7.1 percent). In addition, reporting data demonstrates more 
victims are coming forward to report sexual harassment and sexual 
assault. In fiscal year 2014, sexual assault reporting in the Army 
increased by 12 percent over the previous year. We view this as a vote 
of confidence and a sign of increased trust in our leaders, in our 
response services and in changing Army culture. The decline in 
prevalence of unwanted sexual contact, combined with the increase in 
reports received, suggests the Army's efforts to prevent sexual assault 
and build victim confidence in our response system are making progress. 
Nevertheless, we must continue to work on fostering a climate where 
individuals are not afraid of retaliation or stigma for reporting a 
crime by ensuring individuals, units, organizations and specifically 
commanders and leaders understand their responsibilities. Retaliation 
takes many forms and originates from many sources--leaders, family, 
friends and, most pervasively, peer to peer. Retaliation in its 
simplest form is bullying. It is intimidation that deters people from 
acting. It enables offenders, threatens survivors, pushes bystanders to 
shy from action, and breeds a culture of complacence. Retaliation has 
no place in the Army and we must stamp it out.
    Sexual Assault Response Coordinators and Sexual Assault Prevention 
and Response Victim Advocates are now credentialed through the DOD 
Sexual Assault Advocate Certification Program, and the Army's SHARP 
Academy is expanding their knowledge, skills and abilities. Based on 
national experts' guidance, the Army's Sexual Assault Medical Forensic 
Examiner's course now surpasses Department of Justice requirements and 
establishes a best practice for all DOD to follow.
    The chain of command is at the center of any solution to combat 
sexual assault and harassment, and we must ensure it remains fully 
engaged, involved and vigilant. Toward this end, we enhanced the 
Officer and Enlisted Evaluation Reporting Systems to assess how 
officers and NCOs are meeting their commitments--holding them 
accountable through mandatory comments on how those leaders are acting 
to foster a climate of dignity and respect and their adherence to our 
SHARP program. With commanders at the center of our efforts, we will 
continue to decrease the prevalence of sexual assault through 
prevention and encourage greater reporting of the crime. We expect to 
see reporting numbers to continue to rise. As our efforts to enforce 
discipline, prosecute offenders and eliminate criminal behavior mature, 
we expect the number of sexual assaults occurring within the Army to 
eventually decrease. There is no place for sexual harassment or sexual 
assault in our Army or our society.
    The problems of sexual assault and sexual harassment will only be 
solved when every soldier, civilian, and family member stands up and 
unequivocally acts to stamp it out. Together, we have an obligation to 
do all we can to safeguard America's sons and daughters, as well as 
maintain trust between soldiers, civilians, families, and the Nation. 
Army leaders, at every level of the chain of command, are doing this 
through prevention, investigation, accountability, advocacy and 
assessments.
               maintaining the premier all volunteer army
    As we shape the force of the future, we must enhance force 
readiness, while taking care of the men and women who serve. This 
means, while providing combatant commanders with versatile and trained 
forces, we also have an obligation to support our soldiers, families 
and civilians while they serve in the Army, and as they transition back 
to civilian life. Those who make up the Total Army--soldiers, families 
and civilians; Regular Army, Army National Guard, and Army Reserve--
represent its strength. ``Total Army Strong'' expresses our enduring 
commitment to soldiers, families, and civilians, and to sustain a 
system of programs and services to mitigate the unique demands of 
military life, foster life skills, strengthen resilience and promote a 
strong and ready Army. ``Total Army Strong'' provides commanders 
flexibility to prioritize and adjust programs and services, regardless 
of geographic location.
    We recognize that attracting and retaining highly-qualified 
individuals in all three components is critical to readiness. However, 
the stronger economy, including lower unemployment, poses challenges to 
recruiting and retention in fiscal year 2016. Due to obesity, medical 
conditions and other reasons, less than one-third of otherwise-eligible 
Americans would even qualify for military service. Though we face 
recruiting challenges in fiscal year 2016, we will man our formations 
with highly-qualified and diverse soldiers by continuing and 
strengthening those recruitment and retention programs that best 
enhance and sustain the All-Volunteer Army.
Ready and Resilient Campaign
    We must support and appropriately resource the Army's Ready and 
Resilient Campaign. This campaign provides holistic, evidence-based 
tools, training and resources to our commands and leaders who care for 
our soldiers, civilians, and family members so they can strengthen 
their resilience and achieve and sustain personal readiness. The Army's 
Ready and Resilient capabilities improve the physical, emotional, and 
psychological resilience of the entire force, attack the foundation of 
acts of indiscipline and prevent negative behaviors from escalating to 
damaging events such as suicide or sexual assault. We must ensure the 
overall readiness and resilience of the Total Army Family through 
optimal sleep, activity and nutrition--the Performance Triad. The 
Performance Triad strengthens individual and unit readiness through a 
comprehensive approach that promotes leadership and behavior change 
strategies to improve personal and unit readiness and resilience, as 
well as physical, emotional, and cognitive dominance through optimized 
sleep, physical activity, and nutrition. The Performance Triad empowers 
leaders to coach and mentor health readiness using technology to 
actuate behaviors that support lasting cultural change as a mandate of 
the Army profession.
Soldier for Life
    Soldier for Life is not just a program; it is a change in mindset. 
One way we encourage this frame of mind is through senior leader and 
installation engagements, as well as changes in training curriculum. We 
want soldiers to understand and believe from the time they come into 
the Army and for the rest of their lives, that they deserve our utmost 
care and attention throughout the soldier lifecycle--``Once a Soldier, 
always a Soldier . . . a Soldier for Life!'' As soldiers return to 
civilian life, they will continue to influence young people to join the 
Army and, along with retired soldiers, will connect communities across 
the Nation with its Army.
    As we reduce the Army's end strength, we owe it to our soldiers and 
their families to facilitate their transition to civilian life. The 
Army supports continuum of service initiatives to help in this effort 
by communicating the benefits of continued service in the Reserve 
Components. Additionally, the ``Soldier for Life'' Program connects 
Army, governmental and community efforts to facilitate the successful 
reintegration of our soldiers and families back into communities across 
the Nation through networks in employment, education and health. Our 
pre- and post-retirement services ensure those who served become and 
remain leaders in their community. For example, we have developed 
strong relationships with government, nongovernment, and private sector 
entities to include direct collaboration with the Departments of 
Veterans Affairs, Labor, and the Chamber of Commerce to bring 
employment summits to installations worldwide.
                                closing
    We face a period of critical decisions that will impact the Army's 
capability and capacity for the next decade. It is important that we 
make the right decisions now. The operational and fiscal environments 
are straining the Army as we attempt to balance end strength, readiness 
and modernization to meet current demands while building the 
foundations of a force that can meet future challenges. The velocity of 
instability continues to increase worldwide, whether of ISIL and 
terrorism in Iraq, Syria, and Yemen; anarchy and extremism in North 
Africa; Russian belligerence; provocation by North Korea; or complex 
humanitarian assistance requirements and the unpredictable nature of 
disaster relief missions. But despite all of this, we continue to 
reduce our military capabilities, degrade readiness and erode trust 
with the specter of sequestration. We ask the help of Congress to 
eliminate sequestration and provide our soldiers with greater 
predictability in these uncertain times. We must not reduce the Army 
below 980,000 soldiers and leave the Army unprepared to meet Defense 
Strategic Guidance or respond to some unforeseen event.
    Our strategic partnership with Congress is absolutely critical to 
the Army's success. Simply put, our soldiers and civilians could not do 
what they do each day without your support. Our Army needs 
congressional support now more than ever. The decisions we make this 
year and next on our fiscal policy, and related end strength, readiness 
and modernization will directly impact the security of the United 
States and the world for decades to come. Today, we have the most 
capable and professional Army in the world. Our soldiers have gained 
invaluable experience and expertise; built relationships among 
interagency partners, allies and each other and developed an intimate 
understanding of the world we live in. As we reduce the size of our 
Army, each soldier leaving the ranks takes with him or her invaluable 
experiences and a deep understanding that has come at great cost and is 
impossible to replace in short order.
    We look forward to working with Congress to ensure the Army is 
capable of fulfilling its many missions, while continuing to be good 
stewards of the taxpayers' money. Despite ongoing fiscal uncertainties, 
we are pleased to report professionalism and morale within the Army 
remains strong. Whether advising and assisting in Afghanistan and Iraq, 
supporting allies in Europe and the Republic of Korea, serving in the 
homeland or engaging our partners around the world, the indomitable 
spirit of our greatest assets, our soldiers--our Nation's Trusted 
Professionals--stands ready: Ready to safeguard our Nation's liberty, 
deter aggression and protect our national interests at home and abroad. 
With your assistance, we will continue to resource the best-trained, 
best-equipped, and best-led fighting force in the world: the U.S. Army.

    Chairman McCain. Thank you, Mr. Secretary.
    Secretary James?

STATEMENT OF HON. DEBORAH LEE JAMES, SECRETARY OF THE AIR FORCE

    Ms. James. Thank you, Mr. Chairman and Ranking Member Reed 
and the rest of the committee. We very much appreciate the 
opportunity to come before you today. It certainly is an honor 
for me to be here as always with my wingman, General Mark 
Welsh, a phenomenal leader, and with my colleagues as well, 
Secretary McHugh and General Odierno from the Army.
    Mr. Chairman, this morning--or this afternoon rather, I 
would like to share with you some of my key takeaways that I 
have accumulated over the last 15 months that I have had the 
privilege to serve as the Secretary of the Air Force. You have 
already touched upon several of them. So this is really a foot 
stomp on my part.
    So, number one, is that today we indeed are the smallest 
Air Force that we have ever been since our inception as an air 
force in the year 1947. Moreover, our aircraft in the Air Force 
are the oldest that they have ever been. 27 years of age is the 
average age, and that means that a lot of our fleets are 
actually substantially older than 27 years of age. Here is 
perhaps the most shocking statistic of all. The chairman 
already said it. But more than half of our combat Air Force is 
not sufficiently ready today for a high-end fight. Moreover, we 
certainly all know that the budgets are extremely tight, and 
all of these factors are coming together at a time when world 
conditions are as unpredictable and dangerous as certainly I 
can ever remember them ever being, at least in the 34 years 
that I have been working on defense issues.
    Now, your Air Force is working very, very hard to meet the 
combatant commanders' most urgent needs, but I have to join 
with my colleague, Secretary McHugh, in saying that if we are 
forced to live with the sequestration level budget, simply we 
will not be able to sustain this pace. Put plainly, 
sequestration I believe will place American lives at greater 
risk and that will be the case both here at home and abroad. 
Under sequestration, we will not be able to simultaneously 
defeat one adversary in one part of the world, deny a second 
adversary elsewhere, their objectives, as well as defend the 
homeland. That, of course, is our strategy, and under 
sequestration, I am telling you we cannot do it all 
simultaneously.
    Mr. Chairman, at a recent hearing on sequestration, you 
said if we continue with these arbitrary defense cuts, we will 
harm our military's ability to keep us safe. I just want to say 
I think you are absolutely correct, and this is simply not 
acceptable. Something has to give. We thank you, Mr. Chairman 
and other members of the committee, because we know that you 
are working hard to get sequestration lifted, and we just ask 
you to please keep that up because we do need it lifted 
permanently.
    Now, rather than simply living with the forced 
sequestration levels and submitting a budget under those 
levels, instead we are looking for a budget figure in fiscal 
year 2016 which is substantially closer to what we need. For 
the Air Force, this means about a $10 billion differential in 
fiscal year 2016, $10 billion more than what sequestration 
level funding would ordinarily provide to the Air Force. This 
$10 billion increase provides both the forces needed to meet 
our most pressing combatant commander requirements, and it also 
makes the most important investments in our top priorities. 
Here are our top priorities.
    Number one, taking care of people. There is a lot in this 
budget as it relates to people, but the number one priority on 
people that I want to call to your attention is that General 
Welsh and I firmly believe that this downsizing that we have 
been going through for the better part of 20-some years has to 
stop. If anything, we think we may have gone too far, which is 
precisely why we are calling for a modest upward adjustment in 
our total force end strength of about 6,600. That will be some 
to the active duty, some to the Guard, and some to the Reserve. 
Indeed, Mr. Reed, one of the reasons why we know now we have 
downsized perhaps too much is because our High Velocity 
Analysis (HVA), which came from the Guard and Reserve follow-up 
report, indicated that we are short in every single component. 
So we think we need a modest upward adjustment. That will help 
us to alleviate strains in our nuclear enterprise, in our cyber 
arena, as well as in maintenance. There are a number of other 
areas as well. We have a program for Remotely Piloted Aircraft 
(RPA), which we can talk about in the questions and answers 
(Q&A).
    Our second priority is getting the balance right between 
the readiness of today and modernizing for tomorrow. Now, 
General Welsh and I both consulted very closely with our 
combatant commanders as we built this budget, and we consulted 
closely with our sister Services as well. I can tell you the 
number one thing that the combatant commanders say they want 
from our Air Force is more intelligence, surveillance, and 
reconnaissance (ISR), ISR, ISR. That is the number one 
priority. So this budget, which is before you, ramps up support 
to the most urgent needs of ISR, to include support for 60 
steady state ISR patrols, as well as extending the life of the 
U-2 and the AWACS programs. We will also support vital space 
programs, strengthen the nuclear enterprise. We will fund our 
flying hours to the maximum executable level. We will invest in 
weapons system sustainment, and ensure that combat exercises 
like the Red Flags and the Green Flags remain strong. All of 
that is the readiness of today, but the readiness of tomorrow, 
modernization is important as well.
    When it comes to modernization, strengthening the nuclear 
enterprise remains the Air Force's number one mission priority, 
and we have quite a lot in this 5-year plan for the nuclear 
enterprise. There are our top three modernization programs, the 
KC-46, the F-35, the long-range strike bomber. All of those are 
supported in this budget submission. In addition, we will make 
important investments in space, science and technology, and 
other areas.
    Finally, priority number three and the last priority is 
what we call ``make every dollar count,'' and that is because 
we get it that the taxpayer dollar is precious and we cannot 
afford to waste a single dollar. We are constantly looking for 
efficiencies and ways to do things differently to free up 
resources and to give back to our people some of their valuable 
time.
    So, for example, we took an aggressive 20 percent 
headquarters reduction in funding in fiscal year 2015, which 
includes civilians, contractors, and redirecting military 
personnel. We did not have to do it in 1 year. The Secretary of 
Defense's (SecDef) challenge was over 5, but we did do it in 1 
year because we thought it was the right thing to do and it 
would free up the dollars more quickly.
    Not only that, we have reduced our service contractor 
workforce, about $7 billion in obligations, and 30,000 contract 
full-time equivalents in the last few years. We plan to 
continue scrubbing and scrubbing and scrubbing both the 
civilian and the contractor workforce over the years.
    We also have a series of initiatives we call ``bend the 
cost curve,'' and we think, Mr. Chairman, these are very much 
in line and in the spirit of your acquisition reform pitch.
    So all in all, there is a lot of good in this budget, but 
as you said, Mr. Chairman, there are some hard choices as well. 
Even though we are $10 billion up from sequestration, we are 
still $10 billion down from where we were just a few years ago. 
So we are proposing to reduce the A-10 and to slow the growth 
in military compensation. For example, these are the hard 
choices.
    We realize these proposals are very controversial. They are 
not popular and some simply do not agree, and that there are 
risks associated with all of this. We understand that. But we 
would just ask everyone to keep in mind that it gets uglier and 
uglier and uglier in terms of choices if we have to go to 
sequestration.
    So our Air Force under a sequestered budget would mean 
divesting the U-2 and the Global Hawk block 40 and the KC-10s 
and reducing MQ-1s and MQ-9s by 10 combat air patrols and 
deferring 14 F-35s, canceling the adaptive engine program. Then 
there would be a series of reductions we would have to take in 
space, in cyber, in nuclear. Really everything under 
sequestration would be at risk. It threatens everything.
    So we thank you and we ask you to please continue to push 
to lift it permanently. Thank you, Mr. Chairman.
    [The joint prepared statement of Ms. James and General 
Welsh follows:]
  Joint Prepared Statement by Hon. Deborah Lee James and Gen. Mark A. 
                            Welsh III, USAF
                            i. introduction
    The U.S. Air Force is the most globally engaged air force on the 
planet. American airmen are in constant defense of our national 
interests, whether dropping bombs, commanding satellites in space, 
delivering humanitarian relief, or protecting the homeland with an 
array of air, space, and cyberspace capabilities our forefathers could 
never have imagined. Airmen collaborate and train with allies--
expanding and strengthening our collective capabilities--and guarantee 
the global freedom of movement and access that Americans have come to 
expect. Alongside its sister Services, America's Air Force delivers our 
Nation the power, influence, agility, and global reach no other country 
currently possesses . . . no matter the effort, no matter the odds. Our 
airmen are warfighters and they bring airpower to bear on behalf of 
America every day.
    But 24 years of continual combat operations, coupled with 
constrained and unstable budgets, has taken its toll. America needs a 
force ready for a spectrum of operations more global and complex than 
ever before. Instead, a relentless operations tempo, with fewer 
resources to fund, coordinate, and execute training and exercises, has 
left a force proficient in only those portions of the mission necessary 
for current operations. This is not the Air Force America expects . . . 
but today, it is the Air Force America owns.
    Today's Air Force is the smallest and oldest it has ever been, even 
while the demand for airpower continues to climb. There is no excess; 
there is no ``bench'' . . . everything is committed. When called into 
action, today's Air Force cannot respond in one corner of the Earth 
without diluting its presence elsewhere. The blanket of American 
airpower covering the globe has thinned; in places, it is nearly 
threadbare. As we have cut our capacity, we have found our capability 
equally diminished--the two qualities are inextricably linked.
    The Nation deserves an Air Force that can outmatch its most 
dangerous enemies at their peak of power--the most demanding 
warfighting scenario, not just the ``low-end fight.'' The President's 
budget (PB) takes a critical step toward recovering that Air Force, but 
make no mistake: even at President's budget levels, the Air Force 
remains stressed to do what the Nation asks of us. To truly reverse the 
erosion of American airpower requires sustained commitment, stability, 
and the decision-space to invest each taxpayer dollar where it can best 
deliver the most combat power.
    Without bold leadership today--difficult decisions and a commitment 
to air, space, and cyberspace investment--America's airpower advantage 
is increasingly at risk.
                      ii. a globally engaged force
    At the Nation's call, American airmen leap to defend her interests. 
They respond at all hours, on any day, anywhere in the world, and they 
do it whether the requirement has been planned for or not. After all, 
enemies (and disasters) rarely strike when expected.
    On the eve of 2014, the Nation--and the Air Force--planned for a 
relatively quiet year. We expected to draw down combat forces in 
Afghanistan, and have an opportunity to reset and reconstitute our 
forces.
    Instead, the Ukraine and a resurgent Russia happened. Ebola 
happened. The Islamic State happened. Airmen flew 19,959 offensive 
sorties, releasing 8,249 weapons \1\ in support of U.S. Central Command 
alone. Air Force tankers offloaded 172 million gallons of fuel to Joint 
and coalition air forces, and airmen flew 79,445 airlift missions in 
operations on every continent.\2\ We kept watch over our enemies, 
collecting and analyzing over 18 million images and 1.6 million hours 
of full motion video . . . and we evacuated 6,075 wounded soldiers, 
sailors, airmen, marines, and civilians from the battle space. Instead 
of slowing down, our force sped up.
---------------------------------------------------------------------------
    \1\ These include Close Air Support, Escort, and Interdiction 
sorties. Data from AFCENT Airpower Summary
    \2\ Tanker Airlift Control Center Office of Public Affairs
---------------------------------------------------------------------------
    The Air Force was equally busy at home, providing capability most 
Americans never have to think about. Airmen launched nine national 
security space missions--bolstering GPS, weather, and Space Situational 
Awareness capabilities to benefit military and civilian users alike. 
They engaged with allies to build America's space partnerships; and 
worked to qualify potential new launch providers to increase 
competition, reduce costs, and assure American access to space in the 
future. Airmen began the long, critical work of revitalizing two of the 
three legs of our Nation's nuclear triad, gathering over 300 
recommendations from the field on how to improve Air Force nuclear 
culture . . . and then implemented those ideas, to the tune of $50 
million in fiscal year 2014 and a planned $154 million in fiscal year 
2015.
    Airmen provide access, overwatch, protection, and staying power for 
American and coalition forces the world over. They degrade adversary 
capabilities, and re-affirm every day that America can project power 
anywhere in the world, at the time and place of our choosing. That 
power--that presence, at home and abroad--is among the strongest 
deterrents confronting the Nation's would-be enemies . . . and 
protecting our national interests.
              iii. capacity and capability: a dual problem
    Americans have invested in airpower for well over 60 years to 
ensure the fight is never fair. But today--after many years of 
continual operations and a few fiscal upheavals--the Nation is at a 
crossroads, with a fundamental disconnect between its airpower 
expectations and its airpower capability.
    There was a time when the Air Force could trade some capacity in 
order to retain capability. But we have reached the point where the two 
are inextricable; lose any more capacity, and the capability will cease 
to exist.
    The Service's intelligence, surveillance, and reconnaissance (ISR) 
force is a sobering example of this critical nexus. In today's 
warfighting environment there is nearly infinite appetite for Air Force 
ISR \3\--we simply do not have the capacity to fulfill it. To meet as 
much of the demand as possible, airmen work 10- to 12-hour shifts on a 
``7-on, 1-off'' pattern, flying over 900 hours a year--a rate that can 
accumulate a career's worth of flying hours in a single assignment. 
These are combat shifts, physically, mentally, and emotionally taxing . 
. . and to get it done, they are sometimes diverted from training that 
allows them to improve, advance, and build a professional military 
career. When such airmen are faced with the decision to separate or 
continue to serve, it is difficult to convince them that staying is in 
their best interests. We are losing them at a rate faster than we can 
replace them.
---------------------------------------------------------------------------
    \3\ A return to sequestration would result in 50 percent of the 
high-altitude ISR missions being flown today no longer being available. 
Commanders would lose 30 percent of their ability to collect 
intelligence and targeting data against moving vehicles on the 
battlefield.
---------------------------------------------------------------------------
    At some point, no level of effort will cover the capacity gap 
created by continual worldwide operations and dwindling, uncertain 
budgets. The capability itself will fail.
    The fleet offers another case in point. Today's Air Force is both 
the smallest and oldest it has ever been. Since Operation Desert Storm 
in 1991, the Air Force cut its total aircraft inventory from 8,600 to 
5,452. During that same time period, we cut Active, Guard, Reserve, and 
civilian airmen from 946,000 to little more than 662,000 (just 313,000 
on active duty). The average age of Air Force aircraft is 27 years, 
with many fleets substantially older.
    The newest B-52 bomber is 53 years old. In at least one Air Force 
family, three generations of airmen have piloted the Stratofortress, in 
combat engagements from Vietnam to Operation Enduring Freedom (see 
boxed text below).
      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    By automobile standards, 12 fleets of Air Force aircraft are 
authorized antique license plates in the State of Virginia. The Air 
Force can (and does) continue to patch these older platforms up and fly 
them in combat. But after extending their service life time and time 
again, each airframe reaches the point where it cannot be ``patched 
up'' anymore. It must be replaced or it fails.
    With aging aircraft and stressed fleets, today's capacity, as small 
as it is, is something of an illusion. The numbers are there--barely--
but the capability to command global influence is tenuous. What was, in 
earlier times, a blanket of airpower covering the globe, has been worn 
to mere threads.
                      iv. policy and purse strings
    The world continues to change at an unprecedented pace and 
operational requirements continue unabated. The demands for global 
engagement is challenging under any circumstance . . . but when 
combined with an uncertain budget environment, it drives the Air 
Force--indeed, all Services--to make incredibly difficult choices, 
pitting vital requirement against vital requirement.
    When budgets contract and budgetary policy is continually 
postponed, or written in a way that limits Service solutions to budget 
problems, decision-space shrinks, and already difficult budget choices 
become nearly impossible.
    In fiscal year 2012, when the Air Force originally forecast its 
requirements to meet the Defense Strategic Guidance, the Service 
planned an fiscal year 2016 topline of $134 billion. Today--as enacted 
in fiscal year 2015, and so requested in the fiscal year 2016 
President's budget--that topline has decreased to $122 billion. In 
aggregate, the loss across those 5 years is $64 billion (see chart I 
below).
      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
      
    To put this into perspective, if the Air Force shut off all 
utilities--turned off the lights, the heating and air conditioning, the 
water supply--at all our major installations for 12 years \4\. . . or 
if it quit flying for 20 months--did not burn any jet fuel at all for 
nearly 2 years . . . it would save only $12 billion. Enough to buy back 
1 year of sequestered funds. Money matters; the lost capability is 
real; and the impact is going to be significant.
---------------------------------------------------------------------------
    \4\ This number reflects the cost of utilities only at U.S. Air 
Force installations--it does not reflect installations investments writ 
large (and thus does not portray in any way the savings which could be 
associated with base realignment and closure)
---------------------------------------------------------------------------
    In addition, both budget uncertainty and legislative programming 
restrictions have left the Air Force with very limited decision-space 
over the past 3 years. Tightly constrained on aircraft divestiture and 
denied Base Realignment and Closure, leaves the Service with only a few 
accounts to yield savings from quickly and cleanly, without violating 
``must pay'' requirements: readiness, people, and modernization. From 
these, the Air Force worked hard to identify the least catastrophic 
choices it could.
    The Air Force took risk in infrastructure. Our investment in 
maintenance and repair--including restoration, modernization, 
sustainment, and new construction to recapitalize Air Force facilities 
and infrastructure--is just 1.9 percent of the Service's plant 
replacement value. Private industry standard is between 6 and 8 percent 
investment.\5\
---------------------------------------------------------------------------
    \5\ . . . and National Research Council studies indicate that an 
investment between 2 and 4 percent of PRV is warranted to avoid risk of 
accelerated deterioration and infrastructure failure.
---------------------------------------------------------------------------
    Unable to cut airframes we believe we need to divest or to reduce 
excess base capacity; the Service has cut personnel--taking risk in 
human capital. Since 2001, even as the Nation fought in Afghanistan and 
Iraq, Air Force uniformed end strength dropped by 44,000 airmen.\6\ We 
simply cannot get any smaller or we risk being too small to succeed.
---------------------------------------------------------------------------
    \6\ Fiscal year 2011-fiscal year 2014 Active, Guard, and Reserve
---------------------------------------------------------------------------
    We have also been forced to cut into some of the programs that keep 
airmen and airpower a step ahead of the enemy at all times. In 2013, 
for example, an entire Weapons School class--which produces the world's 
best tactical and operational airpower experts--was cancelled.
    Risk and tough choices are part of every business. The problem, for 
the Air Force, is that failure is never an option. Airmen will fix it, 
patch it, make do, and work until they drop to cover shortfalls. But 
asking it of them, year in and year out, risks unbearable strain on a 
force heavily engaged around the globe.
                          v. doing what we can
    Recognizing that budget uncertainty--and a need for fiscal 
restraint--may be here to stay, the Air Force has extended its 
institutional gaze out 30 years to synchronize budget and acquisition 
decisions with strategy. To guide this effort, in 2014 the Service 
published America's Air Force: A Call to the Future,\7\ a ground-
breaking new strategic framework. This framework calls for strategic 
agility to confront the rapidly-changing global environment, and--in 
conjunction with the upcoming Air Force Strategic Master Plan--will 
provide guideposts and long-range resourcing vectors with which to make 
the difficult tradeoffs required in years to come.
---------------------------------------------------------------------------
    \7\ http://airman.dodlive.mil/files/2014/07/
AF_30_Year_Strategy_2.pdf
---------------------------------------------------------------------------
    In the more immediate-term, the Air Force has realized value 
through its ``Every Dollar Counts'' (EDC) campaign. At the heart of EDC 
is the Secretary of the Air Force's challenge to every airman to take 
ownership of the processes they touch and to look for better ways to do 
business. EDC initiatives run the gamut, from soliciting grassroots 
savings ideas to overhauling Air Force acquisition practices. Efforts 
within the campaign have reduced energy costs by approximately $1 
billion, and identified another $1.3 billion in potential savings 
through Better Buying Power practices and the Air Force's partner 
initiative, Bending the Cost Curve. We project another $35.4 million in 
savings proposed by airmen, and have found opportunities to save $190 
million over the next 5 years by analyzing War Readiness Engine 
requirements. The savings are already planned for reinvestment in 
readiness, as well as to modernize equipment and infrastructure.
    Budgetary constraints also spurred the Air Force to re-evaluate the 
way it does business with its installations' host communities, and seek 
alternatives to the status quo. The Air Force Community Partnerships 
Initiative makes unprecedented use of public-public and public-private 
(P4) partnerships, leveraging the existing resources and capabilities 
of installations, state and local communities, and commercial entities 
to achieve mutual value and benefit for all. There are now 47 
installations in the Air Force Partnership Program who identified more 
than 1,000 initiatives across the spectrum of installation services and 
mission support . . . and many of these initiatives are developing 
further with potential application Air Force-wide.
    Additionally, the Air Force unequivocally relies on three strong 
components--Active, Guard, and Reserve--to sustain the force required 
to meet strategic uncertainty, fiscal constraint, and rapidly evolving 
threats head-on. The Air Force is absolutely committed to leveraging 
the distinct and complementary characteristics of its Total Force more 
effectively . . . and to do that, airmen must be postured to operate 
cohesively and seamlessly as one team. Over the last year, dialogue 
with stakeholders provided valuable perspective--and mutual 
understanding--about the necessary size and shape of the future Air 
Force. The Service spent 2014 thoroughly analyzing 80 percent of its 
mission areas and platforms, taking a close look at component balance. 
Over the course of the next year, the Air Force will continue 
evaluating the remaining 20 percent of the mission areas . . . and 
continue ongoing work to break down organizational, policy, and 
cultural barriers to seamless operations.
    The Air Force is a committed steward of America's resources, 
saving--or avoiding costs--to the tune of billions of dollars through 
the ingenuity of airmen. Yet even those billions fall far short of 
making up the losses of the past 3 years. We need a stable funding 
profile, and support for the tough fiscal decisions required, if we are 
to meet the complex global challenges of the coming years.
                 vi. an investment in global influence
    America is an airpower nation; we have enjoyed unrivaled success in 
the air for the past 70 years. But future success is not a birthright, 
and air and space superiority is not an entitlement. It must be earned. 
Without it, American influence diminishes and the U.S. military will be 
forced to radically change how it goes to war. Americans will be put in 
danger, and our leaders' options will be markedly limited. Our 
adversaries know this and are taking steps to tip the balance in their 
favor.
    We cannot let this happen. We must invest in the force required 
today and invest in the force we will need tomorrow.
    The fiscal year 2016 President's budget request is the result of 
difficult, purposeful, strategy-based resourcing decisions made to meet 
obligations set in the Defense Strategic Guidance. It aligns with 
Department of Defense and Air Force 30-year strategies; continues to 
regain ground in our ability to wage full-spectrum operations; 
maximizes the contributions of the Total Force; reinforces investments 
in nuclear deterrence and space control operations; emphasizes global, 
long-range and non-permissive capabilities; and focuses on unique 
capabilities the Air Force provides to the joint fight. It funds our 
greatest asset--airmen--by halting the active duty manpower drawdown 
and reinvesting pay and compensation savings in airmen's quality-of-
life programs. It preserves the Air Force's top three acquisition 
priorities: F-35; KC-46; and the long-range strike bomber.
    The fiscal year 2016 President's budget request also reflects 
changes in the global landscape, buying back combat capabilities in 
areas where the Air Force accepted risk in the fiscal year 2015 
President's budget--the E-8, Joint Surveillance and Target Attack Radar 
System, and F-15C. U-2 and E-3 Airborne Warning and Control System 
divestment is rephased to fiscal year 2019, so we can continue to 
operate those platforms and meet combatant commanders' most urgent 
needs. We've increased funding for the nuclear enterprise, space, 
cyber, ISR, and command and control improvements, investing in the 
Nation's strategic deterrence and high demand airpower assets.
    This budget cannot stand alone--it must serve as a point of 
departure for future years' stable, committed investment in global 
airpower for America. A return to sequestration-level funding will 
devastate readiness and modernization; it will force the Air Force to 
depart from a long-term, strategic planning framework in favor of one 
that triages only those things absolutely required in the short-term. 
It will reverse incremental progress made over the past 2 years in the 
recovery from fiscal year 2013's sequestration-level funding and will 
make it impossible to meet current operational requirements or execute 
the Defense Strategic Guidance. Under a sequestration-level budget, we 
will be forced to recommend divesting critical airpower capabilities--
like the KC-10 and U-2 fleets. Overdue investments in the nuclear 
enterprise will be reduced and technologies vital to future capability 
and the American industrial base--like the promising Adaptive Engine 
Program--will be halted.
                            vii. conclusion
    The U.S. Air Force is the world's best. American airmen are 
warfighters. The air, space, and cyberspace capabilities they bring to 
bear strike fear in the hearts of our enemies. If you are a threat, the 
Air Force can see you; it can reach you; and it can strike you. We must 
keep it that way.
    As airmen continue to support and defend America's interests around 
the globe--engaging in active combat and operational missions 
worldwide--the Nation must acknowledge the serious disconnect between 
the Air Force it expects, the Air Force it has today, and the Air Force 
it is funding for the future. Today's Air Force is the smallest and 
oldest it has ever been . . . and a high operational tempo, paired with 
a constrained and uncertain budget environment, only accelerates this 
trend. The Nation must invest in new technologies, in training, 
infrastructure, and personnel, if it intends to continue operating as a 
global superpower.
    The fiscal year 2016 President's budget request preserves the 
minimum requirement to meet current strategy. But even at the 
President's budget level, the Air Force remains stressed and shortfalls 
exist. Reversion to sequestration-level funding will carry great risk 
for American airmen, and for America itself.
    The fiscal year 2016 President's budget request is an investment in 
a force we hope the Nation will never have to use. But if the 
turbulent--and largely unexpected--global developments of 2014 prove 
anything, they prove this: America's Air Force must be ready to engage 
anytime, anywhere, and across the full spectrum of warfare. America 
expects it, combatant commanders require it, and our airmen deserve it.

    Chairman McCain. General Odierno?

 STATEMENT OF GEN. RAYMOND T. ODIERNO, USA, CHIEF OF STAFF OF 
                            THE ARMY

    General Odierno. Chairman McCain, Ranking Member Reed, the 
rest of the members of the committee, thank you so much for 
allowing us to be here.
    I think it is still imperative that I repeat again that we 
today are experiencing a diverse and complex array of threats 
that are unprecedented through a combination of transnational 
extremist organizations and nation states. We continue to 
witness an increase in the velocity of instability around the 
world that was just unforeseen just a few years ago. In Iraq 
and Syria, we continue to see the ruthless behavior of ISIL and 
the smoldering of a sectarian conflict which is threatening 
regional stability and the potential to escalate international 
terrorism. Order within Yemen has splintered. Anarchy, 
extremism, and terrorism are running rampant in Libya and other 
parts of North and Central Africa. In Europe, Russian 
aggression and its intervention in Ukraine challenges the 
resolve of both the European Union (EU) and NATO. Across the 
Pacific, China's military modernization efforts alarm our 
allies and concern our regional interests, while North Korean 
belligerence continues. We continue to have ever-evolving 
threats against the Homeland.
    In my opinion, this should not be a time to divest of our 
military capability and capacity, but that is what we are 
doing.
    We have already taken a significant decrease in Active 
component end strength, which has been said by both the 
chairman and the Secretary of the Army. We have deactivated 13 
BCTs in the Active component. We are in the process of 
eliminating three complete aviation brigades out of the Active 
component. We are taking 700 aircraft out of the Active 
component. We are taking another 100 aircraft out of the 
National Guard. We have slashed our investments in 
modernization by 25 percent. We have already purged the much-
needed entry fighting vehicle modernization program and Scout 
helicopter developmental programs. We have considerably delayed 
other upgrades for many of our systems and aging platforms.
    The unrelenting budget impasse has also compelled us to 
degrade our readiness to historically low levels. Today only 33 
percent of our brigades are ready, when our sustained readiness 
rate should be somewhere around 70 percent. Under our current 
budget, Army readiness will, at best, flat-line over the next 3 
to 4 years. The compromises we have made to modernization and 
readiness, combined with reductions to our force size and 
capabilities, translates directly into strategic risk. Today we 
are generating just enough readiness to meet our day-to-day 
needs of immediate consumption. We are unable to generate any 
residual readiness to respond to an unknown contingency or to 
even reinforce ongoing operations. This is a dangerous 
balancing act. We have fewer soldiers. The majority of our 
units are not ready. They are manning aging equipment at a time 
when demand for Army forces is higher than we originally 
anticipated.
    Our soldiers and leaders continue to perform superbly, 
though. Just look how busy we are and where the Army is around 
the world today, whether it is their engagement in Iraq, 
Afghanistan, Jordan, Kosovo, the Korean Peninsula, and across 
the African continent. We have rotational forces in Europe, 
Kuwait, and the Pacific. We are conducting a wide range of 
missions from humanitarian assistance to training and advising 
forces in contact to reassuring our allies with dedicated 
presence. This is the reality we face as we discuss Army 
posture.
    The President's fiscal year 2016 budget submission 
recognizes these challenges, but even the President's budget 
represents the bare minimum needed for us to carry out our 
missions and execute and meet the requirements of our defense 
strategy. It is in fact a tenuous house of cards. In order for 
it to work, all of our proposed reforms in pay and compensation 
must be approved. All our force structure reforms must be 
supported to include the aviation restructuring issue, and we 
must be allowed to eliminate a half a billion per year of 
excess infrastructure that we have in the Army.
    We potentially face a $12 billion shortfall in our budget. 
If BCA caps remain, that adds another $6 billion in potential 
problems. We can no longer execute the Defense Strategic 
Guidance (DSG). Sequestration would compel us to reduce end 
strength even further. That has been noted by several different 
people here today, which is of great concern to all of us.
    Anything below the President's Budget compromises our 
strategic flexibility and inadequately funds readiness. It 
further degrades an already underfunded modernization program. 
It impacts our ability to conduct simultaneous operations and 
shape regional security environments. It puts into question our 
capacity to deter and compel multiple adversaries. If the 
unpredictable does happen, we will no longer have the depth to 
react.
    We continue to work on achieving efficiencies within our 
own budget. We have taken advantage of a wartime reset program 
to reduce depot maintenance by $3.2 billion. We are reducing 
our reliance on contractor logistics, saving nearly $2 billion 
this year. We have identified and are avoiding costs in excess 
of $12 billion through the aviation restructure initiative 
(ARI). We have reorganized our BCTs throughout the force 
eliminating overhead and maximizing our combat capacity. We 
have eliminated nearly 12,000 positions by reducing all two-
star and above headquarters by 25 percent. We continue today to 
look to ways to achieve individual collective training 
efficiency.
    I would ask that we also look hard at our acquisition 
reform, to readdress the role of the Service Chiefs and also 
the role of lifecycle management and logistics. We must address 
the expansion of the bureaucracy which has added so much time 
and costs to all of our programs.
    We also continue to work very hard at sexual harassment and 
sexual assault. It remains our top priority. While recent 
reports show some indications that we have made some initial 
progress, we have much work to do. Our men and women deserve to 
be treated with dignity and respect and should expect a work 
environment that is free of harassment, assault, and 
retribution. A culture of inclusion and of mutual and shared 
trust is essential to the Army.
    Mr. Chairman, I continue to be inspired by the unparalleled 
experience and professionalism of our men and women in the U.S. 
Army. They demonstrate an unwavering dedication and a 
commitment to the mission, to the Army, and to the Nation. We 
owe it to them to ensure they have the right equipment, the 
best training, the appropriate family programs, health care and 
compensation packages commensurate with their sacrifices.
    The decisions we make today and in the near future will 
impact our soldiers, our Army, and the Nation for the next 10 
years. The burden of miscalculation and under-investment will 
directly fall on the shoulders of our men and women who will be 
asked to defend this Nation in many places around the world. I 
want to lessen that burden on our soldiers and ensure that they 
have all the equipment, the readiness in order to accomplish 
their mission.
    Mr. Chairman, I look forward to any questions I will have 
as you move forward.
    Chairman McCain. General Welsh?

 STATEMENT OF GEN. MARK A. WELSH III, USAF, CHIEF OF STAFF OF 
                         THE AIR FORCE

    General Welsh. Thank you, Chairman McCain and Ranking 
Member Reed, and members of the committee. It is always a 
privilege to be here, and it is a huge privilege to be here 
with the boss representing the greatest men and women on earth. 
It is also a special honor to be here with Secretary McHugh and 
General Odierno because the members of this committee and the 
body of this committee, along with Secretary McHugh, General 
Odierno, and the men and women who have led the Army in the 
past built the blueprint for the greatest army on earth. You 
and your airmen also wrote the blueprint for the greatest air 
force on earth. Other nations have watched that Air Force in 
action for some time now, and now a few of them are following 
the blueprint.
    The capability gap that separates from other air forces is 
narrowing and it is narrowing noticeably, and that gap will 
close even faster under BCA levels of funding. The Budget 
Control Act is essentially forcing us to choose between 
readiness, force structure, and modernization.
    If we choose to sacrifice readiness in order to modernize, 
we risk failure in today's fight. As an example, when 
sequestration first hit in 2013, we saw the domino effect it 
had on pilots, maintainers, weapons loaders, air traffic 
controllers, fighter squadrons, bomber squadrons. The readiness 
levels plummeted across the Air Force and every organization 
central to combat operations. We were not fully ready if the 
Nation had needed us for a larger effort, and we simply cannot 
accept that.
    If, on the other hand, we choose to fund readiness and walk 
away from modernization, we risk losing tomorrow's fight, which 
could be much more significant than the one we are engaged in 
today. We cannot accept that risk. So not modernizing is simply 
not an option. That is why we are protecting programs like the 
F-35, the long-range strike bomber, and the KC-46 so 
vigorously.
    If we choose to trade force structure, people, and 
equipment in order to fund both readiness and modernization, as 
we have for the past decade-plus, we are now at the point where 
we will be too small to succeed in the missions we have already 
been given to do today. We are way past easy choices.
    What sequestration really means is that it is time for 
tough decisions. If Congress makes the decision that this 
committee has been fighting so hard for them not to make to 
stay at BCA levels of funding and then delays making the hard 
decisions that will allow us to reshape the Air Force to be 
successful at that level of funding, then our Air Force could 
very quickly become irrelevant. If our Air Force is irrelevant, 
our joint force is irrelevant because in modern warfare, 
without the full spectrum of airspace and cyber capabilities 
that airpower brings to the table, you will lose.
    We understand that the Department must be part of the debt 
solution for our Nation, but the fiscal year 2016 President's 
budget (PB) reflects the minimum funding required to be ready 
for today's fight and still able to win in 2025 and beyond. I 
believe our Nation still expects that of us.
    Thank you for having us today, and I know we all look 
forward to your questions.
    Chairman McCain. Well, thank you very much. General 
Odierno, I believe that this probably is your last appearance 
before this committee as Chief of Staff of the U.S. Army. Is 
that correct?
    General Odierno. I have about 6 months, Senator.
    Chairman McCain. Well, I want to thank you for your 
leadership, your service. I was just thinking. I think you and 
I first met some 14 years ago in Iraq. One of the blessings of 
my life is to have the opportunity to know great leaders and 
warriors such as you are, and I want to thank you for all you--
and I am sure you will continue to--do.
    Do you believe that we should be sending defensive weapons 
to Ukraine?
    General Odierno. I believe that there are some things that 
we could to do to help them to defend themselves, specifically 
radars. That could help them specifically in a down-fire.
    Chairman McCain. Weapons?
    General Odierno. I think it depends on the type of weapons. 
I am more concerned initially in helping them to defend 
themselves, and I think that is a tack we should at least take 
a look at.
    Chairman McCain. At a press briefing by Secretary of State, 
John F. Kerry, in 2014, Secretary Kerry said I think it is 
self-evident that if Iran is taking on ISIL in some particular 
place and it is confined to taking on ISIL, it has an impact 
that is going to be--quote--the net effect is positive.
    Speaking of Iran's role in Iraq and its specific military 
assistance for Shia militias in the battle for Tikrit, Chairman 
of the Joint Chiefs of Staff, General Dempsey said on March 
4th, if they perform in a credible way, then it will in the 
main have been a positive thing in terms of the counter-ISIL 
campaign.
    General Odierno, do you think Iranian influence in Iraq is 
a positive?
    General Odierno. It depends, Senator. I would say this. I 
have some concern over the Shia militias, who they report to, 
who controls them, who controls their activities.
    Chairman McCain. Is it not pretty obvious who is since the 
pictures of Iranian Army Major General Qasem Suleimani are 
widespread?
    General Odierno. So that has some concern and the fact that 
how close are they working with the Iraqi Security Force (ISF), 
are they actually working with them. All that portends to have 
some concern. I will tell you we all understand that in order 
to be successful in Iraq, you have to have a government that 
supports all the different groups, to include the Sunni, the 
Shia, and the Kurds.
    Chairman McCain. Is this not the same guy that sent in 
copper-tipped Improvised Explosive Devices (IED) that killed 
your soldiers and wounded them?
    General Odierno. Absolutely, Senator.
    Chairman McCain. It must be a bit disturbing.
    General Odierno. It is.
    Chairman McCain. So are you comfortable with the Shia 
militias who I believe in the Badr Brigades that I believe we 
took on during the surge are playing such a key role?
    General Odierno. I am not comfortable with it.
    Chairman McCain. Do you believe we have a strategy as 
regards to ISIL in Syria?
    General Odierno. I do. I do believe that our ability to 
train the moderate Syrian opposition is a good strategy.
    Chairman McCain. You think it is a good strategy. How is it 
going?
    General Odierno. Well, we have just begun or are just in 
the process of beginning training them. I think we are still 
waiting on approval of----
    Chairman McCain. Four years after the President of Syria, 
Bashar al-Assad, began his slaughter of the Syrian people.
    I guess what I would like to ask you--today the Budget 
Committee here in the Senate begins their deliberation as to 
the budget that we will be taking up on the floor of the 
Senate. I understand your words in your written statement and 
your verbal statement. But if you had a chance to address the 
Budget Committee in their work today as they frame a budget, 
what would your words of advice be concerning the budget and 
sequestration?
    General Odierno. If we continue to go down the road we are 
going, we will not have a trained and ready force prepared to 
meet the requirements of our national security strategy. We are 
mortgaging our future for today, and I think there is great 
danger in that as we potentially have to ask our forces to do 
some very important missions in the coming years.
    Chairman McCain. Does it put the lives of the men and women 
who are serving under you at greater risk?
    General Odierno. Whenever we have this problem, it directly 
affects the soldiers, sailors, and marines, everyone who will 
be asked to do their job. The possibility of them giving their 
lives increases significantly.
    Chairman McCain. I thank you, General. Again, thank you for 
your service.
    Senator Reed?
    Senator Reed. Well, thank you, Mr. Chairman. I too want to 
add my great respect and commendation to General Odierno. We 
met about the same time, 14 years ago, in Iraq. What is 
remarkable is we see eye to eye on everything. Of course, I am 
looking at your sort of chest at the same time, but that is a 
whole different story.
    [Laughter.]
    Senator Reed. Let me raise a question that came up with 
Secretary McHugh's testimony and your testimony. That is 
acquisition reform. Secretary McHugh, you were very candid in 
saying there are some distinct failures in acquisition policy. 
General Odierno, yesterday and again today you suggested that 
the Chief of Staff, you and your successor, should be more 
involved.
    Now, my understanding is you set the requirements 
basically, but then it has to meet the testing and evaluation 
of DOD.
    A question for both of you. In terms of reform--and I must 
recognize Senator McCain's and retired Senator Carl M. Levin of 
Michigan's role in this dramatically. But what do you want to 
change? You set the requirements. You are not going to test 
yourself. Let me put it that way.
    General Odierno. No, but it is more than just testing. It 
is the application of the entire program. What I would say is 
at our level, there is not a problem. The Secretary and I--we 
talk extensively about these issues.
    However, there is a message that gets sent throughout the 
acquisition force that they do not work for the uniformed 
military. They work for the civilians. I think that is a 
dangerous message because I think our experience and support in 
the process is very important, and I think we should play a 
bigger role in approving where we are going, milestones, how 
the requirements meet with what is being done by the 
acquisition. I think an oversight by the military would be more 
important and could add some potential positive energy towards 
building better acquisition programs.
    Senator Reed. Secretary McHugh, your thoughts?
    Mr. McHugh. Well, and it may be because of, as the Chief 
just said, our close personal relationship and good working 
partnership, but as I look across the history of our 
acquisition programs, clearly many things have happened 
negatively on some of those. I do not want to ascribe it all to 
a service chief not having enough reach and visibility at the 
latter points of the process, but to me, the Chief's proposal 
makes some sense. You do have, at the end of the day, the need 
to ensure the Title 10 authorities of the civilian command, but 
I do not think the two are mutually exclusive. As I said, I 
think there are some good and certainly at a minimum it ought 
to be discussed and looked at.
    Senator Reed. Well, I think at a minimum you are absolutely 
right, and the chairman is going to do that with the committee 
and our colleagues. But one, there is the civilian control and 
ultimately, two, one hopes that the testing and evaluation--the 
people giving the tests are not the people who are making up 
the requirements and then there could be a problem there in 
terms of everybody is average or at least everybody passes. 
That is not good either.
    Madam Secretary and General Welsh, I talked about the 
Reaper and the Predator issue. I know you get huge pressures in 
terms of personnel. You are asking for about 6,000-plus 
additional personnel. You, Madam Secretary, laid out where you 
have problems within missile command in terms of getting that 
staffed up. You have other issues, cyber. That is always--more 
can be added to in this moment.
    How are you going to deal with this issue, which has been 
around for several years, of the stress on these crews that are 
flying the remote vehicles?
    Ms. James. So, Senator Reed, maybe I could begin and the 
Chief can then jump in and tell you about some of the immediate 
actions that we have taken just in the last couple of months, 
but then there is more to follow.
    So fundamentally, as I mentioned, we have 60 Combat Air 
Patrols (CAP) funded in the budget with the ability to surge to 
65, and we are at 65 today. But we have 55 CAP's worth of 
people. So there is the fundamental problem. We are doing 65 
CAP's worth of work with 55 CAP's worth of people. As the years 
have progressed, even as we have built our force, the 
requirements or the desires of the combatant commanders, given 
all that has been happening around the world, has been going 
up, up, up, up to the point where we have not been able to 
catch up with ourselves. In order to keep pace with what the 
combatant commanders are asking of us, we in fact have had to 
rob from the schoolhouse those individuals who we were teaching 
to put them on to operational missions which, in effect, is 
another way that puts us behind.
    So some actions that we have taken recently. We are using 
more of our Guard and Reserve in this area. We are bringing 
more onto active duty. We are getting recently qualified RPA 
specialists who have left that field and gone back to their 
other flying specialty. We are bringing some of those back. We 
are delaying the departure of some who would have gone back to 
their airframes. We are asking them to stay a bit longer, and 
they have agreed to do so. I have used my authority that I have 
as Secretary of the Air Force to incentivize our career RPA-
only pilots whose service obligations were about to expire, 
which meant they could have left the Air Force, but I used my 
authority to increase their pay to try to keep them with us. We 
are working with the Office of the Secretary of Defense (OSD)--
and I am certain that we are going to get this--to be able to 
offer additional monetary incentives to the full panoply of 
those who are serving in the RPA.
    Then I will yield to General Welsh to tell about some of 
the things that we are looking at for the future.
    Senator Reed. Just very quickly, sir, because my time is--
--
    General Welsh. Sir, the fundamental problem is we cannot 
train as many people as we lose in a given year because we have 
had to build the crew force to do the operational mission 
before we built the training infrastructure. We are losing 
almost 50 more people a year than we are training. So slowing 
down the operational demand for enough time to get our training 
pipeline completely full will fix this problem. We have been 
chasing this requirements rabbit so long that we just have not 
been able to catch it. Once we get ahead of it--it is getting 
ahead of the training curve that is the problem. If we can do 
that, we are okay.
    Senator Reed. Well, just a final comment. Whatever we do in 
Afghanistan, for example, I have a feeling we will need more 
remote vehicles for protection, for exploitation of 
intelligence, for counterterrorism operations. So I do not see 
this demand coming down. Let us know how we can be helpful.
    General Welsh. Yes.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Secretary McHugh, about 100 years ago when 
you and I sat next to each other on the House Armed Services 
Committee, did you ever dream we would be in a situation like 
this?
    Mr. McHugh. I never dreamt I would be here either. But, no, 
if we had those discussions, I think, Senator, we considered 
them pure fantasy.
    Senator Inhofe. Yes, because I can remember some of the 
discussions at that time. At that time, we were wondering about 
whether the B-1 bomber was going to be successful and carrying 
on that program. It did not seem like there was anything really 
traumatic. It is kind of a serious observation as I am going 
from memory.
    You mentioned sending some troops to some of these places 
that might surprise people. You mentioned Estonia, Latvia, 
Lithuania. I was over there. When you have some troops going 
over there, generally it is for a fairly restricted period of 
time. Is it not? A shorter period of time.
    I wonder about the wisdom of that program because all of 
them, to the last one, said where are they. We need to have 
them back. They all expect that to be a permanent transfer. 
When that happens, you might think about that.
    You talked about, General Odierno, all the different 
contingencies and things that are taking place right now all 
over the world. It is totally unprecedented. I wonder if you 
were to be forced into another totally different major 
contingency, what would you do?
    General Odierno. We would end up sending troops over that 
are not properly trained.
    Senator Inhofe. That is exactly what I thought.
    You addressed this a little bit, Secretary James, in your 
one, two, three things you outlined. Your second one was you 
got to keep the balance right between today and then 
modernization. So you have two things that are being drained 
right now: training and I suspect modernization. You talked 
about what we are looking at in terms of the future. But I am 
sure that you are not reaching the goals that you had a year 
ago on where we should be. So that is suffering now. Is it not?
    Ms. James. You are right, Senator. Moreover, of course, the 
message here is sequestration would make all of this much, much 
worse. Of course, the first goal is taking care of people. Even 
though under sequestration in the past, people were protected, 
the numbers of people and so forth, there are Morale, Welfare, 
and Recreation (MWR) programs. There is a variety of other 
things which might not survive in the forms that we would like 
and the funding levels that we would like. We would have to 
look at all of those things. So we think everything would be 
hurt.
    Senator Inhofe. General Welsh, you and I talked. We talked 
over in Arkansas when we all went over to a meeting over there. 
I see our Senator Tom Cotton from Arkansas, was in the same 
meeting. But at that time we talked about flying hours because 
we were both flying in there. I have changed the figures that I 
used to use because a Lazer (Senator Inhofe's assistant, 
Anthony ``Laser'' Lazarski) update had informed me, and it is 
more to retain a pilot of the F-22 level would be a bonus over 
9 years of $225,000. You addressed this, Madam Secretary, and 
yet, to train a new one from the beginning, it would be $9 
million. That is still huge.
    Now, do I understand from your statement that this 
retention is not as bad as it was, say, a year ago? Does it not 
kind of go with the economy? If the economy improves from where 
it is today, there will be more competition with the airlines. 
Is this true?
    General Welsh. Senator, it is absolutely true. Historically 
all of the Services have lost pilots as the airlines hire. We 
expect the airline industry to hire roughly 20,000 pilots over 
the next 10 years. So 2,000 a year. Their change in 
requirements for their hiring means that military aviators will 
be a target for them.
    Senator Inhofe. One of their motives to get out is a lot of 
them do not feel they are getting adequate flying hours in. Is 
that true today?
    General Welsh. Senator, it is true, although the Bipartisan 
Budget Act (BBA) over the last 2 years has allowed us to fly at 
a much more regular pace than we had in the years before that. 
BCA will bring back the frustrations.
    Senator Inhofe. Yes. I think that is one of a lot of things 
that can really help the situation. People on this committee 
are doing all we can right now during this budget time. We are 
running out of time.
    I have just one last question that is something to be 
thinking about. If Congress would pass a budget resolution that 
funds at the sequestration levels with the intent to raise 
defense funding levels later in the year, when is the Army and 
the Air Force forced to take irreversible action with regard to 
force structure, personnel programs if you were forced in that 
situation? Do you have any idea about when that would happen?
    General Welsh. Senator, just to make sure I understood you 
right, if the initial----
    Senator Inhofe. If we come out with a budget that brings it 
down, so you are suffering from the sequestration, but with a 
message and language that we are going to come back later in 
the year, when do you reach that point where it is kind of 
irreversible, you cannot recover? Have you thought about that?
    General Welsh. Senator, if we were funded at the 
President's budget level with a promise of more later, I do not 
see the catastrophic action that will be required. The BCA 
level would be different, and I would need to get back to you 
with that, unless the boss has a better----
    Senator Inhofe. Just some thoughts.
    Ms. James. I believe the answer, Senator, is if we are 
funded, come October 1st, at the BCA level, we have to 
immediately start taking actions. Perhaps immediately it is not 
catastrophic, but I think it very soon would become very 
serious. So that is sort of my off-the-cuff answer, but I would 
like to come back as well.
    Senator Inhofe. Well, yes. It is not necessary to come back 
on that. It is kind of the nature of the beast during this 
process to say, well, we are going to have to hurt you now, but 
we are going to figure out something later in the year. So just 
keep that in mind.
    General Odierno. Senator, if I could, I would like to--Mr. 
Chairman, if I may?
    Senator Inhofe. Yes, of course.
    General Odierno. So the one issue here that we keep running 
into is for us we stop training and so that cannot just be 
fixed with money. It is time and money. So every bit of time we 
lose pushes us back further. So if we go to sequestration 
levels, for us we cannot take any more force structure out. We 
are already on that road. So it comes directly out of 
modernization and training dollars. So what will happen is we 
will start canceling training, and if we get it 3 or 4 months 
later, we have lost 3 or 4 months of training. In fact, to 
reschedule it, you will have units that will then miss a whole 
cycle of training because they will have missed their 
opportunity and it might not come around again for a whole 
other year. So you then get on this cycle of really downward 
readiness capability, and that is why it is so important to us.
    Senator Inhofe. You would have to be sending troops forward 
perhaps not trained.
    General Odierno. That is correct.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman, and thank all of 
you for your service. There is not a West Virginian I know who 
does not support the military and DOD. We have some wonderful 
people in our State that would pay more taxes, would do 
whatever they had to do and sacrifice for the defense that you 
have given and the comfort you give to them.
    With that being said, we have to answer to them also, our 
constituents, and all of us here who are elected and go back, 
how we are spending their tax dollars and are we getting the 
best bang for our buck. When you look at the whole scenario--
and we just read today where Yemen--the Pentagon cannot account 
for $500 million of missing weapons. Then you look at Mosul 
when we trained and armed Iraq, and they abandoned and left 
millions and millions. So we start wondering. Then we start 
talking about we are not training our people adequately because 
of a lack of money, and then you think about Admiral Michael G. 
Mullen when he was before us when he was Chairman of the Joint 
Chiefs of Staff. He said the greatest threat that we face as a 
nation is our finances. He did not speak about another country, 
not a terrorist group, nothing. Finances, and here we are 
talking about finances as being our Achilles heel.
    So the only thing I would say is when you start looking at 
military expenditures, I think that if you look at China and 
Russia, everything I am hearing in all the briefings that I 
receive--they are still moving forward. They are doing positive 
things with their military. Correct? China, Russia, even in 
crippling challenges they have with their economy.
    So if you look at figures from the World Bank--and this is 
2013. China's economy--their GDP is $9.2 trillion as of 2013, 
and they spend about 2.1 percent of that money for their 
military. But yet, they are getting, it looks like, a pretty 
good bang for their buck.
    You look at Russia, a $2.09 trillion Gross Domestic Product 
(GDP), and they are spending about 4.2 percent of their GDP on 
their military.
    The United States has a $17-plus trillion GDP, and we spend 
about 3.8 percent. So we are not out of that realm.
    We are going this way. So you would have to ask the 
question, are we getting the best bang for our buck? Have we 
crippled you all? Have we put so much layers of bureaucracy you 
cannot do your job? Have we given you so much mandates? Are you 
buying equipment you do not need? Are you having overlap and 
redundancies? I mean, we are not that far out. When you look at 
the amount of sheer dollars, we are way far and above everybody 
and a bunch of them put together. That is what we have to come 
to grips with.
    So I have to say, how do we answer? How do we work with you 
all to help you do a better job? Because in all honesty, it 
gets back--Admiral Mullen said, finances is the greatest threat 
we face. So whoever wants to take a crack----
    General Odierno. Senator, if I could just start out. I 
think there are two issues. First off, I think what our 
military is asked to do is very different than what the Russian 
military and the Chinese military is asked to do. I think our 
worldwide presence and our reassurance of our allies and 
partnerships is more expensive. So I think we have to start 
there. So I would say there is a policy perspective to it as we 
are an arm of executing our foreign policy.
    The second piece I would just say is that, yes, we can be 
more efficient. But I think it has to do with some of the 
things we just talked about. Budgets on time. I could tell you 
that we do not make the best use of our budget every year as 
soon as we get continuing resolutions, and we have had a 
continuing resolution every year since I have been the Chief.
    Senator Manchin. We always said we want to get rid of 
sequestering. Get a budget. That is up to us.
    General Odierno. So I think that adds to this as well.
    There are things we need to do as well.
    Senator Manchin. When you look at the figures, if you take 
the additional responsibilities we have--and people start 
saying have we done that and are we a safer world of the things 
we have done, whether it be in North Africa, whatever. When you 
look at what we are doing now, now with Syria and all the 
threats that we have there--there has to be a better, more 
effective, efficient way. The procurement. The chairman and I 
have been on this procurement thing, and it is just 
unbelievable and then getting an audit to find out where you 
all--and the cutbacks. I think, Secretary James, you said you 
are going to meet the 20 percent reduction?
    Ms. James. Yes.
    Senator Manchin. All the other branches met theirs.
    Mr. McHugh. Actually our target was upped by the Chief and 
myself to 25 percent. We will reach 20 percent. The last 5 
percent that we added voluntarily is a bit of a squeeze, but it 
is vitally important. Your points about our doing better, as I 
mentioned in my opening remarks, are absolutely essential. We 
need to be a part of America's solution to the very challenge 
that Admiral Mullen spoke about and that you have referenced as 
well.
    I think there is an interesting data point, however. Of our 
total budget, the Army actually controls about $50 billion of 
it once you take away civilian pay, military pay----
    Senator Manchin. Contractors.
    Mr. McHugh. Operations and Maintenance (O&M) and 
contractors, we actually have some control over because we 
decide which contracts we are going to enter into. But we do 
have costs associated with utilities, all of these things. So 
just intuitively I would think there would be some things we 
could cooperatively look at together, not ceding Congress? 
rightful authorities of oversight, but rather giving us some 
flexibility to operate better administratively.
    The acquisition process that I spoke about, you have spoken 
about and Senator McCain referenced, is an absolutely important 
place for us to work together so that we can do better. The 
Army, as I mentioned, has a history of failures. Most of them 
were a little while ago. But we need to get better and show you 
and the American taxpayer we deserve every dollar we get.
    Senator Manchin. I am just concerned about the global 
military presence and the buildup of China and Russia, what 
they are doing, and what we keep hearing all the time of what 
we are not going to be able to do.
    Mr. McHugh. We all are.
    Senator Manchin. We are still in the same realm of 
percentages of GDPs and all that. I want to make sure we are 
getting the best bang for our buck.
    Ms. James. Senator, I just wanted to add. First of all, I 
certainly agree with my two colleagues about the need to 
continue to press on the acquisition side, efficiency side, and 
so forth, and we are all in when it comes to that.
    The other piece, though, I wanted to point out is I believe 
Russia and China have a very, very different philosophy in 
terms of their people issues and how they treat pay and 
compensation and health care and housing and training and all 
the things related to support of people. They are very 
different than we are.
    Senator Manchin. You are saying support of the troops.
    Ms. James. Support of the troops, and I am glad that we are 
the way we are. Maybe our system is not perfect, but I would 
not want to have their system of pay and compensation and so 
forth.
    Chairman McCain. Twice the 20 percent has been mentioned. 
Were those 20 percent of the people removed from the payroll of 
the Air Force?
    Ms. James. In the case of the Air Force, it is 20 percent 
of our headquarters funding was reduced.
    Chairman McCain. Were 20 percent of the people removed from 
the payroll of the Air Force?
    Ms. James. No.
    Chairman McCain. That is what I thought.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to thank all of you for your great service to our 
country. I also want to thank your staffs. I know how much work 
goes into what they do and I appreciate that and all the 
members of the Army and the Air Force.
    General Odierno, this is your last hearing. I want to echo 
the chairman's statements about your decades of service to our 
country. I very, very much appreciate that.
    I wanted to focus a little bit on some recent headlines. 
There is a lot of discussion about Russia, particularly with 
regard to Ukraine. But there has been a lot of discussion 
recently about Russia with regard to the Arctic. Here is a 
headline just a couple of days ago. Russia launches a massive 
Arctic military drill that included a 5-day drill, 38,000 
service men, 50 surface ships and submarines, 110 aircraft in 
the Arctic. This is in addition to the new Arctic Command. 
General Dempsey was testifying here a couple weeks ago and 
talked about the Russians four new Arctic combat brigades, huge 
icebreaker fleet that they are dramatically increasing, 13 new 
airfields they are building now in the Arctic, Cold War level 
bombers, bomber patrols off the coast of Alaska.
    Then you have other headlines. U.S. Army mulls cutting 
troops in Alaska, possibly by two combat brigades.
    So I just wanted to ask the question. Particularly in light 
of the way we understand Vladimir Putin, I certainly think that 
the idea that weakness is provocative applies to him. General 
Odierno, as the Russians build up in the Arctic, what do you 
think that Vladimir Putin would be thinking about us even 
removing one Arctic soldier from Alaska, let alone two combat 
brigades?
    General Odierno. Senator, I think that as he looks to 
increase Russia's influence, that he will look to see that as 
maybe a place that is not as much challenge as what might have 
been if we had more troops in that area.
    Senator Sullivan. So when you are looking at your strategic 
guidance that informs--I know the Army is looking at some tough 
decisions, and we have discussed this, Secretary McHugh. I know 
that these are hard decisions right now. But in terms of the 
strategic guidance, Admiral Gortney testified that there is not 
even an Arctic Operational Plan (OPLAN) right now, but there 
will be one soon, given these new military buildups.
    In your military opinion, at the very least, should we not 
delay any drawdowns in the Arctic until we have a strategy and 
a validated OPLAN that lays out the strategic guidance that we 
need from a national security perspective? It seems a little 
backwards in what we are doing, no OPLAN and reducing forces 
when we should have an OPLAN that actually guides the strategy.
    General Odierno. Senator, we base our force sizing 
construct on contingency plans (CONPLANS) that are selected by 
the Department of Defense. We have not sized towards an Arctic 
threat. We have other CONPLANS that we simply cannot meet 
either with our structure. We are reducing because of budget 
restrictions. We are not reducing because of our inability to 
respond to com plans because that is true today. We cannot 
respond fully to many of the com plans that we have developed. 
So in my mind it applies not only there but in other places as 
well.
    Senator Sullivan. This is actually a little bit of good 
news. This is a recent joint exercise, Army-Air Force exercise 
a Spartan Pegasus, first U.S. airborne mission north of the 
Arctic Circle in more than a decade. It was the 425 and many 
airmen from Alaska. Could Spartan Pegasus have been done with 
any other Army airborne unit in the Pacific or Contiguous 
United States (CONUS) right now given their training?
    General Odierno. Well, I think in the Arctic environment, 
no, because they are specifically trained to operate in Arctic 
weather. It would take months of training for them to be 
prepared to operate in such a harsh environment.
    Senator Sullivan. I want to just end with a broader 
question on training. Secretary James, you talked about the 
importance of taking care of people. I agree with that 
certainly. I think also the best way to take care of our troops 
is to train them hard to make sure when and if they go to war, 
they come back alive. That is the best way to do it.
    With regard to sequestration, I know that the Army 
certainly focuses a lot in their classes on the Korean War, 
looking at Task Force Smith in 1950, the saying of ``no more 
Task Force Smiths,'' given how horribly our troops were trained 
back then in 1950 and what ended up happening during that 
drawdown. Are we at risk of repeating this dark chapter of U.S. 
history right now? That is for all of you.
    General Odierno. I would say potentially we are. It is 
interesting. Back then Task Force Smith was composed of about 
30 percent of those who had significant World War II 
experience. All the leaders had significant World War II 
experience, but the troops that were underneath them were not 
trained to do the job. So when they got there, they were 
overrun and thousands lost their lives. It was just not Task 
Force Smith but the units that followed on behind them. I think 
there is a lesson that we need to take heed as we move forward.
    Mr. McHugh. The Chief and I talk often about what keeps up 
at night, and I think he and I are in accord. The greatest fear 
we have is sending particularly young soldiers into harm's way 
without the proper training that they need to succeed and come 
home. By whatever name you put on it, Task Force Smith or 
anyone else, if sequestration returns and we are forced to 
continue to do all the mission sets we are doing right now and 
we have that next unforeseen occasion, we are going to have to 
make those kinds of choices.
    General Welsh. Senator, our Task Force Smith was actually 
Vietnam, and when we came out of Vietnam, the Air Force learned 
the lesson that most of our losses occurred in the first 10 
combat sorties. I think the other Services learned the same. 
Our response to that was to build the training curriculum, an 
exercise called Red Flag, which was designed to simulate the 
highest threat environment we could simulate for a training 
environment to do exactly what you described, train hard and be 
ready for combat. The problem we have in continuing that is 
that we have spent the last 15 years not investing in the 
infrastructure required to do that right because we have been 
trading that for readiness.
    We have not, for example, improved the threat arrays to be 
current and modern. We have to transition to a simulation-based 
environment, a virtual constructive live environment as opposed 
to a live virtual constructive because we simply cannot afford 
to keep the threat arrays current with the rapid pace of 
technology, change of enemy threats system in the future. That 
investment has not been made routinely just as investment in 
nuclear infrastructure, investment in black and white world 
test infrastructure, investment in space launch infrastructure. 
Those are the things that are hurting our long-term readiness 
and that are driving our requirement to go 8 to 10 years to 
recover it as opposed to a couple of years to gain individual 
readiness.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Secretary McHugh, it was an honor to serve with you in the 
House and to travel with you. General Odierno, thank you for 
everything. You performed extraordinary leadership every tour 
you have had.
    To our Air Force friends, thank you so very much.
    To our Air Force friends, I have the privilege of serving 
on the Strategic Forces Subcommittee, and I want to show 
something that I know you are familiar with. This is an 8-inch 
floppy disk. This is used with our intercontinental ballistic 
missile (ICBM) systems that we have for a system built in the 
1980s based on technology from the 1970s. I would love to get 
your opinion on what you think about using 8-inch floppy disks 
in our ICBM systems. I guess the alternative is that it helps 
to protect us from cyber in a strange way, but what are we 
going to be doing to modernize this as we look forward?
    Ms. James. Senator, in our 5-year plan as part of our 
fiscal year 2016 submission, we have $5.6 billion more for the 
nuclear enterprise overall than we had in our last 5-year plan 
that we brought before you last year. So we have redirected a 
lot of money in general. That particular item that you just 
indicated is part of the modernization program over the next 5 
years. I will have to get back to you with exactly how much 
money is devoted to that and whether or not that will get 
completely fixed over the next 5 years. I have learned that 
nothing in the nuclear world is as easy as it might sound or 
seem in the beginning because everything is so interconnected. 
But it is part of it. We do have money against it, and please 
allow me to come back to you with the details.
    [The information referred to follows:]

    The 8-inch floppy disks are one element of the Strategic Automated 
Command and Control System (SACCS), an essential communications 
capability our nuclear forces rely on for dissemination and receipt of 
Emergency Action Messages and Force Direction Messages. Like many other 
critical systems the Air Force depends on to perform the nuclear 
mission every day, SACCS utilizes multi-decade old technology that 
presents significant obsolescence and sustainment challenges. We 
anticipate replacing the last of the 8-inch floppy disk drives in the 
SACCS network by the end of fiscal year 2016 with solid-state, secure 
digital storage media as part of the Data Storage Service Life 
Extension Program (SLEP). Initiated in 2012, this SLEP provides $17.7M 
in funds for replacement equipment, support, and training.
    The Air Force requested $5.5M in the fiscal year 2016 President's 
Budget and $24.9M over the Future Years Defense Plan in order to begin 
a broader SACCS replacement effort. We estimate the first phase of this 
initiative will be completed in 2020, with the timing of subsequent 
phases dependent on the findings of a SACCS Longevity Study scheduled 
to be completed in late-2015. This detailed assessment will report on 
the current health of SACCS and identify the requirements needed to 
ensure this vital capability remains credible and effective in the 
years ahead.

    Senator Donnelly. That would be great.
    General Welsh. Senator, could I add that one of the things 
that we walked away from as an institution, when Air Force 
Systems Command went away, was developmental planning, the 
effort for us as a Service to identify future gaps, shortfalls, 
and then institutionally develop game plans to make sure that 
we do not end up with these infrastructure problems that are 20 
years too late to a solution. We are restarting that, and one 
of the two areas that we will focus on is the nuclear 
enterprise, and this will be part of it. How do we recapitalize 
this in a responsible way with predictable, consistent funding? 
We will certainly need your support for that.
    Senator Donnelly. Great.
    I know how hard all of you have been working on reducing 
suicide numbers in the military. What do you think about the 
use of physician assistants to help provide additional people 
who our military may be able to go talk to, spend time with?
    Mr. McHugh. Senator, I will begin. As you are aware just 
painting the larger picture, our requirement for these kinds of 
providers has grown dramatically. When I first came to the 
Army, our requirement for those individuals was about 2,300. We 
are now over 5,500 and we are still chasing that. We are pretty 
close to meeting the requirement. But these are highly skilled, 
highly competitive between the military and the civilian 
sector. So I know that you have been working on a series of 
pieces of legislation that we are very anxious to work with 
you. Given the right training, which I know you understand and 
support, we think there is a high likelihood of them being a 
very valuable addition to our clinical staff.
    Senator Donnelly. Thank you.
    General Odierno, switching tracks a little bit. In Syria we 
are working on training the moderates. If they go back into 
Syria without a buffer zone, are you concerned that President 
of Syria Bashar al-Assad could go after them as soon as they 
come in with barrel bombs or other things?
    General Odierno. I think that as we look at employing those 
forces, once they are trained, I think we will have to be very 
careful about how we do that. I think we would work with maybe 
some of our allies that might be able to put some people in 
there with them, and I think we would be very careful in where 
we place them and what their initial missions would be as they 
continue to develop capability. I also believe there would be 
some enabler support that would be necessary in order to help 
them as we reinsert them in to conduct fights. I think what we 
should try to do initially is try to put them in a place where 
they are not at risk from the regime because our focus really 
is on ISIL, and I think we would have to work very carefully to 
try to find places that would protect them from such an attack.
    Senator Donnelly. Do you think Assad would go after them? 
Even though our first goal is to go after ISIL at that point, 
do you think Assad tries to get them before they can even get 
started?
    General Odierno. Senator, I think if we put them in the 
right place, it would be very difficult for them to do that. 
However, I would be inaccurate if I tried to predict what Assad 
would do, but I think we would try to do it in such a way that 
it would be difficult for him to do that, at least initially.
    Senator Donnelly. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    General Odierno, thank you for being here. Secretary 
McHugh, Secretary James, and General Welsh, thank you and your 
staffs for being here today and providing testimony.
    Sequestration has been very detrimental to all of our 
forces. We know that. There are stress and strains that go 
along with that.
    What I would like to focus my attention on today is the 
stress and the strain that exists not only between our Active 
Forces but also the Reserve Forces and the Guard.
    Many of you have mentioned the important role that our 
Reserve Forces bring to the table. They are important to back 
up our Active-Duty Forces. At the beginning of this week, I did 
hear some interesting quotes coming from one of our State's 
adjutant generals of the National Guard. His quote was that his 
relationship between his State's Guard and Army leaders was not 
good, and it was really disheartening to hear that. He also 
said it has gotten very difficult for either one to talk to 
each other. Again, this is extremely disheartening to me, and 
maybe, Secretary McHugh, you can help me with this.
    But I have been here for now about 2\1/2\ months, and I do 
see some level of strain between our Reserve Forces and our 
Active Forces, at least in this manner. I know that this has 
existed. It ebbs and flows through all of the years. I 
understand that. Sequestration has put a lot of pressure on us, 
as well as time in rotations, men and women being away from 
home, frequency of mobilizations and deployments. But again, it 
is disheartening. We are one team, one fight. My husband spent 
28 wonderful years on Active Duty Army, and I spent over 20 in 
the Reserve and National Guard. We understand the need to work 
together to resolve differences.
    So if you could, could you address this issue? Again, we 
are in difficult times right now, and our soldiers look to 
their leadership to set a good example.
    Mr. McHugh. I can certainly begin. As I am sure you would 
appreciate, I am unable to speak to the general's comments, but 
I can tell you it was disheartening to hear them. If you have 
had the chance to visit our forward troops--and I know your 
experience would teach you as well--there is not a lot of 
dissension when you are forward. Guard and Reserve and Active 
components work seamlessly, and frankly, that is our view of 
the future, and we want to preserve the operational 
capabilities that we have spent a lot of money to gain over the 
last decade-plus within the Reserve component.
    I think it is fair to say that in most respects that that 
particular attitude or feeling derives out of our aircraft 
reconstruction initiative, ARI. As to the Guard and the Active 
component disagreeing, that is true, but we included the Guard 
in virtually every phase, every meeting of that development and 
that plan. Obviously, we are at a point where we are not in 
agreement, but we have worked hard to try to include them in 
our future forecasting whether it is ARI or any other measure.
    The other thing I would tell you, I as Secretary, when we 
first began our initiatives to, frankly, cut the budget, gave a 
directive that we would start with the Active component. In 
fact, for the first 2 years of our reforming and reconstructing 
our fiscal posture, we did not take any cuts out of the Guard. 
As well, whether it is in ARI or whether it is in end strength 
reduction, we have taken the vast majority of our cuts out of 
the Active component. For the aircraft, it is about three to 
one, more out of the active than the Guard, and when you get to 
end strength, it is about that same percentage, about three to 
one, just over 20 percent to just over 7 percent. So we have 
tried to be equitable and fair not just to be good partners 
because we do not want to go to war without the Guard and 
Reserve. We cannot go to war without the Guard and Reserve.
    It has been my experience in some 23 years in this town 
that we will have differences, but as we have forward, 
particularly in the last decade and a half, I am optimistic we 
will get back together and go forward and do America's hard 
work of freedom.
    Senator Ernst. Well, thank you. I do appreciate your 
service. I appreciate the discussion. I do hope that as we move 
forward, we continue to include Guard and Reserve members in 
the discussions. Anytime there are cutbacks, it does hurt. It 
does not matter who it is on the receiving end of that, but we 
need to keep an open dialogue and set a great example for the 
rest of our young men and women that serve.
    So thank you all very much for your service. Thank you.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman. Thank you to each 
of our panelists today.
    You have all been very eloquent in your testimony to the 
impact of sequestration. Chairman McCain and Ranking Member 
Reed have done an excellent job in this committee from the 
start of this congressional session of holding a series of 
hearings pointing out the folly of continuing sequestration and 
what the consequences would be of going back to those caps.
    As we all know, sequestration was never designed to work. 
It was designed not to work, and that is why it is having such 
devastating consequences. I think that is our responsibility as 
Members of Congress to do what we can to address the results of 
sequestration, and I think the reason that did not happen 
before it went into effect the first time is because we could 
not get a compromise around how to do that. There was no 
agreement that in order to address this, we were going to have 
to look at both the defense and the domestic side of the budget 
and to look at both revenues and expenditures.
    So I certainly am committed to doing that. I hope all of us 
will be committed to doing that because we all understand what 
the devastating consequences would be of having it kick back in 
for the next budget cycle.
    So thank you very much for your testimony with respect to 
those impacts.
    Secretary James, we had the great honor of hosting you at 
Pease, the first base chosen to receive the new KC-46A tankers, 
the 157th Air Refueling Wing. I think we were all very excited 
to have you come and see what the capacity is at Pease.
    I was disappointed to see a story yesterday about the first 
flight facing delay for the KC-46A, and I wonder if you could 
share some light on what the cause of that delay is and whether 
there is any reason to be concerned about the long-term 
production of the KC-46A.
    Ms. James. You are right, Senator Shaheen. The slack is 
gone from the schedule for meeting that first flight. So I will 
say there is good news and there is not so good news. So the 
good news on the KC-46 is that they did have a successful first 
flight of what is called that green aircraft. So if you recall, 
that happened several months ago. So that was good. However, 
there have been these testing and integration challenges, and 
as a result, some of the internal targets that the company has 
set for itself along the path to doing what it must do for the 
milestones and for the contractual obligations--some of those 
internal targets have slipped.
    So back to the good news. They have met the milestone 
requirements so far and they have met the contractual 
requirements, but everything internal that they indicated--not 
everything but several of them have slipped.
    So what I am trying to say is in any program, there is a 
certain amount of slack that is built in. There is margin 
because in any developmental program, you know certain things 
are going to go wrong. But a lot of that slack now has been 
used up.
    So the key thing is the key date, which is contractual, of 
course, is that they have to reach what is called required 
assets available (RAA). The target is August 17th and that is 
to have 18 aircraft. That is the next contractual deadline. So 
the company feels that they can still make it, that yes, they 
have used up margin but it is not to the point where they are 
going to miss that deadline. They have recently introduced to 
us a new integrated master schedule, which we are reviewing so 
that we can kind of review with ourselves whether we believe 
that or not.
    Again, back to a piece of good news. The costs, of course, 
are capped on this contract. So any cost overruns that may have 
occurred or may occur in the future are on the company, not on 
the Government. So we are tracking it very closely but it does 
appear that that April timeframe is likely to slip for that 
first flight.
    Senator Shaheen. So do we have any idea what the timeframe 
might be in the future and how much that will affect the end 
production?
    Ms. James. The timeframe that we are looking at as more 
likely is probably later on in the summer vice April for that.
    Senator Shaheen. Thank you.
    Staying at Pease--and I am almost out of time. So I will 
submit this for the record. But as I am sure you are aware, 
Pease was the first base closed in the first Base Realignment 
and Closure (BRAC) round, and there were a number of 
environmental issues there. There were agreements made between 
the State and the Air Force to address those environmental 
issues. One of them has recently appeared in the drinking water 
for the City of Portsmouth, and it is contaminated. There are 
children that go to school, daycare on the site, and there is 
some concern about whether the State will be able to fund the 
testing for everyone who might need to be tested. So we will 
submit this for the record. But I hope the Air Force will be 
willing to look at this situation, recognizing the agreement to 
address the environmental results of having the Air Force there 
and will be willing to take a look at helping with those costs.
    Thank you all very much.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    General Welsh, Secretary McHugh, and General Odierno, thank 
you for the time that you spent with me in the office and 
speaking on this. Secretary James, I look forward to the 
opportunity to meet with you. Our schedules have been hard to 
coordinate, but hopefully we can do that soon.
    General Odierno, I would like for you to go back to a 
comment that you made in your opening, and it was about the 
stresses on the budget even with the President's budget and 
increased spending. You mentioned two different sources, I 
think a $12 billion number and a $6 billion number that related 
to efficiencies or things that you have to achieve that you are 
saying are potentially at risk.
    So the first question I would have was, could you give me a 
little bit more information on these areas and what they are 
funding? Second, what the threats are in terms of achieving 
that, and if you do not achieve it, then what are the 
consequences in other areas of the budget?
    General Odierno. So in the President's budget that was 
submitted, about $6 billion of the Army budget is tied up in 
the pay and compensation requests that we made, specifically 
pay raises, TRICARE, and other potential savings to reduce the 
rate of growth. If those are not accepted, those will come back 
as bills to the Army.
    The second is the ARI which we have put in there--if that 
is not approved, that will also have a significant bill in 
2016. So the combination of those two things totals about $6 
billion.
    In addition to that, the Army has excess infrastructure 
that is costing us about a half a billion dollars a year, and 
we are unable to deal with that problem because of BRAC. So 
that is an additional bill that is not included inside of the 
budget.
    Then we have about $6 billion that are currently in 
Overseas Contingency Operations (OCO) that is supposed to be in 
the base. At some time, we will move that back to the base. 
Now, it might happen in 2016 or it might happen in 2017, but 
that is another $6 billion that we have to account for that is 
really base money, but right now we are paying for it in OCO. 
Depending on how OCO is interpreted, we could be required to 
pay that out of the base, and so that is the $12 billion.
    The other $6 billion was the difference between the $126 
billion the Army is getting and the $120 billion, which is the 
sequester level. So that would be another $6 billion we have to 
find.
    So potentially it is somewhere between $12 billion and $18 
billion we would have to find. That comes directly out of 
readiness and it comes directly out of modernization because we 
cannot take Active component end strength down any faster than 
we already are and still meet all our commitments. So for us, 
it would have a devastating effect on our readiness, and it 
would really also cause us to reduce more of our modernization 
programs. Frankly, we would probably have several breaches of 
the Nunn-McCurdy Amendment if we were required to do that.
    Senator Tillis. Thank you.
    Senator Manchin brought up a good point about comparisons 
between our budget and the others. I think, Secretary James, 
you did a great job of explaining it is really an apple and an 
orange. Not really responding now, but I would like to get more 
information so that people can better understand the 
disparities in terms of priorities we have for our people and 
the amount of money being spent on modernization and 
technologies that ultimately over time I think could provide 
other nations with a technological advantage in spite of the 
fact that we may be better off on the people side. But I think 
it would be very helpful to hear from the staff and others to 
get everybody thinking about the real apples-to-apples 
comparison.
    General Welsh, I had a question that relates. We spoke a 
lot about aircraft and things on the ground. But can you talk a 
little bit about the budget as it relates to space-based assets 
and the investment that we are making there and any risks you 
see going forward?
    General Welsh. Senator, I can. Let me give you a quick 
overview and then turn it over to the boss here who is the DOD 
executive agent for space and spends a lot of her time talking 
about this issue.
    The real key for us, as General John Hyten, our Commander 
of Space Command, has said recently, is that we have to look at 
space now as a warfighting domain because whether we ever 
decide we want to compete in that way in space, others clearly 
are going there. So we have to be able to survive to operate in 
that environment, and so General Hyten is leading the effort to 
look at different ways of building, maintaining, and improving 
the assets we currently have in space and the capabilities they 
provide in new and different ways than the very--basically 
functionally developed, large programs, large investment over 
long periods of time that have dominated the space architecture 
up till this point. So that is what he is trying to do.
    The Secretary has put a great emphasis on prioritizing 
operational capability in space when it comes to priority 
funding decisions inside the Air Force. I will turn it over to 
her from there.
    Ms. James. As General Welsh was saying, some years ago, 
Senator Tillis--I will say this might be a bit of an 
exaggeration, but the United States and maybe a handful of 
others really owned space in the sense that we were up there 
and there were not a whole lot of others up there. But in more 
recent years, space has become contested, congested, and very 
competitive. So there are just dozens of countries now that 
have assets in space. So what we want to make sure is that we 
remain on top of our situation, that we are able to see what is 
going on in space, and that we are able to have the use of 
space for our needs, both military and civilian, because space 
is very important to civilian needs as well.
    So in this budget, there are additional investments 
particularly in the area of space situational awareness. So 
this is knowing what is going on, being able to track not only 
satellites but also thousands and thousands of pieces of debris 
and to know what some of these satellites are. So that is space 
situational awareness. We have more investments there.
    We also have investments in space control. So these are a 
variety of things to be able to defend and deter any kind of 
attacks against our assets. So we have a counter-communications 
system as an example, which is designed to jam those who would 
try to interfere with us in space, additional monies for 
command and control.
    So we do have additional investments there and we are 
working it hard because it is very, very important to us both 
from a military and a civilian use perspective.
    Senator Tillis. It seems to me that in that area, there may 
not be that much of a disparity between what we are spending 
and what others may be spending to have a greater command in 
space. That is the reason for my question. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman McCain.
    I want to return to that issue. I like that phrase. 
``Congested, contested, and competitive'' was it?
    Ms. James. Yes.
    Senator Heinrich. I think that is a very accurate picture 
that you are painting.
    I want to, in particular, Secretary James, thank you and 
General Hyten for your leadership on the operationally 
responsive space program. It is one of many solutions to what 
we are seeing where we need to build and launch smaller 
satellites quicker and at lower cost. As you well know, these 
threats are only increasing and seemingly ever more quickly.
    Shifting gears for a minute, Secretary McHugh, it is good 
to see you. It was an honor to serve with you on the House 
Armed Services Committee all too briefly. But I want to thank 
you for your blunt words on sequestration. This weekend I will 
be heading down to White Sands Missile Range. I know we have 
talked about that a little bit. I am going to be participating 
in their annual Bataan death march memorial marathon.
    But what really pains me is to see the sequestration-driven 
decisions and the associated impacts to both Wismer and the 2nd 
Engineering Battalion and in particular the some 130,000 square 
feet of brand new facilities that today sit empty at White 
Sands without any sort of active duty presence.
    So it is my hope that this committee and, frankly, the full 
Senate recognize the seriousness of sequestration budget levels 
and at a minimum, I think we need to support the President's 
budget, and frankly, I think we need to do a little better than 
that. When we return to responsible budget levels, I look 
forward to working with you on putting those facilities to work 
again, especially considering their brand new condition with 
some sort of active duty mission.
    General Welsh, I want to switch to you real quick. I thank 
Senator Reed for bringing this up earlier, but I wanted to talk 
a little bit more about the RPA issue and wanted to ask you, 
other than sequestration relief, which is somewhat obvious, are 
there other things that Congress can do to help with the strain 
that we are seeing because of increased tempo and demand 
overseas and the fact that we are losing more RPA pilots than 
we are able to train?
    General Welsh. Senator, the immediate problem is the 
training one. If the requirement continued to grow and we were 
tasked to continue to find hundreds or thousands of people to 
now go into this mission area, they have to come out of some 
other mission area with our current budget so that we do not 
have extra people waiting to do some other job. So the tradeoff 
there would be catastrophic really for support to the combatant 
commanders in other mission areas, or we would have to grow the 
Air Force, or we would have to significantly grow the Guard and 
Reserve. This is a difficult mission for the Guard and Reserve 
to support in huge numbers because of the 24/7 nature of it. 
They do a great job of supporting it at the level where we are 
now, and they have been spectacularly helpful in doing that. 
But it is not one you can plant quickly into the Reserve 
component and grow it over night. It takes a lot of 
development.
    The biggest thing I think we need to look at is the 
efficiency of the ISR enterprise itself and the way we use it. 
The interaction between DOD ISR and national ISR, the ability 
to use both networks to collect against your collection 
requirements whether you are a national leader or whether you 
are a military leader in a combatant command. The way we use 
different types of sensors to create situational awareness over 
broad areas, as opposed to relying on 60 orbits of soda straws 
to try and do very close targeting, the types of rules of 
engagement we use for tracking in order to set up kinetic 
operations or potential kinetic operations demand this kind of 
work, but that kind of ROE does not match the resources we have 
to support it in a large-scale approach, and it would not be 
practical in a large war. It is just practical in a 
counterinsurgency war or a counterterrorism fight.
    So that is the kind of discussion we need to be having, the 
efficiency of the operation. We just cannot keep throwing more 
and more and more money at it. We are going to break the 
Treasury.
    Senator Heinrich. Well, I appreciate your attention to the 
issue. I think it is absolutely critical especially given the 
threats that we are facing today.
    Secretary James and General Welsh, I am quite pleased to 
see the second squadron of F-16s scheduled to arrive at 
Holloman Air Force Base this year. As we welcome these new 
aircraft, the airmen, and their families to New Mexico, I 
continue to sort of keep my eyes on the future as well for the 
military community in southern New Mexico. I am pleased to see 
the budget request included increased production of F-35s.
    It is my understanding that the next iterations of basing 
decisions for an active duty bed-down of the F-35 would be in 
2024. Is that still accurate, and will Holloman Air Force Base 
remain a candidate for basing for the JSF at that time?
    General Welsh. Senator, I believe it would be a bed-down, 
an arrival of aircraft in 2024, which will mean the decision 
would be in the early 2020s, 2 to 3 years prior to that when we 
start to process for identifying the base to give us time to 
ensure the proper funding, military construction (MILCON), that 
was required, et cetera, would be available. So it will be just 
after the turn of 2020.
    Senator Heinrich. We are talking maybe 6 years.
    General Welsh. Yes, sir. Every base that we have right now 
that is capable of flying fighters off it will be part of the 
candidate list.
    Senator Heinrich. Great. I appreciate it. Thank you.
    Thank you, Chairman McCain.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Thank you for your service.
    Mr. Chairman, I do have some questions for the witnesses, 
but first I would like to briefly address an overarching theme 
that has dominated this committee's dialogue since January. 
That theme is, of course, the critical importance of properly 
funding our armed forces. We have heard over and over from 
leaders from throughout the Defense Department about the 
devastating impacts that are accompanying sequestration.
    But I believe sequestration is part of a larger threat to 
our defense establishment and our national security. At a time 
of great fiscal pressures, we are seeing ever-mounting pressure 
to reduce defense spending below a level of acceptable risk. In 
short, we can expect to see, as never before, advocacy of a 
national security strategy that is budget- and not strategy-
driven. This committee is positioned to keep that from 
happening.
    So I would like to take this opportunity to state my strong 
support and great appreciation for the ongoing efforts of 
Chairman McCain and Ranking Member Reed to stop that from 
happening and reduce the damage which is being caused by 
sequestration.
    With that, I have some questions for Secretary James and 
General Welsh about one program for which we must provide 
adequate funding, and that is the long-range strike bomber.
    General Welsh, the Air Force says that the long-range 
strike bomber is one of the Air Force's top modernization 
priorities. Today the Air Force has either 95 or 96 operational 
bombers. This is nearly half the number of bombers recommended 
by the 1993 bottom-up review to support operations in the post-
Cold War era. During the Cold War, the Air Force's average 
ratio of fighters to bombers was about 5 to 1. This ratio is 
now 14 to 1, 14 fighters for every 1 bomber. I am not 
suggesting the need to cut more fighters, but rather, I think 
we ought to be talking about whether or not that original 
balance was appropriate.
    I am concerned, however, that DOD may be contemplating 
making an unfavorable situation even worse by retiring more 
bombers before the long-range strike bomber is fielded in 
substantial numbers.
    My questions are these. If the Air Force is not given 
relief from the Budget Control Act, would you propose cuts to 
the current bomber force?
    General Welsh. No, Senator, we are not.
    Senator Rounds. Will the long-range strike bombers replace 
any of the current bombers, including the nuclear mission 
capable B-2, or will they augment the current force?
    General Welsh. The intent would be to replace the B-2 over 
time with the long-range strike bomber.
    Senator Rounds. Beginning?
    General Welsh. Beginning in the mid-2020s.
    Senator Rounds. Some have pointed to stealth technologies 
as a diminishing advantage. Even if this is true, would you 
think it necessary to make the air defense challenge as 
difficult as possible for our Nation's enemies, and what other 
alternatives would we have?
    General Welsh. Sir, I have seen no technical data that says 
stealth as a way to break a kill chain is a diminishing value. 
It is about breaking any segment of the kill chain. There are 
sensors that can see any stealth platform, but passing the data 
that they draw to sensors and weapons that can target you is a 
completely different problem for them, and stealth to this 
point clearly can disrupt that kill chain.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Cotton [presiding]. Senator Hirono?
    Senator Hirono. Thank you, Senator.
    The DOD is the biggest user of energy in the Federal 
Government. The military is committed to lowering its energy 
costs because the savings therefrom can go to other DOD 
priorities such as modernization and readiness.
    So I know that the DOD is making investments in research 
and development (R&D) on alternative energy sources besides 
oil. I wanted to ask Secretary James and Secretary McHugh, can 
you tell us what your alternative energy goals are and whether 
you are meeting those goals?
    Ms. James. Well, Senator, what I would tell you is we have 
a little saying in the Air Force, ``mission assurance requires 
energy assurance,'' because obviously just as you stated, 
energy is the backbone of everything that we do in the Air 
Force. So I guess there are several points I would like to 
bring up. It is partly about saving money. It is partly about 
doing things differently and ultimately saving lives because 
the transport of energy can cause damage on the battlefield, to 
say the least.
    So far in recent years, the Air Force has avoided about 
$2.5 billion in energy expenses. This is mostly CONUS and 
overseas, not the forward-operating base type locations but 
this is through efficiencies at base level.
    Second, we are shifting our strategy from one of self-
funding to third-party funding, wherever we possibly can. The 
way I like to say that is using other people's money by 
partnering and getting efficiencies in this way.
    The third thing, to your point, is we have about 300 
renewable energy projects on about 100 different installations, 
all of which meet or beat utility prices, and most of those are 
third-party funded, those partnerships that I talked about as 
well.
    So those are some of the key things, and maybe there is a 
fourth point to throw in and that is that every type of 
aircraft that we currently have has been certified to be able 
to utilize alternative fuels. Now, we are not doing that in a 
big way at this point. We do not have suppliers that can supply 
that kind of thing in bulk, but that is a point just to raise 
that at least we are prepared.
    Senator Hirono. Thank you. I do understand that our 
Services are looking for efficiencies because that is where you 
determine what your baseline needs might be and then to move to 
the alternative sources. So that would be a given.
    Secretary McHugh, would you like to just address the 
alternative question that I asked?
    Mr. McHugh. Well, as Secretary James said, I think it is 
true for all the Services. We are working very hard to try to 
meet the alternative fuel mandates that were set both in law 
and in executive order. In our tactical vehicle fleet 
particularly, we have a goal that is established out to 2030. 
We have actually reached that goal already. Similarly in other 
areas, we are working hard to meet the legislatively mandated 
benchmarks that are out there. I think it is important to note 
for the Army that we have reduced our petroleum fuel 
consumption since 2003 by 17 percent. You mentioned cost. It is 
a little frustrating that all the while we have done that, our 
actual costs have gone up about 45 percent given living Hawaii, 
the cost of utilities and such. But nevertheless, it is a very 
important initiative, and we are going to continue to develop 
that.
    We piloted about 3 years ago what we called the Net Zero 
project, water waste and electricity. We started, I believe, it 
was on seven bases. Highly successful. In fact, we have now 
embedded that throughout the entire Army to try to be better 
stewards of the environment but be better neighbors as well to 
the communities that play host to us.
    We have doubled our renewable fuel consumption from 2013 to 
2014. That is the second year in a row we have doubled our 
renewable construction. We have still got a ways to go to the 7 
percent goal that Congress has set, but we are making progress 
and whether it is now 380 renewable energy programs that we 
administer where we leverage for every Army dollar $13 in 
private investment, we are getting there. You mentioned 
baseline. Given I think where we all started--and the Army is 
the largest consumer in the Federal Government of energy and 
petroleum products--we have a lot of room for improvement.
    Senator Hirono. Secretary McHugh, your testimony mentions 
the Ready and Resilient Campaigns that the Army established 2 
years ago by your directive to promote resiliency among 
servicemembers by streamlining programs, including those aimed 
at eliminating sexual assault and harassment, substance abuse, 
domestic violence, and any stigmas or barriers associated with 
seeking help.
    After 2 years, has the Army seen a measurable impact on 
servicemembers and their families as a result of this program?
    Mr. McHugh. I think if we are honest with ourselves when it 
comes to the Ready and Resiliency Campaign, we still have a 
ways to go before we fully integrate the--I think there are 
seven major initiatives embedded within there. But if you look 
at them individually, whether it be help-seeking behavior for 
suicides and mental health, whether in sexual assault, it is 
the double trend lines of incidents going down while reports 
coming up and so on and so forth, the individual programmatic 
pieces are showing progress.
    As I know you understand, Senator, each one of these are 
very serious challenges unto themselves. So when I talked about 
dramatic increases in reports on sexual assault and equally, I 
think, dramatic declination of incidents, I do not want to 
paint that as too rosy a picture. This is still a scourge, I 
think a fair word, in the U.S. Army, and we are going to 
continue to work that as we are suicides, as we are substance 
abuse and every other program. But we are still realigning 
ourselves so that we have a more holistic approach to the Ready 
and Resilience Campaign.
    Senator Hirono. So 2 years may be too short a time, but I 
commend you for taking a holistic approach to these issues.
    Mr. McHugh. Thank you, Senator.
    Senator Hirono. I also want to thank General Odierno for 
your continuing commitment to addressing the scourge of sexual 
assault in your testimony. Thank you very much, and I expect 
that of all of our Services.
    Again, Secretary McHugh, during the OSD posture hearing, 
Secretary Carter testified that foreign leaders--and I quote--
get a very clear picture of the dangers of sequester. They 
probably get an outsized picture of our lack of will, but this 
is not good for our friends--end quote--much less our foes.
    That being acknowledged, it is critical that we do 
everything we can to multiply the effectiveness of our troops 
and to reassure our allies. One of the ways, I believe, that we 
are doing that is through Pacific Pathways.
    Can you speak to the importance of military-to-military 
(mil-to-mil) programs in maintaining stability and offering 
reassurance to our regional partners, particularly in the Indo-
Asia-Pacific region? How does the President's budget support 
these types of partnership building engagements?
    Mr. McHugh. Well, Senator, as I know you recognize full 
well, the entire DOD is refocusing on the Pacific. It is, I 
think, understandable to view this somewhat as an air and water 
domain, but the Army has had substantial presence in that 
region for many, many years, and we see an opportunity at this 
moment to increase that.
    You mentioned Pacific Pathways. That is an initiative that 
a four-star general who we elevated in the Army Pacific Command 
to a four-star general to recognize the very factors that you 
said. Pathways from General Brooks and Chief Odierno is the way 
in which we are trying to articulate that. Eight of the 10 
world's largest armies are located in the Pacific. Of the 
military forces throughout that region, the vast majority are 
headed up by army officers, land force officers. So we have a 
natural affinity to deal with these partners and not to be war-
like in our posture toward China but rather to build assurance, 
to build partnerships, and through Pacific Pathways, we are 
actually in a more efficient way sending out forces to train 
through a variety of our engagements and then return home.
    General Brooks has spoken, I know, to the Chief--and 
perhaps the Chief could comment more fully--about some of the 
concerns. Particularly, obviously, at sequestration level, that 
breaks his ability to go out and do, I believe, the three 
rotations that he would like. But through various efficiencies 
at the President's budget level, I think we can continue to 
stay focused on this very important initiative.
    But I would yield to the Chief if he wants to add.
    Senator Hirono. Well, I know that my time is up. So I would 
like to ask the chair if General Odierno can comment.
    Senator Cotton. General Odierno, please comment.
    Senator Hirono. Thank you.
    General Odierno. Senator, I would just say I think as you 
know, Pacific Pathways is really key for us reaching out to new 
and important allies. We have very sophisticated and long-term 
programs. We deal with Korea, Japan. But now we are able to 
reach out to other countries that we think are going to be 
really important to us, Indonesia, Malaysia, Vietnam, and other 
places like that that are really important to us as we continue 
to develop our relationships and capabilities in the Pacific. 
The Pacific Pathways is allowing us to do this.
    I agree with Secretary McHugh, sequestration will basically 
end Pacific Pathways for the next couple years if we do not get 
that thrown out because that will be one of the issues that we 
will have to cancel if we lose the dollars that are associated 
with it.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator Wicker?
    Senator Wicker. Thank you, Mr. Chairman. This is an 
outstanding panel.
    I became Secretary McHugh's House colleague some 21 years 
ago. It is hard to believe.
    Secretary James, there is a country song from the Grand Ole 
Opry, ``I've Been Everywhere,'' and I think in the short time 
you have been Secretary, you fulfilled the words to that 
particular song.
    But let me direct my questions to our two outstanding 
uniformed witnesses today. General Odierno, I understand this 
will be your last testimony before this committee. Maybe not 
but perhaps. Congratulations on a great career.
    General Odierno. Senator, I always get nervous when you say 
it is my last one because you just never know. It is 6 months. 
A lot can happen within 6 months.
    Senator Wicker. That is true. That is true. But I hope you 
will come back and tell us really good news.
    You were in command of the surge in Iraq in 2007 and I do 
not want to ask about Iraq. But suffice it to say that the 
surge in my opinion was a success. We then left a vacuum and, 
because of a number of reasons, things have gone to hell for 
our interests in Iraq.
    Now, I understand every situation is different, but I have 
worried publicly about Afghanistan. I worry that we will leave 
a vacuum that will come back to haunt us and I want you to 
comment about that.
    We have a friend in the presidency now in Afghanistan, 
President Mohammad Ashraf Ghani. He and his wife had to leave 
Afghanistan during the time of the Taliban. We have a situation 
now where the people have elected him and he is back in office. 
His chief opponent, as a patriotic citizen of Afghanistan, has 
agreed, after a tough campaign, to be part of the government 
and to be part of the solution, Chief Executive Officer (CEO) 
Abdullah Abdullah. The tribal councils, the collective wisdom 
of the various ethnic groups there, the Loya Jirga, have asked 
us to stay. Frankly, I view the situation now in Afghanistan as 
a success story.
    Now, clearly mistakes were made. Clearly I wish we had not 
been there as long as we were, and perhaps we were distracted 
elsewhere. But the situation on the ground is favorable to us 
in Afghanistan now. I fear that under the current timetable we 
are going to risk losing the gains that we have made.
    So give us your opinion about that, and to the extent you 
can, tell us what, if any, movement there might be in the 
administration toward a fact-based decisionmaking process 
rather than a timetable. Then, of course, I will just toss that 
over to General Welsh.
    General Odierno. I will just say that, first, the things 
you pointed out about President Ghani and Abdullah, who is kind 
of the CEO of Afghanistan, is creating an environment that is 
really, as you mentioned, positive. Frankly, it is positive 
towards us. Whenever you try to be successful, it is a 
combination of military capability to provide security, but 
really, the most important piece is the political piece and you 
have leadership that is able to bring the country forward. So I 
think with Afghanistan now, the most positive thing is the fact 
that we now have the political leadership, as you mentioned, in 
place.
    I believe that General John F. Campbell, the current 
Commander of the International Security Assistance Force 
(ISAF), has been given flexibility between now and the end of 
2016. I think that is very important. So I would think that 
that is a first step, and I think that is because of the 
positive political environment that we see. So I think there 
has been a reaction to that, and I think we have to constantly 
assess where we are and we can continue to have a discussion on 
where we are a year from now and then have a discussion on, at 
the end of 2016, which is the current plan, will we pull out, 
and if not, then I think the Joint Chiefs and General Campbell 
will give their best military advice to the President on 
whether that is appropriate or not.
    What I would say is I think because of the political 
situation, I think there is more room now that General Campbell 
has been given over the next year and a half or so as we 
continue to downsize our presence to make sure we are 
continuing to support the administration in Afghanistan and 
achieve our goals. I think we will continue to revisit that as 
we----
    Senator Wicker. What are the risks to our troops if we stay 
longer than that? There is not expected to be very much----
    General Odierno. I think it just depends. I mean, I would 
suggest that if we are staying, it is because we are continuing 
to build their institutions. That is what is important is to 
build their institutions. So that puts them at less risk as we 
go forward. But again, that would have to be determined 
depending on what the situation is at the time.
    Senator Wicker. General Welsh, I was talking to a 
parliamentarian from the United Kingdom yesterday. He thinks 
the perception in his country is the same as it is here, that 
things are really not going well in Afghanistan. I do not see 
it that way. Do you? I think people have the wrong impression.
    General Welsh. Well, sir, it may depend on where you are 
standing or sitting in Afghanistan.
    The Air Force's role there is to support a lot of different 
activity. But the principal role is to support the development 
of the Afghan air force as an institution and as part of the 
security infrastructure of their nation. Many parts of that 
development are going very well. They are showing signs of 
independent ability to do tactical planning, operational 
activities. The thing that will really set them up for success 
over time, though, is the ability as an institution to survive 
the big pieces of an air force, logistical infrastructure, 
supply chains, managing infrastructure from airfields to new 
equipment acquisition, things that they do not have any 
experience with and they are not very proficient at yet. But 
they have young talent with a lot of energy and a lot of desire 
to learn.
    I think clearly if NATO could stay even, for example, for a 
period of time to continue this effort and get them to a point 
where they are able to continue that development on their own, 
there is a potential for their air force to be the cornerstone 
of a budding aviation industry in Afghanistan at some point in 
the future that would be immensely helpful to that country and 
to the region.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator McCaskill?
    Senator McCaskill. Thank you.
    I was bitterly disappointed today to see that the Senate 
budget that was released resembles a fairytale and does 
absolutely nothing to address the looming crisis with 
sequestration as it relates to our military. We have heard 
witness after witness in this committee tell us what it is 
going to do to our preparedness, to the excellence of our 
military, to our national security. The fact that we are now 
faced with a budget document that does nothing--zip, nada, 
zero--to address this looming crisis is beyond disappointing.
    I want to talk about a number of things. First, I want to 
congratulate you and the other commanders that have worked so 
hard on military sexual assault. We have a lot more work to do, 
a lot more oversight, but the report, which a lot of people do 
not get into the weeds in those reports--I certainly did, as 
you probably are not surprised. I understand that incidents are 
down, reporting is up. Those are both two good measures. Also, 
what was most important was the confidence that victims showed 
in terms of how commanders were handling this issue.
    I think we have to get after retaliation. I have talked to 
many of you individually about this. This is not commander 
decision retaliation. This is lower level peer-to-peer 
retaliation. I will look forward to information coming from all 
of you about how you are specifically getting after that.
    I want to talk about suicide in connection with stress and 
substance abuse. This is going to be one for each of you.
    First, Army. Back in 2008, we had a whistleblower at Fort 
Leonard Wood expose the fact that people were not getting 
substance abuse help at that base. It was a tragic story, and 
as we all know, stress and substance abuse are two of the 
predicates that sometimes are in place when you have a suicide. 
We all want to do something about military suicides. So I think 
substance abuse is pretty important.
    Secretary McHugh, you made the decision in 2010 to move the 
substance abuse program out of the Medical Command into the 
Installation Command. We are having a problem with personnel, 
clinical personnel, leaving the program, and you have shortages 
now at places like Fort Hood where we have 45,000 soldiers. I 
guarantee you the people who need outpatient substance abuse at 
Fort Hood are not getting it because of the lack of personnel 
that is available. Could you speak to that?
    Mr. McHugh. I could. Just a little background because, as 
you noted, Senator--and thank you for your interest. This is a 
vitally important issue.
    Just before I arrived as Secretary, then Vice Chief of 
Staff of the Army, General Peter W. Chiarelli, who is well 
known and wide in circles on suicide and other soldier care 
programs, conducted a study, headed a study of the Army 
Substance Abuse Program (ASAP) at large throughout the Army. He 
was deeply concerned about what he felt was a disaggregated 
program in that it was too dispersed at too high a level for 
command and control to ensure that base by base, facility to 
facility the proper things were being done.
    The response that he put together and that Medical Command 
and Installation Management Command (IMCOM) agreed upon was to 
place the actual oversight of the ASAP program through IMCOM to 
the base commanders. So those who have both responsibility and 
eyes on for soldier care programs had a better view and a 
better influence.
    The--that was executed, as you noted correctly, in 2010 to 
formalize what the vice had done ensured that all of the 
clinical aspects, the certifications and the care programs were 
still--and still are--overseen by Medical Command (MEDCOM).
    You and I are in absolute agreement about the challenge of 
ensuring that we have adequate providers. We do not. This is a 
requirement that has been growing over time, as I discussed 
with one of your colleagues a bit earlier. But I think it is 
important to note that we have not had a hemorrhage or a loss 
of providers since it was transferred authority to IMCOM. In 
fact, right now we are about 88 percent of our stated 
requirement, 99 percent is not good enough. We need to do 
better. But we are actually at about 25 percent higher 
providers on hand than were when Medical Command had control.
    Having said that, there are concerns about this. So in 
January, the Chief and I authorized, long before any of the 
recent stories came out, for the Army Audit Agency to go out to 
do a forensic examination of our structure to see if programs 
were working to see what our actual status was. That 
investigation, that audit is ongoing as we speak. Then in 
response to some stories that, frankly, we take issue to some 
of the data points that were brought up, nevertheless raise 
some very serious questions. As I assured the Secretary of 
Defense, we are not going to circle the wagons on this.
    The Chief and I sent out a directive, I believe it was last 
week, to the Inspector General providing him access to 
virtually every resource in the Army and directing him to go 
and take a hands-on look, eyes-on look at all 54 of our ASAP 
facilities. As attendant to that, I called in the Surgeon 
General, head of our Medical Command, and the commanding 
general of IMCOM, to talk about how it is working. The Surgeon 
General said to me when the transfer first occurred, it was an 
appropriate structure. Since that time, our behavioral health 
delivery capabilities have, in her words, matured, and she 
felt--and the IMCOM Commander agreed--that it is time to take 
another good look at our structure.
    Senator McCaskill. Okay. Well, that is good.
    Mr. McHugh. We are doing that, and I promise you we will 
report back to you when we have those available.
    Senator McCaskill. Thank you.
    I know my time is gone, and I do not want to ask another 
question. But if you would allow me 30 seconds to put something 
in the record.
    Secretary James and General Welsh, I want to make sure on 
the stress side for our drone pilots--we have never before had 
pilots working 12-hour shifts, killing the enemy, and then 
going home to their wife and kids. This is a new thing in our 
military. We have some of those guys at Whiteman Air Force 
Base, and the demand is so high. They are not getting rest. 
They are not getting leave. We have to do something about the 
demand for RPA and we have to do something about the training 
for RPA. But I would like you all to address to my office and 
to the committee what you are doing to analyze the stress level 
of these pilots. I do not think this has probably been given 
enough thought about what psychologically this is doing to them 
working these 12-hour shifts, killing the enemy, and then going 
home to dinner with the children.
    [The information referred to follows:]

    In addition to access and routine assessments provided by flight 
medicine and mental health outreach services at each unit, the United 
States Air Force (USAF) has conducted multiple, comprehensive 
aeromedical studies over the past several years assessing the 
psychological health and disposition of weapons deploying Remotely 
Piloted Aircraft (RPA) operators engaged in around-the-clock 
operations. Many of these studies have been published in peer-reviewed 
psychology journals as well as official USAF technical reports. The 
main sources of operational and combat-related stress have been 
identified, as well as the prevalence of occupational burnout, elevated 
levels of psychological distress, post-traumatic stress disorder, 
family and interpersonal relationship distress, and other behavioral 
health issues (e.g., sleep and exercise, alcohol, and energy supplement 
use). These studies routinely assess the psychological health and 
disposition of RPA operators at each separate unit to provide outreach 
specific to the needs of each organization as well as identify those at 
elevated risk for psychological difficulties.
    Although the trend and proportion of RPA operators with elevated 
rates of exhaustion and psychological distress is higher than other 
aviation-related career fields, several initiatives have been put in 
place to mitigate the impact of shift work and weapons deployment, as 
well as to identify those at risk for psychological and family-related 
difficulties. The initiatives include, but are not limited to: 
improving manning levels to reduce high workload and role overload, 
developing and assessing shift rotations, work load distribution for 
sustaining health and minimizing disruption to family lives; 
modifications to the lighting and ergonomic design of ground control 
stations to reduce fatigue and burnout, training leadership and medical 
providers with early recognition, intervention of those with warning 
signs for operational and combat-related stress, and improving upon 
psychological health surveillance strategies. Additionally, we have 
embedded operational mental health providers within active duty RPA 
units with appropriate security clearances to increase access to mental 
health care, as well as to engage and intervene, as needed, assisting 
RPA operators with transitioning to home following weapons strikes, as 
well as balancing their warfighter role with their personal life. The 
most recent studies found these efforts have successfully led to 
improvements in the psychological health and function of those within 
active duty operational units. Work is in progress to adapt this 
concept of support to RPA operations across the total force to 
encompass units at Air National Guard and Air Force Reserve sites.
    The comprehensive and in-depth aeromedical studies help leadership 
remain vigilant to the changes, trends, and impact of specific 
initiatives to mitigate the stressors and challenges (both to operators 
and their families) unique to this form of warfare. The outcome of 
these studies and current practices within flight medicine for 
assessing the psychological health of RPA operators will continue to 
shape force management strategies for sustaining and improving the 
wellbeing of the warfighter and their families.

    Senator Cotton. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to all of you for taking the time to meet with us 
today.
    I am aware of the fact that you are all doing everything 
you can to make adjustments to adapt your branches to the 
emerging threats we are facing and to a very tough budgetary 
environment with a lot of uncertainties.
    Secretary James and General Welsh, during the confirmation 
hearing with Secretary Carter last month, we discussed the 
overall importance of having well-coordinated acquisition 
sustainment and logistics processes to better achieve cost 
efficiency and readiness for major weapons systems. I know this 
has been a high priority for each of you. So can you describe 
to our committee how the Air Force sustainment efforts have 
performed in the last year, especially as you recover from 
sequestration in 2013 and the direction the Air Force budget 
request takes sustainment efforts through the next 5 years?
    Ms. James. Senator, are you referring to sustainment of 
weapons systems and trying to drive the costs down in the 
sustainment world?
    Senator Lee. Yes.
    Ms. James. So I would say in that regard, we are laser-
focused. I think we are making progress. There is a lot of work 
to be done, however, truth in advertising in that arena. We 
talk frequently about unit costs of weapons systems, and we 
track that very closely. But over time, we have not had as much 
of a focus on that sustainment piece, and that frequently can 
be as expensive, if not more expensive. So we are working it 
hard. I think we are making progress, but lots more to come.
    Senator Lee. Thank you. I appreciate your commitment to 
that.
    Do you have anything to add to that?
    General Welsh. Senator, I had a rotation Air Force Materiel 
Command a couple of years ago and the development of the five 
centers that we have inside that command now to include the 
lifecycle management center and the sustainment center is 
changing the game for us on how we create efficiencies inside 
the supply chains. I will tell you that the work that General 
Janet C. Wolfenbarger has done leading this effort as the 
Commander of Air Force Materiel Command and that Lieutenant 
General Bruce A. Litchfield has done in particular as the 
Commander of the Air Force Sustainment Center and also 
Lieutenant General C.D. Moore, former Commander of Air Force 
Life Cycle Management Center, who is now retired, has been 
spectacular in launching us in a completely new direction in 
how we sustain fleets of aircraft and equipment over time. I 
think we are making remarkable progress, we just cannot slow 
down now.
    Senator Lee. I appreciate your commitment to that.
    Now, the Air Force last year determined that it was 
experiencing a shortfall in five and seven experience level 
maintainer personnel for the undermanned legacy fleets and F-35 
aircraft scheduled to be brought into service and recently 
announced measures for a near-term solution to the issue.
    Can you give the committee more detail about what 
alternative solutions may have been considered by the Air Force 
and why the Air Force chose to transfer maintainers from A-10 
squadrons and how the Air Force will be impacted if a longer-
term solution to this maintainer issue cannot be found?
    General Welsh. Senator, the issue was because of the 
budgets that are lower than we anticipated a few years ago, we 
are having to cut force structure. So we are not adding numbers 
of squadrons. We are decreasing numbers of squadrons while we 
are bringing a new weapons system on board. So we have to 
replace squadron A or aircraft A with the new aircraft B and 
take the people who are working A to be part of the new 
aircraft B. We do not have 1,000 more maintenance personnel 
standing around waiting for work.
    Senator Lee. Right.
    General Welsh. Because we are not transitioning that way 
now, we are not retiring the squadrons we had planned to retire 
to stand up the F-35 squadrons, we have to find that 
maintenance manpower in some other way. The first effort we 
were going to make was to just downsize the percentage of 
manning within every other fighter squadron in the Air Force to 
take the experienced maintainers we need to be able to build up 
the F-35 fleet as opposed to delaying F-35 development and bed-
down at multiple bases.
    Unfortunately, as we put that plan together, the Islamic 
State of Iraq and Syria (ISIS) became a reality and the 
continued effort in the Middle East related Iraq and Syria came 
on the books. We cannot take those squadrons down and still 
support that effort.
    So now we are looking at contracting an aircraft 
maintenance unit at Luke Air Force Base to help us with the 
training effort and to have contract maintainers instead of 
active duty maintainers. The problem with that is we then are 
not developing the active duty maintenance personnel that we 
need to send out to Hill Air Force Base and to other places as 
we bed down the F-35 because the maintainers there have to be 
deployable. We are in a corner here. We have to develop active 
duty F-35 maintenance people to bed down airplanes, and we do 
not have them standing around.
    Senator Lee. Yes. There is no question you are in a 
difficult spot, and I appreciate your ongoing commitment to 
that issue to make sure that we maintain our equipment that we 
have and appreciate your insight into that. Thank you very 
much.
    Senator Cotton. Senator Blumenthal?
    Senator Blumenthal. Thank you. Thanks for being here. Thank 
you for your service.
    I want to pursue some of the questions that my colleague, 
Senator McCaskill, began on behavioral health, mental health 
care. The chairman of this committee, Senator McCain, and I 
have successfully worked for the Clay Hunt Suicide Prevention 
for American Veterans Act (SAV), the suicide prevention bill, 
for our veterans which is promising as a first step, just a 
down payment toward ending the scourge of 22 veterans every day 
committing suicide. Obviously, these veterans come out of 
service to our Army and our Air Force.
    So I am wondering whether better coordination and 
connectivity between our armed services and the Department of 
Veterans Affairs (VA) is desirable and achievable and how, 
maybe beginning with you, Mr. Secretary, if I may, that may be 
advanced as a goal.
    Mr. McHugh. Well, it absolutely is desirable, and it is 
something that from our perspective in the Pentagon through the 
Defense Suicide Prevention Office (DSPO) we are working 
throughout the Services to coordinate with VA.
    We are also looking at reaching beyond that for best 
practices within the private sector. From the Army view, we 
have what we call the Study to Assess Risk and Resilience in 
Servicemembers (STARRS) program where we entered a 5-year 
longitudinal study headed by the Institute of Mental Health and 
a consortium of private universities to try to better 
understand what we need to look for in soldiers in our case and 
if there were any precursors that we could appropriately use. 
We are not looking to stigmatize soldiers because of a single 
behavior or a check on a medical record, but just trying to 
find out how we can do a better job for those who are in or who 
are quite possibly going to become--exercises of ideational 
activity.
    So we are making progress, but I think as you know so well, 
it is beginning in its beginning stages.
    I served for 4 years at the assignment of then-Secretary 
Gates on a national suicide prevention alliance, bringing 
together an amazing group of individuals from across society, 
medical care, mental health care, the private industry. Now, I 
think rightfully so, I have stepped down from that position. It 
is actually held by the Under Secretary of Defense for 
Personnel and Readiness.
    So we are reaching beyond and recognizing this is not just 
a military problem, not just an Army problem. It is a problem 
throughout society, the civilian as well as the military. 
Working together with the VA and others will do us all a great 
deal of good.
    Senator Blumenthal. I have heard you talk about it, General 
Odierno. I wonder taking the word `stigma' that Secretary 
McHugh used, whether the stigma that sometimes surrounds this 
topic can be removed and what the Army is doing.
    General Odierno. So I think first off, in the Army it is 
about our commanders understanding the fact that our job and 
the stress that we put onto people, it is important that we 
deal with the behavioral health issues, and that we have to 
make people realize and understand that it is okay to come 
forward. Sometimes, as we have talked before, Senator, some of 
our mantra actually works against that, but I think we are 
making some progress.
    The one thing I would say about the transition between us 
and the Veterans Administration--one of the complaints the 
soldiers have, as they do a transition, is that they are 
getting treatment by a doctor in the Army, and then as they 
change to a new doctor in VA, sometimes the treatment changes 
and it is not what they are comfortable with. So one of the 
things we are working at is how do we make that an easier 
transition. We are not there yet, but we want to do a doctor-
to-doctor transition so you have a doctor who is working with 
somebody in the Army talking to the VA doctor that is taking 
over the case, and they get a treatment that is similar, at 
least to begin with, because it is traumatic for somebody, 
especially who has some behavioral health issues, that they are 
maybe given different medicine or different types of treatment. 
That really has an impact sometimes on our soldiers.
    So that is one of the things I think we have to really work 
on is that transition. The Surgeon General is working on that. 
We are working more closely with the Veterans Administration, 
but we have a long way to go on this issue because there still 
is a gap.
    Senator Blumenthal. My time has expired, but I think you 
have really very pointedly and powerfully summarized what one 
of the problems is in that transition, which is the change from 
doctor to doctor, sometimes from medicine to medicine, 
formulary to formulary among drugs. So I hope that we can help 
you make that kind of progress. Thank you very much.
    Senator Cotton. I will now recognize myself. Being the 
acting chairman for John McCain is almost as powerful as I felt 
as having staff duty at Fort Myer, checking on General 
Odierno's house at 0200 in the morning, although he was not 
there in 2007. He was in Iraq, and I want to thank him, as all 
my colleagues have, for his many years of distinguished 
service, particularly in that country. General Odierno, just in 
case you are not back in front of us again, as you no doubt 
hope that you are probably not.
    General Welsh, thank you as well for your service. Both the 
Secretaries, thank you for your service to our country, for 
being here.
    We have heard many members of this committee talk about the 
dangers of sequestration to your services. We heard before from 
the Navy and the Marine Corps as well. I think most of us, if 
not all of us, are in agreement. We are now engaged in a debate 
on exactly what to do about that during the budget season in 
both the House and the Senate.
    The House of Representatives proposed its budget today. I 
believe the Senate Budget Committee is working on the budget 
today as well. The drafts that have been introduced would keep 
the DOD portion of the base budget at $498 billion and spend 
some substantial more than that in so-called OCO funds, 
overseas contingency operations, perhaps as much as $90 
billion. I think when you add in the non-DOD parts of the 
defense budget, it would get up to about 613 or so.
    You do not necessarily need to comment on either budget, 
but I would like to hear what General Odierno and General Welsh 
have to say about the concept of funding the base budget at 
$498 billion for defense and a much larger OCO request than 
appears in the President's budget.
    General Odierno. Thank you, Senator. So first, I would just 
say there is risk to not funding the base and putting it in OCO 
because with that has to come a flexibility within OCO for us 
to spend it on the things that are necessary because OCO has 
limits and it has restrictions and it has very strict rules 
that have to be followed. So if we are inhibited by that, it 
might not help us. What might happen at the end of the year, we 
have a bunch of money we hand back because we are not able to 
spend it. So the first thing is it would have to have some 
level of flexibility.
    Now, I would say that getting money in OCO, if there is 
flexibility with it, is certainly better than not getting any 
additional money. It could help us with readiness. There are 
ways that maybe we could work with the committee to make it 
work.
    But I would tell you I would much rather have it in the 
base budget because at some time we are going to have to shift 
it to the base, and if we put it in OCO, we are just delaying 
that potential. It is going to have to happen at some time.
    Senator Cotton. Senator McCain and Senator Reed have both 
called in their budget newsletter for $577 billion, and they 
have endorsed in concept the National Defense Panel's 
recommendation of $611 billion as a minimum floor. If that were 
not to happen, if you did have the base budget somewhere around 
$498 billion and OCO somewhere around $90 billion, would you be 
able to stop some of the force reductions that you have 
predicted in your testimony today?
    General Odierno. We would still be going to 450,000: 
335,000 in the Guard and 195,000 in the Reserve. But what that 
money would do is it would help us with our readiness.
    Senator Cotton. So force structure would probably not 
change, but readiness of the remaining force would improve.
    General Odierno. See, the problem with OCO, it is year-to-
year funding. So we do not know how long it would go. But our 
ramp is continuing, down to 450,000.
    Senator Cotton. General Welsh?
    General Welsh. Senator, with modernization as a major issue 
we face, OCO presents some problems because it is hard to start 
a new program with OCO when you are looking at a 1-year budget 
cycle. It is not guaranteed over time. There are limits on what 
you can spend it on. So that is the big issue with us. 
Modernization is a huge deal for the Air Force at this point in 
time. But as Ray said, at some point in time, if it is green 
and it smells pretty and it is not your St. Patrick's Day tie, 
it is okay.
    Senator Cotton. Are you talking primarily about longer-term 
modernization like the long-range strike bomber or shorter-term 
procurement matters as well?
    General Welsh. I would think that Congress would probably 
help us with flexibilities on the shorter-term things. I am 
more worried about for a platform-based force, Air Force or 
Navy, for example, the types of systems we buy will take longer 
and produce overtime. It is not just the development. It is 
also the production and supply chain that goes on for 20 to 30 
years as you change hundreds of platforms.
    Senator Cotton. General Odierno, we did not touch on 
modernization. Obviously, the Army has much smaller, lower unit 
cost platforms than does the Air Force. But would you care to 
touch on modernization, how this approach might----
    General Odierno. Yes. So, again, it depends. OCO limits 
what we can do for modernization if it is in OCO. Now, there 
are ways around that. So, for example, if you had end strength 
over 475,000 or 450,000 funded in OCO, we could then use that 
money to do potentially modernization. But again, the wording 
and other things would have to be about right in order to make 
that happen. But there is some potential that we could use it 
for modernization depending on the flexibility that is inside 
of that.
    Senator Cotton. So my time has expired, but if I could 
briefly synthesize what I think I am hearing from both of you, 
it is not good, better than nothing, but depends heavily on the 
details or the kind of flexibility that the OCO funding 
provides.
    General Welsh. Senator, if I could add. It would help us 
continue the readiness recovery that the last 2 years of BBA 
has allowed us to start, at least at the individual and unit 
level.
    Senator Cotton. Best for readiness, marginal for force 
structure, not good for modernization. Thank you.
    Senator King?
    Senator King. I would like to congratulate the chair. To 
deliver one's maiden speech and chair the Armed Services 
Committee in the same week is a meteoric rise.
    [Laughter.]
    Also, Secretary James, I love your description of space: 
congested, contested, and competitive. The first thing I 
thought of was my old high school football coach who said we 
want our boys to be agile, mobile, and hostile. That came back 
to me when you said that.
    I want to, first, for the record associate myself with 
Senator Wicker's comments about Afghanistan. I think it would 
be a tragedy if we pull our forces out of there prematurely. To 
follow with the football, it would be like fumbling the ball on 
the 5-yard line in my opinion based upon the tremendous 
progress that has been made. I hope, General Odierno, you will 
continue to relay those thoughts through General Campbell to 
the appropriate officials.
    Senator Wicker and I were at the budget meeting this 
afternoon. I can report good news and bad news or I should say 
bad news and good news on the budget. The budget that was 
proposed by the majority in the Budget Committee does assume 
sequestration. That is the bad news. The good news is that 
there is language in it which is a kind of placeholder for a 
replacement for sequestration if we can find it. I can assure 
you that there are a lot of people, good people, working on 
finding it, but I can also tell you because I am one of those 
people that it is hard. There is no low-hanging fruit. There is 
no easy solution to it.
    That is why your testimony about the damage is so important 
because as we look at difficult alternatives, we have to keep 
in front of us the difficult reality that sequestration poses 
for all of the Services. So it is very important to keep that 
information flow going about what the real effects will be in 
terms of squadrons grounded, pilots not being trained, force 
structure. Readiness, of course, is the key, and I just urge 
you to continue to make that case.
    General Welsh and Secretary James, can you briefly on this 
question of sequester touch upon the loss of ISR capabilities 
in the sequester budget? I see that as a real problem for us.
    Ms. James. Let me start and, please, Chief, you jump in as 
well.
    So we did make it a big point, as I was mentioning earlier 
to talk to the combatant commanders and find out what their top 
priority was for any additional dollars that the Air Force 
could bring to the table, and they said ISR, ISR, ISR. That is 
the way it went all the way.
    So as a result, we put in additional things which would 
have to be stripped back out under sequestration. So under 
sequestration, we would have to divest the U-2, which would 
reduce high altitude ISR capacity by 50 percent. We would have 
to divest----
    Senator King. Let me stop you there. It would reduce high 
altitude ISR capability by 50 percent. That is a stunning fact, 
it seems to me.
    Ms. James. Yes. No, it is. It is very serious and it gets 
worse. We would also have to divest the Global Hawk block 40. 
We would have to reduce our combat air patrols, the Predators 
and the Reapers, by 10 combat air patrols. By the way, 10 is 
roughly the equivalent of what is in Iraq and Syria today. So 
that is a substantial chunk. We would have to divest seven 
AWACS, which of course are command and control aircraft. So the 
list is draconian.
    Senator King. This is like General Robert E. Lee losing 
J.E.B. Stuart before the Battle of Gettysburg. As I remember, 
General Lee's comment was ``I am blind.'' That is what we are 
talking about.
    Ms. James. That is what we are talking about.
    Senator King. General Odierno and Secretary McHugh, you 
have talked about a term ``velocity of instability in today's 
world.'' Clearly that is where we are. All the testimony both 
in the Intelligence Committee and Armed Services has been from 
professionals. They have never seen anything quite like the 
instability and unpredictability of the world that we are in.
    Talk to me a little bit more, General, about OCO and if we 
use OCO for what amounts to base, that means we do not have OCO 
for OCO. What does that do to your flexibility of being able to 
respond?
    General Odierno. Well, I think what would happen is we 
would have additional OCO dollars. The problem again is what 
happens is OCO is supposed to fund our missions that are being 
conducted, whether it be in Iraq, Syria, Afghanistan. If they 
increase the OCO, then we could use it for training of units 
that are preparing to go to operate in those areas. What it 
does not do is train our forces that have to go to unknown 
contingencies. If, for example, we wanted to deploy a bunch of 
soldiers to Europe, if something continued to go wrong there, 
we might not be able to use the money to do it. Or if we had to 
send people to Korea, we would not be able to use that number 
to train our forces to be prepared to go to Korea.
    Senator King. By definition, a contingency account is not a 
contingency account if you are spending it for base budget 
purposes.
    General Odierno. That is correct.
    Senator King. A final question for the record because I 
know my time is up.
    General Welsh, I would like you, if you could, to give the 
committee a justification, if you would, for the new bomber, 
for the long-range strike bomber in terms of what are we 
gaining over the B-2, and how do we control for the risks of a 
new airplane. The B-2, of course, we were going to get 100. We 
ended up with, I think, in the 20s. How do we mitigate the risk 
both in terms of cost and duration of project? Is it worth that 
risk vis-a-vis the advantages of the new aircraft? You do not 
have to answer now, but if you could give us some background to 
the committee I would appreciate it. Thank you.
    [The information referred to follows:]

    One of the critical capabilities we bring with the Long Range 
Strike Bomber (LRS-B) program is the capacity of 100 aircraft to fight 
in our future conflicts. Currently, the Air Force has 20 B-2s and these 
few numbers limit what we will be able to accomplish vice a fleet of 
100 aircraft. Additionally, the LRS-B offers a significant leap in 
survivability over the B-2 without inventing new technology. We will 
mitigate cost and schedule by using mature technology and existing 
systems. Doing so lessens the scope of the development effort and risk 
involved in bringing many new subsystems together for the first time. 
We also mitigate cost and schedule risk by tempering our expectations 
from a requirements standpoint. LRS-B does not need to be unnecessarily 
complicated to offer next generation capability. Senator King received 
an LRS-B program brief in May, 2015.

    Senator Reed [presiding]. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    I want to thank Secretaries McHugh and James and Generals 
Odierno and Welsh for your distinguished service to our country 
and for coming here today to testify to this committee.
    I would like to start, Secretary McHugh, with you and 
General Odierno. The Army force structure and personnel manning 
projections were based on a set of assumptions about very 
limited commitments to the Middle East, Europe, and 
Afghanistan. Under the 2016 budget request, the Army's end 
strength would decrease to 450,000 by the end of 2018. Mr. 
Secretary and General Odierno, you have both testified in the 
past that this level is the minimum force necessary to execute 
national defense strategy, but you have also mentioned that 
everything in that estimate relies on the underlying 
assumptions regarding required operations.
    With a resurgent Russia imposing violence on its neighbors, 
ongoing commitments to fight radical Islamic terrorism and 
groups like ISIS, and the potential for a longer-term 
commitment to Afghanistan, how confident are you that these 
numbers are enough to fight and win a regional conflict?
    General Odierno. Senator, what I would say is there is 
concern. Again, these numbers, what we originally developed, 
were based on the fact that we would not have to have 
significant presence in Europe. That was assumed that there 
would not be significant issues there, that we would not have a 
prolonged presence in the Middle East and I mean a larger 
presence than we have there today, a prolonged, larger presence 
than we have there, and if we have to have a presence in Europe 
or if there is some significant more aggression than we have 
had so far and we had to sustain that for a long period of 
time, i.e., over a year or 2, then our force structure would 
not be enough to meet those requirements.
    Mr. McHugh. Senator, if I could add.
    Senator Cruz. Sure.
    Mr. McHugh. As you noted and as the Chief and I have 
testified, the 450 number is the absolute minimum we need to do 
the things we see today. As your remarks clearly illustrated, a 
lot of the things we see today we did not see a year ago, 18 
months ago. It is that unknown that truly troubles certainly me 
and I think the rest of us at this table.
    Former Secretary of Defense Robert M. Gates once said that 
when it comes to predicting the future, our record is perfect. 
We have been wrong every time.
    I truly worry about that next thing that we do not see or 
the things we are dealing with today that, all of a sudden, 
exceed their bounds. We would be hard-pressed to answer that 
bell.
    Senator Cruz. General Odierno, in your personal judgment, 
what number of soldiers would be required to perform the 
functions that are needed?
    General Odierno. In 2012, when we originally developed the 
DSG, we developed it with an idea of an end state of 490,350 in 
the Guard and 205,000 in the U.S. Army Reserve. That was based 
on our analysis of what we thought we would have to do. So I 
would say that that is about the level I think we should be at 
in order to meet the future needs. But, again, I have 
testified--and I stick with it--that I think 450,000 is the 
minimum, but it assumes a lot of things. So if those 
assumptions are right, we are okay. If they start to go wrong, 
we have no wiggle room, and that is why I think the 490, 350, 
205 is the right number.
    Senator Cruz. Well, let me ask a follow-up question, which 
is if we find ourselves in a situation where we have cut the 
Army to 450 and suddenly we need to grow, we have too little 
capacity. Can you provide an estimate on the length of time and 
effort it takes to reconstitute the force and not just the size 
but the readiness we would need?
    General Odierno. So, Senator, in 2005 and 2006, when we 
grew the Army, it took us 30 months to grow one brigade, and 
that is to recruit it and that is to individually train it and 
collectively train it. So it would take 30 months to develop a 
new brigade if we had to do that.
    Senator Cruz. Secretary James and General Welsh, the 
National Defense Panel observed that the Air Force's bomber, 
fighter, and surveillance forces are scheduled to draw down to 
approximately 50 percent of the current inventory by 2019. What 
do you believe is the proper approach to increasing the Air 
Force's ISR and long-range strike capabilities?
    General Welsh. Senator, I am not exactly sure what those 
numbers mean. But we have been drawing down for quite some 
time. As the chairman mentioned at the beginning of this 
hearing, in the first Gulf War, the Air Force deployed 33 
fighter squadrons, but we had five times that many in the 
Reserve to do something else. This budget will take us to 49 
fighter squadrons. If we have another event like the first Gulf 
War, which is the last time we deployed a full airpower 
package, it would be just on the fighter side--33 fighter 
squadrons--it would require 14 for homeland security, if there 
is any kind of increased risk to the homeland, which there 
likely would be in that scenario. That would leave you with two 
other squadrons to do whatever else you wanted to do in the 
world, to include things like Iraq and Syria, Afghanistan, 
anything in the Balkans, the Levant, Eastern Europe, all the 
other things that we have force structure in today. The problem 
is quantify does have a quality all its own in this business. 
It just does.
    Senator Cruz. So in your personal judgment, what level is 
required to adequately protect this country?
    General Welsh. Well, we understand we have to be part of 
the solution of the debt problem. Everybody in the Department 
understands that. What we cannot do is continue to downsize 
every capability area not just fighter squadrons. We are 
cutting every one of our five core mission areas in this 
budget, as we did last year and the year before. The trend is 
all in the wrong direction in every mission area, and we do not 
see it stopping. That is the danger, Senator.
    Ms. James. If I could add, Senator, the way I would put it 
is we think just you heard the Army say, that the President's 
budget level is our bare minimum in order to do what we are 
supposed to do under the strategy. That does not mean it is 
perfect. We already feel like we made some important down 
payments, and we are certainly scrubbing all the time looking 
for additional efficiencies. So I would say that budget level 
is what we consider our bare minimum in order to do the 
strategy as it is laid out right now. We will have to rewrite 
the strategy if we do not get it.
    Then a couple other points I would make on long-range 
strike. We need to modernize it. So that is why we are 
investing in the F-35, we are investing in the long-range 
strike bomber. Then when it comes to ISR, of course, partly as 
a result of the additional dollars in this President's budget 
level above sequestration we were able to essentially buy back 
some of the investment that we otherwise might have retired in 
some of our systems like the U-2, for example, like the AWACS. 
Some of these we are going to retire--we would prefer not to 
retire them at least not so early because we need replacements 
for these things. So the budget does provide for both long-
range strike and ISR investments.
    Senator Cruz. Thank you very much.
    Senator Reed. Thank you, Senator Cruz.
    On behalf of the chairman, Chairman McCain, I want to thank 
you all for your testimony and for your service, your 
commitment. Again, please thank all the men and women in 
uniform for us.
    With that and on behalf of Chairman McCain, the hearing is 
adjourned.

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                    air force fighter force capacity
    1. Senator McCain. General Welsh, in 2009, the Air Force had over 
2,200 fighter aircraft in its total inventory, with 1,600 of them coded 
for combat. By the end of 2016, you will have approximately 1,800 total 
fighters with about 1,200 combat coded. Your maintenance experts 
estimate an average fighter aircraft availability rate in 2016 of about 
64 percent, meaning about 750 of the combat-coded aircraft would be 
available to meet mission requirements. You state that today less than 
half of your fighter squadrons are fully combat ready. If your combat 
readiness rates improves even modestly, some number significantly less 
than those would be ready to deploy to a contingency. Given the state 
of your fighter force structure, does it make any sense at all to 
reduce your limited capacity even further by retiring the A-10 fleet 
while still involved in a fight against the Islamic State for an 
undefined period, and still conducting combat operations in Afghanistan 
during 2016?
    General Welsh. The decision to retire the A-10 was the least 
impactful of a menu of very bad options required to stay below Air 
Force budget and manpower limits as a result of the Budget Control Act. 
These very limitations have since driven further tough decisions on Air 
Force capacity and full spectrum readiness. We have sufficient multi-
mission capable platforms available to meet Combatant Commander 
requirements in Afghanistan and operations against ISIL. However, we 
will not be able to build full-spectrum readiness at the current 
deployment tempo. The President's Budget Request (PBR) provides enough 
funding to marginally execute the Defense Strategic Guidance. In the 
PBR, we prioritized readiness accounts and retaining capacity in the 
Combatant Commanders' highest priority requirements; Intelligence, 
Surveillance, Reconnaissance, and Command and Control.
    To answer in a more general way, I don't believe it makes any sense 
to cut military spending by a trillion dollars with the state of the 
world today, but Congress already made that decision. As long as that 
decision stands, we will be forced to recommend very difficult choices 
that will clearly reduce our capacity to conduct operations in many 
mission areas.

    2. Senator McCain. General Welsh, won't taking an additional five 
A-10 combat squadrons out of your inventory in fiscal year 2016 
exacerbate your readiness problems, causing the remaining squadrons to 
deploy more often, and reducing readiness levels even further for the 
combat air forces?
    General Welsh. We agree that any reduction in overall fighter 
capacity, without an equal reduction in deployment requirements, will 
have a further detrimental effect on overall fighter full-spectrum 
readiness. The department is undergoing a comprehensive review of how 
the Air Force allocates and assigns forces in order to better manage 
readiness and deployment tempo. The decision to retire the A-10 was the 
least impactful of a menu of very bad options required to stay below 
Air Force budget and manpower limits as a result of the Budget Control 
Act, which impacts our readiness recovery efforts well beyond the A-10.

    3. Senator McCain. General Welsh, you stated the inventory of Air 
Force combat squadrons today is less than one-third of the level it was 
during Operation Desert Storm, and less than half of those remaining 
squadrons are fully combat ready. If you were asked to conduct an air 
campaign today of the same magnitude as Operation Desert Storm, could 
you do it?
    General Welsh. Yes, but at much greater risk to the aircrews 
involved and the forces they support, because some individuals/units 
would be forced to deploy at lower the optimal levels of readiness. 
Maintaining a heavy campaign, tempo over time would also be more 
difficult and units that begin the fight will have to finish it. There 
will be no rotational units.
    The Air Force assets that enable major combat operations (Airlift, 
ISR, C2) would have to be pulled from other operations around the world 
to support the air campaign, dramatically impacting those operations.

    4. Senator McCain. General Welsh, more broadly, can you fully 
execute the requirements of the current defense strategy as it is 
written today?
    General Welsh. The Air Force is able to execute the requirements of 
the current defense strategy, but only at significant risk--a situation 
that will be exacerbated under another round of sequestration. An 
increasingly constrained fiscal environment has resulted in the 
smallest and oldest Air Force in history; this in turn means we may not 
get to the fight on time, it will take longer to win, and could cost 
more national blood and treasure in the end.

                         russian rocket engines
    5. Senator McCain. Secretary James, the National Defense 
Authorization Act (NDAA) for fiscal year 2015 included provisions which 
prohibited the use of Russian rocket engines past the current Evolved 
Expendable Launch Vehicle (EELV) block buy, and directed the Air Force 
to develop a new U.S. engine by 2019. To illustrate the urgency for 
ending our reliance on Russian rocket engines, the Senate Armed 
Services Committee provided $220 million to expedite that effort. Is 
the Air Force committed to eliminating our reliance on Russian rocket 
engines?
    Ms. James. Yes, the Air Force is committed to eliminating our 
reliance on Russian rocket engines. Our long-term strategy for space 
launch will assure our continued access to space. Toward this end, even 
before the NDAA was enacted, the Air Force published a Request for 
Information (RFI) to solicit industry input on the best approach to 
transition off the RD-180. Since the NDAA was enacted, the Air Force 
initiated three efforts aimed at near-term risk reduction for engine 
development. These activities include the following:
    1) Aerospace has completed 14 of 25 studies to understand business 
cases and assess likely solutions.
    2) Large-scale rocket engine combustion tests with NASA and AFRL, 
to include engine test stand modifications, and NASA thrust chamber 
through Interim Design Review (Critical Design Review in August). To 
date, AFRL has completed five sub-scale pre-burner tests under this 
effort.
    3) The Air Force created a detailed, 2-year combustion stability 
tools test program with AFRL and NASA--both AFRL and NASA activities 
have started. The AF has initiated a contract with Georgia Tech to 
develop these combustion stability tools for industry use to combat the 
toughest challenges associated with large-scale Oxygen Rich Stage 
Combustion engines.
    The Request for Proposals (RFP) for a domestic rocket propulsion 
system was released 2 Jun 15. Proposals were received on 23 Jun 15. The 
source selection is ongoing for a 8$150 million effort expected to be 
awarded this year, investing in multiple providers to deliver rocket 
propulsion systems virtual or physical prototypes. In addition, we have 
received proposals from our Broad Area Announcement to be awarded this 
fall for technical maturation efforts worth up to $34 million to 
advance the necessary engine technologies to be leveraged by engine 
providers.

    6. Senator McCain. Secretary James, if this is such a high 
priority, why hasn't the Air Force moved forward with a heightened 
level of urgency, or accelerated ongoing rocket engine research and 
development efforts that could shorten the overall time needed to 
produce a domestic engine?
    Ms. James. The Air Force continues to invest in rocket propulsion 
systems and associated technologies. Toward this end, even before the 
NDAA was enacted, the Air Force published an Request for Information 
(RFI) to solicit industry input on the best approach to transition off 
the RD-180. Since the NDAA was enacted, the Air Force has initiated 
three efforts aimed at near-term risk reduction for engine development. 
These activities include the following:
    1) Aerospace has completed 14 of 25 studies to understand business 
cases and assess likely solutions.
    2) Large-scale rocket engine combustion tests with NASA and AFRL, 
to include engine test stand modifications, and NASA thrust chamber 
through Interim Design Review (Critical Design Review in August). To 
date, AFRL has completed three sub-scale pre-burner tests under this 
effort.
    3) The Air Force created detailed, 2-year combustion stability 
tools test program with AFRL and NASA--both AFRL and NASA activities 
have started. The Air Force is initiating contracts with academia to 
develop these combustion stability tools for industry use to combat the 
toughest challenges associated with large-scale Oxygen Rich Stage 
Combustion engines.
    The Air Force has released a draft Broad Area Announcement worth 
8$34 million to be awarded later this summer or fall for technical 
maturation efforts to advance the necessary engine technologies to be 
leveraged by engine providers. In addition, we currently have a draft 
Request for Proposal (RFP) released for a 8$150 million effort expected 
to be awarded this year, investing in multiple providers to deliver 
rocket propulsion systems virtual or physical prototypes. This complex 
RFP, implements a public-private partnership approach to invest in 
these rocket propulsion systems and is being released approximately 3 
months after the appropriation (which is very fast for a contracting 
action of this magnitude).

    7. Senator McCain. Secretary James, if for a period of time after 
2019 the Russian RD-180 is not available, will you still have options 
from both SpaceX and United Launch Alliance to get you to space?
    Ms. James. Without the RD-180, we will continue to have options for 
assured access to space as long as the United Launch Alliance (ULA) 
Delta IV family of launch vehicles is available and the Space X Falcon 
Heavy is certified by 2020. However, ULA has announced their intent to 
terminate the Delta IV launch vehicle production line because it is not 
cost competitive. Without the Atlas V, we will not have a competitive 
space launch market until ULA's Vulcan or another option becomes 
available several years later. This would exchange one sole source 
situation for another.

                                 f-35a
    8. Senator McCain. Secretary James, you have repeatedly stated the 
F-35A is one of the Air Force's top three acquisition priorities. The 
F-35 program suffered setbacks and was rebaselined after experiencing a 
breach of the Nunn-McCurdy Act in 2012, delaying the Air Force's 
declaration date for initial operational capability until 2016. Your 
budget proposes to increase procurement from 28 F-35As in 2015 to 44 in 
2016. Are you comfortable with the added risk to cost growth and 
schedule delays by increasing procurement quantities while testing is 
still ongoing?
    Ms. James. The F-35 program is indeed one of the Air Force's top 
three acquisition priorities and is on the right track to reach Initial 
Operational Capability (IOC) in 2016. The price of F-35 aircraft lots 
continues to decline steadily. The price of a single F-35A from Lot 7 
was 4.3 percent less than an F-35A from Lot 6, and an F-35A from Lot 8 
was 3.6 percent less than an F-35A from Lot 7 (including the engine and 
profit). I expect these reductions to continue into the future, 
especially as we continue to increase production quantities. In 2014, 
Lockheed Martin met production goals, completing all planned 
deliveries. Today, the production line is running approximately 2 
months behind schedule, but delivery timelines are improving and the 
current delays do not pose any long-term schedule or delivery risk to 
the program. With the increase in procurement quantities, I do not 
foresee added schedule risk going forward.

    9. Senator McCain. Secretary James, what are your views on how 
declining budgets and sequestration have affected the F-35A program to 
date with regard to procurement quantities and schedule?
    Ms. James. To date, sequestration has required the Air Force to 
defer fiscal year 2015 procurement of two F-35A aircraft to outside the 
FYDP. Sequestration of the fiscal year 2016 budget to BCA-imposed 
levels would cause the Air Force to defer fiscal year 2016 procurement 
of 14 x F-35A aircraft to outside the FYDP. Budgetary constraints and 
sequestration have driven us to reprioritize efforts within the Air 
Force to maintain stability in the F-35 program, and while aircraft 
prices continue to drop by lot, the price reductions will not be as 
great when we are required to cut procurement numbers due to these 
constraints. The budgetary constraints have had little direct impact on 
delivery of individual aircraft but could impact the Air Force's 
ability to reach Full Operational Capability (FOC) in 2021 if 
procurement deferrals continue.

                              space launch
    10. Senator McCain. Secretary James, I was pleased to see the Air 
Force reversed its short-sighted decision to reduce the number of 
competitive opportunities from the budget last year. It is my 
understanding that the Air Force believes that it will finally be able 
to introduce competition for space launch and certify SpaceX later this 
spring. What issues, if any, remain for this certification to take 
place?
    Ms. James. No issues remain that preclude certification. The open 
issues all have resolution plans. Lt Gen Greaves, the Space and Missile 
Systems Center commander, and the certifying authority, has briefed the 
congressional defense and intelligence committee staffs on those plans 
and the details of the remaining issues. The Air Force and Space X 
teams worked well together to achieve enough progress on those plans to 
allow certification. The commander of the Air Force Space and Missile 
Systems Center certified Space X's Falcon 9 v1.1 system on 26 May 2015.

    11. Senator McCain. Secretary James, are you committed to ensuring 
that certification would occur prior to awarding any launches set aside 
as competitive opportunities?
    Ms. James. Yes. The commander of the Air Force Space and Missile 
Systems Center certified Space X's Falcon 9 v1.1 system on 26 May 2015, 
prior to any planned competitive award. The next RFP is planned to be 
released this summer, with anticipated award in December 2015.

                        air force modernization
    12. Senator McCain. Secretary James, the Air Force is facing many 
large procurement programs over the next decade: the F-35A, the KC-46A, 
the Long Range Strike Bomber, the T-X trainer replacement, the 
Presidential Aircraft Replacement, to name just a top few that 
represent hundreds of billions of dollars required to recapitalize and 
modernize the force. While Congress only looks at one budget year at a 
time, and the Department of Defense (DOD) and the Services formulate a 
Future Years Defense Program (FYDP) covering 5 years of projected 
funding, what is the Air Force approach to fitting all these required 
capabilities into its future budgets, and still deliver the 
capabilities the Nation expects from its Air Force?
    Ms. James. The Air Force is aggressively pursuing a path to 
emphasize strategy-driven resourcing. The Air Force has developed a new 
strategic planning and programming process that starts with a 30-year 
strategic vision, which guides a 20-year resource-informed Strategic 
Master Plan and Resource Allocation Plan, leading to a 10-year balanced 
budget. There is recognition throughout these strategic documents that 
in order to obtain the capabilities to provide what the Nation expects 
from its Air Force, we must chart a different course. The path we are 
pursuing delivers agility and adaptability in our weapon systems as 
well as our processes.

                    air force munitions acquisition
    13. Senator McCain. Secretary James, have you identified munitions 
programs that would benefit from cost reduction initiatives, such as 
multi-year procurement contracts and block buys, and if so, what are 
they and what steps are being taken to implement them?
    Ms. James. There are currently no Air Force weapons programs on 
multi-year procurement contracts or block buys, but a number of cost-
reducing initiatives are in place (pricing bands, bundling and 
competition) that are paying dividends. Multi-year contracts have 
traditionally not been viewed as a realistic option. Weapons 
procurements have historically faced a number of challenges to include 
test issues/delays during development, buy-in on joint procurement 
profiles, and commitment from Foreign Military Sales (FMS) partners. 
However, the Miniature Air Launched Decoy-Jammer (MALD-J) is one 
program that could easily benefit from a multi-year contract as the Air 
Force is currently the only customer. We could certainly look at other 
candidates such as the Advanced Medium-Range Air-to-Air Missile 
(AMRAAM), Hellfire missile, Joint Direct Attack Munition (JDAM), and 
Joint Air-to-Surface Standoff Missile (JASSM), as long as we receive 
support for multi-year contracts from Congress, our joint partners, and 
the Department of Defense.

 national commission on the structure of the air force recommendations 
                                response
    14. Senator McCain. Secretary James, you stated in your National 
Commission on the Structure of the Air Force (NCSAF) recommendation 
response that you disagree with the recommendation to disestablish the 
Air Force Reserve Command (AFRC). Can you provide your views regarding 
this disagreement?
    Ms. James. We remain committed to seeking efficiencies as we 
explore the future of the Total Force. However, this recommendation 
represents a departure from our current position on the Air Force 
organizational construct. This recommendation would weaken the Chief of 
Air Force Reserve's ability to execute key statutory obligations in the 
management of congressionally authorized and appropriated resources.

    15. Senator McCain. Secretary James, if AFRC were not 
disestablished, does there still need to be what appears as redundant 
staffs between AFRC headquarters and the staff for the Chief of the Air 
Force Reserve in the Pentagon?
    Ms. James. The elimination of the AFRC would not achieve either 
substantial savings or organizational efficiencies, as nine different 
Major Commands would have to assume the roles and responsibilities 
currently accomplished by HQ AFRC. This would increase costs and lead 
to a less efficient Total Force organizational structure.
    While the Chief of the Air Force Reserve serves as the Commander of 
HQ AFRC, the position also serves as the principal advisor on reserve 
matters to the Secretary of the Air Force and the Chief of Staff of the 
Air Force. The ability to be involved in the Air Force Corporate 
process is instrumental in determining the right answer in the shortest 
amount of time. As the Air Force strives to increase its inclusiveness 
among the Components and all external stakeholders, we believe personal 
interaction among the Component Chiefs and Directors is vitally 
important.

    16. Senator McCain. Secretary James, do other major commands 
maintain staffs at both their own headquarters and at the Air Staff?
    Ms. James. Most Air Force Major Commands maintain liaison offices 
at the Pentagon to support many corporate processes. The Air National 
Guard, like HQ AFRC, maintains a headquarters staff. The function of 
that headquarters is to provide resources, policy oversight, guidance 
and support to ensure reserve component wings and all Geographically 
Separated Units are trained and equipped across the full spectrum of 
operations (homeland and global). The Air National Guard Readiness 
Center (ANGRC) works in conjunction with the Air National Guard staff 
to serve as a channel of communication among the 54 states, territories 
and the District of Columbia. The offices of the Director Air National 
Guard and Chief of the Air Force Reserve, both collocated at the 
Pentagon, additionally serve as the principal advisors on reserve 
matters to the Secretary of the Air Force and the Chief of Staff of the 
Air Force.
    The ability to be involved in the Air Force Corporate process is 
instrumental in determining the right answer in the shortest amount of 
time. As the Air Force strives to increase its inclusiveness among the 
Components and all external stakeholders, we believe personal 
interaction among the Component Chiefs and Directors is vitally 
important.

    17. Senator McCain. General Welsh, in your February 2015 response 
on the NCSAF report recommendations, where the Commission recommended 
exploring a shift toward a 58 percent Active component/42 percent 
Reserve component force mix ratio, you state your analysis shows an Air 
Force aggregate of 64 percent/36 percent Active to Reserve component 
ratio as more appropriate. Is the 80 percent level of review of Air 
Force mission areas completed as you promised then-Chairman Levin last 
year?
    General Welsh. The Report on the Appropriate Contributions of the 
Total Force (High Velocity Analysis Report) is required by section 135 
of the fiscal year 2015 National Defense Authorization Act. Section 135 
requires analysis and recommendations for not less than 80 percent of 
the mission and aircraft platforms including a separate presentation of 
mix of forces for each. The Air Force delivered the report to Congress 
on 12 Jun 2015.

    18. Senator McCain. General Welsh, many of the Air Force's 
responses to the NCSAF recommendations reference results of high 
velocity analyses that are not delineated in your response report; when 
will you share the detailed results of your analysis with the 
committee?
    General Welsh. The Report on the Appropriate Contributions of the 
Total Force (High Velocity Analysis Report) is required by section 135 
of the fiscal year 2015 National Defense Authorization Act. Section 135 
requires analysis and recommendations for not less than 80 percent of 
the mission and aircraft platforms including a separate presentation of 
mix of forces for each. The Air Force delivered the report to Congress 
on 12 Jun 2015.
    We are in the process of briefing your staff on the details and 
would be happy to discuss them with you at your convenience.

    19. Senator McCain. General Welsh, in your response to the NCSAF 
recommendation on full-time and part-time mix, it appears there is some 
disagreement from the Director, Air National Guard, and Chief, Air 
Force Reserve on the value of the High Velocity Analyses with regard to 
assumptions and methodology. What are your views on this apparent 
disagreement?
    General Welsh. The Air Force created the High Velocity Analysis 
(HVA) tool to rapidly identify and evaluate force mix options. HVAs are 
not used in isolation; their primary purpose is to provide 
recommendations on the most viable candidates for further study by Air 
Force leadership. HVAs trigger even more deliberate and detailed 
development and evaluation of assumptions and analysis, ultimately 
yielding refined recommendations for alternative future force structure 
proposals.
    The Director of the Air National Guard and the Chief of the Air 
Force Reserve are closely involved in HVAs and are key stakeholders 
whose views are fully incorporated into all stages this transparent 
process. We continue to mature and refine the HVA process in 
consideration of stakeholder views, and regularly adopt changes to 
ensure the validity of the process output.

                          air force readiness
    20. Senator McCain. General Welsh, Vladimir Putin's activities in 
the Crimea vividly remind us that the Nation may face the possibility 
of conflict with a more advanced military. Is Air Force readiness and 
capacity sufficient to prosecute a fight against such a high-end 
threat?
    General Welsh. Yes, but at much greater risk to the aircrews 
involved and the forces they support, because some individuals/units 
would be forced to deploy at lower the optimal levels of readiness. 
Maintaining a heavy campaign, tempo over time would also be more 
difficult and units that begin the fight will have to finish it. There 
will be no rotational units.
    The Air Force assets that enable major combat operations (Airlift, 
ISR, C2) would have to be pulled from other operations around the world 
to support the air campaign, dramatically impacting those operations.

    21. Senator McCain. General Welsh, does the Air Force have 
sufficient inventory and procurement plans for air-to-air and air-to-
ground munitions necessary to meet combatant commander objectives, and 
if not, what actions are you taking to address the shortfalls?
    General Welsh. No, after three years of Budget Control Act 
constraints, and over a decade of sustained contingency operations, the 
Air Force is thousands of weapons short of Defense Strategic Guidance 
requirements. The Air Force simply has not been resourced to achieve 
required munitions inventory levels. To address these shortfalls, the 
fiscal year 2016 President's budget achieves maximum annual production 
capability for JASSM-ER and improves Hellfire, JDAM, SDB, AIM-9 and 
AIM-120 procurement rates. However, higher expenditure rates, coupled 
with limited industrial base capacity and diminishing manufacturing 
sources, means it will take years, or even a decade, to achieve 
required levels.
    Note also that Overseas Contingency Operations (OCO) funding 
procedures further limit our capacity to reduce shortfalls. Allowing 
only one-for-one replacement after munition expenditure results in a 
time lag between budget authorization and munition delivery. This 
drives a nearly four-year gap between munition expenditure and 
replacement.
    At Budget Control Act levels, all weapons procurement quantities 
are reduced. Munitions (rockets, general purpose bombs, flares and 
fuzes) are similarly reduced. OCO cannot be used to fund forecasted 
weapons requirements. Some relief to these restrictions while our 
operations continue in Iraq/Syria, would be very helpful.

                      a-10 backup active inventory
    22. Senator McCain. General Welsh, the NDAA for fiscal year 2015 
allowed you to place up to 36 A-10 aircraft into backup aircraft 
inventory (BAI) status to free up maintenance personnel to start the 
transition to the F-35. I understand you have opted to do this with 18 
A-10s from three different bases. I also understand that aircraft in 
backup status must still fly to avoid 21-day hanger queen status, 
requiring periodic maintenance and other repairs as required. Doesn't 
executing this plan place greater stress on the remaining maintenance 
crews, who must still maintain these back up aircraft, perform crew 
chief maintenance, etc.?
    General Welsh. We have placed 18 x A-10s from three different bases 
into BAI status, and we will still maintain these aircraft in mission 
capable status in accordance with the weapons system's technical 
requirements. Doing this will cause some scheduled maintenance actions 
but we believe these actions will be manageable because the unit's 
flying hours will be adjusted to support the fighter squadrons' new 
Primary Assigned Aircraft inventory. Headquarters Air Combat Command 
and unit commanders will manage the aircraft and flying hours to ensure 
adequacy of training for aircrew is met without overburdening our 
maintainers.
    This extra work is driven by the fact that we don't have enough 
experience maintenance personnel in the Air Force to bring the F-35 on 
board and continue to operate every other fighter units we have today.

    23. Senator McCain. General Welsh, will placing A-10s into backup 
active inventory status result in longer duty days or work weeks for 
your remaining maintenance professionals who must still maintain these 
aircraft?
    General Welsh. No. Placing A-10s into Backup Aircraft Inventory 
(BAI) will cause some scheduled maintenance actions but we believe 
these actions will be manageable because the unit's flying hours will 
be adjusted to support the fighter squadrons' new Primary Assigned 
Aircraft inventory. Headquarters Air Combat Command and unit commanders 
will manage the aircraft and flying hours to ensure adequacy of 
training for aircrew is met without overburdening our maintainers.

    24. Senator McCain. General Welsh, will the reduced number of 
funded A-10 aircraft impact these fighter squadrons' ability to deploy 
to combat?
    General Welsh. No, combat coded A-10 squadrons at Davis Monthan 
AFB, AZ, and Moody AFB, GA, will continue to be able to deploy a 12 
aircraft package.

                           ec-130h divestment
    25. Senator McCain. General Welsh, the Air Force's fiscal year 2015 
budget proposed retiring nearly half of your EC-130H COMPASS CALL fleet 
of electronic warfare aircraft in fiscal year 2016. DOD formally 
referred to this capability as Low Density/High Demand; wouldn't 
retiring half of this fleet drop the density to dangerously low levels?
    General Welsh. Our interest is to use the savings from the 
divestiture of part of the fleet to begin recapitalization of the EC-
130 mission capability on a new platform. The remaining aircraft can 
fulfill current levels of tasking.
    We need this capability in any future large-scale conflict, but the 
EC-130 is no longer a survivable platform in that environment. We 
believe this is the best time to accept the risk of a temporarily 
reduced fleet size.

    26. Senator McCain. General Welsh, can you meet all combatant 
commander demand and operations plan requirements with a fleet of eight 
EC-130H aircraft?
    General Welsh. The Air Force will maintain essential capabilities 
to support current combat operations, but will not be able to meet the 
capacity requirements of other combatant commander operations plans 
once the fleet size drops to eight aircraft in fiscal year 2016, 
accepting risk until a replacement for those capabilities is fielded.
    Our interest is to use the savings from the divestiture of part of 
the fleet to begin recapitalization of the EC-130 mission capability on 
a new platform. The remaining aircraft can fulfill current levels of 
tasking. We need this capability in any future large-scale conflict, 
but the EC-130 is no longer a survivable platform in that environment. 
We believe this is the best time to accept the risk of a temporarily 
reduced fleet size.

    27. Senator McCain. General Welsh, what is the Air Force's plan for 
mitigating the loss of these seven aircraft, and what is the long-term 
plan for replacing the EC-130H capability?
    General Welsh. We have a three-phased plan. In the near-term, 7 x 
EC-130H aircraft will be divested in fiscal year 2016, leaving 8 x EC-
130Hs in the Air Force until the capability is replaced. The reduced 
number of aircraft will meet the requirements of the current fight and 
U.S. Special Operations Command. For the mid-term, 2020 to 2030 or as 
needed, we are evaluating options including re-hosting jamming systems 
on a more effective and efficient platform to bridge the gap to the 
far-term. For the long-term (2031-plus timeframe), we envision a system 
of systems approach, to be determined based on results of an Analysis 
of Alternatives (report due out in 2017).
                                 ______
                                 
              Questions Submitted Senator James M. Inhofe
                sequestration and readiness of the force
    28. Senator Inhofe. Secretary McHugh, Secretary James, General 
Odierno, and General Welsh, Secretary of Defense Ashton B. Carter 
testified to this committee a couple of weeks ago that ``readiness 
remains at troubling levels across the force'' and ``that even with the 
fiscal year 2016 budget, the Army, Navy, and Marine Corps won't reach 
their readiness goals until 2020 and the Air Force until 2023.''
    General Dempsey testified that the fiscal year 2016 President's 
budget is ``what we need to remain at the lower ragged edge of 
manageable risk in our ability to execute the defense strategy'' and 
that ``we have no slack, no margin left for error or strategic 
surprise.''
    Do you agree with Secretary Carter's and General Dempsey's 
statements?
    Mr. McHugh and General Odierno. The Army agrees with the statements 
of the Secretary of the Defense and the Chairman of the Joint Chiefs. 
The unrelenting budget impasse has compelled us to degrade our 
readiness to historically low levels. Today, only 33 percent of our 
brigades are ready when our sustained readiness rate should be 
somewhere around 70 percent. Under our current budget, Army readiness 
will at best flatline over the next three to four years.
    For the Army, the President's Budget represents the bare minimum 
needed for us to carry out our missions and execute and meet the 
requirements of our defense strategy. The compromises we have made to 
modernization and readiness combined with reductions to our force size 
and capabilities translates directly into strategic risk. Today, we are 
generating just enough readiness to meet our day-to-day needs of 
immediate consumption. We are unable to generate any residual readiness 
to respond to an unknown contingency or to even reinforce ongoing 
operations.
    Ms. James and General Welsh. Yes.

    29. Senator Inhofe. Secretary McHugh, Secretary James, General 
Odierno, and General Welsh, if sequestration is not repealed, even 
partially, can you give us some context in terms of risks to readiness 
of personnel, equipment, training, etc. and how that ragged edge 
impacts you?
    Mr. McHugh and General Odierno. The compromises we have made to 
modernization and readiness, combined with reductions to our force size 
and capabilities, translates directly into strategic risk. Today, we 
are generating just enough readiness to meet our day to day needs for 
immediate consumption. Only 33 percent of our brigades are ready, when 
our sustained readiness rate should be closer to 70 percent. We are 
unable to generate any residual readiness to respond to unknown 
contingencies or to even reinforce ongoing operations. This is a 
dangerous balancing act. We have fewer Soldiers, the majority of whom 
are in units that are not ready; and they are manning aging equipment 
at a time when demand for Army forces is higher than we originally 
anticipated.
    Sequestration would compel us to reduce end strength even further, 
forcing out another 70K from the Active Component, 35K from the 
National Guard, and 10K from the Army Reserves. It would be necessary 
to cut another 10-12 additional combat brigades. Modernization would be 
slashed further, home station training would go unfunded, and readiness 
rates would degrade further.
    Anything below the President's budget compromises our strategic 
flexibility. It will challenge us to meet even our current level of 
commitments to our allies and partners around the world. It will 
eliminate our capability, on any scale, to conduct simultaneous 
operations, specifically deterring in one region while defeating in 
another. Essentially, for ground forces, sequestration even puts into 
question our ability to conduct even one prolonged multiphase, combined 
arms, campaign against a determined enemy. We would significantly 
degrade our capability to shape the security environment in multiple 
regions simultaneously. It puts into question our ability to deter and 
compel multiple adversaries simultaneously. Ultimately, sequestration 
limits strategic flexibility and requires us to hope we are able to 
predict the future with great accuracy. Something we have never been 
able to do.
    The impacts of continued sequestration will endure for at least a 
decade. It is going to be the next Chief and the Chiefs after that who 
must respond to the long term and hidden impacts of sequestration. 
Readiness is not something that we can just fund piecemeal--once in a 
while and year to year. It has to be funded consistently over time. If 
not, it is fleeting, and it goes away. As we approach 2016, we can't 
take end strength out any faster without impacting our ability to 
conduct operations already committed. The Army will only be able to 
meet priority Global Force Management missions, and must rely on OCO 
funding to maintain any additional readiness for emergent needs. Under 
sequestration, sustainment readiness remains extremely reliant on OCO 
funding to mitigate risk to the program. In fiscal year 2013, the Army 
deferred $323.3M in Depot Maintenance and was only recently funded 
through the Army's fiscal year 2015 OCO submission. The Army must also 
accept additional risk by deferring the emplacement of the Southwest 
Asia Army Prepositioned Stocks (APS) Fires and Sustainment brigades, an 
important element of the Army's revised APS strategy, for two years. 
The rolling sequestration impacts on readiness thus handcuff our 
strategic flexibility.
    Ms. James and General Welsh. Budget Control Act level funding will 
further reduce the capacity and greatly extend the time required for 
full-spectrum readiness recovery of the Air Force. Under the Budget 
Control Act funding levels, the Air Force is planning to retire its 
entire KC-10 fleet, retire the RQ-4 Global Hawk block 40 fleet, retire 
the U-2, and divest 7 x AWACs aircraft. Additionally, we would reduce 
the number of MQ-9 CAPs to 50. Investment in people, training 
resources, and weapons system sustainment would be reduced or delayed. 
Budget Control Act level funding, combined with current deployment 
demands, would perpetuate a continued decrease in full-spectrum 
readiness to historically low levels.

    30. Senator Inhofe. Secretary McHugh, Secretary James, General 
Odierno, and General Welsh, we anticipate that Congress will pass a 
budget resolution that funds defense at sequestration levels with 
additional funding through Overseas Contingency Operations (OCO). 
Assuming sequestration remains the law, do you have to take any actions 
in fiscal year 2015 in your force structure to prepare for 
sequestration in fiscal year 2016, and if so, when do those decisions 
need to be made?
    Mr. McHugh and General Odierno. The Army is preparing to drawdown 
to 980K (450K AC, 335K ARNG, and 195K USAR). But if sequestration 
returns, the consequences for our Army will be dramatic. Another round 
of cuts will render our force unable to meet all elements of the 
Defense Strategic Guidance without creating additional risk to our 
Soldiers. Total Army end strength will fall an additional 60K to 920K 
(420K AC; 315K ARNG; 185K USAR). Reductions in end strength brought on 
by sequestration will limit our ability to provide strategic options to 
the President and pose unacceptable risk by placing into question our 
capacity to execute even one prolonged, multi-phased major contingency 
operation.
    Readiness is not something that we can just fund piecemeal--once in 
a while and year to year. It has to be funded consistently over time. 
If not, it is fleeting, and it goes away.
    We will be forced to further reduce modernization and readiness 
levels over the next 5 years because we simply can't drawdown end 
strength any quicker to generate the required savings. The compromises 
we have made to readiness and modernization combined with reductions to 
our force size and capabilities translates directly into strategic 
risk. Today, we are generating just enough readiness to meet our day-
to-day needs of immediate consumption. We are unable to generate any 
residual readiness to respond to an unknown contingency or to even 
reinforce ongoing operations.
    These are not cuts we want to make but rather cuts we are compelled 
to make.
    Ms. James and General Welsh. No force structure actions will be 
taken in fiscal year 2015 to prepare for a possible sequestration in 
fiscal year 2016. Should we face another sequestration, the Air Force 
will begin taking action in fiscal year 2016.

          readiness and meeting combatant command requirements
    31. Senator Inhofe. General Welsh, you testified before the 
Subcommittee on Defense of the Senate Appropriations Committee that 
``the overall combat capability of our combat coded squadrons in the 
Air Force is still below 50 percent, so fewer than 50 percent of them 
are fully combat capable.''
    General Odierno, you previously stated that ``Current funding 
levels afforded just over a third of our Brigade Combat Teams (BCT) the 
training necessary to conduct decisive action. This year, we face 
significant challenges to sustain even that level of readiness in our 
dynamic operating environment.''
    General Odierno and General Welsh, if those forces are not ready, 
what is the impact on executing combatant commander operational plans?
    General Odierno. The number one thing that keeps me up at night is 
that if we are asked to respond to an unknown contingency, I will send 
Soldiers to that contingency not properly trained and ready. We simply 
cannot afford to do that. The American people expect our Soldiers to be 
prepared--that they have had the ability to train, that they understand 
their equipment, and that they have been able to integrate and 
synchronize their activities so they are successful on the ground. I 
worry that we may receive a request from a combatant commander that we 
just aren't trained for.
    Today, only 33 percent of our brigades are ready, when our 
sustained readiness rate should be closer to 70 percent. We are taking 
a small portion of the Army and are giving them the money to train to 
the highest level, while the rest of the Army is training at a 
significantly lower level. This really concerns me.
    Under our current budget, Army readiness will, at best, flat-line 
over the next three to four years. We are generating just enough 
readiness to meet our day to day needs for immediate consumption. We 
are unable to generate any residual readiness to respond to unknown 
contingencies or to even reinforce ongoing operations.
    The President's fiscal year 2016 Budget represents the bare minimum 
needed for us to carry out our missions and execute and meet the 
requirements of our defense strategy. Anything below the President's 
budget compromises our strategic flexibility. It will challenge us to 
meet even our current level of commitments to our allies and partners 
around the world. It will eliminate our capability, on any scale, to 
conduct simultaneous operations, specifically deterring in one region 
while defeating in another. Essentially, for ground forces, 
sequestration even puts into question our ability to conduct even one 
prolonged multiphase, combined arms, campaign against a determined 
enemy. We would significantly degrade our capability to shape the 
security environment in multiple regions simultaneously. It puts into 
question our ability to deter and compel multiple adversaries 
simultaneously. Ultimately, sequestration limits strategic flexibility 
and requires us to hope we are able to predict the future with great 
accuracy. Something we have never been able to do.
    General Welsh. In a time of dire need, our nation's Airmen have, 
and always will, answer the call to arms. However, in our current 
readiness crisis, we would be forced to respond to an OPLAN level 
contingency with forces that are not full-spectrum ready. That means we 
would not be able to leverage the full capability of our newest (and 
legacy) weapon systems due to lack of training, familiarity, or 
sustainment thus giving up the technological edge that we paid for and 
expect from our Air Force.
    We would also be accepting the much more important risk of sending 
men and women into battle who are not as ready as they should be. They 
are the ones who will pay the bill of increased risk.

    32. Senator Inhofe. General Odierno and General Welsh, if a major 
or even minor contingency operation were executed today given your 
current state of readiness and current global commitments, is it 
possible the Air Force would have to send forces into combat that are 
not fully trained and ready?
    General Odierno. The number one thing that keeps me up at night is 
that if we are asked to respond to an unknown contingency, I will send 
Soldiers to that contingency not properly trained and ready. We simply 
are not used to doing that. The American people expect our Soldiers to 
be prepared--that they have had the ability to train, that they 
understand their equipment, and that they have been able to integrate 
and synchronize their activities so they are successful on the ground. 
I worry that we may receive a request from a combatant commander that 
we just aren't trained for.
    Today, only 33 percent of our brigades are ready, when our 
sustained readiness rate should be closer to 70 percent. We are taking 
a small portion of the Army and are giving them the money to train to 
the highest level, while the rest of the Army is training at a 
significantly lower level. This really concerns me.
    Under our current budget, Army readiness will, at best, flat-line 
over the next three to four years. We are generating just enough 
readiness to meet our day to day needs for immediate consumption. We 
are unable to generate any residual readiness to respond to unknown 
contingencies or to even reinforce ongoing operations. Our Soldiers 
trust that we will provide them the right resources--the training and 
equipment--to properly prepare them and lead them into harm's way. It 
is our shared responsibility, to provide our Soldiers and our Army with 
the necessary resources to ensure they are trained, prepared, and 
equipped to succeed.
    General Welsh. We already are using forces that are not full-
spectrum ready. The current readiness crisis requires that we deploy 
units that are fully trained and ready for their theater assigned tasks 
as dictated by their scheduled deployment, but are not necessarily for 
the full spectrum of missions/threats they could potentially face if 
re-tasked to a new crisis or contingency.

    33. Senator Inhofe. General Odierno and General Welsh, how do lower 
readiness levels and a smaller force impact our ability to deter 
aggression?
    General Odierno. The President's fiscal year 2016 Budget represents 
the bare minimum needed for us to carry out our missions and execute 
and meet the requirements of our defense strategy. Anything below the 
President's budget compromises our strategic flexibility. It will 
challenge us to meet even our current level of commitments to our 
allies and partners around the world. It will eliminate our capability, 
on any scale, to conduct simultaneous operations, specifically 
deterring in one region while defeating in another. Essentially, for 
ground forces, sequestration even puts into question our ability to 
conduct even one prolonged multiphase, combined arms, campaign against 
a determined enemy. We would significantly degrade our capability to 
shape the security environment in multiple regions simultaneously. It 
puts into question our ability to deter and compel multiple adversaries 
simultaneously. Ultimately, sequestration limits strategic flexibility 
and requires us to hope we are able to predict the future with great 
accuracy. Something we have never been able to do.
    General Welsh. The sustained high level of deployment requirements 
is the singularly largest reason for the steady decline in Air Force 
full-spectrum readiness. This readiness decline is exacerbated by the 
steady reduction of Air Force capacity; fewer units are available to 
fill a constant number of deployments, further reducing time for those 
units to train for their full-spectrum mission.
    We are still the greatest Air Force in the world, but reduced 
capacity and reduced readiness tilts the scale in the wrong direction. 
Less capacity means fewer opportunities to deploy forces to Allied or 
partner nations for training and exercises. These opportunities promote 
trust, interoperability, and show commitment with our allies while 
dissuading and deterring potential adversaries. A smaller force also 
reduces our ability to rapidly respond to new taskings or expand 
ongoing operations.

    34. Senator Inhofe. General Odierno and General Welsh, should the 
United States be postured to fight two major contingency operations 
simultaneously?
    General Odierno. Our National Security Strategy requires U.S. 
forces to be able to project power globally to defeat and deny 
aggression in multiple theaters when deterrence fails. Even when 
committed in one region, we need to be capable of denying the 
objectives of an aggressor in a second region.
    The President's fiscal year 2016 Budget represents the bare minimum 
needed for us to carry out our missions and execute and meet the 
requirements of our defense strategy. Anything below the President's 
budget compromises our strategic flexibility. It will challenge us to 
meet even our current level of commitments to our allies and partners 
around the world. It will eliminate our capability, on any scale, to 
conduct simultaneous operations, specifically deterring in one region 
while defeating in another. Essentially, for ground forces, 
sequestration even puts into question our ability to conduct even one 
prolonged multiphase, combined arms, campaign against a determined 
enemy. We would significantly degrade our capability to shape the 
security environment in multiple regions simultaneously. It puts into 
question our ability to deter and compel multiple adversaries 
simultaneously. Ultimately, sequestration limits strategic flexibility 
and requires us to hope we are able to predict the future with great 
accuracy. Something we have never been able to do.
    General Welsh. The requirement to conduct two near-simultaneous 
operations still exists and serves as the basis for our force structure 
strategy and construct. A key component of our force planning 
construct, as described in the 2014 Quadrennial Defense Review, is to 
defeat a regional adversary in a large-scale , multi-phased campaign; 
while simultaneously denying the objectives of--or imposed unacceptable 
costs on--another aggressor in another region. The smaller our force 
becomes, the tougher this will be to do.

    35. Senator Inhofe. General Odierno and General Welsh, what is the 
impact of only being postured to fight one major contingency operation?
    General Odierno. The velocity of instability around the world has 
increased, and the Army is now operating on multiple continents 
simultaneously in ways unforeseen a year ago. In short, our Army is 
busy. In my best military judgment, if we posture the Army to only 
fight one major contingency operation, we will not meet the 
requirements of our defense strategy, and our strategic flexibility 
will be compromised. We will be challenged to meet even our current 
level of commitments to our allies and partners around the world. It 
will eliminate our capability, on any scale, to conduct simultaneous 
operations, specifically deterring in one region while defeating in 
another. We would significantly degrade our capability to shape the 
security environment in multiple regions simultaneously. Essentially, 
it puts into question our ability to deter and compel multiple 
adversaries simultaneously.
    General Welsh. The current defense strategy requires the U.S. 
military to engage in two near-simultaneous major contingencies while 
maintaining an enhanced protective posture for the homeland. If/when 
the President chooses to change the strategy, the Air Force will inform 
the Secretary of Defense of the impact and potential risks via the 
Joint Chiefs of Staff. Additional discussion would require a classified 
forum.
                          air force operations
    36. Senator Inhofe. General Welsh, how do our flying hours compare 
to flying hours of China, Russia, India, and our European allies?
    General Welsh. The United States Air Force flies approximately 
2,000,000 hours per year, including all training and operational 
missions. However, these flying hours vary a great deal depending on 
weapon system type, pilot end-strength, and operations tempo. It is 
helpful to consider the average annual hours flown per pilot. The table 
below provides a breakdown of these averages by weapon system type and 
provides the average flying hours per pilot for Russia, China, and our 
European allies for comparison.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  * Majority of Flying Hours flown in Theater

    37. Senator Inhofe. General Welsh, how does reduced flying hours 
impact:

    a.  The training and experience of pilots, flight leads, instructor 
pilots and weapons instructors?
    b.  The training and experience of our maintainers, bomb loaders, 
back-shop specialists, and all the support that goes into executing air 
operations?
    c.  Your ability to meet the combatant command (COCOM) wartime 
requirements?
    d.  The potential for safety incidents?
    e.  The moral, recruiting and retention of our airmen and soldiers?

    General Welsh. Flying and training for full spectrum air combat is 
difficult, expensive, and time consuming. The Air Force Flying Hour 
Program (FHP) drives full spectrum training for nearly our entire Air 
Force. A decrease in flying hours reduces flight training opportunities 
and limits the experience of our pilot force. In the short-term, 
reduced flight hours increases the time it takes to upgrade pilots from 
copilot, to aircraft commander, to instructor/evaluator or from 
wingman, to flight lead, to instructor, to weapons instructor. In the 
mid-term, a pilot that has consistently experienced a reduced FHP will 
have a reduced level of experience (or delayed experiencing) as an 
instructor, weapons instructor and evaluator than the pilot cadre under 
a robust FHP. In the long-term, pilots with a career of reduced flying 
hours will become commanders and the future leaders of the Air Force 
with considerably less flying experience than their predecessors. 
Finally, this limited experience cycles back to the next generation of 
new pilots who will have less experienced flight instructors, weapons 
instructors, and leadership.
    The operational Air Force is only as good as the maintainers needed 
to support it; and in the same fashion as our pilot example, Air Force 
aircraft maintenance professionals' training is driven by the FHP. 
Reduced flying hours increases the time it takes to train and upgrade 
maintainers, reduces the experience of our maintenance instructor 
cadre, and reduces the experience of a generation of maintenance, 
ammunition, and logistics leaders.
    The Air Force defines its full spectrum combat/combat support 
mission sets directly from COCOM requirements developed through war 
planning. The Air Force structures its FHP so that each pilot and 
aircrew member can complete the absolute minimum required training to 
meet COCOM requirements. Due to a large reduction in Air Force 
capacity, the preponderance of our Air Force is required to be full 
spectrum ``ready'' at all times in order to meet the aggressive 
timelines driven by COCOM war planning requirements (especially for 
combat airpower). Reductions in the FHP lead directly to reductions in 
full spectrum training opportunities and reductions in readiness. 
Currently our Air Force's combat air forces are less than 50 percent 
ready; directly impacting our ability to meet National Military 
Strategy and COCOM wartime requirements.
    Flight safety is critical to protecting priceless Airmen and 
irreplaceable aircraft and resources. Reduced training opportunities 
and experience have reduced confidence in our ability to safely 
practice some of our most challenging skill sets. Bomber crews who once 
routinely flew low-level practice missions below 500 feet are now 
flying well above that level as the relatively low experience of our 
crews requires more caution to reduce the risk of mishaps. Reductions 
in overall readiness drive an increase in safety protocols in order to 
continue to make appropriate risk management decisions and protect our 
Airmen.
    One of the most important ``levers'' of Air Force readiness is the 
requirement for adequate dwell time at home station. This dwell time is 
used to fully train our pilots, maintainers, air traffic controllers, 
and all of the other skill sets required to meet our full spectrum 
requirements. A marked drop in Air Force capacity combined with a 
constant and very high COCOM deployment demand has eroded home station 
dwell times to unsustainable levels. Lack of dwell time over the past 
14 years has consistently reduced Air Force readiness. Some aircrew 
specialties, like combat rescue, have a deploy-to-dwell ratio of less 
than 1:1. This type of continued stress hurts morale, and with no end 
in sight to very high operational tempo, hurts the ability to retain 
Airmen with critical combat roles and skill sets.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                        mobile camouflage system
    38. Senator Wicker. Secretary McHugh, Secretary James, General 
Odierno, and General Welsh, during combat operations in Afghanistan and 
Iraq, many allied partner nations had adopted Mobile Camouflage Systems 
(MCS) for their combat vehicle platforms--taking advantage not only of 
the Mobile Camouflage System multi-spectral signature management sensor 
defeat capabilities but also capitalizing on the MCS heat/temperature 
reduction capability and significant fuel savings.
    Recognizing the potential value and increased capabilities the MCS 
enables, please provide the committee with details of your plan to 
develop, demonstrate, test, and field MCS for use on U.S. combat 
vehicle platforms in the next several years.
    Mr. McHugh and General Odierno. The Army's current camouflage 
system is the Lightweight Camouflage Screening System (LCSS). The LCSS 
is a modular system consisting of a hexagon screen, a diamond-shaped 
screen, a support system, and a repair kit. The system conceals targets 
by: casting patterned shadows that break up the characteristic outlines 
of a target; scattering radar returns (except when radar-transparent 
nets are used); trapping target heat and allowing it to disperse; and 
simulating color and shadow patterns that are commonly found in a 
particular region.
    The Army is currently validating the requirements document for the 
Ultra-light Camouflage Net System (ULCANS) as a replacement to the 
legacy Lightweight Camouflage Screening System (LCSS). The ULCANS will 
provide signature reduction for combat systems for near infrared (NIR), 
radar, electro-optics (EO), visual, and significantly increases thermal 
infrared suppression capability. As ULCANS is more snag resistant, 
lighter in weight and less voluminous than the Lightweight Camouflage 
Screening System (LCSS), it can be erected and removed faster and with 
less manpower. This ease of use will encourage greater use of 
camouflage, which will improve survivability for friendly personnel and 
equipment. The system will be fielded in desert, arctic, woodland and 
jungle patterns. The ULCANS Capability Development Document is in Army 
staffing.
    The Army will continue to review the capability in the Protection 
Capability Portfolio Review (CPR) to refine methods for mobile 
protection in the camouflage, concealment, and detection strategy.
    Ms. James and General Welsh. We defer to the Army for a response as 
the mobile camouflage system is an Army program.

                    signature management camouflage
    39. Senator Wicker. Secretary McHugh, Secretary James, General 
Odierno, and General Welsh, I am very interested in and concerned about 
organic multi-spectral signature management sensor defeat capabilities, 
especially given the current Short-Wave Infra-Red (SWIR) threat and the 
ease of availability of multi-spectral sensors.
    We on the committee are aware that the currently fielded Ultra-
Lightweight Camouflage Net System (ULCANS) does not afford SWIR 
protection to our troops, and that camouflage assets specific to arctic 
use are obsolete in age and capability. Also of concern is that the 
existing ULCANS contract, which facilitates research and development as 
well as production, will expire less than 18 months from now.
    Recognizing these issues, please update the committee on your 
acquisition strategy for acquiring the needed next generation of 
signature management camouflage capabilities, including a timeline that 
leads to contract award.
    Mr. McHugh and General Odierno. The next generation ULCANS 
capabilities document is currently in staffing at Headquarters 
Department of the Army. It contains the Short-wave infrared (SWIR) 
requirement to provide protection from emerging threats. To meet the 
current global defense posture, the Army will provide limited MTOE 
procurement and fielding to support the Global Response Force, 
Regionally Aligned Forces and Army Prepositioned Stocks. Other units 
will be able to procure the ULCANS using unit funds. The new system 
will be developed in desert, arctic, woodland and jungle patterns. Upon 
approval of the next generation ULCANS capabilities document, it may 
compete for funding beginning in fiscal year 2018.
    Ms. James and General Welsh. We defer to the Army for a response as 
the mobile camouflage system is an Army program.

    40. Senator Wicker. Secretary McHugh, Secretary James, General 
Odierno, and General Welsh, given the Short-Wave Infra-Red (SWIR) 
threat that our Armed Forces face today, can you detail near-term 
fielding plans for a SWIR-defeating signature management camouflage 
system for Rapid Reaction Forces, given that Service-wide fielding may 
take longer?
    Mr. McHugh and General Odierno. The Army is currently validating 
the capabilities document for the next generation Ultra-Light 
Camouflage Net System (ULCANS) designed to incorporate recent 
technological advances. The next generation ULCANS will provide 
improved protection from visual detection of Short-wave Infrared 
(SWIR). To meet the current global defense posture, the Army will 
provide limited MTOE procurement and fielding to support the Global 
Response Force, Regionally Aligned Forces and Army Prepositioned 
Stocks. Other units will be able to procure the ULCANS utilizing unit 
funds.
    Ms. James and General Welsh. We defer to the Army for a response as 
the Short-Wave Infra-Red system is an Army program.

                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                                 kc-46a
    41. Senator Ayotte. General Welsh, do things remain on track for 
delivery of the KC-46A to Pease Air National Guard Base in fiscal year 
2018?
    General Welsh. Pease Air National Guard Base is on track to accept 
its first KC-46A in fiscal year 2018 as planned. All MILCON projects at 
Pease Air National Guard Base are on track and there are no foreseeable 
delays expected.

                                  a-10
    42. Senator Ayotte. General Welsh, on March 17, 2015 in your House 
Armed Services Committee testimony you said that ``there are 
circumstances where you would prefer to have an A-10.'' Can you 
describe those circumstances?
    General Welsh. While there may be instances where I might prefer 
any one of our current platforms, the changing complexion of the modern 
battlefield coupled with an increasingly constrained fiscal environment 
have left the Air Force without the necessary resources to retain a 
single-role platform like the A-10.
    Divesting the A-10 maximizes current and future Air Force combat 
capability within the current fiscal environment. Divestiture of the A-
10 fleet is supported by analysis aimed at minimizing operational risk 
today and tomorrow, preserving other legacy platforms and associated 
modernization programs. Our decision to divest the fleet addresses the 
budgetary pressure brought on by the Budget Control Act and 
Sequestration.

    43. Senator Ayotte. General Welsh, please provide the Air Force's 
plan for providing close air support (CAS) in situations involving 
weather lower than 3,000 feet, Global Positioning System (GPS) jamming, 
armor, and danger close inside of 100 meters that will ensure that we 
will make every attempt to come to the aid of Americans in trouble. 
Consider each separately and in combination.
    General Welsh. The F-16 maintains a tank killing capability with 
the AGM-65 Maverick Air-to-Ground Missile System. Both the F-16 and F-
15E have an internal guns capable of firing Armor Piercing Incendiary 
rounds that are effective against armored personnel carriers and have 
also been used danger close inside of 100 meters. The MQ-1/9 can employ 
the AGM-114 Hellfire Air-to-Ground Missile System which provides heavy 
anti-armor kill capability. The first three generations of Hellfire 
missiles use a laser seeker; the fourth generation Hellfire uses a 
radar frequency seeker.
    All USAF multi-mission fighters are capable of providing CAS below 
3000 feet. F-16, F-15E, and F-35A will add Small Diameter Bomb (SDB) II 
inventory over the next few years. SDB II is a multi-mode weapon that 
allows standoff employment (more than 45 miles). The seeker works in 
three different modes to provide maximum operational flexibility in 
potentially contested and degraded environments: a millimeter wave 
radar to detect and track targets through weather, an imaging infrared 
for enhanced target discrimination and a semi-active laser that enables 
the weapon to track an airborne laser designator or one on the ground. 
This powerful, integrated seeker seamlessly shares targeting 
information among all three modes, enabling weapons to engage fixed or 
moving targets at any time of day and in all-weather conditions.

    44. Senator Ayotte. General Welsh, before making its decision to 
seek the divestment of the A-10, did the Air Force conduct analysis 
with the COCOMs, Services, joint terminal attack controllers (JTAC), or 
the A-10 community itself to identify the associated risks?
    General Welsh. Divestiture is supported by extensive analysis aimed 
at minimizing operational risk today and tomorrow, preserving our most 
capable existing platforms and essential modernization programs. Air 
Combat Command was an active participant in development of the fiscal 
year 2015 budget that recommended A-10 divestiture and endorsed this 
action for the fiscal year 2016 budget submission. The Combatant 
Commands (to include Special Operations Command) and the other Military 
Services were briefed on the Air Force's intent to retire the A-10 in 
both fiscal year 2015 and fiscal year 2016.
    I personally briefed every Combatant Commander on every Air Force 
budget decision that impacted them, including the recommendations to 
divest the A-10. While they didn't like the fact that the BCA is 
forcing this type decision any more that I do, all of them agreed with 
the priorities we established is on budget and understood that not 
divesting the A-10 to fund higher priorities would have an even greater 
impact on their ability to successfully conduct full-spectrum 
operations in the future.

    45. Senator Ayotte. General Welsh, the A-10 was developed based on 
a lack of CAS capability during the Vietnam War. High surface to air 
threat forced the airplanes to operate at low altitude which 
complicated targeting, and was too dangerous due to anti-aircraft fire. 
The A-10 was developed out of the necessity to operate at low altitude 
and have an airplane that was effective at targeting and survivable 
against anti-aircraft fire. The other CAS aircraft mentioned appear to 
be more susceptible to anti-aircraft artillery than those used during 
Vietnam. What has changed that has led the Air Force to determine that 
it no longer needs to possess such a capability?
    General Welsh. Our projected funding levels. Under the BCA, we must 
adjust our previously planned spending levels by $90B per year. That's 
a lot of money. It has, and will continue, to drive very difficult 
decisions. This is one of them. Our analysis of the future threat 
environment also contributed to our decision to divest the A-10 in this 
fiscally constrained time. Vietnam-era and some Cold War surface-to-air 
missiles (SAM) were most effective at medium-to-high altitudes allowing 
aircraft to fly below SAM radar coverage. Modern, layered, integrated 
surface-to-air missile systems are more capable and can no longer be 
under-flown. Other aircraft currently conducting the CAS mission are 
more survivable and capable of other roles and missions.

    46. Senator Ayotte. General Welsh, in 2014, what percentage of all 
JTAC Training and Certification CAS did the A-10 meet?
    General Welsh. Over the last year, the A-10 has supported 70 
percent of Joint Terminal Attack Controller (JTAC) Qualification 
Training (QT) air support. Over the last 5 years, the A-10 has provided 
around 45 percent of JTAC QT air support.

    47. Senator Ayotte. General Welsh, if the A-10 were divested, how 
will this requirement be met? Please identify the plan to fulfill this 
training shortfall and the associated annual costs.
    General Welsh. We will bridge the JTAC Training and Certification 
requirement from the A-10 using a mix of CAS capable multi-role 
aircraft coupled with Live Virtual Constructive (LVC) operational 
training and contract close air support. LVC will allow the JTAC Dome 
simulator to connect to our aircraft simulators that enable a realistic 
training environment for JTACs and aircrews. We will have fidelity on 
the associated annual costs after the award of the Joint Terminal 
Control Training and Rehearsal System contract.

    48. Senator Ayotte. General Welsh, how much would the Air Force 
save by completely divesting the F-15C?
    General Welsh. Excluding personnel costs, the total F-15C budget is 
$5.8B for the 16-20 FYDP. This includes funding for both the active and 
reserve components. Divesting the F-15C would also mean we are no 
longer capable of providing air superiority over a major theater of 
operations in a full-scale conflict. None of our combatant commanders 
would support divesting F-15C's versus divesting A-10s.

    49. Senator Ayotte. General Welsh, discuss the funding for the F-16 
Service Life Extension Program (SLEP). How many F-16 aircraft are 
funded for SLEP?
    General Welsh. Figure 1 highlights the current F-16 Service Life 
Extension Program (SLEP) funding/procurement profile. There are 58 SLEP 
kits funded within the FY16PB FYDP.

            Figure 1: Current FY16PB SLEP funding/procurement profile
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    50. Senator Ayotte. General Welsh, what is the cost per aircraft 
for SLEP? Provide a schedule of when aircraft will no longer mission 
capable with and without SLEP.
    General Welsh. The Service Life Extension Program (SLEP) will cost 
approximately $2.5M for each aircraft. It is our intent to only SLEP F-
16 Block 40/42/50/52 or ``post-block'' aircraft. We do not plan to SLEP 
F-16 Block 25/30/32 or ``pre-block'' aircraft. The three figures below 
show both pre-block and post-block aircraft service life predictions 
without SLEP, and post-block aircraft service life predictions with 
SLEP.
            Figure 1: FY16PB Pre-Block (Without SLEP)
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      

            Figure 2: FY16PB Post-Block (Without SLEP)
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

            Figure 3: FY16PB Post-Block (With SLEP)
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      

    51. Senator Ayotte. General Welsh, did JTACs lead any of the 
working groups at the CAS summit?
    General Welsh. All working groups were led by Air Force Colonels 
(pay grade O-6), which are the highest ranking Airmen involved daily 
with JTACs. The JTACs were fully integrated into each working group as 
active participants. Additionally, the 93d Air Ground Operations Wing 
(AGOW) Commander led our ``Current CAS State of Affairs'' working 
group. The 93 AGOW Commander is responsible for the 3d Air Support 
Operations Group (ASOG) at Ft. Hood, TX, and the 18 ASOG at Pope Field, 
NC--together they provide more than 1,500 air liaison officers, joint 
terminal attack controllers, tactical air-control party members, and 
battlefield weather airmen to the Army.

    52. Senator Ayotte. General Welsh, were there any differences in 
the message (impacts of A-10 divestment) you received from the closed 
door meeting with the Tactical Air Control Party Association and your 
CAS summit?
    General Welsh. The discussions with the Tactical Air Control Party 
Association and at the CAS Summit were productive and there was no 
variance in the matters discussed. Again, let me state the decision to 
retire the A-10 was the lesser of a series of very bad options required 
to stay below Air Force budget and manpower limits. One of the benefits 
of the closed door meeting with the TACP Association members was that 
they heard, for the first time, the full impact of the BCA on Air Force 
programs in every mission area. By the end of the discussion they 
expressed a greater appreciation for the difficult choices that must be 
made if the BCA remains the law of the land.

    53. Senator Ayotte. General Welsh, what CAS requirements did the 
Army and Marine Corps provide to the Air Force during your summit?
    General Welsh. The Army and Marine Corps were heavily involved in 
all working groups during the summit. In addition, the USN, Joint 
Staff, SOCOM, DARPA, and RAND also made significant contributions. CAS 
is not about the USAF or its aircraft; CAS is a joint mission that 
requires detailed integration between all of the Services to be 
effective--especially in the contested or highly contested environment 
of the future. The Future CAS Focus Week was a success because all of 
the Services came together and honestly assessed the reality of where 
our joint force is today, the requirements for the future, and the gaps 
we need to close to ensure we continue to deliver the outstanding 
effects of CAS to which the ground forces have become accustomed. The 
Army, Air Force, Navy, and Marines have all looked at different 
challenging scenarios of the environment that we may have to operate 
in--at the end of the day there will be contested environments that we 
will potentially have to operate in. All Service air components are 
participating in CAS today and they'll continue to do so. Today, USAF 
multi-role platforms, including RPAs, AC-130s, F-15Es, F-16s, B-1s, and 
B-52s, continue to support the CAS mission. Likewise, the USN and USMC 
have effectively used platforms like the F/A-18C/D/E and the AV-8B to 
provide effective CAS. In the future, all three Services will continue 
to leverage multi-role legacy platforms as well as integrate the F-35. 
Once the F-35A reaches Full Operational Capability, we will be able to 
gain synergistic effects with the USN and USMC variants. This synergy, 
when you have F-35C's coming off of ships, F-35B's coming out of an 
austere field, and F-35A's coming out of forward operating locations, 
will be unmatched--I think that's one of the other reasons that the CAS 
Integration Group is going to be incredibly important. This is an 
evolution in how we will execute this critical mission in the coming 
decades.

    54. Senator Ayotte. General Welsh, list the risks to CAS execution, 
as identified during the CAS summit, due to A-10 divestment.
    General Welsh. The Future CAS Focus Week attempted to answer three 
very broad questions: (1) What is the current CAS state of affairs? (2) 
Is there a gap? and (3) What do we do next? To properly constrain the 
discussion, we set the following assumptions: A-10 Divestiture in 2019; 
F-35 Remains on Timeline; Baseline Threat: MCO against Peer / Near-Peer 
adversary; and CAS will be required in a contested environment. In this 
way, the risks identified are not related only to the divestment of the 
A-10, but rather represent the risks of performing CAS in the operating 
environment we expect to encounter in 2020 and beyond.
    Although some are more directly tied to the A-10, the following 
gaps were highlighted in the Air Line of Effort:
    <bullet>  Dedicated CAS focus due to multi-mission shift; just-in-
time training creates challenges for beyond permissive CAS
        o  The A-10 has CAS as a primary mission and they are asked to 
        be proficient at all times. Therefore, there is a minimal 
        training spin-up time required to send an A-10 squadron down 
        range to do CAS.
        o  Multi-mission units have CAS as a secondary mission. 
        Therefore, there is a just-in-time training spin-up required to 
        deploy an F-16 or F-15E unit down range to do CAS. The time 
        required for a multi-mission unit to spin-up will increase as 
        the complexity of the operating environment increases (e.g. 
        contested environment vs. permissive).
    <bullet>  Capability and capacity to kill armor / moving / close 
proximity targets
        o  A-10 was designed with capability (i.e. 30 mm gun) to kill 
        armor (moving and stationary). Other currently fielded weapons 
        (e.g. Hellfire, Laser Maverick) also have this capability, but 
        with a larger collateral damage / risk estimate footprint; 
        future weapons like the SDB II will bring this same capability 
        to the F-35. As the size of the Air Force is decreased, whether 
        it is the A-10 or another platform, our capacity to kill 
        anything on the ground is reduced.
    <bullet>  Ability to employ direct fire weapons
        o  A-10 employs 30 mm gun (1150 rounds) and Laser Maverick (up 
        to 6)--both direct fire weapons. While other platforms also 
        employ the Laser Maverick, and the Hellfire (also a direct fire 
        weapon), divesting the A-10 will reduce our direct fire 
        capacity (especially the high capacity / low cost 30 mm).
    <bullet>  CAS sortie capacity from fiscal year 2017 - fiscal year 
2025
        o  Our joint warriors looked at combat power across the USAF's 
        CAS-capable fighter force (A-10, F-15E, F-16, and F-35) from 
        now until 2030. Factors considered included number of aircraft, 
        weapons stations, weapons types, and loiter time. When they put 
        it all together on a graph, there was a gap in combat power 
        from fiscal year 2017--fiscal year 2025. The gap grows from 
        2017-2020 and then shrinks from 2020-2025 (get well point 82023 
        when combat power is about equal to combat power in 2015). The 
        two biggest contributors to the gap are the divestment of the 
        A-10 (proceeding on time and as planned) and the addition of 
        the F-35 (proceeding late [both in aircraft delivery and 
        capability fielding] and slower than planned).
    <bullet>  F-35A CAS maturation
        o  The USAF will declare initial operating capability with F-
        35A Block 3i. Block 3i is lacking the ``BIG SAR'' 
        functionality--Block 4's ``BIG SAR'' image will be of a larger 
        area at a higher resolution (think SD television vs. HD 
        television). This will enable the pilots to better assess the 
        situation on the ground using the stand-off gained by taking a 
        SAR map instead of flying close to the target and using the 
        EOTS (or a Targeting Pod or eyeballs on a legacy aircraft). 
        Block 3F brings Automatic Target Cueing (ATC)/Automatic Target 
        Recognition (ATR) and Ground Moving Target Track (GMTT). Block 
        4 brings Combat Identification (CID) for GMTT tracks. The 
        biggest additions in Block 4 with regard to CAS are the 
        Advanced EOTS and the SDB II. Advanced EOTS will bring an 
        increase in resolution (similar to modern SNIPER pod) and a 
        Night Vision Device-compatible IR Marker, among other 
        capabilities. Block 4 will also bring Video Data Link (VDL)--
        commonly referred to as ``ROVER.'' SDB II is a multi-mode 
        weapon that allows standoff employment (more than 45 miles). 
        The seeker works in three different modes to provide maximum 
        operational flexibility: a millimeter wave radar to detect and 
        track targets through weather, an imaging infrared for enhanced 
        target discrimination and a semi-active laser that enables the 
        weapon to track an airborne laser designator or one on the 
        ground. This powerful, integrated seeker seamlessly shares 
        targeting information among all three modes, enabling weapons 
        to engage fixed or moving targets at any time of day and in 
        all-weather conditions.
    <bullet>  FAC(A) qualified aircrew
        o  The A-10 community has the preponderance of FAC(A) 
        experience and qualified pilots. As this platform divests and 
        is replaced by multi-mission aircraft, FAC(A) mission will 
        suffer. FAC(A)s and JTACs are the only two entities recognized 
        across the joint community, trained to integrate and control 
        CAS fires on the battlefield. Without a conscious effort to 
        migrate FAC(A)s and their capabilities from the A-10C airframe 
        to other airframes, the USAF risks losing 2/3 to 3/4 of its 
        FAC(A) capability. The Navy also has FAC(A)s--38 are required 
        in deployable units and 10-15 are required in shore units. The 
        USMC has roughly 50 FAC(A) crews spread across F-18C/D and AH-
        1.
    <bullet>  Capability to operate from austere airfields
        o  With the A-10 divestiture the USAF will lose the capability 
        to operate from austere airfields (the RPA retains some limited 
        capability). This could limit a support to SOF in some 
        scenarios or increase the demand for tankers.
        o  Other Air Force aircraft (F-16s most notably) have performed 
        the FAC(A) mission very well in the past and will do so in the 
        future.
    <bullet>  Increased O&M costs of 5th generation a/c and weapons
        o  Gap in munitions discussed previously would only worsen if 
        high-cost munitions are the only option available for every 
        target--including low-end targets. Also, the F-35 itself is a 
        high-cost asset. The Air Force clearly needs a low-threat CAS 
        aircraft with more firepower and a cheaper operating cost than 
        the A-10 to fill this role for the next 30 years. We simply 
        can't afford it right now.

    55. Senator Ayotte. General Welsh, list the mitigation to each of 
the risks identified. Identify specifically how your mitigation efforts 
will eliminate the associated risk. If some or all risk remains 
following your mitigation efforts, discuss these shortfalls in detail.
    General Welsh. Below are each identified risk and subsequent 
mitigation measures to address them:
    <bullet>  Dedicated CAS focus due to multi-mission shift; just-in-
time training creates challenges for beyond permissive CAS
        o  Designate Primary CAS units across the Total Force
        o  Live Virtual Constructive (LVC)--streamline platform 
        interoperability to augment training
    <bullet>  Capability and capacity to kill armor / moving / close 
proximity targets
        o  Shape F-35 block upgrades
        o  Weapons capacity: Maverick / Hellfire balance
        o  Rapid Point/Cue and shoot, forward firing, low cost, high 
        capacity
        o  Weapons Acquisition Strategy / AFRL enabling technologies / 
        New family of CAS weapons
    <bullet>  Ability to employ direct fire weapons
        o  Shape F-35 block upgrades
        o  Weapons capacity: Maverick / Hellfire balance
        o  Rapid Point / Cue and shoot, forward firing, low cost, high 
        capacity
        o  Weapons Acquisition Strategy / AFRL enabling technologies / 
        New family of CAS weapons
    <bullet>  CAS sortie capacity from fiscal year 2017--fiscal year 
2025
        o  Can only be fixed with more money to keep platforms flying 
        longer and/or procure a light attack / armed reconnaissance 
        (LAAR) aircraft
    <bullet>  F-35A CAS maturation
        o  Continue planned block upgrades
    <bullet>  FAC(A) qualified aircrew
        o  Deliberate A-10 expertise transition to F-16/F-15E/F-35 
        (already in planning)
        o  CAS Integration Group (CIG) will train CAS, fires and 
        maneuver experts to dominate combined arms operations through 
        air-ground integration--specifically joint CAS-minded FAC(As), 
        JTACs, Fires, and JFOs.
    <bullet>  Capability to operate from austere airfields
        o  Can only really be fixed with more money to keep platforms 
        flying longer and/or procure a light attack / armed 
        reconnaissance (LAAR) aircraft
        o  Uses the USMC F-35B in scenarios where this is required. 
        We're a joint fighting force.
    <bullet>  Increased O&M costs of 5th generation a/c and weapons
    The recommendation for the F-35 is not based solely on CAS. O&M 
costs for 5th generation aircraft and weapons must be paid if the U.S. 
expects its' military to be successful in the full range on 
contingencies and conflicts it could face in the future. We will do 
everything possible to minimize those costs.

    56. Senator Ayotte. General Welsh, how many F-16 or F-15E airframes 
are needed to provide the same level of CAS support (loiter, 
firepower), as the current number of A-10s on CAS target sets including 
armor?
    General Welsh. A 1:1 comparison is not possible because each 
airframe along with the munitions they carry bring specific advantages 
to the fight. The distinct differences in the capabilities of our CAS-
capable aircraft do not lend themselves to a numerical comparison in 
terms of the number of airframes. The Air Force is confident that there 
will be no degradation in CAS support as a result of A-10 divesture, 
other than the fact that we will have fewer fighter squadrons to 
conduct the nation's business as a result of BCA top lines.

    57. Senator Ayotte. General Welsh, is it a one-for-one swap, and if 
not, won't this create a gap in capacity?
    General Welsh. No, a one-for-one swap is not an appropriate basis 
of comparison. No capability gap is created; rather our CAS tactics 
allow us to use multiple assets capable of offering the flexibility, 
range, speed, lethality, precision, and ability to mass at a desired 
time and place.
    The Air Force already has a capacity problem, in multiple mission 
areas. We can't fully meet Combatant Commanders requirements today--
continued budget pressure driving difficult prioritization decisions 
won't make them any better.

    58. Senator Ayotte. General Welsh, has the Air Force communicated 
this to the Army and Marine Corps?
    General Welsh. The Army and Marine Corps participated in our Close 
Air Support Focus Week and the Chief of Staff, Army, and the 
Commandant, U.S. Marine Corps, participated in the Focus Week out-
brief. I also personally briefed the Chief of Staff of the Army, 
Commandant of the Marine Corps, Chief of Naval Operations, and Chief of 
the National Guard Bureau on our fiscal year 2016 Budget submission, 
including the impacts on the CAS mission area. They clearly understand 
the impacts of the BCA and the tough decisions it drives. Both the 
Chief of Staff of the Army and the Commandant of the Marine Corps 
expressed that they trust the Air Force to provide CAS when ground 
forces need it.

    59. Senator Ayotte. General Welsh, the fiscal year 2016 A-10 
divestment schedule is the fiscal year 2015 plan, but with an 
accelerated, aggressive divestment flow to catch up to the remainder of 
fiscal year 2017 to fiscal year 2019. Won't this create a backlog of 
pilots waiting to be trained on other platforms?
    General Welsh. We constantly monitor leading indicators to minimize 
training backlogs that can be caused by a variety of factors. We will 
only cease A-10 specific training if and when we receive authorization 
to eliminate the A-10 fleet from the inventory. Meanwhile, there are 
several issues to be considered when assigning pilots to other 
platforms, such as the current demand for pilots for those other 
weapons systems. The experience level of each pilot is also considered. 
Depending on the needs of the Air Force during the A-10 divestment 
schedule, some A-10 pilots will get other fighter aircraft or fighter 
training aircraft assignments while others may be needed for other 
weapon systems.

    60. Senator Ayotte. General Welsh, can the other formal training 
units handle the increased workload, and if not, what does the Air 
Force plan to do with those A-10 pilots who cannot be trained 
immediately?
    General Welsh. There is no immediate increase in the workload of 
our other formal training units as all of the A-10 pilots will remain 
available for deployment through fiscal year 2018. We intend to assign 
experienced A-10 pilots to multi-role aircraft squadrons. The 
experienced pilots who haven't met their first gate (96 months in 12 
years) will be moved from the A-10 to another fighter MDS (e.g. F-35, 
F-15E or F-16 CAS-focused squadrons), to the RPA, or to the training 
community where their expertise will be of tremendous value. The 
experienced A-10 pilots who have met their first gate will primarily 
fill vacant 11F positions to capitalize on their CAS experience.

    61. Senator Ayotte. General Welsh, is the F-15E ready to assume the 
Combat Search and Rescue mission set from the A-10 community?
    General Welsh. The Air Force will appropriately transfer the Combat 
Search and Rescue (CSAR) mission whenever the A-10 leaves service. As 
long as the A-10 remains a viable combat asset, we will continue to use 
it in its role for CSAR, CAS and FAC(A).
    The 53d Wing accomplished a Tactics Development and Evaluation 
(TD&E) to evaluate the CSAR mission set in the F-15E and F-16. The 
final test report has not been released, but it will include a draft 
training syllabus to spin-up crews in both the F-15E and the F-16 to 
accomplish the CSAR mission. Ready Aircrew Program (RAP) training 
requirements are being reviewed to identify how the CSAR mission will 
fit into the current F-15E and F-16 training programs, and what other 
missions will be displaced in order to pick up this responsibility. 
Upon notification of a divestment date for the A-10, crews from other 
platforms will achieve proficiency in this mission set in less than a 
year.

    62. Senator Ayotte. General Welsh, what is the status of their 
testing for this mission?
    General Welsh. [Note: the mission referred to in this question is 
CSAR]
    The purpose of the Multi-MDS CSAR Task Force (TF) TD&E was to 
prepare/qualify two F-15E crews and two F-16 pilots in the Sandy-1 
mission, develop an accompanying training plan, syllabus, and provide 
baseline TTP. This test was broken down into two phases, Phase-1 and 2.
    Phase-1: Executed from Aug-Dec 2014; consisted of 263 sorties flown 
on the Nevada Test and Training Range. Using A-10C IPs, the upgrading 
aircrew from the F-15E and F-16 followed a building block approach to 
learn the various Sandy 1-4 roles in order to gain the necessary 
proficiency for larger TF missions. Following this initial period, both 
the F-15E and F-16 demonstrated CSAR TF integration during 27 different 
large force exercises involving the following aircraft: A-10C, F-15, F-
22, E-3, C-130, tanker, HH-60, and unmanned aerial vehicles. At the 
conclusion of Phase-1, the upgrading aircrew from both MDSs needed two 
additional missions in order to meet the objectives of the test plan. 
The interim Operational Test Bulletin summarizes the specific findings 
of Phase-1 and provides a syllabus, training plan, and TTP for both the 
F-15E and F-16.
    Phase-2: Currently in execution during the Spring of 2015; consists 
of four CSAR TFs in April, between two and four in May, and a TDY to 
Eglin AFB (in order to assess the impact of a littoral environment on 
the developed TTP). Phase-2 should conclude by June 1, 2015, and will 
produce two qualified F-15E Sandy-1 crews and two qualified Sandy-1 F-
16 pilots.
    Road Shows: In February 2015, our team of A-10 IPs and upgrading 
Sandy-1 F-15E aircrew traveled to RAF Lakenheath, UK, to familiarize 
and prepare the F-15E squadrons in the CSAR mission. Additionally, this 
team of CSAR TF subject matter experts stands ready to prepare any F-
15E / F-16 unit in need of CSAR TF spin-up.

    63. Senator Ayotte. General Welsh, what are the operational costs 
per flying hour, taking into account sustainment costs, of the B-52, B-
1, F-15E, AC-130, F-16, and A-10?

 
------------------------------------------------------------------------
           MDS GROUP                     Data                 2014
------------------------------------------------------------------------
A-10C                            TY Operational Cost             $19,041
                                  per Flying Hour
                                ----------------------------------------
                                 PAA                                 225
                                ----------------------------------------
                                 Hours-Total                      83,498
                                ----------------------------------------
                                 TY Operational Cost      $1,589,917,752
------------------------------------------------------------------------
AC/MC-130W                       TY Operational Cost             $23,284
                                  per Flying Hour
                                ----------------------------------------
                                 PAA                                  11
                                ----------------------------------------
                                 Hours-Total                       6,431
                                ----------------------------------------
                                 TY Operational Cost        $149,735,322
------------------------------------------------------------------------
AC-130H                          TY Operational Cost             $52,814
                                  per Flying Hour
                                ----------------------------------------
                                 PAA                                   6
                                ----------------------------------------
                                 Hours-Total                       1,818
                                ----------------------------------------
                                 TY Operational Cost         $95,995,077
------------------------------------------------------------------------
AC-130U                          TY Operational Cost             $51,373
                                  per Flying Hour
                                ----------------------------------------
                                 PAA                                  16
                                ----------------------------------------
                                 Hours-Total                       6,292
                                ----------------------------------------
                                 TY Operational Cost        $323,238,885
------------------------------------------------------------------------
B-1B                             TY Operational Cost             $58,838
                                  per Flying Hour
                                ----------------------------------------
                                 PAA                                  52
                                ----------------------------------------
                                 Hours-Total                      21,587
                                ----------------------------------------
                                 TY Operational Cost      $1,270,130,668
------------------------------------------------------------------------
B-52H                            TY Operational Cost             $67,785
                                  per Flying Hour
                                ----------------------------------------
                                 PAA                                  63
                                ----------------------------------------
                                 Hours-Total                      18,279
                                ----------------------------------------
                                 TY Operational Cost      $1,239,027,603
------------------------------------------------------------------------
F-15E                            TY Operational Cost             $33,260
                                  per Flying Hour
                                ----------------------------------------
                                 PAA                                 193
                                ----------------------------------------
                                 Hours-Total                      50,807
                                ----------------------------------------
                                 TY Operational Cost      $1,689,823,978
------------------------------------------------------------------------


 
------------------------------------------------------------------------
           MDS GROUP                     Data                 2014
------------------------------------------------------------------------
F-16C/D                          TY Operational Cost             $21,415
                                  per Flying Hour
                                ----------------------------------------
                                 PAA                                 813
                                ----------------------------------------
                                 Hours-Total                     195,005
                                ----------------------------------------
                                 TY Operational Cost      $4,176,001,223
------------------------------------------------------------------------

    * Notes / Caveats to follow

 
------------------------------------------------------------------------
              #                             Notes / Caveats
------------------------------------------------------------------------
1                              Cost and FHs reflect FY14 data per AFCAP
                                version 8.0 which uses AFTOC FY14Q4
                                data.
------------------------------------------------------------------------
2                              Dollars provided in Then Year (TY)
                                dollars.
------------------------------------------------------------------------
3                              Aircraft grouped into MDS Groupings,
                                where appropriate, to improve analysis
                                and match normal aircraft data
                                groupings.
------------------------------------------------------------------------
4                              Data provided represents the FY14 OCPFH
                                (TY$). The Operational Cost per Fly Hour
                                (OCPFH) is a historically based metric
                                from the Air Force Total Ownership Cost
                                (AFTOC) system that provides visibility
                                into the total cost to operate an
                                aircraft during a specific year.
------------------------------------------------------------------------
5                              The OCPFH is calculated by dividing the
                                total operating and sustainment costs
                                (excluding hardware modifications)
                                associated with a weapon system by the
                                total flying hours flown in the same
                                year. Operational Cost includes: Mission
                                Personnel, Unit Operations, Maintenance,
                                Sustaining Support, Continuing System
                                Improvements (excluding hardware
                                modifications), and Indirect Support.
------------------------------------------------------------------------
6                              DO NOT use this single year of data as a
                                basis for future year requirements or as
                                a basis for a comparison between
                                aircraft. This data is not normalized
                                for differences between size of the
                                various MDS fleets and/or differences in
                                the hours flown per tail or per PAA. It
                                includes both fixed, variable, and semi
                                variable costs. The OPCPFH uses these
                                total costs spread against all flying
                                hours flown to derive an aggregate cost
                                per flying hour metric. OPCPFH should
                                not be used to estimate the cost of
                                flying more or less flying hours.
------------------------------------------------------------------------


    64. Senator Ayotte. General Welsh, how much has the Air Force spent 
since September 11, 2001 to modernize the A-10?
    General Welsh. We have spent a total of $1.56B ($234.4M for RDT&E 
and $1.33B for procurement) since September 11, 2001, for A-10 
modernization.

    65. Senator Ayotte. General Welsh, what are the differences in 
capabilities and features between the A-10A and the A-10C?
    General Welsh. The A-10 fleet completed the Precision Engagement 
(PE) upgrade to the A-10C model in fiscal year 2011. PE modernized all 
A-10As by integrating advanced targeting pods and a digital data link 
with aircraft systems. Additionally, PE incorporated a data structure 
that enabled employment of an assortment of precision weapons. 
Altogether, PE provided a significant increase in capability and combat 
effectiveness to the A-10A.

    66. Senator Ayotte. General Welsh, please provide a detailed update 
on the A-10 re-wing program.
    General Welsh. 173 enhanced wing assemblies (EWAs) were purchased, 
with the last order occurring in fiscal year 2013 (56 wings). As of 10 
April 2015, 108 EWAs have been delivered (65 are still on order) and 81 
have been installed (27 of current deliveries are still to be 
installed). Production of purchased EWAs will be complete by July 2016.

    67. Senator Ayotte. General Welsh, how many have received new 
wings?
    General Welsh. As of 10 April 2015, 81 aircraft have received an 
enhanced wing assembly (EWA). 173 EWAs have been purchased, and 108 
EWAs have been delivered (65 are still on order). 27 of the delivered 
EWAs are still to be installed.

    68. Senator Ayotte. General Welsh, under the current contract, how 
many more will receive new wings?
    General Welsh. 92 additional aircraft will receive an enhanced wing 
assembly (EWA). 173 EWAs were purchased, and 81 have been installed as 
of 10 April 2015.

    69. Senator Ayotte. General Welsh, how many A-10s in need of new 
wings would that leave?
    General Welsh. Based on a fleet size of 283 A-10 aircraft, the USAF 
would need to purchase 110 enhanced wing assemblies (EWAs) to modify 
the entire fleet. 173 EWAs have been purchased.

    70. Senator Ayotte. General Welsh, when does the current contract 
expire?
    General Welsh. The last option is for 2016.

    71. Senator Ayotte. General Welsh, please provide a detailed update 
on the current supply and production of 30mm rounds. Is there a 
shortfall in training rounds, and if so, how much?
    General Welsh. Last year, the Air Force discovered a procurement 
shortfall for 30mm training rounds. The Air Force is approximately 1.2 
million rounds short of our current inventory objective with the gap 
expected to increase. To minimize the training impact we increased the 
fiscal year 2014 funding of the 30mm. To further minimize impact, Air 
Combat Command reduced fiscal year 2015 training requirements to 
maintain combat capability within the inventory constraint. The Air 
Force also encouraged the manufacturers to reduce manufacturing lead-
time and enable faster munitions deliveries.

    72. Senator Ayotte. General Welsh, what is the impact of that 
shortfall, and what is being done to address the shortfall?
    General Welsh. The impact of the 30mm round shortfall will depend 
on: 1) A-10 divestiture actions, 2) actual expenditures, and 3) 
realization of accelerated deliveries. If the Air Force is required to 
retain the A-10, congressionally identified funds will be used to 
procure A-10 ammunition and increase fiscal year 2016 allocations from 
38 percent to approximately 52 percent of the training requirement. A-
10 Operations Group Commanders developed a training plan to mitigate 
any impacts from a reduced allocation.

    73. Senator Ayotte. General Welsh, in your House Armed Services 
Committee testimony, you say the F-35A will replace the A-10 for high 
threat CAS. What will replace the A-10 for low threat CAS?
    General Welsh. Several other CAS-capable multi-role platforms have 
been accomplishing the CAS mission in the permissive low-threat 
environment (F-16, F-15E, B-1, B-52, and MQ-1/9) and they will continue 
to do so in the future.

                        special victims counsel
    74. Senator Ayotte. General Odierno and General Welsh, section 1716 
of the NDAA for fiscal year 2014 required the Services to establish 
Special Victims' Counsel Program to provide independent legal 
assistance for victims of sexual assault. Can you provide an update on 
how your Special Victims Counsel programs are going, and what kind of 
feedback are you getting from victims?
    General Odierno. The Army Special Victims' Counsel (SVC) Program 
adeptly serves as a voice for sexual assault victims, by providing 
legal advice and representation through all stages of administrative 
and military justice proceedings, from investigation to final 
disposition. The Army SVC Program's major achievements include serving 
over 1,880 clients, attending and advising clients at 375 Courts-
Martial, and filing four writs of mandamus with the Army Court of 
Criminal Appeals (ACCA) and an amicus curiae brief with the Court of 
Appeals for the Armed Forces (CAAF). The Program has developed 
curriculum for internally managed courses, to include the Special 
Victims' Counsel Certification Course, Child Advocacy Course, 
Supervisor Training Course, and Continuing Legal Education (CLE) 
training. Nearly 350 SVC have been trained, including members from 
other Services.
    The SVC Program resides in the Office of The Judge Advocate General 
(TJAG) and all Judge Advocates who serve as SVC are specially trained 
and certified by TJAG. Currently, 75 active component SVC serve in the 
field under the direct supervision of the Chief of Legal Assistance 
(CLA), with technical oversight provided by the SVC Program Manager. 
This organizational structure provides several benefits. It maximizes 
availability of SVC for face-to-face interaction with clients at 
installations Army-wide; it ensures SVC independence by placing them 
within the legal assistance function, which has a well established role 
of representing individual clients, even when in opposition to 
decisions of the client's command; and it gives SVC the resources they 
need to provide legal assistance for any collateral issues a victim may 
encounter.
    Feedback received from victims has been extremely positive. SVC 
clients have shared their experiences with the Judicial Proceedings 
Panel (JPP), Congressional members and staff, and at numerous SVC 
training events. Victims indicate that they feel empowered and better 
able to participate in the military justice process because of their 
SVC. As just one example, Specialist A.S. testified before the JPP 
Public Meeting held on December 12, 2014, that her SVC `` . . . has 
been there with me through the whole process, and I can honestly say 
that without him I probably wouldn't have been able to survive a trial 
and go through everything that I went through'' (p. 175; 12-16).
    General Welsh. The Special Victims' Counsel (SVC) Program continues 
to receive very positive feedback from represented victims and Air 
Force leadership. The primary indication of the SVC Program's success 
is the results of the Air Force's Victim Impact Survey (VIS). This 
voluntary, anonymous survey of victims who have availed themselves of 
Air Force SVC services has yielded unprecedented satisfaction rates. 
Approximately 200 former clients out of a possible 790 have 
participated in taking the VIS. Over the life of the program, the 
following statistics are instructive:
    <bullet>  90 percent ``extremely satisfied'' with the advice and 
support the SVC provided during the Article 32 hearing and court-
martial (9 percent ``satisfied'')
    <bullet>  99 percent would recommend other victims request an SVC
    <bullet>  96 percent indicated their SVC advocated effectively on 
their behalf
    <bullet>  96 percent indicated their SVC helped them understand the 
investigation and court-martial processes
    A couple of quotes from the victims responding to the VIS:
    ``I can't imagine why anyone would do this without a SVC. She 
explained everything and made sure I understood what was going on. Capt 
XX was great. I really appreciate all she did to help me through the 
process.''
    ``The SVC was both moral and legal support for me during the 
duration of the case/investigation itself. When I had no one else, he 
was the one who was by my side. He was professional, and knew when to 
be personal to an appropriate extent. It was not only beneficial--it 
was lifesaving. He did his best, and that is all I needed. He went 
above and beyond his duty. I am very lucky to have worked with my SVC, 
and I thank you for it.''
    Although the SVC program only just completed its second year, 
requests for SVC representation continue at a robust pace. We believe 
the sustained high volume of victims seeking representation springs 
from multiple sources including favorable experiences and 
recommendations by other victims of sexual assault, increased 
visibility throughout the DoD and AF communities, and a strong 
partnership with SARC, FAP, legal offices and OSI. As such, in fiscal 
year 2014, 86 percent of eligible victims who made an unrestricted 
report of sexual assault utilized the AF SVC Program.
    In response to the program's success and increasing caseloads due 
to demand, as well as representation of child clients as of June 24, 
2014, the Air Force created the new Senior Special Victims' Counsel 
(SSVC) position to assist with mentoring, training and advising of SVCs 
and Special Victims' Paralegals (SVPs) in the field, and to represent 
their own clients. Organizationally, SSVCs are divided into five 
geographic circuits worldwide. After beginning with only 24 full-time 
SVCs and 10 SVPs, the Air Force has increased SVCs billets in order to 
fully and competently represent victims and manage the increase in 
caseload. By July 2015, there will be 35 SVCs, 5 Senior SVCs, and 24 
SVPs located at 32 SVC offices worldwide. By the summer of 2016, the 
Air Force expects to grow to 50 SVCs.
    Finally, to continue to improve the AF SVC program, the Service SVC 
Program leaders frequently collaborate to develop standardized rules 
for practice, discuss new and proposed legislation, and expand SVC 
training to ensure counsel have the appropriate level of expertise to 
effectively represent their clients. The AF offers an intensive 8-day 
SVC training course at the Air Force Judge Advocate General School 
twice a year. The course is taught by civilian and military experts and 
includes advanced topics such as representing child victims, strategies 
to combat retaliation and ostracism and specialized trial tactics. SVCs 
from all branches of the Service, to include the Air Reserve Component, 
attend this course. Finally, SVCs and SVPs attend myriad victim-focused 
courses offered by other federal, state and civilian agencies.

                         involuntary separation
    75. Senator Ayotte Secretary McHugh and General Odierno, under the 
President's budget request, the Army is dramatically reducing the size 
of the force in the coming years. Consistent with section 525 of the 
NDAA for fiscal year 2014, I understand that in the second half of 
calendar year 2014, the Army involuntarily separated 420 soldiers. 
General Odierno, I understand that the Army is being forced to reduce 
its end strength and this requires difficult decisions you would rather 
not make. Secretary McHugh and General Odierno, how many soldiers do 
you estimate you will have to involuntarily separate this year and how 
many if defense sequestration returns in 2016?
    Secretary McHugh and General Odierno. A return to sequestration-
level funding would require the Army to size and equip the force based 
on what we can afford, not what we need, increasing the risk that when 
called to deploy, we will either not have enough Soldiers or will send 
Soldiers that are not properly trained and equipped. As I have stated 
before, if the discretionary cap reductions from sequestration occur, 
the Army will be at grave risk of being unable to fully execute the 
Defense Strategic Guidance requirements.
    The Army's current plan to achieve required end strength reductions 
calls for us to involuntarily separate approximately 2400 Officers 
(including 650 promotion non-selects) and 780 enlisted soldiers in 
fiscal year 2015. In fiscal year 2016, we will involuntarily separate 
2600 Officers and 1200 enlisted members. When sequestration returns in 
fiscal year 2016, our officer separations would increase by 100 
Captains, and enlisted losses would not change; however, the true 
effects of sequestration would be felt in future years with greatly 
increased Officer and Enlisted involuntary separations.
    If Congress does not act to mitigate the magnitude and method of 
the reductions under the sequestration, the Army will be forced to make 
blunt reductions in end strength, readiness, and modernization. We 
cannot take the readiness of our force for granted. If we do not have 
the resources to train and equip the force, our Soldiers, our young men 
and women, are the ones who will pay the price, potentially with their 
lives. It is our shared responsibility to ensure that we never send 
members of our military into harm's way who are not trained, equipped, 
well-led, and ready for any contingency to include war. We must come up 
with a better solution than sequestration.

                        end strength reductions
    76. Senator Ayotte. General Odierno, you have said that we need to 
rethink the decision to reduce the Army's Active Duty endstrength to 
450,000. You said, ``We made assumptions that we wouldn't be using Army 
forces in Europe the way we used to, we made assumptions that we 
wouldn't go back into Iraq--and here we are back in Iraq, here we are 
worried about Russia again.'' Additionally, in the joint written 
testimony, you and Secretary McHugh described this endstrength as 
``tenuous''. Setting aside budget constraints for a moment, based on 
our interests and the threats to our interests, what Active, Guard, and 
Reserve end strength numbers do you believe our Nation needs?
    General Odierno. Last year, we testified that the minimum force 
necessary to execute the defense strategy was a force floor of 450,000 
in the Regular Army, 335,000 in the Army National Guard and 195,000 in 
the Army Reserve - a total of 980,000 Soldiers. That assessment has not 
changed and is based on certain planning assumptions regarding the 
duration, number and size of future missions. When determining these 
assessed force levels, we also made clear that risks at this level 
would grow if our underlying assumptions proved inaccurate. Although we 
still believe we can meet the primary missions of the Defense Strategic 
Guidance (DSG) today, our ability to do so has become tenuous. There is 
a growing divide between the Budget Control Act's (BCA) arbitrary 
funding mechanism - that has seen the Army budget drop in nominal terms 
every year since enacted in 2011 - and the emerging geopolitical 
realities confronting us now across Europe, the Middle East, Africa and 
the Pacific, along with the growing threats to our homeland. Risk 
thereby increases to our force, our national security and our Nation. 
As the Army approaches a Total Army end strength of 980,000 Soldiers by 
fiscal year 2018, we must constantly assess the operational tempo and 
its impacts on the health and viability of the force. We must ensure we 
have both the capability to respond to unforeseen demands and the 
capacity to sustain high levels of readiness.

                             army readiness
    77. Senator Ayotte. General Odierno, you said that only 33 percent 
of our brigades are ready. What is the primary reason for this degraded 
readiness: insufficient training, manning, or equipment--or poorly 
maintained equipment?
    General Odierno. The unrelenting budget impasse has compelled us to 
degrade our readiness to historically low levels. Essentially, 
readiness has been degraded to its lowest levels in 20 years. In fiscal 
year 2013, under sequestration, only 10 percent of our Brigade Combat 
Teams were ready. Combat Training Center rotations for seven brigade 
combat teams were cancelled and over half a billion dollars of 
maintenance was deferred, both affecting training and readiness of our 
units. Even after additional support from the BBA, today, we only have 
33 of our brigades ready, to the extent we would ask them to be if 
asked to fight.
    Readiness is not something that we can just fund piecemeal--once in 
a while and year to year. It has to be funded consistently over time. 
If not, it is fleeting, and it goes away.
    The compromises we have made to readiness and modernization 
combined with reductions to our force size and capabilities translates 
directly into strategic risk. Today, we are generating just enough 
readiness to meet our day-to-day needs of immediate consumption. We are 
unable to generate any residual readiness to respond to an unknown 
contingency or to even reinforce ongoing operations.
    This is a dangerous balancing act. We have fewer soldiers, the 
majority of whom are in units that are not ready, and they are manning 
aging equipment at a time when demand for Army forces is higher than we 
originally anticipated.

    78. Senator Ayotte. General Odierno, if sequestration continues, 
what percent of units would have degraded readiness?
    General Odierno. It is difficult to provide precise percentages, 
but what I am sure of is that sequestration puts the Army on a path of 
accelerated and much deeper cuts to our forces while debilitating 
readiness and reducing modernization and manpower. Funding fluctuations 
force the Army to train and maintain the force in fits and starts, 
which is cost inefficient and damaging to long-term readiness.
    The impacts of continued sequestration will endure for at least a 
decade. It is going to be the next Chief and the Chiefs after that who 
must respond to the long term and hidden impacts of sequestration. 
Readiness is not something that we can just fund piecemeal--once in a 
while and year to year. It has to be funded consistently over time. If 
not, it is fleeting, and it goes away.
    Although the Army attempts to mitigate the impacts on training 
readiness, we must continue to implement the Contingency Force model of 
fiscal year 2015 in order to maintain readiness for the 24 of 60 BCTs 
that will receive sufficient funding to conduct training at Combat 
Training Centers (CTC) and home station. The remaining 36 BCTs will be 
limited to minimum Individual/Crew/Squad resourcing levels through 
sufficient Training Support Systems. In short, sequestration forces the 
Army to ration readiness. But regardless of funding levels, we have 
committed to keeping Combat Training Centers a priority. That means our 
home station training goes unfunded except for brigades going to CTCs.
    At the Soldier level, Institutional Training will also take a 
significant reduction that will take years to recover. Already 
strained, the Army will further reduce Specialized Skill Training by 
85,007 seats (65 percent drop) and fund only the most critical courses 
resulting in 47,659 seats funded out of 199,212 seats (23.9 percent). 
Furthermore, this causes a training backload that will take years to 
reduce, hindering units' abilities to train and negatively affecting 
unit readiness. Ultimately, this further reduces the Army's ability to 
meet Combatant Commander needs for critical capabilities and skills.
                                 ______
                                 
               Questions Submitted by Senator Thom Tillis
                440th airlift wing at pope army airfield
    79. Senator Tillis. Secretary James, earlier in the year, I had 
extensive discussions with Secretary Carter about the future of the 
440th Airlift Wing at Pope Army Airfield. During his confirmation 
hearing, Secretary Carter publicly committed to look into the matter 
and sit down with my office and discuss the 440th's future.
    I am distressed that in spite of the commitment, the Air Force 
leadership is proceeding to finalize this matter before the Secretary 
of Defense has had a chance to fulfill his public assurance.
    First, the NDAA for fiscal year 2015 requires the Air Force to 
report to Congress on the Service's future C-130 force structure. 
Congress is then given 60 days to respond to that report.
    General Welsh said it is undergoing changes and has not been 
officially approved by Secretary James, much less provided to Congress 
as required by the NDAA. My understanding is that the report still ill-
advisedly calls for the dismantling of the 440th.
    Second, in contravention of the spirit of the NDAA, the Air Force 
has already begun removing airmen from the 440th before the report has 
even been provided to Congress, much less Congress having an 
opportunity to respond. The 440th command recently held an all hands 
meeting to help airmen look for other jobs.
    A spokesman for the Air Force Reserve said that last year's law 
says nothing about moving airmen and pilots out of Pope, it only 
requires the planes to stay. That does not pass the laugh test unless 
the Air Force Reserve Command expects the Pope C-130s to be converted 
to drones--no pilots no air wing.
    Third, last month the commander of the XVIII Airborne Corps, 
General Joseph Anderson said, ``of all places to cut, why would they 
[the Air Force] take that capability away from Fort Bragg?'' Fort Bragg 
leadership says it was not consulted.
    The response of the Air Staff is: we don't check Air Force 
decisions with Army three stars.
    I am disturbed that in spite of Secretary Carter's commitment to 
sit down with me and discuss the future of the C-130s, the Air Force 
will have dismantled the unit leaving us nothing to discuss.
    I have asked for a private meeting with you along with my senior 
colleague, Senator Burr, Chairman of the Select Committee on 
Intelligence. Our first meeting was cancelled due to the change in the 
scheduling of the posture of the Department of the Air Force hearing 
before the Senate Armed Services Committee. Since that time, Air Force 
schedulers have proffered prospective times for a new meeting in 
Washington, DC when both Senator Burr and I are in North Carolina. We 
stand ready to meet with you in the state if your schedule will not 
accommodate us in Washington.
    If the Air Force has not reached a decision on the future of the 
440th, why are airmen at Pope being told to transfer elsewhere?
    Ms. James. The fiscal year 2015 NDAA, Section 138, C-130 Force 
structure report was delivered to the Defense Committees on April 14, 
2015, and outlines the proposed force structure for the C-130 fleet as 
amended by our Total Force analysis of the C-130 enterprise.
    The personnel at the 440th Airlift Wing (AW) are not being directed 
by the Air Force to seek employment elsewhere. Rather, these Reserve 
Airmen are choosing to seek other opportunities. Faced with the choice 
of helping them or not, the Air Force Reserve Command has, of course, 
chosen to help and is aiding members of the 440 AW in finding alternate 
positions. The Air Force believes that it is meeting the requirements 
of Section 138 as enacted.
    The divestiture of the 440 AW will have no impact on the XVIII 
Airborne Corps to train or employ. Currently, only 33 percent of Ft. 
Bragg training missions are flown by the 440 AW and 100 percent of the 
XVIII Airborne Corps Global Response Force deployment requirements are 
met through units external to Pope AAF. After inactivating the 440 AW 
at Pope AAF, the Air Force will continue to support movement 
requirements at Pope with non-collocated assets.
    The Air Force remains committed to supporting U.S. Army airborne 
training requirements through the Joint Airborne/Air Transportability 
Training (JA/ATT) Joint Management System (JMS). This construct is 
currently used to fill 66 percent of Ft. Bragg training missions. Using 
JMS, the U.S. Army can schedule additional JA/AATs to make up for the 
sorties currently flown by Pope AAF AFRC C-130Hs. The JA/ATT 
construct--executed via the JMS--also supports 100 percent of the 
missions at Fort Benning, Fort Campbell, and many other Army, USMC and 
SOCOM units, whether they have collocated transport aircraft or not.

    80. Senator Tillis. Secretary James, is this decision in keeping 
with the intent of the Senate Armed Services Committee as made clear in 
the NDAA regarding the mandatory report on the future of the C-130 
fleet?
    Ms. James. The fiscal year 2015 NDAA, Section 138, C-130 Force 
structure report was delivered to the Defense Committees on 14 April 
2015 and outlines the proposed force structure for the C-130 fleet as 
amended by our Total Force analysis of the C-130 enterprise. The 
personnel at the 440th Airlift Wing (AW) are not being directed by the 
Air Force to seek employment elsewhere. Rather, these Reserve Airmen 
are choosing to seek other opportunities. Faced with the choice of 
helping them or not, the Air Force Reserve Command has, of course, 
chosen to help and is aiding members of the 440 AW in finding alternate 
positions. The Air Force believes that it is meeting the requirements 
of Section 138 as enacted.

    81. Senator Tillis. Secretary James, it is not sufficient to say 
the Air Force consulted with Army Headquarters at the Pentagon 
regarding the future of the 440th. Did the Air Force consult with its 
clients, the leadership of the XVIII Airborne Corps, the 82nd Airborne, 
and U.S. Army Special Operations Command (USASOC) before making the 
decision to deactivate the 440th?
    Ms. James. No, the Air Force did not consult with the Army XVIII 
Airborne Corps leadership prior to making the decision to deactivate 
the 440th Airlift Wing. Analysis of requirements, both operational and 
training, was conducted and determined to have zero impact on the XVIII 
Airborne Corps Global Response Force requirement and minimal impact to 
training. The loss of organic airlift training capability at Ft Bragg 
will be mitigated through increased use of the Joint Airborne/Air 
Transportability Training process. The Department of the Army was fully 
informed on the issue through appropriate, longstanding HQ's 
coordination process.

    82. Senator Tillis. Secretary James, I have asked for the metrics 
used to determine why Pope is a lower priority than airfields that have 
no comparable tactical mission--no metrics have been delivered. When 
will the Air Force provide this information?
    Ms. James. The fiscal year 2015 NDAA, Section 138, C-130 Force 
structure report was delivered to the Defense Committees on April 14, 
2015, and outlines the proposed force structure for the C-130 fleet as 
amended by our Total Force analysis of the C-130 enterprise. This 
report provides the metrics that led to the decision to divest the 
440th Airlift Wing (AW). Of note, the 440 AW and the associated C-130 
unit do not have a direct tactical mission supporting the XVIII 
Airborne Corps. In fact, 100 percent of real-world contingency taskings 
for the XVIII Airborne Corps are fulfilled by units not-collocated with 
Fort Bragg. Under the current United States Transportation Command 
model, the DoD can deliver the Global Response Force direct to an 
objective via integrated packages of USAF C-17s and C-130s non-
collocated at Pope AAF.
    Additionally, 66 percent of the XVIII Airborne Corps training 
requirements are fulfilled by units external to Pope AAF via the Joint 
Airborne/Air Transportability Training process. This construct will be 
used to fulfill the remaining 34 percent of training requirements 
following the deactivation of the 440 AW.

    83. Senator Tillis. Secretary James, is it Secretary Carter's 
intent to discuss the future of the 440th with North Carolina's 
congressional delegation?
    Ms. James. I would refer you to the Office of the Secretary of 
Defense.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                        air force modernization
    84. Senator Lee. General Odierno, do you believe that your forces 
on the ground will receive the necessary close-air support to 
efficiently and safely complete their missions if the A-10 is retired?
    General Odierno. I have absolute confidence in the capability and 
willingness of the United States Air Force to meet the needs of our 
Soldiers on the ground; we believe close air support (CAS) is a 
mission, not a platform. While we are not excited to potentially lose 
the A-10, we know the Air Force, like the Army, is facing an extremely 
difficult fiscal reality that necessitates making hard, unpopular 
choices.

    85. Senator Lee. General Welsh, an article published on 
Military.com last week reported that the F-35 will not be able to fire 
the Small Diameter Bomb II close air support weapon until 2022. What 
other close-air support capabilities will the F-35 be capable of prior 
to 2022?
    General Welsh. At Initial Operating Capability (IOC) in late 2016, 
the United States Air Force's F-35As will have various combat 
capabilities to conduct Close Air Support. These capabilities will 
include the full suite of fused sensors and mission systems used to 
find, fix, track, target, and assess the battlefield. Additionally, at 
IOC our F-35As will have the weapons inventory to successfully engage 
targets to meet Ground Commander objectives, to include the GBU-12 
laser guided 500-pound weapon and the 2000-pound GBU-31 Joint Direct 
Attack Munition. Full CAS capability will be available as FOC in late 
2021.

    86. Senator Lee. Secretary James and General Welsh, the Air Force 
has again highlighted the F-35, Long Range Strike Bomber, and the new 
tanker as its highest procurement priorities, and lays the foundation 
for acquiring other new weapons systems to replace legacy fleets. I 
continue to be concerned though that cost-overruns and delays in the 
acquisition process could magnify the negative effects of budget 
reductions and harm the long-term viability of such programs. Will you 
discuss how the Air Force is working to drive down the costs of major 
acquisitions programs to ensure that cost increases do not affect the 
readiness of the force?
    Ms. James and General Welsh. Controlling the cost of our major 
acquisition programs is a top concern for the Air Force. As such, the 
Assistant Secretary of the Air Force for Acquisition regularly reviews 
acquisition costs, both at the enterprise-wide level and for individual 
programs. Furthermore, the Air Force is executing several major 
initiatives to drive down the costs of major acquisition programs. Four 
specific initiatives are: 1) Should Cost, 2) Own the Technical 
Baseline, 3) Affordability, and 4) Bending the Cost Curve. All of these 
initiatives contribute to a stronger, cost conscious acquisition 
community.
    1) ``Should Cost'' management is one of the Better Buying Power 
initiatives that is generating a significant return on investment for 
our acquisition community. Per DoD Instruction, Should Cost Management 
is required for all Acquisition Category programs. Should Cost 
Management challenges acquisition managers to identify and achieve 
savings below most-likely budgeted costs. Should Cost savings are then 
reinvested back in the program, the acquisition portfolio, or returned 
to the Air Force Corporate Structure. Should Cost Management is one of 
the tools that our acquisition managers use to schedule and control 
cost in our program offices.
    2) ``Own the Technical Baseline'' is directed at increasing the 
Government's ability to be a better buyer by being an informed decision 
maker. The Government applies technical baseline knowledge to establish 
trade-offs for affordability and verify, change, accept, and sustain 
functional capabilities. Own the Technical Baseline is essential to our 
future and means the government program team, independent of the prime 
contractor, has the wherewithal to make proper decisions to achieve 
successful, cost-effective acquisition outcomes.
    3) ``Affordability'' is one of the Better Buying Power initiatives 
that challenges Air Force Core Function Leads to look at each program 
and determine if the Air Force can afford it throughout its lifecycle. 
Affordability is different in that we look at our entire portfolio 
across at least 30 years and evaluate if we will allocate resources far 
longer than the typical five year outlook. If a program is determined 
to be unaffordable, we restructure, we re-scope, or we cancel it. We 
are still in the early stages of this initiative, but we believe it is 
a strong approach in controlling costs and avoiding those programs we 
cannot afford.
    4) In 2014, Air Force leaders initiated the ``Bending the Cost 
Curve'' (BTCC) Initiative to address the escalation in weapon system 
costs and development times. To accomplish this BTCC amplifies the 
Better Buying Power principles by encouraging innovation through active 
engagements with Industry and the acquisition workforce to identify, 
evaluate, and implement transformational reforms. Unlike Better Buying 
Power, which is a broader set of practices and techniques for the 
workforce to employ, BTCC is a targeted initiative to encourage 
innovation and active industry partnerships to improve the way we 
procure our systems and to drive down cost. What began as a series of 
discussions with industry has evolved into an ever growing set of 
targeted actions aimed at addressing the most critical challenges 
within the acquisition process. There are three things that 
differentiate BTCC from other acquisition reform efforts pursued in the 
past: a robust and proactive collaboration with industry; a focus on 
prompt and tangible actions; and an emphasis on measurable results. An 
improved dialogue with industry will enable us to better understand how 
processes, procedures, and the choices we make may inadvertently 
contribute to rising costs, the stifling of innovation, and slow 
processes. With that understanding BTCC can then implement initiatives 
designed to reverse the trend of escalating weapon system costs and 
development times.

                        test and training ranges
    87. Senator Lee. Secretary James and General Welsh, late last year 
the Air Force began a study into the future needs of test ranges and 
their infrastructure, a key to maintaining readiness and innovation in 
the force. What do you believe are the most critical needs for Air 
Force test ranges in order to enable your ranges to test fifth-
generation aircraft and weaponry against the threats that they will be 
facing in the coming decades?
    Ms. James and General Welsh. 5th generation aircraft and weapons 
need to be tested on updated open air ranges and in ground test 
facilities that present the system under test with an environment that 
represents existing and emerging threat systems worldwide, including 
Pacific theater threat systems. More specific details require a 
classified response. Further, our ranges need to be upgraded to address 
the increased distances for air-to-air and air-to-ground weapons 
employment inherent in our 5th gen systems. An example would be 
expanding the instrumented area in our Gulf Range. There are also 
enhancements required to our sensor, datalink, and propulsion 
facilities to fully accommodate development for 5th gen systems and 
beyond. Finally, we will need to make investments in our test and 
evaluation infrastructure to support continued relevance in testing. 
This would include technology updates for data collection and 
instrumentation systems in addition to basic facility sustainment, 
repair, and modernization.

                            strategic forces
    88. Senator Lee. Secretary James and General Welsh, you both should 
be commended for undertaking a review of Air Force's nuclear forces 
last year and your forward thinking outlook on this important 
enterprise. Can you please give us an update on your implementation of 
recommendations from this review and have been able to start tracking 
results of their implementation?
    Ms. James and General Welsh. We have made many positive changes and 
continue to implement and track Nuclear Enterprise Review follow-on 
actions through a systematic, deliberate, process structured to produce 
tangible and lasting improvements. Numerous recommendations with 
immediate solutions have already been implemented: increased manning in 
critical nuclear specialties at AFGSC and AFMC (over 1,250 mil/civ 
billets total), funded incentive pays for certain ICBM career fields, 
funded urgent equipment and facility maintenance requirements at 
missile wings, funded ROTC scholarships for cadets volunteering for 
ICBM duties, key quality of life improvements at AFGSC northern-tier 
bases, approval and implementation of the Nuclear Deterrence Operations 
Service Medal, updated tactical gear and uniforms for AFGSC Security 
Forces personnel that support ICBM operations, and the realignment of 
the Air Force Nuclear Weapons Center which will now be led by the head 
of our program-executive office for strategic systems.
    Long-term recommendations are also underway and will require long-
term investment, attention, and constant end-state evaluation. While 
the total sum of individual action items determines the success of any 
long-term solution, the individual results we see today are very 
encouraging.

                         air force space launch
    89. Senator Lee. Secretary James and General Welsh, the Senate 
Armed Services Committee report for the NDAA for fiscal year 2015 
includes an understanding that there are propulsion systems in addition 
to liquid rocket engines that could provide future capabilities that 
support requirements for medium and heavy launch vehicles and 
encourages the Department of the Air Force to continually review the 
potential for using such propulsion systems. To what extent is the Air 
Force studying the advances in technology like solid-rocket motors to 
fulfill some of your space-launch missions?
    Ms. James and General Welsh. The Air Force supported the change in 
language from ``liquid rocket engine'' to ``rocket propulsion system'' 
in order to not inadvertently prohibit review of the potential for 
using solid propulsion systems. The Air Force intends to consider solid 
rocket motors and casings industry proposals for technical maturation 
and risk reduction awards this year.

    90. Senator Lee. Secretary James and General Welsh, is the Air 
Force committed to ensuring that all propulsion providers, including 
solids, have the opportunity to participate in fair and open 
competition to develop the next generation, domestically produced 
engine?
    Ms. James and General Welsh. The responses to the Request For 
Information the Air Force published in August 2014 indicate there is a 
broad range of propulsion solutions, including solid rocket propulsion 
systems. The Air Force intends to consider both liquid engine and solid 
rocket motor proposals for our competitive technical maturation and 
risk reduction activities as well as our investment in rocket 
propulsion system and launch system development.

                         nato defense spending
    91. Senator Lee. General Odierno, you stated earlier this month 
that you were concerned about potential cuts to the British defense 
budget and the need for all allies to be able to invest more to address 
global issues. The reduced defense budgets of our allies are an issue 
that we have tried to address for over a decade with little success; 
what differently do you think the United States needs to do to 
encourage our allies to address their defense shortfalls?
    General Odierno. In such challenging times, it is important that we 
maintain sight of what history informs us--that the nature of warfare 
is enduring; and that in particular, it begins, develops, and ends in 
the human domain. But the character of warfare changes over time, as 
tactics, techniques, and technologies; and ideas and beliefs, evolve. 
So it is imperative--now more than ever--in the face of security 
threats abroad; and troop reductions and fiscal uncertainties at home; 
that our Army and our multinational allies and partners work 
collaboratively in pursuit of lasting solutions. We must work together 
to adapt and innovate in order to mitigate the many risks we face.

                        sergeant bergdahl report
    92. Senator Lee. Secretary McHugh, the Army's investigation into 
the disappearance of Sergeant Bowe Bergdahl was completed in October of 
last year. What is the current status of that report and timeline for 
action to be taken by the Army, and why has it taken nearly 6 months 
for the reported to be acted upon or released?
    Mr. McHugh. The investigating officer submitted his report of 
investigation for legal review in October 2014. The legal review was 
completed in late December 2014, at which time the report of 
investigation was provided to the Commander, United States Army Forces 
Command. Charges were preferred against Sergeant Bergdahl on March 25, 
2015, and further proceedings will be conducted in accordance with the 
Uniform Code of Military Justice.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                            audit readiness
    93. Senator Manchin. Secretary McHugh, Secretary James, General 
Odierno, and General Welsh, how do you plan on holding leaders 
accountable to make sure your Service is ready for a full financial 
statement audit by the end of fiscal year 2017, and what do you believe 
should happen if DOD misses that deadline?
    Mr. McHugh and General Odierno. The Army leadership is fully 
committed to achieving audit readiness. We have added audit readiness 
criteria to the annual performance metrics for all Senior Executive 
Service civilians. Additionally, we have incorporated audit readiness 
reviews into the Vice Chief's Strategic Readiness Updates (SRU). The 
SRU is how we hold Army senior leaders accountable for operational 
readiness. Incorporating review of progress toward our audit readiness 
goals into the SRU raises the visibility of the audit readiness 
efforts, and we believe this additional accountability has contributed 
to the progress.
    These initiatives as well as our semi-annual input to the DoD 
Financial Improvement and Audit Readiness Status Report to Congress 
ensures appropriate accountability in meeting our audit readiness 
milestones as we prepare for full financial statement auditability by 
the end of fiscal year 2017.
    Ms. James and General Welsh. Full financial statement audit 
readiness is an enterprise wide endeavor. Each one of our functional 
areas is impacted and we are applying considerable energy towards 
meeting the deadline. Our strategy is based on the fundamental of what 
is required for achieving audit readiness, which includes improving 
financial processes, correcting legacy system deficiencies directly 
impacting financial statements, and deploying a new accounting system. 
We are focusing our greatest efforts on areas that have the most 
material impact on our financial statement. The Air Force has a 
realistic expectation of having to undergo several audits before 
ultimately receiving a clean audit opinion. That is consistent with the 
experience of other federal agencies. The Air Force is on track to meet 
the September 30, 2017, goal and to sustain that audit culture as we 
continue to remediate deficiencies identified during the audit.
    Audit readiness is a high priority for the Department and we are 
convinced DoD will continue to work with the Congress to achieve full 
financial statement audit readiness.

           determining active component/reserve component mix
    94. Senator Manchin. Secretary McHugh and General Odierno, do you 
agree with the Reserve Forces Policy Board assessment of cost 
differences between the Active and Reserve Forces, and if not, what is 
your assessment?
    Mr. McHugh and General Odierno. Cost is but one of many criteria in 
determining an appropriate Active Component/Reserve Component (AC/RC) 
force mix. The annual, fully burdened cost of an ARNG Soldier is less 
than that of an AC soldier because the Guard Soldier is funded to train 
for 39 days a year while an AC Soldier is funded to train and be 
available for 365 days per year.
    But as reflected in a recent RAND Study (Assessing the Army's AC/RC 
Force Mix), there is no simple one-to-one cost comparison of AC and RC 
units due to differences in terms of time needed to train and frequency 
of deployments. RC unit operating costs are lower, on average, largely 
because RC units train less than full-time AC units. This difference 
results in longer response times for RC units in the event of a crisis. 
Units such as transportation, personnel, finance, and construction 
oriented engineering are generally cheaper to maintain in the RC 
because the skills required are on balance sustained with fewer 
training days and through civilian employment. However, complex 
organizations such as Brigade Combat Teams and Combat Aviation Brigades 
are far more cost effective and readily available in the AC because of 
the considerable training requirements for proficiency and the 
inability to easily sustain individual skills in civilian employment.
    We look forward to the Commission on the Future of the Army 
conducting further analysis of the cost differences between Active and 
Reserve Forces to ensure that we maintain fiscal effectiveness, are 
best postured, and have the right force mix in the years to come.

    95. Senator Manchin. Secretary McHugh and General Odierno, how does 
cost influence the Active and Reserve Force mix?
    Mr. McHugh and General Odierno. While cost is certainly a factor in 
determining Active Component/Reserve Component (AC/RC) Force Mix, cost 
must be weighed against responsiveness and flexibility.
    The Army agrees with the recent RAND Study (Assessing the Army's 
AC/RC Force Mix), which demonstrates that units such as transportation, 
personnel, finance, and construction oriented engineering are generally 
preferred in the RC because the skills required are relatively easily 
sustained with fewer training days and through civilian employment.
    After more than 13 years of war, the Army has concluded that the AC 
is best suited for unpredictable and frequent deployments into complex 
operational environments and for dealing with unexpected contingencies. 
The RC is best suited for predictable and infrequent deployments, for 
providing Title 32 support to state and local authorities, and for 
providing operational and strategic depth.
    We look forward to the Commission on the Future of the Army 
conducting further analysis of the cost differences between Active and 
Reserve Forces to ensure that we maintain fiscal effectiveness, are 
best postured, and have the right force mix in the years to come.

    96. Senator Manchin. General Odierno, in January 2014, you stated 
you believe the Active Duty Army should constitute 46 percent of the 
Total Army, and that if the Army has to draw down due to the budget, 
the Guard should be reduced to ensure the 46 percent ratio. How did you 
come up with the 46 percent ratio?
    General Odierno. In order to meet the reductions imposed by 
sequestration, we have worked over the past two years on a Total Force 
Policy that ensures the proper balance for the Active Component (AC), 
Army National Guard (ARNG) and U.S. Army Reserve (USAR).
    We started this journey with guidance from the Secretary of Defense 
that we not retain structure at the expense of readiness. With that, 
the Secretary of the Army and I wanted to be able to preserve our 
capabilities and capacity to implement the defense strategy as best we 
can within available funding while balancing forces (people and units), 
modernization (equipment), and readiness (training and education). The 
Secretary and I established a Task Force led by the Vice Chief of 
Staff, Army to identify and assess alternative approaches through an 
open and collaborative process. Various options were considered in 
meetings between the Chief, National Guard Bureau and the Vice Chief 
considering options, evaluating them not only on their potential 
savings, but just as importantly on the Army's ability to provide our 
combatant commanders with the forward, surge, and rotational forces 
they require on their contingency timelines. We considered Combatant 
Commander war-plan requirements, operational commitments, future 
requirements, costs, and necessary readiness levels. I closely 
monitored the workings of the Task Force and considered all options 
presented. To achieve our goals, we must balance the readiness and 
responsiveness inherent in our Regular forces with the depth and 
reduced cost of our Guard and Reserve forces to provide the best value 
to the American taxpayer at the least risk to mission success and the 
American Soldier.
    Taking all of this into consideration, we directed that cuts should 
come disproportionately from the AC before the ARNG or USAR. Our Total 
Force Policy was informed by lessons learned during more than 13 years 
of war. The plan we established recognizes the unique attributes, 
responsibilities, and complementary nature of the three Army 
components, while ensuring the ARNG and USAR are maintained as an 
operational, and not a strategic reserve.
    In addition, we look forward to the Commission on the Future of the 
Army conducting further analysis of the cost differences between Active 
and Reserve Forces to ensure that we maintain fiscal effectiveness, are 
best postured, and have the right force mix in the years to come.

                               readiness
    97. Senator Manchin. Secretary McHugh and General Odierno, over the 
past 13 years, the Army and Air National Guard have proven to be a 
battle-tested, ready operational force equal to the task when called to 
serve. The Guard has accomplished every task assigned to them by 
combatant commanders. How do you intend to keep readiness, training, 
and modernized equipment at a high level so the National Guard will 
remain an operational force?
    Mr. McHugh and General Odierno. We recognize the significant 
contributions made by the Army National Guard (ARNG) as a part of the 
Total Force and can ill-afford to allow the skills and competencies to 
atrophy. Our goal is to maintain the ARNG as an operational reserve, a 
key component in meeting mission requirements at home and abroad. To 
accomplish this, the Army continues to increase the mix of ARNG 
formations at our Combat Training Centers and Warfighter events.
    We will partner Active Component (AC) and ARNG formations during 
annual training and will conduct integrated pre-deployment collective 
training to capitalize on the experience and lessons learned during the 
last 13 years of war. The recent Bold Shift Initiative reorganized 1st 
U.S. Army to be more responsive to pre-mobilization training support 
for ARNG formations while retaining capability to conduct post-
mobilization operations. The combined effect of these initiatives will 
enhance ARNG readiness.

                  accessibility of the national guard
    98. Senator Manchin. General Odierno, since September 11, 2001, how 
many National Guard units have failed to meet a Federal mobilization 
requirement?
    General Odierno. The Joint Sourcing Process looks at all forces and 
their ability to meet Combatant Commander requirements; meaning, 
generally, that units are only placed against requirements they are 
capable of meeting. The Army National Guard has met every requirement 
we have given them through this process.

    99. Senator Manchin. General Odierno, how many Governors have 
rejected a Federal mobilization requirement?
    General Odierno. No Governor has rejected any federal mobilization 
requirement since September 11, 2001.

                         total force construct
    100. Senator Manchin. Secretary James and General Welsh, it appears 
that the Air Force has fully embraced the Total Force construct to 
maintain and grow capability and human capital at a cost our Nation can 
afford. Do you believe you are achieving success and will this approach 
allow you to free up assets to assist in recapitalizing the Air Force 
to meet the future threats we face?
    Secretary James and General Welsh. Yes. While growth in the Reserve 
Component provides an immediate, effective, and affordable option to 
reduce risk and meet near-term demand, there are some mission areas and 
platforms where growth in the Active Component is also necessary. We 
are committed to finding the right balance between resources and 
components to ensure we have the most effective and efficient Air Force 
possible.

    101. Senator Manchin. Secretary James and General Welsh, what 
policies and support do you need from this committee and this Congress 
to help you achieve full integration and long term success and 
stability?
    Ms. James and General Welsh. The Air Force cannot return to Budget 
Control Act (BCA) level funding and meet Defense Strategic Guidance 
requirements. The President's Budget (PB) takes a critical step toward 
recovering the needed funding levels that will allow us the stability 
we need to be successful. Our analysis indicates we must leverage 
opportunities to eliminate excess infrastructure to free-up scarce 
resources for our readiness and modernization accounts.
    The Air Force is also studying 28 human capital related initiatives 
that may require legislation to implement. We will need Congressional 
support on various Total Force initiatives, as many of the initiatives 
are groundbreaking. One proposal will allow the Air Force to use 
Reserve Component instructor pilots more efficiently across components. 
Congressional approval of this initiative is vital to enabling further 
integration at flying training units.
    Another example of important legislative change includes an 
amendment enabling the Services to provide equitable death benefits for 
Reserve Components. We look forward to working with Congress as we 
transform into a more seamless and integrated Air Force.

                                 ______
                                 
              Question Submitted by Senator Jeanne Shaheen
       blood testing for perfluorooctane sulfonate acid exposure
    102. Senator Shaheen. Secretary James, in May 2014, city officials 
in Portsmouth, NH, closed the Haven drinking-water well located on the 
site of the former Pease Air Force Base after the Air Force found 
perfluorooctane sulfonic acid in the well at levels ten times higher 
than the provisional health advisory set by the Environmental 
Protection Agency. As a result of this finding, New Hampshire's 
Department of Health and Human Services is working to develop a means 
to test for possible chemical exposure for my constituents who work at 
Pease, as well as the young children in daycare on site there. However, 
New Hampshire State officials are concerned that the associated cost 
for this testing could be prohibitively expensive. I deeply appreciate 
the Air Force's well-demonstrated willingness to rectify issues related 
to contamination at Pease in the past. Is the Air Force also willing to 
work with officials in New Hampshire to ensure that those who may have 
been exposed to harmful levels of this chemical are tested to ensure 
there is not a threat to their health?
    Ms. James. The Air Force is supportive of actions that effectively 
contribute to protecting human health and the environment. The 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA) places the federal authority and responsibility for conducting 
public health assessments of the effects of contamination with the 
Agency for Toxic Substances and Disease Registry (ATSDR), which is 
under the U.S. Department of Health and Human Services. ATSDR has the 
appropriate expertise to independently review the health risk posed by 
PFCs at Pease International Tradeport and determine the need for 
further actions including blood testing.
    In the meantime the Air Force continues to focus its efforts on 
stopping human exposure to releases of the contaminant attributable to 
the Air Force. Under the CERCLA, the Air Force may fund environmental 
response actions necessary to address unreasonable risks to human 
health and the environment attributable to releases of hazardous 
substances, pollutants, or contaminants from Air Force activities. 
These actions may include identifying and removing the sources of 
ground water contamination, halting further migration of contaminants, 
and providing alternate sources of drinking water. The Air Force 
sampled the Haven Well and notified city officials about the results 
and they immediately shut down the well. The Air Force performed 
further sampling of public and private wells and identified one private 
residence well that had PFC levels above the Environmental Protection 
Agency's provisional health advisory level. The Air Force funded the 
installation of a water treatment system in the private residence. The 
Air Force is working with city officials to determine the best location 
for a new drinking water well for the city. Air Force is also 
conducting follow-on testing for all public water wells, monitoring 
wells, and surrounding community public wells and also 30 private wells 
to verify the PFC levels do not increase above the Environmental 
Protection Agency's provisional health advisory.
                                 ______
                                 
             Question Submitted by Senator Martin Heinrich
                           technology buying
    103. Senator Heinrich. General Odierno, the committee is 
considering major legislation which will change the way the Department 
of the Army buys new technology. One of the major considerations is our 
ability to leverage commercial innovation over building legacy systems 
from scratch. Greater commercial integration can save money for the 
Department of the Army and hasten the deployment of needed technologies 
to the battlefield. The Army's DCGS-A system seems to be at a critical 
crossroads with the program considering a proposed 2-year development 
cycle to develop capabilities that may already be available for 
purchase from commercial vendors and fielded with other government 
agencies. Can your staff provide a briefing to my staff about how it is 
implementing this goal within the Increment 2 process?
    General Odierno. The Army will maximize competition among 
commercial vendors and harvest ``best of breed'' technologies to 
support the timely, secure, and effective exchange of intelligence 
information. DCGS-A Increment 2 will have a full and open competition 
in fiscal year 2016. The program will incorporate existing commercial 
technologies, but these tools must be able to interact with other 
Intelligence and Command and Control commercial and government software 
applications. A two year development cycle is necessary to ensure the 
software applications are integrated, tested, and certified prior to 
fielding. The Army will work with your staff to set up a briefing to 
discuss how the Army integrates existing commercial products into the 
DCGS-A, Increment 2 program.

    [Whereupon, at 5:17 p.m., the committee adjourned.]



 DEPARTMENT OF DEFENSE AUTHORIZATION REQUEST FOR FISCAL YEAR 2016 AND 
                    THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 19, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

  U.S. STRATEGIC COMMAND, U.S. TRANSPORTATION COMMAND, AND U.S. CYBER 
                                COMMAND

    The committee met, pursuant to notice, at 9:36 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Hon. John McCain, 
chairman of the committee, presiding.
    Committee Members Present: Senators McCain [presiding], 
Inhofe, Sessions, Wicker, Fischer, Cotton, Ernst, Tillis, 
Sullivan, Lee, Reed, McCaskill, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee meets today 
for its annual posture hearings on U.S. Strategic Command, U.S. 
Transportation Command, and U.S. Cyber Command.
    I'd like to welcome our witnesses today, and thank them for 
their honorable service.
    For nearly 70 years during the cold war, deterrence 
provided a strong foundation for strategic ability and 
predictability. Despite frequent tensions throughout this time, 
we knew who our enemies were, we knew what they were capable 
of, and, as a result, we were able to develop deterrence 
strategies by making our intent known, regularly demonstrating 
our capabilities, and continuously training to hone our skills. 
Asymmetric threats were a concern, but global stability was won 
or lost at the nuclear level. The U.S. Homeland was beyond the 
reach of all but the most advanced long-range missiles.
    As Henry Kissinger explained to this committee in January, 
world order today is being defined not by, ``objective 
strength,'' but by psychological contests and asymmetric war. 
Existing world war--order is being redefined.
    Our hearings today, while part of our annual combatant 
commander posture hearings, provides us with an opportunity to 
hear from our witnesses how this changing world order impacts 
their missions and strategic thinking. Dr. Kissinger, before 
this committee, also noted that, ``serious attention must be 
given to the lagging modernization of our strategic forces.''
    Indeed, while spending on U.S. nuclear forces has declined 
over the last two and a half decades, Russia and other nuclear 
powers are increasing reliance on their nuclear forces. Today, 
Russia thinks strategically about the role of nuclear weapons, 
space, and cyber in its national security strategy; in 
particular, its strategy in eastern Europe. Russia used cyber 
capabilities in Estonia, Georgia, and Ukraine. It is 
weaponizing space with new anti-satellite capabilities. It has 
updated its nuclear doctrine and has threatened to deploy dual-
capable systems in Crimea. Its long-range bombers penetrate 
U.S. and allied defensive zones more frequently. Russia is 
developing a nuclear ground-launch cruise missile, in violation 
of the 1987 Intermediate Range Nuclear Forces (INF) Treaty, and 
the Russian military is pursuing modernization across the 
entire suite of nuclear systems. Russia is likely--Russia 
likely is using its nuclear and cyber capabilities to 
intimidate and coerce North Atlantic Treaty Organization (NATO) 
as part of its broader strategy to prevent the West from 
intervening in its invasion of the Ukraine.
    It's not just Russia. Admiral Haney notes that, ``Nuclear 
weapons ambitions are increasing the risk that others will 
resort to weapons of mass destruction, coercion, and regional 
crises or Weapons of Mass Destruction (WMD) use in future 
conflicts.'' This warning is more dire, given the decline in 
NATO Europe's military capabilities and the deterioration in 
U.S. readiness from budget constraints. We will want to hear 
from Admiral Haney whether the President's Budget request for 
nuclear forces allows us to maintain and modernize the U.S. 
nuclear triad and ensure that replacement systems are available 
within when our aging nuclear submarines, bombers, and ICBMs 
face retirement, next decade.
    Admiral Haney, we also look forward to your assessment of 
the increasingly serious threats that the United States faces 
in space. The fact is, some states are actively militarizing 
space, to our detriment, and we need to develop a strategy with 
full resourcing of the ways and means to defend against this 
growing threat.
    With respect to Cyber Command, the North Korean attack on 
Sony illustrated how cyber warfare has reshaped the 
battlefield. As I have said, this incident and its apparent 
success will breed future and more significant attacks, and has 
exposed serious flaws in the administration's cyber strategy. 
The failure to develop a meaningful cyber deterrence strategy 
has increased the resolve of our adversaries, and will continue 
to do so at a growing risk to our National security until we 
demonstrate that the consequences of exploiting the United 
States through cyber greatly outweigh any perceived benefit.
    Our ability to keep pace with the cyber threat and deter 
aggression requires that we effectively train, arm, and equip 
the over-6,000-person cyber force we are currently building. 
The fiscal year 2016 budget includes $5.5 billion in cyber 
investments. Unfortunately, as it turns out, the budget is 
disproportionately focused on network infrastructure, with only 
8 percent of that $5.5 billion allocated for Cyber Command and 
the development of our cyber mission forces. I'm concerned that 
a strategy too heavily weighted toward defense is a losing 
strategy. Moreover, at the current levels of investment, we are 
at great risk of having a hollow cyber force.
    For U.S. Transportation Command, just last year this 
committee conducted an exhaustive investigation of the cyber 
threats facing TRANSCOM. According to the Pentagon, Chinese 
military analysts, for example, have identified logistics and 
mobilization as potential U.S. vulnerabilities. Given 
Transportation Command's dependence upon the private sector and 
the fact that the vast majority of their business is conducted 
on unclassified networks, this committee felt it important to 
enhance the Department's ability to share information with its 
critical transportation contractors in the system in detecting 
and mitigating cyber attacks.
    Additionally, U.S. Transportation Command faces challenges 
from the reduction of the size and scope of U.S. forces in 
their deployments overseas. As a result, Transportation Command 
must intelligently reduce and streamline its budget and 
management infrastructures while maintaining the ability to 
expand rapidly to react to future contingencies.
    As Dr. Kissinger stated, the role of the United States in 
indispensable--is indispensable, especially in a time of global 
upheaval. Failing to maintain nuclear deterrents, modernize the 
nuclear triad, defend ourselves in space, and establish 
effective cyber deterrents will threaten American leadership.
    I thank our witnesses for being here today, and look 
forward to their testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in welcoming our witnesses, and thank them 
for their service to the Nation. Please pass on our thanks to 
the men and women who serve in your commands.
    Admiral Haney, the U.S. Strategic Command is responsible 
for developing a wide range of deterrence strategies, whether 
it's the realm of nuclear space or cyber space, to ensure that 
potential adversaries understand the high price they will incur 
if our homeland or its assets around the world are attacked. 
One of the most important deterrence strategies is our nuclear 
triad. All three legs of the triad need to be modernized. We 
need to build the Ohio-class replacement submarine, procure the 
long-range strike bomber, and begin the process to replace 
their Intercontinental Ballistic Missiles (ICBMs).
    Over the next 10 years, this modernization process will 
cost approximately $35 billion annually, which is about 3 to 4 
percent of our current Defense Department budget. Given the 
importance of our triad, but also acknowledging the fiscal 
reality, Admiral Haney, how does this Department of Defense 
ensure that these modernization priorities remain in place? 
That's a issue I hope you'll address in your testimony.
    General Selva, Transportation Command (TRANSCOM) is the 
unsung hero of the combatant commands. You are key to every 
other command receiving the resources it needs, yet you receive 
little publicity or credit. I think you like the credit; the 
publicity, you could do without. But, anyway, the credit is 
deserved. Let me thank you and your men and women in your 
command for what you do every day.
    Like other commands, TRANSCOM does face a number of 
daunting issues. First, TRANSCOM has to rely on other agencies 
and the private sector for a portion of its aircraft. The Ready 
Reserve Force, a group of cargo ships held in readiness by the 
Maritime Administration, is aging and will need to be 
modernized over the next decade. I am interested to know if 
there's a plan to do this, and the funds apportioned to 
accomplish this mission.
    TRANSCOM also works with the private sector with the 
Civilian Reserve Air Fleet, or the CRAF program, which has 
provided as much as 40 percent of the wartime airlift needs. 
I'm interested in hearing how TRANSCOM plans to keep crafts 
viable after military operations in Iraq and Afghanistan 
conclude and wind down, and the plan to provide needed surge 
capacity for the future.
    Also, because it must work with private-sector entities in 
the transportation and shipping industries to support 
Department of Defense (DOD) deployment operations, TRANSCOM 
faces a unique set of cyber threats. The Chairman alluded to 
them in his comments. Last year, the committee issued a report 
on certain aspects of TRANSCOM's cybersecurity situation. 
General Selva, I'd like to hear what steps you've taken to 
accomplish those missions.
    Admiral Rogers, North Korea and Iran have both executed 
very destructive attacks on domestic economic targets, with the 
cyber attacks on Sony Corporation and the Sands Casino in Las 
Vegas, respectively. However, we are not currently postured to 
deter such attacks. I would appreciate your insights on what 
steps must be taken so that private entities are not left alone 
to face attacks from nation--states.
    Also, as the cyber threat evolves, Cyber Command itself 
remains a work in progress. It now has about half of its 
planned cyber mission forces, but lacks adequate training 
ranges and the equipment and tools necessary to plan, control, 
execute, and assess robust military operations in cyber space. 
We would certainly like your comments on this issue.
    Let me again thank the witnesses. I look forward to the 
testimony.
    Chairman McCain. Welcome, Admiral Haney.

   STATEMENT OF ADMIRAL CECIL D. HANEY, USN, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    Admiral Haney. Chairman McCain, Senator Reed, and 
distinguished members of the committee, with your permission 
I'd like to have my full statement made part of the record.
    Chairman McCain. Without objection.
    Admiral Haney. I am honored to join you today, along with 
the other witnesses here, and I thank them for their 
leadership.
    Your Strategic Command executes a diverse set of global 
responsibilities that directly contribute to national security. 
I can say with full confidence that, today, Strategic Command 
remains capable and is ready to meet our assigned missions, and 
our strategic nuclear forces are safe, secure, and effective.
    The current goal--global security environment, as you've 
mentioned, is more complex and dynamic and uncertain than at 
any time in recent history, as state and nonstate actors 
challenge our democratic values and our security in so many 
ways. We see emerging capabilities from adversaries or 
potential adversaries, to include but not limited to the 
modernization of strategic nuclear capabilities. Counterspace 
and cyberspace activities, conventional and asymmetric threats, 
and disturbing trends undermine the strategic balance, giving 
rise for concern for our Nation and our allies and partners.
    Russia is of particular interest, given their activities in 
Ukraine and Crimea, violations in the INF Treaty, and a 
significant number of long-range strategic aircraft flights 
penetrating United States and ally air defense identification 
zones, while not just modernizing but demonstrating significant 
capacities with integrated strategic operation nuclear-force 
exercises during heightened tensions. Russia is developing and 
using significant cyber capabilities and is committed to 
developing counterspace capabilities.
    China is growing and developing its strategic capabilities. 
Their demonstrated counterspace capabilities in cyberspace 
intrusions are of concern. At the same time, China is investing 
in strategic nuclear-force mobility with mobile 
intercontinental ballistic missiles and their SSBN submarine 
fleet.
    Additionally, Iran, North Korea, Pakistan missile tests 
portend new challenges in nonproliferation of missile 
technologies and potential weapons of mass destruction 
payloads.
    My U.S. Strategic Command team remains focused on deterring 
strategic attack and assuring allies by providing combat 
support to our joint military forces and other combatant 
commands across the spectrum of their operations to support 
national security and strategic stability. Strategic deterrence 
today is much more than just nuclear weapons, although it is 
underpinned, first and foremost, by our nuclear capabilities. 
Strategic deterrence includes a robust intelligence apparatus, 
space, cyber, conventional, and missile defense capabilities, 
treaties, and comprehensive plans that link organizations and 
synchronize capabilities.
    Ultimately, our deterrence capabilities must remain 
credible in order to convince adversaries the cost of 
escalation is far greater than any benefit they seek. This 
drives my six command priorities: to deter strategic attack; 
provide our Nation with a safe; secure and effective nuclear 
deterrent force; build enduring relationships with partner 
organizations to confront the broad range of global challenges; 
address challenges in space; build cyberspace capability and 
capacity, while anticipating change and confronting uncertainty 
with agility and innovation.
    Achieving strategic deterrence in the 21st century must be 
a national priority that requires continued investment in 
strategic capabilities and a renewed multigenerational 
commitment of intellectual capital. These investments, seen 
holistically, are our Nationals--Nation's insurance policy. 
While that policy cost is not insignificant, when you think of 
all it ensures, it is of great value.
    We seek to recapitalize our strategic capabilities, not 
because we have always had them, but because they deter the 
threats we face today and expect to do the same in the 
foreseeable future. My near-term funding requirements are 
sustainment and modernization of our nuclear triad, which 
includes the Ohio replacement program, long-range strike 
bomber, the 3+2 warhead strategy, and groundbased strategic 
deterrent initiative; modernization of our National nuclear 
command and control and communication architecture--we must 
have assured command and control; developing resiliency in 
space, including robust space situational awareness; building 
and fielding and equipping cyber teams; improving homeland 
missile defense capability, while improving foundational 
intelligence.
    The President's Budget for 2016 strikes a responsible 
balance between national priorities and fiscal realities, and 
begins to reduce some of the risk we have accumulated because 
of deferred maintenance and sustainment. This budget supports 
my mission requirements, but there is no margin to absorb new 
risk. Any cuts to this budget, including those imposed by 
sequestration, will hamper our ability to sustain and modernize 
our military forces. Without relief from the Budget Control 
Act, we will experience significant risk in providing the 
United States with the strategic capabilities it needs, and I'm 
concerned that we risk losing faith with our current All-
Volunteer Force, thus hampering our ability to recruit the next 
generation of strategic warriors. As a Nation, we cannot afford 
to underfund these strategic missions.
    As you know, the Secretary of Defense directed an internal 
and external review of the entire Department of Defense nuclear 
enterprise. I concur with the review's conclusions and support 
the planned investments in the nuclear enterprise that will 
ensure the future safety, security, and effectiveness of the 
force. None of this--none of this work I've described can be 
done without the trained, ready, and motivated people. They are 
our most precious resource.
    Your continued support, together with the ongoing work of 
the outstanding men and women of U.S. Strategic Command, will 
ensure we not only remain ready, agile, and effective in 
deterring strategic attack and ensuring our allies and 
partners, but are able to create additional opportunities to 
better address future threats.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Admiral Haney follows:]

           Prepared Statement of Admiral Cecil D. Haney, USN
                              introduction
    Mr. Chairman and distinguished members of the committee, I am 
honored to join you today. I appreciate the opportunity to testify 
about the posture of United States strategic forces, my assessment of 
the President's Fiscal Year 2016 (FY16) Budget, and how United States 
Strategic Command (USSTRATCOM) is confronting today's complex global 
security environment. I am also pleased to be here with General Paul 
Selva, Commander of United States Transportation Command; and Admiral 
Mike Rogers, Commander of United States Cyber Command. I thank Congress 
and this committee for your support to our Nation's defense.
    I am pleased to report that USSTRATCOM remains capable and ready to 
meet our assigned missions and that the Nation's strategic nuclear 
deterrent force remains safe, secure, and effective. USSTRATCOM is 
focused on deterring strategic attack and providing assurance to our 
allies while providing combat support to our Joint Military Forces and 
other Combatant Commands across the spectrum of their operations to 
support national security and strategic stability. While executing our 
global responsibilities, we made progress toward forging enduring 
partnerships with agencies and organizations across the U.S. 
government, commercial industry, and Allied nations. We took part in a 
number of vigorous exercises and thought-provoking wargames, and we 
participated in and conducted penetrating reviews of our nuclear 
enterprise.
    Having traveled extensively to meet first-hand the men and women 
who carry out and support our strategic missions, I can personally 
attest to the talent, dedication and professionalism of the military 
and civilian personnel conducting these missions. Without doubt, our 
success to date is largely due to those who dedicate themselves to 
national security in spite of uncertainty and resource challenges. I 
want to publicly acknowledge their service and devotion to duty and 
country.
    Today's complex and dangerous global security environment demands 
that we properly sustain and modernize our strategic capabilities. The 
President's Fiscal Year 2016 Budget strikes a responsible balance 
between national priorities and fiscal realities, and begins to reduce 
some of the risk we have accumulated because of deferred maintenance 
and sustainment as we pursue modernization. This budget supports my 
mission requirements, but I remain concerned that if we do not receive 
relief from the Budget Control Act, we will experience significant risk 
in providing the U.S. with the strategic capabilities it needs. We 
cannot as a Nation afford to underfund these vital missions.
                      global security environment
    The world today remains complex, dynamic, and uncertain. The 
military capabilities of nation states and non-state actors are 
improving across all domains. Nations around the world continue to 
execute long-term military modernization programs, including 
capabilities that pose an existential threat to the United States. 
Additionally, non-state actors show increasing ability to strategically 
impact worldwide stability and the security of the U.S. and our key 
allies. Nuclear weapon ambitions and nuclear, chemical and biological 
technologies proliferation continue, increasing the risk that others 
will resort to Weapons of Mass Destruction (WMD) coercion in regional 
crises or WMD use in future conflicts.
    Russia took a number of troubling actions in 2014: intrusions into 
Ukraine, to include the attempted annexation of Crimea, violation of 
the Intermediate-range Nuclear Forces Treaty, long-range bomber flights 
penetrating U.S. and Allied defensive zones, and strategic force 
exercises conducted in the midst of the Ukraine crisis. Russia has 
pursued more than a decade of investments and modernization across 
their strategic nuclear forces. Russia also has significant cyber 
capability, as evidenced by events in Estonia, Georgia and Ukraine. 
Russia has also publicly stated they are developing non-nuclear 
precision-strike, cyber and counter-space capabilities, and Russian 
leaders openly maintain that they possess anti-satellite weapons and 
conduct anti-satellite research.
    China is increasingly using low intensity coercion to advance its 
near abroad agenda with respect to sovereignty disputes. Combined with 
an overall lack of military transparency, its investment in 
capabilities such as counterspace technologies raises questions about 
China's global aspirations. According to the International Monetary 
Fund, China's gross purchasing power recently exceeded our own for the 
first time. China is using that wealth to modernize its strategic 
forces by enhancing existing silo-based ICBMs, conducting flight tests 
of a new mobile missile, and developing a follow-on mobile system 
capable of carrying multiple warheads. Strategic modernization extends 
to naval capabilities as China continues testing and integration of new 
ballistic missile submarines, their first sea-based strategic nuclear 
deterrent. China is also developing multi-dimensional space 
capabilities supporting their access-denial campaign. With more than 60 
nations operating satellites in space, China needs to be more 
forthcoming about missile tests that appear to be more focused on the 
development of destructive space weapons. China has also made headlines 
associated with exploitation of computer networks.
    Other states such as North Korea, Iran, and Pakistan are working to 
advance their strategic capabilities. North Korea in particular 
continues work to advance their nuclear ambitions, to include 
conducting multiple nuclear tests and claiming a miniaturized warhead 
capable of delivery by ballistic missile. At the same time, North Korea 
continues to advance its ballistic missile capability, including the 
development of a new road-mobile ballistic missile and a submarine-
launched ballistic missile; and develop its offensive cyber 
capabilities.
    We remain concerned about Iran's nuclear activities and as a 
government remain dedicated to preventing them from acquiring a nuclear 
weapon. I remain hopeful that the P5-plus-1 negotiations will have the 
desired effect. Like North Korea, there are also public examples of 
Iran's cyber activities and capabilities.
    Ungoverned or ineffectively governed regions remain incubators for 
those who seek to attack targets in--and the values of--democratic 
societies across the globe. Terrorist threats continue to morph in both 
substance and style, and Violent Extremist Organizations (VEOs) recruit 
and operate freely across political and social boundaries. While 
natural biological threats such as Ebola challenge our capacity to 
contain and control them, WMD in the hands of unrestrained VEOs could 
prove catastrophic. Such a scenario highlights the importance of our 
countering WMD and our non-proliferation efforts. Finally, the Assad 
regime continues to engage in low-level tactical use of toxic 
industrial chemicals as weapons in Syria, while failing to fully 
address the omissions and discrepancies in its chemical weapons 
declaration to the Organization for the Prohibition of Chemical 
Weapons.
    Space systems continue to enable a wide range of services, 
providing vital national, military, civil, scientific, and economic 
benefits to the global community. As the number of space-faring nations 
and commercial enterprises continue to grow, the space domain is 
becoming increasingly congested, contested, and competitive. Given the 
counter space initiatives by Russia, China, and others, we must 
continue to reinforce the peaceful use of space while ensuring 
continued space operations through partnerships and resiliency.
    Our dependence on cyberspace and the electromagnetic spectrum (EMS) 
creates risk. The worldwide cyber threat continues to grow, with state 
and non-state actors targeting U.S. networks on a daily basis. Today, a 
small number of cyber actors have the potential to create large-scale 
damage. While most cyber threats can be characterized as criminal in 
nature, wide-ranging intrusions and attacks have threatened critical 
infrastructure and impacted commercial enterprise. Likewise, our use of 
the EMS has become so commonplace that we largely take spectrum access 
for granted. The global proliferation of once-restricted technologies 
allows adversaries and potential adversaries to directly challenge our 
freedom of maneuver and our ability to operate in the EMS and in 
cyberspace.
    Finally, uncertainty continues to manifest in other ways such as 
social unrest and turmoil, regional competition for scarce resources 
and economic opportunities, naturally occurring phenomena such as 
climate change and disease, and rapid proliferation of empowering 
technologies. Additionally, the concept of mating advanced weapon 
systems with commonplace items--such as surface-to-surface cruise 
missiles disguised as shipping containers--blurs the line between 
military and civilian environments and complicates our deterrence 
calculus.
                     usstratcom in the 21st century
    USSTRATCOM counters these diverse and complex threats through the 
execution of its fundamental mission: to deter and detect strategic 
attacks against the U.S. and our allies, and to defeat those attacks if 
deterrence fails. USSTRATCOM is assigned nine distinct 
responsibilities: Strategic Deterrence; Space Operations; Cyberspace 
Operations; Global Strike; Joint Electronic Warfare; Missile Defense; 
Intelligence, Surveillance and Reconnaissance; Countering Weapons of 
Mass Destruction; and Analysis and Targeting. These diverse assignments 
are strategic in nature, global in scope, and intertwined with Joint 
Force capabilities, the interagency and the whole of government. Each 
mission supports or is interconnected with the others, and their 
combined capabilities create the conditions for strategic deterrence 
against a variety of threats.
    Deterrence is a fundamentally human endeavor, firmly rooted in 
psychology and social behavior. At the most basic level, deterrence is 
achieved through one of two mechanisms. The first is an aggressor's 
recognition that unacceptable costs may be imposed for taking an action 
and recognition that forgoing said action may avoid these costs. The 
second is an aggressor's belief that the contemplated action will not 
produce its perceived benefit, or that not acting will produce a 
greater perceived benefit. These elements combine to convince potential 
adversaries that they will not succeed in an attack, and even if they 
try, the costs will far outweigh the benefits and thus restraint is the 
preferred choice. These fundamental elements of deterrence are well 
understood, and are supported by USSTRATCOM's capabilities.
    Strategic deterrence in the 21st century is far more than just 
nuclear, although our nuclear deterrent remains the ultimate guarantor 
of our security. It includes a robust intelligence apparatus; space, 
cyber, conventional, and missile defense capabilities; and 
comprehensive plans that link organizations and knit their capabilities 
together in a coherent way. America's nuclear deterrent--a synthesis of 
dedicated sensors, assured command and control, the triad of delivery 
systems, nuclear weapons, enabling infrastructure, trained ready 
people, and treaties and non-proliferation activities--remains 
foundational to our national security and has been a constant thread in 
the geopolitical fabric of an uncertain world. The likelihood of major 
conflict with other nuclear powers is remote today, and the ultimate 
U.S. goal remains the achievement of a world without nuclear weapons. 
Until that day comes, the U.S. requires a safe, secure and effective 
nuclear deterrent force, even as it continues to reduce its nuclear 
stockpile and the number of deployed nuclear warheads. As stated in the 
2014 Quadrennial Defense Review (QDR), our nuclear deterrent 
capabilities `` . . . deter nuclear attack on the United States, as 
well as on our allies and partners'' and communicate `` . . . to 
potential nuclear-armed adversaries that they cannot escalate their way 
out of failed conventional aggression.''
    USSTRATCOM efforts are guided by my six overarching priorities. My 
number one priority is to deter strategic attack. Strategic attacks can 
occur through a variety of mechanisms in any domain and are defined by 
their scope and their decisive negative outcomes for the Nation. They 
may impact many people or systems, affect large physical areas, act 
across great distances, persist over long periods of time, disrupt 
economic or social structures, or change the status quo in a 
fundamental way. We must continue our efforts to deter strategic 
threats to global stability.
    Second, we will provide the Nation with a safe, secure and 
effective nuclear deterrent force. Foundational documents such as the 
2010 Nuclear Posture Review, the 2013 Report on Nuclear Weapons 
Employment Strategy, and the 2014 QDR have consistently repeated this 
mandate. It is my responsibility to provide our Nation with a viable 
and credible nuclear deterrent force as long as nuclear weapons exist.
    Third, we will build enduring relationships with partner 
organizations to confront the broad range of global challenges. We aim 
to work seamlessly across the federal government, commercial sector, 
and with partners and Allies to apply the breadth of USSTRATCOM 
capabilities toward a synchronized pursuit of national objectives. 
Robust interaction occurs at all levels in our organization and 
includes operations, exercises and wargames with other Combatant 
Commands and Allies.
    Fourth, we will continue to address challenges in space. Space 
capabilities remain foundational to our way of life, yet are 
increasingly vulnerable to hostile actions. Robust space domain 
awareness remains central to our ability to maintain an advantage in 
space.
    Fifth, we must continue to build cyberspace capability and 
capacity. Cyberspace supports operations extensively in all of my 
mission areas and has become a critical facet of national power. We 
must continue to develop a robust cyber mission force with the 
authorities, skills, and resources to protect against a maturing set of 
cyber threats.
    Finally, geopolitical and fiscal realities demand that we 
anticipate change and confront uncertainty with agility and innovation. 
Sound decision-making requires thorough analysis to prioritize our 
activities along with flexible, agile, adaptable thinking and systems. 
I fully support the Defense Innovation Initiative and the associated 
Advanced Capability and Deterrence Panel. These efforts will help us 
identify new operational concepts, develop cutting edge technology, and 
enable a continuing evolution of ideas on how to deter current and 
potential adversaries.
                mission area capabilities & requirements
    Even the best analysis will never be error free, so we must 
maintain adequate readiness to confront uncertainty. Prioritizing 
resources to meet our requirements requires a thoughtful assessment of 
national priorities in the context of fiscal realities. The President's 
Fiscal Year 2016 Budget supports my mission requirements, but there is 
no margin to absorb risk. Any cuts to that budget--including those 
imposed by sequestration--will hamper our ability to sustain and 
modernize our military forces, and will add significant risk to our 
strategic capabilities now and in the future.
Nuclear Deterrent Forces
    In the wake of a series of events involving the Nation's nuclear 
forces and their leadership, Secretary Hagel directed an internal and 
external review of the entire Department of Defense (DOD) nuclear 
enterprise. The reviews concluded that while our nuclear forces are 
currently meeting the demands of the mission, we needed to make 
significant changes to ensure the future safety, security, and 
effectiveness of the force. I fully support planned investments in the 
nuclear enterprise that will improve and sustain current equipment in 
response to these reviews.
    Our nuclear deterrent is the ultimate insurance against a nuclear 
attack on the United States. We must commit to investments that will 
allow us to maintain this insurance in a safe and secure way for as 
long as nuclear weapons exist, or risk degrading the deterrent and 
stabilizing effect of a credible and capable nuclear force. Today we 
spend less than 3 percent of the DOD budget on nuclear capabilities. As 
stated by the Congressional Budget Office, recapitalization investments 
that are necessary to ensure safety and security will increase this 
number to ``roughly 5 percent to 6 percent.''
    Sensors. Strategic missile warning remains one of our most 
important missions. Along with persistent and tailored intelligence 
capabilities, our Integrated Tactical Warning and Attack Assessment 
network of sensors and processing facilities provide timely, accurate, 
unambiguous, and continuous tactical early warning and allow us to 
select the most suitable course of action in rapidly developing 
situations. The Defense Support Program is nearing the end of its 
operational life, but the Space-Based Infrared System program is on 
track to provide continuous on-orbit capability. The survivable and 
endurable segments of these systems, along with Early Warning Radars 
and nuclear detonation detection elements, are in urgent need of 
continued simultaneous sustainment and modernization. We must continue 
to maintain legacy systems at ever-increasing risk to mission success. 
Prompt and sufficient recapitalization of these critical facilities and 
networks--to include electromagnetic pulse protection and survivable 
endurable communications with other nodes in the system--will be 
central to maintaining a credible deterrent. I fully support continued 
investment in this critical area.
    Nuclear Command, Control and Communications (NC3). Assured and 
reliable NC3 is fundamental to the credibility of our nuclear 
deterrent. The aging NC3 systems continue to meet their intended 
purpose, but risk to mission success is increasing as key elements of 
the system age. The unpredictable challenges posed by today's complex 
security environment make it increasingly important to optimize our NC3 
architecture while leveraging new technologies so that NC3 systems 
operate together as a core set of survivable and endurable capabilities 
that underpin a broader, national command and control system.
    I appreciate Congress' direction last year to establish the Council 
on Oversight of the National Leadership Command, Control and 
Communications System (CONLC3S). The CONLC3S has proven effective in 
bringing NC3 stakeholders together to synchronize and prioritize NC3 
modernization efforts, and then articulate those priorities to 
Congress. Specific programs include the Family of Beyond-line-of-sight 
Terminals, Presidential National Voice Conferencing, the Multi-Role 
Tactical Common Data Link, Phoenix Air-to-Ground Communications 
Network, the E-4B Low Frequency Transmit System, B-2 Common Very Low 
Frequency Receiver, and the E-6B service life extension and Airborne 
Launch Control System replacement programs.
    The USSTRATCOM Command and Control (C2) Facility will support all 
our missions and will feature prominently in our future nuclear and 
national C2 architecture. The project is progressing well and will soon 
transition from exterior construction to interior fit-out. Timely, 
consistent, and stable funding is vital to keeping the project on-time 
and on-budget. I appreciate the steadfast support that Congress 
continues to provide for this effort.
    Nuclear Triad. The policy of maintaining a nuclear triad of 
strategic nuclear delivery systems was most recently re-iterated in the 
2014 QDR. Our Intercontinental Ballistic Missiles, Ballistic Missile 
Submarines, and nuclear capable heavy bombers each provide unique and 
complementary attributes that together underpin strategic deterrence--
and each element is in need of continued investment.
    Intercontinental Ballistic Missiles (ICBMs). Our ICBM force 
promotes deterrence and stability by fielding a responsive and 
resilient capability that significantly complicates the decision 
calculus of any potential adversary. Though first fielded in 1962, the 
Minuteman Weapon System is sustainable through 2030, with near-term 
investments in the Mk21 replacement fuze, ICBM Cryptographic Upgrade, 
Payload Transporter vehicle replacement, Transporter-Erector vehicle 
replacement, and UH-1N helicopter replacement programs to address age-
related issues. The Air Force is initiating the Ground Based Strategic 
Deterrent program to begin recapitalizing the ICBM enterprise. 
USSTRATCOM fully supports an integrated weapon system recapitalization 
effort that synchronizes flight systems, ground systems, command and 
control, infrastructure, and support equipment development and 
deployment.
    Ballistic Missile Submarines (SSBNs). Recapitalizing our sea-based 
strategic deterrent force is my top modernization priority. The Navy's 
SSBNs and Trident II D5 ballistic missiles constitute the Triad's most 
survivable leg. In 2014, the Ohio-class fleet completed the submarine 
force's 4000th strategic deterrent patrol. This stealthy and highly 
capable force is undergoing needed modernization to extend the life of 
the D5 missile and replace the Ohio-class SSBNs which begin to retire 
in 2027. No further extension is possible and maintaining operational 
availability is a concern. We must resource sustainment of the Ohio 
class SSBNs to maintain the required availability through the 
transition period to the Ohio Replacement Program (ORP) SSBN and until 
the last hull is decommissioned in 2040. Stable funding of the ORP, the 
life-of-ship reactor core, and supporting systems and infrastructure is 
critical to achieving a first deterrent patrol in 2031. In addition, we 
must continue our commitment to the United Kingdom to develop and field 
the Common Missile Compartment to ensure both nations' SSBNs achieve 
operational capability on schedule.
    Heavy Bombers. Our dual-capable B-52 and B-2 bombers continue to 
provide significant conventional capabilities along with flexibility, 
visibility and a rapid hedge against technical challenges in other legs 
of the nuclear triad. Planned sustainment and modernization activities, 
to include associated NC3, will ensure a credible nuclear bomber 
capability through 2040. Looking forward, a new highly survivable 
penetrating bomber is required to credibly sustain our broad range of 
deterrence and strike options beyond the lifespan of today's platforms. 
Maintaining an effective air-delivered standoff capability is vital to 
meet our strategic and extended deterrence commitments and to 
effectively conduct global strike operations in anti-access and area-
denial (A2AD) environments. The Long Range Stand-Off AoA completed 
earlier this year recommended a follow-on nuclear cruise missile to 
replace the aging Air Launched Cruise Missile (ALCM) with a capability 
designed for future adversary A2AD environments.
    Weapons and Infrastructure. Nuclear weapons and their supporting 
infrastructure underpin our nuclear triad, with the average warhead 
today over 27 years old. Surveillance activities, Life Extension 
Programs (LEPs), and Stockpile Stewardship efforts are key to 
sustaining our nuclear arsenal by mitigating age-related effects and 
incorporating improved safety and security features without a return to 
nuclear testing.
    As a member of the Nuclear Weapons Council (NWC) I work in close 
coordination with my DOD and Department of Energy counterparts to 
ensure we maintain a safe, secure and effective nuclear stockpile. 
Active and sustained execution of the NWC's long-term ``3+2'' strategy 
to deliver three ballistic missile and two air-delivered warheads is 
crucial to achieving this goal while addressing both near-term 
technical needs and future capability requirements. The W76-1 and B61-
12 LEPs are on track and are necessary to maintain confidence in the 
reliability, safety and intrinsic security of our nuclear weapons. 
Early activities are underway supporting the cruise missile replacement 
by the late 2020s. The President's Fiscal Year 2016 Budget supports 
this and ensures schedule alignment of the cruise missile delivery 
platform and its associated weapon.
    Sustaining and modernizing the nuclear enterprise infrastructure--
in physical and intellectual terms--is central to our long-term 
strategy. Continued material investment and maintaining an adequate 
pool of nuclear scientists and engineers is crucial to providing 
critical capabilities that meet our stockpile requirements.
    Treaties. International agreements such as New Strategic Arms 
Reduction Treaty (New START), the Open Skies Treaty (OST), and the 
Intermediate-range Nuclear Forces (INF) Treaty contribute to strategic 
stability through transparency, confidence building, and verification. 
The State Department has primary responsibility for treaty 
administration, and USSTRATCOM remains closely involved in their 
execution.
    New START's central limits and verification mechanisms reduce the 
likelihood of misperceptions and misunderstandings. Similarly, OST 
demonstrated its utility during the crisis in the Ukraine, where 
overflight missions allowed the 34 state parties to the treaty the 
opportunity to observe the situation on the ground, thereby 
supplementing other sources of information. In a similar vein, the INF 
Treaty promoted strategic stability by addressing capabilities of 
significant concern to our European Allies. While these agreements have 
served valuable roles in promoting strategic stability, treaty 
violations are a cause for concern.
    The U.S. has a long-standing commitment to reducing the number of 
nuclear weapons consistent with national policy and geopolitical 
conditions. At the height of the Cold War, the U.S. had 31,000 nuclear 
warheads. When New START was ratified in February 2011, we had 1,800 
deployed warheads. USSTRATCOM continues to work with the Office of the 
Secretary of Defense, the Joint Chiefs of Staff, and the Services to 
implement New START. To date, the U.S. and Russia have together 
conducted over 70 inspections and have exchanged more than 7,000 New 
START message notifications. In 2014, the U.S. finalized the New START 
force structure and completed de-MIRVing MM III ICBMs. Given the proper 
authority and funding, we are on track to achieve New START's limits of 
1,550 deployed warheads, 700 deployed delivery systems, and 800 
deployed and non-deployed delivery systems by February 2018.
Space Operations
    The U.S. must maintain assured access to space. Our national space 
capabilities allow us to globally navigate, communicate, and observe 
natural and man-made events in areas where non-space sensors are either 
not available or not feasible. Space capabilities are also a key 
component of strategic deterrence. Our space sensors, command and 
control systems, and space situational awareness capabilities are 
critical to supporting both our deployed forces and our national 
decision making processes.
    As articulated in the 2011 National Security Space Strategy, the 
space domain is contested, congested, and competitive. Our potential 
adversaries have signaled their ability to conduct hostile operations 
in space as an extension of the terrestrial battlefield, and consider 
these operations essential to deny U.S. forces the asymmetric 
advantages of space. To mitigate this trend, the U.S. continues to 
partner with responsible nations, international organizations and 
commercial firms to promote responsible, peaceful and safe use of 
space. We also strive to maximize the advantages provided by improved 
space capabilities while reducing vulnerabilities; and seek to prevent, 
deter, defeat and operate through attacks on our space capabilities.
    Foundational to all of these efforts is sufficient Space 
Situational Awareness (SSA)--the information that allows us to 
understand what is on orbit, where it is and where it is going, and how 
it is being used. Our goal is to ensure space remains a safe domain for 
all legitimate users. Sharing SSA information and collaborating with 
other nations and commercial firms promotes safe and responsible space 
operations, reduces the potential for debris-producing collisions, 
builds international confidence in U.S. space systems, fosters U.S. 
space leadership, and improves our own SSA through knowledge of other 
owner/operator satellite positional data.
    USSTRATCOM is committed to using the full capabilities of our 
overhead-persistent infrared systems for all relevant mission areas. We 
are actively partnering with the Intelligence Community to more 
effectively manage our intelligence requirements, share data, and 
ensure all of our assets are effectively working to support national 
priorities.
    In accordance with U.S. law, USSTRATCOM has negotiated SSA Sharing 
Agreements and Arrangements with 46 commercial entities, two 
intergovernmental organizations (EUMETSAT and European Space Agency), 
and eight nations (France, Italy, Japan, Australia, Canada, South 
Korea, United Kingdom, and Germany) and is in the process of 
negotiating agreements with additional nations. Through these sharing 
agreements, USSTRATCOM assists partners with activities such as launch 
support; maneuver planning; support for on-orbit anomaly resolution, 
electromagnetic interference reporting and investigation; support for 
launch anomalies and de-commissioning activities; and on-orbit 
conjunction assessments.
    At the nucleus of USSTRATCOM's approach to space security is both 
strategic and tactical mission assurance--ensuring Combatant Commanders 
have required access to space-based capabilities, achieved through 
freedom of action in space. USSTRATCOM's Joint Functional Component 
Command for Space (JFCC Space), located at Vandenberg Air Force Base in 
California, leads the efforts to ensure continuous and integrated space 
operations and routinely track tens of thousands of space objects in 
orbit around the Earth. This includes more than 1,100 active satellites 
owned and operated by approximately 60 nations and government 
consortia, plus hundreds of small commercial and academic satellites. 
In 2014, this allowed JFCC Space to issue more than 12,000 conjunction 
alerts, resulting in 121 collision avoidance maneuvers, to include 
several maneuvers by the International Space Station.
    We must sustain judicious and stable investments to preserve the 
advantages we hold in this dynamic and increasingly complex 
environment. Examples include the Space Fence program which will 
greatly expand the capacity of the Space Surveillance Network, 
investments in modeling and simulation which will increase our 
understanding of the space environment and adversary capabilities, and 
funding for satellite communications that are resistant to 
interference. We must also continue to seek out innovative and 
cooperative solutions with Allies and partners to ensure the products 
and services we derive from operating in space remain available, even 
when threatened by natural events or the actions of a determined 
adversary. These include both active and passive protection measures 
for individual systems and constellations and a critical examination of 
the architectural path we will follow to ensure resilience and 
affordability in space.
Cyberspace Operations
    This year marks the fifth anniversary of the activation of our 
assigned sub-unified command, US Cyber Command (USCYBERCOM) located at 
Ft. Meade, Maryland. USCYBERCOM seeks to impart an operational outlook 
and attitude to the running of the DOD's roughly seven million 
networked devices and 15,000 network enclaves--which represent a global 
system that operates at the speed of light beyond geographic and 
political boundaries.
    Our primary focus for cyberspace operations within DOD is to 
increase capacity and capability. The Cyber Mission Force (CMF) 
construct addresses the significant challenges of recruiting, training, 
and retaining the people, facilities and equipment necessary to 
generate the workforce required for successful cyberspace operations. 
Our plans call for the creation of 133 cyber mission teams manned by 
more than 6,000 highly trained personnel by the end of fiscal year 
2016. To date, 61 of those teams are fielded and engaged in a variety 
of missions. The majority of these teams will support the combatant 
commands, with the remainder supporting national missions. It is 
imperative that we continue to pursue fulfilling our cyber 
capabilities. Budget stability is key to achieving this vision, as 
every training day we lose to fiscal constraints will cause further 
delays in fielding the CMF.
    In order to posture the DOD to better defend against the growing 
number of threats, USSTRATCOM proposed the establishment of a Joint 
Force Headquarters - DOD Information Network (JFHQ-DODIN). The JFHQ-
DODIN became operational in January 2015 and enables the Commander, 
USCYBERCOM to delegate authority for the operational and tactical level 
planning, execution, and oversight of DOD information network 
operations and defense to a subordinate unit. This arrangement ensures 
tactical mission success while allowing USCYBERCOM to remain focused on 
operational and strategic concerns.
Global Strike
    USSTRATCOM's Joint Functional Component Command for Global Strike 
(JFCC-GS) operates from Offutt AFB, Nebraska with headquarters at 
Barksdale AFB, Louisiana. JFCC-GS provides a unique ability to command 
and control our global strike capabilities and build plans that rapidly 
integrate into theater operations. This includes integration of combat 
capability associated with kinetic and non-kinetic effects.
    Conventional prompt strike (CPS) capability offers the opportunity 
to rapidly engage high-value targets without resorting to nuclear 
options. CPS can provide precision and responsiveness in A2AD 
environments while simultaneously minimizing unintended military, 
political, environmental, economic or cultural consequences. I support 
continuing research and development of capabilities that help fill the 
conventional strike gap with a discernible non-ballistic trajectory, 
maneuverability for over-flight avoidance, and payload delivery 
capability.
    Effective strike solutions require dedicated analysis. USSTRATCOM's 
Joint Warfare and Analysis Center (JWAC) in Dahlgren, Virginia enhances 
our Strategic Deterrence and Global Strike missions by providing unique 
and valuable insight into selected adversary networks. JWAC's ability 
to solve complex challenges for our Nation's warfighters--using a 
combination of social and physical science techniques and engineering 
expertise--is invaluable to protecting the Nation and helping the Joint 
Force accomplish its missions.
Joint Electronic Warfare
    America's prosperity and security relies on assured access to the 
electromagnetic spectrum (EMS) to achieve strategic advantage and 
enable the instruments of national power. The EMS reaches across 
geopolitical boundaries and warfighting domains, and is tightly 
integrated into the operation of critical infrastructures and the 
conduct of commerce, governance, and national security.
    Joint Electromagnetic Spectrum Operations (JEMSO) underpin U.S. 
national objectives and enable the combat capability of the Joint Force 
by ensuring friendly access to the EMS while denying adversaries the 
same. USSTRATCOM is engaged in developing JEMSO policy and doctrine, 
and in addressing capability gaps across the DOD. Additionally, the 
USSTRATCOM JEMSO Office in conjunction with the Joint Electronic 
Warfare Center and Joint Electromagnetic Preparedness for Advanced 
Combat Center work closely with the combatant commands, Services and 
other Department agencies supporting the warfighter through advocacy, 
planning, and training.
    Effective operations in the EMS will require development of an 
Electromagnetic Battle Management (EMBM) capability. The size and 
complexity of the EMS drives the requirement for the EMBM to be 
automated, interface at the machine level, and operate at near real-
time speeds. This effort provides guidance for Service interoperability 
while retaining flexibility to meet Service-specific requirements. 
Future efforts will further refine and add context to the approved 
architectures.
Missile Defense
    Effective missile defense is an essential element of the U.S. 
commitment to strengthen strategic and regional deterrence against 
states of concern. Today, 30 operational Ground Based Interceptors 
protect the U.S. against a limited ICBM attack from potential regional 
threats such as North Korea, but continued investment in three broad 
categories is required to improve our capabilities against growing 
threats: persistent and survivable engagement-quality tracking sensors, 
increased interceptor inventories with improved performance and 
reliability, and increased regional capability and capacity. These 
needs can be addressed by funding priority programs such as: Long-Range 
Discriminating Radar, a redesigned Exo-atmospheric Kill Vehicle (EKV), 
Aegis Ballistic Missile Defense and the Theater High-Altitude Area 
Defense follow-on, Overhead Persistent Infra-Red sensors, Upgraded 
Early Warning Radars, and Joint Tactical Ground Stations.
    New technologies must be proven before we can count on them to 
contribute to our operational plans. I fully support the concept of 
``fly before you buy,'' and I was pleased by the Missile Defense 
Agency's successful test in June 2014 of the Capability Enhancement II 
EKV.
    The European Phased Adaptive Approach (EPAA) contributes to the 
defense of the United States, our deployed forces in Europe, and our 
Allies. For example, the forward-based radar deployed in Turkey is 
capable of providing important early trajectory data on possible 
Iranian missile launches. EPAA Phase 1 was completed in 2011 and 
efforts are on track to fulfill Phase 2 and Phase 3 commitments in 2015 
and 2018 respectively. Interoperability between NATO's Active Layered 
Theatre Ballistic Missile Defence system and the U.S. command and 
control network has been successfully demonstrated.
    In December 2014, with the assistance of the Japanese Ministry of 
Defense, the DOD fielded a second AN/TPY-2 radar in Japan. The radar 
will augment the existing AN/TPY-2 radar and will enhance the ability 
to defend Japan, our forward deployed forces, and the U.S. homeland 
from North Korean ballistic missile threats.
    The missile defense community--including USSTRATCOM's Joint 
Functional Component Command for Integrated Missile Defense (JFCC-IMD) 
located in Colorado Springs, Colorado--continued to refine its 
understanding of missile defense challenges from technical and 
resourcing perspectives. These include evaluating current and future 
sensor architectures to better integrate missile defense and 
situational awareness missions, studying potential CONUS interceptor 
sites, understanding current and future cruise and ballistic missile 
threats, improving hit-to-kill assessment capabilities, and optimizing 
the location of missile defense assets.
Intelligence, Surveillance, & Reconnaissance (ISR)
    The demand for ISR will always outpace our ability to fully satisfy 
all requirements. At the same time, we are focused on the goal of 
increasing the effectiveness and persistence of our ISR capabilities 
while reducing the ``cost of doing business.'' Located at Joint Base 
Anacostia-Bolling AFB, Washington, D.C., USSTRATCOM's Joint Functional 
Component Command for ISR (JFCC-ISR) is working with our headquarters, 
the Joint Staff, the Services, the combatant commands and the 
Intelligence Community to improve the management of the Department's 
existing ISR capabilities given the high demands on these critical 
assets. I fully support this maximizing the agile and effective use of 
the capabilities we have, while also enhancing allied and partner 
contribution and cooperation. These efforts are designed to increase 
the persistence of our ISR capabilities, reduce the risk of strategic 
surprise, and increase our ability to respond to crises.
Countering Weapons of Mass Destruction (CWMD)
    In June, the Secretary of Defense issued a new Defense Strategy for 
Countering WMD which affirms that the pursuit of WMD and potential use 
by actors of concern pose a threat to U.S. national security and peace 
and stability around the world. As DOD's global synchronizer for CWMD 
planning efforts, USSTRATCOM supports this strategy by leveraging the 
expertise resident in our Center for Countering Weapons of Mass 
Destruction (SCC-WMD), the Standing Joint Force Headquarters for 
Elimination (SJFHQ-E), and our partners at the Defense Threat Reduction 
Agency (DTRA)--all located at Ft. Belvoir, Virginia. Together, our 
organizations conduct real-world and exercise CWMD activities with the 
other combatant commands to identify, prioritize, and mitigate WMD 
risks posed by proliferation of WMD technology and expertise to nation 
states and non-state actors.
    USSTRATCOM contributed to the international effort to eliminate 
Syria's declared chemical weapons program in support of United States 
European and Central Commands. Additionally, SCC-WMD, SJFHQ-E, and DTRA 
personnel supported United States Africa Command's response to the 2014 
Ebola outbreak in West Africa through the establishment of Regional 
Contingency Team - Ebola. The work conducted by this team--and the 
lessons learned along the way--will enable more effective responses to 
future natural or man-made biological threats.
    To execute the DOD Strategy for CWMD, the CWMD community has 
identified a need for a comprehensive situational awareness capability 
that incorporates collaborative tools, continuously assesses the WMD 
threat, and provides a shared holistic awareness of the WMD 
environment. This capability would provide an enhanced awareness of 
emergent catastrophic-scale WMD threats that require continued 
collaboration across the interagency and partner nations to enable a 
proactive rather than reactive approach. We work closely with DTRA to 
develop this capability with input from our partners--such as the 
Intelligence Community and the Departments of State, Energy, Homeland 
Security and Justice--which will help us to clearly define operational 
information needs. Finally, there is an urgent need to update aging 
agent defeat weapons and develop modeling and simulation capabilities 
to assess collateral damage during WMD weapon attacks.
                               our people
    People remain our most precious resource and deserve our 
unequivocal commitment to their well-being. My travels throughout the 
past year visiting nuclear task forces, component commands, and 
USCYBERCOM confirmed my belief that we have an outstanding team in 
place across all of our mission areas. I am proud to serve alongside 
the men and women of USSTRATCOM and have the utmost respect for their 
professionalism, dedication to our missions, and sustained operational 
excellence.
    We must continue to recruit and retain those who support the 
missions associated with strategic deterrence, from operators in the 
field to scientists in laboratories conducting surveillance and life 
extension work. We must directly support this unique workforce, but 
also ensure we support initiatives to keep them aware of our Nation's 
support for their important missions for the foreseeable future.
    Whether they are underway on an SSBN, standing alert in a Launch 
Control Center, or supporting a mission from cyberspace to outer space, 
these great Americans will do all they can for their Nation, but are 
rightly concerned about their futures given continuing manpower 
reductions planned over the next several years. We are seeking the most 
efficient ways to achieve the Department's goals and are on track to do 
so, but cannot accommodate further cuts without a commensurate loss of 
organizational agility and responsiveness.
                               conclusion
    Achieving strategic deterrence in the 21st century requires an 
investment in strategic capabilities and a renewed, multi-generational 
commitment of intellectual capital. In today's uncertain times, I am 
honored to lead such a focused, innovative and professional group 
dedicated to delivering critical warfighting capabilities to the 
Nation. Your support, together with the hard work of the exceptional 
men and women of United States Strategic Command, will ensure that we 
remain ready, agile and effective in deterring strategic attack, 
assuring our Allies and partners, and addressing current and future 
threats.

    Chairman McCain. Thank you.
    General Selva, welcome.

   STATEMENT OF GENERAL PAUL J. SELVA, USAF, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General Selva. Chairman McCain, Senator Reed, distinguished 
members of the committee, thank you for the opportunity and the 
honor to represent the men and women of the U.S. Transportation 
Command to this committee here today.
    I'm proud to be able to testify with two fellow commanders 
and friends as we go through this hearing.
    I have traveled the world in the last 6 months, and watched 
the men and women of the U.S. Transportation Command provide 
the distribution, deployment, and sustainment solutions for our 
combatant commanders. They do so without fanfare and often in 
stressful conditions, supporting our soldiers, sailors, airmen, 
marines, civilian employees, and their families at home and 
abroad.
    While U.S. Transportation Command is ready today to face 
this challenge, we must pay attention to the health of the 
global distribution enterprise of tomorrow. We rely on our 
service component commands along with contracted commercial 
augmentation to provide the distribution services that make us 
successful. The readiness of our components and commercial 
providers is key to our success in this global mission. 
Maintaining the necessary commercial and organic readiness is 
U.S. TRANSCOM's most significant challenge.
    As the Department's demand for commercial sealift and 
airlift decreases, U.S. TRANSCOM must continue to ensure the 
required surge and force sustainment capabilities are available 
when needed. Finding the right balance of organic and 
commercial utilization will require us to carefully coordinate 
across the entire enterprise with all of our partners using all 
of the available authorities that exist in current law and 
executive policy.
    To secure our sealift surge capacity, we continue to work 
with the Department of Transportation's Maritime Administration 
to ensure the health of the Maritime Security Program, which 
brings us 60 militarily useful ships to meet combatant 
commander requirements, and the Voluntary Intermodal Sealift 
Agreement, which gains us access to over $300 billion of 
commercially owned sealift capacity and inland transportation 
infrastructure. We must ensure that we are able to support the 
full spectrum of defense needs with these capabilities. Both 
programs provide critical sealift capacity and trained merchant 
mariners during national security contingencies or humanitarian 
relief and disaster assistance responses. I appreciate this 
Congress's attention to full funding for the Maritime Security 
Program, which reaffirms our commitment to industry and is 
mitigating future risk to our strategic commercial sealift 
capacity.
    Of significant concern to me is the need to recapitalize 
1.6 million square feet of our organic roll-on/roll-off 
military capability. We're working closely with the U.S. Navy 
to develop a plan that meets combatant commander requirements 
and is sensitive to the capability that will be required during 
future service force developments. This plan will look beyond 
the near-term capability requirements and will be informed by 
the Defense Department's ongoing sealift study and the Maritime 
Administration's national maritime strategy.
    I'm also concerned about the long-term health of our 
merchant mariners. This group of civilian merchant mariners, 
who crew our ships, both military and commercial, during 
crisis. These patriotic Americans have crewed America's 
merchant marine vessels for the entire history of this Nation.
    We're also in the process of implementing several of the 
Civilian Reserve Air Fleet program changes that are a result of 
a recently concluded Civil Reserve Air Fleet study. When 
implemented, these changes will ensure the continuation of a 
viable and ready Civil Reserve Air Fleet that is capable of 
answering any future requirements and provide best value to the 
U.S. Government. We have worked closely with our commercial 
partners and responded to many of their concerns as we navigate 
these changes.
    The transportation and distribution enterprise remains 
ready today to respond to any contingency or to sustain our 
forces in the field for any length of time. But, to ensure that 
this command is ready to respond anytime with our commercial 
carriers' assistance, I have directed that all contract 
acquisitions for transportation now consider readiness-related 
criteria, including the relationship of performance and cost to 
enterprisewide readiness, as a factor in any decision to let a 
contract. We will continue to work across the Defense 
Department to ensure that TRANSCOM has the necessary organic 
and commercial surge capabilities to respond when called upon.
    Chairman McCain, Senator Reed, and all members of this 
committee, thank you for the continued support that you have 
given to U.S. Transportation Command and all of the men and 
women that provide for the deployment, distribution, and 
sustainment of our Services abroad.
    I would ask that my written statement be submitted for the 
record.
    I look forward to your questions.
    Chairman McCain. Without objection.
    [The prepared statement of General Selva follows:]

           Prepared Statement by General Paul J. Selva, USAF
       introducing the united states transportation command 2015
    No other nation can match the ability of the United States of 
America to deploy and sustain forces on a global scale. The United 
States Transportation Command (USTRANSCOM) leads a Total Force team of 
Active Duty, Guard, Reserve, civilians, and commercial transportation 
providers who operate a world-class Joint Deployment and Distribution 
Enterprise. Our Service component commands, the Army's Military Surface 
Deployment and Distribution Command (SDDC), the Navy's Military Sealift 
Command (MSC), the Air Force's Air Mobility Command (AMC); our 
functional component command, the Joint Transportation Reserve Unit 
(JTRU); and our subordinate command, the Joint Enabling Capabilities 
Command (JECC), in conjunction with the transportation industry, 
provide unparalleled logistics support and enabling capabilities to our 
forces, their families, and coalition partners around the world.
    Deploying our Nation's military forces and ensuring they receive 
sustainment at the times, places, and in the quantities they need to 
succeed is USTRANSCOM's fundamental role in securing our Nation. Our 
continued success in this role depends on preserving an agile and 
resilient global distribution network--a complex array of capabilities, 
infrastructure, access, partnerships, and command and control 
mechanisms. This complex network underpins our Nation's response to 
emerging crises, and undergirds our warfighters' successes.
    USTRANSCOM's transportation operations are funded by the 
Transportation Working Capital Fund (TWCF) which enables us to provide 
timely transportation services to our supported commanders. We are, in 
turn, reimbursed for the transportation we provide in support of their 
requirements. We rely on our Service component commands--AMC, SDDC, and 
MSC--along with contracted commercial augmentation, to provide these 
vital transportation services. The components' and commercial 
providers' capacity and readiness levels are key to the success of our 
global mission and their ability to respond to USTRANSCOM taskings.
                         strategic environment
    With the potential return to sequestration-level funding returning 
in fiscal year (FY) 2016, I remain concerned the combined effect of 
declining government transportation demand, reduced financial 
resources, and other economic and regulatory restrictions may drive 
readiness to unacceptable levels. Reductions in Service components' 
readiness funding, a likely outcome of sequestration, will negatively 
affect USTRANSCOM's ability to accomplish our mission. We will continue 
to work across the Department of Defense (DOD) to ensure USTRANSCOM has 
the necessary capabilities and capacity required to respond when called 
upon. USTRANSCOM has always delivered when needed, and we will continue 
to do so provided our component commands receive the resources they 
need to execute our global mission.
    The transportation resources and cyber infrastructure that enable 
strategic mobility are key components of the United States' asymmetric 
logistics advantage in both peace and war. In the future, we expect 
great reliance on USTRANSCOM's ability to rapidly deploy continental 
U.S. (CONUS)-based forces to operate in complex, noncontiguous 
locations with simultaneous operations in multiple theaters. Our Forces 
will have less access to secure, U.S.-controlled, overseas 
installations, while operating in a contested communications and cyber 
environment. Adversaries and competitor nations continue to develop 
cyber capabilities to exploit and create harmful effects within our 
areas of operation. For example, advanced persistent threats have the 
potential to degrade command and control, possibly preventing troops 
and materials from arriving on time, ready to support the geographic 
combatant commander.
    For our commercial providers, workload demand continues to decline 
as retrograde operations from Afghanistan drawdown to fiscal year 2016 
levels. The ocean liner sector, for example, has experienced a 50 
percent reduction from fiscal year 2011 workload, including a 13 
percent reduction from last year alone. As a result of this declining 
workload, the U.S. flag shipping fleet has seen a 20 percent workload 
reduction since January 2012. In 2013, 11 international trading vessels 
within the Voluntary Intermodal Sealift Agreement (VISA) program either 
reflagged to foreign flag ships or were scrapped without replacement 
due, in large part, to the reduction in demand. This realignment is 
forcing our commercial sealift providers to make adjustments to the 
services they provide by either removing liner capacity or expanding 
alliances with other carriers to take advantage of larger vessels. The 
net effect of these adjustments may likely require longer response 
times to meet DOD requirements.
    The Ready Reserve Force (RRF), the key first response strategic 
sealift component for moving U.S. Army and U.S. Marine Corps units to 
the fight, must also remain ready to meet the needs of geographic 
combatant commands (GCCs). As 1.6 million square feet of RRF roll-on/
roll-off capacity ages out of service in the next 10 years, an 
executable recapitalization plan must be in place to ensure long-term 
viability of surge sealift. We are working closely with the U.S. Navy 
to develop a plan which meets the combatant command requirements and is 
compatible with future Service force development and budget 
constraints.
    Commercial airlift is also experiencing the effects of declining 
workload. As our forces draw down from Afghanistan, business available 
to commercial carriers has declined rapidly, threatening industry's 
ability to support surge deployments should the need arise. 
Implementing the recently concluded Civil Reserve Air Fleet (CRAF) 
study recommendations will be a starting point for ensuring commercial 
airlift readiness, but will require continued vigilance as demand for 
DOD cargo continues to decline.
    Freedom of access to relevant areas of sea, air, space, and 
cyberspace is crucial to the world's economy and our Nation's ability 
to project and sustain global power and influence. USTRANSCOM is 
working with U.S. Department of State (DOS) and geographic combatant 
commanders through the En Route Infrastructure Master Plan (ERIMP) and 
the Campaign Plan for Global Distribution to assure access to ports, 
roads, and rail in key allied, friendly, and cooperating nations. 
USTRANSCOM collaborates with government, industry, and academia to 
develop innovative capabilities to enhance global access by addressing 
anti access and area denial challenges. We also obtain access through 
networks and relationships in foreign countries established by 
commercial transportation providers. USTRANSCOM must continue to 
leverage existing international infrastructure through close 
coordination with DOS, the Services, GCCs, and commercial 
transportation providers in order to ensure unimpeded transportation 
and distribution networks for the coming years.
                 readiness--key to an uncertain future
Strategic Imperative
    The Unified Command Plan (UCP) designates USTRANSCOM as the DOD 
single manager for end-to-end transportation and for all aspects of 
inter- and intra-theater patient movement. As such, USTRANSCOM is 
responsible for the command and control of DOD common-user and 
commercial air, land, and sea transportation; terminal management; and 
aerial refueling to support the global deployment, employment, 
sustainment, and redeployment of U.S. Forces.
    USTRANSCOM is also responsible for synchronizing distribution 
planning across combatant commands, Services and DOD agencies. As the 
Global Distribution Synchronizer, we crafted the first Campaign Plan 
for Global Distribution. This seminal effort is the first step in 
facilitating logistics planning synchronization across all geographic 
and functional combatant command boundaries, as well as identifying and 
prioritizing necessary distribution network enhancements. In the first 
year of execution, we examined the challenges posed by rebalancing and 
rebasing forces as the DOD transitions to a more CONUS-based focus, 
increased area access and area denial challenges, shifts in strategic 
focus, and budget reductions affecting the distribution enterprise's 
readiness for future operations. This year, we will conduct more in-
depth reviews of geographic combatant commanders' theater distribution 
plans, incorporating strategic guidance from DOD's Guidance for 
Employment of the Force and the Joint Strategic Capabilities Plan.
    While USTRANSCOM is ready to support operations today, we must pay 
attention to the health of the global distribution enterprise of 
tomorrow. In the years ahead, smaller and increasingly CONUS-based 
forces will rely even more on the Defense Transportation System (DTS) 
to deploy and sustain themselves in multiple theaters, sometimes 
simultaneously. USTRANSCOM's number one priority is maintaining the 
readiness of the global distribution enterprise to project combat power 
or extend America's helping hand, anywhere, anytime, everyday.
Challenges to Enterprise Readiness
    Maintaining our organic air mobility, sealift, and surface assets, 
in tandem with our commercial transportation providers, ensures our 
ability to be ready in times of need. Over the last year, USTRANSCOM 
has developed and refined processes with our component commands to 
track and address their specific organic readiness needs. As we gain 
more fidelity with these new processes, we expect to more effectively 
solve some of our critical organic readiness needs through appropriate 
cargo allocation.
Airlift
    The fiscal year 2016 President's Budget includes an end-state fleet 
of 308 C-130s and 479 tankers to meet air mobility operational 
requirements. The C-5 and C-17 fleets are undergoing modernization 
efforts to replace aging components, as well as adding avionics to meet 
mandated minimum aircraft separation capability to ensure aircraft 
ability to meet worldwide commitments. This airlift force structure 
meets the strategic airlift requirement for a single, large-scale 
operation, while maintaining the flexibility and adaptability to 
support smaller Joint Force requirements in another region. Likewise, 
AMC's aerial refueling fleet can support a single, large-scale 
operation with a limited capability to support the Joint Force in 
another region.
    Ongoing operations in Afghanistan, the operational surge in support 
of the military intervention against the Islamic State of Iraq and 
Syria (ISIS), and the mission to contain Ebola in West Africa have 
placed increased demands on the Mobility Air Forces. Post-surge, the 
air and ground crews will need time to regain proficiency in specific 
skill sets that are not being utilized during these contingency 
operations. Resetting these skills will restore units to the level of 
capability commensurate with future combat mission requirements.
    Likewise, the commercial airlift providers who move DOD cargo and 
personnel, particularly those who participate in the CRAF, must be 
ready to perform DOD's unique missions whenever the need arises. 
Commercial airlift readiness is measured in terms of both fleet 
subscription capacity and the timely availability of day-to-day 
capacity in a non-activated environment. While we are confident the 
National Airlift Policy is adequate to allow DOD to manage the support 
our commercial carriers will provide us over the coming years, 
implementation of that policy will continue to be advised by the CRAF 
study.
    To understand and improve CRAF's ability to support DOD, USTRANSCOM 
and AMC, aided by outside subject matter experts and CRAF participant 
interviews, completed a thorough CRAF study and are in the process of 
implementing several CRAF program changes as a result. When implemented 
within fiscal year 2016 Airlift Services in Support of the CRAF 
Contract, the program changes will ensure continuation of a viable and 
ready CRAF program that is capable of answering any future 
requirements, and provide best value and service to the U.S. 
Government.
Sealift
    We rely on the organic sealift fleet provided by MSC and the RRF 
managed by the Department of Transportation's (DOT) Maritime 
Administration (MARAD). These government-owned vessels, along with 
support from the U.S. flag commercial fleet, are vital in times of 
national emergency.
    USTRANSCOM's relationship with the commercial sealift industry is 
formalized through agreements such as VISA, the Maritime Security 
Program (MSP), and the Voluntary Tanker Agreement (VTA). MSP provides a 
fleet of commercially viable, military-useful vessels to meet national 
defense and other security requirements, while maintaining a U.S. 
presence in international commercial shipping. Carriers enrolled in MSP 
receive a stipend to offset operating costs associated with maintaining 
U.S. flag registry and are required to enroll their U.S. flag capacity 
in one of the established emergency preparedness programs, VISA or VTA. 
However, reductions below full program funding, like we experienced 
with fiscal year 2013 sequestration, threaten assured access to MSP 
vessels and supporting infrastructure while reducing overall VISA 
capacity. Full program funding reaffirms our commitment to industry and 
mitigates future risk to our strategic commercial capacity.
    Existing maritime laws also contribute to ensuring a responsive 
U.S. mariner fleet is ready to meet any DOD contingency requirement. 
For example, the Jones Act contributes to a robust domestic maritime 
industry that helps to maintain the U.S. industrial shipyard base and 
infrastructure to build, repair, and overhaul U.S. vessels. The Jones 
Act requirement for U.S.-crewed and built vessels provides additional 
capacity and trained U.S. merchant mariners that can crew RRF vessels 
in times of war or national emergency.
    Although the domestic maritime industry is thriving, the U.S. flag 
international fleet continues to decline. The reduction in government-
impelled cargoes due to the drawdown in Afghanistan and reductions in 
food aid from the Moving Ahead for Progress in the 21st Century Act 
policy changes, are driving vessel owners to reflag to non-U.S. flag 
out of economic necessity. This reflagging and subsequent reduction of 
the U.S. flag international fleet has the unintended consequence of 
reducing the U.S. merchant mariner labor base. A strong U.S. mariner 
base is critical to crewing not only the merchant fleet in peacetime 
but our DOD surge capacity in wartime. With the recent vessel 
reductions, the mariner base is at the point where future reductions in 
U.S. flag capacity puts our ability to fully activate, deploy, and 
sustain forces at increased risk.
    In order for the organic fleet to meet all National Defense needs, 
these vessels and their crews must be maintained at a high degree of 
reliability and readiness. Mariners must be trained and available to 
crew ships in the RRF to meet contingency timelines. We periodically 
test the readiness of the organic fleet through TURBO ACTIVATION 
exercises, a Joint Staff program to help ensure our organic fleet's 
capability. Due to the importance of this readiness measure, we will 
monitor TURBO ACTIVATION funding closely as we potentially approach 
sequestration-level funding in fiscal year 2016.
Surface
    The U.S. highway and railway systems provide the means to transport 
military equipment from deploying unit installations to designated 
seaports of embarkation during a major contingency deployment. But a 
significant portion of the commercial chain tiedown flatcar fleet, the 
primary capability for transporting Army unit equipment, is nearing the 
end of it's service life. To mitigate this impending shortfall, we are 
collaborating with industry to use commercially-available flatcars not 
previously considered as part of our solution. With the use of chain 
tiedowns on this other family of commercial flatcars, we will 
temporarily maintain railcar capacity as we work with the Army to 
establish a railcar procurement program to address this surface 
readiness concern.
    Readiness within the ammunition transport industry also remains a 
concern. Arms, Ammunition and Explosivies (AA&E) transport, a highly 
specialized and limited capacity, is experiencing contracted capacity 
in both drivers and vehicles, in part due to regulaltory restrictions 
affecting the industry. Owner/operators, many from small companies, are 
increasingly reluctant to accept full liability due to financial risks 
involved, and are mitigating that risk through increased rates to DOD. 
In addition to the financial pressure, the lack of qualified drivers is 
also a factor in reduced trucking capacity. Many experienced owner/
operators are beginning to retire due to age and increased hours of 
service rule changes, carrier safety administration requirements, and 
increased environmental costs. At the same time, younger generations 
are choosing this career in fewer numbers, further decreasing available 
capacity in the trucking industry. We continue to work with the 
trucking industry to find acceptable solutions, one of which is 
streamlining certification requirements for military veterans who wish 
to enter the industry, an effort showing great promise in DOD and with 
the industry.
Preparing for the Future
    While USTRANSCOM remains capable today to respond to any 
contingency or geographic combatant command requirement for movement of 
forces, significant recapitalization and modernization are necessary to 
meet future expected demand for transportation services. We work 
closely with each of the Services to ensure they understand our 
validated requirements and are incorporating the necessary 
recapitalization and modernization efforts into their programs.
    To address future sealift concerns, USTRANSCOM is working closely 
with the U.S. Navy to identify the most effective means to recapitalize 
the RRF. We are also partnering with the Office of the Secretary of 
Defense-Transportation Policy to produce a study on programs, policies, 
and incentives that would ensure DOD has continued future access to 
sufficient U.S. flag vessels and U.S. mariners. The study will assess 
the continued viability of the industry's ability to support DOD 
requirements with U.S. flag capacity and U.S. merchant mariners, along 
with assessing the U.S. Government costs of current DOD and civilian 
programs to support commercial sealift, evaluate cost-effective 
alternatives to meet sealift requirements, and ascertain if major 
policy, program, and acquisition changes are required to maintain and 
protect readiness. Where possible, study findings will be shared with 
MARAD to assist them in developing the National Maritime Strategy. The 
final report is due in May of this year.
    The most important airlift recapitalization effort, the KC-46A 
program, which will replace the aging KC-135 air refueling tanker 
aircraft, is on-track and has met every contractual requirement to 
date. With the first flight anticipated this spring, the KC-46A will 
provide aerial refueling support to the Air Force, Navy, and Marine 
Corps, as well as our allies' and coalition partner aircraft. It will 
also provide increased aircraft availability, more adaptable 
technology, more flexible employment options, and greater overall 
capability than current tanker aircraft. The KC-46A remains the most 
essential element of future air mobility readiness for the DOD.
    USTRANSCOM relies on a complex interdependent enterprise of both 
DOD and commercially-owned domestic and foreign critical 
infrastructure. DOD continues to evolve towards a comprehensive mission 
assurance construct designed to synchronize all mission assurance 
programs. Recognizing that cyber infrastructure underpins much of our 
physical infrastructure, our Defense Critical Infrastructure Program 
and Joint Cyber Center (JCC) are working in tandem to assess threats 
and develop realistic mitigation strategies in conjunction with other 
interagency cyber organizations. Additionally, our JCC is leading the 
Command's efforts to ensure USTRANSCOM meets the requirement and intent 
of the fiscal year 2015 National Defense Authorizations Act requiring 
the reporting on cyber incidents with respect to networks and 
information systems of operationally critical contractors.
    USTRANSCOM also has an enduring interest in the civil sector 
infrastructure supporting the surface movement of military forces. Our 
programs for national defense collaborate with civil sector 
counterparts to ensure the U.S. physical infrastructure is capable of 
addressing military surface mobility needs. Since 2012, USTRANSCOM has 
completed several congressionally-mandated studies, including: ``Update 
to Port Look 2008: Strategic Seaports.'' This report assessed the road 
and rail infrastructure, including the strategic highway network routes 
and the Strategic Rail Corridor Network (STRACNET), in the vicinity of 
strategic seaports. This analysis determined the highway and railroad 
infrastructure were capable of supporting military deployments to the 
ports. Our update of the STRACNET also ensures that it provides 
sufficient service to our most important DOD installations. We also 
assessed the structural integrity of the infrastructure outlined in the 
port planning orders and infrastructure projects beneficial to the DOD, 
and identified potential funding avenues for repairs. USTRANSCOM 
reinvigorated its commitment to working with the other members of the 
National Port Readiness Network on such commercial seaport-related 
issues by signing a new memorandum of understanding effective, 27 
August 2014. This agreement ensures the readiness of commercial seaport 
infrastructure to support DOD deployment requirements.
    U.S. Army Military Ocean Terminal Sunny Point (MOTSU), in 
Southport, North Carolina, is essential to USTRANSCOM's support of 
operational plans in Europe, Africa, and the Middle East. Most of the 
required, significant infrastructure improvements at MOTSU have been 
completed in recent years. These improvements enhanced MOTSU's ability 
to conduct missions and allowed the terminal to meet documented 
throughput requirements. Infrastructure improvement projects at U.S. 
Army Military Ocean Terminal Concord (MOTCO), in Concord, California, 
are essential to USTRANSCOM's support of U.S. Pacific Command's 
operational plans and the DOD's military capability in the Pacific 
Theater for ammunition movements. DOD's current efforts are centered on 
preserving the operability of MOTCO's primary pier until it can be 
recapitalized with a rebuilt, replacement pier. Together with the Army, 
we are compiling a comprehensive list of other infrastructure-related 
requirements to upgrade MOTCO to a modern ammunition port, fully 
capable of safe and efficient operations, and ultimately allowing 
uninterrupted delivery of ammunition to the Pacific Theater.
    Even in a period of fiscal uncertainty, investing in the readiness 
of our joint force must remain a top priority. The USTRANSCOM Joint 
Training Program, funded by the Combatant Commanders Exercise 
Engagement and Training Transformation (CE2T2) Program, ensures 
readiness of joint forces to accomplish assigned missions. CE2T2 
continues as a vital readiness enabler that directly supports the 
defense strategy of maintaining the ability to deploy and employ large-
scale military forces over transoceanic distances. DOD's largely CONUS-
based force of the future will become increasingly reliant upon joint 
exercises to maintain readiness and achieve engagement objectives. 
Commanders and Service Chiefs will be equally reliant upon USTRANSCOM 
to deploy these forces to participate in combatant command exercises. 
CE2T2 is an instrument for maintaining strategic agility and dynamic 
presence and allows USTRANSCOM to leverage nearly 140 exercises 
annually, including our own 18 joint exercises, to meet training 
requirements that directly contribute to meeting assigned missions.
    In addition to providing strategic lift during CE2T2 events, 
USTRANSCOM exercises its command-and-control nodes and planning teams, 
deploys strategic mobility personnel and assets, and provides in-
transit visibility of personnel, cargo, and patient movement on a 
global scale. These exercises have immense strategic value including: 
maintaining global agility--freedom of action and uninhibited access to 
global mobility infrastructure; fostering regional, coalition, 
interagency, and industry partnerships; using our organic and 
commercial partner strategic lift assets to address readiness 
requirements; maintaining expeditionary capabilities of the global 
response force; and maintaining strategic airlift and sealift capacity 
and readiness.
    Joint forces participate in the full spectrum of operations ranging 
from humanitarian assistance missions to major combat operations. To 
properly support these forces, USTRANSCOM developed Joint Task Force--
Port Opening (JTF-PO), a capability specifically designed to rapidly 
open and establish initial theater airport and seaport operations. The 
requirement demands a joint force capability comprised of air, surface, 
and/or naval elements to support rapid port opening and establish 
initial distribution throughput. This operational construct builds upon 
the capability and readiness of expeditionary port opening, emphasizing 
JTF-PO's significance to expeditionary operations and its support to 
the Geographic Combatant Commander/Joint Force Commander. Most recently 
USTRANSCOM deployed JTF-PO elements to Monrovia, Liberia, and Dakar, 
Senegal, in support of U.S. Africa Command (USAFRICOM) and Operation 
UNITED ASSISTANCE. JTF-PO provided port assessments, port opening, 
planning, and communications for the Joint Force Commander and 
USAFRICOM, and executed over 348 strategic air movements involving the 
throughput of approximately 3,250 passengers and 7,600 short tons of 
military equipment, vital medical equipment, and humanitarian aid 
supplies.
Readiness of USTRANSCOM Enabling Capabilities
    As an alert-postured, global response force, the Joint Enabling 
Capabilities Command (JECC) continually trains to build the experience 
necessary to succeed in complex and emerging operational environments. 
By combining JECC-specific training requirements and regularly 
participating in the Chairman of the Joint Chiefs of Staff's joint 
training and mission rehearsal exercises, we increase the level of 
professional knowledge and global awareness JECC deployers deliver to 
the joint force commander. The JECC's unique blending of Active and 
Reserve components requires some measure of overhead to ensure access 
to Guard and Reserve personnel for immediate deployments. The JECC's 
training program, assured access to Reserve component personnel, and 
flexibility to deploy the most cost-effective and operationally 
responsive workforce mix ensures the command produces well-rounded, 
professional, and expeditionary joint command-and-control specialists 
for the DOD.
    The JECC maintains operational readiness to provide mission-
tailored, joint capability packages for planning and secure 
communications to combatant commanders to facilitate rapid 
establishment of Joint Force Headquarters, enable Global Response Force 
execution, and bridge operational requirements around the globe. In 
addition to recently facilitating operations in Libya, Mali, Senegal, 
and Liberia, the JECC assisted in rebalancing the Joint Force 
Headquarters in Afghanistan, supporting U.S. Central Command's efforts 
against ISIS and the elimination of Syrian chemical weapons, while 
supporting multiple theater security cooperation missions.
    In an increasingly dynamic operating environment with diminishing 
resources, the JECC will continue to enhance the readiness of the Joint 
Force with globally available, responsive, adaptive capabilities to 
mitigate strategic surprise, shape options, set the conditions for 
successful contingency operations, and facilitate strategic and 
operational transitions. Future demand for JECC capabilities is 
expected to remain high.
Cyber and Information Technology (IT) Readiness
    A continuing concern for the future is our ability to operate 
effectively with our commercial providers in the face of increasing 
cyber threats. As identified in the recently released Senate Armed 
Service Committee report, ``Cyber Intrusions Affecting U.S. 
Transportation Command Contractors,'' the Nation's adversaries actively 
target and exploit the computer networks of commercial logistic 
suppliers. As a result, interagency cooperation is critically important 
to mission assurance. Building trust with these non-DOD partners is a 
focus of our cyber readiness efforts. The National Cyber Investigative 
Joint Task Force and regional Federal Bureau of Investigation offices 
are increasing awareness and engagement, and providing additional 
options to counter threats, and USTRANSCOM will continue to build 
relationships to ensure national partnering and unity of effort.
    USTRANSCOM is in the process of developing an information-centric 
approach using service-oriented architecture (SOA) principles. This 
transformation will improve our ability to make data-driven decisions 
by improving the ability to share and reuse information and services. 
This will be accomplished by focusing on five areas: supporting mode-
neutral business, complying with Joint Information Environment (JIE) 
architecture and implementation guidance, standardizing and stabilizing 
infrastructure and platform services to support the portfolio, enabling 
SOA, and evolving the common computing environment.
    USTRANSCOM must transition to the JIE in order to comply with the 
Federal Data Center Consolidation Initiative as we seek to adopt 
processes for mode-neutral requirements evaluation and multimodal 
transportation execution. The intent is to transition the DOD's IT 
environment from multiple nonstandard system-centric architectures to a 
standardized information-centric architecture.
    USTRANSCOM's focus on enabling SOA establishes intrinsic 
interoperability between IT-enabled services to reduce the need for 
complex and costly integration. This will allow the design of 
applications and services to be compatible and interoperable. We are 
working toward a federated architecture that will unify and standardize 
disparate environments while allowing the environments to be 
independently governed. As our SOA matures, there will be an increase 
of business and technology alignment that will allow IT to mirror and 
evolve with the business, with an expected reduction of the time and 
effort required to fulfill new or changed business requirements.
    Planning, integration, and direction of cyber operations in support 
of USTRANSCOM global operations is conducted by the Command's Joint 
Cyber Center (JCC). The JCC focus is on cyberspace operations and 
cyberspace key terrain that supports critical transportation operations 
and enabling capabilities. The JCC will continue to serve as the 
command's focal point for all cyberspace operational concerns in the 
future.
                      strengthening the enterprise
Enhancements to Supply Chain Management
    Assured access to global en route infrastructure is essential to 
our Nation's ability to project power and influence worldwide. 
USTRANSCOM uses the Enroute Infrastructure Master Plan (ERIMP) to 
articulate its strategic access and infrastructure requirements at key 
overseas locations, providing a 5 to 15 year roadmap for USTRANSCOM 
mobility operations. The ERIMP is synchronized with the geographic and 
functional combatant command theater posture plans for an integrated 
assessment of all posture elements, specifically focusing on current 
access, transportation infrastructure capabilities, and the enabling 
support required to meet the distribution mission. USTRANSCOM's ERIMP 
is shared with our closest allies to enable coalition efforts and 
strengthen partnership capacity. As DOD rebalances to a more CONUS-
based posture, access and infrastructure requirements outlined within 
ERIMP 2015 are vital to preserving long-term readiness around the 
globe.
    In a broad-based effort to ensure access for the future, we 
continue to support the Secretary of Defense-directed European 
Infrastructure Consolidation (EIC) and the President's European 
Reassurance Initiative (ERI). We are actively participating in each of 
these efforts to ensure our mission requirements are both preserved 
while divesting excess infrastructure, and enhanced by making focused 
investments of benefit to the U.S. and our NATO allies. USTRANSCOM is 
prepared to mitigate the global mobility risks associated with the 
proposed basing actions, but remain concerned about any additional 
reduction in U.S.-controlled mobility infrastructure in the European 
theater. USTRANSCOM fully supports development of fuel and pavement 
infrastructure at Mihail Kogalniceanu Air Base, Romania, as examples of 
investments that will provide deterrence effects in the short term, as 
well as long-term benefits to strategic airlift.
    The Distribution Process Owner (DPO) Strategic Opportunities (DSO) 
effort identifies opportunities to reduce costs in the DOD supply chain 
while simultaneously improving service levels to the warfighter. 
Working closely with our strategic partners such as the Defense 
Logistics Agency (DLA) and the General Services Administration (GSA) 
and collaborating with the warfighting community, the DSO team pursues 
process improvements, surface and air optimization, supply alignment, 
and network optimization. Enhanced collaboration and the aligning of 
business processes between DLA and USTRANSCOM have been significant 
sources of cost avoidance through improved shipping container and 
aircraft utilization. The DSO team achieved $201 million of cost 
avoidance in fiscal year 2014 with $1.4 billion in cumulative cost 
avoidance to date, by implementing practices commonly used by 
commercial supply chains today.
Meeting the Mission Through Business Transformation
    As the single manager of DOD's multi-billion dollar transportation 
and distribution enterprise, USTRANSCOM must continually seek ways to 
improve efficiency and reduce costs. An innovative example of this 
effort is USTRANSCOM's award of the Total Delivery Services (TDS) 
contract, effectively implementing a strategic sourcing initiative to 
combine Worldwide Express and Domestic Express under one umbrella 
contract. The TDS program provides international and domestic 
commercial small package air delivery services for the U.S. Government, 
upholding USTRANSCOM's commitment to be the provider of choice by 
creating a one-stop shop to satisfy customers' express air delivery 
requirements. The TDS program provides participating CRAF carriers 
operational efficiency by combining networks, and it postures 
USTRANSCOM to realize manpower savings through streamlined procurement 
and administration of similar services. By including an on-ramp for 
surface delivery requirements, TDS is poised to expand to meet all 
customer demands for small package delivery.
    We are also reviewing our TWCF rate-setting process and its impact 
on operational results. We developed a cost and readiness driven 
workload allocation process over the last year and identified ways to 
standardize operations to deliver cost conscious courses of action to 
our supported combatant commanders. This is just one of many 
initiatives under way to ensure rates are cost-based, simplified, 
standardized, and streamlined. Our goal is to identify areas of 
improvement in systems and processes for the upcoming budget cycles. 
Decreasing DTS workload, coupled with reduced financial resources, is 
driving our intentions to provide TWCF billing rates that attract 
additional customers who are influenced by price-based transportation 
decisions.
    The 2014 Quadrennial Defense Review (QDR) states, ``Sustaining 
superior power projection forces--enabled by mobility capabilities 
including airlift, aerial refueling, surface lift, sealift, and 
prepositioning--will remain a top priority for force planning and 
development, even in an austere fiscal environment.'' USTRANSCOM's 
Deployment and Distribution Cost Based Decision Support (D2 CBDS) 
program fulfills the QDR mandate of projecting power in an austere 
fiscal environment while maintaining mission effectiveness by drawing 
on the collective expertise of our transportation component commands, 
Service customers, DLA, and USTRANSCOM subject matter experts. The D2 
CBDS infuses cost and revenue consciousness into our operational 
culture, providing cost-informed decision-making capabilities, and 
supporting cost-metric development to drive desired behaviors. Numerous 
cost avoidance initiatives, such as Multimodal, Mobility Air Forces 
Cost Avoidance Tankering, Arctic Overflight, Contingency Efficiency 
Effort, and Theater Express, illustrate instances where this capability 
directly challenged the status quo to create tangible results in the 
form of millions of dollars in costs avoided last year.
    Optimization and effeciencies are not a quid pro quo for security. 
We continue to work with our commercial providers to evaluate foreign 
subcontractors and ensure illicit entities do not benefit from, or are 
able to exploit, USTRANSCOM contracts. In collaboration with other 
government agencies and supported combatant commanders, USTRANSCOM is 
seeking to bring about whole-of-government awareness and action against 
identified threats. These efforts strengthen our acquisition activities 
by better safeguarding funds, adding a layer of defense that protects 
the efficient and secure transit of goods and personnel, and ultimately 
enhances the overall security of the global supply chain.
Interagency Coordination
    The transportation and distribution enterprise requires close 
coordination of all government agencies that move or facilitate 
movement of cargo and personnel within the enterprise. Our drive to 
improve efficiency and effectiveness, while operating within budget 
constraints, has resulted in a reduction of redundant efforts, 
particularly in our intelligence support.
    The Transportation-Logistics Intelligence Enterprise (TIE) was 
established 1 January 2014 and became fully operational on 1 September 
2014. The TIE combines the unique skills and expertise of USTRANSCOM's 
Joint Intelligence Operations Center for Transportation, the Defense 
Intelligence Agency's Mobility and Sustainability Division, and the 
National Geospatial-Intelligence Agency to provide the best possible 
transportation and logistics intelligence support to the full range of 
transportation operations. The goal is to sustain mission-essential, 
transportation intelligence capabilities supporting overseas DOD 
operations in an era of declining resources; achieve resource 
efficiencies by eliminating redundant intelligence efforts; and improve 
mission effectiveness through enhanced management, alignment, and 
integration of these capabilities.
    Early TIE successes include generating resource efficiencies and 
improving customer support. The TIE saved approximately 10,000 working 
hours through database integration across multiple agencies. By 
combining allied and interagency efforts, the TIE increased the 
timeliness and quality of intelligence support to current operations 
and crisis contingencies in the Middle East and North/West Africa. 
These efforts improved U.S. strategic flexibility where troops are 
providing security against violent extremists and humanitarian 
assistance in Ebola-stricken countries.
    Over the next 18 months, the TIE will maintain a robust core of 
foundational intelligence on transportation-logistics infrastructure 
and en route geographic locations; pursue synchronization of 
multinational production efforts; create professional development 
programs for intermodal intelligence that include standardized training 
and joint-duty opportunities; and improve the customer experience for 
consumers of transportation-logistics intelligence.
    Allied, friendly, and cooperating nations enable access to the 
critical waypoints and transportation nodes necessary for USTRANSCOM 
operations. International agreements are pivotal to our continued 
success and further synchronize global distribution. Access hinges on 
mutually beneficial international relationships. The U.S. Government 
team, led by the DOS and in cooperation with other non-defense agencies 
that collaborate closely with USTRANSCOM, such as Customs and Border 
Protection and the Departments of Transportation and Commerce, works to 
incrementally improve international relations. On the DOD team, the 
functional and geographic combatant commands, the Services, and the 
other defense agencies and organizations work collaboratively to 
strengthen international partnerships through security cooperation. We 
leverage this collaboration and conduct multi-level engagements with 
international partners who provide access or potential access in order 
to build the relationships and trust that necessarily precede global 
transportation and distribution.
    USTRANSCOM's ability to meet global requirements relies in part on 
the air, sea, and surface transportation capabilities that reside in 
commercial industry. We maintain close, productive relationships with 
the commercial transportation providers in all sectors, as well as 
Federal agencies like the DOT that provide oversight and advocacy for 
those sectors. USTRANSCOM uses a variety of meetings and forums, some 
directly with other Federal agencies, and others through the National 
Defense Transportation Association, to collaborate and work issues that 
would affect our ability to respond to national needs.
    A key agency in bridging USTRANSCOM to civil agencies, the Defense 
Security Cooperation Agency (DSCA), established guidance placing the 
Defense Transportation System (DTS) on equal footing with freight 
forwarders for moving foreign military sales (FMS) material by 
approving the concept of ``Best Value.'' This is a significant step 
forward in becoming a ``provider of choice'' for countries that are not 
required to move their cargo in the DTS. Additionally, we have asked 
DSCA to join our Joint Deployment and Distribution Enterprise 
Governance Forums which will allow DSCA and USTRANSCOM to collaborate 
in streamlining FMS distribution to our foreign partners.
    USTRANSCOM continues to support our troops around the world by 
moving cargo for the Army/Air Force Exchange Service and the Defense 
Commissary Agency. This cargo is normally ``direct'' booked, which 
leverages our overall negotiating power to provide a reduced cost to 
the shipper. This ultimately translates to lower operating costs for 
our nonappropriated funded activities. To expand our services, we are 
also currently working with the Naval Exchange Service to support their 
``time sensitive'' requirements supporting Sailors and Marines 
overseas.
    USTRANSCOM has also worked hard to overcome recent challenges in 
other areas of our enterprise. For example, last May USTRANSCOM awarded 
a new company the contract to move privately-owned vehicles (POVs) for 
DOD and DOS employees globally. The underperformance of the contractor 
during the initial summer peak moving season resulted in thousands of 
POVs delivered late, and our Service members experiencing increased 
stress during permanent change of station moves.
    Significantly increased contract oversight, including identifying 
problematic shipping processes, insufficient data management, and 
unresponsive customer service practices, highlighted to the company 
where they failed to meet contractual requirements, and communicated to 
them our expectations for their improvement. While their performance 
has improved dramatically over the last several months, we remain 
vigilant as we approach the next peak moving season. Our evaluation of 
their summer surge plan indicates they should perform to an acceptable 
level.
    Unique challenges sometimes provide an avenue to success. The 
development of the Transport Isolation System (TIS) is one of those 
instances. At the beginning of the Ebola crisis in Western Africa, the 
U.S. Military was unable to safely evacuate people who had possibly 
been exposured to Ebola. Working with the Defense Threat Reduction 
Agency, USTRANSCOM identified a joint urgent operational need to 
develop a system to move patients with exposure to highly infectious or 
contagious diseases. This system would allow the DOD to safely move 
patients on DOD aircraft and simultaneously provide treatment while en 
route. Within 60 days of the identified requirement, the DOD awarded a 
contract for initial production of a TIS capable of moving multiple 
patients at one time, and achieved full certification and fielding of 
this life-saving system this past January. While the Ebola crisis 
served as a catalyst to initiate the acquisition process, the TIS will 
serve as an enduring capability to transport patients with contagious 
diseases anywhere in the world.
                             final thoughts
    The transportation and distribution enterprise remains ready to 
respond to any contingency or to sustain forces for any length of 
time--a readiness underpinned by the dedicated professionals, military, 
civilian, and contractors who work tirelessly to serve the Nation's 
needs. However, that readiness is under stress and will require a 
concerted effort across the enterprise, including DOD, the interagency, 
and Congress to ensure our forces remain able to rapidly project 
national power and influence anywhere, anytime. To ensure the necessary 
authorities and policies are in place to manage the transportation and 
distribution enterprise, we are working within DOD and with our 
interagency partners to examine current laws, policies, and 
transportation and distribution capabilities which may be needed in the 
future to maintain our combat edge.
    Going forward, we are facing, but will overcome future challenges 
to providing rapid and responsive deployment, sustainment, and 
redeployment operations, as well as mission-tailored enabling 
capabilities to the Joint Force Commanders and the great Nation we 
serve and protect. We will continue to personify our motto . . . 
Together, we deliver!

    Chairman McCain. Thank you.
    Admiral Rogers.

 STATEMENT OF ADMIRAL MICHAEL S. ROGERS, USN, COMMANDER, U.S. 
CYBER COMMAND/DIRECTOR, NATIONAL SECURITY AGENCY/CHIEF, CENTRAL 
                       SECURITY SERVICES

    Admiral Rogers. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, I am honored to appear 
before you today to discuss our military cyber posture. I'd 
like to thank you for convening this forum.
    I'd also ask that my full statement be made part of the 
record.
    I'm equally pleased to be sitting alongside my colleagues 
from U.S. Strategic Command and U.S. Transportation Command.
    It gives me great pride to appear before you today to 
highlight and commend the accomplishments of the uniformed and 
civilian personnel of U.S. Cyber Command. I'm both grateful 
for, and humbled by, the opportunity I have been given to lead 
our cyber team in the important work they do in the defense of 
our great Nation and our Department.
    The current cyber threat environment is uncertain and ever 
changing. What is certain, however, is the pervasive nature of 
those cyber threats and the increasing sophistication of 
adversaries. Our military networks are probed for 
vulnerabilities literally thousands of times per day. The very 
assets within our military that provide us formidable 
advantages over any adversary are precisely the reason that our 
enemies seek to map, understand, exploit, and potentially 
disrupt our global network architecture.
    The cyber intruders of today, in many cases, not only want 
to disrupt our actions, but they seek to establish a persistent 
presence on our networks. Quite simply, threats and 
vulnerabilities are changing and expanding at an accelerated 
and alarming pace in our mission set.
    Compounding this threat is our national dependence on cyber 
space. Operating freely and securely in cyber space is critical 
not only to our military and our government, but also to the 
private sector, which is responsible for maintaining much of 
the Nation's critical infrastructure. The bottom line is, 
weakness in cyber space has the potential to hold back our 
successes in every field where our Nation is engaged.
    An additional critical concern is the budget uncertainty 
that will be caused by a potential return of the Budget Control 
Act funding levels. To echo Senator Carter's testimony to the 
House Armed Services Committee yesterday, the proposed across-
the-board cuts will significantly impact our defense strategy; 
and, as a result, we run the very real risk of making our 
Nation less secure. Given the evolving threat and our increased 
dependence on our critical infrastructure, it is vital that we 
continue and commit to our investment in the cyber mission 
forces. If we do not continue to invest in our existing and 
future capabilities, we will lack the necessary capacity and 
risk being less prepared to address future threats.
    U.S. Cyber Command has no flexibility in its base budget to 
absorb a sequestration cut. Any reductions will have immediate 
direct and indirect effects throughout our force and the 
service cyber component commanders, including slowing the 
necessary improvements to our network structures, including 
improving the--excuse me--including slowing the necessary 
improvements to our network structures. Such cuts will slow the 
build of our cyber teams, their integration into the broader 
defense structure, and, most importantly, slow the growth of 
our capacity to form essential missions, which provides a real 
potential advantage to adversaries. Your continued leadership 
in providing the necessary resources to our servicemembers and 
civilians dedicated to the success of our mission is critical 
to defending our Nation, now and in the future.
    Despite this challenging threat and fiscal environment, I'd 
like to assure the committee that U.S. Cyber Command has made 
considerable progress to date. We are achieving significant 
operational outcomes, and we have a clear path ahead.
    With that, thank you again, Mr. Chairman and members of the 
committee, for convening this forum and inviting all of us to 
speak. Our progress has been made possible in no small part 
because of the support from this committee and other 
stakeholders. The global movement of activity in and through 
cyber space blurs the U.S. Government's traditional 
understanding of how to address domestic and foreign military, 
criminal, and intelligence activities. While it complicates our 
efforts to combat cyber threats, it also creates opportunities 
for coordination and cooperation. Unity of effort across the 
U.S. Government in this mission set is essential. I appreciate 
our continued partnership as we build our Nation's cyber 
defenses.
    I welcome your questions.
    [The prepared statement of Admiral Rogers follows:]

          Prepared Statement by Admiral Michael S. Rogers, USN
    Chairman McCain, Senator Reed, and distinguished members of the 
Committee, thank you for the opportunity to speak to you today on 
behalf of the men and women of United States Cyber Command 
(USCYBERCOM). This is the first time I have had the honor of testifying 
before this Committee in a posture hearing about our Command's 
dedicated uniformed and civilian personnel. It gives me not only pride 
but great pleasure to commend their accomplishments, and I am both 
grateful for and humbled by the opportunity I have been given to lead 
them in the important work they are doing in defense of our nation.
    USCYBERCOM is a subunified command of U.S. Strategic Command; we 
are based at Fort Meade, Maryland. Approximately 1,100 people 
(military, civilians, and contractors) serve at USCYBERCOM, with a 
Congressionally-appropriated budget for Fiscal Year 2015 of 
approximately $509 million for Operations and Maintenance (O&M), 
Research, Development, Test and Evaluation (RDT&E), and military 
construction (MILCON). USCYBERCOM also includes its key Service cyber 
components: Army Cyber Command/Second Army, Marine Forces Cyberspace 
Command, Fleet Cyber Command/Tenth Fleet, and Air Forces Cyber/24th Air 
Force. Our collective missions are to direct the operation and defense 
of the Department of Defense's information networks while denying 
adversaries (when authorized) the freedom to maneuver against the 
United States and its allies in and through cyberspace. On a daily 
basis, we plan, coordinate, integrate, synchronize, and conduct 
activities to direct the operations and defense of specified Department 
of Defense information networks and the Department's critical 
infrastructure; and prepare to and, when directed, conduct full-
spectrum military cyberspace operations in order to enable actions in 
all domains, ensure U.S. and allied freedom of action in cyberspace and 
deny the same to our adversaries.
    USCYBERCOM operates with several key mission partners. Foremost is 
the National Security Agency and its affiliated Central Security 
Service (NSA/CSS). The President's decision to maintain the ``dual-
hat'' arrangement (under which the Commander of USCYBERCOM also serves 
as the Director of NSA/Chief, CSS) means the partnership of USCYBERCOM 
and NSA/CSS will continue to benefit our nation. NSA/CSS has 
unparalleled capabilities for detecting foreign threats, producing 
intelligence for our warfighters in all domains, analyzing cyber 
events, and guarding national security information systems. The best, 
and only, way to meet our nation's needs, to bring the military cyber 
force to life, to exercise good stewardship of our nation's resources, 
and to ensure respect for civil liberties and privacy, is to leverage 
the capabilities (both human and technological) that have been 
painstakingly built up at Fort Meade. Our nation has neither the time 
nor the resources to re-learn or re-create the capabilities that we tap 
now by working with our co-located NSA/CSS partners.
    Let me also mention another key mission partner and neighbor at 
Fort Meade, the Defense Information Systems Agency (DISA). DISA is 
vital to the communications and the efficiency of the entire 
Department, and its people (especially those supporting the new Joint 
Force Headquarters--DOD Information Networks) operate in conjunction 
with us at USCYBERCOM on a constant basis. We also work with other 
federal government departments and agencies, particularly the 
Department of Homeland Security (DHS) and the Department of Justice and 
Federal Bureau of Investigation (FBI). We interact regularly with 
private industry and key allied nations as they seek to secure their 
networks, identify adversarial and criminal actors and intentions, 
build resiliency for federal and critical infrastructure systems, and 
investigate the theft and manipulation of data.
Where We Were
    This year we will mark the fifth anniversary of USCYBERCOM's 
activation. The Department authorized the creation of a Cyber Command 
in 2009, and accelerated its establishment the following year. This 
initiative was truly reflective of a broad consensus. The highest 
levels of our government saw potential adversaries militarizing 
cyberspace, mounting cyber espionage on a world-wide scale and using 
cyber capabilities to intimidate their neighbors. We also saw cyber 
efforts against DOD and realized the need to ensure our ability to 
defend its networks and command and control our own Department's forces 
and information systems. We in the U.S. military took the step of 
creating a new warfighting organization for cyberspace because we 
recognized that our nation's economy, infrastructure, and allies were 
incurring grave risks from digital disruption, and that potential 
adversaries were working aggressively to exploit those vulnerabilities. 
We saw unfriendly states, organized criminals, and even unaffiliated 
cyber actors stealing American intellectual property and using cyber 
means for coercion. USCYBERCOM was established to help stop such 
activities, or at least to minimize their effects on the United States 
and its allies.
    USCYBERCOM confronted serious challenges from the outset. DOD 
networks had been planned and initially constructed decades earlier in 
an environment in which redundancy, resiliency, and defensibility were 
not always primary design characteristics. Operators in USCYBERCOM, not 
surprisingly, could not even see all of our networks, let alone monitor 
all the traffic coming into and out of them from the Internet. Our 
people were and are professionals, so that issue was rapidly engaged, 
but nonetheless the sheer volume of work involved in starting a new, 
subunified command was substantial.
    I have been at USCYBERCOM for approximately a year, and thus have 
had time to form some impressions of the organization and its progress. 
I knew when I took command that we had a sound foundation and could 
build upon it with confidence. The organizations had been well scoped 
and granted the authorities necessary to do our work. The bad news was 
that USCYBERCOM was built from the ground up by cutting manning to the 
bone, initially sacrificing vital support functions and institutional 
infrastructure to build mission capabilities as fast as possible. I was 
nonetheless pleased by the quality and dedication of the personnel 
across USCYBERCOM and our Service cyber components. These are 
professionals, in every sense of the word, and they are determined to 
put in place military cyber capabilities that will keep the nation safe 
in cyberspace. For their sake, and even more so for America's, I intend 
to make our organizations even stronger--and provide my successors the 
opportunity to do the same.
Where We Are Now
    Over the last five years we have built USCYBERCOM to help defend 
our networks in DOD and the nation. This has not always been a 
straightforward process. Our Command is growing and operating at the 
same time, performing a multitude of tasks across a diverse and complex 
mission set. Of course, every command changes with events in its 
mission space, adjusts to evolving policies and direction, and adapts 
with the development of armaments and tactics. I do not want to foster 
the impression that we are completely unique. It is true, nonetheless, 
that we are constructing a new command and force while engaged on a 24-
hour a day basis, every day of the year, with smart, energetic actors 
operating in an environment that is highly dynamic. Some of those 
actors, I hasten to add, operate with no discernible legal or ethical 
restraints. At the same time, we are writing doctrine, training people 
to execute options, and keeping up with the ever-shifting topography of 
cyberspace. That complexity presents us--and every nation that seeks a 
military cyber capability--with a set of challenges that are 
significant.
    In essence, USCYBERCOM has been ``normalizing'' our operations in 
cyberspace. We seek to afford an operational outlook and attitude to 
the running of the Department's roughly 7 million networked devices and 
15,000 network enclaves. Collectively these represent a weapons system 
analogous to a carrier strike group or an aircraft strike package, 
through which we deliver effects. Like conventional weapons systems, 
our networks enable operations in other domains and distant locations, 
they demand constant upkeep and skillful handling, and they can be a 
target themselves for our adversaries. They give us the vital command 
and control (C2), connectivity, and intelligence for a global, 21st 
century military. No other nation enjoys such resources--they impart to 
us formidable advantages over any conceivable adversary. It is for 
exactly this reason that potential adversaries very much want to map, 
understand, exploit, and possibly disrupt our global network 
architecture.
    In keeping with that operational mindset, we seek to impress upon 
commanders that cyber defense is no longer information technology (IT) 
it is not a mere support function that they can safely delegate to 
someone on their staff. Cyber is now a central part of their ability to 
execute their mission. It is commander's business. A successful 
intrusion, or severance of connectivity, can result in a direct and 
immediate impact to successful mission accomplishment. We have seen 
this happen in recent years, and though we have not yet experienced a 
serious, sustained disruption to the Department's information systems, 
it may be only a matter of time before we face one, given the inherent 
vulnerability of our networks.
    The fragility of that legacy architecture motivates our emphasis on 
deploying the Joint Information Enterprise (JIE) across DOD. We have 
gained significantly more visibility in our networks, but that is only 
a stopgap measure while the Department migrates its systems to a cloud 
architecture that promises to increase security and efficiency while 
facilitating data sharing across the enterprise. That means that the 
warfighter at the forward edge of battle benefits from the same data 
pools as our analysts, operators, and senior decisionmakers here in the 
United States. While the JIE is being implemented, however, our 
concerns about our legacy architecture collectively have spurred our 
formation of our new Joint Force Headquarters to defend the 
Department's information networks (JFHQ-DODIN). The JFHQ-DODIN gained 
then-Secretary of Defense Hagel's authorization late last year and has 
recently achieved initial operational capability, working at DISA under 
my operational control at USCYBERCOM. JFHQ-DODIN's mission is to 
oversee the day-to-day operation of DOD's networks and mount an active 
defense of them, securing their key cyber terrain and being prepared to 
neutralize any adversary who manages to bypass their perimeter 
defenses. Placing the just-established JFHQ-DODIN under USCYBERCOM 
gives us a direct lever for operating DOD's information systems in ways 
that make them easier to defend, and tougher for an adversary to 
affect. It also gets us closer to being able to manage risk on a 
system-wide basis across DOD, balancing warfighter needs for access to 
data and capabilities while maintaining the overall security of the 
enterprise
    USCYBERCOM directs the operation and defense of Department of 
Defense networks, but it does much more as well, hence its formation of 
a Cyber Mission Force (CMF) to turn strategy and plans into operational 
outcomes. The Command's last two annual posture statements have 
mentioned the CMF's authorization and initial steps, and I am pleased 
to report that the Force is very much a reality. With continued support 
from Congress, the Administration, and the Department, USCYBERCOM and 
its Service cyber components are now about halfway through the force 
build for the CMF. Indeed, many of its teams are generating capability 
today. Three years ago we lacked capacity; we had vision and expertise 
but were very thin on the ground. Today the new teams are actively 
guarding DOD networks and prepared, when appropriate and authorized, to 
help Combatant Commands deny freedom of maneuver to our adversaries in 
cyberspace. Dozens of teams are now operating; and even though many of 
them are still filling out their rosters and qualifying their 
personnel, they are proving their value daily as well as confirming the 
overall need for such a construct.
    The work of building the CMF is not done yet. We have a target of 
about 6,200 personnel in 133 teams, with the majority achieving at 
least initial operational capability by the end of fiscal year 2016. I 
have been working with the Services to accelerate the work we are doing 
to keep on schedule, but I can promise you that will not be easy. We 
are already hard pressed to find qualified personnel to man our CMF 
rosters, to get them cleared, and to get them trained and supported 
across all 133 teams. To address these gaps, I am working with our 
Service components, Chief, National Guard Bureau, and Reserve Chiefs to 
ensure we have considered a total force solution. In several areas, 
such as critical infrastructure, both USCYBERCOM and the Services have 
recognized that our Reserve Component brings us unique and valuable 
skills. In addition, we are charting the proper command and control 
relationships and structures for these teams, seeking to establish 
proper headquarters support for them, and giving my commanders insight 
into their activities so we can ensure the best possible 
synchronization, deconfliction, and unity of effort across the CMF. 
There are all sorts of good ideas for doing this; indeed, we hear no 
shortage of suggestions. What I tell everyone, however, is that we have 
admired this issue long enough. For instance, it is time to implement 
and exercise measures like the objective C2 model that we agreed upon 
as a Department almost two years ago, even if we believe it may not end 
up as the permanent solution. Let us see how it works, and then change 
what needs to be fixed later as we gain insights from operations and 
the shifting threat.
    Where we need help from you is with resources required to hire 
personnel to fill the team seats as well as necessary operational and 
strategic headquarters operations, intelligence, and planning staffs, 
facilities where we can train and employ them, and resources to 
properly equip them. Everyone involved knows this is a priority for the 
Department as well as for the Administration writ large. We also know 
that our Department in particular has a broad range of critical 
priorities, each of which competes with cyberspace for resources. This 
is a cold, hard reality--as is the fact that weaknesses in cyberspace 
have the potential to hold back our successes in every other field 
where the Department is engaged. Similarly, success in securing our 
networks and denying adversaries freedom of maneuver in cyberspace can 
and does bolster our DOD successes in all warfighting domains. That 
should factor into our resource decisions, particularly as we face the 
renewed possibility of sequestration--and mandatory, across-the-board 
eight percent budget cuts--when Fiscal Year 2016 begins a few months 
from now.
    Let me emphasize the value of the intangibles in our work and our 
environment. Collectively we in USCYBERCOM have gained priceless 
experience in cyberspace operations, and that experience has given us 
something even more valuable: insight into how force is and can be 
employed in cyberspace. We have had the equivalent of a close-in fight 
with an adversary, which taught us how to maneuver and gain the 
initiative that means the difference between victory and defeat.
    Enhancing such insight is increasingly urgent. Every conflict in 
the world today has a cyber dimension. Actors with modest conventional 
military capabilities have shown considerable capacity to harass, 
disrupt, and distract their adversaries through digital means. This is 
not, however, some on-line version of a Hobbesian state of nature; it 
is not a war of all against all. What we are seeing are clear patterns 
to cyber hostilities, and those patterns have four main trends:
    <bullet>  First, it has to be noted that autocratic governments in 
several regions view today's open Internet as a lethal threat to their 
regimes. For example--as President Obama noted last December--North 
Korea recently turned its cyber capabilities on Sony Pictures 
Entertainment in revenge for a forthcoming movie. The North Koreans 
employed unlawful cyber activities to steal and destroy data and 
property, to intimidate and coerce U.S.-based businesses, to threaten 
American citizens, and to disrupt free speech within the United States. 
This is unacceptable. Democracies value Internet freedom and a multi-
stakeholder system of governance, in which the Internet is officially 
neutral with regard to free and open political speech--with clear 
protection for criticism and debate. We make no apologies for the fact 
that such neutrality is abhorrent to regimes that fear their own 
citizens; hence their ubiquitous and determined efforts to redefine 
``cybersecurity'' to mean protection from ``dangerous'' ideas as well 
as from malicious activity.
    <bullet>  Second are the ongoing campaigns to steal intellectual 
property. Massive thefts of personal and institutional information and 
resources, by states and by criminals, have been observed over the last 
decade or so. Criminals are mining personal information for use in 
identity theft schemes, in a sense committing fraud on an industrial 
scale. States have turned their much greater resources to theft as 
well. These intrusions and breaches have drawn comments from the 
highest levels of the U.S. Government. I would only add here the 
observation that the most worrisome of these campaigns are state-
sponsored, persistent, and world-wide in scope. They are aimed at 
governments, non-profits, and corporations wherever they might be 
accruing intellectual capital that the attackers believe could be 
valuable, whether for re-sale or passage to competing firms and 
industries.
    <bullet>  The third form of cyber tactic we see is disruption. Once 
again, the actors, techniques, and targets of these incidents are 
numerous and varied, ranging from denial-of-service attacks, network 
traffic manipulation, and employment of destructive malware. We see 
these used all over the world, particularly in most or all of the 
conflicts pitting two armed adversaries against one another.
    <bullet>  Finally, we see states developing capabilities and 
attaining accesses for potential hostilities, perhaps with the idea of 
enhancing deterrence or as a beachhead for future cyber sabotage. 
Private security researchers over the last year have reported on 
numerous malware finds in the industrial control systems of energy 
sector organizations. As I suggested in my appearance before the House 
Permanent Select Committee on Intelligence last fall, we believe 
potential adversaries might be leaving cyber fingerprints on our 
critical infrastructure partly to convey a message that our homeland is 
at risk if tensions ever escalate toward military conflict.
    Despite the spread of cyber attacks and conflicts around the world, 
we have increasing confidence in our operations-based approach. Though 
it is still developing and not yet fully implemented, it has 
nonetheless given us significant advantages in relation to potential 
adversaries. For instance, I can tell you in some detail how USCYBERCOM 
and our military partners dealt with the Heartbleed and ``Shellshock 
vulnerabilities that emerged last year. These were unrelated but 
serious flaws inadvertently left in the software that millions of 
computers and networks in many nations depend upon; an attacker could 
exploit those vulnerabilities to steal data or take control of systems. 
Both of these security holes were discovered by responsible developers 
who did just what they should have done in response--they kept their 
findings quiet and worked with trusted colleagues to develop software 
patches as quickly as possible--allowing systems administrators to gain 
the jump on bad actors who read the same vulnerability announcements 
and immediately began devising ways to identify and exploit unpatched 
computers.
    We at USCYBERCOM (and NSA/CSS) learned of Heartbleed and Shellshock 
at the same time that everyone else did. Our military networks are 
probed for vulnerabilities thousands of times every hour, so in both 
cases it was not long before we detected new probes checking our 
websites and systems for open locks, as it were, at the relevant doors 
and windows. By this point our mission partners had devised ways to 
filter such probes before they touched our systems. We were sheltered 
while we pushed out patches across DOD networks and monitored 
implementation, directing administrators to start with those systems 
that were most vulnerable. Very quickly we could determine and report 
how many systems had been remedied and how many remained at risk. Three 
years ago, DOD would have required many, many months to assess the 
danger and formulate responses to Heartbleed and Shellshock. Thanks to 
the efforts we have made in recent years, our responses by contrast 
were comparatively quick, thorough, and effective, and in both cases 
they helped inform corresponding efforts on the civilian side of the 
federal government. We also know that other countries, including 
potential adversaries, struggled to cope with the Heartbleed and 
Shellshock vulnerabilities. In military affairs it is often relative 
speed and agility that can make a difference in operations; we 
demonstrated that in these instances, and in others that we can discuss 
in another setting.
    This operational approach is what we need to be building in many 
more places. The nation's government and critical infrastructure 
networks are at risk as well, and we are finding that computer security 
is really an enterprise-wide project. To cite one example, the U.S. 
Government is moving toward cloud computing and mobile digital devices 
across the enterprise, and DOD and the Defense Industrial Base (DIB) 
are moving with this trend. We are working, moreover, to make our data 
as secure from insider threats as from external adversaries. This could 
eventually compel a recapitalization of government systems comparable 
to the shift toward desktops in the 1980s and local-area networks in 
the 1990s. In short, a lot of money and many people are involved at all 
levels. USCYBERCOM is not running this transformation, of course, but 
we are responsible for defending the DOD systems that will be changed 
by it.
    Neither the U.S. Government, the states, nor the private sector can 
defend their information systems on their own against the most powerful 
cyber forces. The public and private sectors need one another's help. 
We saw in the recent hack of Sony Pictures Entertainment that we have 
to be prepared to respond to cyber attacks with concerted actions 
across the whole of government using our nation's unique insights and 
complete range of capabilities in cooperation with the private sector. 
This interdependence will only increase in the future. Indeed, the 
cyber environment evolves rapidly--making the maturation of our 
capabilities and their agility in this changing mission space still 
more imperative for our ability to deter adversaries who might be 
tempted to test our resolve.
Where We Are Headed
    USCYBERCOM has accomplished a great deal, but we still have a long 
road ahead. Cyberspace is dynamic--it changes constantly with the 
actions of users and the equipment and software they connect on-line. 
Compounding that routine volatility are two factors: the rapid 
evolution of the technology itself, and the changing habits and 
expectations of users. If current trends hold, then we can expect more 
nations, and even state-less groups and individuals as well, to develop 
and employ their own tools and cyber warfare units to cause effects in 
targeted networks. The cyber strife that we see now in several regions 
will continue and deepen in sophistication and intensity. In light of 
our recent experience with the destructive attacks on Sony Pictures 
Entertainment, we expect state and unaffiliated cyber actors to become 
bolder and seek more capable means to affect us and our allies. Sadly, 
we foresee increased tensions in cyberspace.
    This is truly a period in history in which we are falling behind if 
we are merely holding our position in the overall movement to forge new 
capabilities. We in the U.S. Government and DOD must continue learning 
and developing new skills and techniques just to tread water, given the 
rapid pace of change in cyberspace. I liken our historical moment to 
the situation that confronted the U.S. early in the Cold War, when it 
became obvious that the Soviet Union and others could build hydrogen 
bombs and the superpower competition showed worrying signs of 
instability. We rapidly learned that we needed a nuclear force that was 
deployed across the three legs of the riad and underpinned by robust 
command and control mechanisms, far-reaching intelligence, and policy 
structures including a declared deterrence posture. Building these 
nuclear forces and the policy and support structures around them took 
time and did not cause a nuclear war or make the world less safe. On 
the contrary, it made deterrence predictable, helped to lower tensions, 
and ultimately facilitated arms control negotiations. While the analogy 
to cyberspace is not exact, it seems clear that our nation must 
continue to commit time, effort, and resources to understanding our 
historical situation and building cyber military capabilities, along 
with the ``whole-of-nation'' structures and partnerships they work 
among. Just as we fashioned a formidable nuclear capability that served 
us through the Cold War and beyond, I am confident in our ability to 
keep pace with adversaries who are determined to control ``their'' 
corners of cyberspace, to exfiltrate our intellectual property, and to 
disrupt the functioning of our institutions. They are every bit as 
determined, creative, and persistent in these efforts as the Soviet 
leaders we contained during the Cold War, and unfortunately we see few 
hints they will act more responsibly in cyberspace. Thus we must commit 
to the long-term goal of building a truly open, secure cyberspace 
governed collaboratively by many stakeholders, while we remain prepared 
for crises and contingencies that can arise along the way--just as we 
do in every other domain.
    I can assure Congress, and the American people, that we are 
executing and will carry out a well-conceived and systematic plan for 
doing that. As we train our cyber mission teams, we are inculcating a 
culture of respect for civil liberties and privacy while learning how 
to assess their readiness and establishing expectations and an 
institutional base that will serve to sustain this force, and even to 
expand it further if that someday becomes necessary. The team members 
we train today will furnish the leadership of the U.S. military's 
cyberspace organizations of the future; they are digital natives, 
having come up through the ranks thinking about cyber issues. I have no 
doubt their perspectives will differ from our own, and that they will 
see solutions to problems that vex us now. Building the capabilities of 
USCYBERCOM and the CMF is also providing valuable lessons for the 
reconfiguration of DOD's networked architecture to make it more 
defensible. When the JIE is completely implemented a few years from 
now, we will have a far more secure base from which to operate in 
cyberspace, and all of our capabilities in the other domains will 
benefit as well from the massive data support they receive from a cloud 
architecture.
    The sophistication of our defenses and operations must grow, of 
course, in partnership with our allies and as part of a truly whole of 
nation approach to the problem. Let me reiterate that there is no 
Department of Defense solution to our cybersecurity dilemmas. The 
global movement of threat activity in and through cyberspace blurs the 
U.S. Government's traditional understandings of how to address domestic 
and foreign military, criminal, and intelligence activities. This is 
exacerbated further by the speed with which unforeseen threats can 
impact U.S. interests and the fact that adversaries frequently use 
(wittingly or unwittingly) U.S.-based resources due to the nation's 
robust cyber infrastructure. This creates a circumstance in which unity 
of effort across the U.S. Government is required. DOD's growing 
capabilities and capacities need to be considered within this broader 
context. Any plausible solutions will involve multiple actors and 
stakeholders from within and across several agencies, governments, and 
economic sectors. Everything we do in USCYBERCOM we do in partnership 
with other commands, agencies, departments, industries, and countries. 
As we saw over the last year in our collective response to the 
Shellshock and Heartbleed vulnerabilities, we must all work together 
across the U.S. Government, with the states, industry, and allies on a 
constant basis to ensure we are ready to surge for incidents and crises 
and thus provide the necessary assurance for inter-agency and foreign 
partners.
    What does the future hold for USCYBERCOM specifically? I will 
strongly recommend to anyone who asks that we remain in the dual hat 
relationship under which the Commander of USCYBERCOM also serves as the 
Director, NSA/CSS. This is simply the right thing to do for now, as the 
White House reiterated in late 2013. It might not be a permanent 
solution, but it is a good one given where we are in this journey as it 
allows us to build upon the strengths of both organizations to serve 
our nation's defense.
Conclusion
    Thank you again, Mr. Chairman and Members of the Committee, for 
inviting me to speak, and for all the support that you and this 
Committee have provided USCYBERCOM. I appreciate our continued 
partnership as we build our nation's defenses. Our progress has been 
made possible because of support from all stakeholders, in terms of 
resources, trust, and impetus. Cyberspace is more than a challenging 
environment; it is now part of virtually everything we in the U.S. 
military do in all domains of the battlespace and each of our lines of 
effort. There is hardly any meaningful distinction to be made now 
between events in cyberspace and events in the physical world, as they 
are so tightly linked. We in USCYBERCOM have strived to direct the 
operation and defense of DOD information systems and to protect and 
further the nation's interests in cyberspace. We have a great deal of 
work ahead of us, and thus accelerating USCYBERCOM's growth in 
capability will remain my focus, and be a continuing emphasis for the 
Department. We can all be proud of what our efforts, with your help, 
have accomplished in building USCYBERCOM and positioning its men and 
women for continued success.

    Chairman McCain. Well, thank you, Admiral.
    It's not very often we have a briefing that really has 
significant impact, I think, on all members, but the briefing 
and the information that you'll--Admiral Haney and Admiral 
Rogers provided for us the other morning is very chilling and 
very disturbing, and I would like to, over time, see some of 
that information being made known to the American people, 
because it certainly should give us a wake-up call about what 
our adversaries are doing throughout the world.
    Every once in a while, we read things, media reports that 
get our attention. Admiral Haney, one is the New York Times, 
March 11th, ``Russia says has right to deploy nuclear weapons 
in Crimea. Russia has the right to deploy nuclear weapons in 
the Black Sea peninsula.'' Crimea, which Moscow, a Foreign 
Ministry official said Vladimir Putin--15 March--Vladimir Putin 
prepared raising nuclear readiness over Crimea. I'm sure you're 
aware of that, and much more, Admiral Haney. What's your 
reaction to those kinds of news reports, particularly about 
Vladimir Putin's apparent willingness to sort of--if not play 
the nuclear card, certainly raise the nuclear issue?
    Admiral Haney. Chairman McCain, you bring up very important 
points here. It is interesting, in the open press all the way 
through YouTube, the various signaling that Russia has done 
associated with their strategic nuclear capabilities, including 
the ones you mentioned there. They are very provocative, and 
this, in combination with the whole-of-whole, in terms of these 
demonstrations of their capability during crisis, such as I 
mentioned--the long-range strategic aircraft flights, their 
violation of the INF Treaty, et cetera--really shows where we 
are as a world, including as the United States, and where 
Russia is trying to ascribe to be, in terms of coercion, 
including using weapons of mass destruction.
    Chairman McCain. Obviously, lending much greater importance 
and emphasis on our modernization of our triad, it seems to me. 
Would you agree?
    Admiral Haney. Absolutely, Senator. It's very important.
    Chairman McCain. Admiral Rogers, also a Wall Street Journal 
story, ``NSA's Rogers Calls for More Forceful Response to Cyber 
Attacks.'' Obviously, that's not going to be possible if we 
proceed with sequestration, would you agree?
    Admiral Rogers. Yes, sir.
    Chairman McCain. On--and yet, I--as I mentioned in my 
earlier opening statement, the budget calls for 5.5 billion in 
cyber investment, but only 8 percent will go towards your 
capabilities in Cyber Command and the development of our cyber 
mission forces. Does this raise the issue that you have talked 
about in the past as to whether we have a policy, or not, as to 
what to do in the event of cyber attacks? Do we just spend our 
time trying to erect further defenses? By the way, I think most 
of us agree, all of us agree, passage of legislation is 
important. But--or do we start devising ways to raise a price 
for those attacks?
    You have said, earlier in the week, that right now it is 
a--you said, ``Right now, if you're a nation-state, if you're a 
group, if you're an individual, my assessment is that most come 
to the conclusion that conducting a cyber attack is incredibly 
low risk, that there's little price to pay for the actions that 
they are taking.'' Doesn't that mean that we should start 
devising methods and capabilities to enact a price for these 
people to pay, whether they be nation-states or rogue 
individuals or groups?
    Admiral Rogers. Yes, sir. You look at our investment 
strategy as part of a broader plan. We focus primarily on the 
defensive piece, initially. I thought that was a sound 
investment, but I think now we're at a tipping point, where we 
not only need to continue to build on the defensive capability, 
but we have got to broaden our capabilities to provide 
policymakers and operational commanders with a broader range of 
options. Because, in the end, a purely defensive, reactive 
strategy will be both late to need and incredibly resource 
intense. I don't think that's necessarily in our best long-
range interest. So, I have been an advocate of--we also need to 
think about how can we increase our capacity on the offensive 
side, here, to get to that point of deterrence as you've 
raised.
    Chairman McCain. Right now, as far as you know, that 
decision has not been made, which would come from the President 
of the United States.
    Admiral Rogers. Yes, sir, the President retains that 
authority right now.
    Chairman McCain. That policy has not been decided on, as 
far as any instructions to you are concerned.
    Admiral Rogers. No, sir, no authority has been delegated at 
my level for the offensive application of cyber.
    Chairman McCain. You think it might be time?
    Admiral Rogers. I think we still need to work our way 
through this. It's not unlike, in some ways, what we saw in the 
history of the nuclear arena or in the post---aftermath of 9/
11, as we were trying to figure out what--at what level, for 
example, do--were we comfortable making the decision that we 
were going to shoot down, potentially, a civilian airliner that 
we thought had potentially become a weapon. We had much that 
same discussion. I think we need to have that same discussion 
now. We've got to increase our decisionmakers' comfort and 
level of knowledge with what capabilities we have and what we 
can do.
    Chairman McCain. But, right now, the level of deterrence is 
not deterring.
    Admiral Rogers. That is true.
    Chairman McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Admiral Haney, we talked about the need to modernize the 
triad. The first step seems to be in terms of just sequencing 
the Ohio-class replacement, but we also need to begin to invest 
in a long-range bomber. Can you just briefly describe the 
platforms that we have to invest in, and also the need to start 
immediately?
    Admiral Haney. Senator Reed, the--look at the platforms 
today. We have extended the Ohio, the current SSBN, to the max 
extent possible. This was a platform designed for 30 years, and 
we're taking it out to 42 years. We cannot extend it any 
further. It has to be replaced.
    When you look at our intercontinental ballistic missiles--
systems, they, too, are starting to fray from the maturity of 
those systems. They've been around since the early '70s. As a 
result, there is an analysis of alternative in progress, called 
the groundbased strategic deterrent, that we have to continue 
to work towards, that provides a very responsive capability for 
deterrence.
    In the bombers, the last B-52 came off the assembly line in 
1962, and it will be around, even with the current plan, to 
about 2040. Long time for that aircraft. Even our B-2 aircraft 
has had to--two decades of intensive operations. So, the long-
range strike bomber is also a must that we have to 
recapitalize.
    So, all three of those platforms are coming to a point 
where we're getting all we can get out of them, and we have to 
recapitalize them. The triad is important to our strategic 
deterrence.
    Senator Reed. Let me ask a related question. The air-launch 
cruise missile, is that another system that should be replaced 
or modernized significantly?
    Admiral Haney. Senator, absolutely. The air-launch cruise 
missile, the current one, was designed for 10 years. It's at 
the 30-year point today. It provides the combination, when you 
take a credible bomber, a cruise missile, as well as the 
gravity weapons--the combination of those provides the 
complexity by which an adversary would have to think if they 
went to escalate their way out of a conflict. Very important, 
particularly as we look at the standoff. Standoff is still 
required. Having combination of a credible bomber and standoff 
capability. So, we must replace this air-launch cruise missile. 
So, this long-range strike-option missile program is important 
to me.
    Senator Reed. Thank you, sir.
    General Selva, you mentioned the various civilian 
components of your, essentially, command. One of them is the 
CRAF, the Civilian Reserve Air Fleet. As operations tend 
downward, in terms of Afghanistan, Iraq, and other places, you 
can rely more upon your organic aircraft, U.S. Air Force 
aircraft and other military aircraft. How are you going to 
reconcile this decreased demand with the need to maintain the 
capabilities of the civilian fleet?
    General Selva. Thank you, Senator.
    In order to do justice to the readiness requirements for 
the organic and civil fleet, we're going to have to balance how 
we use the aircraft to move the cargo and passenger demand 
signal that exists within the Department. It is markedly 
diminished, to less than half of what it was just a year ago. 
We've implemented a process inside the command, where we 
actually use a readiness determination to allocate that lift.
    But, there is a second part of the Civil Reserve Air Fleet 
which is invisible to most users, and that is, the incentive 
for carriers to come into the fleet is governmentwide business 
that's managed through the Government Services Administration. 
That represents several billion dollars of annual spend on 
passenger and cargo movement that only Civil Reserve Air Fleet 
carriers are eligible to participate in. So, we have worked 
very, very closely with the industry as well as the Government 
Services Administration to make sure that we've closed any 
loopholes in that process so that the carriers get access to 
the business that they deserve. That will keep the fleets 
healthy, as the civilian airlines go through what is likely to 
be an economic consolidation of their assets over time.
    Senator Reed. What other agencies of the government 
typically rely upon this other aspect, the government business? 
Is it AID and entities like that? What----
    General Selva. Sir, as a consequence of the Government 
Services Administration City Pairs Program, all Federal 
agencies rely on the passenger part of the Civil Reserve Air 
Fleet. On the cargo side, in 2012 the Congress gave U.S. 
TRANSCOM and the Department of Defense the authority to offer 
defense transportation system rates to the whole of Federal 
Government, which we have done in order to bring more mission 
set into the network.
    Senator Reed. But, again, one of the unintended 
consequences of sequestration is not only reduction in your 
funds to do this program, but in every Federal department, 
because I would assume one of the first things the Department 
of Commerce or the--it would start--cut back travel 
dramatically, et cetera, putting more pressure on your ability 
to manage the Civil Reserve Airfleet Allocations (CRAF). Is 
that correct?
    General Selva. Senator, that's exactly correct. If we lose 
that business, if we lose that mission set as a consequence of 
sequestration, it'll have an immediate readiness impact on the 
Civil Reserve Air Fleet.
    Senator Reed. Not just directly--again, my point, not just 
directly from your efforts, but----
    General Selva. Correct.
    Senator Reed.--governmentwide.
    General Selva. Yes, sir.
    Senator Reed. If you are spared, and eery other department, 
your Civil Reserve Air Fleet is in--is really in tatters. Is 
that correct?
    General Selva. I wouldn't use the word ``in tatters,'' but 
it'll make it a much more challenging process to keep it going.
    Senator Reed. Thank you.
    My time's expected. But, thank you, Admiral Rogers.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Admiral Haney, I don't think I've ever publicly thanked you 
for the time and effort you spent--it's been 2 years now; it's 
hard to believe--at the Joint Base Pearl Harbor, and the 
dedication, the time that we spent there. That was beyond the 
call of duty, and I thank you very much for that.
    The--I think that Senator Reed and Senator McCain both 
talked about the nuclear arsenal and some of the problems in 
the triad delivery system. I think we can talk about the 
problems that we have with ours, the age of the B-2--of the B-
52, and the ICBM, 34 years old, and the fact that we have--our 
spending has just declined steadily since the cold war. You 
know, we--when you look at what Admiral Rogers has taken on, 
our--at least our spending has increased in that area, but it's 
continued to decrease. I think you--when you're talking about 
the triad, I guess that Russia is the only country that has a 
triad system, even though it's my understanding that China and 
India are developing a--such a system. Is that correct?
    Admiral Haney. Senator, currently, China has both 
submarines and intercontinental ballistic missiles, and they 
are developing more and more of a bomber fleet. Their 
intentions, as you know, in China are not very transparent. So, 
time will tell on that answer.
    Senator Inhofe. But, that's accurate, though. They're not 
there yet, in terms of a triad.
    Admiral Haney. That's correct. As you mentioned, Russia not 
only is modernizing their triad, but they're also modernizing 
their industrial base associated with it. That, too, is 
something that we have to integrate into our calculus. Not just 
India, but Pakistan is also developing----
    Senator Inhofe. Where are they, now, in their delivery 
system?
    Admiral Haney. They have been clearly invested into cruise 
missiles, and they have been recently--just recently having 
tested a intercontinental ballistic missile capability.
    [The information referred to follows:]

    During my testimony, I erroneously said Pakistan was developing an 
``intercontinental ballistic missile''. I meant to say ``medium range 
ballistic missile''. Please accept this clarification of the record.

    Senator Inhofe. Well, you spent some time talking about the 
problems that we have, and we--you know, for the last 20 years, 
we've been talking about this, and that--and the system gets 
older and older, and we don't seem to do anything about it. 
But, we don't talk as much about the others. The other people 
out there, even Iran--I think it was--General Stewart was here 
last week or the week before, and he warned us that, in Iran, 
they're continuing to develop the nuclear weapons and could 
soon test a space-launch vehicle that could double as a long-
range missile. That's pretty frightening, because it's--we're 
no longer looking at just the superpowers that are developing 
this capability.
    Admiral Haney. That's correct, Senator. Very recently, Iran 
also had a space-launch vehicle to send a satellite in space. 
But, not just them; North Korea frequently parades their KN-08 
intercontinental ballistic missile.
    Senator Inhofe. Yeah. The KN-11, I guess it is. Well, then 
you agree with General Stewart----
    Admiral Haney. Yes, Senator.
    Senator Inhofe.--that Iran is developing that capability, 
too.
    Admiral Rogers, I became very close to your predecessor, 
Alexander. You and I have talked about that. One of the things 
that's interesting about the cyber issue is, it's something 
that people don't know anything about. Americans don't 
understand it. They think about hackers and identity theft and 
that type of thing, but they don't really know how it works. 
But, they know it needs more funding. That puts you in a 
different situation than anybody else is in. Now, that's one of 
the few areas where the DOD budget has been enhanced. Right 
now, it's up--it's 14 billion proposed increase in cyber 
security this year, up 1 billion from last year.
    Now, we have heard what would happen--what would be the 
first thing that you would have to do, and the consequences, 
should the sequestration come in?
    Admiral Rogers. The first impact I'd probably see is that 
the services would tell me I can't generate the mission force 
that you're counting on execute the mission, so I'd have to go 
to my fellow commanders, operationally, and say, ``I'm either 
going to need to reprioritize and redistribute existing 
manpower and capability, and remove it from you and provide it 
to someone else, or you're just going to have to go without.''
    The other thing that concerns me about sequestration--
because I still hear this from my civilian workforce; in 
particular, at Cyber Command--my workforce still talks, at 
times, about the impact of the government shutdown, when they 
didn't come to work. I remember telling them at the time, 
``Stay the course with us. The Nation needs you. We need you. I 
believe that this is just a temporary aberration and that, 
hopefully, over time, we'll have stability, and you can build a 
long-term career with us.'' Because, quite frankly, for most of 
the workforce that I'm responsible for leading, they could make 
a whole lot more money on the outside, and they are gobbled 
up--it's--whenever they decide they want to leave, they have no 
problems getting jobs. If we go into the sequestration 
scenario, one of my concerns is, Does the workforce say, ``Aha, 
this is just another example of how I cannot count on stability 
with the government, so maybe I need to go to the private 
sector''?
    Senator Inhofe. Yeah. You know, that--my time's expired, 
but that was exactly the primary concern that Alexander had 
when he was in that, because the people--there's a huge market 
for your guys on the outside.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Admiral Haney, as you're well aware, STRATCOM set the 
requirement for a common warhead to be used for both the 
military requirements of the ICBM and the submarine-launch 
ballistic missile. That warhead has now been shelved for at 
least 5 years while we deal with other pressing concerns. I 
wanted to ask you if it wouldn't make more sense, potentially, 
that, instead of shelving the design, to, rather, keep a low-
level effort in place. I raise that issue, in large part, 
because of the necessity of maintaining the requisite talent 
and design skills capability among our physicists at Los Alamos 
National Laboratories.
    Admiral Haney. Senator Heinrich, I want to first salute the 
work that the Laboratories do to support the missions of U.S. 
Strategic Command. They are involved in a lot of life extension 
program work for us, and surveillance program, which is 
critical for us to be able to use these warheads that now are 
of age of around 27 years.
    In regards to your question, what we sometimes call the 
``interoperable warhead,'' the business that we're already 
working toward is where we can have commonality in some of the 
electrical components and what have you. The designers are 
working toward that.
    As we've described here, the limits of sequestration in our 
budget has required us to prioritize things. So, the Nuclear 
Weapons Council, which is a big group that includes both 
Department of Defense and Department of Energy and National 
Security Agency (NSA), have been working hard to get that 
prioritization right while at the same time paying close 
attention to how we are keeping the workforce employed. These 
life extension programs are challenges, and they're working 
hard at those designs, too.
    Senator Heinrich. Would you say that the limits of that 
sequestration are so limiting that you're forced to make some 
decisions that may be penny wise and pound foolish?
    Admiral Haney. I wouldn't exactly--I would say, with 
sequestration, across our Department, absolutely we will be 
making decisions----
    Senator Heinrich. Yeah, not referring to the President's 
Budget, but if we go to full sequestration Budget Control Act 
levels.
    Admiral Haney. Absolutely, Senator.
    Senator Heinrich. Admiral Rogers, I wanted to return to 
something you sort of touched on tangentially in the reality 
that it's evident that many of the good people who do work for 
you could make a lot more money on the outside. We're seeing an 
increasing number of private-sector firms that are collecting 
and analyzing, disseminating cyberthreat intelligence for 
commercial customers. What do you--have you given much thought 
to what you think the proper role is for the private sector to 
play in cyberthreat intelligence collection and analysis? As 
the market for cyberthreat intelligence continues to grow, how 
does the IC plan to better leverage commercial efforts as part 
of its overall mission balance?
    Admiral Rogers. So, in the end, the nature of cyber, this 
is the ultimate team sport, in my experience. This--the key to 
our effectiveness as a Nation, I believe, in no small part will 
be driven by, How can we bring together the capabilities of the 
private sector and the public sector? It's one reason, for 
example, why I believe that cyber information-sharing 
legislation is so critical. We have got to provide incentives 
and cover, if you will, for the private sector to be able to 
move information to the government, and for the government to 
be able to push information to the private sector.
    In terms of the way we partner, the aftermath of Sony was a 
very good example, where we not only collaborated, wearing my 
NSA hat, between NSA, the FBI, Sony, as well as the private 
security firm they had hired. It's--the four of us collaborated 
together to come up with, Here's the conclusion, and here's the 
basis out of the conclusion, the fact that it was the North 
Koreans that did this. That was really powered in no small 
part, and significantly aided by the fact, that we were able to 
do it in partnership. That's a model, to me, for the future.
    Senator Heinrich. Thank you.
    Mr. Chairman, I'll yield back the remainder of my time.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service to our country, and 
for being here today.
    Admiral Haney, when we look at our nuclear force structure, 
I understand that we're locked in with the treaties that we 
have with Russia, but yet the United States provides that 
extended deterrence, and we have commitments with NATO and 
Australia, South Korea, Japan. As we look at the world today, 
we hear a lot of concern about other countries looking at 
developing or buying a nuclear weapon. When we look at that 
future proliferation that may be out there, how challenging is 
it going to be for us to be able to provide that extended 
deterrence to the allies that we now have commitments to?
    Admiral Haney. Senator Fischer, I would say, first and 
foremost, the assurance we provide those nations you mentioned 
is as important as deterrence, and we take that mission very 
seriously. With it, the key is not to have other nations go to 
nuclear capabilities. In our various talks with our key allies 
and partners, that piece is something that we do talk about 
and--to make sure nations like North Korea, as you've 
mentioned, understand that--I'm sorry, South Korea--understand 
that they are under our umbrella, and that we take that mission 
seriously.
    If we were to allow other nations--if other nations were to 
go off and build their own nuclear arsenal, the problem would 
be worse, and my other mission set of combating weapons of mass 
destruction at large would be problematic--problematic for the 
Nation and for the globe as a whole.
    Senator Fischer. How would that change our force structure? 
How would that change the plans we have for future deployment?
    Admiral Haney. That would more complicate our force 
structure and operational planning associated with it.
    Senator Fischer. Historically, we've looked at tactical 
nuclear weapons and our strategic nuclear weapons differently. 
They're considered differently when we have our arms 
agreements. Is that correct?
    Admiral Haney. Senator, they have, in the past; but I will 
say that, if you had a nonstrategic or tactical nuclear weapon 
go off anywhere in the world, that, too, would have a strategic 
effect.
    Senator Fischer. So, do you think the line between the two 
is breaking down?
    Admiral Haney. I wouldn't say the line is breaking down. I 
think the business of making sure we can account for both 
strategic and nonstrategic nuclear weapons is important today 
as it is in our future. It's just the arms control agreements 
we have today, such as New START Treaty, does not cover the 
nonstrategic nuclear weapons.
    Senator Fischer. Do we need to be looking at considering 
that in future arms control treaties? How important is that?
    Admiral Haney. I believe it's very important, given the 
numbers of nuclear weapons that are in this nonstrategic 
category. I've said that publicly before.
    Senator Fischer. Admiral, when we look at cyber space and 
cyber security, I've--I appreciated Admiral Rogers' comments 
about not just being on the defense, but being on the offense. 
How important do you think that is? What signals do we need to 
send, not just to nations, other nations out there, but to the 
criminal element, to unsavory characters that are continuing to 
attack our agencies and private businesses? What kind of 
signals do we need to send, and how are we going to be able to 
draw that line in the sand to say that, ``You can't cross 
this''?
    Admiral Haney. Senator Fischer, I think it's important, as 
we go forward, one, in working as we are with other nations 
associated with cyber norms. I think the definitions are 
required. As mentioned earlier in this hearing, the business of 
solidifying policies, such that we can share that piece, is 
required. So, we have to have the whole of whole, from defense 
to offensive capabilities, in order to address this problem 
and, again, to ensure others understand they can't escalate 
their way.
    Senator Fischer. As we work on these policies, should we be 
working with our allies on those policies, as well, to make a 
stronger statement?
    Admiral Haney. I fundamentally believe we have to, because 
we have to have an international norm, but we have to, as a 
country, galvanize around the policies, ourselves, because the 
threat is on us today.
    Senator Fischer. Thank you, sir, I appreciate your 
comments.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    I'm sitting here listening particularly to Admiral Haney's 
testimony about recapitalizing, and realizing one of the wacky 
things about the Federal budgeting process is, we have no 
capital budget. We're buying 30- and 40-year assets out of 
cashflow. There are things it's appropriate to borrow for, 
including 30- and 40-year assets, whether they're highways or 
strategic bombers or Ohio-class submarines. Of course, now 
we're borrowing to pay salaries and park rangers and soldiers 
and sailors, so--but, it's--it is something--it's a larger 
issue that we should be talking about, in terms of the budget 
process. I'm going from here to the Budget Committee, and I 
believe the Chair of the Budget Committee feels the same way, 
that we should have--it's one of the few large institutions I 
know of that doesn't have an operating budget and a capital 
budget. That would be--it would be a lot more sensible to buy a 
Ohio-class submarine and finance it over 30 years or 20 years, 
particularly at interest rates that we have now. We're trying 
to capitalize out of cash, which really doesn't make much 
sense.
    Second, Admiral Haney, you've talked about the nuclear 
deterrent. Clearly it's been effective and important for almost 
70 years. How do we deter nonstate actors who are irrational? 
How does our deterrent--our--the theory of deterrence assumes a 
state actor who is at least moderately rational and worries 
about losing their lives or the lives of their--people of their 
country. How does--how do we develop a new theory of 
deterrence, or deterrence 2.0, that would have some impact on a 
terrorist group that gets a hold of one of these warheads and 
tucks it into the--a container headed into the Port of Newark?
    Admiral Haney. Senator King, very important questions. As 
we look at deterring nonstate actors, as you stated, the real 
key here still is a cost-benefit deterrence equation. It's a 
foundation to deterrence at large. So, we have to make sure 
it's extremely costly to prevent them from, first off, eating 
their hands when a weapon of mass destruction--in the first 
place; but making sure, every step of the way, that we have to 
put enough inhibitors in place so that, in order to even 
achieve the objective of obtaining one is hard, and ultimately 
so that they won't be able to get the benefit they seek to 
attain. This is why efforts in combating weapons of mass 
destruction are very important today, in nonproliferation, so 
that----
    Senator King. Intelligence, I assume, is big--a big part 
of----
    Admiral Haney. Foundational intelligence is huge. The 
sharing of that intelligence from nation to nation is also very 
important.
    Senator King. I would just suggest that this is an area 
that bears some very serious discussion and thought. I know 
it's going on, but I think it is, as we think about deterrence.
    I will report some good news. The Intelligence Committee, 
last week, reported out a cyber-sharing--cyber information-
sharing bill, 14 to 1. We're hoping that will move forward 
rather quickly. It's long overdue.
    Admiral Rogers, I presume you are supportive of that.
    Admiral Rogers. Yes, sir, I am.
    Senator King. Finally, Mr. Chairman, I'd like to associate 
myself with your comments. I--the--I just think it's critical 
to develop an offensive cyber capability.
    By the way, developing it isn't enough. We have to tell 
people that we have it; otherwise, it's not a deterrent. There 
has to be a price to be paid. I think the escalation of this 
capability by our potential adversaries is alarming and very 
real. We've--how many--I guess the question is, How many 
warning shots do we have to have, between Target and Sony and 
the Sands Casino, before we start telling the world, ``If you 
do this to us, you will pay a price?'' Because right now, as I 
think you testified, there's no price to be paid.
    Admiral Rogers. Yes, sir, I agree very strongly with the 
concerns you raise and the fact that we do have to take a look 
at the offensive piece as a part of that whole deterrent idea. 
Otherwise, we are on the wrong end of this equation, from a 
cost and a results perspective, and that's not a good place for 
us to be.
    Senator King. But, remember Dr. Strangelove, ``If you build 
a doomsday machine, you've got to tell people you have it. 
Otherwise''----
    Admiral Rogers. Yes, sir. It's all part of that deterrent 
idea.
    Senator King.--``the purpose is thwarted.''
    Thank you very much, Mr. Chairman.
    Chairman McCain. You're showing your age.
    [Laughter.]
    Chairman McCain. Senator Cotton.
    Senator King. I could come back, Mr. Chairman, but I'm not 
going to.
    [Laughter.]
    Senator Cotton. Hopefully, I won't show my age.
    Thank you, gentlemen, for coming. Thanks, to all those who 
sit behind you and all the ones you represent in your various 
commands, and all the work they do to help keep our country 
safe.
    Admiral Rogers, thank you for hosting me recently at the 
NSA and Cyber Command. General Selva, Admiral Haney, I hope to 
be able to visit your commands sometime soon, as well. Since 
they're not right down the street, it makes it a little bit 
harder to get there.
    I, too, want to support the statement of Senator King and 
Senator McCain about the need to develop offensive cyber 
capacities. It's far beyond the technical means that I learned 
as an infantryman, but basic infantry doctrine said, simply, 
``You're on the offense when you're moving, and you're on the 
defense when you're not on the offense.'' So, that means you're 
on the defense when you're sitting there waiting for someone to 
attack you, which is not the posture we want to have.
    All of you have said in your statements, both written and 
oral and in response to questions, about the ongoing negative 
and severe impacts that sequestration has had on our 
capabilities. We are now in a debate about what to do on that 
topic. One proposal in the budgets of the House and Senate 
Budget Committees, which are works in process--I don't expect 
you to comment on them--is to leave the base budget where it 
currently would be, at $498 billion, and potentially increase 
wartime spending or what we call ``overseas contingency 
operations'' spending in this building by up to $90 billion. 
So, the total DOD budget would be almost $600 billion. I'd just 
like to get your thoughts--again, not necessarily on those 
budget documents, but on the general concept of keeping 
sequestration caps in place, but having substantially higher 
overseas contingency operations spending. We can start with 
Admiral Haney and move down the line.
    Admiral Haney. Senator Cotton, overseas contingency 
operational funding can be problematic, in terms of what you 
can use it for. But, even more importantly, I think, is the 
long-term planning. When we talk about having the government, 
the military, operate more efficiently, we have to be able to 
deal with it on more than just one year at a time. Without the 
ability to have that long-term planning and the flexibility, 
where you take cuts and what have you, we will be even--we will 
be inefficient, quite frankly, and it will raise havoc, in 
terms of our joint military force capability at large.
    Senator Cotton. General Selva.
    General Selva. Senator, I worry that an incremental 
approach to sequestration relief will put us in a place where, 
as Senator King said, we'll find ourselves being penny wise and 
pound foolish. Inside the transportation and distribution 
enterprise, when we see a decrease in the demand signal that's 
the result of bringing forces out of Afghanistan, that's a 
reason to celebrate. When we watch a decrease in mission set 
that's a consequence of services cutting their exercise and 
readiness programs, that also plays a demand signal on the 
transportation enterprise. That puts us in a place where we are 
likely to be less ready than we ever have been in our prior 
history. It's a consequence of the services not knowing where 
the next marginal dollar is going to come from.
    So, if we take an incremental approach to sequestration 
relief, you still create the same kind of uncertainty that 
makes us inefficient and ineffective. So, I would worry that, 
with that proposal, not knowing any of the details behind it.
    Senator Cotton. Admiral Rogers.
    Admiral Rogers. I would echo the comments of my colleagues. 
The other point I would make, from a Cyber Command perspective, 
is, we're a relatively young, immature organization. We are 
just starting, if you will, the buildout of our capabilities. I 
don't have decades of investment that I can fall back on. So, 
this is all--as we're trying to build a long-term sustained 
plan in a high-threat and ever-growing environment, this up-
and-down annual incremental approach to doing business makes it 
very difficult for us to build a long-term sustainable plan in 
the face of this ever-increasing threat.
    Senator Cotton. So, if I could maybe synthesize what I'm 
hearing from the three of you, this approach of significantly 
increasing Overseas Contingency Operations (OCO) spending, but 
leaving the base budget where it is, may be better than 
nothing, only slightly better, though, because of the 
inefficiencies and the difficulty for the long-term planning 
you require?
    Admiral Rogers. Yes, sir.
    Admiral Haney. Absolutely. I'd also say it's a signal to 
our adversaries of how serious we are on deterrence assurance 
and ensuring we have a military capability.
    Senator Cotton. Thank you.
    Let me move to--from one--the very big topic to a very 
small, but important, topic. General Selva, coming up on the 
summer season, Permenant Change of Station (PCS) season, big 
delays recently in shipping privately owned vehicles, Outside 
the Continental United States (OCONUS) for our troops that are 
going overseas. It's a significant emotional event whenever a 
family gets OCONUS and doesn't have their vehicle. Can you talk 
to us about what we've done to avoid that--those kind of delays 
this year?
    General Selva. Yes, sir. I had a meeting with the 
contractor that holds that contract, on the 12th of February, 
and the subject of the meeting was their training program, 
their employment program, the number of employees they have 
onboard, and the operational concepts that they intend to use 
this summer to meet the--what we would call the ``summer 
surge.'' We'll move about 40,000 cars through the summer season 
as we move soldiers, sailors, airmen, marines, coastguardsmen, 
and State Department employees around the world. They presented 
a plan. The plan is reasonable. We have looked at--inside the 
Command, at all of the metrics that we'll use to measure that 
execution. I demanded from the company that they provide me 
with the underlying subcontracts that I could review with the 
people that are going to provide those services. It is a 
reasonable operational plan. It's their responsibility to 
execute. I'll use all the tools that exist in the contract to 
compel them to execute throughout the summer.
    Senator Cotton. Good.
    Thank you.
    Chairman McCain. Admiral Haney and General Selva and 
Admiral, if you had a choice between OCO and the present 
sequestration level, which would you choose?
    General Selva. Sir, that's a choice between the devil and 
the deep blue sea, but to balance the checkbook, I would take 
the OCO.
    Chairman McCain. Admiral?
    Admiral Haney. Senator McCain, obviously having more money 
is better than having less, so obviously I would take the 
choice of having OCO. But, it doesn't do much for U.S. 
Strategic Command, because procurement in those kind of things 
aren't what we use OCO for.
    Chairman McCain. Actually, we're putting provisions in to 
allow that procurement and modernization in the OCO provision.
    Admiral Rogers?
    Admiral Rogers. Similar to General Selva, more money is 
better than less. We--clearly, you'd be presenting us a 
challenge, but we get paid to deal with challenges and work 
through them.
    Chairman McCain. Thank you.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you all for being here.
    Admiral Rogers, the Naval Surface Warfare Center, Crane, in 
Indiana, does a lot of work in counterfeit activities, and I 
was wondering how you characterize this threat and its 
potential impact on our systems.
    Admiral Rogers. So, I assume we're talking about 
substituting gray market or other----
    Senator Donnelly. Correct.
    Admiral Rogers.--material in the supply chain.
    Senator Donnelly. Yes.
    Admiral Rogers. I apologize. I just want to make sure we're 
not talking about counterfeit money.
    Senator Donnelly. No. Good.
    Admiral Rogers. That was my fault.
    It's something that we clearly, the services, and 
particularly because of their function in the man, train, and 
equip, that's primarily a service responsibility. In my 
previous job, where I was a service-focused individual, it's a 
topic we spent a good deal of time on, particularly in the more 
important higher-tiered areas of readiness--for example, in the 
nuclear arena, where we spend a lot of time ensuring that the 
structure that we have purchased, that we have put in place, 
does not have compromises and vulnerabilities built within it. 
It's an area that I think we're going to need to increase our 
focus over time. We just went through an issue, for example, 
with one of the services, where we found, in a particular 
system that they had been buying, a handful of instances where 
the vendor had not complied fully with the contract and had put 
some other components in. So, it is a topic we see.
    Senator Donnelly. Okay, thank you.
    Admiral Haney, I'd like to get your thoughts on the 
conventional prompt-strike research and development efforts 
that are underway and what you feel the value of the system is 
to STRATCOM.
    Admiral Haney. Senator Donnelly, I fully support the 
research we're doing associated with the conventional prompt 
global strike capability. It's a capability I see some of our 
adversaries are working on--potential adversaries. To me, it's 
all about, How do you hold at risk the enemy, particularly as I 
look at a lot of the capability, whether it's counterspace, 
whether it's jamming equipment, all the way to intercontinental 
ballistic missiles that are on mobile transport capability. An 
ability to hold it at risk in multiple ways is very important 
in the deterrence equation. I think conventional prompt global 
strike provides this, Senator.
    Senator Donnelly. Thank you.
    This would be for any of you who want to answer. We've seen 
some extraordinarily loose talk from Putin recently regarding 
nuclear weapons, regarding using them as an option in regards 
to Crimea, that he was thinking about. They're presently 
involved in exercises, which have expanded from the Arctic to 
include activities along the Finnish border, the deployment of 
strategic weapon systems to Kaliningrad in Crimea, positions 
across the Baltic fleet, the Black Sea fleet, the western and 
southern military districts. It seems to form a nuclear 
narrative. You know, we have to take him at his word, it seems 
to me, in his actions that he's showing and in what he's 
saying.
    Admiral Rogers, I'll start with you. Do you see this as a 
significant increase in the posturing there? How do you regard 
this as we move forward?
    Admiral Rogers. If you look across the board, you've seen--
other combatant commanders have testified in front of you. I 
remember seeing Admiral Gortney's testimony, highlighting that 
we're seeing a spectrum of operations. Cyber is no different. 
I'm seeing a much more active Russia in the cyber arena in a 
much more visible way. I think just as we're seeing with their 
use of long-range aviation, their public posturing, some of the 
statements you and other members of the committee have 
referenced. I think our Russian friends are definitely trying 
to send us a very strong message about what is acceptable to 
them and what is not.
    Senator Donnelly. Admiral Haney, you are, I presume that--
you know, we had talked before--seeing the same kinds of ramp-
up in the cyber area. What do you expect in the years ahead?
    Admiral Haney. Well, to enter the cyber domain, as has been 
echoed by many folks, many pundits, it doesn't take a lot of 
money to enter that domain, in terms of getting the equipment. 
It does take money for adversaries to invest--become high-end 
in it. I think Admiral Rogers would agree with me there. So, 
consequently, I think it's very important that we continue to 
work hard across the spectrum.
    But, I will say, as we look at the future, we have to look 
at cross-domain deterrence options and be mindful in each. For 
strategic capability, I look at that in cyber, space, and 
nuclear. Very important to not just look at just one. We have 
to be effective across the whole of whole.
    Senator Donnelly. General?
    General Selva. Sir, you're taking me out of my----
    Senator Donnelly. Oh. Then I'll----
    General Selva.--comfort zone. But, I will say, the buildup 
of the rhetoric puts us in a place where, strategically, we 
have to be able to respond to that attempt to intimidate the 
countries in Russia's near abroad. The two men sitting at both 
of my sides are the guys that own the tools to do that.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. [presiding] Thank you, Senator.
    Senator Lee, please.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks, to all of you, for being here today.
    My first question, I'll direct to Admiral Haney and Admiral 
Rogers, or either one of you or both of you if you both want to 
answer it. On March 11th, the Russian government announced what 
it referred to as a ``year of friendship with North Korea.'' It 
appears that Kim Jong-un will visit Moscow in May. Do you 
anticipate that the enhancement of the Russian/North Korean 
relationship might result in the expedited developed of North 
Korean nuclear weapons or cyber capabilities? Can you speak to 
the relationship, specifically the military relationship, 
between these two countries?
    Admiral Haney. One, I would say, to really get in depth 
would require a classified setting. I will echo what you said, 
though, it is problematic seeing Russia and North Korea in 
working any form of a partnership, our ability to see where 
this will go for the future. We know North Korea's ambitions, 
in terms of their demonstrated cyber, their ambitions for 
nuclear weapons, the tests that they've already occurred. We 
think they already have miniaturized some of these capability. 
Clearly we know where their aspirations are. So, I see both 
nations--Russia wanting to have partnerships with others, and 
they're looking at whatever mechanism they can to--in order to 
reduce strategic stability in their favor.
    Admiral Rogers. I would echo Admiral Haney's comment. 
Clearly, we're going to be spending a lot of time focused on 
this, because a North Korea that is able to access nuclear and 
cyber technology from Russia is of great concern to us. So, 
it's something we'll be paying great attention to.
    Senator Lee. Thank you.
    Then, Admiral Haney, a recent report out of John Hopkins 
University indicated that North Korea could possess nearly 100 
nuclear devices by 2019, while continuing to make significant 
progress in its ballistics program. Does our current schedule 
to deploy 44 ground-based interceptors and upgrade their kill 
vehicles keep pace with the development of the threat to the 
homeland that may be presented by North Korea or perhaps other 
ballistic missile threats to the United States?
    Admiral Haney. Today, Senator, we are working to ensure we 
have a system of systems, a layered system associated with our 
missile defense capability, to include the ground-based 
interceptors. Two areas I will highlight that we have to work 
on--and I think President budget 2016 provides for that--that 
is getting the kill vehicle right. It has to be effective in 
order to enhance shot doctrine. Also our ability to have more 
significant improvement in discrimination is important in order 
to hold at risk things that would come toward the homeland. 
Those are two areas--we can bean-count what North Korea may or 
may not have and what we have and our capability, but we've got 
to get those two pieces right, while, at the same time, when 
you look at the whole of whole and other solutions. In order to 
get any further into that, I'd have to have a classified 
setting.
    Senator Lee. Okay. Thank you. I understand.
    Admiral Rogers, what level of command and control by the--
is there by the governments of Russia, China, and Iran over 
their--what we might call their cyber warriors? In other words, 
do they report into some sort of centralized command structure, 
or do they enjoy a degree of autonomy that gives their 
governments plausible deniability for their actions?
    Admiral Rogers. In an unclassified structure, what I would 
highlight is, each of the three use a slightly different 
structure, but, in each case, the cyber activities we have seen 
to date display a strong and direct linkage between the 
individual actors doing the actual activity and the Nation-
state directing it.
    One of the things we'll be looking for in the future, 
though, Do nation-states start to try to confuse our 
attribution ability by creating different relationship, for 
example, using other partners, trying to distance themselves in 
a visible way so their activity is not as directly 
attributable? I think that's a trend that we're going to be 
looking for.
    Senator Lee. Thank you.
    Thank you, Mr. Chairman. I see my time has expired.
    Senator Reed. Thank you, Senator Lee.
    Senator Gillibrand, please.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Admiral Rogers, CYBERCOM obviously, as we've discussed 
today, has a wide range of responsibilities. How do you deal 
with unexpected threats?
    Admiral Rogers. Like any other military organization, we 
quickly reprioritize and look to see where can we take risk 
elsewhere.
    Senator Gillibrand. Do you have the capability that you 
need for those unexpected threats, particularly in cyber?
    Admiral Rogers. One of the issues that I've raised 
internally in the Department, to be honest, is the idea that, 
in creating the force, we've allocated it all very specifically 
across the board. So, one of the implications, which I think 
goes to your point, is: So we perhaps didn't build in as much 
flexibility as our experience now is telling us perhaps we 
need. So, that's something, to be honest, within the Department 
that we're going to be looking at.
    Senator Gillibrand. Is that----
    Admiral Rogers. We need to----
    Senator Gillibrand.--sort of a perspective of----
    Admiral Rogers.--relook----
    Senator Gillibrand.--technology or personnel?
    Admiral Rogers. It's less technology, to me, and it's much 
more about just the resources, people, and the equipment, and 
their focus.
    Senator Gillibrand. So, if you're going to create a longer-
term, more resilient strategy for getting the personnel that 
you need and the expertise that you need and the retention that 
you need--because we talked about how these guys, you know, are 
offered very high salaries at Google, the minute they walk 
out--how do you deal with that?
    Admiral Rogers. Knock on wood, across each of the services 
we have met or exceeded all of our accession targets, bringing 
manpower in, and our ability to retain people. It will never be 
about competing head-to-head with salary. Where we are going to 
compete, as we do in all--in many other areas of the military--
is the ethos of our organization, the culture of our 
organization which is focused on service to the Nation, the 
fact that we are going to give you an amazing mission that you 
can't do anywhere else, the fact that we're going to give you a 
lot of responsibility at a very young level. That's our model. 
Then, lastly, we're going to let you do it in some really 
interesting places around the world, to include, if you're a 
real adrenaline junky, I can get you to Afghanistan, I can get 
you to Iraq. We have capabilities there that we're using on a 
regular basis.
    Senator Gillibrand. So, we don't yet--we haven't developed 
a built-in surge strategy yet, so we don't have the backup we 
would need, given a crisis, yet.
    Admiral Rogers. So--right, I have no capability right now 
that we haven't allocated against the mission set. It's not 
surprising--if I could--it's not surprising, in the sense that 
we're in the early stage of this effort. But, you do raise a 
concern that I have talked about.
    Senator Gillibrand. Have you thought about creating a 
stronger relationship with regard to that need within the 
Reserve components?
    Admiral Rogers. I would tell you that the Reserve component 
is an active part of our--and a very important part of the 
entire structure. That structure we're creating, of 6200 
people, that isn't all Active. That isn't all military, either.
    Senator Gillibrand. Because I could imagine, given the 
needs of current day, that you might even create a 
complementary recruiting strategy among the Reserves, with 
experts in the field. Meaning you go directly to the people you 
actually want and say, ``Would you consider joining the 
Reserves?'' Have you considered that kind of active 
recruitment?
    Admiral Rogers. In fact, right now we're actually doing 
kind of even interesting test pilot with the Reserves and the 
capability we're creating in Silicon Valley.
    Senator Gillibrand. Exactly. That's----
    Admiral Rogers. It's a kind of interesting----
    Senator Gillibrand.--exactly what I am talking about.
    Admiral Rogers. Right.
    Senator Gillibrand. Well, to the extent this is an approach 
of a strategy that you think is meaningful, I would be 
grateful, to the extent you need support for that, to ask the 
committee.
    Admiral Rogers. Yes, Senator.
    Senator Gillibrand. Because I've had a long-term concern 
that we need to get the best and brightest to work for us and 
to be part of our cyber support, and also we need really strong 
cyber warriors. You have to build them over time, they have to 
understand how the military works, and that takes investment 
and long-term----
    Admiral Rogers. Right.
    Senator Gillibrand.--investment. Frankly, very flexible 
strategy. So, I'm grateful that you are starting that pilot 
approach with Silicon Valley. I'd suggest that you amplify 
that, because I think it is exactly where we need to go, 
especially given budget concerns. If you----
    Admiral Rogers. Right.
    Senator Gillibrand.--can't have everyone full-time, and you 
can't have the full complement you need at all times, at least 
create the support you need through the Reserve components.
    With regard to training, are you able to create the 
training you need both with Active Duty and Reserve components, 
and to keep it as up to date as necessary?
    Admiral Rogers. To date, yes. But, I'll be honest, because 
we're in the early parts of the journey, here. What we need to 
do is generate more insight and knowledge to see what's our 
ability to sustain this over time. Because we're still really 
focused on the initial cadre. The challenge is going to be, So 
how do you sustain it as people come and go? That's something 
we're going to be, in the next year or two, in particular, 
spending a lot of time on.
    Senator Gillibrand. Well, again, I'd like to work with you 
on meeting the needs that you have to meet these requirements. 
I think it's vital that you have a very active conversation 
with this committee so that we can support you.
    Admiral Rogers. Yes, Senator.
    Senator Gillibrand. Thank you.
    Admiral Rogers. Thank you for your concern.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Gillibrand.
    Gentlemen, thank you for your testimony, thank you for your 
service to the Nation.
    On behalf of Chairman McCain, I would adjourn the hearing.

    [Whereupon, at 11:00 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator James Inhofe
    1. Senator Inhofe. Admiral Haney, General Selva, Admiral Rogers, 
Secretary Carter testified to this committee a couple of weeks ago that 
``readiness remains at troubling levels across the force'' and ``that 
even with the fiscal year 2016 budget, the Army, Navy and Marine Corps 
won't reach their readiness goals until 2020 and the Air Force until 
2023.'' General Dempsey testified that the fiscal year 2016 President's 
Budget is ``what we need to remain at the lower ragged edge of 
manageable risk in our ability to execute the defense strategy'' and 
that ``we have no slack, no margin left for error or strategic 
surprise.'' Do you each agree with these statements?
    Admiral Haney. Yes, I agree with these statements. Failure to pass 
the fiscal year 2016 President's Budget will negatively impact our 
ability to maintain and improve force readiness, particularly for my 
Nuclear Deterrent Forces, Space Forces and Cyber Forces.
    A return to sequestration levels, will inject significant risk into 
our ability to provide the US with the strategic capabilities required 
and fulfill the defense strategy outlined in the Quadrennial Defense 
Review. Equally disconcerting is the lack of long-term budget 
certainty, which serves to undermine readiness, strategic planning and 
effective acquisition.
    General Selva. Yes. USTRANSCOM remains ready today to respond to 
any contingency or geographic combatant command requirement for 
movement of forces; however, significant recapitalization and 
modernization are necessary to meet future expected demand for 
transportation services.
    Admiral Rogers. [Deleted.]

    2. Senator Inhofe. Admiral Haney, General Selva, Admiral Rogers, 
does the proposed fiscal year 2016 budget support/meet each of your 
requirements?
    Admiral Haney. The fiscal year 2016 President's Budget submission 
supports USSTRATCOM's mission requirements. USSTRATCOM fully 
participated in the formulation of the Department's budget, and the 
President's submission strikes a responsible balance between national 
priorities and fiscal realities. The President's Budget, albeit with 
some risk, provides the funding necessary to maintain a safe, secure, 
and effective nuclear deterrent force; address threats to the space-
based capabilities our forces depend upon; and field a robust 
cyberspace force.
    However, any substantial departure from the President's Budget, to 
include a return to sequestration levels, will inject significant risk 
into our ability to provide the US with the strategic capabilities 
required and fulfill the defense strategy outlined in the Quadrennial 
Defense Review.
    Equally disconcerting is the lack of long-term budget certainty, 
which serves to undermine readiness, strategic planning and effective 
acquisition.
    General Selva. Yes. USTRANSCOM operates under the Transportation 
Working Capital Fund, a revolving fund for defense transportation. 
USTRANSCOM manages cash on a daily basis by assessing whether the end-
of-day cash balance is within established tolerance limits and 
associated risks. The fiscal year 2016 Transportation Working Capital 
Fund's budgeted cash balance is sufficient to maintain mission 
operations. In the event USTRANSCOM is directed to support real world, 
unforeseen contingency/humanitarian missions, we are able to quickly 
determine if we have sufficient cash available to initiate mission 
operations until customers can be billed and these billings can be 
liquidated by supported customers when they have secured appropriate 
funding.
    Admiral Rogers. [Deleted.]

    3. Senator Inhofe. Admiral Haney, General Selva, Admiral Rogers, if 
sequestration is not repealed, even partially, can you give us some 
context in terms of risks to readiness of personnel, equipment, 
training, etc. and how that ``ragged edge'' impacts you?
    Admiral Haney. While my Service partners are likely better 
positioned to answer this question, I remain concerned that if fiscal 
constraints are imposed by the Budget Control Act, I will no longer be 
able to guarantee the strategic capabilities the Nation needs. Any 
substantial departure from the President's Budget, to include a return 
to sequestration levels, would weaken our national defense, provide 
encouragement and momentum to America's foes, and will inject 
significant risk into our ability to provide the US with the strategic 
capabilities required to fulfill the defense strategy outlined in the 
Quadrennial Defense Review.
    While I share the Services' concerns over current and near-term 
readiness my challenge is also structuring the force of tomorrow in the 
face of clear, emerging strategic threats. So, the central issue for US 
Strategic Command is long-term funding stability at President's Budget 
levels to see us through a demanding, almost unprecedented, period of 
simultaneous sustainment, recapitalization and building capacity across 
our mission areas. For example, we've all taken notice of the growing 
and projected nuclear capabilities of Russia and China. To prepare for 
these developments we must sustain the current force while developing 
the future force across every platform, payload and supporting 
infrastructure. Sequestration jeopardizes the recent progress we've 
made in carrying out the Nuclear Deterrent Enterprise improvements 
identified in both the internal and external reviews as well as in a 
modernization program that no longer has margin for delay. The Ohio 
Class SSBN's service life, as one prime example, has been extended from 
30 to 42 years, longer than any submarine in U.S. history. Another 
example is our ability to modernize our National and Nuclear Command, 
Control and Communications infrastructure to keep pace with adversary 
developments and to ensure the President is able to maintain assured, 
continuous connectivity to our strategic forces.
    We face especially difficult challenges in two domains that are now 
central to our National Security Strategy and Joint capabilities--space 
and cyberspace. In space we are recapitalizing major segments of our 
on-orbit systems while the domain itself is becoming dangerously 
contested. The solution requires enhanced space domain awareness 
capability, persistent development and fielding over several years to 
create space control systems and a robust command and control 
capability able to deal with the counterspace threat and preserve the 
advantage we enjoy today from our space--based systems. Likewise in 
cyberspace, we've seen enough evidence to know this is a potential 
vector for an adversary's strategic attack--especially against our most 
critical infrastructure. We are building capacity where little or none 
existed before which, again, will take multiple budget cycles to 
develop, train and field. We require sustained investment to counter 
this cyber threat.
    Our potential adversaries are working hard to deny us access 
through their electronic warfare activities. Sequestration threatens 
our ability to ensure future spectrum dominance essential to enabling 
the Joint force.
    While our current missile defense systems are protecting the 
homeland against limited threats, those threats will likely not stay 
limited forever. Rogue states continue to make advances which challenge 
our indications and warning, and have the potential to saturate our 
sensors and overwhelm our command and control. Stable funding allows us 
to pursue game changing technologies to put us on the right end of the 
cost curve and to stay relevant and effective against advancing 
countermeasures.
    In short, the challenges we face will require a consistent level of 
funding across multiple budget years to have confidence we can develop 
and field the right force in the future.
    General Selva. When General Dempsey testified about our being on a 
``ragged edge,'' I believe he was referring to the Department's ability 
to manage risk given a $36 billion increase above sequestration that is 
included in the President's fiscal year 2016 budget. I concur with his 
statement and note that even if the President's Budget is approved as 
requested and sustained through the Fiscal Year Defense Program (FYDP), 
I anticipate that USTRANSCOM readiness issues would still persist 
through at least fiscal year 2019. If, as implied by your question, the 
budget is fully constrained below the President's Budget by 
sequestration from fiscal year 2016 through the FYDP, USTRANSCOM would 
undoubtedly fall off the ``ragged edge'' when it comes to our ability 
to meet the defense transportation system demands set forth by 
Functional and Geographic Combatant Commanders and their associated 
operational plans. As a critical deployment and sustainment enabler to 
all military operations, USTRANSCOM readiness directly impacts 
readiness to global US military commitments and operations as a whole. 
If implemented, sequestration would force major changes to our National 
Strategic and Military Strategies. Sequestration in fiscal year 2016 
through the FYDP would result in cuts to the military Services' 
personnel, equipment, and training directly impacting USTRANSCOM 
readiness and rendering the National Military Strategy unexecutable.
    Admiral Rogers. [Deleted.]

    4. Senator Inhofe. Admiral Haney, General Selva, Admiral Rogers, we 
anticipate that congress will pass a budget resolution that funds 
defense at sequestration levels with additional funding through OCO. 
Assuming sequestration remains the law, do you have to take any actions 
in fiscal year 2015 in your force structure to prepare for 
sequestration in fiscal year 2016? If so, when do those decision need 
to be made?
    Admiral Haney. While my Service partners are likely better 
positioned to answer this question, I know of no force structure 
actions I could take to prepare for a return to Sequestration.
    General Selva. No. USTRANSCOM has not taken steps in fiscal year 
2015 to adjust force structure in preparation for sequestration budget 
levels in fiscal year 2016. If the fiscal year 2016 defense budget is 
set at a sequestration level, USTRANSCOM budget planners will execute 
the budget in coordination and synchronization with DOD leadership and 
our service components.
    Flexibility to execute additional OCO funding for USTRANSCOM 
readiness requirements will provide some relief for one year, but is 
not a long term fix. Our commercial providers, in particular, require 
stable, predictable, funding to continue providing services to the DOD. 
The implementation of sequestration puts those services at risk and 
directly impacts USTRANSCOM's ability to do its mission.
    Admiral Rogers. We are midway through fiscal year 2015 and plans to 
execute current funding are underway leaving little flexibility to make 
adjustments that could place us in a better position for fiscal year 
2016 under Budget Control Act restrictions. Budgetary uncertainty due 
to a potential return to Budget Control Act funding levels is a concern 
for U.S. Cyber Command.
    Budget Control Act reductions would have second and third order 
effects to U.S. Cyber Command and would likely force acceptance of 
higher operational risks due to Services inability to generate mission 
forces needed, forcing a potential reprioritization and redistribution 
of manpower and capability from lower priority Combatant Commands and 
Service requirements leaving those mission severely degraded or not 
accomplished.
                            nuclear weapons
    5. Senator Inhofe. Admiral Haney, in your opinion, what role does 
``nuclear deterrence'' play in today's world?
    Admiral Haney. Strategic deterrence in the 21st century is far more 
than just nuclear, although our nuclear deterrent remains the ultimate 
guarantor of our security. We must shape our nuclear weapons policies 
and force structure in ways that enable us to meet our most pressing 
security challenges. As stated in the Nuclear Posture Review, the 
fundamental role of U.S. nuclear weapons remains to deter nuclear 
attack on the United States and its Allies and partners. The United 
States will maintain a credible nuclear deterrent capable of convincing 
any potential adversary that the adverse consequences of attacking the 
United States or our Allies and partners far outweigh any potential 
benefit they may seek to gain from such an attack.
    U.S. nuclear Triad modernization and sustainment programs must be 
fully funded. In doing so, the U.S. demonstrates our continued 
assurance commitments to allies and partners; while also messaging 
strategic resolve to potential adversaries.

    6. Senator Inhofe. Admiral Haney, do you believe our nuclear 
deterrence capability has been challenged by inadequate modernization 
funding and continued modernization by other nuclear powers?
    Admiral Haney. We have deferred our Triad modernization for as long 
as possible. Any further slips will increase risks to carrying out our 
nuclear deterrence and assurance missions and will cause a loss of 
capability and likely increased cost. We have steadily delayed 
investment in critical capabilities like the Ohio Replacement Program, 
the Long Range Strike-Bomber, the Long Range Standoff cruise missile, 
the B61-12 gravity weapon, and the Minuteman III replacement too long. 
We cannot afford to delay or reduce planned modernization for these 
programs any further and must provide stable, sufficient funding in 
fiscal year 2016 and beyond. We must address these capability gaps in 
the coming decade because there is no margin left in the timeline 
required to modernize our strategic forces before our current 
capabilities become unsustainable. Today's complex and dangerous global 
security environment demands we properly sustain and modernize our 
strategic capabilities. The President's fiscal year 2016 Budget 
supports my mission requirements. We cannot afford to underfund these 
vital missions, especially considering adversaries continue modernizing 
their strategic capabilities which results in increased threat to our 
national security.

    7. Senator Inhofe. Admiral Haney, what do you assess as the current 
state of our nuclear triad in relation to today's threats?
    Admiral Haney. I assess the current state of our nuclear Triad 
provides a safe, secure and effective deterrent against today's 
threats. The Triad's combination of unique and complimentary 
attributes, along with associated intelligence, warning, communications 
and infrastructure, remains the foundation for strategic deterrence and 
stability. We are mindful this critical capability requires persistent 
and focused attention as highlighted in the recent Nuclear Enterprise 
Review and the coordinated after-actions of the Department, Combatant 
Commands and Services to ensure the morale and sustainment of the 
force. I'm confident we are on the right path with the right level of 
attention and support.
    I am not, however, as confident going forward in the face of 
emerging, future threats. We've all taken notice, for example, of the 
growing and projected nuclear capabilities of Russia and China. To 
prepare for these developments, we face the challenging situation of 
simultaneous sustainment of the current force while developing the 
future force across every platform and payload in a period of great 
fiscal uncertainty. Indeed, stable funding at a modest fraction of the 
overall DOD budget remains my top concern and priority.
    Sustaining the current Triad is particularly challenging because we 
have extended both platform and payload lifetimes far beyond their 
initial designs while we deferred modernization. For example, the Ohio-
class SSBNs entered service in 1981, the B-52 bomber in 1952, the Air 
Launched Cruise Missile (ALCM) in 1982, the B-2 in 1993, and the 
Minuteman III in 1970. Furthermore, the average age of the weapons in 
our nation's stockpile is over 27 years. Deferred investment decisions 
have eroded remaining margin in timeliness to field new capabilities 
before their legacy counterparts age out.
    Recapitalizing our sea-based strategic deterrence force is my top 
priority. The Ohio Class SSBNs service life has been extended from 30 
to 42 years, longer than any submarine in U.S. history, and will begin 
to retire in 2027. No further extension is possible and maintaining 
operational availability is a growing concern. Stable and consistent 
funding of the Ohio Replacement Program, the life-of-ship reactor core, 
and supporting systems and infrastructure is critical to achieving the 
first deterrence patrol in 2031.
    Planned sustainment and modernization of our dual-capable B-52 and 
B-2 bombers will ensure a credible nuclear bomber capability through 
2040. The follow-on long-range strike bomber (LRS-B), the Long Range 
Stand-Off (LRSO) cruise missile, and the B61-12 gravity weapon ensure 
the future viability of the Triad's air leg and our extended deterrence 
commitment to the North Atlantic Treaty Organization.
    We can meet the Congressionally-mandated sustainment of the 
Minuteman III through 2030 with near-term investments for the Mk21 fuze 
replacement, ICBM Cryptographic Upgrade, Payload Transporter/
Transporter-Erector vehicle replacements, and the UH-1N helicopter 
replacement to address age-related issues. An integrated Ground Based 
Strategic Deterrence (GBSD) program will recapitalize the ICBM 
enterprise. The GBSD Analysis of Alternatives is complete and the Air 
Force is developing a fully integrated recapitalization plan to 
maintain the land based force for the next 60 years.
    Nuclear weapons surveillance activities, life extension programs, 
and stockpile stewardship efforts are critical to mitigating age-
related effects and incorporating improved safety and security features 
in our nuclear arsenal without a return to nuclear testing. Active and 
sustained execution of the Nuclear Weapons Council's (NWC's) `3+2' 
stockpile strategy will produce two air-delivered and three ballistic 
missile warheads to reduce the overall stockpile while meeting 
technical, capability and safety requirements. Sustainment and 
modernization of the nuclear enterprise infrastructure--in physical and 
intellectual terms--is central to implementing the NWC `3+2' strategy 
to ensure critical capabilities are preserved to meet the nation's 
stockpile needs.
    Again, we believe the above sustainment and modernization 
challenges are not only necessary to maintain strategic deterrence and 
stability in the face of future threats but are also achievable with 
continued, stable funding support at a fraction of historic DOD 
spending levels.

    8. Senator Inhofe. Admiral Haney, what happens if our allies that 
rely on the US nuclear umbrella no longer believe it is viable?
    Admiral Haney. The current US strategic force posture is sufficient 
to protect our strategic interests and maintain a credible deterrence. 
Loss of faith in the U.S. nuclear umbrella by U.S. Allies would 
severely damage the credibility of U.S. commitments and could engender 
several significant, cascading, and potentially far-reaching 
consequences. These possibilities include a significant increase in the 
proliferation of nuclear weapons.
                                 cyber
    9. Senator Inhofe. General Selva, what steps have you taken to 
address cyber intrusion and reporting as a result of the Senate Armed 
Services Committee Cyber Report on TRANSCOM?
    General Selva. The Senate Armed Services Committee report brought 
much-needed attention to an important set of challenges faced by 
USTRANSCOM--challenges that translate to operational risk inherited by 
the supported geographic combatant commanders. USTRANSCOM supported the 
Department of Defense (DOD) led effort to identify solutions to the 
broader challenges of risks to missions supported by contractors around 
the department. The Department's effort is already improving 
information sharing among the partners. In order to address the more 
specific challenges that USTRANSCOM faces, the members of the DOD 
interagency team will assemble as a Mission Analysis Task Force--hosted 
by USTRANSCOM--to identify the peculiar information sharing process 
challenges that support USTRANSCOM risk mitigation and responses within 
planning and execution of deployment and distribution operations. 
USTRANSCOM will continue to work with its partners in the Department, 
Intelligence Community, and Interagency to bring to bear the necessary 
authorities to reduce risk to deployment and distribution, and secure 
our national interests.
    USTRANSCOM continues to aggressively execute risk mitigation within 
our existing authorities to address the challenges highlighted in the 
report, including strengthening our contracts, expanding our partnering 
efforts within the Intelligence Community and Interagency, increasing 
internal oversight, and expanding outreach with industry.
    With respect to our contracts, we have recently re-written our 
cyber defense contract language to align with legislation, synchronize 
with Defense Federal Acquisition Regulation Supplement requirements, 
and tighten up the intrusion notification and incident reporting 
requirements. Cyber defense requirements are currently in 55 percent 
(165) of our contracts, and our goal remains 100 percent by end of 
fiscal year 2016. Additionally, we increased engagement with the FBI, 
and their support has been sensational. FBI intrusion reports are now 
provided directly to USTRANSCOM's cyber center fusion analysts. Also, 
FBI staff members participate in the USTRANSCOM Cyber Fusion Working 
Group meetings twice a month. Internal to USTRANSCOM, cyber incidents 
involving commercial partners have high visibility and are briefed to 
myself and staff Directors on a regular basis. Finally, we worked with 
the National Defense Transportation Association to create a Cyber Sub-
Committee to establish an enduring means of information exchange within 
the industry on common cyber threats and defense best practices.
                    maritime security program (msp)
    10. Senator Inhofe. General Selva, will there be enough U.S. 
flagged ships the Maritime Security Program (MSP) and Voluntary 
Intermodal Sealift Agreement (VISA) programs to support DOD 
requirements?
    General Selva. The DOD Requirement for MSP is 60 ships. The 
authorized composition of the MSP with its 60 ships currently provides 
sufficient access to capacity to augment our organic surge fleet, 
access to global commercial intermodal networks and the appropriate 
number of commercial mariners needed to fully crew our surge fleet, 
with acceptable risk. If sequestration returns this year, the loss of 
MSP vessels caused by funding reductions may be considerably difficult 
to recoup. I remain committed to retaining the current complement of 
militarily useful ships in the MSP and VISA programs.

    11. Senator Inhofe. General Selva, how do you plan to overcome any 
shortfalls?
    General Selva. Currently, there is sufficient capacity to meet 
requirements, with acceptable risk. However, in recent years, there has 
been a downward trend in the number of Roll-On/Roll-Off (RO/RO) vessels 
in the programs, with a net loss of 4 RO/ROs in the last 5 years. To 
meet requirements, this loss can be mitigated by additional 
volunteerism beyond VISA staged commitments or by vessel requisitioning 
IAW 46 U.S.C. 56301.
                                 cyber
    12. Senator Inhofe. Admiral Rogers, on the 4th of March you stated 
``a return to sequestration-level spending would be a major setback to 
U.S. cyber forces that are steadily maturing.'' Can you explain what 
cyber capabilities would have to be cut or scaled back should the 
defense budget get sequestered?
    Admiral Rogers. [Deleted.]
                               __________
              Questions Submitted by Senator Kelly Ayotte
                   personally owned vehicle delivery
    13. Senator Ayotte. General Selva, as you know, frequent moves are 
one of the things that make active duty service difficult for service 
members and their families. In addition to frequent deployments away 
from loved ones, service members and their families often must endure 
frequent moves. These moves force them to pull children out of school, 
say goodbye to friends, and pack up household goods. If they are moving 
overseas, they also often have to ship their personal vehicle. There 
have been some issues with damage to vehicles or massive delays in the 
delivery of personally-owned vehicle deliveries for our troops. This 
adds unneeded stress for our service members and their families and is 
unacceptable. I had one constituent contact my office. He dropped off 
his vehicle in August 2014 for shipment. He was told the required 
delivery date was October 6th. The vehicle did not arrive until January 
5, 2015. That is three months without his vehicle, leaving him without 
a car for the holidays. General Selva, would you agree that such 
performance is not acceptable? In your statement, you note that your 
``evaluation of [the contractor's] summer surge plan indicates they 
should perform an acceptable level.'' Can you explain what you mean by 
acceptable level?
    General Selva. Certainly, a vehicle over 90 days late is 
unacceptable, and as previously documented, International Auto 
Logistics' (IAL) 2014 performance was below the contractual 
requirements. In accordance with the contract, IAL is required to 
deliver 98 percent of all vehicles on time. The numbers of overdue 
vehicles and average days late for vehicles not meeting the required 
delivery date have continually decreased from the levels experienced in 
2014. IAL's surge plan, as briefed to me will position them for 
successful performance during the 2015 permanent change of station peak 
moving season, and includes detailed process improvements and 
operations management changes in all major areas of contract 
performance, the majority of which have already been implemented. The 
plan addressed transportation planning and subcontractor management, 
customs clearances, Vehicle Storage Facility and Vehicle Processing 
Center site management, claims processing, customer service, and 
employee training and staffing levels. An acceptable level of 
performance is measured by IAL's ability to meet all contractual 
requirements. If falling short, to mitigate all service member 
inconveniences at no expense to the government and make appropriate 
changes in their business practices to meet all contractual 
requirements in the future.

    14. Senator Ayotte. General Selva, what recourse under the current 
contract with the shipper of personally-owned vehicles does the 
government have if there are again massive delays with the delivery of 
personally-owned vehicles to our troops?
    General Selva. The Global Privately-Owned-Vehicle Contract (GPC) 
III contract includes Federal Acquisition Regulation (FAR) 52.212-4, 
Contract Terms and Conditions--Commercial Items, which allows the 
Government, at its discretion, to terminate for cause in the event of 
contractor default, or if the contractor fails to comply with any 
contract term or condition, or fails to provide the Government, upon 
request, with adequate assurances of future performance. Recent 
contract performance has markedly improved and International Auto 
Logistics has provided a plan to meet performance requirements during 
the peak season.
    The contract also contains option periods which the Government has 
a unilateral right to exercise. The Government could elect not to 
exercise future option periods.
    In addition, the contract contains provisions reducing payment when 
the contractor misses a required delivery date (RDD) by 1-7 days, 
requires payment of inconvenience claims (rental car and hotel 
expenses) directly to the customer for missed RDDs beyond 8 days, and 
forfeiture of all transportation payment for POVs delivered 60 days or 
more past the RDD. These contract provisions will impose substantial 
costs to the contractor if it were to experience widespread delays.
                                 kc-46a
    15. Senator Ayotte. General Selva, in your written statement, you 
point out that the KC-46A is ``the most important airlift 
recapitalization effort,'' and that the KC-46A is ``the most essential 
element of future air mobility readiness for the DOD.'' The Air Force 
has consistently listed the KC-46A as one of its top three 
modernization priorities. General Selva, why do you view the KC-46A as 
so important to DOD and the future of U.S. air mobility?
    General Selva. As the backbone of our Nation's ability to project 
global reach and combat power, tankers are a critical force multiplier 
across the full range of global and theater employment scenarios. 
Tankers directly enhance the operational flexibility of United States 
and allied/coalition strike, support, and surveillance aircraft. Joint 
force commanders rely heavily on the impacts that air refueling 
aircraft provide. The direct effects enabled through global strike 
support, theater support to combat air forces, and special operations 
support are critical to mission success. Air bridge and aircraft 
deployment support makes possible the rapid delivery of forces to a 
theater of operations and is a key to the successful execution of the 
aerospace expeditionary force concept. Tankers put the ``Global'' in 
Global Power.
 joint land-attack cruise missile defense elevated netted sensor system
    16. Senator Ayotte. Admiral Haney, as you know, Joint Land-Attack 
Cruise Missile Defense Elevated Netted Sensor System (JLENS) is now 
undergoing an operational test at Aberdeen. What is the purpose of 
JLENS in the national capital region?
    Admiral Haney. The Joint Land Attack Cruise Missile Defense 
Elevated Netted Sensor (JLENS) aerostat is in the national capital 
region to complete a three-year operational exercise, set to begin 
later this year. The exercise is intended to assess JLENS' capability 
to enhance surveillance capabilities against a potential cruise missile 
threat from near-peer adversaries.

    17. Senator Ayotte. Admiral Haney, how important is the 
Department's fiscal year 2016 budget request in order to complete phase 
one of this program?
    Admiral Haney. Full funding for the Joint Land-Attack Cruise 
Missile Defense Elevated Netted Sensor System (JLENS) fiscal year 2016 
Presidential Budget Request is important to ensure the JLENS 
operational exercise remains on track and on schedule. The exercise is 
intended to assess JLENS' capability to enhance surveillance 
capabilities against a potential cruise missile threat from near-peer 
adversaries. Any changes to the fiscal year 2016 funding could impact 
Phase I and delay the assessment of this capability.
                        civil reserve air fleet
    18. Senator Ayotte. Senator Ayotte. General Selva, in your prepared 
statement, you discuss the Civil Reserve Air Fleet (CRAF). Can you 
explain what the CRAF is and why it is important to DOD's readiness for 
future conflicts?
    General Selva. CRAF is a unique and significant part of the 
nation's air mobility resource to support the warfighter. Selected 
aircraft from U.S. airlines, contractually committed to CRAF, augment 
Department of Defense (DOD) airlift requirements in emergencies when 
the need for airlift exceeds the capability of military aircraft. 
During peacetime carriers are offered DOD airlift missions for the 
participation in CRAF.
    The CRAF has two main segments: international and national. The 
international segment is further divided into the long-range and short-
range sections and the national segment satisfies domestic 
requirements. Assignment of aircraft to a segment depends on the nature 
of the requirement and the capability of the aircraft needed.
    The long-range international section consists of passenger and 
cargo aircraft capable of transoceanic operations. The role of these 
aircraft is to augment the Air Mobility Command's long-range 
intertheater C-5s and C-17s during periods of increased airlift needs, 
from minor contingencies up through full national defense emergencies.
    Medium-sized passenger and cargo aircraft make up the short-range 
international section supporting near offshore and select intra-theater 
airlift requirements.
    The airlines contractually pledge aircraft to the various segments 
of CRAF, ready for activation when needed. To provide incentives for 
civil carriers to commit aircraft to the CRAF program and to assure the 
United States of adequate airlift reserves, the government makes 
airlift business available to civilian airlines that offer aircraft to 
the CRAF.

    19. Senator Ayotte. General Selva, in your prepared statement you 
note that ``As our forces draw down from Afghanistan, business 
available to commercial carriers has declined rapidly, threatening 
industry's ability to support surge deployments should the need 
arise.'' Skeptics would say that these commercial carriers are flying 
anyway. Why do commercial carriers supporting CRAF need to work with 
DOD and receive a minimum number of flight hours during peacetime to be 
ready to support DOD requirements in wartime?
    General Selva. Policy and DOD regulation do not mandate a minimum 
level of CRAF business from the DOD. The National Airlift Policy states 
that DOD requirements for passenger and/or cargo airlift augmentation 
shall be satisfied by the procurement of airlift from commercial air 
carriers participating in the CRAF program to the extent that the DOD 
determines that such airlift is suitable and responsive to the military 
requirement. Consistent with that policy, DOD Instruction 4500.57 
requires that DOD operate its fleet to meet its training requirements 
while also using commercial sources of transportation to the ``maximum 
extent practicable.'' The perception that commercial aircrews require 
blockhours to maintain readiness is flawed, the purpose of our monthly 
cargo missions through the various aerial ports is to ensure the ground 
component is capable of supporting the commercial missions, not 
validate the readiness of commercial aircrews.
    US Transportation Command (USTRANSCOM) and Air Mobility Command 
(AMC) are addressing the need to increase CRAF carrier opportunities to 
promote readiness and interoperability. Together, USTRANSCOM and AMC 
are increasing our forecasting ability and actively sharing this 
information at bi-annual Executive Working Groups and weekly 
teleconferences.

    20. Senator Ayotte. General Selva, what is the minimum number of 
CRAF cargo block hours that is required annually to maintain that 
commercial carrier readiness for wartime surge requirements? Please 
explain why you believe this number is sufficient, and describe the 
analyses utilized to arrive at this number.
    General Selva. USTRANSCOM and Air Mobility Command (AMC) have 
changed operational practices to better support objectives in the 
National Airlift Policy (NAP). This policy states that military and 
commercial resources are equally important to national defense and 
interdependent, but prioritizes organic military airlift operations for 
peacetime training. The policy indicates peacetime cargo airlift 
augmentation should be established for CRAF effectiveness within the 
Military Airlift System, but does not codify a minimum. Establishing a 
minimum for cargo airlift augmentation, in law, would significantly 
impinge upon the DOD's ability to appropriately manage its organic and 
commercial resources. In accordance with the NAP direction to determine 
readiness levels, AMC commissioned a CRAF Study (concluded in 2014) 
that recommended a minimum port activity of approximately $31M, roughly 
1,700 block hours, to train AMC port personnel. Within the study, the 
minimum port activity level was derived by assuming one commercial 
wide-body aircraft operating out of each of four major AMC aerial ports 
per month.

    21. Senator Ayotte. General Selva, in your written statement you 
refer to implementing recommendations from a recently concluded Civil 
Reserve Air Fleet study. Will you provide my office with a copy of this 
study?
    General Selva. See Attached as Appendix A: CRAF Phase 2 Study, 29 
Apr 2014

    22. Senator Ayotte. General Selva, what specific changes do you 
intend to implement with respect to the Civil Reserve Air Fleet?
    General Selva. AMC commissioned a CRAF Study, which concluded in 
2014. The purpose of the CRAF study was to provide a viable program 
capable of withstanding the ebbs and flows of current and future 
airlift requirements. Changes were necessary in the CRAF to avoid the 
``perfect storm'' due to the depressed commercial passenger and cargo 
charter markets, consolidation and reduction of U.S. air carriers and 
their fleets (recent carrier decisions to retire 747-400's), reductions 
in military airlift requirements (Afghanistan drawdown), increased 
organic capability (C-17, C-5Ms, and future state of the KC-46 
beginning in fiscal year 2017), and a tightening of U.S. Government 
budgets. To counter these effects the CRAF Study team identified 
several areas where improvements were necessary, below is list of some 
of the major topics addressed by industry that have also been addressed 
in our implementation plans.
    The changes incorporated into CRAF program will ensure our ability 
to maintain readiness during non-activated periods in the most fair and 
equitable manner for all players involved, as well as being able to 
fully support the warfighter and combatant commanders when the need 
arises.
    Fiscal year 2015--Implemented:
    <bullet>  Elimination of the Aeromedical Evacuation segment--Proven 
success demonstrated with organic fleet (C-17 & KC-135's during OEF/
OIF)
    <bullet>  Elimination of the 60/40 Rule
    Fiscal year 2016--To Be Implemented:
    <bullet>  Extension of the guaranteed daily utilization rate during 
activation from 8 to 12 hours
    <bullet>  Establishment of a 11-day minimum guaranteed activation 
period and 7-day notice for de-activation for Stage I--This has been 
amended to increase the time frame to 11 days as of 30 Mar 15
    <bullet>  Retention of the flyer bonus, which will be examined at a 
later date to determine necessary adjustments--Under evaluation for 
fiscal year 2016 (possible reduction from.75 multiplier to .40 
multiplier)
    <bullet>  Alteration of the mobilization value point based 
entitlement to awarding points only to carriers offering more than the 
one-aircraft minimum to Stage I--Under evaluation for fiscal year 2016 
(award MV for Stage I and II at a 4:1 ratio)
    <bullet>  Increasing the minimum offer of 15 percent cargo / 30 
percent passenger of CRAF capable aircraft to 40 percent for both
    <bullet>  Reduction of Stage I requirements to 15 cargo and 16 
passenger wide-body equivalents (WBEs)

    23. Senator Ayotte. General Selva, have you reviewed the Booz Allen 
Hamilton study regarding CRAF and what is your assessment of the 
study's findings?
    General Selva. Yes, my staff and I have reviewed the Booz Allen 
Hamilton (BAH) study on CRAF. We also met with the study's author and 
sponsor to gain a deeper understanding of their assumptions, thought 
processes and conclusions. We all agree that the CRAF program and the 
carriers within the program remain important to national defense. We 
also agree we must carefully balance the readiness of our organic 
airlift training needs and the viability of the commercial carriers 
subscribed to the CRAF program by fully complying with the National 
Airlift Policy.
    The study focused on block hours deemed necessary for CRAF 
readiness and interoperability. It concludes that the proficiency of 
military ground personnel and military planning/control elements is the 
limiting factor. From my perspective, that proficiency can be achieved 
with commercial flights already planned as part of our annual fixed buy 
and operating through our military airlift system at far fewer flying 
hours than the study suggests. Furthermore, the BAH study does not 
differentiate between proficiency to manage commercial airlift aircraft 
in the military airlift system and the necessary incentives to sustain 
adequate capacity to commercial capacity across the full range of 
military operations.
    The more pressing issue is maintaining the level of CRAF 
subscription required to meet current Defense Planning Guidance. My 
staff and I are working diligently on this issue with our commercial 
providers. I believe we will quickly arrive at a ``shared risk'' 
solution which ensures both proficiency and incentives necessary to 
retain capacity subscription are met.

    24. Senator Ayotte. General Selva, what processes and analyses is 
TRANSCOM using in the current fiscal year and in the FYDP to establish 
the appropriate levels of CRAF cargo airlift augmentation and to 
minimize any potential risks associated with reductions in CRAF cargo 
airlift? To what extent, if any, are the CRAF carriers involved in 
those processes and analyses? Do you believe that TRANSCOM and the CRAF 
cargo carriers are aligned on the assessment of those risks?
    General Selva. USTRANSCOM has very open and routine communications 
with our commercial providers through the CRAF Executive Working Group, 
the National Defense Transportation Association, and our Enterprise 
Readiness Center. We've also recently begun weekly conference calls 
with the carriers where we discuss upcoming commercial airlift 
workload. During our many engagements, the carriers have provided us 
feedback, and we are absolutely listening. While the National Airlift 
Policy directs me to prioritize our own military readiness over 
commercial readiness, I've directed a ``shared risk'' approach to 
achieve a mutually acceptable outcome. In the last year, we advanced in 
four key areas towards this goal.
    First, we formalized our workload forecasting process which is the 
foundation upon which we build our operating budget including our 
expected expenditures on commercial airlift. That process is based on a 
solid analytic foundation and now includes what we have termed 
``anticipated but difficult to predict demand'' for things like 
humanitarian assistance, potential regional conflicts and Noncombatant 
evacuation operations. Second, we scrutinized our active duty and 
reserve component crew seasoning requirements to ensure they are based 
on the minimum number of flying hours needed to guarantee our readiness 
at an acceptable level of risk. This resulted in some reductions to our 
flying hour program which increased opportunities to use commercial 
lift. Third, we established unambiguous metrics that measure our 
current level of crew readiness, which allows us to better manage 
allocation of military airlift to avoid overflying the minimum flying 
hour program, enhancing opportunities for commercial airlift 
augmentation. Finally, we continue to build on our capability to 
predict near-term workload which allows more proactive engagement with 
commercial lift providers when there is greater access to capacity.
    As we look towards a dynamic future, these four advancements will 
be critical to ensuring success in balancing military and CRAF risk. 
USTRANSCOM has been working on these advancements and analysis, and 
they've matured to the point where we've advised the CRAF carriers on 
these enhancements to our processes and the potential positive workload 
impacts. We will continue to communicate with our commercial providers 
to bolster shared understanding under our ``shared risk'' construct.

    25. Senator Ayotte. General Selva, what is TRANSCOM doing to ensure 
that it continues to explore ``the full spectrum of options and 
incentives'' available to strengthen the CRAF program and ensure the 
continued participation of commercial partners?
    General Selva. USTRANSCOM is committed to offering as much business 
to commercial carriers as practicable, especially as current 
transportation requirements decline across the board. In 2012, 
USTRANSCOM stood up the Enterprise Readiness Center (ERC) to focus on 
bringing in more business to the Defense Travel System (DTS). In this 
effort, the ERC has successfully brought in new business from foreign 
military sales (FMS) transportation requirements to the DTS. With 
Congress' help, we are also expanding FMS opportunities and increased 
business from other federal, state and local entities for CRAF 
carriers.
    As an enterprise-level initiative, USTRANSCOM and Air Mobility 
Command (AMC) have been working tirelessly to find innovative ways to 
continue optimizing the careful balance between organic and commercial 
airlift allocation. AMC is reducing crew ratios for C-17s, and putting 
some aircraft into backup aircraft inventory, effectively reducing the 
total annual aircrew seasoning requirements for the organic fleet. This 
will potentially free up additional airlift business for allocation to 
commercial carriers. USTRANSCOM is improving requirements forecasting 
methods, which will allow a more precise adherence to AMC's Flying Hour 
Program, enabling more commercial airlift opportunities. Also, 
USTRANSCOM is working to buy more commercial airlift up front for known 
annual requirements by allocating more organic airlift to contingency 
and special airlift missions as they emerge throughout the year.
    In order to strengthen our integration and mutual understanding 
with the CRAF carriers, USTRANSCOM hosts biannual Executive Working 
Groups, holds weekly passenger and cargo forecast teleconferences with 
CRAF carriers, and engages with industry at the National Defense 
Transportation Association (NDTA) Fall Meeting, as well as many other 
NDTA events throughout the year. AMC has implemented a CRAF activation 
table top exercise cycle with commercial carriers intended to keep 
carriers familiar with the military airlift system.

    26. Senator Ayotte. General Selva, are some commercial carriers 
communicating their intent to reduce their participation in the CRAF 
program? Why is this happening? What are the ramifications of these 
decisions? How does TRANSCOM intend to address this development?
    General Selva. CRAF participants often change their level of 
program participation during annual contract solicitation periods. 
Carriers communicate their concerns to TRANSCOM, via letters, office 
calls, or through our many collaborative venues. We encourage and 
appreciate their feedback, as it promotes better understanding of 
industry equities as they relate to the DOD.
    For most of the early part of this century, airlift requirements 
have been at very high levels, which corresponded to high levels of 
commercial carrier business. This business dropped significantly as US 
combat forces redeployed from Iraq and Afghanistan. As a result of the 
reduction, several CRAF carriers have expressed concern that they are 
not receiving enough compensation to remain in the CRAF program.
    In anticipation of the drawdown, TRANSCOM went to great lengths to 
increase the commercial business within the Defense Transportation 
System, and shaped strategic contracts and partnerships to maximize 
business opportunities for CRAF providers. These efforts have given the 
CRAF carriers access to $3.8 billion of commercial business during 
fiscal year 2014. In addition to driving increased revenue in the 
Defense Transportation System, Air Mobility Command made adjustments to 
the mission allocation processes, awarding additional business to 
commercial carriers consistent with operational requirements and 
reducing the potential to exceed planned military flying hours.
    As TRANSCOM implements the fiscal year 2016 CRAF contract we will 
monitor the health of the program and continue a robust dialogue with 
CRAF carriers to ensure the success of the CRAF program. TRANSCOM is 
concerned with maintaining the required level of overall CRAF program 
subscription, but we do not currently expect a shortfall.
                               inf treaty
    27. Senator Ayotte. Admiral Haney, in your written statement, you 
wrote that the INF treaty promotes strategic stability for our European 
allies by addressing their concerns. Admiral Haney, how important is 
the INF treaty to the stability and security of Europe?
    Admiral Haney. Historically, the INF Treaty is one of a number of 
mechanisms that has supported the promotion of strategic stability in 
Europe. While the US has concerns pertaining to Russia's compliance 
with the Treaty, it remains a viable element of Euro-Atlantic security. 
Consequently, I agree with the State Department that the INF Treaty 
benefits the security of the United States, our allies and the Russian 
Federation.

    28. Senator Ayotte. Admiral Haney, you also wrote in your testimony 
that Russia has violated the INF treaty, and has pursued more than a 
decade of modernization of their strategic nuclear forces. Is the 
United States going to continue to abide by the INF treaty if Russia 
continues to violate it?
    Admiral Haney. The US pursues bilateral and multilateral treaties 
and agreements with a focus on internationally accepted norms of 
behavior. Because I believe that the INF Treaty can continue to serve 
in this capacity as well as promote Euro-Atlantic security, I agree 
with the State Department that the US should continue pursuing 
resolution of our concerns with Russia.
                              nuclear iran
    29. Senator Ayotte. Admiral Haney, you point out in your written 
statement that you ``remain concerned about Iran's nuclear 
activities.'' What concerns you about Iran's nuclear activities? Have 
those activities continued in recent months?
    Admiral Haney. Iran has disguised its nuclear program for decades 
by housing enrichment centrifuges at covert facilities. They have also 
developed potential delivery systems through its space program. For 
example, Iran's developing space program has a potential cross-over 
support to their ballistic missile development. I must acknowledge 
these threats as a high concern.
                        iranian cyber activities
    30. Senator Ayotte. Admiral Rogers, can you describe Iranian cyber 
activities?
    Admiral Rogers. [Deleted.]

    31. Senator Ayotte. Admiral Rogers, how extensive are their 
offensive cyber capabilities?
    Admiral Rogers. [Deleted.]

    32. Senator Ayotte. Admiral Rogers, has Iran conducted cyberattacks 
or cyber intrusion against the U.S. or our allies in the last year or 
so?
    Admiral Rogers. [Deleted.]
                   russian activities against ukraine
    33. Senator Ayotte. Admiral Rogers, can you provide your 
perspective on Moscow's activities against Ukraine, focusing 
specifically on the cyber and information operations domains?
    Admiral Rogers. [Deleted.]

    34. Senator Ayotte. Admiral Rogers, have you observed similar 
Russian activities in other parts of eastern Europe?
    Admiral Rogers. [Deleted.]
                  u.s. missile defense sites in alaska
    35. Senator Ayotte. Admiral Haney, Admiral Gortney, the U.S. 
Northern Command (NORTHCOM) Commander, recently said that Russia could 
use long range missiles to ``reach critical infrastructure in Alaska 
and Canada that we rely on for a Homeland defense mission.'' Could 
Russia launch a cruise missile from inside Russia and target important 
defense infrastructure in Alaska?
    Admiral Haney. It is my understanding that the next generation of 
air launched cruise missile being fielded by Russia will allow them to 
launch from inside Russia and attack important infrastructure in Alaska 
and Canada.
                          chinese cyber theft
    36. Senator Ayotte. Admiral Rogers, China has stolen massive 
amounts of technology, intellectual property, proprietary information, 
and military secrets from the United States. Admiral Haney points out 
in his written statement that ``China has also made headlines 
associated with exploitation of computer networks.'' Can you help 
quantify the magnitude of this theft for us?
    Admiral Rogers. [Deleted.]

    37. Senator Ayotte. Admiral Rogers, does this theft threaten the 
military and technological superiority of the United States?
    Admiral Rogers. [Deleted.]

    38. Senator Ayotte. Admiral Rogers, what is at stake if we do not 
stop this cyber theft?
    Admiral Rogers. [Deleted.]

    39. Senator Ayotte. Admiral Rogers, what is the United States 
currently doing about this problem?
    Admiral Rogers. [Deleted.]

    40. Senator Ayotte. Admiral Rogers, what additional steps do we 
need to take to ensure that China cannot continue to rob us of our 
advantage?
    Admiral Rogers. [Deleted.]
                  chinese anti-satellite capabilities
    41. Senator Ayotte. Admiral Haney, in your written statement, you 
point out that ``China needs to be more forthcoming about missile tests 
that appear to be more focused on the development of destructive space 
weapons.'' The United States relies heavily on satellite-based systems 
in conducting operations. If these missile tests are focused on the 
development of destructive space weapons, what does that mean for the 
United States?
    Admiral Haney. Our potential adversaries have clearly signaled 
their intent and ability to conduct hostile operations in space as a 
natural extension of the terrestrial battlefield, and consider these 
operations essential to deny U.S. forces the asymmetric advantages of 
space. To mitigate this trend, the U.S. continues to pursue actions 
such as partnering with responsible nations, international 
organizations and commercial firms to promote responsible, peaceful and 
safe use of space.
    In that spirit, the President's Budget supports my mission 
requirements, maintains our asymmetric advantage in space, and protects 
our strategic capabilities.

    42. Senator Ayotte. Admiral Haney, is DOD working to address this 
threat? How can Congress help?
    Admiral Haney. [Deleted.]
                               __________
               Questions Submitted by Senator Deb Fischer
                     expanding the nuclear umbrella
    43. Senator Fischer. Admiral Haney, in addition to the complicating 
effect we discussed that horizontal and vertical nuclear proliferation 
would have on our existing extended-deterrence commitments, how 
challenging would it be to open our deterrent ``umbrella'' further and 
provide extended deterrence guarantees to new countries in new regions?
    Admiral Haney. Any sort of broadening of US deterrence commitments 
must be weighed in terms of both operational and political 
consequences. Military impacts must be evaluated on a case-by-case 
basis; and may impact our planning requirements over the long term. I 
would defer to the State Department regarding the political 
implications.
                               __________
                Questions Submitted by Senator Mike Lee
                            strategic forces
    44. Senator Lee. Admiral Haney, the United States government 
accused the Russian government last year of violating the Intermediate-
Range Nuclear Forces Treaty. This week, Russia stated it would station 
nuclear-capable bombers in Crimea and Iskander Missiles into 
Kaliningrad on the borders of NATO allies. You are well versed not only 
in our strategic systems and defenses, but also in the military theory 
underlying these programs. What do you think is an appropriate response 
to these violations and maneuvers, and how have these developments 
impacted the way you think of our strategic force and missile defense 
posture?
    Admiral Haney. These are matters of concern, and are among the many 
areas that I monitor closely. Any options, whether informational, 
economic, or otherwise, should be considered in close collaboration 
with our allies. The current US strategic force posture is sufficient 
to protect US/Allied strategic interests and maintain a credible 
deterrent. With respect to missile defense, we are constantly 
evaluating and assessing current and future capabilities that will 
inform future missile defense posture planning.

    45. Senator Lee. Admiral Haney, what are your biggest modernization 
priorities for the nuclear triad in the coming decade?
    Admiral Haney. Going forward, we are committed to the Ohio 
Replacement Program, the Long Range Strike-Bomber, the Long Range 
Standoff cruise missile, the B61-12 gravity weapon, and the Minuteman 
III replacement programs. The global security environment demands we 
properly sustain and modernize our strategic capabilities. We cannot 
afford to delay or reduce planned modernization for these programs any 
further and must provide stable and sufficient funding in fiscal year 
2016 and beyond. The President's fiscal year 2016 Budget strikes a 
responsible balance between national security priorities and fiscal 
realities, and begins to reduce some of the risk we have accumulated 
because of deferred maintenance.

    46. Senator Lee. Admiral Haney, do you believe that all three legs 
of the triad are being maintained to a level that keeps up with the 
worldwide threats they are meant to deter?
    Admiral Haney. Today, the Triad is well matched to the worldwide 
threats and is an effective strategic deterrent. However, the global 
security environment continues to change and we must ensure our Triad 
remains safe, secure, and effective. While the President's fiscal year 
2016 Budget supports my mission requirements, we cannot afford to 
underfund these vital programs, especially as potential adversaries 
continue modernizing their strategic capabilities. We cannot further 
delay investments in critical capabilities like the Ohio Replacement 
Program, the Long Range Strike-Bomber, the Long Range Standoff cruise 
missile, the B61-12 gravity weapon, and the Minuteman III replacement. 
We must provide stable, sufficient funding for these programs in fiscal 
year 2016 and beyond to ensure the Triad remains an effective deterrent 
in the future against evolving threats.

    47. Senator Lee. Admiral Haney, last month, Iran successfully 
launched a satellite into orbit aboard a two-stage rocket. How much 
technological cross-over is there between the Iranian space-launch 
program and its ballistic missile program, and what can you tell us 
about the Iran timeline for Iran potentially testing a missile with the 
capability of hitting the U.S. mainland?
    Admiral Haney. As Defense Intelligence Agency Director Lieutenant 
General Stewart testified, Iran publicly stated that it intends to 
launch a new space-launch vehicle as early as this year capable of ICBM 
ranges, if configured as such. While their previous space launch 
vehicles did not seem to have this capability, I need to defer to the 
Intelligence Community to characterize how specific technologies cross-
over between their space and ballistic missile programs. However, 
Iran's space program clearly gives them experience with many aspects of 
launching an ICBM.

    48. Senator Lee. Admiral Haney, do you believe that expediting the 
deployment of the European Phased Adaptive Approach (EPAA) missile 
defense system, or strengthening our missile defenses in Europe by 
giving them anti-air and cruise missile capabilities would be useful 
for deterring Russia and protecting our missile defense investments?
    Admiral Haney. As stated in the 2010 Ballistic Missile Defense 
Review, it is not our policy to build and array missile defenses which 
would upset the strategic balance with Russia. But should the regional 
situation decay such that a modification to our missile defense posture 
was warranted, USSTRATCOM would work with the Services, USEUCOM, and 
other combatant commands to provide the Secretary a recommendation.
                             cyber security
    49. Senator Lee. Admiral Rogers, what are the specific areas of 
U.S. infrastructure that cyber-attackers are targeting most often, and 
how do you see the trends in target selection and attacker-capability 
evolving in the coming years?
    Admiral Rogers. [Deleted.]
                                transcom
    50. Senator Lee. General Selva, the State of Utah has funded an 
ongoing analysis aimed at a potential move of the Utah Air National 
Guard, including the 151st Air Refueling Wing, from Salt Lake 
International Airport to Hill Air Force Base. One focus of the study is 
the reserve component facilities exchange statute (title 10 U.S.C. 
section 18240), which could enable the commercial re-use of ANG airport 
property currently leased by the Air Force and Air National Guard. The 
Utah State legislature recently passed a resolution unanimously 
expressing continued support for the Utah ANG relocation and invited 
the Air Force and other stakeholders to join these efforts and 
collaboratively create a solution for the recapitalization of Air Force 
facilities that will directly benefit TRANSCOM operations at a reduced 
Federal contribution, saving scarce MILCON funding. Aside from the 
savings and economic value of such a move, what operational synergies 
and other benefits could be realized from the colocation of ANG 
refueling assets with Air Force Reserve and active Air Force units at 
Hill AFB, given the base's strategic location in the western United 
States and its proximity to the Utah Test and Training Range?
    General Selva. Although the Air Force will likely benefit from 
efficiencies gained by moving the 151st Air Refueling Wing from Salt 
Lake International Airport to Hill Air Force Base, there are no 
significant advantages or disadvantages to USTRANSCOM for that move.

    51. Senator Lee. General Selva, from a total force integration 
perspective, does this initiative help to ensure the success of future 
F-35 operations at Hill AFB, create additional opportunities for viable 
unit associations, and help the AF implement recommendations from the 
National Commission on the Structure of the Air Force which the Air 
Force has largely endorsed?
    General Selva. The Headquarters Department of the Air Force is in 
the best position to describe how this initiative affects F-35 
operations at Hill AFB and any opportunities for unit associations that 
could occur as a result of the co-location of assets at Hill Air Force 
Base.

    52. Senator Lee. General Selva, from TRANSCOM's perspective, do you 
have any recommendations for Utah State and Guard leadership regarding 
the planning or facility design for this proposed move?
    General Selva. The Headquarters Department of the Air Force is in 
the best position to provide any recommendations for Utah State and 
Guard leadership on the planning or facility design for this proposed 
move as they are charged with organizing, training, and equipping the 
Air Force.
                               __________
             Questions Submitted by Senator Lindsey Graham
                     global pov contract (gpc iii)
    53. Senator Graham. General Selva, you recently decided to continue 
with the GPC contractor despite significant problems with the program 
to date. What changes, in particular, has the new contractor made or 
proposed in its plan that you approved that give you sufficient 
confidence that it can handle the contract, especially during the 
upcoming peak moving season?
    General Selva. International Auto Logistics' (IAL) 2015 surge plan, 
coupled with their current contract performance and process 
improvements, will position them for successful performance during the 
2015 permanent change of station peak moving season. IAL's Surge Plan 
detailed process improvements and operations management changes in all 
major areas of contract performance, the majority of which have already 
been implemented. The plan addressed transportation planning and 
subcontractor management, customs clearances, Vehicle Storage Facility 
and Vehicle Processing Center site management, claims processing, 
customer service, and employee training and staffing levels. IAL 
presented each of these areas in detail and demonstrated its ability to 
meet contract requirements.

    54. Senator Graham. General Selva, the contractor's poor 
performance has caused numerous Members of Congress to raise questions 
about the program. What will you do if servicemembers experience 
problems again during the peak moving season?
    General Selva. We anticipate International Auto Logistics (IAL) 
will perform successfully during peak season; however USTRANSCOM will 
remain ready to execute appropriate options in the event IAL is 
unsuccessful. The Global Privately-Owned-Vehicle Contract (GPC) III 
contract includes Federal Acquisition Regulation (FAR) 52.212-4, 
Contract Terms and Conditions--Commercial Items, which allows the 
Government, at its discretion, to terminate for cause in the event of 
contractor default, or if the contractor fails to comply with any 
contract term or condition, or fails to provide the Government, upon 
request, with adequate assurances of future performance. Recent 
contract performance has markedly improved and International Auto 
Logistics has provided a plan to meet performance requirements during 
the peak season.
    The contract also contains option periods which the Government has 
a unilateral right to exercise. The Government could elect not to 
exercise future option periods.
    In addition, the contract contains provisions reducing payment when 
the contractor misses a required delivery date (RDD) by 1-7 days, 
requires payment of inconvenience claims (rental car and hotel 
expenses) directly to the customer for missed RDDs beyond 8 days, and 
forfeiture of all transportation payment for POVs delivered 60 days or 
more past the RDD. These contract provisions will impose substantial 
costs to the contractor if it were to experience widespread delays.
    Additionally, The Army's Surface Deployment and Distribution 
Command has issued advisories to reiterate to service members their 
rights under the inconvenience and damage claims processes provided by 
the contract should they experience a problem.

    55. Senator Graham. General Selva, do you have the option to 
terminate and rebid the contract?
    General Selva. The GPC III contract includes Federal Acquisition 
Regulation (FAR) 52.212-4, Contract Terms and Conditions--Commercial 
Items, which allows the Government, at its discretion, to terminate for 
cause in the event of contractor default, or if the contractor fails to 
comply with any contract term or condition, or fails to provide the 
Government, upon request, with adequate assurances of future 
performance. The decision to terminate for cause is a subjective 
decision based on numerous factors involving contract performance. The 
FAR states a contracting officer should only exercise the Government's 
right to terminate a contract for cause when it is determined such a 
termination would be in the best interests of the Government. Recent 
contract performance has markedly improved and the contractor, 
International Auto Logistics, has provided a plan to meet performance 
requirements during the peak season.

    56. Senator Graham. General Selva, what other actions can you take?
    General Selva. The contract also contains option periods which the 
Government has a unilateral right to exercise. The contract base period 
ends 29 February 2016. The Government could elect not to exercise 
option period one which starts 1 March 2016.
                       maritime security program
    57. Senator Graham. General Selva, how many ships do you need in 
the Maritime Security Program to meet sealift capacity requirements?
    General Selva. The authorized composition of the Maritime Security 
Program (MSP) of 60 ships is required to provide access to capacity to 
augment our organic surge fleet, access to global commercial intermodal 
networks and the appropriate number of commercial mariners needed to 
fully crew our surge fleet.
    In addition to national defense requirements, MSP was also created 
to ensure the Nation's economic security through presence in key 
international trade lanes. The steady decline of the U.S.-flag 
international dry cargo trading sector is of great concern, as it is 
approaching the point where MSP is what is keeping the sector from 
disappearing completely. I support the Department of Transportation and 
the Maritime Administration's efforts to create a National Maritime 
Strategy to reverse this trend and grow the U.S.-flag fleet. I can 
provide the warfighter more options to meet requirements with a healthy 
and stable Merchant Marine.
                               __________
                Questions Submitted by Senator Jack Reed
  should we ever attack the critical infrastructure of another nation?
    58. Senator Reed. Admiral Rogers, the United States is the most 
networked economy in the world. Our critical infrastructure is 
accessible through the Internet and is quite exposed and vulnerable. As 
the Sony attacks and others have demonstrated, even small countries 
with no ability to attack the homeland with traditional military forces 
can inflict significant damage on the United States through cyber-
attacks. There is an old adage that people who live in glass houses 
should not throw stones. It may be tempting in a conflict for us to 
employ cyber-attacks on another country's grid, or telecommunications 
network, or banking institutions, but doing so sets precedents for 
other nations to follow. Since we place more reliance on our 
information systems and capabilities than almost anyone else, this 
could lead to escalation that would not be to our advantage. Admiral 
Rogers, do you think we should establish policies against using cyber 
weapons against nonmilitary, infrastructure targets? This would be 
something analogous to the no first use doctrines used in the nuclear 
domain.
    Admiral Rogers. As a matter of principle, the DOD does not attack 
non-military targets. However, some infrastructure is dual-use in 
nature supporting both civilian and military activities. In these cases 
we would operate within the laws of armed conflict.
    The United States is working with international partners, through 
the UN Group of Governmental Experts, to develop norms of responsible 
state behavior that would better assure mutual security if adopted by 
all states. The United States position should focus on developing an 
international peacetime cyber norm of not attacking another country's 
critical infrastructure specifically providing services to the civilian 
public. This norm reflects the basic principles of sovereignty and 
conveys the unacceptable nature of using cyber means to cause damage to 
a State's critical infrastructure during peacetime.
    Additionally, the United States is focusing effort on hardening 
networks associated with our own critical infrastructure, given the 
reliance placed on it by both military and non-military entities. We 
must take swift action to correct identified cybersecurity gaps and 
vulnerabilities.
                        deterrence in cyberspace
    59. Senator Reed. Admiral Rogers, it is a truism that nations 
cannot be deterred by weapons or capabilities that they do not know 
exist. So it is with the cyber domain. At the dawn of the nuclear age, 
we showed the world the power of nuclear weapons, and in the first 
decades after WWII, the nuclear powers regularly tested in ways that 
educated the world on the effects of nuclear war. Twenty years after 
Hiroshima, the U.S. had been through multiple full-fledged nuclear 
deterrence doctrines--from the New Look to Massive Retaliation to 
Flexible Response and Mutual Assured Destruction. Twenty years into the 
Internet age, in contrast, we have yet to put forth any claims about 
the power of cyber weapons or even the first comprehensive doctrinal 
treatment of deterrence and the role of cyber warfare in U.S. military 
strategy. Friends and adversaries alike are left to imagine what we are 
capable of and what our intentions are. Admiral Rogers, what practical 
impediments stand in the way of publicly defining the role and 
significance of cyber warfare in our national security strategy?
    Admiral Rogers. The unclassified 2011 DOD Strategy for Operating in 
Cyberspace established a foundation for DOD's approach to cyberspace 
operations with the treatment of cyberspace as an operational domain. 
Military cyberspace capabilities are employed in a similar manner to 
capabilities in the other domains (land, sea, air, and space) focused 
on achieving military objectives in support of national security 
interests. A forthcoming updated and unclassified DOD Cyberspace 
Strategy will further expound on the role and significance of 
cyberspace operations in U.S. National Security Strategy. However, some 
challenges will remain. Much of our planning is sensitive and therefore 
not publicly releasable. Because of operational security concerns we 
are very careful not expose our specific tactics, techniques, 
procedures or capabilities. We do however send a clear signal of our 
resolve and potential capabilities when we conduct exercises with a 
cyberspace component. Additional challenges include the lack of 
international peacetime cyber norms and understanding of what 
constitutes use of force in cyberspace.

    60. Senator Reed. Admiral Rogers, alternatively, do you think that 
the use of cyber weapons in the cyber domain is just not consequential 
enough to merit the development of strategic concepts and doctrine, as 
was done for nuclear warfare, air power, sea power, and the like?
    Admiral Rogers. The potential consequences of a cyberspace attack 
do merit the development of strategy and doctrine. Our evolving 
strategies will aim to incorporate measures to not only deter 
cyberattacks by denying their success and demonstrate our will to hold 
adversaries accountable and impose costs for such a cyberattack.
    We have joint doctrine as represented in Joint Publication 3-12 for 
Cyberspace Operations and we continue our contributions to evolve that 
doctrine and develop strategy. As described in the 2015 Department of 
Naval Intelligence Worldwide Threat Assessment of the U.S. Intelligence 
Community, it is considered feasible that malicious activities through 
cyberspace can be used to disrupt or damage critical infrastructure in 
the United States.
    The United States must be able to respond to cyberattacks at a 
time, manner, and place of our choosing as determined by the President 
upon the advice of the U.S. national security team. United States 
strategy to deter cyberattacks should not simply rest upon an in-kind 
response through cyberspace. The United States must develop defensive 
and cybersecurity capabilities to deny potential attack success. 
Finally, the United States must be resilient to cyberattacks, able to 
recover rapidly and provide mission assurance in the face of adversary 
actions. This extends to all U.S. critical infrastructure owners and 
operators.

    61. Senator Reed. Admiral Haney and Admiral Rogers, North Korea was 
not deterred from attacking the Sony Corporation of America, inflicting 
hundreds of millions of dollars in damage. Iran was not deterred from 
attacking U.S. banks and a U.S. casino. Many repressive regimes 
consider themselves under mortal threat from so called ``color 
revolutions'' aided by the global Internet if not purposefully fomented 
by the United States. They may believe they are already engaged in a 
deadly ``information war'' with the west. We have a web of mutual 
deterrence relationships with major powers such as China and Russia 
that may serve to deter these nations from launching devastating cyber-
attacks on our critical infrastructure in peacetime and even in a war. 
But that is not true for rogue nations such as North Korea and Iran. 
Admiral Haney and Admiral Rogers, if we felt compelled to use military 
forces against their nuclear systems, for example, they would likely 
strike at us with whatever means possible. In contemplating military 
coercion against Iran or N01ih Korea in the future, would you agree 
that future Presidents will have to consider that economic targets in 
the homeland will be attacked through cyberspace? Is it realistic to 
think that there is some way to deter such retaliation?
    Admiral Haney. Protecting critical infrastructure from cyberspace 
attacks is and will continue to be a high priority across the US 
government. While I will not reference a specific scenario, we must 
anticipate that any future conflict could start or be extended to 
cyber-attacks against critical infrastructure. Yes, a disruptive or 
destructive cyberattack could present a significant risk to US economic 
interests and deterring such an event requires a whole of government 
approach involving all of our nation's instruments of power. As 
outlined in our Cyber Strategy, the US will employ full-spectrum cross-
domain solutions utilizing all elements of our national power.
    Admiral Rogers. (U//FOUO) I would advise future Presidents that 
yes, attacks against economic targets should be anticipated. Asymmetric 
attacks can be expected as long as the U.S. maintains a conventional 
military advantage. In particular, Iran may feel compelled to strike 
financial institutions or order targets to offset real or perceived 
shortfalls in military capability. Moreover, other types of critical 
infrastructure and key resources (CIKR) within the U. S. may also be 
subject to such asymmetric attacks, including electrical power control 
systems or other similar targets. Our forthcoming DOD cyber strategy 
will outline an approach to building a more comprehensive and effective 
cyber deterrence strategy.
                       maturity of cyber command
    62. Senator Reed. Admiral Rogers, Cyber Command was created in 
2010. At that time, it was expected that the Command would largely 
capitalize on the tools and techniques that NSA uses to collect 
intelligence through cyberspace. Over time, however, DOD has realized 
that military operations will be different from intelligence operations 
in cyberspace, and that Cyber Command needs different network 
infrastructure, different command and control capabilities, and 
different tools and weapons. Approximately a year ago, the Secretary of 
Defense signed a directive to the Department to create these 
capabilities, which he collectively called the ``Unified Platform.'' 
Admiral Rogers, can you explain why it is important for Cyber Command 
to have network infrastructure, command and control systems, and tools 
and weapons that are distinct from and do not duplicate those that NSA 
has developed to collect intelligence in cyberspace?
    Admiral Rogers. [Deleted.]

    63. Senator Reed. Admiral Rogers, can you explain briefly what the 
Secretary directed under the Unified Platform initiative last year?
    Admiral Rogers. [Deleted.]
            measuring the readiness of cyber command forces
    64. Senator Reed. Admiral Rogers, Cyber Command now has only about 
half of its planned military forces fielded and trained. Cyber Command 
does not yet have the set of robust command and control, network 
infrastructure, and tools and weapons that the Secretary last year 
directed be built under the Unified Platform initiative. Admiral 
Rogers, in the absence of the capabilities envisioned under the Unified 
Platform initiative, how can we measure the readiness of the Cyber 
Mission Forces?
    Admiral Rogers. (U//FOUO) As U.S. Cyber Command, the Cyber Service 
Components, and Services work together towards fielding the Cyber 
Mission Force (CMF), we are measuring operational readiness by 
assessing the number of trained personnel, the type of training for 
each individual and the collective cyber team, and the equipment each 
team possesses.
    (U//FOUO) A mature operational readiness reporting framework, which 
assesses the unit's ability to perform core tasks outlined in our Joint 
Mission Essential Tasks (JMET), is the key for measuring readiness of 
the Cyber Mission Forces. We have developed a path using an operational 
reporting framework on the road to Defense Readiness Reporting System--
Strategic (DRRS-S) in order to report in a manner similar to the rest 
of the force. As we mature this operational readiness reporting 
framework, we will use it to shape and drive the development of DRRS-S 
modules as the JMETs reach final U.S. Strategic Command and Joint Staff 
approval, targeted for spring next year. The ability to exercise and 
rehearse based on the tasks, conditions and standards is a key element 
of assessing operational readiness and a Persistent Training 
Environment (PTE) will be the key to reaching the operational readiness 
milestone. We have also developed a plan to address immediate needs for 
PTE in fiscal year 2015 which will bring us closer to the Department's 
long-term vision of PTE which allows us to use the proper environment 
to regularly train and exercise CMF teams.
    (U) I am committed to ensuring the Cyber Mission Force is fully 
manned, trained, equipped, and ready to fulfill USCYBERCOM's mission by 
the end of fiscal year 2018.

    65. Senator Reed. Admiral Rogers, how capable can they be without 
the capabilities called for by the Secretary?
    Admiral Rogers. [Deleted.]
                   readiness to be a unified command
    66. Senator Reed. Admiral Haney and Admiral Rogers, Cyber Command 
remains highly dependent on a combat support defense agency--National 
Security Agency--for much of its current operational capability. Cyber 
Command has only about half of its planned military cyber mission 
forces on hand and trained. The Secretary of Defense's Unified Platform 
directive indicates that the Command does not yet have the command and 
control capabilities, network infrastructure for operating on the 
global Internet, or the tools and weapons to execute operations 
effectively at large scale in support of our war plans. Admiral Haney 
and Admiral Rogers, do you believe that Cyber Command is ready to be 
designated as a unified command able to stand on its own two feet? If 
not, how long do you think it will take to reach the necessary level of 
maturity?
    Admiral Haney. Since USCYBERCOM reached full operational capability 
in late-2010, we have continued to grow our cyber work force and 
associated teams. USCYBERCOM has operated for over five years and has 
proven it can function as a sub-unified or unified CCMD. I recommend, 
however, that we retain CDRUSCYBERCOM's dual-hat status as Director, 
NSA (DIRNSA). Transitioning USCYBERCOM to a unified CCMD may require 
additional resourcing.
    Admiral Rogers. This is a decision that must be made by the 
President in consultation with the Secretary of Defense and Chairman of 
the Joint Chiefs of Staff. In my professional judgement, I believe U.S. 
Cyber Command is ready to be designated as a Unified Combatant Command 
(UCC). Most of U.S. Strategic Command's Unified Command Plan cyberspace 
responsibilities have been delegated to us, and we regularly engage 
with the Office of the Secretary of Defense, Joint Staff, Services, 
United States Government, Five Eyes partners, and Combatant Commands 
for planning, synchronizing, and supporting mission activities. 
However, the unique nature of cyberspace--a globally connected, 
intricately linked domain without traditional borders--requires an 
empowered, singularly focused, globally-oriented Combatant Commander to 
oversee cyberspace activities and coordinate global operations. 
Elevating U.S. Cyber Command will comport with tried and true tenets of 
warfare--unity of command and unity of effort--for cyberspace 
operations. Violating these tenets increases risk and creates 
inefficiencies in the form of redundant processes and increased 
timelines. Departmental-level unity of command and effort will be 
achieved when Commander, U.S. Cyber Command is empowered as DOD's 
single military voice for cyber in the Joint Strategic Planning System, 
Joint Capability Integration Development System, and Planning, 
Programming, Budget, and Execution processes. The Department and Nation 
have already made the great majority of the investment required to have 
this new functional Unified Combatant Command. If empowered to include 
authorities to act as a Force Provider and Functional Manager for 
training and workforce development and for expenditures and 
acquisitions, U.S. Cyber Command will have to develop these 
capabilities but will ultimately be better positioned to lead and 
influence the Department to ensure the development and implementation 
of a viable, trained workforce; cyberspace capabilities; appropriate 
policies and directives; and, necessary supporting infrastructures. 
Such an evolution will move U.S. Cyber Command towards full operational 
autonomy.
                               __________
               Questions Submitted by Senator Joe Manchin
                 projected costs of u.s. nuclear forces
    67. Senator Manchin. Admiral Haney, in your testimony you 
referenced a recent Congressional Budget Office (CBO) report that 
estimates that the administration's plan for nuclear forces over the 
next 10 years will cost almost $350 billion--an average of roughly $35 
billion a year. How can we modernize and maintain an effective nuclear 
deterrent in a more cost effective manner?
    Admiral Haney. Today we spend less than 3 percent of the DOD budget 
on nuclear capabilities. As stated by the January 2015 Congressional 
Budget Office report, recapitalization investments that are necessary 
to ensure safety and security will increase this number to ``roughly 5 
percent to 6 percent.'' We have maintained our legacy systems decades 
beyond their planned life. This modest increase to the DOD budget is 
necessary to ensure the Triad continues to deter potential adversaries, 
assure allies, and preserve stability with countries that could pose an 
existential threat to the United States.

    68. Senator Manchin. Admiral Haney, during an earlier hearing this 
year, General Mattis asked ``Is it time to reduce the Triad to a Diad, 
removing the land?based missiles?'' How much would a decision like this 
save the U.S. financially each year?
    Admiral Haney. Every day, the Triad deters potential adversaries, 
assures allies, and preserves stability with countries that pose an 
existential threat to the United States. It is the combination of 
attributes across the Triad that ensures potential adversaries 
understand they cannot escalate their way out of a failed conventional 
conflict. The Triad imposes unacceptable costs and denies the benefits 
of a strategic attack against the United States. Maintaining the Triad 
of air, sea, and land forces remains a strategic imperative. Any 
changes to the Triad must be based on thoughtful strategic analysis, as 
opposed to meeting a budgetary objective.
    The three legs of the Triad provide the capability to mitigate risk 
caused by technological failure of any weapon or platform, technical 
advances by our adversaries, or significant changes in the geo-
political environment. If the nuclear forces were reduced to one or two 
of its parts, the ability to deter, assure, and manage risk would be 
significantly degraded.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                            new start treaty
    69. Senator Shaheen. Admiral Haney, is the New Strategic Arms 
Reduction Treaty (START) still providing transparency into the Russian 
nuclear force, notwithstanding deteriorating relations with that 
country?
    Admiral Haney. Yes, New START remains in force and continues to 
provide access and transparency. A key component is the Treaty's 
inspection regime which allows each side to conduct eighteen 
inspections per year of the other nation's ICBM, submarine, and air 
facilities. Similarly, the Treaty's notification system, of which both 
sides have exchanged an average of 1,500 messages per year, has 
effectively reduced the possibility of misperception and 
misunderstanding. As a result, New START has proven to be durable and 
continues to enhance security and strategic stability between the US 
and Russia.
                             kc-46a program
    70. Senator Shaheen. General Selva, how critical is the KC-46A 
program to TRANSCOM's ability to meet future air mobility readiness for 
the Department of Defense?
    General Selva. The KC-46 is essential to meeting future air 
mobility readiness for the DOD. The KC-46A is replacing the aging KC-
135 fleet and will be capable of operating in day/night and adverse 
weather conditions over vast distances to enable deployment, 
employment, sustainment and redeployment of U.S. joint, allied and 
coalition forces.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                       small business contracting
    71. Senator Blumenthal. General Selva, a U.S.-flagged shipping 
company based in Connecticut has raised concerns with my office that 
the U.S. Transportation Command (TRANSCOM) is failing to adhere to 
historic protections and preferences for U.S.-flagged small shipping 
companies that compete for military contracts to supply our military's 
overseas bases. What assurances can you give me that small businesses 
are able to compete for military contracts?
    General Selva. USTRANSCOM seeks every opportunity for Small, Small 
Disadvantaged, Women-Owned, Historically Underutilized Business Zone 
and Service-Disabled Veteran-Owned Small Business concerns to obtain a 
fair portion of contract awards. Extensive market research is 
accomplished for each acquisition to determine if at least two 
responsible small business concerns are expected to be capable of 
performing at a fair market value in order to set-aside the 
acquisition.
    USTRANSCOM has exceeded the small business goal, set by the 
Department of Defense, Office of Small Business Programs for the past 
three fiscal years and is currently on track to do so in fiscal year 
2015. In addition, record breaking achievements for socioeconomic 
categories are being realized this fiscal year; USTRANSCOM already 
awarded $30.6M more to Small Disadvantaged Businesses compared to 
fiscal year 2014, $1.5M more to Service-Disabled Veteran-Owned and 
$23.1M more to Women-Owned Small Businesses.
                             c-130 upgrades
    72. Senator Blumenthal. General Selva, you indicated that the 
``fiscal year 2016 President's Budget includes an end-state fleet of 
308 C-130s and 479 tankers to meet air mobility operational 
requirements. The C-5 and C-17 fleets are undergoing modernization 
efforts to replace aging components, as well as adding avionics to meet 
mandated minimum aircraft separation capability to ensure aircraft 
ability to meet worldwide commitments.'' Please address what 
modernization efforts are needed to ensure that the fleet of 308 C-130s 
remain able to meet operational requirements.
    General Selva. USTRANSCOM requires 308 C-130s as part of a vital 
airlift force structure to meet our strategic airlift requirement. The 
C-130 fleet plays a critical role in the Intratheater airlift 
operations. I support Air Mobility Command's effort to modernize the C-
130 Fleet.
    The Air Force report on C-130 modernization and recapitalization, 
as directed by Section 140 of the ``Carl Levin and Howard P. `Buck' 
McKeon National Defense Authorization Act for Fiscal Year 2015,'' is 
nearing completion and will provide additional detail, including plans 
to recapitalize Reserve Component C-130H aircraft with the C-130J. 
Although the report describes the Air Force's current C-130 
modernization plan, the Air Force intends further consultation with 
Congress to discuss its modernization strategy for the C-130H fleet.
                               __________
              Questions Submitted by Senator Joe Donnelly
                        counterfeit electronics
    73. Senator Donnelly. Admiral Rogers, following up on my questions 
in the hearing, Naval Surface Warfare Center Crane in Indiana is 
involved in a collaborative effort with DARPA and NSA to better 
understand and protect us against threats posed by counterfeit 
electronics making their way into DOD systems. The ultimate aim of 
these efforts is to ensure that microelectronics in DOD weapon and 
cyber systems function as intended for the lifecycle of the system. 
Over the past couple years they have observed a dramatic escalation in 
the technical sophistication of counterfeiting techniques. The findings 
of a 2012 Senate Armed Services Committee investigation dealt primarily 
with traditional counterfeits, motivated by profit and targeted 
indiscriminately. Do you see a more sophisticated and potentially more 
dangerous threat on the horizon?
    Admiral Rogers. [Deleted.]

    74. Senator Donnelly. Admiral Rogers, are we seeing the development 
of more disruptive and potentially malicious, targeted efforts to 
deliver counterfeit electronics into the DOD supply chain?
    Admiral Rogers. [Deleted.]

    75. Senator Donnelly. Admiral Rogers, we have seen efforts in the 
past to monitor and report on counterfeits entering the DOD supply 
chain. Are you aware of any past study or report focused on parts that 
made their way through the supply chain and into DOD systems?
    Admiral Rogers. [Deleted.]
    76. Senator Donnelly. Admiral Rogers, has the impact of these 
counterfeit parts of unknown quality on DOD weapon and cyber systems 
reliability and performance been investigated?
    Admiral Rogers. [Deleted.]
                       conventional prompt strike
    77. Senator Donnelly. Admiral Haney, during your opening remarks 
you stated the following, ``I support continuing research and 
development of capabilities that help fill the conventional strike gap 
with a discernible non-ballistic trajectory, maneuverability for over-
flight avoidance, and payload delivery capability.'' From your 
perspective, what are the capability gaps and what resources are 
necessary to fill the gaps?
    Admiral Haney. We continue to require a conventional prompt strike 
capability to provide the President a range of flexible military 
options to address a small number of the highest-value targets, 
including those within denied environments. The current budget request 
continues to mature conventional prompt strike technologies and reduces 
risk to place the Department in a position to make an informed decision 
on which concept to develop.

    78. Senator Donnelly. Admiral Haney, Conventional Prompt Strike 
(CPS) research and development efforts will shift this year toward 
testing a smaller glider capable of being launched from air, ground or 
sea-based platforms. What are your views on the importance of 
commonality in a potential future CPS program of record?
    Admiral Haney. Commonality within the Conventional Prompt Strike 
(CPS) research and development effort is important as the program 
continues to mature critical technologies and control costs. The 
current air-vehicle being developed dates back to the 1970s Sandia 
Winged Engineering Research Vehicle (SWERVE) as well as incorporating 
aspects from the 2010 and 2014 flights of the Army's Advanced 
Hypersonic Weapon. This aero-vehicle will continue maturation through a 
series of Navy flight experiments commencing in 2017. Technological 
advances made by the Conventional Prompt Strike effort in areas such as 
thermal protection systems, launch vehicles, aerodynamics, and 
navigation, guidance, and control could span development and technology 
efforts for multiple CPS applications.
                     commonality and collaboration
    79. Senator Donnelly. Admiral Haney, in recent years, the Navy and 
Air Force have been working to identify areas where they can achieve 
critical strategic modernization while saving taxpayer dollars. I have 
witnessed some of this effort through NSWC Crane in Indiana, and I 
expect to see our Services working to best leverage each other's 
research and investments going forward. From your perspective, what is 
the value for the warfighter in enhancing commonality and collaboration 
among nuclear systems?
    Admiral Haney. The Air Force and Navy already share technology 
within the ballistic missile mission area and USSTRATCOM has long 
encouraged the Navy Strategic Applications and Air Force Demonstration/
Validation Programs as they support this goal. We believe collaboration 
and commonality at the component/sub-component level is achievable and 
worthwhile. Going forward, we will continue encouraging the Services to 
share technologies that achieve efficiencies and savings. We believe 
collaboration is particularly important as the Department recapitalizes 
our ballistic missile deterrent forces.

    80. Senator Donnelly. Admiral Haney, what do you see as key 
opportunities for future collaboration?
    Admiral Haney. The Air Force and Navy already share technology 
within the ballistic missile mission area and USSTRATCOM has long 
encouraged the Navy Strategic Applications and Air Force Demonstration/
Validation Programs as they support this goal. We believe collaboration 
and commonality at the component/sub-component level is achievable and 
worthwhile. Going forward, we will continue encouraging the Services to 
share technologies that achieve efficiencies and savings. We believe 
collaboration is particularly important as the Department recapitalizes 
our ballistic missile deterrent forces.

    [Appendix A to follow:]

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
   

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 26, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

 U.S. CENTRAL COMMAND, U.S. AFRICA COMMAND AND U.S. SPECIAL OPERATIONS 
                      COMMAND PROGRAMS AND BUDGET

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Lee, 
Reed, Nelson, McCaskill, Manchin, Gillibrand, Donnelly, Hirono, 
Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. Good morning, and 
welcome to General Lloyd Austin, USA, Commander, U.S. Central 
Command, General David Rodriguez, USA, Commander, U.S. Africa 
Command, and General Joseph Votel, USA, Commander, U.S. Special 
Operations Command.
    The committee meets today to receive testimony on the 
posture of U.S. Central Command, U.S. African Command, and U.S. 
Special Operations Command.
    I extend our appreciation to all three of you for your long 
and distinguished service, and to the troops and their families 
who defend our Nation every day.
    From Mali to Libya and Somalia, and from Yemen to Iraq and 
Syria, the old order across North Africa and the Middle East is 
under siege. Both the regional balance among states and the 
social order within states is collapsing, and no new vision has 
emerged to take its place. Unfortunately, the lack of clear 
U.S. strategy and lack of strong U.S. leadership has confused 
our friends, encouraged our enemies, and created space for 
malign influence to flourish.
    Despite the fact that Dr. Kissinger testified that, ``The 
United States has not faced a more diverse and complex array of 
crises since the end of the second World War,'' to quote, the 
looming threat of sequestration serves to compound that threat 
and help create a leadership vacuum that fuels the chaos of our 
current predicament.
    Retired General Jim Mattis told this committee, ``No foe in 
the field can wreak such havoc on our security that mindless 
sequestration is achieving today.'' And I couldn't agree more.
    Our witnesses are uniquely positioned to describe the 
increased risk due to sequestration. To navigate this chaotic 
time successfully, we must have unambiguous national security 
priorities, clarity in our strategic thinking, and an 
unwavering commitment to the resources required to support the 
necessary courses of action.
    For your sake, General Austin, let's hope that your job 
performance is not measured by the number of crises you have to 
juggle, but how you handle them. My fear is that you're 
expected to juggle with one hand tied behind your back. Whether 
it's sequestration or direction from above not to upset Iran 
during sensitive nuclear negotiations, yours has to be one of 
the most difficult jobs on the planet.
    I'm deeply troubled by comments from senior administration 
officials on Iran. Secretary Kerry recently said that the net 
effect of Iran's military action in Iraq is ``positive.'' 
Similarly, the Chairman of the Joint Chiefs, General Dempsey, 
said, ``As long as the Iraqi Government remains committed to 
inclusivity of all the various groups inside the country, then 
I think Iranian influence will be positive.''
    General Austin, I know from our conversations that you do 
not suffer the dangerous delusion that somehow Iran can be a 
force for good in the region. In your position, you can't 
afford that fantasy. Today, I want to discuss our strategy to 
address the situation on the ground as it is, rather than as we 
wish it to be.
    General David Petraeus gave a realistic picture in a recent 
interview, which is worth quoting; ``The current Iranian regime 
is not our ally in the Middle East. It is ultimately part of 
the problem, not the solution. The more the Iranians are seen 
to be dominating the region, the more it's going to inflame 
Sunni radicalism and fuel the rise of groups like the Islamic 
State.'' I'll be interested if our witnesses agree with that 
assessment from General David Petraeus.
    Iran is not our ally, yet we learned, just yesterday, that 
the United States is providing air support in Tikrit, which 
media is reporting as being fought by 20 to 30,000 Iran-backed 
Shiite militia fighters and only 3 to 4,000 Iraqi Security 
Forces. I have many concerns and questions, about how and why 
we are doing this, which I hope you can answer for us today.
    In Yemen, a country that President Obama recently praised 
model for United States counterterrorism a success story, the 
prospect of radical groups like Iranian-backed Houthi militants 
in charge of an air force and possessing ballistic missiles was 
more than our Arab partners could withstand. The airstrikes by 
these concerned Arab nations stems in part of their perception 
of America's disengagement from the region and a total absence 
of United States leadership.
    In a scenario that you could not make up, while our Arab 
partners conduct airstrikes to halt the offensive of Iranian 
proxies in Yemen, the United States is conducting airstrikes to 
support the offensive of Iranian proxies in Tikrit. This is as 
bizarre as it is misguided, another tragic case of leading from 
behind.
    The complex intertwining of ISIL [the Islamic State in Iraq 
and the Levant] and Iranian problem sets in Iraq and Syria 
challenge us in an area the administration has poorly handled 
to date, the ability to prioritize and deal with multiple 
crises simultaneously.
    We're also seeing increasing links between ISIL and 
terrorist groups throughout Africa, including a growing 
presence in Libya and a newfound relationship with Nigeria's 
Boko Haram. Adding to the rising terrorist threat across the 
continent, Africa remains plagued by longstanding conflicts 
that have resulted in large displacements of people and rising 
instability.
    General Rodriguez, it's obvious, from our discussion this 
week in my office, that none of this is news to you. Yet, 
despite a growing array of threats, African Command 
consistently suffers from significant resource shortfalls that 
impact your ability to accomplish your mission.
    One of the key components of our efforts to combat global 
terrorism is the team of men and women of Special Operations 
Command. In prepared remarks, General Votel has said our 
special operators are deployed in more than 80 countries and 
are often our first line of defense against an evolving and 
increasingly dangerous terrorist threat. They defend the Nation 
by training our partners, and, when required, conducting 
direct-action operations. However, demand for Special 
Operations Forces continues to far exceed supply, placing an 
enormous strain on the readiness of the force. Compounding the 
strain, the looming threat of sequestration, which will not 
just degrade the capabilities of the force, but also the 
service-provided enablers it depends on. General Votel, I look 
to you to update the committee on the impact of sequestration 
on the men and women you lead and the increased risk to the 
troops you would be forced to accept as a result.
    We need a strategy that spans the same geography as the 
threat from the ISIL to al-Qaeda to Iran. Our witnesses work 
tirelessly to combat these threats together, and we owe them 
and their forces they lead better than a piecemeal approach 
that lacks resources and fails to address the full spectrum of 
threats we face.
    I look forward to hearing from our witnesses.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman, and 
good morning.
    And let me join Senator McCain in not only welcoming the 
witnesses, but also thanking them and the men and women of 
their command for their extraordinary service to the Nation.
    And you represent the combatant commands that are most 
engaged in the fight against al-Qaeda and ISIS [the Islamic 
State in Iraq and Syria], and threats that know no geographic 
boundaries and require a regional, and sometimes a 
transregional, approach to effectively dealing with them. The 
rise of a military-capable ISIS threatens to erase national 
boundaries between Iraq and Syria, and the areas under ISIS 
control are providing a training ground for foreign fighters 
who threaten to spread violence, upon returning to their homes 
in Europe, Asia, or even the United States.
    In Iraq, there's a recognition of the need for Sunni, Shia, 
and Kurdish factions to overcome their divisions to confront 
the ISIS threat. Iraqi Prime Minister Abadi has taken steps to 
begin to address Sunni and Kurdish grievances. And, in these 
efforts, he needs our support. In fact, one could argue that, 
ultimately, the issues in Iraq need to have a political 
solution, that military efforts will buy time but not ultimate 
and decisive success.
    Similarly, in Syria, addressing the root causes that helped 
lead to the rise of ISIS will require promoting the conditions 
for a political arrangement as well as success on the 
battlefield. Yet, the growing influence of Shiite-dominated 
militia in Iraq, many taking orders from the Iranian Quds 
force, threatens to alienate the liberated Sunni community. 
Reports of human rights abuses by Shiite militia may cause some 
Iraqi Sunnis to conclude they are better off with ISIS under 
the control of Iranian-backed militias. And that would be an 
extraordinary setback for all of us.
    General Austin, we'd be interested in your assessment of 
the progress with the efforts to train, advise, and assist the 
Iraqi Security Forces to build up the capability of the Kurdish 
Peshmerga as they begin to retake territory from ISIS. We're 
also interested in your views on the growing influence of Iran 
in Iraq and the threat it poses over the long term to Iraq's 
stability. And overnight, as Senator McCain indicated, in 
Yemen, you were given an additional task of supporting GCC 
[Gulf Cooperation Council] operations in their offensive 
operations in Yemen. I hope, General Austin, you can give us an 
update on those responsibilities and those operations.
    Of course, an additional concern is the outcome of the 
nuclear framework negotiations between the P5+1 and Iran. We 
are approaching a deadline. And the implication of success, 
failure, or something in between will have profound impacts in 
the region. That, too, you have to assess.
    In Afghanistan, our military forces are focused on training 
Afghan Security Forces, conducting counterterrorism operations, 
and solidifying the hard-won gains. And we all had the 
privilege of listening to Afghanistan's President Ghani 
yesterday. I think there's a new hope and a new opportunity, 
and we have to move forward, understanding it's still a very 
fragile situation.
    General Rodriguez, you are increasingly facing challenges 
that were located in adjacent ORs--the rise of ISIL, Boko 
Haram, all of these things--jihad in Somalia. Their operations 
challenge you in attempting to build the capacity up of the 
Nations in that region and also to work with our European 
allies very effectively to present a united front against these 
terrorists. So, again, your efforts are critical. And also let 
me commend you and your forces for the resolve with respect to 
the ebola outbreak and what you were able to accomplish.
    Senator McCain has made this point very clear, very 
eloquently. Under sequestration, all of these efforts, both 
civilian, military, interagency, will be hammered if it is 
allowed to prevail. So, I hope you can provide assessment, not 
just in AFRICOM, but in CENTCOM and in SOCOM, of the effects of 
sequestration on your ability to operate.
    General Votel, as the Special Operations Forces, you are 
working across the globe. Your missions are critical. But, once 
again, I think it would help us if you could indicate where the 
effects of sequestration would actually undermine current and 
projected operations. Again, one of the points that you made is 
that you are sort of a global force, but you rely extensively 
on the base operations of the United States Army, United States 
Air Force, and every other service, and some civilian agencies. 
And that would be helpful to point out.
    Let me commend you and SOCOM for all of the operations 
you've undertaken in the last 13 years. There's no force that's 
more stressed, no group of individual men and women and their 
families who give so much and go so often to the battle. So, 
thank you, General, for your efforts. And please communicate 
that to the men and women you lead.
    Thank you very much.
    Chairman McCain. General Votel, can we begin with you?

STATEMENT OF GEN JOSEPH L. VOTEL, USA, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    General Votel. Good morning, Chairman McCain, Ranking 
Member Reed, and other distinguished members of the committee. 
Thank you for the opportunity to appear before you to discuss 
the current posture of U.S. Special Operations Command (SOCOM) 
as we refer to it. I'm especially pleased to be here with my 
two mission partners, Generals Lloyd Austin and Dave Rodriguez.
    SOCOM was created by Congress to ensure that we always had 
ready and capable SOF [Special Operation Forces] forces to meet 
the Nation's challenges. Our ability to address these 
challenges is due, in large part, to the strong support we get 
from Congress, and especially from this distinguished 
committee. Thank you very much.
    I'd like to start out by commenting on the amazing actions 
made daily by our Special Operations men and women: operators, 
acquirers, logisticians, analysts, and many others, Active and 
Reserve, military and civilian, the total SOF force. Alongside 
our conventional force partners, the 69,000 quiet professionals 
of SOCOM are committed to values-based excellence and service 
to our Nation. They relentlessly pursue mission success. And 
today, roughly 7500 of them are deployed to over 80 countries 
worldwide, supporting geographic combatant commander 
requirements and named operations.
    We are a force who has been heavily deployed over the last 
14 years, and our military members, civilians, and their 
families have paid a significant price, physically and 
emotionally, serving our country. We are very appreciative of 
the support we receive from Congress to address the visible and 
invisible challenges, and we never forget that, for SOCOM, 
people are our most important asset.
    SOCOM, in conjunction with its partners, supports the 
geographic combatant commanders and the missions they are 
assigned by the Secretary of Defense and the President. If they 
are successful, we are successful. If they fail, we fail.Today, 
the United States is faced with many challenges. The spread of 
technology and the diffusion of power are not only being used 
by responsible leaders to better societies, but, unfortunately, 
by wicked actors to orchestrate terror and violence regionally 
and globally. Nonstate actors like al-Qaeda and ISIL and other 
violent extremist organizations, menacing state actors like 
North Korea, destabilizing actors like Iran, and the growingly 
coercive actors like Russia, are just a few examples of the 
entities affecting the strategic environment in which SOF 
forces operate. We are equally affected by the growing use of 
cyber capabilities and social media, which make it easy for our 
adversaries to communicate, coordinate, execute, and inspire 
their actions.
    The fiscal environment is of concern, as well. While SOCOM 
has been well supported in recent years, I remain profoundly 
concerned by the impact of another round of sequestration, and 
not only how it impacts SOCOM, but, more importantly, how it 
will affect the four services upon whom we are absolutely 
dependent for mission support.
    To address the challenging security environment, SOF 
provides a portfolio of options for our national leaders and 
the geographic combatant commanders. Through small-footprint 
operations and by relying on a network of purposeful 
partnerships, SOF provides a comparative advantage through 
persistent engagement, partner enablement, network focus, and 
discreet rapid response to crisis situations. While we support 
military operations across the spectrum, SOF capabilities are 
uniquely suited to operate and succeed in the gray zone between 
normal international competition and open conflict. And it is 
in this area that we see our very best opportunities to help 
shape the future environment.
    To enable our efforts, I have established five priorities 
for the command:
    First, we must ensure SOF readiness by developing the right 
people, skills, and capabilities to meet current and future 
requirements. To this end, we want to ensure effectiveness, now 
and into the future, with the very best SOF operators and 
support personnel, enabled by the best technology and 
capabilities we can field. Along the way, we want to make the 
very best use of the unique MFP-11 funding authorities that 
Congress has granted us.
    Second, we must help the Nation win by addressing today's 
security challenges. We strive to provide coherent and well-
integrated SOF forces for the geographic combatant commanders, 
focused on optimizing our SOF activities. Nearly everywhere, 
you will find SOF forces working alongside, and often in 
support of, their conventional force partners to accomplish our 
security objectives.
    Third, we must build purposeful relationships to improve 
global understanding and awareness to create options for our 
leaders. We don't own the network, but we are an important part 
of it. And working with our partners will always produce the 
best options for our Nation.
    Fourth, we have to prepare for the future security 
environment to ensure that SOF is ready to win in an 
increasingly complex world. Ultimately, our goal is to match 
exquisite people with cutting-edge capability and the very best 
ideas and concepts to help our Nation succeed against the 
looming challenges we will face in the future.
    Finally, we must preserve our force and families to ensure 
their long-term well-being. It is in this area that we are 
specifically focused on a holistic approach to address the 
invisible challenges of stress and suicide that are affecting 
our servicemembers, civilians, and their family members.
    I remain honored and humbled by the opportunity to command 
the best Special Operations Forces in the world. I am 
incredibly proud of each and every one of our team members and 
their families.
    I look forward to your questions and our dialogue today.
    [The prepared statement of General Votel follows:]

           Prepared Statement by General Joseph L. Votel, USA
                            opening remarks
    Mr. Chairman and distinguished Members of the Committee, thank you 
for the opportunity to address you today, which is my first as the 10th 
Commander of United States Special Operations Command (USSOCOM). I am 
honored to be here to convey our appreciation for your indispensable 
support and to provide an update on our nation's special operations 
forces (SOF). During my remarks, I will describe USSOCOM's posture, 
purpose, and mission in the context of the emerging strategic 
environment. I will then share my priorities and concerns, and explain 
how we will accomplish our assigned missions and prepare for an 
uncertain future.
                         sof ethic and culture
    I would like to begin by commending the extraordinary efforts made 
by our special operations forces to keep our nation safe. USSOCOM's 
highly specialized military and civilian personnel, our ``quiet 
professionals,'' are asked to respond to our nation's most complex, 
demanding, and high-risk challenges. Building this skilled and 
specialized force is a demanding, time-intensive process. Every day, 
our forces put forth an extraordinary level of effort and personal 
sacrifice, while enduring grueling physical and mental demands to meet 
mission requirements. They deserve our admiration and gratitude, along 
with all of our Soldiers, Sailors, Airmen, and Marines. They are all 
part of a team doing essential work on behalf of our nation.
    The SOF commitment to excellence is imperative in accomplishing 
what our nation has asked of these dedicated men and women--I am proud 
to serve as their commander. USSOCOM is a values-based organization--
always mindful that our personal and professional conduct reflects not 
only on ourselves, but also on our nation. We will continue to earn the 
high level of trust that our leaders have placed in us by maintaining 
an open dialogue on the challenges we face, providing our best military 
advice, and remaining responsible stewards of U.S. tax dollars.
                           ussocom's mission
    As you know, Congress created USSOCOM in 1987 and gave it distinct 
Service-like responsibilities, which makes it unique among the nine 
Unified Combatant Commands. Under U.S. Code Title 10, Sections 164 and 
167, it is my responsibility, as the Commander of USSOCOM, to organize, 
train, and equip SOF for current and future challenges. Our mission is 
to synchronize the planning of special operations and provide SOF to 
support persistent, networked, and distributed Geographic Combatant 
Command (GCC) operations to protect and advance our nation's interests.
    As global security challenges become increasingly interconnected 
and interdependent, USSOCOM is investing in our own connections, 
deepening our relationships with the GCCs, our international partners, 
and with U.S. national security decision-makers at home. These 
relationships are helping us build common understandings of shared 
threats and facilitate cooperation.
    In short, USSOCOM sees its role as an indispensable supporting 
command to our GCCs, working seamlessly with interagency and 
international partners to provide capabilities critical to addressing 
emerging problems and securing our nation's interests. Ultimately, the 
best indicator of our success will be the success of the GCCs.
                  today's us special operations force
    Since assuming command in August 2014, I have had the opportunity 
to travel to every GCC to consult with the commanders and visit with 
our forward deployed special operations units. I would like to give you 
a snapshot of U.S. SOF and the range of missions they are executing, 
and describe their experience as part of today's military.
    Today, our United States Special Operations Forces are comprised of 
over 69,000 men and women serving as operators, enablers, and support 
personnel. The SOF community is made up of our nation's finest leaders 
and organizational teams. Within the force of ``quiet professionals'' 
are Army Special Forces, SEALs (Sea, Air, Land Teams), Air Commandos, 
Rangers, Night Stalker helicopter crews, Marine Raiders, civil affairs 
personnel, psychological operations personnel, acquisition experts, 
logisticians, administrators, analysts, planners, communicators, and 
other specialists who are instrumental in fulfilling our mission. We 
also rely heavily upon our Guard and Reserve units, as well as 
government civilians and contractors.
    Our SOF are deployed to more than 80 countries worldwide, filling 
GCC requirements and supporting 10 named operations. In addition to the 
nearly 3,500 personnel we have stationed forward, we also have over 
7,000 service members deployed in support of a variety of GCC 
requirements on any given day. These requirements span the range of our 
core activities as directed by the Secretary of Defense. From working 
with indigenous forces and local governments to improve local security, 
to high-risk counterterrorism operations--SOF are in vital roles 
performing essential tasks. They provide critical linkages to our 
security partners and must be prepared to handle a wide range of 
contingencies, despite a small footprint in their areas of 
responsibility. These missions are often complicated, demanding, and 
high-risk.
    Because of the unique skill set SOF possess, we are seeing 
increasing demand for these units across the GCCs. The typical operator 
is older than counterparts in the conventional forces, has attended 
multiple advanced tactical schools, and has received specialized 
cultural and language training. This depth of experience and range of 
expertise has been in high demand since 9/11. Over the last 14 years, 
the average service member in SOF has deployed between 4 to 10 times--
with most toward the higher end of that range--and has frequently had 
less than 12 months at home between deployments. About 50 percent of 
our force is married with children and have sacrificed a great deal of 
time with their families. High operational tempo has put a strain on 
both our operators and their families, and most, if not all, of our SOF 
operators have lost friends both overseas and at home. Our SOF warriors 
have performed their duties superbly, but not without stress or loss; 
we have sustained over 2,500 wounded and killed in action. We now have 
approximately 7,500 members in our SOF Wounded Warrior program, many of 
them due to the ``invisible wounds'' of traumatic stress. We have a 
great deal of work to do to ensure these men and women receive proper 
care.
    On the positive side, the pressure exerted over this time has 
created a self-confident, mature, knowledgeable, and agile force that 
has a greater awareness of what is important to our nation. The range 
of experience and expertise in special operations forces make them 
uniquely suited to deal with many of the complex challenges we see 
emerging in the security environment.
                       the strategic environment
    We are living in a hyper-connected world; the spread of technology 
into an increasing number of cultures and societies is driving change 
in the strategic environment. The Cold War suppressed political 
mobilization in a variety of ways. The removal of those constraints, 
coupled with technology, is creating both challenges and opportunities. 
Adversaries can now easily access tools that range from advanced 
weapons systems and cyber capabilities to improvised explosive devices 
(IEDs), which are providing an expanding variety of coercive options. 
Yet we also see opportunities emerging as networked populations are 
seeking improvements in governance, security, and economic opportunity. 
Power and influence are now diffusing to a range of actors, both state 
and non-state, who have not traditionally wielded it. Many governments 
are struggling to adjust to the new realities. For the foreseeable 
future, instability will be driven by conflicts within and across state 
boundaries as much as it will be driven by conflicts between states 
themselves.
    Within states, it is becoming much easier for aggrieved populations 
to network, organize, and demand change to the status quo; we have seen 
this in a number of locations across the world. Populations are 
increasingly challenging the legitimacy of their governments and 
demanding change on a range of issues. Governments unwilling or unable 
to accommodate change will face increasing pressure from dissatisfied 
segments of their populations. Traditional responses to control these 
situations may provide temporary respite, but too often fail to address 
the underlying grievances, which can lead to further instability.
    Across state boundaries, violent non-state actors such as ISIL are 
exploiting local grievances among populations to advance their own 
horrific ends. Their methods routinely violate international norms and 
challenge regional governments' capabilities to respond. These groups 
rely upon their ability to build common identities with sub-sets of 
disaffected populations and magnify the potential for violence. Other 
non-state actors have more criminal inclinations and avoid law 
enforcement while building their power and influence.
    Between states, technological advancement is providing rising 
powers more options to pursue their interests. In some cases, countries 
are seeking to expand their claims of sovereignty outside of recognized 
borders. In other cases, they are sponsoring and relying upon non-state 
actors to act on their behalf abroad. Traditional approaches to 
deterrence are increasingly inadequate--particularly as some states are 
becoming adept at avoiding conventional military responses while 
advancing their interests through a combination of coercion, targeted 
violence, and exploitation of local issues. Russia is taking this 
approach and is systematically undermining neighboring governments and 
complicating international responses to its aggressive actions.
    There are two clear implications of these environmental conditions. 
First, the diffusion of power is decreasing the ability of any state, 
acting alone, to control outcomes unilaterally. Globalization has 
created networked challenges on a massive scale. Only by working with a 
variety of security partners can we begin to address these issues.
    Second, our success in this environment will be determined by our 
ability to adequately navigate conflicts that fall outside of the 
traditional peace-or-war construct. Actors taking a ``gray zone'' 
approach seek to secure their objectives while minimizing the scope and 
scale of actual fighting. In this ``gray zone,'' we are confronted with 
ambiguity on the nature of the conflict, the parties involved, and the 
validity of the legal and political claims at stake. These conflicts 
defy our traditional views of war and require us to invest time and 
effort in ensuring we prepare ourselves with the proper capabilities, 
capacities, and authorities to safeguard U.S. interests.
                     sof's role in this environment
    If the environment is populated with potential adversaries who are 
adept at avoiding our conventional advantages, then we must be prepared 
to respond with appropriate tools. The traditional rules of conflict 
are changing--our ability to influence outcomes is not solely based on 
our aggregate military capability. Our success will increasingly be 
determined by our ability to respond with a range of capabilities while 
becoming more attuned to the intricacies involved in an evolving 
landscape of relationships.
    U.S. Special Operations Forces provide a portfolio of options to 
deal with complex security challenges. We are uniquely able to operate 
in a variety of environments to support strategic progress in achieving 
national security objectives. Our comparative advantage in this 
environment is built upon three pillars: 1) persistent engagement, 2) 
enabling partners, and 3) discreet action.
    First, we conduct persistent engagement in a variety of 
strategically important locations with a small-footprint approach that 
integrates a network of partners. This engagement allows us to nurture 
relationships prior to conflict. Our language and cultural expertise in 
these regions help us facilitate stability and counter malign influence 
with and through local security forces. Although SOF excel at short-
notice missions under politically-sensitive conditions, we are most 
effective when we deliberately build inroads over time with partners 
who share our interests. This engagement allows SOF to buy time to 
prevent conflict in the first place.
    Second, we integrate and enable both conventional forces and 
interagency capabilities. On a daily basis, SOF are assisting the GCCs 
across and between their areas of responsibility to address issues that 
are not constrained by borders. When crises escalate, SOF develop 
critical understanding, influence and relationships that aid 
conventional force entry into theater. The close working relationships 
we have built with GCCs are essential in ensuring we are able to 
properly support and augment their operations. Today's crises will not 
be resolved by a military-only approach; instead, the nature of these 
challenges demands a whole-of-government response. SOF play an 
important supporting, but not decisive, role. We continue to explore 
how we can better augment the capabilities of the interagency to 
support the National Security Strategy.
    Third, USSOCOM provides the ability to conduct discreet action 
against our most immediate threats. Regardless of our efforts to build 
stability and favorably shape outcomes, the need remains for an 
effective crisis response and a robust, proactive counterterrorism 
program. For these cases, we must maintain the ability to conduct 
operations under politically-sensitive conditions. This capability 
provides a tailored military response that reduces the associated 
strategic risks and the likelihood of conflict escalation. We are 
continuing to disrupt the violent actions of extremist organizations in 
conjunction with conventional forces, the interagency, and our 
international SOF partners. These three pillars help us provide lower-
risk, timely, and tailored options to deal with the growing variety of 
security problems in today's world.
                        ussocom and its partners
    As an organization that deals with crises that occur in the ``gray 
zone,'' I believe USSOCOM has an important role to play in facilitating 
interagency discussion. For example, we hosted senior policymakers last 
year from across the interagency to discuss options to address 
transnational organized criminal networks. Just this past February, we 
hosted a similar event in Tampa on behalf of the National 
Counterterrorism Center to discuss the strategy to counter ISIL. 
Challenges such as these will continue to evolve--and so must our 
approach to dealing with them.
    Unconventional strategies are increasingly becoming a feature of 
the security environment. I believe it is time for us to have an in-
depth discussion on how we can best support our national interests in 
these situations. Adversaries employing these strategies attempt to 
maximize their coercive influence while limiting their risk of serious 
retribution. They are becoming adept at avoiding crossing thresholds 
that would clearly justify the use of conventional military force. 
Destabilizing a government is becoming easier through non-attributable 
methods that are relatively cheap and easy to employ. Our success will 
therefore depend upon our ability to act with and through regional 
partners, leveraging all instruments of national power, to counter 
destabilizing influences.
    Cyber threats are an increasingly common component of 
unconventional strategies for which we must develop a more 
comprehensive approach. Our ever-growing reliance on information 
infrastructure makes us vulnerable to attacks; the same is true for 
many governments around the world, to include our potential 
adversaries. Simultaneously, there are a variety of areas in which we 
must become more proficient to fully realize the potential of cyber 
capabilities. I believe the interagency needs to maintain a continuing 
focus on this area.
    Social media is another component of unconventional strategies, and 
the security environment in general, that is playing a central role in 
recruiting individuals to causes. We must therefore develop our ability 
to interact with key influencers through this medium, or else risk 
blinding ourselves to this important conduit of information and 
influence in unfolding crises. We all must view this space as a routine 
operational area; it is redefining how humans interact. Our success in 
leveraging these tools will be determined by how well we cultivate the 
networks in which we participate; it is important to note that these 
are not ``our'' networks--the very nature of these relationship tools 
is decentralized and participatory, rather than centrally controlled. 
We require new thinking on this subject.
    We stand ready to support interagency efforts to work through these 
challenges. Though there are military components to countering and 
deterring unconventional challenges, whole-of-government strategies are 
essential for building lasting stability and safeguarding U.S. 
interests.
              developing sof for the security environment
    Through close collaboration with Congress, I hope to optimize the 
allocation of our resources to develop the capabilities, capacities, 
and authorities required by the GCCs. While this emerging security 
environment will increase the demand for SOF, we are most effective 
when we integrate our efforts with the GCCs, Services, and the 
interagency. In order to strengthen SOF posture and capabilities, I 
have established five priorities for USSOCOM. Focusing on these 
priorities will enhance our ability to address the range of 
conventional and unconventional challenges that are increasingly 
characterizing the security environment.
    First, we must ensure SOF readiness by developing the right people, 
skills, and capabilities to meet current requirements as well as those 
that will emerge in the future. As we face both fiscal and security 
challenges, we must balance the readiness of the current force with 
investment in future capabilities. Critical to this balance is ensuring 
that we maintain superior selection, training, education, and talent 
management for our people. In turn, our people must be supported by 
timely development, acquisition, and sustainment of both Service-
provided and special operations-peculiar equipment.
    Recognizing that humans are more important than hardware--our first 
SOF Truth--we must invest wisely in our people to develop the right 
talents our force requires. Over the past 14 years we have evolved our 
approach to consistently produce operators who possess the attributes 
and competencies we require. Developing language and cultural expertise 
is essential to our ability to operate in complex situations to promote 
the security of the U.S. and its allies. Operational success for SOF 
often depends on being able to establish relationships with key 
partners. The strength of these relationships is founded on culturally 
attuned, regionally trained operators interacting directly with foreign 
officials and security forces in their language. USSOCOM and its 
Components continue to strengthen and rebalance regional capabilities 
to provide appropriate expertise.
    We have a shared responsibility with the Services for developing 
our special operations forces and we are partnering with them on ways 
we can better assess and manage talent. USSOCOM has the responsibility 
for ensuring the combat readiness of its forces while the Services have 
broad authority for career development, so we are working on improving 
how we collaboratively prepare SOF for the challenges they face. Yet 
reliance on the Services is not limited to recruitment and development 
of our operators. The readiness of USSOCOM, the Services, and 
Functional Combatant Commands are inextricably linked as SOF relies 
heavily on Service training, logistics, facilities, and operational 
enablers such as cyber networks, global distribution, and global 
patient movement. Service and Functional Combatant Commanders' support 
will remain a critical requirement as USSOCOM continues to deploy SOF 
to meet increasing GCC demand.
    In terms of funding, our readiness has remained relatively stable 
over the past four years through a combination of consistent base and 
Overseas Contingency Operations (OCO) funding, which has allowed 
USSOCOM to fulfill the most critical GCC demands. Although the majority 
of our efforts have focused on the CENTCOM AOR, our current budget 
shifts efforts to improve support to all GCCs in accordance with 
strategic guidance. As we begin to focus more heavily on emerging 
networked threats around the world, we are aligning resources to 
maintain current readiness through joint training and exercises, 
operational unit readiness and training activities, and flying hours. 
Our training exercises include a strong focus on building Service, 
interagency, and international interoperability. We remain heavily 
reliant upon OCO funding, which has been essential for responding to 
today's threats, and appreciate the continued support of Congress in 
this matter.
    Second, we must help our nation win in today's challenges and 
contribute to keeping the nation safe. The challenges faced by the 
United States and our allies require unprecedented agility and 
understanding. We must prioritize and synchronize SOF activities to 
protect our nation's interests as the challenges grow more numerous and 
complex. To accomplish this, we must continue to invest in a diverse 
portfolio of SOF capabilities that meet both the immediate and long-
term needs of the GCCs and complements the capabilities of the 
Services, the interagency, and our international partners.
    DOD guidance identifies USSOCOM as the synchronizer for the 
planning and provision of special operations capabilities in support of 
the GCC. To meet this guidance, we are in the process of coordinating 
with the Services, the Department, and the GCCs to collaboratively 
develop a campaign plan for global special operations. The plan is 
intended to help optimize and prioritize our support globally, promote 
ongoing efforts to strengthen international partnerships and will 
ultimately improve our ability to support the GCCs by providing 
coherent options and recommendations for SOF employment.
    Authorities such as Section 1208 play a critical role in ensuring 
we can provide a more comprehensive set of options for security 
challenges by leveraging the capabilities of local security partners. 
They also help ensure we retain access and influence in regions where 
we do not maintain a large military presence. We appreciate your 
continued support for this authority. Going forward, we will work with 
Congress to ensure we have the right authorities and programs in place 
to properly support the GCCs.
    Third, we are continuing to build relationships with international 
and domestic partners through sustained security cooperation, expanded 
communication architectures, and liaison activities. These partnerships 
allow us to share the burden of managing conflicts and enhance regional 
capabilities that can respond to threats at their origin. Over the past 
few years, USSOCOM has prioritized strengthening the network of 
military, interagency, and international partners across the globe, 
through liaison exchange, and a multinational communications 
infrastructure. These relationships build common understandings of 
shared threats and facilitate cooperation.
    Efforts such as our Special Operations Liaison Officers, or SOLOs, 
are helping us build this network of international partners. Now 
present in embassies in 15 nations and operating in every geographic 
combatant command area of responsibility, SOLOs help us facilitate 
coordination across GCC boundaries to address challenges that span the 
globe. We also have liaison officers from 13 partner nations that work 
with us at our Headquarters in Tampa. Similarly, our Special Operations 
Support Teams (SOSTs) help us interface more effectively with the 
interagency. By increasing transparency, communication, and 
collaboration with our partners, we maximize the effectiveness of our 
collective action against shared problem sets. USSOCOM will continue to 
invest in these relationships so that our network development outpaces 
that of threat networks.
    The relationships USSOCOM has strengthened and the communications 
architecture we have put in place allow us to coordinate with coalition 
partners on matters such as hostage rescue, the movement of foreign 
fighters, international training, and developing the capabilities for 
responding to shared threats. In January of this year, USSOCOM 
organized a dialogue that brought together senior military 
representatives from 20 nations, as well as the Commanders of U.S. 
Central Command, U.S. European Command, and NATO Special Operations 
Headquarters, to discuss common security challenges and opportunities 
for collective action.
    Our expanded support to the Theater Special Operations Commands 
(TSOCs) is another key effort that is helping us further develop our 
regional capabilities and expertise. This support includes extending 
the necessary communications infrastructure and providing key 
operations support capabilities such as Civil-Military Engagement, and 
ISR processing, exploitation, and dissemination. We are working closely 
with the GCCs to determine how we can best support their operational 
needs. We have realigned approximately 800 USSOCOM billets to push more 
capability forward to the TSOCs in areas such as planning, 
intelligence, analysis, and communications. We will continue to make 
the necessary investments to ensure that we maintain regional access 
and the ability to operate freely with our network of allies and 
partners, and to encourage constructive defense cooperation.
    As we operate with and through a growing network of global 
partners, we will continually reassess relationships based on mission 
prioritization and ensure we maintain the proper security protocols. As 
an enterprise, USSOCOM understands the reality that what happens in 
Latin America affects Africa, which affects Europe, and so on. With a 
global approach--working with international partners to coordinate 
activities and share critical information--we can more effectively deal 
with global challenges. In my opinion, this network is an essential 
capability in adapting to the emerging challenges to our interests.
    Fourth, we must prepare for the future by investing in SOF that are 
able to win in an increasingly complex world. To do so, we must be 
innovators of strategic options. We will focus on developing the total 
Special Operations Force through concepts, training, doctrine, 
education, and research that are future-oriented and challenge our 
current operational constructs. These concepts, in concert with robust 
experimentation and a rigorous capability analysis and development 
process, will ensure we are prepared for an uncertain and dynamic 
future. Ultimately, preparing for the future is about ensuring that we 
match the right people and capabilities with the very best ideas to 
address our most pressing problems.
    In today's environment, our effectiveness is directly tied to our 
ability to operate with domestic and international partners. We, as a 
joint force, must continue to institutionalize interoperability, 
integration, and interdependence between conventional forces and 
special operations forces through doctrine, training, and operational 
deployments. A key aspect of building interoperability is through 
USSOCOM's participation in Service Title 10 and Chairman of the Joint 
Staff sponsored war games and experiments. These events provide a 
critical venue for building partnerships with Service, interagency, and 
international partners to address some of the most pressing challenges 
facing our nation as we look to the future. We will also continue to 
use USSOCOM events to advance our efforts to institutionalize whole-of-
government approaches.
    Programmatic keys to preparing SOF for the future are a continued 
emphasis on enhancing the overall capabilities of the SOF operator; 
fielding new and recapitalized air, ground, and maritime platforms; 
enhancing our SOF-specific ISR capabilities; and continuing to invest 
in new communications infrastructure and equipment technology that 
allow us to share information more effectively and integrate our 
activities. We will work to ensure we are developing the right 
technologies, equipment, and capabilities required for the future SOF 
operator.
    USSOCOM's tailored and streamlined rapid acquisition processes, 
supported by Congress and enabled through the oversight of ASD(SO/LIC) 
and USD(AT&L), have delivered critical capabilities to the battlefield, 
in weeks and months, instead of years. For example, in 2014, conducting 
combat evaluations allowed us to develop and deliver advanced weapons 
and cutting-edge Intelligence, Surveillance, and Reconnaissance (ISR) 
sensors for our SOF MQ-9 unmanned aircraft that had immediate impact on 
the battlefield. USSOCOM also successfully responded to an urgent 
operational requirement to increase ballistic protection on its fleet 
of CV-22 Osprey tilt-rotor aircraft. In less than six months, USSOCOM, 
working alongside the Army and Navy, acquired lightweight armored 
panels and modified its fleet of Ospreys.
    USSOCOM is also focusing on improving acquisition processes to 
support an adaptable strategy by leveraging its network of partnerships 
with Services, the interagency, industry, academia, and international 
partners. The Tactical Assault Light Operator Suit (TALOS) is an 
example of our emphasis on acquisition process innovation. The effort 
is designed to deliver a test-ready combat suit prototype that protects 
our operators at their most vulnerable point. Through the use of a 
small joint acquisition task force and rapid prototyping events, TALOS 
is leveraging close relationships between operators, acquirers, and 
technologists to achieve greater results than could be accomplished 
through traditional acquisition processes. This approach is also 
helping us ``spin off'' technologies from the larger TALOS effort that 
are improving our capabilities at an accelerated rate. Continued 
Congressional support of USSOCOM's acquisition of SOF-peculiar 
capability and our commitment to innovative process improvement is 
imperative to our continued ability to meet the needs of the 
warfighter.
    As we prepare for the future, we remain very concerned about the 
detrimental effects of sequestration; drastic cuts to the Services will 
have severe impacts on our own ability to support the GCCs. A great 
deal of USSOCOM's procurement is focused on SOF-specific enhancements 
to Service-managed programs. Therefore, SOF buying power is directly 
connected to Service investments. Even with a steady base budget for 
USSOCOM, our capabilities can still be reduced through cuts to programs 
that we depend upon. A major reprioritization of these programs will 
require us to reassess our own investments. Increased demand for SOF 
across the GCCs combined with increased pressure on Service budgets may 
compromise our capabilities. Internally, we are working hard to refine 
our programmatic decisions to build our buying power and prepare for 
the future.
    Another important area of future development for SOF is emerging 
from the Women in Service Review. Women have served in SOF for years in 
Intelligence, Military Information Support and Civil Affairs units, 
female engagement teams, cultural support teams, and Air Force Special 
Operations aviation roles. Approximately two-thirds of our positions 
are currently integrated. USSOCOM is sponsoring several research 
efforts to assess possible impacts on unit performance to facilitate 
further successful integrations. We are also working in close 
coordination with the Services to develop recommendations for further 
integration.
    Fifth, we must preserve our force and families, providing for their 
short- and long-term well-being. People--military, civilian, and 
families--are our most important asset. We always take care of our 
people, but after 13 years of war, their resiliency and readiness is a 
primary concern. We must leverage every resource available--SOF, 
Service, and community resources--to ensure our people are prepared for 
the demanding tasks we ask them to execute. At the same time, we must 
pay particular attention to the often invisible challenges that our 
people and their families face, and ensure that the SOF culture is one 
that fosters understanding and support.
    In order to preserve our special operations force and families, we 
are focusing on four areas: human, psychological, spiritual, and 
family/social performance. In each area, we are taking steps to improve 
the long-term health of our force. These initiatives are not intended 
to supplant the Services' efforts in providing for the welfare of 
military members and their families; but rather to provide SOF and 
their families with access to services that meet their unique needs and 
complement Service-provided programs. Given the high frequency of 
combat deployments, high-stake missions, and extraordinarily demanding 
environments in which the force operates, SOF and their families have 
been under unprecedented levels of stress; it is imperative to address 
the effects of more than 13 years of combat operations.
    There are two specific areas that fall under preserving our force 
and families that I would like to discuss in more detail: suicides and 
personnel tempo, or PERSTEMPO. On the first subject, our goal is to do 
everything possible to eliminate the incidence of suicide in the forces 
and in our families. We have indications that our efforts in the four 
areas I mentioned are making a difference by alleviating conditions 
that contribute to suicide. There are now higher self-referral rates 
and our leadership is improving its ability to recognize important 
warning signs and provide tools to intervene more effectively. We are 
moving in the right direction in changing our culture when it comes to 
seeking psychological help, but still have work to do. This effort will 
continue until seeking help is considered normal and expected by 
everyone. We are grateful for the support Congress has provided to 
address this challenge.
    The second area I would like to mention is PERSTEMPO, which is the 
rate at which we deploy our forces. Our policy is aimed at ensuring the 
physical, mental and operational readiness and resiliency of assigned 
forces. In 2010 a study was commissioned to examine the effects of a 
decade of continuous combat operations on the SOF community. The study 
identified one primary source of ongoing stress: the lack of 
predictability resulting from a demanding operational tempo exacerbated 
by significant time spent away from home for training. Predictability 
is a key component of building resilience. USSOCOM's PERSTEMPO policy 
is designed to improve operational readiness and retention by allowing 
commanders to evaluate and balance mission requirements with the needs 
of our service members. The intent is to enable the Commanders at the 
lowest level to better monitor the use of assigned forces and make 
informed risk decisions that help protect them from overuse, which will 
also improve mission success. Ultimately, managing PERSTEMPO is about 
ensuring the long-term health of the force and mission readiness while 
continuing to meet our global mission requirements.
    The preservation of our force and families is vitally important in 
the preservation of capabilities that the nation depends upon to 
respond to crises in an unpredictable environment. Ensuring we properly 
care for those from whom we expect so much will allow us to meet 
important requirements from the GCCs. As our people keep faith with our 
nation, we will keep faith with them, now and in the future.
                         working with congress
    I look forward to working with Congress to explore how we can best 
enable our SOF operators to prepare for the complex situations we ask 
them to deal with on a daily basis. Your oversight, support, and 
partnership will ultimately help us provide better service to our 
nation.
    The fiscal situation requires the Department to make hard choices 
about the allocation of our resources. It is imperative that this 
process occurs with a clear understanding of impacts. We depend upon 
the Services and Functional Combatant Commands to provide us with key 
capabilities; most SOF operations require non-SOF support. As we adjust 
to the changing demands in the operating environment, we must work to 
ensure we are building the broadest possible portfolio of options for 
our national security decision-makers through the innovation of low-
cost, small-footprint, and highly flexible SOF capabilities.
                                closing
    In closing, I thank you for providing me with this opportunity to 
discuss these issues that are critical to the health of our Special 
Operations Forces and our ability to support the National Security 
Strategy. I also thank you for your continued support of our SOF 
personnel and their families; the tremendous demands we have placed 
upon them requires a continued commitment to provide for their well-
being and support their mission success.

    ChairmanMcCain. Thank you.
    General Rodriguez.

  STATEMENT OF GEN. DAVID M. RODRIGUEZ, USA, COMMANDER, U.S. 
                         AFRICA COMMAND

    General Rodriguez. Chairman McCain, Ranking Member Reed, 
and distinguished members of the committee, thank you for the 
opportunity to update you on the efforts of U.S. Africa 
Command. And I'm glad to be between Joe and Lloyd today.
    Let me express my gratitude for your support to our 
servicemembers and their families who underwrite our Nation's 
security in an increasingly complex world of accelerating 
change.
    Today, our Nation faces heightened strategic uncertainty; 
risks to our National interests are significant, and growing. 
Part of our strategic uncertainty is our fiscal uncertainty. If 
sequestration returns in 2016, I'm concerned about our ability 
to execute the current strategy at a manageable level of risk.
    Threats and opportunities to advance national interests are 
growing in Africa. In the past year, we achieved progress in 
several areas through close cooperation with our allies and 
partners. We have built significant partner capacity over the 
years. This capacity has played a major role in regional 
efforts to contain violent extremism, including al-Shabaab, 
other al-Qaeda affiliates, and now the Islamic State of Iraq in 
the Levant, as well as Boko Haram. With our support, French and 
regional partners have disrupted violent extremist networks, 
and a small number of our unilateral operations have applied 
additional pressure.
    We also achieved success with other partners against other 
challenges. As an example, in Liberia, we supported USAID and 
the Liberian nation in responding to the largest ebola epidemic 
in history.
    Another illustrative example is our support to 
strengthening the capacity and coordination of regional 
partners in the Gulf of Guinea.
    Furthermore, in Central Africa, combined military and 
civilian efforts significantly reduced the Lord's Resistance 
Army's ability to threaten civilian populations.
    Working closely with the State Department and our regional 
partners has allowed us to improve our posture and capability 
to protect U.S. personnel and facilities. When security in 
Libya deteriorated, we assisted in the safe departure of United 
States and allied personnel. Conversely, in the Central African 
Republic, we provided security that enabled the resumption of 
embassy operations.
    We've had a lot of successes, but many challenges remain, 
and there is much work to be done. Transregional terrorists and 
criminal networks continue to adapt and expand aggressively. 
While al-Shabaab is weakened in Somalia, it remains a 
persistent threat to United States and regional interests. Al-
Shabaab has broadened its operations to conduct, or attempt to 
conduct, asymmetric attacks against Uganda, Ethiopia, Djibouti, 
and especially Kenya.
    Libya-based threats are growing rapidly, including an 
expanding ISIL presence. If left unchecked, they have the 
highest potential among security challenges in Africa to 
increase risk to United States strategic interests in the near 
future.
    Boko Haram threatens the ability of the Nigerian government 
to provide security and basic services in large portions of the 
northeast. Boko Haram has extended its reach beyond Nigeria's 
borders to Cameroon, Niger, and Chad.
    In Somalia, Libya, and Nigeria, the international community 
is challenged to implement the comprehensive approaches 
necessary to advance governance, security, and development. 
Declining resources will make this more difficult.
    To mitigate increasing risk, Africa Command is sharpening 
our priorities and improving the alignment of resources to 
strategy. We are coordinating with international and 
interagency partners to harmonize our efforts across the 
continent. And we are seeking to increase operational and 
programmatic flexibility.
    We continue to provide our best military advice to 
policymakers to inform decisions about managing risk.
    Thanks for your continued support to our mission and the 
dedicated people advancing our Nation's defense interests in 
Africa.
    Thank you.
    [The prepared statement of General Rodriguez follows:]

         Prepared Statement by General David M. Rodriguez, USA
          united states africa command 2015 posture statement
                              introduction
    Chairman, Ranking Member, distinguished members of the Committee, 
thank you for this opportunity to update you on the efforts of United 
States Africa Command. Africa continues to present a broad spectrum of 
opportunities and challenges to the United States and our allies and 
partners. U.S. Africa Command is working closely with allies and 
partners to build relationships and capacity vital to advancing our 
national interests of security, prosperity, international order, and 
the promotion of universal values. American interests in Africa 
Command's 53-country area of responsibility include the prevention of 
terrorist attacks against U.S. interests, security of the global 
economic system, and protection of our citizens abroad. In addition, 
Africa's growing importance to allies and emerging powers presents 
opportunities to reinforce United States global security objectives 
through our engagement on the continent.
    African states and regional organizations are important partners in 
addressing security challenges, including terrorist and criminal 
networks that link Africa with Europe, the Middle East, Southeast Asia, 
and North and South America. Africa's role in the global economic 
system is expanding: the continent is surrounded by international 
shipping lanes and holds eight of the world's 15 fastest growing 
economies. Africa is rich in natural resources and the human capital 
represented by a large youth population. Forty-one percent of Africans 
are under the age of 15, and by 2050, roughly one in four people on the 
planet will live in Africa. The capacity of African partners to 
contribute to multinational efforts, including those aimed at 
preventing, mitigating, and resolving armed conflict, is increasing. 
Many countries have made progress in developing institutions that 
uphold the rule of law, as reflected by adherence to the law of war and 
respect for human rights. However, in many countries, weak leadership 
and corruption continue to constrain progress in governance, security, 
and development.
    The past year was a dynamic time for Africa Command and our 
partners. Together, we made progress in several areas. In East Africa, 
our regional partners continued to lead security efforts in Somalia and 
demonstrated greater effectiveness and coordination in operations 
against al-Qaeda affiliate al-Shabaab. By supporting the continued 
development of partner capacities, and through enabling assistance and 
selective unilateral operations, we enhanced the collective gains our 
partners made against al-Shabaab. As a result of improved security, the 
Somali people and government have greater opportunities to make 
progress in the development of governance and economic institutions.
    In North and West Africa, we expanded our collaboration with allies 
and partners to address growing threats in Libya, Mali, and Nigeria, 
including an increasingly cohesive network of al-Qaeda affiliates and 
adherents, a growing Islamic State of Iraq and the Levant presence, and 
Boko Haram. We built capacity and enabled our allies and partners to 
disrupt transnational terrorist and criminal networks, strengthen 
border security, and contribute to multinational peacekeeping 
operations. We also ensured that cooperative security locations on the 
continent are able to support the temporary staging of crisis response 
forces to protect United States personnel and facilities. When 
deteriorating security conditions in Libya led several countries to 
suspend embassy operations, we supported the U.S. State Department in 
ensuring the safe departure of American and allied personnel. We 
captured suspected terrorists in support of efforts to bring justice to 
the perpetrators of violence against American citizens and interests. 
Although security declines in Libya have limited bilateral military 
activities, we have improved our coordination with regional and 
international partners and are prepared to expand our bilateral 
engagement when conditions are more conducive to building the 
capacities of defense institutions and forces. In Nigeria, we are 
conducting a range of bilateral efforts and preparing to expand our 
engagement as security and partner capacity allow. Simultaneously, we 
are working with Nigeria, neighboring countries, and our international 
partners to improve the planning and coordination of efforts to counter 
Boko Haram.
    In Liberia, we supported the Liberian government and United States 
Agency for International Development (USAID) in addressing the complex 
humanitarian emergency associated with the largest Ebola epidemic in 
history. Our combined efforts with Liberian partners helped to save 
lives and potentially avert a global health crisis. Nearly 3,000 
Department of Defense personnel, including civilians and contractors, 
deployed to Operation UNITED ASSISTANCE last fall. Under the superb 
leadership of Major General Williams and U.S. Army Africa, followed by 
Major General Volesky and the 101st Airborne (Air Assault), Joint Force 
Command--United Assistance provided unique capabilities in coordination 
and communication, logistics, engineering, and health worker training. 
The speed and flexibility of the U.S. military response was enhanced by 
U.S. Transportation Command's flexible joint expeditionary capabilities 
in planning, communications, public affairs, and port opening, and the 
presence of U.S. European Command and Africa Command forces forward-
positioned in Europe. The U.S. military demonstrated flexibility and 
capability to assist when others could not, and ensured critical 
initial gaps were filled while civilian partners ramped up their 
capabilities. The deployment of U.S. forces helped boost the confidence 
and courage of others to join the effort, and served as a catalyst for 
the robust international response required to turn the tide of the 
epidemic. Joint Force Command--United Assistance transitioned military 
tasks to civilian partners as they attained sufficient capacity. We are 
tailoring remaining Joint Force Command capabilities and Africa Command 
security cooperation efforts to build additional capacity and ensure 
our regional partners are prepared to respond to potential future 
outbreaks.
    Africa Command's operational requirements to support efforts in 
East, North, and West Africa and the protection of United States 
personnel and facilities across the continent increased in the past 
year. In Fiscal Year 2014, we conducted 68 operations, 11 major joint 
exercises, and 595 security cooperation activities. In comparison, we 
conducted 55 operations, 10 major joint exercises, and 481 security 
cooperation activities in Fiscal Year 2013. With our requirements 
expanding faster than resources are increasing, we are utilizing 
innovative and creative ways to mitigate capability gaps, including 
sharing forces with other Combatant Commands and leveraging the 
capabilities of multinational and interagency partners.
                           mission statement
    U.S. Africa Command, with national and international partners, 
disrupts transnational threats, protects U.S. personnel and facilities, 
prevents and mitigates conflict, and builds defense capabilities in 
order to promote regional stability and prosperity.
                             current trends
    Africa's security environment remains dynamic and uncertain. Africa 
is rising and so are the expectations of Africans. While greater 
popular demands can accelerate needed political and economic reforms, 
they can also be destabilizing, particularly in fragile states. Across 
much of the continent, crime and corruption impede the development of 
democratic institutions, reduce security and stability, and constrain 
economic development. A number of autocratic regimes are failing to 
meet the growing expectations of their people. Corrupt leadership, 
persistent economic inequalities, swelling youth populations, expanding 
urbanization, and ready access to technology can fuel popular 
discontent and violent civil unrest. When populations cannot rely on 
the ballot box for accountable governance, they are more likely to 
resort to violence. Where governance is weak and steeped in corruption, 
the government and security forces can be as feared and distrusted by 
the population as criminal and terrorist organizations.
    Corruption is a universal challenge that encourages the complicity 
of public servants in criminal and terrorist activities and destroys 
public trust in decision-making systems. To help our African partners 
address corruption, we must carefully tailor the conditions for 
military assistance. Where corruption permeates military institutions, 
its consequences can be deadly. When resources are diverted from 
military pay and sustainment, forces are less capable and more 
vulnerable on the battlefield. They are less effective at protecting 
civilians and may resort to predatory behavior. Corruption is corrosive 
to the foundation of trust and mutual responsibility on which enduring 
partnerships must be built.
    Terrorist, insurgent, and criminal groups exploit corruption, 
regional instability, and popular grievances to mobilize people and 
resources, expand their networks, and establish safe havens. The nexus 
between crime and terror is growing on the continent as terrorists and 
criminals increasingly utilize the same illicit pathways to move 
people, money, weapons, and other resources. The network of al-Qaeda 
and its affiliates and adherents continues to exploit Africa's under-
governed regions and porous borders to train and conduct attacks. The 
Islamic State of Iraq and the Levant is expanding its presence in North 
Africa. Terrorists with allegiances to multiple groups are expanding 
their collaboration in recruitment, financing, training, and 
operations, both within Africa and transregionally. Violent extremist 
organizations are utilizing increasingly sophisticated improvised 
explosive devices, and casualties from these weapons in Africa 
increased by approximately 40 percent in 2014. These groups have also 
successfully adapted to the internet and social media, and leverage 
these tools to generate funds, recruit followers, and spread their 
ideology to the United States and around the world.
    In East Africa, al-Shabaab remains the primary security threat to 
U.S. interests, despite progress by regional partners in liberating 
parts of southern and central Somalia from the group's control. The 
effectiveness of the African Union Mission in Somalia continues to 
increase. The security situation in Mogadishu is improving gradually 
and several countries, including the United Kingdom, resumed or 
expanded embassy operations in Somalia last year. Weakened by the 
African Union Mission in Somalia's recent offensive, al-Shabaab has 
modified its operational structure and tactics to increase the reach of 
its attacks into troop-contributing countries. This underscores the 
importance of both continuing to improve the effectiveness of the 
African Union Mission in Somalia, as well as taking a regional approach 
that counters al-Shabaab's expanding operational reach.
    In North and West Africa, Libyan and Nigerian insecurity 
increasingly threaten United States interests. In spite of 
multinational security efforts, terrorist and criminal networks are 
gaining strength and interoperability. Al-Qaeda in the Lands of the 
Islamic Maghreb, Ansar al-Sharia, al-Murabitun, Boko Haram, the Islamic 
State of Iraq and the Levant, and other violent extremist organizations 
are exploiting weak governance, corrupt leadership, and porous borders 
across the Sahel and Maghreb to train and move fighters and distribute 
resources.
    Libya-based threats to United States interests are growing. If left 
unchecked, I believe they have the highest potential among security 
challenges on the continent to increase risks to United States and 
European strategic interests in the next two years and beyond. Libyan 
governance, security, and economic stability deteriorated significantly 
in the past year. Competition between the House of Representatives and 
General National Congress, each backed by various militias, has fueled 
conflict over resources and power. Some North African and Gulf states 
have complicated the situation by supporting military operations within 
Libya. Today, armed groups control large areas of territory in Libya 
and operate with impunity. Libya appears to be emerging as a safe haven 
where terrorists, including al-Qaeda and Islamic State of Iraq and the 
Levant-affiliated groups, can train and rebuild with impunity. The 
Islamic State of Iraq and the Levant is increasingly active in Libya, 
including in Derna, Benghazi, Tripoli, and Sebha.
    Libyan leaders have yet to demobilize militias, create a sense of 
national identity, build judicial capacity, and develop state security 
institutions and forces representative of the population. Instead, they 
have opted to contract militia groups for security. Despite political 
commitments and coordination between the United Nations, North Atlantic 
Treaty Organization, European Union, United States, United Kingdom, 
Italy, Turkey, Morocco, and other partners to support security sector 
development, the Libyan government's weak capacity has prevented the 
execution of many initiatives.
    The spillover effects of instability in Libya and northern Mali 
increase risks to United States interests in Europe, the Middle East, 
and Africa, including the success of Tunisia's democratic transition. 
Tunisia held its first democratic elections last year and is the only 
Arab Spring country that remains on a positive trajectory. Libya's 
insecurity has created a regional humanitarian crisis and has enabled 
increased foreign fighter, migrant, and drug flows that threaten the 
stability of North Africa, Europe's southern flank, and the greater 
Mediterranean basin. Weapons and fighters exported from Libya have 
increased the capacity of criminal and terrorist organizations in North 
and West Africa. Several thousand foreign fighters have traveled from 
North Africa to Syria and Iraq, often via southeast Europe, and some 
are beginning to return with increased training and experience.
    The security situation in Nigeria also declined in the past year. 
Boko Haram threatens the functioning of a government that is challenged 
to maintain its people's trust and to provide security and other basic 
services. In recent months, Nigeria has faced a confluence of stresses: 
an escalation in terrorist attacks, economic stresses exacerbated by 
falling oil revenues, and political -tension associated with highly 
contested national elections. Boko Haram has launched attacks across 
Nigeria's borders into Cameroon, Chad, and Niger. Lake Chad Basin 
states are now expanding their cooperation in efforts to counter Boko 
Haram, including by beginning to develop a Multinational Joint Task 
Force.
    In Liberia, the government and military have demonstrated their 
ability to lead through crisis. The military was called to assist in 
responding to the Ebola epidemic and responded with pride and 
professionalism, reflecting leadership at all levels and the positive 
effects of U.S. engagement. The Liberian military was demobilized and 
rebuilt from the ground up following 14 years of civil war, and the 
United States has supported this effort with sustained investment in 
developing the capacities of Liberian defense institutions and forces. 
In addition to assisting in containing the Ebola epidemic, the Liberian 
army's efforts strengthened the trust between the government, military, 
and people of Liberia; bolstered the army's institutional and 
operational capacities; and deepened the enduring partnership between 
Liberia and the United States.
    In the Gulf of Guinea, the international community is increasing 
its cooperation to address maritime security challenges, including 
piracy and armed robbery at sea; trafficking in drugs, arms, and 
persons; and illegal, unreported, and unregulated fishing. African, 
European, and South American navies, as well as representatives from 
the private sector, are increasing their participation in combined 
maritime exercises in the Gulf of Guinea. Despite modest progress in 
strengthening regional maritime security capacities and cooperation, 
maritime crime continues to hinder trade, development, and food 
security.
    Central Africa remains fragile and vulnerable to humanitarian 
disasters. The Lord's Resistance Army, an armed group that emerged in 
northern Uganda in the late 1980s, has a small presence in border areas 
of the Central African Republic, Sudan, South Sudan, and Democratic 
Republic of the Congo. Over the course of its history, the group 
committed atrocities against tens of thousands of civilians and 
displaced hundreds of thousands of civilians. Military operations and 
the efforts of civilian agencies and non-governmental organizations 
have resulted in the capture or surrender of senior Lord's Resistance 
Army leaders, facilitated defections, and increased civilian early 
warning networks. Four of the top five Lord's Resistance Army leaders 
have been apprehended or removed from the battlefield. Today, the 
Lord's Resistance Army no longer threatens regional stability and its 
ability to harm civilian populations has been reduced significantly. 
The group continues to prey upon scattered and isolated local 
communities for survival and is resorting to wildlife poaching as a 
primary source of revenue.
    United Nations, European Union, and French forces contributed to 
modest improvements in security in the Central African Republic, where 
conditions stabilized sufficiently to warrant resuming operations of 
the United States Embassy in Bangui. However, both the Central African 
Republic and Democratic Republic of the Congo are at risk of further 
destabilization by insurgent groups, and simmering ethnic tensions in 
the Great Lakes region have the potential to boil over violently in the 
Democratic Republic of the Congo. Small elements of the Armed Forces of 
the Democratic Republic of the Congo are making gradual progress in 
professional development and institutional reform, and played 
constructive roles in addressing insecurity in the Central African 
Republic and countering the Lord's Resistance Army last year.
    Southern Africa remains relatively stable. The region fields some 
of the most professional and capable military forces on the continent 
and is a net exporter of security. In the past year, South Africa, 
Angola, and Tanzania contributed to regional and continental security, 
including through participation in United Nations peacekeeping 
operations in the Central African Republic and Democratic Republic of 
the Congo. Despite its relative stability, the region faces economic 
and social challenges that include poverty, crime, and social 
inequality. Future leadership challenges in countries such as Zimbabwe 
will increase the risk of regional instability.
                                approach
    Africa Command works closely with allies and partners to share 
information, reinforce shared priorities for democratic governance and 
security, address immediate threats, and respond to crisis. We are 
strengthening our relationships with other elements of the U.S. 
government to improve our ability to align strategies, leverage and 
support multinational and interagency partners, and ensure we 
effectively support comprehensive U.S. government efforts led by U.S. 
Ambassadors. We work closely with other combatant commands, especially 
U.S. European Command, Central Command, Special Operations Command, and 
Transportation Command, and Strategic Command's sub-unified Cyber 
Command, to plan collaboratively and share capabilities when 
appropriate. The trust and teamwork we build with partners are vital to 
the success of our collective efforts.
    Africa Command's primary tools for implementing our strategy are 
posture, presence, programs, exercises, engagements, and operations.
    Our strategic posture is the platform for our presence, programs, 
exercises, engagements, and operations on the continent. Our posture is 
designed to maximize operational flexibility and agility, and is 
primarily comprised of expeditionary cooperative security locations and 
contingency locations.
    The single enduring element of our posture and presence in Africa 
is a forward operating site at Camp Lemonnier in Djibouti, which 
provides a critical platform for the activities of multiple combatant 
commands. Camp Lemonnier and expeditionary facilities hosted by African 
nations support the activities of the United States, allied, and 
partner forces. This strategic posture was enhanced by the signing of 
an Implementing Arrangement in May 2014 that secures our presence in 
Djibouti through 2044. Posture and presence in Europe also provide 
vital support to our mission, and include a joint intelligence analysis 
support center in the United Kingdom and crisis response forces 
stationed in Spain, Germany, Italy, and the United Kingdom to enable 
rapid deployment to the African continent.
    Our presence in Africa and Europe includes Defense Attache Offices 
and Offices of Security Cooperation in U.S. Embassies in Africa. 
Offices of Security Cooperation in the Africa Command area of 
responsibility increased from nine in Fiscal Year 2007 to 33 in 2014. 
We will add a 34th office, in Malawi, this year. Our presence also 
includes a combined joint task force at Camp Lemonnier and five 
component commands in Europe, some of which are shared with U.S. 
European Command. We also have small advisory teams embedded in allied 
and partner strategic, operational, and tactical headquarters. These 
teams support our programs, exercises, engagements, and operations, and 
their activities help build mutual trust and confidence and enhance 
interoperability.
    Our programs and combined exercises assist in the development of 
partner defense capacities as part of a broader United States 
Government effort, and also support the development of the African 
continental and regional security architecture. We build partner 
defense capacities in executive functions, including national military 
staff functions associated with strategic planning, readiness, and 
budgeting; generating force functions, such as recruiting, training, 
equipping, and maintaining infrastructure; and operating force 
functions necessary to conduct collective training and perform assigned 
missions. When appropriate, we design combined training and exercises 
to help maintain, and even enhance, the readiness of U.S. and partner 
forces.
    Our engagements play critical roles in strengthening our military-
to-military relationships, advancing our mutual interests, and 
promoting shared values.
    We closely coordinate our operations with allies, partners, and 
other combatant commands. Most are planned with and executed by the 
military forces of our African partners, with the United States in a 
supporting role. Our operations play a role in building partner 
capacity, especially when we enable partner operations with our advice 
and assistance.
                          long-term objectives
    Our long-term objectives are to support the development of 
partnerships that can help expand the positive influence of nations 
with the greatest potential to advance good governance, security, and 
economic growth on the continent. Population size and prospective 
economic, political, and military power can all contribute to this 
potential influence. In addition to partnering with potential 
continental influencers, we work closely with regional influencers--
countries that contribute to regional stability, and with whom our 
pursuit of mutual objectives can reinforce U.S. interests.
    Our tools for strengthening partnerships include programs for 
building defense capacities in executive functions, generating forces, 
and operating forces. The Department of State's programs, such as 
International Military Education and Training, Peacekeeping Operations, 
Foreign Military Financing, and Foreign Military Sales, are 
particularly important in this regard.
    The National Guard Bureau's State Partnership Program provides a 
unique and vital mechanism for sustaining the long-term engagement 
critical to building relationships and capacity. I appreciate the 
Congress's support to new initiatives, such as the Security Governance 
Initiative, Counter-terrorism Partnership Fund, and Africa Peacekeeping 
Rapid Response Partnership, which will facilitate more comprehensive 
U.S. Government security engagement in Africa.
    Parallel efforts by civilian agencies to support progress in 
democracy, governance, and security sector reform are essential to 
achieving U.S. peace and security objectives, and I appreciate the 
Congress's support to the Department of State and USAID in these 
critical areas. Too often, efforts to strengthen progress in democracy, 
governance, justice, and security in the non-military sphere fail to 
keep pace with those in the defense sector. Without good governance and 
the economic development it enables, security gains are rarely 
sustainable. We continue to support interagency efforts to achieve the 
more comprehensive approach to security sector assistance envisioned by 
Presidential Policy Directive 23.
                          immediate priorities
    As we strengthen partnerships with continental and regional 
influencers, we simultaneously pursue five priorities:

1. Countering Violent Extremism and Enhancing Stability in East Africa
    Several years of modest United States security assistance in East 
Africa, including military training and mentoring, have helped our 
partners gradually strengthen their capacity to conduct peacekeeping 
operations and counter violent extremist organizations in Somalia. In 
the past year, with advice and assistance from United States forces, 
African Union forces improved their operational planning, demonstrated 
increased proficiency on the battlefield, and gained significant 
territory from al-Shabaab. During Operation INDIAN OCEAN, African Union 
forces liberated key terrain from al-Shabaab's control and disrupted 
the group's training, operations, and revenue generation. The African 
Union Mission in Somalia, United Nations, and East African partners 
improved their coordination in planning for offensive and stability 
operations. United States forces also conducted successful unilateral 
operations against high-value terrorists in Somalia this year, 
including lethal strikes against al-Shabaab leader Ahmed Abdi Godane 
and his intelligence chief.
    Although al-Shabaab is weaker today than it was a year ago, it 
remains a persistent threat to regional and western interests, 
continues to conduct attacks, and is likely to regenerate its 
operational capacity if given the opportunity. Over the past year, al-
Shabaab has either planned or executed increasingly complex and lethal 
attacks in Somalia, Kenya, Uganda, Djibouti, and Ethiopia aimed at 
impeding Somalia's political development and discouraging African Union 
Mission in Somalia troop contributing countries from sustaining 
security commitments in Somalia. Additional military pressure on al-
Shabaab, strengthened governance, and expanded economic opportunity in 
Somalia will contribute significantly to neutralizing this threat. Off 
the coast of Somalia, multinational military efforts continue to 
sustain maritime security improvements achieved over the past few 
years, and no ships were successfully hijacked by pirates last year.
    In the coming year, we will continue to support partner operations 
against al-Shabaab, facilitate coordination in planning for offensive 
and stability operations in Somalia, and support maritime security 
efforts in the region. We will also continue to encourage multinational 
coordination in efforts to develop the institutional, operational and 
tactical capacities the Somali National Army will require to assume 
security responsibilities in the future. The Somali government and 
people will need to accelerate progress in state formation, preparing 
for an on-time constitutional referendum and elections, strengthening 
institutions, developing a sense of national identity, and building 
security forces that are representative of the population. The Federal 
Government of Somalia's ability to hold terrain, govern effectively and 
democratically, and deliver services to the Somali people will 
determine its ability to sustain security gains and stabilize the 
country. We look forward to the establishment, when conditions permit, 
of a permanent United States diplomatic presence in Mogadishu to 
facilitate more robust political, economic, and security engagement.

2. Countering Violent Extremism and Enhancing Stability in North and 
West Africa
    In North and West Africa, allies and partners are increasing their 
capacity and collaboration in addressing security threats across the 
Maghreb, Sahel, and Lake Chad Basin regions. As conditions in Libya 
declined significantly, Algeria expanded its assistance to neighboring 
countries, and both Algeria and Tunisia strengthened counter-terrorism 
and border security efforts. U.S. assistance facilitated the 
strengthening of regional partnerships and capacity, and we expanded 
dialogue and collaborative planning.
    In the past year, we built partner capacity and enabled allies and 
partners to disrupt terrorist and criminal threat networks in the 
Maghreb and Sahel. We supported the State Department in preparing 
partners for deployment to multilateral peacekeeping operations in 
Mali, where 11 African countries are contributing troops to the United 
Nations mission. United States forces captured Ahmed Abu Khattala, who 
is a suspected ringleader in the 2012 attack against United States 
facilities in Benghazi that resulted in the deaths of four Americans, 
and Abu Anas al-Libi, who was suspected of planning the 1998 bombings 
of the U.S. Embassies in Kenya and Tanzania.
    In the year ahead, we will continue to look for opportunities to 
constructively influence the situation in Libya. We will work with 
partners to improve our overall effectiveness in containing the 
spillover effects of Libyan insecurity; preventing the movement of 
terrorist fighters, facilitators, and weapons into Libya; and 
simultaneously disrupting the violent extremist networks within. We are 
working within existing authorities to address the threat posed by 
violent extremist groups, including the growing Islamic State of Iraq 
and the Levant presence in Libya. As required, we will also seek new 
authorities to ensure that this threat does not grow. Working with U.S. 
European Command, we will seek to align our efforts to disrupt foreign 
fighter flows and illicit trafficking between North Africa and Southern 
Europe with the North Atlantic Treaty Organization's Southern Flank 
strategy. As conditions improve in Libya, we will be ready to support 
the development of Libyan defense institutions and forces.
    In the past year, allies and partners also increased their 
cooperation in efforts to address Boko Haram and other regional 
security challenges emanating from Nigeria. We provided training to and 
expanded information-sharing with the Nigerian military and other 
regional partners, such as Cameroon, Chad, and Niger.
    In the coming year, we will continue to work with the Nigerian 
military and will work with allies and partners to support the 
development of the Lake Chad Basin Multinational Joint Task Force.

3. Protecting U.S. Personnel and Facilities
    U.S. Africa Command is responsible for supporting the protection of 
United States personnel and facilities in Africa. Fifteen high-risk, 
high-threat diplomatic posts are located in the Africa Command area of 
responsibility. Our response forces consist of U.S. Army and Air Force 
elements staged in Djibouti and a Marine Corps Special Purpose Marine 
Air Ground Task Force and two Fleet Anti-Terrorism Security Teams based 
in Spain. We also have Special Operations Crisis Response Force 
elements located in Germany and the United Kingdom. With limited forces 
and infrastructure, we are working to maximize our adaptability and 
flexibility to respond effectively to crisis.
    In the past year, we improved our ability to temporarily stage 
response forces closer to hotspots when there are indications and 
warnings of crisis. We leveraged force-sharing agreements with other 
Combatant Commands to move personnel and equipment quickly between 
theaters during crisis response operations. We also made progress in 
securing resources and agreements to relocate intelligence, 
surveillance, and reconnaissance assets so they can be utilized more 
effectively to build our situational understanding and support 
operations.
    Last year, U.S. Africa Command and our components reinforced the 
security of U.S. Embassies in South Sudan and Libya and supported the 
departure of United States, Korean, French, and other allied personnel 
from Libya. We provided security to enable the resumption of U.S. 
Embassy operations in the Central African Republic, complementing our 
enabling support to French forces and to African partners participating 
in the United Nations Integrated Stabilization Mission in the Central 
African Republic. In the coming year, we will continue to develop 
additional expeditionary infrastructure in host nations and work with 
the Department of State toward a common understanding of decision 
points for reinforcing embassies, prepositioning response forces, and 
executing military-assisted departures.

4. Enhancing Stability in the Gulf of Guinea
    Regional partners are gradually building their capacity to address 
maritime security challenges. U.S. programs and combined operations 
like the Africa Partnership Station and African Maritime Law 
Enforcement Partnership are supporting this progress. For example, in 
January 2015, the Ghanaian Navy interdicted a hijacked tanker and 
arrested eight pirates, demonstrating capacities we have helped to 
strengthen through our maritime security initiatives. Naval forces from 
Africa, Europe, and South America expanded their participation in our 
regional maritime exercises, and we also increased our collaboration 
with civilian agencies and the private sector. In the coming year, we 
will continue to support regional maritime security activities and look 
for opportunities to complement civilian initiatives that address the 
root causes of maritime crime by strengthening good governance and 
promoting economic development.

5. Countering the Lord's Resistance Army
    Uganda, the Central African Republic, Democratic Republic of the 
Congo, and South Sudan are participating in the African Union Regional 
Task Force against the Lord's Resistance Army and leading military 
efforts to reduce the group's safe havens, capture key leaders, and 
promote defections. The African Union Regional Task Force, with advice 
and assistance from U.S. forces deployed to Operation OBSERVANT 
COMPASS, made significant progress last year in weakening the Lord's 
Resistance Army and reducing its ability to threaten civilian 
populations. Today, fewer than 200 fighters remain, the group no longer 
threatens regional stability, and local communities have greater 
capacity to receive defectors and communicate warnings about attacks 
from armed groups. In the coming year, we will continue to work with 
our regional partners to tailor our support to reflect their efforts.
           addressing future requirements and mitigating risk
    Africa Command's capability gaps are likely to grow in the year 
ahead, primarily as a result of growth in transregional threat networks 
and the mission to protect U.S. personnel and facilities. Our greatest 
capability shortfalls will likely remain intelligence support and 
personnel recovery. To address future requirements and mitigate risks 
to our national interests, Africa Command is pursuing the following 
actions to increase collaboration with partners, enhance operational 
flexibility, and close key capability gaps:

    <bullet>  Increase collaboration and interoperability with 
multinational and interagency partners to better leverage and support 
allies and partners, including by working with policy-makers and the 
intelligence community to expand information-sharing. Expanding our 
sharing with multinational entities, in addition to bilateral sharing, 
will enhance the trust, confidence, and interoperability of partners.
    <bullet>  Refine our posture and presence in Africa and Europe to 
reduce risk in operations to protect United States personnel and 
facilities.
    <bullet>  In coordination with interagency partners, improve our 
use of informational tools to counter the spread of violent extremist 
ideology, including by re-establishing regional information websites 
and expanding into social media to provide platforms for regional 
voices to counter violent extremist ideology and influence.
    <bullet>  Leverage combined training and exercises to strengthen 
interoperability and help maintain the readiness of U.S., allied, and 
partner forces.
    <bullet>  Employ new operational concepts and flexible, tailorable 
capabilities, such as the Army's Regionally Aligned Force and the 
Marine Corps' Special Purpose Marine Air Ground Task Force.
    <bullet>  Increase operational flexibility by expanding force-
sharing with other Combatant Commands and agreements with host nations 
to facilitate access and overflight.
    <bullet>  Work with the Joint Staff and Office of the Secretary of 
Defense to pursue increased assignment or allocation of forces, 
register the demand for critical capabilities, and mitigate gaps in key 
enablers, such as intelligence, personnel recovery, medical support, 
and tactical mobility.
    <bullet>  Work with the Joint Staff and Office of the Secretary of 
Defense to pursue authorities that will increase our ability to 
implement programs and other activities regionally, which will allow us 
to respond with greater agility and flexibility to emerging threats and 
opportunities to advance our interests.

    As we look to the future, I anticipate Africa's importance to our 
national interests of security, prosperity, international order, and 
the promotion of universal values will continue to grow. We are 
contributing to progress in regional security through modest and 
sustained investments in building partner capacity. In some places, the 
enemy is growing capacity more quickly than our partners. Where our 
national interests compel us to tip the scales and enhance collective 
security gains, we may have to do more - either by enabling our allies 
and partners, or acting unilaterally. Decreasing resources will make 
this difficult. In addition, the United States and our allies and 
partners will be increasingly challenged to implement the comprehensive 
approaches necessary to advance governance, security, and development 
on the continent. As our Nation's leaders make increasingly difficult 
decisions about strategic risks and tradeoffs, Africa Command will 
continue to sharpen our prioritization, align resources to strategy, 
increase our flexibility, and inform risk management decisions.
    Thank you for your continued support to our mission and to the 
Soldiers, Sailors, Airmen, Marines, Coast Guardsmen, civilians, and 
contractors advancing our Nation's defense interests in Africa.

    Chairman McCain. General Austin, welcome.

STATEMENT OF GEN. LLOYD J. AUSTIN, USA, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Austin. Thank you, sir. Good morning. Chairman 
McCain, Senator Reed, distinguished members of the committee, I 
want to thank you for the opportunity to appear here today to 
talk about the broad efforts and the current posture of United 
States Central Command.
    Up front, and most importantly, I'd like to thank all of 
you for your continued and strong support of our men and women 
in uniform and their families. I look forward to talking about 
them and the exceptional contributions that they continue to 
make on behalf of our Command and our Nation.
    I'm pleased to appear here this morning alongside my 
teammates, General Dave Rodriguez and General Joe Votel. And 
I'll join them in making a free--a few brief opening comments, 
and then we're prepared to answer your questions.
    Ladies and gentlemen, much has happened in the CENTCOM area 
of responsibility since I last appeared before this committee, 
a year ago. Indeed, the central region is today more volatile 
and chaotic than I have seen it at any other point. And the 
stakes have never been higher. The forces of evil that threaten 
our homeland and our interests in that strategically important 
part of the world thrive in unstable environments marked by 
poor governance, economic uncertainty, and ungoverned or 
undergoverned spaces. And therefore, it's essential that we be 
present and engaged, and that we cultivate strong partnerships 
and continue to do our part to address emerging threats and to 
move the region in a direction of greater stability and 
security. And we must be properly resourced to do what is 
required to effectively protect and promote our interests.
    At CENTCOM, in addition to doing all that we can to prevent 
problems from occurring while shaping future outcomes, we spend 
a great deal of our time and energy managing real-world crisis. 
Over the past year, we've dealt with conflicts in Iraq and 
Syria. We transitioned from combat operations to a train, 
advise, and assist and CT mission focus in Afghanistan. At the 
same time, we dealt with a number of difficult challenges in 
Yemen, Egypt, and Lebanon, and in a host of other locations 
throughout our area of responsibility. We actively pursued 
violent extremist groups, and we took measures to counter the 
radical ideologies that are espoused by these groups. We also 
dealt with Iran, which continues to act as a destabilizing 
force in the region, primarily through its Quds forces and 
through support to proxy actors such as Lebanese Hezbollah.
    And, while we are hopeful that an acceptable agreement will 
be reached with Iran with respect to its nuclear program, 
either way, whether we reach an agreement or we don't reach an 
agreement, Iran will continue to present a challenge for us, 
going forward.
    We are faced with a number of difficult issues in our 
region. However, I firmly believe that challenges present 
opportunities, and we make progress primarily by pursuing those 
opportunities. And we do pursue them. And I am confident that 
our broad efforts are having a measurable impact.
    Of course, the most immediate threat facing us now is the 
threat posed by ISIL, or Daesh. This barbaric organization must 
be defeated, and it will be defeated. We are currently in a 
process of executing our regional military campaign plan, and 
I'm pleased to report that we are making significant progress.
    At the outset, we said that we'd have to halt ISIL's 
advance. And we've done that in Iraq. We said that we're going 
to have to regenerate and restructure Iraq's Security Forces 
and help them to reestablish their border. And we're in the 
process of doing that right now. We said that we'd have to help 
our partners in the region to bolster their defenses against 
ISIL. And we continue to help our friends in Jordan and Lebanon 
and Turkey. And we said that we'd have to build credible ground 
forces to counter ISIL in Syria and to guard against ungoverned 
spaces. And we'll soon begin doing so as a part of our Syria 
train-and-equip program.
    Ladies and gentlemen, we are making progress. In fact, 
we're about where we said we would be in the execution of our 
military campaign plan, which supports the broader whole-of-
government strategy designed to counter ISIL. And we're having 
significant effects on the enemy. We continue to attrite its 
forces in Iraq and Syria. We've attacked its command-and-
control capabilities. We've destroyed its training sites and 
storage facilities, along with hundreds of its vehicles, tanks, 
and heavy weapon systems. And, in doing so, we have 
significantly degraded his capability, its ability to command 
and control its forces, and also his primary sources of 
revenue--namely, his refineries and crude collection points. 
The fact is that ISIL can no longer do what he did at the 
outset, which is to seize and hold new territory. He has 
assumed a defensive crouch in Iraq. Although he has greater 
freedom of movement in Syria, he's largely in a defensive 
there, as well. He's having a tough time governing. And this is 
crucial to his claims of a caliphate. Indeed, he has begun to 
expand into other areas--namely, North Africa--in part, because 
he knows that he's losing in Iraq and Syria, and he needs to 
find other ways to maintain his legitimacy. Going forward, we 
should expect this--to see this enemy continue to conduct 
limited attacks and to orchestrate horrific scenes in order to 
create IO opportunities and to distract and intimidate. But, 
make no mistake, ISIL is losing this fight. And I am certain 
that he will be defeated.
    However, there is still work to be done to get to that 
point. And we intend to continue to execute the campaign, as 
designed. And I say that because how we go about this is very 
important. If we don't first get things under control in Iraq, 
where there is a government that we can work with and some 
amount of reliable security forces, if we don't get things 
there right first, before expanding our efforts in Syria, then 
we risk making matters worse in both countries. But, done the 
right way, in light of the limitations that exist, I believe 
that we can, and we will, be successful in our efforts to 
defeat ISIL. At the same time, we can be assured continued 
progress in pursuit of our principal goal, which is to move the 
strategically important region in a direction of increased 
stability and security.
    Going forward, we will all be required to make tough 
choices. We'll need to find ways to do more, or at least as 
much, with less in the current fiscal environment. That said, I 
remain concerned by the fact that capability reductions can and 
will impact our ability to respond to crisis, and especially in 
the highly volatile central region. The resulting loss in 
flexibility makes the U.S. and our interests increasingly 
vulnerable to external pressures.
    And so, I would ask Congress to do its part to make sure 
that we avoid sequestration and other resourcing limitations 
that serve to degrade the readiness of America's military 
forces.
    Chairman McCain, Senator Reed, members of the committee, I 
want to thank you once more for your strong support that you 
continue to show towards servicemembers, our civilians, and 
their families. They are the very best in the world at what 
they do, and they continue to demonstrate absolute 
selflessness. And they make enormous sacrifices on behalf of 
the mission in support of one another.
    Thank you, sir.
    [The prepared statement of General Austin follows:]

         Prepared Statement by General Lloyd J. Austin III, USA
    Introduction: We are in the midst of one of the most tumultuous 
periods in history. There is growing unrest throughout much of the 
world, while a vast array of malevolent actors seek to capitalize on 
the increasing instability to promote their own interests. This trend 
is especially pronounced in the Central Region, where state and non-
state actors are in conflict, and the resulting turmoil impacts the 
affected countries and also directly affects the global economy and the 
security of the United States. In light of this, the U.S. must continue 
to exert strong leadership and act vigorously to protect our core 
national interests in this strategically important region. An effective 
`whole of government' approach is essential. At U.S. Central Command 
(USCENTCOM), our aim is to see a positive transformation of the region 
over time, achieved by, with, and through our regional partners. 
Despite the challenges that exist in our area of responsibility (AOR), 
we do see progress being made in some areas, along with many 
opportunities. We are confident that our actions in pursuit of these 
opportunities will continue to produce positive results in the coming 
days.
    Looking ahead, our partners will need to assume a larger share of 
the burden for providing improved stability in the region. Given the 
stakes involved, we must keep on assisting them in their efforts. At 
the same time, we have to find additional methods for dealing with the 
convergence of compound threats under increasing budget and resource 
constraints. We must be judicious in our decision-making. Particularly 
during this volatile period, we cannot afford restrictions or 
reductions that would degrade our military posture and put our core 
national interests at greater risk. Simply stated, if we hope to 
achieve improved security which provides for greater stability and 
prosperity around the globe, then the Central Region must remain a 
foremost priority.
    A Retrospective Look: This past year has been especially busy for 
USCENTCOM. In Afghanistan, we completed our transition from combat 
operations to our train, advise, and assist (TAA) and counter-terrorism 
(CT) missions. The Afghans are now in the lead for all security 
operations. They continue to demonstrate significant capability and a 
strong desire to build upon the progress achieved over the past 13+ 
years. In recent months, we also saw significant advancements made on 
the political front as a new unity government was established. 
President Ashraf Ghani and CEO Abdullah Abdullah have indicated a 
strong desire to work closely with USG leadership in pursuit of shared 
objectives. While much work remains to be done in Afghanistan, I am 
optimistic that developments will continue to trend in the right 
direction. At the same time, we are focused on the situation in Iraq 
and Syria. We responded quickly and effectively to the rapid expansion 
of the Islamic State of Iraq and the Levant (ISIL) in the early summer 
of 2014. We continue to take the necessary measures to counter this 
barbaric enemy which operates out of ungoverned and under-governed 
spaces in both countries. We are currently executing our regional 
campaign plan to degrade and ultimately destroy ISIL, and we are doing 
so with the support of a broad Coalition consisting of 62 other 
countries and organizations. However, as was clearly stated at the 
outset, this will take time and we must maintain strategic patience.
    We also continue to closely monitor Iran's actions. Our diplomats 
are working diligently to negotiate an acceptable agreement with 
respect to Iran's nuclear program, and we hope that they will be 
successful. But, regardless of the outcome of the P5+1 discussions, our 
relationship with Iran will remain a challenging one, as we are very 
concerned by their unhelpful behavior in a number of areas. We also are 
paying especially close attention to the situation in Yemen.
    Recent actions by the Huthis and also al-Qaeda in the Arabian 
Peninsula coupled with the resignation of President Hadi and the 
subsequent upheaval in the government are cause for significant and 
growing concern. If the situation continues to erode, and it remains on 
a negative trajectory now, Yemen could fracture and we could end up 
losing a key partner in our counter-terrorism (CT) fight and cede 
additional ungoverned space for our adversaries to operate out of. 
Meanwhile, we are also watching with interest what occurs in Lebanon, 
Egypt, Pakistan, and other parts of the region.
    Without a doubt these are challenging times. There is a great deal 
at stake for the U.S. and our partner nations. At USCENTCOM, we remain 
confident that we have the right strategy in place to safeguard our 
interests, to effectively address challenges and pursue opportunities, 
and ultimately to accomplish our mission on behalf of the Nation. That 
said, we depend upon the authorities and funding provided by Congress 
to execute our strategy and to do what is required to defend our core 
national interests at home and around the globe. Without question, our 
ability to do so and our overall readiness are put at grave risk by the 
continued reductions made to the defense budget, and specifically as a 
result of the Budget Control Act. We are in the midst of a tumultuous 
and unpredictable period. We are constantly responding to unforeseen 
contingencies and facing multiple threats from a wide range of actors 
that include nation states and transnational extremist groups. We 
cannot afford to constrict our ability to do so effectively by 
maintaining across-the-board spending cuts that severely limit our 
flexibility and authority to apply critical defense resources based on 
demand and the current security environment. If Sequestration goes back 
into effect in FY 2016, we will be increasingly vulnerable to external 
threats.
        USCENTCOM's Mission. USCENTCOM's mission statement is: ``With 
        national and international partners, USCENTCOM promotes 
        cooperation among nations, responds to crises, and deters or 
        defeats state and non-state aggression, and supports 
        development and, when necessary, reconstruction in order to 
        establish the conditions for regional security, stability and 
        prosperity.''
    Strategic Environment. The Central Region is an area rich in 
history, culture, and tradition. It is one of the most strategically 
important regions, holding well over half of the world's proven oil 
reserves and plentiful natural gas deposits, which are crucial to the 
global energy market. The U.S. and our partners have core national 
interests in this part of the world; interests that include the free 
flow of resources through key shipping lanes; the prevention of the 
proliferation of weapons of mass destruction; and, the defense of our 
homeland against the very real and persistent threat of terrorism and 
extremism. Unfortunately, it also is an area that is plagued by 
violence and instability, political discord, economic stagnation, 
resource shortages (e.g., water), ethnic and religious tensions, and 
wide expanses of ungoverned or under-governed space. Alone or in 
combination, these provocative factors often make for a volatile 
environment that puts our interests and those of our partners at risk. 
Indeed, when things go badly in the Central Region, it has a clear and 
sizeable impact on the affected countries and other parts of the globe. 
For this reason it is an area of the world that merits our continued 
focus.
    Of note, more so than in the past, individuals and groups today are 
coalescing around ethnic and sectarian issues, rather than national 
identity. This is fracturing institutions (e.g., governments, 
militaries) along sectarian lines and creating factional rifts within 
populations. This growing strain, coupled with other ``underlying 
currents,'' fuels much of the tension and conflict that is present 
today across the USCENTCOM AOR. The principal currents include the 
growing ethno-sectarian divide; the struggle between moderates and 
extremists, particularly Islamist-based extremists; rejection of 
corruption and oppressive governments; and, the ``youth bulge,'' which 
reflects the many young, educated, unemployed or under-employed and 
disenfranchised individuals in the region who are ripe for recruitment 
by extremist groups. To be effective, our approach in dealing with the 
challenges that exist in the region must address these complex root 
causes. In particular, the governments and people of the region must 
bridge the growing ethno-sectarian divide, elevate the voice of 
moderates, rid governments of corruption, guard against ungoverned and 
under-governed spaces, and make sure that young people have better 
opportunities and are able to contribute to society in meaningful ways.
    Of course, change will not occur overnight. It will take time to 
adjust peoples' mindsets and to counter deeply-engrained prejudices. 
But, it must be done by the governments and people in the region. Only 
they can bring about enduring, positive change, with our engagement and 
support. Indeed, we do have a critical role to play in this important 
endeavor and we must take action where necessary to counter exigent 
threats. We are helping our partners to build additional capacity and 
also foster stronger military-to-military relationships. The goal is to 
enable them to assume a greater share of the responsibility and do what 
is required to bring about improved stability in the region.
    There are a number of challenges present in the Central Region that 
require our engagement to mitigate the potential negative effects. 
These include ongoing operations in Afghanistan, our activities in Iraq 
and Syria in support of Operation Inherent Resolve, and our efforts in 
a host of other locations in USCENTCOM's AOR. Ultimately, our goal in 
all cases is to move things in the direction of greater stability and 
to ensure assured access and freedom of movement, recognizing that a 
secure, stable, and prosperous Central Region is in the best interest 
of the United States and our partners and allies.
    USCENTCOM Priorities. Looking ahead, USCENTCOM will remain ready, 
engaged and vigilant--effectively integrated with other instruments of 
power; strengthening relationships with partners; and supporting 
bilateral and multilateral collective defense relationships to counter 
adversaries, improve security, support enduring stability, and secure 
our core interests in the Central Region. In support of this vision, 
the command remains focused on a wide range of issues, activities, and 
operations, including our priority efforts:

    <bullet>  Degrade and ultimately defeat ISIL in order to prevent 
the further spread of sectarian-fueled radical extremism, and to 
mitigate the continuing Iraq-Syria crisis.
    <bullet>  Continue support to Afghanistan, in partnership with 
NATO, as a regionally integrated, secure, stable and developing 
country.
    <bullet>  Defeat Al Qaeda, deny violent extremists safe havens and 
freedom of movement, and limit the reach of terrorists.
    <bullet>  Counter malign Iranian influence, while reducing and 
mitigating against the negative impacts of surrogates and proxies.
    <bullet>  Support a whole of government approach to developments in 
Yemen, preventing Yemen from becoming an ungoverned space for AQ/VEOs; 
retain CT capacity in the region.
    <bullet>  Maintain credible general and specific deterrent 
capability and capacity to counter Iran.
    <bullet>  Prevent, and if required, counter the proliferation of 
weapons of mass destruction; disrupt their development and prevent 
their use.
    <bullet>  Protect lines of communication, ensure free use of the 
shared spaces (including the cyber commons), and secure unimpeded 
global access for legal commerce.
    <bullet>  Shape, support, and maintain ready, flexible regional 
Coalitions and partners, as well as cross-CCMD and interagency U.S. 
whole-of-government teams, to support crisis response; optimize 
military resources.
    <bullet>  Develop and execute security cooperation programs, 
improving bilateral and multi-lateral partnerships, building partnered 
``capacities,'' and improving information sharing, security, and 
stability.
    Critical Focus Areas. While we remain focused on the broad range of 
challenges present today
    in the Central Region, there are particular areas that merit a 
sizeable portion of our attention and resources. These areas are 
strategically important because of the potential impact on our core 
national interests and those of our partners. Below are descriptions of 
the current critical focus areas, along with a listing of some of the 
key opportunities that we are actively pursuing in an effort to improve 
stability in USCENTCOM's AOR.
    Protection of Nation States. Historically, nation states have been 
the dominant players globally. However, in recent years we have 
witnessed the emergence of transnational extremist groups that desire 
and, in some cases, demonstrate the ability to operate as major players 
with unfavorable intentions. In many ways they are attempting to behave 
like nation states and, in so doing, they threaten the structures, 
rules, norms, and values that define the sovereignty of our nation-
state based international system.
    These transnational violent extremist organizations (VEO) are 
ideologically opposed to and target the nation states of the Central 
Region. They conduct attacks and terrorize local populaces in an effort 
to gain power and influence. This, in turn, weakens the nation states 
and generates increased instability. This is of obvious concern to us, 
given that nation states are typically anchors for stability across the 
globe, with some exceptions (e.g., Iran, Syria). Thus, the U.S. has a 
vested interest in buttressing our partner nations in the Central 
Region when necessary as part of a larger `whole of government' effort 
to build regional stability through effective security assistance and 
support for inclusive governance.
    As directed, we intervene to counter external threats, such as al-
Qaeda and ISIL. While our primary purpose for doing so is to protect 
U.S. interests, we also take action to allow time and space for the 
nation states in the region to build sufficient capacity to protect 
their own sovereignty. And, we support them through our planned 
regional engagements, our training and exercise programs, and foreign 
military sales (FMS) and foreign military financing (FMF) programs; all 
of which are designed to further enhance our partners nations' military 
capacity.
    One of the key opportunities that exist amidst the challenges posed 
by transnational VEOs is to persuade our partners in the region of the 
urgent need to build their military capacity so that they are better 
able to defend their own sovereign territory against such threats. Our 
regional partners are very concerned about the threat posed by ISIL and 
other VEOs. More importantly, many in the region recognize that if they 
do not do something to address the root causes of the growing 
instability, they can all but guarantee continued political upheaval 
and anarchy. Again, transformational change can only be achieved by the 
governments and people of the region. They must decide that the 
instability caused by the ``underlying currents'' merits greater action 
on their part, and they must do more to address the root causes of many 
of the problems that exist in their region. We can and will support 
them; but, they must lead the effort.
    Iraq-Syria (Operation Inherent Resolve). We remain highly focused 
on the crisis in Iraq and in Syria. Since launching its major offensive 
from eastern Syria into Iraq in early June, ISIL, which is commonly 
referred to by our partners in the region as ``DA'ESH,'' has largely 
erased the internationally recognized boundary between Iraq and Syria 
and has sought to establish a proto state in the deserts of eastern 
Syria and western Iraq. ISIL's goal is to spur regional instability in 
order to establish an Islamic Caliphate. To achieve this end, ISIL has 
employed three primary lines of effort: 1) instill fear and shape the 
operational environment using unconventional warfare and traditional 
terrorist tactics; 2) seize and hold territory; and 3) influence, 
shape, and define the conflict using sophisticated information 
operations. Importantly, although significantly degraded in recent 
months, ISIL still possesses the resources and organizational structure 
to pose a credible threat to the Government of Iraq (GoI). The erosion 
of Iraqi and regional stability caused by ISIL places extreme political 
and economic strain on Jordan, Lebanon, under-governed border areas, 
and, by extension, the broader Gulf and Levant sub-regions.
    That said, ISIL is not a monolith; rather it is a symptom of the 
larger problems that continue to threaten the Central Region. In 
particular, the growing divide between ethno-sectarian groups and 
between religious moderates and radical Islamists, have created ideal 
conditions for a group like ISIL to take root. Over a period of years 
the previous government alienated important segments of its society, 
notably the Sunni and Kurdish populations, which resulted in growing 
disenfranchisement among these groups. ISIL capitalized on this 
opportunity and launched a successful blitz into Iraq absent much 
resistance and with support from local Sunnis who viewed ISIL as a 
means for bringing about a change in their government. The Sunnis 
simply refused to fight; and, in so doing, they facilitated ISIL's 
offensive. The remaining Iraqi security forces were largely incapable 
of mounting a credible defense against ISIL. After we departed Iraq in 
2011, the leadership of the country made a series of poor decisions. 
Among them was the decision to stop training the security forces, to 
stop maintaining their equipment, and to assign leaders based on 
sectarian loyalty rather than competence, merit, and experience. As a 
result, the security forces' skills atrophied and the condition of 
their vehicles and weapon systems deteriorated. This precipitated a 
number of defeats early on in ISIL's push towards Baghdad.
    This past September, President Obama announced to the American 
people that the United States, with the support of a broad Coalition, 
would take action to degrade and ultimately destroy ISIL through a 
comprehensive and sustained counter-terrorism strategy. We are 
currently in the early stages of our counter-ISIL campaign, OIR 
[Operation Inherent Resolve]. Our military campaign plan is comprised 
of five key elements. They will be achieved in a logical progression; 
although many of the efforts will occur simultaneously or near-
simultaneously. First, we must counter ISIL in Iraq and Syria. Our 
intent is to employ a Coalition effort in Iraq to halt the advance of 
ISIL and to enable the Iraqis to regain their territory and reestablish 
control over their border. Once we've halted ISIL's advance in Iraq, 
which we have done, we said that we would need to contain ISIL, and we 
are doing so with the assistance of our Coalition partners, including 
Jordan, Turkey, and Lebanon. We are working with them to ensure they 
have the capacity to secure their sovereign borders. We also said that 
we would need to enable the moderate Syrian opposition forces through 
our train and equip efforts. Our goal is to develop a reliable partner 
that can assist in countering ISIL on the ground inside of Syria. 
Eventually we want to eliminate ungoverned spaces out of which ISIL and 
other terrorist groups have been operating by enabling the indigenous 
security forces to defend their own sovereign territories. Once we do 
all of these things, we will have defeated ISIL through a combination 
of sustained pressure, a systematic dismantling of ISIL's capabilities, 
and by effectively expanding our regional partners' CT capacities.
    Our military campaign is having the desired effects. Iraqi security 
forces, to include Iraqi Army and Counter-Terrorism Services (CTS) 
forces, Kurdish Peshmerga, and tribal elements, with the support of 
United States and Coalition air operations, have halted ISIL's advance 
in Iraq. The enemy is now in a ``defensive crouch,'' and is unable to 
conduct major operations and seize additional territory. We can expect 
that ISIL will continue to conduct ineffective counter-attacks and 
leverage their information operations to amplify the significance of 
these attacks. However, they are unable to achieve decisive effects. 
The effort in Iraq continues to represent our main focus. The actions 
that we are taking now in Syria against ISIL are shaping the conditions 
in Iraq.
    Specifically, our precision air strikes are disrupting ISIL's 
command and control, attriting its forces and leadership, slowing the 
flow of reinforcements from Syria into Iraq, and interrupting the 
resourcing of their operations. The more than 2,600 total air strikes 
conducted in Iraq and Syria over the past several months have been 
extremely effective.
    Of course, the United States is not doing this alone. Our efforts 
are intended to enable the broader, `whole of government' approach that 
is currently underway among various departments and agencies in the 
United States Government. Equally important are the contributions being 
made by our Coalition partners. Indeed, the Coalition represents the 
strength and cohesion of our campaign. In particular, the active and 
public involvement of five Arab-led nations, specifically Saudi Arabia, 
Jordan, the United Arab Emirates, Bahrain, and Qatar, has greatly 
enhanced the fight and sends a clear message to ISIL and other VEOs 
that their actions will not be tolerated.
    Ultimately, the intent of our regional campaign is not simply to 
destroy ISIL, although that is a primary objective. Even more 
importantly, we want to do what we can to help change the conditions 
inside of Iraq and Syria so that what we see happening there now, does 
not happen again in the future. The key to doing so is enabling 
indigenous forces to defend their own borders and provide for the 
security of their sovereign territory. This is the goal of our advise 
and assist and build partner capacity efforts currently underway in 
Iraq, and soon in Syria. We are also working with the Government of 
Iraq (GoI) to train Sunni tribal elements. Equally important, we are 
providing, in coordination with the GoI, support for the Kurds who 
continue to play a significant role in the fight against ISIL.
    All that said, the effects of our military efforts will be short-
lived if the Iraqis do not effectively address their political 
problems. The crisis in Iraq will not be solved through military means 
alone. The Iraqis have a new government and Prime Minister Haider al-
Abadi has vowed to be more inclusive of the Sunnis and the Kurds and 
other minority groups. We are encouraged by the early steps he has 
taken to reach out to the Sunnis and Kurds and we are urging him to 
follow through on pledges made in the near-term. This is not a minor 
issue, as the government cannot succeed long-term without that support. 
National reconciliation is absolutely critical to the success of the 
counter-ISIL campaign.
    A key opportunity that exists amidst the challenges posed by ISIL 
is to create conditions that reduce ungoverned spaces and allow for 
inclusion, security, and good governance in both Iraq and Syria. We 
pursue this opportunity, in part, by training, advising, and assisting 
the Iraqi Security Forces, helping them to re-build their capacity, and 
restructuring them to ensure greater inclusiveness. With your support, 
we have also have established a program to train, equip and sustain 
elements of the Syrian moderate opposition. We anticipate that these 
forces will make important contributions toward degrading and defeating 
ISIL, and they also will help to guard against ungoverned spaces, 
protect local populations, and help to create the conditions for a 
negotiated political settlement to the conflict in Syria that leads to 
more responsible and responsive governance.
    Afghanistan (Operation Freedom's Sentinel). The engagement in 
Afghanistan remains a top priority. We conducted a successful 
transition from combat to stability operations, and we continue to help 
the Afghans to build and mature a capable and sustainable Afghan 
National Security Force (ANSF). Today, the ANSF consists of 
approximately 326,000 Afghans. They, not us, are in the lead for all 
security operations and they are managing to keep the levels of 
violence comparatively low across the country.
    It is also worth noting that the Afghan National Army (ANA) 
consistently ranks as the country's most respected institution. This 
popularity largely reflects the improved quality of life that many 
Afghans are experiencing now as the country becomes increasingly safer 
and more stable. In recent years, life expectancy rates for Afghans 
have improved and the infant mortality rate has declined. Opportunities 
for Afghan women also have expanded; women now represent one-quarter of 
the labor force and 28 percent of the National Parliament. And, 
education and literacy levels have increased. In 2001, 900,000 Afghans 
were enrolled in primary and secondary schools.
    Today, there are more than 8.0 million students enrolled in school; 
and, 39 percent of them are females. Unemployment or underemployment 
has also decreased from 50 percent to 35 percent. By almost all 
metrics, progress in Afghanistan has been significant over the past 13+ 
years. Numerous polls conducted in 2014 indicate that the Government of 
the Islamic Republic of Afghanistan (GIRoA) enjoys tremendous popular 
support. Polling reports have shown that more than 80 percent of 
Afghans believe their lives are improving. This is positive news; 
however, there is still much work to be done and the Afghans will need 
to continue to build upon the progress achieved thus far. They 
recognize this and clearly demonstrate their intent to do the right 
things going forward.
    The Afghans have the capability to provide for the security of 
their people and they demonstrate this on a daily basis. However, they 
do still need some help with sustainment; and, that includes resupply 
operations, particularly to remote or mountainous areas. They need help 
with fixed-wing and rotary-wing aviation; and also with intelligence, 
surveillance, and reconnaissance support. Additionally, due to the 
delay in government formation, some key leaders who will see the 
Afghans through the upcoming fighting seasons have only recently 
assumed their new positions. We will need to work closely with them to 
enable their success and aid them in building additional needed 
military capacity. We cannot afford for Afghanistan to once again 
become a safe haven for extremist groups. Increased instability and 
diminished security would not only affect Afghanistan, but also the 
Central Asia region as a whole.
    Of course, enduring stability in Afghanistan will not be achieved 
through military means alone. There must be a credible, reliable, and 
responsive government in place. Fortunately, after a challenging 
election, Afghanistan has begun to move forward politically under the 
National Unity Government led by President Ashraf Ghani and CEO 
Abdullah Abdullah. Both leaders share similar priorities and beliefs, 
and they have signaled a strong desire to see the government succeed. 
They also are actively countering corruption, which represents a 
principal inhibitor of GIRoA success. Theirs is not an easy 
undertaking; however, I do believe that they can be effective together.
    There is challenging work ahead for the government and people of 
Afghanistan. However, as I look at the country, I remain cautiously 
optimistic that developments will continue to trend in the right 
direction. We have been in Afghanistan for more than 13 years, 
representing the longest period of continuous conflict fought by our 
Nation's all-volunteer force. Together with our Afghan and Coalition 
partners, we have invested many lives and other precious resources with 
the goal of improving stability in that country, and we want to do all 
that we can to preserve those hard-earned gains.
    Amidst the challenges posed by the current situation in Afghanistan 
is the opportunity to foster a strong relationship between the United 
States and Afghanistan and with other partner nations in the Central 
and South Asia (CASA) sub-region. In particular, this would contribute 
to improved Afghanistan-Pakistan relations, which would allow for 
increased counter-terrorism cooperation in the region, along with 
possibilities for reconciliation. President Ghani, CEO Abdullah, and 
their new government have indicated their strong desire to work with us 
and to continue to strengthen our partnership in the coming days. 
Looking ahead, our intent is to maintain a close relationship with the 
Afghan government and military as we work together to preserve improved 
security and stability in the region. At the same time, while the size 
of our footprint will decrease in the coming years, our continued 
presence in Afghanistan will allow us to maintain much-needed pressure 
on al-Qaeda and other extremist groups.
    Countering Terrorism and Violent Extremist Organizations (VEO). As 
I travel around the region, I routinely hear from senior military 
leaders that they do not necessarily fear groups like ISIL's military 
prowess so much as they fear the groups' ideologies. These groups 
clearly demonstrate their ability to inspire extremist behavior and to 
recruit individuals in support of their causes.
    In recent years, VEOs have increasingly exploited ungoverned or 
under-governed spaces in USCENTCOM's AOR. The extremists' use of these 
areas threatens regional security, as well as U.S. core national 
interests. They are able to plan and launch attacks, undermine local 
governments, and exercise malign influence from these spaces. At the 
same time, VEOs and other militant proxies continue to exploit security 
vacuums in countries experiencing political transitions and unrest, 
namely Iraq and Syria, Yemen, Egypt, and Lebanon. Chronic instability, 
disenfranchised populations, and weak regional governments provide new 
footholds for a resilient and expanding global jihadist movement and an 
ideal environment for Iran and its allies to aggressively undermine 
United States regional goals.
    Of note, ISIL's rise as a competitor to al-Qaeda (AQ) has 
significantly impacted the jihadist landscape. The two groups are now 
competing for recruits, resources, and publicity. This will likely 
result in increased terrorist attacks in the near-term as ISIL, AQ, and 
other elements attempt to out-do one another.
    Meanwhile, the AQ movement is becoming more diffuse and 
decentralized as compared to pre-9/11. The risk of affiliates and 
allies operating in more areas and increasingly collaborating and 
coordinating with one another as a transnational loosely-confederated 
`syndicate' is cause for concern. The AQ ideology remains persuasive, 
attracting and radicalizing susceptible individuals in the region. 
Thus, it is critical that we maintain our vigilance in countering the 
group and its narrative.
    We must also continue to look for ways to effectively counter ISIL. 
As noted earlier, ISIL seeks to broaden its reach beyond Iraq and 
Syria, and will try to leverage regional instability to revive a 
caliphate stretching from Europe to North Africa to South Asia. ISIL 
has already received pledges of allegiance from smaller jihadist groups 
in Yemen, Egypt, Libya and Algeria, and they have inspired lone-wolf 
attacks in Algeria and the West.
    Other extremist groups have leveraged Syria's security vacuum, 
including the AQ-affiliated Al Nusrah Front (ANF). As the civil war in 
Syria continues, ANF will threaten neighboring states, particularly 
Israel and Lebanon, where the group has launched anti-Hezbollah 
attacks. The ongoing Syrian conflict has also created a safe haven for 
the Khorasan Group, a network of veteran AQ operatives, providing them 
with territory to plot and train for attacks against the West and the 
United States homeland.
    The Iraq-Syria area of operations is the premier destination for 
jihadist foreign fighters, with over 15,000 coming from around the 
globe, and particularly Africa, Europe, Asia, and North America. The 
majority of these fighters are joining ISIL's ranks, although some have 
joined ANF and other Syrian opposition groups. As these conflicts carry 
on, returning battle-hardened foreign fighters will pose increasing 
risk to their home countries, including the United States. We must 
sustain our active measures to address this growing threat.
    An important opportunity that exists in the Central Region is to 
limit the overall reach and effectiveness of VEOs, while also reducing 
the amount of ungoverned or under-governed space in which these groups 
typically operate. To do so, many of our partners acknowledge the need 
to counter radical extremists' ideologies, in part by helping to 
amplify the voice of moderates in the region. They also recognize the 
need to limit access to ungoverned and under-governed spaces; thereby 
diminishing the reach and effectiveness of violent extremists operating 
in the region. By setting the right conditions and helping to promote 
the efforts of moderate and influential regional leaders, we may 
achieve significant and lasting improvements. And, these improvements 
are likely to have pervasive positive effects on the global security 
environment.
    Iran. Iran represents the most significant threat to the Central 
Region. Our diplomats have been hard at work, trying to reach an 
agreement with Iran with respect to its nuclear program. The most 
recent extension allows for continued negotiations through 1 July 2015. 
While we remain hopeful that the two sides will eventually reach an 
acceptable deal, it is presently unclear how things will play out. We 
have to be prepared for what comes next. We will be prepared.
    In the meantime, we remain very concerned about Iran's behavior in 
other areas. Iran continues to pursue policies that threaten United 
States strategic interests and goals throughout the Middle East. In 
addition to its nuclear program, Iran has a significant cyber 
capability, as well as the largest and most diverse ballistic missile 
arsenal in the Middle East. With ranges up to 82,000 km, Iran is able 
to strike targets throughout the region with increasing precision using 
creatively adapted foreign technologies to improve its missile arsenal. 
It also has increased its anti-access area-denial air defense 
capabilities. Iran is improving its counter-maritime capabilities 
(e.g., mines, small boats, cruise missiles, submarines), which serve to 
threaten the flow of global commerce in the Strait of Hormuz. Perhaps 
most concerning, Iran routinely engages in malign activity through the 
Iranian Threat Network (ITN) consisting of the Islamic Revolutionary 
Guards Corps-Qods Force, the Ministry of Intelligence and Security, and 
its surrogates, businesses, and logistics support. Iran also engages in 
malign activity through support to proxy actors such as Lebanese 
Hezbollah and Hamas which threatens the sovereignty and security of 
Israel.
    During the past year, the ITN primarily focused on Sunni groups in 
the Iraq and Syria-based conflict (including the moderate opposition in 
Syria) by bolstering the Syrian and Iraqi governments and overseeing 
engagements involving its own militant forces. Iran also maintains the 
ability to expand the scope of its activities. This is troubling as 
Iranian malign influence is enflaming sectarian tensions that are all 
too often exploited by violent extremist elements in the region. 
Needless to say, our relationship with Iran remains a challenging one. 
We will continue to pay close attention to their actions, and we will 
remain steadfast with our regional partners and do what we can to help 
improve their capacity to counter Iran and mitigate the effects of 
their malign activity.
    One of the key opportunities that exist with respect to Iran is the 
prospect of an acceptable agreement regarding Iran's nuclear program. 
If the P5+1 are able to reach a long-term resolution, that would 
represent a step in the right direction and may present an 
unprecedented opportunity for positive change in the Central Region.
    A Regional Perspective. In many ways our military-to-military 
relationships continue to represent the cornerstone of America's 
partnerships with the nation states in the USCENTCOM AOR. Below are 
synopses of the status of those relationships, along with the current 
state of affairs in each of the 20 countries, minus Afghanistan, Iraq 
and Syria, and Iran which were addressed in the previous section, 
``Critical Focus Areas'' (see pages 8-21):
    The Gulf States--The Gulf States have proven to be valuable 
Coalition partners, engaging in and supporting offensive operations 
against ISIL and providing the indispensable access, basing and 
overflight privileges that are critical to the conduct of operations in 
the region. In recent months, we have seen some improvement in 
relations between and among the Kingdom of Saudi Arabia, the United 
Arab Emirates, Bahrain, and Qatar after a period of increased tensions. 
A convergence of interests, namely the need to counter the increasing 
threat posed by ISIL and other violent extremists groups, has afforded 
a unique opportunity to strengthen the Coalition and also contribute to 
improving stability and security in the broader Middle East region. In 
many ways, ISIL's expansion in Iraq has forced the Gulf States to take 
more seriously the threat posed by ISIL and other violent extremist 
groups. As a result, they have begun to take a more proactive approach 
to countering extremist financing and foreign fighter facilitation. 
They must maintain their focus and continue to make much-needed 
progress in these areas. At the same time, we are strengthening our 
partners' military capacity as part of a collective security 
architecture designed to deter and, where necessary, counter Iranian 
hegemonic ambitions. Going forward, we will play a key role in making 
sure that our partners remain united on common interests and security 
challenges.
    In late January of this year, the Kingdom of Saudi Arabia (KSA) saw 
a smooth transition of power, as King Salman bin Abdulaziz ascended to 
the throne after the death of his brother, King Abdullah. King Salman 
comes to power during a very challenging period. The threat from ISIL, 
particularly along Saudi's northern border, and from al-Qaeda in the 
Arabian Peninsula (AQAP) and the Huthis in the south, has led KSA to 
take a more proactive role in safeguarding the Kingdom's interests in 
the region. In particular, KSA's prominent role in the campaign against 
ISIL, to include its participation in air operations in Syria and in 
support of the Syria Train & Equip program, has paved the way for other 
Arab nations to join the Coalition efforts to counter ISIL. Recognizing 
the need for enhanced maritime security in the Gulf, the Saudis assumed 
command of the Gulf Maritime Security Task Force for the first time 
this year. Their leadership is critically important in demonstrating 
the cohesion of the Combined Maritime Forces generally and the Gulf 
Cooperation Council (GCC) nations in particular. Of note, the Saudis 
have taken a lead role in reconciling the Gulf States. Looking ahead, 
our continued support of advanced Saudi defense competencies and 
further improvements in United States-Saudi military interoperability 
are expected to yield positive impacts, which will in turn contribute 
to greater stability in the region and beyond.
    Kuwait remains a long-time partner and strong and reliable ally in 
the region, providing critical support for United States and Coalition 
troops, vehicles, and equipment deployed in support of Operation 
Inherent Resolve. In addition to providing a permissive environment for 
our deployed forces in the USCENTCOM AOR, Kuwait plays a significant 
role in the retrograde of equipment from Afghanistan. They also 
continue to provide critical basing and access for U.S. forces and 
capabilities needed to address future contingencies. The Kuwaitis are 
committed to advancing regional cooperative defense efforts as 
evidenced by their role as a key interlocutor between Qatar, Saudi 
Arabia, UAE, and Bahrain in response to recent tensions, as well as the 
extensive preparation they have done to host the Eagle Resolve multi-
national training exercise in the spring of 2015. The Kuwaitis also 
have made significant progress towards reconciling the sub-region's 
long-standing issues with Iraq, leading Gulf Arab diplomatic outreach 
efforts with the Government of Iraq. The Kuwaitis remain committed to 
accommodating all segments of their population to preserve internal 
stability, particularly Sunnis and Shia; and, this has made them 
typically measured in their support for Gulf Arab regional initiatives. 
Overall, Kuwait continues to provide critical support to the United 
States and partner nations while managing these internal political 
challenges.
    Our military-to-military relationship with the United Arab Emirates 
(UAE) continues along its historically positive trajectory. UAE's 
growing concerns regarding the spread of extremist ideologies and the 
threat that they pose to UAE's internal security and regional stability 
prompted the Emirates to take an active role in the counter-ISIL 
campaign. They continue to demonstrate their value as a strategic 
partner by proactively addressing some of the region's toughest 
problems. Their military capability is arguably the best among the GCC 
states. UAE's is also the most expeditionary military, deploying forces 
in support of operations in Afghanistan and Syria. In addition to their 
participation in the ongoing air operations in Syria, UAE also has 
offered to send forces and personnel to support the military advise and 
assist mission and one of the four training sites in Iraq. Of note, the 
Emirates have a much broader definition of extremism and they want to 
expand the counter-ISIL military campaign to include a wide range of 
groups they perceive as extremist, from Islamist political groups to 
Salafi jihadist groups. Going forward, we will look to further 
strengthen our security cooperation partnership with UAE through 
continued engagement and through our FMS program.
    Qatar remains one of our most stalwart partners in the Gulf, 
hosting three of our forward headquarters (USCENTCOM, U.S. Air Forces 
Central Command, Special Operations Command Central) and facilities and 
providing us with unimpeded access to the region. The Qataris were 
among the first to offer a site for the Syria Train & Equip program, 
along with a place to host the now-established Combined Joint Inter-
Agency Task Force (CJIATF) headquarters. Qatar also continues to play 
an active role in the counter-ISIL campaign. Unlike KSA, Bahrain, and 
especially UAE, Qatar makes a distinction between Salafi jihadist and 
political Islamist groups, which creates a challenge in terms of how we 
approach countering extremist groups in the
    region. That said, the Qataris' relationships with a wide range of 
groups, including more moderate elements, could present potential 
opportunities.
    During the past 12 months, the Qatari Armed Forces have concluded 
extensive FMS equipment purchases and submitted additional requests. 
All told, 2014 saw the Qataris allocate billions of dollars to arm 
their forces with cutting edge American weaponry. This show of renewed 
and expanding cooperation with the U.S. defense industry clearly 
reflects the Qataris' drive for greater military interoperability with 
the United States. Future collaboration with Qatar may see the genesis 
of a partner force that reflects the United States in organization, 
arms, and training. We have a long history of cooperation with Bahrain, 
to include hosting the headquarters of the United States Fifth Fleet 
and Combined Maritime Forces in Manama. Amidst boycotting by opposition 
members, the Bahraini government held elections in November and 
December of 2014, which resulted in additional Shia representation. 
However, there is still significant distrust between the Shia majority 
and Sunni-led government. The government perceives a direct threat from 
Shia opposition groups, which it believes are deliberately de-
stabilizing the country by attacking the security forces and 
undermining the economy. The government believes these same Shia 
opposition groups are influenced and supported by Iran, and that Iran 
intends to eventually overthrow or supplant it with a Shia government.
    Bahrain has been a strong member of the Coalition to counter-ISIL, 
participating in the initial air strikes into Syria in September of 
2014. However, the historically strong relationship between the United 
States and Bahrain is showing significant strain as the United States 
FMS-hold carries into its third full year. Despite this political 
challenge, Bahrain continues to pursue the re-supply of munitions for 
some of its aviation systems, and it remains firm in its support for 
United States assets at Naval Support Activity Bahrain.
    Oman continues to thrive as a moderate and peaceful interlocutor to 
all equity holders in the Arabian Gulf. Exercising a publically-
declared non-interventionist foreign policy, the Sultanate maintains a 
pragmatic relationship with both Iran and the United States. From our 
perspective, cooperation between Oman and the United States remains 
close with Oman providing regional access through the use of air and 
sea ports and also freedom of navigation along the Strait of Hormuz. We 
value the stability and predictability that Oman provides and will 
strive to maintain our close relationship with the Sultanate. In the 
meantime, the Omanis are understandably concerned about the 
deteriorating situation in Yemen. Of note, the Omanis maintain 
relationships with Iran and all of Yemen's competing factions, 
including the Huthis. The Omanis are playing a constructive role in 
helping to manage the volatile situation in Yemen. We will continue to 
do what we can to support their efforts and to expand our collaboration 
to improve Oman's border control, counter-terrorism, and maritime 
security capacity.
    Yemen's long-term outlook is uncertain based on multiple converging 
drivers of instability. The Huthi takeover of the government and 
President Hadi's subsequent resignation created a political power 
vacuum and reenergized historical north/south tensions. Competing 
factions, including the Huthis, former-President Saleh loyalists, the 
Islamist Islah Party, and possibly other groups likely see this as an 
opportunity to assert control over the long-term. Meanwhile, Hadi moved 
south, rescinded his resignation, and indicated that he intends to 
govern from Aden. For now, the Huthis have solidified their position as 
the dominant force in the capital (Sanaa) and northern governorates, 
controlling all governance and security mechanisms. UN-sponsored 
negotiations over forming some type of transition government are 
ongoing, but Yemen's multiple competing factions will make political 
resolution very difficult to achieve. It is unclear if the southerners 
will simply deny Sanaa's authority or unite and declare independence in 
the near-term, although there are obvious signs of southern opposition 
to Huthi rule. Southern leaders are likely waiting to see how the 
situation develops, including the military's response and external 
actors' willingness to provide them with support. Additionally, 
Southern military commanders have indicated that they do not intend to 
take orders from Sanaa.
    Yemen's economy has been in a steady state of deterioration for 
some time. Declining oil revenues and cuts to foreign assistance have 
contributed to a fiscal crisis. Meanwhile, rampant unemployment further 
exacerbates Yemen's problems, including making large segments of the 
population susceptible to radicalization.
    The lack of central government leadership coupled with Huthi 
expansion [and the evacuation of all U.S. personnel in February 2015 
have made it exceedingly difficult for us to [conduct partnered or 
unilateral CT operations against AQAP. The Yemeni government has 
generally curtailed its CT operations, and this has allowed AQAP to 
regain some of its former territory and increase operations against 
government and security forces. While some of AQAP's combat power may 
be preoccupied with the Huthi incursion, their external operations 
cells remain active, especially in the south. We must figure out how to 
maintain our CT platform in Yemen in order to counter the threat from 
AQAP. Also concerning is the influence that Iran has with the Huthis, 
and the particular threat that poses to Saudi Arabia's southern border. 
Additionally, Huthi control of Yemen's Hudaydah Port gives them, and 
potentially Iran, direct influence over maritime traffic through the 
Red Sea, which presents a significant vulnerability in terms of the 
protection of core U.S. national and global economic interests.
    The Levant--The greater Levant sub-region is struggling to deal 
with a number of challenges, to include the increasing divide between 
ethno-sectarian groups, the growing threat posed by ISIL, Al Nusrah 
Front (ANF) and other violent extremist elements, a growing refugee 
crisis, and the ongoing civil war in Syria which has now entered into 
its fourth year. These various crises are straining nation states' 
economies and worsening the overall security situation. There is also 
the risk that they will expand further into neighboring areas. We 
remain highly concerned and continue to do all that we can to assist 
our partners in the Levant sub-region in their efforts to effectively 
deal with these and other challenges.
    The leadership and people of Lebanon continue to demonstrate 
remarkable resilience in the face of continued social, military, and 
political challenges. This resilience largely reflects the improved 
performance of the multi-confessional Lebanese Armed Forces (LAF), 
which is the most respected institution in the country. That said, 
Lebanon is challenged by increasing incidents of sectarian violence and 
terrorist attacks by ISIL and ANF. Thus, our continued support for the 
LAF's CT operations is critical to ongoing efforts to insulate Lebanon 
from the conflict in Syria and Iraq. This situation is further 
exacerbated by a variety of contributing factors, including Lebanese 
Hezbollah's (LH) involvement in the Syria conflict, the influx of more 
than one million refugees from Syria, and the presidential vacancy that 
has remained unfilled since May 2014. In particular, the absence of a 
president has put Lebanon's stability at greater risk. It is also 
breaking down the country's fragile power-sharing consensus.
    There is a perception among some Sunnis that the LAF and the 
Lebanese government favor Shia. Many also believe that the LAF has 
acquiesced to LH and is unfairly targeting Sunnis. This has led to 
increasing sectarian violence in traditionally Sunni areas like Arsal 
and Tripoli. The growing unrest makes the Sunnis susceptible to 
extremist messaging by ISIL and other violent extremist elements. The 
LAF is doing a credible job of managing the current levels of violence 
inside of the country, in an effort to protect the interests of the 
Lebanese people. However, this could change if ISIL's narrative begins 
to resonate with Lebanese Sunnis. ISIL, ANF, and other violent 
extremist elements are attempting to establish footholds in Lebanon, 
most notably in the border area adjacent to Syria. Needless to say, the 
situation in Lebanon remains a very delicate one, and we will remain 
focused on this important country.
    Jordan remains a steadfast partner in the Central Region and the 
Jordanian Armed Forces (JAF) are among our strongest military partners. 
The country's civil and military leadership continue to provide a 
positive example of professionalism and moderation. That said, Jordan 
does have a large Palestinian and refugee population vulnerable to 
extremist messaging and influence. This challenge is further 
exacerbated by a weakened economy and limited economic opportunity in 
the country.
    The Jordanians fought alongside United States forces in Afghanistan 
and are currently flying combat sorties as part of the counter-ISIL 
Coalition. The Jordanians also continue to provide critical basing 
support for OIR missions. Our thoughts and prayers remain with the 
family of the JAF pilot murdered by ISIL. This horrendous crime will 
only serve to reinforce Coalition unity and resolve. It prompted a 
significant increase in public support for the counter-ISIL campaign 
among the Jordanian populace, which before was generally ambivalent 
and, to some degree, even opposed to military involvement in the 
current fight. At the request of the Jordanian government, we recently 
conducted an assessment of the JAF and found several areas where we 
could assist in increasing their military capacity and improving their 
interoperability. We are also working to expedite the delivery of their 
urgent FMS request to enable their continued active support of the 
counter-ISIL campaign.
    Meanwhile, we are doing all that we can to help Jordan to deal with 
its significant refugee crisis. The refugee population (=600K) has 
placed an enormous strain on the economy and on host communities. While 
the Jordanians are to be commended for the professional and 
compassionate manner in which they are handling this tough challenge, 
the reality is that, even with international assistance, the Jordanians 
are struggling to cope with the impacts. Our goal is to help ease the 
burden on the nation's economy and infrastructure, while doing what we 
can to further enhance stability and security in the country.
    Egypt remains an anchor state in the USCENTCOM area of 
responsibility. It is important for a number of reasons, to include the 
country's geographic location, its enduring peace treaty with Israel, 
its oversight of the Suez Canal, and its cultural and religious 
influence across the region and the globe.
    Egypt continues to deal with the effects of an improving, yet weak 
economy, damaged by years of political instability and escalated 
terrorist violence. President al-Sisi and the government are attempting 
to strike a balance between promoting representative government and 
countering what they perceive as a subversive form of political Islam 
and violent extremism that they maintain has found voice through the 
Muslim Brotherhood. The Egyptians believe that political Islam is bound 
tightly to the violent extremist activity they are witnessing in the 
Sinai and across mainland Egypt, into neighboring Libya. Our thoughts 
and prayers are with the families of the 21 Coptic Christians brutally 
murdered by ISIL last month in Libya.
    Our strategic partnership with Egypt remains highly important and 
our military-to-military relationship represents a key pillar of that 
partnership. We have been very encouraged to see progress made by the 
Egyptians with respect to the current holds on FMF and FMS. We continue 
to work closely with Egypt's Armed Forces (EAF) to improve the security 
of their borders, including the Sinai, and to stop the flow of fighters 
and equipment transiting from Libya and Sudan through Egypt into the 
Central Region. We need to support the EAF's efforts to secure the 
Sinai so that it does not become an under-governed safe haven for 
extremist elements. At the same time, we continue to look for ways to 
integrate Egypt into the counter-ISIL Coalition and our broader 
regional counter-terrorism campaign.
    Central and South Asia (CASA)--The CASA sub-region is adjusting to 
the shrinking United States and international military presence in 
Afghanistan. The United States is now conducting train and advise (TAA) 
and counter-terrorism missions in Afghanistan, as we normalize our 
military-to-military relationship. This change has altered the 
strategic calculus of CASA state and non-state actors as they look to 
position themselves to protect their own interests in the event that 
the Afghan government cannot maintain internal stability. A primary 
driver of these hedging strategies, uncertainty about the United States 
commitment to Afghanistan post-2014, so far has been countered by 
Afghan President Ashraf Ghani's support for a continued partnership 
with the United States and the international community at large, mainly 
through his overwhelming support of the NATO Resolute Support TAA 
mission. Of note, Russia also exerts significant influence in Central 
Asia through economic, military, and informational means to undermine 
the sovereignty and independence of the Central Asian states. Russia's 
actions in the Ukraine have placed additional pressure on the former 
Soviet republics in Central Asia, and this in turn has generated 
additional challenges for our military-to-military relationships.
    At the same time, the CASA sub-region remains an important focus 
for increased partnerships with the U.S. In particular, concerns 
regarding border security and the threat from extremist elements have 
prompted a shared desire for greater cooperation. Going forward, we 
will look for ways to strengthen our military-to-military partnerships 
in support of CT, CN, and security assistance efforts.
    Violent extremist organizations, to include the remnants of core 
al-Qaeda (AQ), continue to operate in Pakistan's Federally Administered 
Tribal Areas (FATA) and, to a lesser extent, parts of eastern 
Afghanistan. These groups threaten regional stability, plan attacks 
against the U.S. and partner interests, and pursue weapons of mass 
destruction (WMD). Of note, the Taliban insurgency continues to present 
a credible threat to the Afghan government. Tension between Pakistan 
and India also continue to threaten regional stability and largely 
drives Pakistan's regional strategy, especially as it relates to 
Afghanistan. Our drawdown from Afghanistan has created an opportunity 
to normalize our relationships with Pakistan and Afghanistan, and this 
may, in turn, encourage the two countries to find common ground in 
countering the VEOs operating in their border region. We are working to 
identify and facilitate implementation of confidence-and trust-building 
measures between Pakistan and Afghanistan to further reduce border 
tensions and increase military cooperation.
    Our desired end-state is a stable sub-region characterized by a low 
risk of conventional or nuclear war, with regional states committed to 
non-interference with respect to their neighbors' internal affairs, the 
denial of sanctuary for VEOs, and the non-proliferation of WMD. We will 
maintain a unilateral capacity to conduct CT operations against high-
value targets and groups in the region that pose a threat to the U.S. 
or our core national interests. To prevent future conflicts, we will 
also work to improve military-to-military relationships by facilitating 
more frequent contact between and among the region's military 
leadership. This includes moving from bilateral to multi-lateral 
exercises and encouraging multilateral training and operations.
    We have made substantial progress in our efforts to strengthen 
cooperation with Pakistan over the past year. We are encouraged by the 
leaderships' commitment to counter-insurgency operations in the FATA 
and openness to improve relations with Afghanistan. However, Pakistan 
continues to face a number of political, economic, and security 
challenges that threaten to undermine the long-term stability of the 
state. Violent extremists operating in the country exploit these 
conditions for their own purposes. This is hindering the security 
forces' ability to protect the population from terrorist attacks and 
prevent extremists from exporting violence across the region.
    The United States-Pakistan military-to-military relationship 
continues to improve. Key contributing factors are our FMF, 
international military education and training, and the Coalition 
Support Fund. In December 2014, we addressed respective expectations 
for the scope and scale of our future military-to-military engagements. 
We also prioritized our security cooperation at the Defense 
Consultative Group Conference with the goal to help Pakistan to build 
additional capacity in support of their counter-insurgency and CT 
operations and other common objectives.
    The Pakistani military's recent operations to clear militant 
strongholds in North Waziristan and other FATA regions and to prevent 
the militants' return have achieved near-term successes. However, 
Pakistan will likely continue to face the threat of VEOs for the 
foreseeable future. Nevertheless, more positive rhetoric on Afghan-
Pakistan relations from Pakistan's Prime Minister Nawaz Sharif and 
Chief of Army Staff General Raheel Sharif, combined with Afghan 
President Ghani's expressed desire for better relations, may foretell 
an effort by both sides to develop a more common view of the threat of 
VEOs operating in the border region. Of note, in response to the 
tragedy at the Army Public School and College in Peshawar in December 
of 2014, the leaders of both countries have demonstrated a desire to 
improve their cooperation going forward. This is encouraging and 
represents progress; and, USCENTCOM will continue to do our part to 
help strengthen and ultimately solidify this important relationship.
    The United States military relationship with Uzbekistan has 
strengthened considerably over the past year with implementation of the 
first year of the five-year Plan for Military and Military Technical 
Cooperation. Mutual interests related to improving border security, CT, 
counter-narcotics, and countering the return of Uzbek fighters from 
Afghanistan, Syria and Iraq, underpin our relationship. The provision 
of Mine-Resistant Ambush Protected (MRAP) vehicles through the Excess 
Defense Articles program improved protection provided to Uzbek security 
forces. And, expanded U.S. Special Forces training will further improve 
the Uzbek military's capacity to meet security challenges. Uzbekistan 
remains committed to ensuring regional stability via continued support 
for our operations in Afghanistan by providing access to the Northern 
Distribution Network (NDN). It also provides electricity to northern 
Afghanistan. As with other countries in Central Asia, Uzbekistan 
continues to prefer bilateral vice multi-lateral military 
relationships.
    Our relationship with Tajikistan is advancing steadily in spite of 
significant Ministry of Defense leadership changes and growing security 
concerns. We continue to assist the Tajiks in developing the capacity 
to meet a variety of CT, CN, and border security challenges, while also 
supporting their development of a peacekeeping capability. Tajikistan 
provides critical support to ongoing Afghanistan operations by allowing 
transit along the NDN. That said, the Tajiks are concerned about the 
near- and long-term effects of the Afghanistan transition on regional 
security and stability.
    The Kyrgyz Republic faces many of the same or similar security 
challenges as its neighbors, particularly with respect to the threat 
posed by violent extremist elements operating in the region. Bilateral 
and multi-lateral engagements in the areas of CT, CN, and border 
security continue on a case-by-case basis. Our military-to-military 
relationship with the Kyrgyz has been positive. We are assisting them 
with their development of an explosive ordnance disposal capability. We 
look forward to full resumption of security cooperation activities, 
pending the successful outcome of ongoing negotiations for a 
replacement of the Defense Cooperation Agreement that expired in July 
of 2014.
    Our relationship with Kazakhstan is one of the most well developed 
in the Central Asia sub-region. The Ministry of Defense continues its 
transformation from a traditional Soviet-style territorial defense role 
into a more modern, adaptable force capable of meeting multiple, 
diverse security threats. Furthermore, the Kazaks have proactively 
sought our assistance in improving their training, personnel 
management, and logistics capabilities. Kazakhstan remains the largest 
contributor among the Central Asian states to Afghan stability, 
providing technical and financial support to the ANSF and educational 
opportunities in Kazakhstan for young Afghans. We continue to leverage 
Steppe Eagle, the annual multinational peacekeeping exercise co-
sponsored by the United States and Kazakhstan, to improve peacekeeping 
capabilities and to foster regional integration.
    Turkmenistan's humanitarian assistance to Afghanistan and efforts 
to increase regional economic integration are important to enhancing 
stability in the Central Asia sub-region. However, Turkmenistan's 
declared policy of positive neutrality limits our opportunities for 
substantive military-to-military collaboration. Engagements in the 
areas of Caspian Sea security, disaster preparedness, medical services 
readiness, and professional military education continue; however, they 
are limited. The Turkmens recently expressed a desire to acquire United 
States military equipment and technology to address threats to their 
security along their southern border with Afghanistan. We will do what 
we can to support those requests.
    Our Strategic Approach. Our ability to effectively employ our 
``Manage-Prevent-Shape'' strategic approach is largely dependent upon 
the capacity and readiness of our forward-deployed military forces and 
Service prepositioned materiel capabilities, working in concert with 
other elements of U.S. power and influence. Equally important are our 
efforts aimed at building our regional partners' capacity and 
strengthening our bilateral and multilateral relationships. This is 
achieved principally through key leader engagements and our training 
and joint exercise programs.
    Building Partner Capacity (BPC). To improve stability in the 
USCENTCOM AOR and to lessen the need for costly U.S. military 
intervention, we must be forward-leaning and empower our partners to 
meet internal security challenges and work collectively to counter 
common threats. When compared to periods of sustained conflict, BPC is 
a low-cost and high-return investment. This is especially important in 
today's resource-constrained environment. Joint training exercises, key 
leader engagements, and FMS and FMF programs continue to represent the 
key pillars of our BPC strategy. Also critical are relevant authorities 
and programs noted in the FY16 President's Budget (PB), namely the 
Global Train and Equip authority, Counter Terrorism Partnerships Fund, 
and Section 1208 programs. Tangible by-products of our BPC efforts 
include increased access and influence, enhanced interoperability, and 
improved security for our forward deployed forces, diplomatic sites, 
and other U.S. interests. Working ``by, with, and through'' our 
regional partners also serves to enhance the legitimacy and durability 
of our actions and presence in the region. In the event some type of 
U.S. involvement is required, having strong partners allows for 
increased burden sharing and improves the likelihood of success.
    Joint Exercise and Training Program. The USCENTCOM Joint Exercise 
and Training Program continues to grow in complexity and relevance with 
extended participation throughout the USCENTCOM AOR during FY2014 and 
into the 1st Quarter of FY2015. All five Component Commands developed 
or continued to execute a robust exercise program across the complete 
broad spectrum of USCENTCOM Theater Security Cooperation Objectives.
    Over the past year, USCENTCOM conducted 45 bilateral and multi-
lateral exercises. Key among them was the Eager Lion 14 exercise, which 
was hosted by Jordan and included naval, air, and land components from 
14 different countries operating at 14 locations and totaling over 
4,000 personnel from our partner nations and some 4,500 U.S. military 
and civilian support members. The International Mine Countermeasures 
Exercise 15, executed in late 2014, took place over 8,000 square miles 
of navigable waterway and united some 43 nations, including over 7,000 
global military service members and over 40 naval vessels and numerous 
other warfighting assets in defense of the region's maritime commons. 
All of the exercises had tangible and measurable impacts in terms of 
advancing our national security objectives, demonstrating mutual 
commitment to regional security, promoting combined command, control, 
and communications, and enhancing interoperability. The ability of the 
counter-ISIL Coalition to conduct very effective, unrehearsed short-
notice strike operations in Iraq and Syria in support of Operation 
Inherent Resolve is clear evidence of the impact of this vibrant 
exercise program.
    Required Capabilities. In order to effectively protect and promote 
U.S. and partner nation interests in the region, USCENTCOM must 
maintain a strong presence and be adequately resourced and supported 
with the necessary posture-forces, equipment, and enablers. Our 
required capabilities include:
    Forces and Equipment. Forward-deployed rotational joint forces that 
include fighter and airlift assets, surveillance platforms, ballistic 
missile defense assets, naval vessels, ground forces, and cyber teams 
that are trained, equipped, mission-capable and ready to respond 
quickly are indispensable to protecting our core interests and 
supporting and reassuring our partners in the region. A capable force 
presence forward deployed and enabled by a flexible and distributed 
footprint with assured access is also required. This ready and capable 
joint presence can prevent conflict through deterrence, manage crisis 
escalation through early intervention, and allows for a broader set of 
response options for consideration by national authorities, in addition 
to rapid response to crises to quickly achieve stated objectives. We 
will continue to work with the Department of Defense to determine a 
sustainable, flexible long-term posture that provides us with the 
presence, access and partnerships we need for enduring missions and 
activities in the USCENTCOM AOR.
    USCENTCOM requires continued regeneration, reset, and modernization 
of designated Service prepositioned equipment capability sets. The 
Services preposition equipment and materiel capabilities as capability 
sets in support of deploying forces, to provide national leadership the 
necessary capability and flexibility to respond to a diverse set of 
crisis scenarios, to include preventing disruptions to trade and 
security that could have disastrous impacts on the global economy, and 
the ability to rapidly provide disaster relief support. The Services 
aggressively reconstitute and regenerate sustainment stocks depleted 
over the course of a decade-plus of major combat operations; however, 
equipment shortfalls continue to impact indirect fire, sustainment, and 
troop support capabilities. Shortcomings are largely the result of 
budget cuts that were directed by the Budget Control Act. Service 
prepositioned sets previously issued by each of the Services over the 
course of contingency operations require appropriate reset and 
reconstitution in order to posture the command for future contingency 
operations.
    Information Operations (IO). Information Operations (IO) remains a 
top priority. Our investments in IO thus far have made it USCENTCOM's 
most cost-effective method and the top non-lethal tool for disrupting 
extremist activities across the Central Region. We have an enduring 
responsibility to counter this asymmetric threat and recognize IO will 
endure beyond major combat and counter-insurgency operations. As ISIL 
has clearly demonstrated in Iraq and Syria, VEOs continue to expand and 
increase their speed and effectiveness in the information environment 
which directly impacts USCENTCOM's mission effectiveness. Our military 
information support operations (MISO) programs serve as the model for 
the Department and require baseline funding to allow for sustainment 
and Department-wide expansion. Our IO efforts are synchronized and 
carefully nested in support of a broader `whole of government' approach 
to countering the extremist threat.
    Integrated Air and Missile Defense (IAMD). Integrated Air and 
Missile Defense is increasingly important to us and our regional 
partners as threat technology improves and systems become more 
flexible, mobile, survivable, reliable and accurate. Today, the global 
demand for ballistic missile defense capabilities far exceeds supply. 
In particular, there is a need for additional upper- and lower-tier 
interceptors and surveillance and warning systems. The ability to 
conduct early detection, identification, and engagement of possible 
threats is essential. Thus, active measures will need to be taken to 
address this capability shortage. Providing IAMD protection to deployed 
U.S. forces and our critical infrastructure is crucial to mission 
success and provides a visible deterrence to regional aggression. 
Moreover, it signals U.S. commitment to regional partners and provides 
flexibility to respond to regional contingencies. Our bases in the 
USCENTCOM AOR will increasingly be at risk to the ballistic missile 
threat if we continue along the current trajectory.
    Intelligence, Surveillance, Reconnaissance (ISR) Assets. 
Intelligence, surveillance, and reconnaissance support continues to be 
challenged by supply-versus-demand limitations. Due to our counter-ISIL 
operations, demand for ISR increased substantially, along with the need 
to maintain a persistent eye on strategic risks and possible threats to 
U.S. national security interests. Collection in anti-access/area denial 
environments continues to present a tough challenge. As evidenced by 
recent events in Iraq and Syria, USCENTCOM's need for ISR and 
collection platforms does not end once named operations cease. On the 
contrary, our demand for multi-discipline, low-observable ISR with 
strike capability that can operate in adverse weather conditions and 
non-permissive environments is increasing. If we do not meet the 
requirements, we can expect that our information dominance, situational 
awareness, and security posture will diminish accordingly. As we reduce 
our footprint in Afghanistan, it is imperative that our intelligence 
collection capabilities be constant and robust to support our forces on 
the ground. Likewise, with respect to Iraq and Syria, there is also a 
need for a robust ISR capability to develop and maintain situational 
awareness of the security environment, particularly in denied and 
ungoverned spaces and in the absence of a large U.S. ground presence. 
And, while we are looking to our coalition partners to help fill some 
of the ISR demand, shortages do remain that will need to be addressed.
    Ascertaining malign actor intentions and capabilities remains a 
challenge. Full-motion video (FMV) has become fundamental to almost all 
battlefield maneuvers, adversary detection, terrorist pattern of life 
development, force protection operations, and a myriad of other 
applications. We use FMV to buy down operational risk and to improve 
visibility of the security environments where our forces are required 
to operate. Full-motion video remains critical to our success; 
although, we certainly recognize that we cannot rely on FMV for every 
situation. Human intelligence, satellite, other airborne assets, and 
other special collection capabilities also remain integral to solving 
many of our problem sets.
    Cyber Security. USCENTCOM must be effectively postured and have 
sufficient capability to counter the growing cyber threat that the 
United States and our regional partners now face. Maintaining an 
effective cyber defense requires the collective efforts of partners who 
share a common vision and are mutually committed.
    Looking ahead, we will need to aggressively improve our cyber 
posture to mitigate advanced persistent threats to our network and 
critical information. As the cyber community matures, we will plan, 
integrate, synchronize, and conduct cyber operations in cooperation 
with other USG agencies and partner nations. USCENTCOM's cyber 
activities necessitate the active pursuit of key requirements, 
resourcing, training, as well as the build out of our cyber forces and 
the acquisition of needed cyber capabilities. This requires a multi-
disciplined approach to address a diverse and changing threat, adequate 
resourcing, and a command and control model aligned to the operational 
chain of command in order to readily receive and synchronize orders and 
execute cyber operations.
    At the same time, we continue to support our regional partners in 
building their capacity and expertise in the cyber domain. This partner 
capacity is essential in the cyber domain, as the global economy relies 
in part on key resources that reside across the Central Region. With 
Congress' backing, we will continue to focus on cyber defense and cyber 
security cooperation as key components of our theater strategy.
    Required Authorities and Resources. The realities of the current 
fiscal environment continue to impact USCENTCOM headquarters (HQs), our 
five component commands, established combined/joint task forces, and 18 
country teams. Persistent fiscal uncertainty hinders efficient and 
timely implementation of operational, logistical, tactical, and 
strategic milestones and objectives. We request your help in addressing 
the budget uncertainty caused by the Budget Control Act and our 
dependence on continuing resolutions at the start of the fiscal year.
    Provided the right authorities and resources, our world-class DOD 
Civ-Mil team can and will successfully accomplish any mission. With 
that in mind, we sincerely appreciate Congress' continued support for 
key authorities and appropriations needed to sustain current and future 
operations in the Central Region and to respond to emerging crises. 
Collectively, the below required authorities and resources enable our 
efforts to shape positive outcomes for the future.
    Overseas Contingency Operations (OCO)-funded Accounts. USCENTCOM's 
programs, operations, and activities are resourced almost exclusively 
by OCO appropriations vice Baseline funding. This funding strategy 
potentially impacts our forward-deployed forces and our regional 
partners. We remain concerned that this approach limits predictability, 
does not allow for advanced planning, and conveys an unintentional 
temporary nature to our strategy in the region. All involved 
stakeholders must work together to develop an enduring approach to 
resourcing the defense strategy in the USCENTCOM AOR.
    Iraq and Syria Train & Equip Resources. Continued support for 
flexible authorities is needed to effectively react to the urgent 
threat posed by ISIL in Iraq and in Syria. Improving the capacity and 
effectiveness of the Iraqi Security Forces, to include Kurdish and 
Sunni tribal forces, and moderate opposition forces in Syria is key to 
countering ISIL and other extremists operating in those countries. The 
Congressional authorities and resourcing provided to initiate the 
training and equipping of Syrian moderate opposition forces to counter 
a degraded ISIL and to defend territorial gains will undoubtedly 
contribute to the ultimate defeat of ISIL and the possibility of a 
negotiated settlement with the Assad Regime. The turnaround of the dire 
situation in Kobane, Syria is indicative of how, with a fairly limited, 
precise application of authorities (allowing U.S. aircraft to airdrop 
donated Kurdish weapons and equipment) and U.S. air support, and a 
determined and willing partner, ISIL's momentum and narrative were 
effectively countered.
    The Iraq Train and Equip Fund (ITEF) and authority demonstrate the 
United States' commitment, in partnership with the international 
community and the Government of Iraq, to build a diverse, inclusive, 
and sustainable Iraq security force. We strongly endorse and support 
extending the ITEF and establishing the stand-alone Syria Opposition 
Train and Equip Fund and authority in FY16 to ensure that the ISF and 
Syrian moderate opposition forces are professional and sufficiently 
equipped to accomplish their mission, which consists of disrupting, 
defeating, and ultimately destroying ISIL within their sovereign 
territories.
    The Afghanistan Security Forces Fund (ASFF) remains pivotal to 
ensuring the continued security and stability of the GIRoA and the 
ANSF. Historically, ASFF has provided 80-90 percent of the ANSF 
operating budget. While future ASFF requests are expected to decrease, 
they will still remain ANSF's primary funding source for at least the 
next few years. The ANSF is posturing for long-term supportability 
through a program of ``Improve, Ready, Sustain.'' They are committed to 
instilling fiscal discipline as they refine requirements generation and 
define capabilities in a resource-constrained environment. The U.S. 
Government and the GIRoA must continue to work hand-in-hand through 
this period of transition. With continued United States support, the 
ANSF is in a position to maintain stability within Afghanistan, while 
reducing the influence of malign regional actors.
    Foreign Military Financing (FMF) and Foreign Military Sales (FMS). 
Our need for continued Congressional funding of FMF programs that 
support USCENTCOM security cooperation objectives cannot be overstated. 
The Central Region accounts for more than half of all global FMS. Our 
partners in the region want U.S. equipment because they recognize that 
it is the best in the world. It also represents a very effective means 
for establishing long-term relationships between the U.S. and our 
partner nations and ensures greater interoperability between our 
militaries. We appreciate Congressional support for interagency 
initiatives to streamline the FMS and FMF process to ensure that we 
remain the partner of choice for our allies in the region and are able 
to capitalize on emerging opportunities going forward.
    Excess Defense Articles (EDA)/Foreign Excess Personal Property 
(FEPP). The EDA program has allowed the Department of Defense to 
transfer materiel determined to be excess to Service requirements. Over 
the years, EDA has been an integral component in building partner 
capacity and has proven beneficial in our engagements with our regional 
partners. We have reaped the benefits of this authority several times 
in the last year, enabling us to support requirements in Iraq, 
Uzbekistan, and other countries located within the USCENTCOM AOR or 
participating in operations with United States forces. Several other 
EDA transfers to the UAE, Afghanistan, Pakistan, Lebanon and Egypt are 
pending. Of note, USCENTCOM sourced as much EDA directly from 
Afghanistan as was available without increasing risk to the Services 
and the State Department at the time of the respective transfers.
    In the same light, the FEPP authorization has allowed us to 
transfer non-military type equipment (e.g., wall lockers, generators, 
non-tactical vehicles) acquired as part of our base closures and 
reductions to Iraqi and Afghan security forces, as well as to other 
Afghan Government Ministries, Kuwait, and Kyrgyzstan. This authority 
was beneficial in allowing turn-key transfer of select bases while also 
reducing costs by allowing us to transfer items needed by the host 
nation, rather than retrograding those same items to CONUS at a cost 
higher than their actual value.
    Coalition Support. Continued Congressional support for Coalition 
Support authorities and funding, to include the Coalition Support Fund 
(CSF), the associated Coalition Readiness Support Program (CSRP), and 
the Lift and Sustain appropriation is key to maintaining effective 
coalitions and facilitating the participation in combined military 
operations of coalition partners who would not otherwise be able to 
participate due to lack of resources. Without coalition partners' 
participation, U.S. forces would be required to shoulder more of the 
burden of conducting these operations; and, in some cases, the 
operations simply could not be accomplished. This would pose additional 
risks to the safety and security of U.S. forces in theater and 
adversely impact critical U.S. missions, including the Afghanistan 
Transition and the campaign to counter ISIL in Iraq and Syria. 
Financial and logistical support to coalition partner nations helps to 
ensure interoperability in the execution of current and pending 
missions; enhances planning and force protection; and, also simplifies 
logistical support mechanisms; while also improving our collective 
ability to respond quickly to contingency requirements.
    Our requirement to provide logistical support to our coalition 
partners has not decreased despite the drawdown of forces in 
Afghanistan. The extension of authorities outlined in Section 1223 of 
the FY15 NDAA to provide logistical support to our coalition forces 
participating in military operations in Afghanistan and Iraq will be 
required to execute the Resolute Support Mission and are increasingly 
relevant as the counter-ISIL Coalition continues to expand. Our 
coalition partners have different sets of equipment and differing 
abilities to wage expeditionary warfare. As the region changes focus, 
we must ensure that we maintain the logistics authorities currently in 
place in order to respond quickly to future contingencies.
    Commander's Emergency Response Program (CERP). As the United 
States' role in Afghanistan continues to evolve, commanders must retain 
the flexibility that the CERP provides in order to accomplish their 
mission under Resolute Support. Urgent humanitarian needs cannot be 
predicted and will remain a factor as long as we have security forces 
on the ground in country.
    Military Construction (MILCON). We continue to leverage existing 
infrastructure and host nation funding where possible, as well as 
maritime posture and reach back capabilities to meet steady state and 
surge requirements. However, in some cases, MILCON is still required to 
expand infrastructure capabilities to facilitate sustainment support 
for U.S. forces and operations. Current projects are essential to our 
contingency and steady state operations and support the defense pillars 
outlined in the 2014 Quadrennial Defense Review.
    Long-term C4 Sustainment Plan. USCENTCOM, our Service Components, 
Combined Joint Task Forces (CJTF), and our deployed forces currently 
rely heavily on command, control, communications, and computer (C4) 
systems to support operations across the region. These capabilities, 
primarily resourced through OCO funding, sustain C4 requirements at the 
HQ and eight of 24 strategic operational locations in the AOR. A 
diverse and survivable C4 infrastructure, via both SATCOM and 
terrestrial means, is essential to the successful conduct of missions 
in the USCENTCOM AOR.
    The U.S. Central Command Team. At USCENTCOM, we continue to do our 
part to keep our Nation and our interests around the globe safe and 
secure. We have an exceptional and enormously capable team and, without 
question, our greatest assets are our people. We owe it to them to make 
sure they have everything they need to do their jobs in support of the 
mission as well and as safely as possible. This includes making sure 
that they have the best equipment, care and support, and, most 
importantly, we must guarantee them safe, secure, and respectful 
environments to live and work in. We should also do what we can to 
support them when they return from deployments or have completed their 
service obligations. Likewise, we must ensure that their families are 
properly cared for and supported.
    Conclusion. All of us have a vested interest in achieving a stable 
and secure Central Region, and success will require everyone working 
together towards this common goal. This is not just the military's 
responsibility, or the U.S. Government's responsibility, or even 
America's responsibility alone. As former Secretary of State Henry 
Kissinger stated, ``Peace cannot be achieved by one man or one nation. 
It results from the efforts of men of broad vision and goodwill 
throughout the world.''
    That said, the United States, and in particular our military, does 
have a share in the task at hand. We are uniquely qualified in our 
ability to lead and also leverage our partners' capabilities, while 
enabling them to play a larger and more active role in combatting 
common enemies, addressing challenges, and also actively pursuing the 
many opportunities that exist in that strategically important part of 
the world. Only the governments and people of the region can achieve 
enduring transformational change. But, by supporting them and helping 
to expand their capacity, and by providing them with the decision space 
required to improve conditions and also provide for the security of 
their sovereign territories, we will help to successfully move the 
Central Region in the direction of greater stability and security. This 
remains our ultimate goal.
    The year ahead is certain to be an important one throughout the 
Middle East and parts of Central and South Asia. The consequences of 
our actions, or lack thereof, will undoubtedly prove significant. Our 
intent at USCENTCOM is to build upon the progress achieved to date. We 
will continue to manage existing conflicts and crises, while doing what 
we can to prevent confrontations and developing situations from 
worsening and becoming crises. We also will continue to pursue the many 
opportunities present in the region, recognizing that it is through 
them that we will shape positive outcomes and achieve improved 
stability and security throughout our area of responsibility. Finally, 
we will continue to support the efforts of our U.S. Government 
colleagues; understanding that the effects of our individual 
contributions are greatly amplified when we work together in a 
constructive and collaborative fashion.
    Today, more than 78,000 of the very best Soldiers, Sailors, Airmen, 
Marines, Coastguardsmen and Civilians assigned to or associated with 
U.S. Central Command are selflessly serving in difficult and dangerous 
places around the globe. They continue to do an exceptional job in 
support of the mission and this great country of ours. Without 
question, we could not do what we do without them. We are enormously 
proud of them and their families. They are and will remain our foremost 
priority.
                          USCENTCOM: Ready, Engaged, Vigilant!

    Chairman McCain. Thank you, General.
    I'd ask the witnesses, do they agree with General 
Petraeus's comments, a few days ago, that Iran was as great or 
greater threat in the Middle East than ISIS? Do you agree with 
that, General Austin? With that statement?
    General Austin. Sir, I would say that, in terms of the 
long-term threat in the region, Iran is the greatest threat to 
stability. I would say the most pressing threat is ISIL, and 
one that we have to deal with and defeat in the near term.
    Chairman McCain. General Rodriguez?
    General Rodriguez. Yes, I agree, sir, with both General 
Austin and General Petraeus, the short- and long-term 
challenges.
    Chairman McCain. General Votel?
    General Votel. Mr. Chairman, I agree.
    Chairman McCain. General Austin, when were you told by the 
Saudis that they were going to take military action in Yemen?
    General Austin. Sir, I had a conversation with the CHOD 
[Chief of Defense] right before they took action. And so, it 
was shortly before.
    Chairman McCain. Right before they took action.
    General Austin. Yes, sir.
    Chairman McCain. That's very interesting.
    Now, you were talking about how we're defeating ISIL. Right 
now, the battle for Tikrit is stalled, and we are then 
launching airstrikes into Tikrit. Is that--isn't--that's 
obviously correct. And it's my understanding--please correct me 
if I'm wrong--that there's about 2,000 Iraqi military fighting 
there and about 20,000 the--Shia militia that are doing the 
majority of the fighting. Is that roughly correct?
    General Austin. Sir, it's about 4,000 Iraqi Security 
Forces, combined, in that area. Currently, there are no Shiite 
militia. And, as reported by the Iraqis today, no PMF forces in 
that area, as well.
    Chairman McCain. So, there's 4,000 Iraqi. Who are the 
others?
    General Austin. The Shiite militia that were there have 
pulled back from that area, sir.
    Chairman McCain. So, the fighting is all being done by the 
Iraqi forces?
    General Austin. Sir, when the----
    Chairman McCain. I've only got a few minutes, and maybe you 
can shorten the answer. They're pretty straightforward 
questions.
    General Austin. Yes, sir. The clearance of the town of 
Tikrit, which is, as you know, on the west side of the river, 
is being done by the Iraqi Special Operations Forces and the 
Federal police, with our air support.
    Chairman McCain. So, why do we see pictures of Suleimani 
everywhere, and leading and orchestrating this effort?
    General Austin. Those pictures were from before. And, as 
you know, that effort that Suleimani and the Iranians were 
sponsoring, it stalled. It stalled because they didn't have----
    Chairman McCain. So, they're no longer in the fight.
    General Austin. He is no longer--well, he was no longer on 
the ground, as of----
    Chairman McCain. No, I mean, the Shiite militias are no 
longer in the fight.
    General Austin. The folks that we are supporting in 
clearing Tikrit----
    Chairman McCain. Are the Shiite militias still in the 
fight?
    General Austin. No, sir, they're not a part of the clearing 
operations in Tikrit.
    Chairman McCain. So, the airstrikes that we're carrying out 
in support are only in support of Iraqi military activities.
    General Austin. That's correct, sir. Preconditioned for us 
to provide support was that the Iraqi government had to be in 
charge of this operation, they had to know--we had to know 
exactly who was on the ground, we had to be able to deconflict 
our fires, they had to have a credible scheme of maneuver, 
which they not only replanned, but we caused them to rehearse 
it, and they had to be able to talk to the folks on the ground, 
as well.
    Chairman McCain. By the way, I totally disagree with you 
about ignoring Syria. There's no strategy for Syria. And we all 
know that. And ISIS doesn't respect those boundaries. But, 
somehow you seem to, and the President does. There's no--they 
know no boundaries. And so, to say that we are going to have a 
strategy for Iraq first and then Syria, of course, is 
sophistry.
    Right now, in our airstrikes in Iraq and Syria, of the 
12,000 sorties, 3,000 of them actually drop weapons. Is that 
true?
    General Austin. I think that's about right, sir.
    Chairman McCain. Don't we put our pilots in great danger if 
they're not going to drop weapons? And isn't it the argument 
that we really need the Joint Terminal Attack Controllers 
(JTAC) on the ground if we're going to be effective? Or are you 
going to have three out of four fighter sorties fly around in 
circles, and then return?
    General Austin. Sir, the hours-flown-to-ordnance-employed 
ratio is really based upon a couple of factors. One is, the 
type of enemy that we're opposing. And the second is that--are 
the distances that we're dealing on a daily basis.
    If you take a look at an operation like Operation Desert 
Storm, where you had fielded forces and infrastructure that you 
could attack with preplanned sorties, then that ratio--
certainly, you'll have a greater ratio of hours flown to 
ordnance employed.
    The type of enemy that we're facing currently is--it 
started out as an extremist element that wanted to behave like 
an army. And because of that, we were able to attack his mass 
formations early on, but he very quickly resorted to behaving 
like an irregular force, where he began to blend in with the 
population. As he did that, it became more difficult to----
    Chairman McCain. Which should have surprised no one.
    General Austin. It didn't surprise us, sir. But, the nature 
of this fight is such that, you know, we need to be able to 
support the----
    Chairman McCain. So, we're satisfied with a situation where 
we launch 12,000 sorties, when only one out of four actually 
drop weapons.
    General Austin. Sir, it's----
    Chairman McCain. That, General, is not a viable or, 
frankly, a good use of the taxpayers' dollars.
    General Austin. Sir, I would just make the point that, as 
we compare that ratio to what we've done in Afghanistan, it's 
equal to that--because it's the same type of fighting there, 
principally. And the ratios are comparable. In fact, the ratios 
in OIR [Operation Inherent Resolve] are even better than what 
we saw in Afghanistan.
    Chairman McCain. Well, I would argue that that's comparing 
apples and oranges, but my time has expired.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    General Austin, just again returning to Tikrit, we are 
operating at the request of the Prime Minister of Iraq, Prime 
Minister Abadi, who is the democratically elected leader, and 
we set conditions as to what we would require before we would 
be engaged. Is that correct?
    General Austin. That's correct, sir.
    Senator Reed. And your comments to Senator McCain suggest 
that the popular mobilization forces, the Shiite militias, have 
withdrawn. Initially, they were engaged in the fight, but 
they've pulled back, and now the operation is being conducted 
by Iraqi regular forces, their special operations----
    General Austin. Special Operations Forces and the Federal 
police, yes, sir.
    Senator Reed. It appeared, just a few days ago, in fact, 
that this fight would succeed simply with the mobilization 
forces, the Shiite militias, and--which would have added a 
significant sort of a at least rhetorical claim to both the 
militias and to the Iranians. Now it appears that they cannot 
effectively clear the city without the support of the United 
States and our airpower. Is that----
    General Austin. That's correct, sir. And if I could, make a 
point, here, to highlight why it failed. It's the way that 
these forces went about trying to do this. These forces 
obviously were not being controlled by the Government of Iraq, 
they didn't have a coherent scheme of maneuver, command, and 
control. They didn't have precision fires to support this 
effort. And so, trying to go about the difficult task of 
clearing a place like Tikrit without that caused them to stall. 
And what we have done is, number one, as you pointed out, sir, 
highlighted a number of preconditions that must be present 
before we would provide ISR and employ fires. And once those 
conditions were met, which included Shiite militias not being 
involved, then we're able to proceed.
    And I'd like just--just to highlight, sir, that, you know, 
three tours in Iraq, commanding troops who were brutalized by 
some of these Shiite militias, I will not, and I hope we never, 
coordinate or cooperate with Shiite militias.
    Senator Reed. And part of the operation in Tikrit--and 
we're doing all we can to assist the Iraqi regular forces to 
succeed--will be a prelude to operations in Mosul, which have 
always been contemplated to be conducted by Iraqi Security 
Forces with--if they make the conditions, with our support. Is 
that accurate?
    General Austin. Yes, sir.
    Senator Reed. All right.
    General Votel, we have the assistant Secretary of Defense 
for SOLEC, and he is the service secretary-like 
responsibilities for Special Operations Forces, your forces. 
And do you have any views--because he's established a Special 
Operations Policy and Oversight Council--do you work with the 
Council? What's your relationship?
    General Votel. Senator, we absolutely do. And I meet with 
Secretary Lumpkin on a regular basis. And the SOPAC, as it's 
referred to, the Special Operations Policy and Oversight 
Council that meets in the Pentagon, really provides a good 
forum to pull together a number of the senior leaders within 
OSD and, frankly, on the Joint Staff in SOCOM to ensure that we 
are looking at the requirements for SOF forces and ensuring 
that it's well coordinated within the building. And we're 
getting both oversight and advocacy for our activities.
    Senator Reed. Let me ask an additional question. You've 
talked about, in your prepared remarks, the campaign plan for 
global special operations, which, of necessity, has to interact 
with the campaign plans of AFRICOM and CENTCOM and NORTHCOM and 
SOUTHCOM, et cetera, et cetera. So, can you comment about how 
you manage this plan? And, just quickly, because my time 
expired, General Rodriguez and General Austin might make a 
comment, too.
    General Votel. Absolutely. So, the campaign plan for global 
special operations is really designed to support my principal 
task of supporting my geographic partners out here. And it's 
designed to synchronize our SOF activities to help us 
prioritize our resources and where we are putting them in 
support of the GCCs. It's designed to address the partnerships 
that we need to have in place. It's designed to look at the 
things that we will do to shape the environment for the 
geographic combatant commanders. And then it ensures that we 
have provided SOF aligned to those specific areas so that they 
can develop the capacity and the skills and capabilities they 
need to best support the geographic combatant commanders.
    Senator Reed. General Rodriguez, your comments on this 
interaction?
    General Rodriguez. When we make our strategic plan, sir, 
our theater Special Operation Command is fully involved. And 
all those things that Joe does about allocating the forces and 
the capabilities across the world all support my plan exactly 
how I want it to be.
    Senator Reed. General Austin, a quick comment or one for 
the record? My time's expiring. Are you comfortable with the 
interaction?
    General Austin. I am very comfortable with it, sir.
    Senator Reed. Thank you.
    Thank you, gentlemen.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    As I told you, General Rodriguez, I was going to 
concentrate my questions on AFRICOM. When Senator McCain talked 
about being under-resourced, it is true that, when you were 
formed, and up to the current time, you don't really have 
resources. You depend on EUCOM for almost everything. Is that 
correct?
    General Rodriguez. We got a little bit more resources in 
the last year and a half, Senator, to include a special-purpose 
MAGTF, a commander's response force, a special operations 
force, and we've also got a couple of key enablers for force.
    Senator Inhofe. Yeah, and----
    General Rodriguez. I also do depend quite a lot on EUCOM 
capacity, sir.
    Senator Inhofe. Yeah. I think you do. And I think that 
other things that come up, like the LRA [Lord's Resistance 
Army] and things like that specifically, you inherit resources 
to help put out those fires. However, with the restructuring, 
the European infrastructure consolidation, are you concerned 
about how that might affect what resources might be available 
when called upon?
    General Rodriguez. Right now, from the European 
infrastructure consolidation, most of the moves have been to 
the south and east to help the responsiveness of EUCOM forces 
to support both CENTCOM and AFRICOM. So, the ones that got 
enacted, I agree with, sir.
    Senator Inhofe. I understand.
    I don't know where you were when we put together the 
whole--the AFRICOM. You know, before that, it was in three 
different commands, and--PACOM, EUCOM, and, I guess, CENTCOM. 
And that was a wise thing to do. But, the discussion at that 
time was where to put the headquarters. And we were all 
promoting the idea that it should actually be in Africa. That 
continent is so huge. We understand what happened politically 
at that time, that--this fear of colonization and all of that, 
that people just wouldn't buy it. But, the presidents would. In 
fact, I've talked to most of them, all of the presidents in 
that area. They thought that would have been a good idea.
    At the time that we put it together, AFRICOM, there was 
some discussion that, after a period of time, they might 
consider making that move. Have you heard anything at all about 
that? Is there anything in the mill talking about----
    General Rodriguez. No. Many of the African leaders have 
talked to me about that, but the current assessment by the 
Secretary of Defense is to continue to leave it where it is for 
the foreseeable future, sir.
    Senator Inhofe. Yeah. Well, you know, the ``foreseeable 
future'' is beyond us now from when they first put this thing 
together. But, I don't know, I know that would still be a 
problem.
    Let me ask you, my first experience with Joseph Kony and 
the LRA was way back in 2001. That's 14 years ago. Joseph Kony 
was old and sick then. How is he now?
    General Rodriguez. He's older and sicker, sir. [Laughter.]
    Senator Inhofe. And do you think that we are getting in a 
position right now--it appears to me, from the reports that we 
get--and I think you'd probably agree; I'll ask you if you do 
agree--that most of the stuff now he's doing is just trying to 
move around and avoid it. He's no longer making the hits that 
he did back at that time. And our involvement, which we are--
have been involved in, is actually being--is working.
    General Rodriguez. Yes, sir, it is working. And it's in a 
great team effort with all the country teams as well as many of 
the civilian organizations that have built a durability in the 
civilian population to better resist the problems he has. Right 
now, he's about--down to about 200 real fighters, and the 
impact on the civilian population is very minimal. He is using 
illicit trafficking to continue to sustain his efforts. But, 
it's tough for him, because of continual pressure over the last 
14 years.
    Senator Inhofe. As he's being chased around--places like 
CAR, Eastern Congo, even, briefly, Rwanda, Uganda, South 
Sudan--it seems like it was a trail of blood following him. And 
it's not that way so much anymore. I just think that we haven't 
talked about that in a long time. We need to get on the record 
that some things are--seem to be working there.
    General Rodriguez. Yes. A long-term effort against Kony, 
with, really, you know, fairly modest resources. But, that 
long-term effort has done exactly what you said, it has 
significantly decreased his impact on any of the civilian 
population, sir.
    Senator Inhofe. Yeah.
    General Rodriguez, last year you testified that only 12 
percent of your ISR requests are being met. I'm reading this 
from the transcript last year. Has there been any change in 
this intelligence gap?
    General Rodriguez. Just a little bit more, sir. I'm about 
13 percent now. But, that's a great question. As far as the 
impacts of sequestration, just for the committee, we will lose 
more CAPs in sequestration than I have in the theater right 
now. So, you can see the impact that's going to have on our 
intelligence, surveillance, and reconnaissance assets. Thank 
you.
    Senator Inhofe. Yeah. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And thank all three of you for your service to our country 
and things that you do every day.
    With that, General Austin, I said, last year, if I believed 
sending United States trainers and weapons to Syria would make 
Americans safer, I would definitely have supported it. I did 
not then, and what I'm hearing from the region further supports 
my belief. Last week, reports emerged the Department of Defense 
is unable to account for more than $500 million of military 
assistance to Yemen, including weaponry, aircraft, and 
equipment--and I'm sure that you all have seen the same 
pictures on YouTube that we're getting, of our equipment being 
used for people against us and against our efforts--all of 
which could potentially fall into the hands of Iranian-backed 
rebels or al-Qaeda.
    In Syria, we've heard reports that al-Nusra Front seized 
United States weapons from CIA-trained Syrian rebels, including 
60 to 90 TOW antitank missiles. Two days ago, video footage was 
posted of al-Nusra, allegedly showing them using a captured 
United States TOW missile in a fight. And these are not just 
immediate events. We supported individuals in the 1980s in 
Afghanistan, who formed elements of Taliban. Last year, in 
Iraq, we watched ISIS capture weapons, vehicles, and military 
equipment that Iraqi Security Forces abandoned, which are 
millions and millions and millions of dollars being used 
against us now, even after we spent the better part of a decade 
training them. We have a history of supplying weapons and 
training that end up being used against us.
    And, General Austin, who's responsible for the weapons and 
equipment the U.S. has supplied in these cases? Or are these 
reports accurate? And will any of this bring action be taken?
    General Austin. Well, clearly, sir, what--with not having 
the ability to be in Yemen currently to monitor the disposition 
of the weapons, then certainly we can't--we don't have the 
ability to oversee the safeguarding or the employment of those 
weapon systems. That 500 million, I believe, was the amount of 
funds that were required for both providing weapon systems and 
training. And, as you know, training eats--takes up--it's 
pretty expensive----
    Senator Manchin. This was Yemen.
    General Austin. Yes, sir.
    Senator Manchin. I know about the 500 million requested for 
Syria.
    The only thing I'm saying is, Is there nobody in our 
Government, in our Defense, Pentagon, that's responsible? Like 
when we give all this equipment to Yemen, and then we see it 
falling apart, do we not have any way to retrieve that?
    General Austin. Certainly, in a case like Yemen, sir, 
it's--we don't have the ability to go back and retrieve it. We 
don't have----
    Senator Manchin. But, as we see it falling apart, we can't 
take any actions at all to keep it from falling into----
    General Austin. Once we've provided the weapons to them, 
sir, we----
    Senator Manchin. It's theirs.
    General Austin. Yes, sir. And we will continue to monitor 
their--the usage of those weapons and make sure that, if 
they're not being used properly, then we don't continue to 
provide capability to them. So----
    Senator Manchin. What--do you all confirm--I mean, do you 
all agree with the reports of how much weapons and the lethal 
volatility of these weapons being used against us? There are 
weapons being used against us.
    General Austin. I don't doubt that what's----
    Senator Manchin. I mean, are these accurate? They're widely 
reported.
    General Austin. Yes, sir. If we're not there, then--and 
we've provided weapons, and it's reasonable to expect that some 
of that material will fall in the hands of the people----
    Senator Manchin. Well, let's go with Mosul first, and the 
Iraqi forces that abandoned. That was substantial, I'm sure. 
Correct?
    General Austin. It was, sir.
    Senator Manchin. Okay. And we know that's being used 
against us.
    General Austin. Yes, sir.
    Senator Manchin. Okay. Then we know about Yemen now. And we 
have concerns about--you know, will this be repeated? And it--
are we taking any steps, from what we've seen happen? How can 
you assure me that Syria--that whatever--whoever we support in 
Syria, that won't fall in the wrong hands?
    General Austin. There's no way we can absolutely assure you 
that that won't happen, sir. What we do is to try to train the 
folks that we're working with and providing capability to, to 
be responsible as they use and safeguard these weapons. And, in 
the event that they are not, then we certainly quit doing--we 
quit providing them the capability.
    Senator Manchin. And one quick question for General Votel.
    General Votel, in West Virginia, I had the privilege of 
observing the training of some of our National Guard--Special 
Force soldiers in the National Guard. And both the 19th and 
20th Army Special Forces group have fought with great success 
in Iraq and Afghanistan, complementing our Active Duty Special 
Forces groups. How do you see the future of the National Guard 
Special Operations community moving forward?
    General Votel. Well, as you just pointed out, they are 
absolutely integrated into everything we are doing. So, not 
just on the Army side with Special Forces, but on the Air Guard 
side. And so, some of our unique ISR capabilities, our manned 
ISR capabilities, will reside in some of our Air Guard and Air 
Reserve organizations. So, they are absolutely and totally 
integrated into everything that we are doing now and will do in 
the future.
    Senator Manchin. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. General Austin, when it comes to fighting 
ISIL, I appreciate your determination, your military drive. And 
that's coming through. I do question the sort of optimistic 
note that you have in your testimony, because it just seems 
that things are not going as positively as you're suggesting.
    You mentioned, beginning on page 11 of your testimony, 
``The President's announcement this past September, five key 
elements to what the administration wants to do involving 
coalition partners, Jordan, Turkey, and Lebanon, train and 
equip, having reliable partners to assist on the ground.'' And 
then you say, ``Once we do all these things, we will have 
defeated ISIL through a combination of sustained pressure, a 
systematic dismantling of ISIL's capabilities, and by 
effectively expanding our regional partners' CT capacities.'' 
It's just hard to see--hard to be very encouraged about that 
happening, at this point. And I want to ask about our partners.
    Now, not everything we hear is in these big hearings. We've 
met with the King of Jordan, not in a classified setting, but 
the King of Jordan tells us, ``We can't want this more than the 
Arab neighborhood wants it.'' And so, I do want to ask you 
about that. He said he'd be going back and trying to get the 
partners together and make this work on the ground.
    I think everybody has been saying boots on the ground are 
going to be needed to defeat ISIL. Are those boots on the 
ground going have to be Iraq--the Iraqi Army boots on the 
ground? Because I don't see the Jordanians really having that 
capacity. We met with the Ambassadors from UAE [United Arab 
Emirates] and Saudi Arabia, just the other day, and they want 
this coalition to take effect, and they want Egypt to be part 
of it. I just wonder who, in that whole list of neighboring 
countries, has the capacity to go in and retake this territory?
    You mention, on page 12, that we're doing precision 
airstrikes. But, I think we all know that that's not going to 
get it done. And then you talk about, ``The intent of the 
regional campaign is not simply to destroy ISIL, but--although 
that's our primary objective.''
    So, how is this going to be wrapped up by troops going in 
and taking the territory back, and the United States not 
employing boots on the ground?
    General Austin. Thank you, sir.
    One of--a couple of things that we said up front was, 
number one, that this would take time, because we are working 
with indigenous forces, we are using the Iraqi Security Forces 
to conduct the ground operations.
    As you pointed out, sir, we've also said that you can't do 
this with just airpower alone. It has to be a complement of 
fires and maneuver forces on the ground.
    And our approach is to generate those forces by training 
and equipping Iraqi Security Forces. And we're--you know, as we 
have halted ISIL's advance into Iraq, we've started the 
business of training and equipping new Iraqi Security Forces so 
that they'll have the ability to train--to take back their 
borders and secure their sovereign spaces.
    Senator Wicker. Is there any prospect of Saudi forces being 
there in numbers that would be significant? UAE? Jordanian 
forces? They've got a police force, but not much else.
    General Austin. They all have some capability, sir. None of 
them have volunteered to come forward and put boots on the 
ground in Iraq right now. In Iraq, certainly Iraq needs to want 
to be able to take that on and take those forces in. But, to 
this point, as you look at what Saudi's dealing with on its 
borders with Yemen, it's currently focused on that right now. 
So----
    But, to answer your question, sir, there is capability with 
countries in the region, but none--no countries have come 
forward and volunteered to put boots on the ground in Iraq.
    Senator Wicker. Thank you, sir. Well, good luck to you. And 
again, I appreciate your determination and resolve. I hope 
you're as successful as you believe you will be.
    General Austin. We will be successful, sir.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    And thank all of you for all your efforts.
    General Votel, I'd just like to talk about a different 
issue for just one minute, and that is, I want to thank you for 
your top-down leadership on mental health with the Special 
Operations. Since assuming command at SOCOM, you've been 
incredibly frank about this challenge. And that, alone, sends 
an important message to the troops.
    Can you talk about the psychological component of your 
Preservation of the Force and Family Program, and how that's 
going today?
    General Votel. I can. Thank you for the question, Senator. 
We appreciate the continued support we get from Congress in 
this very significant challenge to us.
    We are looking at a variety of things. We are looking at 
peer-to-peer programs that we use within organizations to help 
provide access to our members and their family members and 
others, to reach out and talk to their friends and their peers 
about that. And I think this is an important component of it.
    Likewise, we are pursuing training programs to ensure that 
our leadership, our chaplains, and others are well trained in 
the ability to identify those behaviors that we think are 
related to stress, and potentially which can lead to suicide.
    And, third, I think the--one of the most important things 
we are doing is trying to send the very clear message across 
the entire SOF force that it is absolutely normal and expected 
to ask for help when you need it, and you can do that without 
concern of stigma or any concerns about your standing within 
the Command. And we are putting--really working double tides to 
put effort on that particular theme and message throughout 
this.
    The real census of our program, here, is to empower people 
by communicating early and often, by trying to enable them, by 
giving them easy access to programs and resources so they can 
get help, and then encouraging them with this message. So----
    Senator Donnelly. And will you work us to help us take the 
lessons that you've learned at SOCOM and work with the other 
parts of our military?
    General Votel. Absolutely. And we are well----
    Senator Donnelly. Thank you very much. Thank you.
    General Austin, it appears that the efforts in Tikrit are 
stalled at the moment. And so, my concern, my--one of the areas 
I'm looking at is, How do we empower the moderate Sunnis? Are 
they the key to making this work? And if you're a moderate 
Sunni--and I asked this the other day--the concern would be, 
Why do you want to team up with the Shiite militia. When ISIS 
is also Sunni, they may be like the bad cousin that shows up at 
the event, but they're still your cousin. I mean, how do we 
empower the moderate Sunnis? And do you see them as the key to 
moving this thing along and to having success in Iraq?
    General Austin. Sir, I do believe that getting the Sunni 
population involved is really, really important, in terms of 
being successful, going forward. And, you're right, the 
previous operation in Tikrit did stall. And it stalled because, 
I think, the wrong approach was taken. Those--many of the 
forces that were being employed were not controlled or 
supervised by the Ministry of Defense or Government of Iraq. 
That has recently changed. As of the last several days and 
today, when we--yesterday, when we started supporting this 
effort. We think that this effort will begin to move forward 
with the employment of the Special Operations Forces and the 
help of our enablers.
    But, I think----
    Senator Donnelly. Can you----
    General Austin.--that it's absolutely key that, number one, 
the government has to be accommodating to both the Sunni and 
the Kurd population, and we have to increasingly get the Sunnis 
involved.
    Senator Donnelly. Can you help make that happen? Because 
the concern is Abadi--a lot of the folks that surround him are 
still from the previous administration. And the other part 
about this is, you've had extraordinary experience in the al-
Anbar area, in all the service you're done for our country 
throughout Iraq. Can you help to identify the key Sunni 
moderate leaders to make them part of this? And is that what's 
going to--you know, you look, and you say, ``Hey, we think 
we're going to get it right this time.'' How do you think this 
turns out?
    General Austin. Sir, to answer both your questions, we are 
encouraged--we continue to encourage the leadership in Iraq to 
do--to be more accommodating to the Sunni population and do 
some things that are demonstrable, that are--that they--that 
increases their confidence in the leadership, in the 
government. And you may know that we are helping the Iraqi 
Security Forces and the Government of Iraq reach out to the 
tribal elements in Anbar and bring in some of those elements to 
train and equip them and get them involved in the fight, as 
well. And those that we have trained and equipped have 
performed remarkably well.
    Senator Donnelly. Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    General Votel, when we met last week, you talked about how 
the resources allowed you to meet threats with moderate risk. 
And over the past year, we've seen that terror threat increase, 
smaller problems become more serious, they become crisis. And 
then this--do you believe that this is part of the result of 
the strategy that accepts moderate risk? Are we less able to 
nip those problems in the bud and so that they grow into these 
serious threats?
    General Votel. Senator, thanks for the question.
    I--first of all, I think we can continue to--I think all 
commanders operate in an area where they're constantly 
balancing risk of their forces and the missions that are being 
done on a regular basis. And I think that's what I'm 
principally paid to do.
    As we move forward and continue to deal with the changing 
and complex situations--for me, I think it gets down to 
prioritization. And, for us, what we will attempt to do is 
offset the risk that is associated with increased operations by 
ensuring that we prioritize on those operations for which we 
can have the biggest impact and we can help support the 
broadest national objectives.
    Senator Fischer. Is Libya a place where we're going to 
accept moderate risk?
    General Votel. That--again, I think that perhaps may be a 
policy question. Certainly, from my perspective, working with 
my partner in AFRICOM, we are looking at the things that we can 
do to address the threats that are in Libya today.
    Senator Fischer. Thank you.
    General Rodriguez, in your opening statement, you say that, 
``Libya-based threats to United States interests are growing. 
If left unchecked, I believe they have the highest potential 
among security challenges on the continent to increase risk to 
United States and European strategic interests in the next 2 
years and beyond.'' You also described Libya as ``emerging as a 
safe haven, where terrorists, including al-Qaeda and the 
Islamic State of Iraq in the Levant-affiliated groups can train 
and rebuild with impunity.'' That, to me, doesn't sound like 
we're on the right trajectory.
    Do you think our approach to Libya is not adequate? Are we 
accepting too much risk?
    General Rodriguez. Thanks, Senator.
    For--first of all, for--to make sure everybody's clear on 
what we're doing in and around Libya, we're--a significant 
effort is going in around Libya to prevent that from spilling 
over. So, when you look at what is happening in Tunisia, in 
Niger, Chad, and Egypt, we're working with our partners, as 
much as we can and as much as we're--have the authorities to do 
that, to strengthen their capacities to limit the spillover of 
that effort. We're also working with our European partners to 
increase their effort there. And we are supporting, at this 
point in time, the U.N. [United Nations] effort to come to a 
diplomatic solution. And anything past that will require a 
policy decision, ma'am.
    Senator Fischer. How would you rate the success of the 
efforts that you just described? The spillover, the work with 
our European partners in the U.N.
    General Rodriguez. The work with our partners has, for the 
most part, gone very well, with the exception of one or two 
sensational attacks that you read about in Tunisia the other 
day; but their capacities have continued to grow, and they 
handle that threat every day, as does Niger and Chad. And the 
work of the--the European efforts in the U.N. has not had as 
much progress as anybody wants, to date, yet, ma'am.
    Senator Fischer. Okay, thank you.
    And, General Votel, if I can just return to that idea of 
moderate risk for my closing questions here. Over the long 
term, do you think that, if we see risk continue to increase, 
and those smaller problems continue a--to accumulate--how do we 
prioritize that? If they're viewed as smaller problems at the 
time, but yet they continue to escalate and become greater and 
greater risk to this country, not just the region they're in, 
how are you going to prioritize? How are you going to address 
it, and do you have the resources you need?
    General Votel. Thanks. Thanks, Senator.
    Right now, I think I do have the resources that I need to 
support the GCC commanders at a moderate level of risk for the 
things I'm being asked to do today. What I think we will do for 
the future, as I mentioned in my opening comments here, I think 
SOF plays a particular role in the gray zone, in the area 
before operations, before we get to open conflict. And so, I 
think the important piece that I bring to the geographic 
combatant commanders is our ability to come in and help shape, 
develop partnerships, to help build capacity, and support 
relationships in all of those areas so that we can strengthen 
partners before big problems grow into--or, before small 
problems grow into big problems. And I really think that is the 
direction in which we should be focusing SOF into the future.
    Senator Fischer. General Rodriguez, did you have a 
response?
    General Rodriguez. Thanks, Senator.
    The--as far as the prioritization is going, again, that's 
done by the policymakers, relative to our National security 
interests. And then, the input we put, in addition to the risk, 
is what our partners can handle and what they're doing, 
themselves. And we prioritize it based on a whole-of-government 
and interagency effort and who can help most in different 
places. So, I think that's what is done every day in the 
Defense Department, ma'am.
    Senator Fischer. Thank you, gentlemen. And thank you for 
your service.
    Thank you, Mr. Chair.
    Chairman McCain. Senator McCaskill.
    Senator McCaskill. Thank you.
    I'm now determined that budget gimmicks have no attachment 
to party, that both parties are capable of using budget 
gimmicks as we approach the challenges of sequestration and 
defense spending. It is now being used, in the current budget 
we're debating and the budget that passed the House yesterday. 
Rather than confront sequestration and be honest about the 
challenges we have in our base budget that we've all given a 
lot of time, in terms of rhetoric, to, we are now going further 
down the road of using OCO as a slush fund. It's not good for 
fiscal accountability. It's not good for restoring faith of the 
American people that we can face the tough decisions and not 
retreat to rhetoric and gimmickry that is not really true. 
We're not going to build a--as my colleague has said, we're not 
going to build a PX someplace in America with OCO funds. The 
question is, do you believe that the Army can buy back force 
strength with OCO funds?
    General Austin. I do not, Senator.
    Senator McCaskill. Do you believe that the Navy can address 
the shortfalls in shipping with OCO funds?
    General Rodriguez. No, ma'am.
    Senator McCaskill. Okay.
    I just think that we've got to be--and I'm--believe me, I'm 
not saying that we come to this with clean hands, as Democrats. 
We don't, because we have engaged in gimmickry, also. But, I 
know that the Chairman wants to face this head-on, and I know 
it's a challenge in this political environment. But, I did want 
to bring it up, that we have obviously not met the challenge 
with the budget as it's currently configured.
    I wanted to specifically ask you, General Austin, about 
something that's very troubling to me, and that is that I've 
been told that there has been a determination that Operation 
Freedom Sentinel is a new contingency operation. It--do you see 
it as a new contingency operation?
    General Austin. It's a continuation of our efforts, 
Senator, so, you know, I--in terms of the types of things that 
we're doing, you know, we're continuing to train the--and 
advise and assist the Afghan Security Forces. But, in terms of, 
you know, how we account for the funding, that's--that we're 
allocating to that, that's a different issue.
    Senator McCaskill. Well, the reason I'm asking this is, I'm 
told that there is an effort underway of naming a new lead 
Inspector General in Afghanistan, as opposed to SIGAR of the 
Special Inspector General on Afghanistan. And I think, if that 
determination is made--I just want to make sure everybody 
understands--that's going to impose a lot of additional 
burdens, in terms of oversight requirements, on contracting. 
You know, I know there's continuity in SIGAR. I don't 
understand the value right now of changing Inspector Generals 
at this point on the projects that are ongoing that the Special 
Inspector General in Afghanistan is aware of and is working on. 
I don't get it. And if there is really a sincere attempt to 
replace him by labeling this a new contingency, somebody's 
going to have some explaining to do, I think, to me and, I 
hope, others on this committee, as to why that would be a good 
idea. Are you aware of an effort to do that at this point?
    General Austin. I don't know--I am not aware of the effort. 
But, certainly, I'll go--I'll find out, I'll look into it, 
Senator.
    [The information referred to follows:]

    My staff has been monitoring that the Council of Inspectors 
General on Integrity and Efficiency (CIGIE) is examining 
whether the triggers associated with the establishment of a 
LIG-OCO for OFS in accordance with section 848 of FY 2013 NDAA 
language have been met. If that determination is made, CENTCOM 
has no issues with the designation of a Lead IG in accordance 
with NDAA 13 and will support their oversight initiatives as we 
have done for Operation INHERENT RESOLVE. Since oversight 
initiatives are not mutually exclusive, the designation of a 
lead IG for OFS in and of itself may have no bearing on SIGAR's 
separate and independent statutory authority enumerated in its 
enabling legislation. It could amplify the importance of 
coordination between different oversight agencies executing 
projects in Afghanistan moving forward. I will continue to 
support all oversight objectives and encourage all IGs 
operating in Afghanistan to continue regular coordination, 
which will enable these agencies to avoid duplication of 
activities and focus on the most beneficial projects. This will 
be particularly important because audit agency inquiries have 
remained relatively steady over the last 18 months while, at 
the President's direction, our force levels have declined by 
over 80 percent, resulting in sharp reductions in staffs to 
respond to these agencies.

    Senator McCaskill. That would be terrific. As you know, 
we've worked very closely with the Special Inspector Generals, 
both in Iraq and Afghanistan. I think the body of work they 
have done is incredibly helpful to our Nation's military. As we 
look at how we honestly confront sequestration, one of the ways 
is being better stewards of the resources that we have 
allocated to these efforts.
    General Rodriguez, I understand that most of the 
servicemembers who deployed to Africa as part of the ebola 
response, Operation United Assistance, have begun returning 
home. Is there any effort to keep track of the number of 
contractors around this effort and how many of them have been 
pulled and how many of them remain in ebola as we continually 
try to stay on top of contractor costs?
    General Rodriguez. Yes, ma'am, there is. There's a very, 
very strict accounting that is done. We've had oversight from 
the DOD IG from the beginning, and we were very cognizant of 
the challenges with contractor oversight and also paying too 
much money for contracts that's out of line with what the USAID 
as well as the host nation is providing. So, we have a strict 
accounting on it, yes, ma'am.
    Senator McCaskill. That would be terrific.
    General Rodriguez. Yes, ma'am.
    [The information referred to follows:]

    Yes, USAFRICOM is tracking the number of contractors 
supporting Operation UNITED ASSISTANCE (OUA). We use the 
Synchronized Pre-deployment and Operational Tracker (SPOT) as 
the central authoritative repository for monitoring Department 
of Defense (DOD) contractor personnel. At the height of the 
Ebola response, nearly 350 contractors supported OUA. 
Currently, four local national contract personnel are working 
on two remaining open contracts.
    References: USAFRICOM monitors contractor accountability in 
accordance with the following congressional acts and DOD 
regulations:
    <bullet>  Section 861 & 862 of the FY2008 National Defense 
Authorization Act
    <bullet>  Office of the Under Secretary of Defense 
Memorandum, dated 28 Jan 08
    <bullet>  DOD Instruction 3020.50, dated 22 Jul 09
    <bullet>  Section 813 of the FY2010 National Defense 
Authorization Act
    <bullet>  Chairman of the Joint Chiefs of Staff Manual 
(CJCSM) 3150.13C, dated 10 Mar 10
    <bullet>  DOD Instruction 3020.41.41, dated 20 Dec 11
    <bullet>  Defense Federal Acquisition Regulation Supplement 
(DFARS) Clause 252.225-7040
    <bullet>  DFARS Class Deviation 2013-O0015
    <bullet>  DFARS 2013-O0017

    Senator McCaskill. And also, General Austin, if you could 
share with us how many contractors have been plussed-up in Iraq 
as a result of our efforts against ISIL. You know, we had 
gotten to the point that we were just counting contractors in 
Afghanistan, now we're back to counting contractors again in 
Iraq. And we would appreciate an update on that number, also.
    General Austin. Yes, Senator. I'll take that for the 
record.
    [The information referred to follows:]

    US Central Command recognizes the importance of balancing a 
small contractor footprint in Iraq with supporting the current 
operations. Currently, there are 579 Department of Defense 
contractors in Iraq. This is an increase of approximately 450 
contractors since October 2014.

    Senator McCaskill. Thank you so much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for all your service 
and for the men and women who sit behind you, not just on 
behalf of all the troops you represent, but you, personally. I 
know you've spent many years downrange.
    General Austin, I want to return to the topic Senator 
McCain was addressing about our airstrikes in Tikrit. So, do I 
understand you correctly to say that there are now no Iranian 
forces in Tikrit?
    General Austin. The forces that are clearing Tikrit are ISF 
forces, Special Operations Forces, and Federal police. And, as 
of this morning, when I checked with my commanders, the Shiite 
militia and PMF have pulled back.
    Senator Cotton. So, by ``pull back,'' do we mean there are 
still Shiite militias, like the Badr organization or even 
Iranian forces from Quds Force, in the vicinity of Tikrit?
    General Austin. I'm sure they're still in the area. I'm 
sure that there are forces probably on the east side of the 
river. And, as you know, Tikrit is--the city of Tikrit is on 
the west side of the river.
    Senator Cotton. Do we know the whereabouts of Qasem 
Suleimani?
    General Austin. To my understanding, Qasem Suleimani is--
you know, my last update, he was not in Tikrit or in that area.
    Senator Cotton. In any way have we implemented fire control 
measures to ensure that we don't strike any of the Shiite 
paramilitary forces or Iranian elements that are in the 
vicinity of Tikrit?
    General Austin. We certainly have--we've caused the Iraqi 
Security Forces to develop a scheme of maneuver that can 
effectively accomplish the mission of clearing the town. And 
our fires are supportive of that effort. And so, we're focused 
on that. We always do everything that we can to ensure that 
there's not excessive collateral damage. But, our focus is on 
the ISF forces that we're supporting.
    Senator Cotton. Would you consider it collateral damage if 
members of the Quds Force, to include Qasem Suleimani, was in 
the vicinity of an American airstrike?
    General Austin. I would consider that unintended 
consequences.
    Senator Cotton. Does Qasem Suleimani have freedom of 
movement within Iraq?
    General Austin. I believe he does, Senator.
    Senator Cotton. General Votel, 6 months ago, President 
Obama cited Yemen as a example of a success of our 
counterterrorism strategy. Do you believe Yemen is a success 
story today?
    General Votel. Certainly with the withdrawal of our SOF 
forces over the weekend, it's certainly put us in a different 
posture right now, particularly against the threat that we were 
focused on, there, of al-Qaeda in the Arabian Peninsula. So, 
it's much more challenging today than it was when we had people 
on the ground.
    Senator Cotton. General Austin, do you consider Yemen a 
success story today?
    General Austin. Certainly Yemen is a very troubled country 
today, with the challenges that it's facing and the activity of 
the Houthis. And so, I think the country's in turmoil.
    Senator Cotton. General Austin, approximately 10 months 
ago, the President released five Taliban commanders in exchange 
for Bowe Bergdahl, who yesterday was charged with desertion by 
his chain of command. I believe their house arrest agreement 
expires in 2 months. Is that correct?
    General Austin. I believe that to be correct, Senator.
    Senator Cotton. Do we know what will happen to those five 
Taliban commanders in 2 months in Qatar when that agreement 
expires?
    General Austin. I don't, Senator.
    Senator Cotton. Will they have freedom of movement both 
inside and outside Qatar at that point?
    General Austin. I think that's--I would probably have to 
consult the Qatar Government--Qatari government and also the 
elements in our government that are charged with monitoring the 
movement of these elements. So, I can't answer that, Senator. I 
can take that for the record and try to do the research on it.
    Senator Cotton. I would like to get an answer for that for 
the record. Thank you, General Austin.
    And I'll address this to General Austin and General 
Rodriguez. Given the situation in Yemen, if there were action 
by militants there to block the Mandeb Strait, I presume that 
American forces would immediately act to reopen that strait.
    General Austin. We would work in conjunction with our GCC 
partners to ensure that those straits remain open. It's one of 
our core interests, to ensure that we have free flow of 
commerce through both straits.
    General Rodriguez. Yes, sir. We'd also work with both the 
host nations of Africa as well as our European partners to 
support those efforts, sir.
    Senator Cotton. Thank you, gentlemen. I appreciate your 
answers. And, once again, I appreciate your service to our 
country.
    Chairman McCain. For the record, I'd like a response to 
Senator Cotton's question. Do you consider Yemen a success 
story, or not? Yes or no. It's pretty simple, straightforward 
question.
    General Austin. It's currently not a success story, sir.
    Chairman McCain. General Votel?
    General Votel. I agree, Senator, it's not a success story 
today.
    Chairman McCain. Thank you very much.
    Senator King.
    Senator King. When the President made that statement, he 
was talking about our antiterrorism efforts against AQAP, was 
he not, General Votel?
    General Votel. I believe that's correct, Senator.
    Senator King. He wasn't talking about Yemen, itself. He was 
talking about the success of our counterterrorism against AQAP. 
Naturally, the deterioration of the situation in Yemen has 
compromised that.
    My followup question is, How much has it compromised it? 
Are we able to maintain that counterterrorism effort against 
AQAP, or is that in abeyance, pending the dust settling in 
Yemen?
    General Votel. Well, I think right now, Senator--I think 
what we'll obviously be doing is working in conjunction with 
General Austin's headquarters and our other partners in the 
area to try to look at how we regain situational awareness and 
understanding of what's happening on the ground, and then look 
at how we can continue to address the threats that emanate from 
Yemen.
    Senator King. Thank you.
    I'd like to just briefly associate myself with Senator 
McCaskill's comments about using OCO to solve the sequestration 
problem. It obviously doesn't go the base budget. And it's 
unpaid for. It's just absolutely the wrong way to approach this 
problem. And I hope that Congress can find a more realistic and 
responsible solution to sequestration.
    Also, General Austin--again, without--because you've talked 
to Senator Donnelly about this--it seems to me that it's 
critically important that we use the leverage that we have, 
which apparently was used in the Tikrit battle, to be sure that 
this isn't a Shiite militia-led offensive. Because if this 
becomes another version of a war of Shiites against Sunnis, 
we've lost. This has to be inclusive. And I hope that your 
relationship with the--with President Abadi and the Iraqi 
government emphasizes that, because it's--it's just essential 
to a successful outcome in Iraq, regardless of the short-term 
strategic advantage in Tikrit or Mosul or--would you agree with 
that?
    General Austin. Sir, I would. And I would say, further, 
that we take--I take every opportunity to emphasize those exact 
points to the leadership in Iraq when I engage them.
    Senator King. And it sounds like that--this airstrikes in 
the last couple of days in Tikrit were, in fact, conditioned on 
that kind of consideration. Is that correct?
    General Austin. That's correct, sir. This operation had to 
be under the control of the Government of Iraq and Iraqi 
Security Forces. There had to be a force, once the city is 
cleared, to maintain stability in that city. And that force 
needs to be an Iraqi Security Force. And so, those things--
those conditions were met, early on, in terms of the planning 
and the synchronization. And so, we were able to provide them 
some support.
    Senator King. Well, I certainly hope you stay that, but I 
think you can argue that a lot of the problems we're having in 
Iraq now are because of the Maliki government's failure to be 
inclusive. And we can't make that mistake again.
    Let's turn for a moment to Afghanistan. We heard a 
wonderful, strong, passionate speech from President Ghani this 
week. I'm concerned that we're still in a calendar-driven 
status in Afghanistan. And even though the President has 
allowed troops to stay through 2015, the--we're still talking 
about Kabul-only at the end of 2016. Do you believe that's 
going to be sufficient in order to support the Afghans? I mean, 
we've made such progress there. I would just hate to see us 
pull out, in terms of air support, authorities for air support, 
and train-and-direct services. Give me your thoughts on that.
    General Austin. Sir, I certainly agree with you that the 
new leadership in Afghanistan causes all of us to be encouraged 
and optimistic. And I think, from what I've seen both President 
Ghani do and also the CEO [Chief Executive Officer] Abdullah 
do, in terms of reaching out to the international community, in 
terms of reaching out to the folks in the region as well, it's 
all encouraging. The relationships with the security forces, 
they're supportive of the security forces. Their statements of 
common goals with the U.S., I think, all very encouraging.
    So, I think this gives us opportunities--new opportunities 
that, you know, we didn't have before. And we really have to 
think about what we want our relationship to be with 
Afghanistan, going forward, and what it means for the region.
    Senator King. Well, I certainly hope you will counsel the 
White House to think seriously about what I would consider a 
modest additional investment to maintain the tremendous gains 
that have been had. It's not for sure that the regime in--or 
the Government of Afghanistan can withstand the Taliban on 
their own. And, after what we've invested over the past 13 
years, to walk away at the--at 5 minutes of midnight and see it 
all collapse, I think would be a real shame. So, I hope you 
will urge that on the policymakers, based upon General Campbell 
and the other information you're receiving from the field. They 
need not only those troops, but they need authorities, they--
President Ghani talked about air support. I think that's going 
to be crucial. So, carry that message, will you, sir?
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you very much for being here today, and 
also to your staff. Thank you for your many years of combined 
service to the United States.
    General Votel, I just want to mention, in your testimony 
today--I would like to thank you for mentioning not only our 
Active Duty forces, but the Reserve and National Guard 
components, your operators, your logisticians, your analysts, 
and so forth. It's all one team, one fight. So, I appreciate 
you acknowledging that today.
    Something else that you brought up, and a couple of others 
have mentioned, too, is stress and suicide with our Active Duty 
members and with our veterans, those that have gotten off of 
Active Duty. It is important that we continue with resiliency 
programs and making sure that, not only are they physically fit 
for the fight, but they're mentally fit, as well. So, thank you 
for bringing that forward. A number of us are working on 
initiatives to make sure that they are well cared for.
    I would like to address my question and thoughts--General 
Austin and General Votel. Last week was the 12th anniversary of 
our entrance into Iraq with the Iraq War. We've had 3,000--
excuse me--4,000 American servicemen and -women that have lost 
their lives in Iraq. And we've had another 40,000 that have 
been injured in that war. And I want to thank you for your 
service in that war. I know all of you have engaged, at one 
point or another, in the war in Iraq. Many of our servicemen 
and -women will come home with not only invisible injuries, but 
physical injuries that will impact their lives for many, many 
years. But, before we ever entered into Iraq on March 20th of 
2003, the Iraqi Kurds were already engaged and preparing the 
battlefield before we ever got there. They have been an 
important part of our effort in Iraq. And so, I would like your 
thoughts on involving--more involvement of the Iraqi Kurds, the 
Peshmerga, in this fight, and, really, what their role has been 
from 2003 forward. If you would please address that.
    General Austin?
    General Austin. Thank you, Senator.
    And I agree. You know, I was, as you probably know, with 
the elements when we went into Iraq, 12 years ago. And--
whereas, I didn't initially make it all the way up to 
Kurdistan, I can tell you that what the Kurds were doing in the 
north at that point in time was very instrumental to the 
forces, our forces that followed in or flowed in later and 
facilitated our work there.
    Most recently, with their efforts in the current fight 
against ISIL, they really have done a terrific job. And, you 
know, I've talked with President Barzani and his staff, on 
numerous occasions, about, you know, what we're doing, what the 
requirements were, and what they needed to do more. As you look 
at what they've done in the north up there, in terms of 
actually inflicting damage on ISIL, I think their efforts have 
really shaped this overall fight in a very positive direction. 
And they continue to do more on a daily basis. So, they're a 
big part of this fight. They've punched above their weight 
class, and I think they will continue to do so.
    Senator Ernst. General Votel?
    General Votel. Thank you, Senator.
    I absolutely agree with what General Austin said. I would 
only add that a key part of the Kurdish relationship really has 
been the long-term relationship with them. And so, they were a 
key partner with SOF forces when we were there from 2003 
through 2011, and helped us address a variety of networks. And 
I do believe that the great and enduring relationship that we 
have had with them, from a SOF force to Kurdish force aspect, 
really was one of the initial successes we were able to achieve 
when we went back in there late last summer. We were able to 
quickly renew those relationships, draw on those partnerships, 
and get going very, very quickly in some areas. And so, that--
to me, that highlights the importance of that--of the long-term 
relationship that we've been able to develop with them.
    Senator Ernst. Do you believe that our resources would be 
best utilized if we were directly arming the Peshmerga, the 
Kurdish forces?
    General Votel. Well, that, I think, is a policy question. 
Certainly, they are very capable forces. And so, I do think 
they would make good use of any resources that are provided to 
them.
    Senator Ernst. Yes, I think they have been an exceptional 
force and ally to our American forces in that region.
    Thank you very much, gentlemen, for your service, and also 
to your staff for being here in support today.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you, to the witnesses, for your strong testimony 
this morning.
    I want to begin with Yemen. I was intrigued with the 
account in news this morning about the Saudi and other action 
in Yemen; and, in particular, the number of partners that have 
been part of this. In addition to Saudi Arabia, Bahrain, 
Kuwait, Qatar, UAE, Jordan, Morocco, there is press report that 
Egypt is involved, and, perhaps a little surprisingly, Pakistan 
and Sudan. So, nine nations, in addition to Saudi Arabia, 
springing into action to deal with this threat of the Houthi 
takeover of the government in Yemen.
    I'm gratified by that. I want to see a region that will 
stand up and try to deal with its own problems, rather than 
telling us, you know, quietly, that they think it's a problem, 
and not doing anything.
    But, I was also struck by the fact that those nine nations 
haven't come together and acted with dispatch against ISIL. 
They're involved, but they are not acting with dispatch against 
ISIL, even nearly a year into ISIL's sort of accelerated taking 
of territory in Syria and Iraq.
    And, just--you know, as experts who have spent a lot of 
time in the region, what explains why these nine nations would 
react with such speed and force to the Houthi takeover in 
Yemen, but would not be so engaged in the fight against ISIL?
    General Austin. Sir, like you, I am very encouraged that 
we've seen what we've seen here in--recently, with a number of 
nations coming together to address a problem. The core of these 
nations is--are GCC nations. And I certainly believe that they 
all think that Yemen is a very critical piece of real estate, 
just based upon the geography. Most important, it shares a 
border with Saudi Arabia and Oman. And I think--so, the GCC 
countries are naturally predisposed to helping protect another 
GCC country. And then, the relationships between the Saudis and 
the Egyptians and others are really what's driving their 
participation there.
    I would remind you, Senator--I know you are very, very well 
aware of this, but--the night that we flew into Syria for the 
first time, we had five Sunni Arab-led nations fly in that 
formation with us, which is really unprecedented. And we 
continue to see them offer material support, and they also have 
offered to train and equip forces. But, throughout, they have 
remained with us, in terms of flying strikes against Syria. So, 
they have continued to participate in that. Now, as they begin 
to focus on the Yemen problem, naturally, because of resources, 
we'll probably see less of an effort in Syria.
    Senator Kaine. The--you indicated that you thought--in 
response to earlier questioning--that you thought that ISIL was 
our most pressing challenge, but Iran was our greatest long-
term challenge. Is a possible explanation for the force of the 
action against Yemen is that all of these nations believe that 
Iran is their more pressing challenge, and actually don't think 
of ISIL as the same kind of pressing challenge that they view 
when they look at Iran?
    General Austin. I can attest to the fact that they do see 
ISIL as a pressing challenge, sir. I do think that a big driver 
here is that--you know, that the geography associated with 
this--Yemen border, Saudi, and Oman--and clearly a direct 
threat to their homeland. So----
    Senator Kaine. Each of you work in the military lane, but 
with partners. Partners: State, AID, DOJ, DEA, DHS, the intel 
agencies. There's been questions here about the effect of 
sequester on the military mission. But, would you not also 
agree that, to the extent that sequester affects your allied 
agencies that you work with in your COCOMs or in Special 
Forces, that that is also an aspect of sequester that we need 
to take seriously if we're trying to avoid challenges to our 
National security?
    General Austin. I agree, Senator.
    General Rodriguez. I do, too, Senator.
    General Votel. I definitely agree, Senator.
    Senator Kaine. General Rodriguez, the attack in Tunisia was 
particularly troubling. Tunisia, small country, but, you know, 
kind of a bright spot, in a way, in terms of how they have come 
out of the Arab Spring with a constitution, with Islamic 
parties participating in democracy, even stepping back from 
power. What has your observation been about the Tunisian 
government's--newly formed, newly elected government's reaction 
to the terrorist attack at the museum in Tunisia? And what's 
your assessment of how they are, going forward, and how we can 
help them succeed?
    General Rodriguez. I think that their response has been 
very effective. Their military institutions are strong and was 
also a stabilizing influence as that--they went through that 
transition. And we continue to work with them to build some of 
their capacities with some of our interagency partners. Those 
elements were involved in that effort. And we continue to also 
share intelligence with them. And we will continue to build up 
their capacity to ensure that they continue to move in a 
positive trajectory, sir.
    Senator Kaine. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your service.
    Mr. Chairman, I want to let--wanted to let you know, 10 
years ago, as a Marine Corps major, I had the privilege of 
serving with General Austin. And I can tell you he's one of the 
finest officers I've ever served with. So, I'm very heartened 
that he's in this very important position.
    Chairman McCain. He's not generally very nice to Marines, 
so I'm glad to hear that.
    [Laughter.]
    Senator Sullivan. I see he's got one there on his staff, 
so, keeping in full tradition of the CENTCOM respect for the 
Marine Corps, I appreciate that.
    General Votel, I wanted to ask you a question relating to--
really some clarification. You know, one of the things I think 
it's very important for us, in the Congress and in the military 
and in the administration, is to speak with language that's--
gives our citizens a sense of what's really happening. And one 
of the things that you hear a lot about now--President, the 
administration, talks a lot about, you know, ``winding down 
combat operations,'' ``combat operations are over,'' ``we've 
ended combat operations in Afghanistan.'' That's been stated 
several times. The President of Afghanistan even mentioned that 
in a joint session of Congress yesterday. But, you also 
mentioned that we have a robust CT [Counter Terrorism] effort. 
So, aren't we kind of speaking out of both sides of our mouths? 
Isn't a robust CT effort the very definition of combat 
operations? And don't we still have combat operations going on 
in Afghanistan?
    General Votel. We are--Senator, thanks for the question--we 
are obviously supporting our Afghan partners in their execution 
of what could be termed as combat operations, at their effort.
    To your first part of your question with respect to, you 
know, counterterrorism, you know, counterterrorism, I think, 
is--as we pursue this here, isn't--is not just the kinetic 
aspect of it. And----
    Senator Sullivan. But, it is kind of the epitome of combat 
operations.
    General Votel. It is----
    Senator Sullivan. Aren't American soldiers, when they're 
conducting combat operations in Afghanistan, or 
counterterrorism operations in Afghanistan--isn't that the 
definition of combat operations? They're going in with weapons, 
killing bad guys. Correct?
    General Votel. We are not doing that today. What we----
    Senator Sullivan. There's no----
    General Votel.--are doing----
    Senator Sullivan. There's no CT operations where we're 
engaged----
    General Votel. There are----
    Senator Sullivan.--with the enemy?
    General Votel. There are CT operations. But, CT operations 
involve not only helping and enabling our partners, who are 
helping us with our CT objectives, the conduct of discreet 
action that we are taking, like kinetic strikes that are 
specifically against threats there, and then how we address the 
overall ideology and narrative aspect of this. So, there----
    Senator Sullivan. But, our CT operations are not members of 
the U.S. military in action against enemy forces?
    General Votel. Right now, today, we are not putting people 
as--in unilateral United States operations in against forces on 
the ground in Afghanistan. We are supporting our Afghan 
partners as we get after those, and we are doing other 
operations related to those networks.
    Senator Sullivan. Okay. I--again, I think that 
clarification is important, just because--seems to me if we 
have Special Forces operators in Afghanistan, in direct combat, 
we should let the American people know. But, if you're saying 
that's not the case, that there's no combat going on, there's 
no SF actions, direct actions, against al-Qaeda operatives or 
anything else like that--is that----
    General Votel. Senator, I'm not saying there's no combat 
going on. What I'm saying is, there's no unilateral U.S. combat 
going on. We are working through our partners when we do 
operations on the ground.
    Senator Sullivan. Do we have JTACs [Joint Terminal Attack 
Controllers] on the ground, either in Syria or Iraq, calling in 
missions?
    General Votel. We have JTACs that are operating at command-
and-control locations----
    Senator Sullivan. But, they're not on the ground----
    General Votel. They're----
    Senator Sullivan.--front-line troops calling in----
    General Votel. They're certainly not accompanying forces 
forward, doing operations.
    Senator Sullivan. General Austin, I was wondering--you 
know, you mentioned the whole-of-government approach with 
regard to ISIL. I appreciate that. Appreciate the fact that 
you're focused on the military aspects of that. But, what are 
the other instruments of power that we're bringing to bear with 
regard to--American power with regard to ISIL? And--I just 
haven't really seen the administration articulate that at all. 
You mentioned it in your testimony. I think that's very 
encouraging. But, what is it? We haven't really seen it. Again, 
I know it's not your realm that you're responsible for, but it 
would be heartening to know what other instruments of our 
American power we're integrating to the fight with regard to 
defeating ISIS.
    General Austin. There are a couple of important things that 
have to be done, Senator, as you know, in order to really 
defeat this enemy. The kinetic piece of it's one issue. But, 
you really have to take--do some very constructive things to 
begin to cut off the enemy's ability to resource themselves. 
So, countering the threat financing is one issue. And then 
stopping the flow of foreign fighters, or slowing down the flow 
of foreign fighters. Both of those issues have to be worked by, 
you know, our government--whole-of-government, and they have to 
be worked in conjunction with other countries, not only in the 
region, but internationally.
    And also, there is a requirement or a need to counter the 
narrative. And so, I think we have to do more there. I know 
there are some initial steps that have been taken to begin to 
do that, but there's a lot of work yet to be done.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    I want to thank the witnesses for being here and for what 
you've done for our country, and continue to do.
    I wanted to ask, General Austin again, a couple of 
questions about Yemen. Senator Kaine had pointed out that there 
were--in addition to the Saudis, there were nine other 
countries that were participating in this coalition to assist 
in Yemen. So, just to be clear, we've been, obviously, 
participating, State Department side, on negotiations with Iran 
for--very intensely, probably for the last year, at least, if 
not more. And during that period, what has Iran been doing in 
Yemen? And is it not the fact that Iran's influence in support 
of the Houthis which is, in part, prompting the Saudis and 
others to engage in this?
    General Austin. Certainly, Senator, Iran is--has been 
enabling the activity of the Houthis as they've done what 
they've done. And I would go further to say that, you know, 
Iran's desire is to be a hegemon in this region.
    Senator Ayotte. Meaning regional domination.
    General Austin. Right. Right.
    Senator Ayotte. Yeah.
    General Austin. And it--as it seeks to increase its 
influence in various countries, it does so through the reach of 
the Shiite populations in those countries. That won't allow 
Iran to dominate any specific country in the region, but what 
it does do is, it increases--it serves to increase sectarian 
tension, and thereby, it serves as a destabilizing effort.
    Senator Ayotte. Let me just be clear. When we're talking 
support, both--I know, General Votel, you're familiar with 
this, as well--when we're talking about the support, we're 
talking about money and arms, aren't we? I mean, we're not just 
talking about, ``Boy, we support you, because you're Shiite.'' 
I mean, we're talking about actual support. Aren't they 
giving--on the ground?
    General Austin. Yes, we--yes, Senator, we are talking about 
material support, as well. And--but, again, I think that 
support is provided through the Shiite----
    Senator Ayotte. Through their proxies----
    General Austin. Right.
    Senator Ayotte.--they give them the money and the arms, 
which has undermined our interests in the mission that we had, 
and cooperation that we had, to try to deal with al-Qaeda. 
Isn't that right, General Votel? In Yemen?
    General Votel. I--yes, Senator, I think it is true.
    Senator Ayotte. So, the other thing I wanted to ask about, 
General Austin, is Bahrain. We have an important partnership in 
Bahrain, do we not? In fact, we have the location there of the 
United States 5th Fleet, correct?
    General Austin. That's correct, Senator.
    Senator Ayotte. And what's Iran doing with regard to the 
Bahrain Government right now, which is a Sunni government? As I 
understand it, they are also trying to destabilize that 
government, which, of course, would, in my view, threaten our 
interests there.
    General Austin. Correct, Senator. We see the same reach 
through the Shiite population, which increases sectarian 
tension and serves as a destabilizing effect.
    Senator Ayotte. Which--you know, obviously, Bahrain is a 
different country than Yemen, but it's a similar playbook in a 
different country, is it not?
    General Austin. It's a similar approach. I----
    Senator Ayotte. Similar approach, but I--I mean, obviously, 
they're very different countries.
    General Austin. Yes, ma'am.
    Senator Ayotte. But, I think we need to be clear here what 
Iran's activities have been. And, as I look at your testimony, 
you--one of the things you pointed out, General Austin, is that 
the Iran routinely engages in malign activity through the 
Iranian threat network. Iran is also engaging in malign 
activity through support to proxy actors, such as Lebanese 
Hezbollah and Hamas, which threatens the sovereignty and 
security of Israel. This has all been going on in addition to 
undermining our interests in Yemen, correct?
    General Austin. That's correct.
    Senator Ayotte. So, you know, this is obviously, I think, 
as we look at this issue of the regional--attempt at regional 
domination by Iran, this is of deep concern to us, in the long 
term, and even in the short term, in terms of how this region 
can be destabilized further. Is that true?
    General Austin. There is a significant concern, for a long 
time--long-term effects, in terms of this type of behavior 
destabilizing the region and having effects in other parts of 
the globe, as well.
    Senator Ayotte. And, in fact, I think could further fuel 
sort of a Sunni-Shiite fight in the region if they continue 
their efforts towards regional domination. Would you agree?
    General Austin. Yeah, I would.
    Senator Ayotte. Thank you.
    I just wanted to comment, as well, on Senator Cotton's 
question to you about the status of the Taliban five. And I 
know that you're going to get back to him on it, but I have to 
say, I find it shocking, the fact that you are Commander of 
AFRICOM and that the State Department has not already 
coordinated with you. It's not--not putting this on you, is--my 
point is, the fact that we've got these dangerous--you're--you 
know, you're the Commander of CENTCOM. These two countries, 
Qatar and also where the Taliban five is from and could return 
and could prevent--and present great danger into Afghanistan. 
It would seem to me that you would be, I would hope, most 
closely consulted on this. So, I'm actually kind of dumfounded 
that they aren't consulting you now and that there doesn't 
appear to be a plan.
    So, you know, I look forward to the followup, but, you 
know, to the State Department, to everyone else out there, to 
this administration, seems to me the Commander of CENTCOM needs 
to be brought in this, in terms of the five potential 
commanders that could get back on the ground in Afghanistan and 
threaten our troops.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    And thanks, to all of you here today, and to the men and 
women who serve under your command, and all you do to help 
protect us.
    Last year, I expressed some reluctance regarding the Syria 
train-and-equip program, based on concerns that any lethal 
assistance that we may provide might end up inadvertently--or, 
in some cases, perhaps purposely--end up in the hands of some 
of the very extremists that we're attempting to fight against. 
And that could possibly fuel further violence in the region.
    While I believe that the servicemembers who are under your 
command, who are in the process of executing this program, are 
the most skilled in the world at what they do--and that's 
really what gives this program the very best chance of 
success--the losses of United States-provided equipment by the 
Iraqi Security Forces last year, and in Yemen this year, are 
stark lessons that the fluid and volatile nature of the Middle 
East can compromise even our best-laid plans.
    I'm further concerned that, for this program to have the 
best chance of success, the United States will need to become 
more militarily involved in this conflict than many Americans 
may realize.
    Secretary Carter stated recently, when referring to the 
forces that we train and equip in Syria, that, quote, ``We will 
have some obligation to support them after they're trained,'' 
close quote. Yet, we don't know what that support would look 
like, nor do we know, at this point, what the costs associated 
with that would look like.
    This program, as part of the administration's strategy to 
address the ISIS threat, should be fully and openly debated in 
this body so that the American people might have a say in how 
their military forces are used.
    General Austin, since this program was conceptualized, it 
was reasonable to expect a situation in which Syrian rebels we 
armed might face a larger or better-equipped army--larger or 
better-equipped enemy. Why was the decision made to start the 
train-and-equip program--why was that decision made before 
determining whether the United States would provide further 
protection or support for the groups once they were trained and 
equipped and returned to Syria?
    General Austin. It was made because we will need a--an 
element on the ground to complement the work that we're doing 
with our fires to begin to counter ISIL in Syria. And, you 
know, my best military advice as we go forward is that, as we 
introduce forces that we've trained and equipped, then we 
should provide them support. We should not only look to provide 
them fires, we should provide them logistics, we should provide 
them intel support, as well. And so, I think that gives them 
the best opportunity for success.
    Senator Lee. So, do you think that Assad's forces in Syria 
will attempt to attack some of these opposition members that 
we've trained and equipped? And, if so, what level of military 
involvement should we expect from American forces?
    General Austin. I think there's a likelihood that that can 
happen. We'll try to--initially, as we put forces in and begin 
to build combat power, we'll put them in those positions where 
they are focused on ISIL. That's the first task at hand. And 
then, again, if they are attacked, then I think we should 
protect them.
    Senator Lee. What do we do if the forces that we train and 
equip end up attacking Assad's forces?
    General Austin. Well, initially, that's not the--that's not 
what we--we're focused on. So, we will discontinue providing 
support to those forces if they vector off and do things that 
we haven't designed them to do initially and asked them to 
focus on initially.
    Senator Lee. Do you think that the success of the 
opposition groups that we're training and equipping, that we're 
supporting, do you think that'll require a new governing 
structure in Damascus? And, if so, would the U.S. military be 
involved in helping to facilitate that change?
    General Austin. I think eventually forces will need to plug 
into some type of structure, for sure. And again, that's not 
what the military typically does. But, again, this is a whole-
of-government approach, here, so----
    Senator Lee. Okay, thank you, General Austin.
    Thank you, Mr. Chairman.
    Chairman McCain. General, I'd just like to follow up on 
what Senator Lee said. In Syria, these young people we are 
training and we send them back into Syria, if they're attacked 
by Assad, we're not going to protect them?
    General Austin. Sir, I----
    Chairman McCain. Are we going to protect them?
    General Austin. My thought--my recommendation would be that 
we protect them, no matter who's attacking them. So, we have to 
protect these forces once we've trained them and put them on 
the ground.
    Chairman McCain. Well, are we going to have any provision 
to protect them?
    General Austin. We currently don't have that, that policy 
decision, sir. But, as I----
    Chairman McCain. So, we're going to train them to go back 
into Syria; and, if Bashar Assad barrel-bombs them, we don't 
have a policy yet as to whether we protect them, or not?
    General Austin. We--currently, sir, that decision has not 
been taken, and----
    Chairman McCain. Well, then why are we training them if 
we're not going to be able to tell them that we're not going 
to--whether we're going to protect them, or not?
    General Austin. I'm very hopeful that we will be able to 
tell them that, sir.
    Chairman McCain. Well, I'm very hopeful, too. But, hope 
really doesn't stop barrel-bombing.
    Could you--could I ask you again when it is that the Saudis 
notified you that they were going to begin attacks in Yemen?
    General Austin. Sir, I had a discussion with the Saudi CHOD 
the day of the attack, so it was not much before that they 
actually started the attacks.
    Chairman McCain. Isn't that quite a commentary on our 
relationship with Saudi Arabia and the other 13 countries in 
their coalition, that they would--on literally the day of their 
attacks, they tell you that--tell the United States of America 
that they're going to launch a major campaign? I mean, that is 
really a fantastic indicator of the deterioration of the trust 
and confidence that these countries, particularly Saudi Arabia, 
have in us. And it authenticates what has been quoted quite 
frequently, that some people believe it's better to be an enemy 
of the United States than a friend. And--I mean, this is really 
quite remarkable.
    And again, finally, I do not know how you recruit young 
people to fight, and tell them that they're going to back in to 
a country, and we don't have a policy yet whether we're going 
to protect them, or not. General, that's immoral. It's not only 
unworkable, it's immoral to tell people to not--to tell the--be 
able to tell them that, if we train and equip them to go in and 
fight, that we're not going to--that we haven't yet got a 
policy on whether we're going to protect them, or not. I would 
say that that would also be something of a disincentive for 
recruitment.
    So, I hope, for the sake of these young people's lives that 
we are training now, that we at least have a policy decision as 
to whether we're going to protect them, or not. And, of course, 
the best way to do that is with a no-fly zone, which has been 
recommended, years ago, without any result from this President.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    I want to follow the Chairman's line of questioning. So, 
what do you believe the strategy is for this new campaign? And 
what's the ultimate goal? In Yemen, sorry.
    General Austin. I don't know what the Saudis--the specifics 
of their goals and objectives. I can tell you that they're 
interested, number one, in protecting their homeland--they have 
a border with Yemen, obviously--and also, that they received 
requests from the President of Yemen to help with military 
assistance. So----
    Senator Gillibrand. What advice have you given, or will you 
give, the President about what our role should be?
    General Austin. Our current position is that we'll help the 
Saudis with intelligence and logistics and planning support. 
And again, they're great partners, and I think they're very 
much appreciative of the help that we'll provide them.
    Senator Gillibrand. What's your assessment of the 
likelihood of success?
    General Austin. In Yemen?
    Senator Gillibrand. Yes.
    General Austin. Again, Senator, I don't currently know the 
specific goals and objectives of the Saudi campaign. And I'd 
have to know that to be able to assess the likelihood of 
success.
    Senator Gillibrand. Well, I do hope you get that 
information sooner than later, because, you know, more than 
$500 million in United States military assistance to Yemen can 
no longer be accounted for and has fallen into the wrong hands. 
We have a role in Yemen that we have to have much greater 
accountability for. How does something like that happen? And, 
given the instability in the region, what steps should the U.S. 
be taking to protect or prevent losses like that in the future?
    General Austin. Yeah, so the $500 million, as I understand 
it, Senator, were--is the amount of investment over an 8-year 
period that we've made to help the Yemeni government, the 
Yemeni military forces, or security forces, build capacity. 
This not only includes materials, but it also includes 
training. And, as you know, training can be somewhat costly. 
When we are there, we have the ability to monitor how this 
equipment's being used. But, of course, you know, the embassy's 
no longer there, and it doesn't have a Office of Security 
Cooperation that would typically do these things. And so, we 
don't have that ability, currently. If we have the opportunity 
to go back in and partner with the new government, or a 
government, then I think, you know, that'll be a--one of our 
focus areas.
    Senator Gillibrand. Well, given that the Houthis are still 
in control, how do you believe we should deal with al-Qaeda in 
the Arabian Peninsula, given the state of Yemen?
    General Austin. Thanks, Senator. I think that, as we have 
done and will continue to do in every case where we don't have 
people on the ground but there is a threat there that we need 
to concerned about, we'll use every intelligence-collection 
capability that's available to us to continue to monitor what's 
going on with this extremist network. And we do have resources 
that are in the region that we can use to apply to counter this 
network once we've developed the appropriate intelligence.
    Senator Gillibrand. And what do you see is the presence of 
ISIL in the region? And is that going to be affected by the 
state of Yemen today?
    General Austin. If I could get you to--if I could ask a 
question on--get you to ask that question again, Senator, I 
missed a piece of it. How do I see----
    Senator Gillibrand. How do you see the threat of ISIL in 
that region?
    General Austin. Well, I think the threat of ISIL in the 
region, Senator, is the most pressing threat that we're facing. 
And, as I----
    Senator Gillibrand. In Yemen. I'm still on Yemen.
    General Austin. In Yemen, that's really undetermined. I 
know that the most recent attack was attributed to an ISIL 
element in Yemen, but I think the intelligence agencies are 
still working their way through that, you know, to determine 
the veracity of whether or not this is really a hardcore ISIL 
element or someone claiming to be ISIL or, you know, what this 
really is. Clearly, AQAP [Al-Qaeda in the Arabian Peninsula] is 
dominant in that country. And whether or not ISIL and AQAP can 
coexist is left to be seen.
    Senator Gillibrand. Thank you very much.
    Chairman McCain. I thank the witnesses, and----
    Senator Cotton. Senator McCain, can----
    Chairman McCain. Senator Cotton.
    Senator Cotton. One point, to follow up on something that 
he just said. There's a Breaking News Alert from the Associated 
Press, General Austin, that Egypt and Saudi Arabia have begun a 
ground incursion into Yemen. Did Saudi Arabia or any other 
country give you or Central Command advance notice of this, if 
this report is accurate?
    General Austin. No, I did not have advance notice of that.
    Senator Cotton. Thank you.
    Chairman McCain. That's quite a commentary.
    This hearing is adjourned.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Roger F. Wicker
    1. Senator Wicker. General Austin and General Rodriguez, U.S. 
Africa Command (AFRICOM) and certain regions of U.S. Central Command 
(CENTCOM) have suffered from resource shortfalls, particularly when it 
comes to persistent intelligence, surveillance, and reconnaissance 
(ISR).
    Last year, General Rodriguez testified before our Committee that 
only 11 percent of his ISR requirements were being met. I also 
understand that dynamic battle lines in Syria and Iraq have also 
escalated CENTCOM's demand for persistent ISR. How much of your ISR 
requirements are currently being met?
    General Austin. [Deleted.]
    General Rodriguez. [Deleted.]

    2. Senator Wicker. General Austin and General Rodriguez, can you 
describe how resource shortfalls impact your ability to accomplish your 
missions?
    General Austin. [Deleted.]
    General Rodriguez. [Deleted.]

    3. Senator Wicker. General Austin and General Rodriguez, Congress 
will do what it can to expedite delivery of the tools you need in the 
field. Will you provide to the committee a written list of your 
Combatant Commander Joint Urgent Operational Needs (JUONs) as they 
relate to ISR?
    General Austin. [Deleted.]
    General Rodriguez. USAFRICOM does not have any active JUONs.
                               __________
              Questions Submitted by Senator Kelly Ayotte
                            detention policy
    4. Senator Ayotte. General Austin, General Rodriguez, and General 
Votel, if we capture Ayman al-Zawahiri tonight, how much useful 
intelligence do you think he would have?
    General Austin. We believe it is likely that Ayman al-Zawahiri has 
extensive knowledge of al-Qaeda's global network, which would include 
plans for attacks against the West. Zawahiri may also have in his 
possession a large cache of documents and electronic media which would 
be valuable to the intelligence community.
    General Rodriguez. [Deleted.]
    General Votel. Capturing Zawahiri would be a significant victory 
for all nations that have been engaged in counterterrorism operations 
against al-Qaeda since 2001. Zawahiri has been the architect for al-
Qaeda's jihadist narrative for more than two decades and would be the 
most senior al-Qaeda leader ever detained. Intelligence collection and 
reporting on Zawahiri's activities have been limited since he became 
the leader of al-Qaeda following the death of Usama bin Laden in May 
2011. However, we believe Zawahiri could provide valuable information 
regarding the status of operations that are being planned by the core 
elements in Afghanistan/Pakistan and possibly by his affiliate groups 
in Yemen, Syria, Somalia, and Algeria. Zawahiri could also provide an 
understanding of his current and past relationships with the leaders of 
the Taliban, Haqqani Network, and other affiliate groups that help to 
form the Salafi-jihadist global network. Zawahiri could also describe 
his succession plan for the organization, including the status of the 
sons of senior al-Qaeda members who have been killed or captured (Bin 
Laden sons and Abu Khayr al-Masri sons) or emerging leaders yet known 
to the Intelligence Community and their potential to resurrect the next 
generation of jihad for al-Qaeda. Finally, Zawahiri may provide ways to 
help counter or undermine ISIL's activities using information 
operations.

    5. Senator Ayotte. General Austin, General Rodriguez, and General 
Votel, how long do you think it might take to gather that information 
from him?
    General Austin. Any hard copy or electronic material recovered from 
the capture of Ayman al-Zawahiri could be exploited relatively quickly, 
to include at the point of capture. That said, we cannot predict with 
certainty what or how much information of intelligence value Zawahiri 
will reveal.
    General Rodriguez. [Deleted.]
    General Votel. If/when Zawahiri is detained, he would be 
interrogated by the FBI-led High Value Interrogation Group (HIG) and 
this question could best be answered by the HIG. With that said, if 
Zawahiri was going to cooperate and provide information, the 
debriefings could potentially last months. However, it should be 
assumed that Zawahiri has been exposed to resistance training and he 
may never divulge information of intelligence value.

    6. Senator Ayotte. General Austin, General Rodriguez, and General 
Votel, where would we detain and interrogate him?
    General Austin. [Deleted.]
    General Rodriguez. Where to interrogate al-Zawahiri is a decision 
for senior U.S. policy makers.
    General Votel. The capture of Zawahiri would occur under the 
operational authority of the Geographic Combatant Commander (GCC) of 
the location of the capture, with Special Operations Forces assigned in 
support to that GCC. The location for the initial detention of Zawahiri 
will be dependent on the circumstances of capture, including the 
country in which he was located, the location of US forces and 
facilities, and agreements we may have with coalition partners or the 
country in which he was captured.
    Among the options for detention of Zawahiri, assuming the US 
intends to maintain full control of the target once captured, is 
removing him to a location under US control. Options, therefore, 
include removal to the continental US, to the Guantanamo Bay detention 
facility, or to a US Navy ship at sea.
    We could ask the host nation to hold Zawahiri in one of their 
national facilities. Removal of Zawahiri to a third country member of 
the coalition is a less likely course of action.
                              afghanistan
    7. Senator Ayotte. General Austin and General Votel, from the 
perspective of protecting our country and securing our interests, 
please describe the importance of continuing to build the Afghans' 
counterterrorism capabilities, as well as retaining a robust American 
counterterrorism capability in Afghanistan to support our mutual 
interests there.
    General Austin. [Deleted.]
    General Votel. A continued U.S. commitment to Afghanistan's 
security efforts enables the lasting mutually beneficial relationships 
needed to achieve U.S. objectives in the region to include ensuring 
Afghanistan does not fracture into safe havens from which terrorist 
organizations could attack the U.S. homeland. The Afghan Special 
Security Forces (ASSF) is central to ensuring the relative stability 
and security of Afghanistan over the long-term. These ASSF currently 
conduct unilateral security operations and are integrated into the 
Ministry of Defense and Ministry of Interior, maximizing strategic 
effects. U.S. Special Operations Forces (SOF) continue to train, 
advise, and assist ASSF in the areas of logistics and command and 
control to ensure a sustainable counterterrorism capability and partner 
in the region to help protect and secure U.S. interests.
    By the end of 2016, we expect the ASSF to make significant 
improvements to their core enabling functions. This is critical to U.S. 
interests in the region as we will be reliant upon a capable ASSF 
partner to conduct effective counterterrorism (CT) missions in 
Afghanistan. To achieve these objectives, the Department of Defense is 
making appropriate recommendations to the essential requirements to 
accomplish the tasks as outlined in the global employment of the force 
(GEF) directive and enable us to protect our vital national interests 
in the region. These recommendations will ensure we are appropriately 
resourced and authorized to conduct those activities essential for our 
national security.
                         human rights oversight
    8. Senator Ayotte. General Austin, General Rodriguez, and General 
Votel, section 1204 of the 2015 National Defense Authorization Act 
(NDAA) prohibits funding or training foreign units that have committed 
gross violations of human rights. Have there been any examples where a 
violation of human rights was discovered and funding or training was 
cut off until corrective measures were taken?
    General Austin. Although instances of human rights violations have 
significantly reduced in recent years, there have been reports of 
potential violations that resulted in holds being placed on funding and 
training pending corrective measures.
    In Pakistan, there have been three high-profile equipment-related 
cases impacted by derogatory Leahy vetting information in 2011-2012. 
There also have been several training events planned by U.S. Special 
Operations Forces units in Pakistan with the Special Services Group 
that were cancelled between 2008-2010 due to a number of units failing 
Leahy vetting. In Egypt, training for Military Police was halted due to 
an Oct 2011 incident and training their Presidential Guard was halted 
due to a Jul 2013 incident. In 2012, the Department of State placed a 
hold on military grant assistance for Tajikistan after allegations of 
human rights violations by military and security forces in Khorough. In 
Afghanistan, while there have been allegations of human rights 
violations by Afghan security forces, none have been validated 
therefore no assistance has been cut off. However, several of the non-
validated reports have resulted in requests for exception to policy. 
Lastly, all training and equipping was suspended for three Lebanese 
Armed Forces Intervention Regiments after suspected human rights 
violations in October 2012. Further investigation proved that just one 
company-sized element in one of the Intervention Regiments was 
involved; this finding allowed for the resumption of security 
assistance.
    CENTCOM is committed to complying with the Leahy provision and will 
continue to closely monitor potential human rights violations and take 
appropriate actions when necessary.
    General Rodriguez. USAFRICOM is not aware of any cases where 
training, equipment, or other assistance was provided then subsequently 
cut off due to a gross violation of human rights. In every case where 
vetting occurred and a gross violation of human rights was discovered, 
training, equipment, or other assistance did not occur. Currently, 
USAFRICOM has no cases submitted for remediation.
    In FY14, 4001 cases from USAFRICOM AOR were vetted and approved, 
\1\ 1265 were suspended, \2\ 17 wererejected, \3\ and 11 were 
cancelled. We also suspect that ``self-selection'' occurs as our 
Offices of Security Cooperation, Chiefs of Mission, and partner nations 
steer the provision of training, equipment, and other assistance toward 
units that will not present vetting problems.
---------------------------------------------------------------------------
    \1\ Approved: Case has successfully gone through Leahy Vetting and 
training occurred.
    \2\ Suspended: Case was suspended in the system for a variety of 
reasons. Most common are administrative reasons such as duplicate 
entries, change in training date, wrong information, wrong funding 
codes, insufficient information unresolved hits for Gross Violations of 
Human Rights (GVHR) (Rape, Torture, EJK, Forced Disappearance under the 
cover of law), unresolved hits for NON-GVHR (Murder, Robbery, Assault, 
other crimes committed by the individual, policy).
    \3\ Rejected: Gross Violations of Human Rights (GVHR) (Rape, 
Torture, EJK, Forced Disappearance under the cover of law), NON-GVHR 
(Murder, Robbery, Assault, other crimes committed by the individual, 
policy).
---------------------------------------------------------------------------
    General Votel. The short answer, from a Special Operations Forces-
event perspective, is ``no.'' I had the opportunity to review the 
recent Congressional Report on the DOD Leahy Law that had an excellent 
summary of the FY14 submissions and rejections. As I recall, out of the 
more than 18,000 DOD-funded activities (not all of them SOF) that 
required Human Rights Vetting, only 33 cases were rejected for Human 
Rights issues. Most of these rejections were for individuals vice the 
rejection of a complete unit. I think this illustrates that the 
rejections are, by far, the exception, not the rule. For FY14 and FY15, 
SOF have not had any events cancelled due to Human Rights issues. That 
being said, there have been several cases that have involved 
modifications to training activities due to the past behavior of one or 
two individuals. In each of these cases, the Country Teams worked with 
the appropriate Geographic Combatant Commands (GCCs) and SOCOM to 
exclude the suspected individuals and proceed with the planned events. 
The GCCs and Theater Special Operations Commands (TSOCs) work very 
closely with the Country Teams and will not even submit an event for 
Human Rights Vetting, if there are concerns or knowledge that the unit 
may be rejected.
    I can tell you that almost all of the issues SOF have with the 
Leahy Vetting process are administrative in nature, not actual 
violations of human rights.

    9. Senator Ayotte. General Austin, General Rodriguez, and General 
Votel, generally speaking, do our partner nations holding their own 
forces accountable if they commit unlawful or predatory acts against 
their populations?
    General Austin. Generally speaking, all countries do have the legal 
framework and ability to hold their forces accountable if they commit 
unlawful or predatory acts against their populations. And, in recent 
years, we have seen marked improvements in the enforcement of those 
laws and regulations made by many of our partner nations in CENTCOM's 
area of responsibility. Of course, there is still room for improvement 
in some areas, and reported human rights violations have resulted in 
minor to moderate impacts on relevant security cooperation 
relationships. Going forward, we will continue to closely monitor 
potential violations and take appropriate actions where necessary.
    General Rodriguez. Almost all countries in the USAFRICOM area of 
responsibility have been the subject of reports of human rights abuses 
and limited accountability. Generally speaking, our partners have 
legislation and legal systems in place which require military forces to 
be held accountable for unlawful acts against civilians. However, the 
ability or political will to use those legal systems as intended to 
prosecute unlawful acts is not always present, and USAFRICOM continues 
to work with our partners to build this capacity.
    General Votel. Generally speaking I believe that most countries 
with whom we engage are genuinely trying to meet standards and 
expectations with respect to protecting Human Rights. Two recent 
examples come to mind: The government of Indonesia publically tried, 
convicted, and punished several members of one of their elite units for 
a serious crime they committed a few years ago. The second example is 
currently playing out in Bangladesh where charges have been brought 
against 25 officers from the Rapid Action Battalion for the killing of 
seven people in April 2014. In contrast to these countries, and others 
like them who are trying to ensure accountability, several countries 
seem to accept the reality that some of their security force units will 
probably never train with US forces, since there is no government 
intention of submitting to remediation requirements.
                      special operations equipment
    10. Senator Ayotte. General Votel, on March 26, the Associated 
Press reported that six Army special operations units soon to deploy 
have requested human information system software produced by a private 
firm, but that the Army has only approved two requests and is instead 
is pressuring troops to use the Distributed Common Ground System 
(DCGS). Have all six of these requests now been met? Please provide 
details. If not, please provide an explanation.
    General Votel. The current requests from Army special operations 
units are requesting a variant of the US Army's Distributed Common 
Ground System (DCGS-A) while others are requesting an intelligence 
Analysis tool. In each case, the Army special operations unit used the 
U.S. Army's process of operational needs statements (ONS) to identify 
urgent operational needs. USSOCOM has a similar process to address 
urgent and compelling Special Operations-peculiar (SO-p) capability 
gaps using a Combat Mission Needs Statement (CMNS) that the Army units, 
US Army Special Operations Command (USASOC), and Special Operations 
Command Central (SOCCENT) did not invoke.
    USSOCOM is aware of 7 ONS and the recent U.S. Army's decision to 
validate the four most urgent ONS that support the deployed 1st and 5th 
Special Forces Groups. USSOCOM is consulting with the U.S. Army at the 
acquisition Program Manager level as they design and implement their 
fielding plan to ensure interoperability with any SO-p equipment.
    Three ONS from Army special operations units have not yet been 
acted upon but are also for units that are not deploying to emergent 
crisis. These ONS are still in the Army ONS process and have not yet 
been validated. USASOC is conducting detailed analysis on the ONS and 
will make recommendations and decisions within Army channels. The U.S. 
Army is best postured to answer questions on their process, the status, 
and Army fielding plans for the ONS.
                      quality of special operators
    11. Senator Ayotte. General Votel, Special Operations experts long 
have emphasized that special operators cannot be mass produced. As the 
demand for special operations forces continues to increase, it is 
important that standards not be lowered. At the Advanced Special 
Operations Techniques Course, how many students have enrolled in each 
course (for both East and West Coast locations) over the last 10 years?
    General Votel. [For official use only.]

    12. Senator Ayotte. General Votel, how many students have graduated 
from each course over the last 10 years?
    General Votel. [For official use only.]

    13. Senator Ayotte. General Votel, how many instructors 
administered each course over the last 10 years?
    General Votel. [For official use only.]

    14. Senator Ayotte. General Votel, has any incident occurred at 
this course over the last 10 years that actually compromised or 
threatened to compromise the course material, the nature of the course, 
or any classified or sensitive methods, techniques, or information? If 
so, please describe each incident and whether the offending student was 
allowed to complete the course.
    General Votel. There have been minor security incidents/violations 
but no incidents which can be proven to have directly compromised or 
threatened to compromise the course material to our knowledge.

    15. Senator Ayotte. General Votel, at the Defense Advanced 
Tradecraft Course, how many students have enrolled in each course over 
the last 10 years?
    General Votel. The Defense Advanced Tradecraft Course (DATC), 
formerly Advanced Source Operations Course, is conducted by the HUMINT 
Training-Joint Center of Excellence (HT-JCOE) at Fort Huachuca, AZ. The 
Army serves as the executive agent for HT-JCOE, with the training 
administration managed by the Defense Intelligence Agency (DIA). In my 
role as Commander USSOCOM, I do not have visibility on DATC and will 
have to respectfully defer to the Army or DIA.

    16. Senator Ayotte. General Votel, how many students have graduated 
from each course over the last 10 years?
    General Votel. The Army serves as the executive agent for Defense 
Advanced Tradecraft Course (DATC), with the training administration 
managed by the Defense Intelligence Agency (DIA). In my role as 
Commander USSOCOM, I do not have visibility on the number of students 
graduating from the course over the last 10 years.

    17. Senator Ayotte. General Votel, how many instructors 
administered each course over the last 10 years?
    General Votel. The Army serves as the executive agent for Defense 
Advanced Tradecraft Course (DATC), with the training administration 
managed by the Defense Intelligence Agency (DIA). In my role as 
Commander USSOCOM, I do not have visibility on the number of 
instructors administering the course over the last 10 years.

    18. Senator Ayotte. General Votel, how much has administering the 
course cost for each of the last 10 years? If funding has decreased, 
has it had any effect on the quality of each graduating class?
    General Votel. The Army serves as the executive agent for Defense 
Advanced Tradecraft Course (DATC), with the training administration 
managed by the Defense Intelligence Agency (DIA). In my role as 
Commander USSOCOM, I do not have visibility on the costs administering 
the course over the last 10 years.
                               __________
               Questions Submitted by Senator Tom Cotton
                               taliban 5
    19. Senator Cotton. General Austin, both Qatar and Afghanistan are 
in your area of responsibility (AOR). As you know the Taliban 5 are 
currently in Qatar under what is nominally referred to as house arrest. 
Are you aware of the press reports that one to three members of the 
Taliban 5 have reengaged and are in violation of the Memorandum of 
Understanding (MOU)?
    General Austin. [Deleted.]

    20. Senator Cotton. General Austin, in your opinion, are any of the 
Taliban 5 currently taking actions, which could cause and incite 
attacks against U.S. personnel, allies, or interests?
    General Austin. [Deleted.]

    21. Senator Cotton. General Austin, the Taliban 5 house arrest 
expires in approximately 2 months. After this expiration, do you 
believe that any of them will return to the fight against the U.S. or 
our allies?
    General Austin. [Deleted.]



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 16, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

               U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Graham, Reed, McCaskill, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee meets today to 
receive testimony on U.S. Pacific Command [PACOM] and U.S. 
Forces Korea.
    I'd like to thank both of our witnesses, Admiral Locklear 
and General Scaparrotti, for appearing before us today and for 
their many years of distinguished service.
    The past 3 months, this committee has received testimony 
from many of America's most respected statesmen, thinkers, and 
former military commanders. These leaders have all told us that 
we are experiencing a more diverse and complex array of crises 
than at any time since the end of World War II.
    As we confront immediate challenges in Europe and the 
Middle East, the United States cannot afford to neglect the 
Asia-Pacific region, which Secretary Carter has called ``the 
defining region for our Nation's future.'' Put simply, if the 
21st century is to be another American century, the United 
States must remain an Asia-Pacific power. Our national 
interests in the Asia-Pacific are deep and enduring. We seek to 
extend free trade, free markets, free navigation, and free 
commons--air, sea, space, and now cyber. We seek to maintain a 
balance of power that fosters the peaceful expansion of human 
rights, democracy, rule of law, and many other values that we 
share with increasing numbers of Asian citizens. And we seek to 
defend ourselves and our allies by maintaining the capability 
to prevent, deter, and, if necessary, prevail in a conflict.
    Achieving these objectives will require sustained American 
leadership. We must use all elements of our national power. In 
particular, I am hopeful that Congress will pass trade 
promotion authority for the Trans-Pacific Partnership [TPP]. 
This vital trade agreement will open new opportunities for 
trade and level the playing field for American businesses and 
workers, while sending a powerful strategic signal about 
America's commitment to the Asia-Pacific.
    Yet, we must remember that our soft power is the shadow 
cast by our hard power. That's why the United States must 
continue to sustain a favorable military balance in the region. 
The Department of Defense [DOD] will need to update concepts of 
operations with emerging military technology to enable our 
military to operate in contested environments. From projecting 
power over long distances and exploiting the undersea domain to 
developing new precision-guided munitions and to investing in 
innovative ways to build the resiliency of our forward-deployed 
forces, we have a great deal of work to do if we aim to sustain 
our traditional military advantages in the Asia-Pacific region. 
None of these will be possible if we continue to live with 
mindless sequestration and a broken acquisitions system.
    As we build and posture forces to secure America's interest 
in the Asia-Pacific, we must remain clear-eyed about the 
implications of China's rise and its evolving foreign and 
defense policy. As Director of National Intelligence James 
Clapper told this committee back in February, China is engaged 
in a rapid military modernization deliberately designed to 
counteract or thwart American military strengths. I believe 
China can and should play a constructive role in the Pacific--
Asia-Pacific region. Unfortunately in recent years, China has 
behaved less like a responsible stakeholder and more like a 
bully.
    In the South China Sea, we have seen the latest example of 
a trend toward more assertive behavior. China's land 
reclamation and construction activities on multiple islands 
across the Spratly Chain and the potential command-and-control, 
surveillance, and military capabilities it could bring to bear 
from these new land features are a challenge to the interests 
of the United States and the Nations of the Asia-Pacific 
region. Such unilateral efforts to change the status quo 
through force, intimidation, or coercion threaten the peace and 
stability that have extended prosperity across the Asia-Pacific 
for 7 decades.
    As I wrote in a letter, together with my colleagues, 
Senator Reed, Corker, and Menendez, the United States must work 
together with like-minded partners and allies to develop and 
employ a comprehensive strategy that aims to shape China's 
coercive peacetime behavior. This will not be easy and will 
likely have impacts on other areas of our bilateral 
relationship. But, if China continues to pursue a coercive and 
escalatory approach to the resolution of maritime disputes, the 
cost to regional security and prosperity, as well as to 
American interests, will only grow.
    I'm also concerned by the recent assessment from Admiral 
Bill Gortney, the head of NORAD [North American Aerospace 
Defense Command] in Northern Command, that North Korea has an 
operational road-mobile missile that could carry nuclear 
weapons to the United States. General Scaparrotti, I look 
forward to hearing your assessment of this potential 
breakthrough and the implications of our--to our national 
security if the erratic and unpredictable regime of Kim Jung-Un 
achieves the ability to carry out a nuclear strike against our 
Homeland.
    I thank the witnesses and look forward to their testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in welcoming Admiral Locklear and General 
Scaparrotti. Thank you, gentlemen, for your service and 
sacrifice, and that of your family. And, particularly, convey 
to your men and women under your commands our deepest 
appreciation for what they do every day.
    On Tuesday, we had an extremely insightful hearing on some 
of the challenges we face in the Asia-Pacific region. The 
consensus from the panel is that we face some very serious 
challenges, especially in light of China's increasing military 
budget and destabilizing activities in the region. And one of 
the biggest challenges will be to continue to provide, as we 
have for 70 years, security, stability, and free transit in the 
Pacific, particularly, as Senator McCain emphasized, with 
pending sequestration in the face of declining resources that 
we have. And I echo his call for the end of sequestration.
    Admiral Locklear, we'd be very interested in your views 
about the land reclamation activities of China in the Spratlys 
and elsewhere. That is something, as the Chairman has noted, 
that we both, along with Senators Menendez and Corker, objected 
to, or at least criticized. What more, also, must we do to 
build the capacity of our partners in the region, to help them 
with the maritime domain awareness, and to encourage all the 
regional actors to seek legal redress to problems, not to 
invoke lethal threats with respect to sovereignty and respect 
to stability in the region?
    As the Chairman indicated, Admiral Gortney's comments this 
week, and I will quote him as he said, North Korea, ``has the 
ability to put a nuclear weapon on a KN-08 and shoot it at the 
homeland.'' Quite disturbing. And, General Scaparrotti, would 
you, in your comments or questions, please let us know about 
the dimensions of this threat as it exists today and as it 
might evolve in the future?
    Again, we thank you, because the North Koreans appear to be 
not only, unfortunately, well armed, but very difficult to 
predict their behaviors, and your views and insights will be 
extremely important. Also, if you could comment on the possible 
deployment of a THAAD [Terminal High Altitude Area Defense] 
missile defense system and its contribution to the defense of 
our allies, the Republic of South Korea.
    We are considering all of these challenges, once again, 
under the constraint of serious budget limitations. And, 
Admiral Locklear and General Scaparrotti, please indicate to us 
the impact of sequestration on your operations. It would be 
very helpful, I think.
    Thank you very much for joining us.
    Thank you, Mr. Chairman.
    Chairman McCain. I thank the witnesses.
    Admiral Locklear.

 STATEMENT OF ADMIRAL SAMUEL J. LOCKLEAR III, USN, COMMANDER, 
                      U.S. PACIFIC COMMAND

    Admiral Locklear. Thank you, Mr. Chairman, Senator Reed, 
and distinguished members of the committee. Thank you for this 
opportunity to appear before you today with General 
Scaparrotti.
    Before we begin, I'd like to ask that my written statement 
be submitted for the record.
    Chairman McCain. Without objection.
    Admiral Locklear. For more than 3 years, I've had the honor 
and privilege of leading the exceptional men and women, 
military and civilian, of the U.S. Pacific Command [U.S. 
PACOM]. These volunteers are skilled professionals dedicated to 
the defense of our Nation, they're serving as superb 
ambassadors to represent the values, the strengths that make 
our Nation great. I want to go on record to formally thank them 
for our--for their service, and their families for their 
sacrifices.
    In PACOM, we continue to strengthen alliances, our 
partnerships, maintain an assured presence in the region, and 
demonstrate an intent and resolve to safeguard U.S. national 
interests.
    When I spoke to you last year, I highlighted my concern for 
several issues that could challenge the security environment 
across the Indo-Asia-Pacific. Those challenges included 
responding to humanitarian assistance and disaster relief, 
dealing with an increasingly dangerous and unpredictable North 
Korea, a challenge that General Scaparrotti and I remain 
aligned in addressing, a continued escalation of complex 
territorial disputes, increasing regional transnational 
threats, and the complexity associated with China's continued 
rise. In the past year, these challenges have not eased. They 
will not go away soon. But, the Asia rebalance strategy has 
taken hold and is achieving intended goals.
    However, the greatest challenge remains the continual 
physical uncertainty resulting from sequestration. If the 
Budget Control Act of 2011 remains in force, the greatest 
challenge in the Indo-Asia-Pacific will be dealing with the 
consequences to the security of our National interests and to 
respond to a rapidly changing world. I echo the Secretary of 
Defense, the Chairman of the Joint Chiefs of Staff, and the 
Service Chiefs' testimony before Congress. Our Nation is being 
forced into a resource-driven national security strategy 
instead of one properly resourced and driven by our enduring 
interests. In the Indo-Asia-Pacific, we are accepting more 
risk, not less. Sequestration will force harmful reductions in 
force size, structure, and readiness. It will reduce my ability 
to manage crisis space, provide options to the President, and 
diminishes United States prestige and credibility in the region 
and around the globe.
    In the last year, the great--at great expense to the 
readiness of the surge forces' position in the continental 
United States, PACOM has been able to maintain its forward 
forces focused on protecting the Homeland, deterring aggressors 
such as North Korea, strengthening alliances and partnerships, 
and developing the concepts and capabilities required remain 
dominant in a world that is growing in complexity with threats 
that continue to increase against a seemingly unending stream 
of constraints. Without adequate resources, we will be forced 
to make difficult choices today that will have strategic 
consequences to our future.
    I'd like to thank the committee for your continued interest 
and support. I look forward to your questions.
    [The prepared statement of Admiral Locklear follows:]

       prepared statement by admiral samuel j. locklear iii, usn
    Chairman McCain, Senator Reed, and distinguished members, thank you 
for the opportunity to address the committee. This will be my fourth 
and final opportunity to provide an Indo-Asia-Pacific assessment since 
taking command of United States Pacific Command (USPACOM) in March 
2012. For over three years, I have had the extraordinary privilege to 
lead Soldiers, Sailors, Airmen, Marines, Coast Guardsmen, and civilians 
selflessly serving our nation. These dedicated men and women and their 
families are doing an amazing job and I am proud to serve alongside 
them.
    In concert with allies and partners, USPACOM balances historical 
and cultural factors against modern day political and economic events 
in an ever-evolving effort to manage friction and conflict in the most 
militarized region in the world. These actions are designed to defend 
the homeland, strengthen and modernize our alliances and partnerships, 
maintain access to areas of common interest, counter aggression, 
prevent the proliferation of weapons of mass destruction, and defeat 
violent extremism.
    What follows is my assessment of the region's security environment, 
including the current and future challenges and opportunities for 
USPACOM forces. My testimony includes an update on major areas of 
concern in the security environment, allies and partners in the region, 
building and strengthening relationships, and maintaining an effective 
and assured presence.
                          security environment
    The Indo-Asia-Pacific remains one of the most dynamic regions on 
earth. It is vital to U.S. economic and security interests, and 
activities in the region will shape much of our nation's future. The 
region encompasses 52 percent of the earth's surface and is composed of 
83 percent water and 17 percent land. Over half of the people on the 
planet reside on that 17 percent of land, and by the middle of the 
century, the Indo-Asia-Pacific will potentially contain 70 percent of 
the world's population. This high population density coupled with 
destabilizing factors such as natural disasters, climate change, 
ideological radicalism, and population migration will continue to put 
immense pressure on regional governments. Contained in the thirty-six 
nations in USPACOM's area of responsibility are the world's two largest 
economies after the U.S. (China and Japan), and five smallest 
economies. The region also contains the world's most populous nation 
(China), the largest democracy (India), the largest Muslim-majority 
(Indonesia), and the smallest republic (Nauru). It contains seven of 
the ten largest standing militaries, five nuclear nations, and five of 
the U.S.'s seven mutual defense treaty alliances. The socioeconomic 
diversity and population density throughout the USPACOM area of 
responsibility (AOR) create strategic long-term challenges. These 
challenges include: political instability, social inequality, poverty, 
increased sensitivity to climate change and natural disasters, risk of 
pandemic disease, and epidemic drug use and distribution.
    In addition to these challenges, the U.S. must continue to deter 
North Korean provocation, ensure access to air and sea lanes, encourage 
peaceful resolution of territorial and maritime disputes in the East 
and South China Seas, respond to natural disasters and theater health 
issues, check the flow of violent extremists from the Middle East to 
violent extremist organizations (VEOs) in the Indo-Asia-Pacific, 
address transnational crimes, monitor an increasingly active Russia, 
and constructively engage a rising China. Despite all of the 
challenges, the theater possesses opportunities for the U.S., its 
allies, and its partners. In order to capitalize on these 
opportunities, foster the region's economic potential, and provide the 
security and stability necessary to protect areas of common interest, 
USPACOM remains engaged.
    The Indo-Asia-Pacific requires stable political institutions to 
effectively govern and prosper. Overall, but with notable exceptions, 
the countries of the Indo-Asia-Pacific region are more politically 
stable than in previous years. The general health of democratic 
institutions across the region is evidenced by several critical 
leadership transitions which occurred last year. Successful, peaceful 
participatory elections occurred in India and Indonesia. Sri Lanka 
achieved a peaceful transition of power following its January election. 
Fiji took a major step toward moving past its 2006 military coup by 
holding elections last September. Citizens in many countries were able 
to peacefully protest without fear of oppressive action. While these 
activities are reassuring, challenges remain. For example, Thailand's 
military coup removed a democratically elected administration, and 
interim leaders have yet to restore a democratic government.
    North Korea: North Korea remains the most dangerous and 
unpredictable security challenge. The regime continues its aggressive 
attitude while advancing its nuclear capability and ballistic missile 
programs. While the international community continues to urge North 
Korea to live up to its international obligations and return to 
authentic credible negotiations under the Six-Party Talks framework, 
North Korea has unfortunately shown no willingness to seriously discuss 
its denuclearization commitments and obligations, and additional 
nuclear tests remain possible. It is expected that North Korea will 
continue to showcase ballistic missile development (to include mobile 
intercontinental ballistic missiles and intermediate range Musudan 
missiles) and conduct launches in direct violation of several United 
Nations Security Council Resolutions (such as the short-range ballistic 
missile launches in March 2015). North Korea already announced its 
intent to conduct ``annual and regular'' drills to advance this 
prohibited capability.
    Additionally, North Korea demonstrated the will to employ cyber 
techniques to impose costly damage to civilian companies, as was 
demonstrated in the high-profile attack on Sony Pictures Entertainment. 
North Korean cyber actors continue to conduct cyber actions against 
South Korean military and civilian networks. USPACOM remains concerned 
about the destructive nature of this state sponsored cyber-attack 
targeting a commercial entity and its employees in the United States. 
These actions demonstrate North Korea's disregard for international 
norms. North Korea's actions are beyond the bounds of acceptable state 
behavior in cyberspace.
    Territorial and Maritime Issues: Territorial and maritime issues in 
the East and South China Seas, if not handled properly, may negatively 
impact stability in the regional and the security environment. The 
claimants' use of maritime law enforcement vessels to enforce their 
claims has largely kept these issues out of the military sphere, 
despite a steady increase in military air and sea patrols. While no 
country appears to desire military conflict, an escalation due to a 
tactical miscalculation cannot be ruled out.
    In the East China Sea, Japan and China both claim sovereignty over 
the Senkaku Islands. While the United States does not take a position 
on ultimate sovereignty over the islands, it has long recognized 
Japanese administration of them. China's behavior in the area has 
resulted in close encounters at sea, aggressive Chinese air intercepts 
of Japanese reconnaissance flights, inflammatory strategic messaging, 
and the no-notice declaration of a Chinese Air Defense Identification 
Zone in the East China Sea.
    The South China Sea issues are complex. Six claimants (China, 
Vietnam, Malaysia, Brunei, Taiwan, and the Philippines) have 
overlapping claims in the South China Sea. As the South China Sea 
claimants' populations and economies continue to grow, access to the 
oil, gas, minerals, and fisheries within the South China Sea becomes 
more important. Claimants appear to be asserting their claims through 
increased maritime patrols, outpost and facility construction, and land 
reclamation.
    China has the broadest claim with its self-proclaimed ``Nine-Dash 
line'' that covers almost the entire South China Sea. China's lack of 
clarity with regard to its South China Sea claims, and China's attempts 
to unilaterally enforce its ambiguous claims, has created uncertainty 
in the region. Any use of the nine-dash line by China to claim maritime 
rights not based on claimed land features would not align with 
international law. The international community would welcome China to 
clarify or adjust its nine-dash line claim and bring it into accordance 
with the international law of the sea, as reflected in the Law of the 
Sea Convention.
    To achieve its long-term goals in the region, China is executing a 
strategy that includes expanding outposts in contested areas through 
land reclamation on South China Sea features, taking actions to prevent 
other nations from establishing / maintaining outposts, exploring for 
natural resources in disputed waters, and increasing its naval and air 
forces' presence through exercises and patrols. China's aggressive land 
reclamation and construction projects at eight South China Sea military 
outposts include new buildings, more capable berthing space for ships, 
and presumably an airfield on the Fiery Cross Reef (China's largest 
reclamation project). Although land reclamation cannot, for example, 
change a submerged feature into a natural island that generates any 
legal entitlements to maritime zones, the completion of these projects 
will give China the ability for greater presence, increase dwell time 
for military and coast guard assets, and expand the areas covered by 
surveillance and area-denial systems. Examples of activities supporting 
China's long-term strategy include attempts to block resupply missions 
to the small Philippine garrison at Second Thomas Shoal and exclude 
Philippine and other fishermen from the disputed Scarborough Reef. Last 
year, China also moved a China National Offshore Oil Corporation 
drilling platform into Vietnam's claimed Exclusive Economic Zone 
resulting in a tense standoff between Vietnamese and Chinese maritime 
assets substantially increasing the possibility of miscalculation 
between the two countries.
    The U.S. does not take a position on issues of sovereignty with 
respect to territorial claims in the East and South China Sea, but we 
do insist that all maritime claims must be derived from land features 
in accordance with international law as reflected in the Law of the Sea 
Convention. The U.S. also continues to emphasize the importance that 
maritime and territorial disagreements be resolved peacefully in 
accordance with international law and opposes the use of intimidation, 
coercion, or force to assert claims. An example of such an attempt at 
peaceful resolution is the Philippines' arbitration against China under 
the Law of the Sea Convention that is being heard by a tribunal in The 
Hague. Of note, China has refused to participate in this arbitration to 
date.
    Natural Disasters: The Indo-Asia-Pacific accounted for over 40 
percent (1,690 incidences) of the world's reported natural disasters 
during the period between 2004 and 2013, and, because of the region's 
coastal population density, these disasters were particularly deadly, 
claiming more than 700,000 lives. The Pacific Rim's tectonic plate 
structure produces its well-known Ring of Fire, which regularly 
triggers earthquakes, volcanoes, and tsunamis. Weather extremes and 
anomalies continue to plague the region. Understanding the scope and 
severity of long-term climate change, unexpected climate shocks, and 
climate variability events such as El Nino are shared global 
challenges.
    In addition to seismic and climate challenges, areas of large 
populations, dense living conditions, and poor sanitary conditions in 
the region create optimal conditions for the rapid spread of human- or 
animal-borne diseases. To address these challenges, USPACOM focuses on 
pre-crisis preparedness with training and exercises. For example, many 
of the lessons learned and preparedness measures implemented after 
Typhoon Haiyan (Operation Damayan, November 2013) resulted in less 
damage and loss of life when Typhoon Hagupit passed over the 
Philippines last December. U.S. forces regularly train with allies and 
partners on humanitarian assistance and disaster relief operations and 
stand ready to respond in support of interagency partners to a natural 
disaster or the frequent vectors of disease that plague the region. 
Regional information sharing and rapid response to health crises are 
improving, but the danger remains high. USPACOM will continue to focus 
on improving pre-crisis preparedness and working with allies and 
partners in the region to ensure an effective response when an event 
occurs.
    Violent Extremism: The ongoing conflict in Syria and Iraq attracts 
foreign fighters from countries throughout the Indo-Asia-Pacific. 
Current assessments indicate approximately 1,300 foreign personnel 
fighting alongside the self-proclaimed Islamic State of Iraq and the 
Levant are from the Indo-Asia-Pacific. A small number of these combat-
experienced fighters who return home could enhance the capability of 
regional extremist networks within the most densely populated areas of 
the world. In South Asia, partner nations maintain pressure on 
extremist networks but face a persistent threat from transnational 
groups that continue adapting to shifting geopolitical factors, 
competition among global extremist groups, and counterterrorism actions 
by the U.S. and its regional allies. Al-Qa'ida's increased rhetoric 
focused on South Asia and the announcement of a new affiliate, ``Al-
Qa'ida in the Indian Subcontinent,'' suggest Al-Qai'da will focus 
resources on uniting established terrorist groups to engage in jihad in 
South Asia. Lashkar-e Tayyiba and other Pakistan-based groups continue 
fighting in Afghanistan, but they will likely shift some of their 
operational focus to the Indian Subcontinent in the next one to three 
years as Coalition forces drawdown. In Southeast Asia, regional 
partners maintain persistent pressure on extremist networks; however, 
competing security priorities in the region, coupled with the 
sensationalism of developments in the Middle East, have pressurized 
counter-terrorism attention. Extremist groups are increasingly 
interconnected and the region remains a potential safe haven, 
facilitation hub, and area of operations for extremists.
    Proliferation Issues: Rapidly developing technology manufacturing 
sectors in the Indo-Asia-Pacific region have in many states outpaced 
the concurrent development of those states' effective export controls. 
The region includes some of the busiest maritime and air ports in the 
world with shipments of proliferation concern likely passing through 
these ports almost daily. These shipments include dual-use items--
commercial items controlled by the nuclear, ballistic missile, and 
chemical/biological weapons control regimes, others covered by 
associated catch all controls--manufactured in or re-exported from 
states with spotty export control enforcement. Iran built its robust 
nuclear infrastructure and advanced its ballistic missile systems with 
materials that passed through the USPACOM AOR; North Korea continues to 
procure for its nuclear and ballistic missile programs--and proliferate 
conventional arms for revenue generation--using a network of 
individuals and entities throughout the region. PACOM engages regional 
partners in capacity-building activities designed to improve export 
controls and interdiction capabilities in the region. In August 2014 
PACOM hosted personnel from 31 nations as part of the Proliferation 
Security Initiative (PSI) Exercise Fortune Guard, which marked the 
beginning of a six-year series of exercises that various ``expert'' 
nations in the region will host. (New Zealand, Australia, Singapore, 
Japan, South Korea and the United States) Exercises such as Fortune 
Guard provide nations a forum to demonstrate the intention to act and 
share the best tactics against proliferators, emphasizing a whole-of-
government approach to confront this complex challenge.
    Transnational Crime: There is a growing trend for regional human 
and drug trafficking organizations to operate as global enterprises. In 
addition to the devastating impact widespread drug use has on a 
society, the revenue generated from these illicit activities fund 
terrorists and Violent Extremist Organizations. Methamphetamine and 
amphetamine-type stimulants continue to be the primary drug threat in 
the USPACOM AOR. The majority of Methamphetamine available in the 
United States comes from Mexico, primarily across the South West Border 
Region, and an estimated 90 percent of the precursor chemicals used to 
produce Mexican Methamphetamine comes from China. Further, the annual 
volume of Methamphetamine seizures made along the United States South 
West Border Region has exceeded Cocaine seizures in the past three 
years.
    Nearly 21 million victims of human trafficking are estimated 
worldwide and nearly two-thirds are from Asia, with India, China, 
Indonesia, Bangladesh, and Thailand among the countries with the 
highest number of victims. Women and children--especially those from 
the lowest socioeconomic sectors--are the most vulnerable demographics. 
Roughly a quarter end up in the commercial sex trade, while others are 
forced into difficult and dangerous positions in factories, farms, or 
as child soldiers. Still others are bound to families as domestic 
servants. Human trafficking victims often suffer physical and emotional 
abuse and social stigmatization while being denied their basic human 
rights and fundamental freedoms. While awareness is rising, much 
remains to be done to combat this particularly heinous crime. USPACOM 
forces build partnership capacity and share intelligence in order to 
combat these transnational threats.
    Russian Intent: Russia is reasserting itself politically and 
militarily in the Pacific. In the USPACOM AOR, Russian Navy and Long 
Range Aviation operational tempo have recently increased significantly, 
but not above Cold War levels. Though challenged by maintenance and 
logistical issues, Russian Navy cruisers, destroyers and frigates have 
increased their operations and reach. The Russian Pacific Fleet sent 
ships to support operations in the Middle East and Europe, while 
Russian ships from the Baltic and Black Sea Fleets deployed into the 
Asia-Pacific. Russian BEAR bombers and reconnaissance aircraft 
regularly fly missions in the Sea of Japan and continue operations as 
far east as Alaska and the west coast of the continental U.S. The 
anticipated fielding later this year of Russia's newest class of 
nuclear ballistic missile submarine (Borei-class SSBN) and upgrades to 
Russia's land-based ballistic missiles will modernize Moscow's nuclear 
capability in the Asia-Pacific. Russian ballistic missile and attack 
submarines remain active in our region. Russia aims to demonstrate 
military capabilities commensurate with its Pacific interests: ensuring 
Russian sovereignty, sovereign rights, and jurisdiction in the Asia-
Pacific, strengthening its sphere of influence, and projecting a 
credible deterrent force.
    Chinese Military Modernization and Strategic Intent: Recent 
statements by senior PRC leaders, such as PRC President Xi Jinping, 
suggest that the PRC may be attempting to advance a vision for an 
alternative security architecture in Asia that affords Beijing 
increased influence in the region and diminishes the role of the United 
States. This Chinese view was highlighted in Shanghai last summer at 
the Conference on Interaction and Confidence Building Measures in Asia. 
At the conference, President Xi Jinping called on all of Asia to 
support the development of a new security order centered on China. The 
proposed new order also requires a curtailment of alliance-
strengthening diplomacy, of which the ``U.S. Rebalance to Asia'' is 
noted as the greatest offender. China is proposing an alternative 
strategy to regional security issues where the U.S. plays, at best, a 
deferential role.
    China is engaged in a comprehensive military modernization program 
to transform its forces into a high-tech military capable of conducting 
complex operations. Many of China's initiatives are intended to develop 
capabilities to deter or counter third-party intervention in regional 
contingencies. These anti-access/area denial (A2AD) capabilities are 
focused on controlling access and freedom of operations in vast 
portions of the air and maritime domains, as well as space and 
cyberspace. These include a series of sophisticated and increasingly 
long-range anti-ship cruise missiles, ballistic missiles, air-to-air 
and air-to-ground missiles, and kinetic and non-kinetic counter-space 
systems. China is also making significant advances in electronic 
warfare capabilities, which are contributing to the A2AD challenge.
    China continues an aggressive ship building program to produce and 
field advanced frigates, destroyers, and the first in-class cruiser-
sized warship. Chinese shipyards are also producing newer, more capable 
submarines as they inactivate older submarines, resulting in a fleet 
that is not growing substantially in number but is significantly more 
capable. Advances in China's strategic capabilities remain significant. 
China now has three operational JIN-class ballistic missile submarines 
(Type 094), and up to five more may enter service by the end of the 
decade. The JIN-class submarine carries the JL-2 submarine launched 
ballistic missile with a range capable of reaching the U.S. and will 
give China its first credible sea-based nuclear deterrent. Nuclear 
deterrence patrols will likely commence this year. Lastly, we expect 
China to soon begin constructing an indigenous aircraft carrier.
    China is using computer network exploitation capabilities to 
support intelligence collection to advance its defense and high-tech 
industries. Through a sophisticated cyber program, China is generating 
insights on U.S. security policies, defense networks, logistics, and 
military capabilities.
    As the Chinese military modernizes its capabilities and expands its 
presence in Asia, U.S. forces are drawn into closer and more frequent 
contact and the risk of an accident or miscalculation increases. This 
places a premium on efforts to increase mutual understanding and trust 
in order to reduce risk. The Chinese Navy is more frequently operating 
in the Indian Ocean, expanding the area and duration of operations and 
exercises in the Western and Central Pacific Ocean, and periodically 
venturing into other non-traditional areas, as exemplified by recent 
port visits to Europe. The complexity of the regional and global 
security environment, as well as China's military advancements, 
necessitates a continuous dialogue between the U.S. and Chinese 
militaries to expand practical cooperation where national interests 
converge and discuss areas where goals diverge, especially during 
periods of friction.
                          allies and partners
    The U.S.' five treaty allies in the Indo-Asia-Pacific are: 
Australia, Japan, Republic of Korea, Philippines, and Thailand. In 
addition to U.S. treaty alliances, the U.S. continues to strengthen 
existing partnerships and build new relationships to advance common 
interests and address shared concerns. U.S. allies and key partners in 
the theater play a fundamental role in addressing the security 
challenges. Strengthening and modernizing alliances and partnerships is 
a top USPACOM priority.
    Australia: Australia continues to be a close, steadfast, and 
effective ally in the Indo-Asia-Pacific. The alliance anchors peace and 
stability in the region, and Australia has taken a leading role in 
addressing regional security and capacity-building issues, including 
lead roles in Humanitarian Assistance and Disaster Relief events. 
Australia is also a key contributor to global security, including 
counter-ISIL efforts in Iraq and the Resolute Support mission in 
Afghanistan. With the ongoing implementation of the Force Posture 
Initiatives, which provide expanded opportunities for bilateral and 
multilateral engagement, the Marine Rotational Force-Darwin 
successfully completed its third rotation while increasing its presence 
from 250 to 1,177 U.S. Marines. The U.S. Air Force is increasing its 
rotation of aircraft to Australia. In addition to the Force Posture 
Initiatives, the U.S. and Australia are identifying additional 
opportunities to increase collaboration in counter-terrorism, space, 
cyber, and integrated air missile defense and regional capacity 
building. Australia is procuring a number of high-tech platforms that 
will increase interoperability such as the F-35 Lightning II, P-8 
Poseidon, C-17 Globemaster III, and EA-18G Growler aircraft as well as 
Global Hawk UAVs and MH-60R helicopters. To ensure greater 
synchronization and integration, the Australian Government provides a 
General Officer and a Senior Executive to USPACOM, as well as another 
General Officer to U.S. Army Pacific, as tangible examples of a mutual 
commitment to the alliance.
    Japan: The U.S.-Japan alliance remains strong and productive 
through both countries' shared commitment to a full range of military 
capabilities with expanding responsibility for training, exercises, 
interoperability, and bilateral planning. Japan's 2013 National 
Security Strategy and the 1 July 2014 cabinet decision on collective 
self-defense are positive developments and indicators of Japan's 
ability and willingness to assume a greater role in the regional 
security architecture. The Abe administration will submit implementing 
legislation to the National Diet during its spring session, and debate 
is expected to conclude in summer 2015. The US-Japan Guidelines for 
Defense Cooperation are being revised, and that process will conclude 
with public presentation of the Guidelines in the near future. We are 
hopeful that Japan's upcoming legislative changes support new and 
expanded forms of cooperation.
    U.S. Forces Japan continues to build its close relationship with 
the Japanese Joint Staff to enhance interoperability and information 
sharing through realistic training, exercises, and bilateral planning. 
USPACOM will continue to maintain a robust military presence in Japan 
to meet future security challenges and encourage greater trilateral 
military engagements with the Republic of Korea (ROK) and Australia.
    Efforts continue toward improving US-Japan-ROK trilateral 
coordination in response to North Korean provocative behavior. The 
December 2014 signature of the US-Japan-ROK Trilateral Information 
Sharing Arrangement is a positive first step toward greater information 
sharing on North Korean missile and nuclear threats.
    As Japan increases its defense spending, it is procuring a number 
of high-tech platforms that will increase interoperability such as the 
F-35 Lightning II aircraft, MV-22 Ospreys, and the Global Hawk UAV, as 
well as upgrading existing AEGIS destroyers with the latest BMD 
capability and constructing two additional AEGIS destroyers (for a 
total of eight BMD capable platforms). Each North Korean ballistic 
missile provocation validates the investment of the AN/TPY-2 radars in 
Japan to provide ISR against missile threats. Last year's addition of 
the second radar in Japan and forward deploying two additional BMD 
capable ships will enhance our ability to defend our ally and the 
region, as well as provide early warning of missile threats to the U.S. 
homeland. Lastly, Japan continues to make significant infrastructure 
investments in country that complement the realignment of U.S. Marines 
from Okinawa to Guam including expanding the airfield and associated 
facilities at Marine Corps Air Station Iwakuni and construction of the 
Futenma Replacement Facility. It is important that these initiatives 
remain on track.
    Philippines: The U.S.-Philippine alliance remains a positive source 
of strength and regional stability. Building upon the 1951 Mutual 
Defense Treaty, the Enhanced Defense Cooperation Agreement (EDCA) 
between the U.S. and the Government of the Philippines was signed last 
April. Through enhanced U.S. rotational presence, the EDCA provides 
expanded opportunities to conduct theater security cooperation 
activities and supports the Armed Forces of the Philippines (AFP) as it 
shifts focus from internal security to external defense. Full EDCA 
implementation awaits the outcome of a case before the Philippine 
Supreme Court, where deliberations could last into this summer.
    After more than a decade, the Joint Special Operations Task Force 
created to counter Violent Extremist Organizations in the Philippines 
will stand down and the AFP will sustain that mission. Training and 
advising objectives that were set to address organizations such as the 
Abu Sayyaf Group and Jemaah Islamiyah have been met. Although the Task 
Force is standing down, a small USPACOM footprint will remain embedded 
in the Philippines to continue working with the AFP leadership and 
planning staffs. The AFP has demonstrated an increased capacity and 
capability to handle domestic threats inside their country, but USPACOM 
will remain committed to supporting and advising the AFP at the 
operational level.
    Competing claims in the South China Sea continue to be a source of 
friction and instability. China continues large-scale land reclamation 
around disputed features. Furthermore, periodic resupply and troop 
rotations to the small Philippine outpost at Second Thomas Shoal (also 
known as Ayungin Shoal) are well-known points of contention with the 
Chinese government.
    Republic of Korea: The U.S.-Republic of Korea (ROK) alliance 
remains strong and vital, and enduring for over six decades. Our 
militaries integrate complementary capabilities and enhance the 
relationship with honest and frank dialogue. During the most recent 
annual discussions, the U.S. and ROK made arrangements to delay wartime 
operational control transfer and adopt a conditions-based approach, 
rather than a calendar-based deadline. The U.S. and ROK intend to 
modernize the alliance to better inform the development or acquisition 
of Alliance capabilities required to address future threats from North 
Korea.
    USPACOM will continue to work with the ROK to address the North 
Korean threat. North Korea continues to be a challenge due to 
provocations and uncertainty, which are viewed as a threat to peace and 
stability in the region. The ability to rapidly respond to aggression 
with combined U.S.-ROK-Japan capabilities is the best way to ensure 
deterrence and maintain regional stability. Trilateral cooperation will 
improve each participant's understanding of the mutual challenges and 
shared opportunities that exist in and around the Korean Peninsula.
    Thailand: As Thailand is the oldest U.S. treaty partner (182 
years), the U.S. values its friendship with the people of Thailand. The 
Thai military's decision to suspend its constitution and assume control 
of the civilian government has impacted that relationship. Military 
engagements and exercises have been appropriately adjusted in a whole 
of government response to the coup, pending a return to a 
democratically-elected government. USPACOM will continue to demonstrate 
commitment to the U.S.' ally while reinforcing democratic values and 
ideals. The annual COBRA GOLD exercise co-sponsored with the Royal Thai 
Armed Forces is an important multi-lateral warfighting training event. 
This year's exercise was significantly limited in scope and scale in 
response to the Thai coup, and heavily focused on humanitarian 
assistance activities.
    India: Last year, India held the largest election in its history. 
With new leadership in place, India is energizing the U.S.-India 
strategic partnership. Prime Minister Modi has focused India's foreign 
policy on building strong regional cohesion in South Asia. India's two 
decade-long ``Look East Policy'' has resulted in growing partnerships 
with Southeast Asian countries.
    The U.S. military remains heavily engaged with New Delhi's 
military, having conducted 69 major exercises in the past five years. 
The Indian Navy continues its strong participation in multilateral 
exercises including INDRA with Russia, MALABAR with the U.S. and Japan, 
and RIMPAC with 23 navies from across the Indo-Asia-Pacific. India's 
participation in these exercises signals their commitment as a regional 
security provider. Additionally, over the past three years the U.S. has 
been India's largest defense trading partner. Through military 
modernization, robust defense trade (C-17s, C-130Js, and P-8Is, among 
other items), and a growing network of defense partnerships, India is 
asserting its role as an important regional actor determined to protect 
common interests and ensure free access to economically vital sea 
lanes, although with respect to military activities, India still 
asserts a security interest in its EEZ that does not conform to the law 
of the sea.
    Indonesia: Indonesia is a capable security partner in Southeast 
Asia, and is increasingly focused on its role as a regional power, 
which USPACOM continues to support as a main pillar of mil-mil 
engagement. Presidential elections last July demonstrated a commitment 
to democratic principles, and the August opening of Indonesia's new 
Peace and Security Center to train regional partners on peacekeeping 
operations reinforces its position as a leader in security assistance. 
A growing area of cooperation with Indonesia is defense trade, which 
includes the sale of AH-64E Apache helicopters and initial delivery of 
F-16 Fighting Falcon aircraft. Indonesia remains concerned about 
maintaining security and stability in the South China Sea. While their 
Chief of Defense has articulated a zero-war policy in the South China 
Sea, there are signs they are increasingly concerned over China's so-
called nine dash line overlapping with part of their claimed EEZ. While 
Indonesia continues a foreign policy rooted in the Non Aligned 
Movement, USPACOM has seen significant gains in security cooperation 
activities. Indonesia will continue to balance its partnership with the 
U.S. with other nations such as Russia and China, but security 
cooperation with the U.S. remains a top priority.
    New Zealand: New Zealand is a respected voice in international 
politics and a recognized leader in Oceania that shares common security 
concerns with the U.S., such as terrorism, transnational crime, and 
maritime security. Military-to-military relations and defense 
engagements with New Zealand continue to improve, and the U.S. and New 
Zealand executed the second series of annual bilateral defense 
dialogues last year. New Zealand's establishment of a Consulate General 
in Honolulu has also provided additional opportunities for USPACOM and 
New Zealand to engage on issues of mutual interest. This new Consulate 
General addition to Hawaii is timely as the U.S. celebrates the 100th 
Anniversary of ANZAC with New Zealand and the Australians this year.
    Oceania: Maintaining our close partnerships in Oceania is important 
to national security. The Compacts of Free Association with the 
Federated States of Micronesia, the Republic of the Marshall Islands, 
and the Republic of Palau are important agreements that guide the 
relationships. The U.S. defense obligations to these nations are 
reflected in our defense planning and preparation. In return, these 
compact agreements provide assured access to the three Compact Nations 
and their associated 5.5 million square kilometers of Pacific in a 
contingency situation. They also give the U.S. authority to grant or 
deny access to another nation's military forces, which allows the 
maintenance of a clear strategic line of communication across the 
Pacific. The U.S.'s continued commitment to defend the Compact Nations 
and to partner with other Pacific island countries sends a strong 
message throughout the region and reinforces its commitment to the 
Pacific Rebalance.
    Fiji currently has its first democratically elected government 
since its military coup in 2006. In 2015, Fiji will re-enter into 
regional forums (e.g., Pacific Island Forum) and have new opportunities 
for engagement with the U.S. Several other countries (Papua New Guinea, 
the Solomon Islands, and Vanuatu) may face government reorganizations 
over the next year. These events may set back specific projects but 
will not likely impact stability or affect overall U.S. engagement.
    Climate change will continue to be an important issue across the 
Oceania region. This year's forecasted El Nino event will likely result 
in drought and increased tropical cyclone activity. The Republic of 
Marshall Islands will almost certainly face water shortage resulting in 
requests for aid or disaster declarations under a subsidiary agreement 
to the Amended Compact of Free Association. Fiji, Kiribati, the 
Federated States of Micronesia, Papua New Guinea, Samoa, and Tonga will 
likely face similar situations. The December 2014 United Nations 
Climate Change Conference addressed the impact of rising sea levels--a 
keen interest to Pacific Island Nations.
    Singapore: Singapore continues its important role in regional 
security initiatives. Singapore's role as a `Major Security Cooperation 
Partner' is underscored by longstanding support of U.S. naval forces. 
For example, USS Freedom completed a ten month deployment in 2013, and 
USS Fort Worth is currently on a 16 month deployment. These forward 
forces contribute to naval readiness and partner capacity building and 
enable rapid response to many crises, including Operation Damayan in 
the Philippines and Air Asia recovery efforts. Additionally, 
Singapore's Changi Naval Base remains a key enabler to providing 
critical support to the USS Fort Worth and other forward operating 
forces.
    U.S.-China: In light of an increasingly complex regional and global 
security environment, including advances in China's military 
capabilities and its expanding military operations and missions, the 
overall U.S. approach to China calls for a continuous dialogue between 
the armed forces of both countries to expand practical cooperation 
where national interests converge and to constructively manage 
differences through sustained and substantive dialogue. As a key 
element, the U.S.'s military engagement with China, within the 
guidelines of the 2000 NDAA, benefits the region, improves 
transparency, and reduces risk of unintended incidents, contributing to 
overall regional stability. The U.S. military has increased the depth 
of engagement with China in recent years and executed over 50 bilateral 
and numerous multilateral engagements last year. While these 
engagements are critical to improving transparency and reducing risk, 
the U.S. military must continue to take a pragmatic approach as the 
U.S. attempts to help integrate China into the existing security 
architecture. China's military investments, including A2AD 
capabilities, focused on the ability to control access and deny freedom 
of operations in vast portions of the air, maritime, space, and 
cyberspace domains raise concerns. The U.S. will need more transparency 
and understanding of Chinese intentions in order to minimize friction 
and avoid miscalculation or conflict in the future. Absent greater 
transparency from China, its ambiguous dashed-line claim, military 
modernization efforts and aggressive land reclamation in the South 
China Sea have significant implications for regional stability and the 
current security architecture.
    Over the past year, the U.S. and China have agreed to mechanisms 
such as the Confidence Building Measures (CBMs) on Notification of 
Major Military Activities and Rules of Behavior (RoB) for Safety of Air 
and Maritime Encounters, designed to underscore and reinforce existing 
international law and standards while improving transparency, building 
trust, and reducing risk of unintended incidents. The surface-to-
surface encounters annex of the RoB CBM was signed last year and the 
air-to-air annex is scheduled to be completed by the end of this year. 
These new Rules of Behavior are non-binding and capture existing legal 
rules and standards. Additionally, the U.S. and China continue to use 
the Military Maritime Consultative Agreement meetings to discuss safety 
in the maritime domain and avoid crises. As China continues to grow its 
military capacity and capability and operate further from its 
territory, these mechanisms become more important.
    Both militaries have had success addressing areas of common 
interest, such as counter piracy, military medicine, and HA/DR. Some of 
the most successful engagements were focused on military medical 
cooperation and shared health concerns. For example, the USPACOM 
surgeon hosted Chinese counterparts in Hawaii and Washington, DC, which 
resulted in concrete opportunities for continued military medical 
cooperation focused on Disaster Response, Pandemic and Emerging 
Infectious Diseases, and Soldier Care. In January 2015, the PLA hosted 
the USPACOM Surgeon and component surgeons for a highly successful 
reciprocal visit. Demonstrating China's increasing ability to operate 
beyond the Western Pacific and a successful engagement on an area of 
common concern, last December, U.S. and Chinese ships conducted counter 
piracy exercises in the Gulf of Aden and off the Horn of Africa. 
China's participation in international efforts to address these 
problems and to operate and exercise with the U.S. and its allies and 
partners in a manner consistent with international law and standards is 
welcomed.
                building and strengthening relationships
    The future security and prosperity of the Indo-Asia-Pacific depends 
upon building bilateral and multilateral relationships. Strong 
relationships, facilitated by a U.S. forward presence, advance common 
interests and address shared threats. USPACOM strengthens relationships 
with U.S. allies and partners through security cooperation and capacity 
building, bilateral and multilateral approaches, and senior leader 
engagement.
    Security Cooperation and Capacity Building: USPACOM enhances 
interoperability and information sharing with allies and partners in 
order to cooperatively address regional challenges. USPACOM's Security 
Cooperation approach is focused on building partner readiness, 
assisting with partner capability gaps, identifying partner shortfalls, 
and addressing the most critical capacity shortfalls. Last year, 
USPACOM identified C4ISR as a top priority for Security Cooperation 
with the Republic of Korea (ROK) and contributed to the U.S. supporting 
the ROK purchase of Global Hawk--a High Altitude UAV platform that will 
help close the gap in some of the security challenges on the Korean 
Peninsula. Supporting USPACOM's approach to addressing partner 
capability and capacity shortfalls will reduce risk, effectively use 
Security Cooperation and Assistance resources, and maintain the 
momentum to bring the right capabilities into the AOR.
    As mentioned earlier, the progress the Republic of the Philippines 
continues to make in addressing violent extremists groups inside their 
country is a testament to building capacity in USPACOM's foreign 
internal defense efforts. USPACOM is also building capacity to counter 
drug trafficking in the AOR through Joint Interagency Task Force--West 
(JIATF-W) engagements with China. Through a partnership with the 
Internal Revenue Service, JIATF-W has leveraged Department of Defense 
counternarcotic authorities to open up an additional avenue of 
cooperation with Chinese officials by providing anti-money laundering 
training linked to counterdrug efforts. These efforts are only just 
beginning, but show promise in improving communication, cooperation, 
and information sharing on significant criminal enterprises operating 
in both the U.S. and China.
    Lastly, increasing international representation at the USPACOM 
headquarters has improved collaboration with allies and partners and 
created a more agile and effective command and control architecture. 
The new USPACOM model integrates sixteen foreign exchange officers and 
liaison officers from six countries and facilitates a seamless 
transition from routine business to crisis. Included in these numbers 
are three foreign exchange Flag Officers and Senior Executives in key 
billets on the USPACOM staff.
    Bilateral and Multilateral Approaches: With the exception of North 
Korea, USPACOM continues to build and strengthen bilateral 
relationships with all of the nations in the Indo-Asia-Pacific. USPACOM 
maintains a close link with the five U.S. treaty allies and other 
partners in the region through a series of formal bilateral mechanisms. 
In Australia, key engagements stem from the ANZUS treaty obligations, 
guided by USPACOM's premier bilateral event with Australia, the 
Military Representatives Meeting. Similarly, USPACOM's military to 
military relationship with Japan is guided annually by the Japan Senior 
Leader Seminar, which USPACOM utilizes to ensure the bond with Japan 
remains strong. USPACOM continues to rely on the alliance with the 
Republic of Korea to maintain peace and stability in Northeast Asia, 
and the annual Military Committee and Security Consultative Meetings 
are the preeminent bilateral mechanism to guide this alliance forward. 
Each year, USPACOM co-hosts the Mutual Defense Board and Security 
Engagement Board with the Armed Forces of the Philippines to discuss 
ways this critical alliance can modernize to meet 21st-century 
challenges. Lastly, USPACOM depends on annual Senior Staff Talks with 
Thailand to address shared regional security concerns while reinforcing 
U.S. commitment to democratic principles.
    Similar bilateral mechanisms exist with partners throughout the 
USPACOM AOR, including Bilateral Defense Discussions with Indonesia, 
Vietnam, and others, as USPACOM continues to foster bilateral ties to 
enhance regional stability. Bilateral mechanisms with allies and 
partners form the strategic foundation of the security architecture 
that ensures peace and stability while defending U.S. interests in the 
Indo-Asia-Pacific.
    While bilateral mechanisms remain important, USPACOM continues to 
emphasize multilateral approaches. USPACOM works with regional forums 
such as the Association of Southeast Asian Nations (ASEAN) to encourage 
multilateral relationships that build trust, prevent misperceptions 
that can lead to conflict, and reinforce international standards of 
conduct. For example, USPACOM arranges an annual Chiefs of Defense 
(CHOD) Conference as its premier multilateral engagement tool for 
candid discussions with 20-plus Chiefs of Defense in the region. Each 
year the CHOD Conference alternates between USPACOM and a co-host 
country; Brunei hosted last year's successful conference. The 2015 CHOD 
Conference will be held in Hawaii and is designed to promote 
multilateral cooperation and provide a forum for the theater's military 
leaders to share regional and global perspectives on common challenges. 
USPACOM also participated in other multilateral events in the region, 
such as the Fullerton Forum and Shangri-La Dialogue, to encourage 
multilateral solutions to shared challenges, as well as provide a venue 
for continued dialogue and strengthening security partnerships in the 
region.
    One of the most important multilateral forums in the theater is 
ASEAN. The ten member states in ASEAN, under the chairmanship of Burma 
last year and Malaysia this year, seek to improve multilateral security 
activities and advance stability in the Indo-Asia-Pacific. 
Approximately $5.3 trillion of global trade ($1.2 trillion is U.S.) 
passes through ASEAN waterways each year. The ten member states of 
ASEAN form the fourth largest U.S. export market and fifth major trade 
partner. ASEAN continues to address common threats in the region 
including Maritime Security, Terrorism, Transnational Crimes, Cyber 
Security, and Humanitarian Assistance and Disaster Response. ASEAN 
demonstrated during past disasters, such as Typhoon Haiyan and the 
Malaysian Flight 370 search operations, that practical cooperation 
among member states can enable civilian and military agencies to be 
more effective and efficient.
    Last April, Defense Secretary Hagel hosted the ten ASEAN Defense 
Ministers, the United Nations Office for the Coordination of 
Humanitarian Assistance (UNOCHA), and other non-government 
organizations in Hawaii to discuss disaster response and maritime 
security. UNOCHA hosted an Integrated Civil-Military Regional Response 
Planning Workshop for Large-Scale International Disaster Relief last 
October and the USPACOM staff will continue the maritime security 
dialogue by hosting a Maritime Domain Awareness discussion this May. 
USPACOM will continue supporting ASEAN as it builds regional tools and 
forums such as the ASEAN Economic Community by the end of 2015. 
Additionally, there is hope that the ASEAN members and China can 
conclude a binding and enforceable Code of Conduct mechanism for the 
South China Sea.
    The Daniel K. Inouye Asia-Pacific Center for Security Studies 
(APCSS) also contributes to multilateral engagements and rules-based 
security governance. Through its executive education courses, 
workshops, and sustained alumni engagement activities, the Center 
contributes to the USPACOM Theater Campaign Plan by building U.S. and 
partner nation capacities. Success stories include the APCSS-
facilitated development of Papua New Guinea's first-ever national 
security policy, a framework for an Indonesian defense white paper, and 
Bangladesh's first comprehensive maritime security strategy proposal. 
Additionally, APCSS helped with the successful completion of Nepal's 
disarmament, demobilization, and reintegration program for dealing with 
Maoist ex-combatants, and the signing of an inter-party agreement to 
overcome political crisis--both led by a core group of APCSS alumni.
    Senior Leader Engagement: USPACOM and its components leverage 
senior leader visits to increase dialogue on issues of shared concern, 
build and strengthen relationships, and convey U.S. commitment to the 
region. Each year, hundreds of senior military and government leaders 
address security challenges through counterpart visits which greatly 
enhance understanding, interoperability, and trust. Examples of senior 
leadership engagements in the Indo-Asia-Pacific over the past year 
include:
    <bullet>  The President attended the G-20 Summit in Australia, the 
Republic Day ceremony in India, the Asia Pacific Economic Cooperation 
Forum in China, and the East Asia Summit in Burma.
    <bullet>  The President also increased engagements in the theater 
to strengthen alliances in the Republic of Korea, Japan, and the 
Philippines, and to deepen ties with Malaysia.
    <bullet>  The Secretary of State visited the Republic of Korea; 
China; and Indonesia. He also traveled to India for the 5th Strategic 
Dialogue Conference; to Burma for a series of ASEAN discussions; 
Australia for annual Ministerial Consultations; and the Solomon 
Islands.
    <bullet>  The Secretary of State and Secretary of Defense held a 
2+2 meeting with their ROK counterparts in Washington.
    <bullet>  The Secretary of Defense traveled to Japan for bilateral 
security discussions; Mongolia and Singapore for key leadership 
meetings; India for defense consultations; Australia for AUSMINs and to 
sign the Force Posture Agreement; and China for Confidence Building 
Measure discussions.
    <bullet>  The Chairman of the Joint Chiefs toured the Changi 
facilities in Singapore; participated in security and military 
discussions in Vietnam (first CJCS to visit since 1971); Australia for 
the Defense Chiefs Strategic Dialogue conference and bilateral events; 
and both Japan and the Republic of Korea for key counterpart visits.
    These senior leader engagements are critical to identifying 
opportunities and addressing security challenges in the region. 
Additionally, Congressional delegations to the theater are of 
significant benefit.
                     effective and assured presence
    Effective and assured presence of USPACOM forces is required to 
meet the challenges and opportunities within USPACOM's AOR. As 
strategic warning timelines decrease, early identification of potential 
crises is key to rapidly assessing and shaping events. It also places a 
premium on robust, modern, agile, forward-deployed forces, maintained 
at high levels of readiness. Assured presence is supported by posturing 
forward-deployed forces, fielding new capabilities and concepts, 
addressing critical gaps, and maintaining readiness in order to defend 
the homeland, strengthen and modernize our alliances and partnerships, 
maintain access in the air and maritime domains, counter aggression, 
and prevent the proliferation of weapons of mass destruction and 
violent extremism.
    Posture: Sustaining effective and forward presence begins with 
having the necessary military infrastructure and access to support 
forward-stationed and rotational forces. USPACOM's posture effectively 
communicates U.S. intent and resolve to safeguard U.S. national 
interests, strengthen alliances and partnerships, maintain an assured 
presence in the region, prevent conflict, and if necessary, respond 
rapidly and effectively across the full range of military operations.
    USPACOM faces three key challenges related to force posture. The 
first is operating in an AOR that covers 52 percent of the earth's 
surface. The vast distances complicate ISR, movement/maneuver, and 
sustainment, and require a geographically distributed force laydown to 
rapidly respond to crisis. The second challenge is the growth of 
military capabilities in the region. The Indo-Asia-Pacific is the most 
militarized region in the world. Maintaining the ability to defend 
strategic national security interests in an increasingly complex and 
lethal environment requires a force posture that is operationally 
resilient. Finally, expanding access to regions in South and Southeast 
Asia requires access and forward staging arrangements that are 
politically sustainable. In support of USPACOM's objectives, the 
military services and our allies and partners are making investments to 
improve U.S. force posture. Examples of these investments are:
    <bullet>  Construction in Iwakuni, Japan to allow a carrier air 
wing to relocate from Atsugi
    <bullet>  Expanding base facilities and capabilities in Okinawa for 
Futenma replacement
    <bullet>  Operationalizing Enhanced Defense Cooperation Agreement 
with the Philippines
    <bullet>  Expanding future capabilities through construction at 
Camp Humphreys, ROK
    <bullet>  Reinforcing Guam's munitions and fuels piers at Apra 
Harbor
    <bullet>  Implementing Force Posture Initiatives through troop 
rotations and, ultimately, facility upgrades and construction in 
Darwin, Australia
    <bullet>  Building hardened C2 and aircraft shelters at Andersen 
AFB, Guam
    <bullet>  Installing and fortifying fuel nodes, manifolds, and 
lines in Guam and Japan
    <bullet>  Implementing rotational forces through USFK
    <bullet>  Developing divert options and training ranges in the 
Northern Marianas Islands
    <bullet>  Dredging port facilities to requisite depths to allow 
pier operations in Naha, Japan
    These posture investments are part of USPACOM's holistic 
infrastructure investment strategy and are key to continued mission 
success.
    Much of the supporting infrastructure in the Pacific and on the 
West Coast of the U.S. mainland was established during World War II and 
during the early years of the Cold War. The infrastructure now requires 
investment to extend its service life. The military services continue 
to invest in sustainment, restoration, and modernization (SRM) to 
provide quality facilities to support service members and their 
families; however, during times of austere budgets, the military 
services struggle to maintain infrastructure SRM funding levels. These 
forced decisions undermine the significant investment in facilities 
made by DoD and Host Nation Funded Construction programs over past 
decades.
    Reduced SRM funding will negatively impact the ability to bring new 
forces and capabilities into the theater and maintain critical 
infrastructure. The U.S. and the theater benefit from the significant 
levels of investment made by allies and partners. For example, the 
Republic of Korea is significantly contributing to the cost of keeping 
U.S. Forces on the Korean Peninsula. The Government of Japan has 
committed up to $3.1 billion to help realign U.S. Marines from Okinawa 
to Guam and other locations and $4.5 billion to expand the airfield and 
associated facilities at Marine Corps Air Station Iwakuni.
    The Commonwealth of the Northern Mariana Islands (CNMI) Joint 
Military Training initiative (CJMT) is an important posture 
undertaking. CNMI remains strategically important as a forward and 
sovereign U.S. location with lease rights until 2033 and extendable to 
2083. When the U.S.-Japan Defense Policy Review Initiative moves 
approximately 4,700 U.S. Marines from Japan to Guam, the CJMT will 
enable this U.S. Marine force to train and maintain operational 
readiness. Specifically on the island of Tinian, the CJMT initiative 
will provide live-fire ranges and training areas. The CJMT will 
optimize future training ranges for joint and combined exercises with 
allies and foreign forces. As a part of aviation resiliency 
initiatives, divert and alternate air fields are also being explored on 
the islands of Saipan and Tinian along with other locations in the 
broader Western Pacific.
    Forward Deployed Forces: The tyranny of distance, which defines the 
USPACOM AOR, requires forward deployed forces to engage with allies and 
partners, respond rapidly to crisis or contingencies, defend the 
homeland, and reinforce U.S. commitment to the region. To increase 
USPACOM's forward deployed forces and capabilities, the military 
services are:
    <bullet>  Rotationally deploying Navy Littoral Combat Ships into 
Singapore
    <bullet>  Forward deploying two additional ballistic missile 
defense-capable surface ships to Japan
    <bullet>  Increased deployments and rotations of E-8 JSTARS, E-3 
AWACS, and E-2D Advanced Hawkeye in theater
    <bullet>  Replacing the USS George Washington with the more capable 
USS Ronald Reagan aircraft carrier in Japan
    <bullet>  Installing an advanced radar in Australia
    <bullet>  Continuing to deploy and operate F-22s in theater
    <bullet>  Completing a second ballistic missile defense radar in 
Japan
    <bullet>  Stationing additional submarines in Guam
    <bullet>  Improving rotational force presence in the Philippines, 
Singapore, and Australia
    New Systems and Operating Concepts: Crafting new concepts and 
fielding new systems is fundamental to employing a credible force. For 
example, the military services are:
    <bullet>  Replacing P-3 maritime patrol aircraft with newer and 
more capable P-8s
    <bullet>  Deploying tilt rotor aircraft for Marines and Special 
Forces and new unmanned capabilities throughout the AOR
    <bullet>  Forward stationing High Speed Vessels and Mobile Landing 
Platforms in the USPACOM AOR
    <bullet>  Introducing Naval Integrated Fire Control--Counter Air 
Aegis Destroyers
    <bullet>  Expanding the U.S. Army Pacific Pathways deployment 
concept
    <bullet>  Preparing for F-35 Joint Strike Fighters deployment with 
maintenance hubs in Japan and Australia
    Addressing Critical Capability Gaps: The most technical, high-end 
military challenges are in the USPACOM AOR, and are growing. While many 
improvements to posture, forward deployed forces, capabilities, and 
concepts have been made to address these challenges, there are a number 
of mission sets and enablers that require continuous focus and 
attention. These include areas such as Undersea Warfare, Intelligence/
Surveillance/Reconnaissance, space, battle management, command and 
control, cyber, munitions, Ballistic Missile Defense and Integrated Air 
and Missile Defense systems, and capacity shortfalls in theater 
enablers such as petroleum redistribution and lift.
    Undersea Warfare is a mission set that requires constant attention 
to maintain a decisive advantage. Of the world's 300 foreign 
submarines, roughly 200 are in the Indo-Asia-Pacific region; of which, 
150 belong to China, North Korea, and Russia. Countries operating these 
systems view the platforms as a mechanism to affect the balance of 
power in their favor. Even small navies that possess submarines hold a 
distinct advantage over a navy without the capability.
    There is a significant leap underway in the Indo-Asia-Pacific in 
undersea capability as newer submarines replace older variants. In the 
past few years, Singapore, India, Vietnam and Malaysia have all 
received modern diesel submarines and China is on a modernization path 
to improve the lethality and survivability of its attack submarines 
with the introduction of quiet, high-end, diesel-powered and nuclear-
powered submarines. Russia is also modernizing its existing fleet of 
Oscar-class multi-purpose attack nuclear submarines (SSGNs) and 
producing their next generation Yasen-class SSGNs.
    In addition to attack submarines, there are important developments 
underway that will increase Chinese and Russian strategic deterrent 
patrol capability and capacity. China has three operational JIN-class 
ballistic missile submarines and up to five more may enter service by 
the end of the decade. Additionally, Russia is planning to field its 
newest Borei-class nuclear ballistic missile submarines in the Pacific 
later this year. Submarine detection and tracking is a complex problem 
set and will continue to be one of the most important functions of 
naval forces. A continued and sustained investment in the U.S. nuclear 
submarine force, advanced Undersea Warfare technologies, capabilities 
and capacity, and readiness is necessary to outpace the growing 
challenges.
    Persistent and deep-look ISR capabilities and supporting 
architecture are required to prevent strategic surprise, assess the 
security environment, and support actions that impose cost or defeat 
potential adversaries. Although ISR capacity and capabilities have 
increased, significant capacity issues remain. Efforts to mitigate ISR 
capacity issues, as well as develop new capabilities, are ongoing. 
Additionally, an ISR processing, exploitation, and dissemination 
enterprise that is interoperable and shared with Allies and Partners is 
important. Without a concerted effort to continue advancing U.S. 
capabilities, the U.S. risks missing key indications and warnings in an 
environment where situational awareness affects decision space.
    Satellite communications (SATCOM) is an essential enabler to 
exercise Command & Control (C2) and enabling ISR. Satellite space 
continues to grow increasingly congested and contested, and adversaries 
continue developing means to curtail access to space-enabled 
capabilities. A resilient space-based command, control, and ISR 
architecture remains a USPACOM priority.
    There is a growing need to sustain and modernize airborne early 
warning systems to execute multi-mission, multi-domain integrated 
command and control. The cruise missile, air, and UAV threats in the 
USPACOM AOR require robust, long range Battle Management, Command and 
Control (BMC2) and Wide-Area Surveillance (WAS) platforms capable of 
operating in a contested environment. Developing and modernizing the 
capabilities within the BMC2 and WAS platforms to track and operate in 
a communications contested or degraded environment is necessary to meet 
the challenges of future operational environments in the Pacific; these 
platforms must be interoperable with military services, partners, and 
allies.
    Related, the Joint Information Environment (JIE) increments I and 
II have the potential for consolidation of each military services' 
command, control, communication, and computers programs. JIE II will 
further strengthen collective cyber security and defense posture in the 
region, improve staff efficiency and support, and strengthen 
interagency and international relationships. JIE II will require an 
information infrastructure adaptable enough to accommodate multiple 
security classification levels with the interoperability and sharing 
capability to maximize mission effectiveness. JIE II is a necessary 
next step to mitigate the risk posed by persistent cyber threats. These 
threats continue to grow.
    Increased cyber capacity and use, especially by China, North Korea, 
and Russia, underscore the growing requirement to evolve our command, 
control, and operational structure authorities. In order to fully 
leverage the Cyber domain, Combatant Commanders require an enduring 
theater cyber operational command resourced to provide regional cyber 
planning, integration, synchronization, and direction of cyberspace 
forces. The theater cyber operational command will provide direction of 
operations against increasingly capable threats in coordination with 
USCYBERCOM, the interagency, and allies and partners. USPACOM sees a 
future where Joint Force Cyber Component Command (JFCCC) are aligned 
regionally under Combatant Commands. JFCCCs will provide staffing and 
expertise required to oversee persistent operations and defense of 
theater information networks, synchronization of cyber risk assessments 
and intelligence, and development of flexible cyber effects.
    Munitions are a critical component of combat effectiveness and 
readiness. A number of munitions improvements in lethality, production, 
and precision are required. There is a growing need for ship-to-ship 
and air-to-ship munitions to allow U.S. forces to defeat an aggressor 
from greater range. Specifically, there are troubling gaps in Anti-
Surface Warfare capability and readiness that compel the accelerated 
fielding of a long range anti-ship missile. A long-range stand-off 
weapon, such as the Defense Advanced Research Programs Agency / Office 
of Naval Research developed Long Range Anti-Ship Missile, will meet the 
urgent need for an offensive anti-surface warfare capability against 
combatants in a contested environment. There is also a need for 
advancements in the air-to-air realm and for Hard Target Munitions 
capabilities to engage hardened targets that are growing in numbers and 
complexity. Area Effects Munitions are required to prevent open space 
aggression. Lastly, along with lethal munitions, non-lethal 
capabilities can prove equally valuable in supporting USPACOM's 
strategy and deterrence.
    With North Korea continuing to advance its ballistic missile 
capabilities, USPACOM will continue its efforts in maintaining a 
credible, sustainable ballistic missile defense. The recent deployment 
of long range second TPY-2 radar to Japan (December 2014) along with 
THAAD on Guam achieving full Fully Operational Capability further 
enhanced U.S. homeland defense capabilities which are required to 
protect key regional nodes from aggressive action. In addition, over 
the last year the U.S., Japan, the Republic of Korea, and Australia 
have had better coordination and information sharing. USPACOM looks 
forward to continuing our work with our regional IAMD partners and 
expanding our ballistic missile defense cooperation and information 
sharing.
    Equally important to having the right equipment and capabilities is 
the capacity of critical logistics. The time and distance required to 
move assets across the Pacific make it an imperative to preposition and 
secure munitions. Dedicated sealift must be adequately funded to 
posture munitions, fuel, and other supplies within theater. Agile, 
responsive, and sustained operations demand a resilient network of 
capabilities to deploy and sustain USPACOM forces. USTRANSCOM's 
prepositioning strategy has emphasized positioning equipment and 
materiel afloat to optimize flexibility, ensure rapid responses to 
crises, and provide force presence; however, USPACOM still does not 
have enough lift to satisfy all operational requirements.
    Readiness: Fundamental to USPACOM's mission is the ability to deter 
aggression and prevail in crisis. USPACOM's readiness is evaluated 
against its ability to execute operational and contingency plans, which 
places a premium on forward-deployed, ready forces that can exercise, 
train, and operate with our partner nations' militaries and follow-on 
forces able to respond to operational contingencies.
    USPACOM maintains forward-deployed ready forces as credible 
deterrents, to support and defend national security interests, and to 
provide assurance and protection to allies and partners. Forward 
deployed forces, west of the International Date Line, remain responsive 
and relevant to mitigating risk in the event of escalating regional 
security events and greatly benefit from training with allies and 
partners in a complex environment. Ready, forward-deployed forces 
increase decision space and decrease response time, bolster allies' and 
partners' confidence, and reduce the chance of miscalculation by 
potential adversaries. However, redistribution of global forces that 
lead to moving forces out of the Indo-Asia-Pacific diminishes USPACOM's 
impact and effectiveness. Additionally, short-notice redeployment of 
USPACOM's ready, forward deployed forces to fill emergent requirements 
to other areas of operation increases risk to our nation's Indo-Asia-
Pacific interests and objectives.
    In addition to concerns with the forward deployed forces, there are 
troubling readiness trends associated with follow-on forces. The 
ability of the U.S. to surge and globally maneuver ready forces has 
historically been an asymmetric advantage that is now diminishing. Over 
the past year, the U.S. has been forced to prioritize the readiness of 
forward-deployed forces, at the expense of the readiness of follow-on-
forces and critical investments needed to outpace emerging threats. A 
lack of ready surge forces resulting from high operational demands, 
delayed maintenance periods, and training limitations will limit 
responsiveness to emergent contingencies and greatly increases risk.
    Budget reductions and uncertainty directly impact operations and 
combat readiness. Fiscal constraints disrupt the predictable, 
persistent funding needed to organize, train, and equip a ready force. 
Fiscal uncertainty degrades and disrupts long-term engagement 
opportunities with strategic consequences to U.S. relationships and 
prestige. Resource pressures have triggered deferrals in exercises, 
operations, and senior leader engagement opportunities; have introduced 
regional doubt; and compound the risk to U.S. interests in the region. 
As the Service Chiefs recently testified, continuation of sequestration 
will further delay critical warfighting capabilities, reduce readiness 
of forces needed for contingency response, forego procurement of new 
platforms and weapon systems and further downsize weapons capacity . . 
. all of which are required for success in the USPACOM AOR. I am in 
full agreement with their assessments and remain deeply concerned about 
the growing risk to U.S. interests in the Indo-Asia-Pacific.
                               conclusion
    It has been over three years since the President announced the U.S. 
Rebalance to the Asia-Pacific. The Rebalance is focused on modernizing 
and strengthening treaty alliances and partnerships through cooperative 
agreements, building partner capacity, and increasing regional 
cooperation, interoperability, and security capabilities. From the 
military perspective, the U.S. is accomplishing what it set out to do 
and the Rebalance is working. However, fiscal uncertainty resulting 
from the Budget Control Act could arrest progress and place some 
initiatives at risk. Building on the positive momentum of the Rebalance 
to the Pacific is critical to protecting U.S. interests in the region. 
Thank you for your continued support to USPACOM and our men and women, 
and their families, who live and work in the Indo-Asia-Pacific.

    Chairman McCain. General Scaparrotti.

  STATEMENT OF GENERAL CURTIS M. SCAPARROTTI, USA, COMMANDER, 
  UNITED NATIONS COMMAND/COMBINED FORCES COMMAND/U.S. FORCES 
                             KOREA

    General Scaparrotti. Chairman McCain, Ranking Member Reed, 
and distinguished members of the committee, I'm honored to 
testify today as the Commander of the United Nations Command, 
Combined Forces Command, and U.S. Forces Korea.
    On behalf of the servicemembers, civilians, contractors, 
and their families who serve our great Nation in the Republic 
of Korea, one of our most important allies, thank you for your 
support.
    I've prepared brief opening remarks, but I would like to 
ask that my written posture statement be entered into the 
record.
    Chairman McCain. Without objection.
    General Scaparrotti. Last year, I testified that the 
combined and joint forces of the United States and the Republic 
of Korea were capable and ready to deter and, if necessary, 
respond to North Korean threats and actions. Due to our 
accomplishments in 2014, I report to you that our strong 
alliance is more capable of addressing the rapidly evolving and 
increasingly asymmetric North Korean threat.
    In recent years, North Korea has aggressively developed and 
utilized asymmetric capabilities, such as cyber warfare, 
nuclear weapons, and ballistic missiles, to advance its 
interests. To put this in perspective over time, in 2012 my 
predecessor noted North Korea's advancements in cyber and 
nuclear capabilities during his opening statement to this 
committee. A year later, North Korea conducted cyber attacks on 
South Korea's banks and broadcasting stations. And in 2014, 
they boldly projected their cyber capabilities against Sony 
Pictures in the United States, in an effort to inflict economic 
damage and pressure--and suppress free speech. This example 
represents a trend that is persistent across several North 
Korean asymmetric capabilities.
    My top concern is that we will have little to no warning of 
a North Korean asymmetric provocation which could start a cycle 
of action and counteraction leading to unintended escalation. 
This underscores the need for an alliance to--for the alliance 
to maintain a high level of readiness and vigilance.
    Last year, the alliance took significant steps in improving 
its capabilities and capacities to deter aggression and to 
reduce its operational risk. But, our work is not done. In 
2015, we will maintain this momentum by focusing on my top 
priority: sustaining and strengthening the alliance, with an 
emphasis on our combined readiness. This includes ensuring the 
rapid flow of ready forces into Korea in the early phases of 
hostilities and improving ISR [intelligence, surveillance, and 
reconnaissance] capabilities in critical munitions.
    Mr. Chairman, the return of sequestration would negatively 
impact these priorities, reduce readiness, and delay deployment 
of the forces required to defend the Republic of Korea and U.S. 
interests. In crisis on the Peninsula, this will result in more 
military and civilian casualties for the Republic of Korea and 
the United States, and potentially place the mission at risk.
    The men and women serving on freedom's frontier, defending 
the Republic of Korea, remain thankful for this committee's 
unwavering support in prioritizing resources that enable us to 
defend our national interests in Asia while advancing universal 
values and international order. I'm extremely proud of our 
servicemembers, civilians, and their families serving in the 
Republic of Korea, who never lose sight of the fact that we are 
at freedom's frontier, defending one of our most important 
allies and vital American interests.
    Thank you. And I look forward to your questions.
    [The prepared statement of General Scaparrotti follows:]

 prepared statement of general curtis m. scaparrotti commander, united 
 nations command; commander, united states-republic of korea combined 
 forces command; and commander, united states forces korea before the 
             senate armed services committee april 16, 2015
                            1. introduction
    Mr. Chairman and distinguished members of the Committee, I am 
honored to testify as the Commander of the multinational United Nations 
Command (UNC), the combined United States-Republic of Korea (ROK) 
Combined Forces Command (CFC), and the joint United States Forces Korea 
(USFK). Thank you for your support of our Service Members, Civilians, 
Contractors, and their Families who serve our great nation and the 
U.S.-ROK Alliance. The Asia-Pacific region is critical to our nation's 
security and prosperity, and the U.S.-ROK Alliance is indispensable to 
the stability that enables the region to thrive despite serious threats 
and challenges. The men and women of this Command are committed every 
day to each other, our mission, and our nation's calling. We are very 
proud of our partnership with the Republic of Korea and of our 
contributions to stability and prosperity in Korea and the region. The 
U.S.-ROK Alliance is one of history's most successful alliances, and we 
are confident that we can further enhance it to serve both of our 
nations.
    Last year, I testified that the Alliance is strong, but that we 
would not become complacent in our daily mission to deter and defend 
against the North Korean threat. I also stated that we would face 
challenges and opportunities in adapting the Alliance to that threat. 
Mr. Chairman and distinguished members, I report to you that the 
Alliance is even stronger today due to our accomplishments in 2014. In 
2015, we will build on that momentum based on four guiding Command 
priorities.
    <bullet>  Sustain and Strengthen the Alliance.
    <bullet>  Maintain the Armistice. Be Ready to ``Fight Tonight'' to 
Deter and Defeat Aggression.
    <bullet>  Transform the Alliance.
    <bullet>  Sustain the Force and Enhance the UNC/CFC/USFK Team.
                  2. alliance accomplishments in 2014
    In 2014, the United States and the Republic of Korea took 
significant steps to improve our overall readiness and the strength of 
the Alliance. We started the year with the annual KEY RESOLVE exercise 
in February-March, followed by the ULCHI FREEDOM GUARDIAN exercise in 
August. These annual exercises, along with my personal visits to ROK 
and U.S. units throughout South Korea, helped me confirm our strengths 
and note some areas we must improve. The Command's greatest strength 
rests in the close, collaborative, and cooperative working relationship 
with not only our ROK ally, but with the larger United Nations Command 
team.
    The strength and importance of the Alliance were highlighted last 
April by our two Presidents' first visit to CFC. President Park praised 
the close relationship of the Alliance in the steadfast defense of the 
Republic of Korea. President Obama called the Alliance ``special, 
forged on the battlefield'' and commented that we are ``more than 
allies--we are friends.'' He also noted that it is ``this foundation of 
trust . . . that allows both our nations to thrive economically and 
socially.''
    In 2014, we made progress on two initiatives against the growing 
North Korean missile threat. We further developed our comprehensive 
Tailored Deterrence Strategy (TDS) to counter the North Korean missile 
and WMD threats. We also concluded the ``Concepts and Principles for 
Comprehensive Alliance Counter-Missile Operations,'' with a ``4D 
Strategy'' to detect, defend, disrupt, and destroy North Korean 
missiles. This important step will help us gain important synergies and 
efficiencies, not only in terms of the capabilities each nation 
develops, but how we use these capabilities operationally.
    Over the past year, our drive to strengthen the Alliance has 
improved our combined readiness. For example, the U.S. Army began and 
the U.S. Air Force continued to deploy forces to Korea on a rotational 
basis. This added commitment complemented units based in Korea, 
improving overall readiness. Additionally, the ROK Army and Air Force 
participated in National Training Center and Red Flag exercises in the 
United States. These challenging exercises improved the Alliance's 
interoperability and transformed air crews into seasoned veterans.
    South Korea made progress in enhancing future warfighting and 
interoperability capabilities by taking steps toward procuring Patriot 
Advanced Capability missiles, F35 Joint Strike Fighters, and RQ-4 
Global Hawk Surveillance Aircraft. Once integrated into our Alliance 
force structure, these systems will enhance the capabilities of our 
Alliance.
    We also agreed to establish a U.S.-ROK Combined Division in wartime 
with a functioning combined staff during Armistice. Once in place later 
this year, the division will enhance our combined combat posture at the 
tactical level.
    We signed the five-year Special Measures Agreement which 
established the sharing of costs for stationing U.S. forces in South 
Korea. ROK contributions through the SMA help maintain the Alliance's 
readiness and infrastructure to support U.S. forces.
    We ended the year with the signing of a much needed trilateral 
information-sharing arrangement between the United States, South Korea, 
and Japan. Under this arrangement, our two closest allies in the region 
can share classified information related to the nuclear and missile 
threats posed by North Korea. Our strategic and military initiatives in 
2014 comprise what we call a ``Quality Alliance.'' We continue to use 
this concept to focus on military qualities and capabilities, and to 
provide a framework and context to align senior leadership decision-
making.
                        3. strategic environment
    Our accomplishments last year advanced U.S. security and 
prosperity, which are inextricably linked to stability in the Asia-
Pacific region. In the 21st century, the Asia-Pacific region is 
expected to serve as an engine of the global economy, grow in political 
influence, and remain the focus of a variety of complex security 
challenges. The troubled history of the region, combined with the 
dynamic regional security situation, render strong alliances and 
partnerships critical to our nation's ability to defend our interests. 
In the face of strategic changes and security threats, and lacking 
regional security institutions, the United States serves as the 
constant that provides presence, stability, and a framework for 
conflict avoidance and resolution. The United States has taken a vital 
role in Asia, as it has worldwide, in promoting international 
cooperation and the effectiveness of international rules and norms. 
This role is supported by America's enduring military presence, which 
serves as a foundational and visible element of U.S. leadership and 
commitment in Asia. In South Korea, forward-deployed American forces 
stand together with our ROK ally and demonstrate unwavering resolve in 
the face of the growing North Korean asymmetric threat.
A. CHINA, RUSSIA, AND JAPAN
    China is continuing on a comprehensive military modernization 
program, at times acting assertively to press its interests in the 
region. China remains North Korea's most significant supporter, even 
though the relationship has been strained since Kim Jong-un assumed 
control of North Korea. Russia has increased its focus on the region, 
including military presence and engagement, in a reassertion of its 
strategic interests. Meanwhile, Japan is adapting its strategy to allow 
it to exercise collective self-defense. This change constitutes a 
natural evolution in Japan's defense policy, and its alliance with the 
U.S. should reassure the region that by accepting increased defense 
responsibilities it will contribute to regional and global security and 
enable a more effective defense of the Korean Peninsula.
B. NORTH KOREA
    An unpredictable North Korea remains a significant threat to 
American interests, the security and prosperity of South Korea, and the 
stability of the international community. North Korea is willing to use 
coercion, continue development of nuclear weapons technology and long-
range ballistic missile programs, engage in proliferation of arms, 
missiles and related materiel and technologies, and conduct cyber 
attacks, all while continuing to deny its citizens the most basic human 
rights. Due to the strength of the U.S.-ROK Alliance, North Korea lacks 
the ability to unify the Korean Peninsula by force with its large but 
aging conventional military. Recognizing this, North Korea has opted 
for an asymmetric strategy capable of little to no notice provocations 
and limited attacks. North Korea's strategy is designed to ensure the 
survival of the Kim regime, with options to disrupt peninsular, 
regional, or global security. To achieve this, Kim Jong-un must 
maintain internal security and a strong military deterrent. North 
Korea's nuclear program serves both objectives by enhancing domestic 
regime legitimacy and threatening neighbors and the United States.
    What's Changed Since Last Year? North Korea has placed significant 
emphasis and resources into its asymmetric capabilities, especially its 
missiles and cyber threats. In 2014, North Korea conducted a series of 
long-range artillery, rocket, and ballistic missile tests with very 
little to no notice. During the summer training period, North Korea 
military units conducted more realistic training and increased 
activities along the Demilitarized Zone and in the North West Islands 
region. The North West Islands region--where North and South Korea 
actively monitor fishing vessels operated by both countries and by 
China--remains the primary hotspot on the Korean Peninsula. In 
November, North Korea sought to intimidate and pressure the U.S. media 
and entertainment industries by projecting its cyber capabilities 
against Sony Pictures. This was a significant action that demonstrated 
North Korea's willingness to use cyber-attacks in defiance of 
international norms.
    Provocation and Engagement. North Korea's strategy involves 
combining provocation and engagement in what is often characterized as 
coercive diplomacy to pursue objectives that enhance regime 
survivability. This includes initiatives to compel international 
acceptance of its nuclear program, play regional actors, including the 
U.S., against one another, and split alliances, particularly the ROK-
U.S. Alliance. North Korea recognizes the strength of the ROK-U.S. 
Alliance as its greatest threat, so it tries to fracture the Alliance 
in order to deal with each nation separately on its terms. The North 
Korean People's Army (KPA) retains the capability to inflict heavy 
costs on South Korea. However, KPA senior leaders likely understand it 
is not capable of defeating the Alliance, despite its propaganda to the 
contrary. North Korea's asymmetric strategy and capabilities enable 
limited objective military actions, which have the risk of 
miscalculation and escalation.
    Asymmetric Capabilities. North Korea has conducted three nuclear 
tests--in 2006, 2009, and 2013. It continues to prepare its test site 
and could conduct another test at any time. In recent years, North 
Korea has continued to develop its asymmetric capabilities including 
several hundred ballistic missiles, a sizeable long range artillery 
force, one of the world's largest chemical weapons stockpiles, a 
biological weapons research program, the world's largest special 
operations forces, and an active cyber warfare capability. These 
capabilities can be employed with minimal warning, and threaten South 
Korea and potentially the United States and Japan.
    Since assuming power three years ago, Kim Jong-un has taken a 
number of confrontational steps to solidify his control over the North 
Korean people, military, and political apparatus. The regime conducted 
a satellite launch in December 2012 and conducted its third nuclear 
test in February 2013, in defiance of United Nations Security Council 
Resolutions 1718 (2006), 1874 (2009), 2087 (2013), and 2094 (2013). In 
2014, North Korea continued to develop its ballistic missile program, 
conducting no-notice Scud and No Dong missile tests from several launch 
locations, all violations of UN Security Council resolutions.
    These asymmetric capabilities, along with the fourth largest 
military in the world that is 70-75 percent forward deployed within 60 
miles of the DMZ, challenges the Alliance to assess potential 
indications of a North Korean provocation or attack.
    What Are We Doing to Address the Threat? The Alliance is constantly 
using readiness, vigilance, and cooperation to counter the North Korean 
threat. All three Commands--United Nations Command, Combined Forces 
Command, and U.S. Forces Korea--in close coordination with the ROK 
military train and posture our forces and capabilities to deter and 
defend against North Korea. We continue to press ahead on tailored 
deterrence, counter-missile capabilities, improving plans, and adding 
rotational forces and Intelligence, Surveillance, and Reconnaissance 
(ISR). We have also taken steps to enhance the United Nations Command 
to increase multinational influence. A strong Alliance and ready 
military posture continue to provide the opportunity for further 
diplomatic, political, and economic engagements. The military dimension 
of national power is fully integrated into larger national efforts to 
address the North Korean threat, and more broadly to meet U.S. national 
security objectives in the region.
C. REPUBLIC OF KOREA
    The ROK is a dynamic nation of 50 million people in a region 
critical to U.S. interests, as well as regional and global stability. 
The ROK's success, the ``Miracle on the Han River,'' is truly 
remarkable considering that less than 60 years ago it was one of the 
poorest nations in the world. Emerging from the destruction of the 
Korean War, the ROK is among the most vibrant democracies and economies 
in the world. The drive and spirit of the Korean people along with the 
security provided by our Alliance forces have helped the Korean people 
propel their country to become an increasingly important and prominent 
player in the international community and one of America's closest 
allies.
    Politically and economically, the ROK provides an example for other 
nations seeking to improve the lives of their citizens. Today, South 
Korea boasts the world's 12th largest economy. With world-class 
universities and research and development centers, the ROK is also a 
leader in science and technology, with the world's fastest average 
internet connection speed. As a nation with growing influence, South 
Korea is increasing its role in setting the international agenda, to 
include establishing a series of free trade agreements and hosting 
international defense talks.
D. UNITED NATIONS COMMAND: THE INTERNATIONAL COALITION IN KOREA
    In response to North Korea's invasion of South Korea in 1950, the 
United Nations Security Council (UNSC) called for members to provide 
military forces to South Korea under the leadership of the United 
States. The UNSC chartered the United Nations Command (UNC) to repel 
the attack and restore peace and security. In 1953, the UNC, North 
Korea, and China agreed to an Armistice to halt hostilities. Today, the 
18 nation UNC remains an international coalition that maintains the 
Armistice and contributes to deterrence. If hostilities resume, UNC 
provides a multinational enabler to ensure broad international support 
to defend the ROK.
    The ROK-U.S. Combined Forces Command is the powerful warfighting 
command that deters North Korean aggression and leads U.S.-ROK forces 
in the defense of South Korea. CFC enables us to organize, plan, and 
exercise U.S. and ROK forces so that the Alliance is ready to ``Fight 
Tonight.''
    U.S. Forces Korea, as a sub-unified command of U.S. Pacific 
Command, is responsible for organizing, training, and equipping U.S. 
forces on the Peninsula to be agile, adaptable, and ready to support 
CFC and UNC.
   4. advancing security on the korean peninsula: priorities for 2015
    In the context of the strategic environment I described above, I 
have four priorities for the Command: first, to sustain and strengthen 
the Alliance; second, to maintain the Armistice, while remaining ready 
to ``Fight Tonight'' to deter and defeat aggression; third, to 
transform the Alliance; and, finally, to sustain the force and enhance 
the UNC/CFC/USFK Team. I would like to describe the progress we've made 
over the last year on each of these priorities, and then conclude by 
looking ahead to how we will continue to build on these successes.
A. Sustain and Strengthen the Alliance
    Our national leaders have established the ROK-U.S. Alliance as the 
linchpin of our common defense of South Korea. Our efforts on this 
priority have borne much fruit in this last year. We are increasing 
activities and communications, so that we keep the Alliance at the 
center of the Command's actions. By putting the Alliance first, we will 
be better able to address Alliance issues to find Alliance solutions.
    Strong Relationships. The U.S.-ROK Alliance is based on common 
values and interests, as well as strong relationships. Taken together 
with the national security strategies of both of our nations, 
presidential statements, and legislation, the U.S. is set to continue 
to be an indispensable strategic partner to the ROK, and the ROK is 
well poised to be an enduring and increasingly important ally to the 
U.S. We have shared an uncommon level of trust that has been central to 
the defense of South Korea, and key to addressing the regional and 
global implications of North Korea's disruptive behavior. But the 
Alliance is about much more than North Korea. Together we are working 
to address a broad range of security challenges, and to also create new 
opportunities, mechanisms, and initiatives for an enduring peace, 
stability, and prosperity. Going forward together, we are poised for a 
shared future of growth and prosperity.
    ROK National Security Strategy. The ROK recently promulgated a new 
national security strategy titled ``A New Era of Hope.'' The strategy 
seeks to build on the foundation provided by the ROK-U.S Alliance to 
pave the way toward peaceful unification and an enhanced international 
leadership role. The strategy provides a framework for making 
substantive civil and economic preparations for unification, but keeps 
in sharp focus the necessity of maintaining a robust defense posture 
and developing future-oriented capabilities. The strategy also looks 
outward in terms of enhancing the ROK's relations with other nations 
and contributing to what the strategy calls ``the co-prosperity of 
humankind.''
    Republic of Korea Military: A Formidable Force. The ROK military is 
a modern and capable force with superb leaders. Considering all that is 
at stake on the Korean Peninsula, we are fortunate to have such a 
capable ally to tackle challenges and pursue common objectives. In line 
with the ROK military's growing capabilities, it is proving to be an 
increasingly valuable partner that contributes to disaster relief, 
anti-piracy, and non-proliferation operations worldwide. Since South 
Korea joined the United Nations in September 1991, it has deployed 
40,000 troops all around the world in peacekeeping and assistance 
missions. In 2014, the ROK military deployed to more than 15 countries 
in various operations, including an Ebola relief team to West Africa.
    <bullet>  Military Strategy. The ROK military strategy continues to 
call for a rapid and firm response to North Korean provocations, 
believing such a response is essential to deterrence and self-defense. 
As I testified last year, I remain concerned about the potential for 
miscalculation and escalation, so an Alliance response based on timely 
consultation is the best way to maintain the Armistice and stability.
    <bullet>  Manning and Budget. The South Korean military has an 
active duty force of 639,000 personnel and 2.9 million reservists. 
South Korea plans to offset a force reduction to 517,000 in the 2020s 
with better and more high-tech capabilities. In December, the ROK 
Ministry of National Defense submitted a budget of $37.09 billion, a 
4.9 percent increase from last year and representing about 2.5 percent 
of its GDP.
    <bullet>  Capabilities and Force Improvement. South Korea continues 
to prioritize capabilities and training based on the North Korean 
threat, but it is also considering other factors such as the defense of 
sea lines of communication and maritime exclusive economic zones, and 
building its domestic defense industries.
B. Maintain the Armistice. Be Ready To ``Fight Tonight'' To Deter and 
        Defeat Aggression
    To advance this priority, we must expedite the completion of our 
plans, enhance BMD posture, and maximize training and exercise 
opportunities. In order to do those things, we have to provide the 
combined and joint force in Korea with the best capabilities the 
Alliance can muster.
    U.S. Rotational Forces: Delivering Better Capabilities in Korea. 
Rotational assets are modular, multi-functional, and operational across 
the full range of military operations. They enhance our ability to 
sustain a diverse mix of rapidly deployable capabilities and adapt to a 
broader range of requirements to defend the Republic of Korea.
    The movement of U.S. Air Force fighters into the Pacific has been a 
routine and integral part of U.S. Pacific Command's combat capable air 
forces and regional force posture since March 2004, as has the forward 
stationing of Air Force bomber assets in the Pacific under the 
Continuous Bomber Presence initiative. These have maintained a prudent 
deterrent against threats to regional security and stability.
    Eighth Army was among the first units to receive an Attack 
Reconnaissance Squadron in October 2013, and it will continue to 
support routine rotational deployments as part of the U.S. rebalancing 
efforts in the Asia-Pacific region. The decision to rotate units to 
South Korea represents the Army's commitment to provide mission-ready 
and culturally attuned capabilities to the region. The rotational 
deployments to Eighth Army also expose more Army units to the Korean 
Peninsula, while providing the Alliance with an improved ability to 
conduct bilateral exercises and improve readiness. These rotations have 
already achieved results. The 4-6th Attack Reconnaissance Squadron, 
16th Combat Aviation Brigade, rotated to Korea from Joint Base Lewis-
McChord, WA (October 2013 to June 2014). In nine months, they increased 
their combat readiness by exercising close combat attack, 
reconnaissance, and security operations as air and ground forces worked 
together in a combined arms live-fire environment.
    The first brigade-sized unit to support Eighth Army will arrive in 
June 2015 when the 2nd Armored Brigade Combat Team (ABCT), 1st Cavalry 
Division from Fort Hood, TX arrives to replace the 1st ABCT, 2nd 
Infantry Division. This brigade is scheduled to inactivate in July 
after 50 years of proud service on the Korean Peninsula.
    Missile Defense: Countering Growing North Korean Capabilities. The 
ROK-U.S. Alliance endeavors to strengthen our ability to counter North 
Korea's growing ballistic missile threat. At the October 2014 Security 
Consultative Meeting (SCM), the ROK Minister of National Defense and 
U.S. Secretary of Defense endorsed ``Concepts and Principles for 
Comprehensive Alliance Counter-Missile Operations'' or the ``4D 
Strategy.'' This strategy will posture the Alliance to detect, defend, 
disrupt, and destroy North Korean ballistic missile threats. This will 
not only improve Alliance defenses, it will bolster efforts to deter 
North Korean WMD and missile use. Further, it will guide operational 
decision-making, planning, exercises, capability development, and 
acquisitions. The capabilities include the ROK's ``Kill Chain'' and 
Korean Air and Missile Defense System (KAMD), as well as U.S. 
capabilities on and off Peninsula. The Alliance continues to pursue 
upgrades and improvements to existing ballistic missile defense 
capability to include increasing interoperability in systems and 
procedures.
    Tailored Deterrence: Influencing North Korean Decision-Making. The 
bilateral Tailored Deterrence Strategy (TDS) was created in 2013 to 
outline a range of Alliance options to influence the North Korean 
regime's decision making. The strategy focuses on options that raise 
the cost of North Korean WMD or ballistic missile use; deny the 
benefits of their use; and encourage restraint from using WMD or 
ballistic missiles. The strategy provides bilaterally agreed upon 
concepts and principles for deterring North Korean WMD use and 
countering North Korean coercion.
    Exercises: Enhancing Readiness. Exercising our combined and 
multinational force is an important component of readiness and is 
fundamental to sustaining and strengthening the Alliance. Combined 
Forces Command and ROK Joint Chiefs of Staff (JCS) conduct three annual 
joint and combined exercises: KEY RESOLVE (KR), FOAL EAGLE (FE), and 
ULCHI FREEDOM GUARDIAN (UFG). KR and UFG are computer-simulated, 
theater-level command post exercises that ensure our readiness to 
respond to provocations, attacks, and instability. UNC routinely 
invites participation from its 18 Sending States to strengthen 
Coalition interoperability, while observers from the Swedish and Swiss 
Delegations of the Neutral Nations Supervisory Commission promote an 
independent and internationally credible assessment of the defensive 
nature of these exercises.
C. Transform the Alliance
    To achieve transformation, we must synchronize, transform, and re-
station the force. We also need to advance theater C4I and cyber 
capabilities.
    Conditions-based Wartime Operational Control Transition. At the 
2014 SCM, in light of the evolving security environment in the region 
including the enduring North Korean nuclear and missile threat, the ROK 
Minister of National Defense and U.S. Secretary of Defense agreed to 
implement a conditions-based approach to the transition of wartime 
operational control (OPCON) from the U.S.-led Combined Forces Command 
(CFC) to a new ROK-led combined defense command. This will ensure our 
combined defense remains strong while the ROK develops or acquires the 
critical military capabilities necessary to assume the lead in its 
defense.
    As a result of this decision, CFC will retain its wartime 
leadership until the Alliance agrees conditions are met and are 
conducive for a stable OPCON transition. We will continue to refine our 
strategy to create adaptive, agile plans and field combined forces that 
deter and defeat an enemy's provocations, deter aggression, and if 
deterrence fails, to fight and win.
    Additionally, the CFC headquarters will temporarily remain in its 
current location in Yongsan and maintain the personnel and 
infrastructure required to command and control the combined force until 
OPCON transition occurs. Similarly, USFK will keep the U.S. 210th Field 
Artillery Brigade north of the Han River until the ROK fields a 
comparable capability.
    U.S. Force Relocation: Posturing to Enhance Readiness. To posture 
forces in support of U.S. and ROK national interests, both governments 
agreed to consolidate USFK into two enduring hubs south of Seoul near 
the cities of Pyeongtaek and Daegu. USFK will enhance readiness, 
improve efficiencies, and further augment Alliance capabilities through 
two major plans: the Yongsan Relocation Plan (YRP) and the Land 
Partnership Plan (LPP).
    YRP is funded by the ROK government to relocate USFK and UNC from 
Seoul to U.S. Army Garrison-Humphreys (USAG-H) in Pyeongtaek. LPP 
consolidates forces from north of Seoul to USAG-H south of Seoul, while 
still providing access to northern training areas and ranges. The 
majority of relocations involves U.S. Army units and supports the 
Army's Force Generation rotational plan.
    The YRP/LPP's $10.7B transformation program, which includes over 
600 facilities, is well underway with over $1B in construction. The 
construction at USAG-H has tripled the garrison size. Key construction 
projects include unit headquarters, motor pools, barracks, family 
housing, medical facilities, communication centers, a ``Midtown 
Community'' complex, schools, installation service facilities, and 
underground utilities systems. In 2013 and 2014, ROK and U.S. funded 
projects completed an elementary school, a high school, family housing 
towers, a child development center, the waste water treatment plant, an 
airfield operations building, and supporting land fill for garrison 
expansion. In these efforts, we are particularly attentive to housing 
needs--to meet our goal of 40 percent command-sponsored families living 
on post, so we can maintain readiness and ensure quality of life.
    Along with Eighth Army, the Marine Corps Forces Korea (MARFORK) 
headquarters located in Yongsan will relocate to USAG-H. Commander, 
U.S. Naval Forces Korea (CNFK) will relocate its headquarters to co-
locate with the ROK Fleet Headquarters at Busan in 2015. This will 
strengthen day-to-day cooperation in the combined naval component, 
while leveraging the capabilities of nearby Commander Fleet Activities 
Chinhae, the only U.S. Navy base on the Asian mainland.
    For Seventh Air Force at Osan Air Base, USFK will return real 
estate hosting dilapidated munitions storage areas to the ROK, and in 
turn the ROK will grant a larger parcel of land to construct new 
storage facilities which will enhance safety. Also, while not a YRP/LPP 
initiative, planning has advanced for a new Combined Air and Space 
Operations Center at Osan, to be funded in large part with host-nation 
funds, which will ensure a survivable, capable command and control 
capability for Airpower.
D. Sustain the Force and Enhance the UNC/CFC/USFK Team
    To sustain U.S. forces in Korea, we will continue to focus on 
proper command climates, enforcement of discipline, and comprehensive 
fitness and wellness. Particularly in the areas of preventing crime, 
sexual harassment, and sexual assault, we have been taking proactive 
steps that have led to a downward trend in incidents. To prevent sexual 
harassment and sexual assault, the Command Sergeant Major and I conduct 
regular sensing sessions that provide insights on what leaders need to 
be more aware of for effective prevention strategies. We are committed 
to this priority, so we can build trust and readiness to prevail in 
armistice and the crucible of war.
    To enhance the international team in Korea, we have also made 
important progress. We are expanding UNC participation in exercises. 
For example, participation during the annual exercise ULCHI FREEDOM 
GUARDIAN increased from three countries and seven officers in 2009 to 
seven countries and 153 officers in 2014. Multinational officers also 
play a critical role on the UNC staff, to include shaping UNC strategy, 
strategic communication, and other critical functions. This 
increasingly impactful and visible multinational presence is a clear 
message from the international community of continued international 
support for the defense of South Korea and for stability in the region.
                        5. what we must achieve
    With the progress I have described, there is still much work to do. 
I am proud to testify that, as a result of the progress we have 
achieved on the Command's four priorities, our defense is capable and 
better prepared to respond effectively to any provocation, instability, 
or aggression.
    Our top concern is that we could have very little warning of a 
North Korean asymmetric provocation, which could start a cycle of 
action and counter-action, leading to unintended escalation. This 
underscores the need for the Alliance to maintain a high level of 
readiness and vigilance, and to do so together.
    Critical Capabilities. During the recent SCM, our national leaders 
reaffirmed their commitment to strengthening the combined defense of 
South Korea. They also confirmed several critical capabilities the 
Alliance must improve to ensure continued readiness to respond. These 
are:
    <bullet>  Intelligence, Surveillance, and Reconnaissance, or ISR.
    <bullet>  Command, Control, Communications, Computers, and 
Intelligence, or C4I.
    <bullet>  Ballistic Missile Defense, or BMD.
    <bullet>  Critical Munitions.
    We must continue to pursue ISR capabilities. The Alliance's ability 
to distinguish the indications and warnings associated with an 
impending North Korean asymmetric or conventional attack directly 
impacts the Alliance's decision space. Investments here can mitigate 
the risk of miscalculation and escalation by providing a more accurate 
and timely picture of North Korean actions.
    During this past year, South Korea began to invest in new tactical 
equipment that will comprise a reliable C4I architecture. We must 
maintain this momentum in improving C4I capabilities and 
interoperability, so we can communicate from tactical to strategic 
levels and between units in the field.
    Due to the nature of the evolving threat, particularly ballistic 
missiles, it is critical for the Alliance to build a layered and 
interoperable BMD capability. Each nation has unique contributions to 
make to missile defense. While the U.S. has an existing layered BMD 
capability, the ROK is moving forward in the development of its KAMD 
and ``Kill Chain.'' It is essential that we work together to ensure 
interoperability of Alliance BMD capabilities.
    In the early phases of hostilities, we will rely on a rapid flow of 
ready forces into the ROK. During this time, we will rely on U.S. and 
ROK Air Forces to establish air superiority to defeat North Korean 
threats which could inflict great damage on Seoul. In order to ensure 
maximum Alliance capability and interoperability, we will also work 
closely with the Republic of Korea to ensure it procures the 
appropriate types and numbers of critical munitions for the early 
phases of hostilities.
    Force Relocation Plans. We will continue executing the Yongsan 
Relocation Plan and the Land Partnership Plan, and as required, we will 
work together to refine relocation plans to support the conditions-
based OPCON transition.
    Operational Plans. Finally, with CFC retaining its wartime 
leadership role, we will expedite updating our operational plans. 
Executable plans will ensure an effective Alliance response to a 
crisis.
                               6. closing
    2014 was a positive year for the ROK-U.S. Alliance in many 
respects, even in the face of unpredictable North Korean asymmetric 
actions. We have been fortunate and thankful for the strong support of 
all our partners and the priority of resources that allow us to carry 
out what our Alliance demands of the Command. In 2015, I am looking 
forward to working with senior U.S. and ROK civilian and military 
leaders, Ambassador Mark Lippert, ADM Locklear, and the new PACOM 
Commander as we maintain stability in Korea and the region. The men and 
women of this multinational, combined, and joint warfighting Command 
are very thankful for the support from this Committee and the American 
people which is so crucial in maintaining our readiness against the 
North Korean threat. We will never lose sight of the fact that we are 
at ``Freedom's Frontier'' defending one of our most important allies 
and vital American interests. Thank you, and I look forward to our 
discussion.

    Chairman McCain. Thank you very much.
    General, I mentioned in my remarks, Admiral Gortney said 
that North Korea has an operational road-mobile missile that 
could carry nuclear weapons to the United States. Do you agree 
with that assessment?
    General Scaparrotti. Senator, I believe that they've had 
the time and the capability to miniaturize a nuclear warhead. 
They've stated that they have an intercontinental ballistic 
missile that has nuclear capability. They've paraded it. And I 
think, as a commander, we must assume that they have that 
capability.
    Chairman McCain. Admiral?
    Admiral Locklear. I would agree with that assessment. I 
mean, we haven't seen them effectively test it. But, we--you 
know, as commanders, all the indications are that we have to be 
prepared to defend the homeland from it. And we're taking 
actions to do that.
    Chairman McCain. And those actions are?
    Admiral Locklear. Well, first, we work very--in PACOM, we 
work very closely with NORTHCOM [U.S. Northern Command] to 
ensure that the defensive capabilities of our ballistic 
missiles systems are optimized. Forces forward in the theater 
that I and General Scaparrotti have command of are integral to 
that. Our ability to--in the region, to partner with our 
Japanese allies and our South Korean allies to bring the BMD 
[ballistic missile defense] capabilities to bear has been 
productive. In addition, we've been in discussions about 
potential deployment of an additional THAAD battery, not--
beyond the one that's in Guam, but on the Korean Peninsula.
    Chairman McCain. General, this is rather disturbing, 
particularly given the unpredictability of this overweight 
young man in North Korea. Is that----
    General Scaparrotti. Yes, sir, that's----
    Chairman McCain. Is that a disturbing factor?
    General Scaparrotti. That's a disturbing factor, sir. And I 
think--you know, I believe that Kim Jung-Un is unpredictable. 
He has a mind that he can intimidate. He does that with 
provocations. He's committed provocations this year. So, I 
think it's a great concern, given the leadership there, as 
well.
    Chairman McCain. Let's talk about China and the 
reclamation. Admiral, we, from time to time, put a picture up 
of the areas that are reclaimed by China out in the East China 
Sea--or South China Sea. And the problem is, our pictures don't 
keep up with their activities. Is it--it's my information that 
they have now, in the last year, filled in some 600 acres of 
land and are constructing runways and possibly artillery and 
missile defense systems.
    The Congressional Research Service, on April 6th, issued a 
report on this issue, and I quote their report, saying ``The 
publicly visible current U.S. strategy for dissuading China 
from continuing its land reclamation activities appears to 
focus primarily on having U.S. officials make statements 
expressing the U.S. view that China should stop these 
activities, on the grounds that they are destabilizing and 
inconsistent with commitments China has made under the 
nonbinding 2002 DOC [Declaration on the Conduct of the Parties 
in the South China Sea].''
    Do you know anything else about our strategy concerning 
China's continued expanding and filling in these areas, which 
are international waters? And how great a threat do you--does 
that appear to you, Admiral, as far as long-term threat to our 
commitment to freedom of the seas?
    Admiral Locklear. Yes, sir.
    Well, the overall U.S. strategy, I think, is well--goes 
well beyond the military component of what I deal with each 
day. And so, I only make recommendations on the military side. 
So, I'd refer the policy decisions about----
    Chairman McCain. And your----
    Admiral Locklear.--how we deal with----
    Chairman McCain. And your recommendations are?
    Admiral Locklear. Well, in general, where you find that the 
United States has a clear policy on how it feels about 
something, military solutions or diplomatic solutions become 
easier for that. The policy we have in the South China Sea, as 
I understand it today, as is, we take--globally, on territorial 
disputes--is that we don't take sides in those territorial 
disputes, that there's--but that we do want them worked out in 
peaceful, non-coercive ways in legal matters. And that's been 
expressed----
    Chairman McCain.--those actions----
    Admiral Locklear.--to all the countries in the region.
    Chairman McCain.--could, over time, impede our ability to 
navigate through those areas----
    Admiral Locklear. Yes, sir. Well, I think that, given the 
fact that the--my view--of all the claimants in the South China 
Sea--and some of them--well, they all own some of these land 
features and have different postures and different----
    Chairman McCain. I mean, we don't fill in areas of some 600 
acres, either.
    Admiral Locklear. No, sir. No, they don't. And so, my 
assessment is that all the claimants, except for China, are 
just kind of doing what they agreed to in 2002, is, they're 
just maintaining them in--as--while the legal processes would 
work out. The Chinese, however, are doing much different than 
that. They're--obviously, as you've stated, it's been 
aggressive. I think it's been--how fast they've been able to do 
it has been actually astonishing. They're building a network of 
outposts to enforce control over most of the South China Sea. 
The Southeast Asian nations are increasingly worried that PRC's 
[People's Republic of China] new capabilities will allow China 
to take de facto control of the surrounding waters, you know, 
places like Fiery Cross Reef, where they're putting in a 
runway. I mean, just in the last 10 months, it went from a 
barely noticeable feature to now having a deepwater port on it 
and a potential runway. This will allow the PRC to--number one, 
to improve their ability to put their maritime security force 
down there, which is the equivalent to a coast guard or a 
fisheries patrol, which, to give you a magnitude of the size of 
the PRC's capabilities, if you take all the Southeast-Asian 
countries' coast guards and put them together, it's still a 
smaller number than what China has been able to produce. I have 
also observed that they've taken what would have been 
considered, a couple of years ago, gray-hulled warships and 
painted them white and turned them into maritime security 
craft. So, it has been astonishing.
    And to get--we--you know, we portray this--I think, try to, 
to the PRC, to China, and their response is generally, ``Well, 
this is our sovereign territory,'' and, ``Stay out of our 
business,'' which is for them to enforce their ``nine dash 
line'' claim.
    So, the implications are, if this activity continues at 
pace, is that it really would give them de facto control, I 
think, in peacetime, of much of the world's most important 
waterways, of where much of the world's economic energy is 
created. It would--if they desired, it would, in the future, 
them the opportunity to have outposts to put long-range 
detection radars in there, to place--put more warships. They 
could put warplanes to enforce potential, down the road, air 
defense zones. So, those are the kind of scenarios we have to 
think about. And it certainly complicates the security 
environment.
    So far, the ASEAN [Association of Southeast Asian Nations] 
nations, who have tried to work with China on this to develop a 
code of conduct, in my view has been--not produced very much at 
all. In fact, you know, the ASEAN is an effective diplomatic 
organization, but it's not designed to handle these security 
issues that pop up.
    So, I think we've got to watch this situation very 
carefully.
    Chairman McCain. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    And, General Scaparrotti, we have a--very complicated 
relations with the Chinese, and it's particularly in the 
context of North Korea. To what degree do you have, sort of, 
the--a contingency plan to communicate with them if there is a 
provocation--a serious provocation by the North Koreans that 
would introduce the idea of using, you know, force?
    General Scaparrotti. Yes, sir.
    Well, you know, as we--even in our exercises, one of the 
first priorities is communications with China if there's 
conflict on the Peninsula. And so, we exercise that in 
communications even in our exercises. And, of course, it's very 
important for us to understand that and ensure that they 
understand our intent.
    Senator Reed. Now, that's one side of the equation. The 
other side of the equation is, to the extent that they're 
facilitating some of these activities by the North Koreans, 
particularly cyber, do you have any sort of sense of that 
degree of facilitation? And the general question is--you know, 
they have to appreciate the instability of this regime, the 
irrationality of the regime. They like the buffer between South 
Korea. They like it because they're affecting our behavior and 
disturbing us. But, they have to, I hope, realize there's the 
danger of, you know, looking the other way. Is that--
    General Scaparrotti. Yes, sir.
    I'd--and I think they do. My sense is--in those who had 
conversations with them--I haven't talked to their military 
directly--but, that they also are concerned and have some 
frustrations with the Kim regime.
    I--in terms of cyber, you specifically asked that question. 
You know, we know that North Korea has--some of their cyber 
activities take place in China. But, I don't know, and I 
haven't seen intelligence that would lead me to believe, that 
they've had a direct relationship with North Korea in their 
cyber development.
    Senator Reed. And just, finally--and then this spans not 
just the military capacity, but diplomatic capacity--are there 
efforts to try to move the Chinese government to be more 
proactive, in terms of with financial pressures, with 
diplomatic pressures, to at least demonstrate to the North 
Korean regime that, you know, they're--they can't do these 
things?
    General Scaparrotti. Yes, sir, there has been.
    Senator Reed. Yeah.
    Admiral Locklear, you've described a situation in the South 
Pacific and the Southeast Pacific as one where China is 
exerting itself. The witnesses in the last panel suggested 
that, in terms of the North Pacific--Korea, Japan, et cetera--
we're fairly well positioned against potential operational 
threats. But, it's not the case in the Southern Pacific and the 
Southeast Pacific. Is that fair?
    Admiral Locklear. Yes, sir. It's a large region. You know, 
as we've talked about, the beginning of the whole rebalance 
discussion was trying to move ourselves from what had been a 
post-Cold-War to kind of a location in Northeast Asia, and to 
bring that to be more relevant to the security challenges 
throughout the region.
    So, a number of initiatives. One is that we, with our 
Filipino allies, have reinvigorated that alliance and are 
looking at the capabilities to help them improve their minimum 
defense, but also to improve access to the region to ensure 
better security.
    We've opened partnerships with nations in Southeast Asia 
that we probably wouldn't have considered possible in the last 
couple of decades--Vietnam, Malaysia, Indonesia--countries that 
have become increasingly important to the security of the 
region and to the global security environment.
    Senator Reed. As the Chinese are creating these artificial 
islands in the Pacific, there are a lot of, you know, real 
geographic islands that our allies control. Are we thinking 
about, in conjunction with our allies, positioning forces 
forward--in effect, using the islands as sort of a way to deny, 
you know, ocean to the Chinese, they appear trying to do to us?
    Admiral Locklear. Well, I wouldn't go into specifics of 
where we would--where our planning would take us, in this 
forum, sir. But, I would say that, first, we're doing is, we're 
ensuring that the five alliances that we have there are set 
right for the security that we're going to--the security 
environment we're going to see ourselves in in this century. 
And we're encouraging--and, to their credit, most of them are 
spending money, and spending money on defense assets, and are--
and they want the things that allow them to be able to be 
complementary to us. So, we're--we are working hard in that 
area.
    Senator Reed. A final question, Admiral Locklear. Admiral 
Roughead was here on Tuesday and indicated that the--one of the 
clear advantages we have is our submarine fleet in the Pacific. 
In fact, he recommended doubling the number of deployed 
submarines. Is that your view also, in terms of a--particularly 
with their aerial denial, their surface capabilities--is that 
your view also?
    Admiral Locklear. Yes, sir. Well, I've said to this forum 
before, we have the best submarines in the world. We continue, 
I think, to outpace the rest of the world in that capability. 
In my AOR [area of responsibility], they are essential to any 
operations that I have, both in peacetime and in crisis and 
contingency. I have concern about the size of the submarine 
force as we go into this--middle of this century, and our--and 
its ability for it to remain relevant, globally. Plus, we're 
going to have to figure out this replacement of our strategic 
nuclear submarine force, which is the most survivable leg of 
our triad, and the importance of that as we see the 
modernization of strategic nuclear capabilities in both 
countries like China and Russia.
    Senator Reed. Just, finally, the submarine appears to be 
the only weapon system that still can approach virtually to the 
shores of China and deliver, if necessary, weapons. Is that 
true?
    Admiral Locklear. Well, sir, I wouldn't say it's the only 
system.
    Senator Reed. Okay. That--that's more encouraging.
    Thank you very much.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, Admiral Locklear, let me thank you again for 
the hospitality you accorded us and our whole group when we 
were in Hawaii and we laid the wreath on the memorial of the 
USS Oklahoma. And that was--you went out of your--beyond your 
call of duty.
    On that same trip, we went to South Korea. At that time, I 
recall, in some of our meetings there, they were talking about 
the use of a--well, now, the--banning the use of the cluster 
munitions, which have been very effective. In fact, that's 
probably the place where they were--because of the proximity 
between North Korea and South Korea--where they were most 
effectively used at that time. Now we have a policy, which is a 
self-imposed policy--I'm not criticizing it, and I know the 
reasons for it--but, we're being forced to discontinue that. 
And I'd like to ask you, what are we doing, in the place, to 
perform those functions, those missions that we were depending 
upon the clusters?
    General Scaparrotti. Yes, sir. As you know, the cluster 
munitions, as you indicated, very important to our plans in--
particularly on the Peninsula, if there were a crisis. There is 
presently work underway to replace our present munitions with 
those that will provide the same effects, but with less--you 
know, meeting the requirements of the treaty. In essence, less 
than 1 percent dud rate.
    Senator Inhofe. Yeah, you talked about the--you've both 
talked about the increase in the casualties as a result of some 
of the lack of abilities to use some of the equipment we've 
used in the past. Is this something that could expose more risk 
and more casualties by not having this capability and not 
replacing it with something as effective?
    General Scaparrotti. Yes, sir, absolutely. It's a critical 
component of our planning on the Peninsula.
    Senator Inhofe. Okay.
    Let me--I know that both of you agree with this statement 
that was made by James Clapper, so we don't need to rehash all 
that, but when he said, ``Looking back over by now more than a 
half century of intelligence, we've not experienced a time when 
we've been beset by more crises and threats around the globe.'' 
I think both of you agree with that. You've stated that in the 
past.
    I'd like to get, in kind of the remainder of the time, 
Admiral Locklear, talking about the submarines thing. Senator 
Rounds and I were on the USS Carl Vinson last week. And, 
without having any details in this setting, it was--they were 
very busy. We're now down to 10 submarines. Admiral Roughead 
said, on Friday, that we're going to have to be moving one--or 
we should move one of those into the Pacific.
    Now, my question would be--and, Admiral Locklear, I think 
it was a year ago, before HASC [the House Armed Services 
Committee], you were quite outspoken in the fact that we should 
have 11 carriers to carry out the mission. Will you still--do 
you still feel that way?
    Admiral Locklear. I do. Yes, sir, I do.
    Senator Inhofe. You'd like to get back to that, wouldn't 
you?
    Admiral Locklear. I'd like to get back to it. I mean, 
we've--I think the Navy is undergoing a bathtub--I call it a 
``bathtub of readiness'' now, because we delayed--through the 
war years, we delayed readiness--maintenance on these nuclear 
aircraft carriers. So, on one hand, they are magnificent 
machines; on the other hand, you have to take care of them 
correctly to make sure they're----
    Senator Inhofe. Yeah.
    Admiral Locklear.--safe. And so, we'll be enduring that, I 
think, for the next 5 to 6 years before we get back to where--
the level we need to be, I think, for kind of day-to-day 
operations in my AOR.
    Senator Inhofe. Well, of course, maintenance and 
modernization are the first two things to go when you're faced 
with what we've been faced with. And I--in the event that you 
do move one into the Asia-Pacific area, where would it come 
from? What kind of a vacuum would be left behind in other AORs?
    Admiral Locklear. Well, I think that decision would have to 
be made at the Secretary of Defense level. But, we have--you 
know, generally, we have 11 aircraft carriers, and, out of that 
11, we--they generate a global presence of some number, kind 
of, for day-to-day operations, and another level that would be 
able to surge in times of crisis or in times of conflict. I 
think that aircraft carriers are probably best suited for the 
types of missions that we do in the Asia-Pacific today. And 
where it would come from, I can't say, but my guess is, it 
would probably come out of the Middle East, given that that's 
been the primary demand signal for a carrier presence in the 
last decade and a half.
    Senator Inhofe. Well, when Senator Reed's--in your final 
response to his last question, I--it came to my mind that--the 
carrier capability.
    Well, that's very helpful. And I--but, I'd like to have, 
for the record, something in a little bit more detail, because 
some of us are not as familiar as we should be with that 
capability. In fact, I'm going down to Norfolk this weekend to 
try to become a little bit more informed on this. So, if you 
could, for the record, try to come out with where we might have 
the capacity of where we could afford to move something into 
the Pacific, and then how busy everybody is at the present 
time, it would be helpful.
    Admiral Locklear. All right, sir.
    [The information referred to follows:]

    Navy Carrier requirement is 11 CVN. Both the Chief of Naval 
Operations and the Commander, U.S. Pacific Command support this. 
Additionally, 11 CVNs are reflected in the Department of the Navy (DON) 
Five-Year Shipbuilding Plan for Fiscal Year 2016 to Fiscal Year 2020. 
Currently, Navy has 10 CVN and will achieve an inventory of 11 when USS 
GERALD R FORD delivers to the Fleet in Fiscal Year 2016.
    The CVN is the centerpiece of a Carrier Strike Group and its 
employability is limited due to Navy Title 10 responsibility to man, 
train, maintain, and equip the CVN force. With the current inventory 
limitation of 10 CVNs, notional distribution is as follows:
    <bullet>  1 CVN in Refueling and Complex Overhaul (RCOH)
    <bullet>  1 CVN in pre-refueling or post-refueling
    <bullet>  2 CVN (1 West Coast, 1 East Coast) in Ship Maintenance 
(Planned Incremental Availability (PIA) or Docking Planned Incremental 
Availability (DPIA))
    <bullet>  4 CVN (2 West Coast, 2 East Coast) in Basic or Integrated 
Training or Sustainment
    <bullet>  1 CVN Forward Deployed Naval Force (FDNF) (cycle of four 
months in maintenance and eight months operational)
    <bullet>  1 CVN ``rotationally'' deployed
    Navy organizes its primary combat units into a Carrier Strike Group 
to ensure it has the capabilities required to support the Combatant 
Commander throughout the range of military operations. Combatant 
Commander demand for Carrier Strike Groups always exceeds Carrier 
Strike Group operationally availability. The Joint Staff is responsible 
to allocate the limited number of Carrier Strike Groups to Combatant 
Commanders to best meet global security requirements.

    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I want to thank both of you gentlemen for your service, 
and, of course, the service of the men and women who serve 
under your commands.
    And, Admiral Locklear, my very best to you in your future 
endeavors. Thank you very much for being PACOM Commander.
    Admiral Locklear, I know that Secretary of Defense Ash 
Carter spent, as I understand it, a day with you. And so, are--
were the discussions that you had with him reflective of the 
priorities as you've laid out in your testimony today?
    Admiral Locklear. Yes, ma'am.
    Senator Hirono. You did mention that, with everything that 
is going on in South and East China Seas, and the provocation 
of North Korea, that we do need to strengthen our alliances 
with our partners and also establish new relationships. And, in 
this regard, despite historical differences, last December the 
United States, South Korea, and Japan signed an information-
sharing arrangement in what appears to have been a first step 
in what Deputy Secretary of State Tony Blinken calls, and I 
quote, ``a profoundly positive trajectory.'' Admiral, please 
discuss the relationships between South Korea and Japan, and 
the challenges we face in furthering a trilateral U.S./Japan/
South Korea alliance.
    Admiral Locklear. The challenges we face, from my 
perspective, are primarily political and social challenges. On 
the military side, the militaries, if allowed, are able to work 
together for--I think, for the common good of the security in 
Northeast Asia, in particular. The impediments--what's happened 
thus far is, because of the political pressure to not have true 
information-sharing agreements between Japan and Korea, limit 
our ability to allowed us to bring together, in a trilateral 
way that optimizes the forces that they've invested in and 
we've invested in, and particularly in critical areas, such as 
ballistic missile defense, et cetera. So, I highly encourage 
both Korea and Japan to move forward, at the highest level of 
governments, with the types of agreements that allow us to 
optimize the military capability that this trilateral 
arrangement can bring.
    Senator Hirono. So, the information-sharing arrangement 
that was agreed to, you're saying that that is not enough. It's 
not what you would consider a true information-sharing 
arrangement.
    Admiral Locklear. Well, it is a good start.
    Senator Hirono. Again, to you, Admiral. Many countries 
within the Indo-Asia-Pacific region are increasing their 
defense capabilities. China is procuring submarines quickly. 
We've heard all of this. Japan, India, South Korea, Singapore, 
and Australia have been shoring up their military capabilities. 
Malaysia and Indonesia have a couple of more submarines. And 
Vietnam recently announced the purchase of Russian-made 
submarines. How will the continued growth of the region's 
submarine fleet impact the balance of power within the South 
China Sea region? Does this cause us to adjust our strategies 
or basing decisions if growth continues on its current 
trajectory?
    Admiral Locklear. Well, the Indo-Asia-Pacific region, or 
the PACOM region, is the most militarized part of the world. 
And it's increasing in its militarization, because most of the 
countries there have the resources now, and the will and the 
desire, to grow their militaries.
    Those that have the military capability to actually operate 
a submarine force are pursuing that, because they understand 
the symmetric advantages that it brings, they understand the 
ability for access and aerial-denial capabilities that 
submarines bring. And they also recognize the significant 
deterrent value that submarines bring.
    So, my numbers are--roughly are--there's about 300 
submarines in the world that aren't U.S. submarines. Two 
hundred of them are in the Indo-Asia-Pacific. Now, some of 
those are owned by our partners and allies. But, many of them 
are not. And so, the increasing number of submarines that have 
increasing lethality, increasing quietening technology, 
certainly does change the dynamic of how we have to operate in 
that--in the area, and the type of tactics and procedures and 
operational concepts that we have to develop to ensure we 
remain dominant.
    But, I look at it as like a fact of life. It's going to 
happen. And we have to deal with it.
    Senator Hirono. So, in our dealing with it, though, 
especially with our partner--with our allies--does this require 
us to be very--much more collaborative and to share information 
so that we're on the same page, so to speak, in that part of 
the world?
    Admiral Locklear. It does. It not only requires us to 
share, bilaterally, more in a particularly difficult 
environment--undersea and maritime domain--but it also requires 
them to be able to share with their other neighbors that have 
that capacity, as well. And, as you know, in the Indo-Asia-
Pacific, those multilateral organizations don't exist to 
facilitate that. So, we're seeing the growth of that, but it's 
a work in progress.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker.
    Senator Wicker. Thank you.
    Thank you, gentlemen, for your service.
    We have a memo, here, talking about noteworthy challenges 
in the Pacific area. And they list, of course, North Korea as 
the most dangerous and unpredictable challenge. And I'm sure 
both of you agree with that. But also, territorial disputes in 
the East and South China Seas; natural disasters, including 
weather and disease; violent extremism; transnational crime; 
Russian intent and Chinese intent.
    Are there any of these, gentlemen, that would not involve a 
need to deliver our marines quickly and effectively through 
amphibious ships?
    Admiral?
    Admiral Locklear. Well, I think, historically, the Marine 
Corps is a cornerstone of the force structure that we have in 
the Asia-Pacific. I mean, it's uniquely suited for large 
archipelagos, large sea spaces. It uses the sea as a--as 
highways to move around on. And it's--I can't--of all the ones 
you listed there, I can't think of one that the Marine Corps 
does not play as a part of the joint force in a significant 
way. So, yes, they do play in all of those.
    The question of whether or not they have enough lift? The 
answer to that's no. We don't have enough lift. And I've said 
this before, we've got to--not only is it our--the number of 
amphibious ships that we can build in our own shipyards, but 
we've got to look at connectors, we've got to look at the types 
of alternative platforms that allow us to operate in more 
unique----
    Senator Wicker. Connectors.
    Admiral Locklear.--security environments.
    Senator Wicker. Connectors and alternatives.
    Admiral Locklear. Connectors and alternatives. I mean, 
connectors are like joint high-speed vessels that move marines 
and troops around faster. There's--so, it--it also gets into 
the whole issue of, How do you--in huge crisis, in large 
crisis, what is your military sealift command? What is the 
condition----
    Senator Wicker. Okay.
    Admiral Locklear.--of that?
    Senator Wicker. Well, I want the General to get a crack at 
this question, too. But, let's talk about that. We understand 
that we have a requirement for 50 amphibious ships. Is that 
correct?
    Admiral Locklear. Well, I don't know that I would--I've 
heard the number 50. I think you'd have to go back to the 
Department of the Navy for them to calculate, globally, how 
many they need.
    But, we've had a greater pressure on our amphibious force, 
particularly in--when we have operations in the Middle East 
that now require us to put marine units in position to be able 
to monitor things like embassy safety and for embassy 
extraction in the very hot spots. So, all that's put a demand 
signal that's pulled the amphibious capability----
    Senator Wicker. It's a very real contingency that happens.
    Admiral Locklear. Yes, sir.
    Senator Wicker. Correct? Well, okay, the information I have 
is that we have a requirement for 50, and we only have 30 
amphibs in our inventory. And, of those ships, approximately 15 
to 20 are operationally available. Would you say that that is 
pretty close to being correct information, Admiral? Thirty in 
the inventory and 15 to 20 operationally----
    Admiral Locklear. Thirty is about my understanding of it.
    Senator Wicker. Okay.
    Admiral Locklear. And operation availability, depending on 
how they define it--I mean, my AOR, I have a amphibious 
readiness group that's in--west of the Date Line all the time, 
that's available on a much greater basis than that. But, 
globally, I would say that's probably about right.
    Senator Wicker. General, let's let you weigh in on this. 
And how would the effectiveness of our marines be diminished if 
there are insufficient amphibious ships to get them delivered 
effectively?
    General Scaparrotti. Senator, I would just say this, that 
they're very important to me, on the Peninsula, for rapid 
response, and they're a critical part of all of our plans. 
Operating on the Peninsula, it's the Marine Corps and their 
ability to be lifted quickly to different places. They provide 
me agility. It's the quickest, you know, kind of the most 
succinct way to put it. I am very concerned about the amount of 
lift available in order to support our plans, and the 
maintenance of that lift, as well.
    Senator Wicker. Now--so, if we don't have enough amphibs, 
the connectors alone are not a solution, are they?
    General Scaparrotti. Well, sir, you know, we've looked at 
alternative methods of--and the use of alternate ships in order 
to help us with the delivery of marines. I can be more 
specific, you know, in a response for record, as to how we look 
at our planning.
    [The information referred to follows:]

    [DELETED]

    Senator Wicker. Thank you very much.
    And thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich.
    Senator Heinrich. Mr. Chairman? Oh, thank you.
    Admiral Locklear, I want to start with a little bit on 
missile defense. And, obviously, the Asia-Pacific is of 
critical importance to the United States, both economically and 
strategically, yet the current security environment in your 
combatant command is increasingly complex. Countries in the 
region continue to invest in greater quantities of ballistic 
missiles with extended range and new capabilities. While I 
think we should continue to invest in missile defense programs 
that are proven and effective, I also think we should be 
investing in left-of-launch and other nonkinetic means of 
defense.
    Given the vast number of incoming missiles that an 
adversary could use to potentially overwhelm U.S. missile 
defense systems, I want to get your thoughts on what steps are 
being taken in the realm of left-of-launch technologies, like 
electronic warfare, cyber, that could blind, deceive, or 
destroy enemy sensors before they actually launch.
    Admiral Locklear. Well, Senator, I agree very much with 
your assessment that the ballistic missile defense threat grows 
because of the ability for them to--you know, for people to 
produce ballistic missiles at greater distances--that have 
greater distances and greater accuracies, and have multiple 
reentry vehicles, and those types of things that complicate the 
problem and that you can't build enough interceptors to take 
them all out. You just can't. You're in a tail chase that you 
can't do.
    That said, I think there is a good place for a good, solid 
amount of ballistic missile defense. It's a deterrent. It buys 
decision space. It makes the decision for the--whoever's going 
to fire it at you a lot harder for them to make. And, when they 
do, it gives your troops that are in the way of them some 
confidence that at least they'll be able to get through the 
first few minutes of this thing before we have to take other 
action. So, we are working left-of-launch and thinking 
differently about how we would produce--how we would attack 
this particular problem.
    One of the things that--it's not just about electronic 
warfare and cyber. Those events are being worked, and I won't 
go into them in this particular forum, but they are being 
pursued. But, it's also more about thinking differently about 
how you employ your forces and at what trigger points would you 
do things like dispersal of your force in a different way 
throughout the region. How would you do selective hardening of 
places that would--and put in place things like rapid runway 
repair kits in the place of where you have to have them? 
Through this body, you all have allowed us to go forward with 
some of those initiatives in some of the places that we have in 
the Asia-Pacific. Hardening some fuel heads and those types of 
things make--can make a big difference.
    So, left-of-launch is a priority for us.
    Senator Heinrich. Let me ask a question that sort of 
overlays on that, in terms of emerging technologies. What's 
your assessment, at this point, on the value of directed energy 
systems to support defeating missile threats? And do you think 
that directed energy should be a priority for the research-and-
development community, given the advancements in the last 
couple of years?
    Admiral Locklear. Well, we've seen some progress. I think 
the Navy has some directed energy systems that are employed in 
operations routinely that have proven effective, at least in 
the tactical area.
    I'm in favor of directed energy weapons if they get the job 
done, if the technology is there. I kind of live in the here-
and-now problem.
    Senator Heinrich. Right.
    Admiral Locklear. And I project----
    Senator Heinrich. I understand.
    Admiral Locklear.--hopefully, project into the future what 
we might need. Directed energy, if it solves a--if it's a good, 
solid solution set for the types of threat we're facing, then 
we should pursue it.
    Senator Heinrich. Speaking of here and now, are you 
familiar with CHAMP, the Counter-electronics High-Power 
Microwave Advanced Missile Project?
    Admiral Locklear. I am familiar with it.
    Senator Heinrich. What kind of value do you think that 
could bring to the theater?
    Admiral Locklear. I think, if it was properly tested and 
then fielded, that it would be something that would be of 
interest and benefit.
    Senator Heinrich. Thank you very much.
    I'll yield back, Mr. Chairman.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    General, in your prepared remarks, you talk about North 
Korea's emphasis on asymmetric capabilities, especially its 
missiles and its cyber threats. Can you elaborate on North 
Korea's ballistic missile and cyber programs, and discuss what 
the Command is doing to counter them? And then, can you let us 
know, How do you see their investment in these areas impacting 
your needs in the future?
    General Scaparrotti. Thank you, Senator.
    Well, first of all, North Korea has focused its resources 
within its military on their asymmetric capabilities, which are 
several. Probably the most important are the ballistic missile 
and nuclear. We discussed the nuclear here. You know, we've 
seen a number of indicators of how they're advancing their 
nuclear capabilities. And then, within their missile force, 
they have more than several hundred ballistic missiles. The 
predominance of those are close-range and short-range ballistic 
missiles that affect or influence the Peninsula, but they've 
also deployed both medium- and intermediate-range that 
influence the region. And, of course, the development of the 
intercontinental ballistic missile has impact here in homeland 
security in the United States.
    They've not slowed down at this. We've seen, as you've 
seen, this past year, they demonstrated their capabilities and 
conducted tests. They had more missile events or launches in 
'14 than they've had in the previous 5 years together. Each of 
these being a--you know, a violation of the United Nation 
Security Council Resolutions.
    We have been taking steps, both in, you know, material 
capability, in terms of our ballistic missile defense, to 
counter that, as well as work with the Republic of Korea in 
their ballistic missile defense. They just recently funded an 
upgrade to their Patriot 2s to PAC-3s [Patriot Advanced 
Capability-3], which is very important. We're working with them 
closely, in terms of interoperability, and we're also working 
with them on their material solutions, particularly, you know, 
their Air Missile Defense Center and system that they've 
recently established. We're working closely on that.
    And then, finally, as the Admiral just noted, you know, we 
look at the posture of our force, the preparation of our force 
and our plans; and all of those things, in the last couple of 
years, has been rather dynamic in order to change as our threat 
in North Korea changes.
    Senator Fischer. And as we talk about missile defense, how 
do you interpret China and their vocal opposition to placing a 
THAAD battery on that Peninsula?
    General Scaparrotti. Well, personally, I--you know, I think 
this is a decision for South Korea, having to do with the 
defense of their country, and, from my perspective as a 
commander there, defense of our troops.
    Senator Fischer. But, do you think that they are narrowly 
focused on missile defense, or do you think they're trying to, 
maybe, exert some greater influence over the Republic of 
Korea's defensive strategy as a whole?
    General Scaparrotti. I think it's a greater influence. The 
THAAD system, if employed, is focused on the defense of the 
Peninsula. That's what it is specialized to do. It doesn't have 
any influence beyond that.
    Senator Fischer. So, that would improve their defenses, 
then, against North Korea, correct?
    General Scaparrotti. Yes, ma'am, it would.
    Senator Fischer. And do you think that South Korea and the 
United States would push against the Chinese reaction to that?
    General Scaparrotti. Well, ma'am, you know, this is a--the 
decision process is underway right now, and it is--I can 
discuss, in a military perspective, but, you know, from a 
political and strategic perspective, I think both countries are 
taking that into consideration right now, in terms of the other 
impacts that have to do with the employment of THAAD on the 
Peninsula.
    Senator Fischer. And as we look at the North Koreans and 
their missiles, are they moving away from their more 
traditional conventional forces, which they have--what is it, 
the fourth largest in the world now--are they moving away from 
that?
    General Scaparrotti. Ma'am, I wouldn't say they're moving 
away from it. I think they've changed their strategy a bit. It 
is the fourth-largest military in the world. It's a very large 
conventional force that's postured forward along the DMZ 
[demilitarized zone]. So, it is a--it's still a very present 
and dangerous threat. But, they're not resourcing it in the 
same way that they had in the past. So, we've seen a reduction 
in their capability, conventionally.
    Senator Fischer. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Admiral, we had some fascinating testimony 2 days ago on 
this subject. I commend the record to you. One of the pieces of 
testimony was the historical record of the confrontation 
between a rising power and an existing power. Graham Allison, 
from Harvard, called it the ``Thucydides Trap,'' wherein 12 of 
16 instances in world history where you had a rapidly rising 
power confronting an established power ended in war. And 
there--obviously, that's a daunting observation--there has 
never been a power that has risen as far and as fast as China 
in the last 25 years. Do you see military conflict with China 
in any way inevitable? But, given the ``Thucydides Trap,'' how 
can we avoid it?
    Admiral Locklear. Well, I don't think that conflict is 
inevitable. I think that the world we're in today is probably a 
different world than the ones we've been in before, when a 
great power rose. The effects of globalization and economic 
globalization and the movement of people, the 
interconnectedness of banks, of industry, of all these things 
that you know very well about, I think have made it imperative 
that we understand the rise of China, in that we, to some 
degree, accommodate the rise of China, where we can, to attempt 
to shape the rise of China. I've said, on many occasions, that 
a China that would--and a China with a military that would come 
forward as a net provider of security rather than a net user of 
security would be beneficial to, not only the region, but would 
be beneficial to us, as well. And I think that's an achievable 
goal. I think that has to be looked at how do we deal with 
China globally, in global institutions, from their role in the 
United Nations to how they're behaving and conducting 
themselves in other regions of the world, and how we interact 
with them there. I also think it will require us to have a 
pinpoint focused on how we see their influence in this region 
that we've been talking about today, which is primarily East--
Southeast Asia and Northeast Asia, and to understand--we have 
to try to understand what their side of the equation is. And, 
to be honest with you, some of the things they've done are 
quite--aren't really clear today.
    So, we always get into the debate about whether we should 
continue mil-to-mil if we're unhappy with the things they're 
doing--mil-to-mil engagement. I am a proponent of continuing to 
take some risk there, because there is benefit in us continuing 
to have dialogue to try to establish those types of frameworks 
that allow us to communicate with each other in crisis. We've 
had some good work with the PRC lately, of building some 
confidence-building measures that allow us to understand how to 
operate with each other in these constrained waterways so that 
we don't have a bunch of lieutenants and captains and 
commanders of ships out there making, you know, bad decisions 
that might escalate us to something that we didn't--escalate us 
into a ``Thucydides Trap.''
    So, we need to, I think, continue to keep engaging them, 
but I think we need to be forthright about how we feel about 
these things and what the U.S. position is on behavior when it 
doesn't match what our allies and our partners and our value 
systems support.
    Senator King. Well, clearly, in recent years, the thrust of 
the Chinese has been economic. But, in even more recent years, 
it's been military, as you have testified today, tremendous 
growth in subsurface, everything else. What do you make of 
these actions, which can only be characterized as aggressive, 
building islands off the shore, and the increased patrols in 
the South China Sea? What do you read into that, in terms of 
China's military or expansionist intentions?
    Admiral Locklear. Yes, sir. Well, I think it--the Chinese 
communicate to us pretty clearly what they're doing. They see 
themselves as a renewing power. They have the assets to build a 
military. They're building particularly in the army--I mean, 
the navy and the air force, because they understand the 
importance of protection of a--of the global areas that--and 
you're starting to see them operate globally in different 
places, which they didn't operate, years ago.
    They've told us, over and over again, that they believe 
that the ``nine dash line'' in the South China Sea is their 
historic territorial waters. They have--as far as I have--
understand, they refuse to participate in international legal 
venues. You know, the Filipinos have a case at the U.N. Law of 
the Sea Convention Tribunal now to--challenging the ``nine dash 
line.'' And, far as I know, the Chinese have refused to 
participate in that.
    And so, what they are doing is, they're--through what they 
articulate as peaceful means, they're building these land 
reclamations, they're establishing their position in the South 
China Sea, which opens their options for down the road as this 
thing--as this situation continues to unfold.
    Senator King. I'm out of time. A one-word answer. Do you 
believe it would be beneficial to the United States to accede 
to the Law of the Sea Treaty?
    Admiral Locklear. Yes.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And, gentlemen, thanks for your testimony and your service.
    Admiral Locklear, thank you for hosting me a couple of 
weeks ago. Appreciate the time. Please send my regards to your 
staff. Three hours on a Saturday is well above and beyond the 
call of duty for anybody, so let them know how much I 
appreciate that.
    You know, I've been critical of many aspects of the 
President's national security strategy, in part because I think 
we've lacked credibility. When we say something that we're 
going to do as a country, we need to do it. And, I think, in 
certain areas of the world, we haven't done that. And I think 
it undermines our National security when we do that.
    One area of the President's strategy that I have been 
supportive of, both militarily and economically, is as--the 
chairman stated, about TPP [the Trans-Pacific Partnership]--is 
the rebalance to the Asia-Pacific. And I'm--you know, I believe 
we need to make sure this rebalance and optimization of our 
military forces in the region is credible. We're saying that 
we're going to rebalance. We need to actually do it. Do you 
agree with that?
    Admiral Locklear. Yes, sir, I do. And I think that the 
rebalance is--goes far beyond just military, though.
    Senator Sullivan. Right.
    Admiral Locklear. I think we have to also get our economic 
house in order, as well. Otherwise, all the military 
rebalancing we do will not have the effect that we want it to 
have.
    Senator Sullivan. I agree with that. I appreciate the map, 
the AOR map. Wanted to talk briefly--you know, Alaska is no 
longer in your AOR, but, as we discussed, the troops and--which 
are significant, both in terms of Army BCTs [brigade combat 
teams] and a very robust Air Force presence--those troops are 
still OPCON [operational control] to you, in the event of 
contingencies, aren't they?
    Admiral Locklear. That's correct, sir.
    Senator Sullivan. And how critical do you see these 
troops--and, General Scaparrotti, please comment--in the 
region, in terms of not only shaping, but also contingency 
forces, with regard to your Op Plans?
    Admiral Locklear. Well, Senator, the forces in Alaska, you 
know, if you take a look at the globe, they're as far west as--
or maybe even farther west, in some cases, than Hawaii is. So, 
the response time that those forces would have into any 
significant contingency in Northeast Asia or Southeast Asia 
would--is quite good, and important. That's why the forces, I 
think, have been OPCON or, to PACOM, for a long time. There's a 
variety of forces up there that are important to us--the 
fighter squadrons that are there, the BCTs that are there--
including the ranges. The range complexes that we have in 
Alaska are very important, because that's where we get our 
high-end training for, sort of, our hardest types of 
environments that our aviators may have to fly in. So, it's----
    Senator Sullivan. General Scaparrotti, how about you, in 
terms of just the Korean contingency issues?
    General Scaparrotti. Well, I agree with Admiral Locklear. 
We rely on those forces as a part of our quick response, which 
we'll need in crisis. We also train with them regularly, and we 
also send forces to train there, too, to----
    Senator Sullivan. Do you think if we removed one or two 
BCTs from Alaska, do you think that would show that we're 
committed to a rebalance or undermine our rebalance commitment? 
Again, this goes to credibility.
    General Scaparrotti. Well, I think that--from the 
perspective of, you know, what the other outcomes were of that, 
from a regional perspective, there would be questions about the 
loss of troops in----
    Senator Sullivan. And the credibility of our rebalance 
strategy?
    General Scaparrotti. I think you'd have to look at it 
holistically. I'd prefer not to take it from just one 
perspective, here. But, I think you'd--I'd have to understand 
the remainder of the changes that were taking place if, in 
fact, that were to happen.
    Senator Sullivan. Admiral Locklear, do you think that would 
undermine our rebalance credibility? Two BCTs----
    Admiral Locklear. Well----
    Senator Sullivan.--in the region leaving the region?
    Admiral Locklear. Yeah, I would answer it in general terms. 
I think that any significant force-structure moves out of the--
my AOR in the middle of a rebalance would have to be understood 
and have to be explained, because it would be counterintuitive 
to a rebalance to move significant forces in another direction.
    Senator Sullivan. I agree with that. And I think it's a 
really important issue as we look at the rebalance as a 
successful rebalance that's credible.
    Can I turn to--I want to also commend you for what you 
stated in Senator Wicker on the strategic lift issue. I think 
that that was certainly something I saw, on my recent trip, 
that was a concern. We're moving forces to different parts of 
the region, but the strategic lift seems to be lacking, both 
Air Force and ARG [amphibious ready group] capacity. But, to 
get there, we need to have a successful laydown. Are you 
confident that the realignment of forces from Okinawa to Guam 
and Australia and other places is going to be on schedule, in 
terms of costs and timelines that the Department has laid out? 
I know that's something that this committee, as you know, has 
been very focused on.
    Admiral Locklear. Yes, sir. Well, you know, in the last 3 
years, I've had a lot of time to take a look at this and to 
work through it. And my overall assessment is that we're on 
plan at this point in time.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator McCaskill.
    Senator McCaskill. Admiral, in March GAO [the Government 
Accountability Office] published a report on operational 
contract support. And I'm nerdy enough about operational 
contracts that I pay close attention to this stuff. As you 
know, we wasted billions of dollars in Iraq and Afghanistan 
because we had not embraced training on contracting as a core 
capacity of our commands engaged in the contingency. And in 
that report, it indicated that your command is the furthest 
behind in incorporating operational contract support in its 
joint training exercises and operation plans. Now, I know that 
GAO noted that you have taken some recent positive steps to 
address this, but I'd like you to lay out, if you would 
briefly, the steps you're taking to include operational 
contract support in your command's joint training exercises.
    Admiral Locklear. Well, thank you. I--not to make excuses, 
but I think the reason that we're probably behind is because we 
haven't had the demand signal that was put on the commanders in 
the Middle East in the last several wars, and we haven't had 
that type of a massive, rapid buildup to support a war effort 
anywhere.
    That said, we did recognize it, after that report, as a 
deficiency. And we're looking hard at, Where are those 
contracting decisions made? How is the commander have 
visibility to those contracting decisions during the execution 
of a crisis or an execution of a campaign? Because, you know, 
when a crisis occurs, stuff just starts coming. And that's 
good. That's what makes us so strong. But, when it starts 
coming, then, at some point in time, you have to decide what's 
enough and what's not enough, and then who's going to be the 
steward of it down the road. So, we're trying to understand the 
command and control of those contractors and how much the 
leadership knows, and what they need to know, and when.
    Senator McCaskill. Well, I think it's so critical that we 
never lose sight of this contracting oversight and planning and 
training as a core capacity, because we're never going to go 
back to the day--my father peeled potatoes in World War II--
we're not going to have our trained warfighters peeling 
potatoes ever again. And all we have to do is look at the long, 
ugly saga of all the LOGCAP [Logistics Civil Augmentation 
Program] contracts to realize what happens when contracting is 
not considered a huge priority. So, I appreciate your attention 
to that.
    On another note, I know that you are the primary jammer 
provider, in the Navy, for DOD. Could you speak about the role 
of airborne electronic attacks and how critical they are? And 
how critical is the asset of our really only electronic warfare 
capability that is provided by the Growler?
    Admiral Locklear. I've been a huge supporter of Growler for 
my entire Navy career. The transition of the Prowler squadrons, 
which were so significant in many of our conflicts, and provide 
us what I thought was a asymmetric advantage in our airspace 
because of their capabilities, I was glad to see that--those 
capabilities, and jammer types of capabilities, transition to 
a--you know, basically, a fourth-generation-plus aircraft that 
can operate effectively in denied airspaces.
    So, in any campaign that I would envision that would be of 
a higher-end warfare in my AOR, electronic warfare attack 
provides me battlespace that I have--may have to go fight for. 
And those Growlers and, to some degree, the other higher-end 
capabilities that we have are critical to allowing us to have 
that access.
    Senator McCaskill. I--finally, I want to touch on the 
stresses that we're feeling on remote piloted aircraft [RPA]. 
As you know, Whiteman is the home to the 20th Reconnaissance 
Squadron, and those pilots and those sensor operators and those 
intelligence personnels, along with the airmen who are 
operating the Predator and the Reaper, are very important. We 
are putting incredibly high demands on these folks. I mean, 
they're not getting normal rest. They are not getting time for 
training. We can't even rotate some of them into a training 
capacity, because the demand is so high.
    Could you briefly talk about what steps can be taken to 
alleviate what I think is a critical problem? I mean, these 
guys are--they're--they are working round the clock, and 
getting very little break. I don't know that we would do this 
to a traditional warfighter, but we're doing it to these RPAs.
    Admiral Locklear. Well, the advent of these systems in the 
past couple of decades, and the obvious benefit that they've 
brought to the battlespace, has put pressure, I think, on the 
Air Force to be able to produce the types of people and to be 
able to man them. But, the--unfortunately, the demand signal 
just goes up and up and up.
    One of the asymmetric strengths of the United States is our 
ability to sense and understand what's going on. We have the 
best ISR in the world, but it's way overtaxed for the number of 
demands we have globally. And that's where it's showing, is in 
the faces and the working hours of these young people. So, we 
need to rationalize, number one, what are the platforms that 
we're going to invest in the future, and then build a structure 
of man, train, and equip underneath it that's sustainable.
    Senator McCaskill. Yeah, I particularly worry, because I 
think we have a tendency to think of these as machines, and 
don't realize the human component of this and the stresses they 
have. I mean, these guys are manning these things for 10-12 
hours, and then going home to their families for supper and 
homework, and then getting up pretty quickly and going back at 
it. And it's a unique kind of role, and certainly 
nontraditional, as we look at the history of our military. And 
I just want you to share with your colleagues that, talking to 
some of these folks, you know, it's clear to me that we need to 
be thinking about their well-being and whether or not we are 
overutilizing them, and what kind of stresses we're going to 
see in that personnel.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Admiral Locklear and General Scaparrotti, for 
being here today, and for your men and women that serve, as 
well. I appreciate it very much.
    As you know, the DOD is planning to transfer operational 
control, or OPCON, of South Korea forces to the South Korean 
Government in the event of another conflict on the Peninsula. 
And this OPCON transfer has been discussed for many, many 
years. It was originally supposed to take place in 2007. It's 
been delayed many, many times in the past number of years. And 
it does appear to be, currently, indefinitely postponed. So, 
can you describe some of those challenges that we're being 
faced with, and those that the South Koreans are facing in 
their efforts to create conditions which would allow us to 
successfully do the OPCON transfer?
    General?
    General Scaparrotti. Yes, ma'am, thank you.
    As you know, this past October, the Secretary of Defense 
and the MINDEF [South Korea Ministry of Defense] agreed upon a 
conditional approach to OPCON transition--or OPCON transition. 
In the past, it had been focused on a date with capabilities. 
So, in short, I agreed with the change that we made to focus on 
capabilities and conditions, as opposed to shooting for a date.
    Three general conditions. The first is, is that South Korea 
develop the command-and-control capacity to be able to lead a 
combined and multinational force in a high-intensity conflict. 
The second is that it--that they have the capabilities to 
respond to the growing nuclear and missile threat in North 
Korea. And the third general condition is that this transition 
take time at a--take place at a time that is conducive to a 
transition.
    Now, there are specific capabilities I mentioned that are 
listed in detail as a part of this--a part of the agreement. 
I'll cover, generally, the main areas.
    The first was C4 [Command and Control, Communications, and 
Computers] in terms of their capability there, which I 
mentioned earlier; ballistic missile defense, generally, and 
their capability there; the munitions that they have to have on 
hand for us to conduct a high-intensity conflict; and then, 
finally, the intelligence, surveillance, and reconnaissance 
assets necessary in an environment that is very challenging for 
ISR, and particularly with the assets and the asymmetric assets 
that North Korea is developing.
    So, in a nutshell, those are the things that are the 
challenges that we have, as an alliance, and Republic of Korea 
is focused on enhancing.
    Senator Ernst. Thank you.
    Admiral, do you have any thoughts?
    Admiral Locklear. No, I think the dynamic that's most 
changing in this dialogue about OPCON transfer is the behavior 
of Kim Jung-Un. And so, that has to be brought in the 
calculation, as well.
    Senator Ernst. Thank you.
    And, General, I do agree, absolutely, it's capabilities 
versus calendar. We have to look at those capabilities.
    So, realistically, do you think moving forward with OPCON 
transfer--is that in foreseeable future? And if it is, what are 
the benefits to us, then, of doing the OPCON transfer?
    General Scaparrotti. Well, I think it is foreseeable. I 
don't think it's in the short term. And I think it's of 
benefit, in terms of--you know, our presence in the alliance 
that we have with Republic of Korea, I think, is very important 
for regional security. It plays into global security, as well, 
because they've been a very good partner of ours for a number 
of years, and they're developing the capability, and they've 
actually employed forces around the world, and they've deployed 
in support of us, as well, in some of the conflicts that we've 
been involved in.
    So, I think, in the long term, the alliance and its 
development in this regard is good for both countries.
    Senator Ernst. Very good. I do know the South Koreans were 
engaged at Tallil Air Force Base when my trucks were rolling 
through that area. And we do appreciate their support of those 
types of efforts.
    I have very little time left, but I do want to thank you, 
gentlemen, for being here today, as well as the service of your 
men and women.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, and, to the 
witnesses, for your testimony today.
    Mr. Chair, I appreciate the way you're doing these 
hearings. I now see the method in the madness. To have the 
strategic hearing a couple of days ago--we had a wonderful 
hearing with some strategic experts on this topic--before we 
get to ask you questions actually makes this discussion work 
very well. And I appreciate the chairman setting it up that 
way.
    Three quick questions. Admiral Locklear, as our military 
lead in PACOM, describe why U.S. support for the Law of the Sea 
Treaty is something you'd support. You gave the one-word answer 
to Senator King, and I'm asking the ``Why?'' question.
    Admiral Locklear. Well, I'll speak about it from the 
military side, or from the sea side. It's----
    Senator Kaine. There are additional elements, as well.
    Admiral Locklear. There are additional elements----
    Senator Kaine. From the military side.
    Admiral Locklear.--in it that I won't comment on, because 
it's not my area to do.
    But, first of all, it's widely accepted, after a lot of 
years of deliberation by many, many countries, most countries 
in my AOR. It provides a framework that we--that most countries 
that look at it believe is useful for us determining who, 
particularly in these sea spaces and these EEZs [exclusive 
ecomonic zones] and things that aren't quite, provides a proper 
framework for how to go about dealing with those disputes. So, 
it's a rule of law, a rule of process that's a good thing. By 
not being in--to be honest with you, on the military side, 
we've been directed by numerous Presidents to comply with the 
Law of the Sea, at least as it reflects the way we interact 
with our--with other countries and our partners.
    That said, when we're not a signatory, it reduces our 
overall credibility when we bring it up as a choice to--of how 
you might solve a dispute of any kind.
    Senator Kaine. Second question, to the ``Thucydides Trap.'' 
You indicated that the United States should do what we can, 
reasonably, that is within our interests, to accommodate the 
rise of China within the network of global institutions. And I 
think you laid out a pretty good rationale. The more they are 
engaged in the global institutions, that can have a pro-
stability effect.
    One current matter that is pending before Congress is 
reforms to the IMF [International Monetary Fund] that would 
enable China to have more of a role--more voting power, but 
also more of a financial obligation, in terms of the work of 
the IMF. I don't want you to comment on, you know, IMF reform 
if that's not your lane and you don't have an opinion. But, 
that is the kind of thing, wouldn't you agree, that we ought to 
be taking a look at if we're going to try to accommodate 
China's growing influence? Having them more engaged and play 
more of a leadership role in global institutions--you mentioned 
the U.N. [United Nations] as one--but, global institutions like 
the IMF is one way to accomplish that integration that can be 
ultimately a pro-stability move? Would you not agree?
    Admiral Locklear. Yes, I absolutely agree. I mean, you 
know, if China is--inevitable rise to be a world power in the 
many different venues, they inevitably have to participate and 
be part of those institutions. And they have to take some 
responsibility for these things.
    Senator Kaine. Kind of the commonsense--you know, the law 
firms that get founded by strong partners, they often run 
aground when the next generation of young, excited partners 
want leadership roles. And, you know, law firms that don't make 
room for the young leaders as they come up find that they split 
away and then they end up being harsh competitors. If they find 
a way to accommodate them in, it often holds it together. I 
mean, it--you know, it just seems like that's kind of a basic 
analogy that we see a lot in human situations.
    Well, I would hope that, on both Law of the Sea and IMF 
reform, that we would take it seriously, here, because, while 
they have nonmilitary dimensions, I do think they bear directly 
upon some of the military issues that we might have.
    Last thing I'd like to just commend you on and ask you one 
final question. I like the fact that you, in your written 
testimony--and I like the fact that some of our witnesses the 
other day--talk about Indo-Asia-Pacific. You know, the--India 
has had an interesting history, militarily, with the United 
States. And, more generally, the Congress Party kind of have a 
long nonaligned tradition that actually made them slant a 
little bit toward Russia, in terms of purchasing materiel. But, 
now they are significantly engaged with the United States and 
U.S. companies. They do more military exercises with the United 
States than they do with any other nation. I think there is an 
opportunity, under Prime Minister Modi--I know the Chair has 
spent time with him, and others have, too--to deepen that 
relationship. Just, as I conclude, could you share your thought 
on the U.S./India military partnership at this moment?
    Admiral Locklear. Yes, sir.
    Part of the rebalance was to develop a strategy for a 
longer-term security relationship with India. We're doing that. 
We have, I think, a tremendous opportunity, here, as the 
leadership changes in India, and the world changes, for them to 
be a growing partner with the United States--not necessarily an 
aligned partner, but a growing partner. I believe that some of 
the defense trade initiatives that we have with them will help 
bring us together in a more productive way for many years to 
come.
    Senator Kaine. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you very much.
    And thank both of you for your work.
    And we--General Scaparrotti, I do believe that the work in 
South Korea is important. And we've been able to draw down our 
numbers. And I know the South Korean military is more 
effective, in many ways, than they have been. But, I think it 
is an important relationship. They've been good allies, as have 
the Japanese and others in the Pacific. And that long-term 
umbrella relationship/partnership that we've had remains 
important, I think, to the world and to United States 
interests. So, I appreciate the work that you're doing. I 
appreciate the importance of the Pacific. It's just undeniable, 
it seems to me.
    Our Strategic Forces Subcommittee has dealt a good bit with 
nuclear weapons, our relationship with Russia, the drawdown of 
our treaty--under the treaty, our nuclear weapon system, 
Admiral Locklear, but we don't talk enough about China's 
position. They've built a nuclear weapons capability, and I 
assume they have the ability to surge that at any point they 
choose to. They have the finances and the technology and the 
capability of doing that. Is that correct?
    Admiral Locklear. Yes, sir. We've observed them pursuing a 
deliberate modernization of their nuclear forces, both those 
that are land-based and the ones that are subsurface-based. 
They now have, I believe, three operational submarines in the 
Pacific--ballistic missile submarines. That could grow, I 
think, to four or five in the future. And we know that they're 
pursuing missile systems to be--missiles to be able to put on 
there that will extend their ability for nuclear--second-strike 
nuclear attack is what they explain--how they explain it. But, 
it is growing, and I think that it will be a continued 
consideration for us as war planners.
    Senator Sessions. We, in Congress, and policymakers in 
Washington, need to understand the reality of the--a nuclear-
armed submarine. How many missiles would that--those 
submarines--Chinese submarines be able to handle and launch, 
and how many warheads could they launch?
    Admiral Locklear. To give you an accurate answer, let me 
respond to that for the record, if you don't mind. But, 
multiple.
    [The information referred to follows:]

    China currently has 4 operational Jin-class (Type 094) ballistic 
missile submarines (SSBNs). Each submarine can carry 12 JL-2 submarine 
launched ballistic missiles each equipped with up to a single 1MT 
nuclear warhead.

    Senator Sessions. Would it compete with our capabilities? 
Or--if you're able to say. If not, that's all right.
    Admiral Locklear. I wouldn't say, sir.
    Senator Sessions. All right.
    One of the strategies that China has used has been to 
create a zone outside the Nation to make it difficult for our 
ships to inhabit, and put them at risk. Is that continue--is 
that part of a DF-21 missile plan? And do they have other plans 
designed to make it more difficult for our ships to be within 
hundreds of miles of the shore?
    Admiral Locklear. Across the board, the Chinese have 
improved their--greatly improved their ability to build 
missiles of all kinds--cruise missiles, ballistic missile 
defense, air defense missiles. So, they do have, I think, quite 
credible technology. The DF-21 missiles you're talking about is 
a missile that I--that they're fielding and testing and 
producing, that could potentially, if employed properly and 
work right, it would put U.S. forces at sea at risk at greater 
and greater distances. But, it's one of those things that we 
are dealing with and trying to answer.
    Senator Sessions. I think you're correct. And I think the 
Navy's thinking clearly about that, and in a wise way.
    What about the capabilities that we have? Army has some 
potential land-based missiles that could create, also, a zone 
around our interests, our country, our territories, that could 
protect us. Has any thought been given, as I believe Secretary 
Hagel mentioned, of using some of those capabilities to--from 
land--to provide a better safe zone around our bases and 
territories?
    Admiral Locklear. I wouldn't know, Senator, exactly what 
Secretary Hagel was talking about that time, but I'd be glad to 
get specifics and to answer it.
    [The information referred to follows:]

    The US Army currently deploys air and missile defense systems such 
as Terminal High Altitude Area Defense (THAAD), AN/TPY-2 surveillance 
radars, and Patriot missile systems at US bases throughout the Pacific 
that are designed to protect US strategic interests. Army Missile 
defense capabilities found in the Patriot and THAAD defense systems 
create the most meaningful ``safe zones.'' The rapid fielding of 
Patriot PAC-3 Missile Segment Enhancement interceptors, Indirect Fire 
Protection Capability (IFPC) 2-I, and Integrated Air and Missile 
Defense Battle Command System (IBCS) to USPACOM Air and Missile Defense 
units along with maturing directed energy and rail gun technologies 
will extend our protection capabilities, further increasing US freedom 
of maneuver and access.

    Senator Sessions. All right.
    Well, thank you both for your service. And I believe we 
have a fabulously capable military, well led by talented 
leaders. And we thank you for that.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    And thank you both for your service.
    Admiral Locklear, what would you say is--and I apologize, I 
haven't been here the entire time--when you look, the two 
biggest challenges you look at in your command?
    Admiral Locklear. Well, the biggest challenge, off the bat, 
is making sure that we can respond effectively to what I think 
is the most dangerous situation, is the North Korea Peninsula. 
So, I have a huge responsibility for helping NORTHCOM with the 
defense of homeland, defensing--defense of Hawaii, defense of 
Guam, and then follow-on forces on things that flow in to 
support General Scaparrotti on what could be a very short-line 
problem in Korea. So--North Korea--so, that's kind of number 
one problem.
    Senator Donnelly. Okay.
    Admiral Locklear. But, the second, I think, is just 
ensuring that the rebalance does what it needs to, to ensure 
that United States is properly positioned in the Asia-Pacific 
for the rest of this century. And under that fall a lot of 
things: ensuring that the alliances are as strong as they can 
be, building new partnerships, and, in some cases, ensuring 
that the rise of China doesn't turn into a ``Thucydides Trap.''
    Senator Donnelly. Okay.
    General Scaparrotti, as you look at Kim Jung-Un, when you 
look at the decision-making process that he uses--and I don't 
know that the appropriate word is ``random,'' but would you 
say, is there, like, a chain of command or a general structured 
way that decisions are made, or is it pretty much--you're not 
usually certain as to which way something's going to go with 
him?
    General Scaparrotti. Yes, sir, thank you.
    We don't know a lot about the decision-making process 
inside of that regime. If you look at just the 3 years he's 
been the leader, he's changed his senior leadership more than 
his father and his grandfather, put together. And so, from one 
perspective, the use of carrot and stick, the use of brutality, 
in many cases, in order to ensure absolute loyalty to him, I 
think, undercuts and leaves concern with me that, one, he's got 
a group around him that will be frank with him, that won't only 
tell him what he wants to hear. So, I think that's a dynamic 
within that decisionmaking process that gives me concern.
    Senator Donnelly. And as you look at the way the 
decisionmaking is going on right now, it appears there is 
somewhat of a move toward Russia, toward creating an additional 
strengthening of bonds between them. Do you think that provides 
any more stability for them, or do you think it just makes them 
more dangerous?
    General Scaparrotti. Well, I think you can see, not only 
the outreach to Russia, but others in the last year, as an 
attempt by them to get around the sanctions, which are having 
an effect, and to develop others that would provide trade and 
funds to them, which, you know, their economy, they're very 
tight, particularly given the percentage of it that he puts 
into his military. So, I think that's his attempt, there. We 
don't see a lot of return on those efforts at this point.
    Senator Donnelly. Admiral, when the North Koreans start to 
saber-rattle and start to make a lot of noise, ofttimes, your 
command brings a presence into the area there and helps to 
change the discussion. Do you have fears or concerns about any 
plans they might have to come after your fleet, in particular?
    Admiral Locklear. Well, certainly, when we're talking in 
the context of North Koreans, you can't rule out any 
unpredictable type of--
    Senator Donnelly. Right.
    Admiral Locklear.--activity. So, we know that they also 
pursue a pretty significant sea--you know, missile program, 
whether--how good it is, sometimes we're not sure. But, that's 
not just a ballistic missile capability, but a--cruise missile 
capabilities that would have to be considered when forces were 
put in the area. But--and they also have a submarine force 
that's--if it's operational, could be quite unpredictable, with 
mini-subs and things like that.
    But, they're generally locally contained, not far-reaching. 
So, at this point, I'm not really concerned about our ability 
to project power, should we have to support a contingency in 
North Korea.
    Senator Donnelly. General, what is the one thing in your 
command that you're most concerned about?
    General Scaparrotti. Sir, I'm most concerned about a 
provocation, which North Korea commits two or three every year, 
and one of those provocations escalating into conflict.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. Admiral Locklear, General Scaparrotti, 
thank you both for your time and for your service, and, more 
importantly, for the service of all the men and women in 
uniform that you represent in your commands.
    Admiral Locklear, do you believe that China's increasing 
aggression in the South China Sea reflects their calculations 
that the United States lacks the willpower and capability to 
challenge them in the South China Sea?
    Admiral Locklear. Well, I'd--you'd have to ask the Chinese 
if that's the way they feel about it. My guess is that they--as 
they always do, I believe, they listen carefully to how the 
United States feels about things, globally as well as in that 
region, and, where they have a clear understanding of U.S. 
position, they have a more--a tendency to understand it and 
respect it.
    Senator Cotton. Do you think the balance of power is 
shifting to the point where they believe that they now have a 
military advantage over us in their regional waters inside the 
first island chain?
    Admiral Locklear. I don't think they think they have a 
military advantage over us, because they also recognize that 
we're a global power, and that they're not a global power. I 
think that they believe that their ability to build and produce 
the military they have has provided additional decision space 
for them in their local region.
    Senator Cotton. One point you mentioned is the importance 
of clarity. Deterrence works best whenever the lines we draw 
are clear and strongly enforced. I've read press reports 
recently that, during Prime Minister Abe's visit to Washington 
later this month, the United States may make an explicit pledge 
to protect the Senkaku Islands, which are currently under 
administrative control of Japan. But, China also claims them. 
Do you think that would be a wise step to take for the purposes 
of stability in the East-Asian theater?
    Admiral Locklear. Well, my understanding is, we have pretty 
much made it clear our position in the East China Sea, as it 
relates to the Senkaku Islands. We still maintain we don't take 
a side on territorial disputes, so, in the long run, the issue 
of the sovereignty of Senkakus is for them to figure out. But, 
what we have said, and it's been said at numerous levels, is 
that the Senkakus Islands do fall within the administrative 
control of Japan and do fall within the mutual defense treaty 
with Japan. And I believe that that, alone, has provided a 
level of stability to the issues in the East China Sea, 
Northeast Asia.
    Senator Cotton. The press reports--I appreciate and 
understand and agree with the points you have made--the press 
reports I've seen have suggested that we would be reducing that 
to writing, though. And writing, in these matters, I think, can 
provide some more clarity than words.
    Could you comment briefly on your military-to-military 
relations with Thailand at the time?
    Admiral Locklear. Well, we maintain military-to-military 
contact with Thailand. We do it at a lower level, a post-coup 
or post---post-coup. We were on a very good glide slope, a very 
positive glide slope. I think the--prior to the coup, the 
opportunities that we were pursuing together were quite good 
for the region. Thailand is our oldest ally. In the end, it's 
my expectation that we want to keep Thailand. We love the Thai 
people. They're very close to American people. And we have 
similar value systems. And so, it's important for that.
    But, post-coup, we have truncated a number of military-to-
military activities, reduced them in scope. And we're managing 
those through an interagency process, where we go through and 
decide, ``Is this one that we want to continue, or not?'' What 
we're hopeful for is that the leadership--current leadership in 
Thailand will move actively and aggressively to restore, you 
know, rule of law, constitutional processes, and civilian 
control of government.
    Senator Cotton. Thank you.
    And, General Scaparrotti, Korea is, in many ways, a unique 
area of operations in the world, calling for some unique 
capabilities. I want to speak briefly about cluster munitions. 
Our stated policy is, as of January 1, 2019, we will no longer 
use such munitions that have a greater-than-1-percent 
unexploded rate. Can you describe the effect this policy will 
have on current operations and contingency planning, and also 
maybe the challenges it'll--we'll face achieving that rate?
    General Scaparrotti. Yes, sir.
    The cluster munitions are an important part of the munition 
inventory that I have. They--because of the effect that they 
create for me. There are plans right now, work being done, for 
a replacement munition that would meet the requirements of less 
than 1 percent dud rate. But, I--that's a requirement that we 
must meet, as you said, before 2019. We would use other 
munitions, but the munitions that we have available just simply 
don't provide the effect that the--of those that I have today 
in my inventory.
    Senator Cotton. Okay.
    Gentlemen, thank you both again for your service and the 
service of all those you represent, and your families and 
theirs.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Admiral Locklear, General Scaparrotti, thank you both for 
being here this morning.
    Admiral Locklear, in your testimony, you point out the 
significance of China's military modernization efforts. And, 
earlier this week, we heard from Admiral Roughead, from some 
other experts on East Asia, about China's modernization and how 
swiftly that has happened. What do we need to do to respond to 
what's happening in China? And can you also talk about how, if 
we go back to a level of funding that's required by 
sequestration, what that does to our efforts to make sure that 
we are technologically ahead of where the Chinese are?
    Admiral Locklear. Well, I think, first of all, we need to 
continue to encourage the Chinese to be more transparent, and 
to be more forward-leaning in how they respond to their 
neighbors, how they respond in the international community, to 
be a responsible leader in the region. I mean, if they're going 
to have a military, and they want to use it for security, then 
they should be part of the global security environment, 
participating with others, not being at odds with them. And 
that's a choice they have to make. We also have to make a 
choice to accept them into that environment. So, that's 
something we have to always consider. And there may be some 
risk as we do it, because we--as they rise as a power, it will 
be collaborative, on one hand, and competitive, on another. And 
that kind of relationship resorts in friction, and it will 
always be friction. And then that friction, some of it, may end 
up happening in the South China Sea or the East China Sea. So, 
managing that friction, and understanding how to manage it so 
it doesn't escalate into a large contingency, is very, very 
important for all us, particularly between the United States 
and China. So, we're working that part of it.
    Senator Shaheen. And so, before you answer the sequester 
question, how important is the effort to rebalance--I use that 
term in parenthesis--to Asia that----
    Admiral Locklear. Right.
    Senator Shaheen.--has been set out in doing those kinds of 
things----
    Admiral Locklear. Right.
    Senator Shaheen.--with respect to China?
    Admiral Locklear. Well, the rebalance is not about China. 
China is just one of many issues around----
    Senator Shaheen. Right.
    Admiral Locklear.--why the United States should be in Asia-
Pacific, why we should have a security posture there. But, they 
are a big concern in that. And so, the rebalance is--and, on 
the military side, ensuring that we have the right assets to be 
able to manage the situations, to be able to understand the 
environment, and to be able to respond effectively, are 
extremely critical. The readiness of those assets, the 
readiness of the men and women that man them, are critical.
    So, in sequestration, what happens is that, in general, you 
have less force structure that's less ready, that's less 
technologically capable. So, we get under fiscal pressure, like 
we're in now, the first--one of the first things to go is 
technological advances, because we've got to keep what we've 
got, right? Because nobody wants to change. So, the things that 
we need to stay relative, not only in that part of the world, 
but globally, in the technological arena in warfighting, starts 
to get pushed off the table, and pushed to the right. And it 
gets pushed into timelines that make us start to lose our 
technological advantages in warfighting.
    Senator Shaheen. One of the things we heard from former 
Admiral Roughead earlier this week was the importance of 
continuing the carrier-launched UAVs [unmanned aerial 
vehicles], and that that program would become even more 
important as we look at what we need to do in the Asia-Pacific. 
Do you share that view? And how do you see that affecting what 
we need to do in that part of the world?
    Admiral Locklear. Well, I think, in general, the--whether 
they're launched off of carriers or launched anywhere else in 
my particular area, that unmanned vehicles, both air and 
surface and subsurface, are a significant part of the future. 
So--because anytime you can take man out of the loop, you 
operate in denied environment. It's a much easier--there's a 
lot of benefits to it.
    So, to the degree that the--a UAV would be from a carrier--
a carrier, for me, is just a very flexible airfield that can 
operate widely through the theater. So, I would see huge 
benefits in being able to operate long-range ISR, long-range 
strike, if necessary, from those platforms.
    Senator Shaheen. And, General Scaparrotti, is this 
something that would be beneficial to you in the Korean 
theater?
    General Scaparrotti. Yes, ma'am, absolutely.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. Thank you, both of you, for what you're 
doing for the country.
    I wanted to ask about--follow up, Admiral Locklear, on your 
written testimony, where you said, ``Iran has built its robust 
nuclear infrastructure and advanced its ballistic missile 
systems with materials that have passed through PACOM AOR. Can 
you help us understand how are they getting these materials? 
And also, could you describe for us what you understand is the 
cooperation between Iran and North Korea, in particular on 
their missile programs?
    Admiral Locklear. Well, I think it's pretty well known that 
there's been a movement of proliferation activity from our--
from North Korea into Iran, in this case, of the types of 
technologies Iran was looking for. And I think that's been 
known through the interagency for some time.
    Senator Ayotte. And do you think that's how they're 
advancing their intercontinental ballistic missile program? 
With advice from North Korea?
    Admiral Locklear. I would say I wouldn't discount that as a 
possibility.
    Senator Ayotte. Yeah. So, in addition to that, you've also 
noted that North Korea continues to procure for its nuclear and 
ballistics missiles program and--from the region in a network 
of individuals and entities in the region. And, as you know, 
that violates U.N. Security Council Resolution 1718, in terms 
of the ability of member states to directly or indirectly 
supply to North Korea these kinds of materials. And obviously 
there are many U.N. resolutions that apply to Iran, as well. 
But--so, as I look at that testimony, what more can we do to 
isolate North Korea, in terms of those that are supplying the 
country things that we don't want them to have and are against 
U.N. resolutions? And who do we need to be tougher on in the 
region in that regard?
    General Scaparrotti. Well, I think that, primarily in terms 
of proliferation security, we have a proliferation security 
initiative that's global in nature, and multinational. I think 
that's also an important key, because we have to bring in--we 
have to deal with other nations that help provide intelligence 
and also forces that may help us in interdiction, et cetera. 
We--and continuing our training in that regard, which we do.
    In terms of the Nations that I think we have to be 
concerned about, I'd prefer to answer that actually for the 
record in a classified document, as opposed to here in the open 
forum, if I could.
    [The information referred to follows:]

    [Deleted.]

    Senator Ayotte. Of course. Thank you, General. I appreciate 
that.
    I also wanted to follow up, Admiral Locklear--I note, in 
your written testimony, you mentioned Taiwan, I believe, once, 
in passing. In light of China's major military buildup, what's 
your assessment of the current balance of military capabilities 
in the Taiwan Strait, between the PLA and Taiwan? And where 
does Taiwan have an advantage? And where is the PLA's 
advantage? So, what concerns are you hearing from the 
Taiwanese, and what platforms, weapons, assistance, and 
training has Taiwan requested from the United States that we 
haven't yet provided?
    Admiral Locklear. Well, we have a robust interaction from 
the PACOM headquarters with Taiwan. In fact, we have, ongoing 
right now over there, their major annual exercise, where we 
participate with them. We send advisors, overseers, and we go--
and, in fact, we sent General Thurman, who used to be 
Scaparrotti's predecessor, who will be over there with them, at 
my request, advising them and assisting them. And so, that's 
important.
    I think that, in general, over time, the capabilities of 
the PLA--the PRC--will vastly eclipse what the Taiwanese could 
produce on their own. It's just a matter of magnitude of force 
size if China--the PRC stays on the course that it's on now.
    We--my task is to support the Taiwan Relations Act and to 
provide my advice to the--up to the Office of the Secretary of 
Defense and then up to the President for him to decide on what 
we--what kind of things we provide.
    I know that they have requested our assistance in submarine 
programs, and we're contemplating that at this point in time, 
but not--have not committed them one way or the other. They are 
particularly interested in us helping them in cyber security 
areas that allow them to pursue asymmetric capabilities that 
will improve their defense and improve their confidence that 
they can make decisions on their own and not be coerced.
    Senator Ayotte. Thank you.
    Chairman McCain. Colonel Graham.
    Senator Graham. Thank you, Captain.
    Admiral, would you describe China's behavior toward their 
neighbors as provocative?
    Admiral Locklear. I would call it aggressive. And I guess 
provocative would be in the eyes of the beholder. But, from my 
view, it's aggressive.
    Senator Graham. From the eyes of the Japanese, would you 
say it's provocative?
    Admiral Locklear. I think they would say yes.
    Senator Graham. Okay.
    North Korea. General, would you say the regime, on a good 
day, is unstable?
    General Scaparrotti. No, sir. I'd say the Kim Jong-un is in 
control. We see no indicators of instability at this time.
    Senator Graham. So, you think we don't have to worry much 
about North Korea?
    General Scaparrotti. Oh, no, sir, that's not----
    Senator Graham. Okay. When I----
    General Scaparrotti.--what I'm trying to say.
    Senator Graham.--say ``unstable,'' I mean unpredictable, 
provocative.
    General Scaparrotti. Unpredictable, provocative----
    Senator Graham. Yeah.
    General Scaparrotti.--danger. Yes.
    Senator Graham. Yeah, that's what I meant. I was----
    General Scaparrotti. Willing to--I think, willing to be 
provocative, as well.
    Senator Graham. So, in your backyard, you've got dangerous, 
provocative, unstable, with nukes in North Korea, right?
    General Scaparrotti. Yes, sir, within short distance from 
the capital.
    Senator Graham. The leader of North Korea seems to be, 
like, nuts. I don't know how else you'd describe the guy, but 
he seems nutty to me.
    So, under sequestration, at the end of the day, how will 
your ability to defend the Korean Peninsula and our interests 
in that region be affected, from an Army point of view?
    General Scaparrotti. Well, from a holistic point of view, 
sequestration would, as Admiral Locklear just said, end up with 
a smaller force, a less ready force, probably a force----
    Senator Graham. Well, if the Army goes down to 420,000--
let's say that's the number they one day hit if we don't fix 
sequestration----
    General Scaparrotti. Yes, sir.
    Senator Graham.--how does your theater of operations fare, 
in terms of threats and----
    General Scaparrotti. Sir, in high-intensity conflict that 
you'll have on the Korean Peninsula, I'd be very concerned 
about having a force that had enough depth, particularly for 
sustained operation.
    Senator Graham. So, it would be seen as weakening our 
position in Asia, right?
    General Scaparrotti. Yes, sir.
    Senator Graham. Admiral, under sequestration, the Navy 
would have approximately how many ships if it was fully 
implemented?
    Admiral Locklear. Well, I'd have to refer that back to the 
Navy. I don't have the exact numbers.
    Senator Graham. How many do you have in your----
    Admiral Locklear. I have about 150 ships in my AOR that are 
assigned from--all the way from San Diego to the theater. 
Probably about 50 or so of those are west of the Date Line at 
any given time. So, what would be impacted by the size of the 
Navy is their ability to rotate forces forward to augment the 
ones that are west of the Date Line all the time, which is the 
problem we're having now with sustaining our numbers, because 
of the readiness bathtub we're in, even with the size we have 
today. So, sequestration would just drive that further into the 
ground.
    Senator Graham. It would be hard to pivot to Asia under 
sequestration.
    Admiral Locklear. Yes, sir.
    Senator Graham. All right. So, the likelihood of a armed 
conflict between South Korea and North Korea, how would you 
evaluate that on a 1-to-10 scale--1 being very unlikely, 10 
being highly likely--say, in the next 10 years?
    General?
    General Scaparrotti. Well, sir, I think that--I'd caveat by 
saying that I think that KJU [Kim Jong-un] knows that if he 
were to conduct a conventional attack on South Korea, it would 
be the end. So, I don't think that's his purpose. I think it's 
to maintain his regime. But, I think, over a 10-year period, 
it's above a 5. It's a 6, probably.
    Senator Graham. And the more we reduce our forces, the less 
deterrent--it may go up a 7.
    General Scaparrotti. Sir, I think, with less deterrence, it 
becomes more likely that we'd have a conflict.
    Senator Graham. Okay.
    Admiral, from your point of view, if we reduce our forces 
in your theater of operations to sequestration level, do you 
think that encourages China to be more provocative?
    Admiral Locklear. I think any signal that we send that 
we're less interested in the Asia-Pacific, on the security 
side, than we currently are would be an invitation for change 
in the region and that China would be interested in pursuing.
    Senator Graham. Do our allies in the region--are they 
beginning to hedge their bets? What's their view toward our 
footprint and where we're headed?
    Admiral Locklear. I don't think they're necessarily 
unsatisfied with our military footprint. I think what they're 
concerned about most is that--is the growing divide between 
what they see as the economic center of gravity, which is 
predominantly Asia or--and more and more around China, and 
their security center of gravity, which is around us. So, that 
creates a conundrum for them as they have to deal with 
strategic decisionmaking. You know, they want us as a security 
grantor, because they believe that we're--I mean, they see us 
as a benevolent power, and they like how we operate, but they 
also see us as a diminished economic power in the region that 
they have to deal with that.
    Senator Graham. Thank you.
    Chairman McCain. Admiral and General, I would appreciate it 
if, for the record, you would give a written estimate to this 
committee as to the effects of sequestration on your ability to 
carry out your responsibilities. And please make it as detailed 
as you wish. We're going to have this fight again on 
sequestration, ongoing. And members of this committee are 
dedicated to the proposition that we have to repeal 
sequestration. And your testimony as to the effects of 
sequestration can affect that government--that argument 
probably more effectively than anything that members on this 
side of the dais could accomplish. So, I would very much 
appreciate it if you would give us, as detailed as possible, 
short-term and long-term effects of sequestration on your 
ability to carry out your responsibilities.
    Chairman McCain. Admiral, is this your last appearance 
before this committee?
    Admiral Locklear. Yes, sir, it is.
    Chairman McCain. Well, I want to take the opportunity, on 
behalf of all of us on this committee and in the U.S. Senate, 
thanking you for your outstanding service. I think you can be 
very proud of the many contributions that you've made to this 
Nation's security. And you're one of the reasons why leaders in 
uniform are so highly respected and regarded by the people of 
this Nation. So, I thank you, Admiral.
    This hearing is adjourned.
    [Whereupon, at 11:27 a.m., the committee adjourned.]
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
              partner capacity/foreign military financing
    1. Senator McCain. Admiral Locklear, we heard testimony from Dr. 
Mike Green before this committee on April 14, 2015, that the U.S. 
Pacific Command (PACOM) area of responsibility only receives about one 
percent of total Foreign Military Financing (FMF). The committee hears 
frequently about the importance of helping Asia-Pacific states build 
better maritime domain awareness and Coast Guard capabilities, but 
these efforts appear limited in scope. Can you discuss any potential 
gaps between your desired level of FMF for the USPACOM theater and the 
actual financing the region receives? Can you provide an update for the 
committee on our efforts to help build the maritime capacity of states 
like the Philippines and Vietnam?
    Admiral Locklear. The USPACOM Theater Security Cooperation process 
is a disciplined process that since 2013 resulted in decreased 
disparity between FMF requests and actual FMF allocations. This is 
evidence of the rigorous security cooperation planning process we've 
instituted in recent years, producing disciplined resource demand 
signals. Current FMF budget requests draw direct linkages between the 
Country Team's Integrated Country Strategy/Mission Resource Request 
goals and USPACOM Theater Campaign Plan country objectives and Country 
Security Cooperation Plans.
    The fiscal year 2016 USPACOM budget request totals $96.5 million. 
However, the fiscal year 2016 Department of State (DoS) proposed 
allocation for USPACOM is $79.1 million. Funding for the USPACOM FMF 
request in its entirety for fiscal year 2016 represents a 22 percent 
increase over the DoS proposed allocation; a reasonable request that 
would actively demonstrate DoS's continued support to the Rebalance to 
the Pacific.
    Philippines: The clear majority of FMF activity since 2012 in the 
South China Sea region is geared toward building key Maritime Security 
(MARSEC) and Maritime Domain Awareness capabilities. 73 percent of the 
fiscal year 2012-2014 FMF allocation for the Philippines is dedicated 
to MARSEC and Territorial Defense. Fiscal year 2013-2017 allocations 
support projects that build Navy and Coast Guard maritime self-
sufficiency, maritime fleet upgrades and maintenance capacity 
building.on of Vietnam's MARSEC capabilities. FMF maritime capacity 
building efforts with Vietnam currently consist of a multi-year plan 
for Coast Guard fast patrol boats, training, maintenance and support.
                                 ______
                                 
               Questions Submitted by Senator Jim Inhofe
               readiness impact on us asia-pacific policy
    2. Senator Inhofe. Admiral Locklear and General Scaparrotti, are 
you concerned about the training of follow-on-forces and their ability 
to get to the fight on time?
    Admiral Locklear. USPACOM is absolutely concerned with the 
readiness of follow-on-forces as their contributions amplify our own 
capabilities and capacities that are required to carry out the 
command's assigned mission(s). USTRANSCOM is in a better position to 
discuss the ability to get forces to the USPACOM AOR on time. However, 
the more pressing concern to USPACOM is, over the past year, the U.S. 
has been forced to prioritize the readiness of forward-deployed forces, 
at the expense of the readiness of follow-on-forces and critical 
investments needed to outpace emerging threats. A lack of ready surge 
forces resulting from high operational demands, delayed maintenance 
periods, and training limitations will limit responsiveness to emergent 
contingencies and greatly increases risk.
    General Scaparrotti. [Deleted.]

    3. Senator Inhofe. Admiral Locklear, does PACOM have the resources 
to maintain a sufficient level of presence in its Area of 
Responsibility, to include the East China Sea and South China Sea, to 
deter aggression and reassure U.S. partners and allies in the region?
    Admiral Locklear. USPACOM's AOR is vast and encompasses 52 percent 
of the earth's surface. This large expanse complicates ISR, movement/
maneuver, sustainment and requires a geographically distributed force 
laydown to rapidly respond to crisis. Growth of military capabilities 
in the region is accelerating and the Indo-Asia-Pacific is the most 
militarized region in the world. Although we are meeting our 
commitments, the capability/capacity margin that we've enjoyed in the 
past is decreasing. USPACOM's ability to defend strategic national 
security interests in an increasingly complex and lethal environment 
requires a force posture that is operationally resilient and is 
properly resourced.
    In order to maintain USPACOM's ability to perform our mission the 
following resources areas require improvement:
    a. Persistent and deep look Intelligence, Surveillance and 
Reconnaissance (ISR) to provide adequate adversary indications and 
warnings.
    b. Robust and interoperable ISR processing, exploitation, and 
dissemination enterprise to utilize critical information gathered.
    c. Munition improvements in lethality, production, and precision. A 
growing need for ship-to-ship and air-to-ship munitions to defeat 
aggressors at greater distances while reducing risk to our service 
members. Advancements in air-to-air and Hard Target Munitions 
capabilities are also required.
    d. Sustaining Ballistic Missile Defense gains to address potential 
aggressors and protect U.S. interests.
    e. Robust CVN and Amphibious presence to ensure regional stability, 
reassure allies/partners.
    f. Continued focus on Undersea Warfare to maintain advantage toward 
potential adversaries.
    g. Robust logistics networks including dedicated sealift to posture 
munitions, fuel and supplies.
    h. Sustainable communication architecture meeting spectrum of 
requirements while postured to address cyber threat.

    4. Senator Inhofe. Admiral Locklear and General Scaparrotti, 
assuming sequestration remains the law, what are the key impacts to 
readiness, our ability to deter, and our ability to execute combat 
operations in PACOM and on the Korean Peninsula?
    Admiral Locklear. If sequestration remains the law, it will make it 
increasingly difficult to execute the USPACOM Theater Campaign Plan and 
other mission areas. Negative readiness trends that we're seeing in our 
reinforcement forces will be exacerbated should sequestration 
continue.''
    Projected sequestration impact areas are:
    o Fight Tonight
      <bullet>  Service funding cuts will drive fewer flying hours, 
steaming days, and fewer opportunities to practice required skills.
      <bullet>  Cancelled/scaled down training/exercises will reduce 
joint integration opportunities necessary for coordinated mission 
execution.
      <bullet>  Forward deployed force readiness maintained at cost of 
follow-on required forces.
      <bullet>  Reduced availability of Intelligence, Surveillance, 
Reconnaissance aircraft will reduce awareness and decision space.
    o Sustainment of equipment
      <bullet>  Interruption or delays of ship, aircraft, and other 
equipment modernization, reset maintenance, and/or sustainment will 
prolong impacts beyond funding reduction periods.
    o Assure Allies/Deter Enemies
      <bullet>  Reduced or cancelled exercises, reduced presence, 
reduced regional engagements signal lack of commitment to our partners 
and allies
      <bullet>  Reduced US presence with aggressor unpredictability, 
rapid regional military modernization, and expansion of state actor 
presence further reemphasize a sequestration return will have far 
reaching unintended consequences.
    General Scaparrotti. [Deleted.]
                     u.s. rebalance to asia-pacific
    5. Senator Inhofe. Admiral Locklear and General Scaparrotti, what 
are your current critical capability gaps on PACOM and on the Korean 
Peninsula?
    Admiral Locklear. [Deleted.]
    General Scaparrotti. [Deleted.]

    6. Senator Inhofe. Admiral Locklear and General Scaparrotti, has 
the decreased readiness of the U.S. military and the reduction in size, 
forcing rotational forces to fill capability gaps, impacted our ability 
to maintain stability, deter aggression and assure our allies and 
partners in the region?
    Admiral Locklear. Decreased readiness and the reduction in size of 
the U.S. military is an issue that has been addressed daily within 
USPACOM for over two years. The entire Department is working on 
prioritization of effort and resource-informed means of ensuring that 
goals and objectives can be met in accordance with National Guidance. 
The readiness rebuild and downsizing of the force are multi-year 
endeavors; thus the impacts to the areas in question have been minimal 
since we just started the processes. However, it is a compounding 
dilemma and as both cycles continue we will see a parallel decrease in 
our ability to maintain stability, deter aggression, and assure allies 
and partners--all in the face of a rising China and unpredictable 
Democratic People's Republic of Korea. Our concern is that we are at 
risk of losing ground on numerous Rebalance-related initiatives because 
there simply will not be the resources available to accomplish what is 
required in the AOR. The greatest threat to the United States would be 
to fight a war in the USPACOM AOR that we could have deterred.
    General Scaparrotti. [Deleted.]

    7. Senator Inhofe. Admiral Locklear, what is the perception of the 
``rebalance'' by our allies and partners?
    Admiral Locklear. [Deleted.]

    8. Senator Inhofe. Admiral Locklear, how has China reacted to the 
U.S. ``rebalance?''
    Admiral Locklear. China has reacted to the U.S. ``rebalance'' with 
wariness. On the one hand, China has responded by embracing some 
opportunities to expand engagement with the U.S. military, such as 
participating in RIMPAC and our ongoing disaster management exchanges. 
On the other hand, however, China has criticized our support for allies 
and democratic ideals as efforts to contain its rise, to encircle it, 
and even to split it.
                      global security environment
    9. Senator Inhofe. Admiral Locklear and General Scaparrotti, how 
would each of you assess the national security environment in the Asia-
Pacific and on the Korean Peninsula over the next five years--becoming 
more or less stable?
    Admiral Locklear. The security environment in the Indo-Asia-Pacific 
is likely to change in both positive and negative ways over the next 
five years.
    We will continue to face a variety of regional challenges to 
stability. We expect North Korea to continue to try to develop, test 
and field long-range missiles and nuclear weapons, while remaining 
largely isolated from the international community and incapable of 
solving its economic shortcomings. China's dramatic military growth, 
especially if it remains coupled with a lack of transparency and 
aggressive actions, will continue to be of concern to the region. 
Resource disputes of all kinds--including water, energy, fish, and 
other natural resources--will probably become more contentious. Violent 
extremists are likely to continue to adapt to more comprehensive 
regional counter terrorism efforts by leveraging technology and 
possibly drawing upon the relationships and skills being acquired today 
in Iraq and Syria. And the impacts of climate change may become more 
pronounced, especially on the small island nations and the many nations 
with large, vulnerable populations.
    However, we also expect the positive trends of increased 
information sharing and multi-national approaches to problem solving to 
continue. The Indo-Asia-Pacific is becoming more interconnected and 
interoperable, providing additional regional approaches to these 
challenges.
    General Scaparrotti. [Deleted.]
                       sensor-fused weapon (sfw)
    10. Senator Inhofe. Admiral Locklear, last year you said the 
Sensor-Fused Weapon (SFW) is ``essential to meet the strategic and 
operational requirements at a time-critical juncture in our rebalance 
strategy.'' Is this still the case?
    Admiral Locklear. Area Effects Munitions (AEM) remain essential to 
meeting the strategic and operational requirements of USPACOM. I 
support the Services' AEM Roadmaps to develop an effective replacement 
capability for AEM that is compliant with Department of Defense policy. 
Current Air Force assessments indicate that projected inventories of 
SFW are sufficient to meet near term USPACOM requirements.

    11. Senator Inhofe. Admiral Locklear, how does the capability of 
the Sensor-Fused Weapon (SFW) compare to that of the cast ductile iron 
version of the BLU-111 general purpose bomb, which the US Air Force is 
also considering to address area weapons requirements? Which has a 
better cost-per-kill ratio? Which has a better sorties-per-kill ratio? 
Which presents an aggregate lower aircrew risk when deploying the 
system?
    Admiral Locklear. These weapons have different design features and 
capabilities because they are designed to engage different target 
types; it would not be appropriate to compare them on a cost benefit or 
aircrew risk basis for the same target set. Advanced fragmentation 
weapons in general, do not provide the anti-armor capabilities of the 
SFW and they do not provide persistence; similarly, the SFW does not 
provide effects against large formations of personnel in the way that 
the CDI BLU-111 does.

    12. Senator Inhofe. Admiral Locklear, how does the Sensor-Fused 
Weapon (SFW) address the humanitarian concerns that have been raised 
about the use of other munitions?
    Admiral Locklear. DoD and USPACOM apply heavy scrutiny to the 
conditions under which all munitions are or would be employed, 
including potential humanitarian impact during and after combat 
engagements. Employment of cluster munitions by US forces is guided by 
a strict policy to address humanitarian concerns. SFW contains advanced 
features that further minimize any potential humanitarian concerns.

    13. Senator Inhofe. Admiral Locklear and General Scaparrotti, what 
consequences would you foresee if U.S. forces could rely only on 
unitary systems to defend against threats in the PACOM Area of 
Operations, including a DPRK armored attack, or elsewhere? What costs 
in terms of protecting friendly forces, materiel and dollars would be 
incurred?
    Admiral Locklear. [Deleted.]
    General Scaparrotti. [Deleted.]

    14. Senator Inhofe. Admiral Locklear, what efforts have been 
undertaken to replace by 2018 the pre-P3I Sensor-Fused Weapon (SFW) 
units that are prohibited by the 2008 Policy on Cluster Munitions and 
Unintended Harm to Civilians with the advanced version of this system?
    Admiral Locklear. There is not currently an effort to specifically 
replace or upgrade the pre-P3I SFW in the Air Force inventory. Current 
Air Force requirements indicate that projected inventories of SFW are 
sufficient for USPACOM requirements. However, there are larger DoD 
efforts ongoing to (1) assess the warfighting impacts of the DoD 
Cluster Munition (CM) policy and assess some mitigation approaches, and 
(2) refine Service Area Effects Munitions (AEM) roadmaps to identify 
fiscally achievable paths to provide appropriate AEM capability and 
capacity.

    15. Senator Inhofe. Admiral Locklear, what steps are being taken to 
ensure that the Sensor-Fused Weapon (SFW) industrial base is sustained 
so that it can meet expected future requirements and undertake research 
and development needed to devise more advanced systems?
    Admiral Locklear. This is beyond my scope as a Combatant Commander; 
The Undersecretary of Defense for Acquisition, Technology, and 
Logistics maintains an aggressive program to identify and address 
concerns with the US defense industrial base.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                        virginia class submarine
    16. Senator Ayotte. Admiral Locklear, how is the Virginia-class 
Attack submarine performing in the PACOM area of responsibility?
    Admiral Locklear. We have had for decades the best submarines in 
the world. As Virginia-class Attack Submarines deploy to the Pacific, 
they have demonstrated that we continue to have the best submarines in 
the world. Submarines are essential to any operations that I have, both 
in peacetime and in crisis and contingency.
    A continued and sustained investment in the U.S. nuclear submarine 
force, advanced undersea warfare technologies, capabilities and 
capacity, and readiness is necessary to maintain our edge against 
growing challenges.

    17. Senator Ayotte. Admiral Locklear, what percentage of your 
attack submarine requests in PACOM is the Navy currently meeting?
    Admiral Locklear. For Fiscal Year 2015 the Navy is projected to 
meet 56 percent of my attack submarine request. This percentage is 
consistent with previous years.
                              north korea

    18. Senator Ayotte. General Scaparrotti, on April 7, 2015, the 
Pentagon said that North Korea had developed the KN-08 missile that is 
capable of reaching the homeland, and that North Korea is capable of 
miniaturizing a nuclear warhead to be fit on an ICBM. Please provide an 
update.
    General Scaparrotti. [Deleted.]
                                 china
    19. Senator Ayotte. Admiral Locklear, since China's 2013 
declaration of an East China Sea Air Defense Identification Zone 
(ADIZ), how has China's practical behavior and activities in that area 
changed?
    Admiral Locklear. [Deleted.]

    20. Senator Ayotte. Admiral Locklear, since that declaration, how 
has U.S. behavior changed in that area, if at all? In practice, are 
United States military forces recognizing China's East China Sea ADIZ 
in any way or changing our operations in any way in the wake of that 
2013 declaration? Why or why not?
    Admiral Locklear. The PRC's East China Sea ADIZ policy has not in 
any way changed how the U.S. conducts military operations in the 
region. We continue to conduct flight operations in the region, 
including with our allies and partners. The U.S. will not acquiesce to 
unilateral acts of other states designed to restrict the rights, 
freedoms, and uses of the sea and airspace, as reflected in 
international law. Specifically, the U.S. does not recognize a right of 
a coastal state to apply its ADIZ procedures to foreign aircraft, 
including U.S. military aircraft, if those aircraft do not intend to 
enter the national airspace of the coastal state.

    21. Senator Ayotte. Admiral Locklear, when China completes its land 
reclamation projects, do you expect China to declare an Air Defense 
Identification Zone (ADIZ) in the South China Sea, as they did in the 
East China Sea in November 2013?
    Admiral Locklear. Yes, we expect that China will eventually declare 
an ADIZ in the South China Sea. Their ongoing land reclamation in the 
Spratly Islands will give them a new capability to enforce such an ADIZ 
throughout the South China Sea.

    22. Senator Ayotte. Admiral Locklear, if China were to establish an 
ADIZ in the South China Sea, how would this impact U.S. air operations 
in the region?
    Admiral Locklear. As with the PRC's declaration of an East China 
Sea ADIZ, the potential establishment of a PRC South China Sea ADIZ 
will not change how the U.S. conducts military operations in the 
region.

    23. Senator Ayotte. Admiral Locklear, over the last several years, 
China has engaged in coercive diplomacy to achieve its political and 
territorial aims in the East and South China Seas. The administration 
has responded with efforts to build partner capacity and strengthen 
regional institutions. What additional steps can the administration 
take to deter Chinese assertiveness in the short and medium term?
    Admiral Locklear. [Deleted.]

    24. Senator Ayotte. Admiral Locklear, do you share the view that 
China's actions have violated U.S. national security interests in the 
Freedom of Navigation, the free flow of commerce, and the peaceful 
settlement of disputes in accordance with international law?
    Admiral Locklear. Though to date China's actions in the South China 
Sea have not impacted U.S. freedom of navigation or free flow of 
commerce, and though the U.S. does not take a position on competing 
claims to sovereignty over land features in the South China Sea, we 
observe that actions and steps they have taken to significantly 
increase the physical size or functionality of disputed features or to 
militarize them is provocative and has the potential to raise tensions. 
Large scale construction or major steps--such as dramatically expanding 
the actual size of a disputed feature through land reclamation--with 
the intent to militarize or expand law enforcement operations at 
outposts has the effect of ``complicating or escalating'' the 
situation.

    25. Senator Ayotte. Admiral Locklear, how many combat patrols did 
the PLA (People's Liberation Army) Navy conduct in the East China Sea 
and South China Sea in 2014? How does that compare to previous years? 
How has USPACOM responded in order to assure the freedom of navigation 
for the U.S. and our partners?
    Admiral Locklear. [Deleted.]
                           u.s. force posture
    26. Senator Ayotte. Admiral Locklear, as the range and precision of 
Chinese ballistic and cruise missiles have increased, U.S. forces 
operating from forward bases have come under increased threat. What new 
operating concepts and/or passive and active defenses are we adopting 
to help address this challenge?
    Admiral Locklear. [Deleted.]
                     combatant command integration
    27. Senator Ayotte. Admiral Locklear, how do you assess the 
integration between PACOM and STRATCOM regarding strategic challenges 
like nuclear forces? What about PACOM integration with NORTHCOM on 
ballistic missile defense?
    Admiral Locklear. USPACOM coordinates throughout the planning 
process with USSTRATCOM and USNORTHCOM; all deliberate plans are 
thoroughly integrated. USPACOM maintains a supporting role to 
USNORTHCOM for Ballistic Missile Defense (BMD) of the Homeland. Given 
expected indications and warnings (I&W), USNORTHCOM and USPACOM can 
defend the U.S. Homeland (including Guam) against DPRK ballistic 
missile threats using a combination of active and passive means. To 
demonstrate our capability and will to integrate the supported/
supporting relationship, PACFLT recently led a Fleet Synthetic 
Training-Joint (FST-J) that included USPACOM and USNORTHCOM components 
in a command post exercise environment for tactical level BMD 
execution.
                concerns about u.s. capability and will
    28. Senator Ayotte. Admiral Locklear, as you talk with our allies 
in Asia, are you hearing any concerns regarding the capability or 
willingness of the U.S. stand by our allies there if there were a 
conflict in the future? What are they saying?
    Admiral Locklear. Our relationships with Allies and Partners are 
essential for maintaining security and prosperity in the region; key to 
remaining the security partner of choice is demonstrating commitment 
through sustained forward presence, continual engagement, and effective 
capabilities.
    There is some concern in the region that U.S. security commitments 
may not be sustainable. Countries are watching the U.S. budget process 
closely--budget uncertainty in Washington has created concern, 
especially as it relates to Sequestration's impact on acquisition, 
deployments, training, readiness, and partner capacity building.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                     north korea-iran relationship
    29. Senator Lee, Admiral Locklear and General Scaparrotti, can you 
confirm, as recent news reports have suggested, that North Korea 
transferred ballistic missile technology to Iran in the past year? If 
so, how long has this been known to the U.S. Government, and do you 
consider it a violation of international prohibitions against the 
illicit transfer of such material?
    Admiral Locklear. [Deleted.]
    General Scaparrotti. [Deleted.]
                           pacific interests
    30. Senator Lee, Admiral Locklear, maintaining order and security 
in the Asia/Pacific region is important for U.S. defensive and economic 
security, and I believe that this can be best achieved when our allies 
and partners in the region have a strong national security apparatus to 
support and compliment U.S. efforts and ensure responsible burden 
sharing. Can you outline for the committee examples of successful 
partnerships you have seen since the United States undertook its 
strategic shift to the Asia/Pacific region, and where is more work 
needed, especially in terms of allied defensive capacity? Specifically, 
do you believe that the burden of security responsibility in the 
Pacific is being appropriately shared among Pacific nations?
    Admiral Locklear. I agree completely with the importance of 
developing partners' capabilities, and we work very hard to do so. 
Examples of successful partnering realized under the Rebalance include: 
Japan is pressing forward with a historic and challenging re-
orientation toward regional security roles; U.S. forces and aircraft 
will rotate through Northern Australia, facilitating increased 
multilateral engagement, exercises, and contingency response capacity; 
new bilateral Defense Cooperation Guidelines with Japan will enable 
enhanced U.S.-Japan interoperability and broader combined operations 
across the region; and, the U.S.-Philippines Enhanced Defense 
Cooperation Agreement will allow enhanced maritime security cooperation 
in the South China Sea. We are also working with the ASEAN-centered 
organizations to build an effective and cooperative regional security 
architecture through our participation in expert working groups and 
multilateral exercises on counterterrorism, maritime security, search 
and rescue, humanitarian assistance /disaster relief, peace keeping 
operations, nonproliferation, biosecurity, cybersecurity, and health 
and military medicine.
    While we have made progress, more work remains. Security sector 
reform and shifting the focus from internal to external security 
remains an issue in the theater. In Northeast Asia, our capacity-
building efforts include strengthening Allies' capabilities with 
cutting-edge aircraft, air and missile defense, realizing joint 
capability, cyber security, information security, and high end counter-
Anti Access/Area Denial (A2AD) interoperability. Work also continues 
toward building the Republic of Korea's capacity to assume full 
operational control of its self-defense; to do so the ROK must invest 
in C2, among other capabilities.
    Finally, burden sharing is robust, but more can be done. Key Allies 
such as South Korea and Japan provide substantial host nation support. 
We routinely encourage regional states to invest further in their 
defense budgets, and work with them to become net security providers. 
We also encourage them to support regional security by providing us 
operational access. Key enablers include educating their publics on the 
value of security partnering with the U.S., and overcoming regional/
historical animosities with neighbors. Finally, we continue to press 
regional institutions, such as ASEAN, to advance toward providing 
preventative diplomacy, effective conflict resolution, and de-
escalation strategies.

    31. Senator Lee, Admiral Locklear, what impact has Chinese naval 
development and aggression had on the ability of the United States and 
our economic partners to freely trade in the Asia-Pacific region? Do 
you view Chinese activity as something that will inhibit economic 
development in that region in the future?
    Admiral Locklear. Chinese naval development and aggression creates 
uncertainty that can inhibit trade and investment. The governments and 
militaries of the region have a responsibility to provide a stable and 
secure environment where business can flourish. Three areas of economic 
activity that could be impacted include shipping, fishing, and resource 
development.
    Commercial shipping is the life blood of our interconnected global 
economy and requires freedom of navigation and access to nations and 
their ports. Chinese naval development and aggression have not limited 
the free flow of commercial shipping so far. However, conflicts over 
competing claims in the South China Sea increasingly risk conflict, 
which could elevate insurance rates and otherwise interfere with free 
navigation in regional waters and skies.
    The nations of Southeast Asia obtain a significant portion of their 
diet through commercial fishing in the South China Sea, leading to an 
uncommonly recognized source of friction. Since 1999, China has 
annually declared a unilateral ban on fishing in the northern half of 
the South China Sea for several months each year; although, it has not 
significantly enforced it. Other regional states reject Chinese 
authority to ban their fishermen and continue to allow their fishing 
boats to operate in South China Sea. China's ban has the effect of 
pushing the Chinese fishing fleet and Chinese Coast Guard patrol craft 
farther south, increasing the likelihood of incidents. Added to an 
already complex situation, Chinese reclamation activities in the area 
will likely facilitate a more rapid Chinese response, and is likely to 
further exacerbate regional tensions.
    Recurring tensions and Chinese militarization of the region, as 
well as the unsettled legal status of regional claims, have reportedly 
forestalled exploration for, and exploitation of, sea bed resources. 
China's actions are creating uncertainty and risk; given the high 
initial cost of entry, the private sector has been hesitant to explore 
and develop resources inside China's almost total claim on the South 
China Sea.

    32. Senator Lee, Admiral Locklear, what is your assessment of 
Taiwan's security situation and how do you see the cross-Strait balance 
of power developing over the next few years? Where do you believe the 
United States needs to assist or enable the Taiwanese military to have 
the most effective and cost-efficient security gains?
    Admiral Locklear. There have been no signs that China's military 
posture opposite Taiwan has changed significantly over the past several 
years. The PLA continues to develop and deploy military capabilities, 
which would allow it to undertake increasingly sophisticated military 
action against Taiwan. Taiwan has historically relied on technological 
and operational superiority as well as geographic advantages to counter 
the PLA. Taiwan has taken important steps to professionalize its force 
and develop its defense industrial base, which have partially addressed 
Taiwan's declining defense advantages. However, China's increasingly 
modern platforms and weapons--including more, and more capable, 
ballistic missiles, ships and submarines, combat aircraft, and improved 
C4ISR capabilities--are tipping the balance of power further in China's 
favor.
    USPACOM's assistance to help Taiwan modernize its military have 
provided the security and confidence for Taiwan to work with the PRC 
improve cross-strait relations. However, the growing military power 
disparity will continue to pose a challenge to cross-strait stability. 
In order to maintain the relative peace that categorized the last eight 
years cross-strait relations, USPACOM seeks to assist the Taiwan 
military by looking into efficient (right side of cost asymmetry) and 
effective (real capabilities) solutions.
                               terrorism
    33. Senator Lee, Admiral Locklear, to what extent are al-Qaeda and 
other Islamic terrorist organizations operating, recruiting personnel, 
and accessing finance in your area of responsibility, and how do you 
assess the intelligence and counterterrorism efforts of the United 
States and our regional partners?
    Admiral Locklear. [Deleted.]
                              north korea
    34. Senator Lee, General Scaparrotti, the Russian government 
recently announced a ``Year of Friendship'' with North Korea and that 
Kim Jong-un will visit Moscow in May. What is your assessment of the 
Russia-North Korea relationship, and how will closer ties between these 
two countries impact our Pacific security?
    General Scaparrotti. [Deleted.]

    35. Senator Lee, General Scaparrotti, in your study of North Korean 
military strategy and the government's overall mentality, what do you 
believe are the most effective ways to deter their belligerent behavior 
towards the United States and our allies?
    General Scaparrotti. [Deleted.]

    36. Senator Lee, General Scaparrotti, US Forces Korea is currently 
authorized to have more than 28,000 personnel in South Korea, a trend 
that has historically declined over but remained nearly even since 
2005. What factors do you take into consideration when making your 
recommendation for U.S. force levels in South Korea, and how do you see 
force levels trending in the coming decade?
    General Scaparrotti. [Deleted.]

    37. Senator Lee, General Scaparrotti, what is the status of the 
plan to transfer war-time operational control to the South Korean 
military? What do you think needs to be done by the South Korean 
government and military to increase their military capabilities and 
decrease their reliance upon international forces on the Peninsula?
    General Scaparrotti. [Deleted.]



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 30, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

               U.S. EUROPEAN COMMAND PROGRAMS AND BUDGET

    The committee met, pursuant to notice, at 9:31 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Lee, 
Graham, Reed, Nelson, McCaskill, Manchin, Shaheen, Gillibrand, 
Donnelly, Hirono, Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee meets today to 
receive testimony on the posture of U.S. European Commander. I 
want to welcome our old friend, General Philip Breedlove, the 
Commander of the U.S. European Command and Supreme Allied 
Commander, Europe.
    General Breedlove, I want to thank you and your family for 
your dedicated service to the Nation. This committee relies on 
the candor of each of those in--of those in positions such as 
yours to conduct the oversight work we're sent here to do. So, 
I especially want to thank you, on behalf of this committee, 
for your honest and forthright presentation of the ongoing 
crisis in Ukraine over the past year. I might point out that 
each one of your predictions to this committee has been--and to 
the world--has, unfortunately, been proven to be true about the 
actions that Vladimir Putin continues to take in dismembering a 
sovereign nation.
    As Ian Brzezinski of--explained before this committee 
earlier this week, Europe and the NATO alliance face, 
``challenges on multiple fronts of unprecedented complexity and 
increasing urgency.'' To its south, the alliance faces a 
treacherous combination of state sponsors of terrorism, failed 
states, and extremist organizations. Already this year, radical 
Islamists attacked Paris and Copenhagen. Last week, in the 
Mediterranean, over 700 migrants perished tragically in a 
shipwreck, fleeing the conflict and instability of North 
Africa. And then there's Russia. To its north, the 
transatlantic community faces Russian militarization of the 
Arctic. And, to the east, NATO confronts Russia's invasion of 
Ukraine.
    Since the end of the Cold War, U.S. policy toward Russia 
was based on a bipartisan assumption that the Russian 
Government sought to integrate peacefully into the 
international order in Europe and to forge a constructive 
relationship with the United States. The events of the past 
year have overturned that assumption. Russia became the first 
state in seven decades on the European continent to send its 
military forces across an internationally recognized border and 
forcibly annex the sovereign territory of another state. Today, 
Russia maintains sizable numbers of artillery pieces and 
multiple rocket launchers on the territory of Ukraine, in 
violation of the February cease-fire agreement. The Russian 
military has recently deployed additional air-defense systems 
near the front lines in eastern Ukraine, the highest amount 
since last August, according to the State Department. It's a 
disturbing sign that another offensive may be imminent.
    In response, it is not that the United States and our 
European allies have done nothing. It is that nothing we have 
done has succeeded in deterring Putin's aggression and halted 
his slow-motion annexation of eastern Ukraine. Despite the 
advice of nearly every statesman and policy expert that has 
appeared before this committee in recent months, Henry 
Kissinger, George Shultz, Madeleine Albright, Zbig Brzezinski 
and others, and against the advice of both his Secretary of 
State and Secretary of Defense, the President of the United 
States has refused to provide defensive lethal assistance to 
Ukraine. The Ukrainian people aren't asking for U.S. troops. 
They're simply asking for the right tools to defend themselves 
and their country. The President's continued inaction for fear 
of provoking Russia is seen by Putin as weakness, and invites 
the very aggression we seek to avoid, and it only increases the 
likelihood this aggression could expand to places like Moldova, 
Georgia, the Baltic states, and Central Asia.
    Of course, there is no military solution in Ukraine, but 
there is a clear military dimension to achieving a political 
solution. As three major think tanks wrote recently, and I 
quote, ``Assisting Ukraine to deter attack and defend itself is 
not inconsistent with the search for a peaceful political 
solution, and it's essential to achieving it. Only if the 
Kremlin knows that the risks and cost of further military 
action are high will it seek to find an acceptable political 
solution.''
    Ultimately, we must recognize that we are confronting a 
challenge that many had assumed was resigned to the history 
books, a strong, militarily capable state that is hostile to 
our interests and our values, and seeks to overturn the 
international order in Europe that American leaders of both 
parties have sought to maintain since World War II. U.S. 
strategy and military posture in Europe should adjust to 
reflect this harsh reality. Yet, as Russia builds up, America 
draws down. The Obama administration eliminated two heavy 
brigades stationed in Europe in 2012. Yesterday, the Army 
announced the departure of 24 Apache helicopters and 30 Black 
Hawk helicopters from Germany. And we'll want to hear more from 
General Breedlove on a plan for a rotational presence and other 
efforts to reassure our allies.
    As Admiral Stavridis, the former SACEUR and EUCOM 
Commander, told this committee on Tuesday, ``Since the end of 
the Cold War, we're down 75 percent in personnel, we're down 75 
percent in the number of bases we have. We have, in my view, 
come to a line that we should not continue to diminish that 
presence further.''
    I'm also concerned about the fact that too many of our NATO 
allies continue to fail to provide for their own defense. 
Despite promises at the Wales Summit to reverse the trend of 
declining defense budgets, soon Poland and Estonia may be the 
only other allies meeting our alliance's commitment to spend 2 
percent of GDP on defense.
    In response to the broader challenge that Russia poses to 
security in Europe, it's not that the United States and NATO 
have done nothing. We have created a modest rapid-reaction 
force, increased air policing and sea patrols, expanded 
training and exercises, and deployed small numbers of 
additional forces to Estonia, Latvia, Lithuania, and Poland. 
The problem is, the actions we have taken seem inadequate to 
the scope, scale, and seriousness of the challenges we face.
    None of us want a return to the Cold War, but we need to 
face the reality that we are dealing with a Russian ruler who 
wants exactly that. The reason for maintaining a U.S. strong 
military presence in Europe is the same as ever: to deter 
conflict and aggression. But, we must revisit the question of 
what it will take to achieve this goal when confronting a 
revisionist Russia that is undergoing a significant military 
modernization and that is willing to use force, not as a last 
resort, but as a primary tool to achieve it's neo-imperial 
objectives. I hope today's hearing will help us to better 
understand the magnitude of the challenge we face in Europe.
    I thank General Breedlove for joining us today, and look 
forward to your testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    And, General Breedlove, welcome. Thank you for your many 
years of service, you and your family. And please pass along 
our gratitude to the service men and women of the U.S. European 
Command for their great service.
    Let me also thank the chairman for holding an excellent 
hearing on Tuesday with witnesses from outside the government 
on the security situation in Europe. That hearing, along with 
today's hearing, will help inform the committee's markup of the 
annual defense authorization bill. I must also say that the 
series of hearings that the Chairman has prepared over the 
course of this session has been extremely useful by having 
policy experts and then the relevant commanders come in. And 
thank you, Mr. Chairman. It's really enhanced this discussion 
and our insight.
    General Breedlove, you have responsibility to maintain the 
critical transatlantic relationship with Europe. As our 
witnesses on Tuesday emphasized, Europe does, indeed, matter 
for U.S. national security. Our European partners have made, 
and continue to make, significant contributions to coalition 
operations in the Middle East and South Asia. Our longstanding 
basing arrangements in Europe provide vital support to 
operations in CENTCOM and AFRICOM. And NATO remains a critical 
component of U.S. security, based on its members' shared values 
and interests.
    Today, EUCOM confronts a range of challenges in or around 
the European area, many of which have just recently arisen. 
Foremost is the threat from an increasingly confrontational and 
antagonistic Russia, which has revived old fears of a divided 
Europe. Russia's aggression against Ukraine has challenged the 
post-Cold War vision of a Europe whole, free, and at peace. 
EUCOM is leading efforts to respond to the hybrid warfare 
tactics used by Russia in seizing Crimea and secretly 
supporting separatist forces in eastern Ukraine. EUCOM and NATO 
have sought to counter Russia's false narrative on Ukraine, 
highlighting the continuing flow of heavy weapons, Russian 
military leadership and training to the separatists, in 
violation of the Minsk cease-fire agreements.
    General Breedlove, we would be interested in your 
assessment of the security situation in Ukraine and whether you 
believe heavy fighting is likely to resume in the coming weeks, 
as some are predicting. From early in the Ukrainian crisis, 
EUCOM has been working with the Ukranian government to identify 
military and security shortfalls, and advise in building 
Ukraine's capability to defend itself. There is broad support 
in this committee and in Congress for providing Ukraine 
military assistance, including lethal defensive weapons 
necessary for it to defend itself against further attacks. As 
discussed at Tuesday's hearing, any arming of Ukraine involves 
risk and needs to be done carefully and thoughtfully. But, as a 
recent report by several leading think tanks concluded, 
assisting Ukraine to deter attack and defend itself is not 
inconsistent with the search for a peaceful political solution. 
It is essential to achieving it.
    EUCOM has also played a critical role in reassuring our 
NATO allies closest to Russia. EUCOM has increased the 
presence, on a rotational basis, of U.S. military forces in 
eastern Europe, on the land, sea, and in the air. At the NATO 
Wales Summit, members approved a Readiness Action Plan and 
other steps to strengthen the alliance's capability to come to 
the aid of a member whose security is threatened. One issue I 
hope General Breedlove will address is whether U.S. forces in 
Europe are postured to deter further Russian aggression and 
whether this mission can be carried out over the coming years 
with the use of U.S. forces rotating into the European theater 
from bases back home.
    Ultimately, much will depend on whether NATO members 
fulfill their Wales commitments to achieve defense spending at 
a level of 2 percent of GDP in the coming years. The budget 
request includes nearly $800 million, on top of the 1 billion 
approved last year, for the European Reassurance Initiative to 
enhance the U.S. military presence and activities in Europe.
    EUCOM also must contend with security challenges along 
Europe's other borders. The transit across the Mediterranean of 
tens of thousands, possibly more, migrants fleeing instability 
in Libya, Syria, Eritrea, and elsewhere has overwhelmed 
countries in southern Europe. Efforts to respond to this crisis 
have been mixed, to date, and clearly more must be done soon as 
the violence and instability in Libya and elsewhere continues 
unabated.
    To the southeast, Turkey's porous border with Syria 
continues to attract foreign fighters traveling to the Syrian 
conflict and back, heightening the risk of future anti-Western 
attacks like those in Paris and Brussels, and adding to 
concerns about a rising ISIL presence in European cities.
    In the north, Russia's expanding militarization of the 
Arctic is potentially at odds with international efforts to 
promote cooperation and increase economic activity in this 
region.
    This is a long list. We look forward to your testimony and 
thank you for your service.
    Chairman McCain. Welcome back, General Breedlove. Thank 
you. Please proceed.

 STATEMENT OF GEN. PHILIP M. BREEDLOVE, USAF, COMMANDER, U.S. 
       EUROPEAN COMMAND/SUPREME ALLIED COMMANDER, EUROPE

    General Breedlove. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    It is an honor to be here representing the dedicated 
soldiers, sailors, airmen, marines, civilians, and the 
families, as you have both mentioned, of the U.S. European 
Command. Thank you for all you do to support them as they serve 
our Nation.
    Compared to just 1 year ago, Europe faces a very different 
and much more challenging security environment, one with 
significant lasting implications for U.S. national security 
interests. Our top concern, as both of you have mentioned, is a 
revanchist Russia.
    Russia is blatantly challenging the rules and principles 
that have been the bedrock of European security for decades. 
This is global, it's not regional. And it is enduring, not 
temporary. Russian aggression is clearly visible in its illegal 
occupation of Crimea and its continued operations in eastern 
Ukraine.
    In Ukraine, Russia has supplied their proxies with heavy 
weapons, training and mentoring, command and control, 
artillery, fire support, tactical and operational-level air 
defense, among others. Russia has transferred many pieces of 
military equipment into Ukraine, including tanks, armored 
personnel carriers, heavy artillery pieces, and other military 
vehicles. What we have seen over the course of the fight was 
that, when the Russian proxy offensive would ever run into 
trouble, Russian forces intervened directly to right the 
course.
    Today on the ground, the situation is volatile and it's 
fragile. Russian forces used the opportunities provided by the 
recent lull in fighting to reset and reposition while 
protecting their gains. Many of their actions are consistent 
with preparations for another offensive.
    The hope remains that both parties will fully implement an 
effective cease-fire as an important step towards an acceptable 
political resolution of the conflict, one that represents the 
internationally recognized border. I'm often asked, Should the 
United States and other provide weapons to Ukraine? What we see 
in Russia is an aggressive application of all elements of 
national power--diplomatic, informational, economic, as well as 
military. So, in my view, it would not make sense to 
unnecessarily take any of our own tools off the table.
    But, the crisis in Ukraine is about more than just Ukraine. 
Russian activities are destabilizing neighbor states and the 
region as a whole, and Russia's illegal actions are pushing 
instability ever closer to the boundaries of NATO. We cannot be 
fully certain what Russia will do next, and we cannot fully 
grasp Putin's intent. What we can do is learn from his actions. 
And what we see suggests growing Russian capabilities, 
significant military modernization, and an ambitious strategic 
intent. We also know that Putin responds to strength and seeks 
opportunities in weakness. We must strengthen our deterrence in 
order to manage this opportunist confidence.
    At the same time, Europe also faces the challenge of a 
surge in violent extremism. European nations are rightly 
worried about foreign fighters returning home to Europe from 
the fight in Syria and Iraq with new skills and with malign 
intent. Attacks like those in France, Belgium, and Denmark are 
only likely to become more frequent. Foreign fighters are part 
of a much broader pattern of insecurity to Europe's south, with 
roots in the Middle East and North Africa, transit routes are 
shared by violent extremists, organized criminal networks, and 
migrant populations fleeing difficult conditions in Libya and 
other undergoverned spaces. The spread of instability into 
Europe and the transnational terrorism we all face could have a 
direct bearing on the National security of the U.S. homeland.
    EUCOM is working with European nations bilaterally and 
supporting NATO alliance initiatives to meet and counter this 
new and more complex security environment. Based on the 
decisions made at NATO's Wales Summit last year, the alliance 
is adapting in order to improve its readiness and its 
responsiveness. The Readiness Action Plan, or RAP, is well 
underway. Our allies are stepping up, making contributions that 
give them a real stake in the outcome. The United States will 
have a key and sustained role to play in supporting and 
enabling these changes, especially in critical areas that are 
hardest for our allies to provide, like lift, sustainment, and 
enablers such as intelligence, surveillance, and 
reconnaissance.
    At the same time, our own U.S. efforts in Europe remain 
essential. Our leadership is perhaps more important now than at 
any time in recent history. Since Russian troops illegally 
occupied Crimea last year, U.S. forces, under the banner of 
Operation Atlantic Resolve, have continued to take concerted 
steps to assure allies of our commitment to their security and 
to Article 5 of the North Atlantic Treaty, the common defense 
cornerstone of our transatlantic security. EUCOM air, land, 
maritime, and Special Operation Forces have maintained presence 
in all three of our NATO allies in the Baltics, Poland, 
Romania, and Bulgaria, as well as the Black Sea, providing an 
array of capabilities, including airborne armor, mobile 
infantry, light fighter, strike fighter, advanced air, and 
maritime presence, in addition to training, advising, and 
exercising with host-nation forces. You have made most of this 
persistent presence possible through your support of the 
European Reassurance Initiative, or, ERI. The assurance 
measures it supports enable the alliance to remain strong and 
cohesive in this new security environment.
    In facing both of these serious challenges to Europe's east 
and to its south, EUCOM is working closely with many others--
our sister COCOMs, NATO partners, as well as allies and other 
international organizations, including the European Union. 
There is plenty of work to go around. And our collaboration and 
our unity are essential. EUCOM is also drawing heavily on great 
new efforts underway in the Department of Defense, not the 
least the Defense Innovation Initiative, which applies cutting-
edge approaches to some of the toughest challenges in our 
theater, like anti-access area denial.
    The strong threat posed by Russia and the growing challenge 
to the south lead me to three areas where EUCOM could 
particularly use your help:
    First, sufficient forward--persistent forward presence. Our 
forward presence in Europe is the bedrock of our ability to 
assure allies, to deter real and potential adversaries, and to 
be postured to act in a timely manner, should deterrence fail. 
It was our permanent presence in Europe that gave EUCOM the 
ability to respond immediately after Russian troops illegally 
occupied Crimea. Soldiers from the 173rd Airborne Brigade in 
Germany deployed to the Baltic states and Poland within 96 
hours of receiving their mission. And our F-15s from 
Lakenheath, England, began flying missions out of Poland within 
18 hours of being giving the mission. That same permanent 
presence ensures that EUCOM can play a full array of essential 
supporting roles for other combatant commands, from neighboring 
AFRICOM and CENTCOM to STRATCOM and TRANSCOM. Rotational 
presence is not a substitute for permanent forward presence in 
building relationships or signaling our commitment, but a fully 
funded rotational presence can play an important role in 
helping meet the requirements in our theater if it is heel-to-
toe and properly resourced.
    The second area is sufficient intelligence support. Since 
the end of the Cold War, our Nation's community of Russian-area 
experts has shrunk considerably, and intelligence assets of all 
kinds have been shifted to the wars we've been fighting or to 
understanding potential future threats. Russian military 
operations over the past year in Ukraine and the region more 
broadly have underscored that there are critical gaps in our 
collection and analysis. Some Russian military exercise have 
caught us by surprise, and our textured feel for Russian 
involvement on the ground in Ukraine has been quite limited. 
Earlier indications and warning and the ability to better 
understand Moscow's thinking and intent are absolutely critical 
for avoiding future surprise and miscalculation, for deterring 
effectively, and for preparing to respond, if required. Getting 
this right requires more ISR, high-power analytical support, 
and appropriate intelligence-sharing with allies and partners. 
The same holds true for effectively waging counterterrorism and 
counter-ISIL operations in and through the European theater. A 
small investment in this capability could lead to a large 
return in our understanding of the complex challenges we face.
    Third and finally is sufficient future resourcing. In the 
near term, EUCOM's particular request for your support for a 
European Reassurance Initiative for fiscal year 2016 is 
important. Your support for ERI in 2015 demonstrated commitment 
to our allies, increased our ability to shape the European 
theater, and allowed EUCOM to build and sustain the capacity of 
our allies and partners. The request for ERI in fiscal year16 
builds on this initiative. Key components include maintaining 
air superiority presence, participating in NATO exercises, 
supporting the rotational presence of an armored brigade combat 
team, pre-positioning equipment, funding the Global Response 
Force exercises, and fostering SACEUR engagement with partners, 
and increasing Guard and Reserve participation across the 
field.
    We understand these reassurance measures come at a cost, 
and in the current budget environment, additional cost means 
making tough decisions. As a result of previous constraints, 
our EUCOM readiness has already assumed greater risk. 
Specifically, our deployment timelines are longer, our 
preparations are less robust, and our fundamental ability to 
deter and defeat in a timely and effective manner is less sure 
than it was a decade ago. As Secretary Carter testified 
recently, further reductions would damage our National security 
and have a direct and lasting impact on our ability to protect 
and defend the Nation in and from the European theater.
    Meanwhile, the security challenges in and around Europe are 
growing sharper and more complicated. Your support for EUCOM's 
mission and your tireless efforts to chart a long-term path 
toward resourcing a strong national defense are critical steps 
to ensuring the enduring ability of EUCOM and DOD to protect 
and defend this great Nation.
    From the dedicated men and women serving in our European 
theater, thank you. Thank you for your time and your attention. 
And I now look forward to taking your questions.
    [The prepared statement of General Breedlove follows:]

           Prepared Statement by Gen. Philip Breedlove, USAF
                            i. introduction
    It is an honor for me to lead the soldiers, sailors, airmen, 
marines, and civilians of the U.S. European Command (EUCOM). Those 
assigned and deployed from the European theater sent into harm's way, 
in Afghanistan and elsewhere, are particularly within the thoughts of 
the command. I want to thank this committee for all of the support it 
has offered them.
    EUCOM has experienced dramatic changes in the security situation on 
the European continent over the last 12 months, forming a new European 
security environment. These changes have significant ramifications for 
U.S. national security interests and those of our European allies and 
partners. As a result, we are assessing the threat to U.S. and North 
Atlantic Treaty Organization (NATO) allies in the theater and beyond. 
Even as we continue to lean forward with our NATO allies and partners 
in response to the conditions in this new environment, fully addressing 
these growing challenges and their long-term implications requires a 
reformulation of the U.S. strategic calculus and corresponding 
resourcing levied towards Europe.
    In the statement I submitted to this committee last year, I 
described in detail how important our NATO allies and non-NATO partners 
in Europe are to American safety and security--their importance is even 
greater today. EUCOM must be able to assure, deter, and defend against 
Russian aggression; support ongoing and future contingency operations; 
counter transnational threats; and help build our partners' capability 
to help us accomplish these missions, thereby enhancing regional and 
global security.
    Our many shared values, interests, and economic interdependence 
with Europe provides unique opportunities and assets for collective 
security as well as global security cooperation. The United States 
depends on our willing and capable allies and partners throughout 
Europe to work with us to fully defend our national security interests 
and to respond to crises around the world. Time and again, our allies 
and partners in Europe have proven essential to U.S. military 
operations by allowing us access, including bases, transit, and 
overflight rights for U.S. forces as well as providing enhanced 
legitimacy and operational capability through the participation of ally 
and partner nation military forces in undertakings in Europe, around 
Europe and often far from Europe.
    Maintaining our strategic alliance with Europe is vital to 
maintaining U.S. national security and is not to be taken for granted. 
We must reassure our European allies and partners through the United 
States' commitment to NATO and the credibility of that commitment 
fundamentally rests upon the capabilities, readiness, and 
responsiveness of U.S. military personnel stationed in Europe. The 
forces assigned to EUCOM are the United States' preeminent forward 
deployed force and fulfill the United States' primary treaty obligation 
to NATO. Our permanent presence also allows us to maximize the military 
capabilities of our allies. Permanently stationed forces are a force 
multiplier that rotational deployments can never match. EUCOM must be a 
stabilizing force on multiple fronts. Nations on Europe's Southern 
flank are concerned the focus on Eastern Europe may draw attention and 
resources away from their region, allowing for an unmonitored flow of 
foreign fighters, economic and political refugees, and unchecked 
illicit trafficking of goods and humans from an arc of instability 
stretching across large parts of northern Africa through the Middle 
East. In the Levant, persistent threats from other countries and non-
state actors drives continued security concerns in Israel.
    Multiple ongoing conflicts in the Middle East and Africa also 
require EUCOM to use its limited resources to support missions 
occurring in the U.S. Central Command (CENTCOM) and U.S. Africa Command 
(AFRICOM) areas of responsibility. EUCOM works closely with our 
bordering Combatant Commands to ensure there are no seams as we address 
issues crossing geographic boundaries, supporting CENTCOM and AFRICOM 
operations to protect U.S. national interests. Each of these security 
situations reinforces the importance of EUCOM and NATO to our long-term 
vital national security interests.
    After years of force structure and other personnel reductions, 
fewer than 65,000 U.S. military personnel remain permanently stationed 
in Europe to secure and advance U.S. national interests from Greenland 
to Azerbaijan and from the Arctic to Israel. The size of our military 
presence forces difficult decisions daily on how to best use the 
limited resources we have to assure, stabilize, and support. I ask you 
for your support and favorable consideration of the U.S. role in 
addressing the new European security environment and helping me set the 
theater. As the Commander of EUCOM, Supreme Headquarters Allied Powers 
Europe (SHAPE) and Allied Command Operations for NATO, I support the 
goal of a Europe that is whole, free, at peace, and prosperous. It is 
with this in mind that I consider Europe's current security situation.
                        ii. assessing the threat
    As mentioned, EUCOM is working within the framework of a new 
European security environment, focused on countering three primary 
security threats: Russian aggression in the East, foreign fighter flow 
between Europe and the Levant, and transnational threats stemming from 
North Africa.
A. Eastern Flank: Russia and Periphery
    For almost 2 decades, the United States and Europe have engaged 
with Russia as a partner, seeking to build relationships militarily, 
economically, and culturally. In 1994, Russia became a Partnership for 
Peace member with NATO. That same year, Russia, the United States, and 
the United Kingdom signed the Budapest Memorandum, reaffirming 
commitments made by all parties under the Helsinki Final Act and the UN 
Charter to ``respect the independence and sovereignty and the existing 
borders of Ukraine.'' Under the 1997 Founding Act, NATO made a 
political commitment that, ``in the current and foreseeable security 
environment,'' the Alliance would carry out its collective defense and 
other missions without ``additional permanent stationing of substantial 
combat forces.'' In 2009, the United States sought to ``reset'' its 
relationship with Russia, which had been damaged by the 2008 Russian 
invasion of the Republic of Georgia. During this period, the Department 
of Defense made security and force posture determinations significantly 
reducing European force structure based on the assumption that Russia 
was a partner.
    Despite these and many other U.S. and European overtures of 
partnership, Russia has continued to view its own security from a zero-
sum point of view. Since the beginning of 2014, President Putin's 
Russia has abandoned all pretense of participating in a collaborative 
security process with its European neighbors and the international 
community. Instead, Russia has employed ``hybrid warfare'' (which 
includes regular, irregular, and cyber forms of war as well as 
political and economic intimidations) to illegally seize Crimea, foment 
separatist fever in several sovereign nations, and maintain frozen 
conflicts within its so-called ``sphere of influence'' or ``near 
abroad.'' Undergirding all of these direct approaches is the pervasive 
presence of the Russia propaganda machine, which inserts itself into 
media outlets globally and attempts to exploit potential sympathetic or 
aggrieved populations.
    Russia uses energy as a tool of coercion. Many former-Soviet bloc 
and Eastern and Central European states have long been concerned about 
Russia's intentions in Europe and they consider the Ukraine crisis the 
latest validation of their concerns. Recent Ukrainian and Russian 
energy negotiations show how Russian coercion threatens broader 
European cooperation as individual countries must weigh their own 
security and economic concerns. Russia's coercion using energy has 
grown along with Russia's threats and outright use of force.
    As a result, there are growing security concerns among Central and 
Eastern European countries that are members of NATO and the European 
Union or are seeking closer ties with the trans-Atlantic community. 
Having already experienced the use of Russian military force in the 
1990s and in 2008, Georgia is especially threatened by Russian 
occupation of Abkhazia and South Ossetia. The Baltic States have 
demonstrated their concern by increasing military interaction with U.S. 
and NATO forces, which has resulted in more U.S. and allied forces in 
NATO's Baltic Air Policing mission and the deployment of U.S. 
rotational ground forces to the Baltics and Poland to foster 
interoperability through training and exercises. U.S. Special 
Operations Forces training events were also initiated throughout the 
Baltics and Eastern Europe at the request of the host nations. We must 
continue to work with NATO to provide enduring support to the security 
of our allies and partners in this area.
    Russia views Ukraine as part of its sphere of influence, regardless 
of the views of the Ukrainian people. While Russia's aggressive actions 
in Ukraine are the most current manifestation in a pattern of 
continuing behavior to coerce its neighbors in Central and Eastern 
Europe. Beyond its actions in Georgia and Ukraine, other examples of 
this pattern are suspending participation in the Conventional Armed 
Forces in Europe Treaties; the ZAPAD 2013 snap exercise along the 
borders of the Baltics and Poland; intercepts of U.S. aircraft and 
shadowing of U.S. ships in international airspace and waters; basing 
Russian fighter aircraft in Belarus; threats to deploy nuclear-capable 
Iskander-M missiles in Kaliningrad; and pressure on former Soviet 
states through the manipulation of prolonged, ``frozen'' conflicts.
B. Eastern Flank: Vulnerability of NATO Partnership for Peace Countries
    As U.S. partners, Georgia, Moldova, and Ukraine face a different 
security challenge from Russia than that facing NATO allies. All three 
countries have implemented political and economic reforms to advance 
democracy and integrate with Europe; however, their ability to make 
further progress is significantly constrained by Russian interference 
and pressure. Russia occupies portions of their territory with its 
military forces, wields economic leverage and energy dependence as 
coercive instruments, exploits minority Russian populations to serve 
its interests, interferes in democratic processes, engages in bribery 
and coercion of government officials, and generates a constant 
propaganda deluge.
    Even as these three countries face severe threats to their 
sovereignty and territorial integrity, they continue to make meaningful 
contributions to international security. Since 2010, Georgia has 
rotated 14 battalions to Afghanistan in support of the International 
Security Assistance Force (ISAF) and 3 additional battalions in support 
of the Resolute Support mission, and is currently the second largest 
contributor after the United States. Ukraine has been the largest 
provider of vertical lift capability to U.N. peacekeeping operations 
around the world and has also contributed troops and resources to ISAF, 
NATO's Kosovo Force (KFOR), and NATO's maritime operations, and Moldova 
contributes a platoon to KFOR.
    In addition to conducting expeditionary operations and while having 
differing objectives regarding the scope of their integration with 
NATO, all three countries strive to develop military forces meeting 
NATO standards and interoperability requirements; however, their 
efforts face a number of challenges, as all three countries require 
deep institutional reforms to efficiently generate, organize, equip, 
and sustain their armed forces. They must also continue and accelerate 
their transition from Soviet-era systems to modern, NATO-interoperable 
systems and equipment. These countries have severely limited resources 
available to address these requirements. Thus, U.S. security assistance 
to train, advise, and equip the national security forces of Georgia, 
Ukraine, and Moldova is absolutely essential.
    Recent Russian activities are forcing our partners to reevaluate 
their strategic requirements, including reassessing the relative 
importance of their ability to contribute toward NATO or U.N. 
operations. These countries must balance the national responsibility of 
their armed forces to defend their own sovereignty and territorial 
integrity with that of contributing to regional and global security 
beyond their borders. For many years, a partner's contribution to 
regional security was measured, at least in part, by its force 
contribution to international peacekeeping missions. Now that these 
nations face an even more aggressive Russia, their ability to protect 
their own borders and enforce their own sovereignty is understandably 
more urgent than acting as a force provider for peacekeeping missions 
abroad.
C. Eastern Flank: Russian Use of Frozen Conflicts as a Foreign Policy 
        Tool
    Describing the prolonged conflicts in states around the Russian 
periphery as ``frozen'' belies the fact that these are ongoing and 
deadly affairs. In Georgia, there are conflicts in Abkhazia and South 
Ossetia. A clear purpose behind Russia's invasion of Georgia and its 
continued occupation of Georgian territory is to prevent Tbilisi from 
pursuing its rightful and legitimate intentions to become a full member 
of the European and transatlantic communities. Toward that end, Russia 
has signed a ``treaty'' with Abkhazia and is pushing for another with 
South Ossetia to increase its influence while hampering Georgia's Euro-
Atlantic integration In Moldova, Russian forces have conducted supposed 
``stability operations'' since 1992 to contain the conflict in 
Transnistria. In fact, Russia deliberately and actively perpetuates 
these conflicts by manipulating its support to the participants, while 
engaging in international diplomatic resolution efforts only to the 
extent necessary to prevent the resumption of all-out violence.
    Russia uses these conflicts to maintain its influence and deny 
these states' ability to make their own foreign and security policy 
choices and chart their own futures. Those pretending to lead these 
Russian-created quasi-states rely on Russia to maintain the status quo 
and therefore, cannot stray far from Russia's preferences. These 
unresolved disputes may not represent active war, but impede the 
democratic development of the concerned states. Just as the oppressed 
nations of the Warsaw Pact served as strategic buffers to the Soviet 
Union, so the current arc of frozen conflicts is part of a security 
buffer for a modern, paranoid Russia. This fits into a greater ``buffer 
policy'' sought by Russia, complemented by other dubious--yet 
aggressive--claims, such as its militarization of the Arctic and its 
military exercises on the Kuril Islands over its dispute with Japan.
D. Western Balkans: Challenges and Unresolved Issues
    Significant challenges to peace and prosperity with the Western 
Balkans persist. EUCOM engages in a number of cooperative endeavors 
that provide an area of common interest, building confidence and good 
relations between former warring factions to reduce the likelihood of 
renewed fighting in the region. The Balkans Medical Task Force is one 
specific example of how EUCOM helps foster such cooperation by 
assisting the Balkan states in building a regional, deployable 
humanitarian assistance and disaster response capability.
E. Southern Flank: Turkey as a Lynchpin to Security in the Black Sea
    Persistent instability in the Levant and beyond remains a top U.S. 
and European national security concern and threatens U.S. interests 
throughout Europe and the Homeland. The Islamic State of Iraq and the 
Levant (ISIL) controls territory just across NATO's southern border and 
it actively recruits and trains foreign fighters destined to return to 
their countries of origin. Extremist actors, exemplified by ISIL, have 
an inordinate impact on Europe's periphery. The Syrian crisis is 
destabilizing the entire region, and the regional repercussions are 
likely to persist for years to come. Israel faces a more complex 
environment, complicating their political and military calculus and 
their need for U.S. support.
    Turkey is in the unenviable position of having to hold NATO's 
Southern Flank. Turkey, and important NATO ally, is understandably very 
concerned by the ongoing crises in Syria and Iraq, which are generating 
significant security, political, economic, and humanitarian challenges 
across the region. These challenges include the influx of refugees and 
foreign terrorist fighters, and increased terrorist activity. EUCOM 
continues to work with Turkey and CENTCOM to address these multiple 
threats.
    Finally the flow of returning foreign terrorist fighters to Europe 
and the United States in both the near- and mid-term poses a 
significant risk, including to our forward based forces in Europe. 
Foreign terrorist fighters are active in multiple conflict zones, 
gaining experience and contacts that could lead them to conduct 
terrorist attacks after returning home. Actively encouraged by ISIL, 
returned foreign fighters are mounting so-called ``lone wolf'' attacks. 
This problem will grow in scope as the flow of returning individuals 
increases over time.
F. Southern Flank: Instability in the Middle East and North Africa 
        Region
    The security environment on Europe's Southern Flank, broadly 
defined as the Middle East and North Africa, is likely to remain 
unstable and likely grow more complex for the next decade or longer. 
This environment is characterized by political chaos; ethnic, tribal, 
and religious tensions; pervasive corruption; and weak security 
institutions. These factors have created conditions that allow illicit 
trafficking, to include the smuggling of narcotics, humans, and weapons 
into Southern Europe and beyond. Transnational criminal organizations 
continue to take hold and further destabilize the region, posing a 
growing economic and security risk to countries on Europe's Southern 
Flank. The threat of highly contagious diseases spreading through 
unmonitored personnel movements and illicit trafficking channels, such 
as the Ebola virus, represent another potential threat.
    The countries of southern Europe are currently facing massive 
migration flows from Northern Africa. In August 2012, Greece began an 
operation to curb and tackle illegal migration into its country. In 
October 2013, Italy began a similar operation to patrol the Strait of 
Sicily and the southern Mediterranean following the death of more than 
350 African refugees off the Italian island of Lampedusa. Since its 
start, Italy has intercepted or rescued more than 100,000 illegal 
migrants while 3,000 have drowned in the Mediterranean Sea. Dealing 
with illegal migration adds to the burdens of Allied Navies, 
particularly Italy's, and pulls them from other missions. Due to 
concerns raised by European countries along the Mediterranean Sea, 
FRONTEX launched Operation Orion Triton in October 2014 to help nations 
cope with the illegal migration crossings from North Africa and the 
Middle East. Although most European countries do not perceive the 
ongoing situation in North Africa as a direct threat to their national 
security, the majority views the increased illegal migration flow as a 
serious economic and humanitarian problem. EUCOM continues to work with 
our allies on this issue.
    Continued tensions between Israel and the Hamas-led Government in 
Gaza resulted in open warfare beginning in June 2014 leading Israel to 
launch Operation Protective Edge. Scores of infiltration tunnels were 
found and between June and September 2014 over 2,500 rockets were 
launched from Gaza into Israel. Fortunately, the Iron Dome system 
effectively neutralized many of these rockets. EUCOM monitors the 
situation between Israel and Hamas closely, consulting with Israel and 
providing logistical support.
G. Arctic Region
    The Arctic region is a growing strategic area of concern from both 
an environmental, resource, and security perspective. Environmentally, 
changing climate conditions will allow the Northern Sea Route and 
Northwest Passage to open for longer periods each year, meaning greater 
access to the Arctic. Less ice coverage will lead to increased shipping 
traffic and attract more industry and tourism. From a resource 
perspective, we seek to work cooperatively to ensure exploration and 
extraction does not lead to conflict. From a security perspective, 
Russia's behavior in the Arctic is increasingly troubling. Their 
increase in stationing military forces, building and reopening bases, 
and creating an Arctic military district to counter an imagined threat 
to their internationally undisputed territories does not fit the 
direction or interests of the seven other Arctic nations. Despite 
Russia's increasing militarization of the Arctic, EUCOM continues to 
work with our Arctic public and private partners to create a secure and 
stable region. This is critical to safeguarding U.S. national 
interests, insuring the U.S. Homeland is protected, and for nations 
working cooperatively to address challenges through our sponsorship of 
the Arctic Security Forces Roundtable and combined Arctic specific 
exercises like Arctic Zephyr.
      iii. reassuring our allies and deterring russian aggression
A. Operation Atlantic Resolve
    Operation Atlantic Resolve uses U.S. access and strategic reach to 
develop a unified response to revanchist Russia. EUCOM continues to 
take positive steps to reassure our allies along NATO's eastern flank 
and to deter potential Russian aggression against our NATO allies and 
partners. Since the beginning of Russia's intervention in Ukraine, 
EUCOM's strategy has continued to evolve and demonstrates the 
commitment of the United States to NATO's overarching principle of 
collective defense. The cornerstone of EUCOM's strategy is physical 
presence. Coupled with our visible commitment to maintain capabilities, 
readiness, responsiveness, and our strategic level messaging, our 
presence demonstrates, to friend and foe alike, our absolute commitment 
to the sovereignty and security of every Ally.
    The credibility and effectiveness of our response to Russian 
aggression in the east and growing threats in Southern Europe depend 
not only on the operational scale and geographic scope of our 
operations, but also their persistence and longevity. A temporary surge 
in rotational presence, for example, will not have lasting effect 
unless it is followed by the development and fielding of credible and 
persistent deterrent capabilities. Forward deployed air, land, and sea 
capabilities permits the United States to respond within hours versus 
days as crises emerge. We must follow our near-term measures with 
medium-term efforts to adapt the capabilities and posture of United 
States, NATO, allies, and partners to meeting these new challenges. We 
must accelerate this adaptation because we now face urgent threats 
instead of the peacetime environment previously anticipated. NATO and 
our European allies have recognized the absolute requirement to 
effectively counter Russian coercive pressure in the east as well as 
urgent threats in the south.
    NATO has adopted the Readiness Action Plan (RAP) designed to meet 
quickly emerging threats emanating from both NATO's eastern and 
southern flanks. The RAP features forces that can deploy in days--not 
weeks, an improved command and control capability (including forward 
headquarters), and the regular presence of NATO rotational forces in 
Eastern Europe for exercises and training. U.S. support to the RAP will 
be essential to its long-term success. Our European allies have already 
offered to serve as primary contributors of land forces to the 
envisioned Very High Readiness Joint Task Force (VJTF), but U.S. 
participation with key enablers is critical to Alliance cohesion and 
capability. EUCOM is also responsible for implementing other key 
aspects of our support to the RAP, such as maintaining continuous 
presence in the East, enhancing the capabilities of Multinational Corps 
North East, and the establishment of a NATO command and control 
presence on the territories of eastern allies.
    1. The Baltics and Poland
    As a response to events in Ukraine, EUCOM augmented scheduled 
multinational and joint exercises and deployments to provide a near-
continuous air, land, and sea presence in the Baltic States and Poland, 
assuring them of the U.S. commitment to NATO. The intent of our actions 
is to demonstrate the ability and resolve to act together as an 
Alliance in the face of the challenges from Russia, while avoiding 
escalation. Our continuous presence and engagement activities in the 
Baltics and Poland fall under the umbrella of Operation Atlantic 
Resolve.
    U.S. rotational force to the Baltics began on March 6, 2014, when 
the United States deployed an additional six F-15Cs to augment the four 
already in Lithuania, fulfilling a NATO Baltic Air Policing peacetime 
requirement to have quick reaction interceptor aircraft ``ramp-ready.'' 
Poland took over the Baltic Air Policing mission on May 1, 2014 with 
augmentation from the United Kingdom, Denmark, and France. Polish and 
British aircraft operated from Siauliai Air Base in Lithuania, Danish 
aircraft from Amari Air Base in Estonia, and French aircraft from 
Malbork Air Base in Poland. This pattern of enhanced Baltic Air 
Policing continues with 4-month rotations. Simultaneously, the United 
States established a persistent flight training deployment in Poland, 
consisting of either fighter or transport aircraft. These deployments 
continue to be a method to increase allied force interoperability as 
well as provide assurance to Poland and other regional allies. Also, 
beginning in March 2014, U.S. Air Forces Europe (USAFE) began providing 
air-to-air refueling support to NATO AWACS aircraft conducting 
operations along NATO's eastern flank.
    At the end of April 2014, the U.S. Army's 173rd Infantry Brigade 
Combat Team (Airborne) quickly deployed company-sized contingents of 
U.S. paratroopers to Poland, Latvia, Lithuania, and Estonia to begin 
expanding land forces training. These deployments established a 
persistent U.S. military presence in these countries and demonstrated 
U.S. assurance and a commitment to Article 5. These exercises, which 
came at the request of the host nations, work to improve 
interoperability through small unit and leader training. In October, 
the 1st Brigade, 1st Cavalry Division (1/1 CD) out of Fort Hood, TX, 
conducted a Relief in Place (RIP) with units of the 173d in the Baltic 
States and Poland. Since assuming the mission from the 173d, 1/1 CD has 
participated in exercises, such as Playground and Iron Sword. Most 
recently, soldiers from the 2nd Cavalry Regiment stationed in Germany 
have deployed to the Baltics and Poland, continuing our persistent 
reassurance to our NATO allies. Additionally, USAFE elements deployed 
to Poland to conduct bi-lateral training with the Polish Air Force and 
rotations will continue through 2015.
    In 2014, beyond previously scheduled exercises, U.S. Special 
Operations Forces expanded the number and frequency of Joint Combined 
Exchange Training (JCET) events in the Baltic States and Poland. 
Special Operations Command Europe (SOCEUR) has maintained a near 
continuous presence in the Baltic States and Poland from June 2014 to 
the present. These training deployments have proven invaluable for our 
special forces, with indirect benefits for their Allied counterparts. 
Additionally, EUCOM forces conducted 67 other significant military-to-
military engagements with the Baltic States and Poland from April to 
October 2014.
    2. Romania and Bulgaria
    Romania and Bulgaria continue to be steadfast U.S. allies. Access 
to training areas and transit locations in these nations provide a 
basis to send a strong signal to Russia, while forging stronger 
bilateral working partnerships. Romania remains a key ally, offering 
tremendous support to ISAF's retrograde from Afghanistan and the 
Resolute Support Mission by allowing U.S. and NATO forces use of its 
base in Mihail Kogalniceanu (MK). MK is a key node for multi-modal 
operations and an ideal example of the bilateral cooperation and 
strategic access forward deployed forces in the European theater 
provides.
    Romania has offered to host a new Multinational Division 
Headquarters. Bulgaria has committed to play a greater role in NATO and 
European defense by 2020, and made contributions to our efforts in 
Afghanistan. These offers demonstrate Romanian and Bulgarian resolve to 
be key allies in deterring Russian aggression and building a stronger 
eastern flank. In Romania, Bulgaria, and Georgia, the Marine Corps' 
Black Sea Rotational Force provides EUCOM with a limited land-based and 
contingency response force in the Region, while additional rotational 
forces from the U.S. Army will come into Romania and Bulgaria this 
summer.
    Romania's cooperation on such areas as missile defense, the 
Resolute Support Mission, and Afghanistan retrograde, and Bulgaria's 
work to expand Alliance and bilateral use of the Novo Selo Training 
area, are positive contributions to regional and Alliance Security.
    3. Georgia, Moldova, and Ukraine
    Georgia, Moldova, and Ukraine continue to offer significant 
opportunities for cooperation, furthering both regional security, and 
in some cases, acting as willing and capable partners in coalition 
operations. In Georgia, NATO and the United States have long invested 
in improving defensive capabilities, continuing multinational exercises 
that contribute towards both enhanced capability and deterrence efforts 
in the region. In Ukraine, we have increased our security assistance in 
response to the crisis, committing over $118 million in 2014 to help 
Ukrainian forces better monitor and secure their borders and operate 
more safely and effectively, and preserve Ukraine's territorial 
integrity. We also continue to conduct planned exercises such as Rapid 
Trident to increase interoperability among Ukraine, U.S., NATO and 
Partnership for Peace member nations. The most recent Rapid Trident 
iteration in September 2014 consisted of multinational battalion-level 
field training exercise and saw the participation of 15 countries with 
approximately 1,300 personnel. An upcoming train and equip program for 
its security forces demonstrates U.S. resolve towards increasing 
Ukrainian capacity to provide for its internal and territorial defense.
    Despite increasing Russian presence in the region, EUCOM has 
increased U.S. maritime presence in the Black Sea through Passing 
Exercises (PASSEXes) and other bilateral and multinational exercises. 
Since April 2014, U.S. Naval Forces Europe (NAVEUR) has maintained a 
monthly periodic presence in the Black Sea, and led the Baltics 
Operations exercise in the Black Sea with numerous Allied and partner 
nations. Despite Russia's increased and aggressive posture in the 
region, NAVEUR also conducted exercise Sea Breeze in September 2014 
with multinational support from Turkey, Romania, and Georgia. Active 
discussions are underway for next year's iteration of Sea Breeze, which 
will continue our engagement with the Ukrainian Navy and other Black 
Sea maritime partners.
B. European Reassurance Initiative
    I would like to thank this committee for supporting the European 
Reassurance Initiative (ERI). Your support directly enables EUCOM's 
ability to strengthen its posture along NATO's eastern flank in order 
to demonstrate commitment to our NATO allies, and deter further Russian 
aggression. The ERI will provide temporary support to bolster the 
security of NATO allies and partner states in Europe, enable 
adjustments to U.S. defense posture along NATO's eastern flank, and 
maintain momentum in conducting operations to demonstrate our 
commitment to our European Allies and partners. ERI funds will enable 
the development of infrastructure at key locations in the east to 
support exercise and training activities for both the United States and 
NATO, as well as support contingency operations. Additionally, ERI will 
fund improvements to airfields in Eastern and Central Europe along with 
improvements at training ranges and operations centers. Finally, our 
plan also includes enhancing available prepositioning, focused on the 
addition of a rotational Armored Brigade Combat Team set and related 
assets into several NATO Member nations.
C. Building Partnership Capacities (BPC)
    Congressional support over the past several years enabled EUCOM to 
accelerate and expand efforts to build capacity of Eastern European 
allies and partners to contribute to operations in Afghanistan. With 
U.S. training and equipment, these countries made substantial strides 
in developing NATO-interoperable capabilities to conduct special 
operations, intelligence analysis and exploitation, counter improvised 
explosive devices, coordinate close air support, and maneuver in 
combat. They brought these capabilities to bear in support of ISAF, 
further developing their interoperability and gaining experience on the 
battlefield in Afghanistan now in support of NATO's Resolute Support 
mission in Afghanistan.
    Even prior to the recent events in Ukraine, EUCOM was examining 
ways to preserve interoperability gains and expeditionary capability 
following ISAF. EUCOM launched our first ``post-ISAF'' program in 2014, 
implementing the Secretary of Defense's 2012 decision to reinvigorate 
U.S. land forces participation in the NATO Response Force (NRF). The 
1st Armor Brigade Combat Team, 1st Calvary Division (1/1 CD ABCT), 
based in Fort Hood, TX, began its 12-month mission as the U.S. 
contribution to NRF in January 2014. In May 2014, the Brigade deployed 
2nd Battalion, 5th Calvary Regiment (2-5 CAV) to Germany to exercise 
with our allies and partners. While here, 2-5 CAV conducted Exercise 
Combined Resolve II at the U.S. Army Europe's (USAEUR) Joint 
Multinational Training Command, which trained 1,451 personnel from 13 
countries and helped to enhance NRF interoperability and readiness.
    The end of ISAF and the events in Ukraine require the United States 
to shift the focus of our foreign military training and equipping 
programs preparing allies and partners for deployment to Afghanistan, 
to restoring and/or building ally and partner nation capability to 
address the challenges of hybrid warfare and to territorial defense. 
However, the BPC authorities and funding available to EUCOM to equip 
and train foreign military forces are largely limited to preparing 
forces for counterterrorism and deployment to Afghanistan. EUCOM needs 
continued assistance from Congress to provide adequate funding under 
existing authorities, to build partner capacity and address the complex 
challenges of the new European security environment.
    For example, section 2282 and other authorities have been 
invaluable in providing allies and partners with the equipment needed 
to deploy to Afghanistan. Much of this equipment--such as night vision 
goggles; communications; counter-improvised explosive devices; and 
intelligence, surveillance, and reconnaissance (ISR) systems--is 
equally relevant to joint combined arms warfare. With the end of ISAF, 
our allies and partners are bringing much of this equipment home. To 
ensure the capabilities we have helped build are enduring and available 
to meet the urgent challenges we now face, the United States needs to 
be prepared to assist these countries, as appropriate, with sustainment 
of U.S.-provided systems. The only U.S. Government program with this 
ability is Foreign Military Financing (FMF), which has been reduced for 
the EUCOM AOR (not including Israel) by more than 50 percent since 
fiscal year 2010. Congressional support for an increase in FMF for the 
Europe and Eurasian region would greatly assist in helping to address 
this sustainment challenge. Additionally, to facilitate and enable our 
allies and partners to preserve capabilities, there is a need for 
authorities that allow for multilateral Foreign Military Sales (FMS) to 
support NATO Smart Defense and pooling and sharing initiatives. The 
United States benefits from a Europe that is whole, free, at peace, and 
prosperous. Building allied and partner capability to provide for their 
own national defense, as well as to deploy in support of global 
stability and security, will sustain these substantial benefits for the 
United States.
            iv. stabilizing the middle east and north africa
A. U.S. Support to Israel
    Israel has witnessed a deterioration of security along its borders 
over the last several years. Spillover from the Syrian civil war, 
continued threats from Hezbollah rockets, and ISIL pose a threat to the 
stability of Israel and the entire region. ISIL has especially used 
violence in an attempt to impose their self-proclaimed religious 
authority and political control over the Middle East. Given this 
situation, it is feasible that, with limited warning, war could erupt 
from multiple directions within the Levant with grave implications to 
Israeli security, regional stability, and U.S. security interests.
    EUCOM primarily engages with Israel through our Strategic 
Cooperative Initiative Program and numerous annual military-to-military 
engagement activities. These engagements strengthen both nations' 
enduring ties and military activities. EUCOM chairs four bilateral and 
semiannual conferences with Israel. These conferences address planning, 
logistics, exercises and interoperability. EUCOM also supports the 
Joint Staff's bilateral engagements, including meetings at the highest 
levels within the Department of Defense. The U.S.-Israel exercise 
portfolio includes five major recurring exercises and as a result of 
continued engagement, U.S.-Israeli military and intelligence 
cooperation relationships have never been closer or our joint exercises 
more robust. Through these engagements, our leaders and staff maintain 
uniquely strong, frequent, personal, and direct relationships with 
their Israeli Defense Force counterparts.
    EUCOM diligently works to strengthen our relationship with Israel, 
which includes $3.1 billion in annual FMF, support for Israel's 
layered-missile defense program--including the Iron Dome and David's 
Sling systems, and the approval to release advanced military 
capabilities, including the F-35 and the V-22 aircraft. Finally, EUCOM 
works closely with CENTCOM to keep abreast of all emerging threats that 
may cross into EUCOM's AOR.
B. Countering Threats along the Southeastern Flank
    In August 2014, the U.S. Departments of Defense and State, in close 
consultation with the Government of Iraq, formed a task force to 
bolster the resupply of lethal aid to Kurdish Peshmerga security forces 
in northern Iraq. EUCOM has supported CENTCOM by facilitating the 
integration of European forces and efforts into the larger CENTCOM 
coalition. EUCOM led the European resupply effort by soliciting, 
coordinating, and transferring donated arms, ammunition, and material 
from a multitude of European allies and partners. By early October 
2014, over 2 million pounds of donated lethal aid had been delivered to 
the Kurdish Regional Government via 45 airlift missions to Iraq. The 
vast majority of these donations and a significant portion of the 
aircraft were provided by European nations under the direction of 
EUCOM. These efforts are expected to last through 2015.
    EUCOM has also led numerous interactions between U.S. interagency 
partners, the Custom and Border Protection Agency, and the Drug 
Enforcement Administration. These actions have focused on countering 
transnational threats, including trafficking of persons and illicit 
substances, as well as prosecution actions to build partner capacity. 
EUCOM works in conjunction with the Department of State to monitor and 
thwart the flow of foreign fighters going to and from Syria and the 
Levant, dismantle extremist facilitation networks, and build partner 
nation capacity to counter the flow of foreign fighters on their own.
        v. supporting other combatant commands and contingencies
A. Resolute Support: Enabling the NATO mission to Afghanistan
    U.S. and NATO forces completed Afghan combat operations in December 
2014. On 1 January 2015, ISAF transitioned to the Resolute Support 
Mission. Our European allies and partners have borne and will continue 
to bear the burden of providing the bulk of forces, second only to the 
United States.
    As we conduct the Resolute Support Mission, EUCOM will continue to 
help prepare our allies and partners for deployments to support the 
train, advise, and assist mission, all the while maintaining maximum 
readiness to protect the force and to conduct full-spectrum operations, 
as required. Authorities to include allowing EUCOM to provide 
operational logistics, lift and sustain support for allies and partners 
in Afghanistan, and section 1202 have been invaluable in providing our 
Allies and partners with logistical support in the form of inter-
theater lift, sustainment, and equipment loans. On the training side, 
the Coalition Readiness Support Program enables us to provide crucial 
pre-deployment training to prepare 12 of our Ally and partner nations 
for the missions they will support during the Resolute Support Mission. 
Section 1206 was absolutely vital in fiscal year 2014, and previous 
years, to procure the equipment needed to fill critical shortfalls for 
nine of our Allied nations. This much needed equipment includes 
interoperable communications gear, counter-IED and explosive ordinance 
disposal equipment, medical equipment, and night vision devices.
B. Operation Inherent Resolve: Supporting military intervention against 
        ISIL
    The United States is considering options for enabling moderate 
Syrian opposition and EUCOM is in support of CENTCOM on this planning 
effort and continues to assist in developing options. Operation 
Inherent Resolve is intended to reflect the unwavering resolve and deep 
commitment of the United States and partner nations in the region and 
around the globe to eliminate the terrorist group ISIL and the threat 
they pose to Iraq, the region, and the wider international community. 
It also symbolized the willingness and dedication of coalition members 
to work closely with our allies and partners to apply all available 
dimensions of national power necessary--diplomatic, informational, 
military, economic--to degrade and ultimately destroy ISIL.
C. Operation United Assistance: Fighting Ebola in Africa
    EUCOM has worked in support of AFRICOM's efforts to stop the spread 
of Ebola from epidemic plagued countries in Africa, providing intra-
theater lift, equipment, and personnel through and from the EUCOM AOR 
through established basing and access. EUCOM has proactively and 
aggressively engaged a number of European nations to secure permissions 
for U.S. Forces to use facilities and infrastructure for DOD-directed 
21-day controlled monitoring in Europe and to relay the protocols 
necessary to prevent the inadvertent transmission of the Ebola disease 
onto the European continent. Furthermore, EUCOM has worked closely with 
various U.S. Embassies and other Combatant Command personnel to help 
shape the development of host nation permission requirements, while 
identifying and allying European fears via robust information and 
intelligence sharing efforts.
D. Protection of U.S. Embassies and Facilities in North Africa and the 
        Middle East
    EUCOM continues to posture both land and air forces for quick 
reactions to volatile environments in North Africa and the Middle East. 
Forces, such as the Special-Purpose Marine Air Ground Task Force-Crisis 
Response-Africa (SPMAGTF) currently located in Spain, Italy, and 
Romania provides a crisis response force of 1,550 marines. Aircraft 
stationed in Germany, Italy, and elsewhere in Europe are on high alert 
to react to crises as needed. EUCOM supports this mission through its 
strategically located facilities and access agreements within Europe. 
The protection mission is vital, albeit costly, as a large number of 
embassies and consulates are at risk on the Africa continent and 
AFRICOM has no bases in Africa that can support forces assigned to the 
mission.
                        vi. setting the theater
    EUCOM needs sufficient resources to maintain readiness, execute 
assigned missions, and build capability and capacity of our allies and 
partners to defend themselves and bolster regional security.
A. U.S. Defense Posture
    1. Forces
    Overall reductions in the Department of Defense's budget have meant 
the reduction of force posture in Europe. Nevertheless, in light of 
recent, significant changes to the European strategic environment, it 
is my judgment we must immediately halt any additional reductions to 
the number of assigned forces in Europe. At the height of the Cold War, 
there were more than 450,000 uniformed personnel stationed across the 
European Theater. Today there are fewer than 65,000 permanent military 
personnel stationed throughout the EUCOM AOR, of which 55,000 are in 
direct support of EUCOM missions, and 9,000 support the missions of 
other organizations, such as AFRICOM, TRANSCOM, NATO, and others. The 
EUCOM assigned forces are tasked with the same deterrent and 
reassurance missions we have performed for the past several decades. It 
is important to understand the critical roles these forces play in this 
theater before the Services recommend further reducing the current 
force posture in Europe.
    On any given day, forces throughout Europe are engaged in a variety 
of activities and missions to include: (1) Training of our forces in 
order to be ready, if called upon, to conduct full spectrum military 
operations; (2) Assuring our allies of our commitment to collective 
defense; (3) Training and collaborating with our NATO allies and 
partners to maintain interoperability; and (4) Working with our allies 
and partners to effectively prepare for and support humanitarian 
assistance and disaster relief operations.
    In addition to my responsibilities as a warfighting commander, I 
also often serve in the role of a supporting commander. EUCOM forces 
are ready to support the needs and missions of four other geographic 
combatant commanders, three functional combatant commanders, and 
numerous Defense agencies, including the ability to appropriately base 
and provide logistics support functions to forces assigned to 
operations in the AFRICOM and CENTCOM areas of responsibility.
    Some have suggested we can mitigate the impact felt from a 
reduction in assigned forces through the augmentation of rotational 
forces from the United States. Rotational forces from the continental 
United States to Europe cannot completely fulfill strategic roles. The 
temporary presence of rotational forces may complement, but does not 
substitute for an enduring forward deployed presence that is tangible 
and real. Rotational forces also have an impact on our relationships 
with various host nations we will count on to enable operations; we 
might over reach to assume host nations will readily accept our new 
readiness construct. As I have said previously, virtual presence means 
actual absence. The constant presence of U.S. forces in Europe since 
World War II has enabled the United States to enjoy the relatively free 
access we have come to count on--and require--in times of crisis. 
Further reductions of both infrastructure and forces will reduce our 
access to key strategic locations during times of crisis.
    2. Footprint
        a.  European Infrastructure Consolidation (EIC)

    Since the end of the Cold War, EUCOM has reduced its footprint in 
Europe to less than 25 percent of the total controlled, European real 
estate inventory once held by the United States. Our current network of 
U.S.-controlled bases throughout Europe provides for superb training 
and enables power projection in support of steady-state and contingency 
operations. As EUCOM begins to implement the Secretary of Defense's 
direction on EIC, the Department must focus to ensure remaining 
infrastructure properly supports operational requirements and strategic 
commitments.
    EIC reductions will yield cost savings with the remaining 
infrastructure sufficient to support steady-state and crisis 
activities. Upon full implementation of EIC, EUCOM will have 17 main 
operating bases in Europe. As we continue to implement EIC 
recommendations, EUCOM will work towards minimizing any negative 
effects the reduction of bases may have on our strategy, operations, 
and the political-military relationships the U.S. has built in Europe.

        b.  Key Military Construction (MILCON) Priorities

    EUCOM's fiscal year 2016 military construction program continues to 
support key posture initiatives, recapitalize key infrastructure, and 
consolidate enduring locations. I am thankful Congress continues to 
fund EUCOM's priorities, in particular the Landstuhl Regional Medical 
Center/Rhine Ordnance Barracks theater medical consolidation and 
recapitalization project (ROBMC), European Phased Adaptive Approach 
(EPAA) missile defense projects, and the relocation of the Joint 
Intelligence Operations Center Europe (JIOCEUR) and Joint Analysis 
Center (JAC) to Croughton, United Kingdom.
    ROBMC remains one of the command's highest priority military 
construction projects, providing a vitally important replacement to 
theater-based combat and contingency operation medical support from the 
aged and failing infrastructure at the current facility. The official 
ground-breaking ceremony, conducted jointly by the United States and 
Germany, took place this past October and signified continued support 
and commitment from both nations. This project is vital to ensuring the 
availability of the highest level trauma care to future U.S. 
warfighters.
    Congressional support for the EPAA Phase 1 projects, including 
approval to replace expeditionary facilities in Turkey with semi-
permanent facilities, has been critical to achieving a high degree of 
readiness at the AN/TPY-2 radar site. In fiscal year 2013 and fiscal 
year 2014, the command began EPAA Phase 2 projects, including an Aegis 
Ashore site in Romania.
    Another key EUCOM MILCON priority project is the consolidation of 
the JIOCEUR Analytic Center and other intelligence elements at RAF 
Croughton, UK. The Department requested planning and design funding for 
the consolidation during fiscal year 2015, with three phases of MILCON 
construction in fiscal year 2015-2017 respectively. We anticipate the 
construction completion will occur in fiscal year 2019, with movement 
of units occurring in fiscal year 2019/2020.
    Phase 1 includes EUCOM's Joint Analysis Center (JAC) as well as 
Defense Intelligence Agency's Regional Support Center. The planned 
replacement facility will consolidate intelligence operations into an 
efficient, purpose-built building which will save the U.S. Government 
$74 million per year and reduce significant operational risk associated 
with current substandard, deteriorating facilities. The RAF Croughton 
site also ensures continuation of the strong EUCOM-UK intelligence 
relationships our sponsorship of the co-located NATO Intelligence 
Fusion Center.
    The maintenance of our intelligence relationships with the UK and 
NATO remains vital to EUCOM's capability to conduct military operations 
from and within Europe. Phase 2, programmed for fiscal year 2016, adds 
AFRICOM intelligence activities (currently at RAF Molesworth), the NATO 
Intelligence Fusion Center, and the Battlefield Information Collection 
and Exploitation System (BICES), which provides classified 
communications to our NATO partners.
    3. Missile Defense
    The changing security environment in the EUCOM AOR makes it 
critical for the United States to take proactive measures and ensure 
our allies and partners have the capability and capacity to defend 
themselves, their region, and support global coalition requirements.

        a.  Progress on implementation of EPAA

    EUCOM continues to implement the European Phased Adaptive Approach 
(EPAA) to missile defense in Europe, and further develops partnerships 
and assurances in NATO. Within the next year, EUCOM expects to complete 
Phase 2 of the EPAA when the Aegis Ashore site, currently under 
construction in Deveselu, Romania, becomes operational. Phase 2 of the 
EPAA will provide enhanced medium-range missile defense capability, 
expanding upon Phase 1 of the EPAA, which has been operational since 
2011. The deployment of Aegis Ashore will be the final building block 
in finalizing the Phase 2 EPAA capability in Europe. While completion 
of the site in Deveselu, Romania is still on schedule, there have been 
some delays in construction. EUCOM and Missile Defense Agency 
leadership have been tracking this progress closely and firmly believe 
there will be no slippage in schedule. We expect the Aegis Ashore 
capability to be delivered on 31 December 2015.
    EPAA Phase 3, which is primarily composed of a second Aegis Ashore 
site at Redzikowo, Poland, is on track to support completion in the 
2018 timeframe. The broader basing agreement is complete and the 
implementing arrangement negotiations are on schedule and meeting both 
U.S. and Polish expectations. EPAA Phase 3 builds upon the pre-existing 
intermediate-range missile defense capabilities of Phases 1 and 2 of 
the EPAA. Once in place EPAA Phase 3 will support EUCOM Plans and 
Operations and represents the U.S. voluntary national contribution 
Ballistic Missile Defense of NATO.

        b.  Increasing Allied engagement and commitment

    EUCOM is encouraging allies and partners to invest in their own air 
and missile defense capabilities to ensure that they are interoperable 
with our systems. Building an integrated network of interoperable IAMD 
systems will leverage cost-sharing and help spread the commitment among 
willing participants. The allies are listening, and they are beginning 
to respond. The allies are also making investments in BMD capabilities, 
such as the Netherlands-Denmark-Germany effort to study the upgrade of 
the Smart-L radar systems onboard their Air defense ships, and the 
comprehensive programs underway in Poland and Turkey to upgrade their 
lower-tier air and missile defense capabilities. EUCOM is working with 
the Defense Security Cooperation Agency and the Department of Defense 
on developing authorities that will enable the United States to sell 
missiles and other weapons systems with retransfer rights to groups of 
NATO and other authorized nations.

        c.  Support to Israeli Missile Defense

    U.S. efforts to enhance the BMD for Israel are well-developed. The 
threat posed by longer range ballistic missiles, larger raid sizes, and 
increased accuracy of ballistic missiles and rockets poses a 
significant challenge to Israel. EUCOM maintains plans to deploy forces 
in support of the defense of Israel against ballistic missile attack if 
requested. EUCOM also conducts maritime BMD patrols in cooperation with 
Israel. In addition, EUCOM conducts regular BMD training exercises with 
Israel on a weekly and quarterly basis.
    In late 2013, U.S. and Israeli representatives signed the 
``Combined U.S.-Israel BMD Architecture Enhancement Program'' (AEP). In 
addition to providing guidance on combined U.S.-Israel operations, the 
AEP provides direction on how the United States and Israel will jointly 
address the full range of potential BMD enhancements developed by both 
sides.
    4. Cyber
    Among the most dangerous threats facing Europe's new security 
environment are those that can manifest asymmetrically through 
Cyberspace. Adversaries can easily hide their identities and locations 
in Cyberspace, and attempt to exploit our people, our systems, our 
information, and our infrastructure. EUCOM must defend against these 
adversaries who can threaten our forces from anywhere in the world, by 
identifying and securing key parts of our critical infrastructure in 
what has become our cyber flank. Through a defensible architecture, 
ready cyber forces, and improved situational awareness, EUCOM will 
protect this flank just like eastern and southern flanks that see 
increasing threats today. While doctrine and concepts for operating in 
cyberspace are still being formulated and debated, our adversaries are 
aggressively searching for new vulnerabilities to exploit in the cyber 
flank.
    EUCOM's first Cyber Combat Mission Team (CMT) and Cyber Protection 
Team (CPT) reached Initial Operational Capability (IOC) this past year 
providing us with new capabilities to protect our people, systems, 
information, and infrastructure while holding adversaries at risk. As 
these teams continue to improve, EUCOM will have an enhanced ability to 
plan and conduct Cyberspace Operations to enhance our situational 
awareness and protect our cyber flank.
    The Joint Information Environment (JIE) is moving ahead in the 
European theater as the as a way to reduce risk to missions by 
providing better situational awareness into networks, improving 
security, and better integrating information technology across all the 
Services within the Department of Defense. As a result of this effort, 
EUCOM has seen improved mission effectiveness through the 
implementation of unified capabilities, virtual desktops, and an 
enterprise operations center that is capable of tracking all of our 
component information technology systems. As EUCOM enters into the next 
phase of JIE, we are improving our ability to better operate with 
allies, friends, and partners in a Mission Partner Environment that has 
enhanced capabilities for information sharing and situational 
awareness. As demonstrated during Operations Atlantic Resolve, Unified 
Assistance, and Inherent Resolve, EUCOM's information technology 
infrastructure must remain relevant, interoperable, and resilient to 
support a range of missions that transit our theater in support of what 
our national leaders may ask us to do with like-minded friends, 
partners, and allies. As part of JIE, EUCOM continues to enhance our 
interoperability so that we can rapidly share information, enhance 
understanding, and dominate any potential adversary.
    5. Maintaining U.S. Nuclear Deterrent with NATO aLlies
    NATO's 2010 Strategic Concept, 2012 Deterrence and Defense Posture 
Review, and 2014 Wales Summit Declaration all affirmed that deterrence, 
based on an appropriate mix of nuclear, conventional, and missile 
defense capabilities, remains a core element of our overall strategy, 
and that ``as long as nuclear weapons exist, NATO will remain a nuclear 
alliance.'' EUCOM maintains a safe, secure, and effective theater 
nuclear deterrent in support of NATO and enduring U.S. security 
commitment within the EUCOM AOR. Through rigorous and effective 
training, exercises, evaluations, inspections, operations, and 
sustainment, EUCOM ensures that United States nuclear weapons and the 
means to support and deploy those weapons are ready to support national 
and Alliance strategic objectives.
    Consistent with NATO's commitment to the broadest possible 
participation of allies in the alliance's nuclear sharing arrangements, 
EUCOM stands side-by-side with our NATO allies to provide nuclear 
forces that are safe, secure, reliable, and effective, and that 
contribute to a robust deterrence and defense posture that strengthens 
Alliance cohesion and the transatlantic link. The supreme guarantee of 
the security of the allies, moreover, is provided by the strategic 
nuclear forces of the Alliance, particularly those of the United 
States. EUCOM, therefore, works closely with STRATCOM to assure allies 
of the U.S. commitment to the Alliance. For example, by conducting 
bomber assurance and deterrence missions in support of NATO and 
regional exercises as part of Operation Atlantic Resolve.
    6. Information Operations
    Information Operations are essential to EUCOM's ability to shape 
the security environment and achieve our military objectives. 
Activities conducted under Operation Assured Voice provide a powerful 
means to counter Russian aggression, challenge extremist ideology, and 
prepare for contingency operations. The EUCOM AOR has the highest 
internet usage rate of any OCONUS geographic combatant command; that 
characteristic simultaneously presents the command with an 
unprecedented opportunity and efficient conduit for influence in the 
region. We know from experience that our adversaries will seek to gain 
an edge by using the internet to present false narratives and spread 
propaganda. We will leverage the advanced technological environment in 
the EUCOM AOR and use the internet as a principal, cost-effective means 
to reach target audiences critical to our objectives. These leading-
edge capabilities and methods will augment and complement the more 
traditional military influence measures we currently employ. To 
effectively move forward, we must clarify the roles, expectations, and 
authorities required for steady state military influence operations on 
the internet and continue to advance these activities in close 
coordination with other departments and agencies.
    7. Global Mobility Operations
    The footprint within the EUCOM Theater is essential to TRANSCOM's 
global strategy and directly supports AFRICOM, CENTCOM, EUCOM, SOCOM, 
STRATCOM, and NATO operations. TRANSCOM will continue to depend on 
relationships with European host nations for overflight and access to 
European infrastructure.
    8. Counter Weapons of Mass Destruction, Counter Trafficking, and 
        Counter Narcotics
    Weapons of Mass Destruction (WMD), in the hands of a rogue state or 
non-state actor, continue to represent a grave threat to the United 
States and the international community. Our allies, partners, and NATO 
share these concerns; we continue to work with them on building 
capacity and capabilities for countering WMD and pursuing efforts 
bilaterally, regionally, and in a NATO construct to collaborate on 
reducing the potential for successful WMD trafficking and use. We are 
also working in a whole-of-government manner to counter the trafficking 
of other illegal items, especially drugs crossing through Europe into 
the United States.
                            vii. conclusion
    Those of us assigned to Europe on behalf of the United States work 
every day to maintain peace with our European allies and partners, 
striving to meet the security challenges we face as a nation and as a 
member of NATO. This includes continuing to demonstrate U.S. leadership 
and commitment to NATO and supporting the implementation of the NATO 
Readiness Action Plan.
    The resurgence of a revanchist Russia, and the emergence of new 
risks emanating from across the Mediterranian, places us in a new 
security environment that drives new ways of thinking. Accurately 
assessing these changes is critical to ensure we react properly to 
state and non-state actors who are not complying with international 
norms. As one of only two forward positioned combatant commands, EUCOM 
is in a front row seat for the action, and our staff, both at the 
headquarters and component levels, has the expertise and relationships 
to adapt.
    We must continue to leverage and build upon the expeditionary 
capability and interoperability gained over a decade of operations in 
Afghanistan and increase opportunities to work together in the future. 
Many of these capabilities are essential to confronting current 
security challenges. Our allies and partners have benefited from our 
sustained efforts to build partnership capacity with EUCOM and we see 
this process as a keystone to countering threats like Russian 
aggression and influence. We need to protect our investment to leverage 
it in response to near and medium-term threats and challenges. We must 
also continue exercising with and training our allies and partners and 
enabling the NATO Alliance to make the transition from expeditionary 
and counterinsurgency operations in Afghanistan, to conducting a full 
spectrum of joint, combined operations, including high-end combined 
arms warfare. Our Nation's security interests require we preserve their 
capabilities and their willingness to act so that they remain able to 
respond to threats to U.S. and European security as well as global 
contingencies.
    While preserving expeditionary capabilities developed over the last 
decade, we must address and help our allies and partners address 
renewed challenges, including along Europe's eastern periphery. 
Reassuring, stabilizing, and supporting allies and partners in Europe 
are vital to protecting American interests both on the continent and at 
home. As the Commander of EUCOM, we need the resources to remain 
decisively engaged in the EUCOM Theater, to have the stabilized force 
structure to effectively meet our challenges brought by the new 
European security environment, and to defend our Nation forward. If we 
do not stand up and take the initiative to set the theater, someone 
else will. We need credible, enduring capabilities that will assure, 
deter, and defend while shaping the theater with a coordinated whole-
of-government approach. As long as I have the watch over EUCOM, I will 
relentlessly pursue a Europe that is whole, free, and at peace.

    Chairman McCain. Thank you, General.
    Item of business. A quorum is now present. I ask the 
committee to consider one civilian nomination and a list of 361 
pending military nominations.
    First, I ask the committee to consider the nomination of 
Mr. Peter Levine to be Deputy Chief Management Officer, 
Department of Defense. Is there a motion to favorably report--
--
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    Senator Manchin. Second.
    Chairman McCain. All in favor, say aye. [A chorus of ayes.]
    Chairman McCain. Motion carries.
    Finally, I ask the committee to consider a list of 361 
pending military nominations. All of these nominations have 
been before the committee the required length of time. There's 
a motion to favorably report these 360.
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    Senator Manchin. Second.
    Chairman McCain. All in favor, say aye. [A chorus of ayes.]
    Those opposed? [No response.]
    The motion carries.
    Thank you, General. And thank you for your final remarks 
about the situation that will evolve if we continue with 
sequestration. I think that's what you're talking about, right?
    General Breedlove. Yes, Chairman, it is.
    Chairman McCain. And that would seriously impair your 
ability, or our Nation's ability, to carry out our 
responsibilities in Europe.
    General Breedlove. That's correct, Mr. Chairman. And 
challenge our forward presence.
    Chairman McCain. And put the lives of the men and women who 
are serving in the military in greater danger.
    General Breedlove. Yes, Mr. Chairman.
    Chairman McCain. Thank you.
    Very quickly, literally thousands of refugees, migrants, 
are freeing North Africa and trying to arrive in Europe. In 
some cases, that's not too great a distant. Wouldn't it be 
logical for terrorist organizations, like ISIS, to maybe place 
some people on those boats and transport them to Europe?
    General Breedlove. Mr. Chairman, this is one of our great 
concerns, and also one of the great concerns of our allies.
    Chairman McCain. Have we seen any indication of that so 
far?
    General Breedlove. Mr. Chairman, I can't talk to specifics, 
but I will look into that and get back to you.
    General Breedlove. I have not seen specific named reports 
yet, but we are following several threat strings.
    Chairman McCain. I get the impression from your testimony 
that, as you have in the past, you are predicting that we're in 
a period of pause with the Russians in eastern Ukraine, and 
it's very likely, within a certain period--relatively short 
period of time, they will mount additional--the ``separatists'' 
will be mounting further conflicts in the region--in eastern 
Ukraine. Is that accurate?
    General Breedlove. Mr. Chairman, what we--I cannot 
accurately predict what they'll do, but I can watch what they 
have done in the past and what they have done in this lull, as 
you correctly describe. During this lull, we have seen a period 
of what I would call ``resetting'' and preparing, training and 
equipping to have the capacity to again take an offensive.
    Chairman McCain. So, they aren't doing all of what they're 
doing now for nothing.
    General Breedlove. In the past, they have not wasted their 
effort.
    Chairman McCain. In January, we had a hearing, and 
Secretary Albright was there, and Shultz and Kissinger. And all 
of them said that they believed we should provide defensive 
weapons to the Ukrainian government. I asked Secretary Carter, 
in his nomination hearing. He said, ``I am inclined in the 
direction of providing them with arms.'' The list goes on and 
on.
    And I'm not asking you to make policy. And so, I will 
phrase my question in a way--wouldn't it have a significant 
impact on the military situation in eastern Ukraine today if we 
gave the Ukrainian military the weapons that they so badly need 
defensively?
    General Breedlove. Mr. Chairman, first, the--first of all, 
I agree with the Secretary of Defense, and I believe that--as I 
mentioned in my opening statement, that our--Mr. Putin and his 
forces have taken and used every tool to their great advantage, 
to including the military tool. And, as you have phrased, it is 
important that we should consider all those tools. And I 
support the use--the consideration of using offensive weapons 
to change decision calculus on the ground and to facilitate 
bringing our opponent to the table for a solution--a final 
solution.
    Chairman McCain. I had the impression that our European 
allies are reluctant to impose serious sanctions, or seem to be 
seeking ways to lift sanctions, is directly related to their 
dependence on Russian energy. Do you think it would be helpful 
if we developed a strategy for getting energy to our eastern 
Europeans friends, particularly Ukraine, but also eastern 
Europe and even Germany?
    General Breedlove. Mr. Chairman, first of all, I completely 
agree with your premise. As I said, Russians use every tool, 
and this economic tool of energy--using energy as a tool or a 
weapon is clearly a part of the calculus that is affecting the 
decision of many of our allied nations. And any efforts we 
would take to make Europe more energy independent from Russia 
would help in this calculus. I agree.
    Chairman McCain. What do your European friends say when we 
admonish them that every--all but two of them are spending less 
than 2 percent of their GDP on defense? It seems to me that 
they don't have much of a sense of alarm.
    General Breedlove. Mr. Chairman, there's--there is good 
news here, and there remains concern here. We do see several of 
the Nations, in the last weeks, setting a plan to achieve 2-
percent spending. Those numbers are still small, but we see 
nations doing that. We see a few nations committing to, in the 
short term, getting to the NATO average, which is below 2 
percent and not the goal that we have asked them to set. So, at 
least there is a commitment to turn around a decline. But, 
there is concern about the spending.
    I would say that, to the positive side of the ledger, as 
you know and we have talked about, the--many of these nations 
are stepping up and putting their forces where they're required 
in our Readiness Action Plan in the Very High Readiness Joint 
Task Force, committing, as European nations, to be centerpieces 
of that Very High Readiness Task Force.
    So, I don't want to gloss over the challenge. We need to 
remain focused on the spending and our pledges that all the 
Nations made at the Wales Summit. And we will be continually 
focused on that.
    Chairman McCain. Thank you, General. And I'll, again, thank 
you for your service and, frankly, for your very forthcoming 
responses to the questions of this committee. I thank you.
    Senator Reed. Thank you, Mr. Chairman.
    First, just a point of clarification. I think, in response 
to Senator McCain's question, you talked about offensive 
weapons. Is that----
    General Breedlove. Senator, yes. I have been steady on the 
record as saying that I believe all our tools should be 
considered.
    Senator Reed. Very good.
    Let me follow up also on Senator McCain's question about 
the potential flow into Europe and beyond of foreign fighters, 
particularly coming from the Maghreb in the Middle East. That 
is essentially a law enforcement problem at this juncture. And 
I would assume that you're collaborating with Department of 
Homeland Security, with the Federal Bureau of Investigation 
(FBI), and with all our law enforcement. Is that the major 
thrust of----
    General Breedlove. Sir, I would broaden the answer a little 
bit. The short answer to your questions are yes. And, in fact, 
we have, on our staff in EUCOM, representatives of law 
enforcement agencies and others in a directorate that we 
created for just this problem in our J-9.
    But, the--if I could just broaden the answer just a little 
bit, the example of Operation Ocean Shield off of the Horn of 
Africa, and the example of Kosovo, the European Rule of Law 
(EULEX) mission from the European Union (EU), and North 
Atlantic Treaty Organization (NATO) K-4 mission are great 
examples of where EUCOM is able to work with other agencies in 
Europe, and where NATO is able to work with other agencies in 
Europe. NATO brings a great command-and-control military 
structure and military discipline to the problem. So, in Ocean 
Shield, they took care of the sea approaches to the Horn. And 
then the EU has that great all-of-government more Ministry of 
Interior connections to judiciary, to policing, and others. And 
so, the combined excellence of NATO military with the European 
Union's ability to reach ashore and do, these nexuses are where 
I think we have a lot of good to do in the future to problems 
like the foreign fighters that both you and the Chairman have 
identified.
    Senator Reed. But, part of this is being able to rely upon 
Homeland Security, FBI, et cetera. And, in the same context of 
your issue with sequestration, if these Departments fell under 
sequestration, if they had limited resources, that could 
materially affect your ability to stop this threat?
    General Breedlove. This is a broad response required across 
those agencies, as well as military agencies, Senator.
    Senator Reed. Thank you.
    Let me ask--focus on Ukraine. There are several dimensions. 
The two most significant, the operational readiness of the 
Ukrainian military forces and the economic reforms that they 
have to undertake to literally survive. I think we had a chance 
to talk about this in the office. Can you give us your--from--
we focus significantly on situation of weapons, but what are 
the top, sort of, items that they need to be operationally 
capable of resisting? It's not just weapons, it's a list. And, 
in fact, you might sort of prioritize the list.
    General Breedlove. Senator, thank you for the opportunity 
to talk to this. And I would just open by saying that we have 
what is called the Ukraine Commission, the Joint Commission, 
where our EUCOM soldiers, sailors, airmen, and marines have 
done a series of bilateral visits and worked with the 
leadership of the military and their ministries to do exactly 
what you talk about, which is to identify their needs in this 
business. We did many of those visits before the Russian 
offensive last August, so we had to go back and redo a few, 
because that Russian offensive seriously altered the complexion 
of the Ukrainian military.
    So, we have done a very exhaustive series, about 25 visits. 
And we have done exactly as you have described. We have 
outlined things that we think are important. I think the top 
three bins, in a purely military sense, not a political or 
economic sense, are, first of all, in communication and 
counter-communication. The Russian forces were able to take the 
Ukrainians off the air in certain areas, herd them, by turning 
off military communications, onto their cell phones, and then 
use their cell phones to attack them on the field. So, the 
ability to communicate and also defend against counter-
communication, sort of item one.
    Item two in a group is a what I call ``counter-battery 
capabilities.'' About 70 percent of the Ukrainian casualties 
and deaths have been to Russian and separatist artillery. And 
so, I would put in the second group of capabilities and 
capacities that we need to work with on--them on, is that 
counter-battery and how to survive artillery fire.
    And then the third is a broad range that I call ``counter-
mobility.'' Russian forces and the separatist forces in the 
east enjoy a wide range of armored capabilities that have been 
supplied by Russia. And the ability for the Ukrainians to 
address that capability is important.
    So, those are the three broad areas that I think are 
probably the key.
    And what I would say, also, Senator, in closing, is that 
what we found in our visits, with our disciplined approach to 
this, is pretty close to what President Poroshenko and others 
are asking for as they talk back to us.
    Senator Reed. Just a final point. I know this is out of 
your field, but if--the economic reforms, from both a quality 
of life and a--the politics and the willingness of the 
Ukrainian people to support the government, are absolutely 
critical. And if they fail at that, that would have a--
significant consequences, beyond just sort of a--further 
aggression by the Russians.
    General Breedlove. Senator, as you know, I'm in and out of 
Ukraine. And, as I have talked to both the President and the 
Prime Minister, they were both elected under a format of reform 
to--economic and also getting at corruption. They both know 
they have to deliver. And this is important. And it's hard to 
deliver on that kind of reform when you're in the field, 
fighting. We need to get that fighting over so that they can 
begin to address the issues that their electorate put them in 
office to correct.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And, General, I really appreciate not only your testimony, 
which lays out the significant challenges that we have, that 
your combatant command faces, but also how forthright you've 
been, not only in testimony, but also in public statements. I 
think you've been a real leader for our country, in terms of 
telling it like it is, in terms of what the challenges are and 
what we can do.
    I want to dive deeper into what the chairman mentioned at 
the outset of his remarks. One of the aspects of Russians--
Russia's activities is the militarization of the Arctic. And I 
have a map here. I'm going to pass it out to my colleagues. 
But, it's a pretty informative map of how the Russians are 
militarizing the Arctic. That's new--a new Arctic command, as 
you know, four new Arctic brigades, 11 new airfields, a huge 
icebreaker fleet, land claims that they're making now in the 
Arctic, increased long-range air patrols. And, General, you and 
I have talked about their recent Arctic exercise, which I think 
caught a number of people by surprise--38,000 troops, close to 
3,400 military vehicles, 41 ships, 15 submarines, 110 
aircraft--lasted 5 days and included long-range destruction of 
simulated enemy land and naval units as the mission.
    You talk about the COCOM seams in your testimony. And the 
Arctic, in my view is a classic place for the COCOM seams--
EUCOM, PACOM, NORTHCOM. What do you think the Russians are up 
to? And do we need an Arctic O-Plan that can help us coordinate 
efforts between the different seams that we have in our COCOMs?
    General Breedlove. Senator, thank you for the opportunity 
to comment on that important issue. And I share many of the 
concerns--all of the concerns that you identify.
    One would hope that we could see what is happening in the 
high north as an opportunity, economically. That shorter route, 
even if it's only for several months a year, saves lots of 
money and would make for a great push to all of our economies--
--
    Senator Sullivan. It's going to be an important route, and 
there's a lot of resources there. Is that what you think the 
Russians are doing? What are they doing?
    General Breedlove. So, Senator, I think they are, in--to 
your concern, making sure that they have the military 
infrastructure to be able to influence the high north. Of 
course, their words are that this is all in a peaceful manner. 
And again, as----
    Senator Sullivan. Pretty big military exercise to be in a 
peaceful manner.
    General Breedlove. Yes, sir. We have to watch their actions 
and see if we can derive their intents from those.
    But, to the seams, Senator, they're--the good news here is 
that we recognize those seams. Admiral, as I call him, Shortney 
Gortney, and I are--have been friends for many years. And we 
have met recently on this very issue. And we have an 
initiative, called the Russia Strategic Initiative, where all 
of the COCOMs who touch Russia have come together, and EUCOM 
will lead an effort that we make sure we don't have any seams 
in the way----
    Senator Sullivan. Do you think we need an Arctic O-Plan, 
though, to help address that and know what the requirements are 
in the Arctic and other places?
    General Breedlove. Sir, if you would allow, that's more of 
a policy way ahead. I think----
    Senator Sullivan. In your personal opinion, do you believe 
that we----
    General Breedlove. I think it's important that I am aligned 
well with the other COCOMs in how we would address the north.
    Senator Sullivan. Let me ask another more specific 
question. You know, the Army is contemplating removing, not 
one, but two BCTs from Alaska. If you look at the map there, 
you show--it certainly shows how important that strategic 
location is. Many military officials have testified in front of 
this committee that they think that would be a bad strategy, in 
terms of the signal it would send, our readiness. In light of 
your testimony that Putin responds to strengths and weaknesses, 
and that a critical element of our strategy is a persistent 
forward presence, and that your PACOM counterpart is focused on 
a, ``rebalancing of forces to the Pacific,'' in your personal 
opinion, given all of these items, do you think it makes sense 
to reduce one Army soldier in Alaska, let alone one or two 
entire BCTs, particularly our only airborne BCT in the entire 
Pacific and the Arctic? And what do you think Mr. Putin would 
think about us removing one or two BCTs from the Arctic at this 
time, when he's certainly trying to muscle his way into there?
    General Breedlove. Senator, that--Alaska and the forces in 
Alaska are critical to our approach to Russia. You rightly 
recognize that this is a strategic area and an important area, 
and Putin will be watching. I don't mean to be flip, but it's 
an important area for General Breedlove, because his young 
daughter in--serves in this service, as well, and will soon 
land in Alaska to serve for the next 3 years.
    Senator Sullivan. Oh, we'll be glad to host her.
    General Breedlove. So, Senator, this is important. And the 
signature that we have there to be able to respond is 
important. I know that the Army is facing some physics problems 
as it relates to funding. And I'm not tracking their thought 
process there, but I do believe it is important that we keep 
the right capabilities to address aggression in the north.
    Senator Sullivan. Should we remove one single soldier from 
Alaska right now?
    General Breedlove. Sir, I would ask maybe that the Pacific 
Commander would be better positioned to answer that. I would 
not recommend reducing our capabilities in the north.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you, General Breedlove, for your testimony today.
    I want to talk about a different seam. I'll pick up on 
Senator Sullivan's talking about the seams, the seam between 
EUCOM and AFRICOM. You talk about your eastern flank challenges 
and your southern flank challenges. And a number of the 
southern flank challenges are because of instability in 
Africa--North Africa. And I think it's important for the 
committee just to kind of be reminded. EUCOM and AFRICOM share 
a lot of resources, correct?
    General Breedlove. That's correct, Senator.
    Senator Kaine. And in--the resources that you share are 
getting pretty stretched, because, just as you talk about 
increasing challenges in the EUCOM region, if General Rodriguez 
were here, he would talk about the number of increasing 
challenges in AFRICOM, whether it be Boko Haram, Lord's 
Resistance Army, you know, Islamic State of Iraq and the Levant 
(ISIL), or al-Qaeda, splinter groups, al-Shabaab, al-Qaeda in 
the Islamic Maghreb (AQIM). He would be singing the same tune 
about increasing challenges, correct?
    General Breedlove. Yes, Senator. And I think there's just a 
couple of things to mention here that are good and challenges. 
First, with AFRICOM, we have an authority that COCOMs have 
never had in the past. The Secretary of Defense has given us 
the authority, at the COCOM level, to share forces quickly and 
easily, when required and the two commanders agree that those 
forces should be shared. And this process works very well 
between Rod Rodriguez and myself and our staffs. That's good.
    But, to your other point, sir, I would like to seize on 
that just a moment. Our forces in Europe, which I share with 
General Rodriguez, have been sized, over the last two decades, 
for Russia that we were looking----
    Senator Kaine. Yeah.
    General Breedlove.--to make a partner. And so our forces 
have come down, as the--as was described in the opening 
remarks, drastically since the end of the Cold War. And our 
headquarters size has come down drastically across the past few 
years. We are now the smallest COCOM headquarters in the 
military.
    And so, now we do, as you correctly point out, point--we 
face literally what I call three new missions and three new 
threats. First and foremost, as we described earlier, a 
revanchist Russia, which we're not sized for. Second is this 
entire problem that the Ranking and the Chairman both spoke to 
of this flow of migrants and other people out of the under-
governed spaces in North Africa. And then, third is this Iraq/
Syria/Levant problem that could lap over our great ally to the 
east, Turkey's borders, and become a problem. And so, our 
forces in Europe were not sized for any of those three 
challenges----
    Senator Kaine. And if I can just sort of summarize, you 
were not sized for these challenges, you share resources with 
an AFRICOM that is also seeing a significant uptick in 
challenges, and you're dealing with the potential reality of a 
budget sequester that would impose an even tighter tightening 
of the belt at a--at the very time when the challenges are 
increasing. So, this has got to be something that keeps you up 
at night.
    General Breedlove. It is, Senator. And I--but I, again, 
want to say that the Joint Staff and Office of the Secretary of 
Defense (OSD) are beginning to address those issues. As you 
know, we have begun--again, with the support of the European 
Reassurance Initiative (ERI), we have started a firm rotational 
force, and we're looking for continued support of that 
rotational force in the next year. And then, the Army has 
committed and has shown signs of building that, then, into 
their 2017 budget and beyond. These rotational forces will be 
key to addressing the shortfalls that we talked about, Senator.
    Senator Kaine. I want to switch for a minute. You talked 
about using all the tools at our disposal. The tools that we 
most often talk about on this committee or in the Foreign 
Relations Committee, or three of the four--you used the DIME 
acronym--diplomacy, information, military, economic. We talk a 
lot about diplomacy, we talk a lot about military, we talk a 
lot about economic, but we don't talk much about information. 
Talk about the information offensive that Russia is using, and 
how weak or modest are the efforts that we are putting on the 
field to counter it.
    General Breedlove. Senator, we are facing a dedicated, 
capable, and very lively information campaign from Russia. They 
are in all of the spaces, from printed to Internet to TV, and 
they are in those spaces in a dedicated and capable way.
    I will use a number that I have seen reported and in the 
papers. I do not know it to be true. But, Russia has put over 
$330 million, we think, into these campaigns in the very recent 
past in order to win these spaces. And their TV capability into 
our northern Baltic nations is very impressive. It's very good 
TV. It draws people to listen, and then the message is passed.
    Senator Kaine. And what are we doing to counter that?
    General Breedlove. Sir, we are beginning--we are in the 
very beginning stages of organizing to get after this. The 
Department of State has a dedicated team now. I will meet with 
that team next Monday, here, after the weekend, to discuss how 
we and Europe can move in this business. We do have capability 
in some of our Special Forces to help teach and train nations 
to deal with this challenge, and we are doing that. Our Special 
Operation Forces are working with the capitals in our allied 
nations; and now also our NATO forces are beginning to look at 
these challenges, as well.
    Senator Kaine. I think that's a big challenge ahead.
    Thank you, Mr. Chairman.
    Thank you, General Breedlove.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    And thank you, General, for joining us today.
    In September of last year, NATO allies agreed, at Wales, 
to, among other things, ``reverse the trend of declining 
defense budgets to make the most effective use of our funds and 
to further a more balanced sharing of costs and 
responsibilities,'' Between 2001 and 2013, the U.S. share of 
total allied defense spending increased from 63 percent at the 
outset to 72 percent at the end of that period while allies 
have decreased their spending, on average, by 20 percent since 
2008, according to the Congressional Research Service. So, I've 
got a couple of questions for you that relate to this.
    First, do you think increased military investments by our 
European allies, both individually and also collectively, would 
likely help us deter Russian aggression? And also, how do you 
think a more balanced sharing of costs and responsibilities 
might impact U.S. national security and also its fiscal 
interests?
    General Breedlove. Thank you, Senator, for the question.
    And I must agree with all the facts. These are 
straightforward. We do--we are concerned about our allies' 
spending. It was a big part of the discussion at Wales. And 
yes, our Nations did, as you described, pledge that, by 2024, a 
decade, they would reach 2 percent. As I mentioned earlier, 
we've seen nations now, a few of them--I think as many as 
five--have now made a pledge to increase their spending. But, 
this is a slow process, and the Nations that are closest to the 
problem are more apt now to forward in their increased 
spending. But, we do see other large nations--even today, news 
of a large nation--committing to increase spending.
    The--will an increased investment deter? Not if spent 
unwisely. But, if we increase investment across all of our 
allies, and invest in those capabilities that do add to our 
military deterrence value, yes, it can make a difference. And I 
think that's what you see, Poland leading the way, increasing 
their spending, and increasing their spending in targeted areas 
that they knew not only they needed, but the NATO alliance 
needs. And so, these are important.
    Senator Lee. It would make a difference, and it would make 
a difference to us, and it would also make a difference for 
deterring Russian aggression.
    And, on the point of Russian aggression--so, Secretary 
Kerry, on April 27th, very recently, at the Nuclear 
Nonproliferation Treaty Review Conference, stated that the 
United States is still willing to negotiate with Russia a 
series of nuclear reductions that would take us below the New 
Strategic Arms Reduction Treaty (START) Treaty levels. All of 
this, despite Russia's aggression in Ukraine, and despite 
Russia's violation of the Intermediate-Range Nuclear Forces 
(INF) Treaty announced last year.
    So, let me ask it--do you think that the security situation 
in Europe today is more stable or less stable than it was 
before the New START Treaty was ratified?
    General Breedlove. Senator, I would say that the security 
situation in Europe is less stable, but it's not, based on the 
nuclear piece. That's not what worries me. What worries me is 
Russia, as a nation, now adopting an approach that says they 
can and will use military power to change international borders 
or take over international states. That's what I truly worry 
about every day.
    Senator Lee. And I share that concern, and you're right to 
be worried about that. And, in light of that, and in light of 
your experiences as EUCOM Commander and working at NATO, do you 
think negotiating a new nuclear reduction treaty should be a 
higher priority for us right now than addressing Russia's 
violation of the INF Treaty or its aggressive behavior toward 
its neighbors, like Ukraine?
    General Breedlove. So, Senator, I kind of agree with your 
construction at the end, there. It's very important that we 
continue to address my--I think, a lot of people's--primary 
concern, which is this more conventional problem. And your 
point about the INF, this is very concerning. We do need to 
address what we all recognize is operations outside of the INF. 
And we do need to address that.
    Senator Lee. I see my time's expired, General and Mr. 
Chairman, but I'd just--I cannot fathom a world in which we 
would see that it would make any sense at all for us to 
negotiate further nuclear reductions with Russia when Russia is 
in violation of existing treaty obligations and Russia is 
behaving the way that it is toward neighbors like Ukraine. I 
cannot fathom it. And I don't think the American people can 
support it. And I hope this administration will reconsider that 
very ill-considered policy.
    Thank you.
    Chairman McCain [presiding]. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And thank you, General, for your service and your 
explaining the complex situation we deal with.
    Let me ask a question concerning on oil production and, 
basically, United States reconsidering, if you will, our crude 
oil exportation or a ban--removing that ban. The way Russia has 
been able to use, as far as I'm seeing in Europe, Europe 
remains heavily dependent on Russia for energy, with one-third 
of the EU oil imports coming from Russia. Do you think we 
should consider, strategically--would it be something that we 
could look at that would help us with the European allies that 
we have, if we used our newfound wealth, as far as the riches 
and deposits of energy, towards using it from our military 
standpoint?
    General Breedlove. Thank you, Senator.
    As a fighter pilot, it's a little bit out of my league, but 
I do have some feelings there. The bottom line is that we have 
clearly seen that Russia uses energy as a tool----
    Senator Manchin. Right.
    General Breedlove.--as a weapon, as we talked about in the 
DIME model in that economic end. Threatening, changing, 
adjusting prices, cutting off the flow of energy has been a 
tool and I expect will be a tool in the future.
    I think that the current drop in oil prices, coupled with 
sanctions, have caused a lot of problems for Mr. Putin. And so, 
that may be somewhat diminished now. But, clearly, energy will 
remain a tool in the toolkit that the Russian Federation 
considers. And that--efforts that we could make to help Europe 
and some of our key allies to be more energy independent would 
clearly aid our concern.
    Senator Manchin. Or less dependent on Russia. And I agree.
    Next of all, the relationship seems to have degraded to the 
point to where the Cold War is colder today than it was during 
the Cold War of yesteryear. I just came back from a conference 
on Russia and Ukraine in Berlin, and it was very enlightening. 
And they were both Russian scholars, people who know the 
Russian thought process, that were saying we should be careful 
about Ukraine--arming Ukraine. I would have thought--as a West 
Virginian, we always stand up for the underdog and try to help 
them, but they said we should rethink that position. You might 
want to give a thought on that, and you already have on some. 
But, what--the relationship--what are we doing to build a 
relationship or a dialogue? I mean, has it deteriorated to the 
point we're not talking to a country that's extremely powerful, 
as far as in the line of nuclear weapons?
    General Breedlove. So, Senator, again, thank you.
    I think that there are places where we're talking a lot. I 
watch our Secretary of State, Secretary Kerry, work with his 
counterpart, Lavrov, a lot. So, there are avenues where there 
is great conversation.
    I would tell you, sir, what's worrisome is that the 
military level of conversation has been diminished.
    Senator Manchin. From your standpoint, your cohort, as far 
as, I guess, on your level----
    General Breedlove. Valery Gerasimov.
    Senator Manchin.--is not--it's nonexistent?
    General Breedlove. We--I'll be very distinct in how I 
answer this--we have a line of communication that works. We 
know that I can talk to him and he can talk to me. We know that 
we have the right translators and things.
    Senator Manchin. You haven't had lunch for a while, right?
    General Breedlove. I haven't had a lot of conversations 
with him----
    Senator Manchin. I understand.
    General Breedlove.--since he went into Crimea.
    Senator Manchin. S-300. Knowing that we have this 
conversation going on, knowing that we have a pending outline 
of a deal, the Iran deal, what did you make of the Russians 
stepping up and making an announcement, in the middle of this 
negotiations, on furnishing S-300s to Iran? How did you read 
that?
    General Breedlove. Senator, I think that this is a tool to 
influence the conversation, as many other tools have been used 
in the past to influence conversations. I think that President 
Putin's first goals are really not about Ukraine, it's about 
changing the West. Mr. Putin doesn't like to deal with the EU, 
in an economic sense, and he doesn't like to deal with NATO, in 
a military sense. And so, many of the tools he used are to try 
to drive wedges in the EU and NATO. And if he can divide those 
organizations, then all the other things he needs falls into 
place. And I think that he uses many tools to force these 
conversations----
    Senator Manchin. But, the P5+1 were working with him on 
this whole framework, and here he is, it looks like, 
undercutting it or, basically, sending a different message 
completely. How are we going to trust that he would be part of 
the P5 if we have to make some decisions, or participate?
    General Breedlove. I agree with your concern.
    Senator Manchin. I have some others, but we'll talk later. 
Thank you so much, General.
    General Breedlove. Yes, sir.
    Senator Reed [presiding]. Senator Fischer.
    Senator Fischer. Thank you, Senator.
    Good morning, General, it's nice to see you.
    As you know, General Rodriguez testified that he thought 
Libya-based threats have the highest potential of threats in 
his region to increase risk to the United States and the 
European strategic interests in the next 2 years. Do you share 
that concern? And are you satisfied with the response that we 
have had to that crisis in Libya?
    General Breedlove. Senator, I am concerned about Libya, and 
I think, as important, as the European Commander, it's key that 
I should tell you that many of our key allies are very 
concerned about Libya. I would say that, rightfully so, our 
Italian friends are very focused on what's going on in Libya. 
You know, they're--are very close to the African continent, and 
are under great pressure from migrations of all manner of 
people, some of which could be nefarious and some of which 
could be just legitimate refugees. But, what is happening in 
North Africa, and Libya sort of being at the nexus of it right 
now, concerns me and concerns our allies.
    Senator Fischer. You mentioned specifically the Italians. 
Do you see the refugees that are landing and being transferred 
into Italy? Are they staying in Italy or are they moving 
through Italy to other countries? And, if so, what's the 
response of those countries?
    General Breedlove. The answer is yes to both. Some are 
staying in Italy and some are quickly transiting in the 
Schengen Zone into other nations. And all of the Nations of 
Europe are concerned about these flows, because--what they 
could possibly bring and, frankly, they put pressure on all the 
social systems of these nations.
    Senator Fischer. Have any of our European allies come up 
with a coordinated strategy in how to deal with refugees? But, 
really more importantly, how are they going to deal with Libya, 
and are we involved in those conversations?
    General Breedlove. So, first, ma'am, as you know, Italy 
started out with an--a military operation if its own, Mare 
Nostrum. And this operation was tough and consumed almost their 
entire naval capacity for a certain amount of time. That 
military operation has been supplanted now by a European Union 
operation, which is right now being stressed pretty badly by 
what is happening on the Mediterranean oceans. And you've seen 
a couple of disastrous results, here, recently.
    These are concerns. And the Nations are talking about how 
to handle it and how the Nations that are most effective may 
need other nations' help. It is primarily a conversation inside 
the EU, because these--this has a--lots of reaches into what we 
discussed earlier. These are, in many cases, Ministry of 
Interior issues when they come to the land, as opposed to 
Ministry of Defense issues.
    But, the answer, ma'am, is yes, we are talking, and we are 
looking at this problem. And I expect that it will be a growing 
conversation, because this problem will get worse before it 
gets better.
    Senator Fischer. If I can move back to some of the 
questions and responses you had on the INF Treaty violation 
with--that the Russians committed. Have they acknowledged that 
they violated that Treaty yet?
    General Breedlove. Ma'am, I don't think they've 
acknowledged. What they continually do when we bring up the INF 
issue is, they point to how the West has busted the INF. They 
continually point to our missile defenses as being outside of 
the INF. They point to some of the test missiles we have used 
to--in the past, et cetera. So, the conversation is, we address 
their--what we think they're outside of the INF, and, rather 
than answering, they address where they think we're outside of 
the INF.
    Senator Fischer. So, what actions have we taken to date to 
respond to their violation? Are we being forceful in any way in 
trying to get the Russians to respond to us in any kind of 
meaningful way, or are we going to continue with this back-and-
forth cat-and-mouse game?
    General Breedlove. Senator, I actually think that the 
Department of State--and Secretary Gottemoeller is pushing 
pretty hard on this--and that's the first stage of this, is to 
try to do this through those kinds of conversations. So, I am 
actually maybe a little more optimistic than you sound at this 
point on Rose Gottemoeller's efforts and how she's working it.
    Senator Fischer. And I appreciate your comments, and thank 
you, sir, for your service.
    General Breedlove. Thank you, ma'am.
    Senator Reed. Senator King.
    Senator King. Thank you, Mr. Chairman.
    General, I understand you had some discussion with 
Secretary Sullivan--I had to be at another committee meeting 
briefly--on the question of the Arctic. I'd like to put a 
slightly different twist on that.
    Five of the eight Arctic nations are NATO nations. Are they 
taking this seriously? Are they engaged? Has there been 
communication, in terms of NATO's position, with regard to the 
Russian buildup in the Arctic?
    General Breedlove. Senator, thank you. Yes, our NATO 
nations are concerned about this. And the--while only five or 
eight are allies, others are very close partners in the way 
that we do business. And so, the eight nations, of course, are 
on the Arctic Council together. The United States took charge 
of the chairmanship of the Arctic Council this year. We also 
work closely with Norway and another venue in the Arctic. So, 
there is a consorted concern. Nations are not completely 
unified in the approach yet. But, there is strong conversation 
about, What is it that we do, going forward?
    Senator King. Would you agree that one of the things we 
certainly need to do is infrastructure, in terms of things like 
icebreakers? We are woefully under-resourced, in terms of that 
kind of asset. Is that correct? Is that your understanding?
    General Breedlove. Sir, I have had the same reports you 
have, and we are limited in our icebreaker capacity. And I 
think it is important that all of the Arctic nations now begin 
to look at, What are our capabilities and capacities to deal 
with this new environment?
    Senator King. Thank you.
    To go back to--there was a moment in your opening remarks 
that caught my attention. And I don't think I wrote it down 
exactly, but it goes to the question of the Ukrainians and 
arming the Ukrainians. And you said something to the effect, 
``When the proxy forces run into trouble, Russian forces step 
in to right the balance.'' That goes to the heart of my concern 
about arming the Ukrainians. And the consensus seems to be 
developing that that's the right thing to do.
    My question is, Does not the principle that you stated in 
that sentence apply, in that our arming of the Ukrainians would 
simply provoke a counter-reaction from Russia, a kind of 
escalation? And have you gamed that out? Where does it stop? 
They're not going to ignore our more direct intervention, in 
terms of lethal arms. And I'd like to know your thinking on 
that.
    General Breedlove. Senator, thank you. This is one of the 
toughest things that we look at and consider, and we are war-
gaming and table-topping to work our way through it, because I 
have been consistent, in my remarks and other testimony, that 
yes, we need to be intellectually honest that anything we do--
anything we do--is going to provoke a Russian response. This is 
the way they do business.
    And I have also said, Senator, that inaction is also an 
action, and the Russians will react to it. As I said in my 
opening statement, Mr. Putin does understand weakness, and 
takes advantage of it.
    So, we need to look at both sides of the ledger. And we are 
doing that. We have all agreed, and, as the Chairman mentioned 
in his opening statement, we do not believe that there is any--
there is a good course in trying to arm the Ukrainians to the 
points that they could defeat Russian forces in the field. We 
don't--no one thinks that's the path ahead. What we do believe 
is that we should consider changing the decision calculus of 
Mr. Putin. And that's what we look at. And we acknowledge, as 
you have said, that if we do consider and eventually yes-or-no 
on more lethal weapons, it could have a detrimental effect, as 
well.
    Senator King. Everyone around here is trying to 
psychoanalyze Mr. Putin, but do you believe that his incursion 
or his support of the separatists in the Ukraine was provoked 
by a Russian national strategy, if you will, of trying to 
piecemeal rebuild the Russian empire, the Soviet Union, or was 
it provoked by his concern that the Ukraine was moving too 
closely toward the West, there was talk of joining the EU, talk 
of joining NATO? Do--in other words, where did all this start? 
I think--and you mentioned, in your prepared testimony, that 
clearly Russia views Ukraine as within their sphere of 
influence, just as we view Canada, Mexico, the Caribbean as 
within our sphere of influence, and we would react if there was 
a movement of those organizations into what would be considered 
a hostile camp. What--do you understand my--understand where 
I'm going with it?
    General Breedlove. I do. I do, Senator. And I would answer 
yes to both of your first questions. Yes, this is partially due 
to the sudden movement as the government changed, following the 
Maidan. That certainly had a part of the calculus. Also, 
there--as you rightly described----
    Senator King. I think the question is, Was that the 
motivation or an excuse? That's what it----
    General Breedlove. I would--the answer is yes to both of 
those, as well. I--there are those who have said--and I follow 
the logic--that--and has been reported recently--that Mr. Putin 
had designs on Crimea long before any of this. You've seen it 
reported in the press. And so, we do believe that he has 
thought through these possibilities in the past. So, none of 
this was a spur-of-the-moment action. But, it could also have 
been a reaction to what we saw in the change of government 
following the Maidan.
    I think what is important to understand is the second part 
of your two-question pair, which is that Russia does want to 
have a sphere of influence that buys a buffer zone between them 
and the West, and they very much see Ukraine as part of that 
sphere of influence. I've shortened this to a quip that does 
not--it should not be trivialized, but the bottom line is, 
Russia wants Kiev out of the West, and wants the West out of 
Kiev. And he would like to have Russia driving all of the 
levers in what happens in Ukraine to maintain that in the 
future. And I think that's where this is headed.
    Senator King. Thank you, General, for your thoughtful 
answers, and thank you for your extraordinary leadership on 
this difficult issue.
    Senator, thank you.
    Chairman McCain. Didn't he also say, on many occasions, the 
worst event of the 20th century was the breakup of the Soviet 
Union?
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, General, very much for being here today, and 
thank you for your service, and your staff's, as well.
    In your posture statement, you stated that one of EUCOM's 
top three--in the top three security threats is the flow of 
foreign fighters between Europe and the Levant. So, with that 
statement, what is the impact to the security of our European 
allies and to U.S. interests in that region brought by ISIL, 
al-Nusra, and any number of those other extremist organizations 
that have been radicalized by them, who benefit from the use of 
Turkish soil as a means of their lines of communication, that 
territory for transit, for recruiting, financial services, 
purchase of goods, weapons? What is the threat there that you 
see, General?
    General Breedlove. So, thank you, Senator.
    And it is one of those three sort of threats that have 
arisen from North Africa, from the Levant, especially Iraq and 
into--or Syria and into Iraq, and then, of course, Russia was 
the third. But, this is a problem for all of Europe. It is an 
immediate problem for our Turkish ally, because it's on their 
border, and the possibility of it spilling over into Turkey, 
the impact of well over 1.6 million migrants, et cetera, et 
cetera--Turkey is facing direct impact from what is happening 
there. And we cannot discount that at--I think it's highly 
unlikely, let me tell you, but we cannot discount that there 
might actually be a military incursion across it sometime in 
this calculation. So, these are things we need to worry about.
    But, the most pressing issue is what you and others have 
talked about, and that is this flow of fighters, a large number 
of fighters in Iraq and Syria, and many of them will return, 
with new skills and malicious intent, back to their nations. We 
have seen this already disrupted in a few of the Nations. So, 
how do we address that flow? Again, we're in the nascent stage 
of two very good projects, where we are bringing nations 
together to address this. And those, ma'am, I would need to 
talk about in a different setting.
    Senator Ernst. Certainly.
    And the fact, fact or otherwise, that Turkey is an ally--I 
think it could be disputed, on any different day. I think there 
is a lot that goes on through Turkey that we would rather not 
see happening. And so, in your opinion, then, is the risk of 
any sort of action coming through Turkey, would you consider 
that that would be--whether it's ISIS or any of these other 
organizations into Europe--would you say that that threat is 
low--low risk or high risk?
    General Breedlove. Ma'am, I would not single out Turkey. I 
think that the flows are in several areas, as was--as we 
discussed earlier. Some of this threat vector may be coming 
across in this flow into Italy, the diaspora from the Libya 
area, as these people move freely across the northern Africa 
and the Maghreb and there--have multiple points of entry into 
Europe. Turkey is--clearly has had issues with flows. They are 
addressing those flows. And I--this is a broader problem than 
just their borders.
    Senator Ernst. Okay. And that is a good point, General, 
thank you.
    And you mentioned earlier you are a fighter pilot. And 
thank you for your service in doing that. Could you please 
describe how important it is to have search-and-rescue 
capabilities close to those areas of the fight? We had seen 
recently, of course, that Turkey refused to allow the United 
States access to the search-and-rescue missions, or having 
those types of search-and-rescue missions out of Incirlik. So, 
could you please describe what effects that has to the combat 
fighters and those types of missions?
    General Breedlove. So, to the overall question, first, as a 
single-seat fighter pilot, we don't allow search-and-rescue 
pilots to buy their beers when they're in the bars, because 
their job is incredibly important to what we do. So, I'll stop 
on that one. There is--the necessity and the importance of 
search and rescue cannot be overstated.
    Ma'am, we have been working with Turkey on some very key 
things. One I can talk about in this venue, our training and 
equipping missions is now up and running.
    Senator Ernst. Very good.
    General Breedlove. And so, we've made progress there.
    Senator Ernst. Very good.
    General Breedlove. On the other two, I would like to have 
someone come by and talk to you about----
    Senator Ernst. Absolutely.
    General Breedlove.--the progress there.
    Senator Ernst. We will do that.
    Thank you very much, General.
    And my time is expired. Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you.
    General Breedlove, can you describe the importance of 
providing security assistance training to our NATO allies, 
particularly in eastern Europe? And is there more that we can 
do? And I understand that there's--there may be some question 
about authority to actually provide the assistance that we 
might want to. And is this something that this committee should 
be looking at as we look at making sure you have the ability to 
do what you need to do with respect to training?
    General Breedlove. So, ma'am, this is important. May I just 
make a couple of key examples?
    Senator Shaheen. Please.
    General Breedlove. Georgia and Romania, today the number-
two and number-four contributor of forces to Resolute Support. 
The number-two troop-contributing nation to our efforts now, 
our NATO efforts and U.S. efforts in Afghanistan, is Georgia, a 
non-ally. We've had a great program with our U.S. Marine Corps 
in training Georgian troops, and Georgia has gone to 
Afghanistan during the kinetic fighting, and they've died 
alongside our forces in the toughest parts of southern 
Afghanistan, where they fought without caveat. So, all of these 
efforts that we have, where we train our eastern allies and 
partners--Romania being an ally, and I'll talk to them in just 
a moment--but, these efforts that we have, where we train our 
allies and partners means two things: their nations draw closer 
to our Western values and morals and capabilities; and, two, as 
they serve alongside of us, that means our soldiers, sailors, 
marines, and airmen do not have to go there in the same 
numbers. And so, it's absolutely key.
    Romania, now, the number-four contributor to Resolute 
Support and, I think, an anchor in the south on the Black Sea, 
and the things that they're doing in our NATO RAP program, 
where they are providing headquarters to lead in the south--so, 
the bottom line is that these allies and partners are 
incredibly important to us a nation and an alliance as we 
address in the future.
    And, ma'am, there are a lot of authorities out there. What 
we have asked is to be considered to have one created for 
eastern Europe, because we don't compete well sometimes with 
other places in the world where fighting and things are going 
on, and that's what we've asked you to consider, ma'am. And we 
would appreciate your support.
    Senator Shaheen. And so, just to be clear, this is 
something that would need to be done through statute, and it's 
something that we can consider as we're looking at the 
authorization bill this year.
    General Breedlove. Yes, ma'am. And if you're interested, we 
will have the right people talk with your staff.
    Senator Shaheen. Absolutely. Thank you.
    Can you--you mentioned in your statement, the European 
Reassurance Initiative, which I think is something that has not 
gotten a lot of attention. And I wonder if you could assess how 
it's working, talk a little bit more about what key areas we 
should be investing in. How is the implementation of this 
going?
    General Breedlove. Ma'am, I would never sound like I was 
correcting. Maybe it doesn't get a lot of interest back here, 
but let me tell you, in Europe and amongst our European allies, 
it gets a lot of attention, and it's being used well. We are 
using this year's ERI to do a myriad of things: rotational 
force, the division that has been rotating into our northern 
nations now in that rotational army force funded by the ERI; 
bringing aircraft over, such as the A-10s in Campia Turzii and 
others--these are brought over in these funds.
    Second of all, if I could show you on a map where all of 
the investments in infrastructure have been made, you would see 
a very clear move to the east and the south into our newer 
nations, providing them with small things that would help us if 
we had to rapidly reinforce--fixing railheads, fixing landing 
strips and cargo pads, things that allow us to more quickly 
join that partner, if we had to in the first, and plot it on a 
map, you would see a string of investments that is 
demonstratively in the east and in the south to address these 
new nations.
    And so, the ERI has had a direct impact already. And, as 
you know, ma'am, we have asked for it to be continued in 2016.
    Senator Shaheen. So, you are feeling positive about how 
it's going, and the response from our European partners has 
been very positive.
    General Breedlove. Yes, ma'am.
    Senator Shaheen. Thank you.
    My time is up. But, I just wanted to echo the comments that 
you made about Georgia's contributions to the Afghanistan 
effort and to support for NATO. I agree, I think they've been a 
terrific partner, and hopefully will continue to be.
    Thank you, General Breedlove.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. Thank you, General, for your service and 
leadership.
    I wanted to ask you, if another Benghazi-type attack 
occurred tomorrow or tonight in North Africa, would European 
Command be better prepared to respond more quickly and 
effectively to this type of attack in a region that we see even 
more activity, more terrorism, and more instability at this 
point?
    General Breedlove. Senator, first and foremost, AFRICOM 
would be better prepared to respond to this attack. And part of 
the reason AFRICOM would be better prepared is because of our 
hosting, preparing, training, on a day-to-day basis, of those 
forces that AFRICOM would use. As you know, AFRICOM, we share 
forces with AFRICOM. Our Special Forces, our airlift forces, 
our fighters that are on alert are all EUCOM assets, but are at 
the ready to rapidly support AFRICOM if it goes forward. 
AFRICOM has been given a Special Purpose MAGTF Crisis Response, 
which we host--we, EUCOM, host primarily at----
    Senator Ayotte. You host that response team, correct?
    General Breedlove. I do, ma'am.
    Senator Ayotte. Yup.
    General Breedlove. And Moron Airbase, in Spain. And today 
we have several pieces of it deployed forward to be even more 
ready because of concern.
    Senator Ayotte. So, the answer would be, we'd be in a 
better position, I hope?
    General Breedlove. Yes, ma'am.
    Senator Ayotte. Good. That's really important. I appreciate 
that.
    And one of the questions I wanted to ask about--the 
Associated Press reported today that Russia has significantly 
deepened its command and control of the militants in eastern 
Ukraine in recent months. And this greater level of Russian 
involvement has evidently resulted in a new term, called 
``combined Russian separatist forces.'' General Breedlove, can 
you comment on that? Have you seen increased levels of Russian 
command and control of the separatists, which I think none of 
us were any--under any illusion from the beginning that they 
were controlling these separatists, but it seems that they're 
upping their game in that regard.
    General Breedlove. I do agree with that, and I agree with 
the reporting.
    Senator Ayotte. And if that's the case, and we look at 
what's happening right now--and I know that you were asked 
earlier about some of Russia's other activities, including its 
violation of the INF Treaty--you know, one of the things that 
concerns, I think, all of us is that Russia doesn't seem to be 
getting the message with the sanctions that are in place alone 
right now, and with some of the support we're providing in the 
absence of lethal weapons. So, how do you provide assurance to 
us that we can stop Russia from further destabilizing eastern 
Ukraine, and that the--the world understands. I mean, we--you 
know, these separatists are really--we might as well just call 
them what they are: Russian agents.
    General Breedlove. Ma'am, it's a broad question, and I'll 
try to attack it in a couple of pieces, here.
    We do see a very distinct Russian set of command and 
control in the eastern part of Ukraine. And that, I think, has 
become necessary for them, because there was disunity in some 
of the earlier attacks. I think the--command and control is 
also required because they are bringing so much capability in 
there, it needed to be structured, and it needed to be arranged 
in a way that it could accomplish the goals there in eastern 
Ukraine.
    So, command and control, air defense, support to artillery, 
all of these things increased and making a more coherent 
organized force out of the separatists--I've never called them 
``separatists,'' I've always called them ``Russian-led 
separatists'' or ``Russian-backed separatists.'' There is a new 
term out there. I think that term is being created because it 
is becoming much more structured by Russian leadership.
    How do we get the--whether Russia is getting the message or 
not? There has been a lively conversation about whether what we 
have done has affected Mr. Putin's calculus. I must admit that, 
in the past, I did not think much so. But, I do now believe 
that Mr. Putin is concerned about further sanctions in some of 
the things. And that may be affecting how he currently does 
things in eastern Ukraine. But, we really have no way of 
knowing, one way or the other.
    Senator Ayotte. So, can we expect--since we've heard from 
some of our European partners, including Germany, that they 
don't believe we should provide lethal weapons, can we expect 
them to double down on sanctions, at least, in terms of where 
Russia is right now? And I hope that this is something that 
they don't back off on and, in fact, we increase sanctions.
    General Breedlove. Ma'am, I really am unable to speak to 
what our allies are thinking about, but we hear all of these 
discussions and debates going on now about keeping the pressure 
on. And I think there is a strong current which says that both 
sides of the agreement are--need to be held to meeting this 12 
February agreement that was made in Minsk, and that that will 
have a direct bearing on whether sanctions are relieved, or 
not.
    Senator Ayotte. Thank you. I think all of us are very 
frustrated, because we've been calling for so long for what 
needs to be done in Ukraine to push back on Russia. And I just 
hope that the administration is listening to the--what we've 
heard, which has been continuous testimony, consistent in this 
committee, about providing lethal support and additional 
sanctions.
    Thank you.
    Chairman McCain. Senator McCaskill.
    Senator McCaskill. Thank you.
    Let's--I'd like to talk a little bit about the immigration 
crisis. We now have some of our NATO allies that are down to 
spending less than 1.5 percent of their GDP on defense. 
Obviously, we have had a tragedy that has occurred with 
hundreds of people going to their death because of their 
efforts to immigrate to Europe from Africa and parts of the 
Middle East. Can you tell me in what ways the American military 
are involved in supporting or working with our European allies 
as they work to humanely deal with all of the refugees that are 
attempting to get to Europe?
    General Breedlove. Ma'am, if I could dissect just a little 
bit. There is a big problem, as you have identified, with this 
flow of immigrants across from North Africa into southern 
Europe; probably most acute in Italy, but there is a big 
problem. We have talked today, and I agree with the 
supposition, that this is primarily an immigration problem, but 
also inside of these immigrants are organized crime and very 
likely also terrorists and foreign fighters that are attempting 
to get across. So, this is a problem broader than just the 
immigration. But, certainly that is a major driver.
    First and foremost, the Nations have addressed this, as we 
talked about earlier. The Italian operation, Mare Nostrum, 
worked this hard, and then the European Union has taken this 
mission over and now is beginning to work that.
    Your direct question about what the United States is doing, 
we have a broad NATO network of sharing of information about 
what's going on, on ths seas, where things are moving. To 
explain the military term, we have a maritime cop, which is 
just the picture of what's going on, on the sea, that we help 
our neighbors understand and characterize what their--what is--
they're facing.
    Senator McCaskill. I just worry that, as Italy is--you 
know, they're spending so little on defense, and it--if they 
are using any of their resources to address this, it certainly 
limits their ability to participate in NATO with us in a more 
robust fashion.
    You know, I just am curious if you have any take on the 
rise of the Scottish National Party, and what, if any, impact 
you see. And if you want to take it for the record, you can, 
General. I just--it's fascinating to me. These elections are 
coming in a few days after they voted to not leave the United 
Kingdom (U.K.) You're seeing a remarkable surge of political 
power for the Scottish National Party. And a lot of 
commentators are now saying that the Scottish National Party is 
going to be the kingpin, in terms of the formation of a 
government in what is obviously one of our most important 
allies on the planet. Have you all discussed this? Is this 
being talked about? It is--you know, I mean, Labor is really 
getting swamped, according to the polling, by SNP. And what 
impact is that going to have on U.K. and their robust 
participation with us as an ally, particularly in NATO?
    General Breedlove. Ma'am, can I take your generous offer 
and take that for the record----
    Senator McCaskill. Absolutely.
    Senator McCaskill. What about Europeans leaving to fight 
for the Islamic State? Are there any specific actions that the 
European Command is taking to assist the effort of 
identifying--they have a much bigger problem than we do, in 
terms of citizens of Europe leaving to go and join the fight 
with ISIS--is there any specific actions that you all have 
taken in regards to this problem?
    General Breedlove. Ma'am, the short answer is yes. Much of 
that, we can't talk about in this room, and I would like to 
send some of my people to maybe brief you and your staff.
    Senator McCaskill. That would be terrific. We would be 
interested in understanding what our role is in trying to 
assist in stopping this flow of fighters to these barbarians.
    Thank you very much, General, for your service. And thank 
you, to your team.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, General, for your service.
    This is a question relating to the U.S. rebalance to Asia 
while threats continue to materialize in other regions. In the 
case of Russia, which crosses both the European and Pacific 
Command areas of responsibility, do you see a potential for 
leveraging our Asia-Pacific posture to influence Russia and its 
actions in the European AOR, and vice versa? If you can briefly 
comment. Because you did talk about the need to change Putin's 
decision calculus by--i.e., possibly arming the Ukrainians or 
of further economic sanctions.
    General Breedlove. Senator, you have hit at the heart of 
the matter. The--Russia does touch many COCOMs--essentially, 
EUCOM, PACOM, NORTHCOM, because of the existential nuclear 
capabilities in Alaska and the northern passage. Russia also 
touches many of our specific non geographic COCOMs: STRATCOM, 
CYBERCOM, TRANSCOM. There are so many that Russia touches.
    We have had a model in the past in Asia that is called the 
Chinese Strategic Initiative, and it has been a great model to 
bring focus to the Asia-Pacific area. We have been treating 
Russia as a partner for many years, and now we see that we're 
going to have to take the same broad approach in Russia. And 
so, EUCOM has led the formation of a Russia Strategic 
Initiative, where we've brought together all of the COCOMs that 
touch Russia, and we are working on just these concerns and 
these opportunities that you mentioned in your question.
    So, yes, we intend to look at Russia more holistically. 
We've had a great start. And I expect that this will be a good 
investment of stafftime.
    Senator Hirono. So, I hope that, at some point, you might 
be able to talk with us a bit more about how this strategic 
initiative with regard to Russia is working out with all of the 
different commands.
    You--okay, you--I think you talked about the U.S. ballistic 
missile defense, which is very much in high demand. So, can you 
discuss the importance of the European Phase Adaptive Approach 
and the benefits that Aegis Ashore provides in this approach? 
And can you also update us on the progress of installing Aegis 
Ashore in Romania and eventually in Poland?
    General Breedlove. Let me answer the second part, because 
it's very easy, and then I'll use what time you want for--to 
talk more about European Phased Adaptive Approach (EPAA).
    Our two sites in--first, in Deveselu, Romania, is on 
course, on schedule to deliver technically on time. We're 
slightly--and I emphasize ``slightly,'' because this is a good-
news story--we're slightly behind in the construction. But, the 
team completely believes that we're on track for the technical 
handover on time. And we are on or under budget, so far. So, 
this is good news.
    To the site in Poland, we are--just this week, have signed 
almost every one of the agreements that are required in order 
to start that work, so I think we are on track on our site in 
Poland, as well.
    So, these two missile sites will be, obviously, incredibly 
important to our missile defense in Europe. And I am very--I am 
well over--way over a ``glass half full'' that we are on track 
with these.
    To the larger question of European Phase Adaptive Approach, 
the Europe--the American contributions are all moving apace. We 
will close out with our fourth destroyer in Rota this year on 
time. Our first two, and now third, are already doing their 
mission. And our connection and our command and control C2BMC 
capabilities are all proceeding apace. So, the U.S. 
contribution to EPAA is on track. We see the--where we lead, 
the Europeans follow. And I think that we see good cooperation 
now from Europe as they bring alongside what is called ACS, 
which is another command-and-control structure which they have 
put over the--our--not only our air, naval, and our ground 
capabilities to control these assets. We see several of the 
northern European nations now, one committing and one thinking 
about upgrading their Aegis platforms to be able to 
participate.
    So, the goal in NATO is 28 for 28, every nation contributes 
some way. It may just be ground-based defense of a site, but we 
want all 28 nations involved in this. And I am optimistic, at 
this moment.
    Senator Hirono. Thank you very much.
    Thank you, Mr. Chairman. My time is up.
    Chairman McCain. Senator Wicker.
    Senator Wicker. Thank you.
    Well, along the lines of everyone participating, it seems 
to me, General, that, in talking to European Ministries of 
Defense recently, and parliamentarians from various NATO and 
Organization for Security and Cooperation in Europe (OSCE) 
countries, that there is a realization now among our European 
allies that they're going to have to do a better job of getting 
to the 2 percent GDP. I think I'm learning that the French, for 
example, aren't quite there, but there's a determination to get 
to 2 percent of GDP for defense quicker. So, how are we doing--
without taking my whole 5 minutes--across the board, in getting 
our NATO allies to realize that they need to pony up as we're 
coming to that realization here in Washington?
    General Breedlove. Senator, I cannot confirm, but, on the 
way here this morning, I read in the press that the French have 
announced that they are going to raise their defense spending. 
And so, I don't have any details. It's literally watching the 
press releases as I came to this.
    But, this is--I think there are several nations that are 
trending in the right direction, here. I must admit that most 
of them are those nations that are in our easternmost positions 
in our alliance. But, we do have nations--Poland, others--that 
are doing the right thing with their investments.
    But, there are still challenges. The nations made this 
pledge at Wales, as you know. They gave themselves to 2024 to 
arrive at that. We see nations moving out now. In general, the 
trend is that----
    Senator Wicker. Well, we certainly need movement in the 
right direction well before that.
    General Breedlove. Sir, I could--I agree completely.
    Senator Wicker. And do you agree, General, that it's not so 
much our persuasiveness as the reality of what they see and the 
actions of people that would be our adversaries over there?
    General Breedlove. That is correct. And, Senator, the other 
piece of this also is that, with their forces, they are 
beginning to do all the right things. Great commitment to the 
VJTF by six of our largest nations--European nations committing 
to be the center brigade of the VJTF. The United States will 
not be that center brigade right now. And so, six European 
nations.
    Senator Wicker. You know, with regard to the thing that 
Chairman McCain started out talking about with the--supplying 
defensive weapons to our Ukrainian friends, he noted that 
Madeleine Albright, Henry Kissinger, Secretary Carter--and I 
think you said you agree with the Secretary of Defense--have 
all expressed, publicly before this committee, support for 
arming our friends with defensive weapons. And I would simply 
point out, they're--these are not jingoistic cowboys. You know, 
they're very thoughtful people, some of the most preeminent 
experts we have, and we have the benefit of their counsel here. 
It seems to me that, with a substantial portion of our NATO 
friends, there's a nervousness that somehow giving people the 
ability to defend themselves with defensive weapons is going to 
be a provocation to Mr. Putin and allow him to gen up his 
propaganda machine. So, could you comment on that? And then, I 
do want to ask you about being caught by surprise with what 
happened in eastern Ukraine. So, if we could squeeze that in, 
in my few moments.
    General Breedlove. Senator, a weapon is a weapon. And 
whether it's defensive or offensive is sort of in the hands of 
the holder of the weapon. But, I--there is, as you have----
    Senator Wicker. Acknowledged. Yes.
    General Breedlove. Yeah. As you have described, Senator, 
rightly, there is a conversation inside of our alliance. There 
are nations that do want to provide lethal weapons. And there 
are other nations who do believe that this is not the correct 
approach. It is a lively debate. And my position has been 
stated.
    Senator Wicker. Well, let me just ask you. To me, it was 
stunning to hear you admit that we were caught by surprise. And 
I think you were referring to what happened in Crimea and in 
eastern Ukraine. If we had--and I think you said that right 
before you advocated a small additional investment in ISR--if 
we had already had that small investment, would that have 
prevented us from being caught by surprise by these ``little 
green men'' coming into--men dressed in green uniforms--coming 
into Crimea? And what would we have done, had we not--had we 
been aware, with better ISR and better intel?
    General Breedlove. Right. Senator, I'll have to go back and 
look at the way I used those words. We have been caught by 
surprise, but mostly it's as it relates to some of these large 
exercises, like this last exercise that started off being 
billed as an Arctic exercise; it really turned into a western 
military district, southern military district, and Arctic 
exercise. And, yes, sir, we were caught by surprise for that. 
In fact, our first tipper to that came from social media, which 
is an interesting thing.
    But, my concern is that we are in a position where, for all 
the right reasons over the past decade and a half, we have 
refocused our intelligence apparatus, our analysts, our tools 
on the wars that were going on, and on the new threats. And so, 
I blame no one for these decisions. We were focused in areas 
like Afghanistan, Iraq, Syria, Levant, et cetera.
    But, what I think we need to consider now--what we, as a 
Nation, need to consider, is, based on the new approach that we 
see Russia taking to eastern Europe, we should look at, Do we 
need to refocus any of those assets, be them analysts or actual 
assets, towards the European program? And I would like to 
compliment the Intelligence Community, because they have begun 
a very dedicated reallocation of analysts to bring to our 
problem. And it--I think the problem--and that, I have to just 
absolutely thank them for, but I think that also we need to be 
rethinking our ISR and other platforms that allow us to have 
this feel for what's going on in eastern Europe that we have 
not considered important for some time now.
    Senator Wicker. Thank you very much.
    Well, I just commend you--and I--and I'll have to say, we--
apparently, the decisionmakers in this town have decided that 
we will rebalance toward the Asia-Pacific. And that may be the 
right decision, or it may not. But, I cannot think of a troop 
that's in a hotter spot than you are. And I just--I hope that 
this Congress and this Government understands that the area of 
responsibility over which you preside is, indeed, very, very 
consequential to us right now, here and now.
    Thank you, sir.
    Chairman McCain. Senator Graham.
    Senator Graham. Thank you.
    What's the likelihood, in your view, that Moldova will be 
in Putin's crosshairs in the next year?
    General Breedlove. Senator, I think it is an area of his 
concern and emphasis. I think you are aware, and it's fairly 
open knowledge, that the forces in Moldova have been 
retrofitted with new equipment, et cetera, across the past year 
or so. And we see the sort of interest and rhetoric in that 
Transnistria region----
    Senator Graham. Right.
    General Breedlove.--that is concerning. And now we----
    Senator Graham. Is it kind of almost what we saw in Crimea?
    General Breedlove. Senator, I don't think it's to that 
level yet, but it is the leading edge of these kinds of issues.
    Senator Graham. Do you agree with me it's most likely to 
occur unless he changes his mind through some recalculation of 
cost-benefit analysis of what he's doing in the Ukraine right 
now?
    General Breedlove. Senator, I agree that I think Mr. Putin 
is not done in Ukraine.
    Senator Graham. He's not done in the Ukraine. Moldova may 
be next. Let's talk about the Baltic states. Can you see a 
situation--well, is it fair to say that the Russians are trying 
to stir up problems for the Baltic states with a Russian-
speaking population? Is that ongoing right now?
    General Breedlove. Senator, I think some of the information 
outreach to these Russian speakers around eastern Europe, 
specifically in the Baltics, is very--I'm trying--searching for 
the word--it is very good. As we talked about earlier, Senator, 
before you came----
    Senator Graham. Good, from a Russian point of view.
    General Breedlove. Sir, exactly.
    Senator Graham. Bad for us.
    General Breedlove. Very ``sophisticated'' was the word I 
was looking for----
    Senator Graham. Okay.
    General Breedlove.--and I couldn't find it.
    Senator Graham. What's the worst-case scenario for the 
Ukraine?
    General Breedlove. Senator, I worry a lot about the 
military problem. I worry almost more about their fiscal 
issues. We desperately for Ukraine to be able to address the 
things that the people of Ukraine voted for in their last 
election, and that is to reform, in a lot of ways, and, second, 
they need to get their fiscal business in order. And it's hard 
to do when your military is in the field, fighting.
    Senator Graham. So, one way to bleed Kiev dry is to keep 
the fight, keep them deployed.
    General Breedlove. Keep the pressure on, keep the Ukrainian 
military in the field. Investors are not going to want to 
invest in a situation where there could be a military 
conflict----
    Senator Graham. So, that's one way of basically 
dismembering the Ukraine without having to move to Kiev, 
itself, right?
    General Breedlove. I believe that's the case, Senator.
    Senator Graham. Mariupol, the port city, is there a way for 
the separatists, in collaboration with the Russians, to 
basically cut that port off from the Ukrainian Government?
    General Breedlove. Senator, I believe that it is one of the 
courses of actions that may be considered. The town of Mariupol 
is a big one, about half a million people.
    Senator Graham. So, you don't have to invade it, but they 
can basically isolate it.
    General Breedlove. That's correct, Senator.
    Senator Graham. And what would that mean for the economic 
survivability of the Ukraine?
    General Breedlove. Mariupol is very important to Ukraine, 
because it is the port that most of their agriculture passes 
through, because that area is----
    Senator Graham. So, if you were the separatists or Putin, 
and you really wanted to punish the government in Kiev, that 
would be a move you would make.
    General Breedlove. It is a good option to do that----
    Senator Graham. And would you agree with me, if he takes 
that option, that is just an--basically, an all-out declaration 
of war through economic activity?
    General Breedlove. That is an incredibly big step.
    Senator Graham. Okay. So, if that step happens, what should 
the Western response be?
    General Breedlove. Senator, I can't speak for all of the 
other nations, but I do know that most nations consider 
Mariupol an important point----
    Senator Graham. What will we do? Will they increase 
sanctions?
    General Breedlove. I--Senator, I can't answer for them. I 
think that's certainly one of the----
    Senator Graham. Should we increase sanctions if they do 
this?
    General Breedlove. I think it's most important that we 
maintain the ones we have, first, and not release the----
    Senator Graham. But, do you see this as a provocation 
taking the whole conflict to a new level?
    General Breedlove. I do, Senator.
    Senator Graham. So, they--should be some red line regarding 
this port city?
    General Breedlove. Senator, I don't like to talk about red 
lines. If you draw one----
    Senator Graham. Well, I just want----
    General Breedlove.--you have----
    Senator Graham.--the committee and the country to start 
thinking about what I think is almost inevitable. And we need a 
plan. So, I--you don't have to do it here, but I want somebody 
from the Pentagon to tell me what you recommend if they did 
this provocative act of basically cutting off the port city, 
which would destroy the Ukraine in a different fashion.
    Senator Graham. Finally, in one second--you can take a 
little bit of time--how does sequestration, over time, affect 
your ability to deal with the Ukraine, Russia, and all the 
problems you have in your backyard from migration, from a 
exploding Mideast, the ability to defend our Nation from a 
rogue missile attack coming from the Mideast, just the general 
ability of you to do your job? And what kind of signal would 
that send to NATO nations if we fully implement sequestration?
    General Breedlove. Senator, thank you for that question.
    It--sequestration would be very detrimental to our ability 
to do our job forward. And I'll try to break it into a couple 
of things, if the Chairman will give me a minute or two. I 
can't do this in 10 seconds.
    The first example, we talked about earlier. Part of our 
budget in what we do in Europe is train our partners and 
allies. As we talked about before, the ability to train 
Russians--or, Russians, excuse me--Georgians and Romanians so 
that they can serve beside us in places like Afghanistan, that 
money will be cut, less Georgians will be trained, more 
Americans would have to go to the field. So, sequestration 
affects our ability to train and equip our partners and allies.
    This also affects things as close to us as problems with 
having airfields open when we need them. That's--the first BCA, 
the first $478 billion cut, is what brought us to having to 
make changes to things like Lajes, like Moron, and only have 
Moron open during certain hours, which affects our ability to 
use things like the Special Purpose MAGTF, et cetera.
    And then, finally, our own ability to train ourselves and 
to bring rotational forces into Europe. If--we talked earlier 
about how the rotational forces are a part of a way that we 
solve our forward-presence problem. Sequestration would affect 
the funding for those rotational forces. Our rotational force 
doesn't accomplish its objective unless it is heel-to-toe, no 
air, and fully funded.
    Senator Graham. Thank you for your outstanding service. 
You've done a good job for us.
    Chairman McCain. So, we didn't--General, you didn't mention 
the effect on morale and retention of this lurching from one 
year to another. Do you want to mention that?
    General Breedlove. Senator--or, excuse me--Chairman, 
clearly the things that we are able to do--let me first talk to 
the morale of some of those that are in the fight. It's 
important that we, I think, show faith with nations like 
Georgia and others who have come alongside of us, and our 
ability to continue to train and to provide, as you know, some 
incredibly good medical care. I think you visited the five 
Georgian soldiers who were in Walter Reed. And these things 
that we do for them with our budget would be under challenge 
and clearly affect their morale. For our troops, sir, you flew; 
you knew that, when you were current and you had had enough 
flying hours, you had one approach to your job; when you were 
less current and had fewer flying hours, you had a different 
approach to your job. And so, it's important that we give our 
own soldiers, sailors, airmen, and marines the training 
opportunities and support they need.
    Chairman McCain. And they're not getting it under 
sequestration.
    General Breedlove. Sequestration will challenge our ability 
to do that, Senator.
    Chairman McCain. I just wanted to mention one other issue 
very briefly. The Portuguese are our great friends, and this 
issue of Lajes has turned into one of their biggest issues. 
Have you looked at alternative uses for the base, such as 
putting AFRICOM or SOCOM there, or move intelligence? Would you 
evaluate that again for us? It is such a huge issue for a small 
country that has been very helpful to us in Afghanistan and 
Iraq and Iran. It's just--I've been visited, frankly, by their 
Foreign Minister and many others that are deeply concerned. So, 
I'd appreciate if you'd have another look at it to see if we 
can have greater use of the--of Lajes.
    General Breedlove. Senator, we'll do that. You are correct, 
they are a great ally. They are about to deploy a pretty large 
aviation contingency into Romania to do air policing in the 
middle part of our eastern part of our alliance. Portugal is a 
great ally. And we have done a lot of work already to try to 
make things better in this Lajes issue. Even in the civilian 
sector, our business executives and defense BENS have been 
there. So, we are on this problem, Chairman.
    Chairman McCain. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    And I'm sorry, General Breedlove, I had to be gone at a 
news conference. And so, I'm not sure what all you've covered.
    I wanted to mention one thing that I was aware of. First of 
all, I'm sure you've talked about the Ukraine. I had occasion 
to be in the Ukraine at the time that they had their elections. 
It was the first time that--it takes 5 percent in order to get 
a seat in Parliament--this is the first time in 96 years that 
there will not be one Communist in the Parliament of Ukraine. 
That's huge. That's really a big deal. And I'm very 
disappointed in what the military has done there. You know, 
immediately after that, you had Putin come in, and he's still 
over there. And I'm sure you've discussed this, but I just 
wanted to say to you that, when I--when you're there, as I was, 
and experience a major change taking place that hasn't happened 
in 96 years, and it's all--their allegiance to the west and to 
the United States of America, we haven't done nearly as much to 
assist them as I believe we should. What are your thoughts 
about that?
    General Breedlove. Senator, first of all, I--as I visit, I 
see the same things. Let me just make a silly example. In the 
past, it has been said of what used to be called ``The 
Ukraine,'' rather than ``Ukraine,'' that its identity was 
primarily Russian. I know that, as you were driven through the 
city to go see President Poroshenko or Prime Minister 
Yatsenyuk, you probably saw the same thing as I did: bridges 
painted blue and yellow. This is a nation that has woken up to 
its nationality, and it is a great people. And I believe they 
are worthy of our attention and help.
    Senator Inhofe. Yeah. Well, I do, too. And I'm glad you 
mentioned Yatsenyuk, because he's a different political party--
--
    General Breedlove. Yes, sir.
    Senator Inhofe.--than Poroshenko, and yet they are together 
in this one thing, and that is their allegiance to us and to 
the West.
    Let me ask you about this, because I was following this 
thing when their--the idea of consolidating the intelligence 
assets to Croughton--is that pronounced right? ``Krowton''?
    General Breedlove. It is, Senator, thank you.
    Senator Inhofe. And it made sense to me, after what 
happened in Molesworth. And it would seem the logical place. 
Now, we're talking about the U.K. And yet, I understand--I 
guess in the House, where there is some effort to move that to, 
of all places, the Azores or someplace like that. I'd just like 
to get your--do you feel as I do, that it's--when the--you 
know, if it's--it just seems to me that there is a reason to 
consolidate these assets in a place like U.K. And I think it 
should be done that--what are your thoughts?
    General Breedlove. Senator, thank you. The--there was a lot 
of work done when the siting of this consolidation was 
considered. Many locations were considered. The business case, 
first, is a first point. It points to the current siting plan 
in the United Kingdom. There are other intangibles. The 
communication pipes in the U.K. are extremely good, and would 
not have to be altered to take on the new--in Croughton, would 
not have to be altered. We were--we would be there, close to 
our United Kingdom and other allies who have a great 
relationship with us in intel.
    In my NATO job, the NIFC, we call it, the NATO Intelligence 
Fusion Center, is there in United Kingdom. It would not be able 
to relocate, because this is 28 nations who have negotiated 
with the United Kingdom to stay there. And I think the 
synergies of keeping our U.S. and AFRICOM and EUCOM 
capabilities next to our United Kingdom partners, next to the 
NATO NIFC--all of these synergies point to a good solution 
there at Croughton.
    Senator Inhofe. Yeah. But, you know, I--and I agree with 
that. You're making my argument, there. And you--and for all 
those reasons. Can you tell me, is there a specific reason that 
you know of why somehow the Lajes location might be attractive?
    General Breedlove. Senator, I think there are--there are 
opportunities there, because there is room that is being 
created by the downsizing of our mission there. There would 
have to be some changes made, as----
    Senator Inhofe. Yeah.
    General Breedlove.--I mentioned before--communications 
capabilities, et cetera.
    Senator Inhofe. Yeah. Well, I appreciate that.
    My time is expired, but I'm looking forward to the chip of 
the old block, Dan, coming in to be my intern. Looking forward 
to that.
    General Breedlove. Sir, thank you. I am--I will make sure 
that he is squared away. [Laughter.]
    Senator Inhofe [presiding]. Yeah. Thank you.
    Are there others who want to be heard?
    Senator King. I want to, as well.
    Senator Reed. I want to--just a brief comment.
    The Chairman and Senator Inhofe raised the issue of Lajes. 
This is an issue of very great importance. We've worked very 
closely with the Department of Defense. Any efforts that you 
could bring to bear to repurpose the facility, to provide 
continuing presence of a significant nature, would--I would 
appreciate personally, also, General. And again, thank you for 
your efforts.
    Senator Inhofe. Thank you very much.
    Senator King.
    Senator King. General Breedlove, this comment really isn't 
directed at you. I--and so, I don't want you to batten down the 
hatches, or pull over the canopy, I guess, in your case.
    This government spends over $70 billion a year on 
intelligence. And I hate hearing the word ``surprise'' in any 
hearing. And I get frustrated when I hear about your need for 
ISR. And I have the greatest respect for the people in the 
Intelligence Community. I work with them quite frequently as a 
member of the Intelligence Committee. But, I want you to think 
of yourself as a customer and suggest that you might talk to 
your colleagues in the other commands, because I think 
sometimes we forget who needs the intelligence. And you--you're 
the guy that needs it, you're the customer, and you need to 
advocate for the--for adequate intelligence resources, whether 
it's from the civilian Intelligence Community or the Department 
of Defense, which, as you know, has a very substantial 
intelligence budget. And I think this is something we need to 
continue to think, because--think about, because sometimes 
these agencies go on their own momentum and lose track of who 
needs the information and what they actually need.
    So, this really isn't a question, General, except a--more 
of a suggestion. But, I've got to tell you, when I think about 
$70 billion of the taxpayers' money, like I say, I don't like 
hearing the word ``surprise'' in any of these hearings.
    I appreciate your testimony.
    General Breedlove. Senator, at risk--can I--may I respond, 
just a little?
    Senator Inhofe. Yes, certainly.
    Senator King. Absolutely.
    General Breedlove. I want to pay the proper respect to 
decisions that have been made across the last 15 or 20 years, 
because I do believe we've been trying to make Russia a 
partner, and we have come into conflicts in Iraq, in 
Afghanistan, we've come into great issues in the northern part 
of Africa. So, I do not want to stand as critical to the 
decisions that have been made with the limited assets of 
intelligence. And I believe that our Intelligence Community has 
kept a great focus on--those things are very dear to us in 
Russia, if I can stop at that point.
    But, I think that you are absolutely correct, that now we 
see that there is a different problem, and we need to look at 
how we apportion and allocate. I already see, as I mentioned 
earlier, the Intelligence Community making clear decisions to 
reallocate analytical capabilities, et cetera. And I will be a 
customer, sir. I have been vocal, and I had it I my opening 
remarks, here, as you saw. I am beginning to advocate that we 
look at reapportionment of those assets, as well. So, I agree 
with your line of logic, Senator.
    Senator King. Minimal trust and lots of verification may be 
this answer.
    General Breedlove. Yes, sir.
    Senator King. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    Senator Wicker, anything else?
    Senator Wicker. No, thank you.
    Senator Inhofe. All right. We will adjourn this meeting. 
Thank you so much for your attention today and for your 
service.
    [Whereupon, at 11:41 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                    military assistance for ukraine
    1. Senator Jack Reed. At the April 30th hearing, in response to a 
question from Chairman McCain regarding military assistance for 
Ukraine, you stated that you support consideration of the use of 
``offensive'' weapons to change President Putin's decision calculus. 
For the record, please clarify what types of military assistance you 
believe should be considered.
    General Breedlove. [Deleted].

                                 [all]
</pre></body></html>
